<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-696]
[From the U.S. Government Printing Office]



                                                 S. Hrg. 107-696, Pt. 1
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 1

                            MILITARY POSTURE
                          SERVICE SECRETARIES
                         NUCLEAR POSTURE REVIEW
                    UNIFIED AND REGIONAL COMMANDERS
                             SERVICE CHIEFS
      ATOMIC ENERGY DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY

                               ----------                              

                FEBRUARY 5, 12, 14; MARCH 5, 7, 14, 2002




         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                              2003--Part 1

MILITARY POSTURE  b   SERVICE SECRETARIES  b   NUCLEAR POSTURE REVIEW  
  b   UNIFIED AND REGIONAL COMMANDERS  b   SERVICE CHIEFS  b   ATOMIC 
         ENERGY DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY



                                                 S. Hrg. 107-696, Pt. 1

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 1

                            MILITARY POSTURE
                          SERVICE SECRETARIES
                         NUCLEAR POSTURE REVIEW
                    UNIFIED AND REGIONAL COMMANDERS
                             SERVICE CHIEFS
      ATOMIC ENERGY DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY

                               __________

                FEBRUARY 5, 12, 14; MARCH 5, 7, 14, 2002


         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
43-526 PDF                 WASHINGTON DC:  2003
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

  


                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

              Judith A. Ansley, Republican Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                            Military Posture
                            february 5, 2002

                                                                   Page

Rumsfeld, Hon. Donald H., Secretary of Defense; Accompanied by 
  Hon. Dov S. Zakheim, Comptroller, Department of Defense........    10
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....    27

                          Service Secretaries
                           february 12, 2002

White, Hon. Thomas E., Secretary of the Army.....................   109
England, Hon. Gordon R., Secretary of the Navy...................   119
Roche, Hon. James G., Secretary of the Air Force.................   136

                 Results of the Nuclear Posture Review
                           february 14, 2002

Feith, Hon. Douglas J., Under Secretary of Defense for Policy....   320
Gordon, Gen. John A., USAF (Ret.), Administrator, National 
  Nuclear Security Administration................................   330
Ellis, Adm. James O., Jr., USN, Commander in Chief, United States 
  Strategic Command..............................................   341

    Unified and Regional Commanders on Their Military Strategy and 
                        Operational Requirements
                             march 5, 2002

Blair, Adm. Dennis C., USN, Commander in Chief, United States 
  Pacific Command................................................   399
Schwartz, Gen. Thomas A., USA, Commander in Chief, United Nations 
  Command, U.S. Forces Korea, Combined Forces Command Korea......   421
Speer, Maj. Gen. Gary D., USA, Acting Commander in Chief, United 
  States Southern Command........................................   441

                             Service Chiefs
                             march 7, 2002

Shinseki, Gen. Eric K., USA, Chief of Staff, United States Army..   509
Clark, Adm. Vernon E., USN, Chief of Naval Operations............   520
Jones, Gen. James L., USMC, Commandant of the Marine Corps.......   529
Jumper, Gen. John P., USAF, Chief of Staff, United States Air 
  Force..........................................................   544

      Atomic Energy Defense Activities of the Department of Energy
                             march 14, 2002

Abraham, Hon. Spencer, Secretary of Energy; Accompanied by Dr. 
  Everett Beckner, Deputy Administrator for Defense Programs, 
  National Nuclear Security Administration; and Ambassador Linton 
  F. Brooks, Deputy Administrator for Defense Nuclear Non-
  Proliferation, National Nuclear Security Administration........   688


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                       TUESDAY, FEBRUARY 5, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                            MILITARY POSTURE

    The committee met, pursuant to notice, at 9:32 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Byrd, 
Cleland, Landrieu, Reed, Akaka, Bill Nelson, E. Benjamin 
Nelson, Carnahan, Dayton, Bingaman, Warner, Inhofe, Santorum, 
Roberts, Allard, Hutchinson, Sessions, Collins, and Bunning.
    Committee staff members present: David S. Lyles, staff 
director; Christine E. Cowart, chief clerk; and Gabriella 
Eisen, nominations clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Madelyn R. Creedon, counsel; Kenneth 
M. Crosswait, professional staff member; Richard D. DeBobes, 
counsel; Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Michael J. McCord, professional staff 
member; Arun A. Seraphin, professional staff member; and 
Terence P. Szuplat, professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Charles W. Alsup, professional staff 
member; L. David Cherington, minority counsel; Edward H. Edens 
IV, professional staff member; Brian R. Green, professional 
staff member; William C. Greenwalt, professional staff member; 
Gary M. Hall, professional staff member; Carolyn M. Hanna, 
professional staff member; Mary Alice A. Hayward, professional 
staff member; Ambrose R. Hock, professional staff member; 
George W. Lauffer, professional staff member; Patricia L. 
Lewis, professional staff member; Thomas L. MacKenzie, 
professional staff member; Ann M. Mittermeyer, minority 
counsel; Suzanne K.L. Ross, research assistant; Joseph T. 
Sixeas, professional staff member; Carmen Leslie Stone, special 
assistant; Scott W. Stucky, minority counsel; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Dara R. Alpert, Daniel K. 
Goldsmith, and Thomas C. Moore.
    Committee members' assistants present: B.G. Wright, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Andrew Vanlandingham, assistant to Senator 
Cleland; Jeffrey S. Wiener, assistant to Senator Landrieu; 
Elizabeth King, assistant to Senator Reed; Davelyn Noelani 
Kalipi, assistant to Senator Akaka; William K. Sutey, assistant 
to Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Neal Orringer, assistant to Senator Carnahan; Brady 
King, assistant to Senator Dayton; Benjamin L. Cassidy, 
assistant to Senator Warner; Christopher J. Paul, assistant to 
Senator McCain; J. Mark Powers, assistant to Senator Inhofe; 
George M. Bernier III, assistant to Senator Santorum; Robert 
Alan McCurry and James Beauchamp, assistants to Senator 
Roberts; Michele A. Traficante, assistant to Senator 
Hutchinson; Arch Galloway II, assistant to Senator Sessions; 
Kristine Fauser, assistant to Senator Collins; and Derek 
Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning. The committee meets this 
morning to receive testimony from Secretary of Defense Donald 
Rumsfeld and Chairman of the Joint Chiefs of Staff General 
Richard Myers on the posture of United States Armed Forces and 
on the President's proposed defense program for fiscal years 
2003 to 2007.
    We all have known General Myers for many years, but this is 
his first opportunity to testify before the committee as 
Chairman of the Joint Chiefs of Staff. We give him a special 
welcome, and we welcome all of our witnesses today on this very 
important subject.
    As we meet today, America's Armed Forces continue to risk 
their lives in and around Afghanistan and, of course, in other 
places around the world. Some have been injured in Afghanistan, 
others have given their lives. This Nation is forever indebted 
to them and their families for their sacrifice.
    Senator Warner and I traveled to the Afghan theater to 
visit with our forces over Thanksgiving. Other members of the 
committee have since traveled to the region, and I know that my 
colleagues join me when I say that these men and women are 
nothing short of inspiring. They are performing a complex, 
challenging mission with extraordinary courage, skill, and 
determination. They know their mission and they know that 
America appreciates and supports them.
    The success of our forces has been remarkable. Osama bin 
Laden, if alive, is on the run and hiding. Many of his al Qaeda 
terrorists have been captured or killed. The Taliban regime 
that harbored them is no more. The Afghan people have been 
liberated from tyranny and an interim government is in place in 
Kabul. Nations around the world have been put on notice America 
is determined to protect itself from more attacks and to bring 
terrorists to justice.
    The excellence behind that success was not built in months. 
The success of our forces in Afghanistan is a tribute to our 
recruitment, training, and investments over many years, and it 
is a tribute to the leadership of the two witnesses that we 
have here today. Secretary Rumsfeld and General Myers, the 
country is grateful for your leadership of our Armed Forces 
during this dangerous time for our Nation.
    This committee will look carefully at the conduct of the 
operations in Afghanistan as we work with the Department of 
Defense to shape our forces for the future. On Thursday, the 
committee will receive testimony from the commander of 
Operation Enduring Freedom, General Tommy Franks, in both open 
and closed session.
    One of the lessons of this operation is that we enhance our 
security when we make common cause with other nations in 
pursuit of common goals. The path to a safer world and a more 
secure America rarely comes from a go-it-alone approach, but 
rather from working with allies, partners, and other nations, 
and from remaining engaged in critical regions of the world.
    Future success on the battlefield will also depend on 
success in managing the Department of Defense and in preparing 
our military for tomorrow's missions. The Department's budget 
request provides important funding for the war against 
terrorism and improves the quality of life of our forces and 
their families by increasing pay and benefits, especially 
health care. It includes funding for increased purchases of 
precision munitions and for unmanned aircraft, which proved so 
critical to the success of our military operations in 
Afghanistan.
    The administration is proposing the largest increase in 
military spending in two decades. This proposed increase comes 
without a comprehensive strategy or a detailed plan to guide 
that spending. The administration has not yet issued a national 
security strategy, a national military strategy, or a detailed 
plan for the size, structure, shape, and transformation of our 
military.
    We all appreciate the pressures on the Department while it 
conducts a war. At the same time, I trust that Secretary 
Rumsfeld agrees that an overall strategy and clear plans are 
essential if we are to make wise decisions on the future of our 
Armed Forces.
    We also continue to await a report on the steps that the 
Department plans to take to ensure that taxpayers' money is 
spent wisely. The administration is requesting $48 billion 
above the fiscal year 2002 level. In his last testimony before 
this committee 7 months ago, Secretary Rumsfeld candidly 
stated: ``I have never seen an organization that could not 
operate at something like 5 percent more efficiency if it had 
the freedom to do so.'' He went on to say that the taxpayers 
have a right to demand that we spend their money wisely, and 
further said that he could not tell the American people that we 
are doing that.
    The committee will be interested to hear how much progress 
has been made on this front. I know that the Secretary is 
active on many fronts. Waging a war is number one, and some of 
these other needs and considerations have to be delayed. But I 
know as soon as the Secretary is able to address these issues 
that he is going to do so while carrying on the other more 
pressing and more comprehensive responsibilities.
    Finally, we look forward to the Department's plan for 
carrying out what the Quadrennial Defense Review (QDR) called 
the military's highest priority: homeland security. A new 
combatant command will apparently coordinate the Department's 
role in homeland security. Congress awaits the decision on how 
the Pentagon intends to organize itself to oversee this 
mission. General Myers testified at his confirmation hearing in 
September that ``this whole issue of homeland defense or 
homeland security needs a lot more thought.'' The committee 
looks forward to the specifics which Secretary Rumsfeld and 
General Myers could share with us this morning on that 
important mission.
    America's Armed Forces are performing admirably in their 
fight against al Qaeda. This committee will do all in its 
power, as it has done in years before, to ensure that our 
forces have the resources, tools, and technology they need to 
prevail in their fights. We are determined to preserve a high 
quality of life for our forces and their families, sustain 
readiness, and transform the Armed Forces to meet the threats 
and challenges of tomorrow. At this point, I would like to 
submit the statements of Senators Akaka and Landrieu.
    [The prepared statements of Senators Landrieu and Akaka 
follow:]

             Prepared Statement by Senator Mary L. Landrieu

    Mr. Chairman, thank you for holding this invaluable hearing to 
discuss the Department of Defense's budget posture for fiscal year 
2003, the future spending priorities for our Armed Forces beyond 2003, 
and, of course, America's response to the terrorist attacks on U.S. 
soil.
    Since September 11, Secretary Donald Rumsfeld has shown deft 
leadership in guiding his department in the war efforts against those 
who made a poor decision when they targeted America for their misguided 
wrath. Secretary Rumsfeld's response to the terrorist attacks has been 
measured and wholly appropriate. He moved deliberately and with great 
scrutiny to develop a plan that would increase security. The Secretary 
has crafted a mission for our Armed Forces and the Nation that will 
root out terrorist cells around the world and bring them to justice.
    General Myers, you are the embodiment of the fact that those who 
serve in our Nation's military are America's best and brightest. Your 
guidance and confidence lead every soldier, sailor, airman, and marine 
to be expertly trained, confident in themselves, and confident in the 
person next to them. Americans can sleep better tonight knowing that 
the Joint Chiefs, the commanders in chiefs (CINCs), and other uniformed 
leaders, with you in the cockpit, are working in unison to create the 
best methods to defend our shores, ensure liberty, and defeat our 
enemies.
    I want to paraphrase Winston Churchill's words of caution, as we 
are only at the end of the beginning of this war, but the war is 
progressing well. In 4 short months since we attacked al Qaeda and 
Taliban forces in Afghanistan, those forces have fled and are now in 
disarray. In a formerly lawless land, an interim government has been 
established, music is playing in the streets, and despair and 
destitution have been replaced with hope. Again, our mission is far 
from over, as Osama bin Laden's presence is unknown and al Qaeda cells 
exist in 30 or more other countries. But, we will provide justice for 
those who died as a result of September 11 bombings, and we will win 
the war on terrorism.
    Yesterday, President Bush officially released his budget for fiscal 
year 2003. I support the President's call for an expanded and more 
robust defense budget. America is at war, and we must spend whatever is 
necessary, yet prudent, to protect and secure our citizens and allies 
and thwart our enemies. As I stated previously, I concur with the 
President that the war on terrorism will be a long war. It will not end 
in Afghanistan. Rather, America must be prepared to fight this war for 
years to come in new and different ways.
    Nevertheless, while I applaud the President's goals and his 
tremendous determination and perseverance as our commander in chief, I 
am concerned that the President's budget does not most effectively and 
efficiently provide for the defense of our Nation, our Constitution, 
and those in uniform who defend our Nation and constitution.
    (1) Quality of life and military construction: While the 
President's budget makes important strides to improve housing on our 
military bases and gives military personnel a 4.1 percent pay raise, 
the military construction budget actually represents a $1.6 billion 
decrease in funding in fiscal year 2003 versus fiscal year 2002. This 
decrease from $10.6 billion to $9 billion is disheartening in light of 
the major increases President Bush has endorsed. The budget proposal 
cautions against wide-spread repairs to bases that could be closed in 
the next Base Realignment and Closure (BRAC) round in fiscal year 2005. 
There is value in that statement. Yet, we must make necessary repairs 
to best provide for the men and women in our Armed Forces. We cannot 
jeopardize the quality of life of our troops.
    Despite our superior technology, wars are and always will be won 
with people. The men and women in our Armed Forces are our most vital 
asset, and we must dedicate critical resources to them. In fighting a 
war, a military is only as strong as its weakest link. Soldiers with 
low morale are poor soldiers. The first step toward creating a sound 
and lethal fighter is to provide him or her with the necessary tools 
and support to grow, flourish, and be confident. Those tools include 
training facilities that are modern, providing a sound education and 
opportunity for the service man or woman's spouse and children, 
providing comfortable housing, and providing quality healthcare to the 
service member and his or her family.
    We cannot maintain our greatness if we are not committed to the 
upkeep of our base communities and robust investment in infrastructure. 
As General Myers has stated, it would currently take 100 years to make 
the necessary re-investments in infrastructure to rehabilitate our 
bases. To wait a century is unfathomable and unacceptable. We cannot 
house our troops in quonset huts for another 100 years. If we do, our 
superiority as the pre-eminent military in the world will be 
jeopardized and our retention and recruitment rates will suffer 
mightily. It is inexcusable for the administration's commitment to 
quality of life to decrease at a time when our troops should know that 
their government places them in high esteem.
    (2) DOD must commit to defending the homeland. Prior to World War 
II, America rarely involved itself in international affairs, and the 
military was primarily concerned with defending our borders from enemy 
attack. Since World War II, our military has expanded abroad, and our 
military now has a reach on every continent. Along the way, the focus 
became not to defend America at home, but to defend her abroad. I 
support DOD's need for a global reach and presence, but I fear that 
along the way, DOD has grown less concerned with the defense of a 
direct attack on American soil and less concerned about actively 
participating in homeland defense.
    As this reluctance has grown, the American people are more desirous 
than ever to see the Department of Defense re-establish itself as 
America's guardian at home, not within Europe or Asia. Since September 
11, DOD has grappled with how to best defend the 50 states, but what 
seems best to DOD as a matter of ease and status quo does not seem best 
to providing a definitive defense and counter-attack to future 
invasions at home.
    In furtherance, I am pleased to see President Bush commits $9.3 
billion for anti-terrorism efforts, but the meager $700 million for 
counter-terrorism only indicates that DOD is not interested in 
involving our military at home. National Guard units are well-trained 
and can respond to an attack, but they cannot provide the muscle or the 
sense of security that the Army, Air Force, Navy, and Marines can 
deliver. Our ultimate responsibility is at home. DOD must not be 
constrained by the notions of ``Posse Comitatus.'' This antiquated law 
must not stand in the way of providing our Nation with the best self-
defense.
    I recognize that plans and reforms to the way our military 
positions itself within the United States cannot materialize overnight. 
However, such plans must materialize and not fall prey to the status 
quo. I maintain hope that modifications of the Unified Command Plan 
will establish a definitive chain of command responsible for homeland 
security and defense. No idea should be dismissed, including the 
creation of a CINC for homeland defense. Any new command or revised 
chain of command must have all the necessary resources and manpower 
required to defend against and defeat invaders. American citizens 
expect and deserve such protections.
    (3) We must make a commitment to science and technology. The 
Department's science and technology programs play a key role in our 
efforts to transform our military to meet the emerging threats of the 
21st century. The Quadrennial Defense Review, which was published last 
year, stated that DOD must invest 3 percent of its funding toward 
science in technology. The fiscal year 2003 defense budget calls for an 
11 percent increase in expenditures, yet the science and technology 
budget did not receive the funding supported by the QDR. Rather, the 
science and technology budget was cut by nearly $200 million. In fact, 
this year's budget falls $1.4 billion short of the 3 percent goal. If 
the QDR is meant to be a roadmap for the Department of Defense, it 
should not be so quickly dismissed by those who authored it.
    True transformation--a stated goal in the QDR and in the 
President's budget--will come through the advancement of DOD science 
and technology programs, so, in essence, transformation has been dealt 
a blow by the very same budget proposal. The research and industry 
supported by the science and technology budget enable Americans to 
quickly bring their innovations into the battlefield. Such innovations 
save lives In the past, science and technology funding has advanced 
warfighting and peacemaking at break-neck speed. As a result, our 
troops now have biological sensors, precision weapons, unmanned aerial 
vehicles (UAVs) and more at their disposal in Afghanistan. Surely our 
casualties would have mounted without them. Yet, the dedication to 
science and technology is absent from the President's budget. I hope 
this departure from the goal of transformation within the President's 
budget proposal does not pervade the congressional review process of 
the budget or harm our service members.
    I am proud of our the men and women of our Armed Forces for their 
response to September 11 and the vigor in which they have fought the 
war on terrorism. No one would have expected any less because they have 
such a fine leader in General Myers. I am also grateful for the 
leadership shown by President Bush, Secretary Rumsfeld, and the entire 
Cabinet. President Bush's budget proposal is a good basis from which to 
fight the war on terrorism, and I agree with the document in large 
part, including a call to increase spending for fiscal year 2003. 
Nevertheless, I think there are some fundamental areas of our Nation's 
defense that are not adequately addressed in this budget proposal. I 
look forward to working with the President, Secretary Rumsfeld, and 
General Myers to best provide for our Nation's defense during the 
coming year.
                                 ______
                                 
             Prepared Statement by Senator Daniel K. Akaka

    Thank you, Mr. Chairman. I add my welcome to Secretary Rumsfeld and 
Chairman Myers this morning, and thank them for taking the time to 
discuss the fiscal year 2003 budget request with this committee. I am 
pleased to see the continued emphasis on quality of life for military 
members as reflected in the military construction amounts in the budget 
request.
    I support the administration's priority on improving the 
warfighting readiness of our forces through increased training 
resources and the enhancement of joint training.
    I remain concerned, however, about our ability to maintain the 
superior readiness of the United States military in light of the 
increased Operations Tempo (OPTEMPO) and potential expansion of the war 
on terrorism.
    I am also concerned about the administration's decision to 
eliminate pay parity between the Federal workforce and the military. As 
we are reminded of how indistinguishable personal safety is from 
national security, it is critical to remember that human expertise is 
the most important national security resource we have. This expertise 
is important to the homeland security functions of both the military 
and the Federal Government.
    I look forward to working with the administration to dedicate the 
necessary resources to ensure national security, maintain the United 
States military superiority and readiness, and enhance our homeland 
security.

    Chairman Levin. I will now turn to my partner, Secretary--
``Secretary''--Senator Warner.
    Senator Warner. Years ago.
    Chairman Levin. And proud of it.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Mr. Chairman, that was an excellent opening 
statement and it parallels in large measure the statement that 
I was going to deliver. Therefore, to save time, I will ask to 
put my statement in the record and just make a few heartfelt 
remarks.
    First, Mr. Secretary, we are privileged to have your lovely 
wife with us this morning. I know she does not wish to be 
singled out, but she does exemplify the spouses who stand 
behind the men and women of the Armed Forces and indeed those 
in the civilian service throughout the Department. It has been 
a tremendous and arduous task for all of you here, particularly 
since September 11, and I wish to commend her and all in like 
positions.
    Mr. Secretary, as you and I reflected the other day, we go 
back a few years together and have seen quite a few incidents 
in this country. But in my judgment, not since World War II, 
when this Nation was united like never before in its history, 
has this Nation been more strongly united behind its President 
and most particularly, those who proudly wear the uniform of 
our Nation. In large measure that is because of the leadership 
of the President, yourselves, Mr. Secretary and General Myers, 
and those in uniform under your supervision.
    This country is going to move forward and carry out both 
here at home and abroad, the orders of the President to do 
everything we can to eliminate the threat posed by terrorism, 
not only for the United States, but the whole world.
    I wish to commend you, Mr. Secretary, for the manner in 
which you have made yourself available to the Nation's public, 
largely through the press, and your visits, both abroad to the 
troops and here at home to military installations.
    No matter how much we read and observe on television, your 
own means to communicate frankly, honestly, and bluntly, with a 
sense of humor here and there, is terribly important. Those of 
us who remember Vietnam recall that the home front, for some 
very valid reasons, was not unified behind the servicemen and 
women, and it was exceedingly difficult for those in uniform to 
carry out their missions.
    The chairman mentioned the budget and we shall review the 
budget request. I talked yesterday at lunch with you about it 
in some detail. It is the largest increase in defense spending 
since the early 1980s, and as I said yesterday, it is crucial 
to preserve our democracy. We have no choice as a Nation but to 
move forward and support our President.
    I frankly think, Mr. Secretary, you are going to see strong 
bipartisan support for this budget. We have to make certain 
that, as you have allocated to your colleague Tom Ridge the 
responsibilities of homeland defense, that budget items are 
properly allocated between the two accounts. As you told us 
yesterday at lunch, you, together with the Director of the 
Central Intelligence Agency, have worked together as partners 
in putting this budget together.
    We also have the item of some $10 billion in the budget, 
which I think is a wise insertion because it gives the 
President and yourself the flexibility to move expeditiously if 
new challenges or new threats face our Nation. Congress has, 
and will, continue its oversight. As I said yesterday, I think 
we will have to fine-tune some means by which Congress reviews, 
perhaps contemporaneously, how you are going to make those 
particular expenditures in that budget item.
    Also, I go back to a quote by our President from September 
1999 at the Citadel: ``We must as a Nation renew the bond of 
trust between the American people and the American military, . 
. . defend the American people against missiles and terror; and 
. . . begin creating the military of the next century.''
    In my judgment, the budget request before us carries out 
that commitment he made to this Nation well before September 
11. It shows he was looking into the future and making plans 
for what none of us at that time or even now can fully 
comprehend--the type of threat that struck this Nation on 
September 11.
    I again commend the President for his leadership. Yes, his 
polls are strong now, but situations change. But what will not 
change, and he has repeatedly told this Congress, is his strong 
commitment to carry forward this mission and deter terrorism 
against this country. There is no timetable in this war on 
terrorism. Both of you have repeatedly reminded the American 
people of that and I think they are prepared to accept that as 
we move forward.
    Lastly, Mr. Secretary, as I look at this budget and as I 
look at military budgets worldwide, particularly those of our 
valued allies in NATO, they simply are not moving apace with 
their expenditures, calling on their citizens to reach into 
their pockets and providing for their respective Armed Forces 
in the same way that our President and I think this Congress 
will call on the citizens of this country.
    I am not sure what the solution is, but you and I and 
others have the burden to explain to the American people: Yes, 
we are the world leader, but terrorism is common to all of us, 
and there should be a greater sharing of the financial burdens 
and the hardships as we move forward in this unified battle 
against terrorism. I hope you will touch on that in your 
comments to this committee.
    With that, I conclude my brief remarks, and also saying 
that I strongly support the concept that we need a CINC for 
homeland defense, General. I am not sure just how and when you 
will go about formalizing that. You have the authority under 
existing law, but it may be well advised to involve Congress, 
because in my consultation with the governors they want to 
fully support our President on homeland defense, but they are 
concerned as to exactly how these funds, considerable sums, are 
to be expended and also the relationship between their guard 
and the active forces that will be augmented to bring about 
this Homeland Defense Command, the CINC for America, referred 
to now as CINCNORTH.
    I think the greater involvement in Congress is going to 
strengthen and also, frankly, showcase the importance of how 
the President and yourselves are moving out to defend us here 
at home. He mentioned in his Citadel speech in September 1999 
the need to strengthen homeland defense, again showing our 
President's wisdom in looking into the future and to the 
threats.
    Good luck, and my very best to the men and women of the 
Armed Forces under your command.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Thank you, Mr. Chairman. I join you in welcoming Secretary Rumsfeld 
and General Myers.
    Secretary Rumsfeld, we had great confidence in confirming you as 
Secretary of Defense. I want to add my personal thanks for your 
remarkable performance as our ``secretary of war'' in this important, 
all-out global war on terrorism.
    General Myers, I welcome you to your first posture hearing. You are 
no stranger to this committee, and we look forward to working with you 
to win this war, further improve our Armed Forces, and prepare them for 
the future.
    I commend President Bush for submitting a budget that continues the 
commitment he made to our service men and women, past and present, to 
their families, and to all American citizens to have the best trained, 
best equipped, and most respected military in the world. As then 
Governor Bush stated at the Citadel in September 1999, we must, ``. . . 
renew the bond of trust between the American people and the American 
military; . . . defend the American people against missiles and terror; 
and, . . . begin creating the military of the next century.'' The 
budget request before us advances these worthy goals.
    The $48 billion increase in defense spending contained in the 
request represents the largest increase in defense spending since the 
early years of the Reagan administration. Those increases in the early 
1980s were crucial to winning the Cold War. The increases now will be 
crucial to winning the war on terrorism and preventing such evil forces 
from threatening us again.
    President Bush has properly focused this budget on protecting the 
United States, our forces deployed overseas, and our allies from 
attack--whatever the source--by doubling funding for combatting 
terrorism, by continuing robust funding for missile defense, and by 
substantially increasing funding for cutting edge technologies, such as 
unmanned vehicles.
    As we meet this morning, our Nation is at war; at war against a 
global network of terrorism that so brutally attacked this nation on 
September 11. While many of us had predicted the emergence of new and 
nontraditional threats, we were all rudely shaken by the reality and 
ruthlessness of the attacks we faced on September 11.
    Far from breaking the spirit of this great Nation, the terrorist 
attacks of September 11 have rallied the nation and, indeed, the entire 
civilized world to fight and defeat the scourge of terrorism which 
threatens us all. In the 5 months since we were attacked, our Nation 
has accomplished a lot. Al Qaida is fractured, and many of its members 
are on the run. The Taliban regime in Afghanistan that provided a safe 
haven for al Qaeda has been destroyed. Afghanistan has been liberated.
    The men and women of the U.S. military--together with those of our 
coalition partners--are to be commended for their superb performance in 
this war on terrorism. You both are to be commended for the leadership 
you have provided.
    As we begin our review of the President's budget request, we must 
be ever mindful of the soldiers, sailors, airmen, and marines on the 
front lines. We must assure the American people and our men and women 
in uniform that we are doing everything possible to help win this war 
on terrorism, provide our armed forces the resources they need, and 
fully prepare them to deal with future threats.
    Winning the war on terrorism and protecting our Nation is not just 
about destroying the Taliban and al Qaeda in Afghanistan. It is a 
global effort that must be prosecuted and sustained until the threat is 
destroyed. We must track down terrorists and those who harbor them. It 
is a war we must win.
    I am encouraged by what I have seen so far with regard to the 
budget before us. Your continued commitment to our uniformed personnel 
and their families through pay raises, quality of life and 
infrastructure improvements is essential. The priority you have given 
to combating terrorism at home and abroad is commendable. Your focus on 
transforming our Armed Forces to meet the expected and unexpected 
threats of this new century is critical to our national security.
    There is consensus in Congress, in the administration, and among 
the American people that significantly increased investment in defense 
and national security is necessary and prudent. September 11 was a 
``wake-up call'' for all of us. As President Bush reminded us last 
week, ``the price of preparedness is high, but the price of 
indifference can be catastrophic.''
    Thank you.

    Senator Warner. At this point, I would like to submit the 
written statement of Senator Strom Thurmond.
    [The prepared statement of Senator Thurmond follows:]

              Prepared Statement by Senator Strom Thurmond

    Thank you, Mr. Chairman,
    Mr. Chairman, as the Armed Services Committee begins the review of 
the fiscal year 2003 defense budget, I want to congratulate you and the 
ranking member, Senator Warner, on your leadership during the last 
session. The change in the majority was seamless and, more important, 
the tradition of committee's bipartisan approach to national security 
lives on. As I begin my 43rd and final year on the committee, I 
continue to believe that this bipartisan approach to national security 
has been a major contributor to the strength of our military forces.
    Secretary Rumsfeld and General Myers, welcome. I want to echo the 
comments of my colleagues on your leadership of the Department of 
Defense and our military services. Since the horrendous events of 
September 11, you have confronted an entirely new challenge. A 
challenge that no one could have imagined before that tragic date. It 
was your leadership that brought about the swift results in 
Afghanistan, more important, it was your leadership that brought a new 
approach to our defense strategy and the transformation of our Armed 
Forces into focus. I know these times have been both a professional and 
personal challenges. I thank you for your dedication and leadership and 
look forward to the changes you will make within the Department of 
Defense.
    Mr. Chairman, the President's budget request for fiscal year 2003 
is the largest increase to the defense budget since 1981. It represents 
nearly a 30 percent increase over the 1998 defense budget which was the 
first major increase to the defense budget since the end of the Cold 
War. The proposed $379 billion for fiscal year 2003 is a huge 
investment in defense and in my judgement one that is long overdue. 
Although I support the funding level, I am concerned about some 
specifics that I have read and heard in the media. It appears that we 
are still dedicating significant resources toward procuring legacy type 
systems. I hope that once we receive the details on the budget this 
perception is wrong and that there is a focus on developing the 
technology and systems that will equip our soldiers, sailors, airmen, 
and marines with the capability they need to fight the battles of the 
future.
    Although equipping our forces is critical, we must not neglect the 
quality of life of our military personnel and their families. Last 
year's budget provided a significant increase in military construction 
funding, I am disappointed that this year's budget does not keep pace 
with that level of funding. The living and working conditions that we 
provide to our men and women in uniform are as critical to their war 
fighting capability and morale as the latest weapon systems. I urge the 
committee to carefully review the proposed construction program and 
make the changes required to ensure it meets the critical needs of our 
personnel.
    Mr. Chairman, I look forward to another productive year and a 
continued close relationship with our two distinguished witnesses. We 
all have a common goal of ensuring the security of our Nation and 
nothing must interfere with achieving that aim.
    Before I close, I want to pay tribute to our Armed Forces and the 
men and women who daily risk their lives in the service of our Nation. 
I especially want to express my condolences to the families of the men 
and women who have made the ultimate sacrifice in the service of our 
Nation. God bless them all.
    Thank you, Mr. Chairman.

    Chairman Levin. Thank you, Senator Warner.
    There is going to be a vote at 10:30. My plan is that we 
will continue the hearing right through that vote, and 
hopefully enough of us can vote early so we can get back in 
time to pick up. After the opening statements of Secretary 
Rumsfeld and General Myers, there will be a 6 minute round of 
questions for each Senator on the basis of the early bird rule.
    Again, we give Secretary Rumsfeld, General Myers, and Dr. 
Zakheim a very warm welcome. Secretary Rumsfeld.

  STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF DEFENSE; 
ACCOMPANIED BY HON. DOV S. ZAKHEIM, COMPTROLLER, DEPARTMENT OF 
                            DEFENSE

    Secretary Rumsfeld. Thank you very much, Mr. Chairman and 
members of the committee. I certainly want to join the chairman 
and Senator Warner in expressing our appreciation to the men 
and women in the Armed Forces. They are, as you said, doing an 
absolutely superb job. You cannot travel anywhere in the world 
or in this country and visit with them and not come away with a 
great deal of energy, pride, and confidence.
    I also want to say that from the first day on September 11 
when Senators Levin and Warner arrived at the Pentagon, we 
recognized the very strong bipartisan support that this 
committee has given the Department of Defense. We recognize it, 
appreciate it, and value it. Thank you.
    I have submitted a fairly lengthy statement for the record, 
which I will not read through. I have some other remarks that I 
would like to deliver at this point.
    Chairman Levin. Your statement will be made part of the 
record.
    Secretary Rumsfeld. Thank you, sir.
    The events of September 11 shattered many myths, including 
the illusion that the post-Cold War world would be one of 
extended peace, where America could stand down, cut defense 
spending, and focus our resources and attention on domestic and 
personal priorities. We learned on September 11, that that 
really is not the case.
    When the Cold War ended, a defense drawdown took place that 
went too far. In my view it overshot the mark. Many on this 
committee of both parties fought an uphill battle to provide 
the resources the Department needed. With the benefit of 20-20 
hindsight, the reality is that our country spent much of the 
1990s living off the investments that the American people made 
during the 1980s.
    Through the prism of September 11 we can now see that our 
challenge today is not simply to fix the underfunding of the 
past, but it is to accomplish several difficult missions at 
once: win the worldwide war on terrorism; restore capabilities 
by making delayed investments in procurement, people, and 
modernization; and prepare for the future by transforming the 
defense establishment to fit the 21st century.
    There are some who say this may be too much to ask, that 
any one of these challenges is daunting and tackling them all 
at once is not a good idea. I disagree. I think we can do it 
and I think we must do it.
    Our adversaries are watching what we do. They are studying 
how we have been successfully attacked, how we are responding, 
and how we may be vulnerable in the future. We stand still at 
our peril.
    For these reasons, President Bush has sent to Congress a 
2003 defense budget request of $379 billion, a $48 billion 
increase from the 2002 budget. He includes $19.4 billion for 
the war on terrorism; a $10 billion contingency fund; and $9.4 
billion for a variety of programs related to the war, a good 
portion of which goes to force protection here in the United 
States, which is at a totally different level than it has 
previously been.
    That is a great deal of hard-earned tax dollars. But let me 
try to put it in context. Last year, before this committee, I 
said that a decade of overuse and underfunding had left us in a 
hole sufficiently deep that the President's 2002 budget, which 
also had a significant increase, still left shortfalls in a 
number of critical areas, including infrastructure, 
procurement, and operations and maintenance. Moreover, I 
advised this committee that just to keep the Department going 
in 2003 on a straight line basis with no improvements, simply 
covering the costs of inflation and realistic budgeting, we 
estimated that the DOD would require a budget of $347 billion, 
an $18.3 billion increase over 2002.
    Well, as high as it may have sounded then, it turned out 
that that estimate was a bit low. If you combine the cost of 
inflation plus military health care, retirement benefits, pay 
increase, realistic estimates for weapons costs, and readiness 
and depot maintenance, then the correct figure just to have a 
straight line over 2002 is $359.4 billion.
    When one adds that to the $19.4 billion in this budget for 
the war on terrorism, the total comes to $378 billion out of a 
request of $379 billion. That is a significant investment. We 
are investing it differently. We are accelerating programs we 
consider transformational and made program adjustments to 
achieve something in the neighborhood of $9.3 billion in 
proposed savings and adjustments to be used for transformation 
and other pressing requirements.
    At the same time, we are fully funding those areas we must 
in order to continue reversing years of underinvestment in 
people, readiness, and modernization.
    The 2003 budget request before you was guided by the result 
of last year's defense strategy review. Given the questions 
that some people posed last year, I must say that it is really 
quite remarkable what the people in the Department of Defense 
have accomplished. In 1 year, 2001, the Department has 
developed and adopted a new defense strategy; replaced the 
decade-old two major theater war construct for sizing our 
forces with a new approach much more appropriate to the 21st 
century; and adopted a new approach for balancing war risks, as 
opposed to people risks, against the risks of not modernizing 
sufficiently. It is not an easy thing to do because we are 
comparing apples and oranges, but the Department has worked 
mightily to try to do a much better job than has been the case 
in the past--reorganized and revitalized the missile defense 
research and testing program.
    We have reorganized the Department to better focus on space 
capabilities. Because of the nuclear posture review mandate 
adopted by Congress, we have adopted a new approach to 
strategic deterrence that increases our security while allowing 
deep reductions in strategic nuclear weapons. As you pointed 
out, Mr. Chairman and Senator Warner, within a week or so we 
will present to the President a new unified command structure.
    All this was done with about half of our leadership being 
new during the first half of the year and while conducting the 
war on terrorism. That is not bad for a defense establishment, 
military and civilian, public and private, executive and 
legislative, that has a reputation for being impossibly 
resistant to change. I think that is quite a year.
    When I look back on that challenging year, I feel we made 
good progress, thanks to the superb work of the men and women 
in the Department who have put forth an enormous effort.
    In the course of the defense reviews, we identified six key 
transformational goals around which we will focus our defense 
strategy. They are: First, to protect the homeland and forces 
overseas;
    Second, to project and sustain power in distant theaters;
    Third, to deny enemy sanctuary;
    Fourth, to protect information networks from attack;
    Fifth, to use information technology to link up U.S. forces 
so that they can truly fight jointly; and
    Sixth, to maintain unhindered access to space and to 
protect U.S. space capabilities from enemy attack.
    The President's 2003 budget requests advances in each of 
these six transformational goals. With respect to protecting 
bases of operation and homeland defense, the President's budget 
requests a number of programs, including a refocused missile 
defense research, development, and testing program and the 
development of biological defenses. It requests about $8 
billion for programs to support defense of the homeland and 
forces overseas, $45.8 billion over the 5-year Future Years 
Defense Plan (FYDP), which is an increase of about 47 percent.
    Denying the enemy sanctuary: This budget requests $3.2 
billion for programs to support this objective and $16.9 
billion over the 5 years, an increase of 157 percent.
    Projecting power in denied areas: Today in many cases U.S. 
forces depend on vulnerable foreign bases to operate, creating 
incentives for adversaries to develop access denial 
capabilities to keep us out. The 2003 budget requests $7.4 
billion for programs to help ensure the ability to project 
power over long distances and $53 billion over the 5-year 
period, an increase of 21 percent.
    Leveraging information technology: A key transformational 
goal is to leverage advances in information to seamlessly 
connect U.S. forces in the air and on the sea and ground. The 
President's budget requests $2.5 billion for programs to 
support this objective or $18.6 billion over the 5 years, an 
increase of 125 percent.
    Conducting effective information operations: As information 
warfare takes an increasingly significant role in modern war, 
our ability to protect our networks and to attack and cripple 
those of an adversary will be critical. The President's 2003 
budget requests $174 million for programs to support this 
objective and $773 million over the 5-year period, an increase 
of 28 percent.
    Last, strengthening space operations: From the dawn of 
time, a key to victory on the battlefield has been to control 
the high ground. Space is indeed the ultimate high ground. The 
2003 budget requests about $200 million to strengthen space 
capabilities and $1.5 billion over the 5-year period, an 
increase of 145 percent.
    Of course, we cannot transform the military in 1 year or 
even in a decade, nor would it be wise to do so. Rather, we 
intend to transform some relatively modest percentage of the 
force, turning it into the leading edge of change that will 
over time lead the rest of the force into the 21st century.
    Moreover, investments in transformation cannot be measured 
in numbers alone. Transformation is not about weapons systems 
particularly. It is more about changing how we think about war. 
All the high-tech weapons in the world will not transform our 
Armed Forces unless we transform the way we think, train, 
exercise, and fight.
    Modernization, procurement, and readiness: As we have 
transformed for the threats we face, we also have to prepare 
our forces for conflicts that we may have to fight during this 
decade by improving readiness, increasing procurement, and 
selectively modernizing. To deal with the backlog that resulted 
from the procurement holiday of the last decade, we have 
requested some $68.7 billion for procurement in the 2003 
budget. That is an increase of about 10 percent over 2002. 
Procurement is projected to grow steadily over the 5-year 
defense program to more than $98 billion in 2007, and it will 
increasingly fund transformation programs over the period of 
time.
    We have requested $150 billion for the operations and 
maintenance account in fiscal year 2003, including substantial 
funding for the so-called readiness accounts of tank miles, 
steaming days, and flying hours for the services.
    If we are to win the war on terror and prepare for 
tomorrow, we have to take care of the Department's greatest 
asset, the men and women in uniform. We are competing with the 
private sector for the best young people our Nation offers, and 
we cannot simply count on their patriotism and willingness to 
sacrifice alone to attract them. That is why the President's 
2003 budget requests some $94 billion in military pay and 
allowances, including a $1.9 billion across the board 4.1 
percent pay increase; $300 million for targeted pay raises for 
the mid-grade officers and non-commissioned officers (NCOs); 
$4.2 billion to improve military housing, putting the 
Department on track to eliminate most substandard housing by 
2007; funds to lower out-of-pocket housing costs for those 
living off base from 11.3 percent to 7.5 percent in 2003, 
putting us on the track to eliminate out-of-pocket housing 
costs for the men and women in uniform by 2005; and $10 billion 
for education, training, and recruitment, as well as a 
breathtaking $22.8 billion to cover the realistic costs of 
military health care.
    Smart weapons are worthless unless they are in the hands of 
smart, well-trained, highly-motivated soldiers, sailors, 
airmen, and marines. While this budget includes proposed 
increases in a number of areas, it also includes a number of 
savings. We are committed to pursuing what works and stopping 
what does not. For example, we terminated the Navy Area Missile 
Defense program because of delays, poor performance, and cost 
overruns. We are proceeding towards a goal of a 15 percent 
average reduction in headquarters staff and the Senior 
Executive Council of the Department is seeking additional ways 
to ensure that we manage the Department more efficiently.
    We need to save more, but two things make it difficult. 
First was the decision not to make deep cuts in manpower. Now, 
in the midst of a war on terror whose final dimension is still 
unknown, we do not believe is the time to be cutting manpower. 
We now have 60,000 Guard and Reserves that have been called up 
and another 10,000 who have been held in the service, for a 
total of 70,000 people.
    It is interesting to note that the largest theater for the 
United States is not Afghanistan today; it is Salt Lake City 
and the environs where we have people there for the Olympics. 
We literally have more people in the area around Salt Lake City 
for the Olympics than we do in Afghanistan.
    Second, Congress' decision to put off base closures for a 
couple of years means that the Department will have to continue 
supporting between 20 to 25 percent more infrastructure than we 
believe is needed for the force. I know this committee was 
forceful in urging base closing and we appreciate that. It is a 
fact, however, that with the 2-year delay we have to continue 
providing force protection for the bases even though we believe 
a substantial number of the bases, something in the 
neighborhood of 20 to 23 percent, are not currently needed.
    I have another concern, Mr. Chairman, and it is a hard 
thing to specify because no one congressional earmark is 
critical. Each one looks reasonable. But when one looks at the 
changes made, some 2022 individual programs and line items, the 
effect of it overall means that a fairly substantial portion of 
the budget that we proposed last year was changed. I think it 
is something like 13 percent of all research, development, test 
and evaluation programs, some 995 changes, 8.6 percent of all 
the procurement programs--436 individual changes, and 15 
percent of all military construction, or 146 changes.
    Congress clearly has the constitutional right to do that. 
There is no question about that. Any one of these individual 
earmarks when looked at seems very reasonable. I do think, 
however, it is important for all of us to step back and look at 
them in the aggregate and ask what the effect of that is year 
after year and if that is really the way we feel it is best to 
conduct our business.
    After counting the costs of keeping the Department moving 
on a straight line and the costs of the war and the savings 
generated, we are left with about $9.8 billion, so-called free 
money to invest in transformational activities. It is a lot of 
money, but it requires us to make a lot of difficult tradeoffs.
    Just to get it up on the table before we start, we were not 
able to meet our objective of lowering the average age of 
tactical aircraft. We are investing in unmanned aircraft, the 
F-22, and the Joint Strike Fighter, which require significant 
up-front investments, and will be coming on the line in future 
years. But in the current year, the average age of aircraft 
will not be declining as we had hoped.
    Second, while the budget funds faster growth in science and 
technology, we were not able to meet our goal of 3 percent of 
the overall budget, though we are slightly higher than the 
President's request from 2002.
    Third and most importantly, we clearly were not able to 
fund shipbuilding at a replacement rate in 2003, and we must do 
that in the future. As with every Department, the Department of 
the Navy had to make choices, and I know they will be up here 
next week to discuss the choices they made where they decided 
to place more money in operations and maintenance and other 
accounts than in shipbuilding.
    The fiscal year 2003 shipbuilding budget is $8.6 billion. 
It procures five ships. This is for several reasons. First, 
there are a number of problems, including contractor problems. 
But also, past shipbuilding cost estimates were off and they 
needed to be funded. So this year's shipbuilding budget is 
funding some of the cost increases that were not budgeted from 
prior years.
    Second, the Navy made a calculation that in the short term 
we can maintain the desired Navy force level at the proposed 
procurement rate because of the relatively young age of the 
fleet. A lot of the ships were purchased during the 1980s and 
the average age of the Navy, I am told, is at or is slightly 
better than the average age that is expected and targeted. They 
felt it is more important now to deal with significant needs 
that have been underfunded in recent years, such as shortfalls 
in munitions, spare parts, and steaming hours, which are fully 
funded in this budget.
    Further, we are investing significant sums in nuclear-
powered cruise missile attack submarine (SSGN) conversions, 
which do not count in ship numbers because while they give us 
new capabilities, they do not buy new ships as such.
    The Navy's future year defense plan budgets 5 ships in 
2004, 7 in 2005, 7 in 2006, and 10 in 2007.
    Finally, the $379 billion that we are talking about here is 
a great deal of money, but consider that New York City's 
Comptroller's Office has estimated that the local economic cost 
of the September 11 attack in New York City alone will add up 
to about $100 billion; estimates of the cost to the national 
economy range to about $170 billion last year; estimates range 
as high as almost $250 billion a year in lost productivity, 
sales, jobs, airline revenues, and advertising; and most 
importantly the loss in human lives and the pain and suffering 
of so many thousands of Americans who lost husbands, wives, 
fathers, mothers, sons, daughters, sisters, and brothers.
    The President's proposed defense budget amounts to about 
3.3 percent of our gross domestic product. When I came to 
Washington in 1957, during the sixties, and in the Eisenhower 
and Kennedy era, we were spending about 10 percent of our gross 
national product on defense. It is about 3.3 percent in this 
budget proposal. In those days we were spending over 50 percent 
of the Federal budget on defense. This budget proposes that we 
spend, I believe, 16.9 percent of our Federal budget on 
defense.
    I point that out because there has been a mistake repeated 
throughout history that free nations tend to recognize the need 
to invest in their Armed Forces only after a crisis has already 
arrived. In 1950, just 5 years after the allied victory in 
World War II, General Omar Bradley urged President Truman to 
spend $18 billion on defense. The service chiefs gave an even 
higher estimate to Congress, around $23 billion. The services' 
estimate was still higher, around at $30 billion.
    President Truman concluded that the country could not 
afford anything more than $15 billion. The fact was that 6 
months later we were at war in Korea, and just as suddenly we 
found that we could in fact afford, not just $18 billion, but 
$48 billion, a 300 percent increase, because the war was on.
    We need to work together to see that our country makes the 
investments necessary to deter wars, not just to win them. Let 
us do so with our experience on September 11 in mind and with a 
renewed commitment to ensure that once the fires burn out, the 
war ends, and the Nation rebuilds that we will not forget the 
lessons learned at the cost of so many innocent lives and we 
will not go back to the old ways of doing things.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Rumsfeld follows:]

             Prepared Statement by Hon. Donald H. Rumsfeld

                              INTRODUCTION

    Mr. Chairman, members of the committee.
    On September 11, terrorists attacked the symbols of American 
freedom, prosperity, and military might--killing thousands. In just a 
few short weeks, the United States responded. We built coalitions, 
positioned our forces, and launched devastating military strikes 
against Taliban and al Qaeda strongholds in Afghanistan. Before the 
fires at the World Trade Center burned out, the Taliban had been driven 
from power and the terrorists were on the run.
    We are still in the early stages of a long, dangerous, and global 
war on terrorism. But while much work remains, we can take notice of 
the achievements of our brave men and women in uniform, who have 
accomplished so much in so little time--and who, at this moment, 
continue to risk their lives in dangerous corners of the world.
    September 11 changed our Nation forever. As time passes and wounds 
heal, we should not forget the horror of what befell us that day, and 
go back to old ways of doing things. We owe it to those who died 
September 11 and those who will come after us to ensure that our Nation 
learns--and heeds--the lessons of that fateful day.
    The events of September 11 shattered many myths--among them, the 
illusion that the post-Cold War world would be one of extended peace, 
and that after four decades on high alert, America could relax, stand 
down, and cut defense spending.
    We learned on September 11 that this is not the case--and that all 
the things that we Americans hold dear--freedom, security, prosperity--
all these are made possible by the peace and stability our Armed Forces 
provide. To preserve these precious gifts, we need to invest in the 
capabilities that the men and women of the Armed Forces need to defend 
our country and our interests.
    This truth was well understood during the Cold War. Then, Americans 
lived with the knowledge that a dangerous adversary had thousands of 
missiles on hair-trigger alert, pointed at their homes, schools, and 
places of work. We spent what was necessary for the Armed Forces to 
deter that adversary, defend our people, and contribute to peace and 
freedom. We succeeded.
    But when the Cold War ended, so did the consensus behind a robust 
investment in our national defense. A defense drawdown took place that 
went too far--overshooting the mark by a wide margin. Many on this 
committee, Democrats and Republicans alike, fought an uphill battle to 
secure the resources needed. Hindsight is 20/20, and the truth is that 
we spent much of the 1990s living off of the investments made during 
the Cold War, instead of making the new investments needed to address 
the fast-approaching threats of this new century.
    Our military was asked to do the impossible: to stay ready for 
near-term threats, take on a range of new missions, and prepare for the 
21st century--all this while absorbing sizable budget cuts. They did 
their best--they always do--but to meet the near-term challenges, they 
were forced to put off critical investments in people, modernization, 
and the future. Every year those investments were put off, the hole we 
were in grew deeper--and the task of digging out more difficult.
    Now, through the prism of September 11, we can see the error of 
that approach. Today, the consensus to spend what is necessary on 
national defense has been restored.
    But as we undertake the task of rebuilding, we must do so with eyes 
wide open, aware of the size of the task facing us, and what will be 
required.
    Our challenge today is to accomplish three difficult missions at 
once:

        (1) To win the worldwide war on terrorism;
        (2) To restore our force by making long-delayed investments in 
        areas like procurement, people, infrastructure, and 
        modernization; and in addition; and
        (3) To prepare for the future by transforming for the 21st 
        century.

    Each of these tasks must be done--none can be put off. We have no 
choice but to fight and win today's war on terror; but we must also 
modernize our forces for the wars we may have to fight later in this 
decade; and, because of the long lead-times in bringing new 
capabilities online, we must prepare now for the wars we may have to 
fight in the next decade--in 2010 and beyond.
    There are some who say this is too much to ask of our Armed 
Forces--that any one of these challenges is daunting--but that doing 
all three at once--fighting a war, modernizing, and transforming at the 
same time--is too difficult. It is not. We can do it.
    But even if it were impossible, we would have no choice but to get 
about the task. Why? Because our adversaries are transforming. They are 
studying how we were successfully attacked, how we are responding, and 
how we may be vulnerable in the future. They are developing dangerous 
new capabilities, and new ways of fighting, to take advantage of what 
they see as our weaknesses and vulnerabilities. We stand still at our 
peril.
    Far from being a time to put off transformation, now is the moment 
to pursue it more aggressively. If we do not, new enemies will find new 
ways to strike us--and with the increasing power and range of weapons 
today, those attacks could well surpass the death toll of September 11.

                            THE 2003 BUDGET

    But transforming our Armed Forces, fighting the war on terror, and 
selectively modernizing our existing force can't be done without 
sizable investments over a sustained period.
    Because of that, President Bush sent to Congress a 2003 defense 
budget request of $379 billion--a $48 billion increase from the 2002 
budget. That is the largest increase since the early 1980s--a 
significant investment.
    It includes $19.4 billion for the war on terrorism--a $10 billion 
contingency fund that will be available, if needed, for the war, plus 
$9.4 billion for a variety of programs related to the war, including:

        <bullet> $3 billion for counter-terrorism, force protection, 
        and homeland security;
        <bullet> $1.2 billion for continuing increased air patrols over 
        the continental United States; and
        <bullet> $800 million for converting Tomahawk cruise missiles 
        to newer versions and for increased procurement of precision 
        munitions such as the Joint Direct Attack Munition (JDAM) and 
        Laser Guided Bombs (in addition to what was already funded).

    Providing U.S. forces faster, more precise, real-time intelligence 
will be critical to transformation. The President's 2003 budget 
includes investments to improve U.S. intelligence collection, analysis, 
processing, and dissemination.
    Moreover, the President has made clear that this is not a one-time 
increase. It is a commitment to sustained investments over many years. 
That is why the President's 5-year projected budget for 2003-2007 is 
$2.057 trillion--about $400 billion higher than when he took office.
    That is a great of money--hard earned tax dollars. But it should be 
put in context.
    Last year, before this committee, I explained that a decade of 
overuse and under-funding had left us in a hole so deep, that the 
President's 2002 budget, while a significant increase, would still 
leave shortfalls in a number of critical areas--including 
infrastructure, procurement, and operations and maintenance.
    Moreover, I advised this committee that just to keep the Department 
going in 2003 on a straight-line--with no improvements, simply covering 
the costs of inflation and realistic budgeting--we estimated that DOD 
required a budget of $347.2 billion--an $18.3 billion increase over the 
President's 2002 request.
    Well, as high as it may have sounded then, it turns out my estimate 
was low. When one combines the costs of inflation, plus the ``must 
pay'' bills (like military health care, retirement benefits, and pay), 
plus realistic cost estimates for weapons, readiness and depot 
maintenance, the correct figure is $359.4 billion.
    When one adds to that the $19.4 billion in this budget for the war 
on terrorism, the total comes to $378.8 billion out of a $379.3 billion 
budget.
    That is still a significant investment of the taxpayer's money. We 
are investing it differently--by accelerating programs we consider 
transformational. We have also made program adjustments to achieve $9.3 
billion in proposed savings, to be used for transformation and other 
pressing requirements. At the same time, we are fully funding those 
areas we must to continue reversing years of under-investment in 
people, readiness, and modernization.
    While it does not correct a decade of under-funding, it is a lot of 
money. We need to invest that money wisely if we are to accelerate 
transformation and continue our efforts to reverse years of under-
investment in people, readiness, and modernization, while fighting the 
war on terrorism. Allow me to briefly set forth how the budget 
addresses each of these challenges.

                          NEW DEFENSE STRATEGY

    The budget before you is driven by the results of last year's 
defense strategy review. When President Bush took office, he asked the 
senior civilian and military leaders of the Department to take a hard 
look at the emerging security environment and consider whether a new 
defense strategy was needed. Given the questions some posed last year, 
I must say that it is really quite remarkable what the people of this 
Department accomplished. In 1 year--2001--the Department has:

        <bullet> Developed and adopted a new defense strategy;
        <bullet> Replaced the decade-old two major theater war (MTW) 
        construct for sizing our forces, with a new approach more 
        appropriate for the 21st century;
        <bullet> Adopted a new approach for balancing risks;
        <bullet> Reorganized and revitalized the missile defense 
        research and testing program, free of the constraints of the 
        Anti-Ballistic Missile (ABM) Treaty;
        <bullet> Reorganized the Department to better focus on space 
        capabilities;
        <bullet> Through the Nuclear Posture Review, adopted a new 
        approach to strategic deterrence that increases our security 
        while reducing our strategic nuclear weapons; and
        <bullet> Within a week or so we will present to the President a 
        new Unified Command Structure.

    We did all this while fighting a war on terrorism. Not a bad start 
for a defense establishment--military and civilian, executive and 
legislative, public and private--that is supposedly so resistant to 
change.
    In January of last year, we initiated a series of informal 
strategic reviews. We found a Department filled with dedicated men and 
women--uniformed and civilian--who were doing their best under 
difficult circumstances to maintain the readiness of our Armed Forces. 
We also found that the pressure to prepare for near-term risks was 
crowding out efforts to prepare for longer-term challenges. While we 
found some transformation underway (such as development of the unmanned 
combat aircraft employed in Afghanistan), we also found some efforts 
were without clear goals, measures of success, or the necessary 
resources. We found chronic under-funding of procurement and 
infrastructure, and a culture that did not seem to embrace or reward 
innovation.
    These reviews helped pave the way for the Quadrennial Defense 
Review (QDR), during which the senior civilian and military leaders of 
the Department came to the unanimous conclusion that a new approach was 
needed for the 21st century. The President's budget has been designed 
to fund the priorities we identified in the QDR process.
    In the QDR, we made three major decisions. First, we decided to 
move away from the two MTW construct for sizing our forces--an approach 
that called for maintaining forces, capable of marching on and 
occupying the capitals of two aggressors at the same time and changing 
their regimes. That approach served us well in the immediate post-Cold 
War period, but after a decade it threatened to leave us too narrowly 
focused on preparing for two specific conflicts, and under-prepared for 
other contingencies and 21st century challenges.
    To ensure we have the resources to prepare for the future, and to 
address the emerging challenges to homeland security, we needed a more 
realistic and balanced assessment of our near-term war fighting needs. 
Instead of maintaining two occupation forces, we will place greater 
emphasis on deterrence in four critical theaters, backed by the ability 
to swiftly defeat two aggressors at the same time, while preserving the 
option for one major offensive to occupy an aggressor's capital and 
replace his regime. Since neither aggressor would know which conflict 
would be selected for regime change, the deterrent is undiminished. But 
by removing the requirement to maintain a second occupation force, we 
can free up resources for the various lesser contingencies that face us 
and be able to invest for the future.
    Second, to prepare for the future, we decided to move away from the 
old ``threat based'' strategy that had dominated our Nation's defense 
planning for nearly half-a-century, and adopt a new ``capabilities 
based'' approach--which focuses less on who might threaten us, or 
where, or when, and more on how we might be threatened--and what 
capabilities we need to do to deter and defend against those threats.
    Under the new approach, we will develop a portfolio of military 
capabilities that will not only help us fight and win the wars of the 
21st century, but also help to prevent them. Our goal is to influence 
the decision-making of potential adversaries--to deter them not only 
from attacking us with existing capabilities, but by demonstrating the 
futility of potential military competition, to dissuade them from 
building dangerous new capabilities in the first place.
    Third, to put our capabilities-based approach into action, we 
identified six key transformational goals around which we will focus 
our defense strategy and develop our force. These are:

        <bullet> First, to protect the U.S. homeland and our bases 
        overseas;
        <bullet> Second, to project and sustain power in distant 
        theaters;
        <bullet> Third, to deny enemies sanctuary--so they know no 
        corner of the world is remote enough, no mountain high enough, 
        no cave or bunker deep enough, no SUV fast enough, to protect 
        them from our reach;
        <bullet> Fourth, to protect U.S. information networks from 
        attack;
        <bullet> Fifth, to use information technology to link up 
        different kinds of U.S. forces so they can fight jointly; and
        <bullet> Sixth, to maintain unhindered access to space--and 
        protect U.S. space capabilities from enemy attack.

    We reached these conclusions well before the September 11 attacks 
on Washington and New York. Our experiences that day, and in the course 
of the Afghan campaign, have served to validate those conclusions, and 
to reinforce the importance of moving the U.S. defense posture in these 
new directions.
    In the 21st century, new adversaries may not to be discouraged from 
attacking us by the traditional means of deterrence that kept the peace 
during the Cold War--namely, the threat of nuclear retaliation. The 
terrorists who struck us on September 11 certainly were not deterred.
    This is why the President concluded that stability and security in 
the new century require a new approach to strategic deterrence that 
enhances our Nation's security while reducing our dependence on nuclear 
weapons. With the Nuclear Posture Review, we have proposed deep cuts in 
offensive nuclear forces, combined with strengthened conventional 
capabilities and a range of new active and passive defenses against 
weapons of mass destruction (WMD) and all forms of delivery--to be 
supported by a revitalized defense infrastructure and improved 
intelligence. This new triad of nuclear, conventional, and defensive 
capabilities will help deter and defend against the wider range of 
threats we will face in the decades ahead.
    The 2003 budget request is designed to advance each of the six 
transformational goals. It does so by accelerating funding both for the 
development of transformational programs--programs that give us 
entirely new capabilities--as well as by funding modernization programs 
that support the transformation goals.
    The budget requests $53.9 billion for research, development, test, 
and evaluation (RDT&E)--a $5.5 billion increase over fiscal year 2002. 
It requests $68.7 billion for procurement--a $7.6 billion increase. It 
funds 13 new transformational programs, and accelerates funding for 22 
more existing programs.
    We have established a new Office of Force Transformation to help 
drive the transformation process, and have tasked each of the services 
to develop Service Transformation Roadmaps by the summer of 2002.
    All together, transformation programs account for roughly 17 
percent of investment funding (RDT&E and procurement) in the 
President's 2003 budget request--and will rise to 22 percent over the 5 
year FYDP.
    This is a significant investment in the future. However, the 
investment in transformation cannot be measured in numbers alone. 
Transformation is not just about new weapons--it is about new ways of 
thinking and new ways of fighting. In some cases, it does not involve 
new capabilities at all.
    In Afghanistan, U.S. Special Forces are using a mix of capabilities 
in ways that had never been tried before, coordinating air strikes with 
the most advanced precision guided weapons, with cavalry charges by 
hundreds of Afghan fighters on horseback. The effect has been 
devastating--and transformational.
    The goal is not to transform the entire military in 1 year, or even 
in one decade. That would be both unnecessary and unwise. 
Transformation is a process, and, because the world is not static, it 
is a process that must continue. In short, there will be no point where 
our forces will have been ``transformed.'' Rather, we aim to transform 
between 5-10 percent of the force, turning it into the leading edge of 
change that will, over time, continue to lead the rest of the force 
into the 21st century.
    We cannot know today precisely where transformation will take us. 
It is a process that will unfold over time. But we believe we know the 
directions we want to take the force. Our goal is to move our military 
from service-centric forces armed with unguided munitions and combat 
formations that are large and easily observable, manpower intensive, 
earth-bound capabilities, and transform a growing portion into rapidly-
deployable joint-forces made up of less manpower intensive combat 
formations armed with unmanned, stealthy, precision-guided 
capabilities, and unmatched space capabilities.
1. Protecting Bases of Operation/Homeland Defense
    Even before September 11, the senior civilian and military leaders 
of the Department had concluded that defending the U.S. homeland from 
attack, and protecting U.S. forward bases, should be our top priority. 
For most of our history, thanks to favorable geography and friendly 
neighbors, U.S. territory was left largely unscathed by foreign 
aggressors. As we painfully learned on September 11, this will not be 
the case in the 21st century.
    Future adversaries are at this moment developing a range of new 
capabilities with which to threaten the U.S.: new forms of terrorism, 
cyber attacks, ballistic missiles, cruise missiles, nuclear, chemical 
and biological weapons of mass destruction.
    To meet our objective of making homeland defense the Department's 
top priority, the President's 2003 budget funds a number of programs. 
These include:

        <bullet> $300 million to create a Biological Defense Homeland 
        Security Support Program to improve U.S. capabilities to detect 
        and respond to biological attack against the American people 
        and our deployed forces.
        <bullet> $7.8 billion for a refocused and revitalized missile 
        defense research and testing program that will explore a wide 
        range of potential technologies that will be unconstrained by 
        the ABM Treaty after June 2002, including:

                <bullet> $623 million for the Patriot PAC III to 
                protect our ground forces from cruise missile and 
                tactical ballistic missile attack;
                <bullet> $3.5 million for the Mobile Tactical High-
                Energy Laser that can be used by U.S. ground forces to 
                destroy enemy rockets, cruise missiles, artillery and 
                mortar munitions;
                <bullet> $598 million for the Airborne Laser (ABL), a 
                speed of light ``directed energy'' weapon to attack 
                enemy ballistic missiles in the boost-phase of flight--
                deterring an adversary's use of WMD since debris would 
                likely land on their own territory;
                <bullet> $534 million for an expanded test-bed for 
                testing missile intercepts; and
                <bullet> $797 million for sea, air, and space-based 
                systems to defeat missiles during their boost phase.

    The 2003 budget requests roughly $8 billion for programs to support 
defense of the U.S. homeland, and $45.8 billion over the 5 year FYDP 
(2003-7)--an increase of 47 percent since 2000.
2. Denying Enemies Sanctuary
    Another objective of transformation is to deny sanctuary to 
enemies--to make certain they understand that if they attack the United 
States, there is no corner of the world remote enough, no mountain high 
enough, no cave deep enough, no bunker hardened enough, no SUV fast 
enough for them to escape the reach of the U.S. Armed Forces.
    To achieve that objective, we must have the capability to locate, 
track, and attack--both mobile and fixed targets--any where, any time, 
at all ranges, and under all weather conditions, 24 hours a day, 7 days 
a week, 365 days a year. This will require changes in our intelligence 
collection, analysis, production, and distribution. It also requires 
development of new capabilities for long-range precision strike--
including unmanned capabilities--as well as the ability to insert 
Special Operations Forces into denied areas and allow them to network 
with our long-range precision-strike assets.
    To achieve this, we must develop new data links for connecting 
ground forces with air support; new long-range precision strike 
capabilities; new, long-range, deep penetrating weapons that can reach 
our adversaries in the caves and hardened bunkers where they hide; and 
special munitions for underground attack.
    The President's 2003 budget funds a number of programs designed to 
help us meet our objective of denying sanctuary to enemies. They 
include:

        <bullet> $141 million to accelerate development of UAVs with 
        new combat capabilities;
        <bullet> $629 million for Global Hawk, a high-altitude unmanned 
        vehicle that provides reconnaissance, surveillance and 
        targeting information. We will procure three Air Force Global 
        Hawks in 2003, and accelerate improvements such as electronics 
        upgrades and improved sensors, and begin development of a 
        maritime version;
        <bullet> $91 million for the Space-Based Radar, which will take 
        a range of reconnaissance and targeting missions now performed 
        by aircraft and move them to space, removing the risk to lives 
        and the need for over-flight clearance;
        <bullet> $54 million for development of a small diameter bomb, 
        a much smaller, lighter weapon that will allow fighters and 
        bombers to carry more ordnance and thus provide more kills per 
        sortie;
        <bullet> $1 billion for conversion of four Trident nuclear 
        submarines into stealthy, high endurance SSGN Strike Submarines 
        that can each carry over 150 Tomahawk cruise missiles and up to 
        66 Special Operations Forces into denied areas;
        <bullet> $30 million for advanced energetic materials and new 
        earth penetrator weapons to attack hardened and deeply buried 
        targets; and
        <bullet> $961 million for the DD(X), which replaces the 
        cancelled DD-21 destroyer program and could become the basis of 
        a family of 21st century surface combat ships built around 
        revolutionary stealth, propulsion, and manning technologies. 
        Initial construction of the first DD(X) ship is expected in 
        fiscal year 2005.

    The 2003 budget requests $3.2 billion for programs to support our 
objective of denying sanctuary to America's adversaries, and $16.9 
billion over the 5 year FYDP (2003-7)--an increase of 157 percent.
3. Projecting Power in Denied Areas
    In the 21st century, we will be increasingly called upon to project 
power across long distances. Today, however, to operate in distant 
theaters, our forces in many cases depend on vulnerable foreign bases.
    Potential adversaries see this--and they will seek to develop new 
weapons and ways of fighting to keep U.S. forces out of their 
neighborhoods--so-called ``access denial'' capabilities. These 
capabilities could include: saturation attacks with ballistic and 
cruise missiles to deny U.S. access to overseas bases, airfields and 
ports; advanced air defense systems to deny U.S. access to hostile 
airspace; anti-ship cruise missiles, advanced diesel powered subs, 
sophisticated sea mines to threaten U.S. ability to project Naval and 
amphibious forces; as well as the use of chemical and biological agents 
against deployed U.S. forces.
    The President's 2003 budget includes increased funds for a number 
of programs designed to help us project power in ``denied'' areas. 
These include:

        <bullet> $630 million for an expanded, upgraded military GPS 
        that can help U.S. forces pinpoint their position--and the 
        location of their targets--with unprecedented accuracy;
        <bullet> $5 million for research in support of the Future 
        Maritime Preposition Force of new, innovative ships that can 
        receive flown-in personnel and off-load equipment at sea, and 
        support rapid reinforcement of conventional combat operations. 
        Construction of the first ship is planned for fiscal year 2007;
        <bullet> $83 million for the development of Unmanned Underwater 
        Vehicles that can clear sea mines and operate without detection 
        in denied areas;
        <bullet> About $500 million for the Short Takeoff/Vertical 
        Landing (STOVL) Joint Strike Fighter that does not require 
        large-deck aircraft carriers or full-length runways to takeoff 
        and land;
        <bullet> $812 million for 332 Interim Armored Vehicles--
        protected, highly mobile, and lethal transport for light 
        infantry--enough for one of the Army's transformational Interim 
        Brigade Combat Teams (IBCT). The fiscal year 2003-2007 Future 
        Years Defense Program (FYDP) funds six IBCTs at about $1.5 
        billion each;
        <bullet> $707 million for the Army's Future Combat System--a 
        family of advanced-technology fighting vehicles that will give 
        future ground forces unmatched battlefield awareness and 
        lethality; and
        <bullet> $88 million for new Hypervelocity Missiles that are 
        lighter and smaller (4 ft. long and less than 50 lbs.) and will 
        give lightly armored forces the lethality that only heavy 
        armored forces have today.

    The 2003 budget requests $7.4 billion for programs to support our 
goal of projecting power over vast distances, and $53 billion over the 
5 year FYDP (2003-7)--an increase of 21 percent.
4. Leveraging Information Technology
    Another transformation goal is to leverage rapid advances in 
information technology to improve the connectivity and joint war 
fighting capabilities of different types of U.S. forces. The goal is to 
find new ways to seamlessly connect U.S. forces--in the air, at sea, 
and on the ground--so they can communicate with each other, 
instantaneously share information about their location (and the 
location of the enemy), and all see the same, precise, real-time 
picture of the battlefield.
    The opportunities here to give U.S. forces unparalleled battlefield 
awareness are impressive--if they can ``see'' the entire battlefield 
and the enemy cannot, their ability to win wars grows exponentially. 
But as our dependence on information networks increases, it creates new 
vulnerabilities, as adversaries develop new ways of attacking and 
disrupting U.S. forces--through directed energy weapons and new methods 
of cyber attack.
    The President's 2003 budget funds a number of programs designed to 
leverage information technology. These include:

        <bullet> $172 million to continue development of the Joint 
        Tactical Radio System, a program to give our services a common 
        multi-purpose radio system so they can communicate with each 
        other by voice and with data;
        <bullet> $150 million for the ``Link-16'' Tactical Data Link, a 
        jam-resistant, high-capacity, secure digital communications 
        system that will link tactical commanders to shooters in the 
        air, on the ground, and at sea--providing near real-time data;
        <bullet> $29 million for Horizontal Battlefield Digitization 
        that will help give our forces a common operational picture of 
        the battlefield;
        <bullet> $61 million for the Warfighter Information Network 
        (WIN-T), the radio-electronic equivalent of the world wide web 
        to provide secure networking capabilities to connect everyone 
        from the boots on the ground to the commanders;
        <bullet> $77 million for the ``Land Warrior'' and soldier 
        modernization program to integrate the small arms carried by 
        our soldiers with high-tech communications, sensors and other 
        equipment to give new lethality to the forces on the ground; 
        and
        <bullet> $40 million for Deployable Joint Command and Control--
        a program for new land- and sea-based joint command and control 
        centers that can be easily relocated as tactical situations 
        require.

    The 2003 budget requests $2.5 billion for programs to support this 
objective of leveraging information technology, and $18.6 billion over 
the 5 year FYDP (2003-7)--an increase of 125 percent.
5. Conducting Effective Information Operations
    As information warfare takes an increasingly central role in modern 
war, our ability to protect our information networks--and to attack and 
cripple those of adversaries--will be critical to America's success in 
combat.
    To do so, we must find new ways to more fully integrate information 
operations with traditional military operations, while developing new 
computer network defenses, electronic warfare capabilities, and the 
ability to influence an adversary's perceptions of the battlefield.
    Many of the programs supporting this objective are, for obvious 
reasons, classified. But the President's 2003 budget funds a number of 
programs designed to provide unparalleled advantages in information 
warfare, such as $136.5 million for the Automated Intelligence, 
Surveillance, and Reconnaissance System, a joint ground system that 
provides next-generation intelligence tasking, processing, 
exploitation, and reporting capabilities. The 2003 budget requests $174 
million for programs to support this objective--$773 million over the 5 
year FYDP (2003-7)--an increase of 28 percent.
8. Enhancing Space Operations
    From the dawn of time, a key to victory on the battlefield has been 
to control the high ground. Space is the ultimate ``high ground.''
    One of our top transformational goals, therefore, is to harness the 
United States' advantages in space. Space can provide an ability to see 
what enemies are doing, anywhere in the world ``24-7-365''--and to 
ensure global secure communications for U.S. forces.
    This will require moving operations to space, improving the 
survivability of U.S. space systems, and developing a space 
infrastructure that assures persistent surveillance and access.
    As we become increasingly dependent on space for communications, 
situational awareness, positioning, navigation, and timing, space will 
necessarily become an area we have to defend. Adversaries are likely to 
develop ground-based lasers, space jamming, and ``killer'' micro-
satellites to attack U.S. space assets.
    They will do so whether or not we improve U.S. space capabilities--
because the U.S. economy and our way of life are growing increasingly 
dependent on space--making U.S. space assets inviting targets for 
asymmetric attack. Consider for a moment the chaos that would ensue if 
an aggressor succeeded in striking our satellite networks: cell phones 
would go dead; ATM cards would stop functioning; electronic commerce 
would sputter to a halt; air traffic control systems would go offline, 
grounding planes and blinding those in the air; and U.S. troops in the 
field would see their communications jammed and their precision strike 
weapons would stop working.
    Today, in so far as we know, no nation has the capability to wreak 
such havoc. We must make sure no one can. Our goal is not to bring war 
into space, but rather to defend against those who would. Protecting 
U.S. military and commercial assets in space from attack by foreign 
aggressors must be a priority in the 21st century.
    The President's 2003 budget includes funds for a number of programs 
designed to provide unmatched space capabilities and defenses. These 
include:

        <bullet> $88 million for Space Control Systems that enhance 
        U.S. ground based surveillance radar capabilities and, over 
        time, move those surveillance capabilities into space;
        <bullet> $103.1 million for Directed Energy Technology to deny 
        use of enemy electronic equipment with no collateral damage, to 
        provide space control, and to pinpoint battlefield targets for 
        destruction.

    The 2003 budget requests about $200 million to strengthen space 
capabilities--$1.5 billion over the 5 year FYDP (2003-7)--an increase 
of 145 percent.

                                 * * *

    Of course, many of the programs I have described support several 
transformation goals. For example, the Trident-SSGN conversion will 
help support our goals of operating in access denial environments and 
denying enemy sanctuary. Together, they represent an emerging portfolio 
of transformational capabilities that should enable us to defend 
freedom in the dangerous century ahead.
    Again, it is important to emphasize that transformation is not an 
event--it is an ongoing process, a journey that begins with a 
transformed ``leading edge'' force, which, in turn, leads the U.S. 
Armed Forces into the future.
    Moreover, it is not only about changing the capabilities at our 
disposal, but changing how we think about war. Imagine for a moment 
that you could go back in time and give a knight in King Arthur's court 
an M-16. If he takes that weapon, gets back on his horse, and uses the 
stock to knock his opponent's head, it's not transformational. 
Transformation occurs when he gets behind a tree and starts shooting.
    All the high-tech weapons in the world won't transform the U.S. 
Armed Forces, unless we also transform the way we train, exercise, 
think, and fight.

                                 * * *

    As we transform for the wars of 2010 and beyond, we must also 
prepare the forces for wars they may have to fight later in this 
decade, by improving readiness, increasing procurement and selective 
modernization.
    To advance transformation and deal with the backlog that resulted 
from the ``procurement holiday'' of the last decade, we have requested 
$68.7 billion for procurement in the 2003 budget request--an increase 
of 10.6 percent over fiscal year 2002. Procurement is projected to grow 
steadily over the 5 year FYDP to $98 billion in fiscal year 2007, and 
will increasingly fund transformation programs over time.
    We have requested $140 billion for operation and maintenance (O&M) 
accounts in 2003. This includes substantial funding for the so-called 
``readiness accounts''--tank miles, steaming days, and flying hours for 
the Army, Navy, and Air Force--with only minor shortfalls. Funding 
includes:

        <bullet> Aircraft operations/flying hours: $11.8 billion, up 
        from $11.3 billion in fiscal year 2002;
        <bullet> Army OPTEMPO: $3.7 billion, up from $3.3 billion in 
        fiscal year 2002;
        <bullet> Ship operations: $2.4 billion, up from $2.3 billion in 
        fiscal year 2002;
        <bullet> Depot maintenance: $4.8 billion, up from $4.5 billion 
        in fiscal year 2002; and
        <bullet> Training: $10.0 billion, up from $9.4 billion in 
        fiscal year 2002.

                       PEOPLE/MILITARY PERSONNEL

    If we are to win the war on terror, and prepare for the wars of 
tomorrow--in this decade and beyond--we must take care of the 
Department's greatest asset: the men and women in uniform. They are 
doing us proud in Afghanistan and around the world--and today, thanks 
to their accomplishments in the war on terrorism, morale is high.
    But if we want to attract and retain the necessary force over the 
long haul, we need to know we are looking for talent in an open market 
place, competing with the private sector for the best young people our 
Nation has to offer. If we are to attract them to military service, we 
need to count on their patriotism and willingness to sacrifice to be 
sure, but we must also provide the proper incentives. They love their 
country, but they also love their families--and many have children to 
support, raise, and educate. We ask the men and women in uniform to 
voluntarily risk their lives to defend us; we should not ask them to 
forgo adequate pay and subject their families to sub-standard housing 
as well.
    The President's 2003 budget requests $94.3 billion for military pay 
and allowances, including $1.9 billion for an across-the-board 4.1 
percent pay raise and $300 million for the option for targeted pay-
raises for mid-grade officers and NCOs. It also includes $4.2 billion 
to improve military housing, putting the Department on track to 
eliminate most substandard housing by 2007--several years sooner than 
previously planned. It will also lower out-of-pocket housing costs for 
those living off-base from 11.3 percent today to 7.5 percent in 2003--
putting us on track to eliminate all out of pocket housing costs for 
the men and women in uniform by 2005. The budget also includes $10 
billion for education, training, and recruiting, and $18.8 billion to 
cover the most realistic cost estimates of military healthcare.
    Together, these investments in people are critical, because smart 
weapons are worthless to us unless they are in the hands of smart, 
well-trained soldiers, sailors, airmen, and marines.

                              COST SAVINGS

    While this budget proposes increases in a number of important 
areas, it also includes a number of terminations. We have proposed 
terminating a number of programs over the next 5 years that were not in 
line with the new defense strategy, or which were having program 
difficulties. These include the DD-21, Navy Area Missile Defense, 18 
Army legacy programs, and the Peacekeeper Missile. We also accelerated 
retirement of a number of aging and expensive to maintain capabilities, 
such as the F-14 and 1000 Vietnam-era helicopters.
    We have focused modernization efforts on programs that support 
transformation. We restructured certain programs that were not meeting 
hurdles, such as the V-22 Osprey, Comanche, and Space-based Infrared 
Radar System (SBIRS) programs. Regarding V-22, the production rate has 
been slowed while attention is focused on correcting the serious 
technical problems identified by the blue ribbon panel and a rigorous 
flight test program is to be conducted to determine whether it is safe 
and reliable. The restructured programs reflect cost estimates and 
delivery dates that should be more realistic.
    We are working to generate savings and efficiency by managing the 
Department in a more business-like manner. For example, today, the B-1 
bomber cannot operate effectively in combat environment where there is 
a serious anti-aircraft threat. So the Air Force is reducing the B-1 
bomber fleet by about one third, and using the savings to modernize the 
remaining aircraft with new precision weapons, self-protection systems, 
and reliability upgrades that will make them suitable for use in future 
conflicts. This should add some $1.5 billion of advanced combat 
capability to today's aging B-1 fleet over the next 5 years--without 
requiring additional dollars from the taxpayers. These are the kinds of 
practices we are encouraging throughout the Department.
    We are also proceeding toward our goal of a 15 percent reduction in 
headquarters staffing and the Senior Executive Council is finding 
additional ways to manage DOD more efficiently.
    The budget reflects over $9 billion in redirected funds from 
acquisition program changes, management improvements, and other 
initiatives--savings that help to fund transformation and other 
pressing requirements.
    We would have liked to save more. Several things have held us back. 
One example was our decision not to make deep cuts in manpower. Before 
September 11, the services were considering such cuts as trade-offs for 
other needs. In retrospect we are finding that to fight the war on 
terrorism and fulfill the many emergency homeland defense 
responsibilities, we have had to call up over 70,000 guard and 
Reserves. It is clear now--in the midst of the war on terror, the final 
dimensions of which are unknown--that it is not the time to cut 
manpower. Our goal is to avoid having to increase manpower end-strength 
by refocusing our country's forces, by tightening up on the use of 
military manpower for non-military purposes, and by phasing down some 
of the domestic and the many of the international activities that the 
U.S. military is currently engaged in.
    Defense is a manpower intensive business--some 60 percent of 
defense costs are related to manpower (pay, healthcare, etc.). That 
leaves only about 40 percent of the operating budget for everything 
else. So without end-strength cuts, DOD is limited in what can be done.
    Second, Congress's decision to put off base-closure for 2 more 
years means that the Department will have to continue supporting 
between 20-25 percent more infrastructure than is needed to support the 
force. I know that members of this Committee worked hard to prevent a 
delay--and we appreciate that support. But the decision to holdup the 
process another 2 years will end up costing the taxpayers in the range 
of $6 billion annually.
    Further, because of the new force protection requirements for 
forces here in the U.S., DOD is forced to spend to protect 25 percent 
more bases than we need.
    Moreover, we are forced to put off investments in infrastructure 
replacement because we can't know which bases will be kept and which 
may be closed. It would have been a waste of the taxpayers' money to 
invest significant sums in modernizing bases that could eventually be 
closed.
    By putting off modernization, we are making the cost of modernizing 
more expensive--since the costs of repairing and replacing decrepit 
facilities grow exponentially each year the investments are put off. So 
the decision to delay base closure will ultimately be an expensive one 
for the taxpayers.
    We stand by our goal of reducing the replacement rate for DOD 
facilities from the current and unacceptable 121 years, to a rate of 67 
years (which is closer to the commercial standard). We have dedicated 
some $20 billion over the 2003-2007 FYDP to this end. But most of those 
investments had to be delayed until the out-years, when we will know 
which facilities will be closed.
    The 2-year delay in base-closure should not taken as an opportunity 
to try to ``BRAC-proof'' certain bases and facilities. Earmarks 
directing infrastructure spending on facilities that the taxpayers of 
America don't need and that eventually could be closed would be 
compounding the waste the delay in BRAC is already causing.
    This leads to another area of concern: earmarks. Mr. Chairman, I 
asked DOD Comptroller Dov Zakheim to check, and he reports to me that 
last year alone--in the 2002 budget--Congress made changes to 2,022 
individual programs and line items. In some cases, Congress either 
increased or cut requested programs, and in others Congress added 
funding for un-requested programs.
    Congress changed 13 percent of all Research, Development, Test and 
Evaluation programs--995 different changes in all; 8.6 percent of all 
procurement programs--436 individual changes; and 15 percent of all 
military construction programs--146 individual changes.
    Now each of these individual changes probably seems modest--and 
each one is. But in the aggregate, their effect is substantial. We find 
the Department like Gulliver, with thousands of Lilliputian threads 
over the Department. No one, individual thread kept Gulliver down. But 
in the aggregate, he couldn't get up.
    Between the 2,000-plus earmarks and changes, and the hundreds of 
reports Congress requires DOD to prepare every year, we find ourselves 
killing thousands and thousands of trees, and spending hour after hour 
trying to figure our how we can do our jobs and show respect for the 
taxpayers dollars that they deserve.
    Mr. Chairman, I don't know quite how it happened, but over the past 
2 decades distrust seems to have developed between Congress and the 
executive branch. Possibly the executive branch did some things that 
caused distrust in Congress, and Congress has, for whatever reasons, 
decided that they want to try to micromanage the Department by putting 
literally thousands of earmarks on the legislation. We need to find a 
compromise of some sort.

                               TRADE OFFS

    After considering the costs of keeping the Department moving on a 
straight-line, plus the costs of the war, we have roughly a $9.8 
billion increase. That's a lot of money. But it required us to make a 
number of difficult trade-offs.

        <bullet> We were not able to meet our objective of lowering 
        average age of tactical aircraft. However, we are investing in 
        unmanned aircraft, and in the F-22 and JSF, which require 
        significant upfront investments, but will not come on line for 
        several years.
        <bullet> While the budget proposes faster growth in Science and 
        Technology (S&T), we were not able to meet our goal of 3 
        percent of the budget.
        <bullet> We have not been able to fund shipbuilding at 
        replacement rates in 2003--which means we remain on a downward 
        course that, if not unchecked, could reduce the size of the 
        Navy to a clearly unacceptable level in the decades ahead.

    The fiscal year 2003 shipbuilding budget is $8.6 billion and 
procures 5 ships--two DDG-51 destroyers and one Virginia class 
submarine, one LPD-17 Transport Dock Ship, and one T-AKE Dry Cargo 
Ship. There are several reasons for this level. One problem involves 
contractor difficulties. Also, we are forced to fund ongoing programs 
where, for whatever reasons, cost estimates were too low.
    Second, the Navy has made a calculation that, in the short term, we 
can maintain the required force level at the current procurement rate 
because the current average age of the fleet is at an acceptable level. 
Specifically, we are still benefiting from the sizable shipbuilding 
investments of the 1980s. The Navy concluded that it was more important 
now to deal with significant needs that had been under-funded in recent 
years, such as shortfalls in munitions, spare parts, and steaming 
hours, which are all fully funded in this budget. Further, the budget 
would also invest significant sums in SSGN conversion, which do not 
count in the shipbuilding totals because, while they do provide new 
capabilities, they do not buy new ships.
    To sustain the Navy at acceptable levels, the U.S. needs to build 
eight or nine ships annually. The proposed Future Years Defense Program 
budgets for procurement of 5 ships in fiscal year 2004, 7 ships in 
2005, 7 ships in 2006, and 10 ships in 2007.
    So we have not done everything we hoped to be able to do. But these 
remain our goals and we intend to get these trends on the upswing in 
the years ahead.

                               CONCLUSION

    Three hundred seventy-nine billion dollars is a great deal of 
money. But consider: the New York City comptroller's office has 
estimated the local economic cost of the September 11 attacks on the 
city alone will add up to about $100 billion over the next 3 years. 
Money magazine estimates of the cost of September 11 to the U.S. 
economy at about $170 billion last year--and some estimates range as 
high as $250 billion a year in lost productivity, sales, jobs, airline 
revenue, media and advertising, and costlier insurance for homes and 
businesses.
    That is not to mention the cost in human lives and the pain and 
suffering of so many thousands of Americans who lost husbands and 
wives, fathers and mothers, sons and daughters, and sisters and 
brothers that terrible day.
    The message is clear: we must invest so our country can deter and 
defend against the now clear new threats--against those who might wish 
to attack and kill our people. All together, this proposed defense 
budget amounts to 3.3 percent of our Nation's Gross Domestic Product. 
Compared to the cost in lives and treasure if we fail to stop another 
September 11 or worse, it is cheap at that price.
    It is a tragedy repeated throughout history: free nations seem to 
have difficulty recognizing the need to invest in their Armed Forces 
until a crisis has already arrived. In 1950--just 5 years after the 
allied victory in World War II--General Omar Bradley urged President 
Truman to spend at least $18 billion on defense. The Joint Chiefs 
requested an even higher amount at $23 billion, and the services' 
estimate was higher still at $30 billion. But the President concluded 
the country couldn't ``afford'' that much--$15 billion was as much as 
the U.S. could ``afford.''
    Six months later, the United States was suddenly at war in Korea. 
Just as suddenly, the President, Congress, and the American people 
found they could ``afford'' $48 billion just fine--a 300 percent 
increase.
    In this time of crisis, let us work together to make the 
investments necessary to win this war--and to prevent the next one. Let 
us do so chastened by our experiences on September 11, and with a 
renewed commitment to ensure that, once the fires burned out, the war 
ends, and the Nation rebuilds, we won't forget the lessons learned at 
the cost of so many innocent lives; that we won't go back to old ways 
of doing things. The lives of our children and grandchildren depend on 
it. Thank you.

    Chairman Levin. Thank you, Secretary Rumsfeld.
    General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Mr. Chairman, Senator Warner, other 
distinguished members of the committee: Thank you very much for 
the opportunity to appear before you today. It is very much an 
honor to report on the state of our Nation's Armed Forces.
    We are a military force and a Nation at war, and as the 
Secretary said, the attacks of September 11 shattered the prism 
through which we all looked at the world. In the span of a few 
minutes, we confirmed the historic reality that adversaries can 
strike at us anywhere in the world, even inside our own 
borders.
    When President Bush came to the Pentagon the following day, 
the assembled troops told him: We are ready, Mr. President. 
They spoke for themselves and all the men and women of our 
services. As we found out, they were right.
    Take the crew of the U.S.S. Enterprise: on their way home 
from a 6-month deployment, they learned of the attacks. Each 
man and woman on board felt a shudder as the rudder came hard 
over and they increased to flank speed and came to a new 
heading to arrive off the Pakistani coast the next morning.
    Or take the young marines of the 15th Marine Expeditionary 
Unit (MEU) aboard the U.S.S. Peleliu off the coast of Australia 
who began cleaning their weapons, knowing that they could in a 
short time be fired in combat.
    Our bomber crews in receipt of alert orders began planning 
their strike missions a few days later, and our Army Rangers 
and Green Berets began to collect detailed intelligence as they 
received their orders to go fight in Afghanistan.
    They were all ready to defend our freedom and to strike 
back against our Nation's enemies. Fighting together as a joint 
team, they have achieved much in the first phase of this global 
war against international terrorism. Like many of you, I visit 
some of them, and I saw them working hard on the front lines, 
getting the mission done regardless of the formidable obstacles 
that they had to overcome. I saw them proudly wearing their 
country's flag on the sleeves of their desert BDUs and on their 
flight suits. I saw in their eyes strength, courage, and 
commitment, and I knew these young Americans would get the job 
done.
    As I talked with them, one message came through loud and 
clear: This is truly a total force effort. Unless you ask, you 
do not know whether you are talking to someone from the Reserve 
or Active component. Many of our Reservists and Guardsmen did 
not wait to be called up. They volunteered. I heard about one 
Navy Reservist who sold his business so he could serve without 
distraction. I think you will agree that these American heroes 
are unmatched in the world and we have every reason to be proud 
of them.
    When I was a young fighter pilot, I never imagined that 
some day we would have to fly combat air patrols over Detroit, 
New York, and many other locations here at home. But that, 
along with other defensive actions, is exactly what we have 
done in the 5 months since this war began. These actions on the 
home front are called Operation Noble Eagle and they include 
more than 13,000 combat air patrol sorties over the United 
States, flown by the National Guard, Reserves, Active-Duty, and 
NATO air crews. The Air Force alone has committed 260 planes 
and 1,200 airmen flying almost 57,000 hours from 29 different 
bases.
    We have also established a Homeland Security Joint Task 
Force to provide the command and control of our homeland 
security task. We are helping our busy Coast Guard by 
augmenting port security. We also have 7,200 national guard 
troops at 444 airports and we are protecting many critical 
infrastructure sites.
    Our overseas offensive actions have included air, land, and 
maritime operations, with three primary objectives: to disrupt 
and destroy global terrorist organizations; to eliminate safe 
havens for terrorists; and to prevent access to weapons of mass 
destruction by terrorist groups.
    General Tommy Franks and his entire team have done a 
tremendous job in Afghanistan with Operation Enduring Freedom 
and the results so far speak for themselves. Working closely 
with our coalition partners and Afghan opposition forces, we 
drove the Taliban from power and severely degraded the al Qaeda 
network. The plan worked and it continues to work. The Taliban 
were forced to surrender all major cities to opposition forces, 
and a number of Taliban and al Qaeda leadership personnel were 
either killed or captured. We destroyed their training camps, 
centers, and command and control sites.
    For the first time, we combined humanitarian operations 
with combat operations as we air dropped rations, medical 
supplies, and shelters, thus helping avert a humanitarian 
disaster of potentially extraordinary proportions. Our efforts 
have helped the Afghan people reclaim their lives.
    These results have been achieved with about 60,000 deployed 
troops in the Central Command area and about 4,000 on the 
ground in Afghanistan. Our success has been enabled by the 
following key factors: Clear and well-established national 
security goals; the overwhelming support of the American 
people; outstanding leadership from the President and the 
Secretary of Defense; great support from Congress; and close 
inter-agency coordination; patience in formulating our response 
to the attacks; great support from our coalition partners and 
the anti-Taliban forces; good planning from Central Command 
that was well executed; superb assistance from the services and 
supporting unified commands, particularly Transformation 
Command; flexibility and adaptability at the tactical level; 
and ultimately, our great soldiers, sailors, airmen, marines, 
and Coast Guardsmen who made it all happen.
    But there remains much to do. Even as we continue the long-
term effort to win this global war, we must also sustain other 
global commitments, such as Operation Northern Watch, Operation 
Southern Watch, other responsibilities in the Persian Gulf, the 
Balkans peacekeeping mission, and the defense of the Korean 
Peninsula.
    To fulfil our range of commitments and protect our global 
interests, we must make the investments necessary to maintain 
the quality of our force while preparing for future challenges 
of the 21st century. The best means of accomplishing these 
goals are to improve our joint warfighting capability and 
transform the Armed Forces into a 21st century force.
    With the help of Congress, we have come a long way in 
recent years toward improving our joint warfighting 
capabilities. Certainly the operations in Afghanistan are proof 
of our progress, but there is much more to be done.
    To illustrate, let us consider the issue of 
interoperability. In recent years we have gotten pretty good at 
making sure that our legacy systems work well together. For 
example, we took a Cold War anti-submarine platform, the Navy's 
venerable P-3, put some different data links and sensors on it, 
and have used it in support of ground units to hunt for Taliban 
and al Qaeda in Afghanistan. We also used P-3s in tandem with 
AC-130 gunships, the Joint STARS, and Marine Corps attack 
helicopters. That they all worked together is a tribute to the 
ingenuity of all the people involved.
    But we need to make sure that new systems are conceived, 
designed, and produced with joint warfighting requirements in 
mind. To do that, we need to change our thinking to look at new 
systems as interchangeable modules that can plug and play in 
any situation and in any command arrangement. We have put a lot 
of effort into interoperability on the tactical level, like the 
modifications of the P-3 that I just described, but we must 
also concentrate on the operational level of warfare, where 
organizational and process improvements are just as important.
    The current focus of our efforts and the area with the 
greatest potential payoff is, I believe, in command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR). By improving our C\4\ISR, we can 
ensure our commanders have the best information available for 
rapid battlefield decisionmaking. We have made progress in 
recent years, but stovepipes continue to cause gaps and seams 
between our combatant commands and the forces that are provided 
by the services. These gaps and seams must be eliminated. Close 
cooperation across the services, combatant commands, and with 
other government departments is key to success in achieving our 
national security objectives.
    Additionally, we are developing a command and control 
architecture in our unified commands that will lead to an 
improved ability to accept and employ forces. We call this 
architecture the Standing Joint Force Headquarters. This 
headquarters will provide the combatant commanders the ability 
to employ an agile and lethal force using the integrated 
C\4\ISR network that I described earlier and further enhance 
our joint warfighting capabilities.
    The second key to maintaining the quality of our force and 
preparing for the future challenges is transformation. The 
Secretary has already laid out for you our transformational 
goals, but I would like to follow through with a couple of 
points. For me, transformation is simply fostering changes that 
result in a dramatic improvement over time in the way a 
combatant commander wages war. I am convinced that our force 
structure requires better flexibility and adaptability to 
achieve our national security objectives in this new 
international security environment.
    Such dramatic improvement requires not only technological 
change, but most importantly, changes in how we think and how 
we employ our capabilities to achieve more effective results in 
less time, with fewer lives lost, and with less cost. True 
transformation must include training and education, as the 
Secretary said, and changes in our doctrine and in our 
organizations.
    The second point on transformation is that, while sudden 
technical, organizational, or doctrinal breakthroughs are 
possible and should be vigorously pursued, it is important to 
note that transformation often results from an accumulation of 
incremental improvements. Let me give you an example. When I 
was flying F-4s in Vietnam, we lost a lot of airplanes to 
pilots trying to destroy single targets like bridges and anti-
aircraft sites. We had to put a lot of people in harm's way to 
get the job done because our weapons systems were not very 
accurate.
    So we developed laser-guided bombs and found a way to steer 
them to the target. Nevertheless, we still had to have 
relatively good weather because you had to see the target to be 
able to put the laser-guided bomb on the target. Now, we still 
needed to put the aircraft in harm's way to keep the bombs on 
target, but we had achieved, I think, a significant improvement 
in bombing accuracy.
    Now let us think about where we are today. We have bombs 
that are impervious to the weather conditions, that steer 
themselves using satellite-generated global positioning system 
signals. Let me also point out that when the global positioning 
system was being developed and first deployed, no one was 
talking about using it for bombing. It was seen as a better 
navigational tool.
    So essentially, we have linked incremental improvements in 
several different technologies to achieve today our precision 
strike capability with accuracy that I believe amounts to truly 
transformational change.
    But this transformation is not just about more accurate 
bombs. The real transformation is in the target set, where we 
have advanced from needing multiple sorties to strike one 
target to using one sortie to strike multiple targets. There 
has also been a transformation in our thinking. Bombs are no 
longer regarded as solely area weapons. Instead, they can be 
used like bullets from a rifle, aimed precisely and 
individually.
    The foundation of that breakthrough, laid over 30 years ago 
in Vietnam, was tactical innovation in the midst of war. On 
that foundation we have built successive improvements to get 
where we are today. Of course, we are laying that same 
foundation of future breakthroughs in the midst of today's war.
    For example, the armed unmanned vehicle is a tactical 
innovation that we are just beginning to explore. We cannot 
accurately foresee the future for sure, but I am confident we 
are working on other capabilities that, when you couple them 
with the improvements of armed unmanned vehicles, have the 
potential to change significantly the way we fight and perhaps 
even the nature of warfare itself. That, and similar 
possibilities, are why I believe that the service 
recapitalization and modernization programs are so important to 
transformation.
    Members of the committee, I am pleased to say that our 
forces remain the most powerful and the best trained in the 
world. Their excellence is due in no small part to your 
unwavering support of our troops. We have made tremendous 
strides in recent years providing our people a comprehensive 
set of quality of life improvements, especially in the areas of 
pay, housing, and health care. But quality of life also 
includes adequate training, modern equipment, modern 
infrastructure, and adequate spare parts.
    I ask that we continue to keep faith with both our Active 
and Reserve component members, as well as our retirees. 
Sustaining the quality of life of our people is crucial to 
recruiting and retention, and is especially crucial to our 
readiness to fight. But more important, it is the right thing 
to do for our heroes who this very minute are serving in harm's 
way, defending our freedom. They are the practitioners of joint 
warfighting and the creators of transformation. They make 
things happen and should always be our top priority.
    The men and women of your Armed Forces are committed to 
achieving victory no matter how long it takes or where it takes 
us. They are counting on all of us to provide them the tools 
they need for success today and tomorrow. They certainly 
deserve our best effort.
    Mr. Chairman, I welcome the opportunity to work with you 
and the committee as we continue to fight against global 
terrorism, and I thank you again for the opportunity to be here 
with you today. I look forward to taking your questions.
    [The prepared statement of General Myers follows:]

           Prepared Statement by Gen. Richard B. Myers, USAF

    It is an honor to report to Congress on the state of the U.S. Armed 
Forces. The United States is engaged in a multi-front war that includes 
operations in direct defense of our homeland and a sustained military 
campaign overseas. All elements of our force--Active, Reserve, and 
National Guard--are taking part in this struggle to maintain the safety 
and security of our Nation, and the initial results have been 
promising. While there are relatively few American troops deployed ``on 
the ground'' in Afghanistan, it is important to note that a significant 
percentage of the force is directly engaged in some aspect of the 
global war on terrorism. At the same time, other threats to U.S. 
interests remain a part of the strategic environment. Thus, elements of 
our force are committed to other missions, such as defense of the 
Korean peninsula, protection of U.S. interests in Southwest Asia, and 
peacekeeping operations in the Balkans.
    With our friends and allies, we continue to gather intelligence and 
prepare for action against the al Qaeda network and other terrorist 
organizations that threaten nations around the world. As President Bush 
has reminded us on several occasions, the global war on terrorism will 
require great effort over an extended period of time--and it will 
require all elements of our national power. The U.S. Armed Forces are 
steeled and ready to engage the enemy for as long as it takes to 
complete the mission. The threat that we face and the effort that will 
be required remind me in some ways of the situation faced by the United 
States after the attack on Pearl Harbor.
    While there are significant differences between that global war and 
this one, there is at least one key lesson to be remembered. During 
World War II, the services showed a remarkable capacity to learn from 
experience. At the beginning of the war, they faced conditions they had 
not prepared for, but managed to adapt themselves in the midst of the 
fight and within a short time had established an extraordinary degree 
of teamwork and combat efficiency. We face a similar task today--to 
defeat multiple enemies who are capable of striking us with asymmetric 
means from locations around the world. Winning this new global war will 
require us to exhibit the same flexibility in adapting to changing 
conditions and considering new technologies and procedures to enhance 
our combat capabilities. An equally important imperative in the midst 
of this war is to continue to modernize and transform our force to meet 
future challenges in this rapidly changing 21st century.
    These imperatives dictate my priorities as Chairman--to win the 
global war on terrorism, to improve the joint warfighting capabilities 
of the U.S. Armed Forces, and to transform those forces so they are 
ready to face future challenges. I look forward to working with 
President Bush, Secretary Rumsfeld, and Congress in the months ahead to 
achieve these goals and to address other critical issues facing the 
U.S. military. To keep our forces superior to those of any other 
nation, we must maintain our quality force today and create the 
capabilities needed to meet the challenges of tomorrow. Guiding our 
efforts is the thought of the brave soldiers, sailors, airmen, marines, 
and coastguardsmen who are defending our way of life and who are 
counting on us to make the right decisions.

                        GLOBAL WAR ON TERRORISM

    As you well know, we are engaged in only the first phase of the 
global war on terrorism. In this new kind of war, we face adversaries 
who refuse to adhere to the norms of international behavior, who have 
sought access to weapons of mass destruction (WMD), and who have 
demonstrated both the capacity and the will to use those weapons. Our 
objectives in this war are simple: to disrupt and destroy global 
terrorist organizations, eliminate safe havens for terrorists, and 
prevent access to WMD by terrorist groups.
    In response to the terrorist attacks of 11 September 2001, we have 
been conducting both offensive and defensive operations. The Reserve 
components have been essential to these actions. As of late January 
2002, we had alerted just over 97,000 individuals for activation and 
completed the call-up of 64,013 people. Additionally, since 11 
September, the number of personnel, both Active and Reserve component, 
deployed to the U.S. Central Command area of responsibility increased 
from approximately 22,000 to about 60,000.
    The direct defense of the American homeland is called Operation 
Noble Eagle. This operation, comprised of actions to protect civil 
population centers, critical infrastructure, and special events, began 
with the dramatic shift in operational focus that the North American 
Aerospace Defense Command (NORAD) executed on 11 September. When the 
day began, NORAD's attention was on a large Russian air exercise in the 
Arctic. As the magnitude of the terrorist attacks quickly became 
apparent, the command ``shifted gears'' completely--to prepare to 
respond to further attacks, establish combat air patrols over key 
domestic locations, expand air operations, and accept command and 
control of Active component forces, including U.S. Navy ships with 
anti-aircraft systems to enhance the security of U.S. domestic 
airspace. Noble Eagle also includes Coast Guard inspections of cargo 
vessels and patrols in defense of major sea ports. Additionally, there 
is widespread augmentation of civil site security with both Active Duty 
and Reserve component military personnel. Familiar examples of these 
actions are the 7,200 National Guard troops augmenting security at 444 
airports, which will continue at least through March of this year. We 
have also enhanced security at military and other government 
installations and for space launch operations at Cape Canaveral. The 
North American Treaty Organization (NATO) has provided airborne early 
warning aircraft and combined aircrews to augment our airspace 
protection activities under Article 5 of the NATO treaty. This has 
freed U.S. E-3 Airborne Warning and Control System aircraft to 
prosecute the war in forward areas. We have also established a Homeland 
Security Joint Task Force (JTF) to coordinate and provide command and 
control for homeland security operations.
    Our offensive operations are labeled Operation Enduring Freedom. 
These actions include, but are not limited to, ground, air, and naval 
operations in the Afghan theater and North Arabian Sea; planning and 
training for follow-on operations; and a host of support activities. In 
2001, U.S. forces flew over 16,700 sorties employing over 17,000 
precision and freefall munitions in support of operations in 
Afghanistan. These operations included not only reconnaissance and 
strike missions, but also simultaneous humanitarian airdrop missions by 
C-17s flying from Germany.
    Operations Noble Eagle and Enduring Freedom have both highlighted 
many lessons that will be of great use in the subsequent campaigns of 
this war, as well as in our planning, programming, and transformation 
efforts. Foremost among them is the importance of versatility and 
flexibility to achieving operational success. Consider the examples of 
forward air controllers on horseback and special operations troops 
transporting their high-tech gear on donkeys to isolated mountain tops 
from which they directed strikes of precision guided munitions--
illustrations of the kind of versatility and flexible thinking that we 
need to foster.
    A second lesson is the ever-increasing importance of operations in 
the information domain. The actions in Afghanistan highlighted two key 
aspects of this topic. The first is the importance of a ``networked'' 
operations capability. We have continued the process of connecting 
sensors, shooters, and command and control elements with a single 
network of voice and data links, without regard to platforms or 
individual services. We do not yet have this capability complete, but 
we are making steady progress. For example, in Afghanistan special 
operations forces (SOF) on the ground guided strikes from both U.S. 
Navy and Air Force aircraft. Additionally, Navy and Air Force 
intelligence, surveillance, and reconnaissance (ISR) platforms were 
able to feed sensor outputs to Marine and SOF ground units, as well as 
other airborne platforms. We were also able to link real-time inputs 
from unmanned aerial vehicles to orbiting AC-130 gunships, which then 
provided responsive and pinpoint fire support to ground operations. 
These Afghan operations provide a hint of the operational advantages we 
will gain when this element of the transformation process is more 
mature.
    The second aspect of information operations highlighted by the 
Afghan campaign is the importance of a well-integrated information 
campaign. To that end, the Department of Defense (DOD) activated an 
information operations task force focused on winning the information 
campaign against global terrorism. This task force is committed to 
developing, coordinating, deconflicting, and monitoring the delivery of 
timely, relevant, and effective messages to targeted international 
audiences.
    Additionally, the more we rely on information resources and 
systems, the greater must be our efforts to protect them. An important 
step will be the development of military doctrine for Information 
Assurance/Computer Network Defense. This doctrine will guide our 
actions in employing safeguards against attacks upon our critical 
information networks and in detecting, combating, and recovering from 
cyber attacks as soon as they are attempted.
    Finally, another lesson learned with every operation, but that 
bears repeating, is that the friction and fog of war remain difficult 
to overcome. Our adversaries are always thinking and reacting in an 
attempt to increase our difficulties and defeat our forces. Although we 
do our best to prevent errors, because human beings make mistakes and 
mechanical systems sometimes fail, we will never have perfect success--
and sometimes will suffer tragic accidents. History tells us these 
types of difficulties will never be completely eliminated, but we 
continue to work hard to change this history.
    In addition to providing lessons learned, the campaign has 
reinforced some existing concerns and validated concepts that we have 
been working on for quite some time. It has had a significant impact on 
and exacerbated shortfalls in specialized assets and capabilities. It 
has also added emphasis to the requirement of maintaining an adequate 
inventory of precision guided munitions (PGM). These weapons are an 
increasingly important tool for operational commanders across the 
entire spectrum of conflict. We need to maintain sufficient capability 
in the industrial base to manufacture adequate quantities of PGMs. We 
also need to protect our ability to surge to meet increased demands 
associated with sustained high-tempo operations. We ask for your 
continued help in building PGM inventories so we may react to future 
contingencies with our full capability to deliver this lethal combat 
power.
    Other weapon systems that have further validated their potential in 
Afghanistan are unmanned aerial vehicles (UAV). The increasing 
importance of these systems in a reconnaissance and surveillance role 
and their newly demonstrated potential for accomplishing combat 
missions is unmistakable. We will continue to experiment with 
additional roles and missions for these vehicles, improve their 
communications reach-back capabilities, and develop and acquire them at 
greater rates.
    The war has also validated our emphasis on the importance of 
interagency coordination and cooperation, especially the need for close 
partnership with both domestic and international law enforcement 
agencies. On the domestic front, the military will usually act in 
support of civilian law enforcement and first responders, as has been 
the case in Operation Noble Eagle. We are working to build strong ties 
with other government agencies in the areas of training, planning, and 
operations--and especially in intelligence sharing. We have established 
a Domestic Threat Working Group with the goal of sharing domestic 
threat information between the services, Defense Agencies, and 
Combatant Commanders. This group allows us to properly fuse domestic 
intelligence related to the antiterrorism effort.
    As the war continues, the Armed Forces will remain focused on the 
fundamental mission of homeland defense. Our enemies have exploited the 
openness of our society and the very freedoms that we cherish to attack 
our citizens. To better organize our forces at home and provide support 
to civil authorities, we are in the midst of modifying the Unified 
Command Plan to establish a combatant command responsible for homeland 
security. However, our first line of defense will remain our overseas 
forces.
    On that front, our main effort is the destruction of the al Qaeda 
network. Continued success toward that goal will require sustained 
effort as we work with our friends and allies around the world to 
disrupt, preempt, and prevent terrorist attacks at their source. We 
have Special Forces troops in the Philippines, training and assisting 
their forces in antiterrorism efforts--another illustration of the 
global nature of this war. At the same time we stand ready to plan for 
and take action against other international terrorist organizations and 
the Nations that harbor them when ordered to do so. We are working 
diligently with our friends and allies to prevent the proliferation of 
WMD and their falling into the hands of terrorist organizations. Our 
challenge will be to prioritize resources and operations in support of 
that mission against the other security responsibilities to which we 
are also committed. We must remain trained and ready to execute the 
full range of military operations to simultaneously protect the 
homeland as well as other U.S. interests in the near term, even as we 
transform our forces to meet future challenges.

                IMPROVING JOINT WARFIGHTING CAPABILITIES

    The superb warfighting capabilities of the services have given us 
the winning edge in Operation Enduring Freedom and form the foundation 
for success against future adversaries. While our forces operating in 
and near Afghanistan have achieved enormous success on the battlefield, 
the same operations have revealed that so much more can be 
accomplished. I look forward to sharing with you after-action reports 
from Commander in Chief, Allied Forces Central Europe (CINCCENT) and 
his component and task force commanders for their recommendations 
regarding improvements to joint warfighting.
    Joint warfighting brings the combat capabilities of the services 
together with a focus on desired effects, resulting in a whole that is 
greater than the sum of the parts. It is, therefore, imperative that we 
continue to improve joint warfighting capabilities. We have made great 
progress in improving those capabilities, especially since the landmark 
Goldwater-Nichols legislation of 1986, but there is much still to be 
accomplished. In pursuing further improvements, there are four areas of 
particular importance to me: joint command, control, communications, 
computers, intelligence, surveillance, and reconnaissance (C\4\ISR); 
interoperability; joint officer management; and joint experimentation.
Joint C\4\ISR
    A cornerstone of joint warfighting is C\4\ISR. Although we have 
made significant recent improvements, current deficiencies in joint 
C\4\ISR result in gaps and seams between the combatant commands and 
between the forces the services provide. These gaps and seams must be 
eliminated. An adequate joint C\4\ISR capability will provide the 
necessary flexibility to better integrate diverse capabilities and 
achieve desired effects.
    In terms of command and control, development of a joint force 
headquarters based on this architecture is essential to improving our 
ability to rapidly deploy and employ joint forces. The 2001 Quadrennial 
Defense Review Report discussed the implementation of a standing joint 
force headquarters within each regional combatant command. Currently, 
the regional combatant commanders in chief and U.S. Joint Forces 
Command are developing proposals. Among the options we will examine are 
deployable joint task force headquarters and the deployable joint 
command and control systems required to support them. Building on these 
efforts, we will be able to recommend a standardized model later this 
year or early next year. I ask for your support of this critical joint 
warfighting initiative.
Interoperability
    The second key to improvements in joint warfighting is 
interoperability. The ability to fight jointly requires command and 
control and weapon systems that are interoperable with each other and 
with those of our coalition partners. The force must have systems 
conceived, designed, and produced with joint warfighting in mind. We 
must think in terms of interchangeable modules we can ``plug and play'' 
in any situation and any command. These modules can be as simple as 
individual components. They may be complex like a multi-service ISR 
network providing data to multiple layers of command at multiple 
locations. Or they may be planning tools, staff processes, and 
organizations that are standardized across combatant commands.
    Here, too, joint C\4\ISR is a focus for our efforts. We have made 
important strides, but we are acutely aware of the need to solve 
remaining interoperability shortfalls in our legacy C\4\ systems. It is 
critically important that future C\4\ISR systems have interoperable 
technologies, processes, and products. In terms of C\4\ISR, the 
necessary ``plug and play'' capabilities will be designed to facilitate 
immediate employment and readiness to accept additional forces, execute 
missions, and integrate multinational and interagency support.
Joint Officer Management
    In the long term, a third key to improving joint warfighting 
capabilities is continued improvements in the management of our joint 
officers. The quota-based system mandated by the Goldwater-Nichols 
legislation has served us well; however, joint officer management must 
evolve to reflect the way we operate in today's environment. To meet 
future requirements, we need more flexibility than currently exists. I 
applaud the independent study on joint officer management and 
professional military education directed by Congress. We are prepared 
to work closely with you to facilitate continued improvements.
Joint Experimentation
    Meaningful improvements in all areas of joint warfighting will 
require a willingness to question current practices, organizational 
patterns, and command processes--in essence, continued progress toward 
significant cultural change. One of the most important means of 
engendering cultural change is the joint experimentation process. This 
process is designed to evaluate new missions, devise new force 
structure, and test new operational concepts. For example, this summer 
the Millennium Challenge 2002 joint experiment will test the U.S. Joint 
Forces Command model of the standing joint force headquarters. Joint 
experimentation also allows us to integrate the experimental concepts 
and new weapon systems being developed by the services into a joint 
framework early in the development process. Finally, joint 
experimentation is a key element of the transformation process, and we 
are revising the Unified Command Plan to enable U.S. Joint Forces 
Command to focus more time and effort on experimentation and 
transformation efforts. Naturally, we need to use the lessons from 
Operation Enduring Freedom in the joint experimentation process to 
ensure we are prepared for subsequent battles in the war against 
terrorism.
    The willingness to examine and change, if necessary, all aspects of 
joint capabilities is imperative if we are to win the global war on 
terrorism and surmount other national security challenges of the 21st 
century. The process of improving joint warfighting is a key component 
of and is closely intertwined with our transformation efforts. Just as 
improved joint warfighting capabilities are necessary to succeed 
against future enemies, so too is transformation of the force a 
necessity.

                TRANSFORMATION OF THE U.S. ARMED FORCES

    Transformation is a process of change devoted to maintaining U.S. 
military superiority in all areas of joint warfighting. It is an on-
going process and must be continuous since our enemies will persist in 
attempts to neutralize or erode our superiority and exploit perceived 
weaknesses. As history has repeatedly shown, service modernization 
efforts have often proven to be the key to transformational change. 
This proved to be the case in World War II when an accumulation of 
incremental technical advances and tactical lessons, combined with a 
willingness to experiment, led to significant improvements in combat 
capabilities. While sudden technological, organizational, or doctrinal 
breakthroughs are possible and should be pursued vigorously, I believe 
our current modernization programs and those of the services will prove 
to be an engine of transformation in the 21st century as well. But we 
must ensure we are all heading down the same transformation path.
    Technological change alone does not lead to transformation--
intellectual change is also necessary. Transformation, therefore, must 
extend beyond weapon systems and materiel to doctrine, organization, 
training and education, leadership, personnel, and facilities. We need 
to foster cultural change that allows us to take advantage of both new 
ideas and new technologies.

Capabilities-Based Approach
    Part of the required cultural change entails a transition to a 
capabilities-based model as the foundation of our transformation 
efforts. Such an approach does not preclude consideration of specific 
threats. Indeed, it would be unwise to ignore those nations and 
organizations that pose a clear danger to U.S. interests. It is, 
however, appropriate, given the rapidly changing international security 
environment and the diffused nature of the threats we face, to shift 
the weight of our considerations away from our historical emphasis on 
specific threats. The United States cannot know with confidence which 
nations, combinations of nations, or non-state actors will pose threats 
to its interests, or those of its allies and friends. It is possible to 
anticipate with greater accuracy the capabilities that an adversary 
might employ. Such a capabilities-based model focuses more on how an 
adversary might fight than on who the adversary might be. It broadens 
our strategic perspective and requires us to identify the capabilities 
U.S. military forces will need to deter and defeat a wide variety of 
adversaries.
    Accordingly, an appropriate blueprint for change will include the 
following important considerations. First, we must base the process of 
change on an overarching set of capabilities we believe our forces must 
possess to support the National Security Strategy now and in the 
future. Second, we need to use those capabilities to guide the 
development of joint operational concepts and architectures that drive 
decisions concerning materiel and non-materiel improvements and to 
establish standards for interoperability. Third, because transformation 
involves more than fielding new systems, we must integrate requirements 
for new doctrine, organizations, training and education, leadership, 
personnel, and facilities into the process. Fourth, we need to find 
ways to modernize and integrate legacy systems when it makes sense, 
while developing technological bridges with interagency and 
international partners. Finally, we must ensure that the transformation 
process is characterized by unity of effort based on clearly defined 
roles and responsibilities throughout DOD.
    Joint Vision 2020 contains the conceptual outline we will use to 
help guide these transformation efforts. We will, however, commence a 
detailed evaluation of the document in the near future with a view 
toward updating it in light of the results of the 2001 Quadrennial 
Defense Review, changes to our defense strategy, the global war on 
terrorism, and strategic guidance from the administration.

Information Capabilities
    The area offering the greatest promise for the most significant 
transformation in the near term is information sharing. The U.S. 
military is an ``information intensive'' force. Much of the military 
superiority we currently enjoy rests on our ability to achieve and 
maintain a decisive advantage in accessing, gathering, exploiting, and 
acting on information. The ability to arrive at and implement better 
decisions, faster than an opponent can react, rests on the 
accumulation, processing, and understanding of vast quantities of 
operational and tactical information.
    As mentioned above, we have taken the first steps toward fully 
integrating our capabilities to find and strike targets of all types, 
using networks of sensors and shooters to achieve an effects-based 
targeting capability. Our goal is to allow dispersed forces to 
collaborate on operations and give our warfighters the ability to 
achieve desired effects rapidly and decisively--with a speed and 
accuracy that will overwhelm an adversary's ability to respond. This 
goal is attainable if we creatively use existing and planned 
technologies.
    Success will depend on several factors. First, we must take 
advantage of U.S. leadership in information technologies to create 
networks that allow a coordinated exchange of information among 
different levels of command and a wide variety of units at ever-
increasing rates. Second, we must shift from a reconnaissance to a 
surveillance approach in gathering information on adversary operations, 
emphasizing the ability to ``watch'' or ``stare'' at targets. Third, we 
must continue to place an appropriate emphasis on vital information 
transfers such as voice, video, and data exchanges, and on the ability 
to operate effectively in areas with primitive or nonexistent 
communications infrastructure. These requirements drive a growing need 
for more transmission capability or bandwidth. For example, in 
Afghanistan we used the maximum available bandwidth, and as we continue 
the interlinking of networks, our bandwidth requirements are only going 
to increase. It is also imperative that we continue to hold the line on 
military radio frequency spectrum allocations. Additionally, adequate 
investment in communications infrastructure is an absolute necessity. 
In particular, our reliance on satellite communications capabilities is 
expanding exponentially, and we need your support in ensuring the 
Military Satellite Communications program continues to enjoy full 
funding.
    We will also use improved networks of information systems to 
transform logistics capabilities. By taking advantage of new 
technologies, improving logistics processes, and fusing information 
from many different sources, decision support tools will integrate data 
to make logistics information available to the appropriate commander 
anywhere in the world. We have already fielded an initial joint 
decision support capability and have successfully experimented with a 
shared data environment that provides integrated information from 
various service legacy systems. This type of logistics capability will 
provide the joint warfighter with real-time logistics situational 
awareness and allow us to control and use our logistics assets with 
greater effectiveness and efficiency.
    Finally, continued improvements in all facets of information 
capabilities are dependent on acquiring, operating, and protecting 
computer networks. U.S. Space Command has the responsibility for the 
entire gamut of Computer Network Operations. The command's main areas 
of effort include reassessing the command and control relationships 
among Computer Network Attack (CNA) forces, re-evaluating CNA request 
and approval procedures, developing a Computer Network Defense mission 
needs statement, acquiring improved indications and warning 
capabilities for impending information attacks, and focusing all 
actions toward an effects-based capability.

Force Requirements
    Developing better ways to identify, validate, and acquire new 
systems is essential to effective transformation. To improve the 
generation of joint warfighting requirements, we initiated actions 2 
years ago to improve the Joint Requirements Oversight Council process. 
Since then, we have established processes to develop, test, and approve 
joint operational concepts and architectures that will be used to 
establish and enforce standards for system interoperability. 
Additionally, we now have a process to implement joint experimentation 
recommendations and have greatly improved our ability to assess and 
implement transformation of areas beyond weapon systems and materiel.
    As discussed previously, among the most important non-materiel 
initiatives is the development of a standardized Standing Joint Force 
Headquarters model. This headquarters will serve as a tool for 
combatant commanders in chief to improve joint warfighting and better 
integrate service-provided forces. The development of this model will 
require us to identify baseline command and control systems and 
standardized organizational patterns, tactics, techniques, and 
procedures.
    Another important initiative is focused on interagency cooperation. 
Threats to U.S. national security in the 21st century will, more often 
than not, require an interagency response. As a result, missions and 
responsibilities will blur across agency boundaries, and a decisive and 
timely interagency response to crises will be increasingly important. 
We recognize the need, therefore, to work closely with non-DOD agencies 
of the U.S. government on training, crisis planning, and coalition 
building.
    In terms of materiel changes, the improved accuracy and 
effectiveness of precision-guided munitions and our ability to match 
them to a variety of delivery systems have significantly reduced 
collateral damage and non-combatant casualties while greatly increasing 
the combat effectiveness and versatility of our forces. They have 
become integral to the plans prepared by the combatant commanders; 
therefore, we must ensure our requirements determination and 
acquisition processes meet this warfighter need. As we continue 
experiments to evaluate transformational technologies, we will look for 
weapon systems with similar high-payoff potential.
    One development with a high-payoff potential is theater missile 
defense. Analysis over the last decade has consistently validated the 
combatant commanders' requirements for a family of missile defense 
systems. There is a specific requirement for land- and sea-based, lower 
tier, terminal phase missile defense systems because of their 
capability against the predominate and growing short-range ballistic 
missile threat. The fielding of PAC-3 missile defense is an important 
first step, but only partially covers potential threats. The recent 
cancellation of the Navy Area Defense program allows us to assess a 
wider range of options for protection of sea and airports of entry. 
Additionally, we will continue to evaluate methods of broadening 
terminal-phase defense beyond a single tier so as to improve 
operational flexibility and the ability to achieve a sufficient 
probability of shootdown against the entire range of missile threats.

                 CRITICAL ISSUES FOR THE U.S. MILITARY

    As you consider the specifics of the Fiscal Year 2003 Defense 
Budget, I would like to bring to your attention a number of issues that 
are critical to maintaining today's quality force and meeting 
tomorrow's challenges. The most important of these is supporting our 
troops.
People
    Success in all missions depends on our number one asset--our 
people. We must continue to keep faith with both our Active and Reserve 
component members, as well as our retirees. We must keep their trust 
and confidence by ensuring they are compensated commensurately with 
their responsibilities and the hardships they face. We also need to 
ensure they have the tools and facilities they need to accomplish their 
missions. Collectively, the Joint Chiefs are committed to five quality 
of life initiatives: pay and compensation, health care, unaccompanied 
and family housing, infrastructure and workplace improvements, and 
those base support programs that comprise our community services. This 
past year's legislation was a large step in the right direction. We are 
grateful for the hard work of the administration, Congress, and 
Department of Defense in raising the standard of living and improving 
the quality of life of our Service members and their families, 
including the continued congressional support of the Secretary of 
Defense's initiative to reduce out-of-pocket housing expenses to zero 
by fiscal year 2005.
    I am also grateful for the strong support of Congress in providing 
a comprehensive, world-class health care program for our active duty 
and retired service members, and their families. Now, we must ensure 
the military health care system is fully funded. In view of today's 
security environment, we also must develop an adequate vaccine 
production capability and immunization programs, as well as medical 
surveillance systems that provide early warning of potential threats, 
enhanced medical data collection, and tracking processes to support the 
medical aspects of consequence management.
    Congressional support of our program to eliminate substandard 
family and unaccompanied housing has been outstanding. The services 
have made great strides and, for the most part, remain on track with 
their plans to achieve this goal by 2007.
    We must also commit to reversing the decay of infrastructure and 
workplaces. Within civilian industry, the replacement, restoration, or 
modernization of buildings is accomplished in roughly a 50-year cycle. 
By comparison, the rate of investment in DOD infrastructure has fallen 
to a level that requires over 100 years for recapitalization. The 
Fiscal Year 2003 President's Budget significantly increases our outyear 
infrastructure investment and puts DOD on a path to approach a 
recapitalization rate of 67 years by 2007. We need to ensure resources 
are available in the future to adequately sustain, restore, and 
modernize our facilities.
    Finally, community services is a critical quality of life area that 
is, perhaps, the easiest to overlook, but dollar for dollar, is one of 
the most effective programs the services provide. Based on the 2001 
Quadrennial Defense Review, we are reviewing existing community 
services programs and policies to ensure we meet the needs of the 
changing demographics of military families and keep pace with modern 
requirements.
    Providing better quality of life for our service members and 
families directly affects recruitment, retention, and family welfare. 
Personnel and family readiness are inseparable from operational 
readiness. We have made significant investments over the past several 
years in the quality of life of our soldiers, sailors, airmen, marines, 
and coastguardsmen and their families; we must maintain the positive 
trends we have worked so hard to establish.

Readiness, Modernization, and Recapitalization
    The war on terrorism has provided fresh validation of previous 
readiness assessments. Our forward deployed and first-to-fight forces 
remain capable of achieving the objectives of our defense strategy. 
However, we remain concerned about the effects of a sustained high 
operations tempo on the force, strategic lift and sustainment 
shortfalls, and shortages of ISR assets, as well as the challenges 
associated with weapons of mass destruction (WMD), antiterrorism, and 
force protection. Additionally, in some locations, we face operational 
limitations that may affect mission success. Usage restrictions and a 
shortage of training ranges and operating areas contribute to lost or 
degraded training opportunities, resulting in reduced operational 
readiness. Recent funding increases have helped address critical 
readiness concerns, but we must maintain an appropriate balance between 
near- and long-term readiness initiatives.
    One avenue for maintaining that balance is through modernization of 
our existing forces. The development and procurement of new weapon 
systems with improved warfighting capabilities leads to incremental 
improvements that cumulatively may result in transformative changes. 
Through a sustained and carefully managed process, we can reap the 
benefits of such an incremental approach while also pursuing more 
radical technological changes. Modernization thus serves as a hedge 
against both near-term readiness shortfalls and failures of unproven 
technologies.
    I also remain concerned with recapitalization of older assets. Our 
older fleet is taking its toll in increased operational costs and 
reduced equipment availability rates. For example, between fiscal year 
1995 and fiscal year 2001, the Air Force's F-15C/D aircraft, at an 
average age of 17\1/2\ years, have experienced an 83 percent increase 
in cost per flying hour (constant fiscal year 2000 dollars) and a 
decrease from 81 percent to 77 percent in mission capable rate. 
Similarly, the Navy's EA-6B aircraft, at an average age of 20 years, 
have experienced an 80 percent increase in cost per flying hour 
(constant fiscal year 2000 dollars) and a decrease from 67 percent to 
60 percent mission capable rate. For the Army, the M2A2 Bradley 
Infantry Fighting Vehicle, at an average age of 10\1/2\ years, has 
experienced a 61 percent increase in cost per operating mile (constant 
fiscal year 2000 dollars) and a decrease from 95 percent to 93 percent 
in mission capable rate.
    We cannot continue to defer procurement as we did over the last 
decade. Rather, we must accelerate the replacement of aging systems if 
we are to sustain our capability to meet near-term challenges and all 
of our 21st century commitments. In conjunction with the service 
staffs, we have conducted a steady-state procurement estimate that 
concluded the DOD should spend $100-110 billion (fiscal year 2001 
constant dollars) per year for several years to come to recapitalize 
today's force structure. The Fiscal Year 2003 President's Budget 
significantly increases current and outyear procurement investment and 
puts DOD on a path to approach steady-state procurement. We need your 
support to continue this real growth in procurement accounts.

Strategic Mobility
    Over the past several years, DOD has worked diligently to overcome 
the shortfalls in strategic lift capability identified in the Mobility 
Requirements Study-2005. The events of 11 September and the subsequent 
U.S. military response once again highlighted a requirement to deliver 
combat forces and their support elements quickly anywhere in the world.
    Our strategic lift forces proved themselves capable of supporting a 
fight in a landlocked country with limited infrastructure, 8,000 miles 
from the United States; however, we also identified deficiencies that 
call for resolution. For example, we do not have a sufficient number of 
C-17s to meet our strategic lift requirements, so procurement of 
additional aircraft remains our top strategic mobility priority. Our 
tanker force has significant shortfalls in total numbers of tankers, 
crew ratios, and maintenance personnel. Additionally, improvements in 
speed and capacity for inter-theater sealift are not expected to 
develop in the commercial marketplace so the government will be 
required to make research and development investments if we are going 
to derive benefit from emerging technologies in this area.

Personnel Strength
    The domestic and overseas commitments of the war on terrorism, when 
coupled with other ongoing commitments, have stretched our active 
forces. They also have the potential to stress our Reserve component 
forces and their patriotic civilian employers who are sharing precious 
personnel resources that are vital to continued economic recovery. As 
we move forward in the war on terrorism, we will continue to analyze 
our end strength requirements and will keep Congress informed regarding 
the results.

                               CONCLUSION

    I look forward to working closely with Congress this year as we 
progress toward attaining these goals. We face adversaries who would 
destroy our way of life. In response, your Armed Forces will not rest 
until we have achieved victory in the global war on terrorism. At the 
same time, improving the joint warfighting capabilities of our Armed 
Forces and transforming those forces are essential if we are to conquer 
successfully the ever-changing threats and challenges of the future.
    In pursuing these goals, we face tough, complex issues--with no 
easy answers. It is understandable that reasonable people can disagree 
on both the substance of and the solutions to those issues. The great 
strength of our form of government is the open dialogue engendered by 
such disagreements, and one of the privileges of my position is the 
responsibility of providing military advice to aid that dialogue. The 
men and women of our Armed Forces are doing a superb job. We owe them 
our best as we work through these issues. Thank you for the opportunity 
to present my views and your continued outstanding support of our 
soldiers, sailors, airmen, marines, and coastguardsmen.

    Chairman Levin. General Myers, thank you for that powerful 
statement. Thank you both.
    The vote is scheduled to begin just about now. Again, we 
will try to keep the hearing going right through the vote, some 
of us leaving early and coming back in time to continue with 
questions.
    Secretary Rumsfeld, the 2003 budget request contains a 
contingency request of $10 billion. It is stated to fight the 
war on terrorism. It is stated very generally. Other than the 
extraordinary circumstances that prevailed immediately after 
September 11 last year, Congress has generally not appropriated 
money in advance for unspecified military activities or 
contingency operations.
    My question is this: As requested, could those funds be 
used for any activities that the President or you decided to 
use them for? For instance, could that $10 billion be used to 
initiate military operations against any of the three countries 
specifically identified as terrorist states in the President's 
State of the Union message without further authorization or 
action of Congress?
    Secretary Rumsfeld. Mr. Chairman, the $10 billion 
contingency fund as proposed by the President clearly would not 
be spent if the United States were not engaged in the war on 
terrorism at the early part of 2003. Also, it is clear that the 
amount would have to be more in the event that we were engaged, 
because the $10 billion included in the contingency would only 
provide the current level of effort into the early months of 
2003. It would not carry us through the year.
    That being the case, if one assumed that we are in roughly 
the same circumstance we are today, still tracking down al 
Qaeda and Taliban pockets of resistance in Afghanistan and 
engaged in activities elsewhere in the world, the dollars would 
be roughly what we are currently spending. I think it is about 
$1.8 or $1.9 billion a month. So it would carry us through 3, 
4, or 5 months. If you disaggregate what the cost of the war, 
something between 50 percent and 30 percent is in the homeland 
defense category for combat air patrols, assistance on our 
borders and in our airports, and at a host of events, such as 
the Olympics, and the Super Bowl.
    My understanding is that the funds would be used for the 
war on terrorism that the President has announced. He has 
indicated that al Qaeda is in some 60 countries, and that the 
task has to be to root out those terrorists. I do not think 
there is anything in the budget that contemplates--it is such a 
relatively small amount of money, given the current demands on 
us--anything of the size that you are talking about.
    Chairman Levin. General Myers, there is some confusion as 
to exactly what our forces will be doing in the Philippines and 
I would like you to address that issue. The Philippine army 
units are going out on patrol to find and capture or destroy 
terrorist elements in the Philippines. One of our commanders 
there said that our forces will be going into dangerous places.
    Can you tell us what the mission is of the forces which are 
being deployed to the Philippines, and is it likely that they 
would be involved in what would normally be considered combat 
operations along with those patrols seeking out those terrorist 
groups?
    General Myers. Mr. Chairman, I know there has been some 
confusion over the role that Joint Task Force 510 will play in 
the Philippines. They are really there to assist the Philippine 
government and the Philippine Armed Forces in their quest to 
rid their country of terrorist organizations, in this case 
specifically the Abasayef group, which we know has some ties to 
the al Qaeda organization as well.
    What we hope to bring to them is some assistance, training, 
and advice in the areas of command and control, communications, 
and intelligence analysis and fusion of many sources of 
intelligence. We will do that, provide that advice and that 
training, down to the battalion level. This is not an operation 
like you saw in Afghanistan. This is assistance and this is 
training.
    To answer your other question, is it possible that our 
forces will come in harm's way. I think the answer to that has 
to be it is absolutely possible. This is a very dangerous 
group. They have kidnapped many people over time and they hold 
two Americans today, as I think we are all pretty well aware 
of. They have beheaded people, so we shouldn't think that our 
folks will not be in harm's way.
    But this is to assist and advise the Philippine Armed 
Forces so that they can take the fight to the enemy with our 
assistance.
    Secretary Rumsfeld. Mr. Chairman, may I comment on that?
    Chairman Levin. Yes. If you would, while you are commenting 
tell us, given that prospect, will Congress be given notice 
under the War Powers Act of that prospect?
    Secretary Rumsfeld. Let me just first elaborate briefly on 
General Myers' response. There are really two aspects to the 
existence of U.S. Armed Forces in the Philippines. One is, as 
the General indicated, training 4,000 or 5,000 Philippine 
troops to engage in trying to deal with terrorist groups.
    The other is that there may very well be some in the 
Philippines on an exercise, which is a separable thing. The 
reason I mention this is because there has been some 
sensitivity in the Philippines. They have a constitutional 
provision about foreign forces being in their country for 
combat purposes. The president of the Philippines and the 
Ministry of Defense of the Philippines have been very careful 
to properly characterize what our role is.
    What General Myers addressed is the problem of self-
defense. Our troops are involved with assisting and training, 
with training essentially, and do have rules of engagement that 
permit them to defend themselves. But they are not there in an 
active military role, as the President of the Philippines and 
the Ministry of Defense of the Philippines has indicated.
    Chairman Levin. My time is up. We will pick up on that 
because I think there is still some real difference as to the 
prospect of them engaging in what is normally called combat and 
what the very purpose of the patrols that they will be joining 
is, unless you are saying they are not going out on those 
patrols, that they are going to be limited to a battalion 
level. If that is what you are saying, that is different 
because then they are not going out on the patrols that are 
seeking out to destroy the terrorist groups.
    General Myers. Mr. Chairman, the current plan is that they 
will advise at this point no lower than the battalion level, so 
I think your assumptions are correct.
    Chairman Levin. Senator Hutchinson.
    Senator Hutchinson. Thank you for calling the hearing 
today. I want to thank Secretary Rumsfeld and General Myers for 
the leadership they are providing our country in this war on 
global terrorism. As I told you before the hearing, Mr. 
Secretary, I think our country is fortunate to have you and 
your team at this time of great crisis. I am glad you are 
there.
    The sobering assessment that you have given in recent days 
in speeches and briefings, as well as the very strong and 
forceful language that the President appropriately used in the 
State of the Union address, continues to keep the American 
people on the alert and aware of the great challenges that we 
have ahead. This is not a short or easy prospect that we have. 
I think the assessments that you have given fully justify the 
kind of budget requests that you have laid out before us today.
    You mentioned in your prepared statement, Mr. Secretary, 
the $300 million budgeted to create a biological defense 
homeland security support program to improve U.S. capabilities 
to detect and respond to biological attack against the American 
people. I am pleased with that and I want to ask you about it. 
Biological defense is something that I have been very involved 
in and concerned about.
    I have supported the administration in their desire for 
national missile defense and its rationale that we must not 
leave our cities and the American people defenseless against 
enemy attack. Yet when we look at the area of vaccine 
production and the possibility of a biological attack, the 
American people remain defenseless to a large extent against a 
threat that is arguably greater and more imminent than a 
missile attack.
    General Myers, in your submitted testimony you state that: 
``In view of today's security environment, we must develop an 
adequate vaccine production capability.'' I am very pleased 
with the recognition of vaccine production as an immediate 
priority. As we send our troops into combat around the globe, 
it is critical that they have adequate protection against 
biological weapons.
    It seems to me there has been a growing consensus that the 
Department needs to establish an organic vaccine production 
capability, a government-owned/contractor-operated facility 
(GOCO) as the key to a vaccine acquisition strategy. The 
Department of Defense recommended this approach twice, 
including a report that was issued last August. This approach 
has been endorsed by the Gilmore Commission on Combatting 
Terrorism. The approach has been endorsed by the Institute of 
Medicine at the National Academy of Sciences and last year's 
defense authorization bill included the authority for the 
Department to go forward with a GOCO.
    Mr. Secretary and General Myers, will the Department be 
moving expeditiously on the planning, design, and construction 
of a vaccine production facility?
    Secretary Rumsfeld. My understanding of the current status 
is that the Department of Defense has been working closely with 
the Department of Health and Human Services. The decision as to 
whether to further fund a GOCO or a contractor-owned 
contractor-operated--I guess it is ``COCO''--production 
facility is pending the analysis of the national requirement 
for biodefense vaccines.
    Senator Hutchinson. General Myers, could you comment?
    General Myers. The only thing I would say, Senator 
Hutchinson, is that the requirement to have some sort of 
facility, however it is organized, is well-documented. I think 
the discussions and the process is going on to figure out the 
best way to do this. But from my standpoint, the requirement is 
a valid requirement.
    Senator Hutchinson. I think that the studies, as I cited 
them, show that the consensus has been for a GOCO. ``COCO'' has 
kind of a funny sound to it. GOCO sounds all right.
    Do we have any time frame on when we can expect decisions 
on which direction we go on an acquisition strategy?
    Secretary Rumsfeld. I do not know of a time frame on it. I 
can check.
    [The information follows:]

    The Department of Defense has intensified the focus on 
securing an assured source of safe and effective vaccines for 
use against biological warfare agents. To that end, DOD has 
coordinated an assessment of approaches to fulfill this 
requirement. This assessment included participation from the 
Department of Health and Human Services, the U.S. Department of 
Agriculture, the Office of Homeland Security, other federal 
agencies, and key executives in the pharmaceutical industry.
    As a result of this assessment, the DOD is recommending 
establishment of a high-level executive council, tentatively 
established with representatives from DOD, HHS, USDA, the 
Office of Homeland Security, and the President's Science 
Advisor, to address national vaccine requirements.
    Therefore, to allow full development of a national 
approach, the DOD is reconsidering the need for a government 
owned, contractor operated (GOCO) contractor owned, contractor 
operated (COCO) Vaccine Production facility as part of an 
overall program. Consequently, the current fiscal year 2003 
President's budget submission does not include funding for this 
effort. The recommendations of this new executive council will 
determine how we proceed with this program in the future.

    Senator Hutchinson. I would appreciate getting some 
guidance on that. I think it is a huge issue. We all understand 
the vulnerability that our forces, and indeed the American 
people face, to biological attack. It is a huge area of the 
weapons of mass destruction issue that we have to address, 
without alarm, or panic. We must move expeditiously because too 
much time has passed already completing a plethora of studies.
    Once again, I want to thank you. I just am very pleased 
with the kind of forceful and reassuring leadership that you 
have given our Nation and the American people. Thank you.
    Secretary Rumsfeld. Thank you, sir.
    Senator Warner. Mr. Secretary, some members have had to go 
vote. We apologize for some having to leave, but we want to 
keep the hearing rolling and use this time.
    You and I discussed yesterday at lunch my concern, and 
indeed I think the concern of many here in America, about the 
decline in military spending by some of our principal allies, 
particularly those in the North Atlantic Treaty Organization 
(NATO). Last week, Secretary Wolfowitz attended the Wehrkunde 
Conference, where the Secretary General of NATO, Lord 
Robertson, spoke. We know him well; we have a high respect for 
him. He was former chief of the defense for the British 
government.
    Robertson said: ``Europe has the status of a military 
pygmy''--strong words--``and is falling farther behind the 
United States in terms of military capabilities as a result of 
not investing enough in defense.''
    Our President, quite properly, is asking for the largest 
increase in defense spending in two decades, the last of that 
magnitude being under President Reagan. I think our taxpayers 
are ready to assume it. A bipartisan spirit exists in Congress. 
Terrorism is common to all nations in terms of its potential 
threats.
    What can you say to the American public here at this moment 
as we address this budget on that question?
    Secretary Rumsfeld. Senator Warner, it is a question that 
we all think a lot about and certainly, as a former ambassador 
to NATO, I have thought about it a good deal in terms of the 
contributions over the decades. I think it has to be said that 
during the period of the Cold War our NATO allies were involved 
and did invest, in varying degrees to be sure, and it did tend 
to ebb and flow over time. But thanks to the leadership of 
successive governments on both sides of the Atlantic, we were 
able to have the kinds of investments that enabled us to 
prevail in the Cold War.
    There are two points I would like to make with respect to 
this issue. First, with respect to the war on terrorism, we are 
receiving assistance from a number of countries, both NATO as 
well as non-NATO countries, in terms of dollars, in-kind 
contributions, and troops on the ground. I think at U.S. 
Central Command (CENTCOM) in Tampa, General Franks has 
approximately 20-plus countries with liaisons actively 
cooperating in intelligence-sharing, overflight rights, basing 
rights, troops, ships, and aircraft. There is a coalition that 
is functioning.
    Second, with respect to Lord Robertson's comments, he is 
basically right. For whatever reason, we are in a period in 
Europe where a lot of the governments have not been making the 
kinds of investments in defense that the NATO Council 
continuously calls on them to do. What is the answer to that? I 
do not know any better answer than anyone does.
    I suspect it is because we understand in this country, to 
our great credit, that all of our freedoms and opportunities 
depend on having a relatively peaceful and stable world. It is 
the Armed Forces of the United States that enables us, along 
with diplomacy and economic interaction, to contribute to peace 
and stability in the world and provide a deterrent to global 
conflicts.
    We also have no choice because at this moment in history 
our country has a leadership position. It is distinctive. Yet, 
there is no reason in the world why the European countries 
cannot do more. No country has to do everything. Those 
countries are perfectly capable of selecting out areas where 
they can be particularly helpful, and some have, there is no 
question about that.
    Senator Warner. If I could interrupt, I think your 
testimony today quite properly alluded to the tragic loss of 
life on 9-11, but also the extraordinarily severe impact on our 
Nation's economy. The figures that you relate today are 
staggering and should be considered not only here at home as we 
accept this request of our President for increased defense 
spending, but clearly abroad. They have the same tall 
buildings. They have the same vulnerable targets, and it could 
be at their doorstep next. I hope that those facts you related 
distressingly this morning will be taken to heart by them.
    Mr. Secretary, during the course of our visit to the region 
over Thanksgiving, Senator Levin and I met General Franks. We 
also shared four Thanksgiving dinners with our troops in 36 
hours, which was quite interesting. We will have General Franks 
here tomorrow before this committee. General Myers and 
Secretary Rumsfeld, he has done a brilliant job.
    Secretary Rumsfeld. Absolutely.
    Senator Warner. It is extraordinary to have had him in 
place at this particular point in time.
    While I was in that region and visited a carrier myself, I 
talked to him at length about the importance of our naval 
ships, which were able to bring platforms from which our 
aircraft could launch as close as possible to the targets, 
because of the waters in which they operated. Even in that 
proximity, as close as they could get, they still had many 
flying hours. Some of those missions were 4 and 5 hours to get 
in on target, to be there just 30 minutes or so, and then come 
back out, with significant refuelings.
    Mr. Secretary, I think you are the first Secretary in 
history to have been a naval aviator. Have you ever checked 
that out?
    Secretary Rumsfeld. No, sir, I have not.
    Senator Warner. Well, I think it is a point of history, 
having flown off those carriers yourself. I took note that your 
budget slipped funding for the carrier that has been planned 
for a number of years. When you look at the funding profile, I 
think it is not one that will cause any question about the 
carrier program. But I would like to have your reassurance that 
the carriers are still an integral part of our shipbuilding 
program, that this slipping of 1 year to enable technology to 
catch up with the construction contracts is in no way to be 
construed as a lessening of support in your Department for the 
naval aviation component and particularly those of carriers.
    Secretary Rumsfeld. No, sir. You have stated it correctly. 
I believe it is a 1-year slide to the right.
    Mr. Zakheim. That is correct.
    Secretary Rumsfeld. There is no question but that the 
Quadrennial Defense Review and the defense planning guidance 
that went out fully recognizes the importance of carriers in 
our capability.
    Senator Warner. That Quadrennial Defense Review had 108 
active duty surface combatants and 55 attack submarines, and 
our shipbuilding today will not enable us to maintain those 
force structures unless we begin to see an increase. I have so 
indicated to the Secretary of the Navy in my conversations with 
him yesterday and he gave me the assurance that they are going 
to address it in the out years.
    Now, turning to precision guided missiles, General Myers, 
in your written testimony you mention that over 17,000 
precision and free-fall munitions were employed in support of 
the operations in Afghanistan. You also mention the importance 
of maintaining sufficient industrial surge capacity to fill the 
need for these weapons during the sustained high-tempo 
operations.
    What percentage of the weapons used in Afghanistan were 
precision guided and does the fiscal year 2003 budget, which 
you are presenting today, restore and maintain sufficient 
inventory of these weapons?
    General Myers. Senator Warner, the good news is that both 
the supplemental for the war on terrorism in 2002 and the 2003 
budget do exactly what we need to do in terms of preferred 
munitions, which in the most case are precision munitions. The 
problem we found ourselves in is that we had some new munitions 
coming on board and we had not build up sufficient stocks to 
cover what all the unified commanders thought they needed for 
their war plans. We were in the process of doing it. It was 
kind of the normal process, if you will.
    We have significantly increased the funding again in the 
2002 supplemental for the war and in the 2003 budget to correct 
those deficiencies. One of the interesting things we are going 
to have to look at in the future is that Joint Direct Attack 
Munitions (JDAMs) quickly became the preferred munition. As I 
remarked in my statement, those were the global positioning 
system guided weapons that are useful in any conflict, but 
particularly useful in this conflict. In fact, we were using 
almost 3,000 a month during this conflict.
    Laser-guided bombs were used heavily as well, about 1,700 a 
month for those. They are both essentially built by one 
manufacturer each, and they have some subcomponents that are 
common to both of them with only one supplier. So we 
potentially have an industrial base issue. But we have ramped 
up production and we think the 2003 budget really supports that 
in all the services the Air Force and the Navy in particular.
    Senator Warner. Do you see our allies moving ahead on 
guided weapons? That is a key point.
    General Myers. Senator Warner, I think you bring up a very 
good point. The practical aspect of our allies and our partners 
underfunding defense is that as time goes on it becomes harder 
and harder for them to participate with U.S. forces as we get 
ahead of them in precision guided weapons and our ability to 
provide the strategic lift, be it sealift or airlift. That is 
an issue for our allies for sure, particularly in their ability 
to link with us. I talked about C\4\ISR. As time goes on, and 
the smaller their budgets get, we are going to find it very 
difficult to continue to work with some of these countries.
    Now, what the Secretary suggested is that they could 
specialize. Some nation could decide that strategic airlift 
could be their specialty and they could help in that regard. 
But regardless, this is an issue that will become more and more 
serious. We have transitioned our force. I think in Desert 
Storm 10 percent of the munitions we dropped were precision 
munitions and we have essentially flipped that percentage in 
Afghanistan, where upwards of 90 percent of our munitions were 
precision munitions. Our allies need to come with us on this 
journey to provide, as the Secretary said, the defense of 
freedom, so we do not have to fight these wars.
    Secretary Rumsfeld. I think it is worth mentioning that 
NATO invoked the article that said an attack against one nation 
is an attack against all, and as we sit here today NATO 
Airborne Warning and Control Systems (AWACS) are flying over 
the United States, assisting us with the homeland security 
aspect of our problem.
    We also do not want to lump all the allies together. There 
is no question that the United Kingdom, for example, has some 
very capable aspects of their armed services that have been 
contributing significantly in Operation Enduring Freedom.
    General Myers. Senator Warner, let me correct my number. It 
is a little greater than 60 percent precision munitions, not 90 
percent as I stated.
    Chairman Levin. Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman. I join 
in welcoming the Secretary and the Chairman to our committee.
    Certainly, some things were done right over the last 8 
years because our service men and women are performing so well, 
and we all take our hats off to them.
    We have a limited period to ask questions. I am going to 
give you three, Mr. Secretary. This is not multiple choice. If 
you can comment on them, I would appreciate it. We will start 
with a more technical one regarding science and technology. You 
have said we need the best-trained, best-led, and the best 
technology, yet your science and technology budget is 
effectively flat. I am not talking about the research and 
development budget; I am talking about your science and 
technology budget. Is this not necessary in terms of where we 
are going in the future?
    Second, if we compare shipbuilding to the Clinton program--
they get up to 23 ships and you are at 17 ships. I know there 
is a difference, not a great deal of difference in the ships, 
but a rather significant difference. Even with your increase in 
budget, the shipbuilding budget is really dramatically lower 
than it was even in the Clinton program, which had a 
significantly lower defense budget. Perhaps you would want to 
make some comments. We will hear more from the Secretary.
    The third item, and perhaps the one I would hope that you 
might spend the most time addressing, is that I had the chance 
to go to Fort Detrick recently and see what the DOD is doing 
out there in regards to bioterrorism, both in equipping our 
service men and women with the vaccines and in making 
recommendations on how to preserve military service members and 
civilians.
    There is a good deal of expertise out there in terms of 
understanding what the Russians are up to. A number of them 
have been over with counterparts in the Soviet Union. I would 
be interested if you would comment on your own sense about the 
effectiveness of the storage of the various bioterrorism 
materials in the Soviet Union and how secure they are, as well 
as the scientists that have been working in those areas. As we 
are looking at the area of prevention, what are we doing in 
terms of the budget on the cooperative threat reduction (CTR)? 
That obviously applies to nuclear weapons, but it also can be 
used in terms of the bioterrorism.
    In your budget, what addresses that? Perhaps you would 
comment as to what is being done now and what you think should 
be done.
    Secretary Rumsfeld. Yes, sir. I will start and just make a 
brief comment on the science and technology budget. You are 
right, it is not up to the level we are aiming for, which is 
about 3 percent. I think in 2003 we are at about 2.7 percent of 
the overall budget. It is a very important aspect of the 
budget. Tradeoffs were made, choices were made, and that is 
where it came out. But I certainly agree with you that it is 
important.
    Dov, do you want to comment?
    Mr. Zakheim. Sure. On the numbers, we tend to look at what 
our request is compared to the immediately prior request, 
simply because there are a number of programs that Congress 
chooses to add. Just to have an apples to apples comparison we 
look at what we asked for in the previous year. We are up by 
over $1 billion relative to the previous year. We are actually 
slightly up even if one includes the congressional add-ons that 
took place in fiscal year 2002, although it is a small amount, 
something like $13 million.
    But more important in terms of the percentages, Senator, is 
that, even though our baseline is so much larger because of the 
increase, we are actually slightly above percentage-wise 
relative to what we asked for a year ago. A year ago we were at 
2.65 percent. Now we are at 2.68 percent. So we are headed 
toward the 3 percent goal. We are maintaining that goal even 
though the baseline is larger.
    Senator Kennedy. Just quickly because my time will be up, I 
was looking at really the science and technology rather than 
the total research and development budget.
    Mr. Zakheim. That is what I am referring to.
    Senator Kennedy. As I understand it, you have gone from 
$8.8 billion to $9.9 billion.
    Mr. Zakheim. That is right.
    Senator Kennedy. It is effectively flat and I think I have 
answered the question on it. I think it leads on into making 
sure we are going to have the cutting edge.
    Mr. Zakheim. Yes, but that is $1 billion, sir, which is not 
really flat. It is about over $8.8 billion. It is quite a 
significant increase when you are talking about $1.1 billion, 
sir.
    Senator Kennedy. On the ships, Mr. Secretary?
    Secretary Rumsfeld. Yes, sir. As I mentioned in my opening 
remarks and in the prepared statement, the Navy made some 
choices during this budget cycle that were based on their 
conclusion that, because the average age of ships in the Navy 
is relatively young because of the sizable number of purchases 
during the buildup period of the 1980s, they were better off 
making choices that tilted their funds toward the operation and 
maintenance accounts and toward some aviation accounts.
    They recognized that we cannot sustain the current size of 
the Navy if we are building ships at the rate that this current 
budget proposes, and this budget is down, I believe, about a 
billion dollars in shipbuilding. Therefore, if you look in the 
future year defense plan (FYDP), we do get up to 10 ships in 
the last year and I believe 6, 7, or 8 in the middle years, 
which will begin to correct the problem.
    There were bills from prior shipbuilding contracts that 
were much larger than had been programmed in that budget, and I 
believe that was something in excess of $600 million that we 
are paying this year for ships that were being budgeted in 
prior years. So we are having to pay off these overruns that 
existed.
    Do you want to comment additionally?
    Mr. Zakheim. Yes, sir. On the prior year contracts, 
Senator, if you took what we put in the 2002 budget for prior 
year shipbuilding, which was about $730 million, and you add 
what the Secretary just mentioned, about $645 million, you 
could have bought at least one ship and maybe two. The decision 
was made that we really needed to clean up our past act first. 
That goes to the heart of what we are trying to do with 
realistic budgeting and to have a better baseline from which to 
build more ships.
    As the Secretary said, because we have a fleet that is 
about 16 years old on average, it gives us a little bit of time 
to both clean up the past and get ready for the future.
    Senator Kennedy. I appreciate it. I know the time is 
running down, particularly where there are a number of the 
older ships, such as the auxiliary ships and other resupply 
ships. But I appreciate your comment and we will have a chance 
to talk to the Secretary about it.
    On the questions on the bioterrorism, Mr. Secretary?
    Secretary Rumsfeld. Dov, why do you not respond on that.
    Mr. Zakheim. Sure. Senator, we are funding the CTR program 
you referred to, commonly called Nunn-Lugar, at $416 million, 
which is roughly what we funded it at last year. Not all the 
money in the past has been expended and there has been a 
considerable buildup of unexpended funds.
    Many people have argued for that reason that we should not 
have put more money in. The administration and the Secretary 
felt that it was terribly important to keep funding CTR to send 
a message that we were prepared to do exactly what you were 
talking about. That is why we have maintained the level.
    Secretary Rumsfeld. With respect to the last part of your 
question, Senator Kennedy, we have to worry about the 
biological weapons and capabilities of Russia and how they are 
managed and how they are handled. We clearly have to worry 
about the people that were involved in developing those 
capabilities because they are available to other countries to 
assist. It is a very serious problem.
    Senator Kennedy. My time is up. I will send you just a 
brief note on that if I could, about some of the observations 
we have made out there, for whatever consideration you have.
    Secretary Rumsfeld. Good. Thank you.
    Senator Kennedy. Thank you very much. At this point, I 
would like to submit my opening statement for the record.
    [The prepared statement of Senator Kennedy follows:]

            Prepared Statement by Senator Edward M. Kennedy

    Thank you, Mr. Chairman. I join in welcoming Secretary Rumsfeld and 
General Myers, and I look forward to their testimony on the Fiscal Year 
2003 Defense Budget.
    I know I speak for all of us when I express our vast appreciation 
and respect for all the men and women in the Armed Forces who are 
fighting to uphold our values and to keep us free. Our first priority--
indeed our number one responsibility--is to ensure that our Armed 
Forces have the resources to complete their mission.
    I fully support the President's goals of winning the war on terror 
and defending the homeland. I am concerned, however, that the large 
budget increase--the largest in over 20 years--is spent wisely on 
systems and new technologies that will improve our military's combat 
readiness. Additionally, it is unclear how this year's budget will be 
used to achieve the Department's transformation goals outlined in the 
quadrennial defense review. I am also concerned with the large national 
missile defense budget, particularly in light of current threat 
estimates. I look forward to hearing your comments on these areas.
    People must continue to be our number one priority. Recruiting, 
training, equipping, and retaining a technologically superior force 
will be the cornerstone of transforming our military and maintaining 
our superiority. I am pleased with the progress we have made in 
improving military pay, housing, and medical care and I look forward to 
closely working with the Department to continue these efforts.
    The key to our defense policy has been the ability to deter a 
potential adversary and should deterrence fail, our ability to fight 
and win. Deterrence may best be achieved through investments in science 
and technology. We should carefully study lessons learned from current 
operations to ensure we invest in the right systems and technologies to 
maintain our superiority in the future. We must improve our ability to 
gather, process, and disseminate intelligence information and convert 
that into knowledge for the warfighters. Our people deserve the very 
best intelligence. Our capability to understand and dissuade potential 
adversaries demands this.
    Should deterrence fail we must develop and maintain the capability 
to fight and win any future war. While this requires significant 
investments in transformational technologies and systems, we must also 
continue to modernize and procure systems to support our existing force 
structure. I would like to see more emphasis on ensuring adequate 
airlift and sealift capability that is essential to get our forces and 
equipment to the fight. I am also deeply concerned with our 
shipbuilding plan. I do not feel it adequately addresses the 
requirements necessary to support the forward presence strategy 
outlined in the QDR.
    The outstanding performance of our forces in Operation Enduring 
Freedom has validated the hard work and important decisions the 
Department and Congress have made with our past defense budgets. Now 
more then ever we must think to the future to ensure we maintain our 
readiness and enhance our technological edge. I look forward to working 
closely with you, Secretary Rumsfeld and General Myers, in the months 
ahead on these complex issues.

    Senator Kennedy. Senator Inhofe.
    Senator Inhofe. Thank you very much, Mr. Chairman.
    Let me first of all say that there is going to be some 
criticisms as to the level of the defense budget. There are a 
lot of us who feel that even what you have sent to us is still 
inadequate in many areas, as I think was pointed out by Senator 
Kennedy. I have some of these areas that I am very much 
concerned about.
    I have to say that I just returned in the last 5 days from 
Ramstein, Aviano, Vicenza, Camp Eagle in Bosnia, Camp Darby way 
down in the southern part of Italy, and the hospital at 
Landstuhl. The reason was that back when Republicans were 
important, I was the chairman of the Readiness and Management 
Support Subcommittee for about 6 years and so I have an 
orientation toward readiness. I have to say that in all cases 
we have a very high OPTEMPO. I think we all know that. We have 
a high level of dependency upon Guard and Reserves.
    I want to share something with you. At the hospital at 
Landstuhl, where all of those who are injured in the Afghan 
effort are immediately transferred to, I talked to a number of 
the troops who are over there, who are injured, and who are 
really paying a high price. Specialist Justin Bingool of the 
10th Mountain Division was crushed in an earthmoving effort 
over there. Chief Warrant Officer Fred Pellino of the 101st, 
along with Corporal Eldridge of the 101st, were both in that 
helicopter accident, which was a very tragic thing. Lastly, 
Seaman Latoya Stennis--oddly enough, the same name--was on the 
U.S.S. Stennis, and she was an entry level seaman who was swept 
off in a refueling accident from the Stennis in the Afghan 
theater.
    Just imagine being swept off, falling 66 feet into the 
water down below, and crushing both lungs. All four of these 
servicemembers said that their first concern was to get back 
with their unit. All four said, as did everyone else I talked 
to, those who were injured, that they were going to be career. 
I just cannot tell you how moving it is when we talk to these 
individuals. I know that you have done that, both of you, 
General Myers and Secretary Rumsfeld.
    But at the same time, while Senator Kennedy brought out 
some of the inadequacies of the budget, I see force structure 
as an inadequacy. These people are willing to do it now, but we 
know, and you have said many times, that this is going to be a 
long and sustained effort. We are using our Guard and Reserve 
to a point where we are losing some real critical military 
occupational specialties (MOSs). They do not want to leave, but 
they have to do it because these people, by their very nature, 
are maintaining a career.
    Since we are flat in our force structure--and I know that 
you would probably agree with me that we should be increasing 
it in the regular services--I would like to have your comments 
on that. If you do not feel we need to increase it, what we can 
do in terms of the problem that we are having with Guard and 
Reserve. They are doing a great job, but some of them just 
cannot continue with these deployments.
    Secretary Rumsfeld. Senator Inhofe, I share your feelings 
after visiting our troops and certainly thank you for your many 
visits to the troops. I know they are appreciated by the men 
and women you visit, as well as the rest of us.
    General Myers properly talked about the fact that this is a 
total force effort, and indeed it is. I mentioned that we have 
some 60,000 Guard and Reserve and another 10,000 people that 
are being held in, for a total of 70,000 that in the normal 
order of things would not be involved in the activities of the 
U.S. Armed Forces absent the war on terrorism.
    We are doing a variety of things to deal with it. For one 
thing, every time we get a homeland security request for the 
use of Guard and Reserve, what we have done is we have required 
that there be an exit strategy. So when they say they need men 
and women from the Armed Forces to go and handle the airport 
security, INS, or Customs, all of which they are, in each 
instance we have said: Look, those are basically civilian 
responsibilities and they should be handled by civilians; we 
are willing to help at the outset, but we need an exit 
strategy; and we need to be shown a plan where these 
organizations are going to establish training programs and get 
the right number of people that they need to do the jobs that 
need to be done.
    We feel that at least a non-trivial portion of the total is 
a temporary situation. Second, we are hopeful that we can 
reduce the demand on strip alerts and combat air patrols at 
some point in the period ahead. It varies with the threat 
assessment.
    The other thing I would say is that I have been making an 
effort, and I must say it is not easy, but making an effort to 
try to reduce some of the U.S. forces that are around the world 
in places like the Sinai and Iceland. We have been pulling down 
the number of troops along with our allies in Bosnia in a very 
responsible, measured rate, so that we can get others to 
backfill behind us in some of those activities.
    I agree with you that right now there is a very high 
OPTEMPO and PERSTEMPO and we need to recognize the stress it 
puts on people.
    Senator Inhofe. Mr. Secretary, I really do appreciate the 
stress that puts on people and that we are going to have to 
pull people in from other areas. I agree with you, it is going 
to be necessary.
    The week before, I spent some time on the two ships that 
will be deployed with the U.S.S. Kennedy from the east coast 
when the time comes. I am talking about the U.S.S. Whitney and 
the U.S.S. Wasp. One of the things that I found was that, while 
they had a chance to have inert training on Vieques they all 
came to the conclusion that they need unified training.
    Now, we passed in the section 1049 of the National Defense 
Authorization Act for Fiscal Year 2002 language that says that 
we will continue our training on Vieques as it has been in the 
past 50 years until such time as we get the certification of 
both the Chief of Naval Operations (CNO) and the Commandant, 
which has not happened. Now, let us keep in mind that all of 
those out there had come to the conclusion that we were lucky 
enough in this deployment to have training, even though it was 
inert training, and that we would not have had adequate 
training without that; and number two, it would have been 
better and our troops would be better trained if we had had 
live fire training.
    What are your plans to address that specific section of the 
fiscal year 2002 authorization bill?
    Secretary Rumsfeld. I am going to ask that the Secretary of 
the Navy and the Chief of Naval Operations respond more fully. 
But I do note here that the decision to train the U.S.S. 
Kennedy off the east coast rather than in Puerto Rico was made 
by the operational commander responsible for training the 
Atlantic Naval Forces. In response to the war on terrorism, we 
have had to modify the normal rhythms of deployment, upkeep, 
and predeployment training.
    Apparently, the Commander in Chief, Atlantic Fleet 
(CINCLANTFLT) decided to save transit time at sea by conducting 
the final training close to home port, and they used the saved 
days to focus on other predeployment issues facing the U.S.S. 
Kennedy.
    Senator Inhofe. Rather than have General Myers comment on 
that, General Myers, you stated----
    Senator Kennedy. The Senator's time has----
    Senator Inhofe. Mr. Chairman, let me get one more question 
in here; is that all right?
    General Myers, you stated that you noted a negative impact 
on the operational readiness caused by the usage restrictions 
and shortage of training areas and ranges. That is exactly what 
we are talking about here. If we were to lose this, this will 
have a domino effect on all ranges and all services, not just 
Navy and Marine Corps as we are talking about right now.
    Are you concerned about these, as you comment in your 
statement here? Do you not believe that this would have a 
negative effect on other ranges?
    General Myers. Senator Inhofe, I think what I am most 
concerned about is when we deploy carrier battle groups that 
they be trained and ready. I am worried about encroachment of 
training areas not only in the continental United States, but 
elsewhere in the world, because we have to be trained to be a 
ready force.
    In this particular case, like the Secretary said, I think 
this is primarily a Navy issue, and they are going to have to 
figure out if there are alternative ways to train. Any time we 
lose any training space though, we are not getting more of it, 
so it is only going to be a subtraction. But there are other 
ways we can hope to train.
    If I can tag onto that just a little bit on the end 
strength question, I know the services will come in with some 
end strength requests. I have not seen those yet, but we are 
all concerned about those. We spend a lot of resources for 
force protection, both here at home and abroad. I think clearly 
that is an area that is susceptible to solving some of our 
issues with technology and not being so manpower-intensive. So 
I think that is one of the things we can look at in terms of 
end strength.
    There are also some transformational initiatives, going 
back to your earlier question, that I think will hopefully save 
us some manpower. We have to look for those efficiencies at the 
same time as we look for legitimate requests for end strength 
increases.
    Senator Inhofe. I would only ask that you do confer with 
those responsible for the training, that was the non-unified 
training that was taking place, just to get their input. I 
think it is very important that you do that. Thank you.
    Senator Kennedy. Senator Byrd.
    Senator Byrd. Mr. Chairman and Mr. Secretary: I join in 
everything that has been said by all parties, expressing 
accolades to you and, in particular, to our service men and 
women. I have been very impressed with your performance as 
Secretary of Defense. I have seen a good many secretaries of 
defense. You are one of the best during my 50 years here in 
Congress. You have been forthright in your press conferences. I 
have viewed them, having been greatly impressed by your common 
sense approach and by your frank and up-front responses to 
questions.
    I am fully supportive of what we are doing in the war on 
terrorism up to this point. I have lived a long time and I will 
have served half a century in this body at the completion of 
this year. I have been a hawk for 50 years here in Congress. 
When I first came to Congress, I was opposed to the entry of 
Red China into the United Nations. I fought it. I supported 
appropriations for the war in Vietnam. I was with Generalissimo 
Chiang Kai-Shek and the Madam on their wedding anniversary in 
1955 on the island of Formosa. We do not hear that name cast 
about much any more.
    I was the last hawk to leave Vietnam. As the Democratic 
whip in a Democratically-controlled Senate, I offered an 
amendment supporting President Nixon in his efforts to bomb the 
Viet Cong enclaves in Cambodia because men were coming out of 
those enclaves and killing our men in Vietnam. I supported that 
against my then-Majority Leader, the late Mike Mansfield.
    So I think I have pretty good credentials. I join in the 
accolades, as I say. I am concerned as to where we are going. I 
am concerned not just with today or tomorrow, but with a year 
from now, 2 years from now, 3 years from now, 4 years from now.
    I think that under our Constitution we have a duty to ask 
questions. The President said at the Citadel 2 years ago: 
``Sending our military on vague, aimless, and endless 
deployments is the swift solvent of morale. I will replace 
diffuse commitments with focused ones. I will replace uncertain 
missions with well-defined ones. We must be selective in the 
use of our military precisely because America has other great 
responsibilities that cannot be slighted or compromised.''
    Now, as a member of the United States Senate, as a Senator 
from the State of West Virginia, as chairman of the 
Appropriations Committee in the Senate, I have a duty to look 
ahead and try to see where we are going. The President is a 
very popular man at this moment. So was his father in Desert 
Storm. Fame is a vapor, popularity an accident. Riches take 
wings. Those who cheer today may curse tomorrow. I think we as 
Senators have to keep these things in mind.
    We need to ask questions. We have other great 
responsibilities that cannot be slighted or compromised. I am 
thinking of the baby boom generation. They are looking forward 
to the Social Security program. They are looking forward to 
Medicare. Our aging population is looking forward to drug 
prescriptions. We have great problems out there. Yet we have in 
this budget only a 2 percent increase for domestic 
discretionary programs generally speaking.
    Now, our time is very limited. I could ask many questions. 
Let me ask just two or three. I will ask them all at once and 
give you an opportunity to answer if you will. We say that we 
are spending $1 billion a month. We spent $7 billion in Vietnam 
in 4 months. We have a budget here that is going to spend over 
$1 billion a day on defense. Defense is the first priority of 
any nation. I do not take a back seat on that. I have supported 
defense programs. Practically every weapon system that has ever 
been thought of, I have been a supporter of it. So you are not 
looking at a naysayer, Mr. Secretary.
    But when we say we are going to bring these people to 
justice, we have already spent $7 billion; whom have we brought 
to justice thus far? When we say we are going to go into the 
caves, we are going to run them out of the caves, we are going 
to keep them on the run and there is no place to hide until we 
win victory, my question is what is victory? What is victory?
    So let me ask two or three questions. What is our goal in 
the war on terrorism? Is it to topple regimes that support 
terrorism? How will we know when we are winning victory? How 
will we know?
    You said just a few days ago that there will not be a 
signing ceremony on the U.S.S. Missouri to signal the end of 
the war on terrorism. But what will victory look like? How will 
I as John Q. Citizen know that I have accomplished my 
objective? What is the objective beyond what has been said: We 
will keep them on the run, we will run them down, they cannot 
hide, we will bring them to justice, victory will be ours. What 
is victory? What is going to be our standard of measurement?
    Also, the President in his State of the Union Address 
singled out Iran, Iraq, and North Korea. He said: ``All nations 
should know America will do what is necessary to ensure our 
Nation's security. We will be deliberate. Yet time is not on 
our side. I will not wait on events while dangers gather. I 
will not stand by as peril grows closer and closer.''
    Now, what does this mean? How about North Korea? The 
President included North Korea in his axis of evil. I wonder if 
the President has the authority to send U.S. troops into North 
Korea on the strength of the September 14 resolution?
    These are questions which I will ask. Now, it may be that 
you will not be able to answer these today. Maybe you will not 
have the time. But the questions ought to be asked. I have a 
responsibility to ask these questions, and I hope that we 
Senators will keep in mind this Constitution, which I hold in 
my hand. Yes, President Bush is the Commander in Chief, but 
take a look at this Constitution and see what powers this 
Constitution gives a Commander in Chief. Take a look also at 
the congressional powers in section 8.
    Let us not forget this Constitution. We are in a conflict 
now and we intend to win, but when will we know when we have 
won? How many more years will we be appropriating at the rate 
of a billion dollars a day, when we have the baby boom 
generation looking at it?
    We who are here are going to have to answer these 
questions. It may be the popular thing today to say ``me too.'' 
So I say ``me too,'' but I also say that ``me too'' has a 
responsibility under this Constitution to look to other 
responsibilities to which the President referred in his speech 
at the Citadel, ``other great responsibilities.''
    So if I may just ask those two or three questions. Let me 
ask them again so that we will be clear: What is our goal? What 
is our goal in the war on terrorism, number one? How will we 
know when we have achieved our goal? What will victory look 
like? Finally, the specific question: How about North Korea, 
which the President included in his axis of evil? Do you 
believe that the President has the authority to send U.S. 
troops into North Korea on the strength of the September 14 
resolution, for which I voted? I thank you.
    Secretary Rumsfeld. Thank you, Senator Byrd, for your 
comments and your questions. There is no question that the 
defense request is an enormous amount of money. However, the 
fact is that it is about 3.3 percent of our gross domestic 
product. It is a much smaller demand today than it has been 
during my adult lifetime in terms of use of funds for defense 
purposes as opposed to non-defense purposes.
    As a percentage of the Federal budget, it is down from over 
50 percent to about 16.9 percent. So it is demanding a smaller 
percentage even though, as you point out, it is a much larger 
total number of dollars.
    Those questions are important questions, and I quite agree 
that it is appropriate for members of the House and the Senate 
to pose them and to pose them vigorously. I will do my best to 
respond to the first one, as to what is the goal. The goal is 
to recognize that we are living in a dramatically different 
period than we did in my time in Washington, dating back to the 
1950s.
    We had a big margin for error in those days, when weapons 
had shorter reach and less power. There were not multiple 
nations with weapons of mass destruction. Today we have a very 
modest margin for error. An error today, with the existence of 
weapons of mass destruction, changes the effects dramatically. 
So we cannot afford to make a mistake.
    It seems to me the goal is to recognize that the nexus 
between weapons of mass destruction and terrorist states that 
have those weapons and that have relationships with terrorist 
networks is a particularly dangerous circumstance for the 
world. You know that well and that was the essence of the 
President's State of the Union address.
    How will we know when we have won, so to speak? It is a 
very difficult thing to say, because there are not armies, 
navies, and air forces arrayed against each other. Instead, 
there are these terrorist networks that are hiding out there. 
We know thousands and thousands were trained in these terrorist 
training camps in 4, 5, 6, 8, or 10 countries. We know that 
they are well trained, and we have seen the training manuals 
that taught them and we saw the skill that was demonstrated on 
September 11.
    The complexity and difficulty of the problem is that we are 
putting pressure on them. You said we are chasing them, we are 
running them to ground, we are trying to root them out. That is 
true, and it is part of the law enforcement effort that is 
taking place. All across the globe, people are being arrested, 
people are being interrogated, intelligence information is 
being gathered, and intelligence information is being shared.
    The cumulative effect of the pressure that is being put on 
these--bank accounts are being closed. We are chasing them out 
of Afghanistan. We have other countries making arrests. 
Singapore just made a series of arrests that very likely 
stopped some very serious terrorist acts. All of that pressure 
is making life very difficult for those people. They are not 
going to be as successful in terrorizing and killing innocent 
people as they would otherwise have been.
    So how do we know when we have succeeded? I suppose we will 
know we have succeeded when our collective free world 
intelligence-gathering apparatus tells us that, in fact, 
countries are no longer harboring terrorists, that the 
countries where these terrorists have found haven have decided 
it is not in their interest to do that, countries like Iran, 
Iraq, Syria, Sudan, Somalia, and Libya, and all the others that 
have been on the terrorist list. Everyone knows those 
countries. They are no longer harboring terrorists; fewer 
people give money to terrorist organizations; fewer recruits 
are signed up by terrorist organizations; more people are 
fleeing terrorist organizations; and more people are 
functioning with a heightened degree of awareness and 
sensitivity, turning in people that in fact look like they may 
be engaged in terrorist acts. We have had some good success 
there.
    Is it as simple as World War II? No, it is not. It is much 
more complex. I appreciate your question.
    With respect to North Korea, I do not know that I can 
answer that question effectively. Obviously, these are 
judgments that the President of the United States makes. We do 
know certain things about North Korea. We know that they have 
probably 100,000 to 200,000 people in detention camps, that 
they are repressing their people, and that they are starving 
their people. We know they have a very active weapons of mass 
destruction program, including chemical, biological, and 
nuclear weapons. We know that they will sell almost anything to 
anyone on the face of the earth for hard currency, and they do 
it. They do it every single day.
    I would submit that the President's State of the Union 
message was very likely to let the world know what I just said: 
people best be careful about spreading weapons of mass 
destruction to terrorist networks, as the North Korean 
government has been wont to do.
    Senator Byrd. Mr. Secretary, I have greatly overextended my 
time. Thank you very much.
    Secretary Rumsfeld. Thank you, sir.
    Senator Kennedy. Senator Sessions.
    Senator Sessions. Thank you, Senator Kennedy.
    I serve under Senator Kennedy on the Subcommittee on 
Seapower and we have some real interest on those issues. I 
would like to join his expression of concern.
    I also want to, I know as Senator Kennedy intended, to try 
to take a look at where we are in seapower and what we can do 
to strengthen that.
    Mr. Secretary, we have come a long way since September 11. 
Our Nation was in shock and in a state of real unease. Through 
President Bush's vigorous leadership, the professional 
leadership of General Myers, and the effort of all the men and 
women in uniform, we have a good vision about where we need to 
go as a Nation. I salute you for it.
    I never thought that we could guarantee that Osama bin 
Laden would be captured and you made that clear from day one. 
But one thing that both the President and you said was that 
nations and governments that harbor him are going to be in big 
trouble. The Taliban, that government that harbored bin Laden, 
allowed him to operate and plan his attack on the United States 
to kill innocent American citizens, has fallen. It no longer 
exists, and I salute you for achieving that. I think that was 
very important as a signal to the world of the seriousness with 
which the United States takes these kind of activities.
    I am hopeful other nations in the future will think twice 
if they were to consider allowing terrorists to operate from 
within their countries or in fact support them directly.
    I say that with great appreciation for the leadership that 
you have given us. I also was a strong supporter of your 
initial vision for defense, that we must transform our Defense 
Department. President Bush said there may be generations of 
technology that we could leap. We never have enough money to do 
everything that we need to do. It is essential that we be as 
creative and as technologically advanced as possible.
    I am very appreciative of your commitment to transform our 
Defense Department, which was clear and unequivocal before 
September 11. I am sure that within the vast Defense 
Department, the defense contracting crew, and the politicians 
here in Congress, there is objections all along the way.
    My question to you is, after this military effort, after 
seeing at least this face of what a modern battlefield might 
look like, are you more or less convinced that we need to 
transform and what are some of your ideas in that regard?
    Secretary Rumsfeld. Thank you very much, Senator Sessions.
    There is no question of the many hours that General Myers 
and I spend together with the chiefs and with the senior 
officials in the Department. But what has taken place in 
Afghanistan has underlined and underpinned the efforts that we 
have been engaged in with respect to transformation. We have 
seen significant changes from the Desert Storm to Kosovo to 
Afghanistan, and it has pointed up the importance of 
information, battlefield, and situational awareness. It has 
pointed up the importance of connectivity and interoperability, 
as General Myers said in his opening statement.
    It has, in my view, underlined the importance of seeing 
that we exercise and train like we fight, and we are taking 
steps to see that we do a better job of that.
    I think that it is probably true of every war, every 
conflict, that you immediately begin the process of saying what 
are the lessons to be learned. We have started that already. 
Even though we are far from finished in Afghanistan and we have 
a lot more to do with respect to the war on terror, we have 
begun that process of trying to capture the important things 
that we have experienced already.
    I would say one thing about transformation. There is a 
tendency for all of us to think of it in terms of a weapons 
system or a new unique way of doing something. I think of it 
also in terms of people. General Richard Myers, General Peter 
Pace, and General John Jumper are three individuals that have 
very recently been placed in their posts by the President of 
the United States. All of us had discussions about 
transformation during the decisionmaking process as to who 
should be the new chairman and who should be the vice chairman.
    We now have 6 to 10 combatant commander openings coming up 
in the next 12 months. I would hazard a guess that 5 years from 
now, looking back, we will say that the single most 
transformational thing we did was to select those people. They 
will then fashion their staffs and their key people and they 
will be involved in the promotions of the people under them. 
Those decisions that are going to be made in the next 12 months 
will affect the United States of America for the next decade 
and a half.
    Senator Sessions. I think the American people have had an 
unusual opportunity to see you and your leadership style, and 
they have great confidence in you and your vision for our 
Defense Department. I think that there is a window of 
opportunity here. I hope that you will push it. Please know 
that I would like to support you in it.
    There are a number of issues on seapower that I am 
wrestling with. I am not exactly sure what the right number of 
ships should be for our Navy, but we need to know that. We need 
to know whether or not we can use some aging ships. We are 
decommissioning ships with projected life spans of 10 years or 
more left. I am not sure that is wise.
    We know that it takes three ships to keep one ship on 
station. Perhaps we can do a better job of forward-deploying or 
forward-stationing ships, and increase our effective ship force 
structure in that regard.
    There are a number of things that we could do there. Mr. 
Secretary, I would just ask if you are going to be looking at 
some of these potential changes that could effectively allow us 
to have more ships deployed than we have today, without maybe 
building as many new ships as we would like to build.
    Secretary Rumsfeld. Senator Sessions, thank you so much for 
your support on transformation and your generous comments. 
There has been the beginning of an analysis of shipbuilding and 
the size of the Navy, that is coming close to being completed, 
I believe----
    Mr. Zakheim. That is correct, sir.
    Secretary Rumsfeld. It has not been presented to me, but it 
addresses the issues that you, Senator Collins, Senator Warner, 
and so many others who have such an active interest in 
shipbuilding and the importance of the Navy and seapower have 
raised. I do not know the answer to your question as to 
reactivating ships. It is going to be a part of that study and 
I expect to be briefed on that some time in the period right 
ahead.
    I do know that there is not anyone involved in the Navy 
that made the recommendations for this particular shipbuilding 
budget, which we have all agreed is skinny. Everyone agrees 
that the number of ships, if you did a straight line projection 
using five ships a year, results in an unacceptably small Navy. 
There is just no question about that.
    We have no intention of doing that. As I believe came up in 
the discussion with Senator Warner, the fact is that the 
average age of our ships is relatively young. I think it is 15 
or 16 years and that is why the Navy made the choice they made. 
We can afford for a year or two to be underbuilding, as long as 
we recognize that in the out years we simply must get back up 
to the 7 to 10 level.
    In the meantime, we have to do a good job with respect to 
the shipyards of recognizing the importance of the industrial 
base and finding ways to balance the tasks that need to be done 
by way of engineering and other aspects of shipbuilding, even 
though we are living in a period with relatively low number of 
total ships.
    Senator Sessions. Just briefly, would you comment: Do you 
believe that the importance of dominance in space and unmanned 
vehicles is adequately addressed in this budget? Have you 
provided increases for those two areas that I think are clearly 
proven to be essential for the modern battlefield?
    Secretary Rumsfeld. I am personally satisfied that we have 
addressed the space issue in a responsible way. We have the 
kinds of increases that are going to be necessary to assure 
that we do not persist over a sustained period of time with a 
high degree of vulnerability, which realistically a country 
that is that dependent on space has to face.
    On the second part of your question, with respect the UAVs, 
the Department of Defense has fashioned the phrase ``low 
density, high demand assets.'' What that means is that there is 
a lot of demand for them and we did not buy enough of them. It 
is kind of a euphemism for, ``We did not have our priorities 
exactly right.''
    We are living in a period where that is a fact. We did not 
have our priorities quite right. We do not have enough of these 
aircraft. They have done a superb job, not just in Afghanistan, 
but in a variety of other intelligence-gathering activities. In 
this budget we have substantially increased the funding for 
unmanned vehicles and, life being what it is, it is going to 
take some time. Right now, not a week goes by that General 
Myers and I are not confronted by a combatant commander in some 
part of the world who is asking for additional unmanned aerial 
vehicles. We are in fact forced to deny them because there 
simply are not enough to go around.
    We are building them as rapidly as possible. Dov, you may 
want to comment on the specific dollars here.
    Mr. Zakheim. Certainly, sir.
    Senator, we are spending close to a billion dollars this 
year on unmanned vehicles, which is a significant ramp-up, as 
you well know, from where we were. For Global Hawk, which 
everyone has read about, the very long-range UAV, we will be 
spending in excess of $600 million. We are developing a new 
combat air vehicle, which essentially is a pilotless attack 
plane, but developed from the start that way. That is in excess 
of $140 million. Predator, which again everyone has heard 
about, is the UAV workhorse of Afghanistan and is funded at 
$150 million alone.
    So you have a major commitment that I think is 
unprecedented in the DOD.
    Senator Sessions. Thank you.
    Secretary Rumsfeld. It is not just for new aircraft, 
either. There is modernization taking place with respect to 
UAVs. We have lost a number of Predators because of weather and 
icing and we have lost a Global Hawk. We lost some because of 
control difficulties. We have some of these vehicles that are 
not armed, of course, and we are looking at different ways to 
improve their capabilities. We are also looking at some 
different sensors with respect to these aircraft.
    So it is an important area. It has been underlined by the 
Afghan situation and we are putting some beef behind it.
    Senator Sessions. Thank you. I think that is a good 
direction.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Sessions follows:]

              Prepared Statement by Senator Jeff Sessions

    Mr. Chairman, I want to thank you for calling this hearing to 
receive the testimony of these two patriots about the future of our 
Armed Forces. I can't think of two more important people to testify 
during this critical time in our Nation's history, a time when we again 
find ourselves at war. Senator Warner, I appreciate your leadership as 
well and your insights on the many defense and national security issues 
facing our Nation during this war on terrorism.
    Mr. Secretary and General Meyers, thank you both for your 
leadership. During this current crisis you each have shown vision and 
perseverance while also leading the transformation of the Department of 
Defense. I, along with all Americans, deeply appreciate your continued 
leadership during Operation Enduring Freedom.
    The President's Fiscal Year 2003 Budget submission is based on his 
determination, and our's in Congress, to win the war on terrorism, and 
to protect the American people and our homeland from attack. It also 
includes a significant down payment on the transformation objectives 
which were articulated in the Quadrennial Defense Review. But, as you 
said during your remarks at the National Defense University last week, 
Mr. Secretary, transformation is as much a change in mindset, as it is 
acquiring new technology. The highly trained, professional members of 
our Armed Forces can and have innovatively employed older systems like 
B-52s which, coupled with our most advanced weapons and sensors, 
produced devastating results on the battlefield. These results can only 
be achieved by approaching our requirements and acquisition decisions 
with a capabilities-based mindset.
    The Air Force, for instance, espoused a new organizational concept 
last week that calls for developing ``ad-hoc task forces'' which are 
tailored to provide specific effects-based capabilities required by the 
warfighting ClNCs. I am sure that the use of B-52s loaded out with 
precision guided munitions as an on-call close air support weapon in 
Afghanistan was not something that was envisioned prior to the 
conflict. But the adoption of this tactic was driven by specific 
effects required by the CINC. I applaud this direct approach to solving 
problems and truly hope that this type of innovational thinking can be 
brought to bear not only on future battlefields, but also on other 
issues that the Department of Defense faces.
    Our current world-wide war against terrorism has also served to 
highlight the efficacy of having Naval forces forward deployed and 
ready to strike on call from the Commander in Chief. Our Navy-Marine 
Corps team was able to decisively influence the war on the ground in a 
landlocked country from ships on station 800 miles away.
    On a trip I took early last month to Japan to visit the Seventh 
Fleet, I was briefed on the aircraft carrier Kitty Hawk's unannounced 
and rapid deployment in support of Enduring Freedom. Kitty Hawk's 
ability to provide a mobile base for special operations forces is an 
example of the flexibility and transformation capability of naval 
forces at sea. While in Japan, I visited the U.S.S. O'Brien, a Spruance 
class destroyer. O'Brien is a 25-year-old ship that had just returned 
from combat operations. O'Brien was in excellent condition, completed 
all missions assigned to her and, according to her Commanding Officer 
and crew, has a lot of service life left. The Navy's plan to retire a 
significant number of these destroyers before the end of their planned 
service life causes me to be concerned that the Navy will be drawing 
its forces down below the QDR level. As we have heard in previous 
testimony, the burden of inadequate numbers of ships falls on the 
shoulders of our men and women in uniform. This brings me to one thing 
that concerns me about the President's Budget, and that is what appears 
to be the lack of funding in the shipbuilding account.
    I think we may need to look at new ways to keep our ships forward 
in theater and supporting the CINCs. We can do this by swapping crews 
of ships already deployed, increasing the number of ships that are 
homeported overseas, or by pre-positioning warships in a minimally 
manned status in strategic areas much like we do with our pre-
positioned logistical supplies in Diego Garcia and other areas.
    Finally, the Army, particularly its Special Operations Forces, have 
performed superbly in the war against terrorism. We all can be very 
proud of them. I am excited about the transformational strides this 
service is considering. New equipment like the Interim Armored Vehicle, 
which will be rolled out in April at Anniston Army Depot in Alabama, 
and the Future Combat System will ensure that the Army continues to 
move towards a lighter, more lethal, force that is able to be deployed 
on short notice to support any of the warfighting CINCs. I am also 
immensely pleased with the progress that is being made at the home of 
Army Aviation, Fort Rucker, Alabama. Army Aviation will continue to 
play a key role in the war on terrorism, and the superb training that 
is being conducted at Fort Rucker will continue to be critical to the 
successful conduct of the war. One item I observed during a visit 2 
weeks ago is a necessity for advanced simulators and advanced simulator 
technology. I can only wonder if more hours in advanced simulators 
could have helped mitigate the recent spate of aviation accidents which 
have occurred in Southwest Asia. I feel that more advanced simulators 
are vital for the professionals at Fort Rucker and I hope this fiscal 
year 2003 budget and those in the future will fund the simulators Army 
Aviation needs.
    Once again, I'd like to thank you gentlemen for your comments 
today. I don't think the Nation could have asked for two more dedicated 
and talented professionals to lead us through the war on terrorism. 
Thank you, Mr. Chairman.

    Chairman Levin. Thank you, Senator Sessions.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Mr. Secretary, General, I want to join with the others in 
paying tribute to you, to the President, to your military 
commands, and to our men and women of the Armed Forces for the 
very successful prosecution of this war in Afghanistan.
    Along with others in the Senate, I was in Afghanistan, 
Uzbekistan, and other countries in Central Asia in January. 
General Myers, I had the same kind of reaction as you expressed 
in your testimony to learning of Reservists with whom I had 
lunch who had volunteered for that duty and whose morale was 
extraordinarily high. I think their degree of professionalism 
and commitment is extraordinary. Obviously, as you both 
outlined, the superiority of the military operation and the 
advances that have been made even subsequent to the Gulf War 
have been very impressive. They have had the kind of 
devastating results that we want to demonstrate to the rest of 
the world as a consequence of the kind of heinous acts that 
were perpetrated on the United States in September.
    It is not my purpose here to debate the past, but given 
that success, I think I would like the hearing record to not 
reflect, at least not without some questioning, the aspersions 
that have been cast upon the previous administration. Reference 
has been made to a procurement holiday in the 1990s, which, if 
I believe the record is accurate, Mr. Secretary, the 
procurement budget that your administration inherited for 2001 
was in excess of $55 billion. If, as you say, we lived in the 
1990s off of the investments made in the 1980s, then it seems 
to me that you have to give some recognition to the fact that 
whatever level of preparedness and effectiveness we have today 
is at least in some part a result of investments that were made 
during the 1990s.
    That is not to say that more does not need to be done. I 
would not quarrel with your observation there. I think you and 
the President deserve due credit for both last year and this 
year sending that message loud and clear. As Senator Warner has 
indicated, there was bipartisan support last year and I believe 
there will be strong bipartisan support this year to doing 
whatever must be done.
    But I think it would be unfair not to realize or 
acknowledge that some of this technological and coordinated 
superiority that we have seen demonstrated is a result of the 
previous administration.
    I also think it is important in a context that does pertain 
to the future because, as Senator Byrd and others have noted, 
we and the administration also have to make some very critical 
choices in terms of our allocation of resources that are going 
to have real and long-term consequences for this Nation. 
President Clinton perhaps can be faulted, as was said here, for 
overshooting the mark in terms of reducing defense expenditures 
overall. But he also succeeded in reversing years of deficit 
spending and bequeathed to the Nation 4 years of budget 
surpluses.
    I give President Bush credit because from what I can tell 
the 10-year budget is presented very forthrightly in terms of 
its assumptions and its dollars. I think he has done a service 
because he has set forth clearly the critical choices that he 
has made and that this Congress is going to stand to review.
    The military increases that are being proposed, while they 
are necessary, essential, and unavoidable in the context of 
what occurred to this Nation on September 11, also have very 
real consequences for our Nation's financial security. I think 
it is in that context that this committee will have to be 
making its own decisions about this budget request.
    Last year, the Office of Management and Budget (OMB) 
projected on-budget surpluses every year for the next 10 years 
totaling $841 billion. Now, 1 year later, OMB is projecting on-
budget deficits for the next 10 years of almost $1.5 trillion.
    The unified budget including the Social Security and 
Medicare trust funds, which I think is somewhat disingenuous, 
what I call sort of the Federal Government's version of Enron 
accounting, even there the total unified surplus has dropped by 
$2.5 trillion over the next 10 years, down to a $1 trillion 
level. This means that the Social Security and Medicare trust 
fund surpluses are funding these on-budget expenditures, which 
include defense along with all of our other functions of 
government, to the amount of $1.5 trillion over this decade. 
That means $1.5 trillion that is not going to pay down our 
national debt. It means arguably that in 10 years we will be 
less financially secure as a Nation as a result of these 
critical choices.
    As we have learned today, what you are proposing to spend 
is not enough to do everything that needs to be done. I just 
want to emphasize what I believe is the need to make some very 
critical choices in terms of how much money can we afford to 
spend on the military and still have that level of preparedness 
that we need. We must recognize that every dollar spent there 
is going to be one dollar less somewhere. It is going to be 
less either for other domestic programs or in drawing down our 
Social Security and Medicare trust fund surpluses which are 
going to impact our long-term security.
    So I guess my preamble here has exhausted my time, and I 
will be respectful of my time. But I do want to just conclude 
with one question. It picks up on something that Senator Inhofe 
said about Reservists and National Guard. I am very concerned, 
since Minnesota has a large contingent of Reservists and 
National Guard participating, in the inequities in the 
treatment of their pay and benefits to the active services.
    I want to just ask, in general, can we be assured that 
these pay and other benefit improvements, which I commend you 
for in your recommendations, will include also the Reserves and 
National Guard to the same degree as the Active Forces?
    Secretary Rumsfeld. Mr. Chairman, I just would like to make 
a brief comment. What you say, Senator Dayton, is of course 
correct. The weapons systems that are invested in in one period 
take years to be procured, acquired, developed, built, tested, 
and deployed. When I was Secretary of Defense in the 1970s, I 
was involved in the rollout for the F-16. We still have it. I 
approved the M-1 tank. We still have one. The B-1 bomber was in 
its earliest days.
    Every administration, every president, and every congress 
has available to them to contribute to peace and stability in 
the world not what they do during their time in office, but 
only what was done by their predecessors, and not simply their 
predecessors of 4 years or 8 years, but their predecessors of 
20 and 25, and in the case of B-52s, 30 or 35 years. That is a 
truth.
    I would add that there is practically nothing that this 
administration will ask Congress to invest in that will benefit 
this President during this term. The lags are too long, the 
times are too great. The legacy forces we are living with and 
we are dealing with were the result of decisions made by 
Congresses and presidents that go back up to four decades. I 
agree with that. I do not think anyone can contest it.
    Chairman Levin. Thank you very much.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman.
    I would like to associate myself with Senator Sessions' 
remarks. I am sorry he is gone. But I also would like to go 
back to our success in Afghanistan. We combined our forces with 
the in-country forces, the Northern Alliance and the Southern 
Alliance, in assisting to run out the Taliban, which we did 
successfully. I would say that is a major accomplishment for 
the U.S. military. The U.S. military is capable of doing a heck 
of a lot more than just that.
    But I look at the al Qaeda results, the terrorist results 
other than the destruction of training camps, and the main 
people that are in charge, and you cannot tell me today whether 
they are alive or dead or where they are at. If we are going to 
spend a billion plus dollars a month, we ought to be able to do 
that. We ought to know one way or the other if Osama bin Laden 
is in Somalia or if he is in Iraq. We ought to know where his 
second of command is.
    Most, it seems like, al Qaeda leadership have escaped and 
now--you are shaking your head no, that is not true. Maybe you 
know more than I do?
    Secretary Rumsfeld. Who is shaking?
    Senator Bunning. No? Well, most of them seem to have 
escaped and left Afghanistan and are in other countries 
planning destruction again. We ought to be able to centralize 
our forces with others to make sure that that does not happen.
    You have come to us to ask approval of almost $380 billion 
worth of expenditures. I would like to have a little more 
assurance that you are going to finish the job that you started 
after September 11.
    Let me just give you one example that is in the budget that 
I have difficulty with. You said you are going to centralize 
aircraft and the F-22 was going to be an aircraft that the 
Army, Navy, and any other forces could use. Now, you have 
requested in your budget additional aircraft for each and every 
service. Maybe you can help me out. Is it because it is 
available? Is it because the F-22 is down the road too far? 
When we were going to go and get a unified aircraft that all 
the services could use, why are you requesting money for 
additional planes, as you just discussed, even the unarmed or 
unmanned planes? You just talked about that.
    In spite of the fact that we were successful with the 
Taliban, tell us more? Where are we going?
    Secretary Rumsfeld. Thank you, Senator. I will take a stab 
at it. I think it may be a little early to describe the 
situation in Afghanistan as a success, in this sense. You are 
quite right, the Taliban is no longer governing that country, 
but there are still pockets of Taliban there. There are still 
al Qaeda there, and there are still al Qaeda and Taliban just 
over the borders of that country, and it is still a very 
dangerous situation.
    It has been 4 months since September 11 and it has been a 
month less since October 7, when General Tommy Franks and the 
Central Command began the operation in Afghanistan. It is not 
over. I wish I could say it is over in Afghanistan.
    Senator Bunning. I did not say it was over. I just would 
like an update.
    Secretary Rumsfeld. I am saying I wish I could say it was 
over. It is not and we have work to do still.
    First of all, the task in my view has been to put enough 
pressure on terrorists and countries that harbor terrorists 
that they have difficulty recruiting, financing, organizing, 
and engaging in terrorist acts. Now, I do not doubt for a 
minute but that you are right, that they are out there planning 
additional terrorist acts right now. I agree with that.
    I would say that the pressure that has been put on, not 
just by our country but by countries across the globe, through 
law enforcement, on their bank accounts. Pressure in 
Afghanistan and in other places is making life very difficult 
for them. It is much more expensive for them to try to do their 
planning, and we have disrupted things.
    With respect to the aircraft, it is the Joint Strike 
Fighter that was to have the version for each of the services 
and the F-22 is earlier in the queue and is an Air Force 
aircraft. Possibly General Myers would want to comment on it, 
but I think that we will find that when the Joint Strike 
Fighter moves through its paces and its tests and its funding 
and is finally brought on line--when is that expected to be, 
the Joint Strike Fighter, do you recall?
    General Myers. We are only just getting started. I think it 
is about----
    Secretary Rumsfeld. It is in the very early stages.
    General Myers.--about 2010, sir.
    Secretary Rumsfeld. Something like 2010 for the Joint 
Strike Fighter. That is the aircraft that would have a version 
for each.
    Senator Bunning. Each individual service.
    I want to hold on with you because my time has almost 
expired. It was brought up before: with respect to Iraq, Iran, 
North Korea, when do you act when you absolutely know that they 
have weapons of mass destruction and they are capable of 
delivering them?
    Secretary Rumsfeld. Senator, those are judgments for the 
President and Congress. There is no question but that countries 
that have weapons of mass destruction and are capable of 
delivering them and are active as a terrorist state, so to 
speak, have relationships with terrorist networks. There is no 
question but that they pose a threat to the world. The 
President's State of the Union address and his comments 
underlined that very clearly.
    Senator Bunning. Thank you.
    Chairman Levin. Thank you, Senator Bunning.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Secretary Rumsfeld, Dr. Zakheim, and Chairman Myers, thank 
you very much, not only for your testimony this morning, but 
for your distinguished leadership in very difficult times, 
leadership that is not only a function of competence but also 
great character. I thank you for that.
    Secretary Rumsfeld. Thank you.
    Senator Reed. Like many of my colleagues, I had the 
occasion to travel to the theater of operations to visit troops 
in Afghanistan. General Myers and Mr. Secretary, I share the 
same deep respect and profound regard for what they have done.
    I must say also I am particularly pleased at the leadership 
provided by some of my classmates, General Hagenbeck in the 
10th Mountain Division, General Dailey in the Special 
Operations Forces, and a near classmate, General Cody in the 
101st. Obviously, the sorting system works very well in the 
Army. They are commanding divisions and I am here.
    But one concern I have is that we are reaching a critical 
set of decisions about the follow-on to our very successful 
military operations. We have all pledged a long-term commitment 
to Afghanistan, but I think there is a reluctance, perhaps 
caused by political aversion, to the notion of nation-building 
and committing our forces to detailed planning for a military 
transition.
    The military international force is scheduled for about 6 
months. The British are commanding now. The Turks would like to 
take over. But my fear is that at that point, at some point in 
the near future, we will run into a situation where we have not 
made an effective transition.
    I would say in that context that any international force 
must rely upon the United States to participate, perhaps not 
putting troops on the ground, but in logistics, intelligence, 
and coordination with Central Command. Mr. Secretary, I guess 
the question comes down to this: Are you convinced that 
detailed planning is under way for a smooth transition so that 
we will not find ourselves in a situation where forces are 
drawn down, international components refuse to cooperate, or we 
do not have an effective coordination with those forces?
    Secretary Rumsfeld. Senator Reed, thank you. The question 
is truly an important one. What the President, myself, and 
General Myers have done is asked Central Command to send a 
modest team in to do an assessment with Fahim Khan, the interim 
defense minister, and with the Karzai interim government. We 
want to take a look at the existing proposals, and they are 
plural, at this stage for an Afghan national military, as 
opposed to what we have now where we have these different 
warlords with forces that are left over from the anti-Taliban 
effort.
    That work is starting immediately. There are a variety of 
ways of approaching it. I do not know what will be decided or 
what will be recommended by this assessment team, but I do know 
they are going to be coming back to General Franks, then 
General Myers, then to me, and ultimately we will go to the 
President.
    We have every intention of trying to be very helpful in the 
development of a national Afghan army. It could be a big help 
to us if they had such a series of units that could then go out 
and help us track down the Taliban and al Qaeda pockets. That 
could do a better job on the borders and contribute to 
stability in the country.
    That is one piece of the answer to your question. The other 
piece is the international security force, and that is of 
course unnatural, to have foreign forces in your country on a 
long-term basis. So the preference is to try to see that the 
Afghan government develops its own ability to provide for 
stability in the country, recognizing, as your question does 
and as we do, that that is not likely to happen quickly and 
there is a continued need for the international security 
assistance force.
    You correctly point out that we are involved in it. We are 
assisting with intelligence, logistics, and a quick reaction 
force in the event there is a problem. We are already working 
with the United Kingdom as the lead during the interim period 
to develop the country that will become the lead when the UK 
steps out. I do not know over what period of time the UK will 
continue to lead, but they are a very responsible military and 
country. I have every reason to believe that they will manage 
the transition to the new leader, whoever it may be, whichever 
country it might be, in a proper way and that we will be 
working with them to try to see that the requested number of 
ISAF forces are available.
    It is a very dangerous country, as many of you know. You 
have been there. There are a lot of land mines, criminals, and 
leftover Taliban and al Qaeda, and people are getting killed. 
It requires a security force and we are at the task that you 
have cited.
    Senator Reed. Mr. Secretary, it seems to me that the tasks 
that you have indicated are not going to be accomplished within 
a few months, perhaps not even a few years. We have a situation 
where we are implicitly committing to a multi-year stay, but we 
only have an international force that has been stood up for 
about 6 months, maybe a little longer.
    I think that disconnect not only will cause operational 
problems down the road, but also undercut our statements that 
we are there for the long term. As long as you have a notion 
that you can take public a consistent ongoing support for this 
international police force or international military force, I 
think that would be helpful on two fronts.
    I would like you to respond. I notice my time has expired 
and I will cease.
    Secretary Rumsfeld. Yes, sir. I think when you use the 
phrase we are there for the long term, it is in relationship 
with the Afghan government. I would not want it thought that we 
are there from a military standpoint for the long term, because 
those are judgments that have to be made down the road. 
Obviously, we have a good deal of other demands on our forces.
    That is why we were so pleased that the United Kingdom took 
up the international security assistance force and that people 
are stepping forward now to develop their own force.
    Senator Reed. Thank you.
    Chairman Levin. Thank you very much.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you.
    Mr. Secretary, I would like to compliment you on a very 
courageous budget. I know it is not easy to put together this 
kind of budget. We talk about flexibility and mobility in our 
Armed Forces, but we do not talk about flexibility and mobility 
perhaps in a more fundamental aspect of this process, and that 
is the budget, where you have to look at some older programs 
that perhaps do not serve us too well and look at newer 
programs which don't have not much of a constituency in 
Congress. So on that basis, I think you have put forward a very 
courageous budget.
    I have also noted that on the Space Commission report, you 
talked about the vulnerability of U.S. space assets. In your 
nomination hearing you reiterated your concerns about it, and 
then again last week you talked about protecting our space 
capabilities from enemy attack. I think that is one of those 
areas that we have to be vitally concerned about. I think that 
Senator Sessions in his questions properly brought out that 
issue. Perhaps maybe you would like to elaborate a little more.
    I just want you to know that when we are talking about 
space-based radar that I would like to do whatever I can to 
help to make sure and support you in your efforts, because I 
view that as very important in moving forward with modernizing 
this country's defenses.
    I have a question also for General Myers. I understand you 
are still in the process of modifying the unified command plan 
and the new plan will include a Northern Command to address the 
military functions of homeland defense. Can you give us some 
insight into the new command and especially in regard to those 
functions currently assigned to North American Aerospace 
Defense Command (NORAD)?
    Secretary Rumsfeld. Given the fact that General Myers is 
the combatant commander of Space Command, I think I may ask 
General Myers to answer both those questions.
    General Myers. Senator Allard, good afternoon.
    You are right; what the Secretary has done is implement a 
lot of the recommendations out of the Space Commission. I think 
the 2003 budget goes a long way to fixing some of the problems 
that we had in some of our space systems. We are putting a 
significant amount of money into our surveillance capability, 
which is the first step in ensuring that we can protect the 
assets that we have in space. So that is part of the 2003 
budget that you have either seen or will see.
    In terms of our space-based communications, as I think most 
everybody knows, we rely mostly on commercial communications 
capabilities in space for most of our needs. But for the 20 to 
30 percent that we think must be indigenous to the Department 
of Defense, we have fully funded those programs and programs 
like the advanced Extremely High Frequency (EHF) program. The 
follow-on to our U.S. Military Communications Satellite Program 
(MILSTAR) system, the Navy Multi-User Operating System (MUOS) 
program, the follow-on to the UHF program, have both been fully 
funded in 2003 and in the out years so we can deploy the 
appropriate constellations.
    If my memory serves me right, there is just about $90 or 
$91 million in the 2003 budget for space-based radar, and that 
is to prove the technology, cost-effectiveness, and military 
utility of such a system. I think it is time we get on with 
that and demonstrate its capabilities and see its military 
worthy. This is a system that, if it comes to fruition as we 
think it will, will give us the kind of persistence that we 
have talked about even in Afghanistan. One of the things the 
Predator gives us is persistence over the battle space. We are 
able to stay on station for long periods of time and surveil 
what we want to see.
    I can go back to my Vietnam days when we had our 
reconnaissance aircraft and that was primarily how we got our 
intelligence. The reconnaissance aircraft, they would have a 
sortie in the morning and they would have a sortie in the 
afternoon, and those were two snapshots in time. A lot of 
things happened before they got there and after they got there 
and before they got there again and after they left.
    With systems like space-based radar you have the potential, 
of course, to have this persistence. I think this budget has 
gone a long ways to ameliorating some of the concerns we have 
had in the past about some of our space assets.
    On space-based radar, I said $91 million. I think it is $48 
million in 2003. I was corrected by Dr. Zakheim. My memory did 
not serve me right as I thought it had, which is not the first 
time.
    In terms of the unified command plan, anything we say has 
to be modified with the fact this has not gone to the President 
yet and so he has not approved this plan. But the basics are 
the basics of a new Northern Command, if you will, that would 
focus primarily on the defense of the continental United States 
and our neighbors, would be this. There are really three parts 
of it.
    One of the parts would be the NORAD piece. NORAD already 
does the air sovereignty piece. It does the space warning and 
so forth. It would be a piece of this new command. In fact, the 
proposal is that the new unified commander would be dual-hatted 
as commander in chief NORAD as well. As you can imagine, we 
have started our discussions with our Canadian partners in this 
and they understand and are fine with that.
    We blend two other things with this new command. One is the 
support that the Defense Department traditionally supplies in 
times of other natural disasters, such as hurricanes, floods, 
and forest fires. So that support right now goes to the 
Secretary of the Army, and that would be something else this 
new command would worry about.
    The third piece is what we have already stood up, which is 
Joint Task Force for Civil Support. These are people that are 
trained to respond to chemical, biological, nuclear, or major 
explosive incidents in the United States as support to the lead 
Federal agency, or maybe it is a lead city agency or state 
agency, but as support to that.
    So those are the three main pieces: the NORAD piece, the 
natural disasters, and the response to chemical, biological, 
nuclear, or explosive incidents. We will propose that to the 
President and see how he disposes, and then we have about less 
than a year now, but we would like to stand this new command up 
on October 1, 2002, and we have time to work through the 
implementation plan. That is where we are.
    Senator Allard. Mr. Chairman, I would like 30 seconds just 
to summarize here. I think Senator Byrd asked a very pertinent 
question: With this defense, what is our world going to look 
like? I think that the answer is obvious if we phrase that 
question a little differently: What would this world look like 
if we do not move ahead with this budget? I think the answer is 
very obvious. We know what it is going to look like if we just 
look at New York. We know what it is going to look like if we 
look at the Pentagon. We know what it is going to look like if 
we look at every American's life and the impact that the attack 
of September 11 has had on American lives.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Allard.
    Secretary Rumsfeld. Thank you. I think that is a very 
important observation.
    I would add one thing on the unified command plan. Not only 
have we not presented it to the President, but after we get his 
okay then we begin the process of discussing it with our NATO 
allies because they are involved with Canada and various other 
parts of the world where the adjustments are going to be made. 
So it is going to be a process that is going to play out over a 
month or 2, I would think.
    Senator Warner. You are going to consult with us. I saw you 
make that clear.
    Chairman Levin. Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman.
    I recently returned from a visit to Central Asia along with 
several of my colleagues on this committee, and we visited the 
theater of operations. I was very impressed with the level of 
morale and the spirit of our troops. As one of them told me: 
``We know why we are here.''
    I think what we see here is not only a testament to these 
young people, but also to our military leadership and to you, 
Mr. Secretary, because you have given us the steadfast 
leadership and you have innovatively conducted this war, and we 
thank you for what you are doing for our country.
    Secretary Rumsfeld. Thank you very much.
    Senator Carnahan. I am looking forward to working with you 
in funding, fighting, and winning this war on terrorism.
    There have been a number of questions asked today, so I 
will go to one that has not been addressed. I recently wrote 
you a letter and I shared my concerns about the emerging 
threats to the United States in Central, Eastern, Southeastern 
Asia, as well as eastern Africa. I pointed out that Navy 
fighters and long-range bombers are the only aircraft that can 
reach these areas of concern easily.
    We all know that the F/A-18C flew the bulk of the U.S. Navy 
strike missions in Afghanistan, so I believe it is important 
that we sufficiently fund their maintenance and continue to 
modernize their capabilities. The Navy is currently in a 
multiyear contract to procure the next generation of F/A-18s, 
the ``E'' model Super Hornet. I was disturbed that the 
President's budget cut the number of Super Hornets to be 
purchased in the year 2003.
    Given our future needs for tactical aircraft, it would seem 
to me that we should be increasing our capabilities rather than 
cutting them. I was wondering what your rationale is for this 
and if you would comment on that.
    Secretary Rumsfeld. Yes indeed, Senator. The Secretary of 
the Navy is, of course, going to be here next week and he and 
the Chief of Naval Operations will be delighted to discuss that 
in some detail. What took place was a decision that the F-18 is 
in full production until the Joint Strike Fighter comes out. It 
is a program that is supported by the United States Navy. You 
are correct, of course, that the numbers they are looking at 
are 44 planes instead of 48.
    On the other hand, the operation and maintenance accounts 
or the maintenance piece of it is, we believe, fully funded. 
Like always, choices had to be made and the Navy concluded that 
this was the appropriate thing for fiscal year 2003 and it 
should not in any way suggest any lack of support for the 
aircraft.
    Senator Carnahan. So you are saying there is not a 
possibility, then, that these other four would be built?
    Secretary Rumsfeld. I think that at the moment it looks as 
though the Navy and the Department have made their judgment, 
and the judgment is that they wanted to fully fund the 
maintenance accounts and therefore this particular number, 44, 
is what fell out of all of the choices that they had to make, 
and that is our recommendation.
    Senator Carnahan. Thank you. I would like to include my 
statement for the record.
    [The prepared statement of Senator Carnahan follows:]

              Prepared Statement by Senator Jean Carnahan

    Thank you Mr. Chairman. I wish to welcome our distinguished panel 
today. I am looking forward to working with you and my Senate 
colleagues this year on the National Defense Authorization Act for 
Fiscal Year 2003.
    I recently returned from a trip to Central Asia with several of my 
colleagues on this committee where we saw our military personnel in the 
``theater of operations'' first-hand. I must say, our soldiers, 
sailors, airmen, and marines are in good spirits.
    They are performing superbly, and professionally. Our success in 
Operation Enduring Freedom is truly a testament to these men and women, 
their military leaders, and you, Mr. Secretary--for your steadfast 
leadership and innovative conduct of this war against our terrorist 
enemies.
    Today, I look forward to hearing your testimony on the President's 
proposed budget. I am particularly pleased this year that the President 
has put such a strong focus on defense and homeland security spending.
    This budget takes an important step in the right direction--
including a 4.1 percent pay raise for our troops, an increase in 
operation and maintenance accounts, and substantial investments in 
acquisitions and recapitalization of our forces.
    Our Nation is at war, and we cannot afford to shortchange these 
priorities.
    Thank you.

    Chairman Levin. Thank you, Senator Carnahan.
    Senator Roberts.
    Senator Roberts. I thank the distinguished chairman.
    Mr. Secretary, in our war on terrorism, where do you see 
the DOD headed as far as preemption is concerned? If we are 
worried about the weapons of mass destruction and those states 
that would produce, develop, or use that capability, it would 
seem to me we would be prepared or we should be prepared to 
take preemptive action rather than risking absorbing the 
consequences of an attack that we have all seen. Within the 
limits of security in this session, do you see the need to 
increase our intelligence capability, our precision weapons 
technology, and the use of Special Forces to militarily preempt 
a potential attack on the U.S. using any weapon of mass 
destruction?
    Secretary Rumsfeld. Senator, you ask where is the DOD 
going. I think the answer on preemption is really more where is 
the country or the President going. The DOD is going to go 
where we are told.
    You are right, the problem of terrorism is a unique one. It 
is distinctly different in the sense that you cannot defend 
everywhere at every time against every technique. Therefore, 
you have no choice in the case of terrorist acts, particularly 
with powerful weapons, but to go after the terrorists where 
they are. As the President has said, states that harbor 
terrorists, facilitate them, and finance them are every bit as 
serious a problem.
    We have increased intelligence in this budget; we have 
increased precision guided munitions; and we have increased I 
believe funds for the Special Forces. We recognize, as you do 
in your question, their importance in the distinctly different 
kind of a world we are living in.
    Senator Roberts. We need an Assistant Secretary of Defense 
for Special Operations and Low Intensity Conflict. We have been 
saying that on the Emerging Threats and Capabilities 
Subcommittee since 1999. Can we expect one in the near future? 
We do not have a nominee for that important position. It has 
been about a year. I am not complaining. You have to make the 
right choice, I understand that.
    Secretary Rumsfeld. The nomination process is a long and 
torturous one, and we have had a couple of people move along 
the path part of the way and fall off for a variety of reasons. 
We do intend to fill it, yes, sir.
    Senator Roberts. On the weapons of mass destruction, on the 
civil support teams, they used to be called Rapid Assessment 
Initial Detection (RAID) teams. Now they are Civil Support 
Teams (CST) teams. We tried to get an acronym with Senator 
Stevens and Senator Byrd involved so we can get it 
appropriated, but we could not come up with the right acronym. 
If you could suggest one, that might help.
    But we have 22 full-time National Guard personnel and now 
there are 32 of these teams authorized. Do you support 
establishing a team in every U.S. state and territory?
    Secretary Rumsfeld. It is not a question I have personally 
addressed.
    Senator Roberts. That is where teams would be 4 hours from 
any incident, regardless of what kind of threat would be 
involved, to inform the team in Washington. The first 
responders would have the first responsibility to identify 
exactly what they are dealing with. They must be highly 
trained; it would be a mission for the National Guard.
    Are we going to examine whether or not the Russians, with 
their expertise with anthrax and other biological pathogens 
that they actually produced, can be tapped into by the 
Cooperative Threat Reduction (CTR) and the DOD programs to 
address our homeland defense needs?
    Secretary Rumsfeld. With respect to the first question, Dr. 
Zakheim tells me we currently have 22 of those teams.
    Senator Roberts. Right.
    Secretary Rumsfeld. Your question is are we going to go to 
50?
    Senator Roberts. We have 22. They are authorized up to 32. 
We are going through the training. We had a GAO report that was 
not too kind, one of those again. So there has been an effort 
to say we need them in all 50 States. That was the goal with no 
special time frame.
    General Myers. Senator Roberts, I just think that is one of 
the things we have to look at in our new command.
    Senator Roberts. The changes in the military transformation 
include the intelligence community and their ability to rapidly 
collect and analyze in a very threat-rich environment. In view 
of the fact that many of the enemy combatants in the war on 
terrorism may be within our borders of our country, how will 
the military intelligence have to change to be able to receive 
information? Specifically, I am talking about the relationships 
between the Federal Bureau of Investigation (FBI), Central 
Intelligence Agency (CIA), and Defense Intelligence Agency 
(DIA). Can we get some courses in our various military schools 
to get us updated on that?
    Secretary Rumsfeld. That is certainly a worthwhile 
suggestion, Senator. I have been heavily focused on the non-
homeland security piece and Deputy Secretary Wolfowitz has been 
very heavily focused on the homeland security piece, along with 
the Secretary of the Army. I have, however, observed in an 
awful lot of meetings your point being raised--the importance 
of fusing the intelligence information among the various 
agencies.
    I know for a fact that the DIA and the CIA have a 
relationship that I would characterize as closer than I have 
ever seen in my experience. I have watched the Department of 
Justice and the FBI improve their linkages with the Central 
Intelligence Agency and with the Defense Department. I do not 
know that we have the answers to this because it is complex and 
the FBI data tends to be decentralized out in the regions, as 
opposed to centralized, which makes it quite difficult to have 
the kind of fusing of intelligence and knowledge.
    Senator Roberts. Their mission has changed as well. I was 
suggesting that some specific education for the military 
leaders at our service war colleges and the National Defense 
University.
    I have one last question if I can, Mr. Chairman. Where are 
we going with NATO? We have had an excellent speech by Senator 
Lugar, pretty much saying that under the strategic concept of 
NATO that was adopted 2 years ago, my goodness, if we do not 
have terrorism in the laundry list of things that we ought to 
be worried about numero uno, what is going on? We had a 
delegation that came back, some sparks there, some meaningful 
dialogue, I remember 2 years ago.
    NATO is now in charge of things like crime, drugs, ethnic 
cleansing, the environment, and economics. I even said, do not 
put gum in the water fountain. I got a little bit upset about 
that in terms of the original purpose of NATO. Now we see some 
hesitancy on the part of NATO--at least that is in the press--
under article 9.
    If NATO is not going to atrophy and if NATO is going to 
mean something, certainly we are going to have to have NATO 
take a very strong stance on terrorism, especially with regards 
to the terrorists within their countries.
    Where are we headed there? We are going to have NATO 
expansion coming up and we are going to have a hearing on that 
here fairly quickly. I am very worried about it.
    Secretary Rumsfeld. Yes, Senator. There is no question but 
that NATO is attentive and should be attentive to the problems 
of terrorism. It is something that they have addressed in each 
of the two meetings that I have been to at NATO. I am aware 
that they have invoked the article of the NATO Treaty 
involving--it is article 5--that an attack against one, and it 
was a terrorist attack, is an attack against all.
    I quite agree with you that they do need to focus on this, 
because that is part of the world we are living in.
    Senator Roberts. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Roberts, and thank you 
again for the leadership which you showed over the years in the 
Subcommittee on Emerging Threats and Capabilities.
    Senator Nelson.
    Senator Bill Nelson. Mr. Secretary, my compliments to you. 
You are talking about the renewed cooperation with all of the 
intelligence agencies and how you have put it together for a 
highly visible event, such as the State of the Union or at the 
Super Bowl this past weekend. My compliments to all of the 
agencies involved, which was a combination of State, local, and 
Federal agencies.
    A delegation from this committee was the first to go into 
Guantanamo Bay. I was intrigued to find out that reporters from 
Europe in the press conference afterwards actually wanted to 
argue with my conclusions about the humanitarian treatment. Yet 
what I tried to say was that the most important purpose that I 
had there was to see if we were getting the information from 
the detainees.
    I take this occasion to tell you that our congressional 
delegation had concluded that we were not getting that 
information quickly enough. I know you followed our trip by a 
couple of days. They were just completing that wooden housing 
that was going to be air conditioned where two per structure 
could go through what they call the screening process. But up 
to that point they had not received that much information.
    I expressed in the press conference that I thought that 
that would accelerate by virtue of these new facilities that 
they could move into. Would you comment briefly on that, what 
you observed and what you know now?
    Secretary Rumsfeld. Yes, sir. I saw the screening rooms. 
They were completed. They were air conditioned. They were 
planning to start the next day with individual detainees for 
discussions. I have a feeling that your trip down there urged 
them on.
    I think that you are quite right, it is enormously 
important. If we are going to do everything humanly possible to 
protect this country and our deployed forces and our friends 
and allies from additional terrorist attack, going through that 
process of knowing what those detainees know is just enormously 
important and time sensitive.
    Senator Bill Nelson. While I was there we had our 
commanding officer stepping in for General Peter Pace as the 
Commander in Chief, Southern Command (CINCSOUTH), if I recall a 
two-star general. It is my understanding earlier here today you 
were talking about the importance of the selection of our 
combatant CINCs. Can we expect a four-star CINC to be appointed 
to U.S. Southern Command so that there is not a vacancy there, 
given your remarks earlier in this hearing?
    Secretary Rumsfeld. You bet.
    Senator Bill Nelson. Good. The quality of that position 
means alot to Latin America, such as having an officer like 
General Pace. That was an excellent choice and obviously you 
recognized that by bringing him up here.
    Secretary Rumsfeld. We did indeed. General Myers agree that 
he is doing a wonderful job for the country.
    Senator Bill Nelson. I believe so, too.
    Earlier you said that you are talking about taking North 
American Aerospace Defense Command (NORAD) and putting it under 
the CINC for homeland security. What does that do to Commander 
in Chief, U.S. Space Command (CINCSPACE)?
    Secretary Rumsfeld. The details are still being worked out 
and we have not fully briefed Congress. We have not presented 
it to the President. We have not gone through discussions with 
Canada completely. I know you have talked to the chief of the 
defense staff and I have mentioned it briefly to the Minister 
of Defense of Canada.
    General Myers. I think the theory here that the Secretary 
asked us to drive on is to, as much as we can in the new 
unified command plan, to focus people on their primary mission. 
So what it does in the case of the Space Command is that it 
does not dual-hat potentially the U.S. Commander of U.S. Space 
Command any longer. He does not have the NORAD responsibility. 
That will be the new U.S. Northern Command (NORTHCOM), 
supposedly. He or she will be able to focus on the task at hand 
and that is the space mission as that continues to grow and 
evolve.
    So that is kind of the rationale behind it. That is where 
the Secretary was pushing us. That also occurs in Joint Forces 
Command, which is going to be our change agent for 
transformation, experimentation, and joint training. The Joint 
Forces Command commander today has several hats. One of those 
is the responsibility for this Joint Task Force Civil Support, 
which would then again come under NORTHCOM. So again, to focus 
Joint Forces Command on what we think their most important task 
is, that is the rationale, sir.
    Chairman Levin. If I could interrupt just for one second, 
Mr. Secretary, to remind you that Congress has to be in on that 
consultation prior to the decision in this area.
    Secretary Rumsfeld. Yes indeed.
    Senator Bill Nelson. Mr. Chairman, I would conclude by 
suggesting to the Secretary and the Chairman that they may want 
to take a look at a budget that is not your budget, but it is 
going to have profound effects on you. I believe that the 
National Aeronautics and Space Administration (NASA) budget is 
being unwisely savaged. There is a 13 percent reduction in 
human space flight. The reason this is important is that the 
proposal takes space shuttle launches down to four. That is 
almost cutting it in half.
    The inevitable result is that you get rid of a good part of 
that launch force. How this affects you, Mr. Secretary, is that 
if we were ever to have legitimate threats or be down on some 
of our expendable launch boosters and-or pads, your only 
assured access to space is the shuttle. You might crank that 
into your thinking, even though it is not your budget.
    Secretary Rumsfeld. Thank you, Senator.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Collins.
    Senator Collins. Thank you, Chairman Levin.
    Mr. Secretary, I want to join with my colleagues in 
applauding your extraordinary leadership in the war against 
terrorism. I thank you, General Myers, and Dr. Zakheim, for 
being with us today.
    Last month, I was a member of the bipartisan delegation 
that several of my colleagues have referred to that journeyed 
to Central Asia. It was a wonderful opportunity not only to 
meet with the leaders of the countries involved in our 
coalition against the war on terrorism, but also to meet with 
our troops first-hand and hear their impressions. I was so 
impressed with their high morale, patriotism, professionalism, 
skills, and training. It truly was an inspiring trip for me.
    I also learned a great deal more about the absolutely 
critical role that our Navy has played, particularly our 
carrier battle groups, in launching operations in the war in 
Afghanistan. I fully realize and understand that the 
administration has inherited very serious budget and program 
shortfalls affecting shipbuilding, but I share the concerns 
that many of my colleagues have mentioned today that the budget 
before us does not restore shipbuilding to the levels that will 
sustain a 310-ship Navy nor our industrial base.
    My concern is that there seems to be a pattern in which the 
Department sincerely plans and hopes to increase ship 
construction rates in future years, but then ends up scaling 
back the plans when funding runs short. So I would like you to 
comment on the commitment of the Department to maintaining an 
adequately sized fleet. I realize that there may be dispute 
about exactly what the number should be, but I think there is 
widespread agreement among the experts that we have been 
heading in the wrong direction in future years.
    My concern is that if we do not start this year and instead 
only proceed with five ships this year, that we are just going 
to fall further and further behind.
    Secretary Rumsfeld. Senator Collins, thank you so much. I 
am delighted that you have been, and I knew you were, out 
visiting the troops. I know how important it is to them and we 
appreciate that.
    The shipbuilding part of the budget is a real dilemma for 
me because it is a matter of tough choices that have been made 
in the Department of the Navy as to what they thought made the 
most sense. They all agree with what you have said, that the 
straight line projection if you go at five, six, or even seven 
ships a year is going to take you to an unacceptable level of 
the Navy. Everyone agrees with that. Whether they think the 
Navy ought to be 280, 300, 340, or 360 ships, they all know it 
ought not to be down where it would go if we stayed at this 
particular level.
    The task they had was to figure out was how to get the 
funds to do the operations and maintenance accounts, which they 
think are enormously important, to deal with the aviation piece 
of the Navy, to fully fund the overruns from past shipbuilding 
that need to be added in for this year that were unexpected and 
in excess of $600 million, and still make a rational choice 
with respect to the number of ships.
    The judgment they made as I understand it, and Dov was 
involved in the decision with them, was that the average age of 
the Navy ships today is sufficiently low that we are not going 
to be going down on a straight line projection. We are going to 
be able to go down gently for a period.
    However, you then go off a cliff, as you suggest. We have 
all seen that forward year projections tend to look better than 
reality. All I can say is that this year is an awful lot better 
than the forward year projections from 3 or 4 years ago. So I 
have confidence that these forward year projections for 2004, 
2005, 2006, and 2007 are going to play out and that there is a 
very broad and deep feeling in the Department and in the 
administration that you are exactly right: we simply have to 
increase the number of ships in those out years, and we plan to 
do it.
    Senator Warner. Senator, will you yield me 2 seconds?
    Senator Collins. Certainly.
    Senator Warner. I have been in this shipbuilding business I 
guess about as long as anybody in the room. Look at the 
research and development costs for the former DD-21, now DD(X). 
It is almost $1 billion each fiscal year for the next 3 fiscal 
years. While that is not in the shipbuilding account as such, 
you cannot lose sight of that, and that is a contract I think 
you will have a great interest in the future, as you had in the 
past.
    Senator Collins. You are certainly correct about my great 
interest in that contract. I see the research and development 
for that account as benefiting now a whole family of ships, 
given the change in direction.
    General Myers, I visited the U.S.S. Theodore Roosevelt as 
part of my journey. The battle group had been at sea for 113 
consecutive days when we visited the aircraft carrier because 
of security and mission requirements. I am told that normally 
they would be going into port every 14 days. This obviously has 
caused a lot of strain. But again, morale was very high.
    But the operational tempo, the briefing that we got, was 
truly extraordinary. Could you comment further on the heavy use 
of our naval platforms in the war against terrorism and the 
impact of increased deployments on our naval forces?
    General Myers. You bet, Senator. I also visited U.S.S. 
Theodore Roosevelt and I think as of today they are over 135 
days deployed, because, as I mentioned in my opening statement, 
we are a Nation at war. We are asking an awful lot of all our 
people, and our sailors are included in that group.
    I too came away from my visit, which was I think just 
before yours, with an understanding of the high morale. They 
understood what they were doing. They understood the importance 
of it. There is nothing that the Joint Chiefs of Staff or the 
Secretary care more about than trying to maintain the 
operational tempo and the personnel tempo at acceptable levels, 
realizing that we are at war. So this will be more difficult 
perhaps than in peacetime for sure, and that is part of what we 
are seeing.
    What we are trying to do in terms of carrier deployments, 
though, is to stay on the double force presence policy that we 
currently have today, that they rotate on the schedules that 
the Chief of Naval Operations has set up and that we do not 
disturb that, so we can have our naval assets ready for 
whatever comes next. So we will continue to press that very 
hard. It is very high on our list. It is something we talk 
about among the Joint Chiefs quite regularly.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Senator Cleland.
    Senator Cleland. Thank you very much, Mr. Chairman.
    Mr. Secretary and General Myers, thank you both very much 
for your service to our country. I was just sitting here 
thinking that in the last 5 years I have been through two 
attacks on Saddam Hussein, the war in Bosnia, the war in 
Kosovo, and now the war in Afghanistan. I think one of the 
threads that certainly runs through our military engagements is 
the use of air power, particularly the use of high precision 
weapons. Others are the evolution on the battlefield of 
unmanned vehicles for reconnaissance and surveillance and the 
use of the Airborne Warning and Control System (AWACS) and the 
Joint Surveillance and Target Attack Radar System (JSTARS), for 
surveillance, intelligence, and reconnaissance capability.
    I have seen that increased to a very fine level. I 
appreciate your budget, Mr. Secretary, which continues to add 
to our capability in terms of battlefield intelligence and in 
terms of our high use of precision weapons. I do think that the 
combination thereof saves lives on the battlefield. In our last 
two engagements, in Kosovo and now in Afghanistan, I think we 
can be very proud as an American military that we have kept our 
casualties so low and our effectiveness has been very high.
    I also see that your budget does another thing that tracks 
with the way we go to war and that is the increased use of 
Special Operations Forces. I think that this war in Afghanistan 
has in effect combined massive use of intelligence with 
unmanned vehicles to seek out that intelligence, tremendous use 
of precision weapons, and the work of Special Forces.
    Mr. Secretary, is there any doubt in your mind, since your 
budget certainly funds this to an increased level, that this is 
the way we go to war now and increasingly so?
    Secretary Rumsfeld. Trying to look into the future is not 
easy. I think there is certainly a likelihood that you are 
right. However, we have to appreciate that the reason that we 
have not been faced with large armies, navies, or air forces is 
because we have such capable armies, navies, and air forces, 
and the deterrent effect is what drives people towards these 
asymmetrical activities that we need to deal with.
    I think that you are correct that the future is more likely 
to not repeat Afghanistan, but present more unusual situations. 
Let us put it that way. We certainly cannot forget that North 
Korea has a massive army and is a country that is just terribly 
repressive to its people and doing what it is doing with 
weapons of mass destruction, and there is no question but that 
Iraq has large conventional capabilities as well as an appetite 
for weapons of mass destruction.
    I think what we have to do is what our new strategy 
suggests: look less at specific threats and more at the kinds 
of capabilities that are likely to come at us. Certainly, when 
one does that you are driven in the direction that your 
question suggests.
    Senator Cleland. Thank you very much.
    In terms of changes and transformation of the American 
military to a new world and a new environment, to be leaner, 
meaner, more impactful and more mobile, may I say 
congratulations on your budget having money in it to begin the 
conversion of some Trident submarines from a strategic role in 
the Cold War. That was a role that provided for nuclear 
retaliatory response. The converted Trident submarines are 
tremendous platforms, stealth vehicles for more conventional 
use of high-level precision weapons, cruise missiles, and 
insertion of Special Forces. I think that conversion of those 
Tridents really fits in with where we are headed.
    Again, General Myers, thank you very much for your service. 
May I just say as chairman of the Subcommittee on Personnel, I 
am pleased that your budget includes a nice pay increase for 
the troops who are doing a tremendous job around the world.
    General Myers, every time I see you I think about our 
moment together on the morning of September 11, where we were 
together in my office at the very moment that the Pentagon 
itself was hit. You have done a tremendous job. You came in 
under tremendous pressure and we congratulate you for your 
service. Thank you all very much.
    Thank you, Mr. Chairman.
    General Myers. Thank you, sir.
    Senator Warner. Thank you, Senator. We all remember your 
advances last year on behalf of the G.I. Bill. I was privileged 
to join you on that. It took 4 or 5 years, but I think it is 
going to be a retention asset.
    If I might just say a few words before my chairman takes 
over, I noticed with great interest, Secretary Rumsfeld, that 
you listed cyberterrorism among the threats to this Nation. 
Indeed, when I was privileged to be chairman, I started a 
modest program buried down in the sinews of your system 
whereby, in return for educational benefits for young people 
who are willing to devote their lives at a university level in 
studying that subject, they would return to the Federal 
service, presumably either your Department or other 
Departments, and devote several years of obligated service.
    That program that I started has had slight growth and maybe 
you might want to take a look and see if it could not be 
augmented a bit. I think it is going to work out quite 
successfully for you.
    Also, on the subject of spectrum policy, I am privileged to 
have a number of high tech operations in my State that are 
carefully following this issue. I had the Chairman of the 
Federal Communications Commission, Mr. Powell, up the other 
day. We went over it, and in due course your administration and 
the Department of Defense will be working with the Commerce 
Department and other relevant agencies and departments in 
reviewing those allocations.
    I know that you will, of course, have the emphasis on 
national security, but I do hope that there can be some 
flexibility for the private sector, which really is in 
desperate need of some additional spectrum.
    Lastly on the question of missile defense funding, I think 
we have an appropriate budget this time. Even though that risk 
seems to be de minimis in the minds of some, in my judgment, it 
would only take one to cause devastation of just unacceptable 
proportions to the United States, be it an accidental firing or 
one done in anger by virtue of terrorism. So I think you have 
stepped out very well on that.
    Lastly, I would like to speak about military commissions. 
It is interesting that you have a study going on about the 
President's order of November 13, and I hope that that comes 
out. I think that we should go back and look at how that was 
done under our former chairman, Senator Nunn, at the time. 
Maybe at the time it was the right thing to do as these young 
men and women graduate from the academies, but I think it is 
something that should be looked at very carefully.
    Thank you again. It has been a very good hearing this 
morning. I commend you, the Chairman, General Myers, and Dr. 
Zakheim. Job well done, gentlemen.
    Secretary Rumsfeld. Thank you very much, Senator Warner.
    Chairman Levin. Thank you, Senator Warner.
    Just a few questions to close up. First, on the proposal 
that will be forthcoming to establish a new unified combatant 
command for homeland security, do you think it is likely that 
you will be seeking a change in the Posse Comitatus Act?
    Secretary Rumsfeld. No, sir. At the moment it looks as 
though the role for the U.S. military would be a supporting 
role, and we are involved in some very temporary activities 
that we have, as I indicated earlier, a way to move out of and 
exit. So at the moment that is not something that the 
administration has thought necessary.
    Chairman Levin. Let me go back, General, to the Philippines 
issue just for a moment. One of the reports quoted or stated 
that the U.S. Special Forces commander there said that U.S. 
soldiers would ``take operational instructions from Filipino 
commanders.''
    Do you know whether that is a quote. Is that accurate? Is 
that our policy?
    General Myers. Senator Levin, I do not know if the quote is 
accurate, but it is not the instructions that they have been 
given. The command and control of U.S. forces will stay in the 
U.S. chain.
    Chairman Levin. Including tactical control?
    General Myers. Absolutely.
    Chairman Levin. The other thing he said, which is not a 
quote but a summary, is that if a U.S. soldier were captured, 
U.S. forces would defer to Philippine authorities before 
mounting a rescue operation. Is that accurate?
    General Myers. Well again, I cannot talk to the veracity of 
the quote. I think on those kind of tactical situations we 
would have to evaluate it. As the Secretary said, the rules of 
engagement give you the right to self-defense. I think we 
probably should not speculate on what would actually happen, 
but it does not sound totally accurate to me.
    Chairman Levin. The question has been raised about the 
status of detainees at Guantanamo Bay and I want to ask about 
that issue. Am I correct that the President has not yet made a 
decision as to whether or not the Geneva Conventions apply to 
those detainees?
    Secretary Rumsfeld. I think the correct way to state it is 
that the United States, the President, and myself have made the 
statement that the detainees would be treated as if it did 
apply, and they have been in the past. They are currently being 
treated as such and they will be in the future.
    The technical, legal question is being considered in the 
White House at the present time.
    Chairman Levin. In this interim period until that decision 
is made, has the regulation of the Department of Defense 
relative to enemy prisoners of war, retained personnel, 
civilian internees, and other detainees been applied?
    Secretary Rumsfeld. I do not know that I follow the 
question precisely, but, as I say, we are now and we will in 
the future, regardless of what decision is made in the White 
House as to whether or not the Geneva convention applies as a 
matter of law, treat detainees the way they have been treated 
since the beginning.
    Chairman Levin. The specific question, which maybe you will 
need to answer then for the record, is in regards to Army 
Regulation 190-8, which says: ``If any doubt arises as to 
whether a person having committed a belligerent act and having 
been taken into custody by U.S. Armed Forces belongs to any of 
the categories enumerated in article 4 of the Geneva 
conventions, such person shall enjoy the protection of the 
present convention''--and here is the critical language here--
``until such time as their status has been determined by a 
competent tribunal.''
    Then it says that ``competent tribunal shall determine the 
status of any person not appearing to be entitled to prisoner 
of war status who has committed a belligerent act or engaged in 
hostile activities and who asserts that he or she is entitled 
to treatment as a prisoner of war or concerning whom any doubt 
of a like nature exists.''
    So, under our regulations, there has to be a competent 
tribunal, and I am not talking about the military tribunal.
    Secretary Rumsfeld. No, I understand.
    Chairman Levin. This is a different issue. My question is 
has this tribunal been convened for any of the prisoners, any 
of the detainees so far?
    Secretary Rumsfeld. My recollection of the details of the 
convention is that there is very little definition as to the 
phrase ``tribunal'' as you are using it in this context.
    Chairman Levin. In what sense little definition?
    Secretary Rumsfeld. That is to say there is no formal 
prescription as to exactly what would constitute such a 
tribunal.
    Chairman Levin. No, it is laid out in procedures. The 
membership is laid out. That is why maybe you better answer 
this for the record. But it sets forth the following 
procedures: the members of the tribunal; the recorder shall be 
sworn; who the president is; a written record shall be made of 
the proceedings; they shall be open except for deliberation; 
and who the officers are. It goes through great details.
    That is why, Mr. Secretary, rather than trying to answer 
this here now, if you feel better doing it, you could perhaps 
take a look at this Regulation 190-8 and let us know for the 
record if it is being applied, and if not, why not. I think 
that may be the short way to do it.
    [The information referred to follows:]

    Article 4 of the 1949 Geneva Convention relative to the Treatment 
of Prisoners of War specifies the categories of people who fall into 
the hands of the enemy who are entitled to be treated as prisoners of 
war (POWs). If a detainee falls within one of the Article 4 categories 
of persons entitled to POW status, then he is a POW. If a detainee 
clearly does not fall within one of the Article 4 categories, then the 
detainee does not receive POW status. When there is doubt, then a 
tribunal under Article 5 of the Convention is appropriate to determine 
the status of the detainee.
    The President has determined that the conflict with the al Qaeda is 
not covered by the Geneva Convention. The President has further 
determined that although the conflict with the Taliban is covered by 
the Geneva Convention, the Taliban detainees are not entitled to POW 
status under the terms of Article 4. Based on the President's 
determinations, there is no doubt regarding whether al Qaeda or Taliban 
detainees are entitled to POW status.
    The joint services regulation, Enemy Prisoners of War, Retained 
Personnel, Civilian Internees and Other Detainees (AR 190-8) (1 Oct 
1997), provides procedures for Article 5 tribunals should they be 
required. For example, the AR 190-8 procedures call for a three-officer 
panel. As noted, an Article 5 tribunal is only required ``should any 
doubt arise'' Regarding a detained individual's entitlement to POW 
status. No doubt has arisen regarding the POW status of al Qaeda and 
Taliban detainees.
    Despite the fact that al Qaeda and Taliban detainees are not 
entitled to POW status, we continue to treat them humanely and in a 
manner consistent with the principles of the 1949 Geneva Convention 
Relative to the Treatment of Prisoners of War.

    Secretary Rumsfeld. We will do that for the record.
    Chairman Levin. Is that okay? I do not mean to cut you 
short, either.
    Secretary Rumsfeld. No, that is fine.
    My comment, just for clarification, is when I said that my 
recollection of the convention, not the Army regulation--is 
that the convention is quite open as to what that is. What we 
have been doing, so that the record will be clear, is having 
the teams of people who interview these detainees make a 
judgment about them. There has not been doubt in the sense that 
the convention would raise about these people that I know of, 
and they have been then categorized as detainees as opposed to 
prisoners of war.
    I do not know that there is anyone who believes that they 
merit the standing of prisoner of war, anyone in the 
administration or anyone I have talked to.
    Chairman Levin. I thought that the President was deciding 
whether or not they are prisoners of war legally.
    Secretary Rumsfeld. No. Let me clarify that. This is an 
enormously complex issue, for me anyway. We believe in the 
Geneva convention very strongly. It is important. It provides 
protection for our soldiers because our soldiers behave as 
soldiers. They do not go around without uniforms, hiding their 
weapons, or killing innocent people intentionally.
    The convention was designed among countries to deal with 
conflicts between nations. The situation that we are in is that 
there is a technical question, a legal question, as to whether 
or not the United States should say that as a matter of law we 
interpret the convention to apply in the case of, for example, 
al Qaeda, which is not a nation. It is a terrorist 
organization. It was not a party to these conventions in any 
sense.
    The problem with doing that is it could cause some 
precedents that would be conceivably unfortunate. It is 
sufficiently complex that the administration is taking its time 
to look at it. In the event that the convention were to apply, 
then one would look at lawful combatants, noncombants, and 
unlawful combatants. They are very different. Noncombatants are 
civilians; unlawful combatants do not merit being treated as 
prisoners of war; and lawful combatants, like U.S. soldiers or 
the soldiers of any other country, do merit being treated as 
prisoners of war.
    In this instance, it is very clear that these were unlawful 
combatants, and as a result there has not been much debate that 
I have heard that these people would rise to the standing of 
prisoners of war. That is not to say that the Geneva convention 
does not apply. It could still apply as a matter of law, and 
that is the issue being discussed.
    There are three ways it could be tackled. One is the 
administration could say that they believe as a matter of law 
that the Geneva convention applies. They could, second, say 
that as a matter of law they have decided it does not, or it 
does not with respect to al Qaeda or Taliban. Third, they could 
say they do not need to address it because we have decided to 
treat the detainees as if it did apply, and we are not going to 
create a precedent by making a judgment.
    It is those options that are currently being considered by 
the White House, none of which would change their status as 
detainees. Nor would it change in any way the way they are 
being treated, because we are already treating them as if it 
does apply.
    Chairman Levin. The question for the record would then be, 
under our regulations, about when a tribunal must be triggered. 
If it does not apply, let us know why it does not apply.
    [The information referred to follows:]

    Article 4 of the 1949 Geneva Convention relative to the Treatment 
of Prisoners of War specifies the categories of people who fall into 
the hands of the enemy who are entitled to be treated as prisoners of 
war (POWs). If a detainee falls within one of the Article 4 categories 
of persons entitled to POW status, then he is a POW. If a detainee 
clearly does not fall within one of the Article 4 categories, then the 
detainee does not receive POW status. When there is doubt, then a 
tribunal under Article 5 of the Convention is appropriate to determine 
the status of the detainee.
    The President has determined that the conflict with the al Qaeda is 
not covered by the Geneva Convention. The President has further 
determined that although the conflict with the Taliban is covered by 
the Geneva Convention, the Taliban detainees are not entitled to POW 
status under the terms of Article 4. Based on the President's 
determinations, there is no doubt regarding whether al Qaeda or Taliban 
detainees are entitled to POW status.
    The joint services regulation, Enemy Prisoners of War, Retained 
Personnel, Civilian Internees and Other Detainees (AR 190-8) (1 Oct 
1997), provides procedures for Article 5 tribunals should they be 
required. For example, the AR 190-8 procedures call for a three-officer 
panel. As noted, an Article 5 tribunal is only required ``should any 
doubt arise'' regarding a detained individual's entitlement to POW 
status. No doubt has arisen regarding the POW status of al Qaeda and 
Taliban detainees.
    Despite the fact that al Qaeda and Taliban detainees are not 
entitled to POW status, we continue to treat them humanely and in a 
manner consistent with the principles of the 1949 Geneva Convention 
Relative to the Treatment of Prisoners of War.

    Secretary Rumsfeld. Good.
    Chairman Levin. Because the stakes here are great, as you 
point out, also for our own personnel.
    Secretary Rumsfeld. You bet.
    Chairman Levin. We have people who are not in uniform who 
are captured and we want to make sure that they are treated 
properly as well. So how we treat people and how we are 
perceived as treating people, because those can be different at 
times, becomes important in that regard, too, to protect our 
own people in circumstances where they may be captured and not 
in uniform.
    We thank you.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    I have two questions. Because of the hour I would be glad 
to take replies for the record, or you can answer them now, 
whatever you prefer. The first goes back again to the 
Reservists and members of the National Guard. As you indicated, 
Mr. Secretary, some 70,000 Reservists and members of the 
National Guard have been called up because of the war in 
Afghanistan. I think they are being called up for longer 
periods of time as well. So the financial sacrifices which they 
are making become, obviously, exacerbated by those increasing 
lengths of time.
    I commend you for what you are doing to increase military 
pay and benefits, but I would like to know specifically how 
that will apply to Reservists and members of the National 
Guard.
    Secretary Rumsfeld. I am advised that the pay increase 
applies to all. Just so the record will be very clear, the 
total number is 70,000. My understanding is that it is 
something like 60,000 Guard and Reserve and 10,000 that are 
being retained in the service past their normal discharge date.
    Senator Dayton. Your testimony implies that there is a 
targeted pay raise. The 4.1 percent pay raise is across-the-
board, but it is then targeted for certain categories. Is there 
any targeting for the National Guard and Reserves, given the 
fact that some of the housing and the other benefits would not 
apply?
    Secretary Rumsfeld. I do not believe there is any targeting 
that would particularly apply to the Guard and Reserve, except 
what would apply to everybody. My recollection on the targeted 
pay raise is that you are right: it is 4.1 percent across the 
board, plus or minus 2 percent for certain targeted pay grades 
that are particularly in short supply and where we need to 
improve retention.
    Senator Dayton. Thank you.
    After meeting with the members of the National Guard in 
Minnesota and their spouses, particularly those who were called 
up to provide the airport security. I learned that because of 
the Posse Comitus Act, the Governor, instead of the President, 
called up the Guard. Because of this they were not eligible for 
some of the pay and benefits as well as being denied 
protections that are afforded those who are called up by the 
President, including being evicted from rental or mortgaged 
property and the cancellation of life insurance.
    Senator Wellstone and I introduced an amendment to the 
Defense Appropriations Bill which was adopted in the Senate 
that would have addressed this. The Department of Defense, at 
the time, had concerns about that. We were doing this at the 
last minute and the House did not concur, so it was dropped in 
the conference report.
    If you have any comments, fine. Otherwise, I would ask if 
the Department has specific objections to those remedies for 
the next go-around. I would certainly like to work with you. 
Otherwise, it seems to me that we are just taking care of some 
basic inequities, and I would ask if you would take another 
look at that, please.
    Secretary Rumsfeld. Senator, the interest is certainly a 
fair one. The decisions as to whether or not the Guard is 
called up by the State or by the Federal Government is based on 
the function that they are to perform. When the States call 
them up for State functions, as opposed to Federal functions, 
we have always felt, and continue to feel, that that is a State 
responsibility and the State legislation would be the proper 
place to change those circumstances.
    It does appear externally to look like an anomaly. If they 
are called up by the Federal system they are treated one way, 
and if they are called up by the State they are treated another 
way. There is good reason for that. It is because they are 
basically fulfilling a State function.
    Senator Dayton. I would agree with you, Mr. Secretary, and 
typically that is the case. I do not know whether there is a 
lesson. This might have just been an aberration in this 
circumstance. But given the length of time they have been 
called up now, to the extent those inequities apply to what is 
essentially service at the request of the President or the 
urging of the President, it might be something to look at as 
another one of these inequities that perhaps could be 
addressed. The financial penalties they pay for their service 
have been very significant, and they are doing an extraordinary 
job.
    Chairman Levin. I would like to thank our witnesses for, 
among their many extraordinary qualities, their staying power.
    We will stand adjourned. Thank you.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                              PHILIPPINES

    1. Senator Levin. Secretary Rumsfeld, there is a fair amount of 
confusion concerning the U.S. military presence in the Philippines. In 
the past, the Department has characterized our activity there as ``an 
operation'' or a ``mission.'' Yet, last Wednesday you referred to it as 
``an exercise'' and the Philippine government calls it an exercise. 
Exercises involve training and simulations, but in this case, U.S. 
troops are authorized to engage a real enemy. Is this an operation or 
an exercise?
    Secretary Rumsfeld. We have deployed forces to the Philippines as 
part of the global war on terrorism to help the AFP (Armed Forces of 
the Philippines) to combat terrorism. This exercise is known as 
Balikatan 02-1. U.S. forces will train, advise, assist, and assess 
their AFP counterparts' capabilities. Because this training deployment 
is taking place near locations where there are hostilities, U.S. forces 
are authorized to exercise the right of self-defense. But they are not 
allowed to engage with the enemy outside of self-defense.
    [Deleted.]

    2. Senator Levin. Secretary Rumsfeld, regardless of what you call 
our activity in the Philippines, if U.S. troops are in a combat zone, 
the rules of engagement and command relationships must be clear. 
However, press reports indicate that U.S. and Philippine commanders 
have been unable to agree on ``terms of reference'' governing command 
relationships. Indeed, Philippine officials assert that U.S. forces 
will be under Philippine command and will not take independent action. 
Meanwhile, U.S. military spokespersons insist that U.S. troops will not 
be under Philippine command and will have authority to act 
independently, if necessary. How can we possibly resolve this impasse? 
How is it that we are currently deploying troops (220 out of the 
expected 650 total) to the area without such an agreement in place?
    Secretary Rumsfeld. The Terms of Reference (TOR) was signed before 
any U.S. forces were deployed to Basilan and before Exercise Balikatan 
02-1 began on February 14, 2002. On February 9, 2002, General Diomedio 
Villanueva (Chief of Staff of the AFP) and Rear Admiral W.D. Sullivan 
(J5 USCINCPAC) signed the TOR, which clearly states that U.S. forces 
will be under the command of U.S. officers at all times. The TOR also 
notes that U.S. forces will not unilaterally engage in combat, and they 
will respond to operational instructions from AFP commanders during 
field training exercises. These statements do not contravene U.S. 
command and control, but simply acknowledge that the AFP will provide 
instructions to the AFP and U.S. personnel operating together.

    3. Senator Levin. Secretary Rumsfeld, the Commander in Chief of the 
Pacific Command, Admiral Blair, was quoted in a New York Times article 
last week stating that the goal of U.S. military involvement in the 
fight against the Abu Sayyaf terrorist group is to help make Asia less 
hospitable to al Qaeda terrorists. Yet, this terrorist group is not the 
only insurgency in the Philippines, nor is it considered the strongest. 
Is the administration considering, or are we prepared to consider 
staying on in the Philippines to fight other insurgent or ``terrorist'' 
groups that threaten the Philippine government?
    Secretary Rumsfeld. The current deployment is focused on the 
southern Philippines, particularly the island of Basilan, where the Abu 
Sayyaf Group (ASG) continues to hold three hostages, including two 
American citizens, Martin and Gracia Burnham. The ASG has been on the 
State Department Foreign Terrorist Organization list since 1997. It is 
one of the missions of this deployment to help the AFP defeat the ASG. 
We currently have no plans to expand beyond this mission. We will 
continue, however, to work closely with Manila to combat terrorism in 
the Philippines and the region.

    4. Senator Levin. Secretary Rumsfeld, Admiral Blair also reportedly 
stated that the U.S. military involvement in the fight against the Abu 
Sayyef terrorist group ``would last months but not years.'' President 
Arroyo stated that the exercise will last no longer than 6 months. Are 
we prepared to leave at the 6-month mark regardless of whether we have 
achieved our objectives?
    Secretary Rumsfeld, is there a definitive end-date to the current 
``exercise'' or operation, or is this an open-ended commitment that we 
have assumed?
    Secretary Rumsfeld. This initial deployment will clearly last no 
longer than 6 months, as stated in the Terms of Reference. Within that 
period, USCINCPAC will provide an assessment and recommendations for 
any follow-on operations depending on the progress of current efforts. 
We will then work with the Government of the Philippines to see if any 
follow-on deployments would serve our purposes.

    5. Senator Levin. Secretary Rumsfeld, is there a definitive end-
date to the current ``exercise'' or operation, or is this an open-ended 
commitment that we have assumed? 
    Secretary Rumsfeld. See above (question #4).

                           HOMELAND SECURITY

    6. Senator Levin. Secretary Rumsfeld, you have reportedly forwarded 
to the President a proposal to establish a unified command for homeland 
security that would involve Canada and Mexico. Have you begun 
discussions with the Canadian and Mexican governments about this new 
command and any associated agreements that may need to be established 
with them?
    Secretary Rumsfeld. Yes, we have begun discussions with both the 
Canadian and Mexican governments in regards to the new Northern 
Command.

    7. Senator Levin. Secretary Rumsfeld, you have been discussing 
reorganizing the Department of Defense to better address homeland 
security challenges. Yet, there is still no proposal to replace the 
interim arrangement with Secretary White as the coordinator of such 
efforts. Given the increased funding for combating terrorism, who is 
ensuring that the right strategy is in place and that the budget 
addresses real priorities?
    Secretary Rumsfeld. In addition to his role as the interim DOD 
Executive Agent for Homeland Security, Secretary White was also 
directed by the President to serve as the acting Assistant Secretary of 
Defense for Special Operations/Low Intensity Conflict. The Office of 
the Assistant Secretary of Defense for Special Operations/Low Intensity 
Conflict compiled the combating terrorism inputs for the fiscal year 
2003 budget. Following September 11, 2001 and the initial prosecution 
of the Global War on Terrorism, the Department began a process of 
reviewing its strategy, analyzing its missions, and identifying its 
resource priorities. The Department is using this analysis in 
preparation for our fiscal year 2004 budget input for combating 
terrorism.
    On March 8, 2002, I signed a memorandum directing the Deputy 
Secretary of Defense to lead a transition effort to establish a staff, 
at the appropriate level within the Office of the Secretary of Defense, 
that will assume homeland defense and civil support responsibilities 
from Secretary White. This new staff will, among other duties, be 
responsible for coordinating with Governor Ridge's Office of Homeland 
Security on addressing priorities consistent with the National Homeland 
Security Strategy. When established, this new staff for homeland 
defense and civil support will also work with the Office of the 
Assistant Secretary of Defense for Special Operations/Low Intensity 
Conflict in the development of the fiscal year 2004 combating terrorism 
budget inputs.

    8. Senator Levin. Secretary Rumsfeld, did Secretary White provide 
input on combating terrorism to the budget and will he coordinate the 
implementation of the policies driving spending on procurement, 
research and development, and training?
    Secretary Rumsfeld. In addition to his role as the interim DOD 
Executive Agent for Homeland Security, Secretary White was directed by 
the President to serve as Acting Assistant Secretary of Defense for 
Special Operations/Low Intensity Conflict. The Office of the Assistant 
Secretary of Defense for Special Operations/Low Intensity Conflict 
compiled the combating terrorism inputs for the fiscal year 2003 
budget. Until the new staff for homeland defense and civil support is 
established, Secretary White will continue in both capacities to 
coordinate, with the appropriate OSD offces, the implementation of the 
policies driving spending on procurement, research and development, and 
training.

                   SPECIAL OPERATIONS--COMMANDO SOLO

    9. Senator Levin. Secretary Rumsfeld, our operations in Kosovo and 
Afghanistan have demonstrated that psychological operations are a 
crucial component of our efforts to defeat our enemies. Commando Solo 
overflight missions have broadcast messages to the populations in 
Afghanistan and the Balkans to explain our actions and recruit allies 
to our cause. I have no reason to believe that you and the Department 
disagree. Yet, I note that your budget does not include funding to 
continue the transition of the Commando Solo aircraft to the EC-130J. 
Without this continued annual support, the fleet will be divided in 
terms of training and deployment, substantially reducing unit 
responsiveness, and readiness. How do you justify the lack of funding 
for this critical asset?
    Secretary Rumsfeld. I am very proud of job that has been done by 
our Commando Solo crews in Afghanistan and the Balkans. Commando Solos 
are unique, high demand/low density platforms and continue to be a 
valuable asset for the Department.
    Transitioning from the EC-130E to the EC-130J model was a 
congressionally mandated program, and from fiscal year 1997-2001 funds 
were added to the Department's budget in support of this program. The 
original congressional intent was to fund eight EC-130Js as well as the 
modification of current Commando Solo special mission equipment. To 
date, funding has been provided for the conversion of five of eight EC-
130J aircraft. The Department anticipated that congressional support 
for this program would continue however no funding was provided in 
fiscal year 2002.
    While steps are being taken to remedy the disconnect between how 
this program was traditionally funded and future funding methods, due 
to the amount of time it takes to modify and crossdeck (transfer) the 
psychological operations (PSYOP) broadcast equipment to these aircraft, 
split fleet operations will have to be extended longer than expected. 
In an effort to mitigate some of the impact on the fleet, I directed 
the Department to address the issue in our program review and recently 
added funding to mitigate special mission equipment obsolescence and 
degraded capability.

              USE OF SPECIAL OPERATIONS TO FIGHT TERRORISM

    10. Senator Levin. Secretary Rumsfeld, given the demonstrated 
effectiveness of special operations forces in combating terrorism, what 
are your future plans for using these forces to fight global terrorism, 
and do such plans require an increase in special operations forces?
    Secretary Rumsfeld. There will always be a need for specially 
organized, trained, and equipped forces to perform missions critical to 
the U.S. It is safe to assume that Special Operations Force's unique 
capabilities will continue to be used in our fight against global 
terrorism. Currently, the Pentagon is conducting an in depth study to 
determine how Special Operations Forces should transform to meet the 
expanding war on global terrorism.
                                 ______
                                 
               Questions Submitted by Senator Max Cleland

                             TRANSFORMATION

    11. Senator Cleland. Secretary Rumsfeld, we are all in agreement 
that the transformation of the military is necessary to provide a more 
responsive and flexible force. I think we would also agree that in the 
area of transformation, the Department of Defense's ability to properly 
and accurately account for every defense dollar also needs to be 
addressed. The President's budget request calls for spending over 
$12,000 per second or over $1 billion per day on defense. Every dime 
may be necessary, but the recent collapse of Enron and the loss of many 
investors life savings, highlights the need for stringent accounting 
practices to ensure every dollar spent is done so in a responsible 
manner. We are all investors in this effort and the country deserves 
nothing less. As we prepare this year's defense budget, what accounting 
transformation has occurred or will occur regarding how the Department 
of Defense accounts for the $379 billion requested by the President?
    Secretary Rumsfeld.

        <bullet> First, we are keeping financial management issues at 
        the top of the agenda; the Department's senior leadership is 
        engaged in financial transformation on a routine basis.

                <bullet> I convened an Executive Committee, at the 
                Under Secretary level, to provide strategic direction 
                and a Steering Committee, at the Assistant Secretary 
                level, to resolve the inevitable disagreements among 
                the components.

                        - The Executive Committee meets every quarter.
                        - The Steering Committee meets every other 
                        month.

        <bullet> Second, we are attacking the root cause of our 
        reporting problems, i.e., an overly complex and outdated 
        information system infrastructure.

                <bullet> To ensure financial transformation is 
                accomplished, the Secretary established under my 
                leadership, the Financial Management Modernization 
                Program--a comprehensive program that has been fully 
                funded, staffed, and strategically planned (critical 
                milestones and schedule).
                <bullet> For the first time ever, we developed a 
                Department-wide systems inventory. With this effort 85 
                percent complete, we have identified 673 information 
                systems. The inventory will be completed March 2002.
                <bullet> I am reviewing components information systems 
                initiatives to ensure they are smart investments and 
                are consistent with our transformation goals.

        <bullet> Third, we are using performance data and measures to 
        improve or resolve continuing problems such as untimely 
        payments, problem disbursements, and inadequate recordkeeping.

                <bullet> From April 2001 to October 2001, we reduced by 
                41 percent the backlog of commercial payments.
                <bullet> We improved travel card management--reducing 
                delinquencies by 34.
                <bullet> We are also measuring the quality and accuracy 
                of financial information and have seen a 57 percent 
                reduction in payment recording errors since October 
                2000.

                              PHILIPPINES

    12. Senator Cleland. Secretary Rumsfeld, I applaud the President in 
pursuing terrorism and evil wherever it is found. However, I am 
concerned that in our search for evil, we may fail to clearly define 
the mission, objectives, and end-state of proposed military actions. 
Media reports attribute comments to the Department of Defense officials 
as stating that U.S. soldiers in the Philippines would not be engaged 
in combat, yet, they would be assigned to accompany Philippine soldiers 
on patrols. Philippine officials have also given conflicting accounts 
of the U.S. troop mission. If there is confusion at the senior level, 
there is bound to be confusion at the soldier level. What is the 
mission of our forces in the Philippines? What is the timeline for 
completing the ``training''? What is the end-state of this training 
exercise?
    Secretary Rumsfeld. As part of the global war on terrorism, the 
Secretary of Defense has approved the deployment of U.S. forces to 
train, advise, assist, and assess the Armed Forces of the Philippines' 
(AFP) capabilities to combat terrorism. The mission of the deployment 
is to help the Government of the Philippines:

        <bullet> continue the war on terrorism;
        <bullet> defeat the Abu Sayyaf Group (ASG);
        <bullet> help secure the release of U.S. hostages; and
        <bullet> ensure that the Philippines does not become a haven 
        for terrorists.

    To achieve this mission, U.S. forces will deploy to the AFP's 
Southern Command Headquarters through the battalion level where they 
will train, advise, assist, and assess their AFP counterparts. At this 
operational level, we do not expect U.S. forces to go out on patrols 
with AFP units.
    This phase of our deployment will last no longer than 6 months, as 
is stated in the Terms of Reference. Within that period, USCINCPAC will 
provide an assessment and recommendations for any follow-on operations 
depending on the progress of current efforts. We will then work with 
the Government of the Philippines to see if any such follow-on 
deployments would serve our purposes.

                             WAGE SCHEDULES

    13. Senator Cleland. Secretary Rumsfeld, I would appreciate your 
thoughts on implementing Section 1113 of Public Law 107-107 (Fiscal 
Year 2002 National Defense Authorization Act) as it relates to the 
establishment of wage schedules and rates for prevailing rate 
employees.
    Secretary Rumsfeld. The Federal Wage System (FWS) uses wage surveys 
of local prevailing rates to determine blue-collar pay in a given wage 
area (132 wage areas in the United States). Section 1113 of Public Law 
107-107 provides a means for importing supplemental wage data from 
outside the local area and including it with local survey results (this 
is also known as the ``Monroney'' provision). These combined wage data 
are then used as a basis for establishing local wage rates in selected 
areas. While this survey process applies only to wage areas identified 
with significant production or repair in such specialized industries as 
aircraft, ammunition, artillery and combat vehicles, guided missiles, 
and shipbuilding, the wage survey results are applied to all blue-
collar positions in the area, regardless of any industry affiliation.
    The Monroney provision is contrary to the principles of the FWS, 
since wage information imported into the wage area contravenes and 
distorts local survey results. The artificial increase of Federal wages 
in certain wage areas not only adds to payroll costs (estimated at an 
additional $14 million annually) but also enhances the possibility that 
government jobs will be less competitive than contractors in the area. 
While Public Law 99-145 granted the Department of Defense exemption 
from Monroney provisions from 1985 until 2002, the reinstatement of 
those provisions creates an ongoing and contentious issue. The 
Department asked that the exemption be continued; however, our request 
was not approved. Nevertheless, the Department continues to question 
whether use of the Monroney provision is appropriate, especially given 
the existence of several administrative remedies (special rates, 
increased minimum rates, unrestricted rates, and others) that are 
available to fully address local pay issues.

                         ACTIVE DUTY STRENGTHS

    14. Senator Cleland. General Myers, did any of the services request 
increases in their active duty strengths as part of their fiscal year 
2003 budget requests and what is your view on the need for such 
increases?
    General Myers. The Marine Corps requested an increase of 2,432 
active duty military strength as part of their fiscal year 2003 budget 
to establish a new 4th Antiterrorism Marine Expeditionary Brigade 
(MEB). The Army, Navy, and Air Force did not request an increase in 
their active duty strengths. As we move forward in the war on terrorism 
and protecting the homeland, the services should continue to review 
their short-term and long-term end strength requirements and make the 
necessary recommendations to the Department of Defense.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                     TRANSFORMATION OF THE MILITARY

    15. Senator Landrieu. Secretary Rumsfeld, all four services under 
the Department of Defense and the Coast Guard face sweeping changes and 
new challenges to which they must rise in the coming years. In this 
time of threats from many non-state actors, it makes sense to pursue a 
capabilities-based approach to our warfighting strategy. This should 
not negate, however, many of the technologies we currently have in 
place. Will you make a concerted effort to fully utilize those 
currently employed systems which can be integrated into the 
transformation process, such as the B-52, which has proven time after 
time its worth in achieving very specific national security goals?
    Secretary Rumsfeld. To ensure we have the resources to prepare for 
the future, and to address the emerging challenges to homeland 
security, we need a more realistic and balanced assessment of our near-
term warfighting needs. Looking to the future, it's important that we 
move away from the so-called threat-based strategy that had dominated 
our country's defense planning for nearly a half-century and adopt what 
we characterize as a capability-based strategy, one that focuses less 
on who might threaten us or where we might be threatened, and more on 
how we might be threatened. Instead of building our Armed Forces around 
plans to fight this or that country, we need to examine our 
vulnerabilities, asking ourselves what must be done to deter and defeat 
those threats. We need to change not only the capabilities at our 
disposal, but also how we think about war. All the high-tech weapons in 
the world will not transform U.S. Armed Forces unless we also transform 
the way we think, the way we train, the way we exercise, and the way we 
fight. As we consider the transformational steps ahead, we will 
certainly look at our existing technologies and capabilities, and 
determine their future role in our national security strategy.

    16. Senator Landrieu. Secretary Rumsfeld, do the plans for 
increasing military expenditures to $451.4 million by fiscal year 2007 
call for the full modernization of the B-52 fleet, including the `Ready 
Reserve' B-52s at Minot Air Force Base? After all, the B-52 has been a 
stalwart in Operation Enduring Freedom and is expected to remain in 
service until fiscal year 2040.
    Secretary Rumsfeld. The increased funding for B-52 modernization 
includes upgrades to aircraft navigation, avionics, computers, 
situational awareness, and electronic countermeasure systems for the 
required B-52 fleet. The Air Force maintains a requirement for 76 B-52 
aircraft as stated in the 2001 U.S. Air Force Long-Range Strike 
Aircraft White Paper and the 1998 Report of the Panel on Long-Range 
Airpower.

                           HOMELAND SECURITY

    17. Senator Landrieu. General Myers, you mentioned that the Unified 
Command structure may be modified to establish a combatant command 
responsible for homeland security. Can you share any preliminary 
models?
    General Myers. Yes, Senator. A preliminary model already exists. 
Since September 2001, U.S. Joint Forces Command has executed its 
assigned mission as supported CINC for land and maritime defense and 
for the civil support portions of the homeland security mission. U.S. 
Joint Forces Command has activated a 67-person provisional Joint Force 
Headquarters--Homeland Security (JFHQ-HLS), as well as supporting an 
implementation team to facilitate a future Unified CINC dedicated to 
the HLS mission.

    18. Senator Landrieu. General Myers, do you envision a homeland 
CINC?
    General Myers. Senator, we are currently studying the feasibility 
of creating a command to oversee homeland responsibilities. 
Additionally, we are drafting a terms of reference document that will 
help us in this effort.

                      RESERVE AND GUARD READINESS

    19. Senator Landrieu. Secretary Rumsfeld, you are of course, aware 
that over the past 10 years the number of days reservists have served 
on active duty has soared to levels which endanger their civilian 
employment. With the onset of Operations Enduring Freedom and Noble 
Eagle, over 7,000 Guardsmen stand watch in more than 440 airports 
around the country. Countless reservists have not only deployed 
overseas, but kept our shores and skies safe. They perform duties 
ranging from humanitarian and peacekeeping missions to assuming new 
responsibilities in responding to domestic incidents involving weapons 
of mass destruction. Do you see a resistance from employers to support 
this increase of Reserve and Guard duties and if so, do you have any 
recommendations to ease the burden on employers?
    Secretary Rumsfeld. The use of the National Guard and Reserve has 
changed significantly over the past decade, with members not only 
performing required training, but also supporting operations on a day-
to-day basis. Employer support is critical to an individual's decision 
to remain in the selected Reserve. That support is even more important 
in a time of mobilization, when employees are absent from their 
employer for more extended periods of time. These absences create work 
problems and increased costs for both the employers and employees.
    At this time I do not see a resistance from employers to support 
this increased use of the Reserve components. I see our Nation's 
employers, both public and private, in full support of their employees. 
They have, as a general rule, been more than just supportive. Hundreds 
of employers have extended continued medical care, continued salaries, 
established support mechanisms for the families, and have taken 
extraordinary steps to show corporate support for all Reservists. 
However, as the period of the current call-up continues, sustaining the 
displays of employer patriotic support may become more of a challenge.
    The Department has programmed a significant increase in funding for 
employer support programs to strengthen the partnership between 
employers and the military, facilitate targeting of information to 
employers, enhance communications with industry, and to survey and 
improve overall attitudes of employers toward participation of their 
employees in the Guard and Reserve. We have taken positive steps to 
provide as much relief to employers as possible, primarily by 
restricting the length of involuntary call up to, in most cases, 1 
year. Some Reserve members may be recalled for longer periods, and some 
Reservists may volunteer for duty beyond the period of the involuntary 
call up. We want to ensure that no recalled reservist is kept on active 
duty for longer than required, and we are continuously reviewing our 
requirements to maintain that equilibrium.

    20. Senator Landrieu. Secretary Rumsfeld, is it your opinion that 
the Reserve component can maintain readiness, retention, and remain a 
force multiplier with this increasing demand, without a significant 
increase in their budget?
    Secretary Rumsfeld. I anticipate that there will be some level of 
increased Reserve component funding requirement based on the 
unexpected, unplanned, and unbudgeted utilization of the Reserve 
components. After the call-up, many of these personnel will still be 
required to perform their annual Reserve component military training 
requirements to stay current and qualified for their primary military 
assignments. Other members may be performing in their specialty and not 
need any additional event training. We are assessing the appropriate 
size of the funding increase driven by this greater-than-budgeted 
utilization, and plan to request that increase as part of the Fiscal 
Year 2002 Supplemental request.

                                 JSTARS

    21. Senator Landrieu. Secretary Rumsfeld, recent events have 
certainly shown the relevance of having flawless intelligence and 
integrated intra-theater operations. One platform that has become a 
cornerstone of our intelligence gathering efforts is JSTARS. Can we 
expect to see more technological growth and more airframes for this 
particular weapon system in the out-years?
    Secretary Rumsfeld. The Air Force currently operates 12 JSTARS 
aircraft and is funded to field 5 more by fiscal year 2005. These 
aircraft are based on the older Boeing 707 airframe. We are currently 
developing a new acquisition plan to upgrade and migrate the JSTARS 
ground surveillance mission and battle management mission to a newer, 
larger airframe. The Boeing 767 has been chosen and will host the next 
generation Active Electronically Scanned Antenna (AESA) radar as the 
first development spiral of a Multi-sensor Command and Control Aircraft 
capability. This 4th generation radar, known as the Multi-Platform 
Radar Technology Insertion Program (MP-RTIP), will provide 20-fold 
increase in power, 6-fold increase in the number of targets processed, 
a 300-fold increase in the number of tracks, and 10-fold increase in 
Synthetic Aperture Radar resolution. Furthermore, the MP-RTIP sensor 
will provide focused air-to-air surveillance for cruise missile 
defense. Subsequent development spirals would expand mission 
capabilities to include air surveillance missions. We plan to have the 
first MP-RTIP equipped aircraft operational by 2010.

            PUBLIC PRIVATE VENTURE AND MILITARY CONSTRUCTION

    22. Senator Landrieu. Secretary Rumsfeld, some recent estimates say 
that it will take $30 billion and more than 30 years just to fix the 
current backlog of military housing deficiencies. The National Defense 
Authorization Act for Fiscal Year 1996 included a series of new 
authorities allowing the Department of Defense to work with the private 
sector to build or renovate military housing by obtaining private 
capital to leverage government dollars, and use a variety of private 
sector approaches to create military housing faster and at less cost to 
American taxpayers. This legislation was extended to December 2004. Why 
has the military construction budget decreased by 10 percent in fiscal 
year 2003, yet the overall budget has increased by 10 percent?
    Secretary Rumsfeld. While the fiscal year 2003 military 
construction request is less than last year's request, it focuses 
funding on improving quality of life and resolving critical readiness 
shortfalls. With respect to quality of life, we have increased the 
military construction budget for family housing by $227 million from 
the President's fiscal year 2002 budget request. Furthermore, this 
budget maintains our commitment to single service members by requesting 
$1.2 billion for barracks, and to those living off base by reducing 
their out of pocket housing costs from 11.3 percent to 7.5 percent. In 
addition to these budgetary changes, we also accelerated the goal for 
eliminating inadequate housing from 2010 to 2007, an improvement of 3 
years.
    You also mention our Military Housing Privatization Initiative 
(MHPI), the availability of which Congress extended from December 31, 
2004 to December 31, 2012. These authorities allow the Department to 
leverage the capital and expertise of the private sector to improve the 
condition of military family housing sooner and at less cost (both up 
front and over the life cycle of a project). As I mentioned, we are 
committed to eliminating inadequate military family housing by 2007. 
The extension of these authorities gives the Department an important 
tool to meet that commitment.

    23. Senator Landrieu. Secretary Rumsfeld, do you support a broader 
expansion of this initiative to include permanent authority?
    Secretary Rumsfeld. The Department is interested in making the 
Military Housing Privatization Initiative authorities permanent, which 
is why we submitted legislation to that effect as a part of our fiscal 
year 2002 National Defense Authorization Bill. Congress instead elected 
to extend the availability of our privatization authorities from 
December 31, 2004 to December 31, 2012. Although not what we requested, 
the extension of these authorities does allow us to maintain our 
momentum. We will continue to aggressively pursue housing privatization 
and, when appropriate, work with Congress to make the housing 
privatization authorities permanent.

                      TECHNOLOGY TRANSITION ISSUES

    24. Senator Landrieu. Secretary Rumsfeld, the Comptroller General 
has found that private industry fields new products faster and more 
successfully than the Department of Defense because they are able to 
spend more time in research and development before incorporating them. 
Do you agree that problems with immature technologies contribute to 
slowing down the entire acquisition cycle?
    Secretary Rumsfeld. We believe that using mature technologies 
contributes to cycle time reductions. The revised DOD 5000-series 
documents that govern the DOD acquisition system now require that key 
technologies be demonstrated in a relevant environment before a program 
begins system development and demonstration, unless there is an 
overriding reason to move forward with less mature technologies.

    25. Senator Landrieu. Secretary Rumsfeld, do you believe ``spiral 
development'' or sequential integration of new technologies as they 
mature is an appropriate response to this problem?
    Secretary Rumsfeld. Yes. Spiral development calls for using 
available, more mature technologies to produce weapon systems that meet 
each time-phased increment of required capability. The first increment 
of capability (or block) will meet many, but not necessarily all, of 
the system's operational requirements when the system is first 
deployed. Each additional increment or block will incorporate newer 
technologies that have matured after the first increment or block was 
developed and fielded. The series of blocks represent the ``spirals'' 
that provide for increasing capabilities over time.

                                 LPD-17

    26. Senator Landrieu. General Myers, our Navy faces the same 
challenge as our other services, and that is the age of the fleet. The 
LPD-17 which would provide some needed relief to aging amphibious lift 
vehicles has short-sightedly, in my opinion, been reduced to one per 
production year. Why was this cut made, and isn't replacing aging 
vessels a number one concern in the overarching theme of 
transformation?
    General Myers. The Navy decided to reduce shipbuilding procurement 
in fiscal year 2003 because the average age of surface ships is 
relatively low, and that they were better off making choices to fund 
higher priorities. Given the Global War on Terrorism, the Department's 
first priority is funding readiness accounts. The Navy could better 
answer the broader question of exactly why the cut was made and the 
effect it will have on transformation.

                     SCIENCE AND TECHNOLOGY FUNDING

    27. Senator Landrieu. Secretary Rumsfeld, the Department's science 
and technology programs play a key role in our efforts to transform our 
military to meet the emerging threats of the 21st century. These 
programs fund scientific research at our Nation's universities, defense 
laboratories, and in industry--developing the technologies that will 
protect our warfighters and citizens at home in the future. Past 
investments by the Department of Defense have yielded the biological 
sensors, precision weapons, and unmanned vehicles that are playing such 
an important part in fighting our enemies in Afghanistan and defending 
our people at home. The Quadrennial Defense Review highlighted the need 
for science and technology investments, calling for ``funding for 
science and technology programs to a level of 3 percent of the 
Department of Defense's spending per year.'' Unfortunately, the 
President's budget request is nearly $1.4 billion short of this goal. 
The request cuts funding for the Department of Defense's science and 
technology programs by nearly $200 million from fiscal year 2002 
appropriated levels. It also cuts funding for Army and Navy science and 
technology programs, as well as for basic research performed at small 
companies and universities around the country. How are these cuts 
consistent with the target and transformation vision set by the 
Quadrennial Defense Review?
    Secretary Rumsfeld. The President's fiscal year 2003 budget Request 
seeks $9.9 billion for science and technology (S&T) programs, including 
$213 million in disaster relief funds for combating terrorism 
technology, a $1.1 billion increase over the Fiscal Year 2002 Amended 
President's Budget Request of $8.8 billion. It remains our goal to 
increase funding for science and technology (S&T) programs to a level 
of 3 percent of the Department's total budget. Current efforts within 
the Department are focused upon aligning S&T investment with the 
capabilities outlined in the QDR, with increased emphasis on joint, 
transformational, and counter-terrorism technologies.

    28. Senator Landrieu. Secretary Rumsfeld, how will these cuts 
affect our efforts at transforming the military to meet the new terror, 
weapons of mass destruction, cyber, and other threats in the next 
century?
    Secretary Rumsfeld. Current efforts within the Department are 
focused upon aligning S&T investment with the capabilities outlined in 
the QDR, with increased emphasis on joint, transformational, and 
counter-terrorism technologies. This reflects a shift to capabilities 
based planning to address a broad range of potential challenges in the 
future.

    29. Senator Landrieu. Secretary Rumsfeld, when do you expect the 
Department to achieve the 3 percent goal established by the Quadrennial 
Defense Review?
    Secretary Rumsfeld. It remains our goal to increase funding for 
science and technology programs to a level of 3 percent of the 
Department's total budget. Providing a precise time line for achieving 
that goal is very difficult at this time because of the needs to fight 
the war against terrorism. Our current budget request achieves a 
balanced and affordable defense program which includes a substantial 
increase for science and technology over the fiscal year 2002 request.

  ROLE OF THE DEPARTMENT OF DEFENSE IN HOMELAND DEFENSE AND HOMELAND 
                                SECURITY

    30. Senator Landrieu. Secretary Rumsfeld and General Myers, last 
year the Defense Department was considering reorganization initiatives 
to improve the Department's ability to contribute to the homeland 
security mission. I gather we still have not seen a final proposal on 
such reorganization. As I see it, the Department has two roles in this 
regard. First, it has the primary responsibility for defending the 
United States against attack from outside threats. That is the primary 
mission of our military forces. I understand that there has been some 
thought to revising the division of responsibilities among our 
commands, the Unified Command Plan, to improve our capabilities to 
defend against external attacks. Second, the Department plays a 
supporting role to the rest of the Federal Government for homeland 
security. This is a more complicated area because of the different 
missions of civilian agencies that have law enforcement roles and 
responsibilities here at home. In this second case, the Department 
would play a supporting role, rather than a leading role. Can you share 
with me your views on the appropriate roles for the Department of 
Defense in each of these missions, and what changes you believe would 
be useful in helping the Department play the appropriate role?
    Secretary Rumsfeld. In Public Law 107-107, the National Defense 
Authorization Act for Fiscal Year 2002, Congress directed me to 
``conduct a study on the appropriate role of the Department of Defense 
with respect to homeland security.'' The Department of Defense is 
currently conducting this study, examining roles and missions in light 
of the Global War on Terrorism and the evolving National Homeland 
Security Strategy, and will report the results this summer.
    General Myers. Certainly, Senator. While the primary mission of our 
Armed Forces will continue to be the defense of our homeland against 
external attacks, our defense policy must evolve to meet new threats. 
For this reason, a new homeland CINC is being studied. But I want to 
emphasize that our best defense is still a good offense. We intend to 
strike the enemy on their soil and on our terms, and this is what our 
combatant commanders are doing around the world right now.
    In terms of how we support civil authorities, we are currently 
reviewing how best the Armed Forces can assist these authorities. I 
believe the current role of the Armed Forces is appropriate, but, given 
the new threat environment, we may need to reexamine the Armed Forces' 
relationship with local, State, Federal, and civilian agencies in terms 
of prevention, preemption, and consequence management. If a 
determination is made that non-DOD agencies lack a specific capability, 
the Armed Forces may be called upon to help on an interim basis to fill 
a specific voids. One example in which the Armed Forces would provide 
an appropriate supporting role is in response to an attack of weapons 
of mass destruction. In any situation, the Armed Forces would be in a 
supporting role to Federal or State lead agencies. I do not believe 
that we should engage in law enforcement or domestic intelligence-
gathering activities. Not only are we generally precluded from engaging 
in these sorts of activities as a matter of long-standing law and 
policy, but also these are activities for which non-Department of 
Defense agencies are clearly and appropriately responsible. Any 
capability shortfalls in these areas should, therefore, be addressed by 
the appropriate agency.

                CHEMICAL AND BIOLOGICAL DEFENSE EFFORTS

    31. Senator Landrieu. Secretary Rumsfeld, last October, somebody 
sent highly concentrated spores of deadly anthrax in the mail to a 
number of Senate offices, including those of Majority Leader Tom 
Daschle and Senator Pat Leahy. After these terrorist attacks, we found 
that there was much we did not know about anthrax, which is considered 
the most likely biological weapon threat our military faces. It was 
only about a week ago that the Hart Senate Office Building reopened 
after months of efforts to decontaminate the anthrax and make the 
building safe again. What lessons have you learned as a result of the 
anthrax attacks, and what is the Department doing to improve its 
ability to defend and protect against biological and chemical attacks?
    Secretary Rumsfeld. For operational responses to biological 
terrorism, the Department of Defense is working closely with the lead 
Federal agencies as defined in the Federal Response Plan to ensure a 
well coordinated response. For clean up of the Hart Senate Office 
Building, the Department of Defense supported the Environmental 
Protection Agency (EPA), which will issue its report on lessons learned 
from that cleanup effort.
    The anthrax attacks late last year pointed out the real dangers of 
biological weapons. While these attacks have increased the priority of 
our efforts, the Department has been drawing upon our Nation's 
scientific expertise to develop and field an effective defense 
capability to protect our forces and nation from adversaries at home 
and overseas. Continuing advances in genetic engineering, 
biotechnology, and related scientific areas will require our continued 
vigilance to ensure that we are prepared for the threat and not caught 
by technological surprise.
    An integrated approach, which incorporates capabilities for 
detection, identification, warning, protection, medical 
countermeasures, and decontamination, provides the basis for the 
Department's defenses against chemical and biological weapons threats. 
A detailed description of accomplishments and planned research, 
development, and acquisition programs is provided in the ``DOD Chemical 
and Biological Defense Program Annual Report to Congress,'' last 
submitted in April 2002.

    32. Senator Landrieu. General Myers, I gather that the FDA just 
approved the license to produce anthrax vaccine last week. I understand 
that the Joint Chiefs believe it is important that our troops are 
protected against anthrax. What is the Department's plan to protect our 
forces against anthrax and other biological warfare threats?
    General Myers. The Joint Chiefs and I are concerned about the 
health and safety of all service members, especially those assigned or 
deployed to high threat areas. The Department of Defense is currently 
reviewing the Anthrax Vaccine Immunization Program to determine the 
best courses of action to provide protection to our service members. In 
addition to the anthrax vaccine, commanders have and will continue to 
employ other pillars of our Force Health Protection program to include 
the use of protective gear, biological agent detectors, ongoing medical 
surveillance, intelligence gathering, and stockpiling antibiotics for 
use in treatment should it be necessary.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                                OPTEMPO

    33. Senator Akaka. General Myers, as you pointed out in your 
written statement, while our forces are bravely securing our homeland 
and conducting offensive operations on the war on terrorism, they also 
remain engaged in a number of other important missions. Could you 
please comment on the impact that maintaining the OPTEMPO has on 
military readiness for both the short-term and long-term?
    General Myers. While the current operations tempo from the war on 
terror is manageable, we should remember that this is wartime and it 
will cause us to necessarily push our forces harder. Sacrifices are 
being made and will have to continue to be made. This is particularly 
true for some of our specialized assets, called ``low density/high 
demand'' assets, which are being deployed at high operational levels.
    That said, we continue to do everything we can to alleviate the 
stresses on these forces by ensuring balanced force rotations and 
providing appropriate rest, refit, and training periods. For the long-
term, we will strive to address the fundamental causes of deployment 
stress. The fiscal year 2002 and 2003 budgets help fix some of our 
``low density/high demand'' intelligence, surveillance, and 
reconnaissance assets. We've also made tremendous strides in recent 
years providing our people a comprehensive set of quality life 
improvements, especially in the areas of pay, housing, and health care. 
We have stocked our spare parts shelves, funded our maintenance depots, 
and enabled our training pipelines. We have established a system to 
track and compensate individuals who are frequently deployed, and are 
working to address all the issues involved in sustaining our military 
capabilities. These actions will help ensure America's military is 
ready to respond to the demands the war on terrorism puts on us.

                           RESERVE PERSONNEL

    34. Senator Akaka. General Myers, you mentioned the substantial 
contributions our Reserve personnel are making to current operations. 
How long does the Department expect to sustain this level of Reserve 
commitment? Will we be able to sustain an additional activation of 
Reserve personnel in similar numbers?
    General Myers. While the current operations are certainly 
demanding, our Reserve component forces are ready, willing, and more 
than able to answer the call. Our Reserve components (RC) are 
completely integrated into our war against terrorism. Under the current 
partial mobilization authority, we should be able to sustain our 
current level for several years. Only a small percentage of our RC 
forces have been mobilized and we can use members not currently 
mobilized to satisfy future requirements. Because we do have a large 
pool to draw from we are able to support an additional mobilization of 
similar numbers. We also plan to reduce our Reserve component forces as 
quickly as possible where they are used as an interim capability, such 
as airport security. We'll need the continued support of employers and 
families so our Reservists and Guardsmen can continue to serve their 
country.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                           CONCURRENT RECEIPT

    35. Senator Bill Nelson. Secretary Rumsfeld, the budget request 
does not include funding necessary to allow concurrent payment of 
retired pay and disability compensation (estimated to cost $3 billion 
annually). Do you believe that offsetting military retired pay by 
Veterans Administration disability compensation is a just and fair 
treatment of our retirees and their families?
    Secretary Rumsfeld. We are concerned about this important issue and 
are currently reviewing the matter as requested by Congress. We will 
provide any recommendations after that review is complete.

    36. Senator Bill Nelson. Secretary Rumsfeld, why did President 
decide not to include this funding in his request this year?
    Secretary Rumsfeld. The matter was under review, but the review is 
still pending. Once the review is complete, we will provide appropriate 
recommendations, if any.

    37. Senator Bill Nelson. Secretary Rumsfeld, how did you advise the 
President with regard to this funding?
    Secretary Rumsfeld. Once the review is complete, we will provide 
appropriate recommendations, if any.

                 JOINT PRIMARY AIRCRAFT TRAINING SYSTEM

    38. Senator Bill Nelson. Secretary Rumsfeld, in your fiscal year 
2003 budget request the Air Force buys 35 T-6A (Texan) aircraft for 
their Joint Primary Aircraft Training System (JPATS) program. In fiscal 
year 2002 they bought 45. The Navy has again failed to fund their share 
of this important modernization program in this request. Congress has 
urged the Navy to get this program back on track as a matter of pilot 
safety, quality training, and reduced operating costs. The older Navy 
trainers are much less safe and a 4-year delay in procurement is not 
trivial. Please explain the apparent contradiction in Department of 
Defense's position that accelerates the retirement of legacy aircraft 
such as Huey Helicopters and Navy F-14 Tomcats, but specifically allows 
the Navy to ignore the benefits of accelerating its own training 
aircraft modernization program.
    Secretary Rumsfeld. As part of the fiscal year 2003 submission 
process, a prioritized review of Navy programs was conducted similar to 
that conducted in fiscal year 2002 when JPATS procurement was initially 
deferred. The Navy remains committed to the decision to maximize the 
remaining service life of the T-34C with a ``just in time'' procurement 
strategy for transitioning to JPATS. The T-34C aircraft has an 
excellent safety record; it is reliable and economical to operate and 
has service life remaining to meet current and future training 
commitments. The Air Force has a legacy trainer, the T-37 that is at 
the end of its useful service life and it needs to procure JPATS now. 
The Air Force bought 40 T-6s in fiscal year 2002, and recently 
accelerated its planned buys for fiscal year 2004-2007.

                         MILITARY CONSTRUCTION

    39. Senator Bill Nelson. Secretary Rumsfeld, the budget request 
reduces funding for ``low priority'' new construction that was planned 
in previous years. It also attempts to reduce some of the backlog of 
facilities maintenance and repairs. New construction has been slowed 
obviously in anticipation of BRAC authority in fiscal year 2005. What 
specific guidance have you provided the services and CINCs with regard 
to planning, programming, and budgeting for new military construction 
and what kinds of projects are acceptable or not?
    Secretary Rumsfeld. BRAC was not a consideration when determining 
construction projects. The military construction projects in our fiscal 
year 2003 request were based on mission criticality without regard to 
specific installations.
    Our guidance to the components was to plan, program, and budget in 
such as way as to: improve, over time, the recapitalization rate to 
meet relevant life expectancy benchmarks with our goal being 67 years 
on average; restore the readiness of facilities to minimum C-2 status; 
and constrain ``new footprint'' facilities while eliminating any 
remaining excess capacity so we can achieve a net reduction in 
capacity.

                     MILITARY CONSTRUCTION PLANNING

    40. Senator Bill Nelson. Secretary Rumsfeld, how long a view is 
reflected in this MILCON request--that is, are you trying to avoid 
committing to construction at installations that may change after 2005, 
or are you looking well into the future, carefully considering how to 
station the force into the century? For example, all Atlantic Fleet 
nuclear aircraft carriers are crowded into Naval Station Norfolk. Is it 
wise to allow this concentration of valuable, somewhat vulnerable ships 
to continue, or would it be more prudent to have the flexibility to 
station our nuclear aircraft carriers at other locations?
    Secretary Rumsfeld. The services assessed both short- and long-term 
factors in developing their fiscal year 2003 military construction 
requests. All the military services are continually assessing the risk 
of attacks on our forces and continually planning to optimize 
protection for our people, our ships, and the other components of our 
defense force. The advantages of concentration include economics, the 
efficient and effective use of available infrastructure, and improving 
the effectiveness and efficiency of antiterrorism protection. As you 
infer, however, there are certainly some potential disadvantages as 
well.
    Thus, the services will continue to consider facility investments 
in light of operational requirements as well as many other factors. We 
must ensure that our infrastructure appropriately supports those 
requirements. Specifically, the fiscal year 2003 military construction 
request is focused on resolving critical readiness shortfalls as 
determined by the services.

                            NORTHERN COMMAND

    41. Senator Bill Nelson. Secretary Rumsfeld, Gen. Peter Pace, Vice 
Chairman of the Joint Chiefs of Staff, disclosed plans at the National 
Defense University last week to create a new ``Northern Command'' that 
would be responsible for defending the borders, coasts, and airspace of 
the United States. We understand that you plan to present to President 
Bush a new unified command structure for just such a headquarters. Do 
you envision that this command will be a regional combatant command 
like Central Command, a functional command like Transportation Command, 
or both, like our Special Operations Command?
    Secretary Rumsfeld. I envision that Northern Command (NORTHCOM) 
will be a regional combatant command.

    42. Senator Bill Nelson. Secretary Rumsfeld, what will be the role 
of the National Guard in this concept?
    Secretary Rumsfeld. DOD is studying the missions and associated 
force requirements for NORTHCOM, including the appropriate relationship 
between NORTHCOM and National Guard forces.

    43. Senator Bill Nelson. Secretary Rumsfeld, do you contemplate 
recommending change to National Guard structure?
    Secretary Rumsfeld. DOD is studying the missions and associated 
force requirements for NORTHCOM including any proposed changes in 
National Guard structure.

    44. Senator Bill Nelson. Secretary Rumsfeld, will their relative 
priority for resources increase as a function of this increased 
allocation to CINC operational plans?
    Secretary Rumsfeld. As the defense strategy makes clear, the 
highest priority for the U.S. military is to fulfill its specified 
responsibilities to defend the U.S. homeland. Having appropriate Active 
and Reserve component forces ready for homeland defense missions is 
therefore a first concern for the Department. Once the Combatant 
Commander for Northern Command is in place, he or she will develop 
plans within the Command's area of responsibility for my review and 
consideration. All Active and Reserve component units apportioned to 
those plans must be adequately resourced for their assigned missions.

    45. Senator Bill Nelson. Secretary Rumsfeld, over the years, our 
National Guard's support for state counterdrug efforts has paid huge 
dividends in reducing drug traffic and terrorist threats along our 
borders. The counterterror benefits of these programs are apparent; 
however, the Department of Defense consistently under funds this effort 
in annual budget requests. Will this new command also take on 
responsibility for the Department of Defense's support for counterdrug 
operations?
    Secretary Rumsfeld. The Department is currently reviewing the 
missions that U.S. Northern Command will undertake with regards to 
homeland defense and civil support. The Department provides 
considerable support to civil authorities in the area of 
counternarcotics. We are also currently reviewing DOD counternarcotics 
policy. Therefore, it would be premature to commit to any future role 
the new command may have in the counterdrug program.

    46. Senator Bill Nelson. Secretary Rumsfeld, what is your 
commitment to the National Guard's participation in counterdrug/
counterterror operations in support of state law enforcement agencies?
    Secretary Rumsfeld. The Department is currently reviewing our 
counternarcotics policy. Therefore, it is premature for me to commit to 
any future level of National Guard participation in counterdrug 
operations in support of state law enforcement agencies.

    47. Senator Bill Nelson. Secretary Rumsfeld, how will this command 
be funded and have you considered giving this command the same somewhat 
independent budget authority as held by Special Operations Command?
    Secretary Rumsfeld. The Department is examining various funding 
mechanisms for U.S. Northern Command as part of its ongoing planning 
process for the Command's establishment.

                                 SPACE

    48. Senator Bill Nelson. Secretary Rumsfeld, the Department of 
Defense budget request indicates a range of support for increased or 
improved capabilities in space to support military operations-
particularly in intelligence, geo-location, and communications. The 
budget request also reflects significant disappointment that some 
important space programs have failed to progress adequately--such as 
reduced funding for Evolved Expendable Launch Vehicle. The Department 
of Defense's emphasis appears to be on the payload, but there is 
significant risk to our national capacity to reliably get our critical 
defense systems into space without support for the launch programs, 
such as NASA's Space Launch Initiative, and our human space programs. 
Sen. Mikulski recently (January 28, 2002, Aviation Week) ``cautioned'' 
NASA to maintain the ``firewall'' between military and civil space 
activities. This cautious approach to NASA-Department of Defense 
cooperation ignores the reality of urgent requirements for greater 
inter-agency integration to save money, and denies NASA a critical and 
appropriate role in supporting public safety and global security. I 
have argued that a national space policy that limits the Department of 
Defense's role in reusable launch vehicle development may need to be 
revisited to allow significant Department of Defense contribution to 
NASA's Space Launch Initiative. What is your position on the future of 
cooperation with NASA for critical common space functions such as space 
lift?
    Secretary Rumsfeld. The Department of Defense is currently working 
directly with NASA in developing a long-term investment strategy for 
next-generation reusable launch vehicles. This strategy identifies 
opportunities for investment by the Department of Defense to develop 
critical technologies to support military unique requirements as well 
as partner with NASA's Space Launch Initiative to develop technologies 
that would address both agencies requirements for a next-generation 
space launch system.

    49. Senator Bill Nelson. Secretary Rumsfeld, because of the 
decision to reduce funding for Evolved Expendable Launch Vehicle 
(EELV), are you planning to use future space shuttle missions for 
military payloads?
    Secretary Rumsfeld. The reduction in the request for the Evolved 
Expendable Launch Vehicle program in our fiscal year 2003 budget was a 
result of satellite schedules for Department of Defense satellites 
moving to the right. Given the recent success of the heritage launch 
programs and the progress of the Evolved Expendable Launch Vehicle 
(Atlas V, Delta IV) development, the shuttle option is not being 
considered for primary military payloads. However, DOD will continue to 
use the shuttle for a variety of space experiments and small payloads. 
As you are aware, the EELV strategy is predicated on dual compatibility 
of the two vehicle systems, providing back up for each other. At this 
time, none of the DOD primary payloads are configured for space shuttle 
flight and no funding identified for requisite shuttle-based upper 
stages.

    50. Senator Bill Nelson. Secretary Rumsfeld, how does this budget 
request specifically reflect progress toward accomplishing the 
recommendations of the Space Commission you chaired recently?
    Secretary Rumsfeld. The Department of Defense is currently working 
to implement the recommendations of the Space Commission. With respect 
to this budget, the Department has established a ``virtual'' Major 
Force Program for Space to increase the visibility into the resources 
allocated for space. This ``virtual'' Major Force Program is identified 
in this budget and in the Future Years Defense Plan by specific and 
exclusive program elements.

    51. Senator Bill Nelson. Secretary Rumsfeld, what significant 
organizational changes and program priorities are captured in this 
request?
    Secretary Rumsfeld. The Department of Defense, in response to the 
recommendations of the Space Commission, has made several 
organizational changes. The Department has nominated a four-star 
general officer to be the Commander of Air Force Space Command and has 
assigned responsibility for the Command of Air Force Space Command 
separately from CINCSPACE. The newly confirmed Under Secretary of the 
Air Force has been appointed as the Director, National Reconnaissance 
Office. The Secretary of the Air Force has been delegated milestone 
decision authority for all Space Major Defense Programs with the 
authority to redelegate to the Under Secretary of the Air Force. The 
Secretary of the Air Force has been delegated authority, in 
coordination with the Secretaries of the Army and the Navy, to 
implement actions with regard to space acquisition streamlining. The 
Air Force has reassigned Space and Missile Systems Center from Air 
Force Materiel Command to Air Force Space Command. Upon confirmation of 
the Under Secretary of the Air Force, the Air Force disestablished the 
position of the Assistant Secretary of the Air Force. The Air Force has 
assigned the Space and Missile Systems Center Commander as the Program 
Executive Officer for Space and has assigned the Program Executive 
Officer directly to the Under Secretary of the Air Force. The 
Department of Defense is currently working to implement the additional 
recommendations of the Space Commission which will result in further 
organizational changes.
    With respect to this budget, the Department's space program 
priorities consist of military satellite communications (MILSATCOM) 
satellites and terminals including the Mobile User Objective System, 
laser communication capability, Global Positioning System 
modernization, and Space Based Radar.
                                 ______
                                 
              Questions Submitted by Senator Jeff Bingaman

                            NUCLEAR WEAPONS

    52. Senator Bingaman. Secretary Rumsfeld, the Nuclear Posture 
Review reduces the count of nuclear weapons to about 1,700, but 
essentially keeps intact the number of warhead systems that will be 
deployed. Will the Department of Defense work to ensure that through 
the Nuclear Weapons Council that a reduction in the number of warheads 
as called out by the Nuclear Posture Review does not necessarily 
translate into a reduction of the stockpile stewardship program whose 
purpose is to maintain the warhead systems without resorting to 
testing?
    Secretary Rumsfeld. The reduction in the number of operationally 
deployed strategic nuclear warheads to 1,700-2,200 does not in any way 
reduce the requirement that the U.S. nuclear stockpile remain safe and 
secure. Indeed, reductions in operationally deployed warheads increase 
the need to assure reliability of remaining forces since a technical 
problem could have greater significance than at current levels.
    The Defense Department relies on the Department of Energy (DOE) to 
ensure that U.S. nuclear weapons are safe and reliable, thereby 
maintaining the credibility of our nuclear forces. DOEs stockpile 
stewardship program monitors the status of existing warheads to verify 
their safety and reliability. DOD participates in this activity through 
the Nuclear Weapons Council.

    53. Senator Bingaman. Secretary Rumsfeld, the ongoing Afghanistan 
situation has shown that the conflicts of the future will involve a 
close merger between Special Forces, our ``5th uniformed service,'' and 
our civilian intelligence agencies. What is the Department doing to 
understand and institutionalize the organizational relationship that 
has evolved between the civilian intelligence agencies and Special 
Forces so that it becomes more mainstream?
    Secretary Rumsfeld. The relationship between the Special Operations 
Force's community and civilian intelligence agencies has always been a 
strong one. This has been reinforced and strengthened by our efforts in 
Afghanistan and through better interagency cooperation. DOD is 
providing senior Special Operations Forces officers on rotation to key 
positions in civilian agencies to bridge the cultural gap and enhance 
support relationships. DOD, with the help of the interagency, is 
resourcing Joint Interagency Task Forces on the staff of the combatant 
commanders to better plan and prioritize the application of DOD and 
interagency resources. DOD is also actively studying ways to enhance 
Special Operations Force's organic capability to plan and operate with 
civilian intelligence agencies in a more effective manner.

    54. Senator Bingaman. Secretary Rumsfeld, would the Department be 
adverse to establishing a Service Secretary equivalent (in rank) for 
Special Forces?
    Secretary Rumsfeld. Consideration of such a proposal for Special 
Operations Forces would have to be based upon a comprehensive analysis 
of all aspects-resource, policy, legal, and organizational efficiency. 
Without such a foundation on which to base an evaluation, the 
Department has not established a definitive position.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                 ROLE OF THE QUADRENNIAL DEFENSE REVIEW

    55. Senator Thurmond. Secretary Rumsfeld, at the conclusion of last 
year's Quadrennial Defense Review, you and your staff suggested that 
the fiscal year 2003 budget request would reflect the recommendations 
of the QDR. How does this budget request support the recommendations of 
the QDR?
    Secretary Rumsfeld. The answer to this question is detailed in the 
middle half of my statement for the record on the fiscal year 2003 
budget request. To summarize, this request supports the QDR's 
recommendations by funding the priorities and changes reflected in the 
new defense strategy developed by the QDR and by emphasizing 
transformation and the six objectives detailed in my statement.

                      PRECISION GUIDED AMMUNITION

    56. Senator Thurmond. Secretary Rumsfeld, the strikes against 
targets in Afghanistan have again demonstrated the value of precision-
guided ammunition. Unfortunately, we have not learned from experiences 
in that we are expending ammunition faster than we can replace it and 
must rely on war reserves. I am also informed that the industrial base 
for this type of ammunition is limited and having a hard time keeping 
up with the demand. What is the Department doing to ensure we have and 
will continue to have a readily available stock of precision 
ammunition?
    Secretary Rumsfeld. Success in the War on Terrorism can be 
partially attributed to the accuracy of precision guided munitions, 
both laser guided and GPS guided. The fiscal year 2003 budget request 
and emergency funding have enabled facilitization of the contractors, 
and accelerated procurement of greater quantities of these munitions to 
replace depleted stocks.
    The Under Secretary of Defense for Acquisition, Technology, and 
Logistics directed an increase in production rates of both the Joint 
Direct Attack Munition (JDAM) and the Laser Guided Bomb (LGB) kits. The 
JDAM contractor was facilitized to a production rate of 2,800 units per 
month, tripling the existing contract rate. The two LGB contractors 
were facilitized to a production rate of 1,450 units per month, more 
than doubling existing production rates.

                         MILITARY CONSTRUCTION

    57. Senator Thurmond. Secretary Rumsfeld, you have testified 
several times that we need to improve our infrastructure and make 
sufficient investments to reduce the recapitalization rate of our 
infrastructure from the current more than 100 years to a goal of 67 by 
fiscal year 2006. I am especially interested in our depot system and 
materiel readiness. After reviewing the military construction program, 
I found that construction funding for ``Maintenance and Production 
Facilities'' was slashed by 59 percent. Does this funding level support 
your recapitalization goal and improve the working conditions of our 
men and women in uniform?
    Secretary Rumsfeld. Our fiscal year 2003 military construction 
request focuses investments on critical military requirements and 
resolving readiness shortfalls, as determined by the services, without 
regard to specific installations or types of facilities.
    Funding for maintenance and production facilities in fiscal year 
2002 was higher than the historical average. We have invested about 
$338 million (or 3.8 percent) of the military construction budget in 
maintenance and production facilities, over the past 6 years. For 
fiscal year 2003, we have requested $430 million, or 4.8 percent of the 
military construction request.

                  DEFER PROJECTS DUE TO DELAY IN BRAC

    58. Senator Thurmond. Secretary Rumsfeld, according to the budget 
presentation documents, a justification for the reduction in military 
construction funding is a reflection of the ``delay in an additional 
round of base closures.'' Based on this statement, one could assume 
that you are deferring construction at installations that could be 
closed by another round of BRAC. We have been assured repeatedly that 
the Department does not have a list of bases that will be considered 
for closure. Yet, the briefing documents could lead to such a 
conclusion. Why have you reduced construction funding due to the delay 
in BRAC?
    Secretary Rumsfeld. We did not reduce construction funding due to 
BRAC, and there is no list of bases to be closed or realigned. The 
fiscal year 2003 military construction request reflects our priority to 
improve quality of life and resolve critical readiness shortfalls, as 
determined by the services. Military construction projects were based 
on mission criticality without regard to potential BRAC actions or 
specific installations.

                    OVERARCHING SET OF CAPABILITIES

    59. Senator Thurmond. General Myers, your statement for the record 
states that the blueprint for the transformation of our Armed Forces 
will include five considerations. The first consideration is that we 
must base the process of change on an overarching set of capabilities 
we believe our forces must possess to support the National Security 
Strategy now and in the future. What do you consider these overarching 
capabilities?
    General Myers. Our discussion of an overarching set of capabilities 
is designed to focus DOD's transformation efforts on the primary 
purpose of our Armed Forces--to fight and win our Nation's wars. 
Transformation is about keeping our Armed Forces superior to any other 
nation's in a complex and ever changing environment.
    To provide focus to DOD's transformation agenda, the Department has 
identified the following six critical overarching capabilities or 
operational goals that it must secure:

        <bullet> Protecting critical bases of operations (U.S. 
        homeland, forces abroad, allies, and friends) and defeating 
        weapons of mass destruction and their means of delivery;
        <bullet> Projecting and sustaining U.S. forces in distant anti-
        access or area denial environments and defeating anti-access 
        and area-denial threats;
        <bullet> Denying sanctuary to enemies by providing persistent 
        surveillance, tracking, and rapid engagement with high-volume 
        precision strike, through a combination of complementary air 
        and ground capabilities, against critical mobile and fixed 
        targets at various ranges and in all weather terrains;
        <bullet> Assuring information systems in the face of attack and 
        conducting effective information operations;
        <bullet> Enhancing the capability and survivability of space 
        systems and supporting infrastructure; and
        <bullet> Leveraging information technology and innovative 
        concepts to develop an interoperable, joint command, control, 
        communications, computers, intelligence, surveillance, and 
        reconnaissance (C\4\ISR) architecture and capability that 
        includes a tailorable joint operational picture.

          INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE (ISR)

    60. Senator Thurmond. General Myers, at a January 24, 2002 air and 
space power seminar, General Martin, the Commander of U.S. Air Forces 
in Europe, stated: ``Our ISR posture as a Nation is woefully short of 
the needs, from space to HUMINT, [in] every bit of intelligence, 
reconnaissance, and surveillance capabilities.'' The shortfall in IRS 
has been one of the more persistent issues, yet we always seem to have 
higher priorities when it comes to funding this area. How does the 
budget request address the problem?
    General Myers. This budget provides significant increases in both 
national and defense intelligence, surveillance, and reconnaissance 
(ISR) capabilities. National programs raised in your question are found 
in the National Foreign Intelligence Program (NFIP) submission. In the 
DOD request are significant investments in manned and unmanned airborne 
programs, space reconnaissance, and space control systems and 
processing, exploitation, and dissemination capabilities.
    Following the tragic events of September 11, the Department's 
supplemental request to support Operation Enduring Freedom included 
both additional ISR aircraft, e.g., EP-3, additional sensors for the U-
2, and replacement Predator air vehicles, as well as modifications to 
existing manned platforms to support operations in the Global War on 
Terrorism.
    The fiscal year 2003 budget includes the most significant increases 
in ISR capabilities in years. Priorities for investment in this budget 
are counterterrorism and transformation. For example, the request 
accelerates investment in the high altitude UAV system, Global Hawk, 
and sustains an accelerated acquisition program across the FYDP. It 
accelerates acquisition of the Army short range UAV, continues 
acquisition of our workhorse Predator systems and replacement air 
vehicles, invests in an advanced air vehicle testbed, and continues 
preacquisition activities for a space based radar surveillance system. 
The budget sustains development and deployment of the Distributed 
Common Ground Station (DCGS), the multi-source deployed and shipboard 
systems that process and disseminate fused intelligence to forward 
forces and fleets. Imagery processing, exploitation, and dissemination 
received a substantial increase.
    Investments included in this budget establish a solid foundation 
for critical improvements in ISR capabilities that provide our eyes and 
ears on the battlefield now and in the future.

                            CARRIER SUPPORT

    61. Senator Thurmond. General Myers, I understand that at the 
height of our operations over Afghanistan, we had to pull the Kitty 
Hawk from its station in support of Korea to provide support for United 
States Central Command (USCENTCOM). Although they deployed appropriate 
aviation assets to Korea, there were some shortfalls in specific types 
of aviation support for the Korean operation plan. Was this change in 
mission for the Kitty Hawk due to a shortage of carriers in the number 
of carriers or due to the unique capabilities of the Kitty Hawk?
    General Myers. The U.S.S. Kitty Hawk and a portion of her Aircraft 
Carrier Battle Group (CVBG) deployed to the USCENTCOM Areas of 
Responsibility (AOR) from 10 Oct-10 Dec 01 as an Afloat Forward Staging 
Base (AFSB) for Special Operations Forces. All Aircraft Carriers and 
CVBGs have similar capabilities; however Kitty Hawk is home ported in 
Japan and the transit times from Japan to USCENTCOM AOR is appreciably 
quicker than from either the east or west coast of the United States.

                           OPERATIONAL TEMPO

    62. Senator Thurmond. General Myers, Title 10 of the United States 
Code directs that effective October 1, 2002, the number of major 
headquarter activities personnel in the Department of Defense may not 
exceed 85 percent of the number in such positions as of October 1, 
1999. Considering the current operational requirements, what is the 
impact of a 15 percent reduction in such headquarters as CINCPAC or 
CENTCOM?
    General Myers. Whether in peacetime or wartime, a 15 percent 
reduction will certainly impact the operational capability of the 
combatant commanders. However, the Department is committed to making 
further efficiencies within the management structure. All combatant 
command headquarters are impacted to some degree by the Global War on 
Terrorism, but the greatest impact is on USCENTCOM headquarters. 
Additional operational headquarters support for Operation Enduring 
Freedom has driven increased augmentation requirements at USCENTCOM 
headquarters. At this time, USCENTCOM is exempted from the 15 percent 
major headquarters reduction to minimize the impact on the warfighting 
efforts. The other combatant headquarters are moving forward to execute 
the 15 percent reduction.

    63. Senator Thurmond. General Myers, would you favor a waiver in 
this requirement beyond the current 7.5 percent authority?
    General Myers. No. However, congressional approval to defer 
reductions for a year or two would help us stand up USNORTHCOM while we 
focus on current operations and streamline our major headquarters.

                       CHANGE IN FORCE STRUCTURE

    64. Senator Thurmond. General Myers, based on the current operation 
in Afghanistan and the needs of any further operations in our Nation's 
war on terrorism, what changes would you recommend to the force 
structure of our military services?
    General Myers. Although we have several on-going studies examining 
the impact of our forward presence and engagement levels, I do not 
believe it is necessary to make any major changes to the force 
structure at this time. During development of the Quadrennial Defense 
Review (QDR), we spent a significant portion of our effort reconciling 
the mismatch between strategy and resources. The new strategy calls 
for, among other things, the ability to defeat the efforts of one 
adversary while decisively defeating another. The War on Terrorism, 
including our operations in Afghanistan, approaches a level of effort 
and commitment from our force along the lines of the forces QDR would 
call ``defeat the efforts.'' As the war's requirement for military 
forces matures, and our on going studies near completion, we may have 
more insight into any emerging requirements in terms of additional 
force structure.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum

                          ARMY LEGACY PROGRAMS
 
   65. Senator Santorum. General Myers, the Army has terminated 18 
programs and/or systems as part of the fiscal year 2003 request. Among 
the terminations are: TOW Fire-and-Forget, M113 recapitalization, 
Armored Combat Earthmover, Wolverine, Hydra Rocket, Improved Recovery 
Vehicle, and Bradley Fire Support Team. Is the Army or the Office of 
the Secretary of Defense expecting Congress to ``buy back'' these 
terminations? Put another way, should Congress expect to see these 
programs and/or systems on the Army's unfunded requirements list? While 
18 programs and/or systems have been terminated, have the requirements 
that supported these programs gone away?
    General Myers. The full promise of transformation will be realized 
over time as we divest some legacy systems and transfer those resources 
toward new concepts, capabilities, and organizational arranagements 
that maximize the warfighting effectiveness and lethality of our men 
and women in uniform. Any discussion pertaining to termination of 
legacy systems can best be articulated by the services.

                              EFFICIENCIES

    66. Senator Santorum. Secretary Rumsfeld, a recent report indicated 
that the Department of Defense is in the final stages of crafting an 
incentive plan that would allow defense contractors to keep some of the 
savings they achieve when they cut costs, reduce overhead, and 
consolidate operations. In other industries, companies slash costs and 
benefit when profits jump. But when a military contractor consolidates 
facilities, implements cost-savings technologies, or adopts other 
efficiencies, the government reaps the benefits by deducting the amount 
saved from what it pays the contractor for the product. Military 
contractors have argued that such a system gives them little incentive 
to make the hard, and sometimes costly, decisions to boost 
efficiencies. Can you elaborate on the plan and when you hope to 
implement these changes? Will these changes require legislative changes 
to current statute?
    Secretary Rumsfeld. We agree that the Department needs a policy to 
encourage contractors to undertake aggressive cost reduction programs 
at business segments that contain a large proportion of DOD cost-based 
contracts. Our plan is to publish a proposed policy by the end of April 
for public comment. The policy will be structured to permit the sharing 
of savings over a 5-year period when DOD will achieve savings of at 
least $2 for every $1 in costs it pays to generate cost efficiencies. 
We do not need legislative changes to implement a policy to share 
savings.

                      INTERIM BRIGADE COMBAT TEAMS

    67. Senator Santorum. General Myers, the Army is already forming 
two Interim Brigade Combat Teams (IBCT), the 3rd Brigade of the 2nd 
Infantry Division (Medium) and the 1st Brigade of the 25th Infantry 
Division (Light), at Fort Lewis, Washington. Yet when it came time this 
past November to insert ground forces into Afghanistan, it was the 
Marines that were tasked the responsibility of taking control of a base 
near Kandahar. Some have commented that these Marine forces combine 
more tactical maneuver capability and more firepower to sustain 
themselves than the Army's comparable rapid-deployment forces. Why were 
the two Interim Brigade Combat Teams--currently using surrogate 
equipment similar to the Marine Corps' equipment--not deployed to 
Afghanistan? Wouldn't a deployment to Afghanistan offer the perfect 
opportunity to demonstrate the training, tactics, and doctrine that are 
inherent to the Interim Brigade Combat Teams?
    General Myers. The two IBCTs at Fort Lewis have not yet reached 
their initial operating capability. The first IBCT has received a 
limited number of surrogate vehicles, but there are not enough for the 
entire brigade, thus limiting combined arms training at the battalion 
and brigade level. The focus thus far has been on small unit training, 
battle drills, and developing the new capabilities. The second IBCT has 
just initiated its transformation process in January 2002. If the 
brigades had attained initial operational capability, they would have 
been candidates for deployment to Afghanistan and this certainly would 
have demonstrated their capabilities.

    [Whereupon, at 1:12 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                       TUESDAY, FEBRUARY 12, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                          SERVICE SECRETARIES

    The committee met, pursuant to notice, at 9:38 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Landrieu, E. Benjamin Nelson, Carnahan, Dayton, Warner, McCain, 
Inhofe, Santorum, Allard, Sessions, Collins, and Bunning.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Kenneth M. Crosswait, professional 
staff member; Richard D. DeBobes, counsel; Creighton Greene, 
professional staff member; Jeremy Hekhuis, professional staff 
member; Maren Leed, professional staff member; Gerald J. 
Leeling, counsel; and Peter K. Levine, general counsel.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Charles W. Alsup, professional staff 
member; L. David Cherington, minority counsel; Ambrose R. Hock, 
professional staff member; George W. Lauffer, professional 
staff member; Patricia L. Lewis, professional staff member; 
Thomas L. MacKenzie, professional staff member; Ann M. 
Mittermeyer, minority counsel; Joseph T. Sixeas, professional 
staff member; Scott W. Stucky, minority counsel; and Richard F. 
Walsh, minority counsel.
    Staff assistants present: Daniel K. Goldsmith, Thomas C. 
Moore, and Nicholas W. West.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Andrew Vanlandingham, assistant 
to Senator Cleland; Jeffrey S. Wiener, assistant to Senator 
Landrieu; William K. Sutey, assistant to Senator Bill Nelson; 
Eric Pierce, assistant to Senator Ben Nelson; Neal Orringer, 
assistant to Senator Carnahan; Brady King, assistant to Senator 
Dayton; Benjamin L. Cassidy, assistant to Senator Warner; 
Christopher J. Paul and Mark Salter, assistants to Senator 
McCain; John A. Bonsell, assistant to Senator Inhofe; George M. 
Bernier III, assistant to Senator Santorum; Robert Alan 
McCurry, assistant to Senator Roberts; Douglas Flanders, 
assistant to Senator Allard; James P. Dohoney, Jr., assistant 
to Senator Hutchinson; Arch Galloway II, assistant to Senator 
Sessions; Kristine Fauser, assistant to Senator Collins; and 
Derek Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to receive testimony from the Secretary of 
the Army, Secretary of the Navy, and Secretary of the Air Force 
on the fiscal year 2003 budget request and on management and 
organizational issues facing the military departments. 
Secretary White, Secretary England, Secretary Roche, we welcome 
you back to the committee and look forward to your testimony.
    Secretary White. Thank you.
    Secretary England. Thank you.
    Chairman Levin. As we meet today, the new administration 
has been in office for just over a year and our three service 
secretaries have been in office for slightly less time than 
that. Much of their tenure in office has necessarily been taken 
up by the pressing issues of the war in Afghanistan and the 
effort to respond to terrorism here at home. The performance of 
our men and women in uniform has been exemplary and is a 
tribute to the entire leadership of the Department of Defense, 
including our three witnesses here today.
    The three service secretaries have played a central role in 
the formulation of the administration's budget request for 
fiscal year 2003, which includes the largest proposed increase 
in military spending in 2 decades. This increase comes without 
a comprehensive strategy or a detailed plan to guide that 
spending. A year into office, the administration has not yet 
issued a national security strategy, a national military 
strategy, or detailed plans for the size and structure, shape, 
or transformation of our military.
    As Secretary Rumsfeld testified last week, few of the 
investments that this administration will ask Congress for will 
benefit our national defense during this presidential term. 
These are long-term investments. The investments that we make 
today are needed to ensure that our military is as prepared for 
future wars as it has proven to be for Operation Enduring 
Freedom.
    So we are going to be particularly interested in the 
tradeoffs that our witnesses have made between investments in 
our legacy forces and investments in the military 
transformation and the basis upon which they have made these 
tradeoffs.
    Last summer Secretary Rumsfeld designated the three service 
secretaries to serve on two new committees, a Senior Executive 
Council and a Business Initiative Council, with broad 
responsibility for planning and implementing improved 
management practices across the entire Department of Defense. 
The Secretary has set a goal of achieving savings of 5 percent 
or more by bringing improved management practices from the 
private sector to the Department of Defense.
    Longstanding problems in areas such as financial 
management, acquisition management, management of information 
technology, and personnel management have not disappeared just 
because we are fighting a war. If anything, heightened concerns 
about national security and increased levels of defense 
spending give us an even greater obligation to ensure that the 
taxpayers' money is well spent. For this reason, the committee 
will be interested in hearing what steps our three service 
secretaries have taken to improve the management of the 
Pentagon and how much progress we have made toward achieving 
the 5 percent savings goal.
    America's Armed Forces are performing superbly in their 
fight against terrorism. This committee will do all in its 
power to ensure that our forces have the resources, tools, and 
technologies to prevail in this fight. We are determined to 
preserve a high quality of life for our forces, for their 
families, to sustain their readiness, and to transform the 
Armed Forces to meet the threats and challenges of tomorrow, 
and we will continue to work with our service secretaries in 
seeking to achieve those goals.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    I welcome our witnesses this morning. I always look forward 
to this particular hearing with the service secretaries. I 
think you have the best jobs anybody can possibly have, in this 
administration or any other.
    As the Chairman said, the President's budget request for 
fiscal year 2003 represents the largest increase, $48 billion, 
for the Department of Defense in two decades. In light of the 
attacks our Nation suffered on September 11, this increase is 
urgently needed. These attacks were a defining moment for our 
Nation. They engendered a new sense of unity and purpose in the 
country. Speaking for myself, I have had an opportunity to 
observe this Nation, and over the years I cannot recall a 
period in our history since World War II when the Nation was 
more united behind the President and the men and women of the 
Armed Forces.
    The President has brilliantly rallied this Nation, and 
indeed the world, to fight this global war against terrorists 
and those who harbor them. It is a war unlike any we have ever 
fought before. As Senator Levin and I visited our service men 
and women in the Afghan region in November, I was indeed struck 
by a recurring thought: They and we are writing a new chapter 
in military history with this operation, and we have to learn 
from it and plan for the future.
    The war has truly been a joint operation--all services 
operating together as one and many coalition nations operating 
with our U.S. forces. Soldiers on horseback and afoot are 
directing twenty first century weapons with extraordinary 
precision. Maritime forces are operating hundreds of miles 
inland in a landlocked country. Old bombers are delivering new 
weapons with devastating accuracy. Decisions made in Washington 
or down at the headquarters in Tampa are received and executed 
instantly, 7,000 miles away. Agility, precision, lethality, and 
interoperability are the measures of success for our systems 
and organizations.
    Last Tuesday Secretary Rumsfeld and General Myers appeared 
before this committee to outline the budget request in broad 
terms. The overriding themes of winning the war against 
terrorism, defending our homeland, improving quality of life 
for our service personnel, and transforming our forces to 
better counter new threats are right on target. We now look to 
you to fill in the details about how you will prepare your 
respective departments, not only to defend America and win this 
war against terrorism, but also to be ready for what lies 
ahead.
    I am supportive of this budget request, but I do have some 
concerns. Although the operation in Afghanistan highlighted the 
critical role of Navy platforms and aircraft, the budget 
request before us cuts both shipbuilding and naval aircraft. 
This is a matter you and I have discussed extensively in 
private in the last 30 days, Mr. Secretary, and we will discuss 
it in open session here today in some detail. At the current 
rate of shipbuilding, we will be well below a 300-ship Navy if 
we do not begin to take steps to reverse this decline. I wrote 
you to that effect about 3 weeks ago.
    Mr. Secretary of the Army, Army plans to transform to a 
lighter, more deployable, more lethal force are complicated by 
the need to maintain costly and aging legacy forces. That poses 
quite a challenge to you.
    In the Air Force, investment in new tactical aircraft is, I 
regret to say, somewhat overdue, but recent experiences demand 
increased investment in long-range, unmanned and space 
capabilities.
    As we discuss and debate this budget request in the days 
and the weeks ahead, as is the duty of this committee and 
Congress, on one thing we can all agree: the commitment, the 
dedication, and the performance of the soldiers, sailors, 
airmen, marines, and their families, in service to this Nation 
has been remarkable. We are mindful of how well they have 
served in the spirit of generations that have rallied to their 
Nation's call before them. We are forever grateful for their 
willingness and readiness to serve and to accept the risks and 
sacrifices.
    They exemplify the spirit of service our President has 
called for, as he reminded us recently, ``The cost of freedom 
and security is high, but never too high.''
    The Nation is united in purpose and determination as seldom 
before in our history--united behind our President and united 
behind these selfless men and women and their families who 
proudly serve our Nation. We in Congress will do everything we 
can to provide the resources and capabilities they need to 
succeed.
    Thank you.
    Chairman Levin. Thank you, Senator Warner, very much. 
Senator Inhofe has requested that he be recognized for an 
opening statement.
    Senator Inhofe. Thank you, Mr. Chairman, very much. I do 
have a special introduction to make this morning. Yesterday I 
had the honor of seeing someone I have gotten to know over the 
past 3 years quite well. She is a State Senator, a Puerto Rican 
State Senator, Miriam Ramirez. We have worked together for 
quite some time. She has always been a supporter of the Navy.
    She brought two perspectives that I think certainly, 
Secretary England, I would hope that you would have a chance to 
visit with her and get directly from her. One is that since 
September 11 the tide has changed in terms of the attitude 
toward our Navy on the island of Puerto Rico; second, an 
awareness that if something should happen to the presence of 
the Navy on Puerto Rico it would not happen in a vacuum, that 
things would happen that are written into the law. Roosevelt 
Roads would close, Fort Buchanan would close, other benefits 
enjoyed historically by Puerto Rico would cease to be.
    The other is a recognition that those people who are still 
anti-Navy on the island of Puerto Rico, many of them are 
terrorists. Here we are in a war on terrorism. One of the 
leaders who is respected in the anti-Navy movement--they are a 
minority movement--is Lolita LeBrone, who is a terrorist who 
led a group of terrorists into the House of Representatives 
here on Capitol Hill and opened fire, wounding five of our 
Congressmen. So that is the type of thing that is taking place 
there.
    I would like to ask that Senator Ramirez, who is with us 
here today, would stand and be recognized. Thank you, Senator.
    Chairman Levin. We welcome you, Senator. (Applause.)
    Secretary White, let us start with you.

    STATEMENT OF HON. THOMAS E. WHITE, SECRETARY OF THE ARMY

    Secretary White. Thank you, Mr. Chairman, Senator Warner, 
members of the committee.
    There are moments in history when events suddenly allow us 
to see the challenges ahead with a degree of clarity previously 
unimaginable. The events of 11 September created one of those 
rare moments. Now we see clearly the challenges facing our 
Nation and we are confronting them.
    To succeed, the Army must accomplish three critical tasks 
at the same time: First, we must help win the global war on 
terrorism; second, we must transform to meet the challenges of 
future conflicts; and third, we must secure the resources 
needed to pursue both the war on terror and Army 
transformation.
    Our first task is to help win the war on terrorism. We have 
seen remarkable progress in Afghanistan, where Army Special 
Forces have led the way, followed by elements of the 10th 
Mountain Division, the 101st Airborne Division, and other Army 
units. Today more than 14,000 soldiers are deployed in the U.S. 
Central Command's area of responsibility supporting Operation 
Enduring Freedom, from Egypt to Pakistan, from Kenya to 
Kazakhstan.
    Together with our joint and coalition partners, we have 
defeated the Taliban, significantly disrupted the al Qaeda 
terrorist network, liberated the people of Afghanistan, and 
installed an interim government in Kabul, all within a few 
short months, in lousy terrain, in the depth of winter, over 
7,000 miles away, in the graveyard of empires.
    I know that Secretary Roche and Secretary England join me 
when I say our service men and women are nothing short of 
inspirational. They are accomplishing a complex and dangerous 
mission with extraordinary courage, skill, and determination. 
Some have been injured, others have given their lives. Our 
Nation is forever indebted to them and their families for their 
sacrifice.
    As the war evolves, requirements for Army forces are 
growing, from assuring regional stability in Central Asia to 
stability and support operations in Afghanistan, to securing 
detainees at Guantanamo Bay, Cuba, to training counterterrorism 
forces in the Philippines. At the same time, the Army continues 
to deter potential adversaries in Southwest Asia and Korea, 
while upholding U.S. security commitments in Bosnia, Kosovo, 
Macedonia, the Sinai, and elsewhere. In fact, the Army Active, 
Reserve, and National Guard has over 179,000 soldiers and 
38,000 civilians deployed or forward-stationed in 120 different 
countries.
    At home, the Army continues its long tradition of support 
to homeland security. We have mobilized over 24,000 Army 
National Guard and Reserve soldiers, the rough equivalent of 
two Army divisions, for Federal service here and overseas. 
Another 11,000 Army National Guard soldiers are deployed on 
State-controlled missions securing critical infrastructure such 
as airports, seaports, reservoirs, and powerplants. We have 
also deployed 5,000 soldiers to help ensure the security of the 
2002 Winter Olympic Games in Salt Lake City, Utah.
    Our soldiers are answering the call of duty, but we must 
ensure that the force remains appropriately manned for the 
challenges ahead. As Secretary Rumsfeld testified last week, it 
is clear now in the midst of the war on terror, the final 
dimensions of which are unknown, that it is not the time to cut 
manpower.
    Our second task is to transform to meet the challenges of 
the next conflict. Although Army transformation was well under 
way before the 11th of September, the attacks on our homeland 
and subsequent operations validated the Army's strategic 
direction and provided new urgency to our efforts. 
Consequently, we are accelerating development of the Objective 
Force, a capabilities-based, full spectrum force that will 
extend our advantage in dominant maneuver well into the future.
    Next month we will designate a lead systems integrator for 
the Future Combat Systems (FCS). FCS is designed to be a system 
of systems that harnesses a variety of technologies to produce 
a new ground combat system of unparalleled power and mobility. 
While the actual form of FCS is still being defined, it will 
undoubtedly combine the best elements of existing manned 
systems with the promise of the new generation of unmanned and 
robotic combat capabilities. We anticipate equipping our first 
Objective Force units with FCS in 2008 and intend to achieve an 
initial operational capability (IOC) by 2010.
    We are presently fielding an Interim Force to close the 
capabilities gap between our heavy and light forces. Organized 
into interim brigade combat teams, it will train, alert, and 
deploy as a self-contained combined arms force optimized for 
combat upon arrival in theater. The Interim Force will also 
provide a bridge to the Objective Force through leader 
development and experimentation.
    For example, digital concepts tested and provided with the 
legacy force are being refined in the Interim Force and will be 
applied to the Objective Force. We are on schedule to fully 
equip the first interim brigade with the interim armored 
vehicle by February 2003. That brigade will achieve its IOC by 
May 2003 and we intend to field five more interim brigades by 
2007.
    As our hedge against near-term risk, we are selectively 
modernizing and recapitalizing the legacy force to guarantee 
war-fighting readiness and to support the Objective Force as we 
transform. The challenge, of course, is to effectively manage 
risk without sacrificing readiness.
    Our third task is to secure the resources needed to pursue 
both the war on terrorism and Army transformation. This 
requires the continued support of Congress and the 
administration, a commitment to sustained investment over many 
years to offset the shortfalls of the past. The Army's 2003 
budget request is fully consistent with our 2002 budget. It 
goes a long way toward funding the Army vision, taking care of 
people, assuring warfighting readiness, and sustaining the 
momentum of transformation to the Objective Force.
    However, we are still assuming risk in the legacy force and 
longstanding shortfalls remain in installations and 
sustainment, restoration, and modernization. As good stewards, 
we are doing our part to free up resources for reinvestment in 
high priority programs. We have made tough tradeoffs, 
terminated 29 programs in the last 3 years, restructured 12 
more, reduced recapitalization from 21 to 17 systems, and we 
will accelerate the retirement of 1,000 Vietnam-era 
helicopters.
    We have also expedited our efforts to manage the Army more 
efficiently, starting at the top by restructuring the Army 
secretariat and Army staff into a more integrated headquarters 
that will streamline the flow of information and speed 
decisionmaking. The next phase of our headquarters realignment 
includes our field operating agencies and major commands. These 
initiatives will allow us to exceed the congressionally-
mandated 15 percent reduction in headquarters staffs and 
reinvest manpower saved into other priorities. We will need 
your support to achieve similar efficiencies in the future.
    Let me conclude by assuring the members of this committee 
that the Army is trained and ready to serve in its 
indispensable role as the decisive land component of America's 
joint warfighting team.
    Thank you, Mr. Chairman, and I look forward to the 
committee's questions.
    [The prepared statement of Secretary White follows:]

             Prepared Statement by the Hon. Thomas E. White

    Mr. Chairman and distinguished members of the committee, I thank 
you for this opportunity to report to you today on the United States 
Army's readiness to provide for our Nation's security today and in the 
future.
    Throughout our Nation's history, the Army has demonstrated that it 
is America's decisive ground combat force with capabilities 
sufficiently diverse to cover the full spectrum of operations demanded 
by the Nation--anytime, anywhere. The essence of the Army remains 
unchanged--an ethos of service to the Nation, the readiness to fight 
and win wars decisively, and a willingness to accomplish any mission 
the American people ask of us.
    Today, we are engaged in a global war on terrorism and defense of 
our homeland. Soldiers, on point for the Nation, are protecting and 
promoting American interests around the globe. They are accomplishing 
these vital missions much as we have for over 226 years with little 
fanfare or attention. The Army is able to accomplish what is asked by 
relying on the strength of its soldiers--active, National Guard, Army 
Reserve--and civilians, who honorably and proudly answer the calls to 
duty.
    The Army has no illusions about the challenges it faces. It must 
help win the global war on terrorism and prepare for future wars and 
conflicts by effectively using the resources you provide us to 
transform. With the continued support of Congress and the 
administration, our soldiers will continue to do their part to 
decisively win the global war on terrorism, rapidly transform 
themselves to fight and win new and different kinds of conflicts, meet 
our obligations to allies and friends, and maintain our readiness for 
the unexpected and unpredictable challenges that may arise.

                       THE STRATEGIC ENVIRONMENT

    The attacks of 11 September provide compelling evidence that the 
strategic environment remains dangerous and unpredictable. Although we 
may sense dangerous trends and potential threats, there is little 
certainty about how these threats may be postured against America or 
her interests. Uncertainty marks the global war on terrorism, and our 
soldiers continue to be involved in smaller-scale contingencies and 
conflicts. Yet, the potential for large-scale conventional combat 
operations will continue to lurk just beneath the surface. Victory in 
battle will require versatile combat formations and agile soldiers, who 
can deploy rapidly, undertake a multiplicity of missions, operate 
continuously over extended distances without large logistics bases, and 
maneuver with speed and precision to gain positional advantage. Our 
soldiers must be capable of prosecuting prompt and sustained land 
operations across a spectrum of conflict resulting in decisive victory.

                        THE STRATEGIC FRAMEWORK

    The 2001 Quadrennial Defense Review (QDR) established a new 
strategic framework for the defense of the Nation that struck a balance 
between near-term readiness and our ability to transform ourselves in 
order to meet current and future conflicts. The report outlined a new 
operational concept that gives continued priority to homeland defense, 
promotes deterrence through forward presence, and asks that we have the 
ability to conduct both smaller-scale contingencies and large scale, 
high-intensity combat operations simultaneously.
    Our soldiers can defeat enemy armies, seize and control terrain, 
and control populations and resources with minimal collateral 
casualties and damage. They can operate across the spectrum of military 
operations, whether it is full-scale conventional conflict, fighting 
terrorists, or setting the conditions for humanitarian assistance. This 
multifaceted ground capability enables us to assure our allies and 
friends, dissuade future military competition, deter threats and 
coercion, and, when necessary, decisively defeat any adversary.
    As the Army continues to work with other departments, agencies, and 
organizations, emerging requirements that are not fully defined in the 
2001 QDR may require additional resourcing, whether technological, 
logistical, or force structure. Despite 10 years of downsizing, the 
Army has accomplished all assigned missions to a high standard. In 
short, we are doing more with less, and the strain on the force is 
real. Our soldiers continue to give us more in operational readiness 
than we have resourced.
    While we fight and win the global war on terrorism, the Army must 
prepare itself to handle demanding missions in the future strategic 
environment. Over 2 years ago, the Army undertook transforming itself 
into a force that is more strategically responsive and dominant at 
every point on the spectrum of military operations. We have gained 
insight from previous deployments, operations, and exercises, along 
with leading-edge work in Army Battle Labs, joint and Army warfighting 
experiments, and wargames. With this insight, the Army embarked on 
initiatives to assure its dominance in a new contemporary operational 
environment by deterring and defeating adversaries who rely on 
surprise, deception, and asymmetric warfare to achieve their objectives 
against conventional forces. The attacks of 11 September 2001 and our 
subsequent operations overseas validated the Army's transformation. If 
anything, 11 September provided new urgency to our efforts. Thus, we 
are accelerating transformation to give our commanders the most 
advanced capabilities they need to ensure that we have the best led, 
best equipped, and best trained soldiers for the emerging global 
environment. To mitigate risk as we transform to meet future 
requirements, we will prioritize among the imperatives of meeting 
existing threats, safeguarding our homeland, and winning the war 
against terrorism.

                   SOLDIERS--ON POINT FOR THE NATION

    Globally, soldiers offer tangible reassurance to our allies, build 
trust and confidence, promote regional stability, encourage democratic 
institutions, and deter conflict. Nothing speaks to the values of 
America more than soldiers on the ground providing comfort, aid, and 
stability at home and abroad. The Army, as part of a joint military 
team, provides a wide range of options to our leaders and commanders. 
As we have seen, in today's world we cannot win without the human 
dimension on the battleground. Whether it be gathering intelligence, 
challenging an adversary's ability to conceal and seek cover, or 
protecting innocent civilians, the American soldier remains the 
ultimate precision weapon during combat operations, particularly when 
legitimate targets are interspersed among non-combatants. In the final 
analysis, it is the soldier on the ground who demonstrates the 
resilience of American commitment and provides the needed flexibility 
to decisively defeat our adversaries.
    Since October 2001, Army conventional and special operations 
forces, as part of the joint force, have participated in Operation 
Enduring Freedom in the Afghanistan theater of operations. The range of 
their capabilities was extensive. These highly trained soldiers worked 
with local forces to forge a powerful alliance. They designated targets 
for air strikes, secured airfields, and performed reconnaissance and 
security missions that facilitated the safe introduction of follow-on 
forces. Supporting the war effort, they provide security to joint 
forces, critical facilities, and supply lines, and they receive and 
prepare both combat and humanitarian supplies for air delivery to 
Afghanistan. Currently, more than 12,000 soldiers are deployed--from 
Egypt to Pakistan, from Kenya to Kazakhstan. Although hostilities in 
Afghanistan are shifting focus, requirements for ground forces are 
growing--they are assuring regional stability in Afghanistan, directing 
humanitarian assistance and relief operations, securing detainees at 
Guantanamo Bay, Cuba, and deploying to the Philippines.
    At home, the Army continues its long tradition of support to 
homeland security. Even before 11 September 2001, the Army had 10 
trained and certified Weapons of Mass Destruction Civil Support Teams 
ready to assist civil authorities and had trained 28,000 civilian first 
responders in 105 cities. Since the attacks, we have mobilized over 
25,000 Army National Guard (ARNG) and United States Army Reserve (USAR) 
soldiers for Federal service here and overseas. Nearly 11,000 soldiers 
are on state-controlled duty securing airports, seaports, reservoirs, 
power plants, the Nation's capital region, and serving at ``ground 
zero'' in New York City alongside the United States (U.S.) Army Corps 
of Engineers. To increase protection for our citizens and reduce 
vulnerability, we accelerated the safe destruction of the U.S. 
stockpile of lethal chemical agent and munitions while combating the 
proliferation of chemical weapons. Continuing a commitment to civil 
authorities, nearly 500 soldiers worked Super Bowl XXXVI, and over 
5,000 soldiers are helping ensure the security of the 2002 Winter 
Olympics in Salt Lake City, Utah.
    But, fighting the global war on terrorism in no way diminishes the 
requirements placed on the Army for support to missions and operations 
around the world--indeed, it expands it. While the Army remains engaged 
at home, it is prudently taking action for follow-on operations around 
the world, to include mobilizing some 2,000 ARNG soldiers to augment 
our missions in the European theater. In fact, the Army--active, ARNG, 
and USAR--has over 124,000 soldiers and 38,000 civilians stationed in 
110 countries. Additionally, on any given day last year some 27,000 
soldiers were deployed to 60 countries for operations and training 
missions. It is easy to forget that our soldiers have been on the 
ground conducting peacekeeping missions in the Balkans for 6 years, in 
Saudi Arabia and Kuwait for 11 years, and in the Sinai for 19 years. 
Our soldiers have been in Korea and Europe for over 50 years, assuring 
their peace and stability while, at the same time, providing the Nation 
with a rapid deployment capability to areas near those theaters of 
operations, as needed.

         THE ARMY VISION: PEOPLE, READINESS, AND TRANSFORMATION

    On 12 October 1999, the Army articulated its vision that defined 
how the Army would meet the Nation's requirements now and into the 21st 
century. The vision is comprised of three interdependent components: 
people, readiness, and transformation. It provides direction and 
structure for prioritizing resources to ensure the Army remains the 
most dominant and intimidating ground force in the world to deter those 
who would contemplate threatening the interests of America. Ultimately, 
it is about risk management, striking a balance between readiness today 
and preparedness for tomorrow. It is about having overmatching 
capabilities while simultaneously reducing our vulnerabilities in order 
to dominate those who would threaten our interests--now and in the 
future. It is about examining where we are now and where we need to be, 
and it is about achieving decisive victory--anywhere, anytime, against 
any opposition.
People
    People--soldiers, civilians, retirees, veterans, and their 
families--are the Army. People are central to everything we do in the 
Army. Institutions do not transform; people do. Platforms and 
organizations do not defend our Nation; people do. Units do not train, 
they do not stay ready, they do not grow and develop leadership, they 
do not sacrifice, and they do not take risks on behalf of the Nation; 
people do. We must adequately man our force, provide for the well being 
of our soldiers and their families, and develop leaders for the future 
so that the Army continues to be a professionally and personally 
rewarding experience. Soldiers will always be the centerpiece of our 
formations. They are our sons and daughters. We are committed to 
recruiting and retaining the best people and giving them the finest 
tools to do their job so that they remain the world's best army.

        <bullet> Manning the Force

    Current and future military operations depend on an Army with the 
flexibility to respond quickly in order to rapidly meet changing 
operational requirements. The Army has approached its manpower 
challenge in a variety of ways. In fiscal year 2000, we implemented a 
personnel strategy to man units at 100 percent. Starting with 
divisional combat units, the program expanded in fiscal year 2001 and 
fiscal year 2002 to include early deploying units. The Army is 
currently assessing its ability to fill remaining units by the end of 
fiscal year 2004. The ARNG and USAR now make up more than 50 percent of 
the Army's force structure. Ongoing and expanded Reserve integration 
initiatives--to include full time support--have increased Reserve 
readiness and increased their ability to rapidly transition from a 
peacetime to a wartime posture.
    A new advertising campaign in 2001--An Army of One--raised the 
awareness and interest levels of potential soldiers. The Army achieved 
100 percent of its goal for all components in recruiting and retention 
for the second year in a row. To ensure that we recruit and retain 
sufficient quality personnel, we continue to examine innovative 
recruiting and retention programs.

        <bullet> Well-Being

    Army readiness is inextricably linked to the well being of our 
people. Our success depends on the whole team--soldiers, civilians, 
retirees, and their families--all of whom serve the Nation. The term 
well being is not a synonym with ``quality of life,'' but rather an 
expansion of the concept that integrates and incorporates existing 
quality of life initiatives and programs. Well being takes a 
multifaceted approach. We are working with the Office of the Secretary 
of Defense to improve TRICARE in order to provide better medical care 
for soldiers, families, and retirees and to continue to close the 
compensation gap between soldiers and the civilian sector. Our soldiers 
appreciate, more than you realize, your support this past year for pay 
increases of at least 5 percent and the 3.6 percent for the civilians 
who support them. Targeted pay increases for highly skilled enlisted 
soldiers and mid-grade officers, the online electronic Army University 
education program, and upgraded single-soldier barracks and residential 
communities further support and aid in maintaining the well-being of 
soldiers willing to put their lives at risk for our national interests. 
In turn, the attention to a soldier's well being helps the Army recruit 
and retain the best people. Our soldiers ask little in return, but they 
judge their Nation's commitment to them by how well it takes care of 
them and their families. It is a commitment we must honor.

        <bullet> Leader Development

    Civilian and military leaders are the linchpin of transformation. 
The leaders and soldiers who will implement the new warfighting 
doctrine must be adaptive and self-aware, capable of independent 
operations separated from friendly elements for days at a time, 
exercising initiative within their commander's intent to rapidly 
exploit opportunities as they present themselves on the battlefield. 
Leaders must be intuitive and capable of rapid tactical decision-
making, and all soldiers must master the information and weapons 
systems technologies in order to leverage their full potential. But new 
technologies and new kinds of warfare will demand a new kind of leader. 
As part of our transformation process, the Army is taking a 
comprehensive look at the way we develop officers, warrant officers and 
non-commissioned officers through the Army Training and Leader 
Development Panels to review and assess issues and provide 
recommendations on how to produce the Army's future leaders. We have 
expanded these reviews to include Army civilians in anticipation of the 
need to replace the increasing number who will become retirement 
eligible after fiscal year 2003. The Army must have top-notch military 
and civilian people at all levels in order to meet the global, 
economic, and technological challenges of the future.
    In June 2001, the Army published the most significant reshaping of 
Army warfighting doctrine since 1982. Field Manual 3-0, Operations, 
emphasizes the Army's ability to apply decisive force through network-
centric capabilities and shows just how dramatically the Army must 
transform itself to fight both differently and more effectively. This 
doctrine will assist in the development of a new force--the Objective 
Force--that maximizes the technological advantages of equipment, leader 
development, and evolutionary warfighting concepts. The Objective Force 
will demand a generation of leaders who know how to think, not what to 
think.
Readiness
    At its most fundamental level, war is a brutal contest of wills. 
Winning decisively means dominating the enemy. To be dominant, we must 
be not only organized, manned, and equipped, but also fully trained. 
Today, the Army is ready for its assigned missions, but sustained 
support from the Nation, Congress, and the administration is required 
to ensure that we maintain our readiness. To do so requires that we pay 
attention to training, installations, force protection, and readiness 
reporting.

        <bullet> Unit Training

    Tough, demanding training which is supported by an infrastructure 
that allows us to train, sustain, and deploy is essential to readiness. 
History has taught us and we have learned that, in the end, armies 
fight the way they train. The Army is committed to fully executing our 
training strategy-the higher the quality of training, the better the 
leaders and warfighters we produce. The result is an increased state of 
readiness to serve our Nation. To this end, we must fully modernize 
training ranges, combat training centers, and training aids, devices, 
simulators, and simulations to provide adequate and challenging 
training. The Army has funded the integration of virtual and 
constructive training capabilities to achieve realism and cost 
effectiveness.
    As we move to greater network-centric warfare capability, our 
forces will operate with even greater dispersion, and maintaining 
sufficient maneuver areas for training these extended formations will 
become even more critical. Thus, the Army is implementing a sustainable 
program to manage the lifecycle of training and testing ranges by 
integrating operational needs, land management, explosives safety, and 
environmental stewardship. This program will ensure the continuing 
viability of training ranges by addressing the multiple aspects of 
encroachment: endangered species and critical habitats, unexploded 
ordnance and munitions, spectrum encroachment, airspace restrictions, 
air quality, noise, and urban growth. As we transform to a future force 
with new systems, organizational structures, and new doctrine to 
achieve full spectrum operational capability, our training enablers and 
infrastructure, along with realistic and relevant training venues, must 
be funded to match the timelines we have established to field a highly 
trained soldier-one whose unit is poised to fight new and different 
kinds of conflicts while maintaining traditional warfighting skills.

        <bullet> Installations

    Installations provide homes, family and training support, and power 
projection platforms for the Army. They are the bases where soldiers 
live, train, and from which they launch on their missions. Worldwide, 
we have physical plants worth over $220 billion. For too many years, 
the Army has under funded long-term facilities maintenance in order to 
fully fund combat readiness and contingency operations; thus, we now 
have first-class soldiers living and working in third-class facilities. 
Commanders currently rate two-thirds of their infrastructure condition 
so poor that it significantly impacts mission accomplishment and 
morale. The major investment in Sustainment, Restoration, and 
Modernization (SRM) in fiscal year 2002 will help improve only the most 
critical conditions in our crumbling infrastructure. Over the next 5 
years, SRM shortfalls will continue to approximate $3 billion annually 
as a result of our aging facilities. Exacerbating this situation is the 
fact that the Army has more facility infrastructure than we need. The 
cost of operating and sustaining these facilities directly competes 
with funding our warfighting capability. The realignment or closure of 
excess facilities will free funds for installations and bring the 
recapitilization rate closer to the Department of Defense's goal of 67 
years by 2010. The Army is divesting itself of mothballed facilities 
and examining privatization alternatives. For example, we are 
capitalizing on the success of the Residential Communities Initiatives 
by expanding the program to 24 projects to more efficiently and 
effectively manage installations. Encompassing over 63,000 family 
housing units, the program allows the private sector to remodel, build, 
and manage housing on Army bases in order to provide the quality 
housing our soldiers and their families deserve. In fiscal year 2003, 
we will institute a centralized installation management organization 
that will improve our facilities and infrastructure through consistent 
funding and standards that promote the equitable delivery of base 
operation services and achieve efficiencies through corporate practices 
and regionalization.

        <bullet> Force Protection

    The missions and training we assign soldiers are not without risks, 
and soldiers must be able to live, train, and work in safe, secure 
environments. We minimize risks by proactively protecting our force. 
For example, we reevaluated force protection security programs and 
adjusted over $800 million in fiscal year 2003 to further support 
controlled access to installations, in-transit security, counter-
terrorism training improvements, information assurance, situational 
awareness, crisis response, and force protection command and control. 
An additional $1.8 billion is required for further force protection and 
security program requirements generated in the wake of the attacks on 
America.

        <bullet> Readiness Reporting

    Measuring readiness requires accuracy, objectivity, and uniformity. 
The Army is transforming its current readiness reporting system to 
achieve greater responsiveness and clarity on unit and installation 
status. The Strategic Readiness System (SRS) will provide senior 
leaders with an accurate and complete near real time picture 
representative of the entire Army (operating forces, institutional 
forces, and infrastructure). The SRS will be a predictive management 
tool capable of linking costs to readiness so resources can be 
effectively applied to near- and far-term requirements. A prototype SRS 
is being evaluated at selected installations, and its development will 
continue to ensure compliance with congressionally directed readiness 
reporting.
Transformation
    Transformation is first and foremost about changing the way we 
fight in order to win our Nation's wars--decisively. The 21st century 
strategic environment and the implications of emerging technologies 
necessitate Army transformation. The global war on terrorism reinforces 
the need for a transformed Army that is more strategically responsive, 
deployable, lethal, agile, versatile, survivable, and sustainable than 
current forces.
    Technology will enable our soldiers to see the battlefield in ways 
not possible before. See First enables leaders and soldiers to gain a 
greater situational awareness of themselves, their opponents, and the 
battle space on which they move and fight. Superior awareness enables 
us to Understand First, to assess and decide on solutions to the 
tactical and operational problems at hand faster than our opponents--to 
gain decision superiority over our opponents. Networked units are able 
to Act First, to seize and retain the initiative, moving out of contact 
with the enemy to attack his sources of strength or key vulnerabilities 
at a time and place of our choosing. The Army uses precision fires--
whether delivered by joint platforms or soldiers firing direct fire 
weapons--to defeat the enemy as rapidly and decisively as possible. 
Army units will be capable of transitioning seamlessly from stability 
operations to combat operations and back again, given the requirements 
of the contingency. When we attack, we destroy the enemy and Finish 
Decisively.
    The Army is taking a holistic approach to transformation, 
implementing change across its doctrine, training, leader development, 
organization, materiel, and soldier systems, as well as across all of 
its components. Transformation will result in a different Army, not 
just a modernized version of the current Army. Combining the best 
characteristics of our current forces, the Army will possess the 
lethality and speed of the heavy force, the rapid deployment mentality 
and toughness of our light forces, and the unmatched precision and 
close combat capabilities of our special operations forces--adopting a 
common warrior culture across the entire force. Transformation will 
field the best-trained, most combat effective, most lethal soldier in 
the world.
    True transformation takes advantage of new approaches to 
operational concepts and capabilities and blends old and new 
technologies and innovative organizations that efficiently anticipate 
new or emerging opportunities. Transformation will provide versatile 
forces that have a decisive margin of advantage over potential 
adversaries and fulfill the Nation's full spectrum requirements. 
Transformed ground forces will dominate maneuver on the battlefield to 
gain positional advantage over the enemy with overwhelming speed while 
enhancing the capabilities of the joint force. This approach will 
contribute to the early termination of the conflict on terms favorable 
to the United States and its allies. Transformation will exploit 
network-centric capabilities to enable rapidly deployable and 
sustainable Army forces to quickly and precisely strike fixed and 
mobile targets throughout the depth and breadth of the battlefield.
    Transformation consists of three interrelated elements--the 
Objective Force, the Interim Force, and the Legacy Force. We will 
develop concepts and technologies for the Objective Force while 
fielding an Interim Force to meet the near-term requirement to bridge 
the operational gap between our heavy and light forces. The third 
element of transformation is the modernization and recapitalization of 
existing platforms within our current force--the Legacy Force--to 
provide these platforms with the enhanced capabilities available 
through the application of information technologies. Several important 
initiatives that should produce even greater advances in 2002 are the 
production, testing, and delivery of the Interim Force vehicle early 
this year, and the development of mature technologies to achieve 
Objective Force capabilities.
    Digitization concepts tested and proved with the Legacy Force are 
being refined in the Interim Force and will be applied to the Objective 
Force. These efforts, along with planned training and testing and joint 
exercises--such as the U.S. Joint Forces Command's ``Millennium 
Challenge 2002''--will enable the Army to stay ahead of current and 
future adversaries by providing the Nation and its soldiers with 
unmatched advanced capabilities. To achieve additional momentum, we 
will carefully concentrate research and development and acquisition 
funding on our most critical systems and programs.

        <bullet> The Objective Force

    The end result of transformation is a new, more effective, and more 
efficient Army with a new fighting structure--the Objective Force. The 
Army will field the Objective Force this decade. It will provide our 
Nation with an increased range of options for crisis response, 
engagement, or sustained land force operations. Instead of the linear 
sequential operations of the past, the Objective Force will fight in a 
distributed and non-contiguous manner. Objective Force units will be 
highly responsive, deploy rapidly because of reduced platform weight 
and smaller logistical footprints, and arrive early to a crisis to 
dissuade or deter conflict. These forces will be capable of vertical 
maneuver and defeating enemy anti-access strategies by descending upon 
multiple points of entry. With superior situational awareness, 
Objective Force soldiers will identify and attack critical enemy 
capabilities and key vulnerabilities throughout the depth of the battle 
space. For optimum success, we will harmonize our transformation 
efforts with similar efforts by other Services, business and industry, 
and our science and technology partners.
    By focusing much of its spending in Science and Technology, the 
Army will create a new family of ground systems called the Future 
Combat Systems (FCS). This networked system-of-systems--a key to 
fielding the Objective Force--will allow leaders and soldiers to 
harness the power of digitized information systems. The FCS will allow 
commanders to bring a substantial, perhaps even exponential, increase 
in combat capabilities to the joint force without a large logistics 
footprint. Newer technologies will be inserted into the FCS as they 
become ready.
    We owe our soldiers the best tools and equipment so they are not 
put at risk by obsolete or aging combat support systems. The Comanche 
helicopter, the Objective Force Warrior system, and Command, Control, 
Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C\4\ISR) initiatives are integral components of the 
network-centric operations of the Objective Force. They are the 
infrastructure that allows soldiers to do what they do best-fight and 
win our Nation's wars. Comanche will provide an armed aerial 
reconnaissance capability critical for gathering intelligence for 
coordinated attacks against targets of opportunity. The Objective Force 
Warrior system will provide quantum improvements over our current 
soldier systems in weight, signature, information exchange 
capabilities, ballistics tolerance, and chemical, biological, and 
environmental protection for our individual soldiers on the 
battlefield.
    Terrestrial systems alone will not enable full spectrum dominance. 
Space is a vertical extension of the battlefield and a key enabler and 
force multiplier for land force operations. Objective Force commanders 
will access and integrate the full spectrum of C\4\ISR and Information 
Operations capabilities, to include national agencies, strategic and 
operational units, tactical organizations, and joint or multinational 
forces. In short, commanders will draw upon a wide array of 
capabilities that enable not just overwhelming force projection, but 
the ability to out-think our adversaries.
    Transporting and sustaining the Objective Force will require 
capabilities that are cost-effective, that adhere to rapid deployment 
timelines, and that have a smaller logistical footprint over longer 
distances without jeopardizing readiness. Materiel readiness will be 
maintained at reduced costs by increasing inventory visibility, 
eliminating artificial ownership barriers and integrating automated 
systems.

        <bullet> The Interim Force

    The Interim Force is a transition force that bridges the near-term 
capability gap between our heavy and light forces. It will combine the 
best characteristics of the current Army forces--heavy, light, and 
special operations forces. Organized into Interim Brigade Combat Teams 
(IBCTs), it will leverage today's technology with selected capabilities 
of the Legacy Force to serve as a link to the Objective Force. Most 
importantly, the Interim Force--a combat ready force--will allow 
exploration of new operational concepts relevant to the Objective 
Force. The Army will field at least six of these new, more responsive 
brigade combat teams. These units comprise an Interim Force that will 
strengthen deterrence and expand options for the field commanders. Over 
the past 2 years, we have organized two brigades at Fort Lewis, 
Washington, and additional IBCTs are programmed for Alaska, Louisiana, 
Hawaii, and Pennsylvania. Leaders and soldiers of the IBCTs at Fort 
Lewis, Washington, along with an Army coordination cell, have been 
working closely with all supporting agencies to develop wide-ranging 
iterative solutions to doctrine, training, logistics, organizations, 
material, and soldier systems required to field the Interim Force. The 
first IBCT has completed brigade and battalion level headquarters 
training with the Army's Battle Command Training Program and company 
level maneuver live fire training across the spectrum of conflict. The 
IBCT is training extensively for restrictive and urban terrain, and the 
force has used special operations training techniques and procedures 
for the development of night and urban fighting techniques. Training of 
the Interim Force is proving that the practice of combining heavy, 
light, and special operations cultures results in a more adaptable and 
capable leader or soldier. The Army has learned from experimentation 
that technology such as digitization allows the integration of 
intelligence data with tactical and operational information and gives 
our leaders and soldiers the ability to seize and retain the 
initiative, build momentum quickly, and win decisively. The Army is 
accelerating the development and fielding of the Interim Force and 
studying the viability of fielding an additional interim capability in 
the European area.

        <bullet> Legacy Force

    As the Army transforms, the Legacy Force--our current force--will 
remain ready to provide the Nation with the warfighting capability 
needed to keep America strong and free. Through selective modernization 
and recapitalization, the Legacy Force allows the Army to meet today's 
challenges and provides the time and flexibility to get transformation 
right. Effectively managing risk without sacrificing readiness, the 
Army is focusing resources on systems and units that are essential to 
both sustaining near-term readiness and fielding the Objective Force 
while taking prudent risk with the remainder of the force. 
Recapitalization rebuilds or selectively upgrades existing weapons 
systems and tactical vehicles, while modernization develops and 
procures new systems with improved warfighting capabilities. The Army 
has identified 17 systems--its Prioritized Recapitalization Program--
and fully funded them in selected units. Among these systems are the 
AH-64 Apache, UH-60 Black Hawk, and CH-47 Chinook helicopters; the M1 
Abrams tank; the M2 Bradley fighting vehicle; and the Patriot Advanced 
Capability-3 missile defense upgrade. Modernization provides the 
linkage to facilitate the fielding of the Interim and Objective Forces. 
The Crusader self-propelled howitzer will provide combat overmatch to 
our commanders until at least 2032 and serve as a technology carrier to 
the Objective Force. Recent restructuring initiatives have reduced 
Crusader's strategic lift requirements by 50 percent. Technology 
improvements have increased its range by 33 percent, increased the 
sustained rate of fire by a factor of 10, and utilizing robotics, 
reduced crew requirements by 33 percent. Modernized M1A2SEP tanks and 
M2A3 Bradley fighting vehicles are capable of the same situational 
awareness as the Interim Force, thus enabling soldiers and leaders to 
learn network-centric warfare on existing chassis. The advantage these 
information technologies provide our current force further enhance its 
warfighting capability. Army Aviation modernization efforts will reduce 
our helicopter inventory by 25 percent and retain only three types of 
helicopters in service, and the savings in training and logistics will 
be used to support the recapitalization of our remaining fleet. As part 
of its Legacy Force strategy, The Army terminated an additional 18 
systems and restructured 12 in this budget cycle.

        <bullet> Revitalizing The Army

    Transformation applies to what we do, as well as how we do it. We 
are working with the business community to accelerate change across the 
entire Army, promote cooperation, share information, gain greater 
control over resource management, and adopt better business practices 
by eliminating functions or activities that no longer provide value. 
This initiative seeks to focus constrained resources on achieving 
excellence in areas that contribute directly to warfighting. 
Transformation of our business practices cannot wait, and we have 
started at the highest levels.
    The Army is restructuring the Army Secretariat and Army Staff to 
create a more unified headquarters for the conduct of enhanced policy, 
planning, and resource management activities. The goal is to transform 
the headquarters into a streamlined, integrated staff more responsive 
to rapidly changing operational and institutional missions and to push 
more resources out to the field units. This will streamline the flow of 
information and speed decision-making. The unified headquarters will 
seek greater integration of the Reserve components into key staff 
positions to better accommodate issues and concerns. To minimize 
turbulence in the workforce, we will reinvest manpower savings in other 
Army priorities. Realignment initiatives already underway will help us 
meet the congressionally mandated 15 percent reduction in headquarters 
staffs. With congressional support, the Army will apply these 
methodologies to the entire force.

                       A COMMITMENT TO THE FUTURE

    The Army, like the American people, remains committed to preserving 
freedom. As we have for over 226 years, we will continue to win our 
Nation's wars. Contrary to the expectations of some, the post-Cold War 
period has not seen a reduction in the demands placed on soldiers on 
the ground. In fact, in the years since the fall of the Soviet Union, 
the international security environment has underscored the importance 
of ongoing commitments and highlighted new requirements for the Army. 
These increased demands have intensified the competition for resources 
and reduced needed investments in people, systems, platforms, and 
research and development. Unless redressed, risks incurred from this 
resources shortfall could undermine the Army's ability to satisfy 
national security requirements. At the same time, the war on terrorism, 
the requirement to secure the homeland, and the need to maintain 
readiness for possible near-term contingencies have validated the need 
for a new kind of Army--a capabilities-based ground force that can 
fight and win battles across the full spectrum of military operations. 
We are accelerating Army transformation to achieve these capabilities. 
The Army cannot predict what other changes the future will bring, but 
what will not change is the need for our Nation to have the best 
trained, best led and best equipped soldiers on the ground, deployed 
rapidly at precisely the right time, the right place, and with the 
right support structure as part of a joint military team.
    Mr. Chairman and distinguished members of the committee, I thank 
you once again for this opportunity to report to you today on the state 
of your Army. I look forward to discussing these issues with you.

    Chairman Levin. Thank you very much, Secretary White.
    Secretary England.

   STATEMENT OF HON. GORDON R. ENGLAND, SECRETARY OF THE NAVY

    Secretary England. Good morning, Mr. Chairman, Senator 
Warner, and members of this distinguished committee. Thank you 
for the opportunity to be with you today and thank you 
especially for this committee's continued strong support for 
our sailors and marines and their families. Recognizing that 
you are all anxious to move on to the questions, I will keep my 
remarks brief and ask that my written statement be entered into 
the record.
    Chairman Levin. All the statements will be made part of the 
record.
    Secretary England. Thank you.
    It is indeed a privilege to appear before this committee 
representing the finest Navy and Marine Corps the world has 
ever known. All of you have witnessed either first-hand or in 
compelling news reports the superb performance of America's 
Naval forces in the global war on terrorism. Never in my adult 
life have I seen a time in which the combat capabilities and 
mobility of the Navy-Marine Corps team have been more important 
to our joint warfighting effort. In my view, not since World 
War II has the inherent mobility of combat power at sea been so 
central to our ability to take the fight to the enemy and 
sustain that effort over time.
    Naval forces of the 21st century will continue to offer 
secure sea bases from which our sailors and marines will be 
able to operate both in peacetime and wartime alike. Such bases 
will offset the restrictions caused by sovereignty issues which 
increasingly limit or impede our national strategies, 
especially during crises.
    Naval carrier battle groups were on station in the Arabian 
Sea when our Nation was viciously attacked on September 11. 
These ships, manned by truly great sailors and marines who have 
volunteered to serve their country, were ready when the order 
was given to strike back at the terrorists and those that 
harbor them, and they remain on station today in support of our 
troops on the ground in Afghanistan and elsewhere in the region 
and in the world.
    This is not to say the Navy will do it alone, not by a long 
shot. All of us here before you today can be justifiably proud, 
not only of how well our individual services have performed, 
but, more importantly, how seamlessly the operational 
capabilities of all the great branches of our military have 
been woven together to great effect on the battlefield.
    We also know that this would not have been possible without 
the wisdom and the support of this committee over prior years. 
So I thank you again, Mr. Chairman and members of this 
committee, for all your prior efforts in supporting our forces.
    I can also say without hesitation that the President's 
budget for fiscal year 2003 accurately reflects the priorities 
set by the Navy leadership. The Chief of Naval Operations, the 
Commandant of the Marine Corps, and I all agree that we must 
continue to keep faith with our people by providing them the 
pay and benefits they so richly deserve and must also ensure 
that our forces remain trained and ready to carry out missions 
in the war on terrorism.
    To this end, we have prioritized spending on critical 
readiness elements, such as adequate flying hours and steaming 
days, spare parts, preventative maintenance, and replenishing 
our inadequate stockpiles of precision munitions. We have added 
more than $3 billion to our operations and maintenance account 
and an additional $1 billion to buy munitions.
    On the personnel side of the equation, we increased the 
military personnel account by a little over $4 billion. Now, 
that is real money and we have put the emphasis where we 
believe it will do the most good.
    There have been many reports recently that the Navy is 
underfunding the shipbuilding and aviation procurement 
accounts. I am here to tell you those reports are accurate. We 
do need to increase funding in these accounts and we are 
increasing them across the FYDP. The good news is that we did 
fund the conversion of the first two of four Trident submarines 
to cruise missile shooters, or SSGNs. That was about a billion 
dollars. We added another billion dollars to pay off old debts 
in the prior year shipbuilding account and to fund more 
realistic program cost estimates to reduce such bills in the 
future. Although we increased spending on aviation procurement 
by more than $300 million, we will actually build fewer new 
planes because of the types of aircraft being procured.
    The bad news is, as this committee is well aware, we need 
to build 8 to 10 ships every year on a long-term basis and 
nearly 200 aircraft on a long-term basis if we are to 
recapitalize the force and ensure that my successors will 
inherit the ready Navy and Marine Corps that I am proud to 
lead.
    Mr. Chairman, these have been difficult choices to make, 
but I firmly believe that the CNO, the Commandant, and myself 
made the right choices for fiscal year 2003. We cannot fix 
every problem in 1 year, so we prioritized our funding. We can 
never afford to break faith with our people on adequate pay and 
benefits. Frankly, it makes no sense to shortchange current 
readiness and munitions at a time when the Nation is at war.
    The CNO, the Commandant, and I also agree that efficiency 
in our business practices is now more important than ever 
before and we are dedicated to that objective.
    I look forward to the opportunity to elaborate in response 
to your questions. Thank you very much.
    [The prepared statement of Secretary England follows:]

            Prepared Statement by the Hon. Gordon R. England

                NAVY-MARINE CORPS: THE POWER OF TEAMWORK

                            I. INTRODUCTION

    The Navy/Marine Corps Team continues to provide extraordinary 
service and value to our country. Our contributions in the ``War 
Against Terrorism'' have been significant and important in the overall 
success of U.S. military forces. Naval Forces have demonstrated the 
reach of their lethal power deep into the enemy heartland. Operating 
beyond the traditional littoral, we have destroyed the enemy in areas 
that they previously considered sanctuaries.
    Our forces have been effective and congressional support has been 
essential. In fiscal year 2002, Congress supported the President's 
amended budget for the Navy and Marine Corps. In fiscal year 2003, we 
are again requesting your support of the President's budget to continue 
the Navy and Marine Corps improvement in areas previously under-funded, 
sustain our force, and continue the transformation in the way we fight.
    The following sections of this statement describe the dramatic 
improvement the fiscal year 2003 President's budget will provide for 
the Department of the Navy. Significant accomplishments of Naval Forces 
in the past year, and some of the detail of our plans for the future 
supported by this budget request are also described.
    In assessing our request, it is important to note that our focus is 
on sustaining and further developing the effective and lethal Naval 
Forces that are part of a broader networked joint warfighting 
architecture. Numbers are important, but as Naval Forces are already so 
well illustrating, warfighting capabilities go beyond mere numbers. It 
used to require multiple aircraft to strike a single target. Now a 
single aircraft can strike multiple targets. Networked systems and 
sensors may be more important today than the sheer number of weapons 
and platforms. Our focus is on warfighting capability and sustaining an 
effective and properly resourced force. The Navy and Marine Corps are 
going to continue to work with the other military services to determine 
the best path to transformation and the best aggregate warfighting 
capabilities for our country.

II. FISCAL YEAR 2003--A DRAMATIC IMPROVEMENT FOR THE DEPARTMENT OF THE 
                                  NAVY

    After years of under funding, the fiscal year 2003 budget request, 
building on improvements in the fiscal year 2002 Department of Defense 
Authorization Act, represents a dramatic improvement for the Department 
of the Navy. Although the Department of the Navy still had to make 
difficult priority decisions, the final request represents the best mix 
possible among competing priorities. In this budget request, the 
highest priority items are pay and benefit improvements for our most 
valuable resource; namely, people and providing them the necessary 
spares, tools and munitions to carry out the Nation's requirements. The 
following is the listing of the priority funding in fiscal year 2003 
for the Department of the Navy:

        <bullet> Personnel salary and benefits are improved 
        approximately $4.1 billion in MILPERS accounts. This represents 
        improvements in salary, health care, housing allowance and 
        increased sea pay both in amount and number of military 
        personnel covered. In this budget, civilian health care is also 
        on an accrual basis and that administratively adds $750 million 
        to this budget in operation and maintenance (O&M) and working 
        capital accounts that was not accounted for in prior years.
        <bullet> Operation and maintenance and working capital accounts 
        are increased by $3.4 billion. This increases funds for 
        steaming and flying hours, including spares and depot/
        contractor repair of major systems. This funding does not, 
        however, include any cost associated with Enduring Freedom.
        <bullet> Munition accounts are increased $973 million which is 
        allocated predominately to tactical land attack Tomahawk cruise 
        missiles and precision ordnance delivered from Navy and Marine 
        Corps ships and aircraft.
        <bullet> The airplane account is increased by $323 million. 
        Although the number of attack airplanes remains the same as in 
        fiscal year 2002, the total number of airplanes declines due to 
        the mix of airplanes being procured in fiscal year 2003.
        <bullet> The RDT&E accounts increased by $1.1 billion 
        reflecting the need to continuously invest in the future and to 
        incorporate new technologies into our naval services.
        <bullet> The total number of ships in fiscal year 2003 is 7, 
        consisting of 5 new construction ships and 2 conversions. The 
        conversions consist of modifying 2 ballistic missile submarines 
        into 2 modern cruise missile platforms that provide a 
        transformational capability to the Navy and the Nation. Prior 
        year shipbuilding is funded in the amount of $645 million. 
        Additionally, pricing for new construction ships has been 
        increased by $400 million as a management approach to help 
        avoid future cost growth.

    Our objective in fiscal year 2003 to fund more robustly all of our 
operational accounts across the Department of the Navy to assure that 
our men and women in uniform have all the necessary resources to 
provide forward presence and to support the President's call for action 
in support of the ``War Against Terrorism.'' This necessitated some 
difficult choices and continues to leave the naval services with a 
smaller number of new construction ships than desired and an airplane 
force that continues to age beyond the age of our surface ships. In 
addition, the Department of the Navy is disinvesting in older systems 
that no longer provide combat capability commensurate with their cost.

III. LEADING THE WAY: NAVY-MARINE CORPS OPERATIONS IN THE GLOBAL WAR ON 
                               TERRORISM

Sea-based Forces in a Post-September 11 World
        <bullet> The ``War Against Terrorism'' illustrates the value of 
        Naval Forces and the importance of Sea Basing.

  Naval Forces
        <bullet> Provide global continuous presence
        <bullet> Have no need to obtain base access
        <bullet> Quickly put potent ground forces ashore in a crisis 
        area
        <bullet> Quickly strike enemy targets throughout much of the 
        world
        <bullet> Operate and sustain from secure sea bases
        <bullet> Enable U.S. and allied forces to get into the fight
        <bullet> Remain on-station indefinitely
        <bullet> Influence events ashore from the sea
        <bullet> Extend U.S. power and influence deep into areas that 
        enemies might consider secure

    On September 11, 2001, U.S.S. Enterprise and her battlegroup were 
returning from a successful deployment to the Arabian Gulf. By next 
morning, Enterprise was within reach of Afghanistan, ready to launch 
and sustain precision strikes against enemies hundreds of miles from 
the sea.
    Enterprise was not alone. In Australia, the sailors and marines of 
the Peleliu Amphibious Ready Group/15th Marine Expeditionary Unit 
(Special Operations Capable) cut short their port visit and sailed for 
the Arabian Sea. U.S.S. Carl Vinson steamed at high speed to join 
Enterprise on station while surface combatants and submarines prepared 
Tomahawk missiles for long-range strikes, established maritime 
situational awareness, and prepared for interdiction operations. U.S.S. 
Kitty Hawk prepared to leave her homeport in Japan, to serve as an 
innovative special operations support platform. Off the east and west 
coasts of the United States, U.S.S. George Washington and U.S.S. John 
C. Stennis took station along with more than a dozen cruisers and 
destroyers, guarding the air and sea approaches to our shores. Shortly 
thereafter, the hospital ship U.S.N.S. Comfort joined U.S.N.S. Denebola 
in New York City to support firefighters and recovery workers. Marine 
Chemical-Biological Incident Response Force (CBIRF) and Explosive 
Ordnance Disposal (EOD) teams deployed to support local authorities in 
New York and Washington, DC. Naval Intelligence, in conjunction with 
Coast Guard Intelligence, immediately began monitoring civilian ships 
approaching the United States and assessing the potential terrorist 
uses of the seas around the world.
    When the Nation called, the Navy-Marine Corps team responded with 
speed and agility, and with lethal, combat-credible and sustainable 
forces. On September 11, as on every other day of the year, sovereign 
Naval Forces were on watch ``around the clock, around the globe.''
    In 2001 as in the past, the Navy-Marine Corps Team operated 
extensively representing U.S. interests throughout the world. In the 
Pacific, forward-deployed Naval Forces based in Japan, the West Coast 
and Hawaii continued to assure our allies in the region, deterring 
threats and coercion. The Navy-Marine Corps team also supported United 
Nations Transition Assistance East Timor (UNTAET) humanitarian 
assistance efforts.
    In the Mediterranean, Navy ships operated with friends and allies 
in over 85 exercises. Marines in Sixth Fleet MEUs provided presence 
ashore in Kosovo and served as the Joint Task Force Commander's Ready 
Reserve. In South America, Marine elements participated in riverine and 
small unit training. The annual UNITAS deployment promoted regional 
security cooperation and interoperability with regional Naval Forces.
    In Southwest Asia, we maintained continuous carrier presence 
throughout the year, conducting combat operations in support of 
Operation Southern Watch over Iraq. Surface combatants continued 
Maritime Interdiction Operations (MIO), supporting UN economic 
sanctions against Iraq for the tenth straight year. Marines from the 
15th and 22nd MEUs trained and exercised with friends and allies 
throughout Southwest Asia.
    These familiar ``peacetime'' operations demonstrate two enduring 
characteristics of the Navy-Marine Corps team that have been essential 
in launching the war on terrorism:

        <bullet> The ability to provide assured, sea-based access to 
        the battlefield unfettered by the need to negotiate base 
        access.
        <bullet> The ability to project power from the sea to influence 
        events ashore tailored, flexible, relevant power that is 
        critical to the Joint Force Commander's ability to fight and 
        win.

    When combat operations began in October, these characteristics made 
the Navy-Marine Corps team leading-edge elements in the joint campaign. 
Against a dispersed, entrenched enemy in a landlocked nation, hundreds 
of miles from the nearest ocean, strikes from the sea were in the 
vanguard. Carrier-based Navy and Marine aircraft provided the 
preponderance of combat sorties over Afghanistan while Tomahawk cruise 
missiles fired from ships and submarines struck communications and air 
defense sites. In the days that followed, the Navy and Marine Corps 
worked seamlessly with the other services to sustain carrier strikes 
deeper inland than ever before. Carrier aviators flew, on average 6-
hour missions over Afghanistan, covering distances equal to missions 
launched from the Gulf of Mexico to Chicago and back. Maritime patrol 
aircraft flew over Afghanistan to provide unique reconnaissance and 
surveillance capabilities in direct real time support of Special 
Operations Forces (SOF) and Marine units on the ground. U.S.S. Kitty 
Hawk excelled as an interim afloat forward staging base (AFSB) for SOF. 
Ships and submarines supported by Naval Intelligence established 
maritime situational awareness over a huge area, and began the most 
extensive Maritime Interdiction Operation (MIO) ever to interdict 
terrorist leaders and material.
Against a landlocked nation, hundreds of miles from sea. . .
        <bullet> 70 percent of combat sorties were flown by naval air.
        <bullet> Tomahawks from submarines and ships key in taking down 
        air defense and command nodes.
        <bullet> Navy P-3s provided critical surveillance and 
        reconnaissance over Afghanistan.
        <bullet> Sea based marines--using organic airlift--moved 400 
        miles, deep into Afghanistan.

    Marines established the first conventional ground force presence in 
Afghanistan. Elements of two MEUs and a Marine Expeditionary Brigade 
Command Element moved from their ships using organic Marine and Navy 
lift to create a tailored Marine Air Ground Task Force (MAGTF) ashore. 
Light, agile and self-sustained, marines established security in a 
hostile environment and assured access for follow-on forces. Navy 
Seabees improved runways, enhanced conditions at forward operating 
bases far inland, and established detainee camps.
    Submarines provided tactical and persistent intelligence, 
surveillance, and reconnaissance (ISR). Sea based aircraft, ships, and 
submarines brought down enemy defenses from a distance. Carrier strike 
aircraft, in conjunction with Air Force bombers and tankers and guided 
by SOF on the ground, destroyed the enemy's ability to fight. Having 
assured access and sustainment from the sea; marines, Navy SEALs, 
Seabees, and Army SOF worked with local allies to free Afghanistan from 
the Taliban regime and al Qaeda terrorist network.
    In Operation Enduring Freedom and the global ``War Against 
Terrorism,'' on station Naval Forces were first to respond, first to 
fight, first to secure U.S. interests. These operations exemplify the 
decisiveness, responsiveness, agility and sustainability that are key 
to Naval services.
    Operations in the ``War Against Terrorism'' make clear important 
lessons as we move to transform the Nation's military force and 
capabilities. Transformation is not just about revolutionary new 
hardware and technologies. Quantum improvements in warfighting 
effectiveness also come by coupling evolutionary improvement in 
existing systems to new ways of thinking innovative operational 
concepts, doctrine, tactics and intelligence and through new ways of 
using them together. Here are some examples of this potent combination, 
and the dramatic improvement in capabilities over just the past decade:

        <bullet> Unprecedented long-range precision strikes from 
        carrier aviation, effectively supported by Air Force tankers. 
        In Desert Storm our strikes were less than 200 miles on 
        average; in Afghanistan they were often 600 miles or more 
        inland.
        <bullet> Seamless command and control across a joint task force 
        engaged in global operations.
        <bullet> Seabased marine operations, arriving and staying 
        light, with the ``rear area'' largely aboard ships.
        <bullet> Expeditionary flight operations were conducted from 
        Kandahar, over 400 nm inland. These operations included 
        helicopters and VSTOL fixed-wing aircraft, making the AV-8B the 
        first U.S. tactical strike aircraft to conduct operations from 
        a base in Afghanistan.
        <bullet> Direct real time intelligence and reconnaissance 
        operational support of Ground Special Operations Forces by P-3 
        maritime patrol aircraft.
        <bullet> Continued refinement of Tomahawk as a timely tactical 
        weapon. In Desert Storm, it took about 3 days to program a new 
        mission into a Tomahawk missile. In Afghanistan, some missions 
        were programmed in less than half an hour.
        <bullet> Marriage of precision munitions with real-time 
        targeting to make aircraft precision ``airborne artillery''. 
        Precision munitions became the most commonly used ordnance. 
        Ninety-three percent of the ordnance expended by the Naval 
        Forces in Afghanistan was precision munitions.
        <bullet> Long-term surveillance and real-time targeting from 
        unmanned aerial vehicles (UAVs).
        <bullet> Inherent flexibility, as an aircraft carrier's 
        traditional mission was changed on short notice to become an 
        afloat forward staging base for joint Special Operations Forces 
        (U.S.S. Kitty Hawk).
        <bullet> Integrated use of attack submarines in a networked 
        force.
        <bullet> Versatile surface ship combat operations, from 
        Tomahawk launch and projecting air defense projection overland 
        with the Aegis system; to escort duty, maritime interdiction, 
        littoral interception operations, and search and rescue.
        <bullet> Perhaps the most remarkable change is that Naval 
        Forces from the sea are operating in the Eurasian heartland 
        well beyond the littorals, striking an enemy in what he 
        considered sanctuary.
Around the World, Around the Clock
    Even as the world moves on through these turbulent times, it is 
clear that the global commons--the oceans--will continue to matter 
greatly to the United States of America: as a pathway for transport and 
commerce; a source of oil, minerals, foodstuffs, and water; a rich 
venue for research and exploration; a road to our allies and friends as 
the leader of a global maritime coalition; an extensive though not 
infallible zone of defense; and--above all--an arena from which to 
operate as we seek to dissuade, deter, and, if required, fight and 
defeat our enemies. The power of the Navy/Marine Corps Team in 
defending our country is inestimable!
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      IV. SAILORS AND MARINES: INVESTING IN THE HEART OF THE TEAM

    Key to our force, and the heart of the team, are our sailors, 
marines, and civilian workforce. These are our most valuable resource. 
Our Navy and Marine Corps need talented young Americans who want to 
serve their Nation and make a difference. In return for their service, 
we offer them rich opportunities for leadership, growth, and 
achievement.
    Sailors. We continue to make solid progress in recruiting the right 
people, reducing attrition, increasing reenlistments, and manning the 
fleet. Navy recruiting goals were met in 1999, 2000, and 2001. As a 
result, a greater number of initial service school seats are filled, 
providing better trained sailors to the fleet, and fleet manning 
continues to improve.
    Sailors are staying Navy in record numbers. First term retention is 
now at 57 percent. The Navy continues to make progress in combating 
attrition of first-term enlistees with 8.5 percent fewer first-term 
attrites in fiscal year 2001 than the previous year. Opportunities for 
advancement have improved. Our battle groups are being fully manned 
earlier in the inter-deployment training cycle, deploying with the best 
manning levels in years. We have begun filling increased manpower 
requirements in areas such as Anti-Terrorism/Force Protection (AT/FP).
    Improving officer retention remains critical to our efforts to 
achieve a steady-state force structure. Strong leadership at all levels 
and increased personnel funding have produced recruiting and retention 
advances. The Navy will continue to invest in quality of service and 
build a 21st century personnel system.
    The Navy wants to give sailors greater choice in their assignment 
process. The Navy has taken a number of initiatives to make the process 
more sailor-centered, including a Sailor Advocacy Program that has 
expanded outreach to sailors by their personnel managers. We also want 
to be able to shape careers and the force in skills and paygrade to 
meet future as well as current requirements. For these reasons, the 
Navy supports several initiatives in this year's budget cycle. A 
gradual increase in our enlisted top six-paygrade mix (E-4 through E-9) 
to reflect the skills requirements of increasingly complex ships and 
aircraft, and legislative initiatives such as enhanced career pay and 
distribution incentive pay to help compensate for the arduous nature of 
an expeditionary Service.
    Marines. The Marine Corps has either met or exceeded its accession 
goals since June 1995. During 2001, aggressive recruiting has allowed 
the Marine Corps Recruiting Command to exceed its quotas again. As a 
result, the Marine Delayed Entry Pool (DEP), the recruiting reservoir, 
is in excellent shape. For the third consecutive year, the Marine Corps 
experienced lower post-boot camp first-term attrition.
    Marine Corps retention was very encouraging in fiscal year 2001. 
More first term marines re-enlisted than at any other time in the 
history of the Marine Corps, easily reaching our goal to re-enlist 26 
percent. The Marine Corps also achieved a better military occupational 
speciality mix than in previous years. This strengthens the future of 
our enlisted career force and provides commanders with the most 
qualified marine by rank and experience. Highly successful retention 
programs such as the Selective Re-enlistment Bonus (SRB) are addressing 
shortages in specialty areas. Officer retention has improved 
substantially with a 15 year low of 8.3 percent attrition during fiscal 
year 2001. Aviation Continuation Pay (ACP) has assisted in improving 
officer retention.
    For the past decade, the Marine Corps has continued to aggressively 
examine its force structure. This is necessary to ensure proper 
staffing of our operating forces, which have been below the 90 percent 
manning levels required for the tempo and variety of our full spectrum 
capabilities, and the efficient and effective use of marines and 
civilian marines in combination with business reform initiatives for 
our supporting establishment functions. To date, mainly as a result of 
business reform initiatives such as out sourcing and privatization, we 
have made substantial progress to increase manning in the operational 
forces with approximately 2,500 marines identified to shift from the 
supporting establishment to operating forces billets. As we complete 
our A-76 studies and continue the implementation of Activity Based 
Costing/Activity Based Management in our supporting establishment 
process, we expect some additional marines may be shifted to the 
operating forces. However the new security environment has increased 
our operating forces needs. We have responded with the permanent 
activation of the 4th Marine Expeditionary Brigade (MEB) (Anti-
Terrorism/Force Protection), consisting of 2,400 marines out of our 
total end-strength of 175,000 active duty marines in order to assure we 
access, train and retain a new, robust tier one anti-terrorism/force 
protection force capability. The immediacy of the 4th MEB requirement 
resulted in initial manning using highly trained marines from 
previously existing but already under staffed operating force units. 
Marines from the 4th MEB were quickly deployed in 2001 and are deployed 
today to provide this new capability for joint force missions in the 
European Command and Central Command Areas of Operation. The nature of 
the change in our national security environment, both overseas and here 
at home, requires we sustain this increase in Marine Corps end-
strength.
    Quality of Service. The Navy and Marine Corps continue to believe 
that both quality of life and quality of the work environment are 
important factors in retaining sailors, marines, and their families. 
This includes compensation, medical care, family housing, retail and 
commissary services; recreation programs, community and family 
services; training and education; as well as elements of the work 
environment such as tools, supplies, and facilities. Congress has 
supported many improvements in these areas.
    Professional development and training is one of our key focus 
areas. The Navy has launched Task Force EXCEL (Excellence through 
Commitment to Education and Learning) an initiative to create a 
``Revolution in Training,'' leveraging distance learning technologies, 
an improved information exchange network, and a career-long training 
continuum to fully realize the learning potential of our professional 
force. The Navy College Program and the Marine Corps Lifelong Learning 
Program directly support career-long emphasis on the professional 
development needs of our sailors and marines. Continuous learning, 
including an increased reliance on advanced distance learning systems 
such as the Marine Corps' Satellite Education Network (MCSEN) and the 
MarineNet Distance Learning Program, is needed to keep our sailors and 
marines on the cutting edge. The Navy-Marine Corps team owes those who 
promise to serve the best possible training throughout their Naval 
service experience so they can succeed and prosper in their 
professional and personal lives.
    Force health protection is an integral part of readiness and is one 
of Navy medicine's primary missions. Navy medicine has implemented a 
comprehensive organizational strategy to prepare for, protect against, 
and respond to threats or attacks. The medical establishment is 
coordinating with sister services, the Veterans Administration, Federal 
agencies, and civilian healthcare support contracts through TRICARE to 
combine our efforts for increased efficiencies. Programs are in place 
to ensure the health of sailors and marines; protect them from possible 
hazards when they go in harm's way; restore the sick and injured, and 
care for their families at home.
    Reserves. Some 89,000 Navy reservists and 39,558 Marine Corps 
reservists serve today. The effective integration of Reserve elements 
with active components is indispensable to military readiness and 
personnel tempo in the ``War Against Terrorism.'' We have recalled over 
10,000 Navy and Marine Corps reservists as of December 2001. The Marine 
Corps Selected Reserve contributes approximately 25 percent of the 
force structure and 20 percent of the trained manpower of the total 
Marine Corps force. The Navy Reserve constitutes 19 percent of the 
Navy's total force, providing all our inter-theater airlift and inshore 
undersea warfare capability.
    The Naval Reserve came within 2 percent of its authorized end 
strength in 2001 and is adding recruiters in fiscal year 2002 to help 
meet goals. The Marine Corps Reserve continues to meet its authorized 
end-strength, although the challenge to recruit company grade officers 
for service with Selected Marine Corps Reserve (SMCR) units is 
increasing. A Reserve Recruiting and Retention Task Force meets 
quarterly to develop and implement ways to meet the ``right marine in 
the right place'' standard.
    Civilian Workforce. The Department of the Navy employs about 
182,000 U.S. citizen civilian workers and nearly 3,500 foreign national 
employees. This is about 149,000 fewer civilians than were employed in 
1989, a reduction of 45 percent. Now the Department of the Navy faces 
an employment challenge shared across the Federal Government: shaping 
the workforce to ensure that we have the right people, with the right 
skills, in the right jobs to help us meet the challenges of the future. 
In an age of rapid technological change, attracting the best available 
talent is essential. We are building on the successes of Navy and 
Marine Corps commands to identify and expand the use of best 
recruitment practices to attract high quality individuals at entry and 
mid-career levels. At the same time, we are examining and using other 
innovative workforce shaping strategies to ensure that we have a 
civilian workforce able to take its place as an integral part of the 
total force.

       V. CURRENT READINESS: OPERATING THE NAVY AND MARINE CORPS

    The success to date of the Navy and Marine Corps in the war against 
terrorism attests to progress made in current readiness. Sailors and 
marines were ready and had the tools they needed on 11 September. We 
have worked hard to redress the shortfalls in training, maintenance, 
spare parts, ordnance, and fuel that have burdened our operating forces 
in the recent past. The fiscal year 2002 budget was the best readiness 
budget in a decade. The fiscal year 2003 Budget will continue to ensure 
that readiness meets mission requirements.
    The ships and aircraft joining the fleet and marine forces are the 
best in the world. In 2001, the Navy launched the next aircraft 
carrier, Ronald Reagan (CVN 76), commissioned our newest amphibious 
ship, U.S.S. Iwo Jima (LHD 7) and continued to take delivery of 
sophisticated Arleigh Burke class guided missile destroyers, and F/A-18 
E/F Super Hornets.
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
While current DDGs and F/A-18s may look from the outside much like 
earlier models, by design they bring significant increases in 
capability as the classes evolve.
    Ship and Aircraft Build Rates and Modernization. Given current 
practices and the age of our systems, there is a steady-state 
requirement to procure 180-210 aircraft and 8-10 ships each year to 
sustain current force levels over the long term. However, we are also 
at a juncture of transitioning to new systems such as F/A-18E/F, LPD-
17, DD(X), E-2C RMP, and others. We are investing in connectivity and 
interoperability to leverage our existing assets while we lay the 
foundation for future modernization.
    The Navy has 5 new ships and 2 major conversions requested in the 
fiscal year 2003 budget, and substantial additional shipyard/conversion 
work:

        <bullet> 2 DDGs ($2.4 billion) including Advanced Procurement 
        for a third ($74 million)
        <bullet> 1 Virginia Class Submarine ($2.2 billion)
        <bullet> 1 LPD-17 ($604 million)
        <bullet> 1 T-AKE ($389 million)
        <bullet> Incremental LHD-8 Funding ($253 million)
        <bullet> 2 SSGN Refuelings and Conversions ($1.0 billion)
        <bullet> 1 SSN Refueling ($360 million)
        <bullet> DD(X) ($961 million)

    Although we plan to procure additional ships in the out years, 
fiscal year 2003 is not the best time to further accelerate ship 
procurement quantities. There is substantial work in many of the 
Nation's shipyards for SSGN conversions, SSN engineering refueling 
overhauls, and new construction already underway. For example, there 
are 36 new ships already authorized and under construction.
    The Navy could use additional DDGs, and they are the most 
appropriate candidate for additional procurement. The Navy would also 
like to move as quickly as possible to the DD(X) hull in order to 
reduce operating costs and improve capability and survivability. While 
the Virginia design is nearing completion, there was no prior year 
advance procurement funding available to support building a second 
Virginia Class submarine in fiscal year 2003. Delivery of U.S.S. 
Virginia in 2004 will allow the class design and ship testing to 
complete before beginning the increased production of two Virginias per 
year later in the FYDP. We are not ready for rate acceleration this 
year. The LPD-17 design is still not complete. Four ships are already 
funded with advance procurement for another 2 ships. Although we need 
to replace our older amphibious force ships, LPD-17 is not yet ready 
for rate acceleration. Design work is just starting on the T-AKE lead 
ship and 3 T-AKEs are already appropriated. Across the FYDP the Navy 
will fund 11 Cruiser conversions. Cruiser conversion offers an 
affordable way to add fleet capability and ultimately we plan to 
convert 27 cruisers.
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    We are keenly aware of the critical need to address ship and 
aircraft recapitalization and plan to do so in future years budget 
submissions. Some shipbuilding programs have been delayed due to 
developmental challenges and we would expect to have more flexibility 
to recapitalize our ship accounts in the future. The challenge of 
recapitalization today is exacerbated by the immediate and compelling 
need to rapidly make whole and sustain the current Navy and Marine 
Corps ability to fight today's wars, which this budget addresses in 
great part. We had to make some very difficult choices, however, we are 
making the right choices within available dollars. At the present time, 
given the age of Navy aircraft, the Navy would place a higher priority 
on increasing aircraft procurement rates over ships.
    Prior topline constraints, coupled with increased operational 
requirements over the last decade, forced the Marine Corps to defer 
investment in equipment modernization. As a result of this 
``procurement pause,'' many Marine Corps weapons, vehicles, and support 
systems are approaching or have exceeded block obsolescence. The fiscal 
year 2003 budget allows the Marine Corps to begin to make more 
appropriate levels of investment in ground equipment modernization and 
transformational programs such as the Advanced Amphibious Assault 
Vehicle (AAAV), LW155, High Mobility Artillery Rocket System (HIMARS), 
and Common Aviation Command and Control System (CAC\2\S). Sustainment 
of this increased level of investment is absolutely critical to the 
continued success of the Navy-Marine Corps team.
    Readiness challenges. We have made major strides in improving 
current readiness with the strong congressional support in the fiscal 
year 2001 supplemental and fiscal year 2002 budget. But challenges 
remain. Our task is to sustain readiness funding while focusing clearly 
on three challenges in current readiness:

        <bullet> The aging of assets particularly aircraft and 
        amphibious ships due to inadequate replacement levels.
        <bullet> The demands of the ``War Against Terrorism.''
        <bullet> The maintenance of shore infrastructure.

    The Aging Fleet. The aging of ships and aircraft may be one of the 
main factors contributing to increased readiness costs. Naval aviation 
poses the most profound challenge. Our aviation force now contains the 
oldest mix of type/model/series aircraft in naval history, yet it is 
these same aircraft that are routinely employed in combat overseas. For 
the first time, our average aircraft age exceeds the average age of 
combatant ships, contributing to a corresponding increase in the cost 
of operations and maintenance.
    The average age of our ships is 16 years which is near optimum for 
ships with a service life of 30 years. However some ships, particularly 
older aircraft carriers and our amphibious force ships, are reaching 
the end of their service lives, often requiring unprogrammed repairs, 
necessitating unplanned funds for urgent maintenance. In part because 
of these costs, we moved to retire some ships, such as some Spruance-
class destroyers, before the end of their service life. Further, 
capable ships reaching service mid-life, like the oldest of our Aegis 
cruisers, require modernization to remain operationally viable.
    Global tasking and the ``War Against Terrorism'' continue to stress 
our aviation force readiness. As a result, the F/A-18 has been flown 
well in excess of planned utilization rates. More than 300 aircraft 
will require service life extensions earlier than planned or budgeted. 
Similar situations apply to F-14s, EA-6Bs, P-3Cs, SH-60s, and virtually 
every other aircraft in the fleet. The majority of Marine Corps 
airframes are over 25 years old.
    In developing the fiscal year 2002 budget, the department moved 
nearly $6.5 billion from other Navy programs to the current readiness 
portion of the Navy baseline program for fiscal year 2002-2007, shoring 
up the Flying Hour Program, Ship Depot Maintenance, Ship Operations, 
and Sustainment, Recapitalization, and Modernization (SRM) accounts. 
The fiscal year 2002 defense budget made substantial investments to 
bring readiness accounts to required levels. We sustain this focus in 
fiscal year 2003 with an additional increase of $3.4 billion in 
operation and maintenance and working capital accounts.
    Selected readiness issues in the ``War Against Terrorism.'' Recent 
combat experiences underline the importance of certain assets and 
capabilities in high demand but short supply. While the EA-6B Prowler, 
the EP-3E Aries II electronic warfare aircraft and P-3C Orion Anti-
Surface Warfare Improvement Program (AIP) aircraft offer theater 
commanders extraordinary capabilities, higher than planned usage rates 
results in adverse effects on service life, maintenance costs, and 
aircrew tempo.
    Precision Guided Munitions (PGM) have become the preferred munition 
of modern warfare. Unanticipated high usage rates during the war in 
Afghanistan, coupled with years of under investment in ordnance, have 
caused serious shortfalls. This is a critical path item that we are 
addressing to sustain our effort in the ``War Against Terrorism'' and 
we increased munitions accounts in fiscal year 2003 by $973 million 
allotted predominately to tactical Tomahawk missiles and precision 
guided munitions delivered from the air.
    Current operations reinforce the need for sustainable access to 
training and testing ranges. We are dedicated to finding ways to 
enhance readiness through creative technologies. While an increasing 
amount of training and testing can be done using computer simulations 
and other information technologies, live practice on actual ranges will 
in some cases remain essential at the right time and place in the 
training cycle. Maintaining access to ranges requires a comprehensive 
approach that balances legitimate community and environmental concerns 
with the need for realistic training and testing.
    Shore Infrastructure. Real property maintenance and military 
construction accounts suffered in past years to maintain forward-
deployed forces. Department of Navy's shore infrastructure's 
recapitalization cycle recently exceeded 130 years, our deferred 
sustainment is $573 million and our SRM funding has been significantly 
below the private industry average. In fiscal year 2003 the Department 
is making significant increases in (USN $221M, USMC $81.6M) SRM. With 
this effort, our recapitalization rate will be driven down to 83 years 
by the end of the FYDP, and the lowest readiness (C3/C4) areas are 
projected to be eliminated by 2013.
    The Marine Corps made significant progress in ensuring that its 15 
major bases and stations maintain solid training facilities while 
providing an improving quality of service for marines and their 
families. The MILCON program replaces or improves over 950 homes and 
provides new bachelor enlisted quarters for over 1000 marines and their 
families. The program also addresses facility deficiencies providing 
maintenance and training facilities. While Marine Corps military 
construction is below the level necessary to sustain the DOD goal of a 
67-year replacement cycle, the Marine Corps has made great strides in 
sustaining their facilities.
    For most of the last decade, real property maintenance, military 
construction and family housing were bill payers for near-term 
readiness. Recent top line increases have allowed the Department to 
make progress in these important areas however, 
there is still a great deal of room for improvement. In the area of 
facility sustainment, the Marine Corps will achieve the goal of C\2\ 
readiness ratings in all facility-type areas by 2010; however, 
currently 57 percent of Marine Corps infrastructure is at the lowest 
state of readiness (C3/C4). While the DOD goal for plant replacement is 
67 years, the Marine Corps recapitalization rate for fiscal year 2003 
is 125 years.
    There is good news in the area of bachelor and family housing. The 
Marine Corps level of investment in bachelor housing has increased from 
$84 million in fiscal year 2002, to an average of $243 million per year 
across the FYDP. This increase in investment, coupled with the Marine 
Corps decision to build barracks in accordance with a waiver-approved 
2x0 room standard, allow the Marine Corps to achieve our goal to 
eliminate inadequate barracks by 2010. The Marine Corps 2001 family 
housing master plan identified close to 17,700 inadequate family 
housing units with the majority of those units requiring significant 
revitalization or replacement. Increases in basic allowance for 
housing, combined with traditional military construction projects and 
public-private ventures will allow the Marine Corps to eliminate 
inadequate family housing by fiscal year 2005.

              VI. FUTURE READINESS: TRANSFORMING THE FORCE

    The Navy and Marine Corps transformation vision is fundamentally 
about balanced capabilities rather than specific ships, airplanes, 
weapons systems or other technologies. The concepts of Network Centric 
Warfare (NCW) and seabasing will fundamentally transform Joint 
warfighting. NCW will be part of every system and operation in the 
future and will tremendously extend the capabilities of individual 
platforms or systems by expanding the knowledge base, sensor and weapon 
reach, and ability to quickly react. Seabased operations will 
capitalize on NCW and the maneuver space afforded by the sea. Seabasing 
provides a full naval force package, integrated across the amphibious 
task force, carrier battlegroup, force, and combat logistic force. 
Sustained at sea, seabased forces will provide the Joint Force 
Commander with persistence in the battlespace and the capability to 
rapidly project power and influence well inland without the encumbrance 
of vulnerable fixed bases. As the overarching architecture unifying the 
forces and systems within an area of operations and reaching back to 
other forces ashore, NCW and seabasing will be the central tenant of 
Navy and Marine Corps experiments and program developments.
    Navy and Marine Corps priorities for transformation are centered on 
capabilities that support Naval Operational Concepts: assuring and 
sustaining access; projecting power from forward-deployed combat 
credible forces; deterring aggression; and sustaining logistics from 
sea-based forces while minimizing our footprint ashore. Transformation 
activities will be focused on Information Technology (IT) through 
networks, sensors and information processing. Future capability 
requirements are determined through the Battleforce Capabilities 
Assessment and Planning Process developing strong links between 
technology developers, requirements offices, and concept development 
and experimentation organizations.
A. Forces to Support Operations in a Changed World.
    The ``War Against Terrorism'' and the emerging world ahead requires 
a transformational vision of emerging requirements. We envision the 
need for forces that are more dispersed and provide simultaneous 
application of sea control, strike, forcible entry, SOF, sea based 
missile defense, dispersed logistics, strategic deterrence, and 
Maritime Interdiction Operations (MIO). These forces will swiftly 
defeat any adversary's military and political objectives, in anti-
access area denial or other asymmetric environments.
    Evolutionary and transformational improvements in platforms, 
concepts and technology now in the fleet provide more combat capability 
per unit than ever before. Yet there remains a ``quality in quantity 
(of platforms)'' as global readiness, presence and mission needs 
change. A balanced force would reflect in part the following 
considerations:

        <bullet> Surface ships. We will need to distribute surface ship 
        combat power to face global terrorist network threats, take 
        advantage of our network capabilities, and undertake demanding 
        tasks around the globe. Emergent missions may translate to a 
        new demand for additional surface combatants some of which may 
        be new concept ships focused on littoral warfare and others on 
        Theater Missile Defense capabilities.
        <bullet> Amphibious capability. Although the Marine Corps 
        forcible entry amphibious lift requirements remain 3.0 Marine 
        Expeditionary Brigade (MEB) assault echelon equivalents, the 
        fiscal year 2003 budget and FYDP funds 2.5 MEB of lift which is 
        in accordance with the QDR.
        <bullet> Submarines. The submarine force structure is the 
        minimum identified by JCS and other studies. Real world 
        taskings stress this number.
        <bullet> Support/Sustainment Requirements. Global demands 
        implied by new operational concepts may require additional 
        logistics/replenishment assets.

    Transforming to the ``Force-netted'' Fleet. FORCEnet is the 
architecture and building blocks that integrate sensors, networks, 
decision aids, weapons, warriors and supporting systems into a highly 
adaptive, human-centric, comprehensive system. DD(X), CVN(X), SSGN, 
Virginia-class SSNs, San Antonio-class LPD, and Multi Mission Aircraft 
(MMA) are examples of platforms netted for the future. Warfighting 
effectiveness will be achieved through transformational technologies, 
innovative operational concepts through experimentation, and a focused 
procurement program, to realize major increases in our Naval Force's 
combat performance and achieve battlespace dominance.
    While FORCEnet provides the overarching architectures, critical 
subset applications are already being procured--in particular, 
Cooperative Engagement Capability (CEC) and Naval Fires Network (NFN). 
CEC enables real time exchange of fire control quality data between 
battle force units, enabling all to have the identical picture, and to 
conduct cooperative engagements.
    Ultimately, with a common integration of networks, sensors, 
weapons, and platforms networked warfighters can achieve battlespace 
dominance through knowledge superiority and cyberspace exploitation. 
Today's Fleet already has much of tomorrow's capabilities and we are 
pressing ahead to advance these groundbreaking capabilities.
    Key Acquisition Programs: The Transformational Bridge. In addition 
to the highly capable systems now entering the fleet, we are making 
substantial investments in programs that are the bridge to the 
transformed Naval Forces of the future. Programs include the DD(X) 
family of ships, CVN(X), Joint Strike Fighter (JSF), Virginia-class 
SSN, MV-22 Osprey and San Antonio-class LPD. The Navy will also convert 
four Ohio-class SSBNs into cruise missile carrying submarines (SSGNs) 
with special operations capabilities, as well as begin to procure a 
replacement for the aging P-3 series reconnaissance aircraft, such as 
the MMA. These programs are integrated with other ongoing 
transformation efforts to move toward the netted potential of Network 
Centric Warfare. For example, the Joint Tactical Radio system (JTRS) 
revolutionizes wireless communications; CEC successfully completed 
OPEVAL in May 2001; IT-21 is in 182 of our ships; Link 16 is in the 
fleet, and Navy-Marine Corps Intranet is integrating the information 
backbone of the Naval Service.
  Concepts Key to Transformation
        <bullet> Experimentation to realize revolutionary and 
        incremental change
        <bullet> New Manning Concepts for ships and squadrons
        <bullet> Technological innovation speeding the pace of 
        development and insertion
        <bullet> Expanded use of unmanned vehicles above, on, and below 
        the ocean
        <bullet> Sea based forces
        <bullet> All-Electric Warship design could revolutionize the 
        platform from ship design to sensor performance to tactics

    These platforms are coupled with ``process'' transformation, such 
as improved business practices and spiral development, which will 
enable short notice innovation and technology insertion on subsequent 
units in a class. Thus the programs we are launching--DD(X), Virginia-
class SSN, CVN(X), and others--are important not only for the 
capabilities they will bring initially, but also as the bridge to even 
more revolutionary capabilities downstream.
    The DD(X) Family of Ships. DD(X), along with CG(X), and the 
Littoral Combat Ship (LCS), will introduce complementary technologies 
for 21st century warfighting success. Designed from the keel up to be 
part of a netted force, these three new members of the Navy's surface 
combatant fleet will provide precision and volume fires, theater air 
defense and focused mission capabilities supporting littoral access. 
The DD(X) program will provide a baseline for spiral development of 
technology and engineering to support a range of future ships, such as 
CG(X) and LCS, to meet maritime requirements well into the 21st 
century. Some of the most transformational technologies include the 
Integrated Power System, Multi-Function and Volume Search Radars, 
Advanced Gun System, and a Total Ship Computing Environment. These 
technologies will enable the fleet to operate more efficiently because 
of reduced life cycle costs resulting from fuel and manpower savings.
    Future Aircraft Carrier (CVNX). The future carrier force, our 
centerpiece of global access, will incorporate the best of our 
transformation technologies. Each CVNX will provide 50 years of service 
life with growth margin to accommodate advanced equipment and systems 
that permit flexible response options to wide-ranging roles and 
missions. With a new, more efficient nuclear propulsion plant, open 
systems architecture, state of the art C\4\I and greatly expanded 
electrical capacity, these ships will host a future air wing (including 
UCAV/UAV) capable of generating sorties required to strike 1,000+ 
aimpoints per day. CVNX will remain a premier national asset for 
forward presence, mobility/crisis response, and sustained force 
projection.
    Amphibious Warfare. The building blocks of our future expeditionary 
capabilities the Advanced Amphibious Assault Vehicle (AAAV), MV-22 
Osprey aircraft, JSF, and a new generation of modern ground equipment 
allow us to operate from farther over the horizon and deeper into the 
littorals. High Speed Vessels (HSV) and new lighterage will be key 
components of the Seabasing concept. The new AAAV will have triple the 
water transit speeds of older Amphibious Assault Vehicles. MV-22 will 
ultimately increase expeditionary airlift capacity by a factor of three 
while quadrupling range. This will increase joint lethality while using 
greater standoff range to reduce risk to the force. The JSF will 
provide a joint aircraft that avoids unnecessary duplication, yet 
provides leap-ahead technology in an interoperable system.
    The Marine Corps assault echelon amphibious lift requirement 
remains at 3.0 MEBs. It shapes the future amphibious force with the 
number and type of ships required for a flexible warfighting 
capability. The planned force will form ARGs reconfigured or tailored 
to smaller sized independent elements during ``split-ARG/MEU(SOC)'' 
operations. The San Antonio-class LPD 17 is designed to be a principal 
ARG platform, supporting a range of expeditionary capabilities 
discussed above.
    Virginia Class Attack Submarine. The first of a new class of attack 
submarine, Virginia (SSN-774), is being built today. Building a ship as 
quiet as the current Seawolf class, this program has received awards 
for cost reduction and efficiency, but with a 30 percent lower total 
ownership cost and modular design allowing for spiral acquisition and 
insertion of future technologies.
    Combat Logistics. This force is well on its way to completing its 
own transformation from six ship classes down to three classes of 
modern, highly capable, multiple missioned platforms. The newly awarded 
Lewis & Clark-class Dry Cargo/Ammunition ships (T-AKE), the first of a 
12 ship class, will eventually replace the aging T-AFS and T-AE 
platforms, providing increased capacity and combat load flexibility.
    Assets. Prepositioning supports all four services. The current MPS 
program combines the capacity and flexibility of prepositioned sealift 
with the speed of strategic airlift. We continue to pursue both our 
Maritime Prepositioned Force Enhancement (MPF(E)) and Maritime 
Prepositioned Force Future (MPF(F)) programs, enhancing Navy Fleet 
Hospital, Naval Mobile Construction Battalion and expeditionary 
airfield capabilities. The long-term prepositioning program, MPF(F), 
will provide a more robust capability for rapid delivery and 
sustainment of marine forces ashore. It will be more expeditionary and 
contribute significantly towards integration of the seabase in order to 
project naval combat power from the sea in support of joint operations.
    Helicopters. All Navy helicopter missions are being consolidated 
into the MH-60R and MH-60S platforms. These platforms will have a 
common cockpit and common airframe, with equipment tailored to 
particular missions enabling a decrease in the number of maintenance 
personnel required.
B. Technology and Experimentation.
    Investing in Technology. Transformation requires substantial 
investment in S&T to swiftly and effectively leverage emerging 
opportunities. In fiscal year 2003 we increased the investment in RDT&E 
accounts by $1.1 billion. Enhanced capability will be achieved via 
prioritized investments focusing on networks, sensors, weapons and 
platforms. Continued investment in S&T is essential in this time of 
extraordinarily rapid technological change and to ensure 
technologically superior naval capabilities will be available when 
required. The Navy's Warfare Centers and Navy Systems Commands, along 
with leading researchers in the Naval Research Laboratory and the Naval 
Postgraduate School, as well as the Nation's universities and industry, 
continue to forward fresh and innovative ideas for investigation and 
development. These will include:

        <bullet> Integrated Power Systems (IPS). Electric propulsion, 
        envisioned for future surface and submarine platforms, will 
        enable integrated powering of all propulsion, combat systems, 
        and ship services, thus enhancing warship capability.
        <bullet> Unmanned Vehicles and Distributed Sensors. Naval UAVs 
        will provide the battlegroup and MAGTF commanders with 
        essential near-real time imagery and data required to support 
        ISR requirements independent of, or in concert with, the use of 
        manned aircraft or limited joint theater or national assets. 
        Furthermore, $76 million for unmanned underwater vehicles 
        begins to provide similar capabilities in the underwater 
        environment.
        <bullet> Intelligence. Navy and marine forces will enhance 
        their organic intelligence capabilities by accessing and 
        leveraging national, theater, service, and coalition 
        intelligence assets and support through a comprehensive ISR 
        network. Emerging threats and strategic environments demand 
        broadened intelligence capabilities to support forces engaged 
        in combat against asymmetric threats, international terrorism, 
        military operations other than war, operations in urban 
        environments and IO.

    Space. The Navy and Marine Corps will continue to pursue the 
maximum use of space to enhance our operational capabilities. We look 
to leverage existing systems and rapidly adapt emerging technology.
    Ballistic Missile Defense. A viable theater and area sea based 
ballistic missile defense system is important to assure the safety of 
U.S. forces and the flow of U.S. forces through foreign ports and air 
fields when required. Sea based missile defense can also allow us to 
assist allies and friends deterring coercion and threats. We must solve 
the technical issues to field an effective system.
  Key Investments for Netted Warfare Success
        <bullet> FORCEnet the overarching structure for Network Centric 
        Warfare systems, including

          <bullet> Naval Fires Network (NFN)
          <bullet> Cooperative Engagement Capability (CEC)
          <bullet> Expeditionary Sensor Grid (ESG)
          <bullet> Expeditionary C\5\ Grid (EC5G)
          <bullet> Common geotemporal reference of networked knowledge 
        (4D-Cube)

        <bullet> Information Technology for the 21st Century (IT21)
        <bullet> Navy-Marine Corps Intranet (NMCI)
        <bullet> SSGN
        <bullet> Organic Mine Countermeasures (OMCM)
        <bullet> Maritime Prepositioning Force (Future) (MPF(F))
        <bullet> E-2C Radar Modernization Program (RMP)
        <bullet> Unmanned Aerial Vehicles (UAVs)
        <bullet> Unmanned Combat Air Vehicles (UCAVs)
        <bullet> Unmanned Undersea Vehicles (UUVs)
        <bullet> Advanced Electronically Scanned Array (AESA) Radar
        <bullet> E-2C Radar Modernization Program (RMP)
        <bullet> Link-16 network
        <bullet> Multifunction Information Distribution System (MIDS) 
        data link
        <bullet> Distributed Common Ground Station
        <bullet> Joint Tactical Radio System (JTRS)
        <bullet> Lightweight Mobile Satellite Terminals
        <bullet> Unit Operations Center
        <bullet> Mobile User Objective System

    Joint/Fleet Experimentation. The path to transformation will 
involve a robust program of experimentation and concept development 
with new capabilities and operational prototypes while pursuing S&T 
efforts. We have ongoing initiatives to translate concepts such as the 
Navy's Network Centric Warfare (NCW) and the Marine Corps' 
Expeditionary Maneuver Warfare (EMW) into reality. This summer's 
Millennium Challenge 2002 exercise will include experiments by each 
Service, coordinated together by Joint Forces Command.
    Fleet Battle Experiments (FBEs). NWDC and the Marine Corps Combat 
Development Command (MCCDC) develop and refine future warfare ideas, 
tactics and doctrine in areas such as knowledge superiority and access, 
time critical strike, organic mine countermeasures, autonomous 
operations, littoral antisubmarine warfare, platform and war fighter 
protection, missile defense, enhanced modeling and simulation 
developments and expeditionary logistics. Navy FBEs and Marine Corps 
Advanced Warfighting Experiments test these new doctrines and ideas in 
the field, assess the utility of new technologies, explore new 
operational capabilities and organizational arrangements, and feed the 
empirical results back to the development commands. Both Services are 
collaborating to ensure that Navy and Marine Corps future development 
and transformation is completely compatible and complementary.
C. Leveraging Organizational Capital
    Organizational Alignment. Alignment means having all our 
organizations acting coherently to achieve our overall objectives. To 
extract the maximum advantage from our resources and provide a high 
rate of return on our investments, we need to know our core 
requirements and state them accurately. Our continued success also 
requires organizational speed and agility to capitalize on new 
opportunities.
    To this end the Navy took significant steps to align its 
organizations more effectively. The Commander, U.S. Fleet Forces 
Command (CFFC) was created to integrate policies and requirements for 
manning, equipping, and training all fleet units. Reorganized 
directorates tied closely to the fleet now lead the warfare 
requirements generation (N7) process while the resources and assessment 
group (N8) validates and prioritizes those requirements in the 
programming and budgeting process. The Navy has also established 
advocate organizations for fleet and ashore readiness (N4), to ensure 
that readiness issues have a higher profile in the Planning, 
Programming, and Budgeting System (PPBS) process. The Navy has closely 
examined organizational alignment options for enhancing delivery of IT, 
IO and space capabilities to the fleet. The Department intends to 
consolidate and align existing space, IT and IO commands to provide 
this management structure in direct support of our fleets.
    Better Business Practices. Key to achieving transformation is 
changing the Department's business practices, finding efficiencies, and 
moving bureaucracy dollars to the battlefield. To buy greater numbers 
of ships and aircraft a balance needs to be struck between the 
competing demands of current readiness, procurement, innovation, and 
experimentation. Better business practices are essential for freeing up 
resources for enhanced procurement and transformation. All Navy 
leaders, uniformed and civilian, are now thinking in terms of maximum 
productivity, minimum overhead, and measurable output. Every dollar the 
taxpayers entrust to us for the Nation's defense needs to be spent 
wisely.
    Navy processes and organizations that equip, maintain, train and 
otherwise support operational forces are beginning to transform in 
concert with the 21st century Naval Force. These processes and 
organizations will be agile, responsive, and cost-effective. They 
provide for rapid identification, testing, and introduction of new 
technologies to stay ahead of the threat, streamline development cycle 
times, optimize human system integration, and provide customer support 
second to none. Our future readiness and force structure will introduce 
new systems using spiral acquisition programs and better business 
practices that allow for introducing innovative and transformational 
technology improvements into successive units of similar classes. By 
implementing these practices we will be able to shift more dollars into 
combat capability.
    The Marine Corps has taken major steps to improve its business 
practices through the comprehensive implementation of Activity Based 
Costing and Management (ABC/M) methods at all of its installations. 
These efforts for achieve efficiencies and enable increased 
productivity at lower costs. These steps enable more rapid 
transformation of Marine Corps warfighting enhancements.
    We are also working to replace other business processes and to 
revise the current PPBS. Efficient organizations are clearly more 
effective, and we need to work continuously to improve processes 
throughout the naval services. Prosecuting the war is our first 
priority, but our area of responsibility includes the business of war 
and overseeing the vast infrastructure that supports warfighting. We 
cannot fully prosecute the latter without fully improving the former.

                              VII. SUMMARY

    At the dawn of the 21st century, the Navy and Marine Corps are 
uniquely positioned and configured to respond to the challenges the 
Nation faces. Steeped in a tradition of operating deployed, Naval 
Expeditionary Forces assure access, swiftly responding to threats to 
U.S. interests often in areas where access may be restricted, withheld, 
or denied. Naval Forces fight and win; they are capable of initiating 
and sustaining nearly unlimited combat operations on the sea, land, and 
in the air without the burden or liability of a logistics tail or host 
nation support. Once again in Operation Enduring Freedom and ``War 
Against Terror,'' on station Naval Forces were first to respond, first 
to fight, and first to secure U.S. interests.
    Naval Forces are continually transforming. We are building on a 
winning team, leveraging both current and transformational 
capabilities. The ability to transform is at the heart of America's 
competitive advantage.
    We are the finest Naval Force in the world. While we face the 
challenges of recruiting and retaining the best people, maintaining 
adequate force structure, recapitalizing an aging infrastructure, and 
fighting both symmetrical and asymmetrical threats, we are clear of 
purpose, focused on the future, and confident in our capabilities. By 
successfully meeting the challenges outlined above, we remain ready to 
assure allies and friends, deter potential adversaries, and defeat 
enemies while providing our Nation the most flexible instrument of 
military capability.
    The fiscal year 2003 President's budget request continues to build 
on the improvements funded in fiscal year 2002. With continued strong 
Congressional support we will continue this year, and in coming years, 
the transformation and recapitalization of our Nation's already potent 
Naval Forces.

    Chairman Levin. Thank you, Secretary England.
    Secretary Roche.

  STATEMENT OF HON. JAMES G. ROCHE, SECRETARY OF THE AIR FORCE

    Secretary Roche. Mr. Chairman, Senator Warner, members of 
the committee: It is an honor to come before you today 
representing the Air Force team and accompanying my esteemed 
colleagues from the Army and the Navy. We are committed to 
succeed together in our task to provide for this Nation's 
security now and in the foreseeable future. You have our full 
attention and we are ready to get down to the important 
business at hand.
    Like my colleagues and with your permission, Mr. Chairman, 
I would like to make a short opening statement and request that 
my written statement of the Air Force 2002 posture statement be 
included in the record. Thank you, sir.
    Mr. Chairman, America's Air Force has recently been 
afforded numerous opportunities to implement and validate 
significant changes in the concepts of military operations and 
indeed the conduct of war. With the support of the Secretary of 
Defense, we have encouraged and exploited the rapid advancement 
and deployment of innovative technologies. We have already 
begun to reorganize and find efficiencies throughout the Air 
Force and we have taken significant action to implement the 
findings of the Space Commission in our new role as the 
Department of Defense's executive agent for space. I am 
especially grateful to have on board now Mr. Peter Teets, our 
Under Secretary and Director of the National Reconnaissance 
Office, whose experience, wisdom, and leadership will be 
invaluable as we take this mission on.
    We proceed, however, hungry rather than complacent, 
recognizing that much work and many opportunities to improve 
await us. Despite our dedication to demanding, critical, and 
global operations, we have not faltered in our steps to 
continue the task of transforming our force to match the 
demands of this new century. Operations Northern Watch and 
Southern Watch, Mr. Chairman, have quietly amassed a total of 
almost 200,000 sorties in combat missions that have continued 
now for over a decade. Operation Enduring Freedom has demanded 
over 14,000 sorties, some of which have broken records in 
mission range, hours flown, and combat reconnaissance. Tanker 
support to joint operations, close to 6,000 tanker sorties to 
date just in Operation Enduring Freedom, plus another 4,200 in 
Operation Noble Eagle. Mobility demands and humanitarian 
tonnage delivered have all been unprecedented.
    For the first time in the history of warfare, the entire 
ground operation in landlocked Afghanistan--infiltration, 
exfiltration, sustainment of supplies and support equipment--
has been accomplished by air. In Operation Noble Eagle over the 
skies of America, over 11,000 airmen, 265 aircraft, and 350 
crews from the Air National Guard, Air Force Reserve, and 
Active Air Force have flown over 13,000 tanker, fighter, and 
airborne early warning sorties. Mr. Chairman, we have NATO 
AWACS over the United States at this time, five aircraft, and 
we expect possibly two more. I will be going down to Tinker Air 
Force Base to personally thank them in a week and a half.
    As we work to complete our transformation, Mr. Chairman, 
support our people, and inspire the military-industrial base to 
become an even more efficient team, our vision remains a total 
air and space force, providing global reconnaissance in strike, 
including troops and their support, across the full spectrum of 
operations. Our more pressing and significant challenges 
include:
    Providing persistent intelligence, surveillance, and 
reconnaissance across a critical section of a distant country 
in all weather scenarios, 24 hours a day, 7 days a week, for up 
to a year; and
    Developing the ability to provide near-instantaneous ground 
attack from the air, precisely, with a wide variety of strike 
systems, including naval, marine, as well as Air Force, by 
working closely with troops on the ground equipped with 
powerful sensors and communication links, as well as with a 
portfolio of off-board sensors and platforms, including UAVs.
    Mr. Chairman, it was Secretary White and myself in the 
company of Secretary Wolfowitz who worked hard on the idea of 
linking sergeants on the ground by virtue of GPS, computer, and 
certain types of binoculars with laser range finders to our 
aircraft in the air, and that has proven so dramatically 
successful. It is an example of our Air Force working with the 
Army as the Army develops an Objective Force to be able to 
provide instant power to those troops on the ground.
    We need to define and pursue the optimum space architecture 
to fully integrate space assets into global strike operations 
from the air, land, and sea. We are developing our role in 
homeland defense and trying to arrive at a steady state of 
roles and responsibilities among our Active Air Force, Air 
National Guard, and Air Force Reserve. Our question is how long 
do we have to maintain the Operation Noble Eagle status as it 
is now? What is the steady state in those circumstances?
    We must complete and implement our long-term strategy for 
our air logistics centers and we must modernize the tanker and 
the intelligence, surveillance, and reconnaissance capabilities 
we will need in the years ahead. Here I am particularly 
concerned that we have been demanding so much for so long of 
our aged 707 airframes, that we are soon to find ourselves in 
the same predicament as the proverbial king of medieval 
England. For want of a horseshoe, the horse lost a shoe, lost 
the horse, lost the king, lost the kingdom.
    I note, sir, that 55 percent of our tankers in the area of 
operations, area of responsibility, have been for our Navy 
brethren. The KC-10, which was purchased a number of years ago, 
has been just a stalwart of being able to support our Navy 
brethren.
    We are also developing concepts and strategies to 
seamlessly integrate our manned and unmanned systems, something 
brand new for us. We remain particularly focused on retaining 
our people, especially those in mid-career, who will benefit 
from the provisions of this budget for improved family housing, 
pay, and facilities. I wish to pass on the thanks of many of 
the troops I met overseas who wanted to say thank you to the 
committee for its leadership in their pay circumstances.
    Mr. Chairman, America's Air Force is able to perform the 
extraordinary feats asked of us because we are blessed with the 
full support of the American people, Congress, and the 
President of the United States, all of whom have been 
graciously supportive of our efforts and missions. We sincerely 
appreciate the confidence in our commitments and our 
capabilities, as well as the wisdom, vigilance, and patriotic 
sense of duty that join us in our journey to provide our great 
Nation with superiority in air and space throughout the 
century.
    As you go to the area of responsibility as I have, you will 
be proud of the airmen you meet and the Air Force you and your 
colleagues in Congress have raised and maintained. Thank you 
very much, sir.
    [The prepared statement of Secretary Roche follows:]

             Prepared Statement by the Hon. James G. Roche

    Mr. Chairman and members of the committee, the Air Force remains 
focused on transformation. It is a continuous journey, and fundamental 
to succeeding in the joint services' task to provide for this Nation's 
security. This fiscal year 2003 budget takes significant strides along 
this path, and will enable us to remain the world's most capable air 
and space force.
    During the past year, the Air Force has had numerous opportunities 
to implement and validate significant changes in the conduct and 
strategies of war, exploit the rapid advancement of innovative 
technologies, and deliver global reconnaissance and strike for 
America's national security. Our successes are America's successes; 
they are the direct result of the tireless and unconditional service by 
men and women of the Total Air Force and their families.
    We recognize much work and many opportunities to improve await us. 
Despite our unassailable dedication to a demanding operational pace at 
home and abroad--including Northern Watch, Southern Watch, Noble Eagle, 
and Enduring Freedom--we have not faltered in our steps to continue the 
tasks of our unprecedented transformation. We are pressing forward to 
develop and refine our operational and organizational processes and 
strategies to address the changing national security and economic 
environments. We are focusing on the horizontal integration of our 
manned, unmanned, and space assets in order to provide real-time 
actionable, exploitable intelligence to commanders. We are committed to 
leveraging technology to combine our air and space capabilities in 
order to increase asymmetric advantages for our Nation. As our 
transformation continues, we will support our people, revitalize the 
military industrial base, and seek efficiency at every turn. We are the 
world's preeminent Air and Space Force, remaining true to our vision by 
providing global vigilance, reach, and power across the spectrum of 
military and humanitarian operations for America and our allies.
    We are able to perform the extraordinary feats asked of our Air 
Force because we are blessed with full endorsement from the American 
people, Congress, and the President of the United States--all of whom 
provide unwavering support to our efforts and missions. We sincerely 
appreciate this confidence in our commitment and our capabilities to 
provide our great Nation with superiority in air and space throughout 
this century.

                                PREFACE

    If Americans had not fully understood the idea of ``asymmetry'' 
before September 11, they received a horrific education on that day. In 
a lesson reminiscent of one 60 years earlier, air assets were employed 
in a malicious fashion on an unsuspecting people. This time, however, 
the attacks resonated a particular evil, for civil airlines were used 
to wreak destruction and death upon civilians.
    The World Trade Center, the Pentagon and a field in Pennsylvania 
were the battlefields of asymmetric warfare. A terrorist group 
exploited the United States' asymmetrical vulnerabilities, far in 
excess of their relative size and the physical results of the attacks. 
Within minutes of these attacks, the United States, through Operations 
Noble Eagle and Enduring Freedom, was providing education on an 
asymmetry of its own making--the object lesson of joint and combined 
warfare visited on the perpetrators of the September 11 strikes. The 
Air Force is fully prepared to execute the missions required--with our 
air, space and special forces assets--to carry this global war on 
terrorism to its conclusion, ending as President Bush declared, ``at a 
time and place of our choosing.''
Operation Noble Eagle (ONE)
    Operation Noble Eagle unofficially began 3 minutes after North 
American Aerospace Defense Command (NORAD) received word from the 
Federal Aviation Administration of two hijackings. F-15 Air Defense 
fighters from Otis Air National Guard base in Massachusetts raced 
toward the skies over New York. Thirty minutes later, a similar attack 
unfolded in DC. Within minutes, Guard F-16s from Langley AFB were on an 
intercept track while other Guard F-16s headed to the skies over the 
Capital. Though notified too late to thwart the attacks, the jets were 
in place to stop any further strikes, including the aircraft that 
crashed in Pennsylvania.
    Within hours of these attacks, the Air Force had established combat 
air patrols across America with air refueling support to keep them 
aloft, and command and control assets to direct them. By December, 
these sorties exceeded 8,000. Meanwhile, as the Air Force air defenses 
secured the skies, numerous other combat support enablers--strategic 
and tactical lift, civil engineers, medical teams, combat 
communications, command centers, chaplains, and security forces--rolled 
into action. The Air National Guard generated over 100 C-130s to 
support the movement of FEMA, FBI, human organs and blood, Combat 
Support Teams (CSTs), medical equipment, and combat communications. In 
addition, over 70 personnel arrived from Andrews AFB to help coordinate 
emergency medicine at the Pentagon alongside the Surgeon General of the 
Air Force.
    Within 24 hours, the Air Force swiftly deployed 500 medics to 
McGuire AFB, to respond to any Federal Emergency Management Agency 
(FEMA) tasking for equipment and/or personnel needed at the World Trade 
Center. State-of-the-art medical emergency facilities were assembled, 
which included four Expeditionary Medical Support packages (EMEDS) 
(lightweight modular systems). Critical Care Air Transportable Teams 
(CCATT), which provide emergency medical attention while in-flight, 
were quickly established at both the Pentagon and McGuire AFB. The port 
mortuary also was activated, with over 600 Air Force Active duty, Guard 
and Reserve personnel deploying to Dover AFB. They assisted in the 
identification and preparation of the remains of the Pentagon attack 
victims, working alongside the Armed Forces Medical Examiner, FBI, Army 
and Navy personnel. Critical Stress Management Teams conducted 
counseling to personnel assigned to recovery efforts at both locations. 
Finally, since the National Disaster Medical System was activated, the 
Air Force Medical Service (AFMS) also set up its aeromedical evacuation 
assets at both McGuire AFB and Andrews AFB.
    Meanwhile, demonstrating their invaluable integration in the Total 
Force, Air Force Reserve and Air National Guard airlift crews were 
among the first to bring in critical supplies, equipment and personnel, 
including emergency response teams from FEMA, fire trucks, search dogs, 
and earth moving equipment. At the time of this writing, more than 
10,000 Air Force reservists and over 20,000 Air National Guard members 
have been mobilized, and many more continue to provide daily support as 
volunteers. Thousands of Air National Guardsmen, reservists, civilians, 
contractors, and Active duty members are ensuring air and space 
security over America.
Operation Enduring Freedom (OEF)
    When the President decided on a the appropriate course of action, 
air and space forces were called into action. At the outset, Air Force 
bombers proved instrumental to putting weapons on targets in 
Afghanistan. The vast mobility capabilities of the Air Force quickly 
moved assets into the theater, while simultaneously making possible 
Navy and Air Force fighter attacks.
    Enduring Freedom also revealed an improvement from even the most 
recent operations. Air and space precision assets paired with multi-
service special forces on the ground proved an effective, efficient and 
devastating mix of capabilities. Additionally, we have pushed 
developing technologies forward and have found operational successes in 
advanced employment of Unmanned Aerial Vehicles (UAVs).
    This operation is about creating effects--deterrence and defeat of 
terrorism--so it is more than simply munitions-on-targets. The Air 
Force is at the forefront of psychological campaigns, applying robust 
information warfare campaigns while also leading the humanitarian 
relief mission--essential to any long-term stability in the region. 
Airdropping millions of rations to a starving people, Air Force 
mobility forces directly affecting affected the future of the new 
Afghan government.
``Let's Roll!''
    As it has throughout its history, America will champion the cause 
of freedom and defeat those who would attempt to deny us this most 
basic tenet. Guaranteeing our success is . . . ``the strength of our 
country--the skill of our people and the superiority of our 
technology.''

                              INTRODUCTION

    The world's premier Air Force begins 2002 under new leadership. The 
Secretary and Chief of Staff bring unique and complementary experiences 
to bear upon the dynamic promise of American air and space power in the 
21st century. The Air Force is in the business of global reconnaissance 
and strike, including the full application of unparalleled mobility 
forces. Our efforts are fuelled by a vision of Global Vigilance, Reach, 
and Power to help the Nation assure our allies and friends, while 
dissuading, deterring or decisively defeating any adversary. The 
specific concept of ``core competencies'' \1\ well known among 
successful organizations has been adapted by Air Force leaders to 
characterize the capabilities that are central to our mission: air and 
space superiority, information superiority, global attack, precision 
engagement, rapid global mobility, and agile combat support.
---------------------------------------------------------------------------
    \1\ According to two leading scholars, successful enterprises 
``consolidate corporate-wide technologies and production skills into 
competencies that empower individual organizations to adapt quickly to 
changing opportunities.'' The three identifying characteristics of core 
competencies are: (1) They transcend a single product or service and 
provide potential access to a wide variety of markets; (2) they are 
perceived by customers to deliver significant benefit; and (3) they 
should be hard to imitate. See C.K. Prahalad and Gary Hamel, ``The Core 
Competence of the Corporation,'' Harvard Business Review, May-June 
1990.
---------------------------------------------------------------------------
    The Air Force, and the Nation, entered 2001 aware of the challenges 
and opportunities of a new administration. The Department of Defense 
was to undergo significant evaluation, with the expectation of dramatic 
changes to follow. President Bush brought an eminently qualified team 
to Defense and National Security, and the Air Force welcomed the 
injection of energy and attention the Nation's defense was to receive. 
Long a force for innovation, airmen continued their leadership 
throughout the months of military reinvention. Capabilities-based 
planning was emerging as the Quadrennial Defense Review (QDR) focal 
point, and the Air Force strove to maximize the assessment of new 
technologies, revolutionary concepts of operation and visionary 
organizational changes. However, amidst this important task, terror 
struck the United States. The Air Force, and the Nation, exited 2001 at 
war.
    This new adversary, and those of the future, will pose a formidable 
challenge to American interests at home and abroad. They will attempt 
to intimidate, deter or defeat our Nation through a variety of means, 
to exploit our asymmetrical vulnerabilities and avoid confronting U.S. 
military power directly. These strategies will include the use or 
threatened use of weapons of mass destruction, and the use of terrorism 
on U.S. soil. They will also attempt to counter the tremendous 
asymmetric advantages of U.S. air and space power.
    To meet these challenges, Air Force strategy calls for a 
capabilities-based approach to defense planning. This enables the 
Service to answer a broad range of challenges posed by potential 
adversaries, while also developing the capabilities it needs for the 
future. This capabilities-based planning must remain tied to ongoing 
Air Force transformation that continues to develop new technologies, 
concepts of employment and organizational adaptations.
The Road Ahead
    The transformation of the military now runs parallel to the 
transformation of our Nation. Just as the military is exploring new 
capabilities and concepts of operation (CONOPs) to engage threats, 
America as a whole is experiencing new appreciation for the cost of 
freedom. The Air Force, the Department of Defense and the American 
people are up to the challenge.
    Though a shock, the events of September 11 did not fundamentally 
alter the course for a transformed military; rather, they served as an 
affirmation of our current direction. Turning away from decades of 
restrictive force-to-threat planning, the Air Force along with the 
Defense Department is on course to define desired effects, and then 
secure capabilities which allow us to reach that end. Additionally, the 
QDR and the Defense Planning Guidance (DPG) address organizational 
changes, which add to the effectiveness of new military methods.
    This describes the heart of Air Force transformation. Assessing 
existing and potential adversaries' capabilities against our own, we 
are developing Task Forces for a variety of mission requirements, from 
strategic response to homeland security. For example, Global Strike 
Task Force, which describes how we will operate in an anti-access 
scenario, is the next step in our journey to fully achieve our mission 
while also opening doors to adaptive and innovative operational plans, 
and inspired relevant organizational structure.
    In order to draw the greatest effectiveness from these 
capabilities, the Air Force will exploit America's technical dominance 
to elevate our asymmetric advantage over any adversary. This involves 
harnessing the attributes of stealth, precision, standoff, space, and 
information technology. The success of our capabilities-based CONOPs 
depends upon reducing the find, fix, track, target, engage, and assess 
(F2T2EA) cycle and achieving persistent ISR capabilities. Key to this 
is the horizontal integration of manned, unmanned, and space assets. By 
facilitating digital conversations at the machine-level we will provide 
the Joint Force Commander with the decision-quality information 
required to ensure success--the ``sum of the wisdom'' resulting in a 
cursor over the target. With determined exploration and exploitation of 
space capabilities--culture, principles, personnel and assets--we will 
widen our asymmetric advantages and set the bar beyond reach of any 
adversary. Such transformation will guarantee America's Global 
Vigilance, Reach, and Power--establishing powerful national mechanisms 
to assure, dissuade, defeat or deter.
    These are the building blocks to true transformation--
technologically elevated capabilities, focused CONOPs and embedded 
structural changes. The Air Force remains at the forefront of each of 
these transformational elements. We ensure the freedom to operate 
around the globe and in the sky and space above, under any 
circumstances, and for whatever mission the Nation requires. This is 
asymmetry--exploitation of capabilities no other force in the world 
possesses--and it is fundamental to redefining jointly fought warfare 
on America's terms. Maintaining this advantage is critical, and a 
constant challenge. In the year ahead, we will meet this test by 
solidifying the roots of our success: Readiness, Transformation, and 
the resource that makes these possible--our People.

                           THE YEAR IN REVIEW

    In 2001, the Air Force had an enormous impact on the peacekeeping 
and combat missions around the world. From the Korean Peninsula to 
Kabul, across every continent and over all bodies of water, Air Force 
civilian, Active, Guard and Reserve Forces were executing global 
reconnaissance and strike missions. Through combined exercises, 
humanitarian interaction around the globe, and decisive combat action, 
we assured our friends and dissuaded, deterred or defeated our 
adversaries.
    In the Balkans, contributions to the region included fighter, 
tanker, command and control, ISR, and airlift aircraft. Combat search 
and rescue (CSAR) forces, special operations units and unmanned aerial 
vehicles (UAVs) also flew in support of the operation. In 2001, the Air 
Force flew approximately 1,000 sorties, enforcing no fly zones over the 
former Yugoslavia.
    In Southwest Asia (SWA), the Air Force maintained a continuous, 
steady-force presence of more than 8,000 airmen in support of 
Operations Northern Watch (ONW) and Southern Watch (OSW). Air Force ISR 
assets provided crucial intelligence and situational awareness, 
particularly in the form of indications, warning and intelligence. We 
were the vital element in monitoring Iraq's compliance with United 
Nations' directives. Coalition forces flew over 22,000 combat sorties 
in SWA during 2001, 70 percent of which were flown by the Air Force.
    In response to the terrorist activity of September 11, we began 
providing support to homeland defense via Operation Noble Eagle and 
support to the war against terrorism via Operation Enduring Freedom. By 
the end of 2001, we had flown 11,000 combat air patrol, surveillance, 
and refueling sorties protecting U.S. cities and other high-value 
assets. We also maintained an alert readiness status on the ground in 
order to scramble and intercept threat aircraft. Nearly 14,000 airmen 
have deployed to Southwest Asia in support of Enduring Freedom. This 
number represents nearly every specialty in the Air Force, from 
engineers to explosive ordnance disposal, pilots to special operators. 
Of the over 18,500 total coalition sorties flown, almost 46 percent 
have been flown by the Air Force. These sorties included fighter, 
tanker, command and control, special operations, UAV, ISR, and airlift 
aircraft. Initially, the Air Force was the sole provider of airlift for 
humanitarian relief to the people of Afghanistan. By the end of 
December, Air Force mobility teams had delivered over 2.4 million 
humanitarian daily rations and over 4,300 tons of wheat, rice, and cold 
weather gear. Ultimately, in the land locked country of Afghanistan, 
everything brought in to build up and sustain our forces was brought in 
by air.
    The Caribbean and South America continued to be the focus of the 
ongoing war on drugs. Counter-narcotic missions were flown around the 
clock by all interagency organizations. The Air Force contributed 
aircraft and crews flying missions as fighter-interceptors, airlift, 
ISR and CSAR. Of the almost 3,000 sorties flown, the Air Force flew 
approximately 25 percent. These efforts directly contributed to 
seizures that totaled over 75,000 kilos of narcotics.
    Establishing operational imperatives for 2001 and beyond, the 
Secretary of Defense named the Air Force as executive agent for 
national security space. We now shoulder the responsibility for 
planning and programming of space systems for the Department. The 
Secretary and Under Secretary of the Air Force will direct efforts to 
nurture a space culture and ensure that the advancement of space 
capabilities receives focused and heightened emphasis. Throughout the 
year, we also maintained approximately 100 satellites in earth orbits 
that directly supported, and continue to support, not only the Air 
Force but also the other Services and the civilian population. Global 
Positioning Satellites assisted travelers worldwide. Data provided by 
Air Force weather satellites and communications and missile launch-
detection satellites was used by all services. In order to maintain 
this robust capability, we launched, deployed, and initialized 
operations of eight additional assets in 2001.
    The Air Force provided an American presence in regions of the world 
where the U.S. is working to build goodwill and improve relations. It 
also enabled quick humanitarian relief during natural and man-made 
disasters. During the month of January, following a devastating 
earthquake in India measuring 7.7 on the Richter Scale, two C-5s and 
four C-17s transported 115 short tons of humanitarian cargo to 
Ahmedabad, India. In April, a C-17 airlifted 10 cheetahs from Africa to 
America as part of a gift to the United States from the people of 
Namibia. Additionally, Air Force engineers from Active and Air Reserve 
Component RED HORSE units accomplished several school construction and 
water well drilling humanitarian projects throughout Central and South 
America.
    When the floodwaters rose in Houston in June, a C-17 transported 
Federal relief workers and 30,000 pounds of relief supplies to Texas. 
Additionally, the Air Force deployed a 92-person Expeditionary Medical 
Support System (EMEDS) to the area to relieve local hospital emergency 
rooms workload. The EMEDS cared for over 1,000 patients from this 
disaster, and the AMS envisions placing EMEDS throughout the country to 
offer added future regional quick-response capabilities. Later, in 
August and September, Air National Guard and Air Force Reserve C-130 
aircraft equipped with modular airborne fire-fighting systems flew 185 
missions and dropped over 800,000 gallons of fire suppressant on 
wildfires in Idaho and California. Additionally, they flew 45 support 
sorties lifting 414 firefighters and over 300,000 tons of cargo into 
the area.
    Whether at home or abroad, in combat, humanitarian operations or 
training, we strive to accomplish the mission effectively, efficiently 
and safely. Effective risk management directly contributes to readiness 
and warfighting capability. In 2001, a combination of targeted mishap 
prevention efforts and chain-of-command commitment resulted in 
sustained low mishap rates in all major areas. On the ground, a record 
low was achieved for off-duty sports and recreation fatalities with 
four total. In the on-duty ground fatality category, the Air Force tied 
the fiscal year 1998 all time record low of three. In the air, Class A 
Flight Mishap performance yielded the third lowest mishap rate in USAF 
history.
    The Air Force-wide fielding of safety tools and metrics such as the 
web-based Safety Automation System continues to improve operational and 
acquisition risk management decision-making. These efforts, coupled 
with aggressive seasonal safety campaigns, enable leaders at all levels 
to take proactive action aimed at specific trend areas. The Air Force's 
commitment to safety as a combat multiplier continues to enhance force 
preparedness and mission accomplishment.
``The Expeditionary Air and Space Force (EAF) After 2 Years''
    Our considerable mission accomplishments in 2001 have in large 
measure been made possible by the continued maturation of the EAF. 
Throughout the year, we called upon all facets of our Air Force--
Active, Guard, Reserve, civilian, and contractors--to meet the demands 
of the war on terrorism and our steady-state commitments. In addition 
to the rotational deployments in support of OSW, ONW, Icelandic 
Operations, and counter-drug operations; we were called upon to support 
wartime efforts at home with ONE, and overseas with OEF. The large 
demand on the Air Force increased the OPSTEMPO drastically and placed a 
sizeable stress on our most valuable asset, our people. The Air Force 
is stretched thin, standing up several expeditionary bases overseas 
while at the same time defending the skies over the U.S. with numerous 
aircraft on ground and airborne alert. Our people have risen to the 
occasion in winning this war. We will maintain the Air and Space 
Expeditionary Force (AEF) structure throughout this effort to the 
maximum extent possible however, everyone in the Air Force realizes the 
mission has changed and the requirement to deploy for longer periods of 
time may increase.
The Expeditionary Air and Space Force--Sum of the Parts
    Often misunderstood is the difference between the elements that 
collectively define the Expeditionary Air and Space Force. Whereas the 
EAF is a construct (including everything within the ball above) and is 
the Total Air Force, the AEFs are a subset and represent the core of 
our deployable combat power and forward presence capability. The EAF 
also enables the Air National Guard and the Air Force Reserve to 
participate more heavily in Air Force expeditionary operations. The 
increased predictability of the AEF rotation cycle allows us to 
schedule voluntary participation well in advance. This voluntary 
participation currently provides about 25 percent of the aviation 
package and 10 percent of the Expeditionary Combat Support. This 
support brings both OPSTEMPO relief as well as highly trained and 
skilled talent to the operations. This interaction lays the basis for 
the development of our transformational initiative, Future Total Force 
(FTF) (explored in Chapter 4).
    AEF Prime consists of operational capabilities neither organically 
assigned to AEFs, nor incorporated in the rotational cycles. This 
includes regional command and control, intelligence, space, special 
operations, and the umbrella of deterrence provided by our nuclear 
forces. AEF Prime enables much of the global reachback we rely on for 
logistics and analysis.
    AEFs are not individual organizations, autonomous fighting forces, 
or units. Instead, our 10 AEFs represent buckets of capabilities the 
Air Force can draw upon to satisfy the requirements of theater 
commanders--flexible, responsive, adaptable. A nominal AEF has about 
12,600 people supporting 90 multi-role combat aircraft, 31 intra-
theater airlift and air-refueling aircraft, and 13 critical enablers. 
The enablers provide command, control, communications, intelligence, 
surveillance, and reconnaissance, as well as combat search and rescue. 
AEFs are composed of squadron and sub-squadron elements, which are on-
call for a period of 3 months in a 15-month cycle. If deployed, forces 
from AEFs make up Air and Space Expeditionary Task Forces (AETF). 
Finally, we have two Air and Space Expeditionary Wings (AEWs) that 
provide crisis response capability beyond what the two in-cycle AEFs 
can cover. They also contain unique capabilities, such as stealth 
aircraft, that are not distributed across the 10 AEFs.
    Air Force Reserve Command made major AEF contributions in 2001 
having met virtually 100 percent of both aviation and combat support 
commitments, while also deploying 14,000 plus personnel in volunteer 
status in the current 15-month AEF cycle (1 Dec 00--28 Feb 02). The 
challenge for 2002 will be to meet ongoing AEF commitments with 
volunteers from a Reserve Force which has had a large portion of its 
operations and combat support mobilized for homeland defense and the 
war on terrorism.
    The Air National Guard alone contributes nearly 25,000 men and 
women every 15 months to the AEF rotations. During AEF cycles one and 
two thus far, Guard units provided over 20 percent of the total force 
aviation packages and nearly 10 percent of all expeditionary combat 
support requirements.
    EAF Mobility provides the ability to deploy and sustain 
expeditionary forces. It includes airlift and air-refueling 
capabilities--the linchpin of power projection. Many mobility units 
accomplish the AEF role when specifically assigned to an AEF 
eligibility period and the EAF Mobility role all other times.
    EAF Foundation consists of support capabilities not organically 
assigned to AEFs. This includes acquisition, logistics, health care, 
education, and training. Due to the expeditionary nature of the Air 
Force, individuals normally assigned to an EAF Foundation organization 
can still be assigned to an AEF and deploy to contingency operations 
during their 3-month eligibility period.
    The EAF is a force structuring mechanism because it frames Air 
Force modernization, recapitalization, and transformation efforts. The 
AEFs and EAF Mobility provide the rotational basis for steady state 
expeditionary operations. Therefore, current and future programs must 
ensure adequate capability in the EAF to respond to global 
contingencies while providing predictability and stability for our 
people.
EAF Today
    Our current level of commitment exceeds the capability we have 
available in our two on-call AEFs and one on-call AEW. In career fields 
such as Security Forces, Engineers, Communications and Information, and 
Medical, we have reached into future AEFs to source enough people to 
meet the current requirement. Low Density/High Demand (LD/HD) assets 
such as Airborne Warning and Control System aircraft (AWACS) and 
special operations aircraft have deployed almost their entire inventory 
to meet the war effort. We have been aided greatly in this LD/HD 
challenge with the deployment of NATO AWACS that have deployed to the 
U.S. in support of ONE. For the first time ever, the on-call AEW and 
portions of the remaining AEW were employed. Additionally, a large 
portion of the total tanker force deployed to support Air Force and 
Navy strikes, while our mobility forces rapidly moved thousands of 
airmen and support equipment overseas allowing us to quickly engage the 
enemy on our terms, not theirs.
Fully Capable AEFs
    Providing the flexibility needed for full spectrum operations 
requires continued efforts to round out capabilities of our AEFs to 
make them inter-changeable. Currently, our 10 AEFs are not all the 
same. For example, only three of the AEFs have precision, standoff 
strike capability, and only nine have an F-16CJ squadron for 
suppression of enemy air defenses. Until the disparity is rectified, 
the EAF construct will have limits--many LD/HD and stealth systems 
remaining tasked at maximum levels.
    As the EAF continues to mature and technologies advance, we will 
expand the capabilities each AEF can provide. With enhanced 
intelligence, surveillance, and reconnaissance (ISR) we will enlarge 
the battlespace an AEF can control; improve our ability to do real-time 
targeting; and dramatically increase the number of targets an AEF can 
engage. Finally, we will continue to improve our expeditionary combat 
support capabilities--effective, responsive logistics are the key to 
sustaining expeditionary forces and operating from austere locations.
Reflection and Resolution
    After a morning of terror on September 11, there was reassurance. 
Aircraft over American cities lent calm rather than fear, for they were 
the active, Guard and Reserve Air Force keeping watch. We reacted 
within minutes of the attacks to establish a defensive posture and to 
prepare our offensive forces, just as we spent 2001 reacting 
successfully to humanitarian and combat operations around the globe. 
While meeting the requirements of the new war on terrorism, we will 
continue our transformation journey. The capability to deliver massed, 
discriminate and precise effects anywhere in the world within minutes, 
and the persistent ISR to evaluate actions are within reach for 
America's air and space forces. This is the contribution of the Air 
Force to the Nation--asymmetric capabilities that assure, dissuade, 
deter or decisively defeat.

                               READINESS

    Though no organization in America was ready for the attacks of 
September 11, none was more ready for the immediate aftermath than the 
Total Air Force team. From humanitarian to combat operations, the 
operational demands before the attacks were tremendous. Though 
significant milestones were reached in terms of reducing the effects of 
high tempo operations, the advent of war placed many of those gains on 
hold. The war on terrorism has disrupted the AEF schedules, which will 
create training, organization and resource impacts in the near future. 
Unaffected though, is our objective of 10 fully capable AEFs--each a 
flexible, identical cross-section of capabilities for the Joint Force 
Commander to employ. America's competitive edge is due in large part to 
its emphasis on realistic, comprehensive training, and we must continue 
to ensure our forces get that training. Equally important is ensuring 
our personnel have the resources needed to accomplish their jobs.
Recapitalization
    Our fielded forces have aged to the point that they will not be 
able to compete with emerging and future threats. In order to deal with 
the global security environment, the Air Force must rebuild its aging 
infrastructure and modernize its outdated weapon systems. Higher 
priorities, however, require that we pursue a structured 
recapitalization process that will ensure tomorrow's warfighters have 
the advanced tools, technology, and equipment needed to preserve 
America's air and space dominance.
    The budgetary constraints and spending reductions mandated in the 
1990s caused the Air Force to seriously underfund modernization and 
infrastructure improvements. For example, in 1990 the Air Force 
purchased 257 aircraft; by 1996, that number had fallen to 30. This 
dramatic cutback in hardware acquisitions signaled an unavoidable shift 
in USAF priorities. Modernization stalled in order to maintain core 
operational capabilities and keep the fleet of older aircraft flying. 
Unfortunately, this financially driven reprioritization placed the 
Nation's mid- and long-term air power readiness at significant risk.
    We now face a dangerous situation. Our aircraft fleet is getting 
older, less capable, and more expensive to maintain--all at the same 
time. Reversing this negative trend requires the Air Force to structure 
its recapitalization plans to avoid large-scale procurement spikes and 
critical modernization gaps.
    The recapitalization of our airframes and weapons systems is only a 
partial solution. The Air Force needs additional funding to upgrade its 
infrastructure and physical plant, which include sustainment, 
restoration, modernization, transportation, support equipment, and 
communications accounts systems. At the same time, the Air Force must 
be prepared to conduct real-world operations on a global scale. While 
recapitalization is important we can never forget investing in our 
people. The Air Force needs to take particular care in preserving this 
resource and expanding its capabilities. With the help of Congress, we 
have made considerable progress in addressing pay, benefits, and 
quality of life issues (discussed in Chapter 5) but more remains to be 
done.
    Understanding the range and nature of Air Force capabilities is a 
prerequisite to comprehending the readiness and transformational 
requirements. Securing our task forces' potential capabilities demands 
insightful and bold initiatives. How comprehensively we elevate the 
systems, processes, and people will determine how effectively America 
will be able to operate on the global stage in the decades ahead.
            Core Competencies
Air and Space Superiority
    Air and space superiority is the ability to control the entire 
vertical dimension, from the surface of the earth to the highest 
orbiting satellite, so the joint force has freedom from attack and 
freedom to attack. This is the essential first step in achieving 
battlespace dominance. As was true with operations in the 20th century, 
dominance of the vertical dimension will remain the most critical 
capability for 21st century Joint Force.
    Air Superiority
    The Air Force is investing in a range of systems encompassed in the 
entire F2T2EA kill chain. Among the air superiority assets that 
contribute to this targeting and attack process are the legacy air-to-
air platforms. While we await the fielding of new systems, we strive to 
maintain the viability of our current assets. The F-15 and F-16 
programs continue to pursue modernization of radars, engines, and 
enhanced combat capability to ensure near-term fleet maintenance and 
air superiority in air-to-air combat environment. Finally, key weapon 
advances rest with continued development and production of the Joint 
Helmet Mounted Sight as well as the AIM-9X and AIM-120 next-generation 
air-to-air missiles. While modernization of current systems is required 
to make them as capable as they can be, our greatest advantage with 
current systems is our robust training and the availability of ranges 
to conduct that training.
    Self-defense against enemy air defense systems is a key element to 
ensure air superiority. Several electronic warfare programs support 
this important capability. The Joint Services Electronic Combat Systems 
Tester meets our operational requirement for a mobile verification 
system to confirm installed electronic countermeasures systems on F-15, 
F-16, and A-10 are operable. It tests end-to-end electronic combat 
capabilities, identifies system problems before takeoff, and provides 
the highest level of confidence to the warfighter that the EW suite is 
operational.
    Comet Pod is a new infrared (IR) countermeasures system designed to 
provide covert, preemptive protection for the A-10 against IR surface-
to-air missiles (SAMs). Fielding this system will greatly enhance 
survivability of the A-10 in its low-altitude close air support role. 
Additionally, the Advanced Strategic and Tactical Expendable program 
addresses multiple Combat Mission Needs Statements and provides 
accelerated ramp-up for production of the MJU-46 covert IR flare. This 
operational requirement acceleration responds to today's air war threat 
in Afghanistan and currently provides protection to special operations 
aircraft in the combat zone.
    The AF leads the way in Radio Frequency (RF) Towed Decoys on 
fighter and bomber platforms. These countermeasures provide protection 
against advanced SAM threats and increase the viability and lethality 
of current platforms to conduct operations in the modern RF threat 
arena. These defensive systems have proven invaluable in combat over 
the last decade, and will continue to add to our legacy force 
capabilities.
            Combat Search and Rescue (CSAR)
    The CSAR mission provides friendly forces protection and assurance 
by recovering downed aircrew members or other persons in isolated 
locales and returning them to friendly control. Primarily charged with 
supporting combat personnel, CSAR continues to play an important role 
in civil search and rescue activities. The aging nature of the CSAR 
fleet, however, increasingly jeopardizes the Air Force's ability to 
accomplish the CSAR mission. Moreover, CSAR assets lack appropriate 
compatibility with our advances in strike, command and control, 
intelligence, surveillance and reconnaissance systems, though some 
advances in information fusion have been completed.
    Other improvements are forthcoming. Air Force Reserve Command 
(AFRC) will modify nine HC-130s with the APN-241 ground map radar, 
which enhances position awareness and increases system reliability. 
Additionally, AFRC is beginning the upgrade of the forward-looking 
infrared for the HH-60G helicopter fleet.
    Space Superiority
    Space superiority ranks with air superiority as a top priority. The 
ability to exploit and assure U.S. access to space assets while denying 
the same to our adversaries is of great importance, and as the ultimate 
high ground, space provides America with military advantages that 
cannot be duplicated.
            Space Commission
    In 2001, the Secretary of Defense named the Air Force as Executive 
Agent for Space in his implementation of Space Commission 
recommendations. This made the Air Force responsible for department-
wide planning, programming, and acquisition of space systems. 
Consistent with the National Reconnaissance Office's (NRO) long 
standing approach, the Air Force will manage space systems with a 
``cradle to grave'' philosophy, integrating systems acquisition with 
operations. To accomplish this, the Space and Missile Systems Center 
has been transferred from Air Force Material Command to Air Force Space 
Command. The Under Secretary of the Air Force is now dual hatted as the 
Director of the NRO, and will have acquisition authority for all Air 
Force and NRO space systems, as well as Milestone Decision Authority 
for all DOD space programs. This will allow a comprehensive review of 
all space systems, to determine the optimal method of satisfying 
national/military requirements. The first National Security Space 
Program Assessment was accomplished this year, comparing DOD and NRO 
program budgets against existing plans. This assessment will be used in 
drafting the first National Security Space Plan, due in mid-calendar 
year 2002.
            Spacelift Range System (SLRS)
    Achieving and maintaining space and information superiority 
requires an operational space launch capability that can deploy 
satellites to orbit with speed and flexibility--the high ground of 
military operations. The Spacelift Range System modernization program 
is replacing aging and non-supportable equipment to improve reliability 
and efficiency; reducing the cost of operations and standardize 
equipment on the eastern and western launch ranges.
    SLRS modernization follows a phased approach. To date, the 
completion of new downrange satellite communications links, a new fiber 
optic network, and new range scheduling systems are providing 
government and commercial users more flexibility at the spacelift 
ranges. In 2001, these improvements enabled the rapid launch of three 
systems in just 4 days using Cape Canaveral AFS equipment--an 
unprecedented feat for America's spacelift ranges. The next phase 
replaces old, base-unique systems with modern, standardized range 
safety, flight operations and analysis, communications, tracking, 
telemetry, planning and scheduling and meteorological systems. Once 
completed, the SLRS modernization program, coupled with the Evolved 
Expendable Launch Vehicle (EELV) program, will meet the future launch 
demands of national security, civil, and commercial payloads.
    In addition, Air Force spacelift ranges are central to supporting 
the Department of Defense's cooperation with the National Aeronautics 
and Space Administration (NASA) in the development of technology, 
operational concepts, and flight demonstration for the next generation 
of reusable launch vehicles. This cooperation also offers the basis for 
the evolution and future development of reliable, rapid, and assured 
access to space for air and space vehicles.
Information Superiority
    Information systems are integral to every mission of the Air Force. 
Success in achieving superiority in this domain requires an effects-
based approach, superior battlespace awareness, well integrated 
planning and execution, and properly trained and equipped information 
operations (IO) organizations. Information superiority means that our 
information systems are free from attack while we have freedom to 
attack an adversary's systems.
    Information is both a critical capability and vulnerability across 
the range of military operations from peace to war. In coordination 
with Joint Forces, the Air Force engages daily in conducting IO 
functions across this spectrum of military operations. We provide 
information superiority to our Air Force commanders and Joint Forces 
CINCs as well as to friendly multinational forces by conducting 
information operations in the air, space, and information domains.
    Command and Control, Intelligence, Surveillance, and Reconnaissance 
        (C\2\ISR)
    Currently, many military operations are limited in the area of 
C\2\ISR capabilities, which increases the amount of time, it takes to 
locate and destroy many targets. While we are aggressively pursuing and 
fielding solutions to streamline this process, some of our current 
C\2\ISR systems, which our forces rely on, are vulnerable to adversary 
manipulation. The challenge still exists to improve our own ability to 
disrupt the C\2\ISR systems of our adversaries. Of further concern to 
our C\2\ISR capabilities is limited radio frequency spectrum 
availability. Spectrum is the medium that supports the mobility, 
dispersion, and high tempo of operations. To meet this critical need 
for spectrum we must develop a strategy aimed at sustaining expanding 
spectrum access as we face evolving national security responsibilities.
    Our operational and tactical command and control airborne platforms 
and ground systems organize and direct efforts to create desired 
effects, whatever their form. Our C\2\ assets include the air and space 
operations center (AOC) with its decentralized component control 
reporting centers (CRC) and Theater Battle Management Core Systems 
(TBMCS); the Airborne Warning and Control System (AWACS); the Joint 
Surveillance Target Attack Radar System (JSTARS); and the Multi-
Platform Radar Technology Insertion Program (MP-RTIP).
    The other half of C\2\ISR is central to achieving battlespace 
superiority--knowledge. ISR assets gather and processes the data into 
decision-quality information. Currently, our limited numbers of 
airborne ISR systems are in extremely high demand. The RC-135 Rivet 
Joint, U-2, Distributed Common Ground System (DCGS), Predator, and 
Global Hawk UAVs have proven indispensable during OEF and the expanding 
war on terrorism by providing real-time target data, threat warning, 
and battle damage assessment.
    The CRC is the JFACC's ground tactical execution node for C\2\ and 
battle management. It provides wide-area surveillance, theater air 
defense, identification, data link management, and air battle 
execution. The current system was developed in the 1970s and must be 
replaced. The CRC replacement, the Battle Control System, will exceed 
year 2010 requirements for time-critical targeting, open system 
architecture, small deployment footprint, remote operations, multi-
sensor fusion, and AEF responsiveness.
            Air and Space Operations Center (AOC)--The Falconer
    As the primary element of the Theater Air Control System, the AOC 
is responsible for planning, executing, and assessing the full range of 
air and space operations. It is the premier operational system at the 
disposal of the Joint Forces Air Component Commander (JFACC). By fusing 
the data from a vast array of C\2\ and sensor systems, the AOC creates 
a comprehensive awareness of the battlespace so the JFACC can task and 
execute the most complex air and space operations across the entire 
spectrum of conflict.
    Especially significant among these operations is time-critical 
targeting. This is the development of swift reaction to the threat 
within theater battle management. Accomplishing this requires combining 
C\2\, rapid intelligence collection, analysis, and dissemination with 
positive control of airspace and the tasking of combat forces to 
coordinate the entire air battle with joint and coalition partners and 
component commanders. It is the ultimate goal of the targeting 
process--to reduce the F2T2EA cycle from hours to minutes.
    The Air Force has long understood the need to address 
standardization of command and control of air and space forces. The 
last decade witnessed the AOC as equivalent to a ``pick up game,'' 
requiring on-the-job training and hundreds of individuals working long 
hours to produce an air tasking order. Throughout 2001, we aggressively 
addressed this problem and the Falconer AOC is now on path to becoming 
an efficient weapon system. Our focus will be refining the AOC into a 
standardized weapon system run by operators formally trained in C\2\ 
Operations. We must also improve the weapon system's modularity, 
scalability and interoperability to meet requirements ranging from 
Major Theater War (MTW) to a Humanitarian Relief Operation (HUMRO) or 
Non-combatant Evacuation Operation (NEO).
    If there are adequate resources to develop Advanced Technology AOC, 
we will ``right-size'' the AOC to meet each mission's requirement. The 
system will be interoperable with internal and external U.S. National, 
Allied, Coalition and Joint Nodes. Utilizing emerging technologies to 
maximize reachback, we will dramatically reduce the footprint of the 
AOC while enhancing JFACC decision processes and timelines, and reduce 
costs. Supporting combat operations during Operations Noble Eagle and 
Enduring Freedom validated our strategic vision for C\2\ systems. We 
will continue to develop the AOC, which sets the standard for new Air 
Force capabilities-programming efforts, and keep it on course to 
revolutionizing the operational level of warfare.
    The ``engine'' of the AOC is the TBMCS. It is an integrated, 
automated C\2\ and decision support tool that offers the senior air and 
space commander and subordinate staffs a single point of access to 
real- or near-real-time information necessary for the execution of 
higher headquarters taskings. TBMCS supports a full range of functions 
including threat assessment, target selection, mission execution, 
battle damage assessment, resource management, time-critical target 
identification and prosecution, and defensive planning. During ONE and 
OEF, TBMCS was rapidly deployed supporting both CENTCOM and NORAD 
operation centers. TBMCS will evolve into an open-ended architecture 
capable of interface with a variety of joint and coalition data buses, 
displays and links.
    The Airborne Warning and Control System (AWACS) remains the premier 
air battle management and wide-area surveillance platform in the world. 
Still, aging aircraft issues, obsolete technologies, and the 
proliferation of advanced adversary systems necessitate several upgrade 
programs. This year, one third of the AWACS fleet completed an improved 
radar system upgrade, which will reach full operational capability in 
fiscal year 2005. The next computer and display upgrade will replace 
the 1970 vintage processors with an open architecture system. Finally, 
a satellite communications access program will provide improved 
connectivity with regional and national C\2\ centers.
    Joint Surveillance Target Attack Radar System (JSTARS) provides 
battle management, C\2\, and ground moving-target detection. We will 
replace the on-board computers with commercial off-the-shelf equipment 
by 2005 under the JSTARS Computer Replacement Program (CRP). The CRP is 
the foundation of all JSTARS communications and sensor upgrades, and 
should reduce life-cycle costs and minimize the number of obsolete 
parts.
    Another 707-airframe C\2\ISR asset is the RC-135 Rivet Joint--the 
premier aircraft in its class. We continue to modernize the Rivet 
Joint's sensors using an evolutionary, spiral development program. 
Recapitalization and modernization efforts promise to keep the RC-135 
and U-2 viable well into the 21st century. As we look to the future, we 
are examining the growth of the Rivet Joint as part of the Multi-sensor 
Command and Control Constellation. Although the U-2 is not currently in 
production, we continue to modernize the aircraft with updated sensors 
and aircraft modifications to support our ongoing mission needs. 
Advanced imagery sensors will allow the U-2 to collect top-notch data 
for the battlefield commander. Aircraft modifications, such as cockpit, 
defensive and power system upgrades will ensure U-2 survivability and 
viability. Air Force DCGS continues to provide robust processing and 
reporting of the U-2, Global Hawk, and Predator collected data. System 
modifications/upgrades and increase in capacity will ensure continued 
delivery of timely intelligence to enable time critical target 
prosecution.
    Unmanned Aerial Vehicles (UAVs) provide unmatched access for 
information, surveillance and reconnaissance missions. Their 
capabilities expand ISR collection coverage while reducing the need to 
place our people in harm's way. We are committed to the production and 
fielding of Global Hawk as the next generation of high altitude 
airborne ISR platform. We have transitioned Global Hawk from an 
Advanced Concept Technology Demonstration (ACTD) program to a formal 
acquisition program. In the spring of 2001, Global Hawk successfully 
completed a deployment to Australia, where it supported maritime 
reconnaissance and achieved a number of UAV aerial firsts, including 
the first trans-Pacific crossing.
    Due to this success, and a high level of confidence in the 
platform, Global Hawk was deployed in support of OEF. As part of the 
SECDEF's transformation program, Global Hawk is poised to accelerate 
its production schedule. The development of advanced sensors will 
enable Global Hawk to support the time critical targeting mission more 
completely. Finally, demand for the older Predator UAV remains high. 
The successful weaponization of Predator during OEF holds the promise 
of significantly shortening the time critical targeting timeline. Based 
on the tremendous successes of Predator A, testing is underway on an 
improved version, the larger Predator B.
    Air Force weather satellites enable information superiority every 
day during joint operations around the globe. The Defense 
Meteorological Satellite Program (DMSP) constellation provides global 
weather imagery and other environmental data to support mission 
planning. Augmented with civil satellites, joint forces are provided 
timely, accurate pictures of the weather affecting operations. The Air 
Force is modernizing environmental data collection with the new 
National Polar-orbital Operational Environmental Satellite System 
(NPOESS). In conjunction with the Department of Commerce, development 
of the NPOESS will provide the Nation a consolidated system for all 
national weather monitoring needs. NPOESS will cost the DOD 
significantly less than building and fielding a DOD-unique follow-on 
system and will provide enhanced environmental monitoring capability to 
support emerging weapons systems and concepts of operations.
    The Multi-Platform Radar Technology Insertion Program (MP-RTIP) is 
developing a scalable X-band electronically-scanned array (ESA) for use 
on a variety of platforms for air-ground surveillance, including a 
future 767 manned, wide-area surveillance platform, the Global Hawk, 
and potentially a NATO manned platform variant. On the 767 platform 
this array would provides five to ten times the air to ground 
surveillance capability of current JSTARS, reduces target revisit 
times, improves moving-target track capability, and enhances radar 
resolution. Furthermore, MP-RTIP on a 767 is envisaged as the first 
development spiral toward achieving a Multi-sensor Command and Control 
Aircraft (MC\2\A) capability as part of an over-arching and 
transformational Multi-sensor Command and Control Constellation 
(MC\2\C) to support future employment of the task forces addressed in 
Chapter 4.
    Communication
    Achieving information superiority depends considerably on the 
availability of a robust, worldwide communications capability. 
Communications are critical to the joint fighting forces deployed 
worldwide. We are modernizing Military Satellite Communications 
(MILSATCOM) systems to keep pace with this demand. Inseparable from 
such modernization is Tasking Processing Exploitation and Dissemination 
(TPED). TPED describes how information is transferred among our 
numerous systems and highlights bandwidth as a serious topic. Bandwidth 
is a critical parameter--more is better--defining how much and what 
kind of information we can disseminate. Over the next 10 years, our 
need for reliable, redundant, and secure communications is expected to 
increase 15 to 20 times beyond the current capacity. The MILSATCOM 
systems in use today simply cannot meet that demand and supply CINCs 
with sufficient protected coverage to adequately support the 
warfighter. Further, in an environment of extremely high worldwide 
demand and competition, commercial providers cannot be leveraged for 
they lack the protected bandwidth, security, and coverage necessary to 
fully support military operations.
    Despite shortcomings, the MILSATCOM system is making significant 
contributions to current, daily operations. The scope and speed of 
joint operations, including OEF, simply would not be possible without 
MILSATCOM systems, notably the Defense Satellite Communications System 
(DSCS) and the Military Strategic and Tactical Relay System (Milstar). 
In fiscal year 2001 we successfully launched one DSCS and one Milstar 
satellite. Additionally, a complete modernization of satellite 
communications is underway. Wideband Gapfiller Satellites (WGS) are 
low-cost, high bandwidth communications satellites intended to greatly 
increase the on-orbit bandwidth available to the warfighter. WGS 
satellites will help bridge the requirements gap until the Advanced 
Wideband System (AWS) is brought on-line. Similarly, the Milstar 
constellation is planned for replacement beginning in 2006 by the new 
Advanced Extremely High Frequency (AEHF) satellites. The Air Force 
awarded a System Development and Demonstration contract in November 
2001 to design the AEHF satellite system.
    To leverage the full capability of our new technologies, we are 
combining our efforts with the other Services to form the joint Global 
Information Grid (GIG)--a globally interconnected, end-to-end set of 
information capabilities and associated processes that allow 
warfighters, policymakers, and support personnel to access information 
on demand. Currently as the AEF deploys to support combat operations, 
it connects to the global information grid via the Theater Deployable 
Communications (TDC) package. This package is replacing legacy 
deployable AF communications equipment with scalable, lightweight, and 
reliable transmission, networking, and network management equipment. 
TDC allows timely reachback to the US for intelligence, logistics and 
people support that otherwise would have to deploy forward. During OEF 
operations, we successfully deployed TDC to support combat operations, 
demonstrating that TDC is the capability needed to support AEF 
communication requirements.
    Contributing to the GIG, the AF is building an enterprise 
architecture ensuring our diverse projects and initiatives are closely 
integrated to deliver maximum capability to the warfighter. In support 
of the enterprise architecture, the AF ``infostructure'' architecture 
facilitates system integration by providing timely and cost effective 
communications and information technology capabilities. The AF 
infostructure leverages commercial and government developed 
technologies and ensures these technologies are controlled and 
integrated.
    To provide our people better access to information and applications 
needed for their specific missions, we have fielded additional 
capabilities through the Air Force Portal. The Air Force Portal is 
envisioned as the single access point for practically all our 
information needs. Leveraging commercial successes in web-enabled 
information technology and communications, our members now have access 
to the Air Force Portal almost anywhere in the world.
    Information Warfare (IW)
    Multi-faceted information warfare planning and execution is another 
challenge of information superiority. In the effort to create specific 
effects to accomplish campaign objectives, the Air Force closely 
coordinates information operations (IO) plans between and among 
supported and supporting commands to prevent redundancy, mission 
degradation, or fratricide. The numerous organizations participating in 
these coordination efforts include representatives from the COMAFFOR 
for Computer Network Operations and the Air Intelligence Agency, to IO 
squadrons and IW flights. To enhance the effectiveness of these 
organizations, we specifically designed tools for the IW planning and 
testing efforts. In an effort to normalize IO as a warfighting asset, 
we integrated AIA into the Air Combat Command, the IW lead for the 
Combat Air Forces. They directly support the Joint Force Commander 
through the JFACC/COMAFFOR.
    We continue to make every effort to define requirements and layout 
a viable long-term strategy/roadmap to provide IW capability to the 
warfighter. The IW MAP has become a leading edge planning tool for the 
Air Force in this arena. Its expressed purpose is: (1) to define, 
document, and advocate Air Force IW requirements; (2) to integrate 
those requirements into the Air Force Capabilities Investment Strategy; 
(3) to identify solutions meeting validated IW needs; and (4) to 
provide IW Mission Area expertise to the warfighter and to the Air 
Force corporate process. Subsequently, the MAP helps to focus 
disjointed efforts, reduces duplication, promotes integration among 
architectures and enhances operations.
    Information Assurance (IA)
    The Air Force maintained a robust IA capability through a Defense 
in Depth strategy that integrated people, operations, and technology 
for multi-layered, multi-dimensional protection. People were trained to 
do the IA mission and protect the network. We changed policies and 
procedures to ensure IA operations are effective and efficient. We also 
implemented Finally, technological advances to provide physical 
protection to our information weapon system. Consequently our IA 
posture has never been better.
    Training initiatives included a year long IA Campaign that focused 
our attention on such corporate issues as IA roles and 
responsibilities, network threats and countermeasures, computer network 
defense, and EAF web security which significantly improved our 
collective IA knowledge and capability. We also continued our emphasis 
on individual certification for network operators and maintainers 
through the development of a Job Qualification Standard toward mission-
ready, deployable people.
    Addressing procedures, we implemented a Time Compliance Network 
Order (TCNO) process. TCNO allows senior leadership to track and ensure 
completion of critically important computer security configuration 
changes. This resulted in a ten-fold reduction of network infections 
attributed to malicious code attacks from 2000 to 2001. Another 
important operational initiative is the deployment of Scope Network 
teams to our installations to fine-tune base-level networks. Scope 
Network's mission is to optimize and tune networks and firewalls and 
ensure their proper configuration. They deploy throughout the year to 
measure, analyze, train, and mentor at the base level.
    Finally, our primary IA technology initiative is a layered 
equipment suite to discourage hackers and filter viruses as well as 
provide tools to identify vulnerabilities like the Combat Information 
Transport System (CITS), and the Network Management System/Base 
Information Protection (NMS/BIP). These systems provide a standard tool 
suite to each Air Force installation.
    The requirements for global-level detection and early warning of 
natural disasters, conventional military or chemical, biological, 
radiological, nuclear and high-yield explosive (CBRNE) aggression 
remain as critical as ever. At the same time, September 11 introduced a 
new category of threat that will challenge the ability of America's 
C\4\ISR networks to cope with strategic-level surprise, fait accompli 
or limited objectives strategies, among others. Information 
superiority, the mastery of prediction, assessment and employment of 
data, is arguably our Nation's most pressing challenge.
Global Attack
    Global Attack is the ability to create desired effects within hours 
of tasking, anywhere on the globe, including locations deep within an 
adversary's territory. It also includes the ability to retarget quickly 
against objectives anywhere, anytime, for as long as required.
    Among Air Force programs supporting these capabilities is our 
bomber fleet. Our B-1, B-2, and B-52 bombers provide a global rapid 
response, precision and standoff strike capability, 24/7 battlespace 
persistence, and a level of time-critical targeting (TCT) capability. 
The new transformation era reinforces and re-emphasizes our ongoing 
basic bomber modernization plan--increase lethality, survivability, 
flexibility, supportability, and responsiveness.
    All three platforms now carry the highly accurate 2000-pound Joint 
Direct Attack Munition (JDAM), and are all being fitted to carry new 
standoff precision guided weapons. In addition, future integration 
programs will see the inclusion of smaller precision weapons. To 
improve their survivability, bombers are receiving a range of upgrades 
to include defensive system, situational awareness and electronic 
countermeasure upgrades. To enable attack of time-critical targets, the 
Air Force is upgrading bomber avionics and communication systems and 
linking them directly with remote sensor and targeting systems.
    To enhance our ability to kick down the door in remote theaters and 
clear the way for follow-on forces, the Air Force is planning for a mix 
of new generation manned and unmanned, air superiority and ground 
attack aircraft. However, until the F-22, Joint Strike Fighter (JSF), 
and Unmanned Combat Aerial Vehicle (UCAV) become an operational part of 
our inventory, we will continue to rely heavily on our legacy 
fighters--the F-15, F-16, F-117 and A-10--to provide a potent mix of 
air-to-air and air-to-surface capability. These platforms are all 
programmed to receive upgraded voice and data communication systems 
linking them to a joint command and control net. Programmed 
improvements to avionics and situational awareness systems will allow 
for better all-weather/night operations, combat identification and 
response to time-critical and moving targets.
    F-15E modernization incorporates robust data-link capability and 
integration of smart weapons to ensure all-weather, deep strike 
lethality. The recent addition of Global Positioning System (GPS)-
guided, precision guided munitions (PGMs) on the F-117 give it an 
adverse-weather capability. However, these aging platforms are growing 
more expensive to maintain and operate, and their combat effectiveness 
is expected to eventually decline as projected surface-to-air and air-
to-air threats with greater capabilities emerge. The introduction of 
the stealthy F-22 and JSF will maintain America's technological 
advantage and ensure our ability to defeat next-generation threats 
while replacing our aging force structure with leap-ahead capabilities.
    One of our Guard and Reserve's top modernization priorities is 
incorporating precision targeting pods into their F-16 aircraft. From 
1998 through 2000, we outfitted all our Reserve units and selected 
Guard units with LITENING II pods. This acquisition gave Guard and 
Reserve F-16s a critical precision strike capability while configuring 
these units with the system capabilities of the active F-16 force. 
Additionally, the Guard will join the active force in procuring 
Advanced Targeting Pod (ATP) for an initial operating capability in 
2003.
    Two critical F-16 programs, the Combat Upgrade Integration Details 
(CUPID) and the Common Configuration Implementation Program (CCIP), 
will bring decisive combat capability (night vision, helmet-mounted 
cueing, and data links) to our F-16 fleet. Additionally, the Falcon 
Structural Augmentation Roadmap (STAR) will ensure the F-16 fleet is 
structurally sound to perform its mission through its designed service 
life. Collaborative programs between our Active and Reserve components 
increase our overall procurement flexibility and close the gap in 
combat capability.
            Intercontinental Ballistic Missiles (ICBM)
    The recent DOD Nuclear Posture Review (NPR) announced a transition 
from the Cold War nuclear triad to a new capabilities-based triad in 
response to the more complex, evolving security environment. Consistent 
with NPR direction, the Air Force is providing for long-term 
sustainment of ICBM capabilities. Minuteman III (MMIII) ICBMs will be 
deployed through 2020 and supported by on-going life extension 
programs. We will begin to look at alternatives for a follow-on ICBM to 
be fielded as MMIII reaches the end of its service life. Peacekeeper 
(PK) ICBMs will be retired beginning in calendar year 2002. As the PK 
system is deactivated the Air Force intends to transfer some warheads 
currently on PK to the MMIII, thereby avoiding a costly life extension 
program on certain MMIII warheads. This replacement effort will ensure 
that the newest warhead with all modern safety features remains a part 
of the ICBM force, an essential nuclear strike element in the Nation's 
capabilities-based triad.
Precision Engagement
    Our current operations emphasize the powerful advantage of being 
able to create precise effects rapidly. The Air Force offers tremendous 
capabilities to meet this national requirement from pinpoint 
humanitarian responses to precise weaponry. Precision is fundamental to 
all of our operations and, in particular, to transformational combat 
operating concepts. Along with information superiority and stealth, 
precision engagement enables our forces to identify an adversary's key 
centers of gravity and relay that information to strike assets, thus 
reducing risks by avoiding unnecessary engagements (a concept generally 
referred to as ``parallel warfare''). Enhancing precision engagement 
will allow us to accomplish this cycle in near real-time. This would 
allow us to maximize the leverage gained from the fluid interaction of 
joint forces in more effective prosecution of operations.
    We have made significant progress in our efforts to develop and 
field a new generation of weapons that can attack and destroy pin-
point, hardened, and relocatable targets at night and in most weather 
conditions while greatly reducing the risk. By rapidly adapting new 
technology employed under actual combat conditions in Operations Allied 
Force and Enduring Freedom, we now have an array of precision weapons 
that can be employed from nearly all of our combat aircraft. Our high 
priority precision engagement programs now include the Joint Air-to-
Surface Standoff Missile (JASSM), Joint Standoff Weapon (JSOW), Joint 
Direct Attack Munition (JDAM), Wind Corrected Munitions Dispenser 
(WCMD), and eventually the Small Diameter Bomb (SDB).
    JASSM is a precise, stealthy, cruise missile that will enable us to 
destroy heavily defended, hardened, fixed and relocatable targets from 
outside of area defenses. JASSM program is currently undergoing flight 
test recently entered low rate initial production and will be delivered 
to the field in 2003.
    JSOW is an accurate, adverse-weather, unpowered, glide munition. We 
are currently procuring two variants, the AGM-154A and AGM-154B, which 
are capable of destroying soft and armored targets at ranges exceeding 
40 nautical miles.
    JDAM employs GPS-aided guidance, incorporated in a tail kit, to 
deliver general-purpose bombs or penetration warheads with near-
precision accuracy. We will use JDAM in all weather conditions from 
multiple platforms to destroy high-priority, fixed, and relocatable 
targets. The first operational use of a 2,000-pound JDAM was from a B-2 
during Operation Allied Force and JDAM has been used extensively during 
OEF. The F-22 will employ the 1,000-pound JDAM against anti-access and 
air defense systems. Using the 500-pound JDAM currently in development, 
the B-2 that carries up to 16 2,000-pound JDAMs in OAF, would be able 
to carry up to 80 500-pound JDAMs in future conflicts. This will 
provide the first step in the Air Force's transition to miniature 
munitions. Succeeding steps include the Small Diameter Munition (SDM) 
(discussed in Chapter Four). SDM, under development for the F-22, will 
offer standoff capabilities against the most difficult surface-to-air 
threats. The F-22 will carry up to eight SDMs internally.
    WCMD has an inertial-guided tail kit that enables us to accurately 
deliver the Combined Effects Munition, Sensor Fuzed Weapon, and the 
Gator Mine Dispenser from medium to high altitude in adverse weather. 
WCMD became operational in late 2000 and has been successfully employed 
in OEF from the B-52.
    Key to precision engagement is the GPS navigation signal used by 
sensors and shooters to assist in targeting the enemy with pinpoint 
accuracy. Successful joint operations rely on the GPS signal: search 
and rescue, rendezvous, and mapping are only a few examples. Rigorous 
upgrades to both satellites and warfighter equipment are currently in 
work to protect the ability of American and allied forces to employ the 
GPS signal on the battlefield and deny it to our adversaries while 
preserving civil use.
    Precision capabilities allow the United States to engage in 
operations with dramatically reduced risk to friendly forces, 
significantly less costs in men and materiel, and with greater 
likelihood of success. The strike side of precision engagement enables 
us to employ one weapon per target to destroy it with minimal 
collateral damage and greatly increase the number of targets that can 
be struck per sortie.
    The benefits are exponential. By minimizing the number of sorties 
required to strike a target, we shrink the forward footprint necessary 
and minimize the number of airmen, soldiers and sailors in harm's way. 
Indeed over the last decade, the Nation has faced numerous engagements 
wherein precision has proven the method for success. From the Balkans 
to Kabul, combatant commanders have required precision capability, not 
large-scale conventional operations. However, this demand has 
dramatically reduced our large Cold War Reserve munitions stockpiles. 
As current operations continue to tax existing PGM inventories, the Air 
Force is working to expand the capacity of our industrial base to fill 
preferred munitions requirements. This strategic effort, along with our 
continued acquisition of JDAM, JASSM, JSOW and WCMD, will increase PGM 
capabilities over the next several years. The changing nature of 
warfare with its emphasis on precision engagement, necessitates that 
munitions recapitalization and development of transformational 
miniature small weapons will remain among our top priorities.
    Precision strike, however, is more than simply very accurate 
munitions. It is also the ability to generate precise effects other 
than destruction. For that reason we also invest in various non-lethal 
weapons, offensive information warfare capabilities, and directed 
energy weapons that enable the U.S. military to affect targets without 
having to destroy them. This enables effects-based operations that 
match precise capabilities to desired effects--the ultimate in 
deterrence.
Rapid Global Mobility
    Rapid Global Mobility ensures the Nation has the global reach to 
respond quickly and decisively anywhere in the world. As the number of 
forces stationed outside the United States has declined, the need for 
an immediate response to overseas events has risen. Given that access 
to forward bases will remain critical and become increasingly risky, 
the rapid deployment and agile sustainment of expeditionary air and 
space forces will be key to our ability to operate across the spectrum 
of conflict.
    Airlift and tanker aircraft give the United States the ability to 
swiftly reach out and influence events around the world. OEF and ONE 
have, again, shown the utility of rapid global mobility. We have also 
witnessed the potential need to provide critical tactical lift 
capability for immediate response at home. However, even with the 
success of these ongoing operations, the Air Force desperately needs to 
continue airlift and tanker modernization efforts to ensure the U.S. 
maintains its ability to operate globally. As part of our on-going 
effort to assess our airlift requirements in light of current and 
anticipated needs, Air Mobility Command is undergoing a comprehensive 
review of our air mobility force structure.
            Global Air Traffic Management (GATM)
    In addition to aging aircraft problems, the Air Force mobility 
fleet must also respond to the added requirements of a new air traffic 
architecture. GATM focuses on increasing system capacity and flight 
efficiency, while continuing to meet flight safety standards. The most 
critical technology elements are satellite-based navigation, increased 
use of data links rather than voice for pilot/controller communication, 
and improved surveillance that will enhance both ground and cockpit 
situational awareness. Incorporation of these technologies will ensure 
our mobility fleet maintains unrestricted access to global airspace.
    An essential means to ensure the AF's ability to support its 54.5 
million-ton miles per day airlift requirement is through the 
procurement of additional C-17s. The AF has identified a need for at 
least 180 C-17s, and seeks to will award a follow-on multiyear 
procurement contract to reach that number. A mobility tiger team with 
Active, Reserve and Guard representation will continue to study beddown 
plans for these additional aircraft.
    The average age of our KC-135 tankers is now over 41 years and 
operations and support costs are escalating as structural fatigue, 
corrosion, systems supportability, and technical obsolescence continue 
to take their toll. To keep this vital system operatingthese aging 
aircraft operational, we are modernizing the avionics and navigation 
systems on all Active, Guard, and Reserve KC-135s. Called Pacer CRAG 
(compass, radar and global positioning system), the project provides 
for a major overhaul of the cockpit to improve the reliability and 
maintainability of the aircraft's compass and radar systems. The 
project also meets the congressionally mandated requirement to install 
the global positioning system in all Defense Department aircraft. As an 
added safety measure for formation flying, a traffic collision 
avoidance system (TCAS) will be installed. TCAS gives pilots the 
ability to actively monitor other aircraft and provides advance warning 
of potential mid-air collisions.
    The ongoing war on terrorism is further stretching the tanker 
fleet, forcing motivating the Air Force to consider accelerating 
replacement options. The Boeing 767 Global Tanker Transport Aircraft 
(GTTA) is a promising alternative to quickly replace the KC-135E, our 
least capable and most costly to maintain tanker aircraft. While 
considering this and other lease options, the Air Force is focused on 
acquiring the world's newest and most capable tanker; increasing fuel 
offload, increasing availability, and increasing reliability--all with 
far lower support cost.
    The Air Force is pursuing a two-phased modernization plan for the 
C-5 fleet. Phase I is the Avionics Modernization Program (AMP) and 
Phase II is the Reliability Enhancement and Re-engining Program (RERP). 
C-5 AMP replaces unreliable/unsupportable engine/flight instruments and 
flight system components, installing GATM equipment to assure complete 
access to global airspace and installing navigation/safety equipment to 
reduce risk of mid-air and ground collisions (i.e. TCAS). C-5 RERP 
improves aircraft reliability, maintainability and availability by 
replacing the power plant and other unreliable systems. Several C-5 
aircraft will undergo multiyear testing to evaluate the potential for 
modernizing this aging, but important mobility asset. The results of 
that evaluation will determine the need for additional C-17 
acquisitions or other alternative.
    Modernization of the C-130 fleet is proceeding with a two-pronged 
approach to maintain an intra-theater airlift capability well into the 
21st century. Procuring 168 new C-130Js to replace our oldest C-130s 
and modifying the remaining fleet will reduce total ownership costs and 
simplify maintenance, training, and operational employment. New C-130Js 
will replace eight EC-130Es and 150 of our most worn-out C-130E combat 
delivery aircraft. In addition, 10 C-130Js will replace the Reserve's 
10 WC-130H aircraft at Keesler Air Force Base, MS. These aircraft and 
crews are specially trained and equipped to penetrate severe storms 
while collecting and transmitting extensive meteorological data 
necessary to track and forecast the movement of these severe storms to 
a special ground station. C-130Js will also replace the Air National 
Guard's aging Commando Solo platform, as well as complete other Guard 
units. The remainder of the AF's C/AC/EC/HC/LC/MC-130 fleet will 
undergo an Avionics Modernization Program (C-130 AMP). This will 
include state-of-the-art avionics and a new ``glass'' cockpit that will 
eliminate the need for a navigator in the combat delivery aircraft. 
Along with increased reliability, this modernization will make the 
fleet compliant with the GATM and the DOD's navigational safety 
requirements.
    Rapid Global Mobility is also dependent upon expeditious airfield 
support. Moving aircraft tails in-and-out of a field quickly can 
determine success or failure of an operation. The Air Force is 
procuring the Tunner (60K) and Halvorsen (formerly next generation 
small loader or NGSL) loaders to replace older equipment, providing a 
new capability to interface directly with all military and commercial 
cargo aircraft. The Tunner is optimized for high volume to support 
operations at major aerial ports while the Halvorsen is C-130 
deployable to support mobility operations at forward, austere bases.
            Large Aircraft Infrared Countermeasures (LAIRCM)
    The Air Force has begun a new self-protection initiative to counter 
man-portable air defense systems (MANPADS). LAIRCM will use state-of-
the-art technology to provide an active IR defense for the AF's airlift 
and tanker aircraft. LAIRCM builds on existing systems designed to 
defend helicopters and small, fixed-wing aircraft. It will add a laser, 
which provides the increased power needed to protect aircraft with 
large IR signatures like the C-17 and the KC-135. Operational 
capability is expected on the first C-17s in late fiscal year 2004. 
Additional airlift and tanker aircraft will be LAIRCM-modified in the 
near future.
            CV-22
    The CV-22 is the Air Force designation for the special operations 
variant of the V-22 Osprey--a vertical takeoff and landing airplane 
designed for long range, rapid, clandestine penetration of denied areas 
in low visibility, adverse weather, and/or at night. With twice the 
range and speed of a conventional helicopter and state-of-the-art 
avionics system, the CV-22 will be able to complete most of its 
missions under the cover of darkness without being detected. We will 
use the CV-22 to infiltrate, exfiltrate, and resupply Special 
Operations Forces (SOF) and to augment personnel recovery forces when 
needed. Currently, the entire V-22 program is undergoing a major 
restructuring that will address technical and safety concerns. Flight 
tests of the two CV-22 test vehicles, suspended through 2001, will 
resume in 2002 and continue through 2005.
            VIP Special Air Mission/Operational Support Airlift 
                    (VIPSAM/OSA)
    The Air Force continues to modernize the VIPSAM/OSA fleets to 
provide senior leaders with improved capabilities to respond to 
national crises. Aging CINC support aircraft are being replaced with 
modern commercial aircraft with intercontinental range and robust 
communications (leased Gulfstream Vs, designated the C-37, and Boeing 
737-700 designated the C-40B). This innovative strategy to leverage the 
commercial aircraft industry should be completed by fall 2002. The 
President's VC-25s will receive major upgrades to the passenger cabin 
infrastructure. and Additionally, major upgrades to the communications 
suite (to be leased) to will provide airborne capabilities comparable 
to that of his White House office. The four C-32s (Boeing 757s) will 
also receive advanced ``office-in-the-sky'' upgrades to include 
broadband data and direct broadcast service. As funds become available, 
remaining VIPSAM aircraft will be evaluated for similar upgrades.
Agile Combat Support (ACS)
    Responsiveness, deployability, and sustainability--the cornerstones 
of American expeditionary operations--are the mandate of agile combat 
support. The basic objectives established set to achieve these goals 
remain intact. The Air Force established set objectives to elevate the 
capabilities of the ACS elements by developing lighter, leaner, and 
more rapidly deployable forces; creating more responsive planning and 
execution capability; executing improved agile combat support command 
and control; and assuring an agile, responsive, and survivable 
sustainment capability.
    While progress has been made toward achieving these objectives, 
much of the deployment strain in support of OEF has fallen on our 
expeditionary combat support forces. Some high-demand support areas 
have exceeded their on-call capabilities in current AEF rotation 
cycles, as a result of our surge mode activities, which are likely to 
continue for some time. Consequently, we are continuing to make gains 
in right-sizing deployment teams so they are postured efficiently and 
effectively for expeditionary needs. We are placing high emphasis on 
the development of expeditionary site planning tools that provide the 
means to tailor our deployment capability based on assets pre-
positioned in the theater.
    Reconstituting our current bare base systems and wartime stocks, as 
well as developing and acquiring bare base assets and other types of 
support equipment that are ``lighter and leaner'' and more rapidly 
deployable are also integral to achieve force responsiveness. Essential 
investments in infrastructure and pre-positioning are mandatory 
ingredients of improved reception and beddown capabilities at our 
fighter and bomber forward operating locations (FOLs).
    The fielding of the Integrated Deployment System at all of our AF 
Wings has improved the responsiveness of our Wing deployment process. 
Our information technologies must continue to mature with expansion of 
such capabilities as the virtual logistics suite hosted on the Air 
Force Portal. These essential components provide real-time situational 
awareness for ACS command and control that leverages logistics and 
combat support across simultaneous operations in multiple theaters that 
now include the CONUS. The CSAF's Logistics Review (CLR) and ongoing 
Logistics Transformation are reengineering our logistics processes to 
achieve an agile, effective, well integrated logistics chain that is 
responsive to AEF requirements.
    Whether forward deployed in AEF operations, or completing homeland 
security missions, we must be prepared to operate under any conditions. 
Protecting critical bases of operations and defeating CBRNE weapons and 
their means of delivery is one of the most complex challenges facing 
the DOD. Our balanced response to the proliferation of these weapons, 
integrates the four pillars of counterproliferation--proliferation 
prevention, counterforce capabilities, and active and passive defense 
measures.
    Our counter-NBC operational readiness initiative sets Air Force-
wide standards for readiness, identifies shortfalls and develops 
capabilities to effectively cope with CBRNE attacks. This initiative 
includes a counter-NBC roadmap and an enhanced counter-chemical warfare 
CONOPs. The roadmap is an innovative investment strategy that cuts 
across Air Force plans and programs to increase counter-NBC visibility, 
while offering enhancements for effective air and space operations in 
NBC environments.
    Regardless of contamination, combat or humanitarian settings, the 
medical service plays an important role in agile combat support. 
Through training initiatives and innovation in field systems this year, 
AFMS has raised the bar on its capabilities. The results of these 
efforts are the addition of state-of-the-art equipment and training 
facilities which guarantee AFMS' ability to respond effectively when 
the Nation calls.
    One example is EMEDS, which is a lightweight modular medical system 
that allows the AFMS to tailor its response to each situation. Another 
revolutionary disaster response system is the Lightweight 
Epidemiological Advanced Detection and Emergency Response System 
(LEADERS), designed to enhance the current medical surveillance process 
and provide the earliest possible detection of covert biological 
warfare incidents or significant outbreaks of disease. The Air Force 
will continue to work with its civilian counterparts to develop and 
fine-tune this technology over the coming year.
    Along with developing relevant facilities and equipment, the AFMS 
is expanding its training capabilities through the development of the 
Coalition Sustainment of Trauma and Readiness Skills (CSTARS) program. 
CSTARS creates learning opportunities in which civilian academic 
centers serve as training platforms to provide clinical experience to 
help sustain necessary readiness skills for AFMS providers. The CSTARS 
arrangement allows for synergistic relationships between academic 
medical centers and military medical assets, while simultaneously 
improving wartime readiness and homeland security capability. Finally, 
AFMS training also extends to allied and friendly nations. The 
Institute of Global Health (IGH), located at Brooks AFB, Texas, is a 
worldwide educational program for medical providers to develop and 
improve their medical response skills. Programs are tailored to the 
host nation's infrastructure and resources and are taught on-site.
    This cross-section of examples of initiatives that will help 
achieve the four ACS objectives are producing meaningful results. There 
is, however, more to be done to better prepare our ACS capability for 
supporting the EAF vision. For example, we need to fill readiness 
shortfalls in key logistics resources strained by expanded operations 
including people, skills, spares, munitions, bare base assets, 
vehicles, etc. We need to improve our capability to rapidly develop 
deployment and sustainment plans for fast-breaking contingencies. 
Enhancements need to be made to our ACS command and control capability 
to make it more responsive, better integrated, and sufficiently robust 
to support AEF needs worldwide. Finally, modernization of equipment and 
the tools essential to complement skilled personnel require investments 
in R&D in Science and Technology initiatives that will help reduce our 
``footprint'' while improving our ACS capability.
Additional Readiness Concerns
    Facilities and Infrastructure
    Air Force installations and facilities that are available when and 
where needed, and with the right capabilities, form the foundation 
supporting current and future operational requirements and readiness. 
Our installations and facilities are the platforms from which we launch 
and recover Air Force and Joint weapon systems while simultaneously 
providing work and living environments for personnel and their 
families. For example, bases like Whiteman AFB, Missouri and Ramstein 
AB, Germany, are important nodes in the global network that sustains 
OEF operations while also sustaining thousands of airmen, dependents, 
and their communities.
    Regular and planned upgrades are an essential part of keeping a 
healthy infrastructure upon which to build and sustain air and space 
capabilities. Unfortunately, in fiscal year 2002, operations and 
maintenance (O&M) sustainment funding shortfall precludeds fully 
maintaining Air Force facilities and infrastructure and will increase 
the backlog of necessary repairs. In the near term the Air Force 
facilities recapitalization rate falls short of DOD's 67-year 
facilities recapitalization goal. In fiscal year 2002, our military 
construction (MILCON) and O&M restoration and modernization accounts 
allowed us to achieve a recapitalization rate of 163 years. With 
congressional assistance we were able to reduce our fiscal year 2002 
rate to 118 years.
    In the fiscal year 2003-2007 Adjusted Program Objective Memorandum 
we were able to fully fund O&M sustainment across the FYDP and achieve 
a restoration and modernization recapitalization rate trajectory that 
will meet the OSD's 67-year goal by 2010. This track must be 
maintained. Sustaining and modernizing our facilities and 
infrastructure will ensure we have the right facilities at the right 
time and place to support military readiness.
    Vehicle Replacement Program
    The Air Force vehicle fleet is in serious need of recapitalization. 
Underfunding of the program during the past decade has created a 
backlog of more than 41,000 general and special purpose vehicles that 
have exceeded their life expectancy. This backlog represents half of 
the entire Active, Guard, and Reserve vehicle fleets. The backlog 
continues to grow each year, despite efforts to lease vehicles and 
extend vehicle life expectancies through enhanced technology. Current 
funding is $415 million below the annual requirement. On-going 
operations have created a need for 879 additional leased and procured 
vehicles valued at $42.4 million to support the mission. Failure to 
replace aging vehicles has a direct impact on of readiness and 
ultimately our combat capability.
    Realignments and Closures
    Reductions in Air Force manpower and force structure continue to 
outpace those in infrastructure. As a result, the Air Force continues 
to fund unneeded facilities while struggling to maintain its vital 
operational readiness. Our physical plant today is too costly, and we 
have too much of it. Excess infrastructure continues to waste precious 
dollars that could be better used for force modernization and quality 
of life. The Air Force needs to close unneeded installations and direct 
the savings into readiness areas: base operating support, real-property 
maintenance, family housing, and military construction at crucial 
operational bases. The Air Force will comply with the Secretary of 
Defense's guidance for conducting the Base Realignment and Closure 
(BRAC) process in 2005, as authorized in the 2002 National Defense 
Authorization Act.
    Environmental Leadership
    The Air Force continues to be a leader in the stewardship of our 
environment through compliance, pollution prevention, resource 
conservation, and environmental restoration. We have achieved the 
Defense Planning Guidance goal for 2002 for the environmental 
restoration program, to have cleanup remedies in place for 50 percent 
of our active installations high-risk sites. The next goal is to have 
remedies in place for 100 percent of the high-risk sites by the end of 
2007. We are on track to achieve that goal, as well as having remedies 
in place for all medium risk sites by the end of 2011 and all low-risk 
sites by the end of 2014.
    The Air Force has a tremendous range of flexible, rapidly 
responsive capabilities--the skill sets that allow us to meet any 
mission requirement. Constant improvement will require innovation, 
creativity and re-assessment, but also the funding support to 
recapitalize critical components.
Towards Developing Systems
    Experimentation and Wargames
    We conduct experiments and wargames to evaluate near- and far-term 
air and space capabilities and operational concepts. Joint 
Expeditionary Forces Experiment (JEFX) is the Air Force's large-scale 
experiment, which is fully integrated with Joint Forces Command's 
Millennium Challenge series of experiments. It is a live and 
constructive event focused on improving time critical targeting; 
command and control of intelligence, surveillance, and reconnaissance; 
and alliance participation in an open-floor Combined Air and Space 
Operations Center. The Global Engagement (GE) wargame is held every 
other year to explore the potential capabilities of joint air and space 
power and future concepts 10 to 15 years into the future. GE V 
demonstrated air and space power's unique capability to ensure access 
to operational areas where the enemy employs robust anti-access 
strategies. In August 2001, we completed a year of post-game analysis 
from GE-V. This analysis showed the Air Force is on the right vector 
toward the future in the area of force capabilities and is making great 
strides in addressing time critical targeting requirements. GE V also 
provided substantive recommendations for improvements in space control, 
information operations, and forward logistic support.
    Planning is underway for the next Global Engagement (GE VI), 
scheduled for November 2002. This game will explore mid-term joint/
combined operational concepts, such as rapidly dominating the 
battlespace and setting conditions for transitioning to sustained joint 
operations.
    During odd-numbered years, we conduct the Air Force Future 
Capabilities wargame that takes a longer view, striving to shape our 
strategic vision by testing alternative concepts, systems, and force 
structures that may appear 20 to 25 years into the future. These 
wargames have produced new air and space concepts, such as long-range 
standoff warfare, reach-forward C\2\ capability, space force 
application, and the link between C\2\, ISR and target engagement, 
which continue to mature through follow-up analysis and subsequent 
wargames. We have just concluded the 2001 Futures Game that focused on 
defining C\2\ and ISR for the 2020 air and space campaign; overcoming 
anti-access strategies; survivability of space capabilities; future 
transformational capabilities; computer network operations; and 
conducting future joint/coalition operations. Insights from this game 
will be developed, analyzed and investigated further throughout 2002.
    Advanced Concept Technology Demonstrations (ACTDs)
    ACTDs marry new operational concepts with mature technologies 
meeting warfighter needs in 2 to 4 years at a reduced cost. The Air 
Force currently has 21 ongoing ACTDs. An example is the Hyperspectral 
Collection and Analysis System ACTD that will demonstrate various 
hyperspectral sensors on operational platforms and integrate them into 
the existing tasking, processing, exploitation, and dissemination 
architecture. Another example is the Thermobaric Weapon ACTD, which 
provides an energetic thermobaric penetrator payload to defeat enemy 
tunnel facilities and weapons with two to three times the lethality of 
conventional high explosive payloads.
    Battlelabs
    Since their inception in 1997, Air Force battlelabs have developed 
over 120 initiatives, including the application of commercial 
scheduling software for the Air Force Satellite Control Network, 
telecommunications firewalls for base phone systems, and the use of 
speech recognition to reduce mission planning time. The recently 
commissioned Air Mobility Battlelab, with a charter to rapidly identify 
and assess innovative operational and logistics concepts, joined the 
ranks of the Air and Space Expeditionary Force, Command and Control, 
Force Protection, Information Warfare, Space, and Unmanned Aerial 
Vehicle Battlelabs.
Enhancing Fundamental Practices
    Agile Acquisition
    The Air Force launched Agile Acquisition to streamline and 
synchronize the business of defining, funding, developing, acquiring, 
testing and sustaining the weapon systems our Air Force uses to defend 
America's freedom. The goal is simple: Field today's technology . . . 
TODAY. While we've had many individual successes in the past, 
individual successes do not translate into fundamental reform. We must 
get to the point where doing things smartly is not news. Agile 
Acquisition is the strategy to achieve systemic improvement.
    As a strategy, Agile Acquisition has three major thrusts: First, we 
will relentlessly attack our own processes and get rid of those steps 
that are not value added. Second, we are going to free our leaders to 
lead and demand that they take the initiative. We are going to train 
them to be innovative and think creatively, provide periodic refresher 
training, and then hold them accountable for being agents of change. 
Finally, we're going to offer a lot of help through our new Acquisition 
Center of Excellence, which opened for business on December 2001.
    The acquisition reform of Lightning Bolts 2002 gives us the tools 
to make those changes. They will focus our acquisition efforts and, at 
the same time, reinforce our other initiatives to transform and improve 
the services and products we provide. The Lightning Bolts will also 
reinforce and complement the headquarters reorganization announced in 
December 2001 by the Secretary and Chief of Staff. In addition, the AF 
is an active member of DOD's Rapid Improvement Team, chartered to 
streamline the Information Technology system acquisition process to 
less than 18 months. Towards that end, we are leading prototype 
programs aimed at eliminating serial and redundant oversight processes, 
expanding participation by interested parties, and sharing 
accountability from program inception. Achieving agile acquisition is 
not a luxury; it is a requisite for success. We must provide absolutely 
the best and newest capabilities to our fighters in the shortest time 
possible. Our acquisition processes, too often seen as a roadblock to 
real progress, must become as agile as our warfighters.
    Another key aspect of acquisition reform involves bringing the 
warfighter into the process early on. This is an essential element of 
our capabilities-based concept of operations which is discussed in the 
following chapter.
    Long Term Depot Maintenance Plan
    Depot maintenance is another critical element of our overall 
warfighting capability. The current depot posture has been influenced 
by the downsizing of our operational force; the reduction of our 
organic infrastructure; the introduction of new technologies; and 
recent depot legislative changes. In order to maintain a ready and 
controlled source of depot maintenance, the Air Force has prepared a 
Long Term Depot Maintenance Plan for submission to OSD and Congress by 
the summer recess of Congress.
    The overarching objective of this plan is to ensure that Air Force 
equipment is safe and ready to operate across the whole range of 
contingencies, from training to supporting major theater wars. 
Partnering with private industry is a key element of our plan and 
provides the best value approach for maintaining our depots. 
Benchmarking our depots is essential for us to understand where best to 
invest. Leveraging the best of public and private capabilities ensures 
the Air Force will take advantage of what each does best. Partnering is 
also the method by which we will be able to most efficiently utilize 
our current facilities as well as bring in technologies to support core 
capability requirements in the future. However, taxing programs to fund 
capital improvements is a contentious process. We continue to explore 
the concept of depot capital appropriations to smooth out the 
investment streams.
    The Air Force Long Term Depot Maintenance Plan will provides 
military strength by ensuring we possess an organic ``core'' capability 
sized to support all potential military operations. It is will be a 
living document and postures our three organic depots to continue to 
support the warfighter.
Organizational Experimentation--Future Total Force
    In the 21st century, the U.S. Air Force anticipates deriving its 
strength from the flexibility and the diversity of its integrated 
Active duty, Air National Guard, Air Force Reserve and civilians more 
than ever before. Optimum use of Air Force component resources is 
critical in providing the complete potential of American air and space 
power. Future Total Force (FTF) efforts will include new ways to 
optimize the components to make the best use of our resources and 
people and to build on a foundation of high standards and strong 
cooperation among the components.
    In the 1990s, the restructuring of the Air Force placed a greater 
emphasis on the force structure in the Air Reserve Component. Today, 
the Guard and Reserve account for over 65 percent of the tactical 
airlift, 35 percent of the strategic airlift capability, 60 percent of 
air refueling, 38 percent of fighters, and significant contributions to 
rescue, bomber, and combat support missions. Additionally, the Guard 
and Reserve have an increasing presence in space, intelligence and 
information systems. Guard and Reserve units also provide support in 
pilot training; radar and regional control centers manning; at the 
Edward's Test Center, California; Test and Evaluation missions in 
Arizona; instructing in weapon system school houses; conducting flight 
check functions at Air Force depots; and helping to develop the 
Homeland Defense mission. Today, the Guard and Reserve components are 
providing day-to-day mission support. They are no longer simply a 
``reserve'' force--their collective capabilities make operating as an 
expeditionary Air Force possible.
    Future success will depend upon our ability to develop an even 
closer partnership between the components and a ``seamless'' 
integration of all assets. FTF will explore expanding the integration 
of our people and systems, seeking efficiencies and leveraging their 
individual strengths by combining operations into new organizational 
structures--blended units. Together, Active, Civilian, Guard, and 
Reserve form a more capable, more efficient and more effective 
organization than any could provide individually.
    Blended units will integrate Active, Civilian, Guard, and Reserve 
capabilities in creative new ways, that may appear as radical 
departures from the past but which have already been part of the Air 
Force business practice for years. Flying and support functions, for 
example, will be so integrated with component personnel as to be 
invisible to outside observers. This will focus attention on conserving 
valuable manpower, resources, and skills while reducing overall costs. 
Finally, blended units will maintain the ability to deploy rapidly and 
will explore new avenues toward an overall goal of providing a ``best 
mix'' of personnel for the assigned mission.
    Developing blended units will not be without challenge. Out-dated 
laws and policies would have to change to reflect requirements in 
command and control, fiscal and personnel issues. Demands for more 
efficient use of resources (personnel and aircraft), greater 
flexibility and integration of personnel and administrative systems, 
higher reliance on the commercial marketplace skills of individuals, 
and rapid adjustment to changing cultural, social, and economic 
influences on the Air Force institution will serve to further promote 
blended organizations.
    The Guard and the Reserve are more than just our partners in 
providing air and space power, they are an integral part of today's Air 
Force and form a special link between the active duty Air Force and 
America's citizens. To a great extent, they are citizens first. Blended 
units would take advantage of that connection to the citizenry and 
their broad base of knowledge and experience, in both civilian and 
military matters. The Air Force goal is to create a truly ``seamless'' 
force of airmen--one organization of airmen who are interchangeable but 
who also operate in a different status at particular periods in their 
air and space careers. The Air Force is committed to evolving its FTF 
to meet the highly complex security demands in its future.
Enhanced Homeland Security Missions
    As operators of two legs of the nuclear triad, the Air Force 
remains at the heart of homeland security. Since its establishment in 
1947, the Air Force has been actively and successfully deterring 
aggressors, intercepting intruders, and providing ballistic missile 
warning. The September 11 attacks brought homeland security to the 
forefront with the publication of Executive Order 13228, establishing 
the office of Homeland Security. The Air Force is being called upon to 
counter a new class of foreign and domestic terrorist threats through 
both defensive and offensive actions. Air defense capabilities remain 
on high alert to intercede and prevent further misuse of our Nation's 
civil aviation assets. Expeditionary capabilities have been called upon 
to help destroy terrorist operatives where they live. In all actions, 
the air and space expeditionary force construct provides the 
flexibility to place forces where and when we need them.
    Ground-Based Midcourse Defense (formerly: National Missile Defense)
    The Rocket Systems Launch Program provided targets and interceptor 
vehicles for two National Missile Defense tests in 2001. Using 
decommissioned Minuteman II's, simulated incoming missiles were 
launched from Vandenberg AFB while a Minuteman II stage two and three 
combination, with test interceptor on board, was launched from 
Kwajelein Island. In the two tests supported this year, both 
successfully intercepted the target vehicle, meeting a huge technical 
milestone in the quest for homeland missile defense.
Conclusion
    Air Force capabilities provide America with a unique set of 
strengths--asymmetric advantages. However, today's technological 
advantage is no guarantee of future success. Maintaining our current 
leadership position requires addressing our aging infrastructure, 
modernizing outdated weapon systems and harnessing technology to 
achieve our vision. To be sure, this requires funding, but a 
significant part of the improvements rests with ingenuity. In fact, how 
we maximize the collective potential of our Active, Guard, Reserve, and 
civilian resources will affect our ability to exploit the advantages 
our core competencies create. Realizing this potential through better 
business practices, more sophisticated training methods, acquired 
technologies, and other innovative means will be even more challenging 
given our ongoing efforts in the war on terrorism. Yet the risks of 
failing to meet the requirements for readiness are unacceptable. 
Readiness is one prerequisite for American military success. Another is 
transformation.

                             TRANSFORMATION

New Impetus to Transform--The evolving geopolitical context
    The terrorist attacks of September 11 have forever changed the 
world we live in. Now, more than ever, our military must transform to 
preserve the asymmetric advantages it currently enjoys--specifically, 
its air and space capabilities. These advantages are in danger of 
eroding in the face of emerging security threats including the 
diminishing protection of geographic distance; the proliferation of 
weapons of mass destruction; rapidly advancing technologies (such as 
sensors, information processing, and precision guidance) available to 
adversaries; escalating competitions in space and information 
operations; greatly reduced access to forward bases; the prospect of 
operations in urban areas; and finally, the prominent threat of global 
terrorism, especially within our open borders. The demonstrated 
superiority of our air and space forces over Afghanistan, and the 
asymmetric advantage they continue to provide the Nation must not be 
taken for granted. Success is not a birthright, we must continue to 
transform to stay ahead of our adversaries.
    America's future success requires us to fully exploit our current 
technological dominance to seek asymmetric advantage over our 
adversaries. Such transformation will encompass the horizontal 
integration of manned, unmanned, and space assets and require us to 
successfully address emerging and time-critical targets. It will 
require digital communications at the machine level which result in 
providing Joint Force Commanders with decision-quality information. The 
sum of this wisdom is a cursor over the target.
    Transformation can include multiple technologies that enable new 
missions, significantly improved old systems and processes, or using 
existing capabilities or organizations in new ways. Ultimately, 
transformation will drive how the military is organized, trained, and 
equipped. Transformation can also involve changes in military doctrine 
or tactics, techniques, and procedures that determine force deployment, 
employment, or the way forces are led or interact with each other to 
produce effects. It is also important to remember that transformation 
extends into every aspect of the Air Force--be it warfighting or 
support capabilities. For example, transformation of our business 
systems is currently being embraced to take advantage of new 
technologies and processes already proven in commercial industry. These 
ideas and products will enhance our efficiency and increase the 
crossflow of information across Air Force communities.
    A recapitalized force is fundamental to the realization of 
transformational forces. Though we are shortening acquisition cycles, 
new systems still take years to reach the field. Therefore 
transformation in the immediate future must begin by using legacy 
systems in new ways. We will continue to adapt and innovate in order to 
push the envelope of our capabilities.
Transformation--Realizing Potential Capabilities
    In the 2001 QDR, the Secretary of Defense provided specific 
direction for military transformation. Future defense planning will 
shift from the previously ``threat-based'' approach to a 
``capabilities-based approach,'' focusing on ``how an adversary might 
fight, rather than specifically on whom the adversary might be or where 
a war might occur.'' To support the SECDEF's goals, the Air Force 
remains in a continued state of evolution and transformation, 
aggressively pursuing advanced technologies, innovative methods of 
employment, and bold organizational changes. Transformation is nothing 
new to the Air Force. It has been an innate characteristic of airmen 
from the Wright Brothers to airmen operating in the 21st century.
    Continued AF transformation will enable the United States to defeat 
an adversary by giving the Joint Forces Commander the exact warfighting 
effects he needs, at the right place, and at the right time. AF 
transformations will help DOD achieve its ``operational goals;'' give 
the United States more operational flexibility and capability to 
address the future security environment; defeat adversaries' asymmetric 
strategies; reduce friendly casualties and collateral damage; and 
sustain America's current asymmetric advantages into the future.
    Capabilities-Based Concepts of Operations (CONOPs)
    AF warfighters are working hard to lay the foundation for the next 
step in our transformation to a capabilities-focused Expeditionary Air 
and Space Force. Our goal is to make warfighting effects, and the 
capabilities we need to achieve them, the drivers for everything we do. 
The centerpiece of this effort is the development of new Task Force 
Concepts of Operations (CONOPs) that will guide our planning and 
programming, requirements reform, and acquisition. We have identified 
several Task Force CONOPs that we are fleshing out--Global Strike Task 
Force (GSTF) is a prominent example and is the farthest along in 
development.
    GSTF defines how the AF plans to operate when faced with an anti-
access scenario. It will meet the immediate needs of our regional CINCs 
by leveraging our current and near-term capabilities to overcome anti-
access threats like the next generation surface-to-air missiles and 
other defensive networks. By incorporating the stealth and supercruise 
capabilities of the F-22 with advanced munitions like SDB we will 
enable other our stealth assets like the B-2s and F-117 to take apart 
the enemy defenses. This capability guarantees that follow-on air, 
space, land, and sea forces will enjoy freedom from attack and freedom 
to attack. Key to the success of the entire family of Air Force Task 
Forces will be the horizontal integration of manned, unmanned, and 
space ISR assets. A key component of horizontal integration is the 
Multi-sensor Command and Control network that will help provide the 
actionable, exploitable intelligence the JFC needs to make effective 
decisions.
    What warfighting effects will the AF provide? What capabilities do 
we need to deliver these effects? Our family of Task Force CONOPs will 
provide the answers to these questions. With this focus, we then 
understand what key requirements are needed to support these CONOPs.
Advanced Capabilities
    Manned Assets
    Stealth provides the ability to fly largely undetected in hostile 
airspace and penetrate air defense systems. Stealth will be absolutely 
essential to establish air superiority in the decades ahead against 
rapidly improving air defense systems and fighters. The F-22, JSF, 
UCAVs, and improved B-2 bombers, and highly stealthy stand-off weapons 
comprise the critical stealth capabilities under development now and 
into the future.
    The F-22, with its revolutionary combination of stealth, 
supercruise (i.e. supersonic-cruise without afterburner), 
maneuverability, and integrated avionics, will dominate the skies. The 
F-22 is clearly needed to counter the rapid deployment of third 
generation fighters to potential U.S. adversaries. In addition, when 
outfitted with the SDB. The F-22's ability to penetrate an adversary's 
anti-access airspace and destroy his most critical air defense 
capabilities, will enable 24 hour stealth operations and freedom of 
movement for all follow-on forces--fully leveraging our Nation's 
asymmetric technological advantages.
    In 2001, flight-testing continued to demonstrate the revolutionary 
capabilities. Specifically, the F-22 successfully completed an AIM-120 
guided missile launch, and initial radar detection range measurements 
(met specification requirements the first time out--an unprecedented 
accomplishment).
    On August 14, the Defense Acquisition Board approved the F-22's 
entry into low-rate initial production (LRIP). Entering operational 
service in 2005, this transformational leap in technology is the 
linchpin to preserving the Nation's most important military advantage 
for the warfighter: the capability to rapidly obtain and maintain air 
and space dominance.
    Acting in concert with the F-22 will be the JSF. The JSF program 
will develop and field an affordable, lethal, survivable, next-
generation, multi-role, strike fighter aircraft for the Air Force, 
Navy, Marine Corps, and our allies. With its combination of stealth, 
large internal payloads, and multi-spectral avionics, the JSF will 
provide persistent battlefield stealth to attack mobile and heavily 
defended targets. Furthermore, JSF planned reliability and 
maintainability will enable an increase in sortie generation rate and 
mission reliability, and will reduce the logistics footprint as 
compared to legacy aircraft.
    On 25 October 2001, the Secretary of Defense certified to Congress 
that all JSF Concept Demonstration Phase (CDP) exit criteria had been 
accomplished; the technological maturity of key technologies was 
sufficient to warrant entry into the System Development and 
Demonstration (SDD) phase; and both CDP contractors achieved greater 
than 20 hours of short take-off, vertical landing (STOVL) aircraft 
operations. On October 26, 2001, the JSF program officially entered the 
SDD phase with the award of contracts to Lockheed Martin for the 
airframe and Pratt & Whitney Military Engines for the propulsion 
system. During the SDD phase, the program will focus on developing a 
family of strike aircraft that significantly reduces life-cycle cost, 
while meeting the Services' operational requirements. The program will 
use a block upgrade approach, based upon an open system architecture, 
which addresses aircraft and weapons integration and supports the 
Services' Initial Operational Capability (IOC) requirements in the 
2010-2012 timeframe.
    International partners will share the cost of JSF development. The 
United Kingdom signed an agreement in January 2001 to contribute $2 
billion to the SDD program, and negotiations are underway with other 
potential international partners. International participation in JSF 
will result in substantial benefits to the United States in such areas 
as future coalition operations and interoperability; financial savings; 
appropriate U.S.-foreign industry technology sharing; and strengthening 
political-military ties with our allies.
    For ballistic missile defense, one of the most important manned 
assets is the Airborne Laser (ABL). ABL is a transformational boost-
phase intercept weapon system that will contribute significantly to our 
multi-layered missile defense architecture. Structural modification of 
a 747 aircraft, the first of two ABL prototypes, was completed in 
calendar year 2001. In calendar year 2002, ABL will begin an intensive 
period of subsystem integration and flight testing, progressing toward 
a lethal demonstration against a ballistic missile. The ABL program 
transferred to the Missile Defense Agency in October 2001 and will 
return to the Air Force for production and deployment. The ABL will 
also provide critical data for the development of a Space Based Laser 
(SBL).
    Unmanned Assets
    Unmanned Combat Aerial Vehicles have the potential to provide 
revolutionary suppression of enemy air defenses (SEAD) and strike 
capabilities to future joint force commanders. Our UCAV X-45 system 
demonstration program with DARPA will demonstrate the feasibility of 
UCAVs to affordably and effectively accomplish these missions in the 
high threat environments of the 21st century. The first demonstration 
aircraft test flights will begin in 2002. UCAVs will eliminate the 
operator from harm's way for high-risk missions and, in conjunction 
with manned platforms, be a crucial enabler for GSTF and other Air 
Force Task Forces.
    Space Based Assets
    Maintaining and developing space superiority is critical to the 
transformation of the U.S. military to meet the challenges ahead. At 
the forefront of this development is leveraging the resident expertise 
of our space warriors, and integrating their cultural strength and 
wisdom with air forces in order to achieve maximum operational effects. 
The ability to exploit and deny access to space is of great importance 
in this new era where dominance in information systems may determine 
battlefield success or failure. The Air Force is investigating or 
pursuing revolutionary new capabilities to ensure adequate space 
situational awareness (in addition to traditional space surveillance) 
as well as defensive and offensive counterspace capabilities.
    We are transforming our space situational awareness with a much 
needed improvement to the Nation's missile detection and warning 
capability. The highly accurate Defense Support Program (DSP) satellite 
system on orbit today was developed over 30 years ago to provide 
strategic missile warning. Modernization to meet 21st century 
warfighter needs is critical. The new Space Based Infrared system 
(SBIRS) provides a single architecture for the Nation's infrared 
detection needs--a ``system of systems''--meeting our security 
requirements for 24/7 strategic and tactical missile warning, missile 
defense, technical intelligence and battlespace characterization. This 
transformational space system consists of two primary components: 
SBIRS-High and SBIRS-Low. SBIRS-High includes four satellites in 
Geosynchronous Orbit (GEO) and two in a Highly Elliptical Orbit (HEO) 
that will work hand-in-hand with the 20-30 Low Earth Orbit (LEO) 
satellites being acquired developed through the Ballistic Missile 
Defense Organization's (BMDO), (since renamed the Missile Defense 
Agency (MDA)), SBIRS Low program. Both programs currently are under 
review. SBIRS-High has experienced unacceptable cost growth and is 
being considered for restructuring. SBIRS-Low may be delayed as the 
state of the program's maturity is being evaluated.
    Air Force Satellite Control Network (AFSCN)
    AFSCN is a global system of control centers, remote tracking 
stations, and communications links used to establish initial contact 
with all deploying military satellites, and to control early checkout 
operations. In addition, the AFSCN enables common satellite operations 
such as telemetry, tracking and commanding, mission data receipt and 
relay, and emergency satellite recovery. We also use the AFSCN to 
update the navigational database of GPS satellites, which ensures 
effective support to the warfighters. In fiscal year 2002 we initiated 
an AFSCN modernization program using commercial off-the-shelf 
equipment. It is critical that we continue this effort since much of 
our current infrastructure is so old that spare parts no longer exist. 
Moreover, since nearly 50 percent of the total AFSCN workload supports 
National requirements, the system's viability is essential. 
Preservation of both the AFSCN infrastructure and the frequency 
spectrum it uses for military satellite operations is vital to 
successful national security space operations.
    Launch Systems
    Our heritage launch systems continue with a 100 percent success 
rate this year. The Evolved Expendable Launch Vehicle (EELV) will build 
on past successes while transforming today's fleet of Delta, Atlas, and 
Titan space launch vehicles into low-cost, efficient space 
transportation systems. The EELV will deliver navigation, weather, 
communications, intelligence, early warning, and experimental 
satellites to orbit on time and on budget to meet warfighter needs. 
Boeing Delta IV and Lockheed Martin Atlas V rocket families are 
currently in Engineering Manufacturing and Development to provide 
launch services beginning next year through the year 2020 and beyond. 
Our partnership with industry will meet military, government, and 
commercial spacelift requirements at 25 percent to 50 percent lower 
costs than current systems.
            Space-Based Radar (SBR)
    From the ultimate high ground, space-based ISR will provide near 
continuous overflight of enemy targets to complement airborne and 
ground-based sensor platforms. SBR will revolutionize battlespace 
awareness by providing deep-look, wide area surveillance of denied 
areas in a manner unaffected by terrain masking and political 
sensitivities--absolute leap-ahead technology. Persistent ISR will be 
achieved with day/night, all weather detection and tracking of moving 
and fixed targets; improved mapping, charting, and geodesy; and 
responsive targeting data from sensors to shooters. Due to its basing 
mode, SBR can provide the Nation a non-provocative, long-range 
capability to enable early situational awareness in advance of 
hostilities and throughout the spectrum of conflict. This will allow us 
to tighten the timelines for prompt attack of both anti-access systems 
and enemy centers of gravity. SBR is being designed to fit into the 
portfolio of other ISR assets.
    Information Warfare (IW) and Information Assurance (IA)
    Of primary importance to IW operations is the horizontal 
integration of manned, unmanned, and space systems to achieve the 
machine-to-machine interface of command and control, communications, 
computers, intelligence, surveillance and reconnaissance (C\4\ISR) 
systems. This integration provides executable decision-quality 
information to the commander in near-real-time. Second is our ability 
to protect these systems from adversary manipulation through defensive 
information warfare. Third, is the ability to deny adversaries these 
same capabilities through offensive information warfare.
    Information superiority enables our military to achieve ``decision 
cycle dominance'' and allow us to act and react much more rapidly and 
effectively than our adversary--creating transformational military 
advantages. While technology will never completely overcome 
Clausewitz's ``fog of war,'' achieving information superiority as 
described here could certainly minimize it for us and maximize it for 
our adversary.
    Information superiority also yields additional benefits. First, a 
reduced forward deployment requirement expedites the time to begin 
effects-based operations and reduces the number of personnel and 
equipment exposed to threats. Second, by avoiding massive attrition 
tactics, it would result in far fewer casualties and collateral damage. 
Third, under the right circumstances, effective offensive information 
warfare capabilities, which include computer network attack, military 
deception, public affairs, electronic warfare, and psychological 
operations (PSYOP), could prevent the need for destruction by 
influencing our adversaries to capitulate before hostilities begin. 
This latter possibility will be crucial in many of the environments the 
military will have to operate in the future, such as urban areas and 
various military operations other than war, in which employing highly 
destructive kinetic weapons would not be desirable.
    In the future, the Air Force will field C4ISR capabilities that 
enable dynamic assessment, planning, and the rapid execution of global 
missions. The system will be tailorable across the spectrum of 
operations and be horizontally and vertically integrated across 
components, functions, and levels of command. Joint Force Commanders 
will be able to exploit knowledge and awareness to use the right tools 
at the right time in the right way--and do it all faster and with 
higher fidelity than the adversary.
    Predictive Battlespace Awareness (PBA)
    PBA involves those actions required to understand our adversaries 
to the extent of being able to accurately anticipate his actions before 
they make them. This includes understanding how our adversaries 
organize and employ their forces. It means knowing their centers of 
gravity, capabilities, and weaknesses. PBA is an on-going intelligence 
effort which begins long before forces are deployed. Ultimately, PBA 
allows finite ISR assets to be focused on confirmation of anticipated 
actions instead of the more time-consuming discovery.
    Communication Enhancement
    We are now transforming the way information technology is used in 
the Air Force as we implement the One Air Force . . . One Network 
initiative. This enterprise-wide approach to IT will allow more 
responsive and more robust service to the whole Air Force. In addition, 
Global Combat Support System--Air Force (GCSS-AF) will integrate combat 
support information systems, thus removing the business inefficiencies 
resulting from numerous, independent stand-alone systems. With GCSS-AF, 
the Air Force will finally have the means to provide an enterprise view 
of combat support information. GCSS-AF, through the Air Force Portal, 
will provide the warfighter, supporting elements, and other Air Force 
members the means to seamlessly integrate agile combat support 
information necessary to efficiently field and sustain our Air and 
Space Expeditionary Forces.
    Another piece of integration is the Joint Tactical Radio System 
(JTRS). We aggressively accelerated development of this enabler of 
machine-level, digital conversations between our C\2\ISR and strike 
platforms so that the ``sum of our wisdom'' results in a cursor over 
the target. JTRS will also provide a flexible and adaptable information 
exchange infrastructure, which moves the joint force forward in getting 
operators and commanders the timely decision-quality information needed 
in today's warfighting environment.
    Precision Engagement
    The small diameter bomb, the first ``miniature'' munition in 
development, will provide an evolutionary capability in kills per 
sortie. The SDB weapon will use a common carriage system for fighters 
and most bombers, to carry at least four and potentially up to 12 SDB 
weapons per 1760 data bus aircraft station. This will allow a fighter-
size platform to carry 16 or more SDBs and a bomber to carry up to 288. 
We will employ the SDB from low-to-high altitude, from standoff or 
direct attack ranges, and in adverse weather conditions. Each SDB 
weapon will employ GPS-aided guidance and be independently targeted. 
The Phase I SDB will have a capability against fixed or stationary 
targets, while the Phase II SDB will add a seeker with Automatic Target 
Recognition to provide a capability against mobile and relocatable 
targets.
    To increase our capability against time-critical and moving 
targets, we are experimenting with existing and miniaturized versions 
of precision weapons on UCAVs. The range and loiter time of the 
``hunter-killer UCAV'' coupled with the direct feed of real-time 
targeting data, will increase our opportunities against moving 
targets--tightening our decision cycle and maximizing our warfighting 
effects. What these systems UCAV and our other advancing capabilities 
indicate is that we are within range of our goals of persistent ISR, 
the finding to targeting to assessing within minutes cycle, and 
fidelity in the integration of our systems. We seek near instantaneous 
attack capabilities once a target is approved for attack.
Innovation and Adaptation
    All of the new systems and technologies in the world cannot 
supplant ingenuity. Whether modifying current systems, developing 
streamlined efficiencies in organizations, or simply thinking 
creatively, innovation and adaptation are at the heart of any 
transformation, and embedded in Air Force heritage. The same visionary 
essence behind the flight at Kitty Hawk works today to link emerging 
technologies with dynamic future concepts of operation. The driving 
spirit of innovation in past times of war exists today in the impetus 
to evolve our air and space capabilities and elevate the security of 
the Nation. Innovation and adaptation will be tremendously important 
again in fiscal year 2003, and they will resonate in all the systems we 
develop, in our fundamental practices, how we organize and even in our 
evolving roles and missions in homeland security.
    The prerequisite to achieving the transformation force outlined in 
the QDR is our commitment to a strong Science and Technology (S&T) 
program. S&T is the critical link between vision and operational 
capabilities. We continue to invest in a broad and balanced set of 
technologies derived from basic and applied research, and advanced 
technology development on a continuum of maturity levels from short- to 
long-term. This time-scaled approach keeps emerging capabilities in the 
pipeline and fosters revolutionary developments.
    The Air Force S&T community is working closely with operators and 
strategic planners to explicitly link research activities with our core 
competencies, critical future capabilities, and future concepts of 
operation. This effort has produced eight short-term goals and six 
long-term challenges to focus our S&T investment. The short-term S&T 
objectives are focused on warfighter priorities in the following areas: 
Target Location, Identification, and Tracking; Command, Control, 
Communications, Computers, and Intelligence; Precision Attack; Space 
Control; Access to Space; Aircraft Survivability and Countermeasures; 
Sustaining Aging Aircraft; and Air and Space Expeditionary Force 
Support. Long-term S&T challenges also involve revolutionary 
capabilities in Finding and Tracking; Controlled Effects; Sanctuary; 
Rapid Air and Space Response; and Effective Air and Space Persistence. 
Successful pursuit of these challenges and objectives will meet the 
transformation goals of the Air Force and maintain our air and space 
dominance today and well into the 21st century.
    Our new homeland security environment will necessitate both 
traditional and non-traditional responses, with significant coalition, 
joint, and interagency involvement. Whatever the threat, the AOC 
provides the critically important real-time predictive battlespace 
awareness for decision-makers. The Air Force will work closely with the 
other agencies to form a tightly knit web of resources that will be 
readily available to answer the call. In this way, Homeland Security 
efforts will be interwoven and fundamentally aligned with the Air 
Force's top priorities.
    Additionally, Air Force counterair and ISR capabilities are 
significant contributors to the multi-layered missile defense system, 
incorporating air and space-based elements that provide effective, 
affordable, global protection against a wide range of threats. Future 
space capabilities such as the SBIRS will greatly enhance our ability 
to track and engage ballistic missiles while space-based radar 
technologies will identify and track fixed and mobile ballistic missile 
launchers. Finally, the ABL will engage ballistic missiles in their 
boost phase, while the F-22, working with advanced ISR systems, will 
defend against cruise missiles.
    Consequence Management
    The Air Force has played an important role in consequence 
management. We have provided critical resources such as airlift, 
command and control, and disaster preparedness response forces to other 
lead agencies and the Joint Forces Civil Support Teams. The AFMS is 
acquiring a variety of modular packages that can be used to support 
civilian authorities requesting our assistance at home or abroad. 
Within 2 hours of notification, the Small Portable Expeditionary 
Aeromedical Rapid Response (SPEARR) teams deploy ten specialists with 
the capability to provide a broad scope of care, including initial 
disaster medical assessment, emergency surgery, critical care, and 
patient transport preparation. This will increase the state medical 
response capability for homeland security. Additionally, Air National 
Guard men and women both command and contribute to the Nation's current 
Civil Support Teams-including critical mobility requirements that 
support the air transportation of these teams to sites of potential 
CBRNE or WMD attacks.
    In the QDR, the Secretary of Defense identified Homeland Security 
as a top priority for the Department of Defense. The Air Force has a 
role in each aspect of preventing, protecting from, and responding to 
attacks against our homeland. The Air Force has a robust array homeland 
defense capabilities today and will improve and transform as necessary 
for the future. As in the past, we stand ready today to contribute 
these unique capabilities and develop new technologies to aid our 
national command authorities in combating threats or attacks to our 
homeland.
Conclusion
    The same relative advantages of speed, flexibility, range, 
lethality and the like that have defined air power since its inception 
also define the collective talents of airmen--military and civilian 
alike. The partnership among all of the components of the Air Force is 
elevating the Nation's air and space capabilities to even greater 
heights than ever conceived. Yet we are not satisfied. We will continue 
to aggressively pursue our critical future capabilities through every 
avenue, drawing on all of our resources, and finding no satisfaction in 
compromise. While funding is critical to securing new and revitalized 
systems, the Air Force is focused on the source of the most 
exponentially beneficial results--our innate skill at integration, 
innovation, and visionary implementation of ideas and processes. 
Ultimately, it is from our airmen, our most essential resource of 
people that transformation will accelerate, accelerate and continue.

                                 PEOPLE

    ``People are a priority'' is not just a slogan in the Air Force, it 
is an imperative. Historically, the Air Force has been a retention-
based force and continues to be so today. We rely on recruiting and 
training technically and mechanically gifted individuals to develop and 
operate our advanced air and space systems. Though we exceeded our 
fiscal year 2001 recruiting and accession goals, there are some 
critical skills in need of special attention--scientists and engineers 
in particular. We must take action now to address these and other 
developing personnel gaps in the uniformed and civilian Air Force 
alike.
    Before September 11, we were deploying our people at a rate three 
times higher than we were a decade earlier. Though we were narrowing 
the gap between force structure drawdowns and increased commitments, 
the marker has been shifted significantly and we anticipate a growth in 
requirements. The addition of Operations Noble Eagle and Enduring 
Freedom and the creation of new homeland security requirements to an 
already strained personnel tempo (PERSTEMPO) warranted an assessment of 
our total manpower requirements. We are working with our sister 
services and OSD on this issue. Between the active, Reserve, and Guard, 
we have identified the need for and end strength increase of over 
45,000 above fiscal year 2002 levels. Such an increase in the force 
introduces significant challenges, however we believe we have the 
initiatives and plans in place to achieve the larger force.
    Recent events have accentuated the contributions our Total Force--
Active duty, Air National Guard, Air Force Reserve, and civilians--
brings to our national defense team. We must now size this force 
appropriately to meet new demands by capitalizing on positive 
recruiting results, and honing retention programs, and examining 
closely tasks that might better be performed by civilians, or members 
of the Guard or Reserve. To attract and retain the best people in a 
high-technology world, we will accelerate our efforts to develop, 
educate, train and compensate our people to continue to lead the world 
as a technologically superior military force.
    Retention is more than a quality of life issue. It involves letting 
our people know that what they are doing matters. It is about 
instilling our Airmen with pride in a mission well done. At the end of 
their careers they will remember being part of a team that made a 
difference. To this end, we have initiated a major ``re-recruiting'' 
program.
Recruiting
    The Air Force exceeded fiscal year 2001 enlisted recruiting goal of 
34,600 by almost 800. We still require 99 percent of our recruits to 
have high school diplomas and nearly 75 percent to score in the top 
half of test scores on the Armed Forces Qualification Test. In 
addition, we brought 1,155 prior-service members back on Active duty, 
nearly double the number from fiscal year 1999.
    We must enlist airmen whose aptitudes match the technical 
requirements we need. In fiscal year 2001 we implemented targeted 
recruiting programs for mechanically skilled recruits. These efforts 
paid off, allowing us to exceed our recruiting goal for these skills by 
763. We did, however, fall short of our recruiting goal by 203 in the 
general skill area. This includes the Security Forces career fields, 
which have become vital in light of current operations.
    The Air Force is postured well to increase recruiting goals to meet 
new requirements. Previously approved increases in advertising, a more 
robust recruiting force with broader access to secondary school 
students, and competitive compensation prepares the Air Force to meet 
future recruiting challenges. We budgeted $77 million for recruiting 
advertising in fiscal year 2002, which is nearly five times the amount 
from fiscal year 1998. For fiscal year 2002, we programmed an 
additional $9 million for the enhanced initial enlistment bonus 
program, and the prior service reenlistment program, up from $123.8 
million in fiscal year 2001. These bonus programs help to recruit hard-
to-fill critical skills and to encourage recruiting during historically 
difficult recruiting months.
    Officer recruiting faces many of the same challenges as enlisted 
recruiting. However, we continue to draw America's best and brightest, 
even given the lure of a competitive job market. In the ROTC program, 
we implemented several initiatives to attract more candidates, offering 
contracts to freshmen cadets rather than waiting until their sophomore 
year, and a one-year commissioning program to attract both 
undergraduate and graduate students. Overall in fiscal year 2001, we 
achieved 105 percent of our line officer accession target, up from 97 
percent in fiscal year 2000. Recent legislation, which increased the 
maximum age for appointments as cadets into Senior ROTC scholarship 
programs, further increases our recruiting opportunities. We are also 
examining changes to the program to reduce attrition during the ROTC 
cadet years.
    Of particular concern, however, is the area of military and 
civilian scientists and engineers. We fell short of our accession goal 
for these groups by nearly 250, and have begun an all-out effort to 
plus up recruitment and target retention of these critical specialties. 
For example, in fiscal year 2003 we begin a college sponsorship program 
to attract scientists and engineers from universities where there is no 
ROTC program. Thanks to prompt Congressional action, we have the 
authority to implement bonuses, adjust funding to create retention 
allowances, and work toward implementing special salary rates for the 
most difficult to retain fields. At the December 2001 Scientist and 
Engineer Summit, the Secretary and the Chief of Staff embraced these 
and other initiatives to remedy the accession challenge. The Air Force 
recognizes the great need for these bonuses and has programmed funds 
accordingly. However, funding levels were cut during the appropriations 
process.
    We have also found recruiting health care professionals especially 
difficult. Many medical, dental, nurse and biomedical specialties are 
experiences critical shortages. For example, only 80 percent of our 
clinical pharmacy positions are currently filled. We are now reviewing 
accession initiatives for pharmacists.
    In fiscal year 2001, the Air Force Reserve exceeded its recruiting 
goal for the first time in 5 years--accessing 105 percent of their 
target. However, there are significant challenges ahead in recruiting 
citizen-airmen. Historically, 30 percent of Reserve accessions come 
from eligible members (i.e. no break in service) separating from Active 
duty. In fiscal year 2002, recruiting will have to make up that part of 
the goal, more than 3,000 people, from other applicant sources until 
Stop Loss is lifted. Once lifted, we expect there will be challenges in 
filling many vacated positions. One of the biggest challenges for 
Reserve recruiters this year is Basic Military Training (BMT) quotas. 
While recruiting services increased emphasis on enlisting non-prior 
service applicants, BMT allocations have not kept pace. This problem is 
forecasted to worsen this year as a result of Stop Loss. Reservists are 
working diligently to increase BMT allocations and explore solutions to 
address BMT shortfalls.
    The Air National Guard has placed recruiting and retention emphasis 
on Air Force Specialties where shortages exist by offering enlistment 
and reenlistment bonuses, Student Loan Repayment Program, and the 
Montgomery GI Bill Kicker Program. As a result, many of the Air 
National Guard critical maintenance AFSCs have seen real strength 
growth from 2-6 percent over the last 2 fiscal years. These incentives 
have contributed greatly toward enticing and retaining the right talent 
for the right job. Though recruiting and retention rates have 
increased, the Air National Guard realizes that potential problems 
exist that may affect future sustained capability.
Retention
    Over 128,000 Active duty airmen, 46 percent of the enlisted force, 
are eligible for reenlistment in fiscal year 2002-2003. Although 
positive about a career in the Air Force, our people are being lured 
away by the availability of higher-paying civilian jobs. To sustain our 
readiness posture for rapid deployment, we must retain our highly 
trained, experienced, and skilled people. Retention is half the 
equation of an increase in end strength. By keeping our experience, we 
reduce recruiting and training requirements and continue to build and 
maintain our technical expertise.
    Retention will continue to be a priority and a challenge in the 
future. We are aware Stop Loss and the increased tempo of ONE and OEF 
may have a negative affect on retention and we are planning for offsets 
already. We must provide a robust compensation package that rewards 
service, provides for a suitable standard of living, ensures a high 
quality of life, and retains our high caliber professionals. We must 
continue to reduce out-of-pocket expenses incurred through frequent 
moves, deployments, and other temporary duty. Our airmen must view a 
military career as a viable and competitive option if we are to 
maintain an all-volunteer force. To that end, we have initiated an 
aggressive campaign to ``re-recruit'' our force, through individualized 
mentoring and career counseling. This effort began with pilots 
scientists and engineers, as well as Battle Managers, and will include 
other critical skills in the coming months. Pilots were to be the 
initial focus, but the demands of ONE and OEF required that we delay 
the re-recruiting of this group. Congress has rallied to the Air 
Force's needs in all of these, and we will rely on continued help, 
particularly in the year ahead.
    Officer retention trends continue to raise concerns. We monitor 
these trends through the officer cumulative continuation rate (CCR), or 
the percentage of officers entering their 4th year of service (6 years 
for pilots and navigators) who will complete their 11th year of 
service, given existing retention patterns. Although the fiscal year 
2001 CCR for pilots increased from 45 percent in fiscal year 2000 to 49 
percent, it's significantly lower than the high of 87 percent in fiscal 
year 1995. We have fully manned our cockpits, but our rated pilot staff 
manning has fallen to 51 percent. Airline hires in fiscal year 2002 
will be down from over 3,000 last year to approximately 1,500 this 
year; however, we anticipate the hiring will surge again shortly 
thereafter. Therefore, we can expect the USAF pilot shortage to 
continue for at least the next 8 years until we fully realize the 
effects of the 10-year Active duty service commitment for undergraduate 
flying training. We are optimistic that our ``re-recruiting'' effort 
will further enhance pilot retention and help alleviate the shortage 
sooner.
    The mission support officer fiscal year 2001 CCR has held steady at 
44 percent. However, retention rates for several high-tech specialties 
have decreased-scientists (36 percent), developmental engineers (42 
percent), acquisition managers (40 percent), and air battle managers 
(47 percent). Conversely, navigator rates improved in fiscal year 2001, 
rising 3 percentage points to 72 percent. Navigators are a critical 
rated resource being used to fill many pilot vacancies at headquarters 
level. In the next few years, we expect a rapid decline in this large 
retirement-eligible population. We also need to retain every 
experienced air battle manager (ABM) we can to preserve our warfighting 
capability. This high-demand, low-density career field retention is 
negatively impacted by increased operations tempo.
    The Air Force Reserve exceeded Command retention goals for their 
enlisted airmen during fiscal year 2001. Again, it was the team effort 
of the members, first sergeants, supervisors and commanders that led 
the Reserve to this exceptional achievement. Bonuses also continue to 
be an effective tool in retaining our members. The flexible Aviation 
Continuation Pay (ACP) program is an important part of our multi-
faceted plan to retain pilots. In fiscal year 2001 we offered ACP 
payments through 25 years of aviation service, resulting in a 
substantial increase in committed personnel. Because of this success, 
we plan a similar design for the fiscal year 2002 ACP program, and 
extension of this program to navigators and ABMs.
    Seventy-eight percent of our enlisted skills are now receiving re-
enlistment bonuses, up 2 percentage points from fiscal year 2000. The 
authorization to pay officer and enlisted critical skills retention 
bonuses should help retain individuals in high demand by the civilian 
sector. We are initially targeting this new authority to Science, 
Engineering, and Communications and Information. Also, the authority to 
increase special duty assignment pay provides the flexibility to target 
our most pressing enlisted skills. The fiscal year 2002 National 
Defense Authorization Act (NDAA) authorizes installment payment 
authority for the 15-year career status bonus, and an educational 
savings plan to encourage re-enlistment in critical specialties. 
Additionally, the Air Force Reserve is studying special duty pay 
initiatives for senior enlisted positions, such as command chief master 
sergeants and unit first sergeants for future implementation.
    The Air National Guard's number one priority is to increase their 
traditional pilot force, which has maintained a steady state of 90 
percent. During the past year, the Guard continued to see an increase 
in ACP take rates to 93 percent. ACP has accomplished its goal by 
retaining qualified full-time instructor pilots to train and sustain 
our combat force. The Guard and Reserve continue to pursue substantial 
enhancements to the Aviation Career Incentive Pay (ACIP) and Career 
Enlisted Flyer Incentive Pay (CEFIP) to increase retention in the 
aviation community, as well as attract/retain individuals to aviation. 
These initiatives, which affect over 13,343 officers and enlisted crew 
members in the Guard and Reserve, are aimed at those traditional 
aviators who do not qualify for the ACP for AGRs and the Special Salary 
Rate for Technicians.
Training
    Training the world's best Air Force is challenging in today's 
rigorous, expeditionary environment. Increased accessions stress our 
training facilities and personnel. During surge periods, we operate at 
maximum capacity by triple-bunking students in two-person dorm rooms. 
We are currently seeking funds to improve the training infrastructure.
    Lower than required enlisted retention rates are increasing our 
training burden. Also, fewer experienced trainers are available to 
train 3-level personnel. Despite these challenges, our technical 
training schools have been able to meet their mission. We increased our 
use of technology and streamlined the training processes to produce 
fully qualified apprentices ready to support the warfighter.
    Even with the EAF, our tempo can make educational pursuits 
difficult. Our learning resource centers and Advanced Distributed 
Learning initiatives address this situation by offering deployed 
personnel education and testing opportunities through CD-ROM and 
interactive television. We support lengthening the Montgomery GI Bill 
contribution period from 1 to 2 years in order to ease the financial 
burdens of new Airmen. Additionally, we have joined with the other 
Services, the Department of Labor, and civilian licensing and 
certification agencies to promote the recognition of military training 
as creditable towards civilian licensing requirements.
    Defining the Air Force's institutional training and educational 
requirements for leadership development allows the services to weigh 
resource decisions better and to emphasize to our people the 
institution's investment in their careers. The Air Force is pursuing 
leadership development and career mentoring strategies, to prepare the 
Total Force for the 21st century. These competency-based strategies are 
focused on understanding the leadership needs of our transforming force 
and creating a development process that will better prepare Airmen to 
serve and lead. The Air Force is examining more deliberate career 
broadening, emphasizing two categories of competencies--occupational 
(what we do) and universal (who we are). We are also examining 
potential changes to the professional growth of officers including the 
rationalization of advanced degrees and professional military 
education. Force readiness, sustainability, and mission performance all 
depend on selecting, training, and retaining the best individuals with 
the necessary skills, as well as motivating every member of the service 
and taking care of Air Force families.
Civilian Workforce Shaping
    Today, less than 10 percent of our civilians are in their first 5 
years of service. In the next 5 years, more than 40 percent will be 
eligible for optional or early retirement. Historical trends indicate 
that approximately 33 percent of white-collar employees and 40 percent 
of blue-collar employees will retire the year they become eligible. In 
addition, downsizing over the past decade skewed the mix of civilian 
workforce skills, compounding the loss of corporate memory and lack of 
breadth and depth of experience.
    While we are meeting mission needs today, without the proper 
civilian force shaping tools, we risk not being ready to meet 
tomorrow's challenges. To help shape the civilian workforce, it is 
imperative that we fund civilian force development initiatives to 
include skill proficiency and leadership training, and tuition 
assistance programs. The fiscal year 2002 NDAA did authorize the 
payment of expenses to obtain professional credentials.
    In addition, management tools are essential in shaping the force by 
opening the door to new talent so we can gather the right skill mix. 
These initiatives include pay comparability and compensation, a 
streamlined and flexible hiring process, recruiting incentives for 
technical skills and student employment programs. Also, the fiscal year 
2002 NDAA provided the authority for a pilot program allowing for 
payment of retraining expenses and extended the use of Voluntary 
Separation Incentive Pay (VSIP) and Voluntary Early Retirement 
Authority (VERA) for workforce restructuring. To incentivize key senior 
personnel to accept critical positions, we continue to support 
implementation of a last move home benefit.
Quality of Life
    Quality of life ranks as one of the Air Force's top priorities, so 
our quality of life initiatives attempt to balance the intense demands 
we place on our mission-focused Total Force. With continued 
congressional support, the Air Force will pursue adequate manpower; 
improved workplace environments; fair and competitive compensation and 
benefits; balanced deployments and exercise schedules; safe, 
affordable, and adequate housing; enhanced community and family 
programs; improved educational opportunities; and quality health care, 
as these have a direct impact on our ability to recruit and retain our 
people and sustain a ready force.
    The fiscal year 2002 NDAA provided for the largest raises for mid-
level and Senior NCOs (7 percent-10 percent) to improve pay based on 
their education and experience levels. Junior enlisted members received 
a 6 percent-6.7 percent pay raise and captains and majors received a 6 
percent-6.5 percent raise while all other personnel received a 5 
percent raise. Basic Allowance for Housing rates effective 1 Jan. 2002 
will be based on 11.3 percent out-of-pocket for the National Median 
Housing Cost for each grade and dependency status. Additionally, the 
fiscal year 2002 NDAA authorizes several additional travel and 
transportation allowances that will reduce out-of-pocket expenses for 
our military personnel.
    Higher priorities have led to a deferral of much-needed 
infrastructure sustainment, restoration, and modernization of the 
workplace. Together with spare parts and equipment shortfalls, budget 
limitations impede successful execution of mission requirements, cause 
lost productivity, and negatively impact quality of life. It will take 
increased funding levels focused on infrastructure restoration and 
modernization to allow us to optimize the condition of the workplace 
environment and, furthermore, help eliminate the risk to our near- and 
long-term readiness.
    Providing safe and adequate housing enhances readiness and 
retention. The Air Force Dormitory Master Plan and Family Housing 
Master Plan identify and prioritize our requirements, while DOD is 
championing the reduction of out-of-pocket housing expenses by fiscal 
year 2005. We project significant improvements in our military family 
housing by reducing our inadequate units from 59,000 at the beginning 
of fiscal year 2002 to 46,000 at the beginning of fiscal year 2003, and 
with the help of privatization efforts underway, eliminating inadequate 
units by 2010. During fiscal year 2001-2004 we plan to privatize over 
21,000 housing units at 26 installations. Similar improvements are 
being made in our unaccompanied housing, where more than 1,600 
dormitory rooms will be constructed as a result of the fiscal year 2002 
program.
    The Air Force continued to set the standard in providing quality 
childcare and youth programs. In addition to 100 percent accreditation 
of Air Force child care centers, the Air Force achieved 100 percent 
accreditation of all of its before- and after-school programs for youth 
6-12. In fiscal year 2001, the Air Force expanded the extended duty 
childcare program for members required to work extended duty hours and 
in fiscal year 2002 will test using this program for members working at 
missile sites and those who need care for their mildly ill children. 
Many youth initiatives implemented in fiscal year 2001 are part of the 
affiliation of the Air Force's youth program with the Boys & Girls 
Clubs of America.
    The Air National Guard also identifies childcare as a readiness 
issue. With increasing demands from Commanders and family members, the 
ANG formed a Childcare Integrated Process Team (IPT) to study 
innovative childcare options. The IPT yielded a website developed for 
internal use by ANG field units to pursue childcare alternatives in 
relationship to the unit's location, demographics, and legal issues. 
Additionally, the Guard has proposed a cost-sharing pilot program based 
on the Air Force childcare cost model.
    Tremendously important to child and family quality of life are the 
commissaries and exchanges. The Air Force continues to support these 
benefits as vital non-pay compensation upon which Active duty, 
retirees, and Reserve component personnel depend. Commissaries and 
exchanges provide significant savings on high quality goods and 
services, and a sense of community for airmen and their families 
wherever they serve. As a result, commissaries and exchanges are cited 
as a strong influence on retention and a highly valued component of 
quality of life.
    Additionally, lodging facility improvements and temporary lodging 
facilities have become a higher quality of life priority. Constructing 
facilities in sufficient quantity and maintaining existing facilities 
not only supports our members and families in TDY and permanent change 
of station status, but also yields significant savings in travel costs 
and ensures force protection. All new construction and renovations meet 
the recently adopted VQ standard--``one size fits all ranks''--
mirroring the industry standard of 280 square feet per room with 
private baths for all grades.
    Physical fitness is unquestionably a force multiplier, and 
investment in fitness facilities, equipment, and programs directly 
impacts readiness. An independent assessment of our fitness centers 
documented a requirement of $645 million for construction and 
renovation at Active duty and Reserve bases. The Air Force committed 
$183 million in fiscal year 2000-2005 Quality of Life funding and has 
steadily increased annual MILCON funding, including $52 million this 
year.
    Meanwhile, today's Air National Guard member families are in 
immediate need of dedicated full time family readiness and support 
services--specifically information referral support and improved 
communications and education capabilities. The Air National Guard has 
developed a program solution in fiscal year 2001 to fund a full-time 
contracted family readiness program at each Wing and Combat Readiness 
Training Center. While funding for fiscal year 2002 has been added in 
the fiscal year 2002 Supplemental Appropriations, there is no sustained 
funding in the FYDP. Properly funded and resourced, the ANG family 
readiness program will significantly enhance mission capabilities by 
reducing pressures on personnel and their families and improving their 
Quality of Life.
Healthcare
    The recent implementation of DOD health care initiatives, such as 
TRICARE for Life, provided the missing link to the Air Force Medical 
Service's population-based health care strategy. Now, the AFMS has the 
foundation to provide whole care to its beneficiaries. The TRICARE 
Senior Pharmacy Benefit, started 1 April 2001, brought an expanded 
benefit to the Air Force's retired population. TRICARE for Life, the 
program that makes TRICARE second payer to Medicare, and TRICARE Plus, 
the program that allows seniors to enroll in a primary care program at 
selected MTFs, both began concurrently on 1 October 2001. These new 
programs will undoubtedly enhance the quality of life for the Air 
Force's older retiree population. TRICARE Plus will also strengthen the 
AFMS's medical readiness posture by expanding the patient case mix for 
our providers.
    The AFMS continues to make great strides in its population health 
initiatives and customer satisfaction. Central to the AFMS's population 
health plan is its Primary Care Optimization program, which improves 
clinical business processes through maximizing medical support staff 
skills and duties and through robust information management that 
supports effective decision-making. The Primary Care Manager by Name 
program provides much-needed continuity of care and, ultimately, better 
patient management by providers. Other population health initiatives 
include the Air Force Suicide Prevention program, which has served as a 
model for DOD and the Nation in their efforts to address this 
significant public health issue. As a result of AFMS' initiatives, 
health care customer satisfaction continues to rise in the Air Force. 
According to the latest Customer Satisfaction Survey Results, 90 
percent of the Air Force's enrolled beneficiaries indicate they would 
enroll or re-enroll in TRICARE Prime if given the option. The overall 
satisfaction with clinics and medical care exceeds national civilian 
HMO averages.
Conclusion
    The Air Force implemented structural and cultural changes via EAF 
concept to enhance responsive force packaging, as well as to provide 
more stability/predictability in deployment and home station 
scheduling. We must continue to address force-wide balanced tempo 
issues with manning, infrastructure and equipment, training, recruiting 
and retention, and mission requirement assessments. High OPSTEMPO has 
taken its toll: our people are still deployed three times more often 
than prior to Desert Storm-based on a force 60 percent its former size. 
Air National Guard and Air Force Reserve participation has steadily 
increased since Desert Storm, which has created unique challenges for 
Guardsmen and reservists balancing civilian careers with increased 
military requirements. Trends show demand for air power will only 
increase; EAF holds promise by giving airmen predictability and 
stability. We must also take care of our families with adequate housing 
programs, medical facilities, and base support services. Our efforts 
continue to pay off, yet they must be actively renewed and 
revitalized--flexible enough to adapt to new circumstances and demands 
in a changing world.

    Chairman Levin. Thank you, Mr. Secretary.
    We will have a 6-minute round on an early bird basis. I 
think we are going to be interrupted by perhaps a series of 
votes. We will have to figure out what to do when that 
information comes to us.
    Let me ask this of each of you. Eight months ago there was 
an announcement made that two new committees were going to be 
formed, a Senior Executive Committee (SEC) and a Business 
Initiative Council (BIC) at the Department of Defense. Both of 
those committees would have responsibility for planning and 
implementing improved management practices across the entire 
Department of Defense. This was an effort made to improve 
business practices of the Department and to roll those savings 
into the warfighting end of the Department.
    Can you each tell us very briefly what specific reforms 
have been initiated through these two new entities? Secretary 
White, let me start with you.
    Secretary White. On the BIC side, we are accelerating and 
pushing hard utilities privatization, which was a program that 
actually started before this administration. We are realigning 
headquarters to meet the goals that the Secretary has 
established for us. I have talked about the reductions that we 
have made as we have realigned the secretariat and the Army 
staff.
    On the SEC side, we are looking at all the defense agencies 
and the roles that they play within the Department and 
streamlining their operations as well.
    Chairman Levin. Are these Department-wide, what you have 
just announced?
    Secretary White. Yes, they are generally being followed by 
all of the services.
    Chairman Levin. Do you have anything to add to that, 
Secretary England?
    Secretary England. I was only going to comment that in both 
the SEC and BIC, the three of us serve together on those 
committees along with the Under Secretary, Paul Wolfowitz, and 
occasionally with Secretary Rumsfeld. So we all work this 
jointly.
    I was going to add that, in addition to the things that the 
Secretary of the Army commented on, we are also looking at 
supply chain management throughout the whole Department, 
because that is where a lot of the money is in this Department, 
it is in the whole support infrastructure. So we are looking at 
that and how we might do it better. We also, with Pete 
Aldridge, who is the Under Secretary for Acquisition, 
Technology, and Logisitics, have a wide range of initiatives in 
that area, and some of those have been implemented.
    So we have been implementing changes. Some of those have 
already taken place and there is a whole agenda of issues we 
are working on.
    Chairman Levin. Will you identify for us the specific 
changes which have occurred and the savings which have 
resulted?
    Secretary England. Yes, sir. We have done a number of 
issues dealing with personnel, I guess what I would call low-
hanging fruit. We identified in the very first series of 
meetings we had, as I recall, the number was about $250 
million. We had 11 issues brought before the board and we 
approved 10 of those. One is still being studied. Those 10 
saved, I believe the number was $250 million, Senator, but I 
have to get back with you on that.
    Chairman Levin. Would each of you provide for the record 
the specific savings which have resulted from these 
initiatives, and would you tell us where in the budget we can 
find those savings? Will you each do that for us?
    Secretary England. Yes, sir.
    Secretary White. We will do that.
    Secretary Roche. Absolutely, sir.
    [The information referred to follows:]

 DOD Business Initiative Council (BIC) Estimated Savings in the Fiscal 
                            Year 2003 Budget

    Secretary White. Our BIC objectives are to improve the Department's 
business processes and to make resources available for higher priority 
programs, most significantly the transformation of the Department and 
the support of our uniformed and civilian personnel. A key feature of 
the program is that the Services are allowed to retain the savings and 
apply them to other priorities. We solicit the support of Congress in 
allowing us to retain the savings that we are now beginning to 
generate. The assurance that we will be able to retain the savings is 
an essential motivator that will keep the flow of good ideas coming to 
us from throughout the Department.
    The BIC has approved eight initiatives to date. The benefits from 
these initiatives include reduced cycle time for business processes, 
improved freedom to manage our financial and personnel resources, and 
increased efficiency. Seven of the initiatives are projected to 
generate savings in the fiscal year 2003 budget. I am providing details 
for these initiatives in the following table.
    In all cases, the savings are estimates. Because most of these 
initiatives involve innovative approaches to improving our business 
operations, we cannot be certain of the dollar values. We have not yet 
realigned our budgets by moving the savings from one program to 
another. The savings estimates shown in the table are for all three 
military departments combined.
    Two initiatives--contracting of security guards and raising Davis-
Bacon Act thresholds--require congressional approval of proposed 
legislative changes. These proposals will be included in our Omnibus 
package.
    One initiative--exempting DOD from paying the Federal Retail Excise 
Tax on tactical vehicles--requires agreement by the Secretary of the 
Treasury, who is reviewing the DOD proposal.
    The Senior Executive Committee (SEC) has begun several analyses 
that will enable us to streamline DOD's operations in the future. We 
are not projecting fiscal year 2003 savings from these analyses.
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                 ______
                                 
    Secretary England. The mission of the BIC is to improve the 
efficiency of DOD business operations by identifying and implementing 
business reform actions, which allow savings to be reallocated to 
higher priority efforts. Such savings will be retained by the Services 
for their reallocation. As we transform America's military capability 
to meet the threats of the 21st century, we must also transform the way 
the Department works and what it works on. To date, the BIC has 
approved 28 initiatives; seven offer potential savings in fiscal year 
2003, while four others appear to have savings, but are too premature 
in implementation to quantify. The remaining 17 will provide cost 
avoidance and/or unquantifiable savings, in terms of reduced cycle 
time, improved freedom to manage, streamlined procedures, accelerated 
information sharing/decision-making, etc. Potential savings have not 
progressed to the point of having actual, verifiable figures and have 
not been broken out by Service nor realigned within the budget; rules 
of engagement to break out and reflect the savings are in work. Some of 
these initiatives can be approved within the Department while others 
will require Congressional help.
    The following are examples of initiatives offering potential 
savings that are within DOD's purview:

        <bullet> Recovery Auditing: Use contingency fee auditing 
        services contracts to identify and recover overpayments to 
        providers of goods and services. This initiative will initially 
        focus on contract overpayments made in the Department's working 
        capital fund business areas. Cost recoveries will be factored 
        into the funds' rates for subsequent years, and potential 
        savings will be indirectly passed on to warfighters and other 
        customers. Recoveries of general fund overpayments will begin 
        when OMB regulations implementing PL 107-107 are received.
        <bullet> Web-Based Invoice Receipt Process: Reduce occurrence 
        of incorrectly prepared or missing receiving reports and move 
        toward paperless process; will allow Defense Finance and 
        Accounting Service (DFAS) to pay vendors more quickly and 
        accurately. Savings will be realized in the cost of support 
        services provided by the DFAS, as manual processes are reduced.
        <bullet> Local/Regional Cell Phone Pooling: Negotiate new local 
        or regional cell phone contracts to consolidate cell phone 
        users into appropriate pools. Savings will be realized in the 
        Services' operating appropriations at all organizational 
        levels. The Services intend to allow local commanders to retain 
        these potential savings.

    The following are examples of initiatives offering potential 
savings that require Congressional or other Departmental assistance:

        <bullet> Allow for Contracting of Security Guards: Allows 
        Services to contract security guards in CONUS at small 
        locations, to provide increased flexibility as Department 
        continues to enhance anti-terrorism/force protection measures; 
        will be included in the fiscal year 2003 Omnibus package. If 
        Congress approves the requested legislative proposal, savings 
        will be realized in the operating appropriations of selected 
        installations throughout DOD. The Services intend to allow 
        local commanders to retain these potential savings.
        <bullet> Revise Davis-Bacon Thresholds: Raise the current 
        threshold subject to Davis-Bacon Act from $2,000 to the 
        simplified acquisition threshold currently at $100,000; will be 
        included in our fiscal year 2003 Omnibus package. If Congress 
        approves the requested legislative proposal, potential savings 
        will be realized in the Services' construction appropriations.
        <bullet> Eliminate Excise Tax on DOD Tactical Vehicles: Request 
        authorization of exemption from Treasury Department from paying 
        Federal Retail Excise Tax. If the Secretary of the Treasury 
        approves the request submitted by the Secretary of Defense, 
        potential savings will be realized in the Services' procurement 
        appropriations.

    In summary, BIC is an ongoing effort, which is ``action-focused,'' 
aimed at identifying and implementing good business practices and 
creating an environment that encourages innovation and cood ideas.
    Secretary Roche. The mission of the Business Initiative Counil 
(BIC) is to improve the efficiency of DOD business operations by 
identifying and implementing business reforn actions, which allow 
savings to be reallocated to higher priority efforts. Such savings will 
be retained by the Services for their reallocation. As we transform 
America's military capability to meet the threats of the 21st century, 
we must also transform the way the Department works and what it works 
on. To date, the BIC has approved 32 initiatives; 7 offer potential 
savings in fiscal year 2003, while 8 others appear to have savings, but 
are too premature in implementation to quantify. The remaining 17 will 
provide cost avoidance and/or unquantifiable savings, in terms of 
reduced cycle time, improved freedom to manage, streamlined procedures, 
accelerated information sharing/decision-making, etc. Savings are 
estimates only and have not progressed to the point of having actual, 
verifiable figures. These savings have not been broken out by Service 
nor realigned within the budget; rules of engagement to break out and 
reflect the savings are in work. Some of these initiatives can be 
approved within the Department while others will require congressional 
help.
    The following are examples of initiatives offering savings that are 
within DOD's purview:
        <bullet> Recovery Auditing: Use contingency fee auditing 
        services contract to identify and recover overpayments in 
        Working Capital Funds to providers of goods and services. 
        Estimated savings: $93 million (fiscal year 2003)
        <bullet> Web-Based Invoice/Receipt Processing: Reduce 
        occurrence of incorrectly prepared or missing receiving report 
        and move toward paperless process; will allow DFAS to pay 
        vendors more quickly and accurately. Estimated savings: $7-$11 
        million (fiscal year 2003)
        <bullet> Cell Phone Minute Pooling: Negotiate new local or 
        regional cell phone contracts to consolidate cell phone users 
        into appropriate pools. Estimated savings: $3-$10 million 
        (fiscal year 2003)
        <bullet> Enterprise Software Initiative (ESI): Streamline the 
        acquisition process by providing best-priced, standards-
        compliant software products and expanding the use of ESI 
        process as the benchmark acquisition shategy. Estimated 
        savings: $7 million (fiscal year 2003)

    The following are examples of initiatives offering savings that 
require congressional or other Departmental assistance:

        <bullet> Allow for Contracting of Security Guards: Allows 
        Services to contract security guards in CONUS at small 
        locations, to provide increased flexibility as Department 
        continues to enhance anti-terrorism force protection measures; 
        will be included in the fiscal year 2003 Omnibus package. 
        Estimated savings: $3.5 million (fiscal year 2003)
        <bullet> Revise Davis-Bacon Thresholds: Raise the current 
        threshold subject to Davis-Bacon Act from $2,000 to the 
        simplified acquisition threshold currently at $100,000; will be 
        included in our fiscal year 2003 Omnibus package. Estimated 
        savings: $6.5 million (fiscal year 2003)
        <bullet> Eliminate Excise Tax on DOD Tactical Vehicles: Request 
        authorization of exemption from Treasury Department from paying 
        Federal Retail Excise Tax. Estimated savings: $66 million 
        (fiscal year 2003)

    In summary, BIC is an ongoing effort, which is ``action-focused,'' 
aimed at identifying and implementing good business practices and 
creating an environment that encourages innovation and good ideas. The 
total estimated savings (attached) for fiscal year 2003 anticipated for 
all of these BIC initiatives is approximately $190 million with 
anticipated DOD savings across the FYDP (fiscal year 2004-2009) ranging 
from $750 million to $1 billion.
       
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Secretary Roche, do you have anything to 
add on that?
    Secretary Roche. Yes, sir. I just wanted to make a point, 
that a number of these are cost avoidance. In other words, it 
is not taking something that is now in place and doing away 
with it, but avoiding a cost in the future. So it is a 
combination of savings and cost avoidance.
    The two groups are very different. In terms of the SEC, it 
is with Under Secretary Aldridge, who is part of it. We have 
been able to move very, very quickly over things. We have been 
able to support price-based acquisition instead of the more 
torturous forms. We have been able to work with Mr. Aldridge in 
getting a lot of savings out of DLA, DFAS, et cetera, conscious 
goals for those agencies to lower their costs to us.
    With the BIC, we have done such simple things as asking the 
Treasury to not charge us a tax on our vehicles that we use off 
road, that do not ever get on the highway. Why are we paying a 
highway tax? We are looking at how long it takes for something 
to happen because so much money is involved and people are just 
reviewing and reviewing and we are trying to streamline the 
processes.
    Probably over the period of the Future Years Defense Plan 
(FYDP), between what we have done and what we would like to do, 
we are looking at something like a billion dollars so far. But 
they are very different. The reason it has been working, Mr. 
Chairman, is that the Secretary has allowed us to take any 
savings and plow it back into the services, into personnel 
accounts or into other accounts.
    Chairman Levin. We will expect, then, from each of you for 
the record the list of those savings, how much for each one, 
and where in the budget we can find them.
    Secretary Rumsfeld established a goal of investing 3 
percent of the Department's budget in the science and 
technology programs, which would help drive the transformation 
of our services. But the budget request contains no measurable 
increase in science and technology funding over last year's 
appropriated levels, despite the large increase in the budget 
request.
    Last week the Department's Deputy Director of Defense 
Research and Engineering was quoted as saying the following: 
``Science and technology makes up less than 2 percent of each 
of the military departments' budgets. They really did not care 
about the technology. It is all about this budget. The only 
thing I can say to them is you cannot solve your problems with 
that amount of money.''
    Would you react to that quote? Let us start with you, 
Secretary Roche.
    Secretary Roche. Yes, sir. I think the Air Force came out 
around 2.6 to 2.7 and part of it is our denominator moved up on 
us, gratefully. We also have to include the moneys that are in 
the Defense Advanced Research Projects Agency (DARPA) 
associated with Air Force programs and the number of programs 
we transferred over to what was the Ballistic Missile Defense 
Office (BMDO), now the Missile Defense Agency.
    Science and technology is at the front end. You can throw 
money at it. We would rather work this up to 3 percent and take 
a year or 2 to get there, so we can tailor what we are 
investing in. Clearly we are heavily dependent on science and 
technology investments for long-term results and we are trying 
to make sure each of those investments has some prospect of 
paying off, although we are also interested in some 
wildcatting.
    Chairman Levin. Do either of the two of you have a reaction 
to that quote? Secretary White?
    Secretary White. Our principal investment in S&T is the 
Future Combat Systems (FCS) associated with the Objective 
Force. About 98 percent of it is focused on that. I think we 
are spending about as much money as can be productively used in 
S&T at this stage of maturity of FCS. DARPA is kicking in an 
extra $122 million on their own front. So my opinion is the S&T 
of the Army is in good order compared to the other priorities 
that we have.
    Chairman Levin. You are at what percentage?
    Secretary White. We are probably a little over 2 percent.
    Chairman Levin. Despite Secretary Rumsfeld's statement that 
the DOD had a goal of investing 3 percent?
    Secretary White. Right. We agonized over the 3 percent 
level and whether it was appropriate in each service.
    Chairman Levin. Got you.
    Secretary England, you want to just finish this question?
    Secretary England. Yes. First of all, the 3 percent--I 
would suggest that absolute numbers are more meaningful because 
as we increase pay and benefits, et cetera, the denominator 
gets very, very large, so you would have to dramatically raise 
S&T as a part of the whole budget, particularly the personnel 
accounts. Our S&T is down somewhat from last year.
    Chairman Levin. Absolute or percentage?
    Secretary England. No, absolute it is down. We are down 
absolute, but our research and development (R&D) is up about 
$1.1 billion. So we made the conscious decision that there were 
R&D accounts we needed to fund and we funded those accounts, 
because at some point you do need to bring the S&T to 
realization. Otherwise you just have aninteresting S&T program. 
So we decided that we would instead emphasize the R&D this 
year.
    Now, if you go across the FYDP our S&T does definitely go 
up.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. Thank you.
    Gentlemen, the 2003 DOD budget includes a substantial 
increase in funding for combatting terrorism. Nearly all the 
proposed increase is for this purpose. Would each of you 
outline what your respective departments are doing to augment 
our effort to deter first and if necessary to combat terrorism? 
Secretary White?
    Secretary White. Senator, we have, first of all, an 
enormous manpower commitment, as I talked about in my opening 
statement, supporting homeland security in a variety of ways, 
everything from the Salt Lake City games to airport security 
with the National Guard to enhance force protection at our 
installations, both here in the United States and overseas. So 
we have a large chunk of our operating budget that right now is 
focusing on homeland security and force protection, enhanced 
force protection against counterterrorism.
    Senator Warner. What is the status of the programs that 
were initiated some several years ago and received very strong 
support in this committee? We used to refer to them as the RAID 
teams. Those are the groups that go out to work with the local 
communities should they be hit by a problem. This committee 
repeatedly in the past 3 or 4 years has authorized increases in 
the number of those teams, because of our firm belief they 
would directly help the citizenry if they were faced with a 
problem of a weapon of mass destruction, be it chemical, 
biological, or other.
    Secretary White. Senator, we have pushed that hard. We call 
those Weapons of Mass Destruction Civil Support Teams. There 
are 22 of them fully up and certified. They are manned by 
National Guard full-time people. We will have 32 total by the 
end of 2002, which is what is currently authorized, and those 
32 will give us coverage of about 96 percent of the population 
of the United States in a 3-hour period. So they are very 
impressive teams and we pushed it as a matter of great urgency.
    Senator Warner. Secretary England, the question to you as 
to how you are redirecting portions of your budget to combat 
terrorism.
    Secretary England. Well, Senator, we have two carrier 
battle groups right now in the Arabian Sea actively engaged in 
the war against terrorism. As part of those battle groups, 
there are also our Amphibious Ready Groups with our marines on 
board. Of course, they have just now left Afghanistan, some 
still in country, but back on their ARG. We also, of course, 
have forward-deployed forces around the world.
    Senator Warner. We are aware of those. That is pretty much 
standard operation. But for example, the SEALs have had a 
remarkable role in this conflict. Are you looking to increase 
the size of the SEAL force and provide newer or more modern 
equipment?
    Secretary England. At this point I do not believe we have 
active interest in increasing the size of the SEAL force. We 
are actually undermanned in our SEAL force, so we would like 
very much to increase the manning to its authorized level.
    We do, by the way, have 13 patrolcraft boats that we are 
manning for the Coast Guard, for example, outside of our 
traditional role, that we are providing to the Coast Guard for 
sea and harbor security. So we have taken a number of measures 
with the Coast Guard and of course with the military around the 
world, our intel, et cetera, all being directed on the war on 
terrorism. Frankly, the entire force is directed against this 
war on terrorism around the world.
    Senator Warner. Secretary Roche.
    Secretary Roche. Senator Warner, obviously in Operation 
Noble Eagle we have put a huge number of forces in place, as I 
described. Also, to complement Secretary White's teams, we have 
35 C-130s that are on alert every day and backup airplanes to 
move the emergency action teams so they can get where they are. 
That is over and above all the cap and everything else we fly, 
and we have tankers ready for them as well.
    Our force protection has been a major investment. We have 
called up all the Reserves, all the Guard folks, in force 
protection, and we are still shy of people. We never planned to 
be able to defend our forces overseas, because we have to do a 
lot of force protection there, and our home bases at the same 
time, and that has been a heck of a strain on us and we have 
had to invest more and part of our new recruits. We are trying 
to direct more of them in that direction.
    In Operation Enduring Freedom, the things that you will see 
are this persistent ISR, looking at something for a period of 
up to a year; also our use of UAVs, and the fusion, fusing of 
intelligence from very many sources.
    Lastly, this equipment that the young troopers have been 
using on the ground to work with the aircraft. We now know what 
the next generation of those should look like and we have 
started to design to get those different pieces in something 
that is a smaller package. When they break off to get on their 
horses, they have to take apart about four different things, 
get on their horses, and go to the next spot.
    Senator Warner. Thank you.
    Secretary England, just going through the morning news, 
there are nine pages of stories on the shipbuilding program. It 
goes from the extreme, that for example Newport News 
Shipbuilding, which is building a carrier, cannot hire enough 
people to do the work they have in place, to some individuals 
saying we are going to be faced with imminent layoffs of large 
numbers.
    Now, this is all very unsettling, and it is clear from this 
conflict in the Afghan operating area that the Navy is 
integral, that those platforms to which you referred earlier 
were the foundation from which so many of the strikes were 
launched. I think that it is incumbent upon you, working with 
Congress, to try and put to rest this problem. I asked the 
Secretary of Defense the other day specifically about the 
carrier program and he said the slippage of 1 year was not in 
any way to be construed as a lessening of the importance of 
that program to our overall defense.
    Nevertheless, we have a lot of instability. We have a new 
contractor that has taken over the management of that shipyard 
down there and works on both the carriers as well as the 
Virginia-class submarines. So I would hope this morning that 
you could refer to some of the conversations that we have had 
in which you have given me the reassurance that you feel this 
thing will be worked out, that the slippage of 1 year in the 
carrier program was predicated on clear justifications for 
technology.
    Would you kindly clarify some of this this morning for us?
    Secretary England. Senator, I would be pleased to. Thanks 
for the opportunity to discuss this. First, we did move the 
carrier out. We actually have it moved out, I believe, to 2007 
and 2008. That is half the funding in each year, in 2007 and 
2008. We did that partially to hurry up some dollars in 2007, 
because you know when a ship is appropriated that is a very 
large amount in 1 year and it crowds out everything else. So it 
was more prudent from our point of view to spread this over 2 
years.
    But the other side of this is, we have had a continuing 
problem of prior year shipbuilding bills. Last year in the 
fiscal year 2002 budget, we had $800 million of prior years 
bills. In the fiscal year 2003 budget we have $645 million. We 
still have $1.6 billion of prior year shipbuilding bills that 
we still have to pay. So out of last year and this year that is 
$1.4 billion, $1.6 billion to go. We are basically spending a 
lot of money each year and we are not buying ships with that 
money because of prior year bills.
    So we are trying very hard to bring this to a stop and have 
some better business practices applied. So this year we have 
increased the funding for our current shipbuilding, our current 
ships, by another $400 million. So we have increased the 
funding of our current ships, in hopes that that is a 
meaningful step so we will not have this continual overrunning 
of prior year shipbuilding.
    Now, also part of this is the maturity of the technology. 
It was certainly my concern, with all the technology going in 
that ship, that if we had more----
    Senator Warner. You are talking about the CVNX-1 now?
    Secretary England. Yes, sir.
    Senator Warner. The first new carrier.
    Secretary England. That is correct. We would certainly like 
to mature those technologies as much as possible so we can 
predict the cost and know the costs and not have this problem 
on future ships when we do this the next time.
    So this decision was partially financial, but in my mind 
moreso on the technology, so that we would be able to bring to 
an end this practice of always having bills flowing into the 
out years. That is what has been happening for the last several 
years.
    Senator Warner. Would you want Congress to take it upon 
itself to try and reallocate the funding in these shipbuilding 
budgets, such as to restore the carrier to its previous 
schedule? Do you think that would be a prudent action?
    Secretary England. No, sir, I don't. Frankly, I believe we 
made the right decisions. I think we went through a lot of work 
on this and decided that was the best decision that we could 
make, was to move this out 1 year, split the funding, mature 
the technologies.
    I will also comment, while I have an opportunity, Senator, 
that in the past whenever in the FYDP we had shipbuilding in 
the future years it never came to pass. That is, if we had a 
large number of ships in the out years, that did not come to 
pass. It did not come to pass because we had prior year 
shipbuilding accounts to pay or we had other aspects of the 
Navy that had been underfunded and we used that money to fund 
other accounts.
    This year we took a very straightforward approach. That is, 
we funded all the accounts that were needed to be funded. We 
robustly funded everything we could across the Navy in terms of 
spares, flying hours, training, et cetera. So we have ``filled 
those buckets.'' So as we go forward we now have a solid 
foundation. We have also fully funded our accounts. So 
therefore there is high confidence in the future that those 
moneys that are allocated to shipbuilding and to aviation will 
indeed be spent for those purposes.
    So I feel like we have put the foundation in place.
    Chairman Levin. Thank you.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Secretaries England, White, and Roche, certainly I want to 
thank you for being here to address the concerns we have about 
the defense of our Nation. Obviously, it is very important to 
critically focus on what these expenditures in the budget 
represent both as to the present situation and as to the 
future.
    The critics will do their work on the budget and already 
have, and they will write the 10 stories that Senator Warner 
had reference to, and others will challenge, whether it is on 
shipbuilding or will challenge that much of the expenditure 
request deals with current assets and replacing the assets that 
have been used. Obviously, replacement is part of what needs to 
be done.
    The criticism of the military always seems to be that we 
are ready to fight the last war. The fact that we were able to 
react as quickly as we did to this Operation Enduring Freedom 
is some indication that we were prepared to deal with the 
current situation far more than people might have suggested and 
some of the partisan attacks might have also suggested.
    What I would like to have you do is tell me in this budget, 
not simply what we are replacing--obviously that is part of 
it--but what are the priorities in this budget for fighting 
phase two as the technology increases and knowledge increases 
during our expansion of these activities of war, but also what 
is in this budget for the next war? In other words, what are 
the preparations that are reflected in this budget for the 
future? Is it the Predator or are there other activities that 
you see, force development, as well as assets that really 
represent the future, not just simply the present or the past?
    I guess I would start with you, Secretary Roche, and move 
down the other way for a change, to change your luck just a 
little bit.
    Secretary Roche. Thank you, Senator. I probably cannot give 
you line item by line item, but I can give you----
    Senator Ben Nelson. No, just generally.
    Secretary Roche. The overview would be that as we look to 
the future we clearly need to keep our bomber force modernized 
and we are putting the equipment in place to do that, the 
modernization of the B-2, et cetera. By reducing the B-1 fleet, 
we are plowing the money back to make the B-1s quite useful, 
and in fact that by giving them standoff weapons they can fly 
at an economical altitude and get much more range.
    So the bomber force, we have worried about the weapons and 
the weapons being so accurate and standoff that that force 
should be good over a period of time. It has been years since 
we have introduced a new fighter bomber. In fact, we have done 
two classes of bombers, the 117, the C-17, the C-130J, Joint 
STARS, a whole bunch of aircraft, and we still have the F-16s, 
et cetera. Those wings are about as loaded as they are going to 
get.
    So the F-22 program, which is now fully funded, and the 
starting of the Joint Strike Fighter program will give us the 
fighter bomber aircraft that we need, although we are 
reorienting part of the F-22 to be air-to-air than air-to-
ground. Now it will be roughly half air-to-air, air-to-ground, 
developing special weapons for it. So the fighter force is in 
good shape.
    Lift, with the multiyear on C-17 and our request to you for 
a multiyear on C-130Js, our taking and fixing up the old C-130s 
in avionics and then taking a look at the C-5s, which one of 
those can be overhauled and kept, I see lift in good shape.
    Where we still have a problem is our reliance on the old 
707s in the intelligence, surveillance, and reconnaissance 
area. There we are trying to augment, besides moving forward 
potentially to a new platform, with UAVs and also space-based 
things, like space-based radar. But the UAVs are still 
experimental. There are still issues that we have to work 
through with those.
    In the ISR field we are trying to do some new things plus 
change the platforms. In the case of things like helicopters 
for the Special Forces or for our combat search and rescue, 
they are old. When I find helicopters from Vietnam still being 
used, they are old. In the case of tankers, we find ourselves 
just with tankers aging to 43 years and we have to worry about 
those.
    Senator Ben Nelson. Secretary England.
    Secretary England. Senator, a few of the things we are 
doing on investing in the future: First of all, we have started 
work on the EA-6B replacement. That is the only jamming 
aircraft we have in the U.S. military. It is getting long in 
the tooth. We are starting that replacement program. We have 
started a multi-mission airplane. We put money in to start 
looking at that airplane. That is a replacement for our P-3 
maritime patrol and also our E-P3 signal intelligence aircraft.
    We have a new program, DDX, which is a new family of ships 
for the Navy; and the Joint Strike Fighter, as Secretary Roche 
mentioned. We are also now buying the Advanced FLIRs that we do 
not have yet on our F-18Es and Fs, so we have invested more 
this year to bring those into inventory. We are investing in 
unmanned vehicles and networking, a lot of money in networking, 
because networking gives us the leverage to maximize the total 
forces that we have; rather than add just a platform, to get 
real leverage. So we are investing more in that. Our E-2, we 
are upgrading our electronics in our E-2 airplanes, our 
airborne early warning airplanes.
    New and dramatically upgraded munitions. We have some 
magnificent precision weapons, but there is a next generation 
now that is being developed to give us better capability in 
terms of targeting, and we are investing in those.
    So we are investing in a wide, wide area in addition to the 
way we are doing things like SSGN, the conversion of the two 
boomer subs. So we have a lot of investments going forward for 
our Navy and our Marines.
    Senator Ben Nelson. What percentage would you estimate that 
this is of your budget? Is it 1 percent or 2 percent? Is it 
some significant percent above that?
    Secretary England. Well, certainly all of our R&D is in 
these areas.
    Senator Ben Nelson. It is more than research and 
development. That is out there on the cutting edge, but you are 
also now applying some of that, I would assume, to new 
weaponry.
    Secretary England. Absolutely. Like SSGNs, this year we are 
putting a billion dollars alone just in that account. So I do 
not know--I will be happy to get back with you. We are way into 
the billions. These are a lot of programs we are funding, 
Senator.
    [The information follows:]

    Secretary England. Approximately 36 percent of the Department of 
the Navy's R&D account finances transformational capabilities being 
fielded in new weapons systems. This accounts for 4 percent of the 
total Department of the Navy budget.

    Secretary Roche. I think, Senator, across the board our 
goal of 1 to 2 percent for transformational things, we are 
above that. It is much larger than people realize. In many 
cases we are using some old things, but in very new ways.
    Senator Ben Nelson. We do not have to be absolutely 
creative on new projects. We can take old material and make it 
better, and I commend you for doing that.
    I think my time may have expired, but would it be okay for 
Secretary White to respond?
    Chairman Levin. Sure, just to finish the question, 
absolutely.
    Secretary White. Thank you. As I said in my opening 
statement, we are taking a near-term risk by limiting the 
degree of modernization and recapitalization we are doing on 
the existing legacy force in order to bring along what we 
consider to be transformational systems. That includes 
Crusader, Comanche, which will revitalize our helicopter fleet, 
the information technology that we are working on at Fort Hood, 
the interim brigade combat teams, one of which is funded in the 
fiscal year 2003 budget, and then finally, as we talked about 
earlier, the Future Combat Systems.
    In the Future Combat Systems, what we are looking for is 
something that is more lethal than Abrams, more survivable than 
Abrams, with a two-man crew, 10 percent of the logistics tail, 
fits in the C-130. That will truly be a transformational 
capability. We have put our money very definitely in the mid to 
long-term to achieve this transformation.
    Thank you.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me first comment to Secretary White and Secretary 
Roche. The comments you made about our troops over there are 
certainly appropriate. I had occasion to be at the hospital at 
Lansduhl last week and talking to some of the troops that had 
been injured, all of them that were there, as a matter of fact, 
who were injured. Without exception, they said they, number 1, 
wanted to get back to their unit; and number 2, they want to 
make a career out of it. These are the ones that were hurt, so 
I just cannot say enough good things about these guys.
    Secretary England, let me just take my entire 6 minutes to 
ask two questions that I hope will clear up the most 
misunderstood issue that is out there and will also provide for 
a dramatic increase in our readiness of our deployed troops. 
First of all, I thank you for your letter of the 6th of 
February, when you tried to clear up a couple of articles 
published in the newspaper that suggest you denied a request by 
the CNO, Admiral Clark, and the Marine Commandant, General 
Jones, on the use of Vieques for live fire training.
    However, your letter did not address live fire training. It 
merely said that is the decision the military would make, and 
that is the statement you made in my office and that you have 
made several times. Now, what I am really confused about that 
can be cleared up today once and for all is this. Two weeks ago 
I went up to the ships that were involved in training for the 
east coast deployment. That was the JFK, the U.S.S. Whitney, 
and the U.S.S. Wasp. I talked with Admiral Natter, the Atlantic 
fleet commander, and Vice Admiral Dawson, the Second fleet 
commander. I also spoke to the commander of the Marine 
Expeditionary Unit, the commodore of the Wasp, as well as the 
commander of the JFK battle group.
    They echoed your response that, because of an accelerated 
deployment schedule, they did not use Vieques during their 
final exercise, but that it had been used before for naval 
gunfire qualifications in the fall. In other words, they got 
the naval qualification taken care of there, but they also said 
that it would have been better if they could have had this in 
the final exercises right before deploying. This is where the 
football team gets together and scrimmages and says, this is 
how we work together. They believe that their orders were not 
to use their range for live fire, and all of them commented 
about a Presidential directive that would have forbidden them 
to do that.
    Now, I looked up and I checked with the Navy, as well as 
the counsel of the committee, and found that the Presidential 
directive that they are talking about was one that was directed 
by President Clinton on January 31, 2000. However, that 
particular directive is one that referred to the referendum 
that was going to be taking place and when they cancelled the 
referendum that automatically cancelled the Presidential 
directive.
    In addition to this, we actually put language in the law 
that is there today that says they cannot do that anyway 
because we would continue to use that range until certification 
came from both the CNO and the Commandant that it was not 
needed.
    Well, I relearned three things on this trip: number 1, that 
Vieques is the only range on the east coast where naval gunfire 
qualification can take place; number 2, Vieques is the only 
location where the entire amphibious assault team can train 
together; and number 3, the commanders believe that live fire 
training is better than inert training. As one commander put 
it--and I asked him this question--he said, ``If live fire 
training is a 10, my unit would be at a 5.''
    The President, in his State of the Union message, talked 
about our military men and women and said they deserve the best 
training. He was not talking about 5 out of 10. He was talking 
about the best. Secretary Rumsfeld said in his testimony before 
this committee just last week that our men and women should 
train as if they are going to fight. In my recent conversation 
with both Admiral Clark and General Jones, I find their desire 
to train at Vieques both live and inert as not wavering.
    So I have these two questions. They are yes or no 
questions. Believe me, there is not a person up here at this 
table who has not been misquoted in the press. This has 
happened to everyone at your table, too, I am sure. But I want 
to read something that was a press release from the Puerto 
Rican governor's office and ask you if this is accurate or 
inaccurate, is it true or is it not true: ``Secretary of the 
Navy Gordon England ordered the cancellation of the exercises 
and he overruled two high military officers, the Chief of Naval 
Operations Vernon Clark and the Commandant of the Marine Corps 
James Jones, who had asked to train in the island with real 
ammunition.'' Is that true or false?
    Secretary England. False.
    Senator Inhofe. Thank you very much. I do appreciate that.
    The second question is this. Last week when we had both 
General Myers and Secretary Rumsfeld at that table, I asked 
them a question about the training and they were all very 
interested in the training, but they said this is a Navy 
decision, this is not their decision--so that is going to be 
you. That is a Navy decision.
    You have said in a letter that I have here that you will 
let the military make that decision. The military has made that 
decision. In the letter that came signed by both Clark and 
Jones--I will read out of this letter: ``The shift of wartime 
operations following 11 September's tragic events has led your 
uniformed leadership to review the current prohibition on live 
ordnance training at Vieques with an eye toward accomplishing 
vital Naval training while continuing to limit our impact upon 
the island and the people of Vieques. We respectfully request 
support of a wartime modification of current practice to 
sanction the use of live ordnance during combined arms training 
exercises prior to deployment.''
    So the second question is: Will you make Vieques available 
for live fire training by making it clear to the commanders 
within the Navy that they may train there with live ordnance of 
their desire?
    Secretary England. Senator, the request was really overcome 
by events, because the fleet commander decided not to do live 
fire. I understand, and I believe he discussed that with you, 
it was also decided not to do it with the George Washington----
    Senator Inhofe. Let me interrupt your response because I am 
running out of time. Yes, I talked to the fleet commander and I 
talked to the Second Fleet commander. they said they were under 
the understanding that they could not have live fire training. 
Now, my question is this: Will you make Vieques available for 
live fire training by making it clear to the commanders of the 
Navy that they may train there with live ordnance if they 
desire?
    Secretary England. Senator, I do not believe the decision 
is quite that simple, because there are other factors in this 
in terms of our ability to do live fire. We have not had any 
live fire training on Vieques for some time. The last time we 
did, it was very traumatic. That is how we got into all the 
security issues and all the problems on Vieques. That is what 
led to the Presidential directive.
    So this is a situation that is not as clear as just 
deciding what I would like to do. The people in Vieques 
actually have a say about this and there are security issues 
associated with this. So I do not believe it is quite that easy 
to just decide. There are environmental issues, a lot of other 
issues that we have to deal with.
    Senator Inhofe. Well, we are aware of all those issues. We 
are also aware that the judiciary can get in there and start 
talking about restraining orders and all these things. Yes, we 
understand that can happen. But the military wants to use live 
fire and train these guys so that they are able to go into 
battle with the very best training that they can have, which 
they cannot yet today. My question is would you allow your 
military to make that decision and to train with live fire?
    Secretary England. Senator, the military has not made that 
decision. I told you before I did not overrule them. They 
decided not to do that for Kennedy and they decided not to do 
it for George Washington. So they have already made that 
decision.
    Senator Inhofe. Mr. Secretary, I cannot relinquish this 
line of questioning without rereading what they said. Now, you 
remember what they said. They said that ``We respectfully 
request support of a wartime modification of current practice 
to sanction the use of live ordnance in training.'' This is 
what they are asking for. These are the top guys. These are the 
bosses. They are the bosses of the fleet commanders, as you 
well know.
    Secretary England. Senator, the fleet commander makes that 
decision. The fleet commander made the decision not to do it. 
He makes the decision. The fleet commander makes that decision.
    Senator Inhofe. The fleet commander only made the decision 
not to do live ordnance in the final analysis because of the 
rapid schedule that they are under, which I understood. But 
they also said, the fleet commander as well as the Second Fleet 
commander, that they would have had better training if they had 
been able to have in the final training unified live fire 
training, and they so requested this.
    Secretary England. Senator, we do live fire in lots of 
venues. In lots of places we do live fire, and we train our 
people very effectively, as evidenced by the magnificent 
performance we have had over in the Gulf.
    Senator Inhofe. So is the answer to the question no, then?
    Secretary England. They did not do live. They did not do 
live fire.
    Senator Inhofe. Is the answer to the question no?
    Secretary England. I have lost track of the question.
    Senator Inhofe. Let me read it again.
    Chairman Levin. I am afraid that----
    Senator Inhofe. Well, no. He has lost track of it.
    Chairman Levin. Excuse me, though. I am afraid you are way 
over time on this. Just try it one more time.
    Senator Inhofe. All right, one more time.
    Chairman Levin. Try to duck it one more time and then let 
us go on.
    Senator Inhofe. I think we need it. This is a very serious 
question.
    Chairman Levin. I agree, but----
    Senator Inhofe. Let me just ask it one more time. Will you 
make Vieques available for live fire training by making it 
clear to the commanders within the Navy that they may train 
there with live ordnance if they desire?
    Secretary England. Senator, I am telling you again, that is 
not solely my decision. There are events that you have to think 
about in this decision. If you do that without considering the 
people in Vieques, without considering the environmental 
issues, we could end up in a worse situation.
    Senator Inhofe. Thank you, Mr. Chairman.
    Secretary England. We will look at that when we get to it.
    Senator Inhofe. We have already considered all those things 
for 2 years now and this comes down to your decision, and I 
think you have answered the question.
    Thank you, Mr. Chairman. I apologize for going over in my 
time.
    Chairman Levin. Thank you.
    Senator Landrieu.
    Senator Landrieu. Thank you. I have an opening statement 
for the record.
    [The prepared statement of Senator Landrieu follows:]
             Prepared Statement by Senator Mary L. Landrieu
    Thank you Mr. Chairman. I would like to welcome our three 
distinguished service secretaries: Secretary England, Secretary Roche, 
and Secretary White. I'm very pleased that you are with us today to 
offer testimony on the budgets you have submitted. Having reviewed your 
statements, I find several areas of concern.
    As chairperson of such a currently issue-centered subcommittee as 
the Emerging Threats and Capabilities Subcommittee, I am struck by the 
under-investment in research and development and science and technology 
across the Services and Special Operations for new cutting edge 
weaponry and information technology.
    I support the increase in the Defense budget 100 percent, but I 
have pause with the seemingly ``Cold War Era'' approach to military 
procurement which permeates this budget. I see lackluster 
prioritization based on the current world threat of non-state 
terrorists.
    We live in a time where the right technology in the battlespace 
means the difference between superiority of decision-making and being 
overwhelmed by the fog of war--where the wrong intelligence can send a 
team of special operators to their death--and where unmanned aerial 
vehicles should be able to do as many tasks as we can imagine they 
should, to spare the threat to human life.
    My concern lies in the details of unfunded military programs such 
as cutting edge shipbuilding, new airframes to forward our JSTARS 
intelligence platforms, and needed technological upgrades to older 
aircraft such as the B-52, which are more cost-effective.
    We can no longer afford to take the ``same old'' approach to war 
fighting by buying large numbers of weapon systems which may have no 
future security among the new threats of unstable nation-states, 
asymmetric war, or seeking out the networks of terror which left to 
grow, will certainly cause more innocent civilian deaths.
    I ask you to be the visionaries of your services. You must look 
ahead farther than ever before and request appropriate levels of 
research and development and science and technology dollars to stay 
ahead of the threat. This is a trying time for all in the United 
States, our allies around the world, and especially our men and women 
in uniform, who deserve to know they have every advantage imaginable 
when they proceed into unknown air, sea, and land areas to seek out and 
rid the world of terror.
    Mr Chairman, thank you for this opportunity to formally discuss the 
proposed budget with our distinguished guests--I have a couple of 
questions for them.

    Moving on from Vieques, Mr. Secretary.
    Secretary England. Thank you.
    Senator Landrieu. I do have two specific questions, Mr. 
Chairman, but I would first like to just read briefly from the 
President's State of the Union speech because it leads me into 
the first point I would like to make about the job before us. 
He said in the State of the Union: ``Our discoveries in 
Afghanistan confirmed our worst fears and showed us the true 
scope of the task ahead. . .  We have found diagrams of 
American nuclear power plants, public water facilities, 
detailed instructions for making chemical weapons, surveillance 
maps of American cities, and thorough descriptions of landmarks 
in America and throughout the world. . . Thousands of dangerous 
killers, schooled in the methods of murder, often supported by 
outlaw regimes, are now spread throughout the world like 
ticking time bombs, set to go off without warning. Thanks to 
the work of our law enforcement officials and coalition 
partners, hundreds of terrorists have been arrested. Yet, tens 
of thousands of trained terrorists are still at large. These 
enemies view the entire world as a battlefield. We must pursue 
them wherever they are.''
    He goes on to say: ``First, we will shut down terrorist 
camps, disrupt terrorist plans, and bring terrorists to 
justice. And second, we must prevent the terrorists and regimes 
who seek chemical, biological, or nuclear weapons from 
threatening the United States and the world. Our military has 
put the terror training camps of Afghanistan out of business, 
yet, camps still exist in at least a dozen countries. A 
terrorist underworld--including groups like Hamas, Hezbollah, 
Islamic Jihad, Jaish-i-Mohammed--operates in remote jungles and 
deserts, and hides in the centers of very large cities.'' ``Our 
second goal,'' he says, ``is to prevent regimes that sponsor 
terror from threatening America or our friends and allies with 
weapons of mass destruction.'' Finally he says, ``We will work 
closely with our coalition to deny terrorists and their state 
sponsors''--and I insert, when they have such sponsors--``the 
materials, technology, and expertise to make and deliver 
weapons of mass destruction.''
    My point this morning would be and my question will 
continue to be: What in this $375 billion budget for defense 
are we doing to answer our President and our country's call to 
focus on this exact threat, which is very different than the 
threats we have focused on in the past? Finding thousands of 
terrorists, not necessarily like the ones we just destroyed, 
identified in caves, but hiding in the center of jungles and 
cities, in large cities, in deserts, scattered throughout the 
world? What in this budget is helping us to prevent an attack 
of a weapon of mass destruction?
    While I support missile defense, I would admit as a 
proponent of missile defense it is unlikely that the weapon 
will be delivered by a missile launcher, but much more likely 
that the weapon will be delivered by a crop duster, a ship 
cruising into one of our hundreds of ports, a briefcase carried 
through any number of a hundred entry points to the United 
States, or an aerosol can in one of the thousands of malls in 
the United States.
    I think it is very serious as we talk about this budget to 
keep focused on the President's words about what the new threat 
is and what in this budget is going to help protect Americans 
who are depending on us to do that kind of protection. My 
question is this, more specifically. We are setting up these 
new interim brigades and, Secretary White, you mentioned the 
urgency of doing this, and I could not agree with you more, 
getting these new brigades that can move more quickly, getting 
better intelligence, moving where the terrorists may be or 
where the conflicts may be, while we are uncertain as to where 
they will be in the future.
    What have we invested in their training and preparation, 
particularly our two premier training centers in the United 
States, one in California, one in Louisiana? What have we 
invested in the standing up of these training facilities for 
these specific brigades?
    Secretary White. First of all, we have changed the 
scenarios and the way we have run the training facilities to 
move away from what I would describe as Cold War scenarios to 
the more complicated counterterrorist scenarios that you are 
talking about, so that the method of training in both of the 
national training centers is significantly different.
    Second, as you pointed out, we are standing up the interim 
brigades as we go along. We will have one finished by the end 
of this year and there is one funded every year on to its 
completion in 2007. But I think we also have to realize that 
the military contribution is a part of a broad national effort. 
As Secretary Rumsfeld and Governor Ridge have talked about, it 
includes intelligence, economic initiatives, and political 
initiatives. It is the sum total of that that will enhance the 
security of the country, and we are certainly making our 
contribution to it in the Army budget.
    Chairman Levin. If you would yield just for 10 seconds, 
Senator Landrieu. The first of three votes has begun and this 
is going to be a little more complicated than usual. If a few 
of us will go vote early in this first vote, come back, and 
then vote at the end of the second vote, we will be able to 
continue here without interruption. The next four Senators, if 
they are here, would be Allard, Dayton, Sessions, and 
Lieberman.
    Sorry for the interruption, Senator.
    Senator Landrieu. Just to follow up, and I am sure there is 
excellent training that is conducted throughout the United 
States and, perhaps because of these new battles that we are 
going to fight, more offensive than defensive, finding the 
terrorists before they find us and routing them out and finding 
them, I know that the training that goes on in Louisiana, 
because I have participated in these exercises, and the 
generals on the battlefield have called this training 
invaluable to carrying out the task that is before us.
    My time has just about expired, but any investments that we 
can make in the training at these bases and creating additional 
training opportunities I think is crucial.
    Finally, could you, for the record, provide the committee 
with more information on the ISR, the intelligence, 
surveillance, and reconnaissance, the role of the JSTAR, the 
new platforms that are necessary, I want to say, Mr. Secretary, 
I will always remember your quote: ``We lost the horse, we lost 
the king, and then we lost the kingdom. So let us not lose the 
horse when we are talking about our intelligence assets.''
    Thank you.
    Secretary Roche. Thank you, Senator, for your support.
    [The information referred to follows:]

                           New ISR Platforms

    Secretary Roche. The Air Force is quite pleased with the role that 
Joint STARS and other ISR aircraft have played in Enduring Freedom. 
Last week during a CSPAN interview with General Jumper and I, I think 
the Chief called it ``a magnificent aircraft.'' I couldn't agree with 
him more.
    We are planning to continue to equip the E-8 with new technologies. 
One key upgrade will be to increase its ability to get data off board 
to our F-15E strike aircraft with a new Link-16 upgrade. That's a great 
example of the horizontal integration of platforms vision for the Air 
Force. We also plan to enhance connectivity with the Air Operations 
Center and other ground elements with a new DAMA SATCOM radio.
    However, even with these and other modifications, the Joint STARS 
is not sufficient to meet our future needs. It's built out of an old 
707 airframe that's going to cost more and more to maintain. We have a 
new AESA based radar technology that needs a lot of more power from the 
engines. The fiscal year 2004 budget will continue a major ramp-up of 
our activity to transition off the 707 airframe and onto a brand new 
767-400. The new radar capabilities will be revolutionary. In fact, 
they will go far beyond what we can accomplish today, especially for 
combat identification of friend and foe on the ground and in the air, 
and for cruise missile defense.
    The combination of longer range, heavier payload, higher altitude, 
and a truly extraordinary radar capability will eventually allow us to 
find and target threats with a very high degree of confidence and with 
much less risk to our manned platforms. This multi-sensor command and 
control aircraft, or MC\2\A, will be the hub of a constellation of 
manned and unmanned ground, air and space assets. We plan to buy the 
testbed in fiscal year 2003, and field the first aircraft in fiscal 
year 2010.
    Joint STARS is the current workhorse for our GMTI capability and 
will remain so through the middle of the next decade. The future is the 
767 based MC\2\A, and we will be focusing our priorities on spiraling 
far greater capability onto a brand new platform.

    Senator Landrieu [presiding]. Senator Sessions.
    Senator Sessions. Thank you.
    Secretary England, we have spent a lot of time in this 
committee on the Vieques live fire question. It is not an itty-
bitty matter. It is a matter that needs to be decided. I think 
the United States needs to be able to have a live fire range. 
This apparently is the only appropriate one. That issue, I 
agree with Senator Inhofe, needs to be decided by you. It needs 
to be decided in favor of the best possible training for the 
ships that we are deploying.
    We are already reducing the number of those ships. They 
need the very best training possible, and I do not think this 
issue is going away. If you want to comment you can. I just 
want to share my view about it.
    Secretary England. Let me comment on this, Senator. First 
of all, we do have a study--one reason last year we decided to 
leave Vieques in 2003 was to get the emotion out so we could 
stay there and do nonexplosive ordnance. The whole objective 
last year was to be able to stay and do nonexplosive ordnance. 
By the way, we spent $11 million in security and all that last 
year to be able to use the island of Vieques even for inert 
type of activity.
    So we authorized last year a study by CNA to decide on the 
best kind of training we could do for our men and women in 
uniform. In my mind this is not an issue of Vieques, never has 
been. The issue is how do we best train our men and women in 
uniform.
    While Vieques has some attributes, it has a lot of 
attributes that are missing. So we do not do a comprehensive 
training menu at Vieques. So we have a study under way to look 
at that and the study will be out in about the late April time 
period.
    In the meantime, however, again I will tell you, the fleet 
commanders have decided not to do this at Vieques, not the 
Secretary of the Navy, but the fleet commanders have decided 
not to do the live fire there for various reasons. We are on 
the path that we set out to be on. We have the studies under 
way and I am convinced we will end up with the best answer to 
train our men and women in uniform. That is what this is all 
about.
    Senator Sessions. Well, that has been looked at for some 
time and I wish you good luck if you find an alternative. We 
have had testimony here from the best minds on the subject that 
there are no alternatives available.
    Secretary Roche, I know you and Secretary White were proud 
of the coordination between soldiers on the ground and pilots 
in the air. Secretary White, would you tell us what it was like 
for the soldiers on the ground to have the kind of air power 
that became available during the Afghan war?
    Secretary White. I think it made all the difference in the 
world. There have been some well-documented cases of Special 
Operating Forces on horseback who are tied in with space age 
technology to air assets, who could immediately bring precision 
munitions to bear in support of Northern Alliance forces. That 
really swung the battle in favor of our allies.
    It is something that all of us who have been around in the 
business for a long time have always sought. We have the 
technology today to do it. We have the people that are capable 
of doing it, and it made all the difference in the world in 
Afghanistan.
    Senator Sessions. Secretary Roche, this ground positioning 
system, tell me how that worked and precisely how your people 
were able to meet the needs of the soldier on the ground?
    Secretary Roche. Senator, we have had a goal as we looked 
at the future to try to return to an era of General Arnold of 
the Army Air Corps supporting General Patton in the 
breakthrough after Normandy. This was one of the first things, 
in fact inspired by Secretary Wolfowitz chiding both Secretary 
White and myself to do better in this era.
    What we were able to do is, these young people will use 
various and sundry things, basically a commercial GPS system 
and a set of binoculars that will give them a laser beam where 
they can get a range. Some have had to use paper maps, others 
have been able to just use a computer, convert these into GPS 
coordinates of the target, and then relay those by voice to the 
airplane.
    Now, you can see how we can make a bunch of improvements in 
that over time. We are quite proud that our pilots can work for 
sergeants. It is perfectly fine. It has worked very, very well. 
GPS has allowed this. In other cases it has been a matter of 
putting a laser beam on a target and then certain systems both 
in the Navy--the AT-FLIR--and in the Air Force--the Lightning 2 
pod has laser spot trackers--can pick up those spots, convert 
them to their own lasers, and bring down laser-guided weapons 
on them.
    It is the very close coordination and the dedication to 
doing that which gives us a sense that we can transform how we 
work together.
    Senator Sessions. I think it is cutting edge stuff, and I 
hope that you can keep that up and be able to broaden the 
capabilities there. The main weapon that was called down on the 
enemy was the JDAMs, is that correct, the GPS weapon?
    Secretary Roche. JDAMs we used extensively. There are also 
laser-guided weapons as well. I can tell you that, 
interestingly enough, this was not just Air Force planes. It 
would also work with naval aircraft that had JDAMs. We for the 
first time had marine aircraft, naval aircraft, Air Force, 
coalition, all being centrally coordinated. So whoever had the 
weapon and was nearby was able to serve the sergeants.
    Senator Sessions. It strikes me that this is a major 
breakthrough in warfare or at least a major transformation 
point in our warfare. If we are in a war that has more targets 
even than Afghanistan--and most enemies would have more targets 
than Afghanistan--we will need large supplies of these kind of 
weaponry. Can you tell us what this budget does in terms of 
increasing funding for JDAMs and whether it is sufficient?
    Secretary Roche. Sir, I get a little confused between 
supplementals and other budgets, but the cumulation of what you 
have done for us will allow us to basically double the JDAM 
production and we will do it in stages. It is roughly 1,500 a 
month now. We will get it up in the first stage to the early 
2000s, but we will have the facilities in place that we are 
investing in that if we need to we can move to 3000. Plus we 
have been working on a 1,000-pound weapon. We will now move to 
a 500-pound weapon for the targets where that is more 
appropriate.
    Senator Sessions. You say you could move up even faster?
    Secretary Roche. For a while there, I was tracking the 
number of JDAMs used per day as compared to the number we were 
producing per day and we got a little worried. At this stage of 
this particular conflict, we are not using very many and in 
fact we are able to build inventories up again.
    Senator Sessions. It just strikes me that we ought not to 
have just a sufficiency of these weapons, but a surplus of 
these weapons.
    Secretary Roche. I agree, sir.
    Senator Sessions. Are you confident that the budget as 
outlined will provide us the sufficient surplus extra numbers 
that we need to provide potential military capability in other 
areas other than the one just in conflict?
    Secretary Roche. We believe that is correct, sir, because 
the Navy is also investing money in increasing production. So 
it is both services are putting money in their budgets to 
increase JDAM production.
    Senator Sessions. We will be looking at that closely. I do 
not think we ought to make a mistake on this issue. I think if 
the mistake is made it ought to be more rather than too few.
    Secretary England. Senator, we increased ours from 
approximately 1,400 in our 2002 budget to 9,880 in the 2003 
budget. So we had a dramatic increase in JDAMs in the Navy 
budget.
    Senator Sessions. Senator McCain.
    Senator McCain. I would like to apologize. I only have a 
few minutes because there are only a couple minutes left in the 
vote. I may have to come back and get in the queue again.
    I want to discuss, Secretary Roche, the 767 tankers issue 
with you. When you wrote the letters to Congressman Dicks and 
Senator Murray and others, did you consult with the Secretary 
of Defense as to your position on the lease-purchase of these 
aircraft?
    Secretary Roche. Sir, I did not consult with the Secretary 
of Defense personally, but with members of his staff, sir.
    Senator McCain. Which ones?
    Secretary Roche. I believe we worked both with the 
Comptroller and with the Under Secretary for Acquisition.
    Senator McCain. So that was sufficient authority for you to 
proceed?
    Secretary Roche. Well, it was sufficient authority, we 
believed, for us to ask for permission to go and negotiate, 
recognizing that if we ever had a financial lease we would 
bring it back to the Secretary.
    Senator McCain. Put in words in legislation, were you 
seeking legislation through the appropriations process which 
would authorize you?
    Secretary Roche. We were seeking permission to attempt to 
negotiate a lease.
    Senator McCain. Through the appropriations bill. Did you 
consult with Senator Levin?
    Secretary Roche. No, sir, I did not.
    Senator McCain. Or Senator Warner?
    Secretary Roche. No, sir, I did not.
    Senator McCain. No member of the authorizing committee?
    Secretary Roche. No, sir, I did not.
    Senator McCain. Why are you wasting your time here?
    Mr. Secretary, do you believe in competition?
    Secretary Roche. Yes, sir, I do.
    Senator McCain. Are you discussing this lease with, say, 
Airbus?
    Secretary Roche. Yes, sir. Back as far as October, I made 
the point that if Airbus could come in and do something we 
would be delighted to have that.
    Senator McCain. Are you discussing this with Airbus?
    Secretary Roche. Yes. I have met with Philippe Delmas and 
have opened up the door for him if he wished to do something.
    Senator McCain. But does not the legislation say the loan 
can only be Boeing 767s?
    Secretary Roche. Yes, sir, but if Airbus did something that 
was particularly good I would come back to Congress, sir.
    Senator McCain. Oh, you would come back to get the 
legislation changed again on an appropriations bill?
    Mr. Secretary, you do believe in competition, you said. In 
your letters both to Representative Dicks and to Senator 
Murray, which you did not share with any of the members of the 
authorizing committee, in both of them you said: ``Beginning in 
fiscal year 2002, it would be in the best interest of the Air 
Force to implement this transition. We intend to work with USD 
AT&L and the OSD Comptroller to amend the fiscal year 2003 
budget currently being vetted through the Department. This 
lease approach will allow more rapid retirement and 
replacement. If Congress determines this approach is not 
advisable, completing the upgrade through the purchase of new 
767 aircraft beginning in fiscal year 2002 would be in the best 
interest of the Air Force.''
    Is there anything in the Air Force budget that calls for 
acquisition of 767s?
    Secretary Roche. Yes, sir. They are for a new tanker, but 
it would not show up until 2008.
    Senator McCain. No, I am talking about in the fiscal 2003 
budget which was just submitted to Congress, is there anything 
for a new tanker?
    Secretary Roche. No, sir. In the POM we have it, not in the 
2003 budget, because----
    Senator McCain. But you said in your letter that you would 
intend to work with the Under Secretary of Defense for AT&L and 
the OSD Comptroller to amend the fiscal year 2003 budget 
currently being vetted through the Department.
    Secretary Roche. Because if we could start the lease 
earlier, sir, we would need some O&M moneys to go for the 
initial part of the lease.
    Senator McCain. So you did not seek authorization or 
appropriation in the fiscal year 2003 budget?
    Secretary Roche. Sir, we did not seek authorization for any 
money.
    Senator McCain. Which is in direct contradiction to your 
letter to Congressman Dicks.
    Secretary Roche. No, sir. If I may, Senator----
    Senator McCain. Yes.
    Secretary Roche. It was a matter that plan A right now is 
to have a stream of money that would build to a KC-X that would 
be available in 2008. If in fact the lease would be available 
sooner, we would not be spending money certainly on the old 
planes and we would ask for a redirection of moneys. That is 
what that meant, sir.
    Senator McCain. It is plain English: ``We intend to work 
with USD AT&L and the OSD Comptroller to amend the fiscal year 
2003 budget currently being vetted.'' Words have meanings, 
different meanings, obviously, to you and me. But I think that 
the casual observer would say that when you intend to work to 
amend the fiscal year 2003 budget and the money is not in the 
budget, that you did not amend the 2003 budget, which is what 
was stated in your letter.
    So you are now seeking some relief from regulations 
concerning leasing arrangements. I just want to cite a quote 
for you on Mr. Daniels, the head of OMB: ``Daniels was so cool 
to the Boeing proposal that many Capitol Hill observers 
believed the leasing deal would never be made. During last 
year's debate, Daniels not only warned against scrapping the 
rules designed to curb leasing abuses, but wrote to Senator 
Kent Conrad: `The Budget Enforcement Act's scoring rules were 
specifically designed to encourage the use of financing 
mechanisms that minimize taxpayers' costs by eliminating unfair 
advantage provided to lease-purchases by the previous scoring 
rules. Prior to BEA, agencies only needed budget authority for 
the first year's lease payment even though the agreement was a 
legally enforceable commitment. In the late 1980s, General 
Services Administration (GSA) used this loophole to enter into 
lease-purchase agreements with a total long-term cost of 1.7,'' 
et cetera.
    He is opposed to changes, according to this letter.
    Secretary Roche. Yes, sir. Then by the time that bill was 
finished, the changes we had asked for were denied. If we can 
do a lease, it has to be under the conditions specified in the 
bill. It has happened in the past, sir, where we have been 
asked to try to lease 737s, were not able to come to a good 
deal, and could not bring something back to Congress. It will 
be the same way in this case, Senator. If we cannot get a lease 
that we can feel proud to show you, we will not do it.
    Senator McCain. Well, I have to go to vote or I will miss 
it, but I intend to pursue this line of questioning. You never 
consulted the chairman of the authorizing committee or the 
ranking member or any member of the committee. You did not get 
or consult directly with the Secretary of Defense over a $26 
billion deal.
    I have only been around here since 1983. This is one of the 
more remarkable things that I have seen in the time that I have 
been a member of this committee. I intend to do everything I 
can to see that the taxpayers of America are taken care of in 
this situation, which clearly is a serious, serious issue here.
    I have to go to vote. My time has expired.
    Secretary Roche. May I answer that later when you come 
back, sir?
    Senator McCain. Please.
    Senator Inhofe. I want to start the second round here and I 
want to spend just a couple minutes on the previous subject, 
Secretary England. Anticipating that there might be an effort--
this is some time ago--to close this arrangement--Mr. Chairman, 
is it all right if I go ahead and pursue my second round, since 
no one else is here?
    Chairman Levin. Yes. I was going to go and have my round 
first. Have you voted?
    Senator Inhofe. That is fine.
    Chairman Levin. Have you voted?
    Senator Inhofe. I have.
    Chairman Levin. You go ahead. You have started.
    Senator Inhofe. Anticipating what could be a problem, Mr. 
Secretary, I want to just read last year's defense 
authorization bill that we passed, a paragraph of it. ``The 
Secretary of the Navy may close the Vieques Navy training range 
on the island of Vieques, Puerto Rico, and discontinue training 
at that range only if the Secretary certifies to the President 
and Congress that both the following conditions''--you are very 
familiar with this law.
    I guess what I am saying here is you brought up a lot of 
concerns, the people there and what their reaction is going to 
be. These are things that are never brought up in consideration 
at other ranges. So it gets down to a very serious thing. I 
just wanted to see if you had thought it over and might have a 
different answer to the last question.
    I do appreciate your very straightforward first response, 
but on this, in that the law is very clear that they should be 
able to do it if the military wants to do it, if the military 
wants to continue to train, would you preclude them from doing 
so?
    Secretary England. Senator, I am always going to obey the 
law. The law says that if I have an alternative before I leave 
I have to identify that alternative and do that in consultation 
with the CNO and the Commandant, and I will certainly do that, 
sir. I am definitely going to do what the law that was passed 
last year says. I thought it was excellent. I have no issue 
with the law and I will proceed according to the law.
    Senator Inhofe. Would you preclude them from doing so if 
they wanted to continue live fire training?
    Secretary England. The law does not address live fire 
training, Senator. It addresses training on Vieques, and at the 
moment we are not doing live fire training on Vieques. We are 
doing inert training. We have been doing that since I believe 
some time in the year 2000.
    Senator Inhofe. That is not the issue, though. The issue is 
live fire training.
    Secretary England. I do not think that is the issue, 
Senator.
    Senator Inhofe. I do not think we are going to get anywhere 
at this hearing, but I have tried. I want to get everything in 
the record, to give you the opportunity to tell us whether or 
not you are going to allow it should the military request it. 
The law is specific when it says that we will continue to train 
there until such time as the CNO and the Commandant certify 
that there is an alternative that they are satisfied with.
    Secretary England. Senator, at this point I have not had a 
request in terms of a specific. The early request was overcome 
by events. We will look at the situation at the time it occurs. 
It is hard to put yourself in a situation when you do not know 
what that environment is, so I am not going to answer that 
question, as you well know. I am not going to answer that 
question because I am not going to put myself in the 
hypothetical situation.
    Senator Inhofe. I realize you are not going to answer the 
question. You have not answered the question.
    Secretary England. Right. I am not about to put myself in a 
hypothetical situation.
    Senator Inhofe. Secretary White and Secretary Roche, let me 
ask you a question. In May 2001 Sea Power magazine interviewed 
Vice Admiral Amerault, the Deputy Chief of Naval Operations, 
Fleet Readiness and Logistics, whose statement suggests that 
this may not be an achievable goal, encroachment is a serious 
problem, and they go on to talk about the problem and say there 
is the potential to lose the range at Vieques in Puerto Rico 
and that could have a very serious readiness impact. It's a 
bell-ringer for us.
    He concludes: ``Vieques is just the beginning. We could 
lose any number of ranges based on encroachment.'' Have you 
seen encroachment as an issue on the ranges in the Air Force 
and in the Army, both Secretaries?
    Secretary White. Yes, we have.
    Secretary Roche. Yes, we have. You have been very helpful 
in the case of one of them, sir, as have a number of your 
colleagues, and I thank you very much. This is a serious 
problem and I see--I agree with Admiral Amerault that this 
could have bad effect on all other ranges that are out there.
    Senator Inhofe. I would like to, just real quickly in the 
remainder of my time, talk about two things that were left out 
of the budget. I recognize that everything cannot be in the 
budget, but in my opinion the two things that we needed the 
most that were left out are military construction and force 
structure.
    On force structure, I have been concerned for quite some 
time about the new deployments that we have had over the last 
few years, places like the Balkans. I just got back from the 
Balkans last week. It seems like we are going to be there for a 
long period of time.
    We are able to do some of these things because of the Guard 
and Reserve, but we have strained our Guard and Reserve, as you 
and I talked about, Secretary Roche, when we were going down to 
Oklahoma that time, and you and I also have talked about, 
Secretary White, to the point where a lot of the critical MOSs 
are not there.
    When are we going to have to try to address the force 
structure, if you agree that that is a problem? Yes?
    Secretary Roche. Yes, sir. Among other things, I went down 
and met with the recruiters for the Guard and Reserve and we 
are trying to do things like, if someone leaves the Active 
Force and they can fit a Guard position, giving them a waiver 
allowing them to do it. We are also trying to expand the roles 
of the Guard in things like Joint STARS, which is going very, 
very successfully in Georgia, and we will probably do more of 
that, or bringing the Guard into more of the information 
technology sorts of things.
    So we have seen a Guard that right now has performed 
magnificently and is carrying an awful lot of the burden, and 
that is part of why we need to have a sense of what the long-
term steady state requirements of Operation Noble Eagle as well 
as Enduring Force are in order to get some of these folks back 
to their jobs.
    Senator Inhofe. Do you see, though, in addition to that, 
that 2 or 3 years out we are going to have to look at our force 
structure in terms of the regular services?
    Secretary Roche. Our sense is that right now the services 
are working with the Under Secretary for Personnel and 
Readiness to see what ought to be expanded, the Guard, Reserve, 
or Active Force, in order to maintain the capabilities we 
currently have deployed if we need to keep those deployed.
    Senator Inhofe. Secretary White.
    Secretary White. I think there is a general realization, 
with 35,000 Guard and reservists mobilized right now and the 
Guard picking up rotations in Bosnia, rotations in the Sinai, 
and so forth, that if we stay at this level of mobilization for 
an extended period of time, we are quite concerned about 
retention.
    Right now we are at full strength basically in the Guard 
and Reserve. That is one of the reasons why the Secretary 
brought in the business of homeland security, the business of 
making sure when we take these obligations on to make sure that 
there are end dates to those obligations, like the commitment 
of 6,000 Guardsmen in the airports of the country. But it is a 
challenge that we are looking at very, very seriously, because 
the current level of deployment is stressing the force clearly.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Secretary White, National Guard personnel, while they are 
in a State status are permitted under the law to perform 
domestic law enforcement functions, such as airport security 
and protecting the U.S. Capitol. However, under the doctrine of 
posse comitatus they may not in a Federal status perform such 
functions, nor may active duty personnel perform such 
functions.
    Last week Secretary Rumsfeld testified that the Department 
opposes efforts to revise the posse comitatus law at this time. 
At the same time, I understand that the Department is preparing 
to detail National Guard troops to other Federal agencies to 
perform law enforcement functions, and in the past the 
Department has opposed such efforts to get around the posse 
comitatus law.
    Do you believe that such change should be made and that our 
troops, active duty or Reserve, should be assigned to Federal 
agencies to perform domestic law enforcement functions?
    Secretary White. I think in general, no, that the doctrine 
of posse comitatus has served the country very well and it is 
culturally a part of our heritage. We have, however, agreed on 
a short-term basis of limited duration, because of the 
significant challenge of border security to our overall 
homeland security posture. We have agreed to detail Federalized 
National Guardsmen under Title 10 to the three border 
agencies--Customs, INS, and the Border Patrol--for a limited 
duration.
    We were very, very careful in this process to ensure it was 
of limited duration and only under that basis did we agree to 
do it.
    Chairman Levin. There has been a great deal of concern and 
debate about the status of detainees that have been captured, 
as to whether or not they are prisoners of war or not. You are 
as the Secretary of the Army the executive agent for the 
Department of Defense for administration of the enemy prisoners 
of war-detainees program. As the executive agent, you have a 
number of responsibilities, including providing appropriate 
reports to the Office of the Secretary of Defense, Chairman of 
the Joint Chiefs, and to Congress relative to that program. I 
do not believe we have gotten any reports from you. Have we?
    Secretary White. No.
    Chairman Levin. We should, under the law, and I hope you 
will attend to that. But I want to specifically ask you about 
Army Regulation No. 190-8, which implements that directive, and 
I want to read it to you: ``If any doubt arises as to whether a 
person having committed a belligerent act who has been taken 
into custody by U.S. Armed Forces belongs to any of the 
categories enumerated in Article 4 of the Geneva Convention 
relative to the treatment of prisoners of war, such person 
shall enjoy the protection of the present convention until such 
time as their status has been determined by a competent 
tribunal.''
    That competent tribunal under your Army regulation is a 
three-officer tribunal that is to determine the status of those 
people. I am not talking here now about a tribunal that is 
going to look at war crimes. That is a totally different thing.
    Secretary White. Right.
    Chairman Levin. This is a three-officer tribunal which 
under our law, under our regulations, is supposed to determine 
the status of persons who have been taken into custody by the 
Armed Forces who have committed belligerent acts against us. I 
am wondering whether or not those tribunals have been appointed 
and, if not, why not?
    Secretary White. Well, I know that you had a discussion 
with the Secretary on this very subject the other day in his 
hearing. The view is that the Geneva Convention applies to the 
Taliban detainees, not to the al Qaida detainees, but in 
neither case do they enjoy POW status.
    We have not been directed to conduct tribunals to be more 
definitive in terms of sorting out their status. So that is 
where it stands today.
    Chairman Levin. Yes, but that does not quite answer the 
question. There obviously was doubt, I think in any reasonable 
judgment there was doubt as to whether or not those persons 
should be treated as prisoners of war, whether or not you are 
then required as executive agency to appoint the tribunal to 
determine their status. Is that not your obligation under your 
own regulation. It is not the President's determination. It is 
your determination under your regulations. It is not the White 
House counsel's determination. It is your determination.
    First of all, did you participate in the decision that was 
made?
    Secretary White. No, I did not.
    Chairman Levin. I think that the Army regulation reading as 
clearly as it does, where there is any doubt about the status 
of a person who is taken into custody who has committed a 
belligerent act, he is considered to be a prisoner of war and 
should be treated that way. Since you are responsible for that, 
I think that you should give the committee, at least for the 
record, an analysis with your own counsel--and I would ask that 
the Army counsel be advised of this--as to why your regulation 
was not implemented.
    Secretary White. I will do that.
    [The information referred to follows:]

                  Disposition of Guantanamo Detainees

    Article 4 of the 1949 Geneva Convention Relative to the Treatment 
of Prisoners of War specifies the categories of people who fall into 
the hands of the enemy who are entitled to be treated as prisoners of 
war (POWs). If a detainee falls within one of the Article 4 categories 
of persons entitled to POW status, then he is a POW. If a detainee 
clearly does not fall within one of the Article 4 categories, then the 
detainee does not receive POW status. When there is doubt, then a 
tribunal under Article 5 of the Convention is appropriate to determine 
the status of the detainee.
    The President has determined that the conflict with the al Qaeda is 
not covered by the Geneva Convention. The President has further 
determined that although the conflict with the Taliban is covered by 
the Geneva Convention, the Taliban detainees are not entitled to POW 
status under the terms of Article 4. Based on the President's 
determinations, there is no doubt regarding whether al Qaeda or Taliban 
detainees are entitled to POW status.
    The joint Services regulation, Enemy Prisoners of War, Retained 
Personnel, Civilian Internees and Other Detainees (AR 190-8) (1 Oct. 
1997), provides procedures for Article 5 tribunals should they be 
required. For example, the AR 190-8 procedures calls for a three-
officer panel. As noted, an Article 5 tribunal is only required 
``should any doubt arise'' regarding a detained individual's 
entitlement to POW status. No doubt has arisen regarding the POW status 
of al Qaeda and Taliban detainees.
    Despite the fact that al Qaeda and Taliban detainees are not 
entitled to POW status, we continue to treat them humanely and in a 
manner consistent with the principles of the 1949 Geneva Convention 
Relative to the Treatment of Prisoners of War.

    Chairman Levin. Thank you.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I am sorry I had 
to depart to be with a group from Minnesota and then go vote. I 
apologize, gentlemen.
    One of the realities of our round of questioning is that it 
also for those of us at the far end of the table constitutes an 
opportunity to make an opening statement, so bear with my 
preamble, please. I want to do so because I think that the 
deliberations this committee is going to be making this year, 
Mr. Chairman, are really among the very most important that 
Congress faces this year.
    The President's request, $48 billion for 2003 and $451 
billion for the 5 years, is an enormous increase in military 
spending, so much so that, for that and other reasons, OMB 
dropped the customary practice of extending the figures for 10 
years. Last week General Myers and General Franks made clear to 
all of us that those increases are not enough to do everything 
that they believe needs to be done. They talked about the 
desire to have a procurement budget for fiscal year 2003 of 
$110 billion, which would be more than $40 billion beyond what 
the President has proposed, which itself is a sizable increase.
    I believe in a House hearing last week one of the 
Congressmen opined that the request falls 40,000 troops short 
of what the Army says it needs, that their aircraft procurement 
is only 100 versus the 400 that the three services combined 
would like, and the Navy shipbuilding is seriously inadequate 
to meet that scope of commitment.
    So the military leadership it seems to me has done what 
they should properly do, which is to inform us civilians, 
yourselves, the Secretary, the President, and Congress, this is 
what it would cost to do what you have outlined you want and 
believe we need to do. Yet, if you look at the consequences of 
that spending over the next decade, the paradox it seems to me 
is that, while it would significantly strengthen our national 
security, our national defense, our military strength, it also 
seriously weakens the financial security of this country.
    That is where I think out of that context it is going to be 
very difficult to both assess your budget proposals and, 
frankly, to deny any of it. Fiscal year 1999 and 2000 were the 
first 2 fiscal years in the last 30 years in this country where 
the Federal Government's operating budget, the budget that 
excludes social security and Medicare expenditures, was in 
balance.
    That fall I promised in my campaign, the President promised 
in his campaign, I think just about everybody who was running 
for Federal office that year promised that they would preserve 
that balance and put the social security and Medicare trust 
fund surpluses in what we called lockboxes, that the money 
would not be used for the operating funds, it would be used for 
paying off the national debt, so that in 10 to 12 years when 
the numbers of retirees increased we would have the ability to 
do so, so we could use some of the Medicare surplus some of us 
envisioned for prescription drug coverage for seniors.
    Now, rather than keeping that balance for the next 10 
years, the budget as proposed would run a 10-year combined 
deficit of almost $1.5 trillion. That deficit would have to be 
paid for by wiping out all of the Medicare fund surpluses for 
those 10 years and 60 percent of the social security trust fund 
surpluses for those 10 years, which means that every additional 
dollar we spend on our military preparedness is a dollar that 
comes out of the Medicare trust fund or the social security 
trust fund and at the conclusion of those 10 years we are still 
in seriously high national debt and we have, I believe, 
seriously weakened this country's ability to meet its current 
and future needs for this society.
    So in that light, I think your budget proposals are 
deficient in two respects. One is I think that the 
administration has failed to redefine what the threats are that 
we face in the world and are expected to face over the next 10 
years, because, as the chairman said, these are long-term, 
long-range commitments and investments that we are making.
    I understand that Secretary Rumsfeld has modified the two-
war measure for preparedness. But as I understand it, those are 
essentially two wars against the former Soviet Union or against 
the former regimes in Germany and Japan. Where are those 
threats in the world today? Where are the nations that have 
anything approaching the equivalent military strength of the 
United States, that would be able to conduct or engage in that 
kind of protracted and highly costly war?
    When our defense budget now equals the defense budgets of 
the next nine countries in the world combined, where is even 
the emerging possibility, the prospect of somebody who could 
engage us at that level?
    Second--and I think these are entirely proper--the 
President has said we must include as part of national defense 
homeland defense. I believe your budgets combined include $12 
billion of the $37 billion the President has proposed for that. 
$25 billion that is being spent in other categories really in 
my view should be considered part of our national defense 
spending.
    Third, the President believes and you believe that we need 
to commit about $8 billion, $8.5 billion, in 2003 and 
increasing amounts thereafter to build the national missile 
defense system so that we are protected if a rogue nation 
shoots missiles at us.
    But that it seems to me is implicitly the totality of 
threats that we are preparing to contend with over the next 10 
years. First of all, I do not know that that is even 
appropriate. Second, I know that it is not affordable. So in 
that context as well, I think the other deficiency in these 
presentations is any real reduction in any of the ongoing 
expenditures to meet these new commitments. The ones that are 
referenced here, the programmed adjustment for fiscal year 
2003, the $9.3 billion, I think as others have asked, and I 
would be interested in further elaboration, too, are really 
minimal compared to what was stated by the Secretary a year ago 
of the need to seriously shift from older systems which are 
either outdated or not necessary for these threats of the 
future.
    So this budget basically is one that in my view avoids any 
of the really tough decisions of what do you not do in order to 
be able to do what everybody wants to do. I guess I would ask 
you if you would respond to that. Yes, sir.
    Secretary Roche. I would just make the following points, 
Senator. One, I think the Secretary has reiterated that we are 
trying in this new era in our programs to not worry about 
specific threats and try and predict them, but in fact to have 
a portfolio of capabilities that can adapt when we are 
surprised. That was the logic during the summer as we were 
preparing the budget and it turns out in September it was 
really brought home, that having a portfolio of forces really 
did things.
    A good example is those what thought big-deck aircraft 
carriers were not useful. They were very useful this time. They 
are very useful also because of those long-range Air Force 
tankers.
    Second, I think in terms of the amount of moneys we need, I 
understand how the services can say that there is a gap. From 
my own point of view, if we just had steadiness, if we could 
have steady budgets and steady growth, we can manage better, we 
can do better, and we can get well. We will take a little risk 
on not having everything fixed at once, but we do not have to 
go and fix everything now and then at some other point create 
another situation where everything obsolesces at the same time. 
So steadiness is probably more important to us than anything 
else, sir.
    Third, when trying to get cost savings, as we were really 
working on early in the summer before Congress was able to help 
us, I can tell you when you try and do something like adjust 
the size of the B-1 force it is a very, very painful 
experience, Senator.
    Senator Dayton. You made that effort.
    Secretary Roche. Yes, sir.
    Senator Dayton. Were rebuffed by the very forces----
    Secretary Roche. In a very brutish fashion, we were 
reducing the B-1 force from 93 down to 60, plowing the money 
back in the remaining 60, realigning a number of bases, doing a 
number of other things. It is working now, but it was sure a 
tough, tough thing to do. An enormous consumption of my time 
and the time of the members, who had to explain to their 
communities what this all meant.
    Senator Dayton. I thank you for pointing that out and I 
recognize that. I think that caused the Secretary last week to 
make the analogy to Gulliver who is being tied down by 2001 
earmarks and the like.
    Secretary England. Senator, a comment about national 
missile defense. You mentioned $8.5 billion. I know Senator 
Landrieu mentioned it also. The fact of the matter is there are 
people out there developing systems that will hit the United 
States. It is hard to ignore that fact. If they are developing 
them, you have to think they are probably doing it for a 
reason, and therefore certainly in my mind it is very prudent 
for this administration and the American people to defend 
themselves against a threat that is being developed.
    Senator Dayton. I do not disagree with you, Mr. Secretary. 
I guess my point is that, in addition to the homeland defense 
against terrorist attacks, in addition to this prevailing 
measure of preparedness to fight two major wars in two theaters 
simultaneously, that, as Secretary Roche said, if that is the 
portfolio we believe that we need to address, I guess we just 
need to recognize as a Nation that at our present structure for 
financing our government expenditures we are seriously in 
arrears.
    Secretary England. Well, we are spending this year, I 
believe, 3.3 percent of our gross national product on defense. 
The other day we mentioned when Secretary Rumsfeld was here the 
last time it was 10 percent. So we are at the lowest the Nation 
has ever been, I believe, at 3.3 percent. The question is what 
percent of the Nation's wealth is the Nation willing to invest 
in defense of the people, and it is really a pretty low number 
for that insurance policy.
    Senator Dayton. That may well be the case, sir. I am just 
saying I am not talking about percentages, I am talking about 
dollars, and I am talking about real dollars based on the 
economic projections that OMB has made. The numbers--and again, 
I think this is not your problem so much as it is ours--but the 
fact is they do not add up.
    I need to go vote and I want to call on Senator Allard. I 
just want to leave also one query. Maybe you could respond in 
writing or subsequently. We spent a lot of time last year, your 
time as well, on a domestic BRAC. What consideration is being 
given to an overseas BRAC, closing down or consolidating these 
myriad bases, not even pulling out of countries. But I 
understand we have 52 bases in Korea, different sites in Korea, 
Japan, and the like. Is there some way we can achieve some real 
savings in the years ahead just by consolidating some of those 
operations? We do not have any Congressional members 
representing any of those.
    Secretary Roche. Senator, that has happened. We have 
actually reduced the number of air bases in Europe, I can 
assure you, dramatically.
    Senator Dayton. Thank you.
    Secretary England. I am working on one, Senator.
    [The information follows:]

                        Overseas Consolidations

    Secretary White. The Army is working to reduce overseas sites and 
thus reduce costs by consolidating operations. Since 1990, the 
Department of Defense announced 28 rounds of overseas infrastructure 
reductions. The U.S. Army Europe has gone from 858 installations down 
to 241--this is equivalent to closing all of Aberdeen Proving Ground, 
Forts Hood, Lewis, Benning, Knox, Bliss, Drum, Sill, and Riley 
combined.
    Currently, we have a couple of initiatives underway. We are 
relocating a heavy brigade combat team in Germany from 13 smaller 
installations to a single installation to improve training at less 
cost. This initiative is called Efficient Basing East. The United 
States Forces Korea is working with the Republic of Korea (ROK), under 
a proposed land partnership program, to reduce our use of ROK granted 
installation and training lands by consolidating onto larger 
installations and eliminating small costly installations. The benefits 
include reducing overhead and operating costs, enhancing force 
protection, improving command and control, and providing soldiers with 
modern living and working conditions. We will continue to look for ways 
to improve efficiencies overseas.

    Senator Dayton. Thank you.
    Senator Allard.
    Senator Allard. Thank you very much.
    I want to address my first few questions to you, Secretary 
Roche. They have to do with the space-based radar. This is a 
high priority for me and I believe it is key to the Air Force's 
transformation. I have been encouraged to see the strong 
support for space-based radar, your support in accelerating 
that program.
    What I am curious about is can you talk about what aspects 
of the program you will be focusing on with the increased 
funding that you have in the budget?
    Secretary Roche. Yes, sir. The issue I have with the space-
based radar is to make sure that this is done right and I do 
not have to come back and discuss a situation as I do on SBIRS-
High, where the program is having difficulties. So first and 
foremost is to understand what is the concept of operations 
that we want the space-based radar for. We believe in the Air 
Force especially, Pete Teets and General Jumper and I, that 
what we are talking about is something that can do ground 
target moving indicators first and foremost, and therefore the 
issues for technology are how few in number, how slow are they 
moving, and how persistent can this system be.
    So we are trying first and foremost to develop an 
architecture that will answer the question as to why we want 
this and therefore limit people adding onto it additional 
requirements which may cause its cost to go up very 
precipitously or cause us a situation where we are trying to 
solve something that is too difficult to solve. This system has 
to work and it has to serve commanders, and then have an 
ancillary role in terms of intelligence, surveillance, 
reconnaissance for other people.
    To this end, the three of us are devoting our own time. We 
are the initial configuration control board. We will be going 
up to Lincoln Labs in Hanscom within the next 2 weeks to spend 
time on the concept of operations, what needs to be there, so 
as to start this program correctly before we get into a feeding 
frenzy as to who is going to build it, what are the appropriate 
sensors, how are those sensors going to integrate with other 
systems, to what degree should this satellite system serve as 
the only or should it be part of a portfolio. We will think 
that through so we have a success on our hands and not 
something that just gets an appetite far ahead of our ability 
to satisfy.
    Senator Allard. You mentioned some of the problems with 
SBIRS-High. We did some restructuring on SBIRS-Low and, like 
you mentioned, I understand there are some problems with SBIRS-
High now. I understand that is in the acquisition process. 
Could you go into a little bit of an explanation of what kind 
of changes need to be happening with that acquisition process 
or maybe what you are doing to try to improve the acquisition 
process?
    Secretary Roche. The first order of business, Senator, is 
to understand why we are suddenly having difficulties in a 
couple of space acquisition programs. Is it a matter that we 
have allowed the requirements just to build without discipline? 
Is there a matter that there is an expertise in the industrial 
base that has retired or is retiring and has not passed on the 
knowledge? Is it that we relied, I think foolishly, on total 
systems procurement responsibility where everything was 
devolved down to a contractor in the past years? I think that 
was a mistake, a big mistake.
    Is it because we can only get 56 of our scientist and 
engineer billets in the space acquisition community filled, 
that we are missing the other, the remainders? We are trying to 
study that now. We are using the SBIRS-High as the most 
immediate case in point: What is there, what is wrong?
    In each case, Senator, what we come upon is it is not the 
magic of the system, it is the basic management things. It is 
the basic technology things that are not working. It is sort 
of, well, why not? what is wrong here?
    So we have challenged the entire space acquisition 
community to the point of saying that we are worried about 
continued confidence in them in terms of making sure these 
things start right and they stay on track, that we get early 
indications of difficulties rather than allowing something to 
go to such a point where it will cost an enormous amount of 
money to fix it. Then we have to discipline ourselves back in 
Washington to not add capabilities in the middle of the 
program, not change things, to be able to have something that 
is more steady.
    So this field, besides having more attention to it in terms 
of trying to get some of our brighter people, trying to re-
recruit scientists and engineers, we are taking a look at the 
fundamentals, because it appears it is in the fundamentals that 
we have had difficulty.
    Senator Allard. Now, Mr. Secretary, I am also pleased that 
you are moving forward in your recent efforts to implement some 
of the recommendations on the Space Commission report, and also 
to see that the organizational changes you made are trying to 
integrate better between military space and the NRO, and I 
compliment you on that.
    Are you planning to follow up on some of the other 
recommendations from the Space Committee, such as 
recommendations to develop a cadre of professionals that we 
need to reduce our space systems' vulnerability to attack?
    Secretary Roche. Sir, I missed part of the question, but--
--
    Senator Allard. Well, part of it is, I appreciate what you 
have done so far as far as following through with the Space 
Commission report. There are other areas specifically that were 
in the report that I want to know whether you are going to 
follow up with. One of them is to develop a cadre of space 
professionals.
    Secretary Roche. Oh, yes, absolutely.
    Senator Allard. The other one, which I wonder if you would 
address, is the need to reduce our space systems' vulnerability 
to attack.
    Secretary Roche. Yes, in both cases we are going to spend 
the time. By the way, one helps solve the other. If you have a 
professional cadre who really worries about this business, they 
will worry about how to red team it as well. I think you will 
find that we will be spending a good bit of time on making this 
an equal to our pilot community in our Air Force.
    We believe in global reconnaissance and strike and that 
reconnaissance is key, our space community is key to what we 
do. In terms of our vision, it is global vigilance and the 
reach and power, and again space--I think you will find the 
commanders of the space units will start to come from the space 
community more. We will worry about their education, we will 
worry about their roles in command and how they feel about 
command.
    So we are taking it very seriously by elevating things up 
to the Under Secretary, by making both General Jumper and 
myself and Pete Teets, as well as the Vice Chiefs of Staff, 
General Fogelsong, responsible as the executive agents for 
space. This community is probably going to get more attention 
than it may want for a while.
    Senator Allard. I would like to wrap up with just one 
question to all of you and if you would respond, please. The 
President's budget reflects a savings of about $200 million by 
decreasing headquarters staff and I am interested in how you 
are planning to accomplish this reduction in each of your 
areas. Will the reductions be in military or government 
civilian, or both, or will those reductions be in contract? If 
you can kind of give the committee some feel about how these 
reductions are going to occur at that particular level I would 
appreciate it. Thank you.
    Secretary White. We are looking at a reduction of both 
civilian spaces and military spaces. We have already completed 
the review of the Army's headquarters. As I said in my opening 
statement, we are at the field operating agency level now and 
we will achieve our 15 percent reduction. We should exceed it, 
as a matter of fact.
    Senator Allard. Secretary England.
    Secretary England. Senator, we are not at the 15 percent 
yet. I believe we are at about 7.0 percent. Frankly, we would 
like to hold that for just a while because of the intensity of 
our conflict at the moment. However, we are working this whole 
issue of headquarters. We are really working well beyond that 
because the real savings are not just at headquarters; it is 
across the entire enterprise. So we are looking at every single 
thing we do. We get together regularly to look at this and we 
hope we are going to save far more than $200 million. We are 
talking billions of dollars as our objective. So we have really 
set our sights well beyond just the headquarters staff.
    Senator Allard. Mr. Secretary, one of the concerns I have 
is when they make cuts they always go down to the lower guys on 
the totem pole and you ought to be perhaps looking at the 
higher level and they protect their own jobs. So I just would 
hope that does not happen.
    Secretary England. No. As a matter of fact, that is really 
what happened, I guess, the last time. Whenever the work force 
was cut, it was all cut at the lower end. As a result we have 
no young people in the business at the moment. We are very top-
heavy, and in fact it is very expensive because it costs more 
to have longer-term employees than younger ones. You really 
would like to have a mix. It is good for the health of your 
organization.
    So you are absolutely right, we do have to be smart in 
terms of how we do this.
    Senator Allard. Secretary Roche.
    Secretary Roche. Senator, in the past the Air Force has 
combined operating commands. In fact, they have done it at the 
top. SAC and TAC became the ACC, and in terms of our 
acquisition they blended units together. We have probably made 
in the headquarters now 7.5 percent, with about 7.5 to go.
    We have a definitional problem that technology is causing 
us that we are trying to work out. The folks who are overseas 
who are in fact coordinating all of this air attack over 
Afghanistan are considered staff, whereas in the Navy they are 
on board an aircraft carrier and they are not considered staff. 
So we are working with OSD to say, can you--we do not mind the 
Pentagon part. That is not a problem. It is down in our 
component commands where the people who are really manning 
these combined air operating centers and directing all of this 
are considered staff, even though they are performing in an 
absolute warfighting role.
    Technology is causing us difficulties. We can do things at 
a distance rather than having to be there, and yet we tend to 
think that is a staff function. So we are trying to work 
through these definitions.
    Senator Allard. Thank you. I see that my time has expired. 
I think, Senator Lieberman, you are to resume.
    Senator Lieberman [presiding]. Thanks, Senator Allard.
    Thanks, gentlemen, for your service and for your very 
interesting testimony. The theme of my questions has in some 
ways been echoed earlier, which is that, though the $48 billion 
increase in the President's proposed budget for the Pentagon is 
obviously substantial and the highest in a number of years, we 
are faced with a multitude of demands that require choices. My 
concern is whether we have made enough of the choices to really 
drive transformation or whether we are still supporting with 
too much of the budget the programs that are serving us well, 
but whose utility is going to begin to run out.
    Obviously, notwithstanding the $48 billion, which is a very 
substantial sum, the actual buying power rises only modestly 
because of inflation, because of the increases in pay and 
benefits, which we all support, and because of current 
operations.
    So with that preface, let me ask just a few questions, 
beginning with you, Secretary Roche, for the Air Force. The 
budget shows a large increase in F-22 procurement, but what I 
would call only a modest increase and in fact some drop in 
funding for so-called high demand, low density programs, which 
I always want to call high demand, low supply programs. For 
example, C-17 production drops from 15 to 12 next year as 
compared to this year, despite General Franks telling us that 
we need more strategic airlift. The JSTARS acquisition stays at 
one per year, despite what seems to be very substantial 
interest from the CINCs who think that we have an inadequate--
well, we do have an inadequate number of JSTARS to provide for 
full-time coverage.
    Although bombers have increasingly demonstrated their 
importance, certainly over Afghanistan, I do not see that 
reflected in this budget, though I did note with some interest, 
Mr. Secretary, that the F-22 is now described as a ``fighter 
bomber'' whereas----
    Secretary Roche. Yes, sir. The Navy always says ``F and A'' 
and we were saying ``F'', but these things have been fighter 
bombers for some time, the F-16. Just think of the attack on 
SIRIC. It was all done by fighter bombers.
    Senator Lieberman. So let me ask that question. Why has the 
Air Force chosen to place such a priority on procuring the 
short-range tac air, which one could argue we have a lot of, 
rather than placing more emphasis on the other high demand, low 
density capabilities that I have talked about? It seems to me 
the CINCs are telling us they want more of these.
    Secretary Roche. We are in violent agreement. If I can, the 
C-17, because it is multiyear, a lot of what would normally go 
in the beginning is being put in for long lead. It is to have 
an equal 15 a year come out at the line and in fact it exceeds 
15 for a couple of years and at the very end is 13. So you 
cannot just look at the moneys funded in this particular thing 
for number of airplanes. It is a cumulative effect.
    So the C-17 is not going down. In fact, it is 15 a year, 
which is a steady economic way to be able to do this at the 
Boeing line. I know we will be looking at whether we need more 
of the C-17s, given how we are working them to death in this 
situation over and above the normal war planning. This is the 
kind of example in the real world, as Secretary Rumsfeld has 
pointed out, that is a surprise and you have to be able to do 
things. So the C-17 is one of those high demand, low density 
things that is getting addressed.
    The others, including the Ground Moving Target Indicator 
(GMTI), we are pressing on trying to put GMTI on drones, and so 
the NPRTIP will be doing that. In the case of Joint STARS, we 
are moving unfortunately one more 707. We want to then go 
beyond to make a GMTI-specific version of a different aircraft 
which is larger but can still take the radar gondola and then 
make the back end more battle management. This is an area we 
are addressing dramatically and it is a problem that we have 
been hooked to the old 707, which is just getting older and 
older and older and older as we go on.
    So in fact we are doing that. With respect to the F-22, the 
program is 20 years old this year, Senator. This is the first 
time that we are finally going into production. But since the 
introduction of the last fighter bomber we have introduced the 
B-1, the B-2, the F-117, the C-17, the C-130J, the Joint STARS, 
et cetera, et cetera. This is an area that has to get addressed 
and so we are doing it, and its time has come.
    Senator Lieberman. Let me ask you one more question briefly 
and I want to turn this same focus to Secretary England. What 
about the bomber force? What about the upgrading of the bomber 
force, particularly considering the remarkable performance in 
the last couple of conflicts we have been involved in of the B-
2?
    Secretary Roche. We are putting all the mods in the B-2 we 
ought to put in. What has changed in this over history is that 
each weapon has such an effectiveness because of precision that 
in fact you do not have the situation which created bombers, 
where you had to drop 1,100 weapons to get a .9 probability of 
hitting a certain part of a factory in Europe.
    Each of these is so precise that you do not have that 
problem. So they perform beautifully, but we have used 18 
bombers for the most part. We had four of the B-2s that we used 
initially when we were not sure of the air defenses. Post 
knowing about the air defenses, 10 B-52s and 8 B-1s have just 
done a remarkable job, a very, very small proportion of the 
overall force because the effectiveness of each weapon has been 
changed.
    Senator Lieberman. So you do not think we need to be 
thinking about procuring more bombers?
    Secretary Roche. No, sir. I think procuring more of the 
weapons that make the bombers effective and upgrading the 
systems on the bombers is the appropriate thing. That is why 
JASSM will take the 60 B-1s and make them dramatically useful.
    Senator Lieberman. Secretary England, let me just ask you 
briefly--my time is running out. If I am not mistaken, at the 
current rate of acquisition, as you have suggested, in the 
next, what, couple of years, we are going to go under the 300-
ship Navy.
    Secretary England. No, sir. We do not go under 300 ships. 
Even with our retirements, I believe the lowest we drop to is 
about 304 ships, sir. So we maintain our level through the 
FYDP.
    Senator Lieberman. Even though we have to do the 8 to 10 a 
year, that is the number I have heard, and we are at about 5 
now?
    Secretary England. That also includes our submarines, sir, 
and we are adding two of those this year.
    Senator Lieberman. OK. I do not actually want to argue the 
numbers. I want to offer you a chance to make the case for why 
we need a 300-ship Navy. In other words, it was not so long ago 
that folks were arguing for a 600-ship Navy, and I believe in 
the standard, but I want to take you back to the fundamentals, 
because some might say in some ways just as Secretary Roche 
just said, high technology is allowing us to get so much more 
out of every platform that we can do it with less than 300.
    So tell us why we need to keep it at that standard?
    Secretary England. The last study, which was last fall, 
conducted by OSD concluded we needed about 340 ships, Senator. 
That is because of theater missile defense and also another 
class of ship called the littorals, and that is one reason we 
went to DDX. We put a new program in this year, DDX, dealing 
with theater missile defense, also ship to shore in terms of 
fire support, and also for the littorals.
    The Navy has a recent study. It concludes that we need 
about 375 ships. Now, I am not sure what the answer is, but the 
answer is more than where we are today, which is at about 310 
ships. Over a long period of time, we do have to capitalize at 
about 8 to 10 ships a year. Ships last about 30 years. It turns 
out the average age of our ships today is 16 years. Optimum 
would be 15 years. So we do not have an old fleet today. We do 
have some older ships, some of them very old, that we do 
desperately have to get rid of.
    I believe this year we have built the base with DDX and 
with our other ships now in development, it turns out at this 
period in time most of our ships are still in some form of 
design. We need to get through this point so we can actually 
get some rate production and move into DDX.
    The FYDP represents that. That is the way that we have this 
structured as we go into our out years. So this is still 
building the base so we can build more into the future. I 
believe it is the right decision at this point, Senator, but we 
do have to accelerate shipbuilding. There is no question about 
that.
    Senator Lieberman. I agree.
    My time is up. Thank you.
    Secretary England. You are welcome, sir.
    Senator Lieberman. Senator Warner.
    Senator Warner. Thank you very much.
    Let's turn to service end strengths. With the exception of 
the Marine Corps, the President's budget request for fiscal 
year 2003 includes no increases in end strength. Secretary 
Roche, I understand you have been quoted as urging an increase 
of 7,000 to 10,000 airmen. It is also my understanding the Army 
feels it might need upwards of 40,000 troops.
    Now, to what extent in the course of the budget 
deliberations did this subject come up and how do you gentlemen 
feel about the reasons that were given by the Secretary of 
Defense that we would not try it this year?
    Secretary Roche. Senator, I think the Secretary has asked 
the right question like any businessman would do. We know we 
need certain skills to increase; are there other skills that we 
do not need as much, or are there things we can move to the 
Reserve or move to the Guard or contract out? So I think the 
first order of business, and we are engaged in this, is a 
parallel track. One is to try to coordinate together in the 
services what our end strength situations are, and to do that 
we are going to have to find some answers to questions like the 
degree to which we have to maintain the capital of the United 
States.
    At the same time he has asked us, quite rightfully I 
believe, to take a look at what things we can do without and 
what skills we have a very deep bench in and we do not need as 
many of. So you would do both of those in parallel, and that is 
being looked at at this time.
    Senator Warner. I understand while I was voting you talked, 
Secretary White, about the important role of the National Guard 
and where there are some stress points, particularly with 
regard to employers, the ancient problem that we have always 
had. Did you have a piece of that equation that you wanted to 
put in this record about the Air Guard? The Air Guard has 
performed brilliantly. Way back in the early days of the 
campaign in the Balkans, I took Air Guard planes in to Sarajevo 
in 1991, as far back as that. I have always been impressed with 
the way they responded.
    Secretary Roche. They responded magnificently, sir. In this 
case, we would normally be using them to help rotate forces in 
Operation Enduring Freedom, but we are tieing up an enormous 
number of them here over the skies of the United States. There 
is a strain on them.
    The Guard has been quite imaginative in almost having just 
in time Guardsmen. If they need to get someone back to a job 
for a day or two, they substitute someone for that person. They 
have been very, very imaginative in doing this.
    But in the very long run we have to understand what it is 
we are asking of them and what ought to be done by Active 
Forces as compared to the Guard and Reserve Forces.
    Senator Warner. So their senior officers have a strong 
voice in the decisionmaking in your judgment?
    Secretary Roche. Oh, yes. They are very close--in the case 
of the Air Force, both of them are very much involved in my 
deliberations.
    Senator Warner. Now let us go back to the original 
question, Secretary White.
    Secretary White. Well, the Secretary of Defense's position 
has been that the way we ought to unburden our structure is to 
start cutting back on deployments, that some of these 
deployments we have been in for years and years, the Sinai for 
example, and at least in that particular commitment he has come 
forward to say we ought to terminate it. So one way to do this 
is to cut back on the deployments that have such a high 
operating tempo and I think his direction is that we start at 
that point rather than immediately looking at plus-ups in end 
strength.
    Senator Warner. So you feel you can survive this period 
without any consequences on family structure, which in turn 
would affect your retention?
    Secretary White. I think we are hard-pressed right now, 
Senator. We talked about being hard-pressed before 9-11 a year 
ago. There are 35,000 Guard and reservists mobilized right now. 
It is a fairly unpredictable mobilization as to a rotation in 
Bosnia with the 29th Division from your home state, and that is 
causing a rising concern with employers and with families. The 
number one question is how long do we have to sustain this?
    Senator Warner. Thank you.
    On the question of unmanned systems, several years ago this 
committee set a goal that by 2010 one-third of the U.S. 
military operational deep strike aircraft would be unmanned and 
by 2015 one-third of all U.S. military ground combat vehicles 
would be unmanned. Do you feel this budget enables sufficient 
funding to keep those goals on track? Secretary White.
    Secretary White. Well, yes. For the unmanned activities 
that we support in our interim brigades going forward, we think 
we have put the money to resource that from our perspective. 
Our commitment, obviously, is much smaller than the Air Force 
and the Navy in this regard.
    Senator Warner. One of the great chapters of this conflict 
in Afghanistan has been the unmanned aircraft.
    Secretary White. Yes.
    Senator Warner. Secretary Roche.
    Secretary Roche. Yes, sir. I do not know about those 
specific goals. I can tell you that we have used these enough, 
as Secretary Rumsfeld pointed out, to see how efficacious they 
can be, but to also understand the difficulties of operating 
with them. There is only so much bandwidth in the world and you 
cannot take the bandwidth of the brain and bring it back to a 
ground station. So exactly how to use them or not to use them 
is one of the conditions that we are trying to work on. The 
judgment of a pilot is still something that can be very 
important, although we have pilots who are manning these.
    The new tactics and doctrine we are developing from them 
has been very important, but there are issues of when something 
goes wrong how to fix it in the air, how to change to a 
different system. So the issues of working with them are being 
understood.
    Senator Warner. I have to catch this last vote. Did you 
have anything to add to this question, Secretary England?
    Secretary England. Senator, I do not think we are going to 
hit those percentages by 2010, but I can tell you we have 
active programs both in the air and underwater, very active 
underwater, and we are working with the Air Force on the UCAV. 
So we are working. It is in our budget this year, sir.
    Senator Warner. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman.
    I would like to direct my comments to Secretary Roche. I 
would like to discuss one particular provision of the 2002 
Defense Authorization Act. According to the 2002 conference 
report, the Defense Department has been directed to report on 
how it intends to encourage teaming arrangements between Boeing 
and Lockheed on the Joint Strike Fighter. This report was due 
when the 2003 defense budget was submitted to Congress.
    I recently wrote a letter to Secretary Rumsfeld requesting 
his cooperation in developing this report, but to date I have 
not seen any sign of the report. I would like, Secretary Roche, 
for you to consult with Secretaries Rumsfeld and Aldridge and 
get back to me some time this week with a certain date when 
this report would be completed and ready for our committee 
review.
    Secretary Roche. Senator, I would be glad to, except, the 
way the Joint Strike Fighter works, I have now shifted the helm 
to the Secretary of the Navy. So if you could substitute his 
name for mine, he currently has the lead.
    Senator Carnahan. Very good. Well, I thank you and would 
appreciate your help in this matter.
    I have one more question that I would like to direct to 
both Secretaries Roche and England. Recent operations in Iraq 
and in Kosovo have shown that we cannot simply rely on stealth 
technology to avoid detection from enemy radar. Future air 
campaigns will bear little resemblance to the war in 
Afghanistan. Countries that President Bush identified as the 
axis of evil have far more advanced anti-aircraft capabilities.
    Unfortunately, our only electronic jamming aircraft, the 
Navy's EA-6B, is over a decade old. Would you please explain 
the importance of honing our electronic warfare capabilities?
    Secretary Roche. Yes, Senator. Electronic warfare or in 
fact trying to provide for the survival of aircraft in the air 
is a combination of things. Stealth is one area, electronic 
warfare is another. With some of the new, modern electronically 
scanned--AESE, active electronically scanned antenna, radars, 
you have the notion of electronic attack. You can reverse the 
radar and jam.
    So all of these have to be put together in a portfolio. 
There have been a number of programs to upgrade the types of 
pods and also the jammers on things like the F-15s. Secretary 
England has talked about a follow-on aircraft to the EA-6B or a 
follow-on program to the EA-6B. We look to it as well. But it 
is a combination of things. It is not just electronic jammers. 
But the jammers have been looked at both in terms of off-board 
jammers, towed decoys, upgrades to internal systems, electronic 
attack, stealth.
    There is more to it than just jamming.
    Senator Carnahan. Could you discuss also any plans you 
might have to develop new electronic attack technologies, such 
as the EA-18?
    Secretary England. First of all, the EA-6B, the Prowler, we 
have had cracking problems with the airplane and recently we 
had engine problems because of oil contamination. So we have 
had a difficult time with our EA-6Bs. As you observe, it is the 
only jammer we have left in the inventory. It performs jamming 
for all missions. So that is of concern, although we do have 
sufficient numbers today even with those problems.
    But we are looking at a replacement. One of the 
possibilities is what is called a Growler, which would be an F-
18E and F version. We have what is called an AOA, an analysis 
of alternatives, under way at the present time. That will be 
completed here in several months, and at that time we will have 
a preferred configuration to replace the EA-6B. We will be able 
to give you a definitive answer in terms of what is the best 
approach to do that.
    One of the considerations is an EA-6B version. It would 
keep us from having another unique airplane, but, like I say, 
that analysis is still in work.
    Senator Carnahan. Thank you very much.
    Senator McCain. Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman.
    I would like to talk to the Secretary of the Navy for just 
a few minutes. In listening to your responses to Senator Inhofe 
about Vieques, Mr. Secretary, if you would have testified 
before this committee as you have testified in response to 
Senator Inhofe during your confirmation hearings you would not 
have received my vote, at least.
    I thought when we confirmed secretaries of the Army, Navy, 
and Air Force they were supposed to be forthright in their 
answers and not try to evade questions. So today you have done 
just that. So I am embarrassed for Senator Inhofe and I am also 
embarrassed for you.
    I also would like to ask you about the V-22 Osprey. Have we 
made any progress in making that airworthy?
    Secretary England. Senator, I believe we have. We will know 
very shortly. In April we start the flight test program, so we 
have incorporated into the airplane for flight test a lot of 
the fixes that came out of all the studies and analysis of the 
airplane that led up to the last crash that stopped the 
program. We have a much better organization, I believe, both in 
our facility and also at our contractor facility in terms of 
how these problems are being worked.
    My judgment at this point is that it is now up to the 
airplane to prove itself. The flight tests will start in April. 
It will run until some time later in 2003 and there will be 
several different configurations. Frankly, I believe the 
program will demonstrate that it can perform the mission for 
the United States Marines and also Special Forces. But that is 
what the flight test program is set to prove.
    In the meantime, we are buying a minimum sustaining rate of 
airplanes, 11 airplanes this year.
    Senator Bunning. At $1.5 billion in cost?
    Secretary England. I believe my number is $1.32 billion, 
plus approximately $600 million that we is budgeted for 
engineering development efforts.
    Senator Bunning. OK, you have requested $1.5 billion for 11 
of the aircraft in 2003, 2 more in the current year; or is that 
incorrect?
    Secretary England. Sir, I believe it is 11 this year. The 
number I recall is $1.32 billion, but there may be spares or 
something with that. So we are in the same----
    Senator Bunning. So we are continuing to maintain the line.
    Secretary England. Yes, sir.
    Senator Bunning. On the aircraft that we are not sure we 
can make airworthy.
    Secretary England. Well, I believe it will prove its worth, 
Senator.
    Senator Bunning. Well, it may do just that.
    Secretary England. The issue we have, if we do not maintain 
the line and we prove the airplane, then it will be extremely 
expensive to get the program back on track.
    Senator Bunning. I can get to the DD-21 destroyer if we 
want to talk about startup again, because we have an additional 
$961 million to do that again for the Navy, start up from 
scratch.
    Secretary England. No, we did not start up from scratch, 
Senator. We took the DD-21 program and we continued all the R&D 
that was going on. We did not stop the program. We did not have 
a line. We continued the program with all the development, but 
we expanded the program from just one version to three 
versions.
    Senator Bunning. An additional $961 million.
    Secretary England. I believe that was programmed for DD-21 
and we continued that for DDX. There is a whole range of 
technology. It is the R&D.
    Senator Bunning. It is R&D?
    Secretary England. It is R&D, yes, sir.
    Senator Bunning. But your testimony today is that the V-22 
is going to succeed and be airworthy?
    Secretary England. Yes, sir, that is my judgment.
    Senator Bunning. A question on the EA-6B Navy 
reconnaissance and radar jamming aircraft. Is it true or is it 
not true that that was a joint decision with the Army to 
discontinue the EF-111 that did the same program the EA-6B does 
now?
    Secretary England. That was an Air Force airplane, the EF-
111.
    Senator Bunning. Yes, I am familiar with it.
    Secretary England. Some years ago--I cannot remember the 
exact time--the decision was to have one jamming airplane and 
it would be the EA-6B.
    Senator Bunning. Now you are having problems with it.
    Secretary England. Well, we are having cracks with it. We 
just had an engine problem and we had contaminated oil, so we 
lost some engines. So they are recoverable. But the airplane is 
just getting old and we are having some problems with them. We 
are looking to replacement downstream.
    Senator Bunning. Would that be an upgrade of that aircraft 
or would that be as new aircraft?
    Secretary England. There is an analysis of alternatives 
being conducted right now, Senator, and I believe in a few 
months we will have the recommendation as to how to proceed.
    Senator Bunning. When you finally make that decision, will 
you inform this committee?
    Secretary England. Absolutely.
    Senator Bunning. Thank you.
    Senator McCain. Thank you.
    Secretary Roche, you wanted to respond to my comment, and 
please proceed.
    Secretary Roche. Thank you very much, Senator. I appreciate 
it. The point I hoped to make, sir, is that at this stage no 
moneys have been asked for. We do not know what the price of a 
lease would be. The second point is I am required to come back 
to the authorizing and appropriating committees once an amount 
of money and the conditions of a lease are put together. 
Therefore, based on the historic precedent of the 737, 757, and 
G-5 leasing experience that the Air Force was asked to attempt 
a few years ago, we were following that procedure.
    I think the basic point, sir, that I would hope I could get 
an agreement with you on, is that the 707s are old airplanes. 
Granted, their age means that we probably are not going to find 
a class problem, but we might find a class problem, and we are 
heavily reliant on those almost exclusively in our tanker 
force. Therefore, introducing a new plane is one that is of 
great concern to me after I went to Tinker and saw catalytic 
corrosion, saw delaminating aluminum, and then checked on what 
happened when we refurbished the planes for Joint STARS, which 
takes them back to class A condition. Do these come in the 
force as brand new airplanes or do they behave for repairs like 
10-year-old airplanes?
    It turns out our data shows that they act like planes that 
are 15 to 20 years old. There is only so much you can redo when 
you take them back. So therefore the concern to replace tankers 
has been most on my mind. Trying to do that more quickly and 
save some money was also a point, sir.
    Senator McCain. Well, I guess we could continue this 
discussion for quite a while, but I have to tell you, my office 
is in the Russell Senate Office Building, which is named after 
the former chairman of the Armed Services Committee. I was 
privileged to serve when Senator Stennis was chairman. My great 
hero and mentor, Senator Tower, was also a chairman of the 
Armed Services Committee.
    Here you orchestrated a deal without a hearing, without 
even informing the chairman and ranking member of the 
authorizing committee. I think I know where Senator Tower is 
today. He would not stand for it. He would not stand for it. It 
is not only an indictment of your behavior, but it is an 
indictment of the system we have here, where the appropriators 
have basically taken over the process. The authorizing 
committees are now very pleasant debating organizations, but we 
all know that the authorizing bill comes at the very end and 
all the money--and in a case like yours authorizing--is put 
into an appropriations bill.
    Now we have reached the point where the Secretary of the 
Air Force with a 126-plane deal does not go directly to the 
Secretary of Defense, who might be interested. When I talked to 
him and said something about it, I thought it was outrageous, 
he did not know anything about it. Secretary Roche corresponds 
with members of the Appropriations Committees and lobbies with 
the Boeing lobbyists to get a deal which ``authorizes'' $26 
billion in a deal that is noncompetitive, because it names 
Boeing. It does not name Airbus, it does not name United 
Airlines, who has a lot of excess airplanes. It names Boeing.
    Campaign finance reform is on the floor of the House today. 
Maybe this will cure some of this, because I know that Boeing 
has contributed millions in campaign contributions to both 
parties. So here we have a situation that is really kind of the 
ultimate of a process we have been on for a long time. In a 
way, I do not blame you for playing the game, Mr. Secretary. 
But the fact is that the chairman and the ranking member of 
this committee were not consulted by you. You did not even pick 
up the phone and say: Hey, we would like to lease these, we 
would like to get it put into an appropriations bill, where 
there is no place for it--appropriations are to give money for 
previously authorized programs. We are going to put into, we 
are going to try to get into the appropriations bill an 
authorization which will then allow eventually the purchase of 
$26 billion worth of airplanes.
    Now, my other question to you is--and you are free to 
respond--have you solicited any other offers? Have you 
solicited? Have you said, hey, anybody else want to offer up 
airplanes that we could use as Air Force tankers? Have you 
solicited anybody?
    Secretary Roche. Again, Senator, if I could go back, and I 
am sorry if I am not communicating well to you, sir. No moneys 
were asked for. It was just the authority.
    Senator McCain. Why did you go to the appropriators and ask 
for it to be authorized?
    Secretary Roche. Senator, what I understood, and it could 
be my mistake, what has happened in the past when the Senate 
asked the Air Force to try to lease 737s, which happened a 
number of years ago, it happened the same way. The Air Force 
could not come to a good deal for a lease and therefore did not 
do it.
    So we were asking for the authority to try to do something, 
which then has to come back to the authorizing committee and to 
the appropriation committees in order to go into effect. But no 
moneys were involved.
    The second point----
    Senator McCain. But it authorized the use of moneys, 
Secretary Roche. It authorized the use of moneys.
    Secretary Roche. As best as I can read the language, sir, 
it gives me authority to attempt to negotiate a lease. I, or 
the Air Force cannot do anything unless we come back to the 
defense committees. We cannot move unless the defense 
committees approve. So effectively you have to, then, once 
there is a dollar amount and once there are terms and 
conditions, come to the authorizing committees and the 
appropriating committees as I understand it, sir. I could be 
mistaken.
    Senator McCain. Why did you go to the appropriations 
committee, Secretary Roche?
    Secretary Roche. Again, sir, it was based on the historic 
precedent set by the 737s. There are again four 737s in the 
current bill, to ask me to go and try to do a lease on 737s for 
VIP travel.
    Senator McCain. Wow. That is remarkable, 100 airplanes 
based on the precedent that some VIP aircraft were requested.
    Would you answer my question about----
    Secretary Roche. The second part, about soliciting others.
    Senator McCain. Have you solicited any offers from any 
other entities besides Boeing and does the language that you 
orchestrated to be put into the bill allow for you to solicit 
any other company or corporation to make an offer, since it 
specifically states only Boeing aircraft?
    Secretary Roche. First and foremost, I do not believe I 
orchestrated the language.
    Senator McCain. Well, I have your letters.
    Secretary Roche. You have the letters, but the specific 
language----
    Senator McCain. I ask that they be made part of the record.
    Chairman Levin. They will be.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Roche. I do not believe I orchestrated this. I 
asked for something because I felt----
    Senator McCain. You advocated it.
    Secretary Roche. I advocated it, yes, because I feel that 
the tanker situation is sufficiently worrisome to me that the 
sooner we can fix it the better, which is one of the reasons 
you do leases, like Her Majesty's Air Force is leasing C-17s to 
get a capability much, much more quickly.
    With regard to asking others at the time there had been 
competitions both in Italy and in France and in both cases the 
Airbus candidate lost. But I was open to it, and I stated so 
publicly.
    Senator McCain. I ask my question again: have you solicited 
any other offers from any other entity that may be able to 
compete, number 1, like we do usually, to compete for bids and 
things like that? Number 2 is, does the language prohibit any 
other, since it says only Boeing aircraft?
    Secretary Roche. The language as it currently stands would 
prohibit it, but if I were to come back and say that X has a 
much better deal for the country, can in fact help Navy and Air 
Force planes be tanked, and it requires some change, I would 
assume that language could be changed.
    Senator McCain. Which is why your letters ask specifically 
for Boeing aircraft?
    Secretary Roche. If I can on that point, sir, if I may. At 
the 11th of September, after the attack, there was a drop in 
commercial airlines. There were a number of cancelled orders. 
Very much like the situation a predecessor of mine a number of 
years ago faced when he found a number of DC-10s that were not 
usable, brought them into the Air Force, and converted them 
into KC-10s. I looked to see if there could be a deal that 
would be good for the American people, good for the Air Force, 
by picking up excess aircraft that were made excess because of 
cancelled orders with Boeing. That is what started it, sir.
    Senator McCain. I would again like an answer to the 
question: Have you solicited any group or organization or 
entity to make a proposal?
    Secretary Roche. Sure. I said I have spoken with Philippe 
Delmas.
    Senator McCain. Have you solicited? I would like an answer. 
Have you solicited----
    Secretary Roche. I said yes.
    Senator McCain.--anyone to propose, to make a proposal, in 
writing said, we would like to have proposals? Was it published 
anywhere, we would like to have proposals by different 
corporations, companies, anybody who thinks that they can 
fulfil this requirement?
    Secretary Roche. In writing, no, sir. But I think I have 
solicited--I have not solicited Boeing in writing, either.
    Senator McCain. Boeing is in the law, Mr. Secretary. Why 
would you have to solicit them?
    Secretary Roche. Senator, I have spoken to Philippe Delmas, 
who is the chief executive of Airbus.
    Senator McCain. But you have not solicited any. Now it is 
past December and here we are in February.
    Secretary Roche. If he has a proposal I would be more than 
willing to look at it.
    Senator McCain. I thank you very much, Mr. Chairman. Again, 
I strongly urge that we have a full committee hearing on this 
issue. It is $26 billion, which is on track to go to Boeing 
Aircraft in violation of what the head of the Office of 
Management and Budget deems inappropriate lease-purchase 
contracts. I strongly urge a hearing. I thank you, Mr. 
Chairman.
    Chairman Levin. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary England, as you well know from our numerous 
conversations, I am very concerned about the low current 
procurement rates of ships and aircraft. The Navy has over and 
over stated that its goals are to procure 8 to 10 ships per 
year and 180 to 210 aircraft per year. Yet the Navy's budget 
does not reach these goals until very late in the Future Year 
Defense Program. That is also of great concern to me because I 
have seen too often the pattern where the Navy or the other 
services sincerely intend in those out years to reach the 
goals, but then events intervene or budget constraints 
interfere and we never get to where we need to go.
    The fact is that we are seeing a continual increase in the 
operational tempo. We are seeing increases in the average age 
per platform. Ship depot maintenance availabilities are more 
often than not exceeding the notational costs. Aircraft are 
requiring more maintenance per hour and are experiencing 
increasing failure rates on major components, resulting in 
significantly increased costs per flight hour.
    My concern is that we need to start rectifying these 
deficiencies now and that we are fast sliding down a 
procurement hole that is going to be very difficult for us to 
climb out of and to meet our goals and current requirements. I 
was struck in my visit to Central Asia and talking to the 
service men and women, the sailors and the admirals on the 
U.S.S. Theodore Roosevelt, the operational tempo is incredible. 
I do not know what we would have done if we did not have our 
aircraft carriers and our carrier battle groups in this war, 
since so many of the strikes have originated from our aircraft 
carriers. I think it is in the neighborhood of 75 percent, 
according to your testimony.
    So what are your thoughts on our current force structure 
and our budget plans and whether or not we have a match here 
for our mission requirements?
    Secretary England. Well, first of all, as Secretary Roche 
just said, I violently agree with you. I will use the same 
expression. Obviously, we do need more ships, we need more 
airplanes. We made some hard decisions this year and I believe 
we made the right decisions in 2003, just like the Kennedy that 
had trouble getting out to sea because the maintenance had not 
been done in the past and we had a lot of delays. It is no 
value to our Navy to have assets that do not operate.
    So this year we put a lot of money, we put $3 billion, into 
our operations and maintenance (O&M) accounts. So $3 billion 
went into O&M accounts. By the way, the Navy had an increase 
this year of $9.5 billion. $4 billion went to the personnel 
account, $3 billion went to O&M accounts, a little over $1 
billion went into R&D, and a billion dollars went into 
procurement.
    But the billion dollars that went into procurement went 
into munitions because in the past years it had been way 
underfunded and we had to fund the munitions. So we put a lot 
of money into munitions this year, $1 billion over last year.
    Now, also we are doing two SSGNs. That is another billion 
dollars we invested, and they count. They are real assets of 
the United States Navy.
    We had prior year shipbuilding accounts. Last year it was 
$800 million, this year it is $645 million. That is money we 
spend for prior year contracts. We do not get anything for 
that. That is for bills from prior years, prior year accounts. 
We still have, by the way, $1.6 billion to work off in that 
account, so we will be back here every year working that off.
    We put $400 million into our current shipbuilding account 
so we would forestall these problems in the future. So just our 
prior year shipbuilding and our $400 million where we increased 
our funding level, that is another whole ship, frankly. But it 
will help protect the future and pay bills that we had run up 
in the past.
    Now, this year we're doing what I call filling all the 
buckets. To the best of my knowledge, we filled all the buckets 
across the Navy and the Marines. So in the out years, we should 
not have to take money out of shipbuilding or airplanes. We 
should actually see the benefits of that money to buy airplanes 
and ships. I would certainly like to buy more this year, but we 
made priority decisions and I believe they were the right 
decisions, Senator.
    Senator Collins. I do not dispute the need for more funding 
in each of the accounts. I guess maybe the question for this 
committee is whether the Navy's share of the $48 billion 
increase overall is sufficient, given the shortfall in 
procurement accounts.
    One other quick question before I go on to a question for 
Secretary Roche and for you as well. Is the down-select for the 
DDX still on track for April?
    Secretary England. Yes, it is.
    Senator Collins. Thank you.
    Secretary Roche, as you are well aware, the Mobility 
Requirements Study 2005 identified a sea and airlift shortfall, 
and this obviously applies, I guess, across the board. Could 
both you and Secretary England tell us more specifically how 
the current operations of Enduring Freedom and Noble Eagle have 
exacerbated the lift shortfall?
    Secretary Roche. Yes, Senator. A couple of things come to 
mind. One, the older aircraft like the C-141s, a number of our 
C-5s, are breaking. They are old, they are just old. C-141s 
have to be retired. We are using them now until we get enough 
C-17s in place.
    Second, we are using the C-17 more than we ever intended to 
and I am concerned that its maintenance is not getting enough 
attention because it is not being pulled off the line enough. 
We are looking for the future to say--there was the study 
having to do with expected scenarios of conflict, but then 
there are the realities of what we are doing in this long-term 
war on terrorism, and mobility is key since Afghanistan is 
totally landlocked. Everything that goes in, everything that 
comes out, has to go in by air, including the water our troops 
drink.
    Therefore, we will look over the next couple of years at 
the C-17 situation to see if we should extend that line. At the 
same time, we are in this year's budget requesting the 
permission of the committee to have a multiyear funding for the 
C-130J, which is a longer haul, more retailing airplane 
compared to C-17, which is wholesale.
    Senator Collins. Secretary England, would you like to add 
any comments?
    Secretary England. Senator, I really do not have much to 
add here. I believe we have been able to deal with the 
requirements for Operation Enduring Freedom. Our deployed 
forces have 30 days of supply with them, so when our marines go 
into Afghanistan they have 30 days of everything with them. So 
to the best of my knowledge, we have not had an issue during 
Enduring Freedom. We have been able to supply our ships and our 
people. Fortunately, we have two countries that are very 
important to us, Bahrain and United Arab Emirates, and they 
have been very helpful to us. So my judgment is we have done 
quite well in that regard.
    Senator Collins. My time has expired. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Secretary England, you were talking about this prior year 
funding debt you had to pay, obligated money that has fallen to 
you to pay so that you can not get to spend it. Is that what 
Secretary Rumsfeld felt is bad management and said he is going 
to try to end, or is that something we have to live with year 
after year?
    Secretary England. Well, I certainly hope we do not have to 
live with it. Like I said, this year we have added the funding 
of current contracts by about $400 million. That is, we have 
brought the estimate to completion up by $400 million, to 
hopefully forestall this problem in the future. When we look at 
this issue, it is for lots of reasons. Rates have gone up, 
perhaps changes that we imposed. Keep in mind, these ships are 
built over a long period of time, so obviously we introduce 
technology, et cetera. There are some costs associated with 
that, but that is really a valid cost because it improves our 
product.
    But a lot of this, frankly, has to do with, I guess I would 
say, the imposed inefficiency of the yards. That is, we buy at 
very, very low rates, so we buy at very low rates and we pay 
top dollars. Therefore it is important for us to get the rate 
up so that we get the cost down and get better control of our 
ship costs.
    I certainly hope this is not something we have to live 
with. We are working very, very hard to end these prior year 
shipbuilding accounts. Our Assistant Secretary, John Young, and 
I work this regularly and I believe we will be successful with 
this.
    Senator Sessions. Well, I think it is important for us. It 
is difficult enough to manage and oversee a budget and approve 
a budget that has numbers shifting from 1 year to the next, and 
I appreciate your working on that.
    Let me just make a point and ask a couple of questions. 
Today's Navy I understand includes about 315 ships, although I 
saw an article the other day that said 310. Do you have a hard 
number on that, Mr. Secretary?
    Secretary England. Let me see if I have an exact number 
here. I believe the number of ships today is 310.
    Senator Sessions. Which is lower than we have been 
complaining about at 315, and we do have escalating operations 
and maintenance and personnel costs that have gone up and we 
want to pay our sailors and our personnel more, and it has kept 
us from recapitalizing the Navy at the rate we would like to. 
It has kept us below the 2001 QDR, the Quadrennial Defense 
Review, statement of what is necessary.
    The fiscal year 2003 budget accompanying the Future Years 
Defense Program does not allocate future years investments 
sufficient to build the number of ships required to 
recapitalize the fleet. The request for years 2003 through 2007 
as I read it is 18 ships less than was required in the QDR 
plans. So this is a result of retiring ships earlier than their 
projected service life, not building the required Virginia-
class submarines called for by the Joint Chiefs attack 
submarine study, and low procurement rates for other ships.
    So I am not criticizing you. It is not your fault that we 
are in this predicament, and I salute you for making some tough 
calls. You had to make some tough decisions looking at the 
numbers you were allocated.
    Let me ask you about some potential ways that we could 
improve our ship effectiveness, the actual number deployed in a 
wartime environment, and see if you have thought about these 
and what ideas you might have about it. There are four areas 
that I think the Navy should examine, and Senator Kennedy is 
chairman of the Seapower Subcommittee and I am the ranking 
member and I will be seeking information on some of these 
issues this year in some hearings.
    We could assign additional ships and submarines to home 
ports closer to their areas of operation. This is sometimes 
referred to as forward home porting. We could assign a ship to 
remain in a permanent forward area of operations and rotate 
crews back and forth, which is not historic Navy policy, but we 
do it on submarines, and that has some real potential, I think.
    We could retain ships to the end of their full service life 
rather than retiring them early, and we are doing that. I was 
on the O'Brien, a Spruance class destroyer, a few weeks ago in 
Japan. It performed well in Afghanistan and it is now set to be 
decommissioned rapidly.
    We could preposition additional ships in forward operating 
areas that would be maintained by very small crews during 
normal circumstances and that could be beefed up in times of 
emergency. This would be analogous to the manner in which the 
Ready Reserve Force ships have been kept ready to begin 
operations in a few days.
    Are those some ideas that you are considering? If we did 
those, is it possible to get more ships in fighting areas where 
we need them? Recognizing, Mr. Chairman, that most Americans 
might not know that it takes three ships to maintain one ship 
in forward deployment the way we operate today.
    Secretary England. Senator, I believe you are right on. The 
fact is I think the CNO would also agree with you. We have 
initiated across the Navy, with the CNO in a leadership role, 
to look at a wide range of options as to how we get greater 
deployment out of our existing fleet.
    Also, by the way, the faster we get them through the 
depots, the faster we get them through the maintenance cycles, 
that effectively increases the size of our Navy. So you are 
right, anything that effectively increases the size of the Navy 
is certainly worth looking at, and we are looking at all those 
ideas and other ones also.
    Senator Sessions. So even if the number of ships were low, 
if you could maintain more ships in war-fighting areas, the 
impact would not be as great.
    Secretary England. You are absolutely right. It effectively 
increases the size of the Navy if we can do that. Like I said, 
we are looking at all those alternatives. It is the most 
efficient way to go, it is the most effective way to go, and we 
would be happy to come brief your committee on all these 
initiatives, Senator.
    Senator Sessions. We will be submitting some follow-up 
questions on that subject, and know that we are still going to 
need some new ships, but if we can maximize those old ones I 
think that would be helpful.
    Thank you, Mr. Chairman.
    Secretary England. Thank you, Senator.
    Chairman Levin. Thank you, Senator Sessions.
    I want to go back to the tanker leasing question and ask 
you, Secretary Roche, a few questions on this point. You were 
quoted in the press as saying that the language implementing 
any such lease would need to be changed. In other words, 
legislative language would be necessary in order for you to 
enter into such a lease, and I am wondering if that is 
accurate.
    Secretary Roche. No, sir. I do not know the contents of 
that. What I am saying is that we are now--the facts are as 
follows, sir. We are now taking the language from the bill and 
seeing what the conditions are and if a lease can be done under 
those circumstances. If we can, then we would move forward and 
we would try to put one together. But it is a function of cost 
of money, it is a function of residual values. There are no 
dollars involved.
    I have to come back to you once there is something that 
involves dollars. But it is the constraints, the guidelines. 
Originally, I had asked if there was a chance to waive the 
provisions of a capital lease for scoring purposes in order to 
have these aircraft get here sooner, but that is not my 
position, that we would have to change. We are trying to work 
with it as it is.
    Chairman Levin. So you are saying there are no legislative 
changes or guidelines that would have to be amended in order 
for you to enter into such a lease?
    Secretary Roche. Only if somebody like Airbus came along 
and made a deal that was so good, an offer that was so good, 
that we felt we would prefer it, and then we would come 
forward, yes, sir.
    Chairman Levin. Other than that, changes in guidelines?
    Secretary Roche. As best as we can tell now, sir, we are 
examining it because there are also policies on the floor that 
were done to explain what some of these provisions meant, like 
what is a new aircraft? Is it one with a tanker boom or is it 
one without a tanker boom?
    Chairman Levin. Is there any funding in the fiscal year 
2003 budget request to begin these leases if you decided to go 
forward?
    Secretary Roche. No, sir, there is not, because I was 
trying to see if I had permission to go forward. In fact, there 
is no money at all in the budget for leasing. There is a plan 
B. If we can do something faster, fine, but we would stay on 
track with plan A, which was to develop the KC-X.
    Chairman Levin. Is it possible you can enter into a lease 
without funding?
    Secretary Roche. No, sir. I would have to come back and 
either amend the budget--as I understand it, Senator, have to 
amend a request or reprogram money to make the first payment or 
not make the first payment until next year and get permission 
to do so. So as far as I know, I cannot do anything unless I 
come back to an authorizing committee and an appropriations 
committee with something in hand, as compared to the authority 
to try and get the thing.
    I face the same problems, Senator, on the four 737s that 
are there.
    Chairman Levin. Just so that we are real clear, for one of 
two reasons, either of two reasons, you could not proceed 
without coming back to the authorizing committees?
    Secretary Roche. Yes, sir.
    Chairman Levin. The Appropriations Committee.
    Secretary Roche. Yes, sir. As I read the bill, which I 
always thought was the case, once I got the money, I would have 
to have the money authorized and the money appropriated. It was 
a matter--
    Chairman Levin. Once you got the--
    Secretary Roche. The deal. Once I have a construct, so I 
had an ``it,'' to bring the ``it'' forward. I would require 
authorization for the ``it'' and I would require appropriations 
for the ``it,'' but I could not do anything with the companies 
if it was totally out of the question, which is the reason I 
was asking if we could go forward.
    Chairman Levin. But not do something with the companies if 
it was----
    Secretary Roche. Could not negotiate.
    Chairman Levin. Let me just finish.
    If it was totally out of the question. I asked you a direct 
question. Is there any potential lease agreement that you 
believe you could enter into without coming back to the 
authorizing and appropriating committees?
    Secretary Roche. No, sir.
    Chairman Levin. OK, let us leave it at that. You can 
qualify it if you want to. I do not want to cut you off.
    Secretary Roche. No, you are absolutely right. The only 
reason I am pausing is the language says that I must come back 
before the Armed Services Committees, which is exactly what I 
would have thought in the first place. But again, the only 
qualifier was to start negotiations if something would never 
even have a chance would not have been sensible. Also, I was 
truly seeing to what degree could the scoring rules be amended, 
given the situation with the old tankers. They cannot be 
amended and, as Mr. Daniels has said, some leases are good 
leases, some leases are bad leases. I am not going to bring 
back a bad lease proposal.
    Chairman Levin. Both civilian and military witnesses from 
the Defense Department and the services have stressed the 
importance of quality of life and the impact that substandard 
living and working facilities have on the ability to accomplish 
the mission. Last year the Readiness and Management Support 
Subcommittee received testimony that 69 percent of the 
Department's facilities have serious deficiencies, rated C-3, 
or do not support mission requirements, rated C-4, and it was 
stated that the administration is committed to restoring the 
installations and facilities. That was just last year.
    This year, despite a $48 billion increase in the overall 
defense budget, the administration is proposing to reduce 
funding for military construction by a billion dollars below 
what the Department requested last year and a billion and a 
half dollars below the level that was appropriated for 2002.
    How do you explain this? I must tell you I am a little bit 
at sea. I guess maybe I should say also in the air or 
underground. But anyway, I am at sea as to try to figure what 
was meant last year. The Army was said to have underfunded 
long-term facilities. This is your testimony this year 
actually, Secretary White: ``For too many years, the Army has 
underfunded long-term facilities maintenance.''
    So you come in with a budget request a billion dollars 
below last year's request and a billion and a half dollars 
below what we appropriated. So I do not get it. What is going 
on?
    Secretary White. Well, Senator, in the MILCON area if you 
add the normal MILCON with what we are putting into Army family 
housing and then you add the private capital that we are 
attracting to support RCI, the Residential Communities 
Initiative, if you put all those pieces together we are 
basically flat between the 2 years. They total up to about $3.9 
billion in each year.
    Chairman Levin. If you want to put the three pieces 
together, what is the Navy's position?
    Secretary England. Similar. We are slightly down in the 
budget. We did increase housing allowance, however, by $255 
million and we improved our housing construction accounts, and 
in this year, in fiscal year 2003, we will have public-private 
venture, that is private money supporting the military, to the 
tune of $700 million. I do not know what it was last year, but 
we worked very hard this year to bring private money into the 
mechanism.
    So I do not know how that compares at the end of the day, 
Senator.
    Chairman Levin. Well, let us try to compare them. Let us 
compare apples and apples. When you gave us your three pieces, 
Secretary White, did you include the same three pieces last 
year for your comparison?
    Secretary White. I do not know whether we included the RCI 
private capital. In fact, I do not think there was any RCI 
private capital in last year. The two that we had----
    Chairman Levin. What about the third piece?
    Secretary White. Well, we have the normal military 
construction. We have the Army family housing. There are small 
amounts of money for base realignment and closure. Then there 
is the private capital, which is the third piece.
    Chairman Levin. I just want to make sure you are adding all 
the same pieces for both years.
    Secretary White. Right.
    Chairman Levin. Do you know whether you are or not?
    Secretary White. I think so, yes. I think it is a valid 
comparison.
    Chairman Levin. On that basis you think it is level 
funding?
    Secretary White. Yes.
    Chairman Levin. Now, in the Navy you do not know?
    Secretary England. I do not know what we had last year in 
terms of private venture funding.
    Chairman Levin. Is your MILCON lower this year than last 
year?
    Secretary England. Yes, MILCON has decreased somewhat from 
fiscal year 2002, but I do not know what the total amount of 
investment dollars are, Senator. We will get back with you on 
that.
    Chairman Levin. The reason for the reduction?
    Secretary England. Just hard choices we made. We had 
private companies investing, so that obviated the need somewhat 
for MILCON. We would obviously rather have private companies 
investing along with us. As the BAH goes up, you can attract 
more and more private venture capital.
    Chairman Levin. Get us the figures, if you would, for the 
record.
    Secretary England. Yes, I will.
    [The information referred to follows:]

    Almost $470 million in private capital will be invested in Navy and 
Marine Corps family housing as a result of housing privatization 
projects awarded in fiscal years 2001 and 2002.

    Secretary Roche. Sir, I am prepared. We had three 
categories of investment: family housing, military 
construction, and sustainment. If you take all three, we are 
$45 million less this year than we were the year before, and I 
think that is going to be a little bit lower. We specifically 
made the decision to increase money for family housing and to 
fix things, to fix runways, fix hangars, put new roofs on, 
refurbish, et cetera, which comes out of the sustainment 
account, which we plussed up by $362 million.
    The military construction of brand new buildings, we 
focused on only that which would be needed for new systems that 
are coming in, so for instance construction at Langley Air 
Force Base to accompany the F-22 teams that are starting to 
form. In total, we are very close to what was in the 2002 
budget, sir.
    Chairman Levin. But what do we do then with last year's 
testimony that the administration is committed to restoring 
installations and facilities if 69 percent of the Department's 
facilities have serious deficiencies? Where does that get fixed 
in this year's budget?
    Secretary Roche. I believe in the sustainment we do a good 
bit of that, sir. We make a big dent in that through 
sustainment, which is to fix things. MILCON is to build brand 
new.
    Chairman Levin. On that you are down?
    Secretary Roche. No, sir. In sustainment we are way up.
    Chairman Levin. On MILCON you are down.
    Secretary Roche. On brand new buildings we are down because 
we are restricting it to new systems. But in sustainment we are 
trying to fix things as much as we can, and in family housing 
we are moving up. That is our moneys for family housing, not 
including privatization.
    Chairman Levin. Well, in the materials that were given to 
us, the briefing materials, the Comptroller said that ``the 
reduction was a conscious decision to defer military 
construction projects to reflect delay in an additional round 
of base closures in 2005.'' I am glad to hear none of you used 
that as an excuse, since there was no delay. For the first 
time, we got a round of base closings. There was no delay we 
finally got one. I thought that was a pretty feeble excuse when 
I read it and I am happy to hear you fellows, you secretaries, 
have not used it today.
    What we will need to do is review the reasons you did give, 
however. So we are going to need to see those figures for the 
record. Secretary White, if you would also provide those for 
the record.
    Secretary White. Yes, we will.
    [The information referred to follows:]

                             MILCON Funding

    The Army's military construction budget request is $3.2 billion and 
will fund our highest priority facilities and family housing 
requirements. In fiscal year 2002, we presented a budget that was a 
down payment on our goal to better support our infrastructure. When we 
developed this year's budget in light of the events that took place 
last year, we had some very difficult decisions to make. The need to 
fund our military pay raises, Army transformation, OPTEMPO, the war on 
terrorism, increases in health care, and other key programs were all 
included in the decision leading to our request. Thus, the Army budget 
provides the best balance between all our programs, including military 
construction.
    Below is a side-by-side comparison of Army Military Construction 
(MILCON), Sustainment-Restoration-Modernization (SRM), and Army Family 
Housing (AFH) funding in the fiscal year 2001, fiscal year 2002, and 
fiscal year 2003 President's budget submissions. The comparison shows 
that, although fiscal year 2003 is lower than the fiscal year 2002 
level, it is much higher than fiscal year 2001. The Residential 
Communities Initiative housing privatization program is another 
important element of facilities improvement, adding private capital to 
the program, and leveling the comparison of fiscal year 2002 and fiscal 
year 2003.

------------------------------------------------------------------------
                                                  Fiscal Year
           Funding ($000)            -----------------------------------
                                         2001        2002        2003
------------------------------------------------------------------------
Military Construction...............       1,039       2,139       1,637
Family Housing......................       1,140       1,401       1,406
Base Realignment and Closure........         303         164         150
Sustainment Restoration and                1,899       2,387       2,364
 Modernization......................
Private Capital.....................           0         260         720
                                     -----------------------------------
  Total.............................       4,381       6,351       6,277
------------------------------------------------------------------------


    Chairman Levin. On the question of Army transformation, the 
budget request of the Army terminates 18 existing programs, 
including some that were restored by Congress at the Army's 
request over the last couple years. I am wondering whether or 
not the 18 programs that were terminated by the Army were your 
initiative or was that a direction of the Office of the 
Secretary of Defense?
    Secretary White. That was not a direction of the Office of 
the Secretary of Defense, Senator. It was our initiative. We 
had to make some tough choices and those were the programs we 
chose to kill.
    Chairman Levin. I am going to ask each of you for a list of 
unfunded requirements. Do you have such requirements that are 
unfunded? I am not going to ask you for them right now. I will 
ask you those for the record. But before we get them in the 
record, are there unfunded requirements in the Army?
    Secretary White. Yes, there are. Again, what we have tried 
to build in this budget was a budget that would sustain us 
through an expected level of effort with the current war where 
a supplemental would not be required. But there are areas of 
the budget that we did not fully fund against requirements 
because we had to make tough choices.
    Chairman Levin. Would you provide that for the record 
promptly?
    Secretary White. Yes, I will.
    Chairman Levin. Secretary England, would you do that as 
well?
    Secretary England. Ships and airplanes, Senator. Obviously, 
we need funding for those capitalization accounts.
    Chairman Levin. Even though you have them in the FYDP?
    Secretary England. We do build up to ten ships at the end 
of the FYDP, that is correct.
    Chairman Levin. But you have unfunded requirements this 
year?
    Secretary England. Correct. We are not at the level we 
would like to be this year, yes.
    Chairman Levin. Will you give us those, please?
    Secretary England. Yes, sir.
    Secretary Roche. Yes, sir. I would like to make the point 
that a steady budget with steady increases will take care of 
things in time. We have unfunded requirements which will be met 
in later years. It is really an issue of bringing them into the 
near term.
    Chairman Levin. But as of this year you have unfunded 
requirements?
    Secretary Roche. Sir, we have had to make trades, sure.
    Chairman Levin. Would you give us a list?
    Secretary Roche. I would like to have bought tankers. 
[Laughter.]
    Chairman Levin. Pardon?
    Secretary Roche. For instance, I would like to have 
purchased tankers and not gone through the grief I am going 
through.
    Chairman Levin. I can understand why, actually.
    But you will give us the list of unfunded requirements?
    Secretary Roche. Sure.
    [The information referred to follows:]

                       Unfunded Requirements List

    Secretary White. The budget request contains the Army's top 
priorities, but at this point we have not prepared an unfunded 
requirements list. We will provide the committee the list as soon as 
possible.
    Secretary England. The Chief of Naval Operations and Commandant of 
the Marine Corps have both provided detailed listings of program 
requirements not funded in the fiscal year 2003 budget. I believe they 
have ably identified additional specific needs of our Naval Services, 
and their correspondence is included for the record below. I would only 
add that our biggest budgetary challenge for the long-term health of 
the Department of the Navy is to ensure that we improve the pace of 
recapitalization, especially for major platforms like aircraft and 
ships, and for amphibious and littoral warfare capabilities. These are 
well represented in the details provided by the CNO and Commandant, but 
each must be evaluated in the context of all requirements. The global 
war on terrorism, other continuing demands on Naval forces and our 
people, and our desire to achieve transformational capabilities to 
better the posture of our forces against potential adversaries, 
represent additional challenges we have addressed in our overall 
request. The budget proposed by the Secretary of Defense and the 
President achieves the best balance among our highest priorities for 
national defense, and for the Nation as a whole.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                        Unfunded Priorities List

    Secretary Roche. The Department's proposed fiscal year 2003 budget 
is a vital step forward, reflecting our priorities as we prepare for 
the challenges of the 21st century. It supports the war against 
terrorism, invests in Air Force people, and funds a broad-based 
transformation that, if sustained, will enable us to remain the world's 
most capable air and space force. The unfunded programs you have asked 
us to identify must be understood in context. We first need your 
support for the priorities of the President's budget, and the attached 
unfunded list complements rather than substitutes for the requirements 
presented in the President's budget request. Looking ahead, we also 
need to work together to assure this fiscal year 2003 budget begins a 
process of sustained investment over time to advance Air Force 
transformation.
    With this understanding, I am forwarding the following list 
totaling $3.8 Billion, consistent in large part of programs already 
planned for the outyears that may be brought forward. We've excluded 
any variable ONE/OEF cost of war, such as the unbudgeted Reserve/Guard 
call-up, because these should be covered by the $10 billion variable 
cost of war dollars already requested by the Department. Should the 
cost of war funds be redirected, the Air Force requirement of $4.2 
billion for Reserve/Guard call-up would have to be our number one 
unfunded request. Our list emphasizes capabilities highlighted by 
current operations and our continuing evaluation of war-related 
requirements. It also captures a number of requirements of critical 
importance that have emerged since the budget was prepared. We've 
included the costs to purchase aircraft that would permit us to 
accelerate the replacement of the aging KC-135E fleet, and procure four 
C-40-passenger jets. Nevertheless, we continue to explore whether there 
is a viable business case for leasing these aircraft. If neither of 
these options turn out to be feasible, we would revert to our previous 
modernization tanker plan, which would deliver our first new tanker in 
fiscal year 2008, and consider the requirement for the C-40s as we 
develop the fiscal year 2004 budget.
    Our facilities strategy in the fiscal year 2003 budget emphasized 
the importance of ``fixing the Air Force we have now first'' then 
building new as appropriate. Under this strategy, investment is focused 
on sustainment of current facilities, upgrades to family housing, and 
construction related to new missions. With the MILCON entry on the 
list, we could further extend our infrastructure improvements. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Chairman Levin. Senator Sessions has a question.
    Senator Sessions. Briefly. Secretary White, we had a nice 
tour in Korea the first week of January and I heard reports 
about inadequate housing, the inadequate compensation for 
family split-ups for tours there, really causing some problems 
in getting people to accept an assignment. They enjoy doing the 
work but they do not enjoy the matters that go with it.
    Does this budget provide any relief and improvement in 
housing? We simply in my view need to do some consolidation of 
bases and improvement of housing in Korea.
    Secretary White. We have allocated resources to Korea, but 
I will have to get back to you for the record with the 
specifics of where the money will be spent.
    [The information referred to follows:]

                            Housing in Korea

    For family housing, the Army first looks for host nation funding 
whenever possible. In Korea, Republic of Korea funded construction 
(ROKFC) funds can be used for construction of Army family housing. The 
ROKFC program provides the funds to the Army for design and 
construction. In addition, this budget provides for 2 fiscal year 2003 
family housing construction projects at Yongsan. One project provides 
$3.1 million for replacement of 10 senior officer quarters, and the 
second provides $1.9 million for renovation of 8 general officer 
quarters.
    For barracks, we also look for host nation funding whenever 
possible; however, host nation funds are typically used for operational 
projects. Therefore, the Army has programmed substantial Military 
Construction Army (MCA) and Operation & Maintenance Army (OMA) 
resources to fund all required barracks projects in Korea by fiscal 
year 2009. The fiscal year 2003 President's Budget Request includes 
$131.2 million of MCA funds for new barracks projects in Korea, and 
$24.4 million of OMA funds for renovating existing barracks in Korea.

    Senator Sessions. I will just repeat that I do not believe 
that is an exaggerated problem. I know you hear it probably 
everywhere you go.
    Secretary White. Oh, I do not think it is either.
    Senator Sessions. I think we have a real problem there that 
is undermining some of the good things that are happening in 
the Army and if we can fix it it would be great.
    Secretary White. We have been there 50 years, 1 year at a 
time.
    Senator Sessions. Exactly right. The facilities are 50 
years old, many of them, and are just not adequate.
    Just to get the numbers down on the Joint Direct Attack 
Munitions (JDAMs), I believe, Secretary England, you indicated 
the Navy has 18,000 in for 2003?
    Secretary England. No, sir, I believe the number is 9,880 
for fiscal year 2003.
    Senator Sessions. For fiscal year 2003 it would be 9,800. 
What about the Air Force?
    Secretary Roche. Sorry, I will have to get the exact 
numbers. I was worried more about the production capacity. We 
are producing 1,500 a month right now for both services. We 
want to get that to 3,000 a month. We will be facilitating for 
3,000 a month.
    Senator Sessions. When do you think you would be getting to 
3,000 a month?
    Secretary Roche. We can get to about 2,000 at the end of 
2003 and I think by the end of fiscal year 2004 we would be 
able to go to 3,000 a month. That is roughly, sir. We will get 
the exact details to you.
    [The information referred to follows:]

                              JDAM Numbers

    Secretary Roche. The current program will delivery 2,000 per month 
by March 2004 and 2,800 per month by July 2004. JDAM will have the 
capability to produce up to 3,000 per month by summer 2003.

    Senator Sessions. Well, Mr. Chairman, I think that is 
probably not enough to meet our needs and maybe we ought to 
think about bringing on more production lines. Is that 
possible?
    Secretary Roche. Sir, the way things are going now we are 
building up inventory. Remember, we are still producing JDAMs. 
We are starting to catch up very quickly because we are not 
using that many. We were using about 80 a day and that has now 
dropped down. So we are building up the inventory again. It is 
the capacity to be able to do it, which is effectively like 
opening up a second line.
    Senator Sessions. But you would not want to be in a 
position of having to tell the President we are not prepared to 
undertake a military operation because we have to wait 6 more 
months to get our munitions?
    Secretary Roche. No, sir, and we feel very sure that this 
is not a big risk. When you get to the point where you can do 
3,000 a month, you are talking 36,000 a year. That is a heck of 
a lot of weapons.
    Senator Sessions. But that is 2 years away.
    Secretary Roche. But we can do 15 now and within a year we 
will be at about 2,000, plus there are other precise weapons. 
It is not just that JDAMs are the only weapon.
    Senator Sessions. It turned out to be the weapon of choice 
right now.
    Secretary Roche. Absolutely.
    Senator Sessions. It is a magnificent thing. I just will 
probably ask some more questions in writing and we can talk 
about that maybe in confidential hearings. But I do believe we 
have to confront that question.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Just one more question for me, and it relates to your 
active duty strengths. Did any of you propose increases in your 
service's active duty strength for this year's budget?
    Secretary White. No, we did not, Senator.
    Chairman Levin. Secretary England?
    Secretary England. Sir, we have an increase of 2,400 
marines this year.
    Chairman Levin. In the Navy?
    Secretary England. No, sir.
    Chairman Levin. Did you request it?
    Secretary England. No, sir.
    Chairman Levin. Secretary Roche.
    Secretary Roche. I do not think so, although we are talking 
about an end strength increase, but I cannot remember which we 
have focused it to, sir. We talked about an increase of roughly 
7,000. The Secretary has made the reasonable request that we go 
back to see if there are offsets, what skill areas are really 
needed, are there other skill areas that we can put in the 
Guard and the Reserve, et cetera, before he makes decisions on 
those. So that is probably now part of the fiscal year 2004 
process.
    I lose track of, are we executing----
    Chairman Levin. I lose track of your answer.
    Secretary Roche. The answer to the question is yes, we 
asked for 7,000. I do not know whether we did it in the fiscal 
year 2003 process or we are doing it as part of the fiscal year 
2004 process. That is what I cannot remember.
    Chairman Levin. Let us know for the record which one it 
was.
    [The information referred to follows:]

    Secretary Roche. As a result of increased demands after September 
11, the Air Force approached OSD with a request for an additional 7,000 
total force end strength (5,300 active duty) for fiscal year 2003. OSD 
advised us to look for alternative methods to meet additional manpower 
requirements without growing end strength. Since that time, we have 
been involved in internal Air Force studies to consider innovative 
approaches that will help us to operate within OSD guidance.

    Chairman Levin. Recent press reports indicated that the 
Army had asked for 40,000 additional troops, the Air Force for 
8,000 additional airmen, the Navy for 3,000 more, and 
apparently that is not accurate; that is what you are telling 
us?
    Secretary White. I think the 40,000 came from a hearing 
last year of the House Armed Services Committee where we 
discussed with Congressman Skelton whether the 480,000 was 
adequate or not and if it was not adequate what the plus-up 
should look like.
    Chairman Levin. But then you had a press report that 
indicates that you requested it and that is not accurate?
    Secretary White. No, it is not accurate, no.
    Chairman Levin. Is that correct also for the Navy?
    Secretary England. Correct.
    Secretary Roche. We did ask for the 7,000, but I cannot 
remember which part it was, if it was the fiscal year 2003 or 
the fiscal year 2004.
    Chairman Levin. You will let us know that for the record.
    Thank you very, very much. I think we have concluded our 
hearing. We appreciate your presence, your answers, and we will 
stand adjourned.
    [The prepared statement of Senator Thurmond follows:]

              Prepared Statement by Senator Strom Thurmond

    Thank you, Mr. Chairman.
    Secretary White, Secretary England, and Secretary Roche, welcome to 
this, your first of many annual posture hearings on the budget request 
and state of your service. The past year has been filled with 
challenges to both the Nation and your services. Although other 
challenges are still ahead, your personal response during these trying 
months has reinforced my belief that our services and the men and women 
who wear the uniform of your service are in good hands.
    Although the Nation's immediate objective is to win the war against 
terrorism, your long term challenge will be to transform our military 
services to fight the battles of the future. The traditional manner of 
preparing for the next battle by re-fighting the last war cannot be the 
way of the future. The lesson of September 11 is that we will fight 
future battles not only in the lair of the terrorist but also here at 
home. They will be won as much by technology as by the ingenuity of our 
soldiers, sailors, airmen, and marines. The operation in Afghanistan is 
merely a glimpse of future warfare. We need to exploit the good, but 
not make it the focus of the transformation.
    Concurrent with transformation, you must continue your focus on the 
quality of life of our military personnel and their families. Last 
year's military construction budget raised expectations of future 
budgets. I find it ironic that despite an almost $50 billion increase 
in the defense budget request, the military construction budget was cut 
by almost 10 percent at a time when the Department is striving to lower 
the facility recapitalization rate from more than 100 years to 67 
years.
    I hope each of you will review your future year defense program 
regarding the military construction program. It must be improved both 
for the active components and for the reserves. We cannot expect our 
military or civilian personnel to work or live in facilities that are 
deteriorating around them.
    Best wishes to each of you as you enter the second year as the 
leaders of the best men and women to ever wear the uniforms of our 
Nation.
    Thank you, Mr. Chairman.

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                 EXTENDED RANGE CRUISE MISSILE FUNDING

    1. Senator Levin. Secretary Roche, the Air Force had been 
investigating what will be needed to replace the limited numbers of 
conventional air-launched cruise missiles, or CALCMs, that were in 
short supply after the Kosovo operations. This program has been called 
the extended range cruise missile, or ERCM, program. Based on a 
preliminary review of the budget documentation, it appears that the Air 
Force has dropped the ERCM line from the research and development 
budget. What has happened to the ERCM program?
    What is the Air Force intending to do to fill the mission?
    Secretary Roche. The purpose of the Extended Range Cruise Missile 
(ERCM) program is to explore conventional cruise missile capabilities 
to include variations of the Conventional Air Launched Cruise Missile 
(CALCM), and Joint Air to Surface Standoff Missile (JASSM). The program 
is currently unfunded since the fiscal year 2001 funds were rescinded, 
the fiscal year 2002 funds were not appropriated, and the program was 
not included in the fiscal year 2003 President's Budget request. 
However, in Feb. 2002, I reviewed the options to meet cruise missile 
requirements, but did not commit the Air Force to a solution. We will 
further assess this requirement as we develop our fiscal year 2004 
Budget and review the success of the current Low Rate Initial 
Production of JASSM and its initial operational test and evaluation 
program. We expect to include a cruise missile initiative in our fiscal 
year 2004 budget.
    The ERCM program was intended to be an interim solution to the 
long-range cruise missile program. However, with the increased CALCM 
inventory, JASSM to be fielded in fiscal year 2003, and the lack of 
additional ALCMs to convert to CALCMs, the Air Force will accept the 
risk to and continue to program CALCM and JASSM to fill its 
requirements. The Air Force still needs a conventional cruise missile 
with an extended range capability and is investigating JASSM-ER missile 
to fill that requirement.

                        PRECISION GUIDED WEAPONS

    2. Senator Levin. Secretary Roche, the Air Force has announced big 
investments in precision guided weapons in fiscal year 2003. I know 
that the Air Force intends to buy many more Joint Direct Attack 
Munitions, or JDAMs. It would appear however, that while the Navy is 
buying more laser-guided bombs this year, the Air Force is not. Is that 
really the situation, and if so, can you explain why?
    Secretary Roche. As a result of inventory shortages and high 
expenditure rates in Operation Enduring Freedom (OEF), the Navy had a 
greater need for laser guided bombs (LGB) than the Air Force in fiscal 
year 2002. To alleviate the issue, the Air Force loaned the Navy 3,500 
LGB kits through 1 January 2002, along with up-front production from 
the latest LGB production contract. The Air Force is planning to 
receive a share of the Navy fiscal year 2002 production LGBs to replace 
the Air Force weapons given to them for OEF. Additionally, the Air 
Force will be placing a contract for $58 million worth of LGBs this 
year.
                                 ______
                                 
               Questions Submitted by Senator Max Cleland

                      AIR FORCE LOGISTICS CENTERS

    3. Senator Cleland. Secretary Roche, I was encouraged that the Air 
Force had expressed support for the three Air Logistics Centers (ALCs). 
However, after reviewing the military construction budget for fiscal 
year 2003, I notice that there are no new military construction 
projects for any of the ALCs. If the ALCs are indeed vital--one of the 
needs that was outlined in the preliminary briefing is the need for 
investing in infrastructure--why is there no funding for military 
construction projects?
    Secretary Roche. The Air Force prioritizes total force 
requirements, using Air Force and MAJCOM priorities, and the impacts to 
mission, readiness, and quality of life into one total force integrated 
priority list. ALCs remain vital to the Air Force, but in fiscal year 
2003 we are faced with more urgent expenditures for operational 
capabilities.

    4. Senator Cleland. Secretary Roche, getting back to the long-term 
strategy, when can Congress expect a detailed long-term plan, in 
writing, for the ALCs? Why has it taken this long to get only a 
``preliminary briefing'' that provides no details?
    Secretary Roche. Although still in draft, the strategy reflects:

        <bullet> The requirement for the Air Force to maintain a ready 
        and controlled source of organic technical competence to ensure 
        an effective response to national defense contingencies and 
        emergency requirements.
        <bullet> A commitment to creating ``world class'' maintenance, 
        repair, and overhaul operations in the Air Logistics Centers 
        through infrastructure recapitalization, workforce 
        improvements, and corporate Air Force process improvements.
        <bullet> Increased commercial partnering to leverage the core 
        competencies of both the public and private industrial and 
        technology sectors.

    Before the Air Force can complete the strategy, it must ensure that 
sufficient resources required to implement the plan are integrated into 
future plans. The Air Force will accomplish this task as part of the 
fiscal year 2004-2009 planning development, and then provide Congress 
with a completed strategy in the Summer of 2002.

                            C-130J PURCHASE

    5. Senator Cleland. Secretary Roche, I want to thank the Air Force 
for their request for $186 million to begin a 3-year procurement of 40 
C-130Js. As a long-time supporter of this program, I am pleased with 
the Air Force's recognition of this reliable aircraft. In the opening 
statement you provided to the committee, I was hoping you could provide 
information on the 168 C-130Js that you referred to. Do you have a time 
frame for the purchase of these aircraft?
    Secretary Roche. The Air Force requires a total of 168 C-130Js (150 
C/CC-130J, 10 WC-130J, and 8 EC-130J) to modernize our C-130 fleet. 
Through fiscal year 2002, the Air Force has procured 37 of these 168 
aircraft (12 C-130J, 10 CC-130J (C-130J-30), 10 WC-130J, and 5 EC-
130J). The C-130J multiyear procurement effort described in the fiscal 
year 2003 President's budget request will procure 40 CC-130J aircraft 
from fiscal year 2004 through and including fiscal year 2008, resulting 
in a total USAF inventory of 77 aircraft. The Air Force plans to 
procure the remaining 91 aircraft from fiscal year 2009 through fiscal 
year 2015.

                      THE ARMY'S THREE COMPONENTS

    6. Senator Cleland. Secretary White, at your confirmation hearing 
you discussed your vision for creating one true Army out of the three 
components--the active Army, the Army National Guard, and the Army 
Reserve. In light of the attacks of September 11, it is quite evident 
that the Army was up to and continues to be up to the challenge in 
responding to the war on terrorism. Could you comment on the 
effectiveness of all three components as they have worked together to 
meet requirements that were unforeseen just 5 months ago?
    Secretary White. I am pleased to report that the performance of the 
Army in meeting the challenges of the last 5 months has been 
magnificent. I would especially like to comment on the critical role in 
safeguarding our Nation's airports, critical infrastructure protection, 
and the security of the Salt Lake City Olympics, in which soldiers from 
the active and Reserve Components were key participants.
    In missions around the world, all three Army components--Active, 
Army Reserve, and Army National Guard--work tirelessly on a daily basis 
to execute the war on terrorism. Today, the 29th Infantry Division of 
the Virginia Army National Guard is the commanding headquarters 
providing stability in Bosnia; the Army Reserve's 344 Combat Support 
Hospital is completing a training rotation in support of the 101st 
Infantry Division at the Joint Readiness Training Center; and Guard and 
Reserve units are providing critical combat support and combat service 
support enablers necessary for the Army to execute its global missions.
    We plan to fully integrate the Reserve Components into the 
Objective Force. Presently, the Army is transforming the 56th Brigade 
of the 28 Infantry Division, Pennsylvania National Guard, to Interim 
Force capability. This will bring cutting edge technology and 
capability to the Reserve components and will form the body of lessons 
learned to guide the Army in the procedures to transform the Reserve 
components to the Objective Force. I look forward to bringing to you 
the good news of Transformation and the continued success of our 
execution of the Nation's missions by the Army of the 21st century.

                           ARMY END STRENGTH

    7. Senator Cleland. Secretary White, the Army will have a 
significant long-term role to play in homeland security and I applaud 
Secretary Rumsfeld for designating you as the executive agent for 
planning how we will protect America from future attacks. The challenge 
for the Army is great. The National Guard has been providing security 
to over 400 airports, both the Guard and Reserve have mobilized over 
24,000 soldiers, and the active Army has over 125,000 soldiers forward 
deployed in more than 100 countries. General Myers, in his testimony 
last week stated, ``the domestic and overseas commitments of the war on 
terrorism, when coupled with other ongoing commitments, have stretched 
our active forces.'' Yet, the Defense budget request offers no remedies 
and requests that we maintain personnel levels at the fiscal year 2002 
(fiscal year 2002) numbers despite the increasing requirements from the 
continuing war on terrorism. It is somewhat surprising that there is no 
request for an increase in end-strength. What are your thoughts on the 
end-strength of the Army and did the Army request an increase in their 
active duty strengths as part of their fiscal year 2003 budget request?
    Secretary White. To date, we have not completed our analysis of the 
requirements for the new defense strategy emerging from the recently 
completed Quadrennial Defense Review or assessed the pending 
modifications to the geographic commander's in chief war plans. The 
current operational environment places additional demands on the Army 
that were previously unrealized. Post September 11 events have only 
increased demands placed on the force, and the Army will likely require 
an end strength increase to fully meet these demands.
    The Total Army Analysis (TAA) process will determine the size and 
composition of the Army within a constrained budget. The current 
effort, TAA 2009, is not complete but will account for the additional 
emerging requirements in the area of homeland security and the global 
war on terrorism.
    In the meantime, the fiscal year 2002 Defense Authorization Act 
permits the Department of Defense to allow the Services to exceed their 
end strength by 2 percent in any fiscal year in which there is a war or 
national emergency. Full allowance of this provision would allow the 
Army to increase its Active component end strength to 489,600. To 
achieve this increase, the Army would move forward with a ramp of 4,000 
in fiscal year 2003 and 4,000 in fiscal year 2004 to address the most 
immediate needs of the war on terrorism.
    Achieving increased end strength does not happen quickly--there 
must be a ramp to ensure the recruiting increase is achievable, the 
training base can meet additional requirements, and high standards are 
maintained.

                             SPECIAL FORCES

    8. Senator Cleland. Secretary White, as each service continues to 
examine lessons learned from Operation Enduring Freedom, we 
traditionally focus on weapons systems and the performance of our 
soldiers; both of which have been magnificent. We have all been 
particularly impressed by the use of precision munitions and the 
personnel on the ground that have guided them onto the target. Special 
forces soldiers have for many years been the silent heroes--now we have 
seen the key role they play despite their small numbers. I am not sure 
the Army has a better combat multiplier than the special forces 
soldier. As you continue with your transformation planning, can we 
expect structure to change to increase the number of troops of this 
nature? What specific requests in the budget further support the impact 
special forces bring to the battlefield?
    Secretary White. The Department of the Army has taken several steps 
toward ensuring Army Special Operations Forces (ARSOF) are manned and 
equipped to continue the global war on terrorism with the same success 
witnessed in Afghanistan. With respect to the Army's budget, ARSOF 
requirements and funding remain among the very top in priorities in the 
Program Objective Memorandum along with support for Army Transformation 
and the Interim Brigade Combat Teams.
    During the current fiscal year, we have re-programmed funding to 
support fielding of the combat survivor evader locator radio for ARSOF 
soldiers. Initial requirements were one radio per Special Forces (SF) 
soldier, and we have already procured over 800 units. Additionally 
during fiscal year 2002, the Army has fielded 72 additional High 
Mobility Multi-purpose Wheeled Vehicles for SF units, and we are 
working to provide even more over the program years. We have also 
reprioritized the fielding of the Land Warrior system during fiscal 
year 2003-2009 placing the 75th Ranger Regiment ahead of all other Army 
units. Special Forces units have been added to the fielding plan and 
will receive Land Warrior in fiscal year 2008-2009 just after the 
Interim Brigade Combat Team. In October 2001, the United States Army 
Special Operations Command (USASOC) provided its estimate of ARSOF 
requirements to conduct the war on terrorism. This list included 123 
initiatives generally aligned along the issues of personnel, materiel, 
sustainment, training, force structure, and facilities. The Army 
quickly approved 29 specific issues and another 79 are in various 
stages of staffing and coordination. The Department of the Army 
continues to work aggressively to satisfy these and future issues.
    A number of the USASOC issues are under review by Total Army 
Analysis for out-year funding and support. Some of these issues include 
force structure, facilities improvement, and equipment fielding and 
upgrades. In the area of force structure, the Army is examining 
substantial ARSOF force structure increases to insure they are 
optimally manned, equipped, trained, and sustained for the war on 
terrorism. These programmatic increases and increased resources are 
intended to ensure that Army Special Forces remain the world's best 
special operations forces in the future.
    We are currently reviewing potential increases in SOF aviation. 
USASOC initially requested capabilities through the addition of a MH-47 
battalion and a MH-60 battalion. These critical aviation assets, which 
are ARSOF variants to the standard Chinook and Black Hawk helicopter, 
will substantially increase the combat capabilities of SOF units 
supporting combatant commanders in chief and the United States Special 
Operations Command.
    Additionally, we have undertaken a careful review of the sustaining 
forces necessary to project ARSOF in support of the war on terrorism. 
The Army is working resource enhancements to the combat support (CS) 
and combat service support (CSS) capabilities of our SOF units through 
increases in SOF signal and support battalions and civil affairs and 
psychological operations forces. These increases are critical to the 
overall success of Army and Joint SOF units, as well as those of our 
coalition partners. These unique CS and CSS capabilities are essential 
to the prosecution and success of all of our SOF operations and 
complement our capability in post-conflict stability operations.
    To reach increased ARSOF force structure goals, the Army has 
resourced a number of recruitment, training, and retention incentives. 
The Army has programmed additional resources for the SOF training and 
sustaining base through increases in SOF-specific training centers and 
schools. While increasing the training base for special operations is 
important, retaining these soldiers after training is imperative. The 
Army is working a number of financial incentives to retain ARSOF 
personnel. We are reviewing a critical skills reenlistment bonus 
initiative to retain retirement eligible SF noncommissioned officers 
(NCO) whose retention would ease recruiting pressures and reduce the 
demands for training new personnel. As with our SF NCOs, our SF warrant 
officer population is faced by a large retirement bubble whose 
retention is vital to maintaining readiness in SF units. These 
technicians serve as assistant SF detachment commanders and are the 
Army's only warrant officers with direct ground combat roles.
    Finally, we need aviation continuation pay for our Special 
Operations Air Regiment warrant officer pilots or, as a minimum, a 
critical skills re-enlistment bonus for those who are retirement 
eligible. This is necessary to retain the Army's finest aviators who 
are conducting real world combat missions under extraordinary 
conditions on a daily basis. These initiatives and those joined to the 
Army Transformation will provide the Nation with ARSOF soldiers in the 
right force structure with the right mix of equipment to win the war on 
terrorism.

             PRIVATE SECTOR EFFICIENCIES/MANAGEMENT REFORM

    9. Senator Cleland. Secretary White, Secretary England, and 
Secretary Roche, each of you bring key industry expertise to your 
service. During your confirmation hearings you alluded to the need to 
pursue better business practices and organizational efficiencies within 
your respective service. With the largest increase in defense spending 
in two decades, we are reminded of the awesome responsibility we all 
share in ensuring every dime of defense spending is done so in a 
responsible manner. In addition to responsible budget expenditures, I 
welcome your comments on improved business practices, efficiencies, and 
organizational changes you have implemented that will ensure cost 
savings within your service.
    Secretary White. The Army has several initiatives underway to 
improve the efficiency and effectiveness of our operations. These are 
in addition to the initiatives that have been approved by the Defense 
Business Initiative Council. We have mentioned several times our effort 
to privatize our utilities purchases. This initiative can take several 
different forms. Industry can purchase and run the facility on an Army 
installation and sell the Army utilities at a reduced rate. In other 
cases the Army facility can be shut down and the utilities simply 
purchased from a local company.
    In a similar area, we are looking at expanding the successful civic 
military partnership that was tested between the Presidio of Monterey 
and the City of Monterey, California. This demonstration involves the 
purchase of fire, police, security, public works, and utilities 
services from the local government. We feel this type of partnership 
will yield savings in other communities.
    Our Army Knowledge Management strategy to transform the Army into a 
network-centric knowledge based organization is progressing. 
Substantial progress has been made within the Military District of 
Washington's ``test bed'' Army Knowledge Management implementation. 
Initial server consolidations have netted manpower and dollar savings. 
In addition, best business practices are being adopted for numerous 
command and control capabilities and collaborative tools are being used 
to improve communications and planning. We are especially proud of the 
national level of recognition that the Army Knowledge Office has 
recently received. The Army was ranked number 10 out of 100 by 
Infoworld magazine for the use of the Army Knowledge Office as an 
innovative e-business technology and also received an award from Chief 
Information Officer magazine for one of the Nation's top 50 web sites.
    We are continuing to improve the management of our business 
processes through the application of earned value and performance 
measurement techniques. The Army Workload and Performance System (AWPS) 
has led to improvements in the scheduling and execution of work in our 
maintenance depots. We believe this tool can be applied across the 
Army. In addition to other maintenance applications, we are starting to 
apply AWPS in medical activities and in the base operations mission.
    Finally, the new organization of the Army headquarters will align 
the Secretariat and Army staff for more efficient operations. There are 
clearer lines of authority, elimination of duplication, and a 
streamlining of how we operate. Some specific examples include:
    1. The phased integration of the Reserve components into the 
headquarters staff to enhance integration and reduce combined staff 
levels. We will have ``multi-compo staffs'' just like we have ``multi-
compo units.''
    2. The Centralized Installation Management initiative will 
centralize the management of installation support in the continental 
United States into four regions thereby consolidating several Army 
Staff elements and enhancing services to local installations.
    3. Changes to the Program Executive Office/Program Management 
structure provide direct lines of command to the Army Acquisition 
Executive to enhance the authority of the Acquisition Executive and 
improve Army acquisition practices.
    Secretary England. Within the Navy, we are taking steps to 
streamline cycle times through the use of evolutionary acquisition and 
spiral development. We are using these approaches in many programs. For 
example, both Cooperative Engagement Capability and Joint Strike 
Fighter are using spiral development to bring enhanced capability to 
the fleet sooner. The Standard Missile program and DD(X) are using 
evolutionary acquisition to allow insertion of new technologies and 
capabilities over time. In the case of the DD(X) program, this means 
bringing enhanced capabilities into an entire family of ships. These 
approaches enable the Navy to field mature technologies while providing 
for follow-on improvements in capabilities, resulting in affordable, 
more capable weapon systems delivered earlier to our warfighters.
    Another way we are executing this responsibility is through the 
Office of the Secretary of Defense's Business Initiative Council (BIC). 
The purpose of the BIC is to recommend good business practices and find 
and implement cost avoidances and savings that can be used to offset 
funding requirements for personnel programs, infrastructure, 
revitalization, re-capitalization, equipment modernization, and efforts 
dealing with transformation. Just as we are transforming America's 
military capability to meet the threats of the 21st century, so must we 
also transform the way the Department works and what it works on.
    Secretary Roche. Under the direction of Secretary Rumsfeld, we 
chartered the Business Initiative Council (BIC) to ``improve the 
efficiency of DOD business operations by identifying and implementing 
business reform actions which allow savings to be reallocated to higher 
priority efforts . . .'' (excerpt from BIC charter). BIC is an ongoing 
effort, which is ``action-focused,'' aimed at identifying and 
implementing good business practices and creating an environment that 
encourages innovation and good ideas. Twenty-eight initiatives have 
been approved to date; many of these offer potential savings, while 
others provide cost avoidance and/or unquantifiable savings, in terms 
of reduced cycle time, improved freedom to manage, streamlined 
procedures, accelerated information sharing/decision-making, etc. Some 
initiatives can be approved and implemented by the Department; others 
require congressional help. Some examples of the approved initiatives 
include:

        <bullet> Recovery Auditing: Use contingency fee auditing 
        services contract to identify and recover overpayments in 
        Working Capital Funds to providers of goods and services.
        <bullet> Web-Based Invoice/Receipt Process: Reduce occurrence 
        of incorrectly prepared or missing receiving report and move 
        toward paperless process; will allow DFAS to pay vendors more 
        quickly and accurately.
        <bullet> Enterprise Software Initiative (ESI): Streamline the 
        acquisition process by providing best-priced, standards-
        compliant software products and expanding the use of ESI 
        process as the benchmark acquisition strategy.

    In addition to fully participating in the BIC effort, the Air Force 
is leading the way in reducing our headquarters staff. Our plan calls 
for fully complying with Fiscal Year 2000 National Defense 
Authorization Act (NDAA). We completed nearly half of our required 
reductions by the end of the last fiscal year and are aggressively 
working options for the remaining reduction. We have redirected people 
from headquarters duties to war fighting support and are continuing the 
SecAF/CSAF announced ``Headquarters Air Force (HAF) Transformation.''
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

    10. Senator Landrieu. Secretary White, following the aftermath of 
September 11, you were named, in the interim, to serve as the 
coordinator of homeland security efforts within the Department. Given 
the increased funding for combating terrorism, what efforts and 
strategies have you undertaken to ensure the right strategy is in place 
and that the budget addresses the right priorities?
    Secretary White. In addition to my role as the interim DOD 
Executive Agent for Homeland Security, the President directed me to 
serve as the acting Assistant Secretary of Defense for Special 
Operations/Low Intensity Conflict. The Office of the Assistant 
Secretary of Defense for Special Operations/Low Intensity Conflict 
oversaw the compilation of the combating terrorism inputs for the 
fiscal year 2003 budget. Following September 11, 2001 and the initial 
prosecution of the Global War on Terrorism, the Department began a 
process of reviewing its strategy, analyzing its missions, and 
identifying its resource priorities. The Department is using this 
analysis in preparation for our fiscal year 2004 budget input for 
combating terrorism.

    11. Senator Landrieu. Secretary White, did you provide input on 
combating terrorism to the budget and will you coordinate the 
implementation of the policies driving spending on procurement, 
research and development, and training?
    Secretary White. Until the new staff for homeland defense and civil 
support is established, and consistent with the limitations established 
by the Federal Vacancies Reform Act of 1988, I will continue in both 
capacities to coordinate with the appropriate Office of the Secretary 
of Defense offices to ensure combating terrorism resources are sourced 
and proper procurement, research and development, and training 
strategies are pursued and implemented.

    12. Senator Landrieu. Secretary White, would you describe how the 
establishment of Northern Command, which will be a combatant command 
for homeland defense, will affect your role as coordinator of homeland 
security within DOD?
    Secretary White. I am the interim DOD Executive Agent for Homeland 
Security. On March 8, 2002, the Secretary of Defense signed a 
memorandum directing the Deputy Secretary of Defense to lead a 
transition effort to establish a staff, at the appropriate level within 
the Office of the Secretary of Defense that, when established, will 
assume homeland defense and civil support responsibilities. The 
Secretary of Defense expects a plan to establish this new staff by late 
spring and hopes to stand it up this summer, subject to any legislative 
actions that may be required. The Principal Deputy Under Secretary of 
Defense for Policy was designated by the Deputy Secretary of Defense to 
lead the transition team. It is likely that the new OSD staff will be 
responsible for providing policy and oversight for the new Northern 
command.

                     SCIENCE AND TECHNOLOGY FUNDING

    13. Senator Landrieu. Secretary England, the Navy's budget request 
calls for $1.6 billion for science and technology programs. This is a 
reduction of 23 percent from last year's congressionally appropriated 
levels. It also represents an 8 percent reduction from last year's Navy 
original budget request. This is the largest cut of any of the 
services.
    How is the large cut in Navy science and technology programs 
consistent with efforts to transform the Navy into a force better 
suited to meet the emerging threats of the future?
    Secretary England. While the Navy's Science and Technology (S&T) 
fiscal year 2003 budget has decreased from the fiscal year 2002 Amended 
President's Budget request, it has actually grown by 7 percent, in real 
terms, since the fiscal year 2000 President's budget, in consonance 
with Congress' desire for real program growth. Within existing 
resources, DON has already rearranged its S&T investment portfolio to 
support transformation efforts. Examples of such efforts include:
    Electric Power for Naval Platforms: Efforts in this arena include 
development and at-sea demonstration of cutting edge technologies such 
as superconducting and permanent magnet motors for podded propulsors; 
developing advanced prime power, including high speed superconducting 
generators and fuel cells. Efforts are also focused on developing, 
demonstrating and transitioning electrical auxiliaries such as the 
Electromagnetic Launch and Recovery System (EMALS) for carriers. When 
integrated onboard carriers, electric-based systems such as EMALS, will 
serve as leap-ahead technologies, offering vast improvements in terms 
of operations, maintenance and safety over existing hydraulic, steam 
and pneumatic systems.
    Littoral Support Craft (Experimental) (LSC(X)): As part of the 
LSC(X) program the Navy will be developing and demonstrating--advanced 
hull forms, cutting edge propulsion, material and modular payload 
technologies. Once proven via LSC(X), many these concepts and 
technologies are likely to feed into the future Littoral Combat Ship 
and other existing and future platforms.
    Revolution in Training: Sailors and marines stand as DON's biggest 
asset. As such, it is essential that we improve the training process. 
Along these lines, DoN is developing compact, reconfigurable and 
deployable training systems that significantly improve the 
effectiveness of existing simulation-based training. Other efforts 
include developing adaptive architectures that support efficient and 
effective Command and Control applications, such as Command Center of 
the Future and Knowledge Wall (a prototype which has successfully been 
deployed aboard the U.S.S. Coronado).
    Autonomous Vehicles: Autonomous vehicles stand to significantly 
enhance DON's operational capabilities, while greatly reducing the risk 
faced by the warfighter. The Department is investing substantial 
resources in developing and demonstrating a wide array of advanced 
autonomous vehicles including Unmanned Combat Vehicles--Navy (UCAV-N) 
and Tactical Unmanned Ground Vehicles (UGVs). Other efforts focus on 
enhancing existing systems through the development of intelligent 
navigators, remote docking stations, and enabling collaborative 
behavior among unmanned underwater vehicles.

    14. Senator Landrieu. Secretary England, how is it consistent with 
the Secretary's goal of investing 3 percent of the Department's funds 
in transformational science and technology programs?
    Secretary England. Science and technology serves as an ``enabler'' 
for the Service's larger transformational objectives. Within existing 
resources, DON has already rearranged its S&T investment portfolio to 
support transformation efforts. The Department has made a concerted 
effort to increase the S&T budget. The Department of the Navy's Science 
and Technology funding request has exceeded 2 percent per year average 
real growth since fiscal year 2000, and is approximately 2.7 percent. 
For example, during fiscal year 2003 budget development the DON 
increased its S&T Future Years Defense Program (Fiscal Year 2003-2007) 
by +$355 million, with specifically targeted increases in areas 
including:

        - Marine Corps S&T +$156 million;
        - Radio Frequency Systems Advanced Technology +$83 million;
        - Joint Experimentation +$71 million;
        - Force Protection +$45 million; and
        - High Speed Sealift Vessel +$25 million.

    However, in determining whether we are making progress towards a 3 
percent goal, using the prior year appropriated level is not an 
accurate reflection of the Department's priorities because it includes 
significant increases for specific efforts that are not in consonance 
with Department core priorities, often including many items not 
requested by the Department with respect to necessity or timing. Such 
increases in the appropriated level create marginal returns against our 
key priorities and distort the baseline from which we hope to move 
towards the 3 percent goal as we try to include more transformational 
S&T technologies.

    15. Senator Landrieu. Secretary England, how will these cuts affect 
the Navy's in-house scientific, engineering, and technical 
capabilities? How does the Navy plan to make up for these cuts in 
future years?
    Secretary England. Funding stability is one of the keys to ensuring 
stability and viability of the Navy's in-house technical workforce. 
While there have been adjustments in year to year funding, the overall 
trend in Navy S&T through fiscal year 2003 is upwards. Therefore, any 
particular year's decrease should not adversely impact our outstanding 
in-house workforce as long as the overall funding trend remains steady.

                    SCIENCE AND TECHNICAL WORKFORCE

    16. Senator Landrieu. Secretary White, Secretary England, and 
Secretary Roche, in the fiscal year 1999, fiscal year 2000, and fiscal 
year 2001 authorization bills, the Senate Armed Services Committee 
(SASC) has provided the Department with regulatory relief and new 
hiring authorities so that the DOD can waive regulations and establish 
new programs that will enable them to attract and retain the finest 
technical talent in their laboratories. These are difficult issues for 
the government, since most technical workers receive lucrative offers 
from the private sector that leads them to forsake government jobs. 
Although legislation has been passed to help the Department in this 
area, the DOD has made very limited progress in implementing the new 
hiring programs. Over the past few years, Congress has authorized a 
number of pilot programs in defense laboratories to streamline 
procedures and waive unnecessary regulations in order to establish 
innovative hiring programs for technical staff and establish innovative 
cooperative programs with the private sector. Unfortunately, a number 
of these programs have been delayed due to legal and regulatory 
hurdles.
    How are you working to remove those barriers so that these programs 
can continue and expand in order to improve the quality of defense labs 
and test centers, and improve the quality of technical talent that can 
be attracted to these important facilities?
    Secretary England. Some legislative provisions have helped the 
Service laboratories, especially Section 342 of the Defense 
Authorization Act for fiscal year 1995 and Section 1107 of the Defense 
Authorization Act for fiscal year 2000. However, constraints, in terms 
of coverage, duration, and scope, imposed by the Office of Personnel 
Management on the Section 342 personnel demonstrations have greatly 
limited the degree to which participating laboratories could experiment 
with innovative ways to hire, retain, and shape their workforce. 
Section 1107 eliminated controls on high-grade scientific and 
engineering positions, a move that has helped with retention of high-
quality personnel scientific and technical personnel.
    Of all the recent legislative provisions provided to help the 
Service laboratories with workforce problems, Section 1114 appears to 
offer the greatest possibility of relief. Its coverage is, however, 
limited to Science and Technology Reinvention Laboratories 
participating in the fiscal year 1995 Section 342 personnel 
demonstrations. Whether this potential will be realized will depend on 
OSD's ultimate interpretation and emphasis of this provision.
    The Office of Naval Research initiated a Naval Research Enterprise 
Internship Program for graduates and undergraduates via Navy ROTC. The 
scholarship provides $3,000 to $5,000 to spend 10 weeks in the summer 
working with government scientists and engineers in the labs and 
warfare centers. Over 800 students applied for the 180 positions.
    Currently, a joint Naval Research Advisory Committee study, with 
panel representation from the Army Science Board and the Air Force 
Scientific Advisory Board, and sponsored by the Director Defense 
Research and Engineering, is examining the difficulty of the Service 
laboratories in recruiting and retaining top-quality scientists and 
engineers, as well as other issues related to their ability to remain 
world-class research institutions. The panel is currently examining 
recommendations from past studies of the laboratories, recent 
legislative reforms, including those mentioned above, and input from 
other experts, to develop a set of recommendations for improving the 
ability of these laboratories to attract and retain the best and 
brightest technical talent. The panel has just completed its visits to 
labs and is currently developing its findings and recommendations. It 
plans to submit a preliminary summary of its conclusions to the 
Services and OSD in April or May 2002. A formal report will likely not 
be completed until late Summer 2002.
    Secretary Roche. The Air Force has implemented Laboratory 
Demonstration (LabDemo) for all civilian science and technology 
positions in the Air Force Research Laboratory and is pleased with the 
results of the past 5 years under the trial system. This is a 
demonstration project authorized under the 1995 legislation permitting 
reinvention laboratory demonstration projects. During this time, we 
have implemented additional changes from the original construct, such 
as permitting a rollover of contribution-based salary adjustments to 
annual cash bonuses when there is a cap on giving the individual what 
they have earned. We are currently working plans and procedures to 
distribute and hire 40 scientists and engineers (S&Es) under authority 
of Section 1113 of the 2001 National Defense Authorization Act.
    On the military side we plan to use Critical Skills Retention 
Bonuses on a limited basis and are seeking to identify the funds to do 
so for targeting the retention of S&Es at the mid-career level, where 
we are currently experiencing a retention problem. We have also 
initiated a ``re-recruiting'' campaign focused on the S&E career field, 
where we are individually recruiting current S&E personnel to continue 
their Air Force careers.
    Our entire Air Force Flight Test Center at Edwards AFB, CA, is 
participating in the Department of Defense Civilian Acquisition 
Workforce Personnel Demonstration (AcDemo), authorized by the 1996 
National Defense Authorization Act. We are particularly gratified to 
see an improvement in their ability to recruit high-quality recent-
engineering graduates as the result of using the new AcDemo pay-setting 
and current recruiting bonus flexibilities. We have also significantly 
reduced our hiring time.
    We recommend authorizing implementation of a DOD alternative 
personnel system as described in the Managerial Flexibility Act that 
will allow expansion of successful demonstration authorities to the 
rest of the workforce. This would allow us to take full advantage of 
all the various initiatives pursued in demonstration projects across 
the Federal Government, and craft a system that will facilitate 
personnel management across the Department, not just among the 
acquisition community and research laboratories. The Managerial 
Flexibility Act contains provisions like streamlined and expedited 
hiring and recruiting, retention, and relocation bonuses that will go a 
long way towards breaking down the barriers that prevent us from 
attracting and retaining the workforce needed for the 21st century. We 
are now working with OSD and OMB on fiscal year 2003 Omnibus proposals 
that also support streamlined hiring and a modern pay and compensation 
system (broad pay banding).
    Secretary White. The Department of the Army has made significant 
progress in developing new hiring programs to take advantage of new 
legislation addressing the scientific and technical workforce.
    Section 245 of the National Defense Authorization Act (NDAA) for 
fiscal year 2000 allows DOD to explore ways to improve operational 
efficiency. DOD directed the implementation of section 245 in June 2001 
and waived certain requirements of the DOD Priority Placement Program 
(PPP) for our pilot labs and test centers, allowing for a shorter, one-
time clearance process for vacancies.
    Each of the pilot labs is participating in personnel demonstration 
projects and has been testing various hiring flexibilities for at least 
3 years. The labs have also provided additional recommendations to 
expedite hiring engineers and scientists, and we are supporting several 
initiatives such as geographically targeted recruitment and direct 
appointment into competitive service.
    Within the personnel demonstration projects, managers view their 
broad-banded systems as more flexible and effective than the General 
Schedule system. We, therefore, also are working towards achieving a 
broad-banded system Army-wide to capitalize on the best features of 
these projects.
    As a direct result of the program for labs and test centers, we 
anticipate an expansion of the one-time PPP clearance procedure for 
scientific and engineering positions, which will also cover non-pilot 
organizations with research, development, test, and evaluation 
responsibilities. This will further streamline the fill time and hiring 
process. Additionally, the Army has chartered an executive group to 
identify steps to further improve the quality and staffing of our 
scientific and engineering workforce.
    Section 1113 of the fiscal year 2001 NDAA provides the authority to 
appoint scientists and engineers from outside civil service and the 
uniformed services. We surveyed our laboratory community in December 
2001 to determine the greatest need regarding the number and types of 
scientific and engineering positions required at specific locations, 
and we are currently determining the final distributions. To gain 
efficiencies in the implementation of the new authority, we are 
collaborating with the other Services to facilitate recruitment and 
expect to begin hiring later this fiscal year.

    17. Senator Landrieu. Secretary White, Secretary England, and 
Secretary Roche, do you have recommendations for this committee as it 
works to revitalize the defense laboratories and improve the quality of 
the Department's technical workforce?
    Secretary White. The Army laboratories have been active 
participants in multiple approaches to improvement of the technical 
workforce over the years, but more needs to be done. Not only will we 
be exploring other improvements to the scientific and engineering 
personnel systems, but improvements to the work environment and 
infrastructure are just as important. Attracting and retaining top 
quality scientists and engineers not only depends on pay, but also on 
the opportunity and mechanisms to put those talents to work in 
stimulating environments. During the previous series of base closings, 
two new laboratories were constructed at Adelphi and Aberdeen, 
Maryland, while other installations were closed. However, all 
facilities and equipment need to be constantly modernized for 
scientists to maintain their competitive edge. This is an area that we 
would ask you to join us in ensuring that our scientists and engineers 
have the best equipment and facilities in the world to support the best 
fighting force in the world.
    Secretary England. In light of the systemic problems facing the 
Service laboratories, and the urgent need to address them, it appears 
that incremental approaches and piecemeal legislative efforts may no 
longer be sufficient and timely. Moreover, we are approaching the point 
of diminishing returns on trying to make Title 5 practices responsive 
to the needs of a serious research laboratory. Perhaps a more sensible 
approach would be to tailor the governance to the research mission 
rather than the reverse.
    Establishing one or more of the military research laboratories as 
special government corporations may have some merit. The customers for 
the corporations would be the government itself. The corporations would 
survive only to the extent that government-funding agencies were 
prepared to purchase the products/services of the corporations. Such a 
plan would appear to have several advantages over the partial or total 
privatization of a lab: (1) It almost certainly would be less expensive 
in the long run; (2) The staff of such an organization would remain 
Federal employees, and thus able to make decisions or render advice 
without conflicts of interest; and (3) It would be more executable.
    Secretary Roche. The quality of our Scientist and Engineer (S&E) 
workforce is superb. Air Force scientists and engineers guide, produce, 
and sustain the concepts, technologies, and systems that are and have 
been key to successful Air Force operations. Our problem is not the 
quality of our workforce, but its shrinking quantity. The S&E workforce 
of today and tomorrow requires that we recruit, retain, and develop 
sufficient numbers of highly skilled and knowledgeable technical 
professionals; however, current trends could threaten the Air Force's 
ability to recruit and retain a viable civilian and military S&E 
workforce. For example, over the next 5 years, a quarter of the Air 
Force S&E civilian workforce is eligible to retire.
    The Air Force is aggressively addressing the worsening S&E 
retention and recruiting problem and has constituted an S&E Functional 
Management Team to drive a number of initiatives designed to fix the 
recruiting and retention shortfalls of the civilian and military S&E 
workforce, such as Critical Skills Accession and Retention Bonuses to 
obtain and retain members, and re-recruiting key year groups of 
engineers (3-13) by highlighting the benefits of continued service. 
Additional initiatives for which we thank Congress include Direct Hire 
Authority and the authority to hire 40 S&Es for the Air Force Research 
Laboratory from outside the civil service--both of which were granted 
in the Fiscal Year 2001 National Defense Authorization Act.
    I also believe that a strong research program and modern research 
facilities contribute to the recruitment and retention of a top-notch 
technical workforce. Towards this end, I ask for your support of our 
President's Budget request for the Air Force Science and Technology 
(S&T) Program. We have submitted a balanced budget that includes S&T at 
a funding level that meets our projected needs for future warfighting 
capabilities, while sustaining our current forces.

                         TECHNOLOGY TRANSITION

    18. Senator Landrieu. Secretary White, Secretary England, and 
Secretary Roche, the Department continues to have a problem getting 
good return-on-investment on its science and technology dollars, as 
well as a problem getting successful technologies pushed out of 
laboratories and into the hands of warfighters. This is due to a number 
of problems--including lack of funding, regulatory barriers, the 
slowness of the government's funding mechanisms, and others. Last year, 
the Senate Armed Services Committee proposed a new program to promote 
technology transition within the Department. This provision was lost in 
conference. Both the committee and the Department are anxious to 
continue trying to address this issue in the current year.
    One of my priorities this year is to try to help the Department 
address the issue of the transition of good technologies from research 
programs into the hands of warfighters in the field. This is a complex 
issue, but we are working with the Department to address the important 
funding and coordination issues that occur when trying to move 
technologies through the system.
    How are the services trying to accelerate the transition of 
technologies from their science and technologies programs into the 
hands of the warfighters?
    Secretary White. First, allow me to thank you and the committee for 
the tremendously helpful support and leadership you have provided in 
the past in trying to solve this challenge. We must ensure that 
technology has been matured sufficiently in our science and technology 
(S&T) program so it can transition quickly into systems development and 
demonstration (SDD), then to production. We can take time out of the 
transition process by maturing technology in the S&T phase to 
Technology Readiness Level 7--system prototype demonstration in an 
operational environment. By doing this, we spend more in S&T, but save 
time and money in SDD, then proceed faster to production.
    Secretary England. Although I believe the Navy is doing a good job 
of transferring Science and Technology products into the Fleet/Force, 
there is no question that we could do better. We have seen great 
success with the transfer out of the laboratory and into combat of 
items such as the thermobaric weapon, which has been used in 
Afghanistan.
    One way we try to duplicate this kind of discovery to deployment 
transition within the Navy is by strengthening the partnership between 
the Office of Naval Research (ONR) and the schools, universities, 
government laboratories and industry, as well as nonprofit and for-
profit organizations. We intend to take full advantage of the creative 
genius present in the schools and private sector to meet Navy and 
Marine Corps requirements.
    The ONR Commercial Technology Transition Officer is designated as 
the senior Naval advocate for moving promising technology out of 
commercial research and into systems procured for the Navy/Marine 
Corps. Additionally, ONR established a ``Swamp Works'' office, similar 
in concept to the Lockheed-Martin ``Skunk Works,'' but dedicated to 
addressing critical blue/green, Navy/Marine Corps problems with out-of-
the-box solutions. ONR also established a Naval Fleet/Force Technology 
Office to strengthen communications between the Fleet/Force and the 
Naval S&T community by assigning Naval Research Science Advisors to 
serve with Fleet/Force commands. ONR also established the Naval 
Research Science and Technology Action Team (NR-STAT) in July 2001 to 
provide technology solutions (from all sources: government, military, 
industry, academic, etc.) to problems identified by warfighters. Since 
the events of September 11, NR-STAT has been a principal conduit for 
technology proposals/solutions in the war against terrorism.
    Secretary Roche. I think the Air Force has done a remarkable job 
getting advanced technologies into the hands of our operational forces. 
Our track record of success in Afghanistan is outstanding. As you point 
out, technology transition is a very complex issue. One must trade off 
the technical maturity of the technology with the potential added 
capability that could be brought to the battlefield. There are, for 
example, severe supportability issues for fielding immature 
technologies.
    In the last year or so, we have started a new process in the Air 
Force that brings the operational user, the Product Centers, and the 
Air Force Research Laboratory together early in the development process 
to identify those technologies that are most important to warfighter 
capabilities. These new Applied Technology Councils (ATCs) offer great 
potential for improving our ability to rapidly and effectively 
transition technologies into advanced capabilities. Additionally, the 
Air Force has begun to use our four-star Science and Technology (S&T) 
Summits to increase the awareness of senior leadership of the 
technologies in development that could provide new capabilities.
    The Air Force continually looks for ways to improve technology 
transition and focus our S&T programs on those capabilities most dear 
to the warfighters and also tries to streamline ways to get these 
capabilities to them as fast as possible. Our S&T Program budget is 
approximately 75 to 80 percent outsourced with the remaining 20 percent 
supporting our scientists, engineers, support personnel, and other 
infrastructure costs. This high level of outsourcing promotes 
relationships between the scientists and engineers conducting the 
research and lays the foundation for technology transition. This 
continuous long-term investment, both in-house and on contracts, 
steadily advances state-of-the-art technologies. Most of the technology 
developed under Air Force lab sponsorship resides in the expertise of 
industry personnel and products. This expertise is applied to proposals 
for advanced systems acquisitions and transitions technology into the 
hands of the warfighter.

    19. Senator Landrieu. Secretary White, Secretary England, and 
Secretary Roche, what guidance and recommendations do you have for the 
committee as we attempt to address this issue that is critical to both 
our military and many of our industrial constituents?
    Secretary White. We believe the key to speeding technology to the 
warfighter is in allowing the S&T community to mature technology 
sufficiently before it goes into production. The Department has 
implemented a metric for technology readiness (Technology Readiness 
Levels, or TRLs) that has helped us transition technology while 
minimizing risk to the acquisition program.
    The committee could help the Services by pursuing an overall 
increase in Service Total Obligation Authority that would be directed 
toward the 6.3 budget activity for the purpose of performing the 
development and tests required to sufficiently mature technology as 
quickly as possible before it goes into production. The committee can 
also help by continuing to support manufacturing technologies efforts 
that work to transition emerging technologies into producible and 
affordable products to support the Army, and by helping provide 
realistic, high fidelity modeling and simulation capabilities to reduce 
both technical and operational testing costs during SDD.
    Secretary England. The successes we have achieved in transferring 
Science and Technology from the laboratory to the Fleet/Force depends 
on sustained long-term investment in S&T. Congress has been very 
supportive in terms of sustained investment, and we are grateful for 
your support.
    Furthermore, the Navy is working to strengthen the partnership 
between the Office of Naval Research (ONR) and schools, universities, 
government laboratories and industry, as well as nonprofit and for-
profit organizations. Continued robust government sponsorship of 
technology and basic research being conducted by these institutions 
will remain necessary to mature S&T requirements unique to the Defense 
Department.
    Secretary Roche. I believe the most help Congress can provide the 
Air Force to accelerate the transition of technology into acquisition 
programs and to the field is to support adequate and stable funding. 
Science and Technology (S&T) funding that is stable or shows growth, 
promotes project stability to bring new technology to fruition in 
integrated demonstrations. Additionally, Congressional support of Air 
Force transformation to a spiral development acquisition model would be 
highly beneficial. This would allow us to move from a ``be-all-end-
all'' system solution to incremental steps of increasing capability 
with the possibility to add technology and field interim systems to the 
warfighter sooner.

                         COMMITMENT TO THE B-52

    20. Senator Landrieu. Secretary Roche, it seems to me that we can 
effectively fight the war on terrorism and make strides toward 
transformation. One aim need not suffer at the hands of the other. As 
an example, an old and venerable lady of war--the B-52--has transformed 
itself into an aircraft that can deliver the most modern and 
sophisticated weapons to target terrorist hideouts and destroy 
terrorist training camps. No longer is the B-52 a dumb bomber or a 
carpet bomber; rather, she has established herself as a preeminent 
bomber capable of meeting any mission. Can you please expound upon the 
role of the B-52 in Operation Enduring Freedom and how this 44-year-old 
lady has transformed herself into an airframe that can perform expertly 
for another 40 years?
    Secretary Roche. Together the B-52 and the B-1 have flown 10 
percent of all combat sorties in Operation Enduring Freedom, dropping 
60 percent of the total bomb tonnage. Modifications to the aircraft 
have increased its survivability and lethality. The Situational 
Awareness Defensive Improvement (SADI) and the Electronic 
Countermeasures Improvement (ECMI) have improved survivability through 
enhanced situational awareness and aircraft protection. The Advanced 
Weapons Integration (AWI) and Avionics Midlife Improvement (AMI) have 
increased lethality by allowing the B-52 to carry both modern guided 
weapons and standoff weapons. These improvements are the first in a 
series of time-phased modernization programs that will ensure the B-52 
remains a viable weapons systems through 2040.

                    MODERNIZATION OF THE B-52 FLEET

    21. Senator Landrieu. Secretary Roche, do the plans for increasing 
military expenditures to $451.4 million by fiscal year 2007 call for 
the full modernization of the B-52 fleet, including the Ready Reserve 
B-52s at Minot Air Force Base? After all, the B-52 has been a stalwart 
in Operation Enduring Freedom and is expected to remain in service 
until fiscal year 2040.
    Secretary Roche. The Air Force has initiated a time phased B-52 
modernization program. The modernization program will increase B-52 
lethality, survivability, flexibility, and responsiveness. The Air 
Force has a total of 94 B-52 aircraft. The B-52 force structure 
requirement is 76 aircraft. The additional aircraft are excess to need; 
therefore, the Air Force is not funding the modernization of the 18 
excess aircraft.

         INADEQUACY OF NAVY SHIPBUILDING IN PRESIDENT'S BUDGET

    22. Senator Landrieu. Secretary England, the President's budget 
calls for the construction of five new ships and the conversion of two 
submarines. The President proposed a $48 billion increase in defense 
spending for fiscal year 2003. I will support whatever amount is deemed 
necessary for the protection of this country. But, the President's 
budget, especially in light of the increase in expenditures, woefully 
shortchanges necessary shipbuilding that will both transform our 
military and protect our forces and our people. As you have said, the 
Navy must procure ``8-10 ships each year to sustain current force 
levels over the long term,'' yet this budget calls for only five new 
ships. To paraphrase your submitted statement, you say the Navy plans 
to procure more ships in the out-years, but fiscal year 2003 is not the 
best time to accelerate ship procurement. Frankly, I can think of no 
better time. However, if the President and the Department of Defense 
deem the allocation of funds to the war on terrorism as the better 
recipient of funds than shipbuilding and procurement, and the war on 
terrorism is expected to last years, won't we simply always hear that 
this year, and the next year, and the year after, is not the right year 
to procure additional ships?
    Can't the Department see that shipbuilding and procurement are 
essential to the war on terrorism?
    Secretary England. We are constantly assessing requirements and 
reevaluating our priorities due to changes in the threats and the 
President's budget represents the best balance of resources to 
requirements for those threats.

                     LPD 17 PRODUCTION ACCELERATION

    23. Senator Landrieu. Secretary England, in your prepared 
statement, you specifically state that procurement of a second LPD 17 
should not occur this year because ``the LPD 17 design is still not 
complete. . . Although we need to replace our older amphibious ships, 
LPD 17 is not yet ready for rate acceleration.'' Generally, the Navy 
seeks 40 percent design completion before funding a new ship, yet the 
LPD 17 is anywhere from 91 percent to 95 percent design complete.
    How can you say the LPD 17 is not ready for rate acceleration and 
has not completed its design, especially since as many as eight DDGs 
were under contract well before that ship was 95 percent complete.
    Secretary England. A key tenet of the LPD 17 program is to have a 
mature, stable design before proceeding with production. This will lead 
to more efficient and less costly ship production effort than has 
traditionally been experienced in Navy shipbuilding. The detailed 
design effort is now about 95 percent complete and the production 
design is currently 79 percent complete. During production design, the 
3-D Computer Aided Design models are translated into actual work 
instructions for the production floor. At this time, less than 20 
percent of the lead ship production has been completed. While 
production progress to date using the production design package has 
been satisfactory, production has not progressed to the point where I 
am confident that technical, cost and schedule risks have been 
sufficiently mitigated.
    The comparison to the DDG program is interesting. With this year's 
budget request, we will have almost half of the 12 ships in the LPD 17 
class authorized. The DDG program had three of the 64 ships of the 
class under construction, and 13 ships under contract at similar point 
in detailed design completion. However, the lead ship production was 
much further along than LPD 17, with DDG 51 already in the water 
undergoing system light-off and testing.

                                 JSTARS

    24. Senator Landrieu. Secretary Roche, this war has proved that 
intelligence, surveillance, and reconnaissance (ISR) are at a premium. 
In fact in this week's Business Week you discuss the achievements of 
ISR in Afghanistan and how it was your goal to paraphrase Business Week 
that ``the Landscape below [be] so well-mapped by infrared and video 
cameras lasers, and radar sensors that the enemy couldn't hide even at 
night.'' Our ISR capabilities have allowed us to achieve that goal. The 
men and women involved in ISR in the air and on the ground should be 
praised for their excellence in execution of their jobs. In particular, 
I want to laud the JSTAR for its intelligence, surveillance, and 
reconnaissance capabilities. Could you please comment on the JSTAR's 
role in Operation Enduring Freedom?
    Secretary Roche. Joint STARS has been a key asset during Operation 
Enduring Freedom and is particularly significant in our continuing 
effort to target both the leadership and ground forces of the Taliban 
and al Qaida. Joint STARS has not only provided invaluable ground 
surveillance and threat warning to our forces in Afghanistan, but has 
also been pivotal during the targeting and execution battle management 
of attack operations.
    The aircraft's synthetic aperture radar serves as the only system 
capable of providing wide-area ground movement surveillance, allowing 
us to monitor suspect Taliban and al Qaida vehicle traffic over a broad 
coverage area. The Joint STARS crew has also been able to screen the 
convoy routes of friendly forces, as well as the ingress routes of our 
own helicopter missions. Due to Joint STARS' robust communications 
capabilities, the mission crew can rapidly correlate information with 
other sensors, such as Rivet Joint, U2, Predator, and Global Hawk, to 
enable responsive identification, exploitation, and if appropriate, 
targeting of enemy forces. Joint STARS air battle managers, operating 
within the rules of engagement, direct on-station strike aircraft to 
engage enemy ground forces.
    These dynamic capabilities have contributed extensively to our 
present success supporting the on-going Operation Anaconda Joint STARS 
surveys the area of operation for enemy movement and provides 
information on traffic of interest either through data-links or voice 
reports. Based on the developing situation, the Joint STARS crew works 
directly with ground and airborne controllers to rapidly process air 
support requests from our ground forces and assign strike assets to 
engage Taliban and al Qaida forces. Operating in conjunction with 
strike assets, such as the A-10, Joint STARS has provided highly 
effective and lethal support for our ground forces.
    The contributions of Joint STARS in this operation demonstrate the 
versatility of this system and its ability to perform a spectrum of 
missions that support Operation Enduring Freedom.

                          NEWER ISR AIRFRAMES

    25. Senator Landrieu. Secretary Roche, as a result, can we expect 
to see more technological growth and more or newer airframes for this 
particular weapon system in the fiscal year 2004 budget and beyond?
    Secretary Roche. The Air Force is quite pleased with the role that 
Joint STARS and other ISR aircraft have played in Operation Enduring 
Freedom. Last week during a CSPAN interview with General Jumper and I, 
I think the Chief called it ``a magnificent aircraft.'' I couldn't 
agree with him more.
    We are planning to continue to equip the E-8 with new technologies. 
One key upgrade will be to increase its ability to get data off board 
to our F-15E strike aircraft with a new Link-16 upgrade. That's a great 
example of the horizontal integration of platforms vision for the Air 
Force. We also plan to enhance connectivity with the Air Operations 
Center and other ground elements with a new DALIA SATCOM radio.
    However, even with these and other modifications, the Joint STARS 
is not sufficient to meet our future needs. It's built out of an old 
707 airframe that's going to cost more and more to maintain. We have a 
new AESA based radar technology that needs a lot of more power from the 
engines. The fiscal year 2004 budget will continue a major ramp-up of 
our activity to transition off the 707 airframe and onto a brand new 
767-400. The new radar capabilities will be revolutionary. In fact, 
they will go far beyond what we can accomplish today, especially for 
combat identification of friend and foe on the ground and in the air, 
and for cruise missile defense.
    The combination of longer range, heavier payload, higher altitude, 
and a truly extraordinary radar capability will eventually allow us to 
find and target threats with a very high degree of confidence and with 
much less risk to our manned platforms. This multi-sensor command and 
control aircraft, or MC\2\A, will be the hub of a constellation of 
manned and unmanned ground, air and space assets. We plan to buy the 
testbed in fiscal year 2003, and field the first aircraft in fiscal 
year 2010.
    Joint STARS is the current workhorse for our GMTI capability and 
will remain so through the middle of the next decade. The future is the 
767 based MC\2\A, and we will be focusing our priorities on spiraling 
far greater capability onto a brand new platform.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                           CONCURRENT RECEIPT

    26. Senator Bill Nelson. Secretary White, Secretary England, and 
Secretary Roche, the budget request does not include funding necessary 
to allow concurrent payment of retired pay and disability compensation 
(est. $3 billion annually). How did you advise the Secretary of Defense 
on funding for concurrent receipt?
    Secretary White. Since the Army did not budget for this item, we 
did not advise the Secretary of Defense on this issue.
    Secretary England. Throughout the course of last year, the 
Department of the Navy has replied to numerous bills, within both the 
House and the Senate, which, in various forms, proposed concurrent 
receipt of military retirement and Veterans disability. In each case 
our replies have been staffed through both the Chief of Naval 
Operations and the Commandant of the Marine Corps. The Office of the 
Assistant Secretary of the Navy (Manpower and Reserve Affairs) 
coordinated consolidated Departmental replies that were staffed through 
the Office of Legislative Affairs and, when appropriate, the Office of 
Program Appraisal, to my office. As none of the numerous House and 
Senate concurrent receipt bills proposed have provided, or even 
proposed to provide additional funding to cover the increased cost to 
the services, I have advised against concurrent receipt.
    Secretary Roche. The Air Force has not budgeted for this item in 
the fiscal year 2003 President's Budget and cannot absorb the 
significant costs without additional funding. Before any implementation 
decision, the department should thoroughly assess this benefit weighing 
the impact on the beneficiary and the department.

    27. Senator Bill Nelson. Secretary White, Secretary England, and 
Secretary Roche, what is your personal opinion of the justifiability of 
eligible retirees receiving their full retired pay and disability 
compensation?
    Secretary White. My decision to support concurrent receipt is based 
on my belief that it is equitable to allow all entitled groups of 
retirees to receive full retirement and full disability compensation. 
Military retirees should not be singled out as the one group whose 
retired pay is offset because of compensation paid due to a service-
connected disability. Those who make a career of military service are 
as deserving of full compensation as those who make a career of 
civilian service. Recently, the Army Family Action Plan Conference 
voted the issue of concurrent receipt as the most important of their 
top five issues affecting Army families.
    Secretary England. I would like to go on record as saying that I 
recognize the importance of properly compensating veterans for injuries 
sustained during military service. This is an emotional issue with 
retirees, veterans' groups as well as our sailors and marines. We are 
working with OSD and the rest of the DOD in providing input to the SAG 
Corp., who are independently analyzing whether or not we provide 
adequate benefits to our military retirees. That report should be 
complete next month.
    Secretary Roche. We certainly recognize the importance of properly 
compensating veterans for injuries sustained during military service. 
We also recognize that there are two competing viewpoints on whether 
concurrent receipt is justified. Last year's Budget Resolution directed 
DOD to study this issue and report their findings. We understand that 
they have undertaken this study, beginning with an independent review 
of the matter. We anticipate that they will share the results with the 
Services in late spring.

    28. Senator Bill Nelson. Secretary White, Secretary England, and 
Secretary Roche, if Congress provides funding to pay for concurrent 
receipt as authorized last year, would you recommend that the President 
veto the appropriation?
    Secretary White. I am not able to provide a sound recommendation to 
the President without first analyzing the impact of concurrent receipt 
on the Army. No such analysis has been conducted at this time.
    Secretary England. Concurrent receipt would cost DOD roughly $3 
billion per year. Compounded over time, the current estimates are that 
the cost for 10 years would be $40-$50 billion. With numerous programs 
competing for each budget dollar, the Department of the Navy cannot 
afford to bear its share of that burden without significant additional 
funding from Congress. In addition, the Navy and Marine Corps have 
current bills to pay and future requirements which need funding. At 
this juncture, I certainly would not recommend a Presidential veto of 
any proposal offering additional funding to DOD and the Department of 
the Navy. I will caveat that remark by saying that I await the result 
of the SAG study and a determination by the Services that concurrent 
receipt with additional congressional funding will not jeopardize 
current obligations or future requirements.
    Secretary Roche. Realizing the substantial commitment involved with 
funding concurrent receipt, we would review and assess the entire 
bill's impact and make an appropriate recommendation.

                     MILITARY CONSTRUCTION AND BRAC

    29. Senator Bill Nelson. Secretary White, the budget request 
reduces funding for ``low priority'' new construction that was planned 
in previous years. Construction is slowed obviously in anticipation of 
BRAC authority in fiscal year 2005, yet this budget request does 
include new construction that will, in some cases, just be starting in 
fiscal year 2005. What specific guidance from the Department of Defense 
have you been given with regard to military construction?
    Secretary White. Department of Defense guidance to the Army was to 
fund the President's objective of transforming the military for the 
21st century while continuing to improve the quality of life, 
readiness, and infrastructure. Specifically, the guidance directed the 
Services to fully sustain the planned inventory of facilities; then, 
commensurate with BRAC, fund restoration and modernization and 
replacement at a 67-year recapitalization rate for approximately 80 
percent of the current infrastructure by fiscal year 2010 while 
concentrating funding on C-3 and C-4 facilities; and meet new footprint 
construction to meet force structure changes in the year needed. 
Guidance is also to eliminate substandard family housing by 2007.
    Secretary England. The Department of the Navy did not reduce the 
Military Construction account in anticipation of BRAC 2005. The 
Secretary of Defense provided broad guidance to:

        <bullet> Seek to provide modern, ready and effective 
        installations infrastructure to support the operations and 
        maintenance of U.S. forces and provide a quality working 
        environment for U.S. military and civilian personnel;
        <bullet> Fund facility restoration, modernization and 
        replacement at a 67-year Recapitalization rate by fiscal year 
        2010;
        <bullet> Concentrate funding on C-3 (have serious deficiencies) 
        and C-4 (do not support mission requirements) facilities most 
        critical to an installation's mission; and
        <bullet> Fund the cost of new footprint construction in time to 
        accommodate new system acquisitions and force structure 
        changes.

    Secretary Roche. DOD Fiscal Guidance, provided to Service 
Secretaries in Aug. 2001, told us to ``fund to support a trajectory 
that moves infrastructure to best practices (funding that sustains a 
rate of recapitalization at approximately 67 years) by fiscal year 2010 
for required base structure, which should be set at approximately 80 
percent of current infrastructure.'' Similarly, according to Defense 
planning that is commensurate with appropriate BRAC, components shall 
fund facility restoration, modernization, and replacement at a 67-year 
recapitalization rate for approximately 80 percent of the current 
infrastructure by fiscal year 2010.

    30. Senator Bill Nelson. Secretary White, how did you use that 
guidance to determine what kinds of projects are acceptable and which 
are not?
    Secretary White. Our military construction budget request will fund 
our highest priority facilities. Transformation, barracks, strategic 
mobility, Army National Guard division redesign, and chemical 
demilitarization programs are funded in this budget request. 
Substandard family housing is on track to be eliminated by 2007. The 
remainder of this budget request supports the restoration and 
modernization projects at a recapitalization rate of 123 years.
    Secretary England. The Navy convenes a Shore Installations 
Programming Board and the Marine Corps convenes a MILCON Program 
Evaluation Group each year to consider, evaluate, and prioritize 
military construction projects. Projects are selected based on a number 
of different criteria, including Department of Defense/Department of 
the Navy guidance, Service criteria, fleet priorities and the most 
critical readiness, quality of life, and compliance needs.
    Secretary Roche. We developed our program in accordance with 
Defense plans that are within budget constraints.

    31. Senator Bill Nelson. Secretary White, Secretary England, and 
Secretary Roche, in your estimation, what kind of a military 
construction backlog could be created under this strategy, and how do 
you plan to fund the ``bow-wave'' of projects that were delayed after 
BRAC is decided?
    Secretary White. There will be no additional backlog in the Army's 
military construction program. The Army currently has a backlog of 
military construction projects that is reflected in the condition of 
our facilities which are rated C-3 as reported in our installation 
status report. The backlog, or bow-wave, is large and will require a 
program of focused investments and higher funding to improve our 
facilities. Our plan is to follow Office of the Secretary of Defense 
guidance to increase funding for sustainment of our existing inventory 
to 100 percent of our annual requirement; to increase our rate of 
recapitalization of facilities to a 67-year rate by 2010; and to reduce 
facility deficits in 20 years.
    Secretary England. Since the Department of the Navy did not delay 
projects in anticipation of future base closure, there is no MILCON 
backlog ``bow-wave.''
    Secretary Roche. The Air Force did not consider BRAC when 
prioritizing the fiscal year 2003 President's budget. We developed our 
fiscal year 2003 Presidents' budget submittal based on the prioritized 
needs of the Total Air Force, within available funding.

    32. Senator Bill Nelson. Secretary White, Secretary England, and 
Secretary Roche, what criteria, in your opinion, are most important in 
BRAC assessment?
    Secretary White. The Fiscal Year 2002 Defense Authorization Act 
includes the authority to conduct an additional round of base closure 
and realignment actions beginning in 2005. In April 1998, the 
Department of Defense delivered a report to Congress reaffirming the 
Army's need for additional BRAC rounds. The report named no 
installations and provided only rough estimates of excess Army base 
capacity. A much more thorough analysis of all Army installations will 
be necessary to implement the fiscal year 2005 authority. There are no 
installations currently under future BRAC analysis.
    The criteria for assessment of new BRAC have not been determined. 
According to the 2002 National Defense Authorization Act, Congress has 
required the Secretary of Defense to publish the proposed criteria in 
the Federal Register by December 31, 2003. The selection criteria 
ensures that military value is the primary consideration in making 
recommendations for closure or realignment of military installations.
    Secretary England. Per section 2913 of the amended Base Closure and 
Realignment Act, ``military value'' must be the primary consideration 
in making of recommendations for the closure or realignment of military 
installations in 2005. The amendment further provides that ``military 
value'' shall include at a minimum:

        <bullet> Preservation of training areas suitable for maneuver 
        by ground, naval, or air forces to guarantee future 
        availability of such areas to ensure the readiness of the Armed 
        Forces;
        <bullet> Preservation of military installations in the United 
        States as staging areas for the use of the Armed Forces in 
        homeland defense missions;
        <bullet> Preservation of installations throughout a diversity 
        of climate and terrain areas in the United States for training 
        purposes;
        <bullet> The impact on joint war fighting, training, and 
        readiness; and
        <bullet> Contingency, mobilization, and future total force 
        requirements at both existing and potential receiving locations 
        to support operations and training.

    Secretary Roche. New construction is prioritized by the Air Force 
according to need. Construction is also evaluated in relation to all 
mission requirements of the Air Force including readiness, 
modernization and quality of life. The MILCON budget for the Air Force 
does not take into account future BRAC rounds. MILCON in the past has 
not been predicated on BRAC and will not be as we approach BRAC in 
fiscal year 2005.
    For fiscal year 2003, the Air Force's facility and infrastructure 
priorities are to sustain existing facilities, improve quality of life 
by investing in housing for both married and single members, ensure 
compliance with existing environmental statutes, and support 
requirements for new missions and weapon systems.
    The current legislation states military value will be the primary 
consideration in making our recommendation for closure or realignment. 
Our review will be based on mission and force-structure first, and then 
the final OSD selection criteria transmitted to Congress. Emphasis will 
be placed on installations that maximize operational and training 
capability today and in the future.

    33. Senator Bill Nelson. Secretary White, Secretary England, and 
Secretary Roche, what assessment problems of the past rounds are you 
eager to avoid?
    Secretary White. Based on the results of the assessment criteria 
used in past rounds of BRAC, there were no significant problems 
identified.
    Secretary England. Prior rounds of base closure followed the law in 
effect at that time in assessing military value as the paramount 
consideration. The specific elements of ``military value'' to support 
BRAC 2005 will be developed by OSD, in conjunction with the military 
departments. We would expect consideration for and greater sensitivity 
to sustainable readiness (i.e., contend with ``encroachment'' issues in 
and around military bases and training ranges) to support future 
national defense needs.
    Secretary Roche. New construction is prioritized by the Air Force 
according to need. Construction is also evaluated in relation to all 
mission requirements of the Air Force including readiness, 
modernization and quality of life. The MILCON budget for the Air Force 
does not take into account future BRAC rounds. MILCON in the past has 
not been predicated on BRAC and will not be as we approach BRAC in 
fiscal year 2005.
    For fiscal year 2003, the Air Force's facility and infrastructure 
priorities are to sustain existing facilities, improve quality of life 
by investing in housing for both married and single members, ensure 
compliance with existing environmental statutes, and support 
requirements for new missions and weapon systems.
    Throughout the first four BRAC rounds, the Air Force identified and 
resolved a variety of assessment issues. Solutions were incorporated in 
each successive round to where the Air Force is now comfortable with 
its assessment process.

    34. Senator Bill Nelson. Secretary White, Secretary England, and 
Secretary Roche, arguably, National Guard and Reserve facilities 
modernization and maintenance backlog reduction should be BRAC neutral 
and the pause in active military construction that you apparently have 
decided upon could be an opportunity to reduce deferred new and 
improved facilities work. Why then are there no National Guard or 
Reserve military construction projects in your fiscal year 2003 request 
for units or activities in Florida?
    Secretary White. The Army Reserve is currently designing and 
constructing four projects with a total programmed amount of $80 
million in Florida. In fiscal year 2001, the Army Reserve awarded a 
Joint Armed Forces Reserve Center project in Orlando, an Aviation 
Support Facility in Clearwater, and Phase I of a multiphase Armed 
Forces Reserve Center in St. Petersburg. In fiscal year 2002, the Army 
Reserve will award the remainder of the multiphase project to construct 
an Armed Forces Reserve Center in St. Petersburg. These recent projects 
took care of our most pressing construction needs for Florida. The 
facility requirements for our other Florida construction needs are 
still in the early stages of development.
    The Army National Guard (ARNG) military construction budget request 
for fiscal year 2003 is $101.595 million for 13 projects. The ARNG 
selection process is determined by prioritizing construction projects 
based on state priority; condition of existing facility regarding 
health, safety, and environmental issues; age and condition of existing 
facility; equitable distribution of project funding to each state; new 
mission/force modernization; and joint use.
    Additionally, Florida's number one priority for this year, a 
Combined Support Maintenance Shop at Camp Blanding, is funded in the 
ARNG Future Years Defense Plan in 2007 at $14.1 million.
    Secretary England. There were no requirements for Naval Reserve 
military construction projects in Florida that merited consideration in 
developing the fiscal year 2003 budget request. Reserve military 
construction requirements in Florida have largely been met from 
construction projects funded in recent years.
    Secretary Roche. We developed our total force facility program in 
accordance with Defense planning that is within budget constraints. The 
Air Force Reserve and Air National Guard fiscal year 2003 MILCON covers 
new military construction projects at Portland, OR (AFR), and at 
Jackson MS (ANG) and Sioux City IA (ANG).

                    STATIONING OF THE ATLANTIC FLEET

    35. Senator Bill Nelson. Secretary England, for example, all 
Atlantic Fleet nuclear aircraft carriers are now crowded into one Naval 
Station in Norfolk. Is it wise to allow this vulnerable concentration 
of valuable ships to continue or would it be more prudent to station 
one or more of our nuclear aircraft carriers at other locations? This 
should obviously impact on stationing and construction decisions. What 
approach is the Navy taking in this particular case?
    Secretary England. The Department is in the process of validating 
our force protection requirements and implementing the necessary 
improvements to ensure the protection of our assets. The stationing of 
carrier assets on the east coast will consider all factors associated 
with home porting, including operational, security, economic and 
quality of life issues.

                      FUTURE MILITARY CONSTRUCTION

    36. Senator Bill Nelson. Secretary England and Secretary Roche, how 
long a view is reflected in this MILCON request--that is, are you 
merely trying to avoid committing to construction at installations that 
may change after 2005, or are you looking well into the future, 
carefully considering how to station your forces well into this 
century?
    Secretary England. The Fiscal Year 2003 MILCON request seeks to 
improve the living and working conditions for our sailors, marines, and 
their families in the immediate future. The analysis of the force 
structure requirements and resulting infrastructure requirement and 
BRAC 2005 recommendations is just now beginning. Once the 
infrastructure rationalization is complete the MILCON program will 
reflect the identified priorities.
    Secretary Roche. We did take a long-term view when developing our 
fiscal year 2003 military construction budget request. Our program was 
developed using a facility investment strategy that includes the 
following objectives: accommodate new missions; invest in quality of 
life improvements; and sustain, restore, and modernize our 
infrastructure. Because we cannot predict the outcome of future BRAC 
rounds, we did not consider BRAC when making our prioritization 
decisions.
    This year's military construction request includes $339 million for 
projects that target new mission beddown and force realignment 
requirements with need dates in 2004 and 2005.

    37. Senator Bill Nelson. Secretary England and Secretary Roche, 
what principles or criteria are guiding your deeper view future of Navy 
and Air Force infrastructure requirements?
    Secretary England. Quality of life and quality of the work 
environment are important factors in retaining sailors, marines, and 
their families. We must continue to invest to support our number one 
resource--people.
    As the Naval Team transforms to capabilities that support Naval 
Operational Concepts we will rationalize the infrastructure to minimize 
our footprint ashore while providing the required support to the fleet 
and fleet Marine force. The streamlined infrastructure will address all 
antiterrorism force protection issues.
    We will collaborate with OSD, Army, Air Force, and defense agencies 
to eliminate unneeded support facilities. We will implement better 
business practices to delivery quality, cost-effective services that 
support the warfighter.
    Secretary Roche. Our $677 million family housing replacement and 
improvement request is consistent with the Air Force Family Housing 
Master Plan and has us on a glide slope to eliminate housing unit 
deficits and recapitalize our inadequate units by 2010.
    Our $150 million dormitory investment request was built from the 
Air Force Dormitory Master Plan and keeps us on target to eliminate our 
dorm room deficit and convert or replace our worst dormitories by 2009.
    Finally, we have included funding necessary to fully sustain our 
physical plant and to start to buy down the backlog of restoration and 
modernization requirements associated with our existing physical plant. 
If we are able to sustain our programmed level of restoration and 
modernization investment beyond 2007, we expect to eliminate that 
backlog by 2010.

                THE NATIONAL GUARD AND THE WAR ON DRUGS

    38. Senator Bill Nelson. Secretary White and Secretary Roche, over 
the years, our National Guard support for State counterdrug efforts 
have paid huge dividends in reducing drug traffic and terrorist threats 
along our borders. The counterterror benefits of these programs are 
apparent; however, DOD consistently underfunds this effort in annual 
budget requests. Even now, underfunding the fiscal year 2002 Guard 
support for State counterdrug activities will result in the loss of 
800-1,000 Guard members supporting counterdrug efforts around the 
Nation. In Florida, we will lose 70 of our 160 Guardsmen and women 
support of State and Federal efforts to stop the flow of drugs.
    Will the new homeland security command contemplated by DOD have the 
mission to support Federal and State counterdrug operations?
    Secretary White. The Department is currently reviewing the missions 
the Northern Command will undertake with regards to homeland defense 
and civil support. The Department provides considerable support to 
civil authorities in the area of counternarcotics. We are also 
reviewing our counternarcotics policy. Therefore, it is premature for 
me to commit to any future role the new command will have in the 
counterdrug program.
    Secretary Roche. The Chairman of the Joint Chiefs of Staff directed 
that Joint Forces Command assemble an implementation staff to determine 
the area of responsibility, inter-relations and mission for the 
designated Commander in Chief (CINC). These implementation 
deliberations will define the regional influence for the contemplated 
Command. The interface for the new CINC with the various standing, 
functional entities operating within the region will be documented. The 
list of considerations includes counterdrug, counterterrorism, 
counterproliferation and all other principal DOD mission areas. Once 
the implementation staff formulates a concept that receives CJCS and 
SECDEF approval, an affirmed plan of action will detail the 
subordination, supporting and supported functions for all impacted 
organizations within the area of responsibility.

    39. Senator Bill Nelson. Secretary White and Secretary Roche, what 
is your commitment to the National Guard's participation in 
counterdrug/counterterror operations in support of State law 
enforcement agencies?
    Secretary White and Secretary Roche. The Department is currently 
reviewing our counternarcotics policy. Therefore, it is premature to 
commit to any future level of National Guard participation in 
counterdrug operations in support of State law enforcement agencies.

    40. Senator Bill Nelson. Secretary White and Secretary Roche, a 
number of my colleagues--in the Senate, on this committee, in the 
House--and I recently wrote to the President asking him to try to find 
the funds necessary to keep the Guard's counterdrug support operating 
at its current levels. Are you aware of this shortfall and are you 
engaged in the effort to try to identify funds that could be used to 
cover the immediate requirement? Will you request funds for this effort 
as part of the fiscal year 2002 supplemental appropriations request 
that we understand is currently under consideration?
    Secretary White and Secretary Roche. Staff is working at finding a 
funding solution for a reasonable level of National Guard support to 
the States.
    Since we are currently reviewing our counternarcotics program, it 
is premature to commit to a future request for counternarcotics 
funding.

                            SPACE OPERATIONS

    41. Senator Bill Nelson. Secretary Roche, the Department of Defense 
budget request indicates a range of support for increased or improved 
capabilities in space to support military operations--particularly in 
intelligence, geo-location, and communications. The budget request also 
reduces funding for important space programs that have failed to 
progress adequately--such as the Expendable Launch Vehicle (ELV). The 
Department's emphasis appears to be on the payload, but there is 
significant risk to our national capacity to reliably get our critical 
defense systems into space without support for the launch programs, 
such as the Space Launch Initiative.
    Some in the space community caution NASA to maintain the 
``firewall'' between military and civil space activities. This cautious 
approach to NASA-DOD cooperation ignores the reality of greater inter-
agency integration with common objectives to save money and denies NASA 
a critical and appropriate role in supporting public safety and global 
security. I have argued that a national space policy that limits DOD's 
role in reusable launch vehicle (RLV) development may need to be 
revisited to allow significant DOD contribution to the Space Launch 
Initiative. What is your position on the future of cooperation with 
NASA for critical, common space functions such as space lift? Will you 
use the Shuttle to meet DOD space delivery requirements?
    Secretary Roche. The USAF fully supports cooperative efforts with 
NASA to maximize synergy on common space functions such as spacelift. 
Due to national policy restrictions and overall costs, DOD has no plans 
to use the Shuttle for major DOD payloads. However, the DOD does use 
the shuttle for a variety of space experiments and small payloads. We 
are fully engaged with NASA planning for future launch and range 
capabilities. The USAF and NASA have conducted a joint review to 
harmonize future RLV technology efforts. Although our organizations 
have differing launch requirements, we see benefit in working closely 
with NASA in a building block approach to achieve affordable, routine, 
and responsive access to space. Additionally, NASA and the Air Force 
have formulated a Memorandum of Agreement that establishes policies, 
roles, and responsibilities in pursuit of advanced launch and test 
range technologies that are applicable to expendable & reusable launch 
vehicles and ballistic missile testing. In meeting the goal of a 
coordinated national focus on next-generation technologies, NASA and 
the Air Force have established the Advanced Range Technology Working 
Group to serve as a forum of U.S. parties who have an interest in space 
launch support technologies.

    42. Senator Bill Nelson. Secretary Roche, the Air Force reduces 
funding for and is restructuring the Evolved Expendable Launch Vehicle 
(EELV) program. A reduction of $400 million from fiscal year 2001 
funding projections. What exactly is the problem? How will the Air 
Force reduce risk in this program from this point on? [NOTE: Boeing has 
expressed concern over use of Russian engines in Lockheed Martin's 
Atlas V version of an EELV.]
    Secretary Roche. EELV development program is on track and we expect 
first launches of the Atlas V and Delta IV this year. EELV funding was 
adjusted as necessary to meet requirements of delayed launch dates of 
Satellite customers. The EELV Program has extensive and detailed 
mission assurance processes. In 1999, the White House directed a Space 
Launch Broad Area Review and the AF has implemented additional mission 
assurance efforts, to further reduce risk.

    43. Senator Bill Nelson. Secretary Roche, in a briefing provided by 
the Air Force to the Armed Services Committee, the Air Force request 
provides $1.6 billion in this request for Space Operations funding 
including 50 launches (33 DOD, 4 Commercial and 13 Civil), and sustains 
2 ranges and 45 facilities. Is this number of planned launches correct?
    Secretary Roche. The number of planned launches is correct, however 
the breakout is as follows: 16 Civil launches (3 shuttle launches and 
13 expendable launch systems); 31 DOD launches (13 space launch and 18 
ballistic missile tests); and 3 commercial launches. These figures are 
subject to change due to satellite program requirements and Air Force 
priorities.

    44. Senator Bill Nelson. Secretary Roche, does the fiscal year 2003 
budget request fully-fund DOD and Air Force requirements for launch 
support and range sustainment/improvement? Where have you accepted the 
greatest risks in this funding level?
    Secretary Roche. The fiscal year 2003 budget request fully funds 
launch and test support operations, sustainment, and modernization. The 
greatest risk we face is the challenge of keeping the modernization of 
range systems on track while concurrently supporting ongoing launch and 
test operations.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson

                    CHEMICAL AND BIOLOGICAL WEAPONS

    45. Senator Ben Nelson. Secretary White, Secretary England, and 
Secretary Roche, I am concerned that a desperate regime making 
desperate decisions about its survivability, will not hesitate to use 
chemical and biological weapons on our service men and women. Have you 
addressed this in your service budgets and more importantly have you 
addressed this with our commanders as a very viable threat, more so 
than in the past?
    Secretary White. Congress established a Joint Service Chemical and 
Biological Defense Program (CBDP) to provide world-class chemical and 
biological defense capabilities to allow our military forces to survive 
and complete their operational missions in battlespace environments 
contaminated with chemical or biological warfare agents. The program is 
under the oversight of Deputy Assistant to the Secretary of Defense for 
Chemical and Biological Defense, and all funding is centralized in a 
Department of Defense account. Funding requests may not be included in 
the budget accounts of the military departments.
    Currently the individual Services, working within the framework of 
a Joint Service Agreement, have planned and supported a robust 
coordinated program. This program is coordinated with the Joint Staff 
and the CINCs each year during development. The fiscal year 2003 budget 
request for the CBDP is approximately $1.374 billion, which is 
significantly larger than any previous year's budget. The budget 
request focuses on research, development, and acquisition programs 
supporting contamination avoidance (to include detection and 
identification) and NBC battle management (to include reconnaissance 
and early warning), force protection (to include individual protection, 
collective protection, and medical support), and decontamination 
supporting our warfighters.
    In addition to the primary focus on warfighter requirements, this 
year's budget invests a significant amount towards chemical/biological 
defense homeland security initiatives. This includes the procurement of 
CB installation protection and emergency first response equipment, as 
well as CB defense equipment to support the Weapons of Mass Destruction 
Civil Support Teams (WMD-CST). In addition, research funding is 
provided to support a biological counter-terrorism research and a 
biological defense homeland security support program to develop and 
deploy a multi-component, multi-organizational defense capability 
targeted to urban areas, other high-value assets, and special events. 
Collectively, the past and future efforts of the CBDP will ensure that 
our military forces have the full dimensional protection required to 
succeed in the presence of chemical and biological warfare threats.
    With respect to the our instructions to our Major Commands 
regarding the viability of this threat, and more importantly our 
response to the increased concern over chemical and biological 
defenses, we have included in our draft strategic campaign plan 
specific instructions addressing the chemical biological elements. 
These instructions direct a review and update of contingency plans for 
response to consequence management missions both at home and abroad, 
increased production of trained personnel for military occupational 
specialties with critical shortages and the associated equipment, 
establishment of the chemical/biological elements of force protection 
planning and response, and training inherent to achieving a C-1 
readiness rating for selected units that provide needed consequence 
management and nuclear, biological, and chemical defense capabilities.
    Secretary England. Yes. Our fiscal year 2003 budget includes a 
total of $14.2 million for chemical, biological, and radiological 
defense/response. Assessments of these threats are conducted on an 
ongoing basis and the results are passed to our commanders continually.
    Secretary Roche. Yes, I have. Clearly, the Air Force must be 
prepared to fight and win in nuclear/biological/chemical (NBC) warfare 
environments. We have always dedicated resources to protecting our 
troops in this difficult warfighting environment. The wartime use of 
NBC weapons has been addressed through several programs in the Air 
Force budget.
    The goal of the Air Force Counterproliferation Program is to 
improve and maintain a credible and effective deterrent--to the threat 
or use of NBC weapons--an approach that integrates counterforce and 
defensive capabilities, particularly as it pertains to first surviving, 
then transitioning immediately to operating in this environment. The 
Counter-NBC Operations Readiness Initiative is an ongoing effort that 
will establish Air Force-wide standards for readiness and capabilities 
to counter NBC attacks by developing and implementing new doctrine and 
policy guidance, concepts of operations, standards, reporting, and 
training.
    The Air Force has programmed $345 million from fiscal year 2003-
2007 to fund the Air Force Chemical Biological Defense (CBD) program, 
which provides protection, detection, and decontamination capabilities 
to USAF forces. We have also programmed $22 million from fiscal year 
2003-2007 for the Weapons of Mass Destruction (WMD) Program which 
improves our first responder capabilities.
    For our commanders, the counter-chemical warfare (C-CW) concept of 
operations (CONOPS), is leveraging the emerging airbase hazard 
environment knowledge to improve sortie generation while reducing the 
risk to personnel. Each major command is being trained on 
implementation procedures, so airbases can adjust tactics. techniques, 
and procedures for responding to CW attacks. Also, we recently 
completed a number of related documents (The Commanders' Guidelines on 
Force Protection and Operations in a Biological Warfare Environment, 
the Biological Warfare Doctrine Senior Leader's Guide, and the USAF WMD 
Threat Planning and Response Handbook) that provide our leadership with 
procedures for responding to chemical/biological warfare events. 
Further, we are standing up the Agent Fate Working Group to better 
understand the environment and action commanders can take to protect 
forces and carry out the mission. Finally, we have developed a Seniors 
Leaders Course that will be available for presentation to commanders at 
all levels beginning this year.

    46. Senator Ben Nelson. Secretary White and Secretary Roche, it has 
often been reported to this committee that our strategic airlift is 
inadequate. I would like you to comment on how this occurred and if the 
fiscal year 2002 purchases of C-17s along with the proposed purchases 
in fiscal year 2003 will adequately fill this vulnerability.
    Secretary White. Several congressionally-mandated mobility studies 
since the Gulf War have highlighted the shortfall in strategic airlift. 
The Mobility Requirements Study (1992), Mobility Requirements Study: 
Bottom Up Review Update (1995), and the Mobility Requirements Study--
2005 (2001) each concluded that strategic airlift was inadequate. At a 
production rate of 15 C-17s per year, the Air Force will have a total 
of 90 C-17s in fiscal year 2002 and 105 C-17s in fiscal year 2003. 
These will not adequately fill the strategic airlift requirements 
identified in Mobility Requirements Study--2005.
    Secretary Roche. The most significant contributor to our airlift 
shortfall is a less than planned C-5 mission capable rate. C-5 
shortfalls are being addressed in ongoing modernization efforts and 
congressional support for 100 percent spares funding. The proposed 
follow-on C-17 multiyear procurement brings the fleet total to 180 
aircraft. This continued C-17 procurement combined with C-5 
modernization will allow the Air Force to meet airlift requirements and 
provide options to continue growth if new demands are identified as a 
result of the Global War on Terrorism.

    47. Senator Ben Nelson. Secretary White, the Army is close to 
having the first of several new and operational Interim Brigade Combat 
Teams in order to allow the Army to become more responsive. Do our 
future purchases of strategic airlift coincide with the fielding of 
these brigades?
    Secretary White. Decisions for currently programmed future 
purchases of strategic airlift were made as a result of requirements 
identified in Mobility Requirements Study--2005. This study was begun 
in 1998, before Army Transformation was announced. It modeled an Army 
of Excellence force structure and did not include Interim Brigade 
Combat Teams. Regardless, every C-17 produced increases our capability 
to rapidly deploy Interim Brigade Combat Teams.

                       BUILD-UP/POSITIONING PHASE

    48. Senator Ben Nelson. Secretary England, before the United States 
began Operation Desert Storm there was a build-up/positioning phase of 
more than 5 months.
    If we were to launch a similar operation now, can we expect that it 
would take the same amount of time?
    Secretary England. This is an operational and joint issue, so 
providing a definitive answer is difficult; however, there are 
substantial improvements in our strike, logistic, support, and mobility 
capabilities that should be addressed. Reflecting back to the period of 
preparation leading to Operation Desert Storm, we can be proud of our 
Nation's maritime services. At the time of the Iraqi invasion of 
Kuwait, the U.S. had substantial forces already at sea--most in 
adjacent theaters of operation. These forces demonstrated flexibility 
and readiness by responding quickly to provide timely combat response.
    Desert Storm was a great success. Upon its completion, all of your 
Armed Forces--to include the Army and Air Force as well as the Navy and 
Marine Corps--conducted thorough self-examinations of operational 
procedures. We learned a number of valuable lessons that we since have 
applied to our operations in several theaters.
    All services now preposition large stocks of combat and combat 
service support equipment forward--a good portion of this being aboard 
ships at sea already in theater.
    Prior to Desert Storm, the Marine Corps already had three 
Prepositioned Squadrons located in the Mediterranean, at Diego Garcia, 
and at Guam and Saipan. The ships can support a Marine Expeditionary 
Brigade (approximately 17,500 marines) for up to 30 days with combat 
and combat sustainment equipment and supplies. Since the Gulf War, Navy 
has deployed two of three new Maritime Prepositioning Force (Enhanced) 
or ``MPF-E'' ships, one each to the squadrons in the Mediterranean and 
Diego Garcia. These ships add critical new capacity to the Maritime 
Prepositioning Squadron (MPSRON), including some cargo loads added as a 
result of lessons learned from the Gulf War.
    Since Desert Storm, the Air Force has prepositioned munitions at 
sea in three ships operated through the Navy's Military Sealift Command 
(MSC). The Army Prepositioned Afloat Program, whose ships also are 
managed by MSC, includes Army Prepositioned Stock Three (APS-3) 
equipment and sustaining supplies sufficient to equip a heavy combat 
brigade with combat support and combat service elements. This equipment 
is embarked in a fleet of special and general-purpose ships, located at 
Diego Garcia and Guam, and ready to get underway within 24 hours of 
notification.
    An example of the many ships operated by MSC is the Large-Medium 
Speed Roll-on/Roll-off ship (LMSR), built to preposition Army stock 
forward and at sea. These ships were built to meet shortfalls 
identified by a Mobility Requirements Study. The Navy has 18 converted 
and new construction LMSRs in commission, meeting both surge and 
prepositioning requirements. The LMSR is capable of carrying 
approximately 1000 vehicles ranging from HMMWVs to Heavy Equipment 
Trucks (HETs) to M-1A2s, plus carry containers of ammunition, Meals 
Ready to Eat, and other consumables and needed equipment. Although 
called a ``medium speed'' ship, it is capable of 24 knots. In addition, 
we've added 14 new Ready Reserve Force (RRF) program Roll-on/Roll-off 
(Ro/Ro) ships and established the VISA (Voluntary Intermodal Sealift 
Agreement) a contract with merchant shipping, both U.S. and foreign 
flag, giving us the option of utilizing them during emergencies.
    An important advantage of having prepositioned stock at sea is that 
there are no sovereignty issues, and the ships are able to ``swing'' 
between theaters, having the agility to respond to contingency 
operations in either the Persian Gulf or the Korean Peninsula, to give 
just two examples.
    To complement our greater logistics capability, the Navy and Marine 
Corps have transitioned into a more combat capable striking force. The 
Desert Storm-era carrier air wing was able to strike a maximum of 162 
aim points per day; today's air wing can strike 693 aim points in the 
same period. The Marine Corps extended its ability to strike with 
ground forces far inland, as it demonstrated recently when it 
established Camp Rhino near Kandahar, Afghanistan. We continue to 
increase our ability to project power ashore as we bring on line such 
programs as the distributed Naval Fires Network, Super Hornet, and the 
MV-22. Starting in fiscal year 2005, Navy will put Theater Ballistic 
Missile Defense (TBMD) to sea on AEGIS ships. This is an example of a 
capability being developed in our naval forces that should shorten the 
logistics time needed to be ready for regional conflict. TMBD at sea 
can provide a protective umbrella for forces moving into theater, 
meaning that capability won't have to be moved by air transport, thus 
allowing more initial lift to be used for offensive capabilities.
    As an example of our enhanced capability to respond, I offer our 
response to Operation Enduring Freedom--Afghanistan. Following the 
attacks of September 11, the Navy and Marine Corps were positioned, in 
theater, ready to conduct offensive operations against Afghanistan 
within 24 hours, and we commenced full scale joint operations on 
October 7, less than 1 month afterwards.
    Even with the improvements of the past several years, issues remain 
requiring our constant attention. The VISA program and Ready Reserve 
Fleet maintenance and readiness funding levels come under regular 
scrutiny and need to be preserved. We also must work to ensure we 
continue to have sufficient Merchant Marine manpower to meet our 
requirements in today's economic environment. This is the main issue: 
we can build the ships, but we also must be certain we can man them. 
It's important to remember that our enhanced capabilities come at a 
price, and we commit ourselves to provide the essential financial 
resources if our Maritime Prepositioning Force is to continue to be 
ready to respond when tasked.
    Overall, your Navy has made a lot of progress since Desert Storm. 
We were very good then, but we're better now. It is difficult to 
predict exactly what our requirements or the operational timelines may 
be in any given theater, and I defer to the regional Commander in Chief 
in determining them, and addressing specifics for any given operation.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                            OBJECTIVE FORCE

    49. Senator Thurmond. Secretary White, the Army's budget briefing 
suggests the ``need to accelerate development of critical enabling 
technologies from the 2020 timeframe into near-term so that is possible 
to begin fielding the Objective Force in 2010.'' What do you consider 
the critical enabling technologies? What are the funding requirements 
to meet the 2010 fielding date?
    Secretary White. Before making the deciding to accelerate the 
fielding of the Objective Force this decade, the Army assessed the 
availability of potential key technologies both from within and 
external to the Army. As the core building block for the Objective 
Force, the Future Combat Systems (FCS) will further define the list of 
required key technologies for the Objective Force. Once the FCS Lead 
Systems Integrator (LSI) is selected, the list of key technologies will 
be refined against the LSI's proposed concept to develop the list of 
critical enabling technologies. The Army will continue to conduct 
periodic assessments of these technologies to ensure they are on 
schedule. Potential technologies for FCS include 105 millimeter range 
cannon munitions; command, control, and communications for networked 
fires; hybrid electric power systems; active protection systems; multi-
role armament and ammunition suite; standoff sensors; and robotics. The 
fiscal year 2003 Army science and technology budget submission of $1.62 
billion supports our current technology efforts. Total bunding 
requirements to meet the acceleration of the Objective Force this 
decade are being refined for development of the Army budget.

                 MAINTENANCE AND PRODUCTION FACILITIES

    50. Senator Thurmond. Secretary White, although the Army faired 
better than the other Services in the fiscal year 2003 military 
construction request, the request is approximately $285 million less 
than the fiscal year 2002 request. More disturbing is the 40 percent 
reduction in the funding request for maintenance and production 
facilities. Since the Army relies heavily on maintaining its aging 
equipment, how do you justify such a significant reduction in the 
construction of maintenance and production facilities?
    Secretary White. Our military construction budget request is $3.2 
billion and will fund our highest priority facilities and family 
housing requirements. In fiscal year 2002, we presented a budget that 
was a down payment on our goal to better support our infrastructure. 
When we developed this year's budget in light of the events that took 
place last year, we had some very difficult decisions to make. The need 
to fund military pay raises, transformation, operations tempo, the war 
on terrorism, increases in health care, and other key programs were all 
included in the decision leading to our request. Thus, the Army budget 
provides the best balance between all our programs, including military 
construction.

                   CHEMICAL DEMILITARIZATION PROGRAM

    51. Senator Thurmond. Secretary White, the Army is the executive 
agent for the destruction of chemical munitions. The program has been 
criticized because of an estimated 60 percent cost and delays. Based on 
this assessment, will the Army meet the destruction deadline? What 
actions will the Army be taking to get the program back on track?
    Secretary White. The current schedule for destruction of the U.S. 
stockpile of chemical agents and munitions extends past the April 29, 
2007 completion date required by the Chemical Weapons Convention (CWC). 
The CWC provides for a one-time, up to 5-year, extension to this 
deadline. If granted, this would extend the time available for disposal 
to April 29, 2012.
    The revised schedule, approved by the Defense Acquisition Executive 
in September 2001, reflects completion of disposal operations at six 
chemical stockpile sites between 2007 and 2011. Schedules for the 
Pueblo, Colorado and Blue Grass, Kentucky sites will be published once 
the technology decisions are made. These technology decisions are 
expected for Pueblo in the third quarter of fiscal year 2002 and at 
Blue Grass in the first quarter of fiscal year 2003. The largest 
contributor to schedule changes was the incorporation of our chemical 
agent destruction experience at Johnston Island and Tooele, Utah into 
realistic forecasts for other incinerator sites. Even with the 
acknowledged delays, the Army has destroyed 20 percent of the U.S. 
Category 1 chemical weapons nearly 10 months earlier than the April 
2002 destruction milestone.
    The Army is accelerating the effort to neutralize the bulk chemical 
agent stockpile at Aberdeen Proving Ground, Maryland as much as 3 years 
ahead of the original schedule. The Army is studying the feasibility of 
a similar effort to accelerate disposal of the bulk VX nerve agent 
stockpile at Newport, Indiana and will continue to evaluate options at 
other storage sites. In addition, the Army has consolidated the 
management of the Chemical Demilitarization Program under the Assistant 
Secretary of the Army (Installations and Environment), who has 
extensive experience in managing environmentally sensitive and complex 
government facilities and programs.
    The revised milestones and associated costs are being incorporated 
into a new set of requirements by which the Office of the Secretary of 
Defense and the Army will track the program's schedule, cost, and 
performance.
    The non-stockpile portion of the program recently met two major CWC 
deadlines, the deadline for destruction of 40 percent of former 
production capacity and the deadline for the destruction of all 
Category 3 items (unfilled munitions and devices and equipment 
specifically designed for use directly in connection with the 
employment of chemical weapons). The non-stockpile product remains on 
track to meet all schedule requirements.

                           FORWARD DEPLOYMENT

    52. Senator Thurmond. Secretary England, the Navy is planning to 
forward base three submarines in Guam. I find that ironic since we 
closed Navy facilities on Guam during the mid-1990s as part of the 
post-Cold War reductions.
    What is the basis of this stationing decision? Do we have the 
facilities on Guam to support this deployment?
    Secretary England. From 1964 to 1981, the Navy did homeport SSBNs 
in Guam as we did in Scotland and Spain. The need to forward base SSBNs 
ceased before the end of the Cold War due to increased range of the 
later sea-based ballistic missiles.
    We have never homeported SSNs in Guam. With the end of the Cold War 
and following the directions of Quadrennial Defense Reviews, the Navy 
reduced its presence in Guam to only that needed to support its forward 
deployed forces. Additionally, the SSN force in the Pacific was reduced 
from 40 in 1939 to 26 in 2000. Unfortunately, the CINC's demands on the 
SSN force to meet immediate real-world needs remained high, and some of 
the more pressing national and fleet requirements could not be met.
    In November of 2000, CINCPACFLT proposed homeporting three SSNs in 
Guam to improve the ability to meet national fleet requirements. This 
proposal was facilitated by:

          (1) Refueled first flight Los Angeles class submarines with 
        more reactor core life than ship's hull life are available 
        through 2015. Their excess core life will allow the ships to be 
        operated at a maximum rate within OPTEMPO and PERSTEMPO limits.
          (2) Existing infrastructure, including the submarine tender 
        (U.S.S. Frank Cable) in the western Pacific and government 
        housing and facilities, is available.
          (3) Forward basing the SSNs will reduce transit time to/from 
        station, equating to greater time ``in theater'' and additional 
        mission days to fulfill previously unmet national and fleet 
        requirements.

    The Navy concurred with CINCPACFLT's request. The facilities in 
Guam are adequate to support this decision. The current infrastructure, 
however, will only support three SSNs.

                       THE ROLE OF THE SUBMARINE

    53. Senator Thurmond. Secretary England, with the demise of 
Russia's submarine fleet, the submarines' principal role of submarine-
hunting has been diminished.
    What role does the Navy now consider the most significant for the 
submarine fleet?
    Secretary England. The world has changed significantly since the 
cold war, making the full spectrum of capabilities that our submarine 
fleet possesses more important than ever. Where before the greatest 
threats to our security were easily defined through the foreseeable 
future, the specific threats to our Nation and our allies today are 
not, but the capabilities that we must counter are. Therefore, no one 
role can be prioritized above another at a given point in time because 
the threat is widely variable. The answer to the question of which role 
is the most significant for the submarine force is a broad one, as 
broad as the range of capabilities that U.S. submarines possess.
    The submarine mission areas of intelligence, surveillance and 
reconnaissance (ISR), strike warfare, antisubmarine and anti-surface 
warfare, mine warfare, special warfare and strategic deterrence are 
well known, but this question is best answered with a discussion of the 
capabilities provided by U.S. submarines, encompassed by the Submarine 
Force Joint Strategic Concepts.
    U.S. submarines assure access for joint forces: stealth, endurance, 
payload, and agility enable our submarines to operate ``out front'' and 
prepare the battlespace in denied, hostile, or sensitive areas. Because 
they can operate where other platforms cannot, submarines can 
neutralize enemy anti-access systems or operate in spite of them, often 
enabling attacks against time-sensitive targets. This is a valuable 
expeditionary capability for assuring access for joint forces.
    U.S. submarines exploit their unique access to develop and share 
knowledge: Using their long dwell time (i.e. endurance) and undetected, 
close-in presence, our submarines collect information about adversaries 
and their capabilities that other assets cannot collect, thereby 
improving U.S. national and theater-level situational awareness. 
Offboard vehicles and sensors will expand the reach of our submarines, 
and fully-netted systems will enable them to share knowledge of a 
battlespace in real time.
    Because of their stealth, access, knowledge, and firepower, U.S. 
submarines are a potent deterrent: In addition to strategic deterrence, 
our submarines provide the Secretary of Defense and Combatant 
Commanders with unlocatable, close-in, presence in support of 
diplomatic and military objectives. Accurate and timely knowledge 
combined with early and unpredictable conventional attack capabilities 
from our submarines strengthen our leaders' deterrent options against 
aggression.
    Undetected presence and access enable U.S. submarines to project 
power with surprise from close-in. Stealthy and survivable, our 
submarines provide an early and rapid precision strike capability 
against time-sensitive targets, as well as attack capabilities within 
contested or sensitive areas.
    In summary, the same fundamental characteristics that made the U.S. 
submarine force the world's preeminent force against the threat of 
Russia's submarine fleet--stealth, endurance, payload, and agility--are 
what make us equally relevant against the vast array of threats before 
us today.

                     FORWARD DEPLOYED STAGING BASE

    54. Senator Thurmond. Secretary England, I understand that based on 
the successful deployment of Special Forces from the Kitty Hawk during 
the operation of Afghanistan, the Navy is looking at the notion of an 
Afloat Forward Staging Base designed to meet the Special Forces 
requirement without straining the carrier fleet. What can you tell us 
about this concept?
    Secretary England. The CNO has directed a study on the feasibility 
of acquiring a naval platform dedicated to providing, among other 
things, an operational capability similar to that provided by U.S.S. 
Kitty Hawk last year. Teams from Naval Sea Systems Command and Military 
Sealift Command are exploring many sea-borne platforms to assess their 
ability to provide this capability.

                            F-22 PROCUREMENT

    55. Senator Thurmond. Secretary Roche, last Fall Secretary Aldridge 
said that the number of F-22s to be built will fall somewhere between 
295 and 331 aircraft. He attributed this limitation on a cost overrun 
estimated to be $9 billion. According to a recent Inside The Air Force 
article, the Air Force is considering the ``prospect of procuring 420 
extra F-22 Raptors.'' If the article is correct, how will the Air Force 
fund this additional buy? What is the threat that requires this 
significant increase in the number of aircraft?
    Secretary Roche. The Nation needs an adequate fighter force for the 
new defense strategy. The need for new fighter aircraft, particularly 
the F-22 is driven by three major factors:
    (1) We need new combat aircraft--recapitalization of our aging 
fighter/extended range strike fleet is urgently required. The maximum 
desired average age of this fleet is 12.5 years--the current average 
age of our fighter inventory is about 15 years, and will be in almost 
18 years by the year 2020, even with the proposed buy of new fighter/
extended range strike aircraft. This aging fleet is causing both 
technological and operational obsolescence as evidenced by our growing 
O&M costs and deteriorating mission capable rates.
    (2) We need transformational combat aircraft not just to meet the 
threat today, but to meet the threat 10, 20, and 30 years into the 
future. The greatest future threat to our fighter force is the 
proliferation of advanced (``double-digit'') surface-to-air missile 
systems (SAMs) to threat countries. The F-22's capabilities in the 
areas of stealth/supercruise/data integration will be crucial for 
gaining access against the anti-access threat environment-not just for 
air forces, but for the entire joint force.
    (3) We need sufficient numbers of new combat aircraft, not just for 
meeting warfighting requirements, but also for the rotational base for 
sustained engagement around the world. We must buy enough new fighters 
to fill out 10 equally-capable aerospace expeditionary forces (AEFs). 
Without sufficient aircraft to fill out our AEFs, our defense strategy 
deployment demands will be to great for people and their equipment.

    At the present time we are implementing the Defense Acquisition 
Board's unanimously-approved plan for low-rate production as announced 
by Under Secretary Pete Aldridge on 15 August 2001. The board accepted 
the Air Force program cost estimates, but used the independent Cost 
Analysis Improvement Group estimate on the number of aircraft that 
money would buy (an estimated 295 F-22s). Mr. Aldridge stated that ``If 
the Air Force can, in fact, get the cost estimate at their level, they 
can buy more airplanes.'' Given this, the Air Force has programmed to 
procure a total of 339 F-22 Raptors, if production goals are achieved 
as forecasted. There is no programmed plan by the Air Force to procure 
any additional F-22s at the present time. However, as I've stated in 
previous testimony the need for the airplane is very clear, it is long 
overdue, and the numbers remain a question as we go through reviews.
    The F-22 is a key program for Air Force recapitalization needs. The 
previous Chief of Staff of the United States Air Force stated in 
Congressional testimony that the 339 number falls short of 
recapitalizing all of our F-15 fleet. Also, as stated in the 1997 QDR 
Report, ``in the future, the Department will consider replacements for 
the F-15E and the F-117 long-range interdiction aircraft when they 
reach the end of their service lives. To make that decision, the 
Department will consider a range of alternatives, including the 
possible acquisition of variants of the F-22 for these roles.'' This 
need to recapitalize the F-15E and F-117 fleets was included in the 
1997 QDR report as part of the F-22 three-plus-two option. At the 19 
May 1997 press conference (held by then Secretary of Defense William S. 
Cohen) to announce the QDR 1997 release, an explanation of this three-
plus-two option was given as follows:

        ``The QDR also will task a COEA, or a cost and operational 
        effectiveness analysis, to look and see what should be the 
        right replacement for the half a wing of F-117s and the two 
        wings of F-15Es as they get older. It's quite possible that a 
        deriative of the F-22 may be the solution for that.''

    The policy of DOD has been to consider the fact that at some point 
the Air Force will need to recapitalize beyond the capabilities of just 
the F-15 fleet. For this reason alone, it is prudent that the Air Force 
continue to examine the number of F-22s needed to meet future needs.
    However, the cost of recapitalization is important also. I have 
made it clear to the chief executives of the firms involved in 
producing the F-22 that if they allow the unit costs to go out of 
control that there are not going to be very many F-22s because I will 
not be able to justify them to Congress. Also, though, I'm sure that if 
we get that cost down that Congress will let the Air Force buy more.
    Cost is relative, though, as General Jumper, our current Chief of 
Staff of the United States, Air Force has stated before: ``if we 
committed the same percentage of national resources for the F-22 that 
we did for the F-15, we would be buying an inventory of 1,000 F-22s.'' 
It's also relative in that the cost of the F-22 is one part of the 
equation. The other part of the equation is the cost of not having the 
capability provided by the F-22. This aircraft has the capacity to 
change war for the joint team. The F-22's introduction will maintain 
America's technological advantage and ensure our ability to defeat next 
generation threats. The cost of not providing the Nation air 
superiority must be considered as well in any review of the F-22.
    Finding additional money for transformation and modernization is a 
challenge that faces all of DOD, not just the Air Force. Excess 
infrastructure continues to waste precious dollars that could be better 
used elsewhere. I applaud the Congress for approving a round of base 
closings in 2005. More effective business practices need to be 
implemented. I applaud Secretary of Defense Rumsfeld's creation of the 
Business Initiative Council (BIC) to identify better ways to do 
business and reduce cost. The incentive of the BIC is that any savings 
a Service identifies are then retained by that Service. I support 
Secretary Rumsfeld's efforts to identify non-essential missions for 
military personnel. Hopefully, efforts in these types of areas will 
help the Air Force find additional money for transformation and 
modernization.
    I agree wholeheartedly with Secretary Rumsfeld's statement on 
transformation made at the National Defense University that, ``while 
transformation requires building new capabilities and expanding our 
arsenals, it also means reducing stocks of weapons that are no longer 
necessary for the defense of our country.'' In other words, 
transformation needs to be rewarded, but in some cases trade-space 
needs to be created. Legacy systems operating with outdated concepts of 
operation and led with industrial age organizational structures should 
be considered as candidates for divestiture. However, those elements 
within the military that develop and apply new concepts of operation, 
are organized to meet new demands, and are making the best use of 
cutting edge technology warrant additional investment to continue their 
transformation journey.
    Clearly, more F-22s would require additional investment. A strategy 
for increasing investment in this or any other transformational 
capability will involve consideration of other priorities, the 
potential to achieve savings elsewhere, the overall availability of DOD 
resources, and most importantly approval by senior leadership.

                            CRITICAL SKILLS

    56. Senator Thurmond. Secretary Roche, the Air Force, as well as 
the other services, is feeling the demands of the increased force 
protection requirements. In the Air Force the impact is especially felt 
by the security forces who are constantly on the go. What are your 
plans to increase the number of personnel in this high demand 
specialty, as well as other demand occupations?
    Secretary Roche. We have reviewed our new tasking from Operations 
Enduring Freedom and Noble Eagle in detail, and verified additional new 
requirements for Security Forces and other specialties, such as OSI and 
Intel. As an immediate fix, we implemented Stop Loss and partially 
mobilized a significant number of personnel from the Reserve and Guard 
Forces to help us in this area. We are increasing recruiting and 
training of Security Forces personnel this year. In addition, we are 
examining multiple options to increase manning and capability in all 
stressed career fields in the future. Realizing the resource 
constraints we are facing, we are taking steps to help offset our 
increased requirement in the years ahead through the exploration of new 
technology, reducing overseas taskings, etc.

                    THE ROLE OF THE MILITARY OFFICER

    57. Senator Thurmond. Secretary White, Secretary England, and 
Secretary Roche, Charles Moskos, a leading military sociologist, wrote 
that over the past 50 years the ideal officer has shifted from the 
combat leader to the manager or technician to, most recently, the 
soldier-statesman/scholar. This has led to the rise of military 
officers more capable in the political-military realm than in troop 
leading. According to Mr. Moskos, elevating such leaders at the expense 
of combat leaders can only hurt the military's ability to carry out 
decisive actions. What are your views on this finding?
    Secretary White. Officers are expected to be combat leaders, 
managers, and statesmen/scholars. The Army develops officers to 
function at three different levels: tactical, operational, and 
strategic. Tactical level operations generally occur at platoon through 
division and involve primarily a direct leadership style. Operational 
level actions require direct and indirect leadership styles and include 
actions that occur from corps to theater to joint task force. Operating 
in the political-military realm normally only occurs when officers are 
functioning at the strategic level, and sometimes at the operational 
level. Officers functioning as strategic leaders are not only experts 
in their own domain--warfighting and leading large military 
organizations--but are also expected to be astute in the departmental 
and political environments of the Nation's decision-making process. 
They are expected to deal competently with the public sector, the 
executive branch, and the legislature.
    The complex national security environment requires an in-depth 
knowledge of the political, economic, informational, and military 
elements of national power as well as the interrelationship among them. 
It is incorrect to assume that officers must be exclusively combat 
leaders, managers or statesmen/scholars. The role of the officer is 
determined by span of control, the level of the assigned headquarters 
and the extent of influence the assigned position exerts. We train and 
develop our officers' interpersonal, conceptual, technical and tactical 
skills across all of our training domains. Additionally, the focus of 
these skills changes based on rank and position of the officer. In our 
troop leaders, the focus is clearly on warfighting and the warrior 
ethos.
    Secretary England. While the Navy and Marine Corps certainly 
require their officers in command to have a broad understanding of the 
geopolitical environments in which they operate, this is not 
accomplished at the expense of being a combat leader first and 
foremost. The Navy and Marine Corps team continues to build and train 
officers who can decisively operate in any situation over the entire 
spectrum of warfare, using all levels of technology, from hand-to-hand 
combat to complex long-distance, standoff weaponry.
    However, the past 50 years have seen a complete shift in emphasis 
from preparing for Major Theater Wars to involvement in numerous Small-
Scale Contingencies across the globe. DoN officers now routinely 
operate in what could be called a ``Three Block War'': one block may 
require diplomacy and tact while executing humanitarian operations; the 
next block may require statesmanlike skills while executing 
peacekeeping operations; and the third block may require execution of 
violent, full-scale combat operations. Today's missions require Navy 
and Marine officers who can effectively operate in all three 
environments--separately or in combination--with ease, and that is what 
the Department of the Navy trains them to do.
    Rather than resulting in an inability to respond decisively, as Mr. 
Moskos suggests, this provides the Navy and Marine Corps with a cadre 
of leaders who have a broader scope of options from which to 
appropriately respond. Today's naval leaders are every bit as 
operationally focused, combat-tempered and tested as those of the past. 
They lead from the field, the bridge and the cockpit with a lethality 
that is unmatched. They also have the education and geo-political savvy 
to know when not to attack and destroy. These officers have kept pace 
not only with the rapid growth of technology, but with the even more 
rapid changes in the geopolitical landscapes they now face. In a very 
real sense, they are a combination of all ideals, past and present.
    Secretary Roche. I understand your concern and in fact, our current 
development strategy is designed to ensure our leaders are credible and 
effective in not only our combatant duties, but our statesman/scholar 
role and our airman leadership responsibilities as well. We recognize 
today's Expeditionary Aerospace Force calls for a more diversified 
leader and have designed a development strategy based on requirements 
and competency-attainment that effectively balances the depth of 
expertise in one's mission area with the breadth required to produce 
members better prepared to serve and lead in that environment. We have 
identified four major categories of leaders, and the skills and 
attributes required in those positions, that enable our ]eaders to 
synthesize and integrate Air Force systems across the full range of 
aerospace capabilities, resulting in the exact military effects the 
Nation needs.
    As part of the continuing development of our Operations Leader 
(defined as a transformational leader credible in the competencies 
necessary to employ and sustain forces and command combat operations to 
achieve military effects through the air, space, and information 
mediums . . .) Gen. James P. McCarthy (Ret.) is leading an effort to 
increase Air Force integration in joint leadership. Within that dialog, 
we acknowledge the need for developing our political/military skills. 
Keep in mind, this is not a separate requirement absent the combatant 
focus, it is additive to the skill set of our well-prepared 
transformational leader. By building more experienced AF leadership in 
the joint arena, we enhance the application of aerospace power in all 
joint operations.
    We have also identified what we call universal competencies--
attributes we expect to find in all our members. A key component in 
this construct is a focused training on leading airmen. Today, our 
squadron, group and wing commanders receive detailed education and 
training highlighting successful Air Force leader and follower 
behaviors . . . ones that can be adapted and emulated in ways that 
enhance and improve a leader's success in creating strong Air Force 
units.
    I believe our deliberate focus on developing our people and 
improving their sense of belonging to the institution strengthens the 
heart of our organization and ensures our success in growing Air Force 
members able to, first and foremost, fulfill our vital responsibilities 
to national defense through aerospace capabilities, but also 
effectively perform in the necessary statesman/scholar role.

                             FAMILY HOUSING

    58. Senator Thurmond. The quality of life for our military 
personnel and families is high on the committee's watch list. I have 
supported the Department's goal of eliminating inadequate housing by 
2008 and had been assured that it was a reasonable and achievable goal. 
I understand the Office of the Secretary of Defense has now accelerated 
that goal to 2007. What additional funds have you received to support 
this goal? If none, what adjustments do you have to make to your 
program to fund this one-year shift, and what is the impact on the rest 
of your programs?
    Secretary White. The Army was initially funded to eliminate 
inadequate family housing by 2010. In response to Department of Defense 
guidance to accelerate that goal to 2007, family housing construction 
projects originally planned for fiscal years 2008 to 2010, and 
approximately $1.1 billion of associated funding, were rescheduled for 
fiscal years 2005 through 2007.
    Secretary England. The Navy and Marine Corps will meet the OSD's 
accelerated goal of eliminating our inadequate family housing by 2007. 
The Marine Corps will meet this goal by 2005. This effort was achieved 
by adding funds and increasing privatization:

        <bullet> The Department of the Navy added $654 million into 
        family housing construction accounts over the FYDP during the 
        development of the fiscal year 2003 budget.
        <bullet> The Department of the Navy's fiscal year 2001 family 
        housing master plan eliminates through privatization an 
        additional 10,400 inadequate homes, or a 79 percent increase, 
        over the fiscal year 2000 master plan.

    Secretary Roche. The Air Force has increased funding in fiscal year 
2003 to $1.5B as the first step in fully funding our Family Housing 
Master Plan--an increase of over $130 million over last year's funding 
level. Our plan outlines base-by-base details to meet a 2010 goal--an 
improvement by 3 years over our previous plan. We can meet a 2007 
revitalization goal at all but 20 bases where the total revitalization 
requirement drives a need for a project nearly every year until 2010. 
Accelerating housing revitalization to 2007 at the 20 bases will 
displace an additional 9,100 families from military family housing over 
fiscal year 2003 to fiscal year 2007. Typically, there is not 
sufficient, adequate housing in local communities to temporarily 
support the displaced families. The result is some families either live 
in substandard housing, commute longer distances to reach the base, or 
pay more for rental housing.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                   ALTERATIONS IN LAST YEAR'S BUDGET

    59. Senator McCain. Secretary England, in a January 28, 2002 
article ``Responding to Lott, DOD Starts Funding LHD-9 and One More 
DDG-51'' by Chris Castelli in the publication Inside the Navy, states:

        ``At the urging of Senate Minority Leader Trent Lott (R-
        Mississippi), the Pentagon has made last minute adjustments to 
        the Navy's shipbuilding plan in the Bush administration's 
        fiscal year 2003 budget. The Pentagon put $74 million more 
        toward a third DDG-51 destroyer and allocated $10 million in 
        advance procurement for a ninth amphibious ship that was not 
        previously in the Navy's budget.''

    Is this true, yes or no?
    Secretary England. Yes, $74 million was added in advance 
procurement funding for a third DDG-51 destroyer in fiscal year 2004, 
and $10 million was added in advance procurement funding for a LHD-9 to 
be procured in fiscal year 2008.

                    AMPHIBIOUS ASSAULT SHIP FUNDING

    60. Senator McCain. Secretary England, isn't there an effort going 
on by your department to look at an Analysis of Alternatives (AoA) to 
replace the current general purpose amphibious assault ship (LHA) with 
an LHA(R) and doesn't this action by officials in the Office of the 
Secretary of Defense Comptroller's office predetermine the AOA which is 
due later this year? Likewise, what happened to planned research and 
development funding for LHA(R)?
    Secretary England. The LHA Replacement (LHA(R)) AoA is scheduled to 
complete in Summer 2002. The AoA is evaluating several alternatives 
including a repeat LHD 8, a modified LHD 8, and entirely new ship 
designs that are not based on the current LHD. The results of the 
LHA(R) AoA are not predetermined and the preferred alternative may or 
may not be based on the LHD 8.
    During the review of the Navy's Fiscal Year 2003 Budget request, 
OSD concluded that the requested funding was insufficient to support 
any LHA design other than a repeat LHD-8. At the same time, the funding 
requested was determined by OSD to be ahead of need to execute a repeat 
LHD-8. Thus, OSD removed LHA(R) R&D funding in fiscal year 2003 ($13 
million) and fiscal year 2004 ($21 million).
    While it is true that the budget finances the lowest cost 
alternative, a LHD-8 repeat, it is premature to determine the outcome 
of the LHA(R) AoA. The LHA(R) program initiation is planned for fiscal 
year 2003. At that time, the DON will determine the extent of any 
additional research and development funding requirements and 
appropriately program and budget for them.

    61. Senator McCain. Secretary England, you know that I recently 
traveled to Afghanistan with other members of this committee. While 
there, I heard from several Navy and Marine Corps officers that the 
number one concern for replacing the LHA is safety because of a 
stability problem or high center of gravity issue, especially with 
deployed aircraft. Their concern was that even with some minor fixes 
with fuel compensation systems, the problem will be exacerbated when 
the Service deploys larger aircraft, such as the Osprey (MV-22) and 
Joint Strike Fighter (JSF) which are replacements for the CH-46 and AV-
8B respectively. I am told that the MV-22 is twice the weight of the 
CH-46 and that the JSF is believed to be about twice the weight of the 
AV-8B.
    Does the multi-purpose amphibious assault ship (LHD) class have 
similar stability problems as the LHA class, and would you agree that 
the problem could be exacerbated with the planned future aircraft and 
vehicles envisioned for the Marine Corps?
    Secretary England. The Navy's five LHAs need to be replaced as soon 
as possible, as they are rapidly reaching the end of an already 
extended service life. The LHA(R) AoA was initiated to ensure that both 
Marine Corps and Navy 21st century requirements are addressed, 
including the issues you raise regarding the impact of heavier 
aircraft/vehicles and overall amphibious force vehicle storage area.
    The seven ships of the LHD class have improved stability 
characteristics over the LHA class. LHDs do not experience the same 
weight and center of gravity issues as the LHA.
    LHDs have the growth allowance available from a stability 
standpoint to accommodate MV-22 and JSF. With aggressive weight control 
measures and the fuel oil compensation ship alteration, LHDs can 
integrate MV-22 and JSF. However, LHDs have less vehicle storage space 
(square footage) than LHAs. Vehicle storage space is an example of a 
requirement that is being addressed by the LHA(R) AoA.

    62. Senator McCain. Secretary England, what growth percentages are 
currently planned for the LHD class of ships?
    Secretary England. The CNO-specified minimum Service Life Allowance 
for the LHD class at delivery from the shipyard is 1/2 foot for 
vertical center of gravity reserve and 1000 long tons (about 2.5 
percent) of displacement service life reserve. The requirement is 
documented in the LHD Class Top Level Requirements document.

    63. Senator McCain. Secretary England, is the LHD a good 
replacement for the LHA class of ships, considering that the ship does 
not meet the requirement in planned future vehicles and aircraft for 
the Marine Corps or our special operations community and considering 
the amphibious lift requirement of 2.5/3.0 Marine Expeditionary Brigade 
(MEB)? Because of the well deck inside the LHD, isn't the LHD available 
square footage less than the LHA (LHD is about 5,000 square feet 
smaller than the LHA)?
    Secretary England. The ongoing LHA(R) Analysis of Alternatives is 
addressing whether the LHD is a good replacement for the LHA class. 
Continuing to build LHDs, as well as ship design modifications to 
enhance the capability to operate the larger and heavier new generation 
amphibious systems is currently being examined as an option. The 
Analysis of Alternatives is also investigating the optimum way to reach 
the fiscally constrained amphibious lift requirement of 2.5 Marine 
Expeditionary Brigades. The Analysis of Alternatives is expected to 
report out later this year and will present its conclusions at that 
time.

    64. Senator McCain. Secretary England, it seems to me that the LHD 
is not a very transformational program especially considering that it 
is the exact same hull of the current LHA class that is based on a 
1950s design. It seems to me that if the LHA(R) class ship is built to 
have a lifespan of 50 years with no further research and development 
invested, then LHD 9 will be a 100-year old design when it is 
decommissioned in the 2050 timeframe. Would the Navy develop an 
aircraft carrier (CVN), destroyer (DD), or submarine (SSN) without a 
robust research and development effort? Where is the research and 
development funding for a major amphibious ship like LHA(R)? Are you 
not relegating the amphibious Navy to no transformation?
    Secretary England. The Navy is currently conducting an Analysis of 
Alternatives (AoA) for LHA(R). Numerous alternatives are under 
consideration, including a LHD-8 repeat design. If the results of the 
AoA support a mod repeat LHD or new ship design, additional RDT&E funds 
will be required. At that time, it may be necessary to revisit the 
current plan to use the $10 million in fiscal year 2003 SCN AP for a 
LHD-9.
    While the LHA(R) hull shape may be close to the original, its 
combat systems suite, communications gear and information technology 
set up will be state of the art.

                         PURCHASING T-5 TANKERS

    65. Senator McCain. Secretary England, on February 8, RADM Church, 
USN, delivered to Congress the Department of the Navy's ``Fiscal Year 
2003 Budget Overview.'' On page 18 of the Navy's budget brief is a 
slide called ``Promote Better Business Practices, Managing the 
Department in a Business-like Manner.'' I noticed a bullet that states 
``T-5 Tanker Buyout.''
    Will you please tell the committee why the Navy has decided in its 
fiscal year 2003 budget to buy the T-5 Tankers rather than to continue 
to lease them as was the plan several years ago?
    Secretary England. The T-5 Tankers were leased in the early 
eighties rather than purchased because of the budgetary circumstances 
that existed at the time. When the ships were leased, the Navy 
negotiated for favorable purchase options that, conditions permitting, 
could be exercised at the appropriate time. Those conditions exist and 
that time is now. We have a continuing need for these vessels beyond 
their lease terms, which end in 2005 and 2006. If we let our options 
expire, we will end up chartering (leasing) higher cost replacement 
tankers.

    66. Senator McCain. Secretary England, so let me understand you--
``it is cheaper to buy the tankers and MPS (maritime pre-positioning 
ships) outright than it is to continue to pay the lease''--is that 
correct? I think I agree with the Secretary of the Navy and OMB 
Director Mitch Daniels who blames free-wheeling for outlandish cost 
overruns in government programs in past.
    Secretary England. Yes. Exercising our lease options to purchase 
will provide significant cost savings. It is cheaper to purchase these 
ships than to continue leasing, however, purchase requires a large 
expenditure in the year that the ships are purchased. Due to the nature 
of the Navy's T-5 purchase options, we get the greatest overall savings 
if we buy the ships and end their leases 2 years before the conclusion 
of the present 20 year terms--when that is coupled with a continued use 
of the ships. The same is true for the MPS, but their lease terms are 
25 years and we estimate that their optimum buyout point will be in 
fiscal year 2007. The key is to purchase the ships when they are most 
affordable during the lease cycle in order realize the optimal future 
stream of savings .

                     FUNDING THE U.S. NAVAL ACADEMY

    67. Senator McCain. Secretary England, I have been a member of the 
U.S. Naval Academy Board of Visitors since 1989. I have served on 
several committees within the structure of the Board of Visitors, 
including committees on Academics, Athletics, Finance and Property, and 
I currently serve on the Committee on Midshipmen. It has come to my 
attention that during the markup of the Department of Defense 
Appropriations Act for Fiscal Year 2002, the Senate Appropriations 
Committee cut $5.5 million from the President's budget request for 
training vessels at the U.S. Naval Academy. Having served on key Board 
of Visitors Committees, I am appalled at the tremendously damaging 
budget cut by the Senate Appropriators and I am concerned that such a 
cut not only delays, but also threatens replacement of these critical 
at-sea training programs for the midshipman in seamanship, navigation, 
and leadership. As a long-time member of the Board of Visitors, we have 
been thoroughly briefed by the Superintendent and Academic Dean on the 
Professional Development studies at the Naval Academy, as well as the 
requirement for at-sea training on the sailing boats, yard patrol craft 
(YPs), and U.S. Navy warships. For obvious reasons, I have more than a 
passing interest in the Naval Academy. However, every member of 
Congress also has a large stake in the Service Academies and the safety 
of the young men and women we appoint each year to become midshipmen 
and cadet candidates--I know of no other military program where there 
is such a direct and personal tie with Members of Congress. 
Furthermore, I was privileged to serve on the 1993 Armitage Committee, 
which reviewed Honor at the Naval Academy. One of the critical 
recommendations stated that the Secretary of the Navy and the Chief of 
Naval Operations should ``personally'' take a greater stake in the 
Academy.
    Would you please let me know what your views are with respect to 
this $5.5 million cut by the Senate Appropriations Committee?
    Secretary England. The Chief of Naval Operations and I were both 
disappointed and concerned when we learned of the $5.5 million cut by 
the Senate Appropriations Committee. These funds represent the initial 
step of a 3-year replacement program for craft that are critical to 
Professional Core Competencies taught at the Naval Academy, including 
seamanship, navigation, damage control, ship handling, relative motion, 
nautical rules of the road and the law of the sea.
    The downsizing of our Navy fleet from nearly 600 ships to nearly 
300 ships significantly impacted the at-sea training program at the 
Naval Academy. With half the number of warships of just 15 years ago, 
we now have only half the number of days available for midshipmen at-
sea training in the fleet. To address this critical training shortfall, 
the Naval Academy has augmented fleet summer cruises with open-ocean 
training in both sail training craft and diesel driven Yard Patrol (YP) 
craft. The open-ocean sail training has proven to be the most effective 
platform to allow midshipmen to transform classroom knowledge into 
actual experience in the skills essential to every naval officer. This 
platform has also proven to be the best leadership laboratory of the 
entire 4-year Annapolis experience.
    The current generation of sail training craft, which were funded by 
Congress 16 years ago, is more critical at the Naval Academy today than 
in the past 50 years. These craft are reaching the end of their useful 
life, and they must be replaced. Critical at-sea training is at risk.

    68. Senator McCain. Secretary England, what will you do to ensure 
that these funds are fully restored in fiscal year 2002 so that it does 
not delay or put the replacement of these boats in jeopardy?
    Secretary England. I have directed Navy staff to determine the best 
course of action to address member concerns and get replacement sail 
training craft funded. Beginning replacement in fiscal year 2003 will 
have minimal impact on the at-sea training program. A delay past fiscal 
year 2003 could impact the ability of the Naval Academy to continue 
this vital program without interruption.

    69. Senator McCain. Secretary England, will you commit to me that 
you and the CNO will get ``personally'' involved in restoring these 
critical funds per the spirit of the Armitage Committee recommendation?
    Secretary England. In light of competing priorities for resources, 
the President's budget represents the best balance of resources to 
requirements. The CNO and I recognize the importance of the open-ocean 
sail training program at the Naval Academy to provide future naval 
officers with critical skills in seamanship, navigation, damage 
control, ship handling, relative motion, nautical rules of the road and 
the law of the sea.

                              737 AIRCRAFT

    70. Senator McCain. Secretary Roche, are you beginning to negotiate 
the lease of the 100 767 tankers, as well as the four 737 VIP aircraft 
that were added by the Senate Appropriations Committee and enacted in 
the fiscal year 2002 Department of Defense Appropriations bill last 
December?
    Secretary Roche. The Air Force has had preliminary discussions with 
Boeing on the air refueling tanker and on the 737 aircraft. We are 
following two paths. We are currently evaluating the responses to the 
RFIs (EADs and Boeing) and will decide from that evaluation whether to 
proceed with a sole source contract or open it up to competition. For 
the tanker, we will continue discussions with Boeing, but will not 
begin negotiations until we have completed the coordination of our 
Operational Requirements Document through the Joint Staff. For the 737 
lease, the Air Force is looking to compete this effort. We will begin 
surveying the market to determine availability of aircraft that will 
meet our operational requirements. For both programs, the AF will 
report to the four congressional defense committees before we enter 
into any lease.

                              COMPETITION

    71. Senator McCain. Secretary Roche, do you believe in competition?
    Secretary Roche. The Competition in Contracting Act requires that 
the Government promote full and open competition in soliciting offers 
and awarding Government contracts in all but a limited number of 
exceptions. The Air Force fully supports this statute. In fact, there 
is a Competition Advocate at each of our procuring activities and at 
the Secretary of the Air Force level to promote competition and to 
challenge barriers to competition.

                      TERMS OF LEASE ARRANGEMENTS

    72. Senator McCain. Secretary Roche, if you believe in competition, 
then why are you not negotiating the terms of any leasing arrangement 
with other potential competitor/lessees?
    Secretary Roche. We are currently evaluating responses to the 
requests for information (RFIs) and will decide from that evaluation 
whether to proceed with a sole source competition or open it up to 
competition.

                              TANKER LEASE

    73. Senator McCain. Secretary Roche, if it is because the Defense 
Appropriations bill states that Boeing 767 tankers are to be leased, I 
do not believe that the law restricts you from discussing the details 
of the lease to include requesting similar bids in such a leasing 
agreement from Airbus, the airlines, or any other possible competitors. 
Is that your understanding as well?
    Secretary Roche. The law does not prohibit the Air Force from 
requesting similar bids from Airbus, the airlines or any other 
competitor. Only Boeing 767 and 737 aircraft may be leased under 
section 8159 of the Defense Appropriations Act.

                   TANKERS IN FISCAL YEAR 2003 BUDGET

    74. Senator McCain. Secretary Roche, I read in the Air Force Times 
article of January 21, 2002, that you said that Plan A is to buy the 
Boeing 767 tankers and that Plan B is to lease the tankers. If that is 
correct than how come you have not included a single tanker in the 
fiscal year 2003 Air Force budget request recently submitted to 
Congress?
    Secretary Roche. The objectives for Plan A and Plan B are the 
same--address the severe challenge of tanker recapitalization. The 
fiscal year 2002 USAF budget began funding the process to replace the 
KC-135s with a follow-on tanker we call KC-X. The events of the past 
year have accelerated the age and corrosion issues of our KC-135 fleet 
to a degree that warrants exploring acquisition alternatives. 
Opportunities may now exist to avoid replacing the entire aircraft 
fleet simultaneously. That is why our fiscal year 2003 budget includes 
seed money to begin the acquisition effort for new aeriel refuelers in 
the out years of the FYDP.

                 767 TANKERS IN FISCAL YEAR 2003 BUDGET

    75. Senator McCain. Secretary Roche, in a letter dated December 7, 
2001, from you to Senator Patty Murray, you wrote: ``The most important 
and critical factor is that this replacement program starts as soon as 
possible. To this end we will work with the ASD (AT&L) and the OSD 
Comptroller to amend the fiscal year 2003 budget currently being vetted 
through the Department.'' Again let me pose the same question: if Plan 
A is to buy the Boeing 767 tankers, then why haven't you included a 
single tanker in the fiscal year 2003 Air Force budget request recently 
submitted to Congress?
    Secretary Roche. Our Tanker ``Plan A'' is to begin acquiring new 
air refueling tankers in the out years of the FYDP. The fiscal year 
2002 USAF budget began funding the process to replace the KC-135s with 
a follow-on tanker we call KC-X. The events of the past year have 
accelerated the age and corrosion issues of our KC-135 fleet to a 
degree that warrants exploring acquisition alternatives. Opportunities 
may now exist to avoid replacing the entire aircraft fleet 
simultaneously. That is why our fiscal year 2003 budget includes seed 
money to begin the acquisition effort for new aeriel refuelers in the 
out years of the FYDP.

                       TANKER MODERNIZATION PLAN

    76. Senator McCain. Secretary Roche, what events caused you to 
circumvent the normal disciplines of the budget process by not 
ventilating a tanker modernization plan in the Office of the Secretary 
of Defense, at the Office of Management and Budget (OMB), or through 
the authorizing committees and approach the Appropriations Committee 
about leasing Boeing 767 tankers? We all know that leasing Boeing 767 
tankers was not in the fiscal year 2002 Air Force budget, the Air Force 
long range 6-year procurement plan, and the Air Force's ``Unfunded 
Priority List.''
    Secretary Roche. Sir, you are right. Leasing tankers was not in the 
Unfunded Priority list the AF recently submitted. The USAF budget 
already had funds in fiscal year 2002 to begin the process that would 
start replacing KC-135s with a follow-on tanker we call KC-X. We are 
pursuing this plan because the tanker age and corrosion situation has 
become increasingly worrisome to the USAF. The KC-135 tankers are 40-
year-old-plus aircraft that are wearing out. The KC-136E models, our 
oldest and least capable, are spending over 400 days in depot being 
rebuilt every 5 years, and they require significant communications 
upgrades to allow them access to airspace worldwide. The remaining 545 
KC-136 aircraft were purchased between 1957 and 1965. They will all age 
out at approximately the same time. It has become increasingly 
expensive for the Air Force to operate and maintain these aircraft. In 
May 2001, we sent letters to the chairmen and ranking members of all 
the defense committees requesting approval for accelerating our effort.
    This fall, while we were well into the process of submitting the 
President's Budget, we had a significant series of three events occur 
that focused USAF attention on reevaluating our tanker 
recapitalization, and thus potentially avoid having to replace the 
entire 545 aircraft fleet simultaneously. The first event came after 
the attacks on September 11; we started to fly our tanker aircraft at 
approximately twice their annual rate to support Operations Noble Eagle 
and Enduring Freedom. Simultaneously, the second event occurred, and 
that was the softening of the commercial aircraft market, and 
announcements from the US aviation industry that they were starting to 
shut production lines, and lay off US aviation workers. Lastly, the 
Boeing Company had expended their own capital and research & 
development to commercially offer Air Refueling Tankers, for delivery 
in 2005, based on their 767-200ER platform. The Japanese and Italian 
Governments have both recently concluded a competition and selected 
this aircraft as their new air refueling tanker. The combination of 
these three events made us closely examine the possibility of 
jumpstarting the replacement of the oldest tankers in our fleet.
    Given the apparently weak market demand for wide-body aircraft, we 
thought there existed a chance for a smart business opportunity to 
replace the KC-135Es with the commercially developed 767 tanker 
aircraft while maintaining a strong bargaining position for the USAF. 
Boeing provided the Air Force a briefing proposing a lease of 100 
aircraft for 10 years with the option to buy at the end of the lease 
for the final payment. Leasing appeared to be a viable option since the 
aircraft were: (1) commercially derived; (2) commercially developed; 
and (3) quickly available in larger numbers through a lease to augment 
the aging fleet of tankers. In addition, the Air Force expects savings 
to result from operating and maintaining modern commercial aircraft 
rather than 40-year old KC-135 aircraft.
    The USAF was then asked by members of the House and Senate to 
provide informational briefings on this proposal. The briefing provided 
to members of Congress, including members of the SAC, SASC, HAC, and 
HASC, who requested it from the AF. It was also provided to members of 
the OSD staff, CBO, and OMB. CBO and OMB had concerns with scoring 
Boeing's lease proposal. They recommended an ``operating lease'' 
compliant with the existing provisions of OMB Circular A-11. CBO's and 
OMB's recommendations are reflected in section 8159 which permits the 
USAF to attempt to negotiate a lease arrangement, for up to 100 
aircraft, for up to 10 years, for not more than 90 percent net present 
value of the fair market value of the aircraft. The lease type 
specified ultimately returns the aircraft to private industry.
    The AF cannot enter into any lease deal without the permission of 
the four defense committees, and no funds can be expended. This, Sir, 
is the genesis of this lease possibility. It was generated out of our 
perceived need to accelerate existing replacement plans and to assure 
that we can meet our mission in the future.

                         UNFUNDED PRIORITY LIST

    77. Senator McCain. Secretary Roche so let me understand you that 
it was the amount of tanker missions flown in support of 16,000 
Operation Enduring Freedom sorties since October. Is that correct? I 
have examined your ``Unfunded Priority List'' totaling 60 programs at a 
total cost of nearly $10 billion which was prepared by Air Force Chief 
General Jumper, 1\1/2\ months after September 11 and 3 weeks after the 
air war started. [Refer to the UPL dated October 22, 2001]
    Secretary Roche. As of the middle of February 2002, the Air Force 
had flown over 14,500 sorties in support of Operation Enduring Freedom. 
Of the 14,500 sorties, approximately 6,000 were tanker sorties. The 
fiscal year 2002 Air Force Unfunded Priority List, prepared on 6 July 
2001, was provided again on 22 October 2001 at the request of 
Congressman Duncan Hunter.

                          KC-135 TANKER FLEET

    78. Senator McCain. Secretary Roche, by the chronology briefed by 
Defense Secretary Rumsfeld, Joint Chiefs of Staff Chairman General 
Myers and Commander in Chief of U.S. Central Command General Franks, 
the air war did not start until October 7, 2001. Can you try to explain 
to me why Major General Paul W. ``Bill'' Essex, Assistant Secretary for 
Air Force Acquisition, briefed Senator Murray's staff on October 3, 
2001, 4 days before the air war started, on the need to replace the KC-
135 tanker fleet with Boeing 767 tankers?
    Secretary Roche. By 1 Oct 01, the USAF had already flown a 
significant number of missions in support of Operation Noble Eagle and 
in preparation for Operation Enduring Freedom. Starting on 11 
September, the Air Caps provided over the USA's major cities by 
Operation Noble Eagle were made possible by the KC-135 air refuelers 
that kept the fighters in the air doing their job protecting us. The 
missions supporting Enduring Freedom required the AF to establish 
extensive Air-Bridges composed of pre-positioned KC-135s and KC-10s. 
Without the Air-Bridges, our strike aircraft could not have 
accomplished the missions CENTCOM had in store for them. All of these 
actions were occurring well before the first strikes were made in 
Afghanistan. All of these actions were beginning to stress our oldest 
and least capable tankers.

                       BOEING 767 TANKER LEASING

    79. Senator McCain. Secretary Roche, according to your recent 
statements to the Defense Writers Group, you say that you may need 
additional legislation to conclude the Boeing 767 tanker leasing deal. 
What do you mean by this?
    Secretary Roche. The legislation on the tanker lease requires the 
Air Force to obtain separate authorization and appropriations if there 
are modifications required beyond the aircraft configurations currently 
offered. The JROC will be reviewing the Air Force's recommended 
Operational Requirements Document, and there may be changes that 
require us to seek that separate authorization and appropriation to 
assure military capability.

                           LEGISLATIVE WAIVER

    80. Senator McCain. Secretary Roche, according to a January 7, 2002 
article in Defense News, I understand that Boeing's Seattle plant work 
force is not licensed to work on military aircraft, as required by the 
U.S. International Trafficking in Arms Regulations (ITAR), which 
governs most arms exports. At least one State Department official has 
advised that since some workers at the Seattle plant are not citizens 
of the United States and if such a foreign national is working there on 
ITAR-controlled equipment, it does require a license. Would you also 
request a legislative waiver to build or modify the 767 tankers at the 
Seattle plant?
    Secretary Roche. No, we would not request a legislative waiver for 
ITAR issues. It is our understanding that the Boeing Company would 
build the aircraft at their Everett, WA facility, and install the ITAR-
controlled equipment at an ITAR-approved facility elsewhere. This is 
the same process used to produce the commercially derived VC-25, C-32, 
and C-40 aircraft.

                              TANKER STUDY

    81. Senator McCain. Secretary Roche, Air Force Brigadier General 
Ted Bowlds, program executive officer for airlift, tankers, and 
trainers, is reported by Defense Week Daily on February 1, 2002 as 
saying: ``The Air Force does not have the luxury of doing a study to 
determine whether another Boeing aircraft, such as the 777 or an Airbus 
airplane would suit its needs better than the Boeing 767.'' Is General 
Bowlds predetermining the outcome of the fiscal year 2001 
congressionally-mandated tanker study that is ongoing and whose results 
are due later this year?
    Secretary Roche. The Air Force had planned to begin an Air 
Refueling Tanker Analysis of Alternatives (AOA) for replacing the KC-
135 fleet. In May 2001, we sent letters to the Chairman and ranking 
members of all the Defense Committees requesting permission to 
accelerate the previously planned 24 month-long AOA into fiscal year 
2001. This request was not approved. This AOA would have served as the 
basis of our ``Plan A''--a traditional acquisition program. In the 
fiscal year 2002 Appropriations Bill, Congress asked the Air Force to 
begin discussions with Boeing on the viability of a 767 tanker 
replacement. Our approach is to issue a Request for Information to 
conduct a market survey to help us identify the state of technology and 
to determine if we are able to make a sound business case. If we can 
make a business case and negotiate a satisfactory lease deal compliant 
with the law, we will come back to the four Congressional defense 
committees for permission to proceed. This would allow replacement 
tankers to begin delivery in 2005. If we cannot negotiate a 
satisfactory lease deal we will revert back to Plan A, a traditional 
acquisition program. This would delay the introduction of a replacement 
tanker by at least 3 years.

    82. Senator McCain. Secretary Roche, is he also predetermining the 
Leasing Review Panel that Department of Defense Comptroller Zakheim and 
Assistant Secretary of Defense Aldridge are establishing to examine 
multiyear leases for major weapon systems, aircraft, and ships?
    Secretary Roche. I am certain that General Bowlds would not 
predetermine the outcome of any study or the DOD Lease Review Panel. We 
have been actively engaged with the Leasing Review Panel since December 
2001.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith

                 SPECIAL OPERATIONS TANKING CAPABILITY

    83. Senator Smith. Secretary Roche, the Special Operations 
community has made a heroic account of themselves in the war in 
Afghanistan. The innovation, daring, and bravery of these troops played 
a major role in our successes in the conflict. We must give these 
people on the tip of the spear our utmost support. Lt. Gen. Paul 
Hester, commander of Air Force Special Operations Command said recently 
that there has been an acute shortage of tanking capability for our 
special operation forces. He said that only about 35 percent of tanking 
requests are being met. What is being done in the fiscal year 2003 
budget to correct this, given it is very much conceivable that the war 
on terrorism will continue to place demands on these troops?
    Secretary Roche. SOF unique requirements are funded by USSOCOM 
using MFP-11 dollars. In the USSOCOM fiscal year 2003 APOM, an AFSOC 
initiative to outfit 24 MC-130H Talon II aircraft as tankers was funded 
through MFP-11. This initiative will increase AFSOC's C-130 refueling 
capable fleet from 41 aircraft to 65 aircraft. The tanker requests 
referenced in this statement are for refueling both USA and USAF SOF 
helicopters. We understand the referenced tanker shortage is calculated 
using Active-Duty Forces only, however, when USMC and Reserve Forces 
are used for augmentation, support increases to 67 percent.

                    COMMANDER MICHAEL SCOTT SPEICHER

    84. Senator Smith. Secretary England, as you recall, last year we 
discussed the case of Commander (soon to be Captain) Michael Scott 
Speicher, and I appreciate the personal interest you have taken in 
resolving this tragic case. As you will agree, we owe it to him and to 
his family to establish his fate. I would like to get your personal 
assurance that you will continue to dedicate the necessary resources 
and attention to this matter.
    Secretary England. Yes, I agree. We owe it to both Commander 
Speicher and his family to unequivocally resolve his fate. Let me 
assure you, Senator, that I am personally committed and dedicated to 
doing just that. The Intelligence Community has kept me aware of 
developments in this case as we continue to pursue diplomatic, 
intelligence and operational efforts to obtain the fullest possible 
accounting of Commander Speicher.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum

                    TERMINATED PROGRAMS AND SYSTEMS

    85. Senator Santorum. Secretary White, the Army has terminated 18 
programs and/or systems as part of the fiscal year 2003 request. Among 
the terminations are: TOW Fire-and-Forget, M113 recapitalization, 
Armored Combat Earthmover, Wolverine, Hydra Rocket, Improved Recovery 
Vehicle, and Bradley Fire Support Team. Is the Army or the Office of 
the Secretary of Defense (OSD) expecting Congress to ``buy back'' these 
terminations? Put another way, should Congress expect to see these 
programs/systems on the Army's unfunded requirements list? While 18 
programs/systems have been terminated, have the requirements that 
supported these programs gone away?
    Secretary White. To ensure that we maintain a capability that 
guarantees warfighting readiness in support of the National Military 
Strategy, we have had to make hard choices regarding modernization of 
our Legacy Force. Last year, the Army terminated 18 of its programs 
that are not planned for the Objective Force. Eleven of those programs 
will be terminated in fiscal year 2003, while the remaining seven will 
be terminated between fiscal year 2004 and 2007. The funding associated 
with these 18 systems has been reprogrammed to support higher 
priorities. The Army will not buy back any of the terminated systems 
through the unfunded requirements process. Rather, we will fund 
research, development, and acquisition for the next generation solution 
for the requirements to support the Objective Force design.

                            NUNN-MCCURDY LAW

    86. Senator Santorum. Secretary Roche, one of the items to receive 
press this year has been OSD's desire to enforce ``realistic costing.'' 
Year after year, the military services have underestimated the cost of 
weapons development and buying programs to make them more attractive to 
the Pentagon and Congress.
    When unit cost growth of a program is 25 percent or more, the Nunn-
McCurdy law requires the Secretary of Defense to certify to Congress 
that the program is essential to national security, that no less costly 
alternatives exist to provide equal or greater capability, that new 
cost estimates are reasonable, and that management can control cost. 
Such a certification is to be provided within 30 days. If that does not 
happen, the Department must stop funding for the program.
    Recent documentation from Defense Acquisition Chief Pete Aldridge 
indicates that the unit cost growth for the F-22 Raptor is 28.5 
percent. Does the Department of the Air Force believe that OSD must 
provide certification of the merits of the F-22 despite its breach of 
the Nunn-McCurdy law?
    Secretary Roche. Yes. OSD provided the certifications required by 
the Nunn-McCurdy law to the Congressional Defense Committees on 13 
September 2001.
    ``. . . As a result of the significant adjustments to the F-22 
program, the procurement unit cost for the program has increased by 
28.5 percent. Since the revised cost estimate for production exceeds 
the current Congressional cost cap, I request Congress remove the 
current production cost cap for the F-22 program. The revised plan 
maintains the F-22 Initial Operational Capability in December 2005.
    In addition to requiring notification of a breach in unit cost 
reporting, section 2433 of Title 10, United States Code, requires a 
certification to Congress before funds may be obligated for a major 
contract under a program that has experienced a unit cost increase that 
exceeds 25 percent. In accordance with 10 U.S.C. Section 2433, I 
certify:

        a. That the F-22 Program is essential to national security.
        b. There are no alternatives to the F-22 program which will 
        provide equal or greater military capability at less cost.
        c. The new estimates of the procurement unit cost are 
        reasonable.
        d. The management structure for the F-22 program is adequate to 
        manage and control the procurement unit cost.''

                            F-22 PROCUREMENT

    87. Senator Santorum. Secretary Roche, the current Air Force 
procurement goal is 339 F-22s, well short of the initial 750 F-22s the 
service intended to purchase. Estimates are that the Air Force will 
need to procure 381 F-22 Raptors to fill out 10 squadrons for its 
aerospace expeditionary forces. Currently, the Air Force estimates that 
the F-22 program is $2.0 billion above the congressional cost cap for 
production, while the Office of the Secretary of Defense's Cost 
Analysis Improvement Group (CAIG) estimates the program to be $9.0 
billion over the production cost cap. Secretary Aldridge approved the 
F-22 limited/low-rate initial production (LRIP) under an arrangement 
that will allow the Air Force to procure as many aircraft as possible 
given budget constraints. Is the Air Force going to request relief from 
the congressionally mandated cost cap? If so, why should Congress grant 
this request when the program is in breach of the Nunn-McCurdy law?
    Secretary Roche. OSD requested, ``Congress remove the current 
production cost cap for the F-22 program'' in a 13 Sep 01 letter to the 
Defense Committees. OSD also intends to submit a legislative initiative 
on this subject.
    The F-22 cost caps have been an effective tool for managing F-22 
program costs; however, at this stage of program maturity the 
production cost cap could constrain the Department's ability to make 
optimum force structure decisions resulting from the QDR and Defense 
Strategic Review. At this point, over 90 percent of the aircraft 
development is complete with the remaining EMD work being primarily 
testing. In addition, the program has entered into low rate initial 
production (LRIP) with approval for full award of Lot 1 (10 a/c), Lot 2 
(13 a/c) and advance buy of Lot 3 (23 a/c). The baseline aircraft 
design has been finalized and near-term production costs are well 
understood. Accumulated cost data during development and the initial 
low rate production lots has served to build confidence in the Air 
Force's proposed cost reduction initiatives and the ability to continue 
to reduce future aircraft costs. Retention of the production cost cap 
at this stage no longer serves the original intent of controlling 
future costs, but instead serves as a fiscal constraint that simply 
caps the number of F-22s the Department can procure. This limitation 
significantly reduces the Departments flexibility when evaluating 
future force structure requirements and modernization alternatives.

                          PRODUCTION COST CAP

    88. Senator Santorum. Secretary Roche, if the Air Force does not 
receive relief from the production cost cap, how many F-22s does the 
service estimate that it can purchase?
    Secretary Roche. This does not include six Production 
Representative Test Vehicles (PRTVs) procured with RDT&E funds. The 
maximum production rate in this scenario would be 36 aircraft per year. 
The current Air Force plan to increase the production rate to 56 
aircraft per year would not be economically feasible if funding is 
constrained to the existing production cost cap.

                 RESEARCH AND DEVELOPMENT IN TECHNOLOGY

    89. Senator Santorum. Secretary White and Secretary England, last 
year Congress was told to wait for the fiscal year 2003 budget 
submission to judge the merits of the Bush administration's desire to 
transform the military. However, it seems that instead of radical 
reforms, additional budgetary authority (topline) has been requested to 
allow the pursuit of both legacy and new systems.
    For the Army, the fiscal year 2003 request seeks $268 million less 
for applied research versus the fiscal year 2002 request and $174 
million less in advanced technology development than the fiscal year 
2002 request. How is the Army expected to transform when it is 
experiencing -3 percent real ``growth'' in its research, development, 
test and evaluation accounts and less in requested funds for 6.2 and 
6.3 funding?
    Secretary White. In fiscal year 2003 the Army is actually seeking 
to increase its advanced technology development program (6.3) by $19.5 
million or 3 percent compared to the fiscal year 2002 request. This 
reflects the strategy to accelerate Future Combat Systems and Objective 
Force warrior technology development to field these capabilities by the 
end of this decade. Consistent with this strategy to rapidly field more 
mature technology, the less mature, applied research funding declined 
by $47 million in the fiscal year 2003 request compared to fiscal year 
2002. However, the Army remains committed to achieve transformational 
capabilities through advancements in science and technology (S&T), as 
evidenced by the overall 2.3 percent increase in total S&T for fiscal 
year 2003 compared to the fiscal year 2002 request. Despite heavy 
resource demands for current readiness, the Army's total research, 
development, test, and evaluation funding in fiscal year 2003 ($6.92 
billion) achieved 2 percent ($224 million) real growth compared to 
fiscal year 2002 ($6.69 billion).
    Secretary England. Using the fiscal year 2002 Amended President's 
Budget request as a basis for comparison, the actual fiscal year 2002-
2003 reductions are far smaller:

                        [In millions of dollars]
------------------------------------------------------------------------
                                       6.2 Applied       6.3 Adv. Tech
                                         Research         Development
------------------------------------------------------------------------
Fiscal year 2002 Amended                          617                670
 President's Budget...............
Fiscal year 2003 Present's Budget                 580                617
 Request..........................
                                   -------------------------------------
  Difference:.....................                -37                -53
------------------------------------------------------------------------

    Within existing resources the Navy's S&T budget has been refocused 
with an emphasis on identifying, developing and demonstrating 
transformational capabilities. Examples of ongoing transformational 
include initiatives in the areas of Electric Power, Revolution in 
Training, and development of ever more capable Autonomous Vehicles. 
However, in determining whether we are making progress towards a 3 
percent goal, using the prior year appropriated level is not an 
accurate reflection of the Department's priorities because it includes 
significant increases for specific efforts that are not in consonance 
with Department core priorities, often including many items not 
requested by the Department with respect to necessity or timing. Such 
increases in the appropriated level create marginal returns against our 
key priorities and distort the baseline from which we hope to move 
towards the 3 percent goal as we try to include more transformational 
S&T technologies.

    90. Senator Santorum. Secretary White and Secretary England, does 
the fiscal year 2003 budget request contain enough science and 
technology and research and development funding to support a robust 
transformation initiative where we can skip a generation of weaponry? 
Put another way, is transformation of our military to meet 21st century 
threats still a goal of this administration? How can the Navy and the 
Army transform with the level of funding requested for 6.2 and 6.3 
research?
    Secretary White. Army Transformation to the Objective Force remains 
our highest priority. The Army is firmly committed to achieve 
transformational capabilities through advancements in science and 
technology (S&T) as evidenced by the overall 2.3 percent increase in 
total S&T for fiscal year 2003 compared to the fiscal year 2002 
request. In fiscal year 2003, the Army is seeking to increase its 
advanced technology development program (6.3) by $68.4 million or 10 
percent compared to the fiscal year 2002 request, reflecting our 
strategy to accelerate Future Combat Systems and Objective Force 
warrior technology development to field these capabilities by the end 
of this decade.
    Regarding a concept to skip a generation of weaponry, we should 
recognize that these investments in S&T are risk programs. They are 
pressing the limits of knowledge and technology. It would be premature 
to skip a generation of systems until we know if the technology can be 
proven and successfully transitioned to production for actual 
warfighting capability. However, despite heavy resource demands for 
current readiness and Legacy Force recapitalization, the Army's total 
research, development, test, and evaluation funding in fiscal year 2003 
($6.92 billion) achieved 2 percent ($224 million) real growth compared 
to fiscal year 2002 ($6.69 billion).
    Secretary England. In keeping with the administration's goals, the 
Navy's existing S&T budget does include funding for dynamic 
transformational efforts in a wide array of areas including development 
of Electric Power for Naval Platforms, Littoral Support Craft 
(Experimental) (LSC(X)), Revolution in Training, and Autonomous 
Vehicles. These efforts do hold the potential for revolutionary ``jump 
ahead'' advances. The Electric Power effort stands to revolutionize the 
way the Navy builds and operates surface, subsurface, air and ground 
vehicles. Through the use of innovative hull forms, cutting edge 
propulsion systems, materials and modular systems, the LSC(X) stands to 
provide similar revolutionary advances that will feed into existing and 
future platforms. Revolution in Training stands to radically change the 
way we teach and train warfighters. Similarly, ongoing work in 
Autonomous Vehicles stands to have major impacts on a wide array of 
operations, including manned flight, ASW and mine warfare.
    All of these initiatives hold significant promise in terms of 
improved and expanded warfighting capabilities, coupled with improving 
operations and maintenance and reducing costs, that will transform the 
way we fight.

                          MUNITIONS SHORTFALLS

    91. Senator Santorum. Secretary White, Secretary England, and 
Secretary Roche, during his confirmation hearing in August to be Chief 
of Staff of the Air Force, General John Jumper said that the service 
has a $2 billion shortfall in its munitions accounts. The Department of 
Defense spent about $6 billion on munitions in fiscal year 2001, 
compared to $16 billion in 1991. Recently, Colonel James Naughton, 
Deputy Chief of Staff for Ammunition at the Army Materiel Command, said 
that there is not enough money to remanufacture obsolete ammunition 
stockpiles. While the budget increases funding for the procurement of 
``smart munitions,'' the portion of the industrial base that 
manufactures bullets and projectiles, propellants, fuses, and 
pyrotechnics is not thriving. In addition, many of the subcomponents in 
the ammunition sector are military-unique items, with limited or no 
commercial market. An industry association, the Munitions Industrial 
Base Task Force, believes that our munitions accounts are underfunded 
by $400 million. What actions can the services take to strengthen the 
entire ammunition industrial base, not just the precision or preferred 
munitions base?
    Secretary White. The Army shares your concern about the health of 
the munitions industrial base. This concern is one of the major reasons 
the Army has established the Program Executive Office (PEO) for 
Ammunition. The new PEO is responsible for life-cycle acquisition 
management of conventional ammunition, which includes integrating 
budgets, acquisition strategies, research and development, and life-
cycle management across all ammunition families. Included in this 
mission will be the responsibility of ensuring the continued viability 
of the munitions industrial base. The Army has included two ammunition 
remanufacturing programs, one for 105mm artillery and one for 155mm 
artillery, in its fiscal year 2003 submission. These programs will help 
parts of the artillery base. In addition, increases to programs to 
support requirements needed in responding to the post September 11 
environment will help the small arms ammunition base. In the long run, 
however, the only way to fully revitalize to ammunition industrial base 
is to add additional funding for currently unresourced war reserve 
requirements for other than smart munitions.
    However, we know that the benefit of precision munitions is a 
greatly reduced requirement for large stockpiles of non-precision 
munitions. For example, the Hydra 70 Rocket was originally designed as 
an area suppression weapon and is not very accurate. Up to 60 rockets 
are required to take out a specific target. Collateral damage and 
fratricide potential are significant detractors in the use of the Hydra 
70. In comparison, we estimate the Advanced Precision Kill Weapon 
System (APKWS), a Hydra 70 Rocket with a laser guidance package 
attached, will require one to two rockets per specific target. 
Collateral damage and fratricide issues are greatly reduced. 
Unfortunately, we do not project availability of the APKWS until fiscal 
year 2006. In this case, we need to carefully manage the transition of 
current Hydra 70 production to the proper size to support future APKWS 
requirements.
    The bottom line is we need to continually assess the state of our 
munitions programs from those in the technology base to those already 
produced and in our stockpiles. While it is clear additional resources 
are needed for munitions, specifics depend on risk assessments we are 
currently conducting.
    The Army uses hardware procurements and competition to provide the 
private sector and the organic base the resources needed to maintain 
the industrial base. The Army needs an industrial base that is sized 
for our high-priority requirements. A long-term stable ammunition 
program funded at higher levels enables PEO Ammunition to develop an 
acquisition strategy that will incentivize contractors to modernize for 
what the Army needs and dispose of the capacity that is not needed. The 
Army can execute its fiscal year 2003 unfunded requirement within the 
existing industrial capacity. The Army has done what it can within the 
available resources, but this effort does fall below the total 
requirements. Further, the Armaments Retooling and Manufacturing 
Support program enables the commercialization efforts of the operating 
contractors in this competitive market.
    Secretary England. The Department of the Navy (DON) supports the 
strategies developed by the United States Army, which acts as the 
Single Manager for Conventional Ammunition (SMCA). The Secretary of the 
Army was designated the single manager because the Army controls the 
majority of the industrial base. One of the more important functions of 
the SMCA is management of the Defense ammunition industrial base. To 
that end, Assistant Secretary of the Navy for Research, Development and 
Acquisition has recently coordinated a memorandum that reminds and 
emphasizes the intent and importance of Section 806 of the Fiscal Year 
1999 Defense Authorization Act for Fiscal Year 1999. The Act tasks the 
SMCA to examine the industrial base and make procurement decisions, 
which help to underpin the vitality of the ammunition industrial base. 
The DON is encouraged by the SMCA's implementation of multiyear 
procurements and long-term requirements contracts.
    The DON will continue to investigate management architectures and 
SYSCOM relationships that satisfy warfighter needs, stabilize 
requirements and inventories, and yet still allow the industrial base 
flexibility enough to respond to inevitable wartime surge demands. The 
Navy has also commissioned studies by Department of Commerce to examine 
the health of those portions of the industrial base where there is 
concern about the strength of the enterprise (e.g., high performance 
explosives).
    The ammunition industrial base has suffered in the past, and the 
DON is working closely with our partners on the Munitions Industrial 
Base Task Force to help ensure that this important element of our 
industrial capacity is preserved.
    Secretary Roche. The Air Force shares your concern about the health 
of the ammunition industrial base. Since the end of the Cold War, the 
Air Force has shifted its emphasis more towards precision-guided 
munitions, reducing the need for non-precision munitions. However, 
there are niches in the ammunition industrial base that warrant 
continual attention. In addition to funds already provided for the 
munitions and ammunition industrial base since September 11, a number 
of acquisition excellence strategies, such as multiyear procurement, 
contractor incentives, and lean enterprise practices, could be 
incorporated to support and strengthen the entire ammunition industrial 
base.
    Successful application of these strategies could enhance corporate 
financial health and stockholder value by increasing a contractor's 
ability to capture corporate profits and realize sufficient returns on 
investment. This, in turn, could lead to expanded growth for both 
contractors and their supply chain plus a greater potential for 
attracting investors, recruiting fresh talent, and retaining valuable 
expertise. In addition, the Government could realize improved schedule 
performance, reduced cycle times, and reduced acquisition costs 
throughout the industrial enterprise as a result of these strategies.
    Since the Army is the Department of Defense's Single Manager for 
Ammunition, responsible for consolidating Army, Navy, and Air Force 
ammunition procurements, we believe they would be in the best position 
to implement these strategies. Similar strategies were successfully 
incorporated in the Air Force's recent procurement of precision-guided 
munitions (e.g., Joint Direct Attack Munitions), and the Air Force 
would support the Army's efforts to implement these strategies.

    92. Senator Santorum. Secretary England, it appears that the Marine 
Corps has a shortfall in fire support. The DD-21, which was slated to 
provide off-shore fire support, was restructured last year. The Land-
Attack Standard Missile, fitted with advanced navigation system and 
guided by a global positioning system (GPS), which was to provide the 
required range and accuracy needed to support Marine Corps power 
projection from the shore, has been canceled with this budget. The 
lightweight 155 field artillery system has slipped, impacting 
modernization of the on-shore field artillery.
    How do you plan to address this apparent shortfall in Marine Corps 
fire support requirements?
    Secretary England. The combined arms concept of employing Naval 
Surface Fire Support (NSFS), Land Based Fires, and Close Air Support 
(CAS) together produce synergistic effects throughout the depth of the 
battlespace. Combined arms synergy is essential to produce the desired 
effects on enemy targets. In the near-term, Marine Air-Ground Task 
Forces (MAGTF) will depend on combined effects of fire support systems 
on land, at sea, and in the air. To address our shortages in attack 
resources, surface delivered extended range projectiles and cruise 
missiles, land based artillery and mortar systems, augmented by 
existing TACAIR capabilities, will be employed together to gain 
complementary effects.
    Our near-term NSFS initiatives include improving sea-based 5'' 
guns, developing an extended range guided munition, introduction of the 
Tactical Tomahawk cruise missile, and integration of C\4\I systems to 
support NSFS. The current 5'' 54 gun, used to fire conventional 
ammunition to 13nm, has been improved to accommodate higher energies 
associated with extended range munitions. The Extended Range Guided 
Munition (ERGM) has an objective range requirement of 63nm from the 
improved gun. The improved gun Initial Operational Capability (IOC) is 
scheduled for 2003 with conventional munitions, and 2005 with extended 
range munitions. ERGM will IOC in 2005. The Marine Corps' requirement 
to engage targets to 222nm can be partially met with the introduction 
of Tactical Tomahawk (TACTOM) in 2004. TACTOM's loiter and enroute re-
targeting capabilities provide support over extensive maneuver areas. 
Naval Fires Network (NFN) and Naval Fires Control System (NFCS) are two 
near term C\4\I systems that provide the capability to support Carrier 
Strike, Surface Strike, Expeditionary, and Fire Support missions in 
support of Joint, Allied, and Coalition forces. NFN is being rapidly 
deployed now in support of operation Enduring Freedom. NFCS is 
scheduled to IOC in 2004.
    The Lightweight 155 Howitzer is one of three new land based fire 
support systems. We will introduce the High Mobility Artillery Rocket 
System (HIMARS) and an Expeditionary Fire Support System (EFSS) to 
provide improved land based fire support. The Lightweight 155, along 
with Towed Artillery Digitization (TAD), will provide increased 
mobility, improved accuracy and responsiveness, and greater durability 
over current field artillery system. HIMARS promises to be rapidly 
deployable and provide both precision and area munitions under all 
weather conditions, extending our ground-based fire support umbrella to 
60 kilometers. HIMARS will provide a robust capability for counterfire 
and battlespace shaping. EFSS will be a lightweight fire support system 
that can be transported inside the MV-22, providing a significantly 
enhanced fire support capability for a vertically lifted maneuver 
force.
    The MAGTF relies heavily on CAS to offset limited artillery and 
NSFS. The V/STOL capability of the remanufactured AV-8B Harrier allows 
forward basing to facilitate timely CAS to Marine ground forces. 
Improvements include enhanced night warfighting capabilities, improved 
engine, and multimode radar. Further, the multi-mission capable F/A-18C 
Hornet provides powerful and flexible offensive air support that can 
meet air to ground mission requirements. The F/A-18D provides the MAGTF 
with a platform capable of tactical air control and reconnaissance 
while retaining the offensive warfighting capabilities of the F/A-18C.
    The Navy's far-term approach is to develop a more robust set of 
NSFS weapon systems for installation in DD(X). These weapon systems 
include the Advanced Gun System (AGS), with its associated Long Range 
Land Attack Projectile (LRLAP) (objective range of 100 nm), and the 
Advanced Land Attack Missile (ALAM) (objective range of 300 nm).
    An integrated system of aviation, ground and sea-based fire support 
systems is required to support expeditionary ``combined arms'' 
operations. These current and planned programs will provide 
complementary capabilities that meet the Naval services' requirements 
for long-range, responsive, all weather fire support.
                                 ______
                                 
             Questions Submitted by Senator Tim Hutchinson

                             C-130J PROGRAM

    93. Senator Hutchinson. Secretary Roche, I want to compliment you 
on the tremendous job you did on getting the C-130J program on track. 
Prior to last year, this was a program riddled with problems ranging 
from an erratic procurement strategy to problematic fielding schedules. 
It was your leadership, along with other senior uniformed members of 
the Air Force, that finally brought some order to this program that is 
so important to the Air Force's mission.
    In particular, the Air Force has made a significant step in 
recommending funding in this year's budget submission for a multiyear 
procurement of C-130Js. As you go forward with this procurement 
strategy, I would only want to remind you of the importance of ensuring 
that our pilots receive the high quality training they require. I was 
heartened that the budget submission also includes significant 
investment to establish the C-130J formal training unit at Little Rock 
Air Force Base. As the Air Force updates its C-130J fielding plan, are 
you committed to ensuring that an adequate number of aircraft are 
designated for training purposes?
    Secretary Roche. The Air Force is committed to making sure the 
right numbers of aircraft are available to meet C-130J training 
requirements. A solid training program is paramount to integration of 
the C-130J into the Total Force and we are building a beddown plan that 
reflects the need for trained crews being available as aircraft 
deliver. The specific number of aircraft required to perform this 
training mission is still under study. Little Rock AFB is, and will 
continue to be, the C-130 center of excellence, and is the planned 
location for future C-130J training.

        PROTECTING SOLDIERS FROM CHEMICAL AND BIOLOGICAL WEAPONS

    94. Senator Hutchinson. Secretary White, when U.S. military forces 
were conducting clearing operations in the Tora Bora region (caves) of 
Afghanistan previously occupied by al Qaida, there was concern that our 
forces could be exposed--either accidentally or intentionally--to 
chemical or biological agents. What methods did the soldiers and 
marines use to defend themselves against exposure? What role did the 
anthrax vaccine play in their defense?
    Secretary White. Generally speaking, the troops in Afghanistan are 
equipped with protective masks and other gear to defend against 
exposure to chemical or biological agents. The U.S. Central Command can 
provide specific information on which units were involved, how they 
were equipped, and what tactics they used to avoid exposure.
    On June 5, 2001, the Deputy Secretary of Defense amended the scope 
of the Anthrax Vaccine Immunization Program's (AVIP) implementation to 
include only designated special mission units, manufacturing, and 
Department of Defense research personnel and Congressionally mandated 
anthrax vaccine research. At present, the anthrax vaccine is only 
provided to personnel meeting these criteria until the AVIP resumes 
full implementation. Since the information is currently classified, I 
am not able to provide in an open forum which units in Afghanistan 
received the anthrax vaccine.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                         UTILITY OF OLDER SHIPS

    95. Senator Sessions. Secretary England, I visited Japan in January 
2002 and received briefs on the U.S.S. Kitty Hawk and one of her 
escorts, U.S.S. O'Brien, shortly after they returned to Japan from 
Operation Enduring Freedom. Both of these ships performed superbly, and 
General Franks testified before this committee last week that the key 
capabilities a carrier battle group brings to the battle are its 
firepower and staying power. Kitty Hawk's use as an Afloat Forward 
Staging Base was a superb example of transformation, and O'Brien fired 
Tomahawks and conducted Maritime Intercept Operations searching for al 
Qaida operatives in support of Operation Enduring Freedom. In fact, the 
Kitty Hawk battle group is scheduled to deploy again in support of 
Operation Enduring Freedom later this spring with her full air wing.
    Would you explain your view on the General Franks' statement 
regarding the key capabilities the Kitty Hawk battle group provided 
during Operation Enduring Freedom, and your assessment of their future 
utility for missions against asymmetric threats?
    Secretary England. Kitty Hawk, on short notice, transitioned to the 
AFSB mission, and was highly effective in that mission. While on 
station in the North Arabian Sea, the Kitty Hawk AFSB provided 
significant support to our Special Operations Forces (SOF):

        (1) Significantly cut the flying distances to the FARP (Forward 
        Area Refueling Position) in Pakistan and the targets in 
        Afghanistan.
        (2) Large flight deck facilitated/expedited launch and 
        recovery, maximizing range and on-station time of helicopters.
        (3) Robust, organic C\4\I infrastructure available for mission 
        planning, situational awareness, and intelligence collection 
        and distribution.
        (4) Increased operational security. Hostile elements could not 
        observe and report on AFSB operations as they could have done 
        had the SOF been located ashore. Since foreign nationals were 
        not needed to provide contractor services on board ship, the 
        assault force was certain mission planning rehearsals and 
        preparations were unobserved. This level of security was vital 
        to maintaining the important element of surprise.
        (5) Secure environment; force protection concerns were greatly 
        reduced.
        (6) Outstanding medical capabilities greatly reduced the 
        distance (time) needed to transport wounded to trauma care and 
        offered superb routine medical care.
        (7) Extensive maintenance infrastructure, useful for intense 
        helicopter maintenance requirements.
        (8) Significant ammunition and fuel stowage capability.
        (9) Excellent habitability features for SOF operators. Some 
        specific examples:

                - Nutritious, sufficient food: forces did not have to 
                acclimate to an unfamiliar cuisine.
                - No contaminated water issues.
                - Beds vs. cots, air-conditioning vs. no air 
                conditioning, plus extensive physical fitness 
                facilities.

    Given the inherent mission flexibility of Navy ships, any of our 
carriers or ``big deck'' (LHAs/LHDs) amphibious ships, as well as 
smaller amphibious ships and surface combatants in smaller scenarios, 
could successfully perform this function depending on the specific 
mission--Sea-based combat strike capability is expected to continue, at 
a minimum, if not increase, as we prosecute terrorists and their 
networks. The Chief of Naval Operations has directed a study of the 
feasibility of acquiring a platform dedicated to providing, among other 
things, an operational capability similar to that provided by Kitty 
Hawk. Independent teams from Naval Sea Systems Command (NAVSEA) and the 
Military Sealift Command (MSC) have explored naval and commercial 
platform options to assess their abilities to meet this requirement. 
NAVSEA's and MSC's combined analysis and their recommendations are 
expected to be briefed in the near future.
    The AFSB mission in support of our Special Operations Forces 
certainly is important, as access to bases ashore become less certain. 
Kitty Hawk did her mission, and did it superbly. Embarked SOF aboard 
ships have the advantages of sovereignty, flexibility, operational 
security, and force protection. It is a potent and proven tactic. 
However, if we continue, the Nation will ultimately need a dedicated 
platform to maintain force integrity and offensive punch.
    The question also recognized the importance of Kitty Hawk's escorts 
to the war effort, and I want to expand on their pivotal contributions. 
In the past two decades, Navy ships and operational concepts have 
evolved to incorporate new capabilities. Tomahawk is distributed 
throughout the force, increasing the number of strike platforms from 14 
in 1982 to over 140 today. While the strike capabilities of our Navy 
forces certainly are important, Kitty Hawk's two surface escorts also 
performed other vital Global War on Terrorism missions, such as 
Maritime Interception Operations (MIO). Specifically, there are two 
types of MIOs: standard interception operations in which suspect ships 
are boarded and inspected for contraband or illegal cargo, and 
Leadership Interception Operations (LIO)--a focused MIO--specifically 
directed against terrorist leadership, in this case the al Qaida and 
Taliban regime, attempting to escape by sea.

    96. Senator Sessions. Secretary England, it would also be helpful 
to hear your comments on lessons learned as we assess the future 
utility of some of the Navy's aging ships. I would like to point out 
that this is an issue that Senator Kennedy and I are focusing on and 
will have a letter to you and the CNO asking you to look into four 
focus areas for getting the most out of the ships we do have.
    Secretary England. The primary lesson learned is that significant 
investment in modernization is required to keep ships serviceable and 
retain them to the end of their full service life. In a fiscally 
constrained environment, Navy must balance between transforming and 
building the future Navy to meet emergent warfighting requirements, and 
operating the current force to meet existing missions, while remaining 
within the President's budget.
Force Structure:
    New ship procurement decisions dominate force structure 
recapitalization, yet the retention or decommissioning of ships has the 
greatest near-term impact on force structure size and composition. The 
key element in decisions to extend or contract the service life of a 
ship class is affordability versus capability.
Service Life Considerations:
    The service life of our warships has a significant impact on force 
structure. Extending service life by delaying decommissionings can 
maintain or increase force structure and, correspondingly, accelerating 
decommissioning can reduce force structure. The decision to extend or 
accelerate decommissioning of a ship class is based on a cost/benefit 
analysis focusing on the affordability of the platform and what 
warfighting capabilities it brings to the Joint Commander's tool box. 
In some cases, such as Ticonderoga (CG 47) class cruisers and Perry 
(FFG 7) class frigates, it is considered prudent to invest in 
conversion and modernization of ships to extend their service life. In 
other cases, such as Spruance (DD 963) Class destroyers, it is more 
economical to decommission the ships.
Historical Service Life vs. Estimated Service Life:
    Sophisticated combat systems must keep pace with advancing threat 
technology. As the combat systems and the hull, mechanical and 
electrical (HM&E) systems of a platform age both must be maintained and 
upgraded, but the combat systems upgrades tend to be more extensive and 
expensive. Additionally, as ships age, the cost of operating and 
maintaining the ships may increase as a function of the overall 
material condition of the vessel. For example, if a ship has deferred a 
number of maintenance actions over the course of its operating life, 
and has had a high operational tempo, the cumulative effects on the 
ship can lead to higher operating and maintenance costs. This must be 
considered in investment decisions. In making service life decisions, 
warfighting capability gained from an upgrade is balanced against the 
cost of the upgrade and the operations and maintenance cost of the 
ship. Unless modernized, a surface combatant's Historical Service Life 
(HSL) is shorter than the Estimated Service Life (ESL) established via 
current Navy policy and design specification requirements provided to 
shipbuilders. For destroyers, HSL is 20 years compared to an ESL of 35 
years. In the case of frigates, HSL is 20-22 years compared to an ESL 
of 30 years.
Cruiser Conversion:
    The Navy has made the commitment to extend the service of our 
primary air defense platforms through the conversion program for CG 47 
Class cruisers. The program will upgrade the AEGIS combat systems and 
install warfighting improvements including Area Air Defense Commander 
(AADC) capability, upgrades to the AEGIS Baseline to accept Sea Based 
Ballistic Missile Defense capability (pending Missile Defense Agency 
(MDA) approval and funding of development), land attack, and force 
protection. Additionally, service life extension features include Smart 
Ship upgrades, the all electric alteration, weight and moment 
adjustments, and other distributive systems improvements. Modernizing 
these ships will make them more capable to project theater-wide offense 
and defense while providing up to an additional 20 years of service 
life beyond the HSL of 17 years.
Frigate HM&E and Self Defense Upgrades:
    In the fiscal year 2003 budget submission, FFG 7 Class frigates 
will receive HM&E upgrades to reduce their operating costs and extend 
their service life. Additionally, the combat systems will be upgraded 
with selected ship self defense technology. These ships with their 
relatively small crew size and low operating costs provide affordable 
warfighting capability for the investment required.
Amphibious Assault Ship Sustainment:
    The requirement for amphibious ships is driven by two factors, the 
Amphibious Ready Group (ARG) deployment cycle and Marine Corps lift 
requirements. Today's 12 ARGs are the minimum required to meet presence 
requirements and each ARG consists of an LHA/LHD, LPD, and LSD. Overall 
lift is currently below the 2.5 Marine Expeditionary Brigade (MEB) lift 
programmatic goal and the full requirement of 3.0 MEB lift. Austin (LPD 
4) Class ships will be required to serve an average of 41.5 years, well 
beyond their original ESL of 30 years, in order to meet amphibious 
requirements until the LPD 17 class ships are delivered to the fleet. 
We are funding the LPD 4 Class Extended Sustainment program, which is 
designed to improve the dependability of HM&E systems and living 
conditions for the Sailors and embarked Marines. Additionally, it is 
expected that LHAs with their mid-life upgrade will be required to 
serve a median 42 years, significantly beyond their ESL of 35 years, 
before being replaced by the LHA(R) ships currently being studied.
Destroyer Decommissionings:
    DD 963 Class destroyers are expensive to maintain because of their 
large crew size and age while providing only limited warfighting 
capability. These ships received an earlier modernization with the 
introduction of the Vertical Launch System (VLS), which extended the 
combat system relevant life beyond the historical 20 years. However, 
while the ships still provide some warfighting capability with two 5'' 
54 cal. guns and an Antisubmarine Warfare (ASW) suite, the higher 
manning requirements and operational costs do not justify additional 
funds for further modification or extended service life. New BURKE (DDG 
51) Class destroyers being introduced to the fleet provide 
substantially more combat capability and an ample number of VLS tubes 
to support current Tomahawk inventory. It is not cost-effective to keep 
the DD 963 Class in the inventory. The currently structured 
decommissioning schedule will save the Navy about $1.25 billion over 
the Future Years Defense Program (FYDP) that can be applied to 
transformational efforts such as electric drive, advanced networks and 
stealth technology bringing new warfighting capabilities to the fleet.

                      ADEQUACY OF FORCE STRUCTURE

    97. Senator Sessions. Secretary White, Secretary England, and 
Secretary Roche, the Quadrennial Defense Review (QDR) described the 
force structure required to carry out the defense policy goals of: 1) 
assuring allies and friends; 2) dissuading future military competition; 
3) deterring threats and coercion against U.S. interests; and 4) if 
deterrence fails, decisively defeating any adversary. The QDR further 
stated that as the ``transformation effort matures . . . DOD will 
explore additional opportunities to restructure and reorganize the 
Armed Forces.'' Does your service's budget request support the QDR 
force structure? If not, what transformation efforts will enable you to 
go below the QDR force levels?
    Secretary White. The QDR-directed force structure did not change 
the current Army end strength of 1,035,000 with 480,000 in the active 
Component (417,000 Force Structure Allowance (FSA) and 63,000 
transients, trainees, holdees, and students), 350,000 in the Army 
National Guard (384,000 FSA); and 205,000 in the Army Reserve (212,000 
FSA). The FSA provides for 18 combat divisions in the Army today--10 
Active and 8 National Guard. Our budget submission provides for this 
force and fully supports the levels outlined in the QDR Report.
    The fiscal year 2003 budget adequately funds all of the Army's 
known Interim and Objective Force Transformation requirements. First, 
the budget and its associated Future Years Defense Program (FYDP) funds 
the procurement of six Interim Brigade Combat Teams and its equipment. 
Next, the Army is funding over $8.5 billion in the FYDP for science and 
technology, more than 97 percent of which is focused on Objective Force 
technologies. In order to fund these requirements, the Army has 
accepted risk by underfunding the modernization requirements of the 
current Legacy Force. Over the past 3 years, we have terminated 29 
programs to garner over $8.2 billion in savings. As the Army moves 
forward with Transformation, it will have to make more tough funding 
decisions, and where possible, seek additional funding from Office of 
the Secretary of Defense and Congress.
    Secretary England. The Quadrennial Defense Review Report listed the 
current force structure of the Navy and Marine Corps as a baseline from 
which the Department will develop a transformed force. The fiscal year 
2003 Budget Request supports maintaining this force structure with the 
following exceptions:
    Active Surface Combatants fall below the baseline level of 108 
across the FYDP:

----------------------------------------------------------------------------------------------------------------
                                                                           Fiscal Years
                                                ----------------------------------------------------------------
                                                     2003         2004         2005         2006         2007
----------------------------------------------------------------------------------------------------------------
Active Surface Combatants......................         101           99           96           99          103
----------------------------------------------------------------------------------------------------------------

    Attack Submarines fall below the baseline level of 55 from fiscal 
year 2003 to fiscal year 2006:

----------------------------------------------------------------------------------------------------------------
                                                                           Fiscal Years
                                                ----------------------------------------------------------------
                                                     2003         2004         2005         2006         2007
----------------------------------------------------------------------------------------------------------------
Attack Submarines..............................          54           54           54           54           55
----------------------------------------------------------------------------------------------------------------

    Navy's fiscal year 2003 budget request focuses on funding 
requirements in personnel and operational accounts to support our 
current readiness to conduct a full spectrum of joint military 
activities. Top priority on funding current readiness was a matter of 
choice justified by the ongoing war effort. Even so, high on the list 
of unaffordable requirements is an attack submarine refueling overhaul 
that would increase the inventory to 55 from fiscal year 2004 out, and 
additional DDG-51 procurement that would bolster the surface combatant 
force structure.
    We have also decided to divest ourselves of older, less capable 
ships by retiring them in order to free resources that can be used to 
fund transformational capabilities on the remaining ships and 
submarines of the fleet. The impact on force structure requirements of 
the improved capabilities brought by, for example, programs funded in 
the fiscal year 2003 President's Budget such as Cooperative Engagement 
Capability (CEC) and Trident SSGN conversion is still being studied. 
CEC provides a revolutionary new capability, allowing surface and air 
platforms to share and fuse sensor information. This will allow Aegis 
ships to engage contacts beyond the sight of onboard sensors resulting 
in a dramatic enhancement in the total force capability to track in a 
jamming environment. The Trident SSGN program converts four Ohio class 
SSBNs to SSGNs. Available for operational use starting in 2007, these 
SSGNs provide unique Special Forces capabilities, including hosting the 
Advanced SEAL Delivery System (ASDS), and large-scale strike 
capabilities in one clandestine, survivable platform. SSGNs will also 
serve as a transformation ``bridge'' for submarine encapsulation of 
joint payloads and will provide the volume for experimentation and 
development of offboard sensors and vehicles.
    Secretary Roche. In the last decade, DOD has undergone three major 
reviews beginning with the Bottom Up Review. During these reviews, Air 
Force reduced its force structure to a little more than half of what it 
was in aircraft, people and units. But, the Nation's leaders asked the 
Air Force to do more, much more, nearly four times more than our 
assessments predicted. The Air Force responded with the Expeditionary 
Aerospace Force (EAF) concept remaking itself and becoming more 
flexible and stable in the process. The EAF has at its core an entirely 
new way of doing business using 10 separate Aerospace Expeditionary 
Forces (AEFs) in a rotational concept. The past decade demonstrated 
that air and space power's inherent characteristics of speed, range, 
and flexibility made it the force of demand in the new security 
environment. The Air Force continues its transformation journey to meet 
the requirements of the new defense strategy.
    This strategy also provided a new approach in assessing force 
structure and shifted the force sizing paradigm. As part of the change, 
Secretary Rumsfeld asked the services to create and implement a 
capabilities based plan and as part of that plan, decide how to 
recapitalize themselves. These plans are extremely important as we make 
decisions about organization, concepts and system procurement. Cost per 
unit was often used as a measure of merit in making such decisions. But 
a more accurate measure of merit that captures the real value or 
capability of a particular system is cost per target engaged or, better 
yet, cost per effect desired. We are building a recapitalization plan 
which will be a balanced sustainable portfolio of platforms and ages. 
But we are not thinking just in terms of platforms. We are thinking in 
terms of overall capability provided by each platform, not simply what 
it was originally designed for. As an example we are looking at our 
tanker fleet, now as a smart tanker fleet by incorporating C\2\ISR 
capabilities on the platforms with refueling capabilities. Another 
example would be the development UAVs in the C\2\ISR/Hunter Killer 
mode, thus allowing us to radically shorten the kill chain. We think 
these are examples of incorporating the transformational character of 
air and space power to radically redefine our Nation's strategic and 
operational alternatives for military success in this dangerous world.

                    OVERDUE ATTACK SUBMARINE REPORT

    98. Senator Sessions. Secretary England, Sections 123 and 124 of 
the fiscal year 2001 Authorization bill require the Secretary of 
Defense to submit two reports on attack submarines. The first report is 
a plan to maintain at least 55 attack submarines and the second is on 
production rates for Virginia-class submarines. Both reports are 
overdue by more than a year and are key for our deliberations regarding 
the Navy's new construction request.
    Has the Navy completed their portion of these reports and do you 
know when they will be submitted to the congressional defense 
committees?
    Secretary England. The Secretary of the Navy is continuing to work 
with the Office of the Secretary of Defense (OSD) to complete these 
reports for submission in support of the Congressional review of the 
PB03 budget. The reports were initially drafted by the Navy during 
Congress, PB02 deliberations and the Department of Defenses' 
preparation of the PB03 budget. The reports were revised to accurately 
reflect PB03 decisions. The reports are currently being reviewed by the 
Department of the Navy and will be forwarded to OSD for final approval 
and submittal to the congressional defense committees.

                  DEPLOYABLE JOINT COMMAND AND CONTROL

    99. Senator Sessions. Secretary England, the QDR stated the 
pressing need for a Deployable Joint Command and Control center. The 
Secretary of Defense's testimony before this committee last week 
indicated that this budget request included $40 million for a program 
for new land- and sea-based joint command and control centers.''
    What is the Navy's share of that $40 million fund and what is your 
vision on the future of Navy command and control ships?
    Secretary England. The $40 million in question (actually $39.8 
million as submitted in the President's Budget) represents RDT&E 
funding specifically added to the Navy's TOA to initiate the effort 
known as the Deployable Joint Command and Control (DJC\2\) system. 
DJC\2\ will be a joint program with the Department of the Navy as the 
Executive Agent, and is presently in the definition stage. The Joint 
Requirements Oversight Council approved the DJC\2\ Mission Needs 
Statement in February 2002. DJC\2\ is envisioned to provide Joint Force 
Commanders with a deployable joint Command and Control (C\2\) system to 
fully command, control and direct CINC and Joint Task Force (JTF) 
operations. DJC\2\ will provide this capability for the envisioned 
Standing JTF headquarters staffs (about 250 personnel) in a set of 
collapsible shelters or transportable vans. The communications 
infrastructure, capability and support functions are to be provided 
separately by the respective service component(s). DJC\2\ is envisioned 
to provide the land- and sea-based joint C\2\ functionality that can be 
easily relocated as tactical situations require, and provide this 
functionality when component commanders transition ashore from afloat. 
DJC\2\ functionality is intended to be present in the Joint Command and 
Control [JCC(X)] Mission System core.
    Navy command ships currently provide worldwide, forward deployed, 
and robust joint C\4\I capability without the limitations inherent with 
fixed shore sites. This capability is consistent with the QDR and its 
emphasis on forward deployed, robust command and control. The Navy's 
new JCC(X) program will provide up to four ships to replace today's 
command ship capability which will reach their ship service life by the 
end of the decade. The JCC(X) ship with its integrated Mission System, 
provides the C\4\I, collaborative workspaces, information 
infrastructure, communications capability as well as habitability 
spaces to support the Joint Forces Commander, complementary Component 
Commanders, coalition as well as providing for the numbered fleet 
commander and staffs. The Navy leadership is currently assessing 
alternative platform approaches to meet the JCC(X) Mission Needs 
Statement.
    The JCC(X) and DJC\2\ programs are separate, yet complementary 
efforts. While they both must be interoperable and support the CJTF HQ 
function, the JCC(X) Mission System also supports the operational and 
tactical functions associated with Naval Forces afloat and the Numbered 
Fleet Commander and staff. DJC\2\ plans to have its first variant 
available to support PACOM operations by 2005, while JCC(X) initial 
ship delivery will not be until 2011. JCC(X) will leverage on the 
DJC\2\ development and support its functionality within the JCC(X) 
Mission System to provide the very necessary capability for the CJTF 
and the Component Commands and Staffs around the world, regardless of 
on land, at sea, or in the air.

                       AVIATION FLIGHT SIMULATORS

    100. Senator Sessions. Secretary White, in your opening statement 
you said that the Army must ``fully modernize training ranges, combat 
training centers, and training aids, devices, simulators, and 
simulations to provide adequate and challenging training.'' I have been 
thoroughly impressed with the performance of Army aviation during 
Operation Enduring Freedom and can offer well-deserved praise to the 
professionals at the home of Army aviation in Fort Rucker, Alabama. One 
item I observed during a recent visit to Fort Rucker was an urgent 
requirement for advanced simulators and advanced simulator technology. 
Do you feel that the requirement for more advanced simulators is 
adequately addressed in this budget?
    Secretary White. In short, no. Under the Army's Transformation 
guidance, Fort Rucker redesigned flight school to produce a more 
combat-ready aviator for the field. The analysis of simulation 
requirements indicates an immediate need for an estimated 24 TH-67 High 
Fidelity Flight Simulators for initial entry students and 24 
reconfigurable Advanced Aviation Institutional Training Simulators 
(AAITS) for advanced aircraft training. AAITS will also support virtual 
and constructive training for officer professional development courses 
as well as collective training for Active, National Guard, and Army 
Reserve aviation task forces preparing for operational deployments. 
Funding for this requirement is not addressed in the current budget.
    The high cost of these technologically advanced devices, combined 
with their immediate need, creates procurement obstacles under the 
Federal Acquisition Regulation. Statutory changes to procurement laws 
are required to execute the preferred strategy of a Privately Funded 
Initiative or Public Private Partnership. The most advantageous 
business solutions to the government and the taxpayer leverage 
commercial, up-front capital investment offset by long-term contract 
agreements greater than 5 years.

                      DOMESTIC SPACE LAUNCH POLICY

    101. Senator Sessions. Secretary Roche, the Air Force was 
designated by the Secretary of Defense as the executive agent for space 
in 2001. In your opening statement, you said that this means that the 
Air Force is responsible for Department of Defense-wide ``planning, 
programming, and acquisition of space systems.'' One of the fundamental 
goals of the national space policy is assuring reliable and affordable 
access to space through U.S. space transportation capabilities. The 
policy directs that U.S. government payloads be launched on space 
launch vehicles manufactured in the United States unless exempted by 
the President or his designated representative. One of the programs you 
identified in your opening statement that is designed to meet the 
future launch demands of national security, civil, and commercial 
payloads is the Evolved Expendable Launch Vehicle (EELV). The Atlas V 
program that is being proposed for the EELV utilizes a Russian-designed 
and Russian-built RD-180 engine for propulsion.
    It is my understanding that the EELV engineering and manufacturing 
contract was awarded in October 1998 and that the Department agreed to 
allow a Russian engine to be used in the development only if a U.S. 
manufacturing capability was developed within 4 years of the contract 
being awarded. That 4 years is up in October of this year. Can you tell 
me what progress has been made with developing a U.S. production 
capability?
    Secretary Roche. The license agreement necessary to begin the 
transfer of the manufacturing data from the Russian company (NPO 
Energomash) to the U.S. company (United Technologies, Pratt & Whitney) 
took 18 months to get through the U.S. Government approval cycle. The 
license agreement is currently awaiting approval by the Government of 
Russia. We anticipate approval in late March, after which the data will 
begin to flow. The revised U.S. co-production schedule will provide the 
capability to produce U.S. built engines by 2008. AF has requested an 
extension from the DOD. We are managing the risk of relying on Russian 
built engines by stockpiling enough engines to launch all U.S. 
Government Atlas V missions on contract.

                             ATLAS V LAUNCH

    102. Senator Sessions. Secretary Roche, I also understand that the 
first Atlas V launch is scheduled for fiscal year 2004 with a 
classified payload. Is it still U.S. policy to assure our access to 
space through space launch vehicles manufactured in the United States?
    Secretary Roche. The first Atlas V will fly this summer with a 
commercial payload. The first U.S. Government payload on an Atlas V, 
Wideband Gapfiller Satellite #2, will fly in November 2004 (fiscal year 
2005). A May 1995 DOD policy directive requires national security 
payloads to be launched on space launch vehicles manufactured in the 
United States. The same policy allows the use of engines manufactured 
in nations of the Former Soviet Union if we have sufficient quality and 
quantity of stocks to preclude a launch stand-down during transition to 
U.S. sources. The Atlas V RD-180 main engine is built in Khimky, 
Russia. Therefore, the Air Force requires Lockheed Martin to stockpile 
engines as an interim risk mitigation measure during the conversion to 
U.S. production.

                 DEPARTMENT OF THE ARMY REORGANIZATION

    103. Senator Sessions. Secretary White, I am greatly concerned 
about one aspect of the Department's reorganization: the Army Review 
Boards Agency and the Army Board for Correction of Military Records. 
Over the last 5 years I have relied on the Department's assistance many 
times. This includes the work and assistance of the men and women 
assigned to the Office of Congressional Liaison, the Army staff for 
program information, field commanders, and specifically the Army Review 
Boards Agency (ARBA) and the Army Board for Correction of Military 
Records. The ARBA has, on multiple occasions, assisted my constituents 
to the point that I am stunned the Department would consider action 
resulting in the elimination of 31 spaces. Such action I think is not 
only in violation of the 1999 National Defense Authorization Act 
(NDAA), but sets you up for Congressional criticism when you fail, as 
you will, to meet Congressional suspenses. Will you reconsider planned 
action and take heed of the language that the committee expects you to 
``provide the manpower, equipment and fiscal resources necessary to 
ensure that the boards are able to meet the timeliness standards?''
    Secretary White. I agree with you that the agencies you mentioned 
do a tremendous job for our soldiers and families. However, I would 
like to clarify I have not yet directed a reduction of the manpower in 
ARBA. I did request that the Assistant Secretary of the Army (Manpower 
and Reserve Affairs) analyze a reduction from 132 people to 100 to 
determine if ARBA can maintain the congressionally-mandated standards 
for responding to requests for review of military records at decreased 
manpower levels. This analysis should include investment costs in 
technological equipment and other available means for ensuring 
compliance with the 1999 NDAA and congressionally-mandated suspenses. 
Reductions of this nature are required in activities of the Army to 
meet the congressionally-mandated Headquarters management account 
reduction of 15 percent, also mandated in the 1999 NDAA. I will not 
approve any reductions that would cause the Army to break the 300-day 
processing threshold.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                    NAVY INTELLIGENCE IN THE FUTURE

    104. Senator Collins. Secretary England, you state the importance 
of operations in the intelligence domain and cite an example of Navy P-
3 aircraft guiding Special Operations Forces and Marine units on the 
ground in your testimony.
    What manned Navy Intelligence, Surveillance and Reconnaissance 
(ISR) capabilities do you plan for the future? With the increased 
OPTEMPO of the P-3 rapidly diminishing its service life, do you see any 
advancement in the procurement of its replacement?
    Secretary England. The Multi-Mission Maritime Aircraft (MMA) is 
planned to be the permanent solution addressing the Intelligence, 
Surveillance and Reconnaissance (ISR), Antisubmarine Warfare (ASW), and 
Anti-Surface Warfare (ASUW) missions while sustaining the Maritime 
Patrol and Reconnaissance (MPE) inventory through the middle of the 
21st century. MMA achieved a successful acquisition Milestone 0 (MS 0) 
March 22, 2000 and subsequently entered the Concept Exploration phase 
in July 2000. In January 2002 the MMA Acquisition Strategy Plan and 
Analysis of Alternatives received approval from USD AT&L, which allowed 
the MMA program to proceed into the Concept, Advanced Development 
Phase. Attaining these milestones continues MMA on a schedule to meet a 
2012-2014 IOC.
    The MMA Initial Operational Capability (IOC) has been accelerated 
from the original IOC of 2015 to the current 2012-2014 timeframe. 
Beginning in fiscal year 1999, a Service Life Assessment Program (SLAP) 
was undertaken, which will provide the analytical and empirical 
information required to accurately determine P-3/EP-3 fatigue life. 
Special Structural Inspections (SSIs), based on SLAP results, will be 
conducted on applicable airframes once they reach 100 percent fatigue 
life expended (FLE). Aircraft under this inspection and repair plan 
should be able to attain 130 percent FLE, thereby sustaining the 
operational MPR force until MMA is fully operational. The Global War on 
Terrorism will have an impact of P-3 and EP-3 fatigue life. We are 
monitoring this situation closely and factoring any impact into our 
decisions regarding the required timeline for replacing these aircraft.

                       FORCE STRUCTURE REDUCTION

    105. Senator Collins. Secretary England, the fiscal year 2003 
proposed budget will reduce our force structure by 2 amphibious warfare 
ships, 1 combat logistics ship, 1 mine warfare ship, and 42 active 
aircraft. What impact do you anticipate that this force structure 
reduction will have on the Operations TEMPO (OPSTEMPO) and the 
Personnel TEMPO (PERSTEMPO) of our fleet?
    Secretary England. The proposed fiscal year 2003 budget will reduce 
the force structure by two amphibious warfare ships, one combat 
logistics ship, one mine warfare ship, and 42 active aircraft. This 
reduction in the number of ships and aircraft will have minor impact on 
Personnel TEMPO (PERSTEMPO) and Operations TEMPO (OPSTEMPO) for the 
remaining force. Planned and on-going operations are the primary 
drivers for PERSTEMPO and OPSTEMPO changes. The global war on terrorism 
is currently the primary worldwide operation causing increases in the 
PERSTEMPO and OPSTEMPO of Naval forces.

    106. Senator Collins. Secretary England, further, what impact will 
these reductions have, specifically on our lift capability?
    Secretary England. The current active amphibious fleet exceeds the 
2.5 MEB AE lift threshold in all areas except that of vehicle square--
currently at 2.07 MEB AE. Vehicle square will be reduced to 2.01 MEB AE 
with the planned reductions in force structure.

    107. Senator Collins. Secretary England, a former CNO has testified 
before this committee that the Marine Expeditionary Brigade (MEB) lift 
capability would not fall below 2.5 MEBs.
    Will the proposed reductions in force structure take that MEB lift 
capability below 2.5?
    Secretary England. The current active amphibious fleet exceeds the 
2.5 MEB AE lift threshold in all areas except that of vehicle square--
currently at 2.07 MEB AE. Vehicle square will be reduced to 2.01 MEB AE 
with the planned reductions in force structure.

                   INVESTMENTS IN BATTLING TERRORISM

    108. Senator Collins. Secretary White, given the high utilization 
of special forces in Operation Enduring Freedom, and based on the 
lessons that we have learned thus far in fighting this global war on 
terrorism, do you see the need to accelerate investments in monitoring 
and detection of chemical and biological agents, the protective gear 
for our service men and women?
    Secretary White. U.S. forces, including special forces operating in 
support of Enduring Freedom, are equipped with the finest chemical/
biological (CB) defense equipment available. Research and development 
is ongoing within the President's budget to address outstanding need 
for lighter weight, hand-held, and stand-off detectors capable of 
providing real-time indications of the presence of CB agents, as well 
as specific type and concentration levels.
    Early lessons learned from the war on terrorism indicate that 
special forces in particular require detection equipment with greater 
sensitivity and better interferent rejection than available in current 
systems. Investment in improved chemical defense equipment remains 
critical; however, investments in vaccines, biological agent detectors, 
and systems that combine biological and chemical detection require 
greater emphasis. The President's budget also funds research and 
development of new protective masks and garments. These are more 
durable and logistically supportable across today's global battlefield 
and more suited to modern threats and threat environments. CB defense 
command, control, and communication equipment and technologies to 
safely decontaminate buildings, large areas, and sensitive equipment 
are being pursued. The Defense Department's ability to accelerate work 
and/or procurement in any of these mission areas could be dependent on 
a number of factors, such as availability of technology, adequate 
funding, or industrial base/manufacturing capability.

                   INVESTMENTS IN BATTLING TERRORISM

    109. Senator Collins. Secretary White, what other areas of 
investments do you see as necessary to operate in the asymmetric 
environment?
    Secretary White. The Army continues to identify specific emerging 
requirements for homeland defense and the global war on terrorism, to 
include operations in asymmetric environments. Our analysis has taken 
on increasing importance and immediacy. It is already clear that we 
must continue to fund elements for enhanced force protection such as 
Weapons of Mass Destruction-Civil Support Teams for crisis response, 
equipment for installation physical security, as well as other anti-
terrorism, physical security, and counter-terrorism programs. We need 
continued investment in improved information assurance and critical 
infrastructure protection programs. These programs also invest in 
securing the homeland, improve situational awareness, improve command 
and control, and increase our worldwide posture against terrorism.

                         MULTIYEAR PROCUREMENT

    110. Senator Collins. Secretary White, in your advance questions, 
you address the issue of delays in the acquisition process and the 
impact of those delays on stability in acquisition programs. As you may 
know, this committee took the lead last year to authorize a follow-on 
DDG-51 shipbuilding multiyear procurement for the period fiscal year 
2002 through fiscal year 2005 at the sustained rate of three ships per 
year. Could you comment on the benefits of utilizing multiyear 
procurement in mature programs, such as DDG-51, and the importance once 
a multiyear process has been initiated to sustain it for further 
requirements in order to continue to gain maximum cost efficiencies and 
other industrial base benefits that result from program stability?
    Secretary White. The Army has used multiyear procurements for 
several of our mature programs, such as the UH-60 Black Hawk and the 
AH-64 Longbow Apache helicopter programs. Multiyear contracting is 
important to the Army because it leverages our available procurement 
funds and provides the government significant cost savings over the 
best prices available by contracting in annual increments. Multiyear 
related cost avoidance provides funds that will be used to bolster 
other critical modernization efforts.
    The multiyear process stabilizes the contractor workforce and 
provides increased incentives to contractors to improve productivity 
through investment in capital, facilities, equipment, and advanced 
technology. In addition, it provides a broader competitive base with 
opportunity for participation by firms not otherwise willing or able to 
compete for lesser quantities, particularly in cases involving high 
startup costs. Typically, suppliers will provide price discounts to 
lock in business. Given a 5-year contract, suppliers can develop 
innovative processes and justify capital investments necessary to 
reduce costs.
    Multiyear contracts provide a stable environment in which the 
industrial base can grow stronger. As a result, the major and critical 
subcontractors are able to build components at, or near, commercial 
prices. Through multiyear contracting, it becomes affordable to qualify 
dual sources for critical lower-tier suppliers, increasing competition 
and reducing risk. The long-term commitment permits better planning for 
capital investments, and more efficient production of economic lot 
quantities. This helps the many small suppliers by allowing them to 
make cost-effective decisions on a longer-term basis.
                                 ______
                                 
               Questions Submitted by Senator Jim Bunning

                          ARMY TRANSFORMATION

    111. Senator Bunning. Secretary White, the Army has forcefully 
argued for the need for transformation. You are in the process of doing 
that now. How can you begin to make resource requests and procurement 
decisions about transformation programs in the absence of an updated 
national security strategy and national military strategy that formally 
outlines the missions and tasks that your services will be responsible 
to resource?
    Secretary White. There is general consensus on the dangerous and 
complex nature of the evolving international security environment, and 
by implication, the types of missions the Nation will assign to its 
Armed Forces. This consensus is grounded on and confirmed by a variety 
of detailed analyses of the threats and challenges likely to require 
the decisive application of full-spectrum landpower, as part of a 
joint, interagency and multinational team.
    The 2001 Joint Strategy Review, the 2001 Quadrennial Defense Review 
(QDR) and ongoing deliberations for the development of the new National 
Military Strategy all point to a complex strategic environment 
populated by a diverse set of hostile actors. These actors range from 
rogue states to violent transnational terrorists and criminal 
organizations--groups whose interests, values, capabilities, and 
methods will perpetually threaten the Nation's interests, as well as 
those of our friends and allies.
    Further, the QDR is explicit in outlining the urgency for 
Transformation, including six critical operational goals. The QDR 
report supports the fielding of Interim Brigade Combat Teams and 
accelerating development of the Objective Force. DOD's commitment to 
Transformation necessitates prioritizing funding for both Objective 
Force research and development and Interim Force procurement--an 
essential step in our Transformation strategy. One need only look at 
the ongoing operations in the war on terrorism to understand the 
increasing and persistent demand for robust, decisive land forces.
    While no planning document will encompass all the demands of an 
unpredictable and evolving environment, all underscore the requirement 
to transform to more responsive, deployable, agile, versatile, lethal, 
survivable, and sustainable land forces capable of dominating the full-
spectrum of threats and challenges from peace to war.

                          ARMY TRANSFORMATION

    112. Senator Bunning. Secretary White, you are asking for a lot of 
money this year. What are you asking for that will help us do a better 
job fighting the war against terrorism?
    Secretary White. The budget we submitted is a balance of programs 
that will enable the Army to fight and win across the spectrum of 
conflict without undue risk at any point. In that context, the totality 
of the budget enables us to do a better job of fighting and winning 
this and future wars. But more to your point, we have placed a renewed 
emphasis on improving situational awareness, force protection, command 
and control, worldwide posture, and our ability for crisis response, 
which are reflected in this budget. An early result of our post-
September 11 resource evaluations was to immediately adjust these Army 
programs in the budget.

    113. Senator Bunning. Secretary White, how much of your total 
budget request is that?
    Secretary White. We and the other Services are actively engaged 
with the Department of Defense in defining requirements for anti-
terrorism that include force protection at home and abroad, as well as 
measures that directly support the warfight. The Department is 
compiling a separate budget exhibit to document the requirements, and 
it should be submitted shortly. Our portion of the fiscal year 2003 
budget that directly supports the war on terrorism will be included in 
that exhibit. Our preliminary estimate for funding the war totals less 
than $2 billion in preparation costs, plus the cost of deployment and 
mobilization operations.

    114. Senator Bunning. Secretary White, most of the talk about Army 
Transformation has focused on replacing heavy equipment such as tanks 
and infantry fighting vehicles. What role will lighter units such as 
the airborne and air assault divisions have in the Army's 
Transformation plan?
    Secretary White. The first phase of Transformation has been an 
interim step to fill a capabilities gap between our light and heavy 
forces. This is proceeding well, and the first interim capable task 
forces will be available to the Army within the next year. In addition 
to filling the capabilities gap, this interim transformation is 
designed to capture the lessons learned on processes to enable the Army 
to transform to the Objective Force. The Army is on an aggressive 
science and technology development schedule designed to bring this 
capability into the force as early as possible.
    The U.S. Army Training and Doctrine Command is currently refining 
the conceptual basis for the Objective Force. In examining requirements 
for Airborne and Air Assault capability, we have validated that the 
need for forced entry capability and battlefield tactical mobility, in 
order to defeat enemy anti-access forces, will remain as core 
requirements. The exact composition of the force that will execute 
those missions is still under both doctrinal examination and subject to 
the results our science and technology program. The Army will keep 
Congress informed at the critical stages of doctrinal and force 
structure development as we transform to the Objective Force.

    115. Senator Bunning. Secretary White, how do you view your new 
role in the mission with homeland security?
    Secretary White. The Department's role in homeland security 
consists of three missions: homeland defense combat operations, such as 
the air sovereignty mission being flown by our fighter aircraft; 
emergency and temporary support to civilian authorities, such as 
augmentation of airport or border security; and emergency preparedness-
preparation to respond in the event of a catastrophic event such as a 
terrorist use of a weapon of mass destruction.

    116. Senator Bunning. Secretary White, has this role disrupted your 
duties as Secretary of the Army?
    Secretary White. Due to the excellent support of my Special 
Assistant and his team in the Department of Defense's Homeland Security 
Office, my Army staff, and numerous OSD offices I have managed to 
balance effectively my expanded responsibilities. However, I look 
forward to seeing ``homeland security'' normalized under a permanent 
office in the Office of the Secretary of Defense.

    117. Senator Bunning. Secretary White, what do you see as your role 
once a homeland security command is formally established?
    Secretary White. I am the interim DOD Executive Agent for Homeland 
Security. On March 8, 2002, the Secretary of Defense signed a 
memorandum directing the Deputy Secretary of Defense to lead a 
transition effort to establish a staff, at the appropriate level within 
the Office of the Secretary of Defense that, when established, will 
assume homeland defense and civil support responsibilities. It is 
likely that the new OSD staff will be responsible for providing policy 
and oversight for the new Northern command. The future role of the 
Secretary of the Army in homeland defense and civil support has not yet 
been determined.

                    DESTRUCTION OF CHEMICAL WEAPONS

    118. Senator Bunning. Secretary White, given the increased threat 
of terrorism, is the Army doing anything to speed up the destruction of 
chemical weapons?
    Secretary White. The Army is constantly evaluating various 
alternatives to safely accelerate the disposal schedule. Recently, the 
Army revised its approach at Aberdeen Proving Ground, Maryland, in a 
manner that promises to eliminate that bulk stockpile up to 3 years 
earlier than previously planned and is currently studying the 
feasibility of a similar effort at Newport, Indiana.
    As other alternatives are developed and approved for other sites, 
they will be implemented.

    119. Senator Bunning. Secretary White, the 2002 Defense 
Appropriations bill requires a report from the Army on how it plans to 
speed up destruction of chemical weapons. That report is due to 
Congress next month. Last month the Army announced that, at least at 
Aberdeen, it was speeding up its destruction of mustard gas. The 
chemical weapons destruction program is years behind schedule and 
billions of dollars over budget. When are we going to get these 
dangerous weapons disposed of?
    Secretary White. The Army is also studying the feasibility of 
accelerating disposal of the bulk VX nerve agent stockpile at Newport, 
Indiana. You may be assured that the Army is working with its 
contractors, responsible government agencies, and all stakeholders to 
identify, approve, and implement technically sound, safe, and 
environmentally compliant solutions to accelerating stockpile 
destruction.
    The currently approved schedule reflects completion of disposal 
operations at six chemical stockpile sites between 2007 and 2011. 
Schedules for the Pueblo, Colorado and Blue Grass, Kentucky sites will 
be provided once the technology decisions for these sites are made. As 
additional measures are developed and approved, the disposal schedule 
will be revised accordingly.

                              SHIPBUILDING

    120. Senator Bunning. Secretary England, we have all seen the 
utility of forward deployed naval forces during the conflict in 
Afghanistan. We also know how thinly stretched all of our military 
forces were, even before September 11. It requires building eight to 
ten ships per year to maintain our fleet at its current size. We have 
not been doing that, so our fleet has been steadily shrinking. In this 
year's budget, we are only building five ships. Same with next year. 
According to the current budget plan, we are supposed to build seven 
ships in 2005 and 2006, and then, finally jump to ten ships in 2007. 
You are asking for a lot of money, but not increasing the number of 
ships we are buying.
    Why not?
    Secretary England. The request for five ships in fiscal year 2003 
and 34 ships across the FYDP provides the best balance between the 
Department's competing requirements and available resources. Priority 
is given to stabilizing the force (to include people) and with that 
done, our attention may then be focused on building the number of ships 
we need to sustain the battle force. While the Department recognizes 
that the build rate of five ships in fiscal year 2003 and approximately 
7 ships per year across the FYDP is insufficient to sustain the current 
fleet size over the long term, we are making substantial investments 
now in programs such as CVN(X), DD(X) family of ships, and SSBN 
conversions to cruise missile carrying submarines (SSGN) providing 
enhanced combat capabilities to the transformed Naval Forces of the 
future.

    121. Senator Bunning. Secretary England, how can we be sure that we 
will actually get to ten ships in 2007 and it won't slip to another 
year or even farther out?
    Secretary England. The most significant way to ensure that we can 
afford the number of ships we need to sustain the force is to control 
the costs of our existing programs and ensure that the budget requests 
for future programs are adequately resourced for the risks presented in 
a low rate procurement shipbuilding environment. To prevent further 
increases to the cost of the Navy's future shipbuilding needs and 
mitigate the impact of the various cost drivers, the Navy is pursuing 
the following corrective actions:

        <bullet> Remedy the systemic issues within our control and 
        incentivize industry partners to do the same.
        <bullet> Ensure that estimating and budgetary processes more 
        closely reflect the cost of risk factors beyond our control.

                           MARINE CORPS NEEDS

    122. Senator Bunning. Secretary England, given that last year's 
restructuring of the DD 21 program into the DD(X) program pushed the 
first scheduled ship back another year, what are your plans to meet the 
Marine Corps' fire support needs in the near term?
    Secretary England. The Navy, in coordination with the Department of 
Defense, restructured the DD 21 program to the DD(X) program on 13 
November 2001 as part of a new future surface combatant integrated 
strategy. This approach will better manage the risk of technology 
maturation and provide transformational capability to a family of 
surface combatants including the DD(X), a future cruiser and a littoral 
combatant. In the newly restructured DD(X) program, ship construction 
of the first ship remains on track for a fiscal year 2005 start and 
fiscal year 2011 delivery.
    Our near term initiatives to meet Naval Surface Fire Support (NSFS) 
requirements include improving existing 5,, guns, developing an 
Extended Range Guided Munition (ERGM), introduction of the Tactical 
Tomahawk (TACTOM) cruise missile, and integration of C\4\I systems to 
support NSFS. The current 5,, 54 gun, used to fire conventional 
ammunition to 13nm, has been improved to accommodate higher energies 
associated with the Extended Range Guided Munition (ERGM). The improved 
gun will achieve Initial Operational Capability (IOC) in fiscal year 
2003 for conventional munitions and fiscal year 2005 for the ERGM. The 
Extended Range Guided Munition will achieve IOC in fiscal year 2005 and 
has an objective range requirement of 63nm. Surface Fire Support to 
ground combat operations takes a significant step forward with 
introduction of the ERGM with its accuracy and range. The Marine Corps' 
long-term requirement to engage targets to 222nm can be met in the near 
term with the introduction of Tactical Tomahawk. TACTOM's loiter and 
enroute re-targeting capabilities provide support over extensive 
maneuver areas. Naval Fires Control System (NFCS) is being installed on 
DDG 81 and following. NFCS reduces NSFS team composition from 13 to 5 
and provides command and control for long-range naval fires. Extended 
range projectiles and TACTOM, coupled with Navy/USMC existing TACAIR 
capabilities, provide near term fire support.

                                VIEQUES

    123. Senator Bunning. Secretary England, yes or no, will you 
authorize live fire training on Vieques if the CNO and Commandant of 
the Marine Corps request it?
    Secretary England. If I was asked by the CNO and Commandant to 
authorize live fire training in Vieques I would consider the request, 
but the answer is not a simple yes/no. There are other issues/factors 
that need to be considered, such as the extent of statutory and 
regulatory environmental compliance that may be required, required 
agency notifications, and the impact on security forces. All of these 
issues must be weighed and addressed in determining how to make the 
most of available resources in support of training that will ensure the 
readiness of our forces to deploy and meet the real world challenges.

                            AC-130 GUNSHIPS

    124. Senator Bunning. Secretary Roche, is it correct that all of 
our AC-130 gunships are over in Afghanistan right now and there are 
none left back here for training?
    Secretary Roche. No, that is not correct. The Air Force has a total 
inventory of 21 AC-130 gunships: 13 AC-130U belonging to the 4th 
Special Operations Squadron, and 8 AC-130H belonging to the 16th 
Special Operations Squadron. Both of these squadrons are assigned to 
the 16th Special Operations Wing, Hurlburt Field, FL. Of the 21, no 
more than 9 were deployed at one time to Operation Enduring Freedom. 
There are 2 AC-130U and 1 AC-130H designated for training.

                            AC-130 PURCHASES

    125. Senator Bunning. Secretary Roche, do you plan to buy more AC-
130 gunships?
    Secretary Roche. Yes I do. Program Decision Memorandum (PDM) IV 
provides funds to convert four C-130H2 to the AC-130U configuration, 
O&M, and personnel. Two of the gunships will be funded from ``cost of 
war'' monies. Because the only C-130H2 aircraft available belong to the 
Air Force Reserve Command and Air National Guard the PDM funds C-130J 
aircraft to replace the four aircraft taken for conversion. This is a 
wise decision because developing an AC-130J would take much longer and 
cost considerably more in RDT&E, and require a new logistics trail that 
would also have to be developed at considerable expense.

                               NATO AWACS

    126. Senator Bunning. Secretary Roche, there are currently NATO 
AWACS aircraft flying over this country to assist in our homeland 
defense, while ours are prosecuting the war against terrorism. If 
another war came up right now, would we have enough of these types of 
aircraft?
    Secretary Roche. If the United States were confronted with another 
war or contingency, we would have to reprioritize the existing missions 
performed by our fleet of AWACS aircraft. Depending on where we are 
confronted with a conflict, the requirement for airborne surveillance 
and command and control could be filled by the most appropriate air or 
ground based system.

                            AWACS PURCHASES

    127. Senator Bunning. Secretary Roche, if not, do you plan to buy 
more AWACS aircraft?
    Secretary Roche. We do not have any plans to procure any additional 
legacy systems. The current fleet of AWACS aircraft is slated for 
continued upgrades to its surveillance and battle management 
capabilities until replaced by a future Multi-Sensor Command and 
Control Constellation. This will allow us to take advantage of air and 
space transformational technologies to meet emerging threats and future 
requirements.

                        HIGH DEMAND, LOW DENSITY

    128. Senator Bunning. Secretary Roche, what other high demand, low-
density items do you plan to address in this year's budget?
    Secretary Roche. The Air Force has requested almost $400 million 
for Special Operations/Combat Search & Rescue Operations, MILCON, and 
Aircraft modifications for the HH-60, HC-130, and C-130.

                           LEASE NEGOTIATION

    129. Senator Bunning. Secretary Roche, why were the authorizing 
committees not consulted when you secured permission from the 
Appropriations Committees to negotiate a lease for 767 tanker aircraft 
from Boeing?
    Secretary Roche. After the events of September 11, both 
Appropriations Committees asked the AF what programs could be 
accelerated. Tanker re-capitalization was one such program that we 
evaluated. Members of the House and Senate asked the USAF to provide 
informational briefings on this re-capitalization option. The briefings 
were based on the notional lease proposal from Boeing. SAF/AQ provided 
it to Members and professional staffers on the SAC, SASC, HAC, and HASC 
during the months of October through Dececember 2001. SAF/AQ also 
briefed the OSD staff, CBO, and OMB.

    [Whereupon, at 1:00 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                 RESULTS OF THE NUCLEAR POSTURE REVIEW

    The committee met, pursuant to notice, at 9:34 a.m., room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Landrieu, Reed, 
Akaka, E. Benjamin Nelson, Bingaman, Warner, Inhofe, Allard, 
and Sessions.
    Committee staff members present: David S. Lyles, staff 
director; Cindy Pearson, assistant chief clerk and security 
manager; and Gabriella Eisen, nominations clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard D. DeBobes, counsel; Richard W. Fieldhouse, 
professional staff member; and Peter K. Levine, general 
counsel.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; L. David Cherington, minority 
counsel; Edward H. Edens IV, professional staff member; Brian 
R. Green, professional staff member; Mary Alice A. Hayward, 
professional staff member; and George W. Lauffer, professional 
staff member.
    Staff assistants present: Dara R. Alpert, Daniel K. 
Goldsmith, and Thomas C. Moore.
    Committee members' assistants present: Erik Raven, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Marshall A. Hevron and Jeffrey S. Wiener, 
assistants to Senator Landrieu; Davelyn Noelani Kalipi, 
assistant to Senator Akaka; Peter A. Contostavlos, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Benjamin L. Cassidy, assistant to Senator Warner; J. 
Mark Powers and John A. Bonsell, assistants to Senator Inhofe; 
George M. Bernier III, assistant to Senator Santorum; Robert 
Alan McCurry, assistant to Senator Roberts; Douglas Flanders, 
assistant to Senator Allard; James P. Dohoney, Jr., assistant 
to Senator Hutchinson; Arch Galloway II, assistant to Senator 
Sessions; Kristine Fauser, assistant to Senator Collins; and 
Derek Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to receive testimony on the results of the 
congressionally-mandated 2001 Nuclear Posture Review (NPR). We 
have the Under Secretary of Defense for Policy, Douglas Feith; 
the Administrator of the National Nuclear Security 
Administration, General John Gordon, USAF (Ret.); and the 
Commander in Chief of the United States Strategic Command, 
Admiral James Ellis, USN. We welcome all three of our 
witnesses.
    After the Cold War, the United States forged a new 
relationship with Russia, including the first strategic arms 
control agreement, the 1991 START I Treaty, a treaty that 
significantly reduced U.S. and Russian nuclear forces. At 
Helsinki in 1997, President Clinton and Russian President Boris 
Yeltsin pledged that following the entry into force of START 
II, with its additional reductions, our two nations would work 
towards a START III agreement, with a deep reduction in the 
number of nuclear warheads to between 2,000 and 2,500 by the 
end of 2007. Presidents Clinton and Yeltsin specifically said 
that ``START III will be the first strategic arms control 
agreement to include measures relating to the transparency of 
strategic nuclear warhead inventories and the destruction of 
strategic nuclear warheads.''
    President George W. Bush pledged to seize the historic 
opportunity afforded by our new relationship with Russia. 
Declaring that Russia is ``no longer our enemy,'' then Governor 
Bush stated in a May 23, 2000, speech that ``it should be 
possible to reduce the number of American nuclear weapons 
significantly further than what has already been agreed to 
under START II.''
    Secretary of Defense Donald Rumsfeld said in a speech at 
the National Defense University just 2 weeks ago that ``through 
our Nuclear Posture Review, we adopted a new approach to 
strategic deterrence that increases our security while,'' in 
his words, ``reducing the numbers of strategic nuclear 
weapons.''
    But the recommendations of the Nuclear Posture Review may 
not, in fact, reduce the actual number of nuclear warheads in 
the U.S. arsenal because instead of destroying warheads, as 
Presidents Clinton and Yeltsin envisioned under a START III 
agreement, the Nuclear Posture Review proposes to shift some or 
all of the warheads removed from missiles, bombers, and 
submarines to a responsive force, in other words, a back-up 
force. Instead of being irreversibly destroyed, those warheads 
could be redeployed in a matter of weeks or months.
    The Nuclear Posture Review proposes simply to move those 
warheads from one location to another. This approach will make 
it unlikely that Russia will destroy its nuclear warheads. If 
we store our nuclear weapons, Russia is likely to follow suit. 
If there are more warheads retained by Russia, the threat of 
proliferation of nuclear weapons will increase. That was the 
danger cited in last year's bipartisan task force led by former 
U.S. Senate Majority Leader Howard Baker and former White House 
Counsel Lloyd Cutler. Their task force concluded the following: 
``The most urgent unmet national security threat to the United 
States is the danger that weapons of mass destruction or 
weapons-usable material in Russia could be stolen and sold to 
terrorists or hostile nation-states and used against American 
troops abroad or citizens at home.''
    By failing to destroy nuclear warheads, the Nuclear Posture 
Review would increase the threat of proliferation at the very 
time when the al Qaeda terrorist network is known to be 
pursuing nuclear weapons. In addition to compounding the 
proliferation threat, this new approach to nuclear weapons 
appears to compound the military threat to our Nation. One of 
the significant achievements of START II was that it would have 
eliminated Russia's land-based multiwarhead (MIRVed) missiles. 
By essentially abandoning efforts to bring START II into force, 
the administration leaves open the possibility that Russia may 
retain these missiles that it was prepared just recently to 
destroy.
    Secretary Rumsfeld says that the new approach ``increases 
our security.'' My fear is that the opposite may be true, and 
that over time, America would be less secure with this 
approach.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. The ranking 
Republican member, Senator Warner, will be here later, so he 
has asked me to fill in for him until he arrives. I looked over 
his statement, and instead of simply putting it into the 
record, I would like to go ahead and read it on his behalf. I 
will put my statement in the record, Mr. Chairman.
    I want to thank all of you for being here this morning. I 
think this is a very important hearing. We do want to hear from 
you, and on behalf of Senator Warner, I want to offer his 
welcome to the distinguished witnesses that we have here today.
    The Nuclear Posture Review on which we will receive 
testimony today relates to the most destructive weapons ever 
devised by mankind. I applaud the chairman for focusing the 
committee's attention on this important issue.
    I think the NPR represents a breakthrough in how we think 
of our strategic forces and how we respond to strategic 
challenges, and we all look forward to hearing our witnesses 
describe the new strategy in more detail.
    The Nuclear Posture Review, which was required by this 
committee in the Fiscal Year 2001 National Defense 
Authorization Act and forwarded by the Department of Defense to 
Congress early last month, is an extraordinarily timely 
document. The last such review was completed in 1994, in the 
early years of a previous administration. At that time, the 
world was a vastly different place. The mutual hostility 
between the Soviet Union and the United States that had 
characterized the Cold War and had shaped our thinking about 
nuclear forces as strategic deterrents had faded, but not 
vanished. We were still trying to understand the implications 
of the fall of the Soviet Union and the emergence of new 
threats.
    Today, our relationship with Russia has dramatically 
improved. Presidents Bush and Putin continue to work on a new 
strategic framework based on common responsibilities and common 
interests. But new challenges continue to emerge. More nations 
now have nuclear weapons, still more seek nuclear, biological, 
and chemical capabilities, and the means to deliver these 
powerful weapons. More nations now possess ballistic missiles, 
and still more seek such capabilities. Proliferation of these 
weapons of mass destruction and associated delivery systems is 
one of the greatest threats to our national security and indeed 
to global security.
    The Nuclear Posture Review provides an innovative way to 
address these new security challenges by proposing dramatic 
reductions in deployed nuclear weapons combined with a new 
triad, which includes defensive systems and a robust 
infrastructure. The NPR provides our Nation a much more 
complete set of tools to deal with the wide range of threats 
and contingencies we will face in the future. Indeed, new 
defenses, precision conventional munition capabilities, and 
improved intelligence will help improve our picture of threats 
beyond those considered strategic. These improved capabilities, 
combined with our improved relationship with Russia, will allow 
us to move forward with dramatic reductions in nuclear weapons.
    I believe that this document represents a fundamental, some 
might even say radical, departure from how we thought about 
strategic forces in the past and how we should respond to 
strategic challenges in the future. As was noted earlier, this 
Nuclear Posture Review relates to the most powerful weapons on 
the face of the Earth. We in Congress are obligated to 
carefully study the issues raised in this review. This hearing 
is the beginning of a debate and a forum in which we can gain a 
clearer understanding of the policy and programmatic 
implications embodied in the Nuclear Posture Review.
    In May of last year, President Bush laid out his vision of 
the future. Cold War deterrence is no longer enough to maintain 
peace. To protect our citizens, allies, and friends, we must 
seek security based on more than the grim premise that we can 
destroy those who seek to destroy us. This is an important 
opportunity to rethink the unthinkable and find new ways to 
keep the peace.
    Clearly, Cold War deterrence is no longer enough in this 
new, less certain world. As we debate our nuclear posture and 
nuclear security needs in the months and years ahead, we must 
be forward-thinking. This review is a welcome step in the right 
direction, and we all look forward to hearing your testimony. 
Thank you, Mr. Chairman.
    [The prepared statement of Senator Allard follows:]

               Prepared Statement by Senator Wayne Allard

    Mr. Chairman and Senator Warner, thank you for holding this 
important hearing on the Nuclear Posture Review.
    I truly believe that this document is a step forward to show that 
the United States is committed to reducing our nuclear arsenal. I do 
not believe there will be any debate about whether we should reduce our 
nuclear arsenal, but whether this is the right approach to doing that. 
I believe it is.
    I agree with many here today that this is far different from the 
classic arms-control approach. However, we are in a different arms-
control environment.
    While negotiating START III, the Clinton administration and Russia 
agreed on a framework in 1997 that stated that the two countries would 
work towards the irreversibility of weapons reductions. However, there 
were no definitive decisions regarding dismantlement, plus START III 
was never finished. Today, we have new leadership in Russia and in the 
United States. Our relationship also no longer reflects 50 years of 
conflict, but more than a decade of efforts aimed at cooperation.
    Presidents Bush and Putin have pledged themselves toward a new 
cooperative framework. This new framework can help to strengthen U.S.-
Russian relations even further. It will show that the United States and 
Russia can make national security decisions based on trust, not on the 
mistrust that treaties can imply.
    I also believe that this new framework can show the world that the 
United States is moving away from a specified threat environment to a 
new capabilities-based approach that allows the United States 
flexibility to address new threats and contingencies as they arise. 
This new framework also moves the United States away from an offensive 
triad based on mutually-assured destruction to a more stable triad 
based on offensive and defensive capabilities.
    To conclude, I want to thank the witnesses for joining us here 
today. I look forward to hearing their comments and appreciate their 
willingness to take questions.

    Chairman Levin. Thank you. Do any of our colleagues have 
opening statements?
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. I want to 
welcome the witnesses. We all recognize that there are new 
strategic realities, and the question is whether this Nuclear 
Posture Review adequately reflects those realities. This will 
be the beginning of several discussions about the Nuclear 
Posture Review and our policy going forward. Another way to 
express this is to question whether or not we are simply 
rearranging the furniture with this Nuclear Posture Review, or 
have we taken a new look and come up with a strategy which fits 
this new reality.
    The test of the Nuclear Posture Review is not simply what's 
contained within the pages of the report, but whether those 
pages translate into the budget, not just this year, but going 
forward through the next several years, and whether it 
complements the diplomatic initiatives which the President has 
announced, which would mean significant reductions in nuclear 
warheads. This is something that seems to be on the minds of 
the Russians as well. We had 8,000 warheads going into the 
Nuclear Posture Review, and we still have 8,000 warheads after 
it. They are just in different categories.
    So I think as we go forward, we have to again question 
whether or not this is really a new look at a new strategic 
situation, whether this report will affect budgets in a 
meaningful way, and not just the high profile items, but the 
mundane items like the status of our laboratories, the status 
of our efforts to ensure the safety and security of the 
stockpile, and also to complement the expressed desire by 
President Bush and by others to reduce significantly our 
reliance upon nuclear weapons. That dialogue will go over many 
days. I thank the Chairman.
    Chairman Levin. Thank you very much.
    Senator Akaka has an opening statement. We will then hear 
from Senator Sessions followed by Senator Ben Nelson.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
add my welcome to the witnesses this morning. The future of our 
nuclear forces is one of the most important subjects before 
this committee. There are two critical points that need to be 
emphasized and then re-emphasized about the administration's 
Nuclear Posture Review. First, no substantial reductions in 
nuclear weapons are being proposed in this review.
    Second, it is not clear why we insist on maintaining such 
large stockpiles of available weapons given the threat against 
which our military is prepared to defend us.
    To begin with the number of nuclear weapons, the 
administration sets up two categories of nuclear warheads. The 
first category is for 1,700 to 2,200 nuclear warheads that will 
be operationally deployed by 2012. By operationally deployed, 
does the administration mean warheads actually mounted on 
platforms? I hope that can be clarified today.
    The administration sets up a second category of warheads 
that is part of a responsive capability. These weapons, as 
Secretary Crouch stated in his press briefing on January 9, 
2002, would be maintained with their critical components. It 
appears as if the only difference between operationally-
deployed warheads and responsive warheads is that the 
responsive warheads would not be mounted on platforms. This is 
a distinction without much of a difference. The number of 
warheads in this responsive capability might number in the 
thousands according to present estimates, with the total number 
between 3,500 and 4,000 warheads.
    What would our Nuclear Posture Review have looked like 
before this if arms control agreements had entered into force? 
START II would have brought the number of warheads down to 
3,500 by 2003.
    Why do we need a substantial number of nuclear warheads 
when we are reducing our force structure to cope with only one 
major war at a time and restructuring our forces to deal with 
the new threat of global terrorism and homeland defense? The 
administration argues that we need to go back to the nuclear 
weapons reductions envisioned in the first Bush administration, 
and early in the Clinton administration, because we need to 
deal with multiple contingencies and new threats. It is unclear 
which new threat requires maintaining such a large stockpile of 
nuclear weapons.
    For example, the Russians, who for so long were the 
justification for us maintaining a large retaliatory 
capability, are no longer our enemy, and they are reducing more 
substantially than we their nuclear weapons. The Chinese are 
building up their warhead inventory, but will still be far 
below the thousands that we have. I hope, Mr. Chairman, the 
administration will clarify these issues in today's hearing.
    Our Nation's resources are being strained as we work to 
improve homeland security, fight the war against terrorism, and 
maintain programs which ensure our country's continued economic 
prosperity. The burden is on the administration to justify 
maintaining a large and costly nuclear weapons arsenal, an 
arsenal which is not commensurate with the threats our military 
faces and the mission they are designed to perform. Thank you 
very much, Mr. Chairman.
    Chairman Levin. Senator Sessions, then Senator Ben Nelson.
    Senator Sessions. Thank you, Mr. Chairman. It is an 
interesting and important issue that we are dealing with here 
today. The United States remains the world's preeminent 
military power, and I hope that we will be able to maintain 
that. All of us would like to see reductions in our nuclear 
weaponry, and it will be accomplished under the President's 
plan. But I think we have to realize that we are not testing 
nuclear weapons now. We have no manufacturing capability in 
this country to make new nuclear weapons, whereas other 
countries in the world do. To freeze ourselves into a situation 
in which we could, by such low numbers, encourage other nations 
to believe they can reach parity with us in nuclear weaponry 
would be a mistake. I think we ought not to agree to limits 
that would provide a goal for competitors around the world who 
believe they could reach it and therefore be at parity with the 
United States, militarily.
    I am concerned that if we totally destroy these weapons 
instead of just decommissioning them, we could end up in a 
situation without a manufacturing capability; a situation in 
which we could not properly defend ourselves and would not have 
a clear superiority that deters war. We have that, we are able 
to maintain that, and why we would give it away unilaterally I 
do not know. So my questions will deal with the subject of 
whether or not we are sure that we are not going too fast and 
if we are sure that we have a long-term vision to maintain 
superiority for the United States. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you 
all for being here today. General Gordon and Secretary Feith, 
we appreciate and are anxious to follow your statements, and it 
is good to welcome Admiral Ellis, fresh from Nebraska, back to 
our Nation's capital. I appreciated your kind treatment of my 
staff when they were there visiting STRATCOM headquarters and 
our office visit a week ago. I appreciate very much the 
opportunity to exchange ideas with you here today.
    I have two comments I would like to make. One is about the 
new direction that we are concerned about, about whether or not 
the NPR is a step in the right direction. My colleague, Senator 
Sessions, questions whether we should go to the next step of 
destruction of the weapons. Others feel that perhaps what we 
are doing is a step in the right direction, but maybe not a 
giant step because of the capacity to reactivate those weapons 
we are withdrawing from the active stockpile.
    The concern I have about decommissioning and 
recommissioning, is that as I understand it the Russians have 
the capacity to recommission maybe three times faster than we 
do, and so the question is really whether we are achieving 
parity by that interim step, if it is an interim step. The 
second important concern I have is the nuclear club, other 
countries, those that are about to make nuclear weapons, those 
who have already done so, and the security of the stockpiles 
not in the United States, but in the former Soviet Union, and 
whether those can be secure enough, or whether that represents 
targets for other individuals.
    I appreciate and look forward to your written comments as 
well as the oral testimony that I can hear today.
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. I have observed a head-in-the-sand 
mentality for quite a long period of time now about where the 
threats are in the world, and as we proceed today, I am 
primarily talking about Russia and the United States, and yet 
my concern has always been not so much Russia, but these 
countries that are trading technologies and systems with 
countries like China, Russia, and North Korea. The threat is 
there, and I hope that during your opening statements you might 
address the fact that as recently as August 1998 when we asked 
General Shelton, as I did in a letter, to give us in writing 
when he felt that North Korea could be a threat to the United 
States in terms of their ability to reach us with a long-range 
ballistic missile. His response was dated August 24, 1998, and 
it said that our best intelligence says that we have adequate 
time, that is 3 years or so, to prepare for the time when they 
would have a system. Seven days later they fired a multistage 
rocket from North Korea.
    It is disturbing to me when we have evidence that is not 
even classified suggesting that China, Russia, and North Korea 
are trading systems and technology with countries like Iran, 
Iraq, Syria, and Libya, and yet we seem to think we are safe in 
going back to the old Cold War mentality that has the U.S.S.R. 
versus us.
    My concern is what is out there now, where these threats 
are, and with a little more accuracy than we can reveal in this 
meeting, just what we have in our nuclear stockpile and what 
they have. It is disturbing to me. I remember so well, I am 
sure you remember at the end of the Gulf War, Saddam Hussein 
said if we had just waited 10 years to go into Kuwait, we would 
not have come because Hussein would have had a missile that 
could reach the United States. Here it is 10 years later. Just 
keep that in mind as part of your thinking on this subject. 
Thank you, Mr. Chairman.
    Chairman Levin. Senator Warner has just joined us.
    Senator Warner. Mr. Chairman, I had another matter to 
attend to. I thank my colleague here, Senator Allard, the 
former Chairman and now ranking member of the Strategic 
Subcommittee, for reading my statement. I listened very 
carefully to Mr. Nelson's observation about the difference in 
time between our ability to reconstitute our inventory in a 
significant way as compared with Russia. I am sure Admiral 
Ellis will give you a little clearer insight and another 
statistic as to the timing of that. I had a very extensive 
consultation with my old friend and colleague, Admiral Ellis, 
last night, and that was one of the subjects we covered. Thank 
you, Mr. Chairman. I welcome our witnesses this morning. 
General Gordon, we continue to get the best reports about your 
performance.
    Chairman Levin. Thank you.
    Secretary Feith.

STATEMENT OF HON. DOUGLAS J. FEITH, UNDER SECRETARY OF DEFENSE 
                           FOR POLICY

    Secretary Feith. Thank you, Mr. Chairman. Members of the 
committee, good morning. I would appreciate it if I could put 
my written statement in the record and start with a few brief 
remarks.
    Chairman Levin. It will be made part of the record.
    Secretary Feith. The Nuclear Posture Review is an ambitious 
document. It aims to transform U.S. nuclear forces and our 
thinking about strategic forces policy. No thorough 
transformation of that kind has occurred since the end of the 
Cold War. As was noted, the last Nuclear Posture Review was 
completed in 1994, when the full significance of the demise of 
the Soviet Union couldn't be appreciated. In any event, the 
1994 Nuclear Posture Review was done for the purpose of 
analyzing what our nuclear force posture would look like under 
START II.
    When he took office, President George W. Bush wanted to 
ensure that in planning for the future of U.S. nuclear forces 
and policy, the Defense Department did a number of things. 
First, that we recognized the radical changes in the world that 
resulted from the West's victory in the Cold War--chief among 
them is the new relationship between the United States and 
Russia, and the potential for better relations between us in 
the future.
    Second, that we abandon the morally and strategically 
unappealing theory of mutually-assured destruction, which we 
all know appropriately as MAD.
    Third, that we give the United States missile defense 
options so that we have more tools in our strategic kit than 
simply the threat of offensive retaliation. If, for example, a 
nuclear weapon were launched accidentally against the United 
States, we would want to have a nonoffensive response option.
    Fourth, that we take advantage of the opportunities to make 
drastic reductions in U.S. offensive nuclear force levels.
    Fifth, that we give proper attention to the key strategic 
reality of our era, and I would say arguably the key reality of 
any era, which is uncertainty. I think this goes to the point 
that Senator Inhofe was making about the surprise of the 1998 
launch by North Korea of the Taepo Dong missile. In performing 
the Nuclear Posture Review, the Defense Department operated 
with due respect for the unpredictability of the future and the 
role of error in human affairs. Accordingly, we assigned high 
priority to flexibility and adaptability.
    The NPR contains serious new thinking. It was not produced 
on autopilot. It is a rich mix of creative ideas on how the 
United States can make the world safer and more secure, shape 
the strategic environment in Europe, in Asia, and globally, and 
ensure that the United States has the means to keep ourselves, 
our allies, our friends, and interests safe from the emerging 
or altogether new threats that may materialize in many coming 
decades. I am proud of the work that my colleagues have done on 
the NPR. I am pleased that the Senate Armed Services Committee 
is holding this hearing to spotlight this work and the 
strategic questions related to it.
    Now, as all students of strategic policy know, the key 
image of our force posture in the past was a triad of land-, 
air-, and sea-based nuclear weapons. The organizing mental 
picture of our Nuclear Posture Review is what we call a new 
strategic triad. The new strategic triad envisions a nuclear 
posture that moves beyond mutually-assured destruction and 
reduces long-term U.S. dependence on nuclear weapons and 
purposeful vulnerability as the guarantor of our security. The 
new triad removes roadblocks to developing a cooperative 
strategic framework with Russia. If there is a headline for the 
Nuclear Posture Review, it is that the days of MAD are over, 
and unlamented. Instead, we plan to develop a new suite of 
capabilities that will first, assure our allies of our 
commitment to global peace and the steadfastness of that 
commitment; second, dissuade potential adversaries from 
contemplating military competition with the civilized world; 
third, deter aggressors; and fourth, defeat aggression when and 
where we have to while defending the United States, our 
friends, and allies. Offensive nuclear weapons remain a 
component of our new triad but they cannot themselves achieve 
all four of our national security goals. We have to develop new 
capabilities, new legs of the new triad.
    First, we plan to develop a non-nuclear strategic strike 
capability to give future presidents more options for 
responding to aggression than simply pushing the button. The 
success we have enjoyed with precision guided munitions over 
the last decade will give us a head start in developing these 
capabilities.
    Second, we plan to develop and deploy missile defenses. Our 
investment in homeland security and the ability to defeat 
unconventional attacks is an important element of this. 
Fortunately, we already possess such defensive capabilities and 
are improving them every day, but missile defense is another 
issue. To this date, ballistic missiles remain the only means 
of attacking the United States, our friends, and our allies 
against which we have no effective defense. Deploying such 
defenses is essential to the defensive leg of our new triad and 
will help reduce a serious vulnerability.
    Third, we plan to develop a responsive infrastructure. For 
too long, the United States has let atrophy its ability to 
develop new military capabilities that respond to changes in 
the world. It is difficult to change the Cold War force 
structure that we inherited, and why is this? Because we lack 
the physical plant and trained personnel necessary to develop 
and produce replacements that are more flexible or otherwise 
better suited to today's world. We want to invest in defense 
infrastructure, to transform our military for the 21st century.
    Finally, we plan to integrate the legs of the triad through 
improved command and control, what we call exquisite 
intelligence and adaptive planning. During the Cold War, the 
United States poured immense resources and much time into 
planning for war with the Soviet Union. So revisions in the 
plans could take months, a year, or longer.
    Instead of the ponderous and detailed product we prepared 
during the Cold War, we intend to develop the capability and 
flexibility to quickly identify the strengths and weaknesses of 
multiple enemies that might emerge suddenly. Thus, with the 
exception of nuclear strike, all of the concepts of the new 
triad are, in fact, new. Strategic defense, responsive 
infrastructure, non-nuclear strike, global command and control, 
exquisite intelligence, and adaptive planning are all 
capabilities to transform our strategic forces. For this 
reason, the review marks the beginning of a process, not the 
end.
    We will start with forces we currently have on hand and 
improve them as we develop a range of new capabilities. Because 
the Cold War is over, we no longer need to size our deployed 
nuclear forces against the threat posed by Russia and therefore 
we won't. For the first time in our history, U.S. nuclear 
forces will not be deployed for the purpose of waging a 
thermonuclear war against Moscow. The President decided that 
the United States would take the initiative and begin reducing 
its operationally deployed strategic nuclear forces over the 
next decade.
    Based on the NPR's analysis, the President announced his 
decision to begin removing around two-thirds of U.S. nuclear 
weapons from operational deployment. We will begin making cuts 
now that some commentators argued we should do only in the 
future, after extensive formal negotiations with the Russians.
    Finally, Mr. Chairman, some have referred to the reductions 
we are making in the Nuclear Posture Review as an accounting 
sleight of hand. But, I think there is great importance in the 
distinction between warheads deployed on delivery vehicles 
ready for launch within minutes or hours and warheads that are 
not available for use immediately or in the near term.
    Arms control agreements in the past, such as SALT I, SALT 
II, the IMF Treaty, START I, and START II, all of which were 
widely praised for reducing nuclear force levels, and all of 
them dealt not with the destruction of warheads, but rather 
delivery vehicles. So the notion that the failure to destroy 
warheads means that one does not have the right to say one is 
reducing nuclear force levels is a brand-new notion that was 
never applied over the decades of the Cold War when arms 
control agreements were praised, notwithstanding their complete 
failure to address the question of destruction of warheads.
    On the issue of irreversibility of force reductions, I 
think it is important that we recognize that as a practical 
matter, there is no such thing as irreversibility. I mean, 
chasing it would be chasing a will of the wisp.
    Any reductions, even if they entail the destruction of 
warheads, are reversible. A state that destroys warheads could 
manufacture new warheads. There is no such thing as 
irreversibility. The issue of reversibility is a matter of time 
and money, and in that regard, it is worth pointing out that 
the United States and Russia stand on completely different 
footings with regard to their ability to manufacture new 
nuclear weapons. Russia has a large infrastructure. They have a 
warm production base capable of producing large numbers of new 
nuclear weapons annually.
    The United States has not produced a new nuclear weapon in 
a decade. It will take nearly a decade and a large investment 
of money before we would be in a position to produce a new 
nuclear warhead. So the issue of storing our weapons, of 
whether we choose to build up a large infrastructure that would 
put us in a position to create new nuclear weapons if 
circumstances in the world changed and warranted it, versus 
taking weapons and rendering them unavailable for use in the 
near term by putting them in storage, is an issue that I 
believe needs to be examined in light of this important 
difference between the capability that the United States has in 
its ability to produce new nuclear weapons and the capabilities 
of other nations.
    In short, it is highly significant for the United States to 
reduce its offensive nuclear forces by rendering large numbers, 
two-thirds of our weapons, unavailable for use immediately or 
in the near term. I trust this committee will see the big 
picture. We are closing the history books on the Cold War 
balance of terror. We are reducing our dependence on nuclear 
weapons and replacing mutually-assured destruction with a 
strategic triad more suited to the security requirements of 
this century. We are cutting our deployed nuclear forces by 
roughly two-thirds and developing a new qualitative approach to 
arms control based on transparency and confidence building 
measures.
    We are indeed transforming our strategic posture, and the 
Nuclear Posture Review tells us where we need to go. We hope 
that Congress will join us in boldly stepping forward into the 
post-Cold War strategic environment by fully funding the 
programs envisioned in the Nuclear Posture Review. Thank you, 
Mr. Chairman.
    [The prepared statement of Secretary Feith follows:]

              Prepared Statement by Hon. Douglas J. Feith

                              INTRODUCTION

    The National Defense Authorization Act for Fiscal Year 2001 
required the Secretary of Defense, in consultation with the Secretary 
of Energy, to conduct a comprehensive review of U.S. nuclear forces and 
to develop a long-range plan for the sustainment and modernization of 
United States strategic nuclear forces. The Nuclear Posture Review 
(NPR) constitutes the Department of Defense's response to this 
requirement.
    We submitted the NPR to Congress on January 8, 2002. It is the 
first comprehensive review of nuclear forces since 1994, when the first 
Nuclear Posture Review was completed. The primary purpose of the 1994 
review was to determine the strategic nuclear force structure to be 
deployed under the second Strategic Arms Reduction Treaty (START II).
    The current review of the U.S. nuclear posture differs from the 
1994 review. The 1994 review assumed that the central strategic U.S. 
concern was managing a potentially hostile relationship between the two 
largest nuclear powers. The current review recognizes that the United 
States and Russia have a new relationship, and that the proliferation 
of nuclear weapons and ballistic missiles has created new challenges 
for deterrence. It defines the capabilities required of nuclear forces 
in the new strategic environment and in relation to other U.S. defense 
capabilities. Most especially, it recognizes that Russia, unlike the 
Soviet Union, is not an enemy. There is ground for mutual cooperation, 
and the United States is seeking to move beyond the outdated Cold War 
nuclear confrontation to develop a new strategic framework with Russia.

                               A NEW ERA

    The basic features of the Cold War shaped our approach to security, 
including the role and size of our nuclear forces and deterrence 
policies. Our current nuclear triad of ICBMs, bombers, and ballistic 
missile submarines, and the ways we have pursued deterrence and arms 
control negotiations, reflect the conditions of Cold War. The new 
features of the international system, particularly the types of threats 
we face, are dramatically different. Consequently, President Bush 
charged the Department of Defense with transforming our approach to 
defense, including nuclear weapons and missile defenses, to meet the 
new challenges of the post-Cold War era. During the Cold War we faced a 
single, ideologically hostile nuclear superpower. We prepared for a 
relatively limited number of very threatening conflicts with the Soviet 
Union. Much of the world was part of two competing alliances and the 
stakes involved in this competition amounted to survival for both 
sides. We must never lose sight of just how dangerous the situation 
was.
    There was, however, considerable continuity and predictability in 
this competition of two global alliance systems. For decades, U.S. 
nuclear forces were organized and sized primarily to deter the Soviet 
Union, and there were few sharp turns in U.S.-Soviet relations. Based 
on the continuities of the international system at the time, the 
successful functioning of nuclear deterrence came to be viewed as 
predictable, ensured by a sturdy ``balance of terror.'' Many argued 
that defenses which might lessen that terror by offering protection 
against Soviet nuclear attack would instead undermine the predictable 
``stability'' of the balance of terror.
    The Cold War system of two competing blocs has been replaced by a 
new system, one with a broad spectrum of potential opponents and 
threatening contingencies. The continuities of the past U.S.-Soviet 
relationship have been replaced by the unpredictability of potential 
opponents who are motivated by goals and values we often do not share 
nor well understand, and who move in directions we may not anticipate. 
We no longer confront the severe but relatively predictable threats of 
the Cold War; instead we have entered an era of uncertainty and 
surprise. As the attacks of September 11th demonstrated, we must now 
expect the unexpected. What we can predict today is that we will face 
unanticipated challenges, a range of opponents--some familiar, some 
not--with varying goals and military capabilities, and a spectrum of 
potential contingencies involving very different stakes for the United 
States and its foes. These conditions do not permit confident 
predictions about the specific threats against which we must prepare or 
the ``stability'' of deterrence.
    Of particular concern in this era of uncertainty is the emergence 
of hostile, regional powers armed with missiles and nuclear, 
biological, or chemical weapons of mass destruction. When the United 
States failed to deter or promptly defeat a challenge in the past, two 
great oceans generally provided protection to American civil life. 
Nuclear, biological, and chemical weapons technologies, however, 
increasingly are in the hands of brutal leaders who have few 
institutional or moral constraints and are motivated by an extreme 
hatred of the United States and the personal freedoms and liberties we 
hold dear. This emerging feature of the international landscape has 
rendered the failure to deter or promptly defeat a threat much more 
dangerous for all Americans. We can no longer take comfort in the 
belief that the conflict will be ``over there,'' or that opponents will 
be deterred in predictable ways. As was illustrated by September 11, we 
now confront enemies who are eager to inflict mass destruction on 
innocent civilians here and abroad, without regard for the possible 
cost.

                          TRANSFORMING DEFENSE

    What are the implications of these changes in the international 
system for how we think about security? Most basically, we must 
transform our forces and planning to meet the dramatically different 
conditions of the new security environment. Rather than focusing on a 
single peer opponent, and preparing for a few threatening 
contingencies, we now need the flexibility to tailor military 
capabilities to a wide spectrum of contingencies, to address the 
unexpected, and to prepare for the uncertainties of deterrence. We can 
no longer approach our military requirements by conveniently defining 
one or a few countries as the specified ``threat,'' and then sizing our 
military capabilities against that defined threat. U.S. planning can no 
longer be so ``threat-based'' because, in an era of uncertainty, the 
precise source of ``the threat'' is unpredictable.
    Our defense preparations must now focus on, and be responsive to, a 
wide spectrum of potential opponents, contingencies, and threatening 
capabilities, some of which will be surprising. A capabilities-based 
approach to defense planning will look more at the broad range of 
capabilities and contingencies that the United States may confront in 
the future, as opposed to planning against a fixed set of opponents 
identified as the threat.
    Nuclear weapons will continue to be essential, particularly for 
assuring allies and friends of U.S. security commitments, dissuading 
arms competition, deterring hostile leaders who are willing to accept 
great risk and cost to further their evil ends, and for holding at risk 
highly threatening targets that cannot be addressed by other means.
    Instead of our past, primary reliance on nuclear forces for 
deterrence, we will need a broad array of nuclear, non-nuclear, and 
defensive capabilities for an era of uncertainty and surprise. The 
United States will transform its strategic planning from an approach 
that has been based almost exclusively on offensive nuclear weapons, to 
one that also includes a range of non-nuclear and defensive 
capabilities. In particular, because deterrence will function less 
predictably in the future, the United States will need options to 
defend itself, its allies, and friends against attacks that cannot be 
deterred.

                       A NEW TRIAD FOR A NEW ERA

    The current nuclear triad is a legacy of the Cold War. It is 
exclusively nuclear and offensive. As part of the defense 
transformation, we will move to a new triad. The new triad comprises a 
more diverse set of nuclear and non-nuclear, offensive and defensive 
capabilities. These capabilities encompass nuclear forces and non-
nuclear strike means (including information warfare), passive and 
active defenses (notably missile defense), and the defense-industrial 
infrastructure needed to build and sustain the offensive and defensive 
elements of the new triad. Command, control, and intelligence systems 
are also critical to deterrence. They form an integral part of the new 
triad.
    This new triad will provide the United States with the broad range 
of capabilities suitable for an era of uncertainty and a wide variety 
of potential opponents and contingencies. In some cases, where nuclear 
weapons may have been necessary for deterrence and defense in the past, 
the use of advanced non-nuclear strike capabilities or defensive 
systems may now be sufficient militarily, involve less risk for the 
U.S. and our allies, and be more credible to foes. In some cases, 
nuclear weapons may remain necessary to deter or defeat a particularly 
severe threat. The new triad will provide the spectrum of offensive and 
defensive military capabilities, and the flexibility in planning 
necessary to address the new range of contingencies, including the 
unexpected and the undeterrable.
    The new triad differs in a number of important ways from the 
current triad. In addition to the difference in its overall 
composition, the strategic nuclear forces of the new triad are divided 
into two new categories: the operationally deployed force and the 
responsive force.
    The operationally deployed force includes bomber and missile 
warheads that are available immediately or within a matter of days. 
These forces will be available to address immediate or unexpected 
contingencies. Thus, our stated nuclear forces will correspond to our 
actual nuclear deployments, which did not occur during the Cold War. By 
using such ``truth in advertising,'' we will no longer count ``phantom 
warheads'' that could be deployed, but are not. To address potential 
contingencies and more severe dangers that could emerge over a longer 
period of time, the responsive force augments the operationally 
deployed force, largely through the loading of additional warheads on 
bombers and ballistic missiles. Such a process would take weeks to 
years. The capability for force reconstitution provided by the 
responsive force allows significant reduction in the current number of 
operationally deployed nuclear warheads. This reduction can be achieved 
prudently and without the need for drawn out and difficult 
negotiations.
    In addition, the new triad expressly serves multiple defense policy 
goals. Deterrence of nuclear or large-scale conventional aggression was 
viewed as the main objective of the Cold War triad. The deterrence of 
aggression, although still an essential aim, is just one of four 
defense policy goals for the new triad. The capabilities of the new 
triad, like other U.S. military forces, not only must deter coercion or 
attack, but also must assure allies and friends of U.S. security 
commitments, dissuade adversaries from competing militarily with the 
United States, and, if deterrence fails, decisively defeat an enemy 
while defending against its attacks on the United States, our friends, 
and our allies. Linking nuclear forces to multiple defense policy 
goals, and not simply to deterrence, recognizes that these forces, and 
the other parts of the new triad, perform key missions in peacetime as 
well as in crisis or conflict. How well the new triad serves these 
multiple goals--thereby enabling us to cope effectively with the 
uncertainty and unpredictability of the security environment--is the 
standard for judging its value.
    The new triad offers several advantages in this regard. Its more 
varied portfolio of capabilities, for example, makes it a more flexible 
military instrument. This greater flexibility offers the President more 
options for deterring or defeating aggression. Within the new triad, 
nuclear forces will be integrated with, rather than treated in 
isolation from, other military capabilities. This creates opportunities 
for substituting non-nuclear strike capabilities for nuclear forces and 
defensive systems for offensive means. This does not blur the line 
between nuclear and non-nuclear weapons, but it will reduce the 
pressures to resort to nuclear weapons by giving U.S. Presidents non-
nuclear options to ensure U.S. security.
    The new triad reflects a capabilities-based approach to nuclear 
force planning and the type of defense transformation required in a new 
era. It deserves wide support. It gives the United States greater 
strategic flexibility needed in an era characterized by surprise. It 
provides the basis for shifting some of the strategic requirements for 
dissuading, deterring, and defeating aggression from nuclear forces to 
non-nuclear strike capabilities, defensive systems, and a responsive 
infrastructure. As we reduce our nuclear forces to bring them into line 
with the security environment, the new triad will mitigate the risks 
inherent in an increasingly fluid and dynamic security environment. 
Getting to the new triad will require us to sustain a smaller strategic 
nuclear force, reinvigorate our defense infrastructure, and develop new 
non-nuclear strike, command and control, intelligence, and planning 
capabilities so that we possess the ability to respond to the kinds of 
surprises the new security environment holds. By taking these steps, we 
will reduce our dependence on nuclear weapons and build a new triad 
that serves a broader range of American national security goals.

               STRATEGIC NUCLEAR FORCES IN THE NEW TRIAD

    The positive shift in the U.S. relationship with Russia is of great 
significance in considering today's nuclear force requirements. Russia 
is not the Soviet Union, nor is it an enemy. We no longer have to focus 
our energies on preparing for a massive Soviet nuclear first strike. 
Rather, we now seek a new strategic framework with Russia to replace 
the Cold War's balance of terror.
    President Bush has announced his decision to reduce our 
operationally deployed strategic nuclear force to between 1,700 and 
2,200 warheads over the next decade, a level informed by the analysis 
of the NPR. While roughly one-third the number of our currently 
operationally deployed warheads, this range is adequate to support our 
new defense policy goals, including the deterrence of immediate 
contingencies. It also preserves the flexibility and capability for 
reconstitution necessary to adapt to any adverse changes in the new 
security environment.
    These reductions, and other adjustments in our offensive and 
defensive capabilities, will be achieved outside the Cold War's 
adversarial and endless negotiating process that was centered on the 
balance of nuclear terror. Today, that competitive and legalistic 
process would be counterproductive. It would impede or derail the 
significant reductions both sides now want; it would lock both sides 
into fixed nuclear arsenals that could be excessive or inadequate in 
the future; and, by perpetuating the Cold War strategic relationship, 
it would inhibit movement to a far better strategic framework for 
relations.
    I would like to highlight five key findings of the NPR. Each needs 
to be well understood:
    1. A New Relationship With Russia: Away From MAD. The planned 
reductions to between 1,700 and 2,200 operationally deployed nuclear 
warheads are possible and prudent given the new relationship with 
Russia. We can reduce the number of operationally deployed warheads to 
this level because, in the NPR, we excluded from our calculation of 
nuclear requirements for immediate contingencies the previous, long-
standing requirements centered on the Soviet Union and, more recently, 
Russia. This is a dramatic departure from the Cold War approach to 
nuclear force sizing, which focused first and foremost on sustaining 
our side of the balance of terror and mutually-assured destruction 
(MAD). In the NPR, we moved away from this MAD policy framework.
    This, of course, is not to imply that we will not retain 
significant nuclear capabilities, or that we can ignore developments in 
Russia's (or any other nation's) nuclear arsenal. Nuclear capabilities 
will continue to be essential to our security, and that of our friends 
and allies.
    Nevertheless, we no longer consider a MAD relationship with Russia 
the appropriate basis for calculating our nuclear requirements. MAD is 
a strategic relationship appropriate to enemies, to deep-seated 
hostility, and distrust. Russia is not our enemy, and we look forward 
to a new strategic framework for our relations.
    2. Reductions Plus Security. The President's plan for nuclear 
reductions permits us to cut the number of operationally deployed 
nuclear weapons by about 65 percent, to levels far below current 
levels, without taking great risks with America's safety. The new 
relationship with Russia makes such cuts possible, and the President's 
plan prudently preserves our option to respond to the possible 
emergence of new threats. Some commentators say we should continue to 
reduce our forces without preserving our capacity to adapt to changing 
circumstances, but doing so would require an ability to predict the 
future with enough accuracy to ensure we will not be surprised or face 
new threats.
    Because the future almost certainly will, in fact, bring new 
dangers, we do not believe it is prudent to set in stone the level and 
type of U.S. nuclear capabilities. We have embarked on a program to 
deploy a new triad that may allow increasingly us to rely on non-
nuclear capabilities, and under the President's plan we have the option 
to adjust our nuclear forces down even further than now planned if 
appropriate. If severe new threats emerge, however, we must also retain 
the capacity to respond as necessary. The President's plan is a 
reasonable way to both reduce nuclear forces and prudently preserve our 
capability to adjust to the shifting requirements of a dynamic security 
environment. In the NPR we have recognized that force requirements are 
driven fundamentally by the realities of a changing threat environment, 
and we have adopted, in the capabilities-based approach, the 
commonsense standard that we must retain the flexibility necessary to 
adjust to and shape that environment.
    3. New Emphasis on Non-nuclear and Defensive Capabilities. The 
President's plan, for the first time, emphasizes the potential for 
substituting non-nuclear and defensive capabilities for nuclear 
capabilities. In many likely cases involving an attack against us, our 
allies, or friends, it will be far better to have non-nuclear and 
defensive responses available. For example, during the Cold War, one of 
the President's only options to limit damage to the United States was 
to strike the enemy's offensive weapons, raising the stakes in any 
confrontation. Defenses will offer the ability to limit damage to the 
United States without requiring America to ``fire the first shot.'' In 
the case of an accidental launch of nuclear-armed missiles, defenses 
will give us the opportunity to destroy such weapons before they 
inflict any damage on the United States, its friends, or allies.
    The NPR, for the first time, explicitly calls for the integration 
of non-nuclear and defensive capabilities as part of our strategic 
triad. This is another reason we can move forward with deep nuclear 
reductions while being careful to preserve our security. The new non-
nuclear and defensive capabilities that are emphasized in the NPR may 
also provide the basis for further nuclear reductions in the future, 
depending on their effectiveness.
    4. A New Diverse Portfolio of Military Capabilities for a New 
World. The NPR's call for a new triad begins the transformation of our 
strategic capabilities to suit a world that is very different from that 
of the Cold War. In the past we focused on the Soviet Union and a few 
severely threatening contingencies. We prepared our military to address 
this relatively narrow Cold War threat.
    Today the sources of the threats that face us are much more diverse 
and even unpredictable, as the September 11 attacks showed. The spread 
of missiles and weapons of mass destruction makes the current spectrum 
of potential opponents significant. Whereas in the past, only the 
Soviet Union posed a serious threat to American cities, in the 
foreseeable future, several countries--and perhaps some non-state 
actors--will present such a risk. Our defensive capabilities must take 
these new post-Cold War realities into account.
    The President's plan will transform our military to provide us with 
a new portfolio of capabilities to meet these new threats, even while 
reducing our reliance on nuclear weapons. This portfolio will enable us 
not only to tailor our force options to the range of potential 
contingencies and types of opponents, it will help us to shape the 
threat environment in the most benign directions possible.
    5. The Rejection of Adversarial Negotiations. The rejection of the 
Cold War's adversarial-style of arms control negotiations represents a 
key change introduced in the NPR. The NPR moves us beyond the 
essentially hostile and competitive negotiations of the Cold War 
because such negotiations no longer reflect the reality of U.S.-Russian 
relations. We do not negotiate with Britain or France with regard to 
the permitted features of our respective nuclear capabilities. Although 
our relations with Russia are not yet comparable to our relations with 
our allies, they are not based on Cold War hostilities.
    Were we to have put nuclear reductions on hold until we could have 
hammered out a Cold War-style arms control agreement with Russia, we 
would not be making the reductions we plan to make over the next 
decade. We would be under pressure to hold on to the weapons we no 
longer require as bargaining chips because that is the logic of 
adversarial arms control. Russia would be pressed by the same logic.
    We see no reason to try to dictate the size and composition of 
Russia's strategic nuclear forces by legal means. Russian forces, like 
our forces, will decline about two-thirds over the next decade. In 
truth, if the Russian government considers the security environment 
threatening enough to require an adjustment in its nuclear 
capabilities, it would pursue that adjustment irrespective of its 
obligations under a Cold War-style treaty. In fact, the Russian 
government did just that in 1995 with regard to the Conventional Forces 
in Europe (CFE) Treaty. Because the security situation had changed, 
Russia did not meet its obligations to reduce its conventional forces 
to the proscribed levels. The Russian Defense Minister at the time 
stated that Moscow would not fulfill legal obligations that ``bind us 
hand and foot.''
    A highly dynamic security environment such as we now confront 
ultimately cannot be tamed by rigid, legal constructs, however 
sincerely entered into. It would be highly imprudent now to rigidly fix 
our capacity to respond to and shape such an environment by extending 
the negotiating practices of the Cold War into the future. We seek a 
new strategic framework in our relationship with Russia, not a 
perpetuation of the old.

                REDUCING THE NUMBER OF NUCLEAR WARHEADS

    Some now argue that the nuclear weapons removed from our strategic 
forces must be destroyed or the announced reductions would be ``a 
subterfuge.'' The NPR, of course, calls for the destruction of some, 
but not all, of the U.S. warheads removed from the operationally 
deployed force. We must retain these weapons to give the United States 
a responsive capability to adjust the number of operationally deployed 
nuclear weapons should the international security environment change 
and warrant such action. Presidents from both parties have long 
recognized the need for such a capability. For example, the previous 
administration adopted a ``lead and hedge'' policy with regard to 
reductions below the levels required by the START II Treaty in the 1994 
NPR. The last administration planned to retain the U.S. ability to 
regenerate capabilities reduced by the START II Treaty as a ``hedge'' 
against the possibility that Russia might reverse its course toward 
democracy. The previous administration continued that policy through 
its last day in office.
    The current Nuclear Posture Review makes a similarly prudent 
decision to maintain the ability to restore capabilities we now plan to 
reduce. The difference, however, is that the NPR's responsive force is 
not being sized according to the dictates of a possible resurgence in 
the threat from Russia. Instead, our new responsive capability is being 
defined according to how it contributes to the four goals of dissuading 
potential adversaries, assuring allies, deterring aggression, and 
defeating enemies.
    At this time, the appropriate size of our responsive force has not 
been determined. However, the analysis that helped determine the size 
of the operationally deployed force and the decision to pursue non-
nuclear capabilities in the new triad suggests that our responsive 
capability will not need to be as large as the ``hedge'' force 
maintained by the previous administration. Moreover, our responsibility 
to ensure U.S. security virtually dictated the maintenance of a 
significant number of stored warheads. First, both the United States 
and the Soviet Union recognized during the Cold War that the number and 
nature of their operationally deployed nuclear forces ready to go at a 
moment's notice were the key determinants of their respective 
capabilities. That is why both sides pursued arms control agreements 
that sought to affect the nature and number of deployed nuclear 
delivery vehicles and why existing arms control treaties never 
addressed the issue of warhead dismantlement. In that context, 
implementing the NPR will significantly reduce the number of U.S. 
deployed warheads and change the nature of our nuclear arsenal by 
downloading the delivery vehicles. In short, the NPR addresses the most 
important aspects of the U.S. nuclear arsenal. Given the era of 
uncertainty we now face, maintaining a responsive force is only prudent 
and consistent with the capabilities-based approach to our defense 
planning.
    Finally, the pace with which we reduce the nuclear stockpile will 
be determined in part by the state of our infrastructure and the very 
real limits of our physical plant and workforce, which has deteriorated 
significantly. For example, the United States today is the only nuclear 
weapon state that cannot remanufacture replacements or produce new 
nuclear weapons. Consequently, we are dependent on stored weapons to 
maintain the reliability, safety, and credibility of our stockpile and 
to guard against the possibility of a technical or catastrophic failure 
in an entire class of nuclear weapons. Other nuclear states are not 
bound by this limitation of their infrastructure. Repairing the U.S. 
nuclear infrastructure and building the responsive infrastructure 
component of our new triad may well permit us to reduce the size of the 
nuclear stockpile needed to support the responsive force.
    In sum, the NPR develops an approach to reductions that provides an 
accounting of reductions that reflects ``truth in advertising,'' 
protects conventional capabilities from efforts to limit nuclear arms, 
and preserves the flexibility necessary in an era of uncertainty and 
WMD proliferation. This is the only prudent path to deep reductions 
given the realities of the threat environment we face.

                                PROGRAMS

    Developing and fielding the capabilities for the new triad will 
require a dedicated effort over the next decade. Program development 
activities must be paced and completed in a manner such that the 
integration of capabilities results in the synergistic payoff 
envisioned for the new triad. The Department has identified an initial 
slate of program activities that we propose to fund beginning in fiscal 
year 2003.
    DOD Infrastructure. Funding for the sustainment of strategic 
systems will be increased. This effort will support surveillance and 
testing of weapon systems slated for life extension programs such as 
the Air-Launched Cruise Missile (ALCM) and the Advanced Cruise Missile 
(ACM). We propose to conduct additional test flights for solid rocket 
motors and to increase our efforts for unique technologies for 
strategic systems, such as missile electronics and navigation. In 
addition, the Department will fund the development and qualification of 
radiation-hardened parts for strategic systems.
    Offensive Strike. Funding has been programmed for two specific 
advanced conventional weapon applications and one concept development 
program to explore options for advanced strike systems. The two 
advanced conventional strike applications include a fast-response, 
precision-impact, conventional penetrator for hard and deeply buried 
targets and the modification of a strategic ballistic missile system to 
enable the deployment of a non-nuclear payload.
    Missile Defense. The Department will conduct an aggressive R&D 
program for ballistic missile defense and we are evaluating a spectrum 
of technologies and deployment options.
    Strike Support. Advancements in offensive and defensive 
capabilities alone will be inadequate without enhancements in sensors 
and technology to provide detailed information on adversary plans, 
force deployments, and vulnerabilities. Such systems are critical in 
developing the advanced command and control, intelligence, and adaptive 
planning capabilities required to integrate all three legs of our new 
triad. Therefore, the Department has proposed additional funding for 
the development of advanced sensors and imagery for improved 
intelligence and assessment and for modernization of communications and 
targeting capabilities in support of evolving strike concepts.

                               CONCLUSION

    A half a century ago, in the midst of the Cold War, Prime Minister 
Winston Churchill noted in the House of Commons the ``sublime irony'' 
that in the nuclear age, ``safety will be the sturdy child of terror 
and survival the twin brother of annihilation.'' The Cold War is long 
over and new approaches to defense are overdue. As President Bush has 
stated, ``We are no longer divided into armed camps, locked in a 
careful balance of terror. Our times call for new thinking.'' The new 
triad, outlined in the Nuclear Posture Review, responds to the 
President's charge.

    Chairman Levin. Thank you, Secretary Feith.
    General Gordon.

 STATEMENT OF GEN. JOHN A. GORDON, USAF (RET.), ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    General Gordon. Thank you, Mr. Chairman. I have a longer 
prepared statement that I would offer for the record.
    Chairman Levin. It will remain part of the record.
    General Gordon. National Nuclear Security Administration 
(NNSA) participated in the Nuclear Posture Review, and while 
the nuclear requirements are largely within the providence of 
the Department of Defense and the White House, we were able to 
participate fully throughout the study to ensure that the 
choices, plans, and requirements that were developed were well 
within the realm of the possible from the technical and 
production standpoints of the NNSA. So I would like to make a 
few points.
    The first key conclusion out of the NPR is the concept of a 
new triad that focuses on and supports the importance of a 
robust and responsive R&D and industrial base, of which the 
nuclear weapon enterprise is a key element. It is not only in-
being forces, but the demonstrable capabilities of the defense, 
science, technical, and manufacturing infrastructure that began 
the nuclear weapon enterprise that provide us with a means to 
respond to new and unexpected emerging threats in a timely 
manner and dissuade a potential future competitor from seeking 
a nuclear advantage.
    A second fundamental conclusion, at least from NNSA's 
perspective, is that for the foreseeable future, nuclear 
weapons will remain, if not a critical, but at least a key 
element of U.S. strategy. A basic point, but it tells us that 
the NNSA must continue to ensure the safety and reliability of 
the stockpile, and our Stockpile Stewardship Program (SSP) is 
designed to do just that and to do it in the absence of nuclear 
testing. From basic surveillance of weapons to refurbishment of 
the systems, to studying the chemistry and the metallurgy of 
long-term materials aging, to understanding weapons physics in 
a new and very different way, in much more detail, and 
developing the tools for really long-term stewardship, the NNSA 
is focused on its mission.
    An important point is that the NPR essentially revalidated 
the basic structure of the warhead refurbishment program that 
had earlier jointly been developed with DOD and the NNSA under 
the Nuclear Weapons Council structure. The precise weapons that 
fall into each category are the W80, W76, and B61, which will 
be central to the stockpile, and we know they will require life 
extension and refurbishment. The NNSA's requirements remain, 
and we need to press ahead, to restore past production 
capabilities, modernize others, and be able to begin these 
refurbishments on schedule.
    This, in turn, then raises a key point. The results of the 
NPR do not in the near term reduce the NNSA's costs. Our near 
term costs are driven by the need to restore and revitalize the 
infrastructure, and they are driven not by the number of 
warheads in the stockpile and by the number to be refurbished.
    Cost savings from refurbishing a smaller number of warheads 
will not be realized until perhaps 2010. So this then puts me 
in a bit of a difficult position, I think, in trying to explain 
what or what is not intuitively obvious as to why the weapons' 
cost is not going down, why costs are not going down, but the 
point is at the core of the enterprise, and the stockpile needs 
to be refurbished regardless of the numbers of weapons we deem 
necessary to retain. Even at that level, the enterprise will be 
stretched, and we will see something approaching maximum 
capacity when these systems are all in the process line.
    So under current planning scenarios, we will be at or near 
capacity, limiting our ability to dismantle significant numbers 
of weapons over the next 10 years or so. Under current plans, 
weapons identified for dismantlement would use low-level 
capacity at the plants, but it would be difficult to undertake 
major scheduled dismantlements without slipping some of the 
schedules or adding new capacity.
    Mr. Chairman, I would point to some of the less obvious but 
very important results of the NPR, at least to me. The conduct 
of this review has done much to review the cooperation and 
coordination among the Department of Energy, NNSA, and the 
Department of Defense on these issues. The Nuclear Weapons 
Council is working effectively and efficiently. Policy levels 
are working together. The DOD has offered strong support for 
needed programs and from my perspective, that is a most welcome 
development.
    Mr. Chairman, I might take a moment to make a few comments 
on NNSA as an organization, about how it fits into this. First, 
we are particularly grateful for the support of the Senate for 
a budget that actually begins to make our requirements 
achievable. The fiscal year 2003 budget request also makes 
another important step, and we look forward to sustained 
support from the administration and from Congress for our 
ambitious programs. I am confident that we will be able soon to 
submit a 5-year plan with meaningful consent.
    Second, I want to report that I am fundamentally satisfied 
with the progress we are making on stewardship. With improved 
surveillance tools, we are finding problems and we know how to 
fix them, but none of them, none of these problems that we 
found and other fixes we proposed suggest a need any time soon. 
The National Ignition Facility (NIF) seems to be on track and 
the pit program is coming into line. We see the infrastructure 
and improvements.
    Third, I see real improvements with the labs and the plants 
and morale is up, retention is up, recruitment is up. Mr. 
Chairman, I wouldn't go so far as so suggest all is perfect. It 
is hardly that. We run programs with considerable inherent risk 
as we push the limits of technology. We struggle with complex 
and large programs, and NNSA, a large organization, has a ways 
to go. With the recent confirmation of Dr. Everett Beckner to 
the position of Deputy Administrator for Defense Programs, we 
will have a leadership team in place. The vectors are good.
    Mr. Chairman, two more points if I may. While movement of 
our work is focused almost exclusively on maintaining today's 
stockpile and developing the tools to certify our weapons far 
into the future, without testing, I have directed and the NPR 
has endorsed three specific initiatives for our weapons 
programs.
    First, we need to begin thinking seriously about a modern 
pit production facility (MPF) and I want to begin in earnest 
the very early work on the alternatives that would be available 
to us. I do not foresee a need for such a facility for at least 
15 years, but I want to accelerate and make more rigorous our 
planning processes toward that.
    Second, while I see no near-term need for nuclear tests, my 
judgment is that our current test readiness posture is a bit 
too relaxed and perhaps 30 to 36 months for a fully diagnosed 
all up test. I believe we should be on a more ready footing, 
not because I see the need for the test but out of simple 
prudence.
    Third, we are doing almost nothing now, almost no rigorous 
thinking about the future nuclear concepts. We are not 
challenging our designers or adequately training new designers. 
So I have asked the labs to put together a small group at each 
location that allows new designers to work with old hands to 
think about and explore what might be possible. I hasten to say 
that this work is not done with a specific military requirement 
in mind, but rather a way to help ensure long-term design 
competence, and we do this with an appreciation of the 
restrictions on pursuing new weapons.
    Finally, Mr. Chairman, you asked in your letter of 
invitation to this hearing that I address the questions raised 
in a couple of recent DOE Inspector General reports related to 
stockpile surveillance. In its report on surveillance testing, 
the IG noticed a continuing backlog in certain tests that could 
result in a lack of critical information needed to make valid 
assessments of weaponry on which we rely. It contributes to the 
backlog of testing, to delays in completing the studies to 
minimize hazards and ensure safe operations and difficulties in 
coordinating tests with the Department of Defense. These 
reports pointed out a deteriorating structure that had 
contributed to delays in surveillance and other programs.
    The second report called to attention the lengthy period of 
time required to complete the significant findings 
investigations (SFIs). The reports were correct in identifying 
significant backlogs of surveillance testing and a likely 
process for solving problems. But even before the report, we 
applied funds in 2000, 2001, and 2002 to address these 
problems. The inspection backlogs were limited last year and 
others will be done this year. To address delays in completing 
SFIs, we are taking the actions to assure that the most 
critical ones are resolved promptly and with high confidence. 
We are developing a comprehensive SFI database to track the 
progress and institute accountability. I'm not satisfied with 
our past handling of this issue, and I have directed Dr. 
Beckner, our new Deputy Administrator for Defense Programs, to 
take this on as a top priority.
    Mr. Chairman, today our nuclear weapons stockpile is safe, 
it is secure, it is reliable. We are working hard to assess the 
implications of the NPR for NNSA and to work closely with 
Department of Defense partners in its implementation and more 
importantly the flexibility to sustain our nuclear weapons 
stockpile to adopt current weapons to new missions, potentially 
to field new weapons depends on healthy plan for stockpile 
stewardship, peer review and base certification as well as a 
robust infrastructure for nuclear weapons. As numbers of 
nuclear forces are reducing, it becomes even more important to 
retain high confidence in the reliability of the remaining 
forces. We must also have the capacity to respond to changes in 
the strategic environment, if need be.
    Achieving these goals will require a strong commitment to 
the recapitalization of our nuclear weapons infrastructure, now 
a smaller infrastructure to be sure, but one that is 
sufficiently modern and capable to fully support the NPR and 
more broadly, our defense strategy. Mr. Chairman, thank you.
    [The prepared statement of General Gordon follows:]

         Prepared Statement by Gen. John A. Gordon, USAF (Ret.)

                              INTRODUCTION

    Mr. Chairman and members of the committee, thank you for the 
opportunity to meet with you today on the Nuclear Posture Review and 
the National Nuclear Security Administration's (NNSA) role in working 
with the Department of Defense to implement it.
    The NPR reviews future national security needs, and the nuclear 
weapons stockpile and infrastructure required to support it. The review 
was carried out by DOD in close consultation and cooperation with the 
NNSA. Secretary of Energy Spencer Abraham and I fully endorse Secretary 
Rumsfeld's December 2001 Report to Congress on the NPR.
    The central question that I want to address today is: What are the 
implications of the NPR for nuclear weapons programs? More broadly, 
what does NNSA need to do to implement the findings and recommendations 
of the NPR? Let me first give the ``short answer,'' which I will then 
develop more fully.
    First, the NPR reaffirms that nuclear weapons, for the foreseeable 
future, will remain a key element of U.S. national security strategy. 
As a result, NNSA must continue to assure the safety and reliability of 
the U.S. nuclear stockpile. Our stockpile stewardship program is 
designed to do just that, and to do so in the absence of nuclear 
testing.
    Second, the NPR reaffirms the stockpile refurbishment plan agreed 
previously between DOD and NNSA, which calls for three warhead 
refurbishment programs--the W80, the W76 and the B61--to begin later 
this decade. As a result, NNSA must press ahead with its efforts to 
reverse the deterioration of its nuclear weapons infrastructure, 
restore lost production capabilities, and modernize others in order to 
be ready to begin those refurbishments on schedule.
    This raises a key point--the NPR will not reduce NNSA's costs or 
workload anytime soon. Regardless of the eventual size of the future 
stockpile, we will need to meet the agreed timelines, established with 
DOD well before the NPR, to begin refurbishments later in this decade 
on the three warhead types. In this regard, near-term costs are driven 
not by the total number of warheads to be refurbished, but by the need 
to restore production capabilities in time to carry out the first 
refurbishment of each type. Possible cost savings from having to 
refurbish fewer warheads for a smaller stockpile would not be realized 
until well into the next decade.
    Third, several NNSA initiatives have been endorsed by the NPR 
including efforts to:

        <bullet> Enhance nuclear test readiness;
        <bullet> Reestablish nuclear warhead advanced concepts teams at 
        the national labs and headquarters; and
        <bullet> Accelerate preliminary design work on a modern pit 
        facility (MPF).

    Given our multi-year plan to reintroduce program stability to the 
enterprise, we believe we are on track to complete acquisition of the 
tools and capabilities needed to assure future stockpile safety and 
reliability, achieve the needed restoration and modernization of the 
production complex, and implement the NPR initiatives.

  ROLE OF THE NUCLEAR WEAPONS ENTERPRISE IN ACHIEVING DEFENSE POLICY 
                                 GOALS

    Let me elaborate more on these matters starting from first 
principles. Four key defense policy goals were articulated in the 
Quadrennial Defense Review and later reaffirmed in the NPR. Briefly, 
the goals are to:

        <bullet> assure allies and friends by demonstrating the United 
        States' steadiness of purpose and capability to fulfill its 
        military commitments;
        <bullet> dissuade adversaries from undertaking military 
        programs or operations that could threaten U.S. interests or 
        those of allies and friends; 
        <bullet> deter threats and counter coercion against the United 
        States, its forces, and allies; and
        <bullet> defeat any adversary decisively and defend against 
        attack if deterrence fails.

    In seeking to meet these goals, the NPR has established as its 
centerpiece the ``new triad'' of flexible response capabilities 
consisting of the following elements:

        <bullet> non-nuclear and nuclear strike capabilities including 
        systems for command and control;
        <bullet> active and passive defenses including ballistic 
        missile defenses; and
        <bullet> R&D and industrial infrastructure needed to develop, 
        build, and maintain nuclear offensive forces and defensive 
        systems.

    Perhaps more so than in any previous defense review this concept of 
a new triad reflects a broad recognition of the importance of a robust 
and responsive defense R&D and industrial base in achieving our overall 
defense strategy.
    The ability of our modern defense industrial base to bring advanced 
defense technology rapidly into the field is well respected 
internationally among both friends and foes. The breadth and scope of 
the U.S. strategic modernization program of the early 1980s, including 
the potential of a Strategic Defense Initiative (SDI) then in the very 
early stages of R&D, was key to causing President Gorbachev in the late 
1980s to seek an end to strategic competition with the West and an end 
to the Cold War. The U.S. defense R&D and industrial base, including 
the nuclear weapons complex of the national laboratories, production 
plants, and test sites that supported development of sophisticated 
warheads with build rates exceeding 1,000 weapons per year, permitted 
that modernization program to take place and was a major factor in 
reassuring allies (who depend on the U.S. nuclear umbrella), in 
dissuading, that is, convincing the Soviet Union that arms competition 
with the United States was futile and in deterring aggression.
    Many modern military capabilities evolved from the legacy of the 
Manhattan Project, characterized by the massive application of science 
and technology to the problem of developing and producing the atomic 
bomb and leading to later efforts across a range of military systems. 
It was not only nuclear and conventional forces that provided 
deterrence during the Cold War, but the latent potential--reflected in 
our defense scientific, technical, and manufacturing base--to design 
and develop ever more advanced and capable military systems, and the 
ability to produce them in great quantities if need be.
    Now that the Cold War is over, how can the nuclear weapons 
enterprise act both to reassure allies, and to dissuade or deter future 
adversaries? An enterprise focused on sustainment and sized to meet the 
needs of a smaller nuclear deterrent can provide capabilities to 
respond to future strategic challenges. A future competitor seeking to 
gain some nuclear advantage would be forced to conclude that its 
buildup could not occur more quickly than the U.S. could respond. 
Alternatively, an ability to innovate and produce small builds of 
special purpose weapons, characteristic of a smaller but still vital 
nuclear infrastructure, would act to convince an adversary that it 
could not expect to negate U.S. nuclear weapons capabilities. The 
development and subsequent modification of the B61-7 bomb--converting a 
few of them into the B61-11 earth penetrator weapons--is a case in 
point.
    Thus it is not only in-being forces, but the demonstrable 
capabilities of the defense scientific, technical and manufacturing 
infrastructure, of which a responsive nuclear weapons infrastructure is 
a key part, including its ability to sustain and adapt, that provides 
the United States with the means to respond to new, unexpected, or 
emerging threats in a timely manner. This has served to reassure allies 
and friends, dissuade adversaries from strategic competition with the 
United States, and underpin credible deterrence in a changing security 
environment.

   SUPPORTING THE NPR--CAPABILITIES FOR A RESPONSIVE NUCLEAR WEAPONS 
                               ENTERPRISE

    How far along are we in creating a ``responsive nuclear weapons 
enterprise?'' The answer is: ``We're making progress, but we have a 
ways to go.''
    Over the past decade, our focus has been to develop means to assess 
and ensure the safety and reliability of the aging stockpile absent 
underground nuclear testing. We have also sought to reduce the size of 
the production infrastructure, consistent with post-Cold War force 
levels, with the goal of modernizing that smaller infrastructure to 
assure that the Nation has the capabilities it will need in the 
future.\1\ The results of these efforts have been mixed. To date we 
have been able to certify stockpile safety and reliability without 
underground nuclear testing, but the capability to do so in the future 
as the stockpile continues to age remains uncertain. No advanced 
warhead concept development is underway. Past under investment in the 
enterprise--in particular, the production complex--has increased risks 
and will limit future options. Currently, we cannot build and certify 
plutonium ``pits'' and certain secondary components, much less complete 
warheads (although we are working hard to re-establish these 
capabilities). Many facilities are in poor condition--some are 
unusable--and we have a rapidly aging workforce. Restoring lost nuclear 
weapons capabilities, and modernizing others, will require substantial 
investment over the next several years both to recapitalize laboratory 
and production infrastructure, and to strengthen our most important 
asset, our people.
---------------------------------------------------------------------------
    \1\ Among other things, over the past decade we have closed three 
facilities--Rocky Flats (pit production and reservoirs), the Mound 
Plant (non-nuclear components), and the Pinellas Plant (neutron 
generators), and reduced floor space by over 50 percent in the 
manufacturing facilities at Y-12.
---------------------------------------------------------------------------
    The nuclear weapons enterprise that we seek must: (1) continue to 
assure stockpile safety, reliability, and performance; and (2) respond 
rapidly and decisively to stockpile ``surprise'' or to changes in the 
international security environment. Let me address each in turn.
Assure stockpile safety, reliability, and performance
    Since 1995, there has been a Presidential requirement for an annual 
assessment of the safety and reliability of the nuclear stockpile and a 
determination of whether a nuclear test is required to resolve any 
safety or reliability problem. This is an extensive technical effort 
supported by data from non-nuclear experiments, computer simulations, 
the nuclear test database, aggressive and ever-improving surveillance, 
extensive peer review by other lab design teams, and independent 
assessments by others.
    To strengthen weapons assessment and certification, we are seeking 
fundamental improvement of our understanding of the physics of nuclear 
explosions, including the effects of aging or remanufacture on weapons' 
system performance. This requires development of new simulation 
capabilities that use large, high-speed computers and new experimental 
facilities in areas such as hydrodynamics testing, materials science, 
and high-energy density physics. Campaign goals for reducing 
uncertainties in our understanding of weapons' behavior have been 
established, and schedules and milestones have been set to meet these 
goals as soon as practicable. Because of the implications for stockpile 
certification, and the need to meet warhead refurbishment milestones, 
it is important to keep these campaigns on schedule.
    Elements of our program to meet annual certification requirements 
are well along and include:

        <bullet> Aggressive surveillance to predict and find problems 
        so that warheads can be refurbished well before aging degrades 
        safety and reliability;
        <bullet> Conduct planned warhead refurbishments on agreed 
        schedules;
        <bullet> Seek to anticipate stockpile problems and fix them, if 
        possible, before they arise; and
        <bullet> Maintain the required numbers of warheads in ready 
        state.

Respond rapidly and decisively to stockpile ``surprise'' or to changes 
        in the international security environment
    The NPR highlighted the importance of a robust and responsive 
defense R&D and industrial base as a key element of the new triad. Here 
we refer to the ability of the enterprise to anticipate innovations by 
an adversary and to counter them before our deterrent is degraded, and 
its resilience to unanticipated events or emerging threats--all the 
while continuing to carry out the day-to-day activities in support of 
the enduring stockpile. Unanticipated events could include the 
catastrophic failure of a deployed warhead type. Emerging threats could 
call for new warhead development, or support to DOD in uploading the 
responsive force. In any case, there are a number of capabilities and 
activities that will help us to hedge an uncertain future including our 
ability to:

        <bullet> Ensure sufficient reserve or surge capacity for both 
        the R&D and production;
        <bullet> Secure sufficient assets/capabilities (e.g., 
        transportation, tritium, etc.) to support the responsive force;
        <bullet> Retain appropriate numbers and types of weapons at 
        appropriate states of readiness, to ensure a variety of 
        replacement options;
        <bullet> Revitalize nuclear weapons advanced concepts efforts 
        at the labs and headquarters;
        <bullet> Develop and assess strategies for transitioning the 
        stockpile toward weapons that are intrinsically easier to 
        maintain and certify, conceivably without nuclear testing; and
        <bullet> Enhance readiness to resume underground nuclear 
        testing, if required.

    A key measure of ``responsiveness'' is how long it would take to 
carry out certain activities to address stockpile ``surprise'' or deal 
with new or emerging threats. Specific goals are being established for 
the following four activities:
    Fix stockpile problems: The ability to assess a stockpile problem, 
once one has been identified, and then design, develop, implement, and 
certify a fix will of course depend on the nature and scope of the 
problem. For a relatively major problem, we seek to be able to assess 
the problem and establish an implementation plan--Phases 6.2-6.2A for 
the ``fix'' within 1 year, and then to conduct development and 
production engineering activities leading to initial production--Phases 
6.3-6.5--within approximately 3 years.
    New warhead design, development, and initial production: New or 
emerging WMD threats from rogue states make it difficult to predict 
future deterrence requirements. If the U.S. is to have a flexible 
deterrent, it must be able to adapt its nuclear forces to changing 
strategic conditions. Adaptation and modernization of forces, including 
implementation of new technologies, will enable us to continue to 
achieve deterrence objectives more efficiently as we move to 
significantly lower force levels. Our goal is to maintain a sufficient 
R&D and production capability to be able to design, develop, and begin 
production on the order of 5 years from a decision to enter full-scale 
development of a new warhead.\2\ To achieve this goal, we must work 
with DOD to determine and prioritize potential weapons needs over the 
long term. In certain cases, it may be appropriate to design, develop, 
and produce a small number of prototype weapons both to exercise key 
capabilities and to serve as a ``hedge,'' to be produced in quantity 
when deemed necessary.
---------------------------------------------------------------------------
    \2\ During the era in which the current stockpile was designed, 
developed, tested, and manufactured, the Phase 6.3-6.5 timeframe 
(design, development, initial production) was roughly 5 years. At that 
time, continuing new requirements provided a ``pipeline'' capability so 
that weapons were regularly entering the stockpile.
---------------------------------------------------------------------------
    Quantity production of new warheads: While there are no plans to 
increase the size of the stockpile, we must have flexibility to respond 
to various scenarios. Our goal is to maintain sufficient production 
capacity to be able to produce new warheads in sufficient quantities to 
meet defense requirements without disrupting ongoing refurbishments. In 
this connection, refurbishment demands starting later in this decade, 
and continuing until about 2014, are expected to dominate production 
capacity. If necessary, we would work with DOD to adjust production 
priorities.
    Support to DOD in uploading the responsive force: We must assure 
that NNSA's tasks, such as warhead transportation, tritium support, 
etc., are not the ``long poles in the tent'' for uploading the 
responsive force. That is they must be carried out on a time scale 
consonant with DOD's ability to upload these weapons. Sufficient 
numbers of responsive warheads must be maintained in the active 
stockpile to ensure that ready warheads are available to meet upload 
timelines.

HOW DO WE GET TO WHERE WE WANT TO BE?--NATIONAL COMMITMENT AND A MULTI-
                               YEAR PLAN

    What do we need to do in order to achieve the capabilities of a 
modern and flexible nuclear weapons design and production enterprise? 
In short, we need to revitalize and sustain our production 
capabilities, our R&D and technology base, and our world-class 
workforce. Critical to this is a national commitment to safe and 
reliable nuclear forces, which the NPR has reaffirmed, and 
implementation of a stable, multi-year fiscal plan. Such a plan would 
provide the long-term commitment and stability to restore or modernize 
critical infrastructure and capabilities so that we can meet future 
workload requirements under a more rigorous regulatory regime. It would 
also allow us to redress the deferred maintenance backlogs, assure 
world-class science and engineering capabilities and workforce, and 
carry out the initiatives of the NPR. Let me elaborate further. 
Modernize nuclear weapons production capabilities
    The production complex which has seen site closures and 
considerable downsizing since the end of the Cold War, consists of the 
following ``one of a kind'' facilities: the Y-12 Plant (uranium and 
other components); the Pantex Plant (warhead assembly, disassembly, 
disposal, high explosive components); the Kansas City Plant (non-
nuclear components); and the Savannah River Plant (tritium extraction 
and handling). In addition, production activities for specific 
components occur at two national labs: Sandia National Laboratories 
(neutron generators), and Los Alamos National Laboratory (plutonium/
beryllium parts, detonators, and tritium targets for neutron 
generators).
    The current production complex is limited in the number of weapons 
that can be processed at the Pantex Plant, with the work split among 
units undergoing surveillance, refurbishment, or dismantlement. Planned 
renovations of existing facilities will expand capacity sufficient to 
meet the anticipated NPR workload and include a small reserve that 
would be available to fix unanticipated problems in the stockpile, 
respond to new warhead production requirements, or handle a potentially 
increased dismantlement workload (resulting from force reductions) 
without disrupting planned refurbishments.
    Qualified processes for some uranium manufacturing and processing 
are not currently in place, but plans are underway to expand the 
capacity and capability of the Y-12 Plant to meet the planned workload 
for replacing warhead secondaries and other uranium components.
    Regardless of the size of the future nuclear weapons stockpile, 
substantial work must be completed to get the production complex to the 
point where it is ready to begin refurbishment work on key systems 
later this decade. Additionally, new construction projects, including 
that for a modern pit production facility discussed below, are needed 
to ensure sufficient capacity for planned future-decades stockpile 
refurbishments.
Modernize the R&D and technology base
    Stockpile stewardship requires strong R&D capabilities to predict, 
discover, and evaluate problems in the current stockpile (especially 
those associated with component aging or defects), in order to design, 
develop, and certify new warheads in the absence of testing, and to 
attract and retain a world-class technical staff. Thus, in addition to 
modernizing production capabilities, efforts are underway to restore 
and improve the technical base of the nuclear weapons enterprise and to 
develop advanced capabilities to meet future requirements. Key needs 
include:

        <bullet> Continue to upgrade modeling and simulation 
        capabilities;
        <bullet> Improve hydrodynamic and sub-critical testing 
        capabilities for warhead assessments;
        <bullet> Complete high-energy density physics projects to 
        improve understanding of the physics of nuclear explosions;
        <bullet> Create modern microelectronics capabilities for DOE 
        and DOD components; and
        <bullet> Deploy modern production processes. 
Secure and sustain a world-class work force
    Recruitment and retention of an expert workforce is a major 
challenge. The aging of the technical staff at the national 
laboratories, the production plants and the Nevada Test Site (NTS) is a 
concern highlighted by a variety of review groups, including the 
congressionally-appointed Commission on Nuclear Weapons Expertise 
(Chiles Commission) and the Foster Panel. In its 1999 report, the 
Chiles Commission observed that the average age of those supplying 
critical skills to the weapons program is 48 years--a population 
considerably older than that for the average U.S. high-tech industry. A 
major factor in this demography was the low hiring rates in the early-
to-mid-1990s as budgets for the weapons program were in decline. 
Recruiting rates have gone up modestly, but are still much lower than 
required to support planned programs. More recently, morale problems at 
the laboratories in the wake of security problems have raised concerns 
for retention, and recruiting has been more difficult than in the past 
because of competition from the private sector of the U.S. job market, 
limited knowledge about the program among the general population, and 
adverse publicity, among other factors.
    But the tide is turning. Morale is improving. Both the laboratories 
and the plants are working closely with the Federal staff to attract 
and retain the future workforce. Maintaining a strong science component 
of the stockpile stewardship program, coupled with real opportunities 
for working on advanced warhead concepts, developing a strong intern 
program to integrate new scientists and engineers into the weapons 
program, improving ties with universities, fixing the deteriorating 
manufacturing infrastructure, and developing new R&D facilities such as 
NIF, DARHT, and MESA where the most advanced research in the world is 
taking place, are all examples of these efforts. The loss of knowledge 
resulting from retirement and attrition, and the need to transfer 
critical knowledge heighten the urgency of this effort.

             IMPLICATIONS OF THE NPR FOR KEY NNSA MISSIONS

    Next, I describe how specific NNSA missions will be affected by the 
NPR, and address the ``game plan'' for implementation of the NPR 
initiatives.
Stockpile levels and readiness requirements
    The NPR stated a goal to reduce the operationally-deployed 
strategic stockpile to 3,800 nuclear warheads by 2007 and 1,700-2,200 
nuclear warheads by 2012. The force would be based on 14 Trident SSBNs 
(with 2 SSBNs in overhaul at any time), 500 Minuteman III ICBMs, 76 B-
52H bombers, and 21 B-2 bombers. There would also be a non-strategic 
stockpile whose exact quantities and readiness requirements are still 
to be determined.
    Although the NPR did not determine specific stockpile quantities or 
readiness requirements, it did introduce to the stockpile lexicon the 
categories ``operationally-deployed'' and ``responsive.'' 
Operationally-deployed warheads are warheads fully ready for use and 
either mated on or allocated to operational delivery systems; these 
warheads are part of the active stockpile.\3\ Responsive warheads are 
warheads available to be uploaded to delivery systems in the event that 
world events require a more robust deterrence posture; most or all of 
these warheads would also be part of the active stockpile.
---------------------------------------------------------------------------
    \3\ Active weapons are fully maintained with all Limited Life 
Components (LLCs e.g. tritium bottles) installed. Inactive weapons have 
the LLCs removed upon expiration.
---------------------------------------------------------------------------
    Remaining warheads not slated for retirement or dismantlement would 
be retained in the inactive stockpile, available for use in stockpile 
evaluation support or as one-for-one reliability replacements for 
warheads in the operationally deployed or responsive forces. Several 
factors would determine the nature, size, and scope of warheads in this 
``other'' category including: (1) progress in reestablishing lost 
production capabilities and infrastructure; (2) response times to fix 
problems in the stockpile, carry out other required refurbishments to 
sustain the stockpile, and develop and produce new or modified 
warheads; and (3) the desire to retain a sub-population of non-
refurbished warheads to hedge against potential common mode failures. 
Some warheads in this category would, based on future decisions, be 
retired and eliminated. NNSA and DOD will work together to clarify the 
NPR ``drawdown'' in terms of the numbers and types of warheads, by 
year, to be maintained in the active and inactive stockpiles at various 
states of readiness.
Stockpile surveillance
    In the past, if a stockpile problem occurred, there was the 
flexibility, with larger warhead numbers, to maintain deterrence 
requirements by reallocating warheads to targets. With the force 
reductions planned under the NPR, these options diminish. As a result, 
as we go to lower numbers, we need increased levels of confidence in 
the safety and reliability of remaining deployed forces. This drives 
the need for an increasingly robust surveillance program to not only 
strengthen our ability to detect existing stockpile problems but also 
to predict and respond to stockpile problems (including problems 
associated with aging) before they occur. Key efforts planned over the 
next few years will greatly increase our knowledge of component aging. 
A study to strengthen surveillance efforts has recently been completed. 
A detailed plan to implement its recommendations will be developed 
during this fiscal year.
Stockpile refurbishments--meeting our commitments to DOD
    The NPR reaffirmed the current stockpile refurbishment plan jointly 
agreed by NNSA and DOD, including the ``block upgrade'' concept which 
provides flexibility to adjust the plan to evolving weapons numbers.\4\ 
The plan calls for all eight warhead types in the enduring stockpile to 
be refurbished over the next 25 years. Near-term efforts focus on four 
warheads: the W87 (ICBM) the B61-7/11 (gravity bomb), the W80 (ALCM), 
Advanced Cruise Missile (ACM) and Tomahawk Land Attack Missile (TLAM-
N), and the W76 (Trident SLBM).

    \4\ The ``block upgrade'' approach breaks up our major planned 
refurbishments into 5-year ``blocks,'' with the option to either 
continue refurbishments with the current design, switch to a different 
design based on new information provided by surveillance efforts or as 
a result of new mission requirements, or simply stop refurbishments 
based on reduced weapons requirements.

        <bullet> W87 (ICBM): The W87 is currently being refurbished in 
        order to enhance the structural integrity of the warhead. This 
        includes small modifications to the primary, replacement of 
        some non-nuclear components in the warhead, and refurbishment 
        of some secondary components.
        <bullet> B61-7/11 (Bomb): Some secondary components in the B61-
        7/11 show signs of aging that could affect warhead reliability, 
        if left unchecked. B61-7/11 refurbishment, scheduled to begin 
        in fiscal year 2006, will include secondary refurbishment and 
        replacement of some foam support, cables, and connectors.
        <bullet> W80 (ALCM): The W80 will need replacement of its 
        neutron generators. This provides an opportunity to improve 
        surety features and introduce a new gas transfer system. W80 
        refurbishment is scheduled to begin in fiscal year 2006.
        <bullet> W76 (SLBM): W76 refurbishment, scheduled to begin in 
        fiscal year 2007, will include re-qualifying the pit, replacing 
        the primary high-explosive, secondary refurbishment, a new 
        arming, fuzing, and firing (AF&F) system, and a new gas 
        transfer system.

    Efforts to sustain and modernize our R&D infrastructure, restore 
our production capabilities, and recruit and retain a work force 
``second to none'' are absolutely essential for the effective execution 
of stockpile refurbishment programs. Our ability to meet refurbishment 
timelines is a critical measure of merit for stockpile stewardship.
Revitalization of nuclear weapons advanced concepts efforts
    The NPR recognized the need to revitalize nuclear weapons advanced 
concepts activity, which could include extending concepts that have 
been developed and tested but not yet deployed, as well as new 
concepts. To assess further nuclear weapons modernization options in 
connection with meeting new or emerging military requirements, NNSA has 
taken an initiative, endorsed by the NPR, to reestablish small advanced 
warhead concepts teams at each of the national laboratories and at 
headquarters in Washington, DC. DOD and NNSA will jointly review 
potential requirements for new or modified warheads, and identify 
opportunities for further study.
    The vision is for small, focused teams (involving both lab and 
headquarters personnel), in coordination with DOD and the services, to 
assess evolving military requirements, investigate options, and ensure 
our DOD partners understand what is and is not possible. The teams will 
carry out theoretical and engineering design work on one or more 
concepts, including options to modify existing designs or develop new 
ones. In some instances, these activities would proceed beyond the 
``paper'' stage and include a combination of component and subassembly 
tests and simulations to introduce an appropriate level of rigor to 
challenge our designers.
    Importantly, this effort will provide opportunities to train the 
next generation of nuclear weapons scientists and engineers. Part of 
this effort will be to demonstrate capabilities to assess options and 
associated timelines for new warhead design, development, and 
production (e.g., to replace a failed warhead or to field a new system 
to meet new military requirements) and to assist efforts to assess cost 
and other implications of any adjustments in production readiness 
needed in response.
Warhead retirements and dismantlements
    Although no new retirements or eliminations of warheads were 
announced in the NPR, DOD and NNSA will jointly address the broad 
question of the size and character of the active stockpile and inactive 
stockpile. It will be prudent for NNSA to maintain a reserve capacity 
in addition to that planned for the near-term refurbishment workload, 
for warhead eliminations, addressing unforeseen problems in the 
stockpile, and for possible new production. Under current planning 
assumptions, NNSA would not define a firm schedule for dismantlements; 
rather NNSA would ``load level'' Pantex operations by scheduling 
dismantlements in a way that does not interfere with ongoing 
refurbishment or other production efforts.
Warhead transportation needs
    NNSA is responsible for the ground transportation of nuclear 
warheads and nuclear material within the U.S. including transport of 
warheads between DOD sites. We will need to assess the NPR's 
implications for NNSA's transportation workload. Decisions to retire or 
dismantle additional warheads as part of the drawdown, or warhead 
upload requirements, could drive increased transportation needs. The 
future transportation workload should be manageable given current plans 
to ramp up transportation assets and associated personnel. That said, 
NNSA will work with DOD to assure that longer-term warhead 
transportation needs deriving from the NPR can be met.
Enhanced test readiness
    President Bush supports a continued moratorium on underground 
nuclear testing; nothing in the NPR changes that. Over time, we believe 
that the stewardship program will provide the tools to ensure stockpile 
safety and reliability without nuclear testing. But there are no 
guarantees. It is only prudent to continue to hedge for the possibility 
that we may in the future uncover a safety or reliability problem in a 
warhead critical to the U.S. nuclear deterrent that could not be fixed 
without nuclear testing.
    Based on a 1993 Presidential directive, NNSA currently maintains a 
capability to conduct an underground nuclear test within 24 to 36 
months of a Presidential decision to do so. Test readiness is 
maintained principally by the participation of nuclear test program 
personnel in an active program of stockpile stewardship experiments, 
especially the subcritical experiments carried out underground at the 
Nevada Test Site (NTS).
    During the NPR, two concerns were raised about our test readiness 
program. First, a 2- to 3-year readiness posture may not be sustainable 
as more and more experienced test personnel retire. Not all techniques 
and processes required to carry out underground nuclear tests are 
exercised with the work carried out at the NTS. As experienced 
personnel retire, it will become more difficult to train new people in 
these techniques, further degrading test readiness. This argued for an 
approach in which key capabilities required to conduct nuclear tests 
are identified and exercised regularly on projects making use of a 
variety of nuclear test-related skills.
    Second, the current 2- to 3-year posture may be too long. If we 
believed that a defect uncovered in the stockpile surveillance program, 
or through new insight gained in R&D efforts, had degraded our 
confidence in the safety and/or reliability of the W76 warhead--the 
warhead deployed on Trident submarines and comprising the most 
substantial part of our strategic deterrent--the ability to conduct a 
test more quickly might be critically important.
    To address these concerns, the NPR endorsed the NNSA proposal to 
enhance test readiness by reducing the lead-time to prepare for and 
conduct an underground nuclear test. To support this, NNSA has 
allocated $15 million in fiscal year 2003 to begin the transition to an 
enhanced test readiness posture. Funds will be used among other things 
to:

        <bullet> augment key personnel and increase their operational 
        proficiency,
        <bullet> begin the mentoring of the next generation of testing 
        personnel,
        <bullet> conduct additional subcritical experiments and test-
        related exercises,
        <bullet> replace key underground-test-unique components,
        <bullet> modernize certain test diagnostic capabilities, and
        <bullet> decrease the time required to show regulatory and 
        safety compliance.

    NNSA will work with DOD over coming months to refine test scenarios 
and evaluate cost/benefit tradeoffs in order to determine, implement, 
and sustain the optimum test readiness time.
Accelerate planning for a Modern Pit Facility (MPF)
    Our inability to produce and certify plutonium pits is a shortfall 
in our stockpile stewardship program. Pit production was terminated at 
Rocky Flats in 1989 and is now being re-established on a limited scale 
at Los Alamos National Laboratory. Only engineering test units of a 
single warhead type have been produced to date, however, and no ``war 
reserve'' units are expected to enter the stockpile for about 7 years. 
Current plans envision Los Alamos producing about 20 pits per year with 
a surge capacity to perhaps 50.
    The current pit production strategy is first to carry out an 
assessment of pit lifetime, through our enhanced surveillance campaign, 
to yield initial results by fiscal year 2003 with completion by fiscal 
year 2006. Once that is completed, our policy is to reestablish pit 
production capability in a time frame and with a capacity sufficient to 
meet national needs. Implementing that policy means fielding a 
capability that is:

        <bullet> available in time to replace pits that exceed minimum 
        projected lifetime;
        <bullet> sized to support the planned workload, with ready 
        reserve to address ``surprise'' requirements for force 
        augmentation, and potential new warhead production; and
        <bullet> modular (i.e., expandable further) if further needs 
        dictate.

    One thing is now certain--the Los Alamos production capacity will 
be insufficient to meet future requirements for pits. As a result of 
the NPR, we seek to accelerate planning and initial design work to 
establish an MPF. Relevant activities about to begin include 
preliminary MPF design, associated technology development, and 
initiation of the National Environmental Policy Act process.
Tritium
    While the NPR will result in a smaller active stockpile of both 
operationally deployed and responsive forces, the nuclear stockpile--by 
warhead type, by year, and by readiness state--has not yet been 
determined. This will be done in detail as part of the NWC process and 
will enable NNSA to plan for the delivery of sufficient tritium to meet 
all military requirements. Because stockpile reductions will not be 
accomplished for several years, we do know that there will be no near-
term reduction in the immediate demand for tritium. NNSA plans to begin 
tritium production in commercial reactors in fall 2003, and to complete 
construction and begin operations of a new Tritium Extraction Facility 
(TEF) at the Savannah River Site so that tritium can be delivered to 
the stockpile in advance of need.
    It will be important for NNSA to assess future tritium needs in 
light of a number of factors in addition to NPR reductions in the 
active stockpile. These include potential changes to the tritium 
loadings of several warhead types and potentially increased ``pipe 
line'' needs at the Savannah River tritium facilities (in connection 
with the new extraction facility).

                               CONCLUSION

    Mr. Chairman, today, our nuclear stockpile is safe, secure, and 
reliable. We are working hard to assess the inplications of the NPR for 
NNSA and to work closely with our DOD partners in implementation. Most 
importantly, the flexibility to sustain our nuclear weapons stockpile, 
to adapt current weapons to new missions, or to field new weapons, if 
required, depends on a healthy program for stockpile stewardship and 
peer-review-based certification as well as a robust infrastructure for 
nuclear weapons production. As numbers of nuclear forces are reduced, 
it becomes even more important to maintain high confidence in the 
safety and reliability of remaining forces. We must also have the 
capability to respond to changes in the strategic environment, if need 
be, by being able to reconstitute larger force levels with safe and 
reliable warheads and develop, produce, and certify new or modified 
nuclear warheads to meet new military requirements. Achieving these 
goals will require a strong commitment to the recapitalization of the 
nuclear weapons infrastructure--a smaller infrastructure, to be sure, 
but one that is sufficiently modern and capable to fully support the 
NPR and, more broadly, our Nation's defense strategy.

    Chairman Levin. General Gordon, thank you.
    Admiral Ellis.

STATEMENT OF ADM. JAMES O. ELLIS, JR., USN, COMMANDER IN CHIEF, 
                UNITED STATES STRATEGIC COMMAND

    Admiral Ellis. Thank you, Mr. Chairman, and distinguished 
members of the committee. I, too, have a brief written 
statement I would offer for the record and a few comments 
before we begin the rounds of questioning. It is an honor again 
to appear before you, particularly as today we address the 
changes and opportunities represented in the recently completed 
Nuclear Posture Review.
    In so doing, as Senator Ben Nelson noted, I represent the 
men and women of all of our strategic forces, and in the short 
time that I have had command, I have deepened my already 
enormous respect for the United States Strategic Command's 
(STRATCOM) exceptional professionals, both civilian and 
military, who provide, as they always have, a priceless service 
to our Nation. While sustaining the rigor and professionalism 
required to support our nuclear forces, they are fully engaged 
in reflecting tremendous change and challenges ahead as we work 
to transform fundamentally the strategic landscape.
    We welcome the results of the Nuclear Posture Review. More 
than a much-needed capabilities assessment, it fundamentally 
addresses more broadly the entire concept of deterrence. It 
brings increased focus to ensure all our strategic forces, 
including delivery systems, weapons, infrastructure, 
communications, and planning receive the resources required to 
enhance their capabilities and in many cases extend their lives 
well beyond their original design lives. The attention to 
infrastructure is particularly welcome as it recognizes the 
contribution to deterrence of what has been a linchpin of 
America's military might, and that is our industrial and 
technological superiority.
    I appreciate, echo, and acknowledge the yeoman effort John 
Gordon and his team at NNSA have expended in bringing the 
nuclear weapons complex back to health.
    A recurring theme from the past decade, repeated by the 
Nuclear Posture Review, is the importance of our people. From 
the civilian and military personnel at our headquarters, to the 
scientists and engineers in the laboratories, and the sailors 
and airmen operating our strategic forces, they continue a 
legacy and culture of which we, as Americans, can all be proud. 
The rigor and exactness appropriate to their awesome 
responsibilities, which is exemplified by the culture of the 
earlier Strategic Air Command, continue to this day in the 
United States Strategic Command and indeed in all of our 
nuclear infrastructure. This hallmark of excellence is the 
standard by which we will measure ourselves as we boldly move 
into a dynamic future.
    As a military team, I and the other unified commanders in 
chief are fully engaged in supporting the disparate elements 
contributing to the success of the Nation's global war on 
terrorism. That is a team effort, but I also very clearly 
understand that there is only one military commander in chief 
who directly oversees our strategic forces. That task is 
assigned to me. My shipmates and I at the United States 
Strategic Command are mindful of this uniquely important 
responsibility and are committed to continuing that history of 
service to this great Nation. Thank you. I welcome your 
questions.
    [The prepared statement of Admiral Ellis follows:]

          Prepared Statement by Adm. James O. Ellis, Jr., USN

    Mr. Chairman, Senator Warner, and distinguished members of the 
committee.
    I appreciate the opportunity to appear before you today to testify 
on the Nuclear Posture Review. This is my first appearance before this 
committee since my confirmation hearing last September. I am honored to 
be invited to participate in this hearing on a major report, the 
conclusions of which will reshape and revitalize, respectively, our 
strategic policy and capabilities.
    As Congress recognized in the Fiscal Year 2001 National Defense 
Authorization Act, a periodic comprehensive review of our Nation's 
strategic posture is appropriate as the national security environment 
changes. The last Nuclear Posture Review was conducted 8 years ago to 
address how to effectively draw down our strategic forces in the post-
Cold War world. For a number of reasons, including a rapidly changing 
international environment and complex new national security challenges, 
the time is right to again assess our strategic direction. This Nuclear 
Posture Review provides that assessment and, indeed, moves beyond 
assessment to provide the initial details of a new direction, proposing 
a comprehensive approach that builds on the Quadrennial Defense 
Review's strategic foundation of assure, dissuade, deter, defend, and 
defeat.
    The Nuclear Posture Review was conducted by the Office of the 
Secretary of Defense. U.S. Strategic Command participated in the review 
as did the Joint Staff and the Services, particularly the Air Force and 
the Navy. We were consulted on many issues and provided our expertise 
as well as our frank opinions on the report's findings as they were 
developed. I am pleased with the Nuclear Posture Review's balance and 
focus and look forward to working with Congress, the Office of the 
Secretary of Defense, the Joint Staff, and the Services as we work to 
implement these findings in the months ahead.
    Many of the details and key issues involving the Nuclear Posture 
Review are familiar to you and have been addressed by others, but I 
would, however, like to discuss some of the key findings from my 
perspective as the combatant commander of our Nation's strategic 
forces.

                     MODERNIZATION AND SUSTAINMENT

    The first finding I'd like to highlight is the recognition of a 
pressing need for investment across the full range of our strategic 
capabilities. As we work to reduce deployed strategic nuclear warheads, 
this investment is needed to sustain and improve our aging operating 
forces, to recapitalize our infrastructure which has atrophied over the 
last 10 years, and to refine and enhance current systems. Reductions of 
operationally deployed nuclear warheads to the lowest numbers 
consistent with national security, as the President directed, will 
require that remaining systems be reliable, sustainable, and, 
therefore, fully credible.
    Our current operating forces, our intercontinental ballistic 
missiles, our bombers, and our strategic ballistic missile submarines, 
and their weapons, will remain the backbone of our strategic strike 
forces for at least the next 20 years. These platforms and their weapon 
systems are projected to remain in service well beyond their original 
design lives and require significant sustained investment to monitor 
and, if necessary, to replace aging and obsolete components in addition 
to more comprehensive overhauls or life extension programs. The NPR 
fully recognizes this.
    Our operating forces could not be effective without robust 
complementary capabilities including command, control, and 
communications systems as well as effective intelligence and planning 
support. Increased strategic flexibility and adaptability will require 
an equally robust but much more capable nuclear command and control 
system. The Nuclear Posture Review identifies advances in speed and 
capabilities in these areas as critical to improving the capabilities 
of our strike forces. General Myers, the Chairman of the Joint Chiefs 
of Staff, has similarly identified improvement in command and control 
capabilities as a vital component of our military's transformation. I 
fully support this renewed focus on improving these military 
capabilities. Investments in these areas are critical enablers to not 
only strategic forces but our overall military capability.
    As the Secretary of Defense stated in his testimony last June, our 
military has been forced to make increasingly difficult choices between 
equally necessary procurement, readiness, and research and development 
needs over the last 10 years. Strategic forces have not been excluded 
from this trend. The Nuclear Posture Review recognizes this and 
recommends renewed investment in existing and future operating forces, 
supporting capabilities, and strategic infrastructure. I fully support 
those recommendations. Thank you for the positive steps you've already 
taken in this committee to provide much needed funding to improve these 
capabilities and for your continued support in this vital area.

                       NUCLEAR WARHEAD REDUCTIONS

    A second key finding of the Nuclear Posture Review is the need for 
a measured approach to operationally deployed nuclear warhead 
reductions. This approach meets the President's direction and 
establishes as a goal the lowest number of deployed strategic nuclear 
warheads consistent with the Nation's national security needs. I fully 
support it.
    The Nuclear Posture Review directs periodic assessments to evaluate 
the strategic environment and our progress in developing new 
capabilities for our strategic forces. These assessments allow us to 
respond appropriately to any emerging threat, dissuade any potential 
adversary, and provide assurance to our allies of our resolve.

                 BROADER DEFINITION OF STRATEGIC FORCES

    The third key finding of the Nuclear Posture Review is the 
recognition that our strategic capabilities should not be limited to 
nuclear weapons alone. The inclusion of non-nuclear, and, potentially, 
non-kinetic capabilities into our strategic options provides a number 
of benefits. First, it helps to raise the nuclear threshold by 
providing the President with strategic options in a crisis or conflict 
that do not rely solely on nuclear weapons, yet still convey the 
Nation's resolve and determination. Second, integrating non-nuclear 
capabilities into strategic forces strengthens our joint approach to 
developing and operating military forces. In the past, there have often 
been unique requirements for nuclear forces beyond those of 
conventional forces. Now, with technological advances, we have the 
potential to seamlessly integrate existing or projected enhancements to 
non-nuclear capabilities such as communications, intelligence flow, and 
precision strike to improve our strategic capabilities. The integration 
of what had previously been considered conventional capabilities into 
national strategic plans allows for the development of responsive, 
adaptive, and interoperable joint forces that can be employed in a 
wider range of contingencies. There are certainly challenges associated 
with incorporating non-nuclear capabilities into our strategic forces, 
however, the benefits far outweigh the concerns.

                        OPERATIONAL FLEXIBILITY

    The final finding of the Nuclear Posture Review is the need for 
more flexible and adaptive planning in support of our strategic forces. 
U.S. Strategic Command is in the process of developing a more flexible 
and adaptive planning system that retains the rigor and expertise 
developed over the last 40 years, yet employs modern computing 
techniques and streamlined processes to significantly improve our 
planning capability for rapid, flexible crisis response in the face of 
new national security challenges. This new approach to planning will 
require significantly more collaboration with the regional combatant 
commanders as we continue to better integrate our military capabilities 
across the spectrum of conflict.

                               CONCLUSION

    There are many positive results that will accrue from the Nuclear 
Posture Review. A comprehensive and focused assessment of our strategic 
posture has provided new concepts that can both allow us to reduce our 
deployed nuclear weapons inventory and strengthen our national security 
to meet this era's new challenges. This bold change in direction will 
allow us to begin shifting our focus from the number of launchers and 
weapon platforms stipulated by previous treaties and based on latent 
mistrust of former adversaries. Instead, we will move toward 
significantly lower numbers of operationally deployed nuclear weapons 
reflecting our new relationship with Russia and technologically 
transform our strategic posture from a purely nuclear focus to the 
broader capabilities of the new triad.
    The new triad, when development is complete, will include improved 
strategic strike forces, active and passive defenses, and a responsive 
infrastructure all supported by improved command and control as well as 
robust intelligence and planning capabilities. Over the next decade two 
of the legs of the NPR's new triad, defenses and a responsive 
infrastructure, will be combined with a modernized strategic strike 
force including nuclear and non-nuclear options. This new triad can 
broaden the definition of strategic forces, enhance deterrence concepts 
against a wider range of threats, and offer dramatic improvements in 
the speed, accuracy, and agility of the full range of our Nation's 
military response.
    I look forward to reporting in the future on our progress in 
implementing the findings of the Nuclear Posture Review as we, 
together, reshape our strategic capabilities to meet the challenges of 
this new era.
    Thank you very much. I welcome your questions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
            basic terminology of the nuclear posture review

    Strategic Nuclear Forces (Strategic Weapon Systems): Strategic 
nuclear platforms with their associated strategic nuclear weapons.

        <bullet> Strategic nuclear platforms:  (retained in the NPR)

                <bullet> 14 SSBNs
                <bullet> 500 MMIII
                <bullet> 76 B-52s & 21 B-2s

        <bullet> Strategic nuclear platform reductions:

                <bullet> 50 Peacekeeper missiles
                <bullet> 4 Trident submarines
                <bullet> All B-1s (nuclear re-role requirement 
                eliminated)

    Strategic Nuclear Weapon: A nuclear warhead and its necessary 
arming, fuzing, and firing components necessary to produce a nuclear 
yield that can be loaded on a strategic platform.
    Nuclear Warhead: A device that contains the nuclear or 
thermonuclear system.
    Strategic Active Stockpile: Operationally deployed weapons, the 
responsive force and logistic spares.

        <bullet> Operationally Deployed Weapons: Strategic nuclear 
        weapons that are on operational ballistic missiles or on 
        bombers or in bomber base weapon storage areas (logistic spares 
        in bomber weapon storage areas would not be counted). 
        Operationally Deployed Weapons are for immediate and unexpected 
        threats.
        <bullet> Responsive Force: Strategic nuclear weapons available 
        for uploading on existing strategic nuclear platforms. (Note: 
        Some weapons may be in inactive stockpile.)
        <bullet> Logistic Spares: Strategic nuclear weapons required to 
        meet Operationally Deployed Strategic Nuclear Weapons 
        maintenance requirements.

    Strategic Inactive Stockpile: Strategic nuclear warheads reserved 
for DOE's Quality Assurance and Reliability Testing (QART) and 
Reliability Replacement requirements. These warheads have certain 
limited life components removed, but are otherwise maintained to the 
same standards as weapons in the active stockpile.

        <bullet> Quality Assurance and Reliability Testing (QART): 
        Nuclear warheads retained in the inactive stockpile to replace 
        weapons in the active stockpile withdrawn for DOE's 
        surveillance program.
        <bullet> Reliability Replacement: Nuclear warheads retained in 
        the inactive stockpile to replace similar weapons in the 
        stockpile that suffer a catastrophic failure.

    Total Strategic Stockpile: The summation of the strategic active 
stockpile and strategic inactive stockpile.

    The following are not part of the stockpile.

    Retired Warheads: Warheads no longer required for military use and 
are not part of the active and inactive stockpiles. These warheads are 
awaiting dismantlement by DOE.
    Dismantlement: The physical separation of high explosives from 
special nuclear material. Usually critical nuclear components are 
retained and non-nuclear components are placed in a demilitarization 
program.

    Chairman Levin. Thank you very much, Admiral Ellis. Let us 
try a first round of 8 minutes today. Secretary Feith, your 
prepared statement indicates that the Nuclear Posture Review 
``calls for the destruction of some, but not all of the U.S. 
warheads removed from the operationally deployed force.'' Can 
you tell us how many warheads will be destroyed?
    Secretary Feith. Mr. Chairman, I can't tell you that now. 
That decision has not yet been made.
    Chairman Levin. Has the decision been made to destroy some 
of the warheads removed?
    Secretary Feith. Yes.
    Chairman Levin. That is very different from the briefing we 
got at the Pentagon, which says that the downloaded warheads 
will be preserved for the responsive force, that is the slide 
that I am reading from.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Feith. Mr. Chairman, my understanding is we are 
going to be preserving some of the warheads, but they will not 
be available for near-term use. But some of the warheads that 
will be reduced from the arsenal will be destroyed.
    Chairman Levin. I just want to alert you that what you say 
is different from what the Pentagon slide says. It says that 
the downloaded warheads are going to be preserved for the 
responsive force. You are saying the NPR says some will, some 
won't?
    Secretary Feith. Correct.
    Chairman Levin. You don't know how many?
    Secretary Feith. The decision hasn't been made yet.
    Chairman Levin. Where in the Nuclear Posture Review does it 
say some would be destroyed? Can you quote that for us?
    Secretary Feith. I don't have it memorized.
    Chairman Levin. Perhaps your staff can help you. Go on to 
identify where in the Nuclear Posture Review that says that 
some of the warheads that are going to be removed from the 
weapons, from the planes and the missiles will be destroyed. We 
cannot find that in the Nuclear Posture Review, by the way.
    What do you expect the Russian response will be if the 
decision is made to retain those warheads instead of destroy 
them, will it be positive or negative? Do they care whether we 
retain nuclear warheads? Have they indicated to you or to 
anyone else in the administration if that matters to them as to 
whether to destroy warheads, that is if they would be affected 
by our decision not to destroy warheads?
    Secretary Feith. Mr. Chairman, we have been engaged in 
conversations with the Russians for months now on the concept 
of strategic stability in the world today. I think the same 
phenomenon is true on their side that is true on ours, which is 
that there are some people who are very open to the idea of a 
completely new concept of strategic stability, and a completely 
new relationship between the United States and Russia, one in 
which we are not focused on the threats that the United States 
poses to Russia or Russia poses to the United States, but 
rather recognizes the lack of hostility in our relationship. We 
are focused on developing cooperation with Russia to deal with 
threats we face in common.
    Chairman Levin. You are making no assumptions relative to 
Russia's nuclear weapons delivery systems and warheads in 
reaching your own conclusion? Is it irrelevant to you as to 
what their inventory is?
    Secretary Feith. We are not sizing our nuclear force 
against the Russian threat as was done during the Cold War. 
That is a very significant change in the way we are approaching 
this issue.
    Chairman Levin. Is it fair to say that it is irrelevant 
what the size of their inventory is?
    Secretary Feith. No. It would not be fair to say that it is 
irrelevant. We are doing a capabilities-based approach to 
sizing our nuclear forces rather than the old threat-based 
approach. That does not mean that the relationship with Russia 
is irrelevant. It doesn't mean that their capabilities are 
irrelevant, but it does mean that the approach that we have 
taken to crafting our nuclear force posture is fundamentally 
different from the one we took in the Cold War, where we were 
focused on a specific threat from a specific country and doing 
our own calculations based on adding up targets in the Soviet 
Union.
    Chairman Levin. Looking at the number of nuclear delivery 
systems, bombers, submarines, and ICBMs under the 1994 Nuclear 
Posture Review and looking at it under the new Nuclear Posture 
Review, the numbers remain almost exactly the same, is that 
correct?
    Secretary Feith. The numbers of delivery platforms remain 
largely the same, but the number of operationally deployed 
warheads comes down by approximately 65 percent.
    Chairman Levin. Correct. That is depending on whether or 
not you destroy any of those that would be available. If you do 
not destroy any, they would be available to be placed on those 
delivery platforms, is that not correct?
    Secretary Feith. Not in the near term.
    Chairman Levin. What do you mean near term, how many 
months?
    Secretary Feith. It varies from system to system.
    Chairman Levin. How many months? Two months to 6 months? 
Give us the range, depending on the system.
    Secretary Feith. Actually, out of concern for exactly where 
the line is between what's public and what's classified, I 
think I'd like to ask Admiral Ellis.
    Chairman Levin. Assuming that there is no destruction, they 
would be available? Is that correct?
    Secretary Feith. As I said in my opening remarks, I think 
this issue of availability, which is another way of referring 
to the issue of reversibility, really bears some special 
attention.
    Chairman Levin. Are you not keeping them for a certain 
reason, so that they can be placed on systems?
    Secretary Feith. We are keeping them for the purpose of 
having flexibility.
    Chairman Levin. So that they can be placed on systems? Is 
that not the point?
    Secretary Feith. Mr. Chairman, there is an important point 
here that I am trying to make. Because we do not have the 
capability to produce new nuclear weapons now, and will not for 
many years, if we want to preserve some flexibility, even 
though we are going to substantially reduce the weapons that we 
have available for use, if we want to preserve some flexibility 
we are going to take warheads that are available right now for 
immediate use, and we are going to render them unavailable for 
immediate use, but we are not going to go all the way to 
destroying them.
    Chairman Levin. That's true. You are just repeating what 
you have said already. But are they going to be available for 
short-term use, or for near-term use, or for long-term use? 
They are going to be available because you are keeping them and 
you are not destroying them. Let me just get to the point.
    We have a 1994 NPR. We have how many B52s, 66, under yours 
76. How many B2s? -- 20 in 1994, how many under yours, 21. How 
many Trident subs? -- 14 in 1994, how many under yours, 14. The 
totals are exactly the same in terms of delivery systems, and 
if you maintain the warheads in storage so that they can be 
placed back on those platforms, then there is no difference 
between your Nuclear Posture Review and the one in 1994, except 
that you are moving lots of warheads into storage away from 
their delivery systems. That is the difference.
    That is your purpose. You want that flexibility. Why hide 
it? You want to have it both ways. You say on the one hand you 
want the flexibility to reinsert it. On the other hand, it is, 
as you put it, ``exquisitely different,'' dramatically 
different from what it was. How is this dramatically different? 
It looks to me exactly the same, except you moved some 
thousands of warheads off from the delivery systems into a 
warehouse where they are available for reinsertion into the 
delivery system should you need them. That is the purpose of 
your flexibility.
    Secretary Feith. They are not available in the near term.
    Chairman Levin. I understand near term.
    Secretary Feith. In some cases it could be years before 
they could be available for use, and the issue of what 
constitutes a reduction is really what we are talking about. I 
do think it is noteworthy that agreements over recent decades 
that were praised as nuclear reductions did not do with 
warheads any more than we are proposing to do with warheads. I 
think it is also significant that the last administration 
talked about making reductions and hedging by putting weapons 
into storage, just as we are suggesting moving weapons into a 
responsive force. The idea that one renders weapons that are 
now available for immediate use not available for immediate use 
is highly significant. It does constitute a reduction.
    The reason that delivery vehicles, which as you point out, 
we are not proposing to reduce, the reason that delivery 
vehicles were focused on in past arms control agreements was 
because the United States and the Soviet Union did not feel 
comfortable focusing on warheads--on the real issue. Because 
you couldn't count warheads, and since the key concept in force 
reduction was maintaining a balance of terror between the 
United States and the Soviet Union, we were focused on Soviet 
systems that we could verify, and so we looked not at the 
business end of the weapon, but at the delivery vehicle.
    Now, we are not focused on maintaining a balance of terror 
with Russia, and we are focused on the warheads, and we are 
reducing them by rendering them unavailable for immediate use.
    Chairman Levin. It's warehousing terror instead of 
immediate terror.
    Senator Warner.
    Senator Warner. Mr. Chairman, I will yield back to our 
distinguished ranking member on the Strategic Subcommittee, 
Senator Allard, to take the balance of my time, but I want to 
make a little clarification on this important issue that the 
Chairman raises. Let us try and simplify this so that those who 
have not spent a lifetime in this business might get a better 
grasp of the problem. My understanding is that removal of a 
certain number of warheads to put them in storage, as the 
Chairman has said, is in the spirit of the agreement with 
Russia. It does not in any way deviate from the spirit of the 
agreement.
    But since we have no ability to build a new weapon, if in 
the current inventory which is agreed upon, so to speak, with 
Russia, we discover through periodic testing that one of those 
weapons comes up with some negative result in a test, we could 
simply then go to the warehouse and replace it with one of the 
other weapons. We cannot suddenly start up a whole line to 
manufacture a replacement. Let us go and get one out of the 
warehouse and we will cannibalize those weapons in the 
warehouse from time to time, maybe to replenish spare parts on 
the ones that are maintained in the active stockpile. To me, 
that makes sense given the reality that we have no capability 
to build a new weapon.
    Is that basically one of the reasons in your judgment, 
Admiral?
    Admiral Ellis. Yes, sir. That is an important 
consideration. We look at the active and inactive stockpile 
size, which are the issues you addressed. In addition to the 
operationally deployed levels would be those warheads in the 
responsive force drawn down from launchers or platforms to give 
us the flexibility to respond to future outcomes in the 
international environment. There are challenges that may be 
different from those which we expect. There are additional 
categories that also contribute to that overall stockpile size, 
logistic spares as you point out, that would be able to be 
inserted in place of those that had to be removed for 
refurbishment or maintenance. We have robust quality assurance 
programs with these very precise devices under John Gordon's 
stewardship that oversee their reliability and he uses them.
    Senator Warner. I think you have answered my question. I 
want to go back to my colleague here. When my time comes 
towards the end of this round of questions, I will go into it 
further. Thank you.
    Senator Allard. Thank you, Senator Warner. I just wanted to 
re-emphasize what my colleague from Hawaii, Senator Akaka, has 
said. This is no longer a bilateral environment. It is a 
multilateral environment where we have threats coming from more 
than two superpowers. So you are talking about something in 
this NPR that is far different from classic arms control. It is 
a different world. I think we need to recognize this. I do want 
to compliment the administration in trying to create an 
environment of trust instead of mistrust, which we have relied 
on in the past, and I think that is the key to where we are 
going policy wise. I also compliment the administration on the 
flexibility of going from a very inflexible offensive triad to 
a triad that is more encompassing, that gives more flexibility 
and incorporates missile defense.
    Now, my colleagues have talked about dismantling the 
warheads and you, I noted in your comments, you said we have 
never had a provision in any of our strategic arms control 
agreements with the Soviet Union or Russia that required the 
dismantling of warheads. Why was a decision made in the Nuclear 
Posture Review to defer such dismantling at this time?
    Secretary Feith. Senator, I think a large part of the 
answer is the need for flexibility in light of U.S. inability 
to produce new weapons.
    Senator Allard. I want to make this clear for the record. 
We cannot produce new nuclear warheads. We do not have that 
capability. We have not done it for a decade, but today the 
Russian Federation, as I understood from your remarks, has that 
capability to produce a nuclear warhead today, is that correct?
    General Gordon. Senator Allard, we do not today have the 
ability to construct and build a new warhead, if you will, from 
scratch in that primarily we do not have a production facility 
up and running to produce a plutonium pit. To be strictly 
technical, it would be possible as least theoretically to put 
together a weapon from older components in some sort of mix-
and-match fashion, but that would be difficult, time-consuming, 
and take away significant capacity.
    Senator Allard. Does Russia today have the capability to 
make a new weapon?
    General Gordon. To the best of my understanding, Russia is 
producing new nuclear warheads.
    Senator Allard. So there is an imbalance today in our 
agreements with Russia. That is something we really need to 
recognize. I would also like to address this question to you, 
Secretary Feith. The Nuclear Posture Review includes some 
things that we have reason to believe the Russian government 
likes. For example, a deep reduction in offensive weapons, and 
in the administration's continuing dialogue with Russian 
officials, how have they reacted to our NPR?
    Secretary Feith. Senator, I think there are, as you say, 
aspects that they like and there are aspects that they do not 
like.
    Senator Allard. Have they indicated that they will pursue a 
military buildup in response to the recommendations in the NPR?
    Secretary Feith. Senator, they have said that they are also 
beginning to reduce substantially their offensive nuclear force 
levels. We hope both the United States and Russia are making 
reductions. Each is doing so unilaterally. That is what was 
announced when President Putin and President Bush met in 
November in Texas. They each announced unilateral decisions to 
reduce substantially offensive nuclear forces.
    Senator Allard. Do you think with the current environment 
that even though we do not have provisions in that agreement 
where we require the dismantling of warheads it is likely we 
will have dismantling of warheads in the future?
    Secretary Feith. One of the issues on our side is just 
that, and I would ask General Gordon to address this in detail 
if you are interested. I don't believe we have the capability 
to dismantle all of the warheads that we are planning to 
reduce.
    Senator Allard. That is a good point. General Gordon?
    General Gordon. Senator, as I suggested in my opening 
statement, the capacity that exists at our facilities now, and 
that in fact is now increasing, is sized to handle the 
stockpile extension programs as we know them today. During a 
period of time later in this particular decade, when we have 
three weapons going through refurbishment at one time, we would 
have, I would say, very limited capacity to be able to handle a 
number of dismantlements. Of course, we could handle some 
through that period of time because there is a small reserve of 
capacity that is kept. As we work through that period of time 
in 2010, with the numbers as we understand them today, then the 
capacity for dismantlements would come back into play in some 
significant manner.
    Admiral Ellis. As General Gordon has stated, we have a 
capacity issue, and the life extension programs are currently 
the bulk of the plan we are working with for his facilities. 
The life extension programs are intended to ensure our 
stockpile remains reliable and credible and are essential to 
the health of the current capability. From a military 
perspective, if forced to make the trade between that assurance 
and increased dismantlement, clearly we would come down on the 
side of preserving capabilities in our current systems while 
deferring dismantlements until the capacity became available 
either through completion of those programs or infrastructure 
expansion to meet those longer-term needs.
    Senator Allard. I'd like to talk a little bit about the 
budget. Are the programs required for warhead levels with the 
modest reductions in ICBMs, bombers, and submarine launched 
ballistic missiles fully funded? They are old and require 
steady modernization to keep them viable. Are the programs that 
are required for maintenance and modernization fully funded in 
the fiscal year 2003 budget and throughout the Future Years 
Defense Program (FYDP)?
    Admiral Ellis. General Gordon actually is responsible for 
that, but my sense is that those are precisely the issues that 
have been addressed in the Nuclear Posture Review to ensure 
that we retain that capability given the course that we have 
chosen, which is to keep the older systems on line with an 
average age approaching 20 years and now perhaps for an 
additional 20 years or longer, that has been the appropriate 
focus and the resources have begun to flow to NNSA to affect 
that outcome.
    Senator Allard. In the fiscal year 2003 budget, that is 
being proposed?
    General Gordon. Senator, was your question on warheads or 
delivery systems?
    Senator Allard. Let me restate it. Are the programs 
required to maintain and modernize our deterrent nuclear forces 
fully funded in the fiscal year 2003 budget and throughout the 
FYDP?
    General Gordon. Let me speak to the nuclear warhead portion 
of that. The short answer is yes. The increases that the Senate 
supported for the ongoing budget, coupled with the President's 
request for fiscal year 2003, and the commitment to be able to 
have program growth, and to give you a 5-year plan are all 
designed to modernize and make the necessary improvements to 
the core elements of the nuclear stockpile. So, the short 
answer is yes.
    The long answer would give you lots of things that say our 
program is still wound tight, and I get nervous about lots of 
parts of it, but the short answer is yes.
    Admiral Ellis. I would echo the short answer that General 
Gordon provided in general terms, yes. The resources and 
appropriate attention to things such as the D5 life extension 
programs, the upgrade proposals, the enhancements to the 
communications and systems capabilities of our bomber force are 
in general on track and even more importantly perhaps less 
visible, but absolutely essential command and control linkages 
and enhancements to our planning capabilities to continue that 
level of rigor also have been properly addressed. As with all 
programs, there will be line item issues of concern, but in 
general we are very pleased, as I said in my opening remarks, 
with the attention that is being paid to those delivery systems 
and the capabilities that have to come along with them to 
assure their capabilities are sustained and improved for the 
future.
    Senator Allard. Thank you, Mr. Chairman.
    Chairman Levin. Senator Reed.
    Senator Reed. Secretary Feith, you said that the headline 
for this Nuclear Posture Review would be ``mutually-assured 
destruction is dead.'' I am wondering why we have 8,000 total 
warheads in our inventory. If you are reclassifying some 
warheads as active and some as inactive, why do we have a 
triad? I think the essence of creating the triad and the number 
of warheads in it was driven by the fact that we had to survive 
a first strike and deliver a second strike, and yet you claim 
we have a revolutionary change in thinking, but still we have 
the same total number of or roughly the same total number of 
warheads in inventory and the same sort of basic platforms in 
sea, air, and land. It seems that it might be dead but that is 
still the governing principle.
    Secretary Feith. Senator, I think that what we have done 
with the Nuclear Posture Review is create a new way of looking 
at the problem that goes beyond simply offensive nuclear 
forces, and the old offensive triad. We are on a glide path to 
reducing by two-thirds the operationally deployed warheads in 
our arsenal. Now, part of the reason that we are on this glide 
path is that in order to achieve what we need to achieve 
strategically, and handle these goals that were set out in the 
Quadrennial Defense Review (QDR) of assuring our allies and 
dissuading potential competitors, deterring and, if necessary, 
defeating aggression, in order to achieve those goals, we are 
looking at developing a set of capabilities, not just offensive 
nuclear weapons.
    The set of capabilities that we are talking about we do not 
now have. They will include missile defenses. They will include 
other types of long-range precision strike. They will include 
more highly developed intelligence, and command and control 
capabilities. As those capabilities develop, our ability to 
perform our strategic missions and secure the country using 
offensive weapons, our ability increases to fulfill those 
strategic response responsibilities through means other than 
offensive nuclear forces so those forces can come down. That is 
the concept.
    We are dramatically reducing our dependence on offensive 
nuclear weapons as the basis for our strategic security. I mean 
this is something that takes some time, and while we are doing 
this, we are doing this based on a real assessment of what the 
international security environment is, which is the reason that 
in the Nuclear Posture Review there are continual reassessments 
so that we do not lock ourselves in to a concept based on the 
assumption that we can predict the future. We are building the 
concept of flexibility and adaptability into our force posture.
    Senator Reed. Well, you seem to be saying, Mr. Secretary, 
that for at least the indefinite future, mutually-assured 
destruction is still a part of our strategic policy, so let me 
ask you, is it still the policy of the United States to be 
prepared to respond to a nuclear attack with a second attack?
    Secretary Feith. Sir, I do not want to let any 
misimpression stand on that point. Mutually-assured destruction 
is not our policy. We want a strategic force posture that is 
not premised on the incineration of Russia. That is not the way 
we are thinking about strategic stability. We do not have that 
kind of relationship with Russia. The relationship that we had 
with the Soviet Union in the Cold War is not the relationship 
that we have with Russia, so I hope I did not create any 
misimpression on this point about mutually-assured destruction.
    Senator Reed. It just goes back to the consequences of your 
review. Can we still maintain a triad? We still maintain air-, 
sea- and land-based systems presumably to survive an attack by 
someone as a deterrent factor. We maintain 8,000 warheads in 
our inventory. In your questioning by the Chairman, you 
continually maintained that we are going to keep them there 
because we do not know what the future is like and because of 
the fact that Russia can quickly reload their systems. We have 
this relationship with Russia that has completely changed the 
strategic balance, but looking forward we cannot guarantee that 
the relationship will be maintained. It just seems to me that 
the reality is we still have to maintain a strategic force for 
the indefinite future. Maybe it is months, maybe it is years, 
depending on the world situation, which has to recognize the 
fact that we need to have survivable systems and warheads to 
make that strategy work. That seems to be what the bottom line 
of your review concludes.
    Secretary Feith. Senator, I respectfully disagree. Our 
review is not focused on Russia, as I believe your remarks 
were.
    Senator Reed. Mr. Secretary, can you tell me who you are 
focused on if we are not focused on Russia and why we need 
8,000 total warheads, some active, some inactive? Why we need 
strategic missiles and land-based systems if we are not 
focusing on Russia? What are we focusing on?
    Secretary Feith. We are focused on the capabilities that we 
might need to deal with the kinds of threats that could emerge 
in the future.
    Senator Reed. Can you illustrate the types of specific 
threats that will emerge in the future that require the force 
structure you are proposing with a degree of certainty or 
uncertainty? What are these threats?
    Secretary Feith. There are certain types of threats that 
one can imagine. I understand that it is for many people a 
novel concept to do a force posture review on the basis of 
what's called the capabilities-based analysis rather than a 
threat-based analysis. For many years, we focused on specific 
threats, based on the reasonable assumption that we had an idea 
of what the threats we faced were and what the threats were 
going to be in the future. During the Cold War, we had a clear 
set of threats from the Soviet Union that we were focused on.
    Now, what we recognize is that there are a number of 
countries pursuing nuclear weapons. There are a number of 
countries pursuing other weapons of mass destruction and 
missile capabilities. There are possibilities of new coalitions 
in the world of countries that might threaten us. There is the 
danger of significant changes in the current, relatively happy 
international strategic environment. There could be changes in 
Russia. There could be changes in China. There could be changes 
in other parts of the world. There could be combinations of 
countries, as I said, that we have to concern ourselves with.
    When we looked at what we need to maintain a nuclear force, 
on the offensive side and defensive side, we listed the kinds 
of missions that we need to accomplish. We looked at the kinds 
of capabilities we may face, the kinds of capabilities we may 
need to counter, and the threats and we came up with in this 
new set of ideas that I just outlined and that we referred to 
in shorthand as the new strategic triad.
    Senator Reed. Mr. Secretary, this seems to be a very 
ambiguous, imprecise, and notional view of a strategy. 
Ultimately, maybe I do not grasp the vision. All of this leads 
to targeting specific installations, specific targets. I mean, 
that is where you end up at. You seem to have this big 
disconnect between specific threats to the United States, and 
there are many of them, and the numbers and the systems and the 
whole review that you are proposing. One could joke that, in 
assuming that changes in the political situation in 
Liechtenstein will lead to a potential threat to the United 
States, we must be prepared for that. That is hypothetically 
possible but at some point you have to narrow the issues down 
to credible believable threats. That is not coming out of your 
discussion.
    Chairman Levin. Thank you very much, Senator Reed.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. Secretary Feith, 
would you say that things were a lot simpler back in the Cold 
War? And predictable?
    Secretary Feith. In a number of respects they were.
    Senator Inhofe. I was listening to your opening statement 
and I am glad you brought up the whole idea of MAD and how 
things have changed now. I know it is very difficult to answer 
questions, specifically questions like Senator Reed is asking, 
but turning it around and responding in a different way, it has 
been a few years now since Saddam Hussein kicked our weapons 
inspectors out of Iraq. Do we have any assurance, I don't mean 
to get into anything classified, I don't think this is, that 
they are not into development of a long-range missile? Do we 
really know?
    Secretary Feith. Senator, there is much that we do not 
know. We do believe it is clear that the Hussein regime remains 
interested in working on weapons of mass destruction 
capabilities, nuclear, biological, and chemical, and missile 
delivery systems.
    Senator Inhofe. Mr. Secretary, I could have asked the same 
question using Iran, as I said in my opening statement, we do 
know there is an exchange of technology and systems between the 
countries that I mentioned and that immediate uncertainty is 
the concern. Now, you mentioned accidental launch in your 
opening statement. I'd like to pursue that a little bit.
    I know some countries have a fail-safe system. This has 
always been a great concern. As I understand it, the fail-safe 
system is just used by the United States, China, and Russia. 
But an accidental launch assumes two things. Number one, that 
they are complying with a fail-safe system. We have no way of 
knowing that. There is no indication of that. Number two, we do 
not know what country could accidentally launch one. You want 
to pursue this idea of an accidental launch system of that 
force?
    Admiral Ellis. The concept that you describe, Senator, 
certainly is part of the consideration as we work forward on 
missile defense concepts and the like both regionally-specific 
and on the national side. While we have assurances as we work 
through the relationships with Russia, specifically, of which 
you are well aware, we have no near-term concerns in that 
regard. This also falls under the category, as you pointed out, 
of uncertainties with which we have to deal. So it is certainly 
a possibility and it is something against which we need to 
consider how we would best be positioned to respond.
    Senator Inhofe. I think you probably agree that a policy of 
deterrence would not protect us in case of an accidental 
launch?
    Admiral Ellis. You made the point earlier about the whole 
concept of what is deterred by what and the types of people who 
might be involved in that. Clearly we are not talking about a 
rogue state here.
    Senator Inhofe. I think that is very significant. I am 
going to emphasize the fact that we do not know. I used the 
example of August 1998. That wasn't even classified. People 
were talking about that and yet we misjudged that by at least 3 
years, and so who's next? Who would have thought at that time 
that North Korea would have the capability and now we have 
other countries that we know are pursuing it.
    Let me ask you something, General Gordon. During the last 
administration, I was distressed that there were compromises of 
our nuclear secrets. A lot of the things that happened caused 
these security failures, such as a policy of the then-
administration on color-coded badges, doing away with those, 
doing away with background checks, doing away with wiretaps, 
all these things that were in place prior to that. What have 
you done specifically in these areas now to strengthen that 
security? I am talking about the labs and elsewhere.
    General Gordon. Senator, we have taken a pretty aggressive 
approach to working security across the laboratories and the 
plant environments, everywhere from the personnel security to 
the physical security of the facilities, we have strengthened 
significantly, especially after September 11. We have a lot of 
people working really hard, very high visibility to in fact 
deter a terrorist from attempting to make a run at these plants 
or at these laboratories.
    Within the labs themselves, we tried to get back to a 
blocking and tackling strategy, getting right down to the 
individual level on security. We began a program which we call 
integrated safety, safeguard, and security management where the 
purpose again is to get the laboratory director involved and 
reach down to get the individual involved. We couple that with 
improvements in how we do the access limitations, how we do the 
badging, and I think across the board we strengthen it. But the 
core of what we are trying to do is to try to bring individual 
responsibility back into that with appropriate oversight and 
appropriate understanding of the responsibilities involved.
    Senator Inhofe. Secretary Feith, as part of your 
confirmation hearing testimony, you focused primarily on ending 
North Korea's nuclear and ballistic missile programs. Even if 
we are successful in negotiating into these programs, they 
still remain a military threat to South Korea. Do you believe 
that there is in place in South Korea now an adequate military 
deterrent to North Korean aggression? They have artillery that 
is better than anything we have. Our Paladin is inferior in 
both range and rapid fire to North Korea's artillery system. 
What do you consider to be our state of readiness, if you will, 
or our ability to defend against North Korean aggression?
    Secretary Feith. Senator, I think you are right to 
highlight the special dangers that are posed by North Korea 
both at the conventional level and the threat of nuclear 
weapons and missiles. But, I believe that we have the forces in 
place and the general capabilities to defend South Korea. 
Nobody in North Korea should make any miscalculations about 
that.
    Senator Inhofe. Well, there is a fine line between 
discussion here today and what can come in terms of the threats 
that are out there. I am sure that you take all these things 
into consideration, too. One last question. In terms of the 
reduction down to the range of 1,700 to 2,200 operationally 
deployed weapons, the administration first of all said that 
they proposed a new lower number of nuclear weapons around 
1,500. Where are we right now on that? I think the review is 
suggesting 1,700 to 2,200.
    Secretary Feith. Correct. I think that the 1,500 number 
came from the Russians, who talked about making a reduction to 
the level of 1,500 to 2,200.
    Senator Inhofe. 1,500 is kind of a starting point and I 
just wanted to see where we think we are going to end up.
    Secretary Feith. As of now we think we are going to end up 
from 1,700 to 2,200 by 2012.
    Chairman Levin. Thank you, Senator. Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman. 
Secretary Feith, in your statement you say that we are 
developing a diverse portfolio of military capabilities for a 
new world. As part of that, do you support the design of a low-
yield nuclear earth-penetrating weapon?
    Secretary Feith. The special difficulty posed by deeply 
buried and hard targets is something that is very much at the 
core of our minds. On the specific question you asked, I think 
I prefer to defer to General Gordon.
    General Gordon. With respect to what is required, we will 
again go back to the military on these issues. The emphasis 
that is in the Nuclear Weapons Council consideration now is 
actually for a more standard delivery system called an enhanced 
penetrator which would go in and basically make use of the 
existing warheads. We will be talking about that over the next 
few years.
    Senator Bingaman. I guess the more general question is are 
we pursuing design, as you plan your activities here?
    General Gordon. I know of no such work, planning or 
working, directly on such a system.
    Senator Bingaman. There is no design work on any low-yield 
nuclear weapons at this point?
    General Gordon. There is no design work at all going on in 
nuclear weapons. Now people sit around and talk about things 
and think about things and look at what's been done in the 
past, but there is nothing that you can define as a program 
that constitutes that. There are efforts thought about, talked 
about, considered towards the possibility of low-yield systems. 
Many people who consider these issues with respect to hard 
targets find that a system may not be effective.
    Senator Bingaman. So, Secretary Feith, is it fair to say 
that when you talk about a new diverse portfolio of military 
capabilities, you are not talking about low-yield nuclear 
weapons? That should not be part of what we are pursuing in 
that portfolio?
    Secretary Feith. I had various other things in mind, and 
particular things that I mentioned to Senator Reed a few 
minutes ago.
    Admiral Ellis. If I might, Senator, to build on General 
Gordon's statement, there is no intent, there is no process of 
which I am aware or we are aware, as members of the Nuclear 
Weapons Council, to produce a new design. There are some 
concepts that have been discussed as he mentioned, 
modifications of existing systems to support the targeting of 
deeply buried targets. But no new design elements have begun.
    Senator Bingaman. So the item on page 20 of the NNSA budget 
that came to us the other day that says ``support an advanced 
concept initiative, a phase 6.2/6.2A study for the robust 
nuclear earth penetrator (RNEP),'' which will also maintain 
weapons design capability, is false?
    General Gordon. As I just suggested, we are coming to talk 
to you in a couple of weeks on that. That is considered a 
modification of existing systems.
    Senator Bingaman. That is a modification, but there is no 
design work going on at the present time. That is not a design 
of a new system?
    General Gordon. When we start this program called 6.2/6.2A 
it leads to what we formally call design. We are coming up and 
chatting with you about that. To get to that point, one 
considers where we are on this issue, and there is significant 
discussion about developing an RNEP for the military. We are 
pursuing through the Nuclear Weapons Council a program that 
does that, modifying a system that does that.
    Senator Bingaman. Let me just state for the record, Mr. 
Chairman, I just think we should concern ourselves if there is 
going to be a new nuclear weapons design pursued. That is 
contrary to the policy of previous administrations, and if 
there is a change in that policy, I think we need to have a 
discussion about it and a chance to express our views.
    General Gordon. Without question. We will be coming in 
consultation on that point, but I would again say with respect 
to the nuclear weapon portion of it, we envision it as a 
straight modification of an existing system that is out there 
now, packaged in a way that could penetrate.
    Senator Bingaman. Secretary Feith, in response to Senator 
Reed's questions, you were talking about how there could be 
changes in Russia, changes in China. There could be new 
threats. I agree with all of that, and I am certainly not 
arguing that we should eliminate our nuclear deterrent. But I 
do not know if any of what you said, changes in China, in 
Russia, in other parts of the world, any of that justifies 
maintaining 8,000 warheads in our inventory. I mean, we have 
the capability even if we get to the 1,700 or the 2,200 level, 
whatever it winds up being, that is certainly an adequate 
deterrent against any of our potential adversaries for the 
indefinite future. Wouldn't you agree with that?
    Secretary Feith. I do agree that if we get to the 1,700 to 
2,200 level that we envision, and we get there developing the 
other capabilities that are part of the concept of the Nuclear 
Posture Review, that that will be adequate.
    Senator Bingaman. But even if we do not develop the other 
capabilities, 1,700 nuclear weapons aimed at you is a pretty 
good deterrent, is not it?
    Secretary Feith. We think, as I said, we have tried to 
broaden the analysis of what we need as the deterrent beyond 
the issue of offensive weapons only. So it is the package. If 
we have the right package, then that number of offensive 
systems is adequate.
    Senator Bingaman. Let me just be clear that I have trouble 
with this shift from threat-based to capabilities-based 
assessments. I have been here on the Armed Services Committee 
20 years now, and always before the defense budget was 
justified on the basis of potential threats. Now it seems like 
since the threats have substantially diminished, the military 
threats I am talking about, not the threats of terrorist 
activity, but military threats of the traditional type, since 
those have substantially diminished, we are getting an 
explanation that we still need what we had before, but now it 
is because it is going to be capabilities-based.
    I just wonder what the reaction would have been had 
President Truman come out with that concept at the end of the 
second world war and said okay, we know our adversaries have 
lost their capability of threat but we are going to maintain 
our military expenditures at the same level because we have 
shifted to a capabilities-based approach rather than a threat-
based approach.
    Secretary Feith. Senator, we do not believe that we should 
retain everything that we have had. I have been calling 
attention to the fact that we are talking about very 
substantial reductions in our nuclear forces.
    Senator Bingaman. Deployed?
    Secretary Feith. In our operationally deployed warheads, 
absolutely. It is quite clear that a large part of the 
discussion that we have had this morning is a debate over what 
one is willing to credit as a reduction. We can be completely 
open on that point.
    In the traditional Cold War arms control debate, nobody 
debated that nuclear forces were reduced, even though warheads 
were not destroyed. We are talking about substantial reductions 
even though the warheads by and large are not going to be 
destroyed, and we call what we are doing a reduction because we 
think it is highly significant that we are going to be reducing 
the number of weapons available for use.
    I think that the difficulties that you have said that you 
have in dealing with a capabilities-based approach versus a 
threat-based approach, I can sympathize with. This is quite a 
different concept on how to assess our requirements, and I 
don't mean to suggest that it is obvious and that anybody 
should immediately be able to see what it means. It has taken a 
lot of work within the Pentagon to develop this type of 
assessment.
    The reason that we have decided to shift to this 
capabilities-based approach, though, is something that I think 
we all can understand, at least the motivations for it I think 
we can all understand. We are dealing with a world now where 
the threats, and this is something that this committee and 
Chairman Levin in particular have been in the forefront of 
highlighting, the whole issue of emerging threats, new threats 
coming in, new forums from new quarters.
    The United States needs capabilities to deal with that. We 
cannot know, and if you look at where we have used military 
power over the last decade, let us say, in none of the places 
where we have used military power over the last 10 or 12 years 
did we expect to be fighting the kinds of wars we fought. We 
have been surprised continually.
    At some point, it became clear that we should plan to be 
surprised. We should plan to deal with threats that we cannot 
now identify as specific types of threats from specific parties 
from specific geographical locations. So what we have done is 
we have said we cannot predict precisely where the threat is 
going to come from, but we can because we know something about 
technology and we know something about capabilities of 
potential adversaries we are certain we are going to confront 
certain capabilities. We need to respond to the capabilities 
that our enemies might have. The alternative to the approach 
that we have actually adopted is to go back to the guessing 
game of trying to guess which threats we are going to have to 
deal with, but I think recent history should have made us all 
modest about--I mean, humble, I think, is the proper word--
about our ability to guess what specific types of threats we 
are going to have to deal with and so we are grappling with 
this issue. It is a very hard problem, and I certainly 
understand that it is not a comfortable concept. But it is an 
attempt to deal with the very real strategic problems that 
arise from unpredictable events.
    Chairman Levin. Thank you. Before I call on Senator Warner, 
let me just acknowledge that when Senator Warner was Chairman 
of this committee, he had enough foresight to create the 
Emerging Threats and Capabilities Subcommittee, and it was that 
vision which has put us on that track and I wanted to 
compliment him for it and also compliment Senators Landrieu and 
Roberts. Senator Roberts was Chairman of the subcommittee. Now 
Senator Landrieu is Chairman of that subcommittee, and she has 
put in an extraordinary amount of work in addressing the 
emerging threats that you just referred to, Secretary Feith. 
Senator Warner, let me call on you now.
    Senator Warner. Thank you, Mr. Chairman. Yes, we did create 
it, but we created it with bipartisan support in which you were 
an integral member who with me got that done, Mr. Chairman.
    I am going to stay for some period of time with this 
hearing. If Senator Landrieu would like to go ahead, I'd be 
glad to follow.
    Senator Landrieu. Thank you, Senator Warner, I do 
appreciate that because I do want to ask a few questions and I 
do have to leave. Let me just make a couple of points that are 
somewhat troubling. I want to follow up on what Senator Reed 
and Senator Bingaman said about the difficulties posed to us 
when we move from a threat-based assessment which gives us at 
least some rationale for the crafting and designing of the 
defense systems necessary to give Americans the security that 
they deserve and move to a capabilities-based system. I think 
it is something that really needs a lot of discussion because 
what we need is a rationale that makes sure that we are 
crafting the kind of defenses that in fact deliver security and 
that we are not spending our money developing weapons against a 
threat that won't come, meanwhile, underfunding other defenses 
against threats that really might come. I think the American 
people are very concerned about that.
    The second point I would like to make is that there is an 
alternative to being surprised. That alternative is to be 
informed, and perhaps we have been surprised too many times in 
the past, and frankly, September 11 was in my opinion an 
unnecessary and tragic surprise. I would suggest that one way 
to avoid that is to be better informed and to spend some money 
on better intelligence, better information, and get clearer 
information about what the real threats are so we can prevent 
the deaths of thousands of innocent lives and the pain that has 
ensued.
    The third point is that, you said on the record that in the 
past we reduced our warheads, but we did not really eliminate 
them. The truth is that we eliminated the platforms, and thus 
really eliminated the warheads. In the Nuclear Posture Review, 
we are neither eliminating platforms nor warheads. We are 
simply storing them, which brings me to my question. I know you 
are familiar with the Baker-Cutler report, which is a 
bipartisan report led by former Senate Majority Leader Howard 
Baker and former White House Counsel Lloyd Cutler, which said: 
``the most urgent unmet national security threat to the United 
States today is the danger that weapons of mass destruction or 
weapons-usable material in Russia could be stolen and sold to 
terrorists or hostile nation states and used against American 
troops abroad or citizens at home.''
    So my question to you, Mr. Secretary, is do you believe if 
Russia follows the example of the United States and doesn't 
eliminate but stores these warheads, then those warheads and 
their materials will remain a significant proliferation risk, 
exactly the problem that this report warned of? As I recall, 
the President referred to this in his state of the union 
speech, so do you agree that it is in our national security 
interests to reduce the risk of nuclear theft, and that Russia 
should eliminate its excess warheads rather than store them?
    Secretary Feith. Senator, first of all, I think that you 
make an important point with which I agree completely when you 
emphasize the role of enhanced intelligence and better 
information in being able to deal with threats. There is no 
question that not only do you avoid surprise by having better 
information, but if your intelligence is better and you can 
target more precisely the opportunity to deal with a particular 
target using non-nuclear weapons, for example, your security is 
enhanced. So there are lots of benefits that flow from better 
intelligence and it is an important part of our concept in the 
Nuclear Posture Review, i.e. that we should enhance our 
intelligence.
    The point that you make about Russian weapons of mass 
destruction material I think is also an important point. I also 
agree with your emphasis on that as something that we need to 
attend to. I do want to stress that I do not think we need to 
attend to it in the way that we looked at U.S.-Russian military 
balances during the Cold War. I don't think that is the issue. 
I think that the issue is the kind of problem that we have been 
addressing not in a hostile or adversarial way with the 
Russians since the end the Cold War, but rather through 
cooperative programs such as the cooperative threat reduction 
(CTR) program.
    The Russians have a lot of WMD material. Chemical 
munitions, nuclear material, and the like. There are serious 
concerns about the security of that material, and we have 
programs, the CTR program being the umbrella, to reduce the 
danger that those items will be stolen or sold. It is a very 
important issue. I am not concerned about the complete 
symmetries between the United States and Russia on this point 
in the way we were when we were talking about maintaining a 
nuclear balance between us. I would point out that when you say 
if we do not destroy our warheads, then the Russians might not, 
and why if we do not should they, that we have a different set 
of calculations about whether we could destroy our warheads 
than the Russians have precisely because the Russians have a 
warm production capability.
    In other words, if the Russians in making the reductions 
that they have announced that they will make did destroy their 
warheads, they could produce new warheads. They are in fact 
producing new warheads on an ongoing basis in large numbers. I 
don't think I can get into the numbers in this forum, but it is 
no big deal for the Russians to destroy a warhead because they 
could replace it immediately with a new production item.
    We, on the other hand, have not produced a new warhead in a 
decade, and can and will not have the ability to produce one 
for almost another decade.
    Senator Landrieu. I think this is an important issue, a 
very important issue that the President himself raised. I want 
to review the question that if we are not destroying our 
warheads, why do we think Russia will, and preventing these 
materials from the possibility of distribution to terrorists I 
think is just essential, and it should build on CTR, which by 
the way received a slight increase in the budget, but not 
really in any significant way.
    Let me ask you this, and could you answer it very briefly. 
Secretary Powell testified just a few weeks ago that he expects 
the United States will enter into a legally-binding agreement 
with Russia on this issue. He wasn't sure at the time he 
testified what form this legally-binding agreement would take, 
whether it would be a treaty or some other sort of document.
    What kind of binding document are you looking for, what 
kind are you envisioning? Will this document cover mutual 
reductions in warheads, and what is a legally-binding document 
that is not a treaty?
    Secretary Feith. To take the last question first. In 
international law, there are the agreements that we refer to as 
either executive or executive-legislative agreements that are 
not treaties but nevertheless are considered legally binding. 
Now, as for what we are talking with the Russians about, we are 
discussing the offensive force reductions. We are talking about 
transparency and predictability measures that we could adopt in 
common. We are talking about cooperation in what we refer to as 
military technical fields, including missile defense. We have a 
wide range of discussions. I am heading off to Moscow next 
week, Under Secretary of State John Bolton is also heading out 
next week.
    Senator Landrieu. This document that you are envisioning, 
some sort of executive agreement, would that ever come before 
the Senate?
    Secretary Feith. No. I was simply answering your question 
on what could be a legally binding document that is not a 
treaty. I wasn't saying that is what we are pursuing 
necessarily. We are pursuing agreements, multiple agreements 
with the Russians on all of those topics that I mentioned. When 
we achieve the agreements, and we are confident we will achieve 
agreements with the Russians in this whole area of strategic 
forces, depending on what it is we can agree on, we would 
decide what is the appropriate form for the agreement. We are 
perfectly open if we can achieve an agreement that warrants it 
to have it be a treaty, but depending on the nature of the 
agreement we will decide what the appropriate vehicle is.
    Senator Landrieu. It hasn't been decided yet?
    Secretary Feith. We certainly recognize the important role 
of Congress in general and the Senate in particular in these 
matters.
    Senator Landrieu. Thank you. Thank you, Mr. Chairman. Thank 
you, Senator Warner.
    Chairman Levin. You are quite welcome, Senator.
    Senator Warner.
    Senator Warner. Before the Senator leaves, I think she made 
a good point, that it would be very wise to involve Congress in 
a momentous decision like this. Do not get lost in all the 
little technicalities of this thing. Just go back and brush off 
some of the very fine guidance the Senate receives periodically 
from Senator Byrd on how we are a co-equal partner when it 
comes to matters of national security, the executive and 
legislative branches. I think that is a tradition that has to 
be carried through from administration to administration.
    I thought, Secretary Feith, in response to Senator 
Bingaman's inquiries, that you spoke very clearly on our 
strategic posture and I believe this document, the NPR, is an 
excellent one. It presents a very creative approach to this 
exceedingly important subject, and I agree we have to plan for 
the uncertainties in the world. I look back to when I was 
privileged to be at the Pentagon sitting there at the table 
many years ago and coming before Congress and seeking the 
authorization to sell F-14s and cruisers to the Shah of Iran. 
Indeed the F-14s did go. That was the top-of-the-line system 
that we had in this Nation at that time. Indeed the cruisers 
were contracted and under manufacture, and then overnight that 
government collapsed. The government that replaced it poses 
threats to us, as our President pointed out here just recently 
to Congress and the whole free world.
    I can also remember that a congressional delegation of 
distinguished senators went to Iraq, very shortly before Iraq 
invaded Kuwait, and they came home and extolled the virtues of 
Saddam Hussein and Iraq. Within months, war broke out. We have 
to be ever-vigilant, and there is no category of weapons that 
requires greater scrutiny or more careful review. I think as a 
Nation we are very fortunate to have two experts, one current 
active duty, one distinguished retired military witness, who 
are assisting you, Secretary Feith, the Secretary of Defense, 
the Secretary of Energy, and the President as we formulate 
these important decisions.
    This brings me to the subject that I am always concerned 
about. When I was Chairman, we had the Comprehensive Test Ban 
Treaty come before the Senate. We had at that time a series of 
hearings to fully inform the Senate and the American public 
about the status of our nuclear weapons stockpile. So we, 
together with Senator Levin, put together three hearings on 
this committee, and if I may say, those hearings provided the 
foundation for the debates in the Senate and in the Senate's 
eventual decision not to approve the treaty.
    In those hearings, the directors of all the national labs 
came forward. These are scientists and persons that are not 
involved in politics and so forth. Their purity was in the 
science of the day. So my first question is for you, General 
Gordon. In that debate, the lab directors said that we simply 
were not moving as quickly as we should with regard to 
replacing actual testing of nuclear weapons to determine their 
viability and readiness with the SSP, and the projections for 
putting in place SSP varied from several years to even one 
decade or more into the future.
    Our inventory is aging, and the scientists determined at 
what point our stockpile may not be perceived as actually 
credible. Now, there are two aspects to maintaining the 
stockpile which are equally important: One, any adversary has 
to believe that the stockpile is ready to retaliate and should 
be able to deter and then retaliate, if necessary, the good 
Lord forbid. But they have to perceive that we have that 
ability.
    Often we forget that those weapons, by and large right here 
at home in the United States of America and its various 
installations, are protected by the men and women of the Armed 
Forces and the civilians who are entrusted with handling them, 
and they are owed a certification that those weapons are safe. 
The communities that embrace these installations are owed a 
certification that those weapons are safe to handle. So General 
Gordon, bring us up-to-date on the Stockpile Stewardship 
Program, the progress being made in your judgment on it, and 
what sort of timeline you see in that vast system of computers 
that basically can replace the actual testing which again in 
earlier years was I think safely done underground to verify the 
reliability, safety, and security of our stockpile.
    General Gordon. Thank you, Senator. I would report that the 
Stockpile Stewardship Program is really going well. But, on the 
other hand, I cannot tell you for certain that we would ever 
not need to test. I just simply cannot do that.
    Senator Warner. Let us be careful when we use the word 
test.
    General Gordon. Underground nuclear test.
    Senator Warner. Yes. Let us talk about actual testing 
versus evaluation with the equipment that is being used in the 
Stockpile Stewardship Program.
    General Gordon. In fact, I would suggest that the Stockpile 
Stewardship Program is really an experimental program more than 
it is a computer program because what we are doing is testing 
pieces and parts, and there is plutonium that is tested in sub-
critical underground tests today, and we have learned more 
about plutonium. There are tests of every component that is 
inside the system. There is surveillance of every component 
that makes up a weapon. So that portion of it is going, I would 
say, quite well.
    We continue as we look at our stockpile to find problems 
with it. Some of it is aging. Some of it has what we tend to 
call birth-defects. We are finding things we never knew about 
before because of improved tools that we have been able to 
develop over the last several years. We know how to fix those 
problems and I suggested in my opening statement we know how to 
fix those well enough that we do not foresee, at this hour, at 
this day, a need for a test. I can't predict when there would 
be one.
    On the other hand, I wouldn't be so bold as to sit here and 
tell you that we would never be in that position or that the 
Stockpile Stewardship Program would somehow be a failure if we 
had to test. It might be a very successful program if we found 
out that we had to do a test. So, broadly speaking, we are 
making progress in all the areas we want to for the long term, 
with our computer capabilities, with the sub-critical 
underground test programs that we have continued to conduct, 
and with the large machines that we are building that will 
enhance our ability to understand the physics in even greater 
detail. But it is a bit of a risk to then say that SSP can keep 
us from ever reaching a testing situation.
    Annually, we take a rigorous process that is open, and take 
a hard look at where we are on the system, on each and every 
weapons inspection. We look at it on a rigorous basis in which 
we render results in a report to the President on whether or 
not there is any indication that we need to test. That looks at 
each weapon and each system. That involves not only the lab 
directors, the NNSA, and the Secretary of Energy, but also the 
Department of Defense and the CINCSTRAT.
    I am broadly satisfied with the progress we are making in 
SSP, I think we are doing about all we can. There remain 
issues. There remain questions and frankly, every day, to state 
the obvious, the 20-year-old weapons are a day older. The 
plutonium is getting old.
    Senator Warner. The lab directors were very gracious, 
forthright, and honest with their views. It is important for 
you to state today that the stockpile as you understand it is 
safe, that it is credible, and that it meets the goals of this 
country in terms of our strategic posture.
    General Gordon. I agree. I stated that in my opening 
statement. The stockpile as we know it today is safe. It is 
reliable, and we are aggressively pursuing the aging defects 
that we know are there. But they do not affect the safety of 
the systems.
    Senator Warner. What number of years do you feel are left 
before all these components of the Stockpile Stewardship 
Program come together to constitute an effective substitute for 
actual testing?
    General Gordon. I do not want to be cute with you, sir. The 
idea that you could in 5 years or 10 years from now say I would 
never have to go back to testing, I don't think I can do that.
    Senator Warner. To achieve scientifically the best 
substitute attainable for an actual test?
    General Gordon. We are on a 7- to 10-year cycle for the 
complex, the long-term science programs that come in as we know 
them today, the computing, the large programs, and the 
refurbishment of the complex so that we could handle materials, 
that is the time frame we are talking about.
    Senator Warner. That will happen maybe a decade hence?
    General Gordon. Yes.
    Senator Warner. Admiral Ellis, I would ask you the same 
question about the stockpile because you have to, as our 
strategic commander, tell the world that the stockpile is safe 
and effective and it can be deployed first as a deterrent, but, 
if necessary, if it has to be used, it will work.
    Admiral Ellis. I can state unequivocally, sir, just those 
thoughts as echoed by General Gordon. It is a safe, effective 
stockpile, and we have great confidence in its integrity and 
surety over the near-term. As he mentioned, the Stockpile 
Stewardship Program that you just described is intended to 
highlight deficiencies and we are learning things every day 
about these weapons as we develop these tools, and General 
Gordon's labs and facilities are able to better discern the 
issues that will affect this stockpile as it ages over the next 
10, 20, or even more years into the future.
    It is also, I am sure, known to you that I am directed by 
the Secretary of Defense to do an independent assessment of the 
process that General Gordon just described so that we have a 
check and balance in that process. Even though we are both 
involved, each of us has a contribution that we need to make to 
each of those processes. Mine is identified and specified as an 
independent assessment. I make that assessment annually, 
formally, and in writing, and just as I have committed to you 
during my confirmation hearing, I am committed to being open 
and candid in that review.
    Senator Warner. He has given an assessment that it may be 
10 years before SSP reaches a goal, which was to say that we 
can learn as much through a computer system, or we can learn 
sufficiently through a computer analysis of existing weapons, 
as we can from the actual test, and therefore, it is now the 
fullest possible substitute for the actual test that man can 
achieve through science. How do you feel about the schedule? 
When is that going to come?
    Admiral Ellis. Well, I agree that the timelines that 
General Gordon postulated for delivery of that full Stockpile 
Stewardship Program, a set of tools and capabilities and 
facilities approximates that timeline. It is also important to 
reinforce the point that General Gordon also made. This gives 
us the ability to know in much more detail and clarity what 
emerging problems might confront us in the stockpile.
    Those problems themselves, in order to be rectified and 
corrected, could have the potential in a scenario to mandate 
that we need a test to validate the fixes and corrective 
actions. So the existence of a fully capable and intensive 
Stockpile Stewardship Program, in and of itself, as General 
Gordon has noted, does not guarantee that we may not find a 
problem that needs correction and that it is of such magnitude 
that it will require testing to validate the essential elements 
of the stockpile that we discussed earlier.
    Senator Warner. On the assumption that Russia is likewise 
complying, and not testing, what is the status of their system 
similar to our Stockpile Stewardship Program?
    Admiral Ellis. I am not aware that they have begun a 
program that approximates the level of rigor and scientific 
advances that are embodied in the program under NNSA. But 
General Gordon might have a comment.
    General Gordon. They may not have the same set of aging 
problems as we do if they can keep building and replacing the 
units.
    Senator Warner. Do you wish to add anything, Secretary 
Feith?
    Secretary Feith. No, sir.
    Senator Warner. Thank you, Mr. Chairman.
    Chairman Levin. Senator Sessions.
    Senator Sessions. I think we need to try to get our 
thinking clear on this very important subject. Some media 
commentators always think in terms of negotiations. We reach 
agreements on all these issues, but I think we have to 
recognize that we are a great Nation. We have saved liberties 
in the Middle East by stopping Iraq's activities. We have 
preserved freedom in Kosovo. We have liberated Afghanistan from 
an oppressive regime.
    The question is are we preserving a nuclear capability for 
our Nation that will allow us to project our military power, 
deter attacks on the United States, and defend us, if need be. 
I think that is what we need to be wrestling with. I notice in 
the open version of the NPR that 12 nations now have nuclear 
weapons, 28 have ballistic missiles, 13 have biological 
weapons, and 16 have chemical weapons, so we have, despite our 
best efforts, a history there that would indicate to us that we 
are not going to be able to stop those activities and that the 
rest of the world is not going to stop.
    We are talking about a two-thirds reduction in our 
operational nuclear capability. I think that is significant, 
Secretary Feith. I think you are exactly right. I am troubled 
by your testimony that clearly states that we do not have 
manufacturing capabilities, whereas the Russians do. Let me ask 
this: Are there other nations that have a production capability 
for nuclear weapons?
    Secretary Feith. I believe that of the countries that have 
nuclear weapons, we are the only one that does not have the 
capability to manufacture new nuclear weapons now.
    Senator Sessions. So the 12 that have it are all in 
production capability, all have a capability to produce. I 
think that is a very important factor. I notice here in The 
Washington Post this article that we are talking about a 
binding deal with the Russians on this.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Sessions. I have the same concern about this issue 
that I did about the ABM Treaty with Russia.
    Hopefully, we will continue our friendship with Russia. 
Hopefully, it will grow and we will be friends and have a 
degree of harmony we have not had in many years with the 
Russians. But is there not a danger that if we reach an 
agreement with Russia, an agreement not to test, an agreement 
not to develop new weapons, that this does not stop any of the 
other nations who may not be a party to that agreement from 
increasing their capability, Secretary Feith? Would it bind any 
of the nuclear-weapons countries if we reached an agreement 
with Russia to stop them from producing more?
    Secretary Feith. An agreement between Russia and the United 
States would bind only Russia and the United States.
    Senator Sessions. All right.
    Secretary Feith. What I wanted to say, though, is that if 
we can, over the coming years, transform our relationship with 
Russia into a cooperative one where we are not focused on 
threatening each other but dealing in common with them against 
threats that both of us face that will be a major strategic 
accomplishment. When we look at what we can talk about with 
Russians now and what we want to achieve in the way of an 
agreement, there are a number of things that I think make a lot 
of sense for us to pursue, and at the top of the list are 
measures for what we call transparency and predictability 
because we want to make sure that when we make our nuclear 
policies and when the Russians make their's that we are not 
proceeding on the basis of misinformation or error.
    It is in our interest to be transparent in these areas with 
them, and there are things that we are proposing to the 
Russians that I think would make for a useful new bilateral 
agreement that would promote greater visibility into each 
other's plans.
    Senator Sessions. I agree. I am very desirous that we 
proceed to improve our relationship with Russia and reach such 
agreements as we can. But we are no longer in a bilateral 
nuclear world, are we? We have China, India, Pakistan, all in 
the news recently, and all of them are improving their nuclear 
capabilities. Other nations are moving in that direction and 
others would like to get in the game. If we were to take our 
numbers down to 1,700, or even lower, as some have suggested, 
would that not set a goal for some of our competitors? Wouldn't 
they be able to think that if we could just get a thousand 
nuclear weapons when we sit down at the bargaining table with 
the United States, then we would be a peer competitor, we would 
have a different relationship with them? Should we not be 
thinking about making sure that our adversaries realize that 
through technology and numbers they are not going to be able to 
catch up with us?
    Secretary Feith. This consideration, Senator, is part of 
our Nuclear Posture Review. When we talked about our strategic 
goals, including assuring our allies and dissuading potential 
competitors, I think we had in mind very much what you have 
just referred to, which is the danger that if we were to come 
down too far in our nuclear force levels, that we could be 
encouraging, inducing other countries to build up nuclear 
weapons to try to become a competitor of ours.
    So one of the numerous factors that we balanced in our 
Nuclear Posture Review is precisely this concern. I do believe, 
though, that we struck a sensible balance. I do not mean to 
sound like a broken record, but when questions get asked about 
aspects of our Nuclear Posture Review either from the side that 
we have done too much or that we have done too little, the 
answer inevitably is that all of the considerations that have 
been raised here by all of the serious members of this 
committee are valid considerations. But they need to be netted 
out against each other and against numerous other factors that 
we have not really dealt with in detail here. So, I think that 
the whole package that we have put together in the Nuclear 
Posture Review addressed your concern. I would just say it is a 
valid concern and it is something that we want to guard 
against.
    Senator Sessions. My time is up. I am not questioning the 
numbers that you are talking about going to because you have 
maintained some flexibility in that process allowing us, even 
though we do not have manufacturing capability, to get our 
numbers back up, if need be.
    The delicacy of reaching an agreement with Russia that 
could put us in a bind that we are not now in is that it could 
create an opportunity for other nations to move in and try to 
attempt to be a peer competitor. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Warner. Mr. Chairman, could you advise the 
committee with regard to arrangements for a closed session? My 
understanding is we will have one.
    Chairman Levin. We are going to have one, if needed. I was 
going to ask after the next round of questions whether anyone 
here felt we should have one or needed one and whether any one 
here felt they needed one.
    Senator Warner. I would like to register my desire to have 
one.
    Chairman Levin. That is fine. If anybody wants one, we will 
have one. Anybody could either participate in the second round 
or ask additional questions for the record and we will go into 
closed session.
    Secretary Feith, I was surprised that you did not respond 
to Senator Bingaman's question about requirements for new 
weapons, including a weapon for hardened and deeply buried 
targets. General Gordon does work to meet the military 
requirements. They, the NNSA, are not supposed to be setting 
those requirements. So let me ask you this question. Does the 
Department of Defense have a requirement for a low-yield 
nuclear weapon for hardened and deeply buried targets?
    Secretary Feith. I do not believe that we have a 
requirement for a low-yield nuclear weapon.
    Chairman Levin. Did you want more time?
    Senator Warner. Mr. Chairman, they want to consult among 
themselves. It could be we could ask that question in closed 
session in greater detail. I suggest that we could explore that 
question in closed session, if you want.
    Chairman Levin. Apparently they submitted a study to us 
last August saying that there was no such requirement. That was 
not a classified study. Is there a change from that?
    Secretary Feith. I don't believe so.
    Chairman Levin. On the capabilities approach, I assume you 
are looking at capabilities against something. There must be 
some threats you are considering, as Senator Sessions very 
properly points out there are different threats that could come 
up. It is not in the abstract to question what capabilities we 
want to have against what potential threats. Is that not fair?
    Secretary Feith. It is fair. I think you are right. You are 
looking at the kinds of capabilities that you think you might 
have to counter in the future.
    Chairman Levin. The capabilities that you are countering?
    Secretary Feith. The capabilities you need to counter the 
capability that adversaries may develop and direct at you in 
the future.
    Chairman Levin. Do those capabilities that adversaries 
might create and direct against you look any different from the 
threats that you might face? Are you not looking at potential 
threats when you look at what capabilities we need?
    Secretary Feith. Yes. You are of course looking at 
potential threats. The terminology, the shorthand expression, 
threat-based analysis versus capabilities-based analysis, those 
categories are intended to capture an important difference in 
emphasis. Obviously we have to anticipate certain types of 
threats. In the Cold War we had a much higher degree of 
confidence that the kinds of threats we were going to have to 
deal with were going to be threats coming from very specific 
geographical borders, very specific people, of a much more 
specific nature. Now we are trying to do our planning based on 
the recognition that the kinds of difficulties we are going to 
have to deal with in the future are much less definite. One 
could argue we are still taking threats into account but we are 
not taking the kinds of definite projections about who is going 
to pose which threats from which quarters.
    This capabilities-based approach is an attempt to deal with 
uncertainty. It is an attempt to deal with the unpredictability 
of the future. It is a very difficult problem that many people 
as I said, this committee in particular, have highlighted for 
years.
    Chairman Levin. We call them new threats. Those would be 
highlighted potential threats that are new. I do not see that 
that is any different from what you are talking about. You have 
relabelled it capabilities, but in effect we have to look at 
potential threats and be prepared to deal with all potential 
threats. You can put a new label on it, call it capabilities. 
Strangely enough, your nuclear posture review ends up exactly 
the same, except you are going to park a lot of the weapons in 
a warehouse instead of having them in missiles, ships, and on 
planes. It comes to the same number of planes, missiles, ships, 
and the 8,000 is the same except the significant part of the 
8,000 is going to be removed to storage. That is the 
difference.
    That is not what I call revolutionary. It is different, for 
better or worse. So I do not see any difference, in effect, in 
the real world between your capabilities-based approach and the 
threat-based approach in terms of our nuclear posture except 
you propose to shift some of the nuclear weapons from the 
missiles and ships and so forth to storage.
    Secretary Feith. I think, Mr. Chairman, the shift to 
storage is a much more significant move than I think you are 
giving it credit for being, and I would also say that the kind 
of analysis that was done by STRATCOM in developing a 
capabilities-based approach really is qualitatively different 
from the kind of analysis that was focused on a specific target 
set in the Soviet Union, and I would invite with your 
permission, Admiral Ellis to comment.
    Chairman Levin. I would be interested to hear from Admiral 
Ellis.
    Admiral Ellis. As the Secretary has noted, the assumption 
and the aggregation of those disperate potential threats, and 
the precision and knowing all of the alternatives that confront 
us is unknowable. As we have looked at the capabilities-based 
approach, we have looked at aggregations, we have looked at 
combinations and permutations. We have looked, to the extent 
that we can, at new threats that have not been envisioned yet 
and that do not exist at the current time. The references to 
the recent experiences of this Nation indicate the types of 
things that need to be considered. Not all of those are related 
to strategic nuclear response and that is what is reflected in 
the NPR. We have broadened the concept of what is strategic, to 
include not just non-nuclear, but also nonkinetic weapons. As 
we broaden the concepts and the awareness of what is 
deterrence, it is very clear to us that as Strategic Command 
and the strategic concept shift from the classic all nuclear 
MAD focus to confront the challenges of this new age, we have 
to be able to think and plan in those terms. We have to be able 
to respond more quickly than we now can in current doctrine and 
in current techniques. That is the wholesale new approach.
    But I want to emphasize, in all fairness, that this is just 
beginning. The triad that is being discussed brings together 
these enhanced intelligence capabilities Senator Landrieu 
focused on and all of the other pieces, absent those that exist 
now, which of course, are strategic forces and some of the new 
and advanced conventional capabilities, have yet to be 
developed or fully developed. So this is a process, too, that 
will deliver, we anticipate, over the next decade. Clearly, we 
are going to make assessments on the appropriate levels of 
strategic forces, as this journey continues.
    Chairman Levin. In the past the Strategic Command has been 
given guidance from the President and Secretary of Defense and 
then you based the numbers of weapons that might be needed on 
the guidance that you have received. Is that what has happened 
previous to now?
    Admiral Ellis. Yes, sir. That is certainly the case.
    Chairman Levin. Has there been any new guidance in the past 
year or 2?
    Admiral Ellis. I can talk about that in more detail in the 
classified session. The guidance is now under development to 
reflect the new directions and philosophies of the Nuclear 
Posture Review and will be delivered in the appropriate phasing 
from both the President and the Secretary of Defense as the 
events unfold through the spring and we begin this 
incorporation process as we translate the Nuclear Posture 
Review into the operational reality.
    Chairman Levin. Specifically, has there been guidance 
delivered to you previously?
    Admiral Ellis. That is correct, sir.
    Chairman Levin. Upon which you have based a recommendation 
relative to numbers?
    Admiral Ellis. That is correct, sir.
    Chairman Levin. When was that previous guidance issued?
    Admiral Ellis. That is an annual process. It was 2000, last 
time.
    Chairman Levin. The year before last or 2000?
    Admiral Ellis. Yes. I am going to check on this, sir, and 
respond to that in the closed session.
    Chairman Levin. My time is up. I have some additional 
questions. I yield to Senator Allard.
    Senator Allard. I was reviewing that last Nuclear Posture 
Review, done in 1994. At that point Secretary of Defense 
William Perry made a presentation to the committee, and I just 
read with some interest his main recommendations, and there 
were a number of them. He stated that at that time the key 
thing that was then pertinent and is to this discussion today 
is that you must preserve options for uploading, for 
reconstituting U.S. nuclear forces should political relations 
with Russia change for the worse. So, even then, under the 
Clinton administration, there was a recognition that you need 
to have some degree of readiness.
    Are we not telling Russia and the world that we are ready 
to take a new approach to try to assure peace worldwide, that 
we want to do it in a responsible manner, in a way that will 
make a difference in trying to change our readiness so that we 
can promote peace and have some new working relationship with 
Russia. Do you feel that this document accomplishes that goal?
    Secretary Feith. Senator, I think you have stated the goal 
correctly from our point of view, and I think that we do have a 
reasonable chance of achieving that goal.
    Senator Allard. I think we are splitting hairs when we talk 
about threats or capabilities. I respect what you are trying to 
say about capabilities. But the fact is we are dealing with a 
different world. I have to think we are splitting hairs because 
I see a terrorist threat out there not any different than many 
of our potential threats that we have from rogue nations, for 
example. I wondered if you wanted to comment on that?
    Secretary Feith. Senator, I am not sure I would call it 
hair splitting. I think that there are honest issues, 
disagreements about terminology. There are honest disagreements 
about the right emphasis, the different factors in this 
analysis. These are very difficult subjects. We tend to talk 
about them using shorthand and the shorthand strikes some 
people as misleading and it is useful to have a discussion like 
this so that you have an opportunity to elaborate.
    For example, the fact that the Chairman highlighted what we 
call capabilities-based analysis and the need to take into 
account threats. Of course that is correct, and I am glad to 
have the chance to clarify that. The difference is that in the 
Cold War we were looking at a very specific set of capabilities 
in a particular country's hands and we were sizing our force by 
counting up targets in the Soviet Union. We have moved away 
from that.
    The shorthand we use for that is to refer to capabilities-
based analysis, but if you do not have a discussion like this, 
it is easy for people to perhaps to not fully understand what 
you mean by some of the terminology. So I think it is a useful 
exercise to explore a lot of these issues and, as I said, I 
also think that there is utility in enriching the whole public 
understanding of what we are doing, to have people stressing 
the different aspects of what we are doing and that are in 
their view more or less important, I mean the issue of how 
important is it to destroy warheads versus render them not 
useful in the near term is something that is worth bringing to 
the surface.
    Senator Allard. I listened to some of the questions from 
the majority side of this committee. I noted that some members 
of this committee oppose, it sounds to me like, at least two 
legs of your triad. We had a lot of discussion. I remember last 
year that they did not support national missile defense. They 
did not support the offensive portion of what we are talking 
about, the nuclear capability, so we did not plan for where we 
had adequate response levels as far as offensive sizing. Are we 
not substantially increasing the risks that other nations will 
view us as vulnerable, and as a result of that, be encouraged 
to build up their own offensive weapons arsenal?
    Secretary Feith. I think that danger and others are the 
reason why we view the various elements of this new triad as a 
package. I think it would be imprudent to make the offensive 
force level reductions without addressing the other elements of 
the program, without developing defenses, without developing 
the greatest intelligence, without developing the 
infrastructure, without improving command and control.
    Senator Allard. Mr. Chairman, I think we are coming up on a 
vote. I want to save my time for other questions. I yield back 
the balance of my time.
    Chairman Levin. Senator Sessions.
    Senator Sessions. I thank Senator Allard for making that 
point. You are making some real changes in our strategy with 
regard to national missile defense as a justification for a 
reduction in weaponry. In all of that, I hope you are thinking 
clearly. It seems to me that you are. Let us point out one 
thing, though, with regard to our number of weapons that I 
think is important. There are two ways to have deterrence or a 
nuclear capability. One is the number of weapons and the other 
one is their capabilities, how modern, effective, and how 
efficient they are in operation. So now we are reducing our 
numbers. That is correct, is it not?
    Admiral Ellis. The number of the operationally deployed 
weapons, yes, sir.
    Senator Sessions. Over the last few years we ceased to 
manufacture new weapons and we are not undertaking any research 
and development of more capable weapons, as General Gordon 
suggested in his remarks earlier, so in two different areas 
that give us some enhanced capability, we have capped 
ourselves, is that fair to say?
    Secretary Feith. It is fair to say, Senator. I put it in 
the context that we made some choices as to how we are going to 
sustain our nuclear capability, and all of you have been 
supportive about sustaining that capability at some level. We 
decided we were not going to build new weapons because of the 
testing capabilities for that. We decided we weren't going to 
remanufacture old designs, and we elected to do away with that 
manufacturing capability and, as a result, the way we have 
chosen to sustain this capability once we have defined what 
this is through an aggregation of weapons, active and inactive, 
that will serve the needs of this Nation to sustain a strategic 
stockpile with all the uncertainty that the future holds over 
the next 10 to 12 or 20 years. That was the choice that we 
made. That was deemed to be in the national interest. We made 
an effort to sustain that effort in a manner in which you 
described.
    Senator Sessions. I thank you for that. It puts us in a bit 
of a box, and we need to understand that. Then I think we are 
even further in the box, are we not, Secretary Feith, if we 
enter into some treaty with Russia that makes us incapable of 
developing new weapons or increasing our numbers? So we have to 
watch that as we enter into this negotiating process, do we 
not?
    Secretary Feith. Yes. We are conscious in the talks with 
the Russians of the importance of preserving our flexibility to 
deal with threats that could arise in the future. We intend to 
preserve that but we don't think that preserving that precludes 
our reaching certain kinds of useful agreements with Russia.
    Senator Sessions. Just be careful. Admiral Ellis, it is 
great to see you again. I remember visiting you in Italy when 
you were directing the air campaign over Kosovo and discussing 
it with you. While your planes went out at night, got back in 
in the early morning, you did not sleep until the last plane 
was in, like the good shepherd you are. We had extraordinary 
success on that. I know you slept in the office wherever you 
could find a place, and you served so extraordinarily well 
then. I have great confidence that you will be quite successful 
in defending the policies that will guarantee that we remain 
capable of defending our national interests wherever in the 
world there are threats.
    Admiral Ellis. Thank you for those kind words and that 
confidence.
    Chairman Levin. Thank you, Senator Sessions. Secretary 
Feith, you stated this morning that President Bush and 
President Putin agreed to substantial reductions. You did not 
mean to imply, I believe, that President Putin has agreed that 
the word reduction is the same as relocation? The Russians have 
not agreed to relocate warheads to a warehouse, which according 
to you would constitute a substantial reduction. Have they yet 
agreed to that?
    Secretary Feith. I think what I said, or in any event what 
I meant to say, is that they announced substantial reductions.
    Chairman Levin. My question is did you mean to suggest that 
Russia has agreed that a relocation would constitute a 
reduction? That is my simple question. Have they agreed to 
that?
    Secretary Feith. I don't think we asked the question that 
way.
    Chairman Levin. You might want to ask yourself that, if you 
have not, because if you are going to discuss reductions with 
the Russians, you are going to have to find out whether or not 
they believe that a relocation of a weapon, to store it, would 
constitute a reduction. If you are going to enter into serious 
discussions with them, you are going to have to resolve that 
issue. It is very much an issue. It is all over the press. That 
is an issue, yet you say they have never raised it. Is that 
correct?
    Secretary Feith. Chairman Levin, whoever sets the terms of 
the debate has the high ground, and I think it is, if one 
characterizes something as significant as reducing the number 
of operationally deployed weapons as mere relocation, it 
changes the debate.
    Chairman Levin. They have not raised the issue, is that 
correct? This has not been a subject of discussion between us 
and the Russians. That is just how you characterized it?
    Secretary Feith. No. I think we have discussed it with 
them. We have told them that what we mean by reduction is 
reducing the number of operationally deployed weapons.
    Chairman Levin. Is that what they mean by it?
    Secretary Feith. We will see. We are in the process of 
discussing that.
    Chairman Levin. You do not know yet whether they mean that 
or not, is that correct?
    Secretary Feith. I do not know for sure where we are going 
to wind up on that issue.
    Chairman Levin. That wasn't my question. Not where we wind 
up. Have they said that that is not what they mean by it, that 
is my question.
    Secretary Feith. We have had general discussions with them 
and told them what we intend to do. They have come back and 
told us what they intend to do. We are next week going to 
Moscow to work out greater clarification on these things, I do 
not know quite how to answer this because it is not definite 
enough yet.
    Chairman Levin. Admiral Ellis, from a military planner's 
perspective, does the continued existence of Russian MIRVed 
ICBMs make any difference?
    Admiral Ellis. As you look at the classic analysis of 
single warhead platform versus a MIRV in the old context of 
confrontation with the Soviet Union, clearly as you know well 
from your background, the considered opinion was that MIRVed 
warheads tended to be less stable in that context. I think the 
important point is that we have moved beyond that, or we intend 
to move beyond that, as Secretary Feith has noted. Clearly, we 
are moving in that direction, as you are well aware, and we can 
talk more about it in the closed session to address that issue 
in our own forces. We certainly would hope that the Russians 
would follow suit. I would argue that the implications of that 
may have changed as the staging of the relationship has moved 
beyond the historical context in which those concerns were 
first raised.
    Chairman Levin. Would you say it is still relevant or 
perhaps less relevant?
    Admiral Ellis. I am not a scholar in that regard. But I 
think the issue, as Secretary Feith has noted, is that we are 
moving in a direction that best serves our national interests 
and we would hope that the Russians would move similarly in a 
direction that serves theirs.
    Chairman Levin. Secretary Feith, executive agreements are 
not legally binding upon us. Treaties are. There is a 
difference between treaties under the Constitution and the 
force of law. Executive agreements do not have the force of law 
except on the executive who signs them. Go back. See if you 
want to revise your statement. If you do not, that is fine. 
Leave it the way it is.
    Last question, Admiral Ellis, have you had any contact with 
your Russian counterparts?
    Admiral Ellis. No, sir. In the 2\1/2\ months I have been at 
STRATCOM, I have not. I have, however, had contact with those 
who oversee that program in an effort to scope a resumption of 
that at the appropriate level.
    Chairman Levin. Are you hoping to do that?
    Admiral Ellis. Yes, sir, absolutely.
    Chairman Levin. Do you have an answer from the people that 
are in charge?
    Admiral Ellis. No, sir, I do not.
    Chairman Levin. The committee will reconvene in closed 
session in Hart 219 after this vote. We are adjourned until 
then.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                              COST SAVINGS

    1. Senator Akaka. General Gordon, in your testimony you state that 
``possible cost savings from having to refurbish fewer warheads for a 
smaller stockpile would not be realized until well into the next 
decade.'' How much will be saved by the year 2012, the time frame for 
the Nuclear Posture Review?
    General Gordon. At this time no savings can be projected by 2012. 
The NPR reaffirmed the current stockpile refurbishment plans for the 
B61, W76, and W80, which had previously been agreed to by NNSA and DOD, 
including the ``block upgrade'' concept, which provides flexibility to 
adjust the plan to evolving weapons numbers. The first block 
refurbishments start in the fiscal years 2006-2007 time frame, and each 
block lasts approximately 5 years. In addition, significant costs 
through the 2012 time frame are driven by the need to restore 
production capabilities and revitalize the infrastructure, not by the 
number of warheads in the stockpile, or even the number of warheads to 
be refurbished.

    2. Senator Akaka. General Gordon, if no cost savings were 
estimated, why were they not estimated?
    General Gordon. NNSA is continuing to work with DOD to size the 
stockpile appropriately in response to the NPR. Once the force 
structure and the size of the stockpile are determined and stockpile 
support requirements are studied, cost savings, if any, will be 
determined. However, as I stated previously, it is not anticipated that 
such savings will occur until well into the next decade.

    3. Senator Akaka. General Gordon, in your testimony you mentioned 
that you have a serious human capital problem. Could you provide more 
details concerning the extent of your problem and your approach to 
resolving it?
    General Gordon. The NNSA, like most of the Federal Government, has 
been faced with significant downsizing over the last 8 years. The 
management approach was to reduce as older workers left Federal 
employment either through retirement or for new opportunities outside 
the national security arena. As a result, the NNSA now has an average 
employee age of 49, with over 233 employees eligible to retire in 
fiscal year 2002. This trend is expected to continue well through 2006, 
where the number of employees eligible for retirement will approach 40 
percent of the workforce. We are facing a sizable gap in mid-level 
positions located between entry level and senior management where 
technical practices and product knowledge are crucial to season and 
prepare tomorrow's leaders. The NNSA re-engineering and our long-term 
workforce plan are focused on consolidating technical expertise, 
improving mobility by analyzing skill mixes, and targeting recruitment 
in scientific and engineering curriculums and by expanding and 
strengthening our ties to the university systems to improve recruitment 
and educational opportunities for existing employees. This activity 
combined with the building of NNSA career paths will foster mobility in 
the development of our younger employees and the leadership 
capabilities of our senior managers. It will also support re-training 
by focusing skill needs at a corporate level and bolster our diversity 
by expanding access to positions complex-wide. My second report to 
Congress on the organization and operations of the NNSA will lay out 
the specific objectives and milestones for reinvigorating and 
rightsizing the Federal staff.

                             TIMELY UPLOADS

    4. Senator Akaka. General Gordon, you mentioned that you will 
support the Department of Defense in ``uploading the responsive force'' 
and that NNSA's tasks ``must be carried out on a time scale consonant 
with DOD's ability to upload these weapons.'' In the Defense 
Department's planning, what is considered a ``timely'' upload, in what 
condition do weapons need to be maintained in order to ensure a timely 
upload, and how close to launchers do weapons need to be stockpiled in 
order to ensure a timely upload?
    General Gordon. Upload timelines depend on the delivery system to 
be uploaded and range from weeks for bombers, months for Submarine-
Launched Ballistic Missiles (SLBMs), and a few years for 
Intercontinental Ballistic Missiles (ICBMs). The necessary upload time 
determines the warhead maintenance condition (limited-life components 
such as tritium bottles may have to be installed) and proximity to 
launchers. Since NNSA is responsible for the ground transportation of 
nuclear warheads and nuclear material within the U.S., including 
transport of warheads between DOD sites, we will continue to work with 
DOD to assure that longer-term warhead transportation needs, including 
potential depot storage of responsive warheads, deriving from the NPR 
can be met.

                      RESPONSIVE FORCE DETERRENCE

    5. Senator Akaka. Secretary Feith, the Nuclear Posture Review's 
theme is that we should base the number of nuclear weapons on what we 
need rather than on what others have. At the most, what we need is to 
deter a nation with a small nuclear arsenal. How does a responsive 
force of thousands of weapons address this need, even if the number of 
nations with small nuclear arsenals doubles or triples in the next 10 
years?
    Secretary Feith. The NPR examined the requirements for 
operationally deployed nuclear warheads in light of the defense policy 
goals identified in the QDR. These goals are assurance, dissuasion, 
deterrence, and defense (i.e., defend against and defeat aggression). 
The NPR's conclusions with regard to the overall requirement for the 
operationally deployed force informed the President's decision to 
reduce U.S. strategic nuclear warheads by approximately two-thirds, to 
a level of 1,700-2,200 operationally deployed warheads, by 2012. 
Defining these requirements involved both quantitative analyses and 
considered judgments.
    Using a capabilities-based approach, the NPR sized the 
operationally deployed force and established requirements for the 
strategic force structure according to:

        <bullet> the requirements judged necessary to assure friends 
        and allies;
        <bullet> the requirements judged necessary to dissuade 
        potential opponents;
        <bullet> the requirements to deter potential opponents;
        <bullet> the requirements to defend against and defeat an 
        opponent if dissuasion and deterrence fail;
        <bullet> the need for adaptability and flexibility in an era of 
        uncertainty and surprise; and,
        <bullet> the need to preserve a force structure that can be 
        reconstituted to provide a responsive capability for dissuasion 
        and the deterrence of potential contingencies.

    Based on these considerations, the NPR concluded that a diverse 
force structure of ICBMs, bombers, and SSBNs should be preserved, and 
that 1,700-2,200 operationally deployed warheads on a force structure 
that could be reconstituted efficiently would be adequate to meet these 
requirements.
    However, we can not now know with absolute precision what the 
requirements for operationally deployed nuclear forces will be a decade 
from now. Many of the factors that will contribute to determining those 
requirements, including, for example, the threat environment, are 
dynamic and cannot be predicted with the precision necessary to 
identify the specific number of operationally deployed nuclear warheads 
that will be required in 2012.
    The NPR also concluded that we must maintain the capability to 
reconstitute our nuclear capabilities in the event changes in the 
international security environment warrant it. It is important to note 
that our consideration of the deterrence requirement for operationally 
deployed nuclear forces excluded any immediate contingency involving 
Russia. As the non-nuclear strike capabilities, defensive capabilities, 
and responsive infrastructure of the new triad are fielded, the 
requirements for operationally deployed nuclear forces may be further 
reduced.

                   RESPONSIVE FORCE: RUSSIAN REACTION

    6. Senator Akaka. Secretary Feith, if we retain a ``responsive 
force'' of thousands of warheads, we should assume that the Russians 
will do the same. How will we confront the expanded proliferation risk 
of the stored Russian warheads that would have otherwise been 
dismantled?
    Secretary Feith. We do not believe that U.S. retention of a 
responsive capability will cause Russia to retain additional warheads. 
Russia will continue to deploy and maintain the number of warheads it 
deems prudent to meet its security requirements. We should not expect 
Russia to mirror U.S. behavior. In fact, Russia has an entirely 
different philosophy with respect to the maintenance of its strategic 
stockpile. For example, although the U.S. stopped manufacturing new 
nuclear weapons a decade ago, Russia continues to manufacture new 
nuclear weapons while dismantling old ones every year.
    [Deleted.]
    The U.S., on the other hand, currently has no nuclear warhead 
production capability and we are several years from developing one. As 
the only recognized nuclear power that does not have the capability to 
produce new warheads, we have an obligation to our future security 
needs to ensure that any reductions in strategic nuclear warheads are 
handled in a responsible and responsive manner.
    Furthermore, DOD is already addressing the proliferation risk of 
stored Russian nuclear warheads by working closely with the Russian 
Federation to improve the security of Russian nuclear weapons in the 
Cooperative Threat Reduction program. Under applicable international 
agreements, we are working with the Russian Ministry of Defense (MOD) 
to enhance the security of nuclear weapons storage sites that hold both 
tactical and strategic warheads. We also are working together to 
improve the security of warheads during transportation. In recent 
years, we have provided ``quick fix fencing'' and other equipment for 
storage site improvements, inventory control systems, personnel 
reliability and safety equipment, emergency response equipment, and 
guard force equipment. We also conduct railcar maintenance, and our 
assistance has helped reduce MOD's response and recovery times to 
respond to nuclear accidents or incidents.

    7. Senator Akaka. Secretary Feith, is it in our national security 
interests to encourage a Russian responsive force, rather than weapon 
dismantlement?
    Secretary Feith. Russia already possesses a responsive capability 
inherent in its continued manufacture of new nuclear weapons and 
delivery systems. Because the United States is not producing new 
nuclear weapons and lacks the ability to do so, our only means of 
maintaining a responsive capability is to store existing nuclear 
weapons. Naturally, we plan to dismantle warheads we no longer need and 
encourage the Russians to do so as well.
    Russia's maintenance of a large inventory of non-deployed nuclear 
warheads is driven more by the nature of its infrastructure than a 
desire to match U.S. warhead inventories. Russia's philosophy for 
maintaining its nuclear forces is significantly different from that of 
the U.S. Russia's nuclear warheads have a relatively short shelf life, 
so it maintains a large active complex to produce new warheads to 
replace warheads whose service life has expired. U.S. nuclear warheads, 
on the other hand, have a much longer shelf life and, since we have no 
warhead production capability and are at least several years from 
developing one, our responsive capability relies on the retention of 
warheads.
    [Deleted.]

                 THE NPR IN THE CONTEXT OF ARMS CONTROL

    8. Senator Akaka. Secretary Feith, rather than the dire predictions 
in the 1960s of large increases in the number of nuclear states, the 
number has actually declined over the past 30 years. Do you feel that 
our continual reliance on nuclear weapons, as outlined by the Nuclear 
Posture Review, undermines the global trend away from nuclear weapons?
    Secretary Feith. In 1972, 5 states had nuclear weapons programs; 9 
states possessed ballistic missiles; and 10 states possessed chemical 
weapons. Today, 12 states have nuclear weapons programs; 28 states 
possess ballistic missiles; and 16 states possess chemical weapons. The 
United States cannot predict with confidence what nations, combination 
of nations or non-state actors may pose a threat to our vital interests 
or those of our allies well into the future. However, we are likely to 
confront one or a combination of adversaries armed with a wide range of 
capabilities, including nuclear, biological, chemical, and other 
advanced weapons and the means to deliver them over a long range. In 
this context, the Nuclear Posture Review concluded that nuclear weapons 
would continue to play a critical role in the defense capabilities of 
the United States, its allies, and friends. They provide credible 
military options to deter a wide range of threats including WMD and 
large-scale conventional attack.
    The Nuclear Posture Review shifts planning for our strategic forces 
from the threat-based approach of the Cold War to a capabilities-based 
approach. As the non-nuclear strike capabilities, defensive 
capabilities, and responsive infrastructure of the new triad are 
fielded, the requirements for operationally deployed nuclear forces may 
be reduced beyond what we can now foresee. If so, the reductions path 
announced by the President may prudently be undertaken more rapidly 
and/or deeper reductions may be possible.
                                 ______
                                 
               Questions Submitted by Senator Ben Nelson

                   THE U.S. STOCKPILE: LOWEST NUMBER

    9. Senator Ben Nelson. Secretary Feith, last summer in testimony 
before the Strategic Subcommittee, Admiral Ellis's predecessor, Admiral 
Mies, stated that to maintain a ``viable nuclear triad,'' the bottom 
line for our nuclear stockpile should remain above 2,000 warheads--
somewhere in the neighborhood of 2,200. President Bush has said that 
the bottom line could drop as low as 1,700. Which figure is correct?
    Secretary Feith. The two statements are generally consistent. As 
the NPR indicates, the total number of operationally-deployed nuclear 
warheads is a subset of the total number of weapons in the stockpile. 
We are maintaining nuclear weapons in storage in part to address the 
issue Admiral Mies raised, as well as to maintain a responsive 
capability should developments in the international security 
environment warrant re-deploying some weapons. The final number of 
nuclear weapons in the U.S. stockpile has not been determined.
    Based on these considerations, the NPR concluded that a diverse 
force structure of ICBMs, bombers, and SSBNs should be preserved, and 
that 1,700-2,200 operationally deployed warheads on a force structure 
that could be reconstituted efficiently would be adequate to meet these 
requirements. However, a range is necessary when attempting to identify 
requirements for 2012 because we cannot now know with absolute 
precision what the requirements for operationally deployed nuclear 
forces will be a decade from now. Many of the factors that will 
contribute to determining those requirements, including, for example, 
the state of the threat environment, are dynamic and cannot be 
predicted with the precision necessary to identify ``the number'' of 
operationally deployed nuclear warheads that will be required in 2012.

                      THE RUSSIAN STOCKPILE: RISKS

    10. Senator Ben Nelson. Admiral Ellis, are you concerned about the 
risks of proliferation from terrorists or governments that support 
terrorists if Russia stockpiles old weapons instead of destroying them?
    Admiral Ellis. Yes, I am concerned about the risks of proliferation 
associated with the Russian nuclear stockpile; however, I believe the 
CTR program is addressing these concerns. Sometimes referred to as the 
Nunn-Lugar program, CTR has enjoyed broad, bipartisan support since its 
inception in Congress in 1994. As a first priority of CTR, the United 
States is helping ship nuclear warheads to consolidation and 
dismantlement sites to encourage their reduction. CTR is also enhancing 
the security of the weapons storage sites that will remain open, and is 
a cost-effective means to aid in the ``denuclearization'' of former 
Soviet states, to continue to promote stockpile safety and security in 
Russia, and help stem the proliferation of weapons of mass destruction.

    11. Senator Ben Nelson. Admiral Ellis, should the United States and 
Russia agree to destroy their warheads?
    Admiral Ellis. The United States will dismantle retired weapons or 
those scheduled for retirement as approved by the Nuclear Weapons 
Council. From a warfighter's perspective, it is vital to maintain a 
credible and reliable stockpile, so I support our current schedules for 
dismantlement as well as warhead life extension programs. We can 
prudently pursue additional warhead dismantlement programs when we 
successfully complete the life extension programs, or when we expand 
the capacity of the nuclear weapons infrastructure complex in order to 
concurrently extend warhead life and dismantlement, or when the United 
States has an adequate warhead production capability.

             DEPARTMENT OF ENERGY NONPROLIFERATION PROGRAMS

    12. Senator Ben Nelson. General Gordon, when you testified before 
the Strategic Subcommittee on April 25, 2001, I inquired about the cuts 
in President Bush's fiscal year 2002 budget made to the Department of 
Energy's nonproliferation programs. There were cuts of approximately 
$400 million. That included the Material, Protection, Control, and 
Accounting Program (MPC&A), which improves physical security at Russian 
nuclear weapons facilities, which was cut by $31 million, and the 
Nuclear Cities Initiative, a program to assist Russian weapon 
scientists transition to commercial positions, which was cut by $20 
million. How did these programs fare this year, and how important are 
they in the post-September 11 world?
    General Gordon. The budget request for fiscal year 2003 is $233 
million for MPC&A. This is below the fiscal year 2002 level; however, 
due to the fiscal year 2002 supplemental of $120 million, we have 
enough funds to accelerate significantly our MPC&A work by as much as 2 
to 3 years.
    Regarding our NCI and IPP programs that have now been consolidated 
under the Russian Transition Initiatives (RTI), we have sufficient 
funds in RTI to meet our goals. This is because $10 million was 
recently released (late in fiscal year 2001) due to the lifting of a 
legislative restriction, and $15 million was received in fiscal year 
2002 from the emergency supplemental.
    Since the September 11 attacks, we have developed a set of 
aggressive measures to accelerate MPC&A upgrades and complete them 2 
years ahead of schedule. Our new schedule is to have the Russian Navy 
nuclear warhead sites done by 2006 and all the MinAtom (Russian 
Ministry of Atomic Energy) sites completed by 2008. This program has 
taken on new resonance in the post-September 11 world.
    September 11 also illuminates the importance of the IPP program. It 
is critical to prevent the adverse migration of scientific knowledge 
into the hands of those that would use this knowledge for their own 
diabolical ends.

    13. Senator Ben Nelson. General Gordon, are the resources in the 
fiscal year 2003 budget request for MPC&A enough?
    General Gordon. Yes, I fully support the President's request for a 
fiscal year 2003 funding level of $235 million for our MPC&A and Second 
Line of Defense work. That amount--combined with the fiscal year 2002 
budget of $293 million, of which $120 million was received as part of 
the emergency supplemental package--provides the program sufficient 
resources to accelerate its planned activities with the Russian 
Ministry of Atomic Energy, Russian Navy, and Russian Customs.

            THE WAR ON TERRORISM AND U.S. NUCLEAR FACILITIES

    14. Senator Ben Nelson. General Gordon, could you please provide 
information about the homeland side of our war on terrorism and address 
the safety of our nuclear stockpile from a terrorist threat?
    General Gordon. The DOE/NNSA has a defense in-depth approach to 
security. This approach consists of access control, physical security 
systems, and protective force response. Only authorized personnel are 
allowed unescorted into nuclear weapons security areas which are 
controlled by armed Protective Force members. Authorized personnel must 
have a DOE ``Q'' clearance, be in a human reliability program (i.e., 
personnel assurance program or personnel security assurance program), 
and have a ``need to know.'' All other personnel are under strict 
escort requirements and all personnel entering such security areas are 
subject to search for prohibited articles.
    Physical security systems include barriers, intrusion detection 
systems, video assessment, and access controls. Protective forces 
provide additional assessment capability and are present in numbers 
sufficient to defeat the DOE's Design Basis Threat. The efficacy of the 
barriers providing delay, systems providing detection, assessment, and 
response are thoroughly modeled, assessed, and validated by the DOE/
NNSA.
    The DOE/NNSA also has in place contingency procedures for the 
recovery of a stolen nuclear weapon and maintains specialized teams 
that can be readily deployed to nuclear or radiological events.
    In addition to physical security measures described above, the DOE/
NNSA employs use control on its weapons systems. This includes: 
Enhanced Nuclear Detonation Safety which prevents the electrical 
systems from accidently firing the detonators during accidents; 
Insensitive High Explosives which unlike conventional explosives are 
highly resistant to unintended detonation; Permissive Action Links 
which are electronic locks inside the weapons which prevent it from 
unauthorized detonation; Command Disable Features which facilitates 
non-violent disablement of a weapon by destroying critical components 
if loss of control is eminent; and Active Protection Systems which 
automatically disables weapons upon unauthorized tampering.

    15. Senator Ben Nelson. General Gordon, what efforts and specific 
steps have you taken to increase security measures at our nuclear 
facilities?
    General Gordon. Following September 11, NNSA immediately increased 
its security posture from Security Condition 5 (routine security) to 
Security Condition 2 (terrorist action is imminent). Security Condition 
2 includes enhanced response capability, more stringent access 
controls, additional searches, and heightened awareness. We are 
currently maintaining security capability at our sites at Security 
Condition 3 (terrorist activity is more predictable) with some 
additional measures. NNSA also conducted a vulnerability assessment of 
our facilities based on the events of September 11 to determine the 
types of new concerns that needed to be addressed. An emergency 
supplemental was requested immediately after the events of September 
11. These funds are being used by NNSA to increase the protective 
forces and address the highest priority security improvements to meet 
heightened security implemented as the result of September 11. 
Additionally, I established a Combating Terrorism Task Force to review 
headquarters and field actions implemented to protect our site assets.

    16. Senator Ben Nelson. General Gordon, does this budget provide 
enough resources to ensure that our facilities remain as safe as 
possible?
    General Gordon. As we understand the threats and requirements at 
this time, the total safeguards and security request of $510 million 
for fiscal year 2003 fully funds the Department's current priorities. 
As we learn more and understand more about the threats we will continue 
to reshape and rework our requirements and our programs.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                            NEW CAPABILITIES

    17. Senator Thurmond. Secretary Feith, in describing the new triad, 
you state that nuclear forces will be integrated with, rather than 
treated in isolation from, other military capabilities. This creates 
opportunities for substituting non-nuclear strike capabilities for 
nuclear forces and defense systems for offensive means. What new 
capabilities must we develop to get the same effects as a nuclear 
weapon?
    Secretary Feith. Advanced, non-nuclear strike capabilities, 
integrated with the other capabilities in the new triad, would provide 
a broader range of effective options for national leaders to consider 
than has been available in the past. By developing new capabilities, we 
will enable a future President to make tradeoffs among various options.
    The challenge of defeating an adversary's mobile ballistic missiles 
illustrates these tradeoffs. At present, using existing C\3\I systems 
and conventional capabilities, it is difficult to precisely locate 
mobile launchers and deliver weapons on each target in a timely manner. 
Should a potential adversary arm such missiles with weapons of mass 
destruction and launch, or threaten to launch them at the United States 
or a major ally, it would obviously be urgent that we defeat the 
threat. In theory, high-yield nuclear weapons could destroy mobile 
missile launchers in a barrage attack, but such an attack would pose 
problems of its own. The Nuclear Posture Review seeks to develop 
capabilities that will give the United States the ability to target and 
defeat such weapons without resort to nuclear weapons. For example, 
improvements in intelligence capabilities, coupled with advanced, 
conventional weapons that continually cover a threat region for an 
extended time and respond quickly to targeting needs could be more 
effective and desirable for this important mission. Similarly, 
ballistic missile defense could help mitigate the threat posed by 
mobile ballistic missile launchers.

                 AGREEMENT WITH THE RUSSIAN FEDERATION

    18. Senator Thurmond. Secretary Feith, I understand that you 
believe the adjustments to the nuclear stockpile should be done without 
negotiations since they would impede or derail the significant 
reductions that both the United States and Russia want. Does the 
administration propose to sign an agreement on the reductions? If not, 
why not? If we sign no agreement, what is the legal standing of any 
understanding we have with Russia?
    Secretary Feith. The United States is working toward an agreement 
on reductions of strategic nuclear weapons with Russia because the 
Russian government has made it a high priority. We will make the 
announced reductions in our operationally deployed strategic weapons 
whether or not there is an agreement.
    Since the Russian government desires a signed document, the U.S. is 
willing to consider a range of agreements to promote transparency, 
predictability, and flexibility.
    We are discussing a package of agreements with the Russians, some 
of which may be legally binding, some of which may be politically 
binding, and some of which may be statements of intent, with 
transparency. Substance will determine the final form of the agreement.

                       RUSSIAN NUCLEAR REDUCTIONS

    19. Senator Thurmond. Secretary Feith, although the United States 
has announced that it will reduce the number of its operationally-
deployed nuclear warheads, I am not certain to what degree Russia has 
announced that it will reduce its nuclear stockpile. Could you please 
provide the details on Russia's nuclear reductions?
    Secretary Feith. Unlike the United States, Russia maintains its 
stockpile by continually renewing it, i.e., Russia manufactures new 
nuclear weapons and dismantles old ones on an ongoing basis. President 
Putin has stated that Russia is willing to conditionally reduce the 
number of its strategic warheads to 1,500 to 2,200 from its 
approximately 6,000 accountable warheads under START I.
    The Intelligence Community estimates that deployed Russian 
strategic nuclear weapons will fall to fewer than 2,000 warheads by 
2012, irrespective of an arms control agreement.

                    OPERATIONAL VS RESPONSIVE FORCE

    20. Senator Thurmond. Admiral Ellis, in Secretary Feith's prepared 
statement, he describes the responsive force as an augmentation of the 
operationally deployed force, largely through the loading of additional 
warheads on bombers and ballistic missiles. Does the responsive force 
include additional force structure or is it solely additional warheads?
    Admiral Ellis. The responsive force does not include additional 
force structure. The responsive force is comprised of warheads that are 
retained to increase weapon loading on existing strategic platforms.

                     INVESTMENT IN STRATEGIC FORCES

    21. Senator Thurmond. Admiral Ellis, the NPR calls for renewed 
investment in existing and future operating forces. General Myers has 
already highlighted the need for improved command and control 
capabilities. What specific improvements in the operational force are 
your highest priorities?
    Admiral Ellis. My highest priorities for my operating forces are 
full funding of Trident II and Minuteman III life extension, E-4B and 
E-6B command and control aircraft modernization and sustainment, 
modernization of our bomber communication suites, and the supporting 
strategic cryptographic systems. Our current air, land, and sea based 
strike assets will remain the backbone of our strategic capability for 
at least the next 20 years. Many of these assets are scheduled to 
remain in service well past their original design life and require 
robust sustainment and modernization programs in order to remain viable 
until planned replacement dates.
    The Nuclear Posture Review calls for development of a broad 
spectrum of new capabilities. We must invest in new strike, command and 
control, and intelligence capabilities leading to the full dimensional 
defeat of the rapidly proliferating hard and deeply buried and mobile 
target sets. We must transform our strategic war planning system into a 
system that retains the rigors and expertise developed over the last 50 
years, yet employs modern computing techniques and streamlined 
processes to significantly improve our planning capability. This effort 
is a critical element in enabling the required rapid, flexible crisis 
response that integrates nuclear, conventional, and non-kinetic weapons 
into our war plans.

                         FACILITY IMPROVEMENTS

    22. Senator Thurmond. General Gordon, the NPR calls for improving 
the nuclear infrastructure to increase confidence in deployed forces, 
eliminating unneeded weapons and mitigating the risk of technological 
surprise. How does this goal translate into funding requirements for 
the Department of Energy?
    General Gordon. Nuclear weapons will remain a vital part of the 
national security strategy for the foreseeable future. Indeed, the R&D 
and production infrastructure needed to develop, build, and maintain 
nuclear offensive forces is a key element of the ``new triad'' 
established under the NPR. As long as we rely on nuclear weapons, we 
will require this infrastructure, and talented and skilled personnel, 
both to ensure the safety and reliability of the enduring stockpile and 
to permit us to dismantle safely weapons no longer needed.
    Substantial work must be completed soon to restore capabilities and 
capacities in time to begin refurbishment work on key warheads later 
this decade. Among other things, there is a backlog of $800 million in 
deferred maintenance of facilities, and a need for about $500 million 
per year over the next 10 years in additional investment to 
recapitalize the production complex. This investment does not include 
new construction projects (e.g., a modern pit facility) to ensure 
sufficient capacity and capability for future-decade stockpile 
refurbishments.
    The condition of the nuclear weapons facilities and infrastructure 
will, as the backlog of required maintenance increases each year, 
present increased risk to the stockpile stewardship program. The 
majority of the facilities in the infrastructure are 40 years old; some 
facilities are unavailable for use. Many facilities were not designed 
to meet today's safety, security, and environmental standards. Indeed, 
physical and cyber security requirements continue to increase 
particularly in light of the elevated threat reflected in the events of 
September 11.
    Planned renovations of existing facilities will assure a capacity 
that will be sufficient to meet the anticipated NPR workload with a 
reserve capacity that would be available to fix unanticipated problems 
in the stockpile, respond to new warhead production requirements, or 
handle a potentially increased dismantlement workload (resulting from 
force reductions) without disrupting planned refurbishments.

                          DISPOSAL OF WEAPONS

    23. Senator Thurmond. General Gordon, although we are currently 
dismantling numerous nuclear warheads, the further reductions called 
for in the NPR present the potential for increased dismantling. How do 
you plan to dispose of the additional nuclear material that will result 
from the dismantling?
    General Gordon. The President announced in November 2001 that the 
United States would reduce its operationally-deployed strategic nuclear 
warheads to between 1,700 and 2,200 over the next 10 years. Some of the 
warheads removed from operational status will become part of the 
responsive force. Some will no doubt be retired and dismantled, but 
specific types and quantities are yet to be determined. Among other 
things, the NPR reaffirmed the earlier decision to retire the W62 
warhead by 2009. All nuclear material resulting from disassemblies is, 
and will continue to be, considered for appropriate disposition, which 
may include future reuse or disposal.

                            NUCLEAR TESTING

    24. Senator Thurmond. General Gordon, since the NPR proposes that 
the United States retain most nuclear weapons, it is critical that 
these weapons are reliable and safe. Does it also become critical that 
we are prepared to conduct nuclear testing?
    General Gordon. Responsible stewardship requires that we prepare 
for the possibility of an issue arising in a warhead critical to the 
U.S. nuclear deterrent that will require testing to re-establish our 
confidence in the safety and reliability of the warhead. We take very 
seriously the Presidential requirement for an annual assessment of the 
safety and reliability of the nuclear stockpile, and, at this time have 
no information that challenges our confidence in the stockpile such 
that we would recommend a nuclear test. At the same time, the stockpile 
is aging beyond its original design life, and refurbishments and 
modernizations as part of the life extension program are underway (W87) 
or planned (B61, W80, W76) and will help to ensure that these systems 
will remain safe, secure, and reliable for an additional 20 to 30 
years.

    25. Senator Thurmond. General Gordon, what is the current state of 
our nuclear testing facilities and what will it take to reduce the 
current 2 to 3 years required to begin testing once a decision to test 
is made?
    General Gordon. It has been about 10 years since the U.S. has 
conducted an underground test. While a number of key capabilities 
required for test readiness have been maintained through ongoing 
stockpile stewardship activities, such as the subcritical experiments 
program, other capabilities would have to be reconstituted. To enhance 
our test readiness posture, we must act now to ensure adequate staffing 
levels and training in critical skill areas, make technical 
preparations in areas such as diagnostics, maintain required facilities 
and infrastructure, and conduct additional subcritical experiments and 
test-related exercises.
    The NNSA is currently engaged in a study that I commissioned to 
determine what steps must be taken to maintain our present capability 
into the future and what would be required to achieve and sustain a 
shorter timeframe to conduct a test. This study will be completed by 31 
May 2002.

                     MODERN PIT PRODUCTION FACILITY

    26. Senator Thurmond. General Gordon, in your testimony before the 
committee you stated, ``The Los Alamos production capacity will be 
insufficient to meet future requirements for pits. As a result of the 
NPR, we seek to accelerate planning and initial design work to 
establish an MPF. Relevant activities about to begin include 
preliminary design, associated technology development, and initiation 
of the National Environmental Policy Act process.'' How do you plan to 
accelerate the design of the Modern Pit Facility when you have again 
deferred conceptual design?
    General Gordon. Conceptual design has not been deferred again. 
During fiscal year 2001, and continuing into fiscal year 2002, the NNSA 
developed the documentation required to obtain formal approval of 
Critical Decision 0 (CD-0), Mission Need for an MPF. CD-0 approval is 
expected in April 2002. Once CD-0 is approved conceptual design of an 
MPF will begin immediately with a projected completion in fiscal year 
2006. The NNSA will follow the baseline approved by the Energy Systems 
Acquisition Advisory Board and will seek to accelerate completion of 
the conceptual design consistent with future year budgets.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith

                    RUSSIAN TACTICAL NUCLEAR WEAPONS

    27. Senator Smith. Secretary Feith, in 1991 and 1992, Presidents 
George H.W. Bush, Mikhail Gorbachev, and Boris Yeltsin announced their 
intention to unilaterally reduce U.S. and Russian tactical nuclear 
weapons arsenals by both reducing the warhead stockpiles and by 
eliminating entire classes of weapons. The current U.S. arsenal of 
tactical nuclear weapons (TNWs) has been reduced to around 1,670 
warheads, and there are few concerns about the safety of storage 
conditions of these weapons. There have been reductions in the Russian 
force, but significant uncertainty remains about the size and safety of 
the Russian TNW arsenal, estimates of which range from anywhere between 
3,500 to more than 18,000. In 1997, the United States outlined its 
concerns about the security of Russian tactical nuclear weapons and 
raised the issue in tandem with bilateral efforts to reduce strategic 
forces in the context of a START III framework.
    More recently, NATO has expressed its concerns about the large 
number of Russian ``tactical nuclear weapons of all types'' and has 
called on Russia ``to bring to finish the reduction in these forces 
announced in the 1991-1992, and to further review tactical nuclear 
weapons.'' Aside from vague references in speeches, however, little of 
substance has been done by Russia to clarify what it has done to 
address the concerns about its tactical nuclear weapons arsenal.
    What is the United States doing to attain more clarity from Moscow 
on the status of Russian follow-through on the 1991 and 1992 
Presidential Nuclear Initiatives on tactical nuclear weapons, and the 
status of the current stockpile of the Russian tactical nuclear 
arsenal?
    Secretary Feith. There are no recent official U.S.-Russian 
exchanges on the status of the Presidential Nuclear Initiatives (PNIs). 
In the early to mid 1990s, the Russian Ministry of Defense sent 
periodic progress reports to DOD about the elimination of tactical 
weapons returned to Russia from other former Soviet republics. However, 
these proffered Russian status reports ceased about 1995. According to 
the Russian PNIs, the tactical warhead eliminations pledged by 
President Yeltsin were to be completed by the end of 2000. In various 
venues, including military writings, the Russians stated in 2000 and 
2001 that, except for the elimination of ground forces' nuclear 
weapons, their PNIs have been completed.
    Moscow has never declared the number of nuclear warheads in the 
Russian stockpile. While bilateral declarations of stockpiles could 
become part of some future agreement, Russia has argued that non-
strategic weapons are outside the scope of START. At this time, Russia 
continues to deploy a considerable number of tactical nuclear weapons.

    28. Senator Smith. Secretary Feith, what is the United States doing 
to ensure the safety and the reduction of Russian tactical nuclear 
weapons?
    Secretary Feith. The Department of Defense, through the CTR 
program, is working closely with the Russian Federation to prevent 
nuclear proliferation by improving the safety and security of both 
strategic and tactical nuclear weapons. Under applicable international 
agreements, we are working with the Russian Ministry of Defense to 
enhance the security of nuclear weapons storage sites that hold both 
tactical and strategic warheads. We also are working together to 
improve the security of warheads during transportation.
    In recent years, we have provided ``quick fix fencing'' and other 
equipment for storage site improvements, inventory control systems, 
personnel reliability and safety equipment, emergency response 
equipment, and guard force equipment. We also conduct railcar 
maintenance, and your assistance has helped to reduce MOD's response 
and recovery times to respond to nuclear accidents or incidents. We are 
encouraged by the reduction and consolidation of tactical and strategic 
weapons in Russia by transporting warheads to consolidation and 
dismantlement facilities. Since the nuclear weapons transportation 
security project's inception in January 2000, shipments of nuclear 
warheads to such facilities have increased to seven or eight a month.

       RUSSIAN TACTICAL NUCLEAR WEAPONS AND THE TERRORIST THREAT

    29. Senator Smith. Secretary Feith, the threat of a terrorist 
attack using a nuclear weapon has been more urgent as organized 
terrorism increases. Russia's stored tactical nuclear weapons are 
potentially vulnerable to terrorists or unfriendly nations that will 
buy or steal them. Compared to the United States, Russia lacks 
stringent, centrally coordinated procedures for ensuring the safety of 
its tactical nuclear weapons. Russia has an unspecified number of these 
weapons, which could pose a proliferation and terrorist threat. 
Tactical nuclear weapons are smaller and more portable than strategic 
nuclear weapons and some models could be used by terrorists without the 
authority of centralized command and control oversight mechanisms. What 
steps are currently being taken to ensure Russian TNWs are secure and 
will not fall into the hands of terrorists?
    Secretary Feith. The Department of Defense, through the CTR 
program, is working closely with the Russian Federation under 
applicable international agreements to ensure that tactical nuclear 
weapons are transported to dismantlement facilities or to central 
storage sites where they can be consolidated and protected along with 
strategic warheads. By taking these steps, we are reducing the 
likelihood that tactical nuclear weapons could fall into the hands of 
terrorists. Since the nuclear weapons transportation security project's 
inception in January 2000, shipments of nuclear warheads to 
consolidation and dismantlement facilities have increased to seven or 
eight a month.

    30. Senator Smith. Secretary Feith, now that the United States has 
a better relationship with Russia and both nations are cooperating to 
prevent terrorism, what is being done to address specifically the 
proliferation and terrorist dangers associated with tactical nuclear 
weapons?
    Secretary Feith. The Department of Defense, through the CTR 
program, is addressing the proliferation and terrorist dangers 
associated with both tactical and strategic warheads while in storage 
and during transportation. Under applicable international agreements, 
the CTR program addresses a broad range of safety and security measures 
including physical security, inventory control, personnel reliability 
and safety, and guard force equipment and training. Progress has been 
hindered, however, by the fact that the Russian Federation will not 
permit DOD to access its nuclear weapons storage areas in order for DOD 
to provide installation and implementation support. Although DOD and 
the Russian MOD are working on an agreement that would allow DOD site 
access to provide assistance in this important area, Russian law and 
regulations currently still prohibit such access.

    31. Senator Smith. Secretary Feith, there has been no specific 
mention of tactical weapons in the context of President Bush's proposed 
strategic nuclear reductions, nor have they been noted in any public 
announcements concerning the recent Nuclear Posture Review. Why have 
tactical nuclear weapons not been mentioned?
    Secretary Feith. The Nuclear Posture Review is quite specific as to 
the role of tactical nuclear weapons. The application of the 
capabilities-based approach to U.S. nuclear forces has resulted in a 
decision to transform the existing triad of U.S. strategic nuclear 
forces into a new triad composed of a diverse portfolio of systems. The 
``strike capabilities'' element of the new triad is composed of both 
nuclear and non-nuclear weapons systems. The deployed nuclear strike 
capabilities include the three legs of the existing strategic triad and 
theater-based, nuclear capable dual-role aircraft. Nuclear-armed sea-
launched cruise missiles, removed from ships and submarines under the 
1991 Presidential Nuclear Initiatives, are maintained in a reserve 
status.

    32. Senator Smith. Secretary Feith, to what extent are tactical 
nuclear weapons addressed as part of United States-funded CTR and 
nonproliferation programs with Russia?
    Secretary Feith. The Department of Defense, through the CTR 
program, addresses both the safety and security of Russian tactical and 
strategic nuclear weapons through specific projects. For example, under 
applicable international agreements, we provide assistance to transport 
both tactical and strategic warheads to dismantlement facilities and 
consolidated central storage sites. Our physical security enhancements 
project addresses nuclear weapons storage sites in Russia that contain 
strategic and tactical warheads. The United States encourages Russian 
compliance with the 1991-1992 Presidential Nuclear Initiatives by 
transporting tactical warheads to dismantlement sites or consolidated 
storage sites.
    Our remaining nuclear weapons safety and security projects support 
all types of nuclear weapons and do not distinguish between tactical 
and strategic systems. These projects include inventory control, 
personnel reliability and safety, guard force equipment and training, 
nuclear weapon storage site support equipment, physical security 
enhancements, railcar maintenance, and transportation safety including 
emergency response equipment.
    Progress has been hindered, however, by the fact that the Russian 
Federation will not permit DOD to access its nuclear weapons storage 
areas in order for DOD to provide installation and implementation 
support. Although DOD and the Russian MOD are working on an agreement 
that would allow DOD site access to provide assistance in this 
important area, Russian law and regulations currently still prohibit 
such access.
                                 ______
                                 
               Questions Submitted by Senator Jim Bunning

                NATIONAL LABS AND PERSONNEL RECRUITMENT

    33. Senator Bunning. General Gordon, with an aging workforce at our 
national nuclear labs, what are we doing to put in place a program to 
recruit young, highly qualified personnel that will protect the legacy 
of our nuclear programs and transform it for the future security of our 
Nation?
    General Gordon. The report of March 1999 by the congressionally 
chartered Commission on Maintaining United States Nuclear Weapons 
Expertise (a.k.a. the Chiles Commission) addressed this subject and 
developed findings and recommendations aimed at the recruitment and 
retention of scientific, engineering, and technical personnel needed 
over the long term to maintain a safe and reliable nuclear weapons 
stockpile without underground nuclear testing. In response, NNSA 
established several initiatives to ensure effective critical skills 
programs at each of the eight facilities and management contractors in 
the weapons complex. Central to each one was a focus on more effective 
contractor workforce planning that assesses current and projected 
mission needs against the existing workforce to identify gaps in 
critical skills, and develops strategies to recruit and develop 
employees to minimize and, if possible, to eliminate those gaps. We 
look to our contractors to develop and implement those plans, and it's 
our job to provide guidance and oversight on the results.
    For each of our eight contractors, NNSA uses the annual performance 
evaluation plan in the contract to ensure that each contractor focuses 
on maintenance of critical skills and is held accountable for the 
success of their efforts. We also established a set of performance 
metrics with our field sites and contractors that we used to assess 
overall performance in the complex semi-annually.
    For the two nuclear design labs managed by the University of 
California, Los Alamos and Lawrence Livermore National Laboratories, we 
established a 2-year task in the recently revised contract specifically 
focused on critical skills. We are now monitoring results against the 
plans that the laboratories developed last year.
    We are convinced that, with the right amount of management 
attention, our contractors will be able to maintain needed critical 
skills and develop a new generation of nuclear weapons stewards. We and 
our contractors view this as an overarching requirement for current and 
future mission success.

        PRODUCTION CAPABILITY AND A CAPABILITIES-BASED STRATEGY

    34. Senator Bunning. Secretary Feith, currently, it appears that we 
are the only nuclear power without the ability to produce nuclear 
weapons. In fact, Russia continues to produce nuclear warheads today. 
This being the case, explain the shift in our nuclear strategy from a 
threat-based strategy to a capability-based strategy when the United 
States has disposed of its own nuclear production capability?
    Secretary Feith. The Nuclear Posture Review recognizes that the 
defense infrastructure of the United States, including our nuclear 
infrastructure, has atrophied. One of the key elements of the new triad 
that resulted from a shift from a threat-based approach to a 
capabilities-based approach is the need to improve our R&D and 
industrial infrastructure. This includes the research facilities, 
manufacturing capacity, and skilled personnel needed to produce, 
sustain, and modernize the elements of the new triad as well as the 
supporting intelligence and command and control capabilities. 
Reestablishing a responsive infrastructure that can augment U.S. 
military capabilities through development of new systems or accelerated 
production of existing capabilities in a timely manner provides 
strategic depth. In particular, a modern, responsive nuclear weapons 
sector of the infrastructure is indispensable, especially as the size 
of the operationally deployed nuclear force is reduced.

                  NATIONAL MISSILE DEFENSE AND THE NPR

    35. Senator Bunning. Secretary Feith and Admiral Ellis, with the 
United States' declining strategic nuclear force structure and 
infrastructure, and the potential for a multilateral nuclear threat, 
please further explain the significance of developing national missile 
defense in order to maintain our dominance as a nuclear superpower.
    Secretary Feith. We are developing missile defenses in recognition 
that offensive capabilities alone may not deter aggression in the new 
security environment of the 21st century. Missile defenses also provide 
new capabilities for managing crises when faced with coercive threats 
to U.S. or coalition partners, thereby assuring allies and friends of 
our ability to maintain our commitments. Finally, should deterrence 
fail, missile defenses could protect the United States, our deployed 
forces, our allies, and friends against attack. Missile defenses are 
not being developed to create or maintain strategic dominance, but are 
essential in providing for U.S. national security.
    Admiral Ellis. The Nuclear Posture Review envisions a re-shaping of 
our strategic capabilities, to include passive as well as active 
defenses, non-nuclear and even non-kinetic as well as nuclear strike 
capabilities, a responsive infrastructure, and improved C\4\ISR that 
enables each of these elements. We will field the capability to respond 
promptly, decisively, and proportionately to any threat. Our ability to 
respond is not tied to any one element, but rather to the unique 
capabilities of each element and the synergies achieved by their 
interaction. Fielding a missile defense will be one critical element of 
our new strategic capabilities.

    36. Senator Bunning. Secretary Feith and Admiral Ellis, without 
NMD, and without a capability to produce nuclear weapons quickly and 
effectively, what would be the strategic choices available to the 
United States in comparison with its peer competitors?
    Secretary Feith. The Nuclear Posture Review concluded that missile 
defenses bring specific capabilities required to meet the objectives 
laid out in the QDR. Specifically, missile defenses would:

        <bullet> Assure allies and friends that threats of ballistic 
        missile attack against the territory of the U.S. or its forces 
        will not deter the U.S. from fulfilling its security 
        commitments;
        <bullet> Dissuade potential adversaries from investing in or 
        developing ballistic missiles by devaluing their utility as 
        instruments of coercion or warfighting;
        <bullet> Deter ballistic missile attacks by complicating an 
        adversary's attacks and reducing his probability of success; 
        and
        <bullet> Defend the U.S. population, its forces, and friends/
        allies should deterrence fail--providing political and military 
        commanders a wider range of options for countering attacks.

    The Nuclear Posture Review also found that nuclear weapons continue 
to play a critical role by providing credible military options to deter 
a wide range of threats. Thus, a modern, responsive nuclear weapons 
infrastructure is indispensable, especially as operationally deployed 
forces are reduced.
    Failure to make the investments necessary to construct the new 
triad will call into question the ability of the United States to 
further reduce its dependence on nuclear weapons and to provide a more 
secure America in the face of determined adversaries that may not be 
deterred by our current offensive capabilities alone.
    Admiral Ellis. The Nuclear Posture Review envisions a re-shaping of 
our strategic capabilities, to include passive as well as active 
defenses, non-nuclear, and even non-kinetic as well as nuclear strike 
capabilities, a responsive infrastructure, and improved C\4\ISR that 
enables each of these elements. We will field the capability to respond 
promptly, decisively, and proportionately to any threat. Our ability to 
respond is not tied to any one element, but rather to the unique 
capabilities of each of the elements and the synergies achieved by 
their interaction. This synergy allows us to reduce our reliance on 
nuclear weapons and meet the President's goal of 1,700-2,200 
operationally deployed weapons by 2012. Without a demonstrated missile 
defense capability, or a responsive infrastructure, we may not be able 
to meet the President's goal.

    37. Senator Bunning. Secretary Feith and Admiral Ellis, can the 
United States afford to shrink the inventory of operationally-deployed 
warheads without a national missile defense?
    Secretary Feith. Missile defenses have an essential role in the new 
triad. The Nuclear Posture Review sets forth a new deterrent strategy 
whereby U.S. operationally deployed strategic nuclear force levels and 
future missile defense forces are not sized to Russian offensive or 
defensive force levels. Instead, we are pursuing a capabilities-based 
approach that is not country-specific, but which is designed to address 
the uncertainties of the future.
    Admiral Ellis. The Nuclear Posture Review envisions a re-shaping of 
our strategic capabilities, to include passive as well as active 
defenses, non-nuclear and even non-kinetic as well as nuclear strike 
capabilities, a responsive infrastructure and improved C\4\ISR that 
enables each of these elements. We will field the capability to respond 
promptly, decisively, and proportionately to any threat. Our ability to 
respond is not tied to any one element, but rather to the unique 
capabilities of each of the elements and the synergies achieved by 
their interaction. This synergy allows us to reduce our reliance on 
nuclear weapons and meet the President's goal of 1,700-2,200 
operationally deployed weapons by 2012. Without a demonstrated missile 
defense capability, we may not be able to meet the President's goal.

    38. Senator Bunning. Secretary Feith, without a nuclear weapons 
production capability and a national missile defense, will the United 
States be able to maintain strategic nuclear flexibility?
    Secretary Feith. The operationally deployed forces are sized to 
provide the capabilities required to meet U.S. defense goals in the 
context of immediate and unexpected contingencies, i.e., a sufficient 
number available on short notice to counter known or unexpected 
threats. Nevertheless, greater flexibility is needed with respect to 
nuclear forces and planning than was the case during the Cold War. U.S. 
forces must take into account an increasingly complex security 
environment in which surprise is a dominant strategic consideration.
    In this context, the Nuclear Posture Review found that 
fundamentally, a diversified portfolio of offensive and defensive 
forces--combined with a responsive infrastructure and enhanced command, 
control, communications, intelligence, and adaptive planning 
capabilities--provides the U.S. with more flexibility than the Cold War 
triad. Against adversaries with limited ballistic missile capabilities, 
defenses can provide protection if deterrence based on offensive strike 
capabilities fails. Defenses that intercept ballistic missiles, 
particularly missiles fired from mobile launchers, can ease the task of 
offensive strike capabilities. Similarly, offensive strike capabilities 
that destroy enemy ballistic missile forces can ease the task of active 
and passive defenses.
    The Nuclear Posture Review also found that nuclear weapons continue 
to play a critical role by providing credible military options to deter 
a wide range of threats. Thus, a modern, responsive nuclear weapons 
infrastructure is indispensable, especially as operationally deployed 
forces are reduced.

          THE STOCKPILE STEWARDSHIP PROGRAM: DATA RELIABILITY

    39. Senator Bunning. General Gordon, since the SSP is based on data 
from actual nuclear weapons tests, and since we have not had an actual 
underground nuclear test for some time, how certain are you as to the 
reliability and certainty of the data generated by the SSP?
    General Gordon. Over the last several years, the Stockpile 
Stewardship Program has greatly increased our understanding of 
fundamental physical principals and properties of nuclear weapons, far 
beyond what we had during nuclear testing. Subcritical experiments and 
gas gun experiments using plutonium have improved our knowledge of 
issues that affect the performance of a primary in a nuclear weapon. 
High energy density experiments on NOVA, Omega, and the Sandia Z-
machine are increasing our knowledge of properties and processes under 
conditions relevant to the performance of the secondary stage of a 
nuclear weapon. When NlF becomes operational in 2004 we will begin 
experiments for the stewardship program that will lead ultimately to a 
greater understanding of the pressures, temperatures, and densities 
that affect the performance of secondaries. The three-dimensional 
simulation capabilities being developing in the ASCI program provide 
far more powerful predictive and analytical tools than we have ever had 
in the past. So in a certain sense, the data we are getting now is 
better and better analyzed than any we had during the testing era.
    Stockpile Stewardship is based on using this improved knowledge and 
these better capabilities to analyze the effects on performance and 
reliability of changes in the stockpile as it ages or as we replace 
components. The goal will be to manage those changes so that we remain 
confident in the stockpile with the tools we have in hand or will 
develop.

    40. Senator Bunning. General Gordon, do you foresee a need to test 
in the future, based on the available data in the SSP?
    General Gordon. Senator, obviously we cannot predict the future; 
however, over the last 6 years both the Secretaries of Energy and 
Defense have annually reported to the President that the stockpile is 
safe, secure, and reliable, and that there is no need to conduct a 
nuclear test. At the same time, the stockpile is aging beyond its 
original design life, refurbishments and modernizations, as part of the 
Life Extension Program, are underway (W87) or planned (B61, W80, W76) 
that will help to ensure that these systems will remain safe, secure, 
and reliable for an additional 20-30 years. Responsible stewardship 
requires that we maintain a prudent capability to resume underground 
testing if an issue rises that undermines our confidence in a weapon 
system in the stockpile.

    [Whereupon, at 12:33 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                         TUESDAY, MARCH 5, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

    UNIFIED AND REGIONAL COMMANDERS ON THEIR MILITARY STRATEGY AND 
                        OPERATIONAL REQUIREMENTS

    The committee met, pursuant to notice, at 9:39 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Akaka, 
Bill Nelson, E. Benjamin Nelson, Warner, Inhofe, Roberts, 
Allard, Sessions, and Collins.
    Committee staff members present: David S. Lyles, staff 
director; and Christine E. Cowart, chief clerk.
    Majority staff members present: Richard D. DeBobes, 
counsel; Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; Jeremy L. Hekhuis, 
professional staff member; Maren Leed, professional staff 
member; Gerald J. Leeling, counsel; and Michael J. McCord, 
professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Edward H. Edens IV, professional 
staff member; Gary M. Hall, professional staff member; George 
W. Lauffer, professional staff member; Patricia L. Lewis, 
professional staff member; Thomas L. MacKenzie, professional 
staff member; Ann M. Mittermeyer, minority counsel; Scott W. 
Stucky, minority counsel; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Daniel K. Goldsmith, Thomas C. 
Moore, and Nicholas W. West.
    Committee members' assistants present: Jason Matthews and 
Jeffrey S. Wiener, assistants to Senator Landrieu; Elizabeth 
King, assistant to Senator Reed; Davelyn Noelani Kalipi, 
assistant to Senator Akaka; William K. Sutey, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Benjamin L. Cassidy, assistant to Senator Warner; Dan 
Twining, assistant to Senator McCain; John A. Bonsell, 
assistant to Senator Inhofe; George M. Bernier III, assistant 
to Senator Santorum; Robert Alan McCurry, assistant to Senator 
Roberts; Mike Bennett, assistant to Senator Allard; Arch 
Galloway II, assistant to Senator Sessions; Kristine Fauser, 
assistant to Senator Collins; and David Young and Derek Maurer, 
assistants to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets today to receive testimony from three of our regional 
combatant commanders. All of our witnesses are well known to 
this committee. Admiral Dennis Blair is the Commander in Chief 
of the U.S. Pacific Command. General Thomas Schwartz is the 
Commander in Chief of the United Nations Command-Combined 
Forces Command and U.S. Forces Korea. Major General Gary Speer 
is Acting Commander in Chief of the U.S. Southern Command.
    Admiral Blair and General Schwartz are before the committee 
for the last time in their current assignments. I just want to 
thank them on behalf of the committee for their tremendous 
careers and commitment to the well-being of this Nation.
    Our witnesses today command U.S. military forces stationed 
from the DMZ and the Korean peninsula to the farthest reaches 
of the Pacific Ocean, to the Caribbean and the South American 
continent. I would ask each of you to convey the appreciation 
of this committee to the men and women under your command for 
their professionalism, their dedication, and their service.
    We have a number of important issues to discuss with our 
witnesses this morning. Among them are the following: Admiral 
Blair commands the Special Operations Forces recently sent to 
the Philippines in response to the request from Philippine 
President Arroyo. The mission of these forces is to help train 
the Philippine Army to more effectively fight terrorists and 
insurgents. The terms of reference signed by U.S. Pacific 
Command and the Philippine Army representatives state that the 
training exercise is targeted against the Abu Sayyaf terrorist 
group in the southern Philippines. But there are other 
terrorist groups with bases located close to those of the Abu 
Sayyaf. At least one of them, the Moro Islamic Liberation 
Front, has indicated that they would take military action if 
U.S. troops encroached on their territory.
    I am concerned that our operations in the Philippines could 
unintentionally expand beyond training the Philippine Army to 
fighting the Abu Sayyaf terrorist group. I understand that U.S. 
forces are providing training at the battalion level only, but 
those headquarters are located out in the jungles. Could the 
mere presence of our troops on the island of Basilan make them 
the target of attack not just by the Abu Sayyaf, but by other 
groups?
    How are we operationally and tactically limiting our 
involvement to training the Philippine Army rather than 
becoming caught up in the actual fighting between the Abu 
Sayyaf and the Philippine Army? How are we ensuring that our 
involvement will remain limited to the Abu Sayyaf threat? Is 
the 6-month duration for this training mission realistic?
    General Schwartz commands our armed forces in South Korea. 
We all want to reduce North Korea's threatening military 
posture. I am concerned that the lack of negotiations between 
the U.S. and North Korea and between North and South Korea is 
turning back the clock on some of the diplomatic advances that 
have been made over the last several years.
    I am concerned by recent suggestions that the Agreed 
Framework is in jeopardy and I am interested in hearing General 
Schwartz's assessment of whether the Agreed Framework 
contributes to our national security and whether it is still 
viable.
    In the Southern Command area, we need to discuss, among 
other issues, the implications of President Pastrana's recent 
decision to end the safe zone of the Revolutionary Armed Forces 
of Colombia (FARC) on the stability of the Colombian 
government; whether the existing limitations on the U.S.-
trained counterdrug brigade should be maintained; and whether 
future U.S. assistance to the Colombian military should be 
geared toward counter-insurgency capabilities.
    General Speer has also recently taken on the mission of 
running the camp for detainees at the U.S. Naval station at 
Guantanamo Bay, Cuba.
    So there is a great deal of ground to cover this morning. 
Again, I am glad that we have these experts with us. Before we 
turn to them, let me recognize Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. Your opening 
statement embraces many of the sentiments I have and therefore 
I will ask that my statement to be placed into the record.
    Chairman Levin. Thank you. It will be made part of the 
record.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Thank you, Mr. Chairman. This hearing, one in a series of annual 
hearings this committee conducts to hear from our Unified and Regional 
Commanders on their military strategy and operational requirements, is, 
in my view, one of our most important hearings.
    Admiral Blair, General Schwartz, General Speer, you are this 
nation's warfighters--on the front lines, protecting U.S. national 
security interests and presenting the face of American resolve to 
allies, friends and potential adversaries. The committee values your 
unique contributions and perspectives.
    Your input and insight provide us with important information we 
need to make decisions regarding policies and programs that impact each 
of your areas of responsibility (AOR). This is of particular 
significance this year due to the ongoing global war on terrorism and 
this Nation's global responsibilities in which each of you play a 
critical role.
    I want to take a moment to acknowledge both Admiral Dennis Blair 
and General Thomas Schwartz in what may well be their last appearance 
before our committee. Both Admiral Blair and General Schwartz are 
scheduled to retire this May.
    Gentleman, you have served our Nation with the highest level of 
dedication and professionalism. I know what this duty has required of 
you--the long hours, the missed family events, the cancelled plans. I 
want to express my personal thanks to both of you for your selfless 
service to country. We have been fortunate as a Nation to have men such 
as you at the helm--well done.
    Mr. Chairman, I would now like to take just a moment to highlight a 
number of specific concerns I have within each of our witnesses' AORs.
    While China and the Korean Peninsula remain areas of primary 
concern, in the Asia-Pacific region the global war on terrorism has now 
moved to the Philippines with U.S. troops deployed to that nation to 
help the Philippine Government fight terrorist groups. I look forward 
to receiving an update on the status of that important mission.
    Last year, our bilateral relations with China reached a low point 
following the unfortunate EP-3 incident. I am interested in Admiral 
Blair's perspective on the current U.S.-China relationship, 
particularly the current state of U.S.-China military to military 
contacts and China's reaction to the recent visit of President Bush. 
Additionally, I look forward to receiving an update on the situation in 
the Taiwan Strait.
    The continuing stalemate between India and Pakistan remains an 
issue of utmost importance. I am interested in Admiral Blair's 
perspective on this important region, particularly in light of his 
regular interaction with Indian military officials.
    Tensions remain high on the Korean peninsula. While food shortages 
remain at crisis level throughout North Korea, there appears to be no 
letup in North Korea's troop buildup along the DMZ. I look forward to 
hearing General Schwartz's insights on the situation on the Korean 
peninsula following President Bush's recent visit to Seoul and the DMZ. 
I am particularly interested in any change in North Korea's military 
posture since the war on terrorism began last fall, as well as your 
assessment of North Korea's ballistic missile and proliferation 
activities.
    Colombia remains a focus of my concern in SOUTHCOM's AOR, 
especially in light of renewed fighting in that nation. I am interested 
in receiving an update from General Speer on Plan Colombia, including 
what role U.S. military advisors are currently playing in Colombia and 
what, if any, future role you envision our advisors playing. Finally, I 
am interested in the situation at Guantanamo Bay and your assessment of 
how the global war on terrorism is impacting operations in SOUTHCOM's 
AOR.
    We welcome our witnesses this morning and look forward to their 
testimony.

    Senator Warner. I will, however, join you in commending our 
two distinguished service persons, Admiral Blair and General 
Schwartz, for a career that each of you can look back on with 
great pride and share that pride with your family. We often 
think of the officers themselves, but their families, their 
spouses, make a direct contribution.
    Behind you sit some very competent staff, each of whom 
would like to move up into those chairs. I always remember when 
I was in the Navy Department I had two four-stripers; each of 
them became Chief of Naval Operations. That was remarkable in 
view of their assignment with me, for them to overcome that and 
achieve that status.
    Admiral Blair, you sit on a key part of the world, 
including China. I hope you will give us a good, succinct, 
professional, as well as personal, perspective. The tragic 
incident of the EP-3 and the loss of one of their pilots, we 
certainly regret the loss of life. I hope steps have been taken 
to ensure that the level of reocurrence of that incident is 
much lower. I continue to believe that an incident-at-sea type 
of framework similar to what we had with the former Soviet 
Union, and now with Russia, could be adopted with China.
    I know you have some concerns about the Homeland CINCNORTH 
and the various command and control of forces in the Pacific 
region, and I think it is quite proper that perhaps you express 
those concerns here. Several of our colleagues here in the 
Senate have consulted with you on that matter and I would hope 
you would make your views a part of today's record.
    Taiwan continues to be a valued ally. I hope you will cover 
Taiwan and the continuing stalemate between India and Pakistan.
    General Schwartz, we had a very good discussion yesterday 
when you visited my office and I hope you cover those personnel 
issues today. I think you have approached them with a degree of 
realism and pragmatism that needs to be expressed and made a 
part of today's record. Speaking for myself, I do believe the 
committee would join in trying to help that situation. It is 
not just a housing problem. There must be other factors when so 
many fine professionals, officer and enlisted, look upon 
assignment to your post as one where they are forced to make a 
choice between whether they want to stay in uniform and accept 
that assignment or go on to civilian pursuits. We may as well 
meet that issue head-on.
    I share the Chairman's views about the North-South 
relationships on the Korean peninsula. The Chairman and I used 
to work with Dr. Perry. I spoke with him recently, Mr. 
Chairman, and expressed to him my continuing belief that he 
made a very valuable contribution in that area, and that we 
appreciate his willingness to continue to give advice to the 
Senate regarding the situation on the Korean peninsula.
    I hope we can lessen tensions and further reconcile the 
differences between North and South Korea. The starvation in 
the North is, as you said yesterday, at one of its higher 
levels because of the diversion of so much of the world's food 
supply to the Afghan region. So that is important.
    Of course, SOUTHCOM. You are carrying on in the stead of a 
very fine officer who now sees the Senate quite often. General 
Pace is one of the principal briefers for the Secretary of 
Defense to the Senate and the House, and he has handled that 
very commendably.
    Colombia remains a focus and a major concern to this 
committee and we look forward to your comments today. It is not 
an easy situation to address.
    Thank you, Mr. Chairman.
    Chairman Levin. Any other opening remarks before we call on 
our witnesses?
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    These three men oversee the regions of the world that are 
vital to the United States, as has been pointed out by the 
distinguished leadership of our committee. Aside from the 
ongoing war in Afghanistan and the war against terrorism, no 
other issues will be as critical to the future of our Nation as 
those pertaining to the Pacific and the Korean peninsula and 
the American Southern Hemisphere.
    The potential emergence of China as a peer competitor, a 
nuclear India and Pakistan, and the entire Pacific Rim fall 
under the responsibility of the Pacific Command and have a 
great deal of significance to this Nation. The responsibility 
of maintaining the pulse on the events that happen or do not 
happen in regards to Korea, which by the way is one-third of 
the so-called axis of evil, and being prepared to respond to an 
attack from Kim Jong Il and a very capable North Korean force, 
rests with the commander of our Korean forces. Korea is one of 
the very few places where the potential for a major force-on-
force conflict actually exists and continues to exist.
    Lastly, I want to salute Major General Speer--this is why I 
have chosen to make some opening remarks--who is carrying a 
tremendous load and the responsibility for what I consider to 
be one of the very critical areas to the United States.
    Let me say that, in regards to the Southern Command, I am 
very concerned that we have sort of a benign neglect. I know 
that we have a purpose there, we have a mission there, we are 
trying very hard there, but I regret that the administration 
has to be so slow in replacing General Pace as CINCSOUTH. This 
is absolutely no reflection on Major General Speer's ability. 
If I had two stars on me, I would pin them on you right now so 
you would have the rank I think you deserve, which would be 
commensurate with your duties and the way you are carrying out 
your duties.
    But I must say, Mr. Chairman, from a vital national 
interest perspective there is a great deal to be concerned 
about to our south and the region should be under the 
responsibility of a four-star general. There are 360 million 
people in the Southern Command, living in 31 nations. We have 
made tremendous progress since the eighties. Average age 14, 
suffering from malnutrition. We all know both General Pace and 
General Wilhelm did a great job and, as I have indicated, so 
has General Speer.
    But let me just say that since Kosovo, when we took a lot 
of infrastructure away from the Southern Command and moved from 
Panama, I think we are spread too thin down there. If you look 
at the issues that concern our vital national interest, I am 
still concerned about not-so-benign neglect. Under the Emerging 
Threats and Capabilities Subcommittee and basically under this 
committee, our responsibility is fighting drugs and that is 
where the drugs are coming from, at least to a great degree. We 
have a lot of immigration problems. We talk about immigration 
problems, illegal aliens, in regards to border control, and 
that obviously is in the Southern Command's jurisdiction.
    We talk about trade and the opportunity to feed, as I have 
indicated, 360 million people with our bulk commodities 
exchanged for specialty crops, to raise the standard of living 
there. I do not think we are doing nearly as much as we could. 
We do not even have Presidential trade authority to get those 
bilateral trade agreements working.
    In terms of refugees, I read a column the other day that 
said, in regards to that part of the world, that there are more 
refugees there than there were in Kosovo. That is hard to 
believe, and yet you do not see any press coverage in that 
regard.
    In terms of terrorism, I think there is a growing threat. 
We will ask General Speers about that. In Cuba we have a 
policy, as far as I am concerned, that is very difficult to 
understand. We get 17 percent of our energy supply from that 
part of the world--17 percent. There is a lot of talk about 8 
percent in regards to Saddam Hussein, but in regards to that 
part of the world, if something would go wrong, especially with 
Mr. Chavez down there in Venezuela, it would completely disrupt 
our economy.
    We do not have anybody appointed in regard to the Special 
Operations-Low Intensity Conflict (SOLIC) position. So I am 
urging the administration publicly to pay attention to the 
Southern Command. They are our neighbors. We need a four-star 
and we need a person in charge of SOLIC and we need to at least 
answer some tough questions in regards to where we are headed 
in the Southern Command part of the world.
    Again, Mr. Chairman, these are three very important parts 
of the world. These men are key to protecting our national 
interests in their regions. I salute them and thank them for 
appearing before the committee.
    Chairman Levin. Thank you, Senator Roberts.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    I would like to welcome these gentlemen here today. On a 
personal note, General Schwartz, I wore my Pammunjon cufflinks 
that I received there a few years ago in recognition of your 
being here today. I want to commend you on the work that you 
are doing on the peninsula.
    General Speer, I certainly second what my friend from the 
south in Kansas said. I think you are doing an outstanding job. 
Of course, the Pacific is where the action clearly is going to 
be in the future, as well as in South America. I am looking 
forward to your comments this morning on these important areas 
and these important issues that face us.
    It seems like most of the news today is centered in another 
part of the world, the Middle East. But certainly we must keep 
in mind what is going on in other parts of the world and not 
become so concentrated that we cannot keep a broad perspective 
of worldwide events and where other challenges and other 
opportunities exist.
    So I appreciate your being here today. I look forward to 
your comments. Thank you.
    Chairman Levin. Thank you, Senator Nelson. We also have a 
statement from Senator Thurmond that will be placed in the 
record.
    [The prepared statement of Senator Thurmond follows:]

              Prepared Statement by Senator Strom Thurmond

    Thank you, Mr. Chairman:
    Mr. Chairman, I join you in welcoming Admiral Blair, General 
Schwartz, and General Speer. I especially want to recognize General 
Speer, who is the acting Commander in Chief of Southern Command, and 
this is his first appearance before the committee.
    General Speer, I hope the fact that you are appearing with the two 
distinguished officers seated with you at the witness table is a sign 
of the promotions ahead of you.
    Mr. Chairman, the committee is fortunate to have these 
distinguished officers testify on the status of their commands and the 
military strategy to support the Nation's national security objectives 
in their region. Although the national focus is on Southwest Asia and 
the global war on terrorism, the Pacific region, Korea, and South 
America are areas of continued concern. These regions not only are 
areas of continuing instability, but also are areas where the United 
States has vital economic interests. I look forward to our panel's 
testimony and I want to thank them for their leadership, 
professionalism, and concern for the men and women under their command.
    Thank you, Mr. Chairman.

    Chairman Levin. We will go to our witnesses then. Admiral, 
I think we start with you.
    Admiral Blair.

  STATEMENT OF ADM. DENNIS C. BLAIR, USN, COMMANDER IN CHIEF, 
                 UNITED STATES PACIFIC COMMAND

    Admiral Blair. Thank you, Mr. Chairman, members of the 
committee. Before I address the specific concerns that you and 
other members raised, sir, if I can make a few general comments 
about the past year in the Pacific, because our men and women 
have been busy this past year and they have been performing 
magnificently.
    The U.S.S. Carl Vinson battle group from San Diego reported 
to Central Command on September 11, 2001. They had prepared for 
other missions. They were soon in the thick of the action in 
Afghanistan and they came up with innovative ways to operate 
and did it just magnificently. A little later the Kitty Hawk 
battle group, the John C. Stennis battle group, patrol 
aircraft, and the Peleliu and Bonhomme-Richard amphibious ready 
groups with the 15th and 13th Marine Expeditionary Units 
reported in for duty, and all of them did just magnificent, 
innovative, and effective things in an entirely new form of 
warfare which we have fought successfully there, which 
continues to this day.
    Air Force bombers deployed across the Pacific to our base 
at Diego Garcia and were soon flying combat sorties. Reserve 
forces came out and augmented our forces in many different 
ways. Our allies, our traditional allies as well as a broad 
range of regional security partners, quickly offered overflight 
rights and the use of facilities to support Operation Enduring 
Freedom. Several of them, including Australia, Canada, New 
Zealand, Japan, and Korea, all provided forces to participate 
in or support the operation.
    Now, our part of the mission in the Pacific in this war on 
terrorism is to eliminate al Qaeda, all of its support and 
sympathizers, and to make it a very inhospitable place for 
those outside the region seeking a new home. The key to this is 
relentless pursuit of both the terrorists and their support and 
unprecedented cooperation with the other countries in the 
region, who all share our goals.
    We have had some initial successes. There have been recent 
arrests in Singapore, Malaysia, and the Philippines. This has 
eliminated both threats to our military forces there and parts 
of the network that supports al Qaeda. We are providing advice, 
training, and material assistance to the Philippine Armed 
Forces as they work to eliminate the Abu Sayyaf Group (ASG), 
which has links to al Qaeda and also has two American 
missionaries hostage. Our joint task force there is the largest 
U.S. operation currently ongoing in the Asia Pacific region, 
and I will address the issues involved in its deployment a 
little later.
    Sadly, even operations to assist are dangerous. A little 
less than 2 weeks ago we lost a helicopter with eight soldiers 
and two airmen aboard.
    So the war on terrorism is very much on our minds in the 
Asia-Pacific region, but our day jobs that were there on the 
10th of September still remain: the Taiwan military balance; 
the EP-3 incident that Senator Warner mentioned; North Korea 
starving its populace while it still continues to sell missiles 
and other weapons around the world; continued tensions between 
neighbors India and Pakistan, which have fought in the past and 
now have nuclear weapons; all these keep me awake at night and 
they keep our forces in the Pacific Command very busy 
maintaining deterrence, staying ready, and through theater 
security cooperation, supporting our interests in each of those 
issues.
    But let me turn a little bit to those specific command 
forces, and it all begins with people. First, I do want to 
express thanks to all the members of this committee and its 
leadership for the support which you have given our men and 
women in recent years. Thank you for the largest pay raise in 2 
decades, which was passed in this year's bill. That continues 
to decrease the pay gap between the armed forces and those in 
the private sector. Our people out there know that you care.
    In this high operating tempo (OPTEMPO) world, we need to 
keep this trend moving and work on other financial stress 
points. As General Schwartz has testified many times so 
eloquently, our people in Korea routinely run hardships for 
which there is inadequate compensation. Elsewhere in the 
Pacific, costs for the things involved in these long moves, 
like quarantine costs for pets and shipment costs for an 
additional car, really add up, especially for junior enlisted 
families when they move overseas. We need to continue viable 
quality education and proper housing for all of our families.
    Also on the personnel side, to fight this war on terrorism 
we have had to bring additional people into the Pacific 
Command. They have come primarily from the Reserve component 
and they have performed important jobs magnificently. As we 
brought reservists into our headquarters, which were operating 
on a wartime basis from September 11, the Deputy Secretary of 
Defense waived the congressionally-mandated fiscal year 2001 10 
percent headquarters manpower reduction. We also brought most 
of these reservists on board in order to increase the security 
of our bases.
    Our estimate is that we need about 5,000 additional billets 
to sustain this war on terrorism indefinitely in the Pacific 
Command region. We need to address tradeoffs between mobilizing 
Reserves, which is how we have handled it in the short-term, 
and the proper mix of active billets, and of course we need to 
continue to buy the equipment that will either decrease the 
numbers of people we need or increase their effectiveness.
    Our ships, planes, and ground equipment performed well in 
the battle in Afghanistan. It was a tribute both to the people 
who maintained them and to those investments in readiness that 
have been made in recent years. But we will require continued 
sustained funding for operation and maintenance, especially of 
the select forces that we have ridden hard and put away wet in 
these operations. I am talking about Navy forces, Marine Corps 
forces, Special Operations Forces, intelligence, surveillance 
and reconnaissance forces, and strategic airlift in particular. 
We need to replenish ammunition stocks which we have used in 
these and other recent campaigns, particularly the precision-
guided munitions.
    Our theater security cooperation with our allies and 
partner nations has never been more important. It is this 
sustained interaction that both improves their readiness for 
coalition operations so they can join us quickly and 
effectively and also it is the basis for our using their bases 
when we need them to support shared interests. Some of our 
allies and partners, particularly the Philippines, will need 
continued assistance to wage the war on terrorism which is in 
our combined interests.
    Transformation of the Armed Forces has been an important 
interest of this committee and it is important for the Nation. 
In the Pacific Command we have made some significant 
improvements in the speed of formation of our joint task 
forces, the speed of their decisions. We have conducted 
experiments which have given an insight into dramatic gains 
that we can make on the battlefield.
    Every time we find that when we get engineers working 
directly with operators, with financial and other support 
coming from the services, from Washington, we make tremendous 
strides. I urge this committee not to settle for transformation 
that will take decades, but to insist on transformation that is 
measured in months or in small numbers of years, and 
transformation to take care of the real challenges that all of 
us regional Combatant Commanders face every day.
    Lastly, I urge this committee to keep an eye on the 
condition of our bases, camps, and stations. As we pour a lot 
of money into the protection of these bases from the outside, 
they still are crumbling on the inside. These are the 
``canaries in the coal mine.'' These are the indicators of 
whether the money that you put in for readiness is really 
getting down to the field.
    I can tell you we are still not working down that backlog 
of deferred maintenance which we have in the Pacific Command. 
Far too many of our family homes, barracks, buildings, and the 
utilities in places like Schofield Barracks, Camp Pendleton, 
Elmendorf Air Force Base, and Pearl Harbor Naval Station are 
still old and shabby. We owe our people first class facilities 
for them to do their work well.
    So members of the committee, I certainly appreciate the 
chance to be before you to discuss these issues in detail and I 
look forward to detailed comments and questions. Thank you.
    [The prepared statement of Admiral Blair follows:]

            Prepared Statement by Adm. Dennis C. Blair, USN

                              INTRODUCTION

    Mr. Chairman and Members of the committee: on behalf of the men and 
women of the United States Pacific Command, I thank you for this 
opportunity to testify on security in the Asia-Pacific region.
    Incidents and action drove the year 2001 for the U.S. Pacific 
Command (USPACOM). In February, U.S.S. Greeneville collided with and 
sank the Japanese fisheries training vessel Ehime Maru, resulting in 
the loss of nine Japanese lives. Soon after, a Chinese fighter jet 
collided with one of our EP-3s, resulting in the loss of the Chinese 
pilot and the detention of our crew on Hainan Island for 11 days. 
During this time, seven USPACOM personnel from Joint Task Force-Full 
Accounting died in a helicopter crash in Vietnam. Then came the 
terrorist attacks of 11 September. We have gone on the offensive 
against terrorism while sustaining our readiness, improving the 
readiness of regional forces to contribute to coalition operations, and 
transforming the capabilities of our forces. The men and women of 
USPACOM have been busy.
    We cannot provide adequate protection to our citizens and our 
forces while only playing defense. Since 11 September, combating 
terrorism on U.S. territory and throughout the Asia-Pacific region has 
been USPACOM's top priority. We are succeeding, largely as a result of 
cooperation among many nations.
    Countering terrorism has accelerated security cooperation in the 
Asia-Pacific region, but has not fundamentally altered the region's 
security challenges. A secure, peaceful and prosperous Asia-Pacific 
region remains very much in the interests of America and the world. An 
uncertain Asia will present crises and dangers. We continue to base our 
power and influence on our values, economic vibrancy, our desire to be 
a partner in this critical region, and our forward-stationed and 
forward-deployed forces of USPACOM.
    Overall, we are in better shape than we were a year ago. We have 
gone on the offensive against terror organizations we did not know the 
name of a year ago. Although there are persistent deficiencies, 
particularly in facilities upkeep and replenishment of precision 
weapons, our readiness is on its way to a satisfactory level. If we can 
maintain our momentum, the future is bright for the U.S. Pacific 
Command.

             COMBATING TERRORISM IN THE ASIA-PACIFIC REGION

International Terrorism in the Asia-Pacific Region
    The terrorist threat in the Asia-Pacific region (APR) consists 
primarily of local groups with links to al Qaeda that are hostile to 
the United States and our friends. These groups have plotted attacks 
against American forces, embassies, and other citizens, and have 
provided transit assistance to al Qaeda members. Our understanding of 
the threat has increased greatly since 11 September, as we brought more 
intelligence resources to bear and shared intelligence with other 
countries. Jemaah Islamiyah, which has plotted against U.S. and other 
nations' citizens, vessels and facilities in Singapore, is one group of 
concern. The Governments of Singapore and Malaysia moved quickly 
against this al Qaeda-linked group. Continued vigilance, actions such 
as this, and enhanced cooperation among governments, will keep 
terrorists on the run and root them out over time.
    At present, no ``Afghanistans''--sanctuaries for active terrorist 
organizations with governments fully supporting them--exist in this 
area of responsibility (AOR). Governments throughout the region 
fundamentally support the campaign against international terrorism. 
Each country in the region faces different circumstances and unique 
challenges, and each has varying capabilities in contributing to the 
international war on terrorism. Domestic political considerations are 
factors in countries such as Indonesia and Bangladesh. However, nations 
in this region are cooperating with the United States in many different 
ways, and this cooperation is succeeding against international 
terrorism.
    We have actively engaged our regional partners to support Operation 
Enduring Freedom (OEF) in Afghanistan. Our Asia-Pacific allies and 
regional partners have condemned the terrorist attacks of 11 September, 
and many are contributing resources. We appreciate the many military 
contributions of our allies and regional partners, Australia, New 
Zealand, Japan and the Republic of Korea.
    Australia invoked the ANZUS Treaty immediately following 11 
September for the first time in the 50-year history of this treaty. In 
addition to its ongoing naval contribution to Maritime Interdiction 
Operations supporting U.N. Security Council Resolutions against Iraq, 
Australia provided additional ships to the Arabian Gulf and aircraft to 
Diego Garcia. Australia was one of our first allies to deploy ground 
troops to Afghanistan. New Zealand has provided a contingent of its 
Special Air Service for operations as well.
    The Government of Japan has implemented major policy and 
legislative changes to allow Japan to provide force protection and 
logistical support to U.S. installations in Japan. The Japan Air Self 
Defense Force has flown relief missions to Pakistan and lift missions 
for our forces in the USPACOM AOR. For the first time since World War 
II, the Japan Maritime Self Defense Force is at sea far from Japanese 
waters, providing fuel and other support to coalition naval forces.
    The Republic of Korea (ROK) is providing air and naval logistic 
support to OEF. Several other countries have given overflight rights 
and seaport and airport access to our aircraft and ships.
    The bottom line is that our previous bilateral and regional 
cooperation with the countries of the APR has paid off in valuable 
cooperation with regard to the war on terrorism.
Antiterrorism Efforts--Defense
    USPACOM's Force Protection Program has effectively protected our 
armed forces and supported civilian authorities throughout the Asia-
Pacific region since the 11 September terrorist attacks. We activated 
Joint Rear Area Coordinators (JRACs) to counter the threat and 
accelerated the Critical Infrastructure Protection (CIP) Program.
    JRACs integrate the defensive measures by all the military units in 
the same location--Hawaii, Alaska, Guam, Japan and Korea. In addition, 
they coordinate Department of Defense (DOD) efforts with Federal, 
State, and local agencies. JRACs have written and exercised plans and 
are fielding the Area Security Operations Command and Control (ASOCC) 
system. Over the past year, we have made significant progress 
identifying and protecting critical infrastructure by making CIP part 
of all major exercises and using JRACs to protect critical assets. We 
are also accelerating the fielding of the Pacific Mobile Emergency 
Radio System in Hawaii and Alaska to improve coordination efforts 
between civilian authorities and their JRAC counterparts. USPACOM's 
JRACs and CIP program are widely recognized as the model for 
interagency coordination, combined scenario-based training events, and 
unprecedented cooperation and information sharing.
    Following the attack on the U.S.S. Cole, USPACOM began a full 
reassessment of vulnerabilities at foreign ports we visit. We have 
established plans and increased deployable security measures at all 
these ports. To date, we have completed 25 force protection memoranda 
of agreement (MOA) with U.S. embassies, including MOAs with embassies 
in India, Russia, Singapore, Malaysia, the Philippines and China. These 
agreements clearly delineate U.S. responsibilities for all our military 
forces in Asia-Pacific countries.
    A major challenge is to sustain these intense efforts over the 
long-term. Substantial resources are required to maintain higher Force 
Protection Conditions (FPCONs) that will be a way of life for many 
years to come.
    As long as we are engaged around the world, terrorists will look 
for soft spots for further attacks. On every deployment, every exercise 
and especially now at home stations, force protection is an essential 
mission.
Counter-terrorism--Offense
    USPACOM forces--U.S.S. Kitty Hawk, John C. Stennis, and Carl Vinson 
battlegroups, patrol aircraft, and U.S.S. Peleliu Amphibious Ready 
Group with the 15th and 13th Marine Expeditionary Units--played major 
roles in the successful Afghanistan campaigns. At the same time, we 
have gone on the offensive in the Pacific region.
    We have already deployed personnel to U.S. embassies in the 
Philippines, Indonesia, Malaysia and India to better integrate our 
operations with interagency country teams. We have established a 
Directorate for Counter-Terrorism to fuse all sources of intelligence, 
to plan and coordinate operations, and to begin true interagency 
integration across the region. We have sent equipment and an assistance 
team to the Philippines. Our Joint Intelligence Center Pacific (JICPAC) 
has rapidly improved its support to the counter-terrorism mission. 
Analytical depth and breadth of the terrorism threat in the AOR has 
significantly improved, with increased collection, analysis, and 
reporting in this area.
    To build coalition support for our offensive efforts since 11 
September, I have visited the Philippines, Thailand, Malaysia, 
Indonesia, India, Singapore, Japan and Korea, and met with each 
country's U.S. ambassador, and key senior government and military 
leaders to discuss our intentions, and how their support can help. The 
response to our plan has been positive, and we are building capability 
to act with other countries against terrorism.
    We continue to foster interagency participation in our planning and 
operations. While our counter-terrorism cell includes a Joint 
Interagency Coordination Group to seamlessly interconnect with the 
national architecture as it is established, a Joint Interagency Task 
Force with direct tasking authority that transcends agency stovepipes 
would be a more effective organization.
USPACOM Requirements for the War against Terrorism
    Manpower
    Legislation mandating a 15 percent headquarters manpower reduction 
over 3 years was passed before 11 September. As we launched the war on 
terrorism, we brought additional Reserve component (RC) personnel on 
board to handle the increased workload. On 12 October 2001, the Deputy 
Secretary of Defense waived the fiscal year 2001 10 percent 
headquarters manpower reduction. As long as the war on terrorism 
continues, there will be more requirements for intelligence, 
operations, logistics, communications, and planning officers on USPACOM 
combatant headquarters staffs.
    The war on terrorism has created new manpower requirements. Over 
5,000 additional billets are needed to address the full range of force 
protection, antiterrorism, and counter-terrorism missions throughout 
USPACOM. Examples of additional manpower requirements include increased 
shore and harbor security patrols in response to enhanced Force 
Protection Conditions (FPCONs), additional teams to assess security of 
foreign ports and airfields we visit, and around-the-clock manning of 
JRACs and crisis action teams. We are working to address these manning 
and management challenges from within existing endstrength levels.
Combating Terrorism Readiness Initiatives Fund (CBT RIF)
    Funding obtained through CBT RIF continues to play a major role in 
addressing emergent requirements. This initiative provides the 
geographic CINCs additional avenues for resourcing against emerging 
threats. Some examples of USPACOM funded CBT RIF projects include 
weapons/metal detectors and explosive vapor detectors for Marine Corps 
Base Okinawa and blast mitigation windows for Yongsan Base in Korea. 
USPACOM received $3.95 million in CBT RIF funding in fiscal year 2001. 
USPACOM received nearly $3.9 million more in the first allocation of 
fiscal year 2002 funding, including $850,000 for U.S. Forces Korea 
(USFK). However, USPACOM still has over 1,070 unfunded Anti-Terrorism 
Force Protection (ATFP) projects totaling nearly $1.5 billion to 
achieve full compliance with current standards. Service funding will 
meet some of these requirements, but the CBT RIF program fills the 
gaps.
Foreign Military Financing (FMF)
    FMF is an essential tool for our allies and partners to improve 
their capabilities against international terrorist groups and their 
supporters. A detailed discussion of FMF funding requirements, with 
particular emphasis on FMF for the Philippines, is included at pages 
34-35.

                      OTHER REGIONAL DEVELOPMENTS

Australia
    Australia remains America's oldest ally in the Asia-Pacific region. 
Last year we celebrated the 50th anniversary of our defense treaty. 
Australia's steadfast support has been a key facet of our counter-
terrorism campaign in the Asia-Pacific region.
    Australian armed forces remain in the lead role in East Timor and 
in the shaping of East Timor's new defense force. In addition, 
Australia maintains an important presence in Papua New Guinea, 
Bougainville and the Solomon Islands, ensuring peace and security in 
these problematic areas. The Australian government has been active in 
promoting the return of democracy in Fiji and security and peaceful 
development throughout the archipelagic states of Southeast Asia and 
the South Pacific.
    Our relationship with Australia is mature and as strong as it has 
ever been. USPACOM works hard through bilateral and multilateral fora 
to keep the ANZUS Treaty relationship with Australia healthy and 
looking forward. We are currently conducting a strategic top-down 
interoperability study with Australia's armed forces. It will return 
great long-term dividends in acquisition, information technology, 
operations, research and development, and further strengthening the 
relationship with this trusted ally.
Japan
    Japan hosts nearly 41,000 U.S. Armed Forces personnel and 14,000 
additional sailors afloat with the Seventh Fleet. It contributes $4.57 
billion in host-nation support, the most of any U.S. ally. These 
forward-stationed and forward-deployed forces are key to the U.S. 
commitment to defend American interests throughout the Asia-Pacific 
region. The U.S.-Japan alliance is the cornerstone of U.S. security 
interests in Asia and fundamental to regional security and peaceful 
development.
    Over the past year, Japan and the United States have made steady 
progress in strengthening our alliance. We signed the first bilateral 
defense plan under the 1997 revised Defense Guidelines. It incorporates 
additional Japanese support for U.S. operations, and opens new areas 
for defense cooperation.
    After 11 September, Japan passed historic legislation to assist 
U.S. combat operations. For the first time since World War II, Japan 
sent its Self-Defense Force (JSDF) overseas to support a combat 
operation and work with other countries in a U.S.-led coalition.
    JSDF roles and capabilities are evolving to meet future challenges. 
In addition to Japan's military contribution in support of OEF, the 
JSDF will deploy a 700-member engineer battalion to East Timor in March 
2002, and will continue to provide a 45-man transportation unit as part 
of the Golan Heights U.N. Disengagement Observer Force. The JSDF has 
also worked closely with USPACOM components in restructuring bilateral 
exercises to develop skills for humanitarian assistance; search and 
rescue; non-combatant evacuation; consequence management for chemical, 
biological and nuclear incidents; and complex contingency operations 
likely to occur in the future. I am also encouraged by the increased 
attention the JSDF is giving to cooperating with regional armed 
forces--the ROK in particular.
    We successfully completed the search and recovery effort on the 
Ehime Maru last October with the recovery of eight out of nine missing 
crewmembers. The U.S. Navy's intense efforts and our two nations' 
exceptional cooperation overcame the effects of the tragedy, and even 
strengthened the ties between our two countries in many areas.
    We continue to work to be good neighbors on our bases in Japan. 
Japan closed the industrial waste incinerator next to the U.S. Naval 
Air Facility Atsugi, ending an environmental hazard. Because of steady 
progress made under the Special Action Committee on Okinawa (SACO), a 
relocation site for Marine Corps Air Station Futenma has been selected 
in northern Okinawa, and detailed discussions have begun over the type 
and scale of the facility.
    Japan's timely, meaningful and visible contribution to the campaign 
against terrorism is a new stage in our alliance relations. This 
lynchpin relationship is vital for security and peaceful development in 
Asia.
Republic of Korea (ROK)
    Encouraging events on the Korean Peninsula in 2000 appeared to 
indicate a new era. However, progress stalled last year. Since March 
2001, the North has canceled events and refused to meet regularly with 
the ROK. At the same time, North Korea's ``military-first'' policy 
remains. Its training cycles in 2001 were at normal levels, but the 
ongoing 2002 winter training cycle has featured unusual corps-level 
activity. North Korea continues to maintain more than 60 percent of its 
forces within 100 kilometers of the Demilitarized Zone (DMZ). The North 
remains a formidable force that we must guard against and deter.
    During 2001, the U.S. and the ROK successfully negotiated several 
important alliance issues. Our military relationship is on a stronger 
footing every year.
    The Special Measures Agreement (SMA), once completed, will 
significantly increase contributions to the maintenance of U.S. troops 
on the Peninsula. Under the SMA, the ROK will cover 50 percent of the 
non-personnel stationing costs for U.S. forces by 2004. The Commander 
of U.S. Forces Korea (USFK) has also reached a tentative agreement with 
the ROK government on a Land Partnership Plan (LPP) that will 
consolidate U.S. force presence. The plan will reduce the number of 
major U.S. bases in Korea from 41 to 26 while enhancing training and 
combined warfighting capability. Commander USFK and the ROK Ministry of 
National Defense have agreed to review the 1990 agreement to relocate 
Yongsan Army Garrison, the home of USFK, from its location in downtown 
Seoul.
    We must continue to enhance the quality of life for our troops and 
their families stationed in Korea. The ROK provides critical Host 
Nation Funded Construction (HNFC) support. However, HNFC, coupled with 
the current level of U.S. Military Construction (MILCON) funding, is 
inadequate. Many of the facilities, including unaccompanied personnel 
housing and family housing, are of Korean War vintage. Personnel live 
in inadequate barracks, apartments, even Quonset huts and ``temporary'' 
Vietnam-era buildings that we have maintained at increasing cost as 
age, infestation, and Pacific weather have taken their toll. The fiscal 
year 2003 funding shortfall for facility construction and modernization 
across Korea is estimated at $315 million. Congressional support of 
MILCON funding for Korea in the fiscal year 2001 supplemental and 
fiscal year 2002 MILCON Appropriations bills was sorely needed and very 
appreciated. We seek your continued support for MILCON and sustainment, 
restoration and maintenance funding as provided in the President's 
fiscal year 2003 budget.
    The ROK increasingly contributes to regional security by deploying 
over 400 troops to the peacekeeping mission in East Timor, in addition 
to its other peacekeeping commitments in Western Sahara, the Republic 
of Georgia, Cyprus and the India-Pakistan border region. ROK forces 
participate in exercises such as Rimpac (a major, multilateral naval 
exercise), Pacific Reach (a submarine rescue exercise also involving 
naval forces from Japan, Singapore and the United States), and Cope 
Thunder (a multilateral air exercise in Alaska). Most recently, the ROK 
and USCINCPAC co-hosted a Multilateral Planning Augmentation Team 
(MPAT) workshop in Korea. Hosting an exercise with over 20 non-U.S. 
participants, including Japan, was a significant first for the ROK.
    Following the 11 September tragedy, the ROK aggressively supported 
our efforts to combat terrorism. They have dispatched forces to support 
Operation Enduring Freedom, currently deploying four C-130 aircraft, a 
naval tank landing ship (LST) and a Mobile Army Surgical Hospital 
(MASH) unit. The ROK has also sent liaison officers to the headquarters 
of USCINCPAC and Commander in Chief, U.S. Central Command to coordinate 
ROK government support for the Afghan campaign and continuing war. The 
ROK has worked closely with USFK to fully ensure the highest levels of 
protection of U.S. forces on the Peninsula. This is in addition to the 
$45 million pledged for the reconstruction of Afghanistan.
    By joining the coalition to combat global terrorism and 
participating in peacekeeping missions and USPACOM's regional exercises 
and cooperative initiatives, the ROK plays a very positive role in the 
region. Although there has been little or no substantive progress 
toward normalization and reunification of the Peninsula, the United 
States and the ROK have strengthened our alliance, and the ROK has 
continued its contribution to regional security.
Philippines
    Our relationship with the Republic of the Philippines (RP), a long-
time U.S. ally, had major developments last year. The RP continued to 
be a strong partner in regional security initiatives--hosting various 
conferences, the annual bilateral Balikatan Exercise linked to the 
regional Team Challenge exercise, and numerous Joint Combined Exchanges 
for Training (JCETs).
    The Armed Forces of the Philippines (AFP) are challenged by 
budgetary constraints, logistical problems and a lack of adequately 
trained personnel. These factors hamper the AFP's ability to deal with 
internal insurgent groups, like the Abu Sayyaf Group (ASG) that also 
has ties to al Qaeda and poses a threat to Americans.
    President Arroyo has championed Philippine and regional support for 
the international counter-terrorism campaign. During her November 2001 
visit to the United States to commemorate the 50th Anniversary of the 
U.S.-RP Mutual Defense Treaty, she and President Bush agreed that the 
11 September terrorist attacks on the United States, and the terrorist 
activities of the ASG (which now holds Filipino and American hostages 
in the Southern Philippines), underscore the urgency of ensuring that 
the two countries maintain a robust defense partnership into the 21st 
century. The two leaders agreed to strengthen the military alliance on 
a sustained basis, through increased training, exercises, and other 
joint activities. Finally, they declared that the American and Filipino 
people stand together in the global campaign against terrorism.
    USPACOM has deployed a Joint Task Force (JTF) to the Southern 
Philippines and has organized a substantial program to improve the 
maintenance of AFP equipment. The JTF package includes: a training/
advisory team of Special Operations ground, naval and air personnel to 
train the AFP from their Southern Command Headquarters potentially down 
through company level. Training will focus on effective counter-
terrorism campaign planning, intelligence/operations fusion, 
psychological operations (PSYOP), civil-military operations (CMO) and 
field tactics. Additionally, civil affairs (CA), maintenance, medical, 
and other support personnel round out the Special Forces team.
    The JTF initial deployment of advisors was approved during 
implementation planning in January 2002. The recently concluded Terms 
of Reference (TOR) provided both governments with the necessary 
framework for executing our deployment to the Philippines.
    The war against the ASG will not be won by military operations 
alone. Improvements in law enforcement, intelligence, economics, 
business, information, media, academia, community leadership and 
religion will have enduring and important roles in the battle. A solid, 
sustainable socio-economic program by the Government of the Philippines 
in the affected areas is also essential. USPACOM is working on a civil 
affairs assessment to support the JTF operation. Our training, 
assistance, and maintenance package will improve the AFP's CT 
capabilities. Continued U.S. support to the Philippines through the FMF 
program is critical to the success of the AFP's campaign against 
terror.
Thailand
    Thailand is one of the nations in Asia most committed to building 
regional approaches to the future challenges of counter-terrorism (CT), 
counter-drug (CD) interdiction, peacekeeping operations (PKO), 
humanitarian assistance (HA), and other transnational concerns. The 
Team Challenge multilateral training event to improve multinational 
capability/interoperability is held in Thailand.
    Thailand has taken a leading role in Southeast Asia in support of 
peacekeeping operations (PKO) by maintaining battalion strength forces 
in East Timor and again supplying the U.N. military commander there. 
Thailand has also sponsored several multilateral PKO seminars. We have 
supported humanitarian demining in Thailand and are transferring that 
program to Thailand in fiscal year 2002. USPACOM continues to respond 
to Thailand's request for U.S. assistance to the Royal Thai Army in 
combating drug traffic across the Burma-Thai border. Joint Interagency 
Task Force West (JIATF-W) is the standing task force for all CD issues 
in the theater and has the lead in training, equipment, and 
organizational coordination initiatives to assist the Thais with their 
CD mission. Full funding of fiscal years 2002/2003 Foreign Military 
Financing (FMF) for Thailand is critical to our efforts to help 
Thailand sustain its CD and PKO over the next 2 years.
    Since 11 September, Thailand has coordinated fully with the United 
States in combating terrorism by supplying access to Thai military 
facilities, granting overflight permission, making formal public 
statements of support, and cooperating in information sharing and in 
investigation of terrorists using Thailand for a transit point and for 
other support. During a December 2001 trip to Washington, DC, Prime 
Minister Thaksin offered the U.S. Deputy Secretary of Defense Thai 
security contributions to multilateral presence in Afghanistan.
    Our effective military-to-military cooperation with Thailand meets 
the security concerns of both our countries. Our attention to Thai 
political and military priorities supports our ability to call for 
access to military facilities. Thailand will continue to be our key 
ally in Southeast Asia.
Singapore
    The March 2001 completion of the deep-draft pier at Changi Naval 
Base, constructed entirely at Singapore's expense, will support 
continued U.S. presence in the region for many years to come. U.S.S. 
Kitty Hawk was the first aircraft carrier to berth pierside at Changi. 
Though not a formal treaty ally, Singapore is a solid security partner 
in the Asia-Pacific region, a vocal proponent for U.S. access, and a 
strong supporter of U.S. counter-terrorist efforts. Additionally, 
Singapore supports and hosts many significant multilateral activities. 
Last year, it hosted Exercise Pacific Reach, participated in Exercise 
Cobra Gold and numerous anti-piracy regional conferences, and hosted a 
Western Pacific Naval Symposium (WPNS) regional Mine Counter-Mine 
exercise.
    Singapore seeks greater interoperability with the U.S. armed 
forces. It views high technology and advanced hardware as a deterrent 
and is increasing its cooperation with the United States in several 
projects. Singapore participated with Extending the Littoral 
Battlespace (ELB) Advanced Concept Technology Demonstration (ACTD) and 
is active in other developments such as the Joint Mission Force (JMF) 
and Asia-Pacific Area Network (APAN).
    Singapore has worked against terrorist groups in the country who 
were targeting U.S. interests. Immediately following the 11 September 
attacks, Singapore was unwavering in its support to Operation Enduring 
Freedom, allowing our aircraft to use its airfields and increasing 
protection to vital shipping in the Strait of Malacca.
    Singapore's arrest of 13 al Qaeda-linked terrorists in December led 
to additional arrests in Malaysia and the Philippines in January. 
Information sharing between these countries provided unprecedented 
insights into the al Qaeda network in the Asia-Pacific region.
    Singapore has rapidly matured into a solid regional partner in a 
strategic location.
India
    U.S. military relations with India have greatly expanded over the 
past year. India offered rapid and valuable assistance to the United 
States in conducting military operations in Afghanistan. USPACOM 
officers have met with their Indian counterparts and agreed on programs 
and exercises for the next 6-18 months. The primary areas of 
cooperation focus on peacekeeping, counter-terrorism, special 
operations training and naval activities.
    We are closely following India's current confrontation with 
Pakistan. Throughout our interaction with our Indian counterparts, we 
continually stress the importance of a peaceful negotiated long-term 
solution to the Kashmir issue.
    India and the United States have many common interests and our 
growing military cooperation will support this increasingly important 
security relationship.
Indonesia
    Indonesia continues to go through a complete transition toward a 
modern democracy and a market economy. A key factor influencing 
Indonesia's political transformation and the prospects for its 
stability and unity are the Armed Forces of Indonesia, or TNI.
    Military reform made some progress last year, but more remains to 
be done, especially in the areas of accountability and professional 
conduct. Separatist and sectarian violence in Aceh, the Moluccas, 
Sulawesi, and Irian Jaya, and inadequate TNI resources and capabilities 
have slowed the momentum of reform. TNI's future course is central to 
Indonesia's development and important to U.S. interests in combating 
terrorism, maintaining freedom of navigation on important trade lanes, 
and supporting regional security.
    The Indonesian government has condemned terrorism and approved 
overflights of U.S. aircraft supporting the war on terrorism. It has 
improved security for our citizens and the U.S. embassy in Jakarta. 
However, Indonesia's very geography makes it vulnerable to terrorist 
penetration. With many challenges on its plate, and diminishing 
resources, Indonesia's security apparatus does not have full control of 
its borders. Moreover, Indonesia has not aggressively investigated 
domestic elements that are sympathetic to the aims of al Qaeda. We need 
to strengthen cooperation with Indonesia on terrorism. Current 
restrictions on our interaction with the TNI limit our effectiveness. 
However, the newly established Regional Defense Counter-Terrorism 
Fellowship Program may offer us a valuable tool to provide TNI mid-
grade officers non-lethal training focused on counter-terrorism and 
combating transnational threats. We look forward to exploring this 
possibility with Congress.
    USPACOM activities with TNI include inviting some officers to 
multilateral conferences, subject matter information exchanges, senior 
officer visits, and the annual naval Cooperation Afloat Readiness and 
Training (CARAT) exercise focusing on humanitarian assistance and anti-
piracy. CARAT 2002 will now include a counter-terrorism element.
    A responsible, developing Indonesia is key to the security and 
development of the Southeast Asia region; it is in our interest to help 
ensure the security of this important country.
East Timor
    East Timor is preparing for independence in May of this year. U.N. 
Transitional Administration in East Timor (UNTAET) support has been 
successful in assisting and guiding East Timor toward independence. 
USPACOM forces in U.S. Support Group East Timor (USGET) played a vital 
role in supporting this monumental international effort. USGET has 
provided a significant U.S. presence, vital civic actions, humanitarian 
assistance, and regular ship visits. Today, East Timor is generally 
secure from the militias, and ready to face the challenges of a 
democracy.
    After East Timor's independence, USPACOM will transition from civic 
action orientation in East Timor to a more traditional military 
cooperation program. This program will support an international effort, 
led by Australia, to further develop the East Timor Defense Force into 
a viable self-defense force.
China
    Many important political, economic, and military developments 
occurred in the People's Republic of China (PRC) last year, and Chinese 
actions affected U.S. military relations with the People's Liberation 
Army (PLA).
    Last year's military exercises in the PRC showed a measurable 
increase in quality, as the PLA continued to modernize its forces, with 
an emphasis on integrating ground, air and naval forces into a viable 
joint capability, and on creating a more professional officer and 
noncommissioned officer cadre. In addition to basic maritime combat 
skills, the 2001 exercises demonstrated efforts to conduct joint 
amphibious operations combined with missile and air strikes against key 
targets, such as airfields, naval ports and command centers.
    China continued to build and exercise its force of short-range 
ballistic missiles ranging Taiwan. It still seeks to develop a range of 
military options to influence and intimidate Taiwan, and has not 
abandoned the option of using force to resolve Taiwan's status.
    Across the Strait, Taiwan's armed forces continue to restructure 
and modernize. They are reorganizing and modernizing command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR). The U.S. government last year approved the 
sale of naval, ground and air equipment to maintain Taiwan's sufficient 
defense in the near-term. Taiwan still needs to focus on developing and 
modernizing C\4\ISR, integrated air and sea defense, and the ability to 
integrate its armed forces to conduct effective joint operations.
    The PLA is still years away from the capability to take and hold 
Taiwan. Continued improvements in Taiwan's capabilities and development 
of USPACOM capabilities will be necessary to maintain sufficient 
defense.
    The April 2001 EP-3 crisis was eventually resolved--the crew and 
airplane returned. However, the aggressive behavior of the Chinese 
pilot who caused the collision and the detention of the crew for 11 
days damaged China's relations with the United States.
    Military-to-military relations are resuming slowly, and in 
accordance with the National Defense Authorization Act. It is in the 
interests of the United States to interact with the PLA to address 
common interests, such as combating terrorism, peacekeeping operations, 
search and rescue, counterdrug, counterpiracy, and humanitarian 
assistance. These interactions should be reciprocal and transparent and 
serve to reduce misunderstandings and the risk of miscalculations on 
both sides.

                   POW-MIA EFFORTS IN SOUTHEAST ASIA

    Joint Task Force-Full Accounting (JTF-FA) continues progress on the 
fullest possible accounting of Americans unaccounted for as a result of 
the war in Southeast Asia.
    The risks of this noble mission were sadly underscored by the 
helicopter crash on 7 April 2001. Seven American service members and 
nine Vietnamese tragically died in Quang Binh Province, Vietnam, while 
conducting advance work for the 65th Joint Field Activity (JFA). We may 
never know the exact details of the accident, but a report by the U.S. 
investigator indicated that deteriorating weather conditions, poor 
visibility, and pilot error were factors. This tragic incident was a 
deep loss for USPACOM, the task force, and the American and Vietnamese 
people.
    During fiscal year 2001, JTF-FA conducted nine JFAs--three in 
Vietnam, five in Laos, and one in Cambodia where 211 cases were 
investigated and 37 sites excavated. One JFA in Vietnam was canceled 
due to the tragic helicopter crash. JTF-FA continues to maintain its 
pace of operations in fiscal year 2002, with 10 JFAs scheduled--4 in 
Vietnam, 5 in Laos, and 1 in Cambodia.
    Last year, 44 sets of remains were identified and returned to their 
loved ones. JTF-FA recovered and repatriated 27 remains still to be 
identified, but believed to be Americans unaccounted for (16 from 
Vietnam, 10 from Laos, and 1 from Cambodia).
    We remain committed to obtaining the fullest possible accounting of 
Americans still missing in Southeast Asia and to the return of all 
recoverable remains. We seek continual support for funding of this 
mission.

                      THEATER SECURITY COOPERATION

Theater Security Cooperation Overview
    Ready forces are the foundation for USPACOM's cooperation with the 
Asia-Pacific region. They reassure our friends and partners, and 
dissuade our potential enemies. During 2001, we maintained a strong 
program of Theater Security Cooperation (TSC) designed to maintain 
coalition warfighting skills for deterrence, and build regional 
coalition capabilities to carry out common missions, from peacekeeping 
through combating terrorism.
    The three primary goals of TSC--influence, access, and competent 
coalition partners--led to an active program that proved its worth 
after 11 September. All countries in the Asia-Pacific region declared 
support for the global war on terrorism, and contributed in many ways.
    Seminars, simulations and multilateral exercises are inexpensive 
and powerful ways to develop the capabilities to work effectively--as 
coalitions in complex contingencies (such as East Timor); as partners 
in countering terrorism, illegal drug trafficking, and piracy; in 
managing the consequences of chemical, biological or nuclear attacks, 
natural disasters and accidents; in evacuating citizens caught in the 
path of violence; in search and rescue of mariners and airmen in 
distress; and in providing humanitarian assistance. TSC develops a 
cadre of competent coalition partners able to contribute when called 
upon.
    Such a call came 11 September. Under the banner of Operation 
Enduring Freedom, many of our partners in enhanced regional cooperation 
stepped forward to make significant contributions to the emerging OEF 
coalition. We have also focused on building long-term, strategic 
relationships necessary to plan and execute the protracted theater 
campaigns to eradicate terrorism. Many of our efforts with key allies 
and friends, such as Australia, Japan, Korea, the Philippines, Thailand 
and Singapore, are expanding on strong foundations nurtured by TSC to 
improve our counter-terrorism capabilities. With other strategic 
nations in our theater, such as India, the events of 11 September are 
the catalyst for accelerating more meaningful military-to-military 
contact and cooperation. Finally, many nations, such as Vietnam, 
Cambodia, Laos and Burma, have offered varying levels of support and 
cooperation to the global campaign against terrorism. Their proposed 
contributions and offers, although perhaps not strategically 
significant, forecast meaningful regional cooperation on a threat that 
affects all Asia-Pacific nations.
    We will continue to cultivate and maintain the necessary 
operational access and coalition cooperation (diplomatic/financial/
military) to plan and execute current and future operations. For all 
these purposes, USPACOM should maintain a baseline of multilateral 
conferences and International Military Education and Training (IMET) 
for every country.
Coalition Exercises
    Team Challenge 2002 links the multilateral Cobra Gold exercise in 
Thailand with the bilateral Balikatan Exercise in the Philippines to 
address bilateral and multilateral training objectives, and to improve 
the readiness of regional armed forces to contribute to multilateral 
operations. Singapore will participate again this year alongside Thai 
and U.S. forces in Cobra Gold. Observer nations (with an eye toward 
possible participation in future years) will include Japan, 
Philippines, Malaysia, Indonesia, France, ROK, Mongolia, Russia, China, 
India, Cambodia, Tonga and Sri Lanka; Vietnam has been invited. In Team 
Challenge, we will exercise elements from the full spectrum of missions 
that our combined forces may be called upon to do together, from 
complex contingencies to humanitarian assistance. Team Challenge 
continues to be our largest multilateral exercise in theater, while 
serving as our premier Combined Joint Task Force training exercise.
International Military Education and Training (IMET)
    IMET is the cornerstone of our Theater Security Cooperation 
Program. It provides education opportunities for personnel from foreign 
armed forces to study U.S. military doctrine and to observe U.S. 
commitment to the rule of law, human rights, and democratic values. It 
is the best means for promoting professionalism within foreign armed 
forces, and exposing foreign armed forces to the principle of a 
military responsive to civilian control. IMET is an effective tool for 
assisting armed forces to develop in ways that meet their own and U.S. 
objectives. Indonesia is a case in point, where officers from the 
Indonesian armed forces have not attended professional U.S. military 
education courses since 1992, with an attendant loss of U.S. influence 
on an entire generation of Indonesian company/field grade officers.
Regional Defense Counter-Terrorism Fellowship Program
    The Regional Defense Counter-Terrorism Fellowship Program 
complements the IMET program. DOD funding will be used to send foreign 
military officers to U.S. military institutions and selected regional 
centers for non-lethal education. This program will provide the 
regional CINCs with additional flexibility in executing our security 
cooperation strategies, and it will have an immediate and positive 
impact in encouraging reform, professionalism, and regional cooperation 
in addressing counter-terrorism and other transnational threats.
Foreign Military Financing (FMF)
    FMF for acquiring U.S. military articles, services and training 
enables key friends and allies to improve their defense capabilities 
and improve their potential contributions as a coalition partner. In 
response to our original fiscal year 2002 FMF request, three USPACOM 
countries were granted FMF funds: Mongolia ($2 million), the 
Philippines ($19 million), and East Timor ($1 million), which gains its 
independence 20 May of this year.
    To prosecute the global war on terrorism, it is in the U.S. 
interest to provide equipment to select countries facing threats. The 
administration is reviewing potential threats and options.
Philippines FMF Maintenance Program
    The Philippines FMF Maintenance Program is the foundation for 
effective security assistance to the Armed Forces of the Philippines 
(AFP) in their campaign against terror. We are in the first year of a 
5-year, $68 million FMF plan to sustain critical AFP military 
capability while promoting clear and positive actions to correct 
budgetary and logistics deficiencies. We have developed courses of 
action to improve AFP readiness rates for specific systems such as C-
130 aircraft, UH-1 helicopters, 2\1/2\ ton trucks, and 78-foot Fast 
Patrol Craft. We have also developed a statement of work to implement 
contractor management assistance and ways to track improvements in 
readiness rates. Full funding over the 5-year program will enable the 
AFP to sustain higher readiness levels for key weapons systems. This 
funding is essential for the AFP to achieve a self-sustaining 
capability.
    As the efforts in the Philippines evolve, possible opportunities to 
maximize effectiveness of counter terrorism operations may require 
additional resources. Fiscal year 2003 FMF funding for the Republic of 
the Philippines Maintenance Program remains key to achieving one of our 
long-term goals of improving AFP readiness.
Enhanced International Peacekeeping Capabilities (EIPC)
    EIPC programs promote standards for peacekeeping doctrine, 
training, and education at the institutional level. In fiscal year 
2001, five USPACOM countries (Malaysia, Mongolia, Nepal, Philippines 
and Thailand) received a total of $2.227 million to achieve this goal. 
In fiscal year 2002, we hope to add Fiji, Madagascar, Tonga and India 
to this list. While EIPC programs are not as visible as IMET or FMF 
grants, EIPC plays a key role in developing host country self-
sufficiency to train its forces to be effective players in worldwide 
peacekeeping efforts.
Nonproliferation, Antiterrorism, Demining, and Related Programs (NADR)
    NADR funding supports U.S. efforts to reduce threats posed by 
international terrorists, landmines, and stockpiles of excess weapons, 
as well as by nuclear, chemical, and biological weapons and their 
associated technologies. We have received limited funds in the past, 
primarily for demining activities in Cambodia, Laos, Thailand, India 
and Vietnam. Our war against terrorism could benefit by any expansion 
of these programs. We will work closely with U.S. Country Teams to 
ensure we use these limited funds wisely.
Overseas Humanitarian Disaster and Civic Aid (OHDACA)
    OHDACA appropriation provides the critical ability to respond to 
humanitarian needs in the Asia-Pacific region and is the primary source 
of DOD financing for foreign disaster assistance, demining, excess 
property donations and other humanitarian projects. While other Federal 
agencies also have responsibilities to respond to man-made and natural 
disasters, armed forces are frequently called upon first. Additionally, 
our annual assistance programs provide important access to some 
countries where other means of security cooperation are inappropriate. 
These non-threatening programs demonstrate the peacetime capabilities 
of DOD to our Pacific neighbors without impacting readiness. Approved 
fiscal years 2002/2003 Humanitarian Assistance requirements for 
construction projects and property donations total approximately $5.1 
million.
East Timor Defense Force (ETDF)--Logistics System/East Timor Engineer 
        Plan
    The U.S. armed forces continue to conduct operations in East Timor 
by providing liaison officers, engineers and humanitarian assistance 
during ship visits. Fiscal year 2002 engineering priorities include 
water plant, electrical system, and health clinic projects. The State 
Department programmed $4.8 million in FMF funds in fiscal years 2001-
2003 to assist in developing the East Timor Defense Forces (ETDF) 
logistics support system and to conduct training to develop the skills 
necessary for self-sufficiency. We will need to look at avenues to 
provide the ETDF the support they need to provide for their own 
security. There should be no haven for terrorism in the Asia-Pacific 
region, in countries with histories old or new.
Asia-Pacific Center for Security Studies (APCSS)
    The APCSS regional study, conference, and research center continues 
to do great work. Graduates from its 3-month executive course total 764 
from 41 countries, including Pakistan. I meet many of the outstanding 
graduates when I travel, and all are convinced that the regional 
approach works.
Asia-Pacific Regional Initiative (APRI)
    The APRI program increases USPACOM access, regional readiness and 
U.S. influence in the Asia-Pacific region. APRI funding supports a wide 
range of exercises, programs, and training symposiums such as Exercise 
Team Challenge, the Pacific Reach multi-national submarine rescue 
exercise, the annual multilateral Chiefs of Defense conference, and 
search and rescue and humanitarian assistance/disaster relief 
exercises.
    Asia-Pacific Area Network (APAN)
    Funded by the APRI program, APAN provides information exchange 
throughout the region that directly supports Theater Security 
Cooperation. It functions as an interactive Web-based network that is 
attracting ever-widening attention and participation. APAN's membership 
has grown from about 300 users from 17 countries in June 2000 to more 
than 4,000 self-registered users (by 1 January 2002) from every country 
in the Pacific region except Burma and North Korea. APAN has also 
attracted users from over 20 other countries outside the region. The 
Web site supports regional exercises and conferences, and provides 
information resources to functional areas such as peacekeeping 
operations, disaster management and counter-terrorism. More 
importantly, it has been a catalyst to the creation of multinational 
information-based relationships and collaboration. Since APAN's 
operational capabilities and information are entirely unclassified, 
they are available to government agencies and non-governmental 
organizations (NGOs) that are important as participants in complex 
humanitarian emergencies and as partners in any combined military 
effort. After 11 September, APAN began a commercially secured Web site 
for Hawaii's Joint Rear Area Coordinator (JRAC) effort, a multi-agency 
effort comprising 17 Federal, State, and local agencies in Hawaii 
responsible for critical infrastructure. APAN is working with the U.S. 
Coast Guard to develop a similar commercially secured operational 
network capability for multinational collaboration in the Northwest 
Pacific and with the Department of State for similar collaborative 
sites to support ASEAN Regional Forum Confidence-Building Measures in 
Counter-Terrorism and possibly Maritime Security. Part of the 
international experience of 11 September has been overcoming resistance 
to new operating methods and information-based relationships. APAN has 
encouraged regional countries and United Nations organizations and NGOs 
to use and contribute to building experience in network centric 
operations that will pay off in future multinational force operations.
    Multinational Planning Augmentation Team (MPAT) Program
    The MPAT Program, also funded through APRI, brings together expert 
military planners from nations with Asia-Pacific interests that can 
rapidly augment a multinational force headquarters. Using standardized 
skills, they would plan and execute coalition operations in response to 
small-scale contingencies in the region. Through a series of workshops 
and planning exercises, MPAT members have developed a knowledge base of 
the various national crisis-action-planning procedures in the Asia-
Pacific region and strong working relationships with each other. MPAT 
members have also begun developing common crisis-action planning 
procedures that any lead nation could use during a crisis.
    We have successfully completed three MPAT workshops each involving 
over 25 countries, co-hosted by the Philippines, Thailand, and Korea 
respectively. We have also completed six concept and standard operating 
procedures (SOP) workshops. The strength of the MPAT program lies in 
its ability to foster the development of a consensus on multinational 
responses to crises in a region with only a strong bilateral tradition.
The Center of Excellence in Disaster Management and Humanitarian 
        Assistance (COE)
    COE plays an important role in our pursuit of key strategic 
objectives in USPACOM. COE engages countries in the Asia-Pacific 
region, builds burden-sharing relationships among our friends and 
allies, and prepares U.S. forces to perform effectively in complex 
contingencies. COE's mission in disaster management, humanitarian 
assistance, and peace operations offers a low profile tool to engage 
civilian and military communities throughout the theater that might 
otherwise be hesitant to work with us. COE's support of our peace 
operations capacity building efforts in the Asia-Pacific region have 
helped improve capabilities in the Philippines, Thailand, Bangladesh, 
Nepal, and Malaysia. Finally, by promoting broader collaboration among 
non-traditional partners, COE contributes to the creation of an 
environment less hospitable to terrorism.

                        READINESS AND RESOURCES

Personnel
    The war on terrorism along with ongoing commitments throughout the 
Asia-Pacific region place heavy pressures on our troops and their 
families. It is especially important today, that our young men and 
women in uniform feel the support of our country. The quality of life 
(QOL) initiatives included in the Fiscal Year 2002 National Defense 
Authorization Act are welcome and let our people know their elected 
representatives value their hard work and sacrifices.
    Thank you for supporting the administration's request for the 
largest pay raise in two decades. Competitive pay is essential to 
attract and retain the highly skilled personnel critical to our 
national defense.
    There are areas where compensation has failed to keep up with the 
times. For example, most American families today own two cars for 
parents' jobs, school, and children's extracurricular activities. This 
is a necessity, not a luxury. At present, our military families are 
only allowed to transport one vehicle when transferred to and from 
overseas duty stations in the United States. Developing programs to 
meet the needs of today's military families will go a long way toward 
improving retention.
    Another much-needed improvement is reducing Permanent Change of 
Station (PCS) out of pocket expenses. We calculate the average military 
family pays $1,700 above reimbursements when moving to Hawaii. 
Legislation like that in the Fiscal Year 2002 Defense Authorization 
Act, to increase partial reimbursement of mandatory pet quarantine fees 
incurred by members transferred to various overseas locations within 
and outside the United States, helps reduce this financial burden. The 
removal of entitlement limits that previously excluded junior personnel 
from receiving proper reimbursement for expenses incurred during their 
first PCS move is also a standout. Even a seemingly small gesture, like 
helping our volunteer Reserve or Guard members deal with excess accrued 
leave as they move from hot spot to hot spot, sends a message that we 
care.
    In past conflicts, Reserve component (RC) personnel have mobilized 
to serve in and around combat zones. For the war on terrorism, we have 
mobilized thousands of reservists and guardsmen to protect our military 
bases and civilian facilities like airports. The President has clearly 
stated that the war on terrorism will continue for years. RC support 
will be a vital part of the war effort. In USPACOM, our reservists have 
done a magnificent job. The flexibility and support of their employers 
has been a key element of this successful mobilization.
    We need to reexamine RC polices and programs to sustain the war on 
terrorism over the long-term. Cold War-era regulations and public laws 
still sometimes prevent RCs from providing the responsive and flexible 
capability they are so eager to deliver. I applaud the efforts of the 
Office of the Secretary of Defense (OSD) and Joint Staff to push for 
improvements to law, policy, and regulations. I support ways not only 
to increase funding but also to modernize the rules that govern RC 
support. To do this, we need more full-time support to perform tasks 
like managing manning documents, pre-screening medical records before 
recall, and providing support at the locations where the RC personnel 
are frequently mobilized.
    While we are fortunate to have many eager and talented volunteers 
willing to make sacrifices to serve their country in times of crisis, I 
am concerned about the long-term impact of reliance on recalled Reserve 
augmentation forces. Given the nature of our protracted war on 
terrorism, we need to take a hard look at Active-Duty Force levels 
required in the next 5-10 years to combat terrorism, because now is the 
time to make recruitment and force authorization adjustments.
State of Housing, Family Support
    Military family housing remains one of our top QOL priorities. We 
are working to replace or renovate substandard military family housing 
by 2007. Pacific Fleet (PACFLT), Marine Forces Pacific (MARFORPAC), 
Pacific Air Forces (PACAF), and U.S. Army Pacific (USARPAC) will meet 
this goal with their current master plans and programs. We must 
continue to restore and increase funding to ensure that our military 
family housing is safe, modern, and secure. Congressional efforts last 
year resulted in a welcome and much needed increase in attention to 
overseas MILCON in USPACOM. I applaud your efforts to fix the grossly 
inadequate housing in Korea and other deficiencies throughout the AOR. 
There is still so much to do.
    People are our most important resource. Recognition, adequate 
compensation, and housing are the foundation of a decent quality of 
life for our people and their families.
Operations and Maintenance (O&M) Funding
    The second important component of readiness is sufficient 
operations and maintenance funding for training and maintaining 
equipment.
    Last year I testified that with regard to our funding for 
Operations and Maintenance (O&M) ``news is not positive'' and, 
``accordingly the readiness of our component commands is not expected 
to reflect any significant increase this fiscal year.'' I am happy to 
report this year, due to supplemental funding, our readiness picture is 
more optimistic.
    Funding for training and maintenance across service components has 
been adequate to keep units trained and their equipment in good repair. 
This readiness was proved in combat as USPACOM carrier battlegroups 
(CVBGs), amphibious ready groups (ARGs), and marine expeditionary units 
(MEUs) deployed on short notice to Afghanistan and were effective in 
combat immediately.
    Let me highlight my current readiness concerns.
Precision Guided Munitions (PGMs)
    Ongoing support of Operation Enduring Freedom (OEF) has 
significantly reduced the already limited worldwide stocks of precision 
munitions across all services, especially the Joint Direct Attack 
Munition (JDAM). The President's fiscal year 2003 budget request 
contains aggressive programs to restore inventories to adequate levels. 
Sustained funding to restore/increase PGMs stockage levels to support 
the spectrum of military operations--counter-terrorism (CT) operations, 
small-scale contingencies (SSCs), major theater wars (MTWs), training/
testing expenditures, theater positioning, and combat-sustainment 
requirements--must remain a priority.
Intelligence, Surveillance, and Reconnaissance (ISR) Aircraft
    Our AOR requires more ISR aircraft coverage to meet operational 
demand. While I cannot provide exact numbers in this forum, our 
collection rates of required intelligence information is dangerously 
low. Recent funding of ISR aircraft as part of the counter-terrorism 
(CT) supplemental will help, but this projected increase must be 
realized in increased surveillance units in this theater. New aircraft 
must also be developed to replace aging ISR assets. The projected 
retirement of aircraft over the out years puts at risk Service 
commitments to maintain a minimum number of operational ISR aircraft.
Aircraft Readiness
    Mission Capable (MC) rates for Pacific Fleet (PACFLT)/Marine Forces 
Pacific (MARFORPAC) aircraft and cannibalization of Pacific Air Forces 
(PACAF) aircraft continue to be major readiness concerns in USPACOM. 
Availability of repair parts is a significant contributor to aircraft 
readiness shortfalls. Although funding for repair parts for Navy, 
Marine Corps, and Air Force aircraft has improved in the past 2 years, 
shortages still exist, causing cannibalizations on PACAF aircraft and 
crossdecking/temporary equipment loans in PACFLT. Of PACAF aircraft 
tracked from January to December 2001, 80 percent did not meet the 
aircraft standard for cannibalization rates.
Infrastructure, Logistics Inventories, and Related Support
    The final component of readiness is infrastructure, logistics 
inventories, and related support. This component still requires 
attention.
Facilities: Sustainment, Restoration, and Modernization (SRM)
    The combined effects of aging facilities and years of under funding 
have produced an enormous backlog of restoration and replacement 
projects. The current recapitalization backlog was caused by a 
combination of factors. Funding intended for facilities sustainment has 
often been diverted. When bases closed in the Philippines, Guam, and 
Hawaii, SRM funds were not redistributed for remaining facilities but 
were reduced as part of the ``peace dividend.'' Rising utility costs 
and higher costs to accomplish base-operating support by contract 
further reduced funds available for SRM. As a result of inadequate 
funding, bases, camps, posts and stations across the Asia-Pacific 
region are shabby and deteriorating to a point we can no longer ignore. 
Our people deserve much better than this; they deserve to live and work 
in a quality environment.
    At current Future Years Defense Plan (FYDP) funding levels, the 
$5.3 billion USPACOM recapitalization backlog will nearly double over 
the FYDP. USPACOM requires an additional $8.4 billion over the FYDP to 
eliminate the backlog and prevent future backlog growth through proper 
sustainment.
    SRM funding shortfalls not only affect quality of life, but also 
impact readiness, operation plan (OPLAN) execution, retention, and 
force protection. Unfunded backlog projects affect OPLAN execution in 
Korea, Guam and Wake Island. Without additional funding, 
recapitalization backlogs will continue to grow if we do not realign or 
close any installations or facilities, and will further deteriorate, 
jeopardizing critical functions throughout USPACOM's AOR.
New Pacific Command Headquarters
    Construction on the Nimitz-MacArthur Pacific Command Center at Camp 
Smith is underway and going vertical. Completion is scheduled for 
December 2003. We appreciate the restoration of $3 million included in 
the fiscal year 2002 MILCON Appropriations Act to fund critical design 
elements, including antiterrorism force protection (ATFP) and 
information security requirements. Unfortunately, this funding was 
reduced by over $400,000 due to an across-the-board reduction of all 
fiscal year 2002 MILCON funding, creating an unexpected shortfall just 
as critical ATFP and information technology security requirements are 
being addressed.
Pacific Security Analysis Complex (PSAC) MILCON04
    USPACOM needs a single shared intelligence complex on Oahu, Hawaii, 
that optimizes the missions and operations of both Kunia Regional 
Security Operations Center (KRSOC) and the Joint Intelligence Center 
Pacific (JICPAC). The current KRSOC is obsolete. The facility was built 
in 1945, and the last major renovation occurred in 1979. Current 
estimates for necessary renovations to ensure a 30-year continued use 
exceed $185 million, with annual operating costs of approximately $8 
million. Construction costs for a new KRSOC facility, incorporating 
Naval Security Group Activity (NSGA) Pearl Harbor and NCPAC, are 
currently estimated at $220 million, with annual operating costs of $6 
million. Additional savings in renovation costs to NSGA Pearl Harbor 
and NCPAC are estimated at $9 million. Thus, it would be less costly in 
the long-term to build the new facility.
    The JICPAC theater intelligence production facility has force 
protection vulnerabilities due to its location on a main civilian 
thoroughfare. Co-locating with KRSOC would lead to savings of roughly 
$30 million over 4 years in JICPAC operating costs, and enhance fusion 
of all-source intelligence. The PSAC presents an unprecedented 
opportunity for immediate in-depth collaboration between the premier 
signals intelligence and production centers.
USPACOM Simulation Center MILCON04
    Increasing exercise activity, training complexities, and command, 
control, communications, computers, intelligence (C\4\I) modernization 
have outgrown USPACOM's exercise simulation infrastructure and support 
capabilities. This deficiency significantly reduces the ability to 
train USCINCPAC and Joint Task Force (JTF) commanders in crisis action 
readiness procedures; degrades the ability to improve combined 
interoperability with friends in the region; and contributes to 
increased operating tempo (OPTEMPO), training time and associated costs 
for USPACOM forces before responding to contingencies. The current 
facility does not support future technologies or meet force-protection 
requirements. The planned state-of-the-art simulation center will link 
with simulation centers throughout the Asia-Pacific region to train 
joint integrated forces, rehearse mission requirements, provide 
commanders with quick-reaction combat analyses, and exploit information 
from open sources. It will transform USPACOM through the use of 
advanced simulations, collaborative tools, and C\4\I systems in joint 
experiments.
Wake Island Airfield Funding
    Wake Island remains critical for support of strategic deployment of 
forces for major theater wars (MTWs). The funding in the Air Force 
program is the first year of a multi-year program that must be 
maintained to ensure availability of this critical asset to meet 
wartime contingency requirements.
Mobility Infrastructure and Strategic Lift (C-17/C-5) Reliability 
        Enhancement and Re-engine Program
    USPACOM depends on continued funding of the programmed C-17 
aircraft buy and the C-5 aircraft Reliability Enhancement and Re-engine 
Program and Avionics Modernization Program. Equally important are our 
efforts to exploit advanced sealift technology to reduce our dependency 
on premium airlift. Over the past year, III Marine Expeditionary Force 
(MEF) has been testing and evaluating off-island deployments using a 
leased High Speed Vessel (HSV). Initial analysis of the HSV suggests 
considerable cost savings while significantly reducing in-transit 
deployment time for Marine forces. Based on these encouraging initial 
returns, we are pursuing the HSV as a theater-lift asset in USPACOM.
    Real world operations in other theaters are impacting USPACOM's 
exercise program. We are beginning to face regular shortages of airlift 
and aerial tankage. This, in turn, makes it more difficult to train 
soldiers, sailors, airmen, and Marines that we are depending on to 
execute ongoing operations. For example, to send the 3rd Wing to Red 
Flag to prepare them for deployment to Operation Southern Watch, we 
will need to contract civilian airlift at a cost of approximately $1.1 
million. The original budget was $250,000 using KC-10. Overall, the 
PACAF exercise program has been cut $734,000 and the JCS exercise 
program was cut $1.2 million. Successful achievement of combat 
readiness training will hinge largely on sufficient funding for 
exercises.
Intelligence
    The events of 11 September have introduced additional requirements 
on our already heavily tasked national and tactical intelligence 
systems. The demand for precise and timely intelligence has never been 
greater, including in-depth understanding of long-term potential 
adversaries, regional hotspots, and transnational threats--terrorism 
and the proliferation of weapons of mass destruction.
    Signals Intelligence (SIGINT)
    National and tactical SIGINT systems must be modernized to meet the 
advances in global telecommunications technology. National Security 
Agency (NSA) and Service SIGINT capabilities are key to our daily 
operations and the execution of OPLANs and contingencies in the USPACOM 
AOR. They must be funded to continue modernizing SIGINT collection 
capabilities against both modernized militaries and terrorists. Funding 
is also needed to replace the Kunia Regional Security Operations Center 
(KRSOC) and accompanying land-based collection architecture.
    Our support to Operation Enduring Freedom (OEF) has exacerbated our 
peacetime shortage of intelligence collection aircraft. While 
additional aircraft are in the pipeline, we still need more in the 
inventory to help us reach and maintain our longstanding minimum 
theater requirements, and we need them soon. We encourage development 
of a follow-on to current manned aircraft and await availability of 
high altitude, long dwell, unmanned aerial vehicles. We must also 
upgrade the collection equipment on the aircraft. This is especially 
true for SIGINT, where existing collection equipment is ineffective 
against modern communication technology. Similar land and maritime 
collection capabilities also need upgrades. USPACOM fully supports 
integrated, joint development of the next generation signals collection 
tools, along with further consolidation of funding to hasten this 
event. Extra aircraft and new collection tools are meaningless, though, 
if we lack trained personnel to exploit the information. The existing 
shortage of linguists has worsened due to the war on terrorism. We now 
face regional languages and dialects never considered important before 
11 September.
    Imagery Analysis
    Requirements for imagery continue to grow. New platforms are 
producing an increasing flow of data, but our ability to exploit this 
data has not kept pace. We are doing well on the Tasking portion of the 
Tasking, Processing, Exploitation, and Dissemination (TPED) of imagery, 
but insufficient communications and lack of imagery analysts hamper the 
remaining aspects of the process. Additional funding is needed to 
realize the full potential of this intelligence source. USPACOM still 
requires a robust theater-level intelligence gathering capability 
against the entire threat spectrum.
Command, Control, Communications, and Computer Systems (C\4\) 
        Capabilities
    Information technology (IT) continues to influence warfare at every 
turn. C\4\ is the unsung workhorse of any operation, requiring 24 hours 
a day/7 days a week reliable, timely and uncorrupted service. As 
evidenced by the world's recent response to terrorist events, the need 
for information sharing between service, joint, and coalition partners, 
as well as local, State, and Federal organizations, has increased 
exponentially. This requirement places a strain on an already 
antiquated and stressed communications network. Since C\4\ encompasses 
a wide spectrum, I will focus on three primary areas of continued need: 
(1) an end-to-end communications infrastructure, (2) information 
assurance, and (3) interoperability.
    First, the end-to-end communications enterprise provides the 
foundation to electronically link garrison and forward-deployed forces 
to commanders at all levels. USPACOM's vast AOR, mostly separated by 
ocean and encompassing countries with under-developed C\4\ 
infrastructures, requires forces to rely heavily on satellite 
communications (SATCOM). We continue to make great strides in many of 
the SATCOM programs and I thank you for your continued support. 
However, aging equipment and specifically, limited Ultra High Frequency 
(UHF) SATCOM capacity over this AOR, is fast becoming a factor in my 
ability to command and control forces. With the recent terrorist 
attacks and our ongoing efforts to root out terrorism as a whole, 
SATCOM connectivity to our highly specialized forces is more critical 
than ever before. The new challenge is to ensure that critical SATCOM 
upgrades, the fielding of new satellite programs, and the launching of 
new satellites remain on track to replace the aging fleets currently 
orbiting the earth in support of warfighters.
    As an inseparable partner with the space segment, we must inject 
similar technology advances into the base, post, camp, and station 
infrastructures. In the Pacific Theater, we still operate on cables and 
wiring installed as far back as the 1960s. These cables are no longer 
dependable. Coupling this condition with the ever-increasing user 
requirements for more and more information, we must quickly modernize 
to support the growing bandwidth and increased speed requirements of 
our intelligence gatherers, planners and warfighters. Information is 
truly a force multiplier.
    Our second focus area is information assurance (IA). How we protect 
our sensitive information from potential adversaries while providing 
access to, and sharing it with, our coalition partners is probably the 
toughest challenge we face in today's C\4\ environment.
    Although we have made significant strides to improve IA in USPACOM, 
we are far from 100 percent protected. Cyber warfare never rests. Our 
USPACOM networks continue to receive daily cyber probes and potentially 
dangerous virus and hacker attacks. They can occur at any time and any 
place in the theater and the consequences can be severe, if we are not 
on guard around the clock. The payback for IA is not always as easily 
recognizable as with the production of new airplanes, ships, or tanks. 
You cannot touch and feel information protection, but a loss of 
critical or time-sensitive information, or a denial of service, can be 
far more detrimental to national security than any single weapon 
system. An example of the heavy IA investment needed for additional 
hardware is the protection afforded by current cryptographic equipment 
to secure networks for command and control of daily operations. 
Replacement parts for this aging equipment are difficult to obtain--a 
limiting factor as technology increases the speed, connectivity, and 
capacity of our networks. Cryptographic modernization programs are 
essential to improve the effectiveness of the U.S. Government 
cryptographic inventory. For example, airline flight schedules and 
blueprints of our embassies are simply tidbits of information. But, 
that information in the wrong hands may improve the enemies' chances of 
producing devastating results as evidenced by recent terrorist 
incidents.
    Ongoing IA improvements will require a continued heavy investment 
in equipment, training and technically skilled people. I ask for your 
support as we strive to implement a ``defense in depth'' posture into 
our daily information operations.
    The third C\4\ area is interoperability. The events of 11 September 
have caused us to concentrate hard on interoperability, especially with 
civilian and coalition partners in support of global counter-terrorism 
efforts. We must reassess our processes in these areas.
    I firmly believe we must revamp our acquisition system, especially 
in the area of IT. Long-term replacement programs are detached at an 
early stage from the dynamic reality of operations and warfare. They 
emerge decades later with new systems that are better than what they 
replace, but not as good as what they could or should be in meeting the 
needs of the warfighter.
    Our system does not put engineers together with the operators to 
fix real operational problems, deal with real war plan deficiencies and 
emerging threats, or take advantage of real opportunities. The current 
system, which drives the actions of the detached bureaucracy of 
requirements writers, contracting officers and program managers, is 
only tenuously connected to what our forces need to operate and fight 
better.
    We must integrate the engineers with the operators in a spiral 
development approach in which we build a little, test a little, and 
then build a little more. Let them see firsthand the interoperability 
problems that exist between civilian, joint and coalition 
organizations. For example, our Joint Task Force (JTF) commanders use 
service variants of our Global Command and Control System (GCCS), 
because the joint version is not as capable as the service variant and 
is not fully fielded across the theater. As another example, the land 
mobile radio systems that our police and fire departments use are not 
interoperable with our military systems. These incompatibilities 
prevent key personnel from sharing critical information in a timely 
fashion, and could easily lead to catastrophic results.
    We can address many of these interoperability issues by using this 
spiral development approach, and putting engineers in the field during 
joint exercises, training maneuvers and technology demonstrations. 
Initially, this approach comes with an increased cost until we can 
identify capabilities in programs that we do not need. But the timely 
and increased operational capabilities provided to the warfighter as 
result of it more than justify the initial expense.
    Maintaining our leading edge in C\4\ technology, assuring our 
critical information and improving interoperability with our coalition 
partners are essential to protecting American security interests in the 
21st century. Our command is working hard to mitigate these 
limitations; however, we need increased C\4\ funding to maintain the 
operational edge over our adversaries.
Multiple Theater War Sustainment Issues (Harvest Eagle, APS-4)
    Refurbishment and reconstitution of Air Force Harvest Eagle bare 
base assets are key to both current operations plans (OPLANs) and 
USPACOM operations in support of the global war on terrorism. Harvest 
Eagle's tent-based housing modules allow forward-deployed or 
reinforcing units to establish airfield operations where local 
infrastructure is austere or lacking. Degraded before their use in 
current operations, our deployable bare-base assets capacity will 
continue to be a limiting factor to executing OPLANs and contingencies 
without fully funding refurbishment and reconstitution.
    Shortfalls in pre-positioned equipment and supplies to support 
combat operations in the Korean Theater of Operations are also of major 
concern. The Army maintains a strategic inventory of sustainment 
supplies as part of Army Pre-positioned Stocks (APS). These stocks 
sustain forward-deployed and initial follow-on ground forces, and 
include major end items such as engines, repair parts, medical 
supplies, packaged petroleum products, barrier/construction materials, 
operations rations, and clothing required to sustain combat operations.
    Additionally, we have significant shortfalls in Army APS-4 
Sustainment Stocks designated to replace projected combat losses, 
especially critical during the early stages of a major theater war 
(MTW) on the Korean Peninsula. Within these sustainment stocks, Class 
VII (Major End Items) and Class IX (Repair Parts) have the most serious 
shortfalls. Finally, less than 30 percent of Joint Service Lightweight 
Integrated Suit Technology chemical protection suits (to support 
operations in a nuclear, chemical, biological environment) are 
available in sustainment stocks. The combination of these shortfalls 
degrades our ability to conduct sustained combat operations on the 
Korean Peninsula.

                      USPACOM FORCE TRANSFORMATION

    Our enemies and potential enemies are working hard to develop ways 
to defeat the U.S. Armed Forces. We cannot allow our current military 
dominance to lead to complacency and future defeat. Force 
transformation is a priority at USPACOM. We have made rapid progress 
over the past year in developing Joint Mission Force capabilities, in 
our Advanced Concept Technology Demonstrations (ACTDs) and in aligning 
force transformation with our Joint Training and Theater Security 
Cooperation (TSC) plans. Experimenting as we exercise and operate is 
becoming routine. Individual commanders are also making advances 
through their own initiatives, with service and USPACOM support. 
Examples include the High Speed Vessel (HSV) that Marine forces on 
Okinawa have leased to make movement within the theater faster at less 
expense and the development of numerous networking and decision support 
capabilities. We continue to work closely with U.S. Joint Forces 
Command (USJFCOM), the executive agent for joint force experimentation, 
and are increasing the involvement of allies and coalition partners to 
enhance interoperability and combined force capabilities as we 
transform U.S. forces.
Joint Mission Force (JMF) Objectives
    The objectives of USPACOM's JMF concept are to enhance the speed of 
action, precision, and mission effectiveness of Theater Joint Task 
Forces (JTFs). Our vision is to create a seamless Joint/Combined 
Pacific Theater response force capable of accomplishing the full 
spectrum of missions, from a complex contingency through humanitarian 
assistance (HA), and serving as the leading edge during a major war. 
This transformation effort has moved from its concept development in 
war games to implementation in exercises that enhance our ability to 
rapidly form and deploy a JTF.
    Through the JMF concept, Battle Staff Rosters supported by service 
components now provide tailored on-call augmentation for key billets at 
USPACOM's designated JTF headquarters. These staffs are trained to 
provide the performance of a Standing JTF Headquarters, without 
incurring the overhead of a separate organization. Command 
relationships for designated JTF and component commands are already 
established and rehearsed to enable rapid activation and deployment.
    Command, control, communications, computers, intelligence (C\4\I) 
baseline requirements have also been established and are routinely 
tested in our command and control exercise program to ensure our 
ability to establish a common operating picture and theater network for 
collaborative planning. Our JTFs now use newly published CD-ROM based 
and Web-accessible standard operating procedures (SOPs) internally 
linked with checklists and templates. Information management serves as 
the foundation for the SOP, and is supported by a standardized JTF Web 
site that facilitates Web-centric information pull. Our primary JTFs 
now train to assigned missions with packaged, mission-oriented training 
standards, including new tasks designed to examine draft doctrine 
linked to technology, for integrated and synchronized fires and 
maneuver.
    The current focus for transforming JTF capabilities are in the 
areas of joint fire and maneuver, battle space situational awareness 
and the common operational and tactical pictures, coalition force 
integration, force protection, and rapid JTF formation.
    Based on 3 years of development, the JMF concept is our prototype 
standing JTF Headquarters. JMF provides greater flexibility for 
multiple crises, capitalizes on component core competencies, requires 
no additional manpower, and allows for normal service rotations and 
deployments.
    During Exercise Kernel Blitz (Experimental) in June 2001, we 
demonstrated Wide Area Relay Network (WARNET) technologies in the 
Extending the Littoral Battlespace (ELB) ACTD. Our follow-on JTF WARNET 
initiative will provide our JTFs with organic, wireless, and secure 
connectivity for planning and execution at the tactical level. The JTF 
WARNET communications network, associated applications, and interfaces 
support joint forces across a widely distributed battlespace to provide 
real-time and near real-time command and control (C\2\), collaboration, 
common tactical picture and joint fires across service boundaries. 
Under the technical leadership of the Office of Naval Research with 
substantial funding support from OSD, JTF WARNET development continues 
for prototype deployment with operational forces in 2004.
Coalition Involvement in Joint Mission Force (JMF) Efforts
    Our JMF concept is an essential part of Theater Security 
Cooperation (TSC). To improve regional readiness for coalition 
operations, we are developing a Multinational Force (MNF) SOP tailored 
from the JTF SOP we built last year. This more generic document will 
include broad operational considerations that our multinational 
partners can readily implement when one acts as the lead nation with 
the United States serving in a support role. The Multinational Planning 
Augmentation Team (MPAT) serves as the instrument for MNF SOP 
development. The MPAT conducts collaborative development of the 
document over the Asia-Pacific Area Network (APAN) and at workshops in 
the region. Joint Experimentation with coalition partners is 
coordinated in bilateral venues such as the Annual Staff Talks with 
Singapore and Australia. This spring, USPACOM will fully involve 
coalition partners by hosting a Coalition Transformation Workshop as 
part of our annual ACTD conference.
Joint Task Force (JTF) Joint Experimentation Program (JEP)
    Our JTFJEP focuses on transforming JTF operations and is fully 
coordinated with the JEP of USJFCOM. Our JTFJEP includes technology 
insertion experiments during exercises to advance our practice of JTF 
operations, both in the U.S. and coalition venues.
    This year we have planned two major experiments. The first 
experiment will occur as part of our command and control exercise 
(C\2\X) series where we train for rapid formation of a JTF. Our C\2\Xs 
over the past year made significant advances in sharing common 
procedures and a common operational picture (COP) among JTF subordinate 
commanders, and in collaborative planning. We will experiment next with 
advanced capabilities to manage and control information flow on the JTF 
networks, and incorporate advanced fires management capabilities. Our 
second experiment will be in a coalition environment during Exercise 
Cobra Gold with Thailand, Australia, Singapore, and Malaysia. By 
experimenting as we exercise, we provide a continuous series of field-
tested warfighting improvements in joint and combined operations before 
we make key procurement decisions.
Advanced Technology Development
    I am a strong supporter of USPACOM's Advanced Concept Technology 
Demonstrations (ACTDs). They provide important near-term joint and 
combined warfighting capabilities. Since I last spoke with you, USPACOM 
has been awarded 6 new ACTDs, bringing the number of ACTDs involving 
USPACOM to 18, more than any other major command. Almost all our 
service Component Commanders, designated JTF Commanders, Subordinate 
Unified Commanders, and each of my Staff Directors have responsibility 
for executing one or more ACTDs. USPACOM forces are involved in 
transformation across the theater.
    Our six new ACTDs will provide new operational and tactical 
capabilities.

        <bullet> The Micro Air Vehicle ACTD will provide small units 
        enhanced situational awareness using miniaturized sensors on a 
        man-portable unmanned air vehicle.
        <bullet> The Language and Speech Exploitation Resources ACTD 
        will reduce language barriers and improve coalition operations 
        by providing a tool to automatically translate languages.
        <bullet> The Joint Explosive Ordnance Disposal--Knowledge 
        Technology Operations Demonstration ACTD will provide Explosive 
        Ordnance Disposal (EOD) teams in the field with a portable, 
        rapidly updateable, computerized database for safely disarming 
        explosive devices in the field.
        <bullet> The SPARTAN ACTD will provide enhanced battlespace 
        awareness and increased force protection for surface and 
        subsurface operations, by demonstrating the capabilities of 
        unmanned surface vessels with modular sensor packages. SPARTAN 
        is also the leading candidate for an improved TSC initiative 
        involving co-development of advanced capabilities with 
        coalition partners. The Singapore Armed Forces are interested 
        in co-developing this system with us.
        <bullet> The Thermobaric Weapon ACTD provides a standoff weapon 
        for attacking tunnels and underground facilities. This program 
        potentially provides two to three times the lethality over 
        currently fielded penetrating weapons.
        <bullet> The Signals Intelligence Processing ACTD provides 
        improved capabilities to collect and process signals.
Coalition Theater Logistics
    In parallel with transforming our forces, we must also bring along 
coalition partners. Last year, I testified that, thanks to your strong 
support, we were starting work on our Coalition Theater Logistics ACTD.
    This is an important initiative, co-sponsored by Australia, to 
demonstrate how coalition logistics information can be exchanged at the 
national, operational and tactical levels. Over the last year, we've 
finalized operational requirements; signed a project arrangement with 
Australia that leverages technology from both countries, and embarked 
on a technical development program that puts us on the brink of 
providing a coalition force with a breakthrough capability--plan and 
execute coalition force deployment through selective information 
exchange between existing national logistics information systems. 
Continued support will ensure that we achieve all our objectives.
    We have also partnered with Thailand and are beginning discussions 
with Singapore, Korea, and Japan to partner with them during future 
phases of ACTD development. In parallel with transforming our forces, 
we must also bring along coalition partners.
Joint Warrior Interoperability Demonstration (JWID)
    USPACOM is the designated-host commander in chief for the fiscal 
years 2002 and 2003 execution of the Joint Staff J6I-sponsored JWID. 
Despite numerous other interoperability and transformation initiatives 
in progress, JWID has exceptional potential to address the real and 
near-term command, control, communications, computers, intelligence, 
surveillance, and reconnaissance (C\4\ISR) interoperability challenges 
facing joint and coalition operations. Working with the U.S. Marine 
Corps, this year's lead service, USPACOM has broadened the scope of 
challenges being investigated, focused the operational environment 
underpinning JWID to simulate demands of current military operations, 
expanded the list of countries participating to include Pacific Rim 
countries for the first time, and introduced warfighter rigor in 
executing the demonstration period and assessment of proposed 
technology solutions.
    U.S. industry and government activities have responded to the call 
for interoperability solutions that span the C\2\ spectrum from 
strategic to tactical and that embrace new approaches to challenges in 
the situational awareness, common operating picture, decision support, 
collaboration, logistics, multi-lingual, joint and coalition fires, 
multi-level security, and medical arenas. For the first time, there 
will be incipient focus on support for humanitarian assistance and 
disaster-relief enablers. Due to success in our JMF program, USPACOM 
has introduced a Combined Task Force Web-portal interface for 
organizing, visualizing, and transferring the products produced by 
various JWID demonstrations and interoperability trials.
    We have also made a concerted effort to enhance the understanding 
and participation by other Commanders in Chief to ensure that the 
results from JWID will deliver solutions to the C\4\ISR challenges that 
each of them confront in routine and contingency operations.
Multi-Domain Dissemination System (MDDS)
    An unresolved challenge of furthering coalition readiness in the 
Pacific is the problem of multi-level security. Our intelligence-
sharing relationships with our theater partners vary from country to 
country. Therefore, completely separate structures for passing 
classified information are required to interoperate with each 
individual country. To meet this requirement, developing and 
accrediting multi-level security technology, such as the MDDS, remain a 
high-interest item in USPACOM. Such technology and capability is 
imperative toward fully realizing our engagement strategy for any 
Pacific coalition force.

                           SUMMARY STATEMENT

    In summary, the forward deployed and forward-stationed forces of 
the U.S. Pacific Command are making a difference in promoting American 
interests in security and peaceful development in the Asia-Pacific 
region. We are relentlessly pursuing terrorists that threaten American 
citizens and interests. With a sustained effort and support of regional 
partners, we will succeed in rooting them out. U.S. Pacific Command's 
priorities remain readiness, regional (theater) security cooperation, 
and transforming U.S. forces to achieve a revolution in military 
affairs. The men and women of the U.S. Pacific Command appreciate this 
opportunity to tell their story and the support that you give them.

    Senator Reed [presiding]. Thank you, Admiral.
    General Schwartz.

STATEMENT OF GEN. THOMAS A. SCHWARTZ, USA, COMMANDER IN CHIEF, 
  UNITED NATIONS COMMAND, U.S. FORCES KOREA, COMBINED FORCES 
                         COMMAND KOREA

    General Schwartz. Yes, sir. Senator Warner, members of the 
committee, thank you for having me here today. I appreciate 
this opportunity. I am honored to be with you today. After 27 
months in Korea, almost completing 6 years service in Korea, 
the highlight of my 35 years is being a part of this great 
alliance and serving our country in northeast Asia.
    We are accomplishing our mission every day, no doubt about 
it. We are deterring war. We did it for 50 years. President 
Bush came to us recently and he said to the public: We will do 
it for 50 more if need be; we are committed to the alliance. 
That is very reassuring.
    We are ready to fight tonight. We know it. South Korea 
knows it. The good part of that is, North Korea knows it. That 
is all part of deterrence. That is why we have peace and 
prosperity on the peninsula today, because we are trained and 
ready.
    I am proud of our soldiers, sailors, airmen, and marines 
that are there. They face the enemy every day. I am amazed 
every day at how positive they are--upbeat about the mission, 
understanding, and willing to drive on and stay trained and 
ready.
    I am also pleased to announce to you that over 175 
Senators, Congressmen, and members of their staff have come to 
the peninsula within the last 2\1/2\ years while I have been a 
combatant commander to visit, to understand, and to hear the 
Korean story brief. It has been reassuring to us and to all 
those soldiers, sailors, airmen, and marines serving overseas. 
We thank you so much.
    It is a great story, Korea, but it is a hardship story. 
Eighty-five percent of the young men and women serving our 
country today who are classified by the Department of Defense 
as serving in a hardship area serve on the peninsula of Korea. 
It is not easy. There are expenses to them out of pocket that, 
even lowballing it, are $4,000 to $6,000. While their families 
are at home trying to make do, they are spending this money. It 
is a hardship on these families. It is a hardship on the young 
people. This is one of the reasons that I am very excited about 
the initiative, both in the House and the Senate, to try to 
give them some tax break to help compensate for some of the 
sacrifices that they make.
    We have a high declination rate of command. I discussed 
this with Senator Warner yesterday. In fact, the first three 
lieutenant colonels and colonels that I called to congratulate 
on command in Korea informed me they were not coming, they were 
declining command and resigning from the United States 
military. That is not reassuring, but it is a track record that 
we have to do something about.
    I report to you that North Korea remains without a doubt 
the major threat to stability and security in northeast Asia. 
The President was clear about this when he was on the 
peninsula. He was strong, he stated his convictions, and there 
is no doubt in either Korea's mind where this country stands 
with respect to North Korea.
    Kim Jong Il continues to build his military at the expense 
of his people. He grows stronger while his people suffer, and 
he remains dangerous, adaptive, and unpredictable, again at the 
expense of his people.
    I would remind you, as we all well know, every day we serve 
there we are not at peace. We need a road map, if we are not at 
peace, to a peaceful solution. We refer to those as confidence-
building measures. We have come to a good agreement with the 
South Koreans about a road ahead, about the confidence-building 
measures, a four-phased approach to dialoguing with North 
Korea.
    Senator Warner, you asked about the dialogue and how it was 
going. It is not going well. We are ready to talk. The 
President came to the peninsula and said to North Korea that we 
are ready to talk. The stumbling block there? North Korea. We 
are waiting. We will wait patiently, but we are ready to 
engage.
    I am amazed every day at this great alliance. I am amazed 
and I have to report to you how great the Republic of Korea is 
as an ally. They have stepped up to the plate. Right after 
September 11, President Kim asked ``What can we do?'' They 
offered 470 personnel. They have sent their navy, an LST. They 
have sent four C-130s. They sent a medical support unit. They 
are willing to meet any request that we have, and President Kim 
said they would spend in excess of $500 million to support this 
effort. He would exceed the money he spent on Operations Desert 
Storm/Desert Shield. Quite an ally.
    They also have stepped up to the plate in the Special 
Measures Agreement. Last year, I can report to you, they 
contributed $425 million in direct contributions. We just 
finished a contract negotiation with them. This year they will 
contribute $490 million; the year after that, 10 percent more 
to about $550 million; 10 percent more after that, to $600 
million. That is stepping up to the plate. That is a good ally.
    They have increased their contribution from a measurable 41 
percent to an expectation of 50 percent, and if you throw in a 
new agreement we have with them on the Land Partnership Plan 
they will exceed 60 percent of the contribution. Of course, we 
set a goal of 70. They are on the move and they are making a 
difference.
    I am excited about the Land Partnership Plan because it is 
best referred to as BRAC-Korea. I looked at the 85 camps and 
stations we had. I looked at the 41 major installations on that 
peninsula and I said we can do better. We can consolidate. We 
can improve the quality of life, we can improve the force 
protection, and we can improve the readiness of the forces in 
Korea if we shrink this footprint.
    We have negotiated now for 2 years with the Koreans and on 
the 15th of March we are going to sign a landmark agreement 
called the Land Partnership Plan, BRAC-Korea. It will cost the 
Koreans in excess of a billion dollars to consolidate our 
forces, again stepping up to the plate. It is a win for that 
country because we return over 50 percent of the acres we 
currently own--every acre is precious in Korea--and it is a 
good step forward in terms of our relationships. It is a win-
win situation for both countries.
    My priorities I think are well stated in the summary that I 
submitted to this committee. I would be glad to answer 
questions on them in the future.
    Let me conclude with this, if I may. This alliance is 
strong. This alliance is ready. We have a world-class military 
called the Republic of Korea. It is becoming a high tech, 
information age military. It is moving and transforming with 
us, a remarkable ally. I am proud to serve there, proud of what 
our country is doing there, trained and ready.
    Thank you very much, sir.
    [The prepared statement of General Schwartz follows:]

           Prepared Statement by Gen. Thomas A. Schwartz, USA

    Chairman Levin, Senator Warner and distinguished committee members, 
I am honored to appear before you as Commander in Chief, United Nations 
Command, Republic of Korea--United States Combined Forces Command 
(CFC); and Commander, United States Forces Korea (USFK). We want to 
first express our deep gratitude to the United States Senate for the 
consistent support you have provided our forces over the years. During 
the last year several members of the Senate spent time visiting the men 
and women of USFK. From this committee, Senator Bunning, Senator 
Nelson, and Senator Sessions honored us with a visit last year. They 
experienced the culture of this critical region, saw the area's 
urbanization and economic growth and were able to discuss current 
issues with the Korean people. They talked with American troops about 
their sense of mission and readiness to fight, monitored their morale, 
and mentally noted the incredible sacrifices they make every day. They 
had the opportunity to see for themselves the ``good, bad, and ugly'' 
living and working conditions in Korea and to visit with many of our 
service members and families. The more than 37,000 soldiers, sailors, 
airmen, marines, and Department of Defense civilians of USFK benefit 
from your commitment, which enables us to accomplish our vital mission, 
the defense of Korea.
    We welcome this opportunity to present a brief update on the 
current security situation. We are grateful to report today that the 
ROK-U.S. security alliance remains strong. Our alliance continues to be 
one of the greatest enjoyed by the U.S., and remains essential to the 
peace and security of Northeast Asia. This great alliance is 
effectively deterring North Korean aggression today, and if called 
upon, will successfully defeat a North Korean attack. The tragedy and 
subsequent challenges of terrorist attacks on the World Trade Center 
and the Pentagon have actually strengthened our cohesion, as the Korean 
government works with us to combat terrorism on a global level. We 
stand ready to support the war on terrorism, and to continue close 
coordination on many issues. Our efforts will continue to ensure 
security and contribute toward regional stability. Northeast Asia 
demonstrates enormous economic potential, but it is a region with a 
long history of conflict and strife.
    Today we will key on the following topics: (1) Northeast Asia, A 
Critical Region for America, (2) Korean Peninsula Overview, (3) North 
Korean Overview and Strategy, (4) ROK-U.S. Alliance, (5) Vision for the 
Future, and (6) Command Priorities. Throughout this statement, we will 
identify key requirements and areas that merit continued attention and 
the full application of available resources. On behalf of all the 
service members of USFK, I want to thank you for all Congress has done 
to improve and enhance the successful mission accomplishment of this 
command. Your efforts have advanced the national interests of our great 
nation and promoted peace throughout the region.

            I. NORTHEAST ASIA--A CRITICAL REGION FOR AMERICA

    Northeast Asia is second only to the Americas in economic impact to 
the U.S. It is a geographic crossroads, a place of historic conflict 
and an area of great hope for the future. The physical presence of U.S. 
ground, air, and naval forces in Korea and Japan contribute 
significantly to U.S. interests and to those of our Northeast Asian 
allies, friends and partners. These contributions will endure well into 
the future. U.S. presence provides the military security in Northeast 
Asia that encourages economic growth and political stability. The U.S. 
has made great strides in our ability to rapidly project power, but 
there is no substitute for some degree of forward presence when faced 
with limited warning times, an unpredictable foe, and the tyranny of 
distances. Physical U.S. presence brings peace of mind to the 
democratic nations of the region, and provides tangible deterrence. Our 
presence also provides the access and influence necessary for defending 
the Republic of Korea today and responding to regional threats in the 
future.
    This security is directly responsible for much of the economic 
vitality and political stability in the region. Physical presence has 
fostered the rapid expansion of the mutually reinforcing elements of 
democratization and market economies. The U.S. commitment in Northeast 
Asia provides the confidence necessary for foreign investment to flow 
into the region. The results are staggering. In the course of a single 
generation, the countries of Japan, China, Korea, Taiwan, and Singapore 
have risen respectively to numbers 3, 4, 7, 8, and 10 in total trade 
with the U.S. China ($4,800,846 billion), Japan ($2,950 billion), Korea 
($626 billion), Russia ($620 billion) and Taiwan ($357 billion) rank as 
the 2nd, 3rd, 13th, 14th and 17th largest economies in the world when 
measured by Gross Domestic Product (GDP) purchasing power. This U.S. 
presence is a force for stability and prosperity that diminishes the 
need for costly arms races and successfully deters aggression in an 
area with a history of regional wars, revolutions and memories of 
violent colonization.
    For over two millennia, the Korean peninsula has sat astride a 
geographic fault line where civilizations and cultures clash. The 
interests and influence of the four great powers--U.S., China, Russia 
and Japan, converge on the Korean Peninsula. Ancient cultural 
animosities remain a dynamic political force. China is striving for an 
increased regional leadership role through economic development and 
military modernization. Russia seeks to increase its regional influence 
and power. Japan is accelerating the evolution of its security role 
internationally, as well as in the region. Throughout history, great 
powers have clashed on the Korea peninsula. As a result, the Korean 
peninsula has witnessed over 30 major wars in its history. Today, the 
current demarcation line between North and South Korea remains the most 
heavily armed in the world. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Northeast Asia is currently the world's most dynamic region as the 
figure below illustrates. Five of the world's six largest militaries 
(China, U.S., Russia, North Korea, and South Korea) and four nuclear-
capable powers converge on the Korean peninsula. Northeast Asia's 
military forces are primarily ground-focused and lack precision 
weapons. Conflict would result in tremendous devastation, property 
destruction and loss of life. In this geo-political landscape, the 
presence of U.S. forces supports peace and stability to the region. 
Northeast Asia is truly a critical region for the U.S. and the world.

                     II. KOREAN PENINSULA OVERVIEW

    Optimism over the pace of North-South reconciliation efforts 
following the June 2000 summit meeting between ROK President Kim Dae-
jung and Chairman Kim Chong-il, the dictator of North Korea, has been 
tempered by a year of progress and then followed by year of slowdown in 
peninsular dialogue. Chairman Kim Chong-il has yet to follow through on 
his promised visit to South Korea. North Korea unilaterally cut off 
most Inter-Korean contacts in March 2001 and has elected to not sign an 
agreement to de-mine a portion of the Demilitarized Zone (DMZ) that 
would pave the way for a North-South transportation corridor. 
Ministerial talks resumed in September, but planned family re-unions 
were abruptly cancelled in October by North Korea. The sixth 
Ministerial Talks ended with limited measurable results in November 
2001. No further talks are planned at this time. Unfortunately, we have 
come to realize that North Korea is either unwilling or unable to 
significantly improve relations with the ROK or U.S. The security 
situation remains dynamic and the military threat has not been 
fundamentally reduced on the peninsula or in the region. The North 
Korean military continues to remain a formidable threat to the security 
of Northeast Asia. North Korea remains on the U.S. State Department's 
list of ``Nations that Sponsor Terrorism.'' On January 29th, our 
president stated our ``goal is to prevent regimes that sponsor terror 
from threatening America or our friends and allies with weapons of mass 
destruction. Some of these regimes have been pretty quiet since 
September the 11th. But, we know their true nature. North Korea is a 
regime arming with missiles and weapons of mass destruction, while 
starving its citizens.'' Despite attempts by the South Korean 
government, North Korea has shunned all attempts to discuss substantive 
military confidence building measures to reduce tensions. As reported 
in numerous press accounts, Pyongyang views these confidence-building 
measures as ``premature'' and continues to castigate the U.S. 
administration's policies as being too aggressive.
    North Korea initially responded to the events of September 11 with 
``deep regret'' and some condemnation of the acts. In addition, 
Pyongyang publicly rejected terrorism and the support of terrorist 
organizations, and signed two anti-terrorism treaties and announced 
plans to sign five more. However, started to condemn Pyongyang 
criticized the American military actions in Afghanistan and elsewhere. 
Although North Korea did welcome the new Afghan government, North Korea 
has responded negatively toward President Bush's recent state of the 
Union address in recent writings and public broadcasts. Although we 
welcome and hope for more direct North-South dialogue and 
reconciliation, we watch with caution as the military threat from North 
Korea continues to remain high, both in conventional capability and 
weapons of mass destruction. North Korea continues to divert a large 
percentage of its national resources toward military expansion and 
modernization, and maintains approximately 70 percent of its forces 
within 90 miles of the DMZ.
    In 2002, we expect North Korea to continue diplomatic outreach 
strategies designed to garner much needed economic aid and assistance. 
However, in 2003, three critical events will influence the political-
military affairs on the Peninsula. First, changes in regional politics 
will take place with elections in the ROK. Secondly, pressure will 
intensify on the DPRK to start cooperating with the International 
Atomic Energy Agency (IAEA), so as to avoid unacceptable delays in the 
delivery of essential nuclear components necessary to build two light 
water nuclear reactors in North Korea. Third, while North Korea has 
said it will continue a moratorium on missile launches until 2003, it 
has not made a commitment to extend beyond that time. These three 
events form a potential nexus for increased tension on the Peninsula. 
These key events are centered around the United Nation's International 
Atomic Energy Agency (IAEA) inspections of reprocessing facilities in 
the north, which must occur prior to delivery of key components for the 
light water reactors. We will watch these events carefully. Failure to 
allow a timely completion of IAEA inspections into the history of the 
North Korean nuclear program could jeopardize existing agreements.

                III. NORTH KOREAN OVERVIEW AND STRATEGY

    North Korea continues to pose a dangerous threat to the stability 
and security on the Korean Peninsula, the region, and, increasingly, 
the world. They remain a dangerous adversary with regional operational 
reach and global proliferation impact. The Kim Chong-il Regime 
continues to maintain a large, capable, and forward deployed military--
making the area between Seoul and Pyongyang the most militarized place 
on earth. Korea remains a place where U.S. Forces could almost 
instantaneously become engaged in a high intensity war involving 
significant ground, air, and naval forces. Such a war would cause loss 
of life numbering in the hundreds of thousands and cause billions of 
dollars in property destruction. The military capabilities and policies 
of North Korea have remained fundamentally unchanged since my testimony 
last year.
    Political Environment: Kim Chong-il is firmly in control and, with 
the support of the military and his leadership circle, he establishes 
all policies for North Korea. We were optimistic throughout last year 
that the June 2000 summit between Kim Dae-jung and Kim Chong-il would 
lead to improved North-South relations. In the months that followed the 
June Summit, the North and South held several Ministerial and sub-
Ministerial discussions as well as three small-scale family reunions. 
In early 2001, the North for its own reasons broke off discussions with 
the South. President Kim's administration, with U.S. support, has 
continued to pursue dialogue with the North, and has taken a number of 
steps to encourage the North to return to the table. As President Bush 
has noted, we are disappointed that the North has yet to react 
favorably.
    On June 6, 2001, President Bush stated our willingness to undertake 
serious discussions with North Korea on a broad agenda, including 
improved implementation of the Agreed Framework, verifiable constraints 
on North Korea's missile programs and a ban on its missile exports, and 
a less threatening conventional military posture. This position has 
been restated repeatedly by Secretaries Powell, Rumsfeld and others.
    Over the years, North Korea has established diplomatic relations 
with 150 countries. This past year, North Korea focused its efforts on 
establishing diplomatic relations outside the Northeast Asia region, 
particularly in Europe where it established relations with 13 of the 15 
members of the European Union. Kim Chong-il visited China and Russia in 
part to counter-balance the South's growing relationship and influence 
with the North's historical benefactors, but also to garner much needed 
economic assistance and political support. This increased diplomacy 
allows them to enlarge their donor base for aid while expanding their 
growing illicit trade activities.
    The North Korean diplomatic outreach, in many ways, undermines the 
international legitimacy of the regime. Ambassador after ambassador who 
have visited North Korea tell me about the dismal and almost surreal 
conditions that exist there. Authoritarian controls strictly censure 
all facets of information into the country. The more North Korea 
engages other countries, the more the world learns about North Korea 
and they see for themselves the reality of life for the people that 
live under the Kim family regime.
    Economic Environment: North Korea remains incapable of feeding its 
population or providing for its basic energy needs. Their 
infrastructure continues to deteriorate and they are unable to reverse 
their current economic situation through improved industrial 
production. Consequently, they depend on others, predominately the 
U.S., the ROK, Japan, and China to meet their food and fuel needs. The 
North maintains a policy that ensures the military gets first priority 
on national resources. The policy allows the Korean People's Army (KPA) 
to operate a parallel military economy in which weapons, missiles, and 
drugs are produced for sale. Profits from those sales accrue directly 
to the military. Additionally, Kim Chong-il continues to provide luxury 
items such as cars, housing, and food to supportive senior leaders to 
ensure their loyalty. We see no potential change in this policy that is 
clearly designed to support the military and ruling elite at the 
expense of the North Korean people.
    Accurately assessing the size and condition of the North Korean 
economy is difficult at best. North Korea continues to treat most 
economic data as a state secret and much of its economy is supported by 
foreign aid and illicit activities. Consequently, economic assessments 
of the North Korean economy remain nothing more than educated guesses. 
Based on current and projected conditions in North Korea, we expect no 
significant economic change in 2002. North Korea will continue to 
require and receive outside aid for survival.
    Role of Military: The Korean People's Army (KPA) is by far the 
dominant presence in the country. It is the one instrument of power 
that enables North Korea to extract aid from its neighbors in the 
region. The KPA ensures regime survival by controlling the internal 
situation and deterring external threats. The military also plays a 
major role in the economy. The armed forces are North Korea's largest 
employer, purchaser and consumer. It provides the regime with a 
substantial portion of its hard currency through weapons sales and 
illicit activities.
    Conventional Forces: The KPA is the fifth largest active duty 
military force in the world, numbering over 1.17 million personnel. The 
ground force is the world's third largest, numbering almost one million 
soldiers. An estimated six million Reserves support the Active-Duty 
Force. The North Korean air force has over 1,700 aircraft. The navy has 
more than 800 ships, including the largest submarine fleet in the 
world. The North fields a total artillery force of over 12,000 systems, 
including 500 long-range systems, deployed over the past decade, with 
the ability to strike Seoul from their current location. About 70 
percent of the North Korean Army is deployed south of Pyongyang and 
those forces are capable of conducting an attack with very limited 
tactical warning. However, an attack scenario appears unlikely at this 
time because North Korea clearly knows that its regime would ultimately 
be destroyed as a result of any attack.
    Asymmetrical Forces: The North's leadership has developed 
substantial capabilities in ballistic missiles, special operations 
forces, and weapons of mass destruction. The North's asymmetric forces 
are dangerous, receive a large portion of the military budget, and are 
well trained. Methodical improvements continue in each area.
    Because the North's ballistic missile program provides such 
powerful diplomatic and political leverage, the North's ballistic 
missile program remains a top priority. Over the past 2 years, North 
Korea has upheld its self-imposed moratorium on flight-testing long-
range missiles, but has not halted research and development. They 
continue to refine their missile capabilities by continued testing of 
rocket engines and other components. Kim Chong-il stated to President 
Putin that the current missile flight-testing moratorium will remain in 
place at least until 2003. However, they continue to export missiles 
and missile technology throughout the world. Their ballistic missile 
inventory includes over 500 SCUDs of various types that can threaten 
the entire peninsula. They continue to produce and deploy medium-range 
No Dong missiles capable of striking Japan and our U.S. bases there. 
Pyongyang is also developing multi-stage missiles capable of striking 
the continental United States. They have tested the 2,000-kilometer 
range Taepo Dong 1 missile and continue significant work on the 5,000 
plus kilometer Taepo Dong 2 missile.
    North Korea's special operations forces (SOF) are the largest in 
the world. They consist of over 100,000 personnel and constitute a 
significant force multiplier. We consider them a tough, dedicated, and 
profoundly loyal force. They undergo year-round training to develop and 
maintain their skills. During wartime, these forces would attack from 
the ground, air and sea against both our forward and rear areas. The 
North will concentrate SOF against our critical warfighting nodes and 
seek to prevent rapid force and sortie generation by U.S. and ROK 
forces.
    North Korea also possesses weapons of mass destruction. A large 
number of North Korean chemical weapons threaten both our military 
forces and the civilian population centers of South Korea and Japan. We 
assess that North Korea has very large chemical stockpiles and is self-
sufficient in the production of chemical components for first 
generation chemical agents. Additionally, North Korea has the 
capability to develop, produce and weaponize biological warfare agents. 
They can deploy missiles with chemical warheads and potentially have 
the ability to weaponize biological agents for missile delivery.
    We continue to be concerned with North Korea's potential nuclear 
threat. Though in January 2002, North Korea allowed the IAEA to visit 
an isotope facility, North Korea still refuses to comply with nuclear 
non-proliferation protocols. If North Korea will not allow inspections 
of their nuclear facilities, the international community cannot verify 
that they have in fact stopped their nuclear weapons development 
program. Current assessments indicate that North Korea may have 
produced enough plutonium for at least one, and possibly two, nuclear 
weapons.
    Proliferation: North Korea contributes to the instability in the 
Middle East and South Asia through its aggressive sales of arms, 
missiles, and technological expertise. Missile sales and the transfer 
of missile technology to Iran, Syria, Libya, Iraq and Pakistan 
especially trouble us. The possibility that North Korea could transfer 
nuclear technology to extremist regimes is real and is one of our 
greatest concerns.
    Illicit Activities: North Korea engages in a variety of other 
state-sponsored illicit activities to include counterfeiting of U.S. 
currency, money laundering, the production and sale of illegal drugs, 
trading in endangered species, and smuggling. In many cases, these 
illicit deals are sponsored by the military, with the cash profits 
returning to military hands.
    Force Improvements: North Korea cannot afford to significantly 
modernize its aging conventional force. They continue to produce 
limited numbers of replacement systems and depend on China and Russia 
to provide equipment and spare parts. North Korea continues to 
modernize systems that can marginalize specific U.S. military 
strengths. North Korea is adaptive. They study our actions, most 
recently in the Balkans and Afghanistan, in order to develop tactics 
and techniques aimed at offsetting our technological advantage. They 
concentrate their efforts against U.S. surveillance, precision 
munitions and force generation capability. They continue to improve 
their command, control, communications and intelligence (C\4\I) 
systems, harden and bury their facilities, improve lines of 
communication, disperse forces, and improve camouflage, concealment, 
and deception (CC&D) measures. The result of these efforts has been to 
increase the survivability of North Korean combat power, and to 
complicate our ability to generate the forces and sorties required to 
defeat a North Korean attack.
    North Korean force improvements are indicative of their continued 
policy to maintain a large, capable and effective military. 
Unfortunately, many people view the North Korean military from a cold 
war or conventional perspective and mistakenly assess them to be 
incapable of challenging the ROK--U.S. alliance. Such people become 
blind to the continuing threat posed by North Korea. The North Korean 
military is evolving in ways that make them a threat into the 21st 
century. They constantly study how we fight and develop capabilities 
that leverage their strengths against our weaknesses. They are adaptive 
and are methodically improving their military capabilities. They can 
conduct operations that span the spectrum from smuggling, kidnapping 
and assassination, to conventional combat. They are clearly the type of 
current and future threat that is described in the Quadrennial Defense 
Review.
    As a result of their specific actions, North Korea continues to 
pose a dangerous and complex threat to the peninsula and the WMD and 
missile programs constitute a growing threat to the region and the 
world. The Kim Regime seems unwilling or unable to change its stated 
intent, goals, and policies. Consequently, they will continue to use 
the threat of military action to gain concessions, mostly in the form 
of economic aid from neighboring countries in the region and the United 
States. It is our opinion that North Korea's infrastructure will 
continue to degrade and that the regime will require outside aid to 
meet basic food and fuel requirements. Despite the extreme hardships on 
its people, the Kim regime will continue to support the elite and the 
military at the expense of the general population. Kim Chong-il will 
remain in power and the North Korean government will likely not 
experience an economic driven collapse in 2002. Although an attack on 
the ROK would cause many casualties and great destruction, CFC would 
rapidly defeat North Korean forces.

                         IV. ROK-U.S. ALLIANCE

    The alliance between the Republic of Korea and United States of 
America remains the best in the world. It is an alliance built on 
honor, respect, a common set of values and a commitment to the defense 
of the freedom of South Korea. Our power, might and daily readiness are 
unmatched. Unquestionably, our South Korean partners are professional 
warfighters. They can mobilize over 4.5 million service members and can 
bring 54 divisions to the fight. Our combined warfighting assets after 
full mobilization include over 1,500 strike aircraft that can launch 
over 2,000 daily sorties, over 1,000 rotary aircraft, more than 5,000 
tracked vehicles, 3,000 tanks and over 250 combat ships to include four 
or more carrier battle groups. If necessary, this unequalled combined 
combat power and might will decisively defeat a North Korean attack and 
destroy its military and the Kim regime. It is this real and 
overmatching power that strengthens our deterrence mission and 
ultimately provides regional security.
    Our continuing cooperation and understanding is a success story in 
many ways. This success has been institutionalized in our Mutual 
Defense Treaty of 1953, the Status of Forces Agreement of 1966, the 
annually conducted Security Consultative Meetings that have been held 
since 1968 and Military Committee Meetings that have been held since 
1978. The Republic of Korea has actively supported American non-
proliferation efforts and joined the Missile Technology Control Regime 
(MTCR) in 2001. The ROK expects to resume chemical weapons destruction 
by the spring of 2002 and hopes to achieve a 4 to 5 percent destruction 
this year and 45 percent destruction within two to 3 years. Three 
alliance areas deserve particular note: Impact of September 11, Wartime 
Fighting Readiness, and an update on the Special Measures Agreement and 
Defense Burdensharing. 
    Impact of September 11: The public condemnation of the terrorist 
acts against the U.S. was led by President Kim Dae-jung, who pledged 
support in the spirit of the Mutual Defense Treaty. He was quick to 
pledge support even greater than the ROK provided during Operation 
Desert Storm. The outpouring of sympathy from the Korean people and 
military was phenomenal, as was their commitment to the security and 
safety of U.S. troops. The ROK immediately moved to match words with 
deeds, sharing intelligence, increasing force protection measures and 
planning support packages for multi-theater use for Operation Enduring 
Freedom (OEF).
    We believe the events of 11 September will prove to be a seminal 
event in the history of the ROK-U.S. alliance. As we speak to you 
today, ROK forces are leading a U.N. mission, providing force 
protection for U.S. interests on the peninsula, and supporting OEF on a 
global scale. The ROK sent liaison officers to both PACOM and CENTCOM 
and quickly learned how the war on terrorism would be prosecuted. They 
have worked hard to learn lessons about how to support freedom's effort 
on both a regional and global scale. ROK forces are standing shoulder 
to shoulder with U.S. forces from Tampa to Kyrgyzstan and from CENTCOM 
to PACOM. They have accomplished this while increasing their U.N. 
support and taking command of the U.N. mission in Cyprus. This is an 
incredibly strong alliance!
    In addition to their efforts on the Korean peninsula, our allies 
have sent forces in support of OEF. The ROK Navy has been supporting 
OEF since 18 December 2001, with one Landing Ship Transport (LST). 
Utilizing over 170 personnel, they have delivered construction 
materials for runway repairs to coalition facilities at Diego Garcia 
and are assisting with search efforts regarding the downed B-1 bomber. 
The ROK Air Force continues to support U.S. global efforts with four C-
130s conducting transportation operations between Guam and Wake Island 
with support as far west of Diego Garcia. Furthermore, the ROK has 
provided a Mobile Field Hospital since February. This team of 130 
personnel has provided medical care in the vicinity of Afghanistan in 
support of coalition efforts in OEF. Overall, the ROK has committed 
over 470 personnel, high value equipment, and significant force 
structure to support OEF objectives. The ROK support for the U.S. led 
coalition against terrorism has been comprehensive from humanitarian 
aid to global deployments of medical personnel, navy ships and air 
force units. We believe this type of support is key to a greater global 
and regional perspective for the Republic of Korea and will assist 
their evolving role as a regional leader.
    The Republic of Korea, along with Japan, will co-host the 2002 
World Cup Soccer Games between 31 May and 30 June. Teams from thirty-
two nations will participate. An estimated five million visitors are 
expected to attend these events. This is the largest sporting event in 
the world and is of enormous importance to the Republic of Korea, Japan 
and all of Northeast Asia. This is the first time the World Cup has 
been held in Asia and the first time it has been co-hosted by two 
nations. In the wake of the September 11th attacks against the World 
Trade Center and the Pentagon, the world is looking to the Republic of 
Korea and Japan for assurance that they can provide a secure and stable 
setting for the World Cup Games. Unfortunately, the World Cup could 
also provide a lucrative terrorist target. The Republic of Korea has 
prepared extensively to ensure the utmost safety and security of 
athletes, officials and visitors, but is seeking the benefit of U.S. 
support and experience from our lessons learned.
    The ROK JCS has formally requested U.S. military support to the ROK 
for 2002 World Cup Games. We will work with ROK JCS to respond to their 
request in order to strengthen an already unshakable alliance and 
demonstrate U.S. resolve to prevent further acts of terrorism or 
aggression. The U.S. Forces Korea staff continues to work the details 
of our support to the World Cup Games closely with the ROK JCS Staff. 
We have found this coordination effort to be another opportunity to 
leverage the strength of this great alliance. As the Secretary of 
Defense told me--this command and the Nation pledges its assistance to 
our ROK allies. Together, we will ensure that these games are safe!
    Wartime Fighting Readiness: Combined Forces Command (CFC) is ready 
to fight and win tonight. We are making great strides in our 
capabilities and readiness. In this section, we will briefly discuss 
three topics: (1) Exercise and Training, (2) Force Protection 
Initiatives, and continued (3) Modernization efforts by ourselves and 
the ROK. 
    (1) Exercise and Training Programs--The primary component of our 
warfighting readiness and bedrock of this great ROK-U.S. alliance is 
the CFC Exercise and Training Program. Both the content and timing of 
these combined and joint exercises successfully posture this command to 
deter, defend and decisively win any military engagement. However, 
because of the proximity of the threat, the complexity of this theater 
and the high turnover of both ROK and U.S. military personnel, we must 
conduct robust theater level exercises annually to maintain combat 
readiness. Each exercise is unique and focused on essential components 
of the combined warfight. The Exercise and Training Program is a 
critical pillar in our theater engagement strategy, I cannot stress 
this enough. We must fully resource this program. That being said, I 
regret to report that any loss or reduction of dollars to support these 
exercises will weaken readiness and deterrence, hamper our combined 
forces training and put at risk our ability to fight and win. 
    The exercise support we receive from the U.S. Chairman of the Joint 
Chiefs of Staff is invaluable. The combination of the increased cost of 
strategic lift with a flat-line strategic lift budget has eroded our 
exercise strategic lift capability. We must address this by some means. 
Simply put, we are bringing fewer personnel to train for a higher cost 
than ever before. It would be unwise to let this trend continue over 
the Future Years Defense Plan (FYDP).
    We have made significant changes in our exercise program over the 
last year. The linkage of the Reception, Staging, Onward Movement and 
Integration (RSOI) exercise and the Foal Eagle (FE) exercise is a 
monumental step for this alliance. We have not sacrificed realism nor 
readiness--we've enhanced it. We have not reduced our exercise tempo--
we've made a giant step forward in quality training. We monitor 
everything we do in combat readiness training carefully because these 
exercises are not hypothetical. These training events exercise the real 
``go-to-war'' plans. Korea remains one of the only theaters in the 
world where real war plans form the basis of our exercise program.
    We are working equally hard to improve our training capability. The 
training environment, for U.S. forces stationed in Korea, is best 
described as a ``Tornado in a Closet.'' Our 93 percent personnel 
turnover rate, as well as constraints with land to train on, provides 
significant challenges. Personnel and units can, and do, train to 
standard, but it requires intense, detailed, and creative planning and 
management on the part of our leadership to make this happen. Our 
commanders accept these challenges, and become innovative in their 
approaches to provide better and more realistic training environments 
for their Soldiers, Airmen, Sailors and Marines. We are creatively 
maximizing our Joint Use Ranges using mobile target sets that 
synchronize our efforts with ROK forces. We have several initiatives 
aimed at improving our urban training capability and we have a 
strategic roadmap aimed at improving key training areas such as 
Rodriguez Range for joint and live fire training. The fiscal year 03 
President's Budget restored the Korea Battle Simulation Center to full 
funding; we must now address the remaining requirement of $3.0 million 
for training and instrumentation. We will continue to develop our range 
capabilities to ensure readiness now and for the future.
    (2) Force Protection--The events of September 11 have caused us to 
re-evaluate every aspect of our force protection program. The most 
significant lesson learned was that a high number of personnel must be 
committed to maintaining an increased force protection posture. At 
increased force protection levels, 20 percent of our force is 
committed. The environment in Korea presents several unique challenges 
for the protection of our members. Although we assess the terrorist 
threat in Korea to be generally low, our vulnerability to such an 
attack remains high. While we have taken significant steps to improve 
our security posture, many of the solutions require long-term 
programmatic changes, which cannot wait for a specific threat to 
appear.
    Our force protection challenges here in Korea are centered on the 
following systemic issues: lack of standoff and our off-post personnel 
and activities.  Compounding these challenges is the impact of the 1-
year tour on the majority of service members.
    Our most difficult and ``resource intensive'' challenge is the lack 
of standoff. Urban encroachment at our facilities, and the lack of 
available real estate for force protection requirements contribute to 
this vulnerability. As a result, our installations will have virtually 
no early warning of a hostile action, whether by vehicle or a personnel 
infiltration. This challenge is intensified by the fact that USFK has 
85 manned installations, many quite small, spread across the theater. 
We have organized these installations into 12 ``base clusters'', which 
operate as our major ``hubs''. While not ideal, since many of these 
bases lack the ability to plan or respond to terrorism, this is the 
best balance of our manpower and resources. However, many of these base 
clusters still lack resources necessary for basic force protection. 
Large portions of our personnel reside in off-post lodging. Because of 
the lack of on-base housing, many of our service members, civilians and 
family members must live in the local civilian community, with little 
security.
    Our challenges are numerous. We have several initiatives underway 
to improve our force protection posture. On-going initiatives, which we 
will describe in detail later, will reduce the number of installations 
and eliminate many of the smaller facilities. This will have multiple 
payoffs for force protection: eliminating our smallest and most 
difficult to defend installations, thus reducing the manpower burden of 
defending them; creating standoff at our enduring installations; and 
allowing us to position our security and terrorist incident response 
forces for maximum benefit. USFK is also a test bed for the use of 
Biometrics for our access control systems. This technology has DOD wide 
application; it allows central management of who is authorized on our 
bases, and also dramatically reduces the risk of counterfeit ID Cards 
and passes. Starting last year, we began aggressively exercising our 
security systems through the use of Red Teams and terrorist incident 
response exercises. These initiatives are part of our on going force 
protection strategy review.
    We have developed a force protection strategy that addresses 
immediate concerns as well as long-term requirements. We brought in a 
team to assist our base clusters in updating their antiterrorism plans, 
identifying vulnerabilities and mitigation procedures and determining 
resource requirements. The next phase is to address the physical 
security shortfalls at our ``enduring'' installations. This will 
involve placing perimeter intrusion detection and monitoring systems at 
our major bases to partially compensate for the lack of standoff. 
Additionally, we will restructure our access gates to more easily 
support increased security postures. Currently this posture requires 
large manpower commitments and creates major difficulties in 
maintaining base operations. The final phase will be to fully integrate 
force protection as we consolidate our forces on enduring 
installations. During the execution of this consolidation and base re-
alignment, we plan to carefully balance the location our security 
forces and incident response forces.
    In addition, as part of our force protection review, we concluded 
an anthrax policy study, which consolidated requirements and re-
evaluated our posture versus chemical and biological terrorism. The 
events of September 11 were a call to re-evaluate all threats and the 
damage they can do. We re-energized a vigorous education program to 
ensure our USFK personnel and their families are aware of current 
threats and appropriate preventive and deterrent measures. We have 
coordinated our efforts with the ROK Ministry of National Defense to 
ensure that both we and the ROK are prepared to meet this threat. We 
will continue to make force protection our top priority.
    (3) Modernization Efforts--The ROK continues to develop defense 
policy changes. They are committed to a post-unification presence for 
the U.S. and an enhanced regional role for the ROK. The ROK has begun a 
subtle but definite shift in their security focus from a unidirectional 
North Korean view to a multidirectional Northeast Asian and world-view. 
Indicative of this shift is their interest in coalition support for the 
``war on terrorism'' and their shift in defense spending away from an 
infantry-heavy army and to transform into a high-tech, agile, 
information age military. As a result, the ROK Ministry of National 
Defense has supported budget shifts that now favor more development and 
growth in air and naval forces. Together with regional diplomatic and 
world economic activity, this military shift indicates a ROK desire to 
increase their role in East Asian security and world stability.
    The ROK paper entitled Defense Outlays Preparing For The Future 
2001, published by the ROK Ministry of National Defense (MND), 
emphasizes aggressive modernization goals for South Korean forces based 
on the near-term North Korea threat and an uncertain regional security 
environment. United States Forces Korea wholeheartedly supports these 
efforts. South Korean force modernization improvements continue in many 
key areas through indigenous production, co-production, direct 
commercial sales and procurement through Foreign Military Sales. The 
ROK armed forces continue to demonstrate a very strong preference for 
U.S. military equipment. South Korean military purchases from the U.S. 
as a percentage of total foreign procurement has ranged from 59.2 
percent to 98.9 percent in the last 10 years. The decade average is 
78.6 percent.
    Last year South Korea addressed counter-fire shortfalls by fielding 
indigenously produced K-9 155mm self-propelled artillery systems. 
Significant automated shooter-to-sensor challenges remain, but the K-9 
fielding coupled with this year's procurement of a second battalion of 
U.S. multiple launched rocket systems (MLRS) and the purchase of the 
Army Tactical Missile System Block 1A (ATACMS) set the stage for an 
improved counter-fire capability, which was previously addressed as a 
serious shortfall.
    The events of September 11 have alerted the world to the dangers of 
terrorism. In Korea, MND is reviewing the possibility of a new Anti-
terrorism command to develop force protection policy and apply it to 
current and potential regional threats. Additionally, the current 
chemical, biological and radiological defense command will be 
reinforced, reorganized, and placed under the ROK Joint Chiefs of Staff 
for Homeland Defense in preparation for the World Cup and Asian Games 
in 2002.
    All of Northeast Asia is currently experiencing a slowing of the 
economic growth that was projected earlier in 2001. In the ROK, this 
economic downturn has forced purchase delays of major weapon systems 
that were planned for 2002--including the future fighter, the Patriot 
(SAM-X) missile system, an airborne warning and control system (AWACS), 
and cancellation of attack helicopter modernization initiatives. The 
military remains committed to improving South Korea's military 
capabilities as the economy improves. South Korea plans to sign a 
contract to procure 40 future fighters in 2002. Negotiations on the 
purchase of two Patriot Battalions for the 2002-2004 time period are 
ongoing. In addition, the ROK plans to initiate negotiations to procure 
three Aegis type destroyers. When procured, these acquisitions will 
significantly address South Korea's air defense problems. The ROK Navy 
also plans to procure eight additional P-3C anti-sub/anti-surface 
aircraft from the U.S. and completely refurbish them.
    It is essential that these systems be interoperable with U.S. 
systems. This will ensure that military might can be brought to bear 
quickly and decisively as required. Not only will these systems improve 
today's ROK-U.S. combat power, they will also contribute to future 
regional security in Northeast Asia.
    Three areas remain where the Republic of Korea must acquire 
capabilities to support our combined combat readiness: (1) Command, 
control, communications, computers, and intelligence (C\4\I) 
interoperability; (2) Chemical and biological defense capabilities; and 
(3) Preferred munitions necessary for the early stages of the war plan. 
USFK is working closely with the ROK on C\4\I interoperability. As a 
result of the September 11 terrorist attack, the ROK is also placing 
more emphasis on chemical and biological detection. While the ROK has 
procured preferred munitions, more are needed. To accomplish this we 
must maintain close coordination as we analyze, research, develop and 
test the best systems for our combined alliance. We are working hard to 
ensure that both U.S. and ROK modernization and transformation progress 
is synchronized and complimentary. A cornerstone of this is the on-
going OSD/MND Future Study of the Alliance. In 2001, we completed the 
Joint Study of the Alliance analyzing the future role of USFK in the 
next 20 years. The study addressed Confidence Building Measures that 
potentially could be implemented in efforts reduce military tensions in 
support of Korean reconciliation. This year we are studying both ROK 
and U.S. increasing regional roles and our combined modernization 
efforts.
    A key element of our U.S. modernization efforts would be to acquire 
an Army Interim Brigade Combat Team (IBCT) in Korea to replace one 
existing brigade. This will provide the maneuverability and combat 
power necessary to operate in the mountainous and increasingly 
urbanized terrain of Korea. The ICBT will add a new component in USFK's 
deterrence capability to counter a North Korean threat or provocation. 
It will also prepare us to refocus the Army's forward deployed forces 
in Korea for a regional role. The IBCT provides a rapidly deployable 
ground force to complement Air Force Aerospace Expeditionary Forces, 
Marine Expeditionary Forces, and Navy Amphibious Ready Groups and 
Carrier Battle Groups as U.S. Forces Korea's role transitions to 
regional security.
    USFK must continue to improve our support capability to insure our 
wartime fighting readiness. Headquarters accounts continue to be 
squeezed and our UNC/CFC/USFK/8th U.S. Army Command Headquarters 
Support and Air Force Base Support account is no exception. We need our 
full requirements recognized if we are to repair critical 
infrastructure, replace aged systems and train our combined team.
    Defense Burden-sharing and Special Measures Agreement Update: The 
current ROK Defense Ministry continues its long-standing reputation of 
support. It demonstrates daily a commitment to honoring its host nation 
responsibility for defense cost sharing. The military budget for the 
Republic of Korea (CY 2002), recently passed the National Assembly is 
$12.5 billion (16.3 trillion won). ROK defense spending, as a 
percentage of Gross Domestic Product, will increase to 2.8 percent for 
2002, which remains below the 3.0 percent minimum level identified in 
the ROK modernization plan. If this trend continues this could reduce 
their ability to modernize.
    The 2001 Report to Congress on Allied Contributions to the Common 
Defense identifies four burden-sharing categories--Multinational 
Military Activities, Defense Spending as percentage of Gross Domestic 
Product, Foreign Assistance and Cost Sharing. Of those four categories, 
South Korea met the congressional goal in two, namely Multinational 
Military Activities and Foreign Assistance. However, at a defense 
budget of 2.7 percent GDP in 2000, the ROK did not match the U.S. 
defense budget of 3 percent GDP. The ROK has contributed soldiers to 
U.N. peacekeeping operations (PKOs) since 1993. The ROK continues to 
maintain a peacekeeping battalion on in East Timor. It provides 
military observers to India/Pakistan, Georgia and the Western Sahara 
for a total contribution in 2001 of 474 soldiers. Also, it is worthy to 
note that the first ROK general officer was selected to command a U.N. 
PKO. Lieutenant General Hwang, Jin-ha (a former military attache to the 
U.S.) will command the U.N. peacekeeping force in Cyprus in 2002. The 
ROK met the Foreign Assistance goals in 2001. In the cost-sharing 
category, although significant progress has been made, the Republic of 
Korea has not yet offset 75 percent of U.S. stationing costs. The U.S. 
and ROK Special Measures Agreement (SMA 99-01) outlines the cost-
sharing contributions of both nations. Contributions are made in both 
cash and in-kind support--71 percent of the program is in cash and the 
remaining 29 percent is in-kind. In accordance with the SMA 
Implementation Agreement (IA), USFK and the ROK MND jointly calculated 
and agreed the SMA contribution for 2001 is roughly $425 million. This 
contribution reflects an 8 percent growth adjustment from the 2000 
contribution.
    This year, the Koreans agreed to a new Special Measures Agreement 
for 2002-2004 (SMA 02-04) pledging $490 million for 2002, an increase 
of 15 percent from the $425 million in 2001. The Koreans have steadily 
increased their share of non-personnel stationing costs rising from 36 
percent in the 2001 burden-sharing report to 41 in the 2002 report. 
Their contributions over the next 3 years will push them over 50 
percent. The total contribution rose 15 percent, the biggest single 
increase in SMA in 8 years. In addition, 2003-2004 contributions will 
be increased by 8.8 percent plus inflation protection in the form of 
Gross Domestic Product Deflator as determined by the Korean National 
Statistics Office. The 2002-2004 SMA demonstrates the ``real and 
meaningful growth'' we are seeking for USFK Non-Personnel Stationing 
Costs.

                        V. VISION FOR THE FUTURE

    As President Bush has said, ``Power is defined by mobility and 
swiftness, influence is measured in information, safety is gained in 
stealth, and force is projected on the long-arc of precision-guided 
weapons. This revolution perfectly matches the skills of our country, 
our people and the superiority of our technology. The best way to keep 
the peace is to redefine war on our terms.'' I would add that our 
strength is also measured in our personnel readiness and the values we 
teach to our military forces. The real lesson learned in Afghanistan is 
that our soldiers, sailors, airmen and marines are the best quality 
force in the world. In Korea, we want to blend our strengths with that 
of a great ally who is determined to improve their capabilities and 
whose courage and loyalty is unmatched. We are faced with a two-fold 
challenge to modernize and move to a capabilities-based force while 
ensuring that our near-term readiness is unmatched and that we are 
ready to fight and win tonight.
    We must modernize our forces, improve our capabilities and fix 
long-term problems with a comprehensive plan. Our strategy to modernize 
and transform is based on our ability to build a capabilities-based 
organization and enhanced warfighting structure centered on key hubs. 
The key to this organizational change is the transition to 
organizational hubs as part of our Korean Master Plan for 2010. The 
picture below illustrates this plan. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    A great example of our future capability is our proposed Northeast 
Asia Regional Simulation Center (centered at our C\2\ hub). We are on a 
path to have a ``Center of Excellence'' capability for Joint and 
Combined simulations and exercises by 2008. This will become the 
cornerstone for merging ROK/U.S. doctrine in the near-term. It has the 
inherent growth potential to provide a multi-lateral focus as both 
USFK's and the ROK's power projection capability evolves to meet the 
future. The simulation center also provides the means to work difficult 
coalition integration issues as we build a more effective combined 
doctrine.
    The key feature of our strategic facilities vision is the Land 
Partnership Plan (LPP), which will allow us to move from 85 scattered 
bases into the centralized hubs I have described above. We will divest 
ourselves from 41 major bases to 20 enduring installations. This will 
improve near-term readiness, enhance force protection, reduce 
stationing costs, reduce our footprint and return valuable land to the 
second most densely populated country in the world.
    The LPP is our vision for the future and it has now been 
incorporated into the Overseas Basing Requirements Study. It gives us a 
comprehensive approach to ensure that USFK is the best manager of 
precious Korean land. We are happy to report significant progress from 
last year.
    Our combined efforts with the ROK have produced an agreement which 
we are confident will be ratified by the ROK National Assembly. This 
long-term effort is fully funded and will require no additional support 
from Congress, however, it is fully dependent on stable MILCON funding. 
The picture below illustrates this plan. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    LPP seeks to improve the combined forces readiness posture, enhance 
public safety, stop training range encroachment, improve force 
protection and advance quality of life for U.S. forces. This initiative 
will also reconfigure and protect training areas and consolidate our 
forces around enduring installations. LPP potentially returns about 
32,000 acres of valuable commercial and agricultural land to South 
Korea. This will provide a long-term cost savings for USFK by allowing 
the command to invest in and sustain our reduced infrastructure at the 
enduring installations. In exchange, the command seeks the acquisition 
of about 612 acres of additional land adjacent to enduring U.S. 
installations where we plan to relocate units and activities. The ROK 
will also grant USFK joint use of its own military training areas on a 
very efficient limited time-share basis. This will enable us to improve 
training and preserve readiness. Installations returned to the ROK will 
be transferred in accordance with the Status of Forces Agreement (SOFA) 
and current DOD guidance. The plan does not add any requirement for 
USFK to meet stricter environmental standards than those already 
required under the current DOD policy or the SOFA. However, being good 
stewards of the environment in our host country is critical to our 
mission and the alliance. We urge you to support LPP, which we feel is 
a key to positioning USFK forces to meet security requirements well 
into the future. It will provide ``irreversible momentum'' to our 
efforts to fix significant command problems brought on by years of 
neglect. We expect to have a signed agreement by 15 March 2002.
    The congressional funding that you provided last year has been of 
enormous help, and we are extremely grateful for your demonstrated 
concern. Change is in the air, and on-going construction on USFK 
installations is a common site today. Family housing improvements, 
barracks renovations, workplace upgrades and new utilities are 
currently being developed. Our vision is beginning to be realized in 
USFK. But in order to ensure that our ``first-class military'' is 
provided with ``first-rate facilities,'' it is important to sustain 
this encouraging progress. Continued investment-your investment-is 
critical to provide the force protection and basic quality of life each 
service member deserves. Your involvement will enhance our military 
readiness and preserve and protect the environment of our South Korean 
ally, while providing enhanced regional stability.

                         VI. COMMAND PRIORITIES

    I would now like to discuss the status of programs and areas in 
which we have resource allocation concerns. My intent is to discuss 
possible problem areas as they now appear. However, these program areas 
and their associated funding levels may change as a result of the 
strategy and defense review, which will guide future decisions on 
military spending. For fiscal year 2002, the President's budget 
includes funding to cover our most pressing priorities. I ask that you 
consider my comments in that light. Achieving our vision and 
accomplishing our missions requires us to prioritize scarce resources. 
Our command priorities are: (1) Command, Control, Communications and 
Computers, Intelligence, Surveillance, and Reconnaissance (C\4\ISR) 
Functionality; (2) Precision Engagement; (3) Support toward 
Reconciliation Efforts; and (4) Improve Quality of Life.
    (1) C\4\I Functionality--United States Forces in Korea are working 
very hard toward achieving the vision articulated in the Department of 
Defense's Quadrennial Defense Review--to attain and maintain the 
asymmetric advantage afforded with network-centric warfare systems. We 
are in the process of modernizing these systems, and with your help, we 
will maximize our technological lead to ensure victory on the 
battlefield.
    The Korean theater poses special problems in attaining and 
sustaining information superiority. The destructive effects resulting 
from the lethality of modern weapons compressed into such a small 
geographical area overwhelm the imagination. It not only increases the 
potential for high casualties and collateral damage, but due to exposed 
and vulnerable C\4\I facilities and infrastructure, may significantly 
affect our ability to command and control forces and execute the war 
plan. It is this reality that sets Korea apart from all other theaters. 
It mandates C\4\ISR that is survivable, interoperable, and secure in a 
joint and combined environment.
    We have developed a strategy to address both our short-term needs 
and our long-range requirements. This strategy is made up of three 
objectives: (1) Developing a theater-wide C\4\I vision that supports 
the operational needs of the operator while facilitating process 
change; (2) Aligning and institutionalizing the Program Objective 
Memorandum (POM) with operational requirements to resource and sustain 
the vision; and (3) Fielding C\4\I capabilities that support current 
readiness and enhance our ability to ``fight tonight.'' We have made 
tremendous progress in each of these areas. The power of information 
and information technology is the catalyst for several comprehensive 
changes we are making to our command and control structure as well as 
operational concepts and warfighting processes.
    Common Operational Understanding (COU) is the organizing mechanism 
for this transformation. COU is a process that transforms situational 
awareness into knowledge-based decisions. It ensures U.S. and ROK field 
commanders dispersed throughout the theater not only have the same view 
of the common operating picture (COP), but have the same level of 
understanding on what the COP means. This consensus can best be 
achieved with C\4\I functionality that provides real-time, interactive 
collaboration capabilities. In an environment where the fleeting nature 
of targets compresses the planning, decision and execution cycle from 
days and hours, to minutes and seconds, achieving COU is paramount to 
success, and in more direct terms, is the essence of decision 
superiority.
    Survivable theater intelligence systems are a critical part of the 
common operating picture and essential to successful combat operations. 
We want to express our deep gratitude for the funding support you have 
provided to our C\4\I infrastructure with regard to the intelligence 
automation and communications segment, called the Pacific Command 
Automated Data Processing Server Site Korea (PASS-K). Our current 
intelligence funding level is addressed in this year's Program 
Objective Memorandum (POM) is adequately funded through the General 
Defense Intelligence Program (GDIP). This stable funding is essential 
to ensure that the planned enhancements necessary to maintain 
information dominance in collaboration with national and theater 
systems become a reality.
    The progress we have achieved with your help, with programs such as 
PASS-K, is a success story, but taking full advantage of the emerging 
technologies has been a constant challenge for this command due to 
years of C\4\ISR funding shortfalls. In the past, un-funded C\4\I 
requirements have had a significant impact on our ability to maintain 
an adequate infrastructure needed to support the increased bandwidth, 
network redundancy, and the modern decision and collaboration tools 
required by my unit commanders. This has forced local units to divert 
money from other operations and maintenance accounts in order to 
maintain our C\4\ISR capability. We have the technical expertise in 
place to fully utilize these technologies but have lacked the 
acquisition authority and consistent funding stream to fully put these 
technologies to work. Such funding would help sustain our C\2\ systems, 
as well as the progress we made in areas such as C\4\ infrastructure 
and information assurance. More importantly, it provides some momentum 
as we look toward the additional plus-ups provided in the fiscal year 
2003-2007 budget.
    However, the C\4\I funding provided to Korea over the next 5 years 
with implementation of Program Budget Decision 725 is absolutely 
critical to addressing our shortfalls. This new funding, starting with 
$67 million in fiscal year 2003, will not only allow us to make up the 
lost ground that occurred over the years, but will serve to facilitate 
the advances we need to implement our vision. I strongly urge your 
continued support of this funding increase over the duration of the 
Future Years Defense Plan (FYDP). Failure to achieve this will result 
in a serious risk to our ability to execute existing warplans. 
    (2) Precision Engagement--Precision Guided Munitions, or PGMs, are 
a critical enabler for our Korean warfighting strategy. These state-of-
the-art munitions are an important part of what we need to be ready to 
win decisively. Since North Korea continues to shelter forces in 
underground facilities and hardened bunkers, we must be able to 
overcome these defenses with key penetrating weapons. The complexities 
of Korean climate drive up our need for Joint Direct Attack Munition 
(JDAM) weapons--our fight demands their accuracy in any kind of 
weather. We are studying the lessons from Operation Enduring Freedom to 
apply in our theater. Just like Afghanistan and Kosovo, precision 
strike is needed to avoid collateral damage on the highly populated 
Korean peninsula. On the other hand, unlike Afghanistan, we face an 
adversary with thousands of mechanized targets and prepared defenses-
one who has been preparing to fight us as a modernized force for the 
past 50 years. Worldwide, readily available stocks of precision-guided 
munitions are mandatory for our ``warfight'' and our inventories that 
have been diminished by Operation Enduring Freedom must be replenished 
quickly. Since Operation Desert Storm, the American public has become 
accustomed to watching video clips on the nightly news where enemy 
vehicles or bunkers, seen targeted in cross hairs, instantly erupt in 
explosions. That capability does not come cheap, but the cost to not 
pursue PGMs is higher. When we fall back to ``dumb bombs'' to destroy 
enemy targets, historical examples illustrate that the final total cost 
is actually higher. Many more ``dumb bombs'' are required to destroy 
the same target that one PGM has a high probability of hitting. 
Additionally, we increase the risk of collateral damage and civilian 
casualties. PGMs must be addressed by both the ROK and the U.S. We need 
a solid inventory readily available on the peninsula.
    (3) Support Reconciliation Efforts--Although there has been no 
formal change in ROK defense policy toward the North Korean threat, 
early last year it was obvious that a perception of peace had emerged 
within the South Korean public. However, recent failures in talks have 
once again led to a change in how the ROK public regards the reality of 
a heavily armed North Korea. The ROK government has historically given 
much in terms of economic aid and assistance to North Korea, in the 
hope of developing better, more peaceful relations. All talks have now 
stalled, and no tension reduction measures of any sort have been agreed 
to or employed. Even the execution of planned family reunions between 
family members in North and South Korea, have now been postponed 
indefinitely
    The United Nations Command (UNC) will continue to fully support 
President Kim Dae-jung's reconciliation process and the development of 
a road/rail transportation corridor through the Demilitarized Zone. 
President Kim Dae-jung has termed this railroad, spanning Asia and 
Europe, as the new ``Iron Silk Road.'' As the vision of the Korean 
railroad begins to take shape, Korea could benefit immensely from its 
central geographic location. The promise of opportunity and economic 
commerce that these lines could generate is substantial. Any 
development of this Inter-Korean railroad, and the security 
implications involved, will be a significant source of careful 
planning, negotiation and bilateral inter-agency coordination. However, 
the transportation corridor is fully complete on the South side, while 
on the North side we see no progress whatsoever.
    The 1953 Armistice Agreement authorizes the Commander In Chief, 
United Nations Command (CINC UNC) jurisdiction authority over the 
Southern portion of the Demilitarized Zone. To facilitate work on the 
transportation corridor, acting as the CINC UNC, I have delegated 
administrative oversight to the South Korean Ministry of Defense. Close 
cooperation between United Nations Command and the South Korean 
Ministry of National Defense has guaranteed a powerful defense is 
active and in place, and will continue to ensure sufficient levels of 
security in the DMZ during de-mining, corridor construction and future 
operation. As we work closely with North Korea over issues concerning 
access and commerce in this corridor, we will continue to insist that 
all actions, and all confidence-building measures (CBMs) are both 
reciprocal and transparent. I am proud to report that our year-long 
Confidence Building Measures study has strengthened our alliance and 
has produced verifiable options to reduce tension if North Korea will 
only take the same steps. This is exactly the type of armistice issue 
that the UNC seeks to resolve carefully with all our UNC allies and 
coalition partners.
    (4) Improve Quality of Life--As stated in President Bush's 
statement A Blueprint for New Beginnings ``. . ., we cannot honor our 
servicemen and women and yet allow substandard housing levels to 
endure.'' The Korean peninsula faces significant shortfalls in both 
family housing and barracks and has identified substandard living and 
working conditions in most areas. Our facilities are old--32 percent of 
all buildings in the command are between 25 and 50 years old and 32 
percent are classified as temporary buildings. The investment 
philosophy of ``50 years of presence in Korea . . . 1 year at a time,'' 
without a continuous and sustained commitment, has taken a severe toll 
on our housing, infrastructure, and morale.
    Our goal is a quality of life that is comparable to other overseas 
assignments. We want to make a tour of duty in Korea an ``assignment of 
choice'' by providing the best quality of life possible. A Korea 
assignment today involves some of the poorest living and working 
conditions of any permanent change of station (PCS) assignment in the 
military. According to current studies, ``Army assignment experts 
report that Korea is their only problematic assignment location for 
both officers and enlisted personnel . . . the Army must nominate many 
enlisted members to fill a single vacancy in Korea . . . the Army must 
contact several officers in order to fill one officer vacancy in 
Korea.'' While no confirmation data was provided by the Air Force, 
``assignment policy experts opined that Korea and Turkey are the least 
desirable locations in their overseas assignment inventory.'' We must 
improve both the housing and barracks living conditions for our 
personnel and their families to reach our ``assignment of choice'' and 
``quality of life'' goals. We appreciate Congress's assistance in 
helping improve the grim conditions regarding housing throughout this 
command. Yet over 95 percent of the currently assigned and accompanied 
service members and their families live in inadequate and substandard 
quarters. Furthermore, over 50 percent of the unaccompanied service 
members in U.S. Forces Korea live in inadequate quarters. Overcrowded 
facilities force us to billet many unaccompanied personnel outside our 
installations in dense urban areas, creating force protection concerns 
and imposing a high financial burden on them from out-of-pocket living 
expenses. Investment in USFK facilities has declined as a result of 
constrained defense budgets and competing requirements. Now we see 
growth in the backlog of work necessary to maintain the readiness edge 
we established in past years. We must balance overseas funding among 
the priorities of people, readiness, modernization, and infrastructure. 
Because of past funding shortfalls, we are at a breaking point. We 
cannot continue to mortgage this aspect of our force readiness without 
significant long-term effects. Accordingly, we are finalizing a budget 
that will meet this challenge. Meanwhile, the expectations of our 
commanders, our people, and our families remain high as they urge us to 
balance direct mission support and quality-of-life efforts in the face 
of aging infrastructure and very constrained budgets.
    We recognize that quality-of-life and readiness also extends into 
the workplace environment. Deteriorating work facilities impair 
readiness, reduce the efficiency of uniformed and civilian workers, and 
lowers retention rates of highly qualified and otherwise motivated 
people. Our Sustainment, Restoration, and Modernization (SRM) funding 
levels have only allowed us to provide day-to-day critical maintenance 
of our work facilities and infrastructure and does not allow us to 
address our SRM backlog. To illustrate the hardship this causes, let's 
look at an airman whose job is to maintain an F-15 engine, a soldier 
maintaining an Apache attack helicopter and a mechanic fixing a 
fighting vehicle. They may work in a hangar where the roof leaks or 
they may repair vehicles in the freezing cold. In these conditions they 
are often distracted from fixing the F-15 engine, the Apache helicopter 
or the fighting vehicle. This has both a quality-of-life implication as 
well as a readiness impact. When our service members are distracted 
from accomplishing their primary mission, our readiness suffers. Our 
Soldiers and Airmen see this as quality-of-life issue, and they are 
frustrated that they have to spend an increasing amount of time on non-
productive efforts. They assume that their leaders do not care! The 
Department of Defense spends millions of dollars training these young 
men and women to work on sophisticated equipment, yet they are required 
to work many non-productive hours tending to their run-down workplaces. 
I think we're losing the battle to maintain the high standards our 
people have come to expect. Aging facilities are more costly to 
maintain. Continued disrepair exacerbates an already serious problem 
and impacts readiness, especially when coupled with a high operational 
tempo and harsh conditions, such as we experience daily in Korea.
    With the high operational tempo and the increasing number of 
married members, we recognize an integral link between family readiness 
and total force readiness. A key element of our quality of life 
initiative is our goal to provide safe, adequate housing for our 
personnel and their families. We firmly believe providing quality 
accommodations improves our members' quality of life, increases their 
satisfaction with military service and ultimately leads to increased 
readiness and retention. Indeed, Korea's uniqueness as a yearlong 
unaccompanied tour has been purchased at a great price. We provide 
government owned and leased housing for only 1,979 personnel--less than 
10 percent of our married service members serving in Korea--compared to 
more than 70 percent in Europe and Japan.
    Our goal is to increase the command-sponsored rate for Korea and to 
house at least 25 percent of our married military members and their 
families by 2010. This initiative will require additional resources and 
support. If we were to address this shortfall, and meet this increased 
demand for housing with traditional military construction alone, it 
would cost the U.S. taxpayer $900 million. Under our comprehensive LPP, 
utilizing Host Nation Funded Construction and cost savings achieved 
with base consolidation, we can cut this cost in half. In order to 
obtain the remaining capital investment required, we plan to use 
existing build-to-lease authority, and leverage the Korean private 
sector to obtain an additional 2,000 units. If we can get help to raise 
the existing statutory per/unit cost limitation from $25,000 to $35,000 
per/unit for overseas leased family housing, we will develop these 
2,000 units at no additional cost to the U.S. taxpayer! With your help, 
we will realize our vision for improving the housing situation in 
Korea, and we will minimize the financial burden on the U.S. Congress.
    We will also improve the quality of our existing housing in fiscal 
year 2003 by continuing our phased renovation and conversion of housing 
units located in Hannam Village in Seoul. We began last year with your 
support and the results have been outstanding. The enthusiasm of the 
occupants over these improvements is spreading across the Korean 
peninsula. They see first hand our efforts to make a difference.
    Unaccompanied Housing Improvements also remain a critical priority. 
Our objective is to provide enlisted service members with quality 
housing by the Department of Defense mandated date of 2008. We have two 
long-range planning tools to guide our investments: The Air Force 
Dormitory Master Plan and Army Barracks Upgrade and Buyout Plan. These 
planning tools have and will continue to guide us in providing quality 
living conditions for our unaccompanied service members allowing us to 
use our limited funds where they are needed the most and at the same 
time keeping our good units good. On-going renovations will continue to 
ensure we provide quality living facilities, however based on our plans 
we still short of our total requirement. The current upgrade plans do 
not cover senior enlisted soldiers. Adequate housing for unaccompanied 
senior enlisted soldiers (E7--E9) and officers is urgently needed as 
well. Unlike CONUS Army units, all Second Infantry Division soldiers, 
including senior enlisted and officers, are required to live on post. 
Eighth Army's shortfall for senior enlisted and officers housing is 
3,100 quarters for E7--E9 and 2,800 for officers. Adequate housing for 
these service-members has been neglected for too long. We urgently need 
to continue our efforts and Congress can help to support this 
responsibility by funding the $81 million MILCON requirement beginning 
in fiscal year 2003.
    Infrastructure Maintenance and Repair is required immediately. 
Funding increases in MILCON for infrastructure upgrades have helped 
USFK to improve conditions not only in our barracks and dormitories, 
but also in other traditional quality-of-life facilities such as 
physical fitness centers. We greatly appreciate your support. However, 
we still have a lot of work to do. The master plans mentioned earlier, 
addressing family housing, barracks and dormitories, respectively, have 
been extremely valuable tools in helping to focus and guide our 
actions. Accordingly, we have just added to our arsenal a Physical 
Fitness Center Master Plan and a Maintenance Facility Master Plan. 
Together, these plans guide us toward wise investments in our most 
urgent quality of life requirements. We need to replace or upgrade 52 
maintenance facilities and 17 physical fitness centers. To begin buying 
out this requirement in fiscal year 2003, we intend to use $21 million 
from the Host Nation Funded Construction program for the maintenance 
facilities. To correct other quality of life and infrastructure 
deficiencies, we need to further address military construction. The 
funding Congress provided in fiscal year 2002 will enable us improve 
infrastructure, facilities and barracks across the peninsula. We will 
continue this effort by applying the remaining $171 million of Host 
Nation Funded Construction money against this improvement effort.
    As part of this comprehensive plan, USFK must demonstrate its 
unwavering commitment to protecting the health of Korean and U.S. 
personnel, while preserving the environment everyday. USFK continues to 
wrestle with environmental protection and problem mitigation programs 
given the age and poor condition of our infrastructure. The number of 
environmental incidents is on the rise in the past year due to failed 
infrastructure and lack of maintenance. Our most immediate 
environmental concern is with the command's aging underground storage 
and heating oil tanks. The cost to remove and replace these tanks will 
be $133 million, but it will be spread over several years.
    Although we have a solid, attainable, and comprehensive self-help 
plan to make service in Korea an assignment of choice for our service 
members, it will take 10 or more years to complete. In the interim, we 
must provide fair incentives to those who serve in the inadequate 
working and living conditions to close the quality of life gap that 
exists today between military service in Korea and service in either 
the continental United States or other overseas locations. To do this, 
we ask that you increase the pay and allowances of military members 
that serve in the Republic of Korea. We have an essential requirement 
to recruit and retain skilled military personnel. We need to continue 
the effort to adequately compensate our people for their service. 
Unlike most American businesses, we financially penalize our military 
members for Korean service. While our service members are motivated by 
much more than money, pay and morale are nonetheless linked. Service 
members want and deserve equal pay for substantially equal work under 
the same general conditions. In addition to an average cost of $3,000 
to $5,000 of out-of-pocket ``hidden 2nd household'' expenses for a 1 
year unaccompanied tour in Korea, our forces see a basic pay inequity 
between their deployment here and equally harsh, but shorter tours to 
southwest Asia and the Balkans. For example, an Army Sergeant (E5) 
serving only a 6-month tour in Bosnia receives approximately $500 per 
month more than an E5 in Korea who is separated from his family for 12 
months. The difference results from tax relief and separate rations 
benefits received by those who faithfully serve in the Balkans--
entitlements that do not now apply to a typical Korean tour of duty. We 
need your help to level the playing field by providing compensation 
such as a Balkans or Kuwaiti tour provides.

                       CONCLUSION--THE ROAD AHEAD

    The ROK-U.S. Alliance is built on the principle of Katchi-
Kapshida--``We Go Together!'' Simply put, we have fought a war and kept 
the peace for over 50 years as a combined team. As we prepare for the 
future, both USFK and the ROK military are reviewing their 
modernization plans and transforming our militaries into a 
capabilities-based force. We are looking at new organizational 
structures that will increase our effectiveness, improve our combined 
doctrine and take advantage of new equipment. As we modernize together, 
we must identify complimentary capabilities that support regional 
security and one that helps both the American and Korean militaries to 
focus critical resources on the most cost effective capability.
    Despite the unprecedented June 2000 summit between North and South 
Korea, there is still no ``peace dividend.'' This posture statement 
reflects our efforts to optimize USFK's presence in the most efficient 
manner to meet both current and future missions. For many years, our 
funding requirement statements have merely reflected OMA incremental 
increases over a baseline. Candidly, as a result, we have looked at 
Korea ``one year at a time.'' The result is that we still have 
substandard living and working conditions for our service members that 
are having an adverse effect on the readiness and a significant impact 
on long-term retention. As a commander, I am ashamed of how I ask our 
service members to live and work.
    In conclusion, we would like to leave you with six thoughts:
    First, we want to emphasize that the support of Congress and the 
American people is vitally important to our future in Korea. We thank 
you for all you have done. However, we must also ensure that our 
resolve is consistent and visible so that North Korea, or any other 
potential adversary, cannot misinterpret it. We urge committee members 
to come to Korea and see first-hand the importance of the American 
military presence and the strength and vitality of the United States--
Republic of Korea alliance.
    Second, the North Korean military continues to adapt its non-
conventional threat and conduct large-scale training exercises in spite 
of severe economic problems and a perception of a thawing relationship 
between North and South Korea. North Korea's continued growth in 
military capability and their implied intent amounts to a continued 
significant threat. Now, more than ever, the strength of the Republic 
of Korea--United States alliance, built on a foundation of teamwork and 
combined training, provides both nations with a powerful deterrent as 
well as the readiness to fight and win. The North Korean threat to 
peace and stability in Northeast Asia will not fundamentally diminish 
until the North engages in tangible military confidence building 
measures that are reciprocal and transparent.
    Third, now and in the future, the U.S. and Northeast Asian nations 
cannot secure their interests and economic prosperity without credible 
air/land/sea forces in Korea. Presence is essential to security, 
commitment to long-standing friends, and access into the region. As the 
only presence on the mainland of East Asia, U.S. forces in Korea will 
likely play a vital role in the future peace and stability of the 
region. The U.S. forces in Korea require a continued investment in 
basic readiness and quality of life, even if our role shifts from North 
Korea to a regional focus.
    Fourth, achieving our vision and accomplishing our missions 
requires us to prioritize scarce resources. For U.S. Forces serving in 
Korea, the number one command priority remains improving C\4\I 
functionality. We urgently need your help in order to achieve the 
information age advantage that network-centric warfare systems will 
provide. Second, we need a solid inventory of readily available 
precision-guided munitions on the peninsula. Lastly, now and in the 
future, if we are to sustain our Combat Readiness it must be balanced 
and tempered with a quality-of-life that is commensurate with other 
duty locations throughout the world. A First Class Military requires 
First Rate Facilities. As the only presence on the mainland of East 
Asia, U.S. forces in Korea will likely play a vital role in the future 
peace and stability of the region. The U.S. forces in Korea require 
critical investment in basic readiness and quality-of-life now. The 
Land Partnership Plan, that we hope to have ratified by both 
governments by 15 March, 2002, will put us on the proper course to 
improve the Quality-of-Life for U.S. Forces in Korea and their 
families.
    Fifth, this is the third year of commemorations recognizing the 
significance of the 50th Anniversary of the Korean War, viewed by many 
of our veterans as the ``forgotten war.'' We are committed to honoring 
the brave veterans, living and dead, and hope you can join us in Korea 
for these commemorations to remember their sacrifice.
    Finally, you can be justifiably proud of all the exceptional things 
the soldiers, sailors, airmen, marines, and Defense Department 
civilians continue to do with great spirit and conviction. They remain 
our most valuable asset. They sacrifice for our Nation every day. This 
is why we remain so firm that we owe all those who faithfully serve 
proper resources for training, an adequate quality of life, and a 
quality infrastructure. Again, thank you for this opportunity to share 
our thoughts with you. 

    Senator Reed. Thank you, General Schwartz.
    General Speer.

STATEMENT OF MAJ. GEN. GARY D. SPEER, USA, ACTING COMMANDER IN 
             CHIEF, UNITED STATES SOUTHERN COMMAND

    General Speer. Senator Warner, distinguished members of the 
committee: Thank you for the opportunity to allow me to 
represent United States Southern Command here today and provide 
for you the command's posture. A special thanks to Senator 
Nelson, Senator Inhofe, and Senator Sessions for your recent 
trip to Guantanamo Bay, Cuba, to see first-hand the great work 
of the men and women of Joint Task Force 160 in the difficult 
circumstances of our detainee operations.
    But also, thanks to all the members of the committee for 
your unwavering support of United States Southern Command, and 
today a special thanks for your support of the men and women in 
uniform around the world.
    Latin America and the Caribbean make up a very important 
region for the United States. It is a region of growing 
importance and significance, based on demographics, trade, 
natural resources such as oil, and, if nothing else, its 
proximity to the United States at large.
    The last quarter century represents tremendous progress in 
this region, a progress aimed toward building a hemisphere 
composed of a community of democratic nations. Much of the 
credit is due to the men and women of the U.S. military who 
have served in the region during that time. What they have done 
through day-to-day interaction, (joint training, exercises, and 
the opportunities for professional military education in the 
United States for foreign officers and noncommissioned 
officers) is to provide a role model for the proper conduct of 
a military in a democratic society, one that respects the rule 
of law, understands human rights, and is subordinate to civil 
authority.
    All of that set the conditions for the transformation which 
today marks 31 of 32 countries in the area of operations that 
have democratically elected governments. But many of those 
democracies are still fragile. There are challenges that we see 
stemming from instability and corruption, as a result of drugs 
and arms trafficking, illegal migration, organized crime, 
terrorism, and other transnational threats.
    Since 11 September we too at SOUTHCOM have been focused on 
the global war on terrorism. While I cannot tell you that there 
are any confirmed links to al Qaeda originating from Latin 
America, I can tell you that in the tri-border area of Brazil, 
Paraguay, and Argentina there are individuals who have links to 
Hamas, Hezbollah, and al Gama'at. They are terrorist supporters 
in that they provide the resources and funnel funds back to 
those organizations.
    Elsewhere in the theater, there are several domestic groups 
which exact terror on the population through extortion, 
kidnapping, and other acts of violence. Certainly as we look to 
Colombia, I am proud to tell you that we are doing a great job 
in executing the Department of Defense's role in supporting 
Plan Colombia. But certainly, as mentioned earlier, President 
Pastrana's elimination of the Despeje on 20 February changes 
the landscape in that country.
    The Colombian military has done a good job protecting 
civilians as they move to reoccupy the population centers of 
the Despeje. But as we look to the future, the Colombian 
military and the Colombian police lack the resources to fully 
reestablish a safe and secure environment throughout the 
countryside.
    As we continue to look at these challenges at United States 
Southern Command, we will continue with a very comprehensive 
security cooperation plan aimed at every country in the AOR. 
But some of the regional militaries and security forces lack 
the capabilities to fully safeguard their borders against these 
trans-national threats, much less to be full participants in 
regional security cooperation.
    For example, over the last decade security assistance 
through foreign military financing has been insufficient to 
even satisfy the sustainment requirements for the aircraft and 
the equipment that the United States has provided, much less to 
address legitimate modernization needs throughout the region 
and new initiatives that respond to changing challenges.
    The United States Southern Command has some shortfalls 
operationally. Even with the assistance of the Department of 
Defense and the Joint Staff, Intelligence, Surveillance, and 
Reconnaissance (ISR) allocations for Southern Command are 
insufficient to meet the intelligence requirements that we have 
for the missions assigned and for anticipated contingencies. To 
a certain degree, many of those ISR assets that are assigned to 
us are restricted by the source of the funding or the locations 
from which they operate, further limiting their effectiveness 
at meeting the intelligence requirements throughout the region.
    In summary, Latin America and the Caribbean is a growing 
important region for the United States, but it is a region with 
some serious challenges. I thank the members of the committee 
for your continued support of United States Southern Command as 
we try to address the challenges and preserve the gains of the 
past 25 years. Thank you again for the opportunity to be here 
today. I look forward to your questions.
    [The prepared statement of Major General Speer follows:]

           Prepared Statement by Maj. Gen. Gary D. Speer, USA

    Mr. Chairman, Senator Warner, and members of the committee, I am 
honored to appear before you today to present United States Southern 
Command's current posture, role in the global war on terrorism, and 
long-term strategic objectives. On behalf of the men and women deployed 
to the Naval Base at Guantanamo Bay, I extend a personal thanks to 
Senators Nelson, Inhofe, and Sessions for your recent trip to observe 
the efforts of your Armed Forces as they ensure maximum security and 
humane treatment for the detainees. To all Members of the committee, 
thank you for your unwavering support to United States Southern 
Command.
    I have served as the acting Commander in Chief since October 1, 
2001 when General Pace assumed the position of Vice Chairman of the 
Joint Chiefs of Staff. I welcome the opportunity to provide my 
assessment of this outstanding command to the United States Congress.
    During the past 25 years, nations of our hemisphere have made 
substantial progress toward achieving peace through democratically 
elected governments, economic development, and the subordination of the 
military to civilian authority. However, nations in Latin America and 
the Caribbean are currently struggling with economic and political 
instability, corruption, institutional weakness, high unemployment and 
crime, while simultaneously facing the challenges of terrorism, drug 
trafficking, and other illicit transnational activities. We must remain 
active in assisting these countries to maintain stability, promote 
prosperity, and enhance regional cooperation in this area of 
significant strategic importance to the United States while we execute 
the global war on terrorism.

                  STRATEGIC IMPORTANCE AND ASSESSMENT

    The Southern Command area of responsibility encompasses one sixth 
of the world's landmass and includes 32 countries and 14 protectorates 
throughout Latin America and the Caribbean. The United States has 
strong economic, strategic, cultural, and security ties to Latin 
America and the Caribbean, which are of significant importance to our 
national security.
    Today, more than 40 percent of our trade is conducted within the 
Western Hemisphere, and 49 cents out of every dollar spent on imports 
in the region goes to the purchase of United States goods and services. 
By 2010, trade within the hemisphere is expected to exceed our trade 
with Europe and Japan combined.
    An area rich in natural resources, 35 percent of United States oil 
comes from Latin America and the Caribbean, more than all Middle 
Eastern countries combined. Latin America is critical to the global 
environment as the Amazon Basin produces 20 percent of the world's 
freshwater runoff and 25 percent of the world's oxygen. Also, 25 
percent of United States pharmaceuticals are derived from sources in 
this same area.
    In addition to strong economic and strategic ties to the region, we 
have increasingly important cultural ties. United States citizens of 
Hispanic descent are now the largest and fastest growing minority in 
our country and constitute the world's fifth largest Spanish-speaking 
population. These new immigrants from Latin America and the Caribbean 
maintain strong cultural ties to their families in their countries of 
origin. If present trends continue, by 2047, one out of every four 
United States residents will be of Hispanic descent.
    Contrary to the common perception, this is not a homogeneous 
region, united by a common language or culture. Instead, it is a region 
of very diverse populations, economies, languages, cultures, histories, 
and traditions. We must recognize this diversity and foster security 
cooperation with every country to minimize the increasing possibility 
of creating security voids that may be filled by other countries, or 
exploited by transnational threats.

                          SECURITY ENVIRONMENT

    Without a clear or imminent external threat, Latin American and 
Caribbean nations are essentially at peace with their neighbors. All 
countries, except for Cuba, have democratically elected governments. 
However, many of these democratic institutions remain fragile, and 
economic development in some countries is in danger. The transnational 
threats of terrorism, drug and arms trafficking, illegal migration, and 
international organized crime constitute the greatest challenge to 
security and stability in the region. Governments are feeling the 
strain of weak economies, rampant corruption, ineffective judicial 
systems, and growing discontent of the people as democratic and 
economic reforms fall short of expectations.
    Transnational threats in the region are increasingly linked as they 
share common infrastructure, transit patterns, corrupting means, and 
illicit mechanisms. As President Bush recently stated, ``it's so 
important for Americans to know that the traffic in drugs finances the 
work of terror, sustaining terrorists--that terrorists use drug profits 
to fund their cells to commit acts of murder.''
Terrorism
    Southern Command recognized a viable terrorist threat in Latin 
America long before September 11. If not further exposed and removed, 
that threat poses a serious potential risk to our own national security 
as well as to our hemispheric neighbors. Domestic terrorist 
organizations threaten security and stability in the region with a 
demonstrated capability to execute bombings, kidnappings, extortion, 
and assassinations. Additionally, individuals within the region have 
been linked to transnational terrorist organizations including 
Hizballah, HAMAS, Islamyya al Gama'at (IG), the Irish Republican Army 
(IRA) and the Basque Fatherland and Liberty (ETA). At Southern Command, 
we have been monitoring terrorist activities for years with such 
incidents as the bombing of the Israeli Embassy in 1992 and Jewish-
Argentine Cultural Center in Argentina in 1994 attributed to Hizballah, 
the capture of the Japanese Ambassador's residence by the Tupac Amaru 
Revolutionary Movements (MRTA) in Peru in 1996, and the pattern of 
narco-terrorism in Colombia.
    In recent years, international terrorist groups have turned to some 
Latin American countries as safe havens for support bases that sustain 
worldwide operations. As an example, the tri-border area of Argentina, 
Brazil, and Paraguay serves as a base of support for Islamic Radical 
Groups, such as Hizballah, HAMAS, and Islamaya al Gama'at. These 
organizations generate revenue in the tri-border area through illicit 
activities that include drugs and arms trafficking, counterfeiting, 
money laundering, forged travel documents, and even software and music 
piracy. Additionally, these organizations provide safe havens and 
assistance to other terrorists that transit the region.
    The Revolutionary Armed Forces of Colombia (FARC), the National 
Liberation Army of Colombia (ELN) and the United Self Defense Group of 
Colombia (AUC) are all on the State Department's list of Foreign 
Terrorist Organizations. The FARC has been implicated in kidnappings 
and attacks against United States citizens and interests, to include 
the murder of three U.S. citizens in 1998. Notwithstanding the 
Government of Colombia's eleventh hour extension of the FARC's ``safe 
haven'' in January, the FARC recently initiated a national terror 
campaign with more than 85 attacks since January 20 against the 
Nation's infrastructure, security forces, and cities. These attacks 
ultimately prompted President Pastrana to suspend the ``safe haven,'' 
and initiate operations to occupy the area.
    The FARC and ELN are also active in carrying out attacks against 
Colombia's energy infrastructure. Attacks on the Cano Limon-Covenas 
pipeline cost the Government of Colombia more than $40 million per 
month in revenues when the pipeline is not operational. During 2001, 
the pipeline was offline for more than 266 days.
    Other domestic terrorist groups pose similar local threats, 
elsewhere in the hemisphere, such as the Sendero Luminoso (Shining 
Path) and Tupac Amaru Revolutionary Movement (MRTA) in Peru and the 
Jama'at al Muslimeen (JAM) in Trinidad and Tobago.
Illegal Migration
    Latin America and the Caribbean are major avenues for worldwide 
illegal migration. This migration creates economic and social 
imbalances that strain the effective rule of governments in the region. 
Illegal migration and human smuggling operations are linked to drugs 
and arms trafficking, corruption, organized crime, and the possibility 
for the movement of members of terrorist organizations.
    According to the Census Bureau's latest figures, more than eight 
million illegal immigrants reside in the United States; 2 million of 
them are from this hemisphere. The United States Immigration and 
Naturalization Service estimates more than 300,000 illegal immigrants 
annually originate in, or transit through Central American countries 
destined for the United States. Also, many Chinese illegal immigrants 
destined for the U.S. transit through Suriname. Human trafficking is 
highly profitable and provides revenue of more than $1 billion annually 
to smuggling organizations within the region. Further, human 
trafficking provides the means of entry into the U.S. for potentially 
dangerous individuals.
Arms Trafficking
    Although Latin America and the Caribbean spend less than any other 
region on legal arms purchases, illegal arms sales pose a significant 
threat to the stability of the region. Of particular concern is the 
rising trend in which Drug Trafficking Organizations exchange drugs for 
arms, which are then provided to terrorist organizations such as the 
FARC, ELN, and AUC in Colombia. Illegal arms originate from throughout 
the world and transit through the porous borders of many of Colombia's 
neighbors. Arms traffickers use a variety of land, maritime, and air 
routes that often mirror drug and human trafficking networks.
Drug Trafficking
    Illegal drugs inflict an enormous toll on the people and economy of 
the United States and our hemispheric neighbors, and appropriately, 
have often been characterized as a weapon of mass destruction. 
According to the latest Office of National Drug Control Policy figures, 
drug abuse killed 19,227 Americans and accounted for $143.4 billion in 
expenses and lost revenue (1998 figures). The majority of cocaine and 
heroin entering the United States is produced in the Andean Ridge.
    Drug trafficking persists as a corrosive threat to the democracy, 
stability, and prosperity of nations within the region, especially in 
the Andean Ridge, adversely affecting societies and economies as scarce 
resources are diverted to rehabilitation, interdiction, and crime 
prevention efforts. Drug trafficking generates violence, fosters crime, 
and corrupts public institutions. Increasingly, terrorist organizations 
support themselves through drug trafficking. This trend is particularly 
troubling in Colombia where we find clear connections between drug 
trafficking, guerrillas, and terrorist activities.
    Although we have seen some success in reducing production in the 
source zone and interdicting shipments in the transit zone, supply 
continues to exceed demand. Partner nations are willing to work with us 
to develop regional approaches to counter the production and 
trafficking of illegal drugs; but effective and sustainable counterdrug 
operations are beyond the capabilities of their thinly stretched 
security forces. United States counterdrug assistance to security 
forces helps Colombia and other nations in the region develop more 
effective counterdrug capabilities; however, drug trafficking 
organizations have shown considerable flexibility in adjusting their 
operations in reaction to counterdrug efforts. These small, efficient, 
and well-financed drug trafficking organizations will rapidly change 
the place of production, transport routes, points of transshipment, and 
markets when eradication or interdiction programs achieve success.

                        GLOBAL WAR ON TERRORISM

Global Campaign
    Since September 11, our clear priority has been on the planning, 
coordination, and execution to support the global war on terrorism. Our 
objectives are to disrupt and destroy global terrorist organizations, 
eliminate havens for terrorists, prevent terrorist access to weapons of 
mass destruction, and assist partner nations in attaining the 
capability to prevent the resurgence of terrorist groups within the 
region. Prosecuting this campaign requires an attack on those very same 
threats that challenge the security and stability of the region. We 
forged an integrated effort with other United States Government 
agencies and partner nations to defeat terrorists and their supporters; 
interdict their means including drug trafficking, arms trafficking, 
money laundering, and financial backing; and eliminate their freedom of 
movement by arresting and prosecuting their corrupt officials, 
disrupting trade in false documents, and interdicting illegal 
migration. We center our efforts on working with our partner nations in 
information sharing, enhancing skills to combat terrorism through 
bilateral training, planning assistance, and equipping; and integrating 
the efforts of the interagency region-wide. Expanding on our pre-
existing interagency relationships from counternarcotics, our 
coordination and cooperation with the interagency has been outstanding 
and is paramount to prosecuting a successful campaign.
Joint Task Forces 160 and 170 Operations
    Although we are executing our campaign plan to combat terrorism 
throughout the area of responsibility, our most visible efforts are the 
detainee operations executed by Joint Task Force 160 (JTF-160) and 
Joint Task Force 170 (JTF-170) at Guantanamo Bay, Cuba. On January 4, 
2002, we received the execute order to take custody of designated 
detainees within the United States Central Command area of 
responsibility, and to escort and hold the detainees at Guantanamo Bay 
for further disposition. The commander of JTF-160 and elements of his 
staff began arriving on January 6 with the first detainees arriving on 
January 11. Currently, 300 detainees are being held at Guantanamo Bay.
    With the requirement to begin housing detainees within 96 hours of 
the execute order, JTF-160 immediately began to upgrade existing 
facilities to a total of 320 short-term detention units at a temporary 
holding facility designated Camp X-Ray. Camp X-Ray also has facilities 
for interrogation, security forces, administration, and medical care. 
On February 13, the Secretary of Defense notified Congress of our 
intent to expend $20.6 million for the design and construction of an 
interim, modular, detention facility of 408 units. We expect the 
construction to begin in March and anticipate completion by mid-April.
    JTF-160 is currently manned by a multi-service organization 
augmented by various interagency representatives. In addition to 
holding the detainees, the Secretary of Defense directed Southern 
Command on January 21 to implement a Department of Defense/Interagency 
interrogation effort. As a result, Southern Command established the 
Joint Interagency Interrogation Facility (JIIF) on January 22 and 
immediately began interrogations focused on intelligence collection, 
force protection, and planned terrorist activities. This interrogation 
effort also supports law enforcement agencies, and tribunal efforts. On 
February 16, Southern Command received an execute order and stood up 
JTF-170 to coordinate U.S. military and government agency interrogation 
efforts in support of Operation Enduring Freedom.
    As a group, the detainees pose an unprecedented security risk to 
those responsible for guarding them as well as to each other, evidenced 
by detainee uprisings at Mazir-i-Sharif and at the Pakistani border. As 
your colleagues have seen first-hand, within necessary security 
measures, the detainees are treated humanely, consistent with the 
provisions of the Geneva Convention. All detainees are provided three 
meals daily that meet Muslim dietary laws, medical care, clothing, 
shelter, showers, soap and toilet articles, foam sleeping pads and 
sheets, towels, prayer mats, and washcloths. They have the opportunity 
to worship, are provided correspondence materials and have the ability 
to send mail. The U.S. Navy deployed a fleet hospital with a capacity 
to care for 20 inpatient detainees. The hospital has a pharmacy and 
laboratory and is capable of providing intensive care, x-rays, surgery, 
and postoperative treatment. To date, the medical staff has performed 
thirty-four surgical procedures for the detainees.
    Staff members of the International Committee of the Red Cross 
(ICRC) have been at Guantanamo Bay since January 18. They will continue 
to visit the detainees privately and submit comments and suggestions to 
the Commander of JTF-160. We view continuous ICRC access to the 
detainees as a necessary and helpful measure. The ICRC is the only 
International Organization or Non-Governmental Organization authorized 
to have direct contact with the detainees.

                          SECURITY COOPERATION

    Given the increased importance and geographic proximity of the 
region, our theater security cooperation focuses on activities 
conducted with friendly nations that advance mutual defense or security 
arrangements, build capabilities for self-defense, and enable coalition 
operations while affording our forces greater access, if needed, during 
crisis response. Southern Command security cooperation seeks to expand 
United States influence and to reassure our friends while dissuading 
and deterring potential adversaries. At the same time, Southern Command 
remains focused on the development of strategic partnerships that will 
promote security and stability in Latin America and the Caribbean.
    The strategic goals we seek to achieve within the area of 
operations are to develop multilateral regional cooperation that 
creates and sustains the positive trends toward democracy, stability, 
and economic prosperity that marked the past quarter century. 
Historically, our engagement focused on democratization through the 
professionalism of the armed forces, national security, humanitarian 
assistance and disaster preparedness, peacekeeping, transnational 
threats and counterdrug operations. Continued engagement in these areas 
lays the foundation for expanded cooperation in countering terrorism 
and enhancing regional cooperation.
    Southern Command works to foster respect for the rule of law, human 
rights, civilian control of the military, and support for democratic 
ideals through a robust legal engagement program. We annually 
coordinate and direct more than 30 military-to-military legal 
engagement activities. Specific goals include the creation of a 
military legal corps, reform of military justice codes and procedures, 
human rights and law of war education, and the inclusion of military 
lawyers in the planning and execution of military operations.
    Similar initiatives for professionalization of the military and 
security forces and regional cooperation exists in other disciplines 
such as medical, public affairs, civil affairs, engineers activities, 
and information sharing.
    The most visible successes in our security cooperation program are 
engineer and medical projects executed during New Horizons exercise 
deployments under our Humanitarian and Civic Assistance (HCA) program. 
These projects routinely include school and clinic construction; water 
well drilling; and medical, dental, and veterinary outreach to local 
citizens. In addition to providing substantial training benefit to U.S. 
forces by deploying, training, and operating in foreign and austere 
environments, these exercises establish strong relationships with the 
region's militaries and engender goodwill toward the United States. 
Last year, our HCA effort numbered 109 projects in fifteen countries.
    In a region often plagued by natural disasters, our security 
cooperation program also aims at improving partner nation disaster 
response capabilities. We use Exercise Fuerzas Aliadas (FA) or Allied 
Forces Humanitarian to focus on disaster preparedness and military 
support to civilian authorities when disaster strikes. This makes 
partner nations less dependent on the United States during times of 
response, precluding the necessity to deploy our troops and resources. 
The commendable reaction by the Armed Forces of El Salvador to last 
year's devastating earthquakes is a testament to the success of this 
program and justifies maintaining it as a priority. Further, as an 
example of regional cooperation, the militaries of Nicaragua, Honduras, 
and Guatemala deployed troops to assist El Salvador, executing in 
actual crisis response the scenarios played out in our exercise 
program.
    Southern Command executes separate service deployments throughout 
the area of responsibility. This year, we will have 193 deployments 
that will include combating terrorism and counterdrug training; small 
unit exchanges; air combat and tactical airlift; and search and rescue 
operations. These activities enhance the readiness and proficiency of 
our forces, build military-to-military relationships, improve host 
nation capabilities, and provide access for our forces should a need 
arise.
    A significant part of our security cooperation efforts go to 
exercises and training aimed at enhancing our partner nation's 
counterdrug capabilities. Our instrument for executing counterdrug 
operations is Southern Command's Joint Interagency Task Force East 
(JIATF-E), at Key West, Florida.
    JIATF-E is a full time interagency coordinator of maritime and air 
interdiction operations while exercising tactical control of all 
detection and monitoring assets in the region. During the past year, 
JIATF-E achieved continued success with counterdrug operations in the 
transit zone. Despite a significant reduction in assets after September 
11, JIATF-E continues to provide planning and tactical command for more 
than 30 concentrated counterdrug operations annually. In 2001, JIATF-E 
supported cocaine seizures increased by more than 50 percent over 2000 
levels. This year, JIATF-E is again experiencing record cocaine 
seizures, particularly in the eastern Pacific. During a 2-day period in 
February, 14.5 metric tons of cocaine, worth $174.4 million in Miami 
street value, was seized in the eastern Pacific. Additionally, during a 
recent combined counterdrug operation with Guatemala, 2.4 metric tons 
of cocaine was seized in the eastern Pacific, and over 200,000 
marijuana plants eradicated.
Andean Ridge
    No other region is suffering the destabilizing effects of 
transnational threats more than the Andean Ridge countries. Southern 
Command's efforts in this region are aimed at counterdrug operations, 
sustaining democracy, professionalizing militaries (to include legal 
reform within the Colombian military), and combating transnational 
threats. We are cooperating with security forces of each Andean Ridge 
nation to build more effective counternarcotics capabilities.
    The violence in Colombia remains a significant threat to the region 
as the nexus of guerrillas, terrorists, drug-traffickers, and illegal 
self-defense forces has severely stressed the government's ability to 
exercise sovereignty and maintain security. We have seen movements by 
illegal defense forces and insurgents into neighboring countries 
including Panama, Ecuador, and Venezuela. In addition, neighboring 
countries remain transshipment points for arms and drugs entering and 
exiting Colombia.
    From a military perspective, President Pastrana's decision on 
February 23 to suspend the FARC's ``safe haven'' and reoccupy the area 
was the right move. The FARC was using the ``safe haven'' as an area to 
support their drug trafficking operations, launch terrorist attacks, 
and recruit and train their forces. The Colombian military has 
aggressively initiated operations to occupy the area. We have also 
received increased requests of support from the Government of Colombia.
    We continue to execute the Department of Defense's support to Plan 
Colombia, President Pastrana's long-term national security plan. Our 
efforts in Colombia are a fight to save democracy in that country. 
Additionally, our efforts mitigate destabilizing effects to other 
countries at risk within the region.
    We are beginning to see positive results from our support. We have 
witnessed a steady improvement in the professionalism and respect for 
human rights by the Colombian military, accompanied by increased 
effectiveness in counterdrug operations. Our legal assistance projects 
in Colombia, which include developing a Judge Advocate General (JAG) 
school and legal and human rights reform, continue on track. The 
initial JAG school courses began last month for 60 judge advocates and 
clerks in temporary facilities. Additionally, we recently held a Human 
Rights Seminar with 60 Colombian media and international 
representatives and began bimonthly Human Rights roundtables. Twenty 
students from the Armed Forces, National Police, Ministry of Defense, 
and Commanding General's office are currently receiving specialty 
degrees in International Humanitarian Law. In a short period of time, 
the Colombian military has emerged as one of the most respected and 
trusted organizations in Colombian society. Less than 3 percent of 
complaints of human rights abuses last year were attributed to the 
Colombian Security Forces, down from a high of 60 percent just a few 
years ago. The Colombian Military have also aggressively stepped up 
operations against the AUC. This progress reflects a strong and 
principled leadership and the genuine desire of the Colombian military 
to honor and promote democratic principles in their country.
    The United States trained Counterdrug Brigade (CD Brigade) 
headquarters and its three battalions are now fully trained and 
equipped. The CD Brigade, the best trained unit in the Colombian Army, 
has made impressive gains during drug interdiction operations by 
destroying coca processing labs, providing security to eradication 
operations, and seizing chemical precursors and coca leaf. Since 
operations began in December 2000, 866 drug labs have been destroyed, 
119 people detained, and the CD Brigade has provided security to the 
spraying of 50,000 hectares of coca. There have been no allegations of 
human rights abuses against the CD Brigade. We appreciate the support 
of the United States Congress in providing us the necessary resources 
to effectively train and equip the CD Brigade. Based on the success of 
the initial CD Brigade, the administration is supporting Colombia's 
request to train and equip a second CD Brigade in fiscal year 2003 for 
employment elsewhere within the country.
    All fourteen Plan Colombia UH-60 Blackhawk helicopters have been 
delivered. Based on the current production delivery schedule, we expect 
the Huey II helicopters to be in-country by the end of August 2002. We 
are now training Colombian pilots and maintenance personnel to 
operationally field the Blackhawk and Huey II helicopters.
    Colombia engineer projects continue to progress. The riverine base 
at El Encanto and the riverine maintenance facility at Nuevo Antioquia 
are complete. At Tres Esquinas, the runway extension, A-37 Ramp, and 
Schweitzer hangar are in progress with completions scheduled this year. 
The Tres Esquinas riverine facilities are scheduled to be complete in 
March 2002. The UH-60 facilities in Larandia are under construction 
with completion expected in December 2002. The airfield runway 
improvements at Marandua remain unfunded; this airfield will be 
critical to supporting operations in Eastern Colombia.
    In addition to counterdrug assistance, the administration has 
proposed to Congress $98 million to help Colombia to enhance the 
training and equipping of units to protect the Cano Limon-Covenas oil 
pipeline, one of the most vulnerable elements of their economic 
infrastructure. If approved, this training will assist the Colombians 
to mitigate the debilitating economic and financial effects of constant 
attacks on critical infrastructure.
    We continue to improve our infrastructure at the Forward Operating 
Location (FOL) in Manta, Ecuador. Last year, operations at the FOL 
ceased for 6 months while we made runway improvements. The current 
construction for living quarters and maintenance facilities will be 
completed in June 2002. The Manta FOL is critical to our source zone 
counterdrug operations and provides coverage in the eastern Pacific 
where we have seen the greatest increase in drug smuggling activity.
    We support reinstating the Air Bridge Denial Program in Colombia 
and Peru as an effective means to interdict the flow of drugs, arms, 
and contraband. By incorporating the recommendations of the Beers and 
Busby reports, we can safely resume United States support to air bridge 
denial operations and reinforce our counterdrug commitment to partner 
nations.
    Ecuador remains the country most vulnerable to any spillover 
effects from the narcoterrorism in Colombia. As such, we sponsored a 
senior-level crisis response exercise with United States and Ecuadorian 
civil and military leaders. Participants worked through a realistic, 
terrorist-oriented, weapons of mass destruction (WMD) consequence 
management scenario. The exercise produced a better understanding of 
how both countries would respond to a terrorist-related crisis, and 
improved the capability of Ecuador to respond to a consequence 
management crisis. This fiscal year, three additional seminars are 
being coordinated in other countries to replicate the success of this 
event.
    In Venezuela, we seek to maintain military-to-military contacts 
where we can. There are more Venezuelan military students in United 
States schools than from any other country; this is extremely important 
since they will be the future leaders of the Venezuelan Armed Forces.
    In Peru, the government institutions are slowly recovering from the 
Fujimori experience. In spite of the prevailing terrorist and drug 
threats within the country, the military force structure and budget 
have been significantly reduced. Likewise, Bolivia faces similar 
challenges, in part stemming from their success in curbing coca 
cultivation and the resulting dissatisfaction from the cocaleros (coca 
producers).
    We are validating requirements for partner nation militaries to 
assist the State Department as it begins executing the Andean Ridge 
Initiative program to address the potential regional production, 
processing, and spillover resulting from successful Plan Colombia 
execution. In each case, we are seeking to sustain the military 
contacts focused on professionalization of the armed forces and the 
specific challenges and needs within resources available.
Caribbean
    Like their neighbors in Latin America, some Caribbean democracies 
remain fragile, and corruption within governments still exists. The 
security forces are small and under-resourced. Economies in this region 
are heavily dependent upon tourism, and the attacks of September 11 had 
a devastating effect on the tourist industry, which will reduce 
resources available for the security forces. Our security cooperation 
in the Caribbean focuses on combating transnational threats and 
counterdrug operations, disaster preparedness, and humanitarian 
assistance. Cuba and Haiti remain the two major concerns in the 
Caribbean. Cuba continues its efforts to exert influence within the 
region, usually at the expense of the United States. Haiti's economy is 
in shambles and its government institutions, to include its security 
forces, still do not function; however, the Haitian Coast Guard shows 
promise.
    Tradewinds, our annual exercise to strengthen the capabilities and 
cooperation of partner nations, includes most countries of the 
Caribbean with a focus on disaster response, maritime interdiction 
operations, and basic military skills. Tradewinds develops increased 
professionalism of the military forces in the region and greater 
regional capability to respond to natural disasters, illegal migration 
and narcotics trafficking. Stronger security force relationships are 
enhanced as well. From the Tradewinds experience, the Caribbean Island 
Nations formed the composite battalion task force under CARICOM that 
participated with the United States in Operation Uphold Democracy in 
Haiti in 1994-1995.
    In a region of scarce resources, New Horizons engineering and 
medical exercises have significantly benefited the people of the 
Caribbean, while enhancing the capabilities of our Armed Forces to 
deploy and train in foreign environments. During 2001, Southern Command 
conducted three New Horizons exercises in the Caribbean area--Bahamas, 
St. Vincent, and St. Lucia. Fiscal year 2002 will see three more New 
Horizons exercises in Barbados, Dominica, and Jamaica.
Central America
    Natural disasters, weak political systems and economies, illegal 
migration, and illicit trafficking plague the Central American 
countries. Military forces range from none to capable. Costa Rica and 
Panama do not have militaries, rather internal security forces; in 
fact, Panama lacks the capability to control its border with Colombia. 
Our security cooperation in Central America focuses on peacekeeping 
operations, disaster response, humanitarian and civic assistance, and 
counterdrug coordination.
    This year we are conducting Peacekeeping Operations--North 2002 in 
El Salvador, an annual exercise focusing on peacekeeping operations 
procedures while providing a forum for regional cooperation among 
participating nations. The Conference of Central American Armies 
(Nicaragua, El Salvador, Honduras, and Guatemala) indicated a desire to 
form a composite peacekeeping force for international operations. 
Guatemala demonstrated its capability as a peace operations partner as 
part of the United States-led multinational forces in Haiti. 
Additionally, we conduct New Horizons exercises annually in Central 
America. During fiscal year 2001, Honduras and Guatemala hosted New 
Horizons exercises while El Salvador and Nicaragua are currently 
engaged in New Horizons exercises.
    Central America is an important focus of our counterdrug efforts, 
which include regional counterdrug operations to enhance capabilities 
and foster coordination and cooperation within the region. The Forward 
Operating Location in Comalapa, El Salvador, provides the capability 
for coverage throughout Central America, the eastern Pacific, and 
western Caribbean. In addition to its counterdrug mission, Comalapa 
served as an instrumental logistics center in the aftermath of last 
year's earthquakes in El Salvador. Comalapa is a valuable operating 
location and we will continue to pursue infrastructure improvements 
this year.
Southern Cone
    Within the Southern Cone, we focus our attention on 
interoperability, combating terrorism, peacekeeping operations, 
regional cooperation, and professionalizing militaries. Our military-
to-military contacts within this region are strong, as evidenced by 
increased defense cooperation as potential coalition partners with the 
United States worldwide, dialogue, and multilateral training exercises. 
Although resource limitations remain an impediment, the military 
modernization within Chile and Brazil continues to progress.
    Chile recently committed to purchase 10 F-16 fighter aircraft and 
associated equipment after conducting a thorough, open, and transparent 
competition. This purchase opens the door for even more cooperation and 
bilateral training with an eye toward increased interoperability and 
coalition operations. Chile is also exploring the possibilities of a 
naval modernization program.
    Brazil is actively pursuing a larger advanced fighter aircraft 
purchase with the F-16 as one of the final competitors. As in the case 
of Chile, the purchase of the F-16 by Brazil would lead to long-term 
regional and bilateral cooperation. Brazil's Navy is upgrading its 
carrier air operations with increased training in the United States on 
the A-4 aircraft, directly related to the development of a naval fixed-
wing aviation force.
    Argentina is in the midst of a serious economic crisis. Throughout 
this difficult period, the Argentine military has remained loyal to the 
constitution and has been a voice of restraint and respect for the 
democratic process.
    Before the financial crisis, Argentina petitioned to join the 
multinational peace force for Afghanistan. Likewise, Uruguay has 
volunteered to participate in the Multinational Force and Observer 
Mission in the Sinai as a measure to free United States troops for 
other missions.
    We are pleased with the cooperation we have received from Southern 
Cone countries in sharing information and tracking suspected terrorist 
organizations in the tri-border area. We are working with security 
forces to enhance combating terrorist capabilities. Paraguay has been 
particularly aggressive in searching out, disrupting, and detaining 
terrorist suspects and their supporters.
Professional Military Education
    One of the cornerstones of our security cooperation strategy is to 
provide the opportunity for professional military education in the 
United States for students from the area of responsibility. Our 
professional military education institutions dedicated to the region 
provide those opportunities and serve as vital tools in achieving 
United States strategic objectives in Latin America and the Caribbean.
    The National Defense University's Center for Hemispheric Defense 
Studies (CHDS) at Fort McNair, Washington DC, supports the development 
of civilian specialists from Latin American and the Caribbean in 
defense and military matters by providing programs in defense policy 
planning, resource management, and political and civil-military 
relations. CHDS significantly enhances the concept of military 
subordination to civilian authority by training a core of civilian 
defense specialists who serve in the region's defense ministries and 
legislatures.
    The Interamerican Defense College (IADC) provides senior service 
level professional military education for senior officers, including 
officers from the United States.
    The Western Hemisphere Institute for Security Cooperation (WHINSEC) 
at Fort Benning, Georgia, offers instruction that promotes democratic 
values, respect for human rights, and regional cooperation. WHINSEC 
provides an opportunity for regional military and police leaders to 
receive, in Spanish or English, the same instruction we provide our own 
Armed Forces. The capstone course at WHINSEC is the year-long resident 
Command and Staff Course, which includes approximately 40 percent 
United States officers from all services. Concepts and values taught at 
WHINSEC are continually reaffirmed, as our hemisphere's militaries are 
increasingly supportive of democratic values and the subordination of 
the military to civilian control.
    The Inter-American Air Force Academy (IAAFA) at Lackland AFB, 
Texas, and Naval Small Craft Instruction and Technical Training School 
(NAVSCIATTS) at Stennis, Mississippi provide specialized technical and 
tactical training on aircraft maintenance and small boat operations to 
the region's militaries. This training enhances the interoperability 
and increases the life cycle of U.S. equipment used by countries in the 
region.
    For some of these courses and other military schooling, the 
International Military Education and Training (IMET) Program are 
critical. We appreciate the continued support of this valuable program. 
However, in order to reach the future military leaders for Guatemala, 
we need to remove the prohibitions on junior and field grade officer's 
attendance of the same professional military training as their U.S. 
counterparts such as command and staff college and advanced courses.
    These schools produce graduates who make positive contributions to 
their countries through distinguished military and public service. In 
many cases, the interpersonal relationships forged during a common 
educational experience serve as valuable tools for security cooperation 
while promoting regional stability

                              REQUIREMENTS

Command, Control, Communications, and Computers (C\4\)
    We are enhancing our C\4\ for fixed and mobile operations 
throughout the region. Because most of the countries in this theater 
are still maturing their C\4\ infrastructure, satellite communications 
are vitally important to our deployed forces, especially in times of 
crises. However, current satellite communications provide limited 
bandwidth. We continue to expand the Cooperating Nations Information 
Exchange System (CNIES) and the Counter-narcotics Command and 
Management System (CNCMS). These programs have proven instrumental in 
the prosecution of our counterdrug mission and have helped optimize the 
available satellite bandwidth. Since existing military systems alone 
have not proven sufficient in meeting the demand, we are partnering 
with the Defense Information Systems Agency and the Department of 
State's Diplomatic Telecommunications Service Program Office to explore 
commercial alternatives such as fiber optic communication links. This 
effort shows promise for improving C\4\ effectiveness throughout our 
area of responsibility.
Intelligence, Surveillance and Reconnaissance (ISR)
    Our global war on terrorism continues to reinforce the critical 
role that a comprehensive ISR posture plays in any operational 
environment, whether home-based or abroad. Secretary Rumsfeld noted in 
the 2001 Quadrennial Defense Review that: ``We cannot and will not know 
precisely where and when America's interests will be threatened. . . 
.'' His observation is particularly applicable to the Southern Command 
area of responsibility, where threats take many forms and are often 
ambiguous. These threats present a range of intelligence challenges--
from tracking terrorist groups and drug trafficking organizations of 
the Andean Ridge to monitoring international criminal and terrorist 
activities throughout Latin America and the Caribbean. To mitigate 
these threats, we depend heavily upon multi-disciplined intelligence 
collection and sophisticated all-source analysis backed by secure, 
interoperable systems. However, even with Department of Defense and the 
Joint Staff's assistance in this area, our current ISR capabilities 
fall short of meeting our requirements, particularly where we need to 
be proactive rather than reactive in crucial mission areas such as 
combating terrorism, force protection, counterdrug support, and 
anticipating crisis.
    Essential to these efforts is sound intelligence and sufficiently 
financed intelligence operations. With this in mind, we fully support 
National Security Agency's (NSA) ongoing transformation efforts. It is 
essential that NSA remain a relevant provider of signals intelligence 
and information assurance products and services. Competing realities of 
existing and expanding mission requirements and budgetary constraints, 
will force NSA to reach difficult decisions about resources, which 
could further impact intelligence collection for Latin America and the 
Caribbean.
    The limited availability of national sensors, airborne 
reconnaissance platforms, and tactical military intelligence--meets 
only a small percentage of our priority intelligence requirements and 
is inadequate for maintaining a comprehensive intelligence operating 
picture. United States Southern Command's mixture of new and old 
technology systems presents unique challenges that have and will 
continually test our resourcefulness until we acquire more organic and 
reliable capabilities as noted in our Joint Monthly Readiness Review 
and Integrated Priority List.
    The National Security Agency's responsibilities related to 
protecting the Nation and supporting the global war against terrorism 
fall among the highest priorities for budget decisions if signals 
intelligence and information assurance initiatives are to continue to 
preserve our Nation's security and support the unique intelligence 
needs for our area of responsibility.
    The restrictions placed on the use of certain collection assets 
exacerbate the constraints inherent to the limited availability of 
intelligence resources in our area of responsibility. Today, many of 
the intelligence assets allocated to Southern Command are funded from 
counterdrug appropriations. Therefore, the employment of these scarce 
assets is further restricted to supporting only counterdrug operations 
or force protection.
    Our ability to execute effective operations--especially those 
associated with the global war on terrorism--is further hampered by 
restrictions on sharing data with our partner nations. We need to 
streamline sharing procedures that are currently used for time 
sensitive intelligence information. Like other unified commands, we are 
developing information-sharing networks that will allow us to combat 
asymmetric and other specific threats in our region more effectively. 
The South American Net, the Caribbean Information Sharing Network, and 
the Cooperating Nations Information Exchange System are all prime 
examples of initiatives that enable us to share certain types of 
information expeditiously; but we must do more.
    We also continue to experience shortages of intelligence personnel, 
qualified human intelligence collectors, linguists, and signal 
intelligence experts. A fully resourced Regional Security Operating 
Center at Medina, Texas is essential to supporting operations within 
the area of responsibility. Our ISR capabilities must provide 
predictive and actionable intelligence to preclude strategic, 
operational, and tactical surprise. Even with potential for 
improvements in the near future, the reality is, we need additional and 
advanced ISR support today.
Anti-Terrorism and Force Protection
    The security of our forces in-theater is our first priority. 
Southern Command continues to commit resources to address its force 
protection requirements and provide the best protection measures to our 
forces. We have intensified ongoing efforts to identify potential 
threats through the use of Joint Service Integrated Vulnerability 
Assessments throughout the region, most notably at the forward 
operating locations, Guantanamo Bay, and the Southern Command 
headquarters. Additionally, we use force protection response groups to 
determine if our operating locations are under surveillance and to 
identify critical vulnerabilities to attack scenarios. The Colombian 
forward operating sites have been assessed to properly address force 
protection for our military personnel.
    The global war on terrorism has heightened our awareness of threats 
and provided a new sense of urgency to our force protection efforts. We 
continue to make progress in securing our headquarters, bases, and 
FOLs. Where we are unable to mitigate threats through physical or 
structural enhancements, we address the risk with procedural 
modifications for our personnel.
Foreign Military Financing
    Foreign Military Financing (FMF) is an important element of the 
U.S. national security strategy that fosters and supports cooperative 
security arrangements. Although military expenditures in the region are 
the lowest in the world, Latin American and Caribbean militaries do 
have legitimate defense sustainment and modernization requirements. As 
we incorporate the assistance of partner nations in fighting terrorism 
and other transnational threats, FMF is the primary source of equipment 
and training for resource strapped countries. Additionally, much of the 
military equipment and capability throughout the region requires 
modernization.
    Against these requirements, Latin America and the Caribbean 
received less than 0.1 percent of the annual worldwide FMF program, 
which although an increase over last year, was just $8.7 million. This 
allocation is not sufficient to cover the sustainment of the aircraft 
and other equipment previously provided to our regional partners. It 
also limits our ability to influence the direction and scope of 
regional military modernization and enlist the full cooperation of 
partner nations. Further, it limits the capabilities of the militaries 
within the region to assume a more active role in security cooperation 
against transnational threats, disaster response, and peacekeeping. We 
continue to work with the Department of State in support of the FMF 
program.
Maturation of Headquarters
    In 1999, Southern Command and its components completed an 
unprecedented transformation. We satisfied treaty requirements and 
withdrew from Panama, relocating our headquarters operations and 
component commands. Through this endeavor we remained focused on 
properly supporting the Command's strategic requirements.
    In 1997, Southern Command's headquarters relocated to Miami, an 
international city with strong political, economic, and cultural ties 
to the region. This location complements our mission requirements, 
providing Southern Command direct access to United States government 
officials and foreign political and military leaders transiting to and 
from the area of responsibility. Access to members of the local 
academic community, as well as the tremendous coordination 
opportunities with regional offices of other Federal agencies and the 
international diplomatic community with the large number of consulates, 
further enhances our efficiency and effectiveness. Operationally, from 
the perspective of executing the mission, Miami is the best location 
for the Southern Command headquarters.
    The current lease for the main headquarters' building expires 
February 2008 and does not include provisions for extension. We are 
working with the Deputy Under Secretary of Defense for Installations 
and Environment and the Army to develop a plan to mature our 
headquarters in an efficient and effective manner. Our planning tenets 
focus on support of our mission, operational effectiveness, and prudent 
use of taxpayer resources. Imbedded in the planning are force 
protection requirements and the ability to adequately support military 
personnel and their families. These plans will include reasonable 
flexibility for future requirements. Including these plans for 
headquarters maturation in the fiscal year 2004 budget is necessary to 
ensure time for implementation.

                               WAY AHEAD

    Southern Command will continue to execute operations and activities 
to enhance the region's militaries, advance democracy, promote regional 
security, support hemispheric cooperation, foster economic 
opportunities, promote peace, sustain freedom, and encourage 
prosperity. Further, we will prioritize these activities in areas that 
offer the greatest leverage for protecting and advancing United States 
regional and global interests. Our primary vehicle for accomplishing 
these goals remains the professionalization of the region's militaries 
through military-to-military contacts. Southern Command will continue 
to conduct disaster relief, humanitarian assistance, crisis response, 
and counterdrug activities. Also, we are adapting our plans to assure 
our allies, dissuade foreign military competition, deter potential 
adversaries, and if this fails, defeat our adversaries, whether 
terrorists or nations.

                               CONCLUSION

    In summary, Mr. Chairman, the Latin American and Caribbean 
countries are of growing strategic importance to the United States. The 
economic, cultural and security ties within our own hemisphere are 
critical to safeguarding the security of the United States and its 
citizens. During the last 25 years, the region has been a success story 
for the United States National Security Strategy as the countries 
within our area of responsibility have made a clear transition toward 
democracy and subordination of military forces to civilian authority. 
This is due in large part to a carefully planned and robust engagement 
program of professional military education, training, and exercises 
that emphasize respect for democratic values, regional cooperation, 
human rights, and the role of the Armed Forces in a democratic society.
    Our vision for the hemisphere continues to be a community of 
democratic, stable and prosperous nations dedicated to countering 
terrorism, illicit drug activities, and other transnational threats. 
Our goal is to ensure these nations are served by professional, 
modernized, interoperable security forces that embrace democratic 
principles, demonstrate respect for human rights, are subordinate to 
civil authority, and capable of multilateral responses to challenges.
    Today, however, we also recognize the insidious nature of hostile 
activities that threaten the stability, security, and economic 
development of many of these nations. We clearly recognize the 
existence of a terrorist threat within our hemisphere as profits from 
illicit drug trafficking fuel terrorist activity that can ultimately 
have national security implications for the United States. United 
States Southern Command will continue to seek every opportunity to 
resource, plan, and combat terrorism within the region to ensure for 
our national security and win this war.
    We are confident that continued support from you and your 
colleagues on the committee and in Congress will provide the resources 
to ensure that the hard-earned gains of the last 25 years are not 
reversed, and to enhance regional partner nation capabilities that 
build and maintain support for the global war on terrorism. Thank you 
again for providing me the opportunity to discuss the superb work 
performed by the soldiers, sailors, airmen, marines, coastguardsmen, 
and civilian personnel of Southern Command in Latin America and the 
Caribbean.

    Chairman Levin. Thank you, General Speer.
    We will proceed as usual under the early bird rule. Let us 
have an 8-minute first round.
    Admiral Blair, first on the Special Operations mission in 
the Philippines. In your written testimony you stated that the 
Special Operations teams will train their Philippine 
counterparts ``potentially down through the company level.'' 
But General Myers told us just a few weeks ago that the 
training would be limited to the battalion level. Now, is it 
planned that the training will go below battalion level and 
what criteria will be used to determine whether or not it does?
    Admiral Blair. Yes, sir, Mr. Chairman. I will answer that 
question. I would like also to reach back to the question you 
asked in your opening statement, with its very justified 
concern about expansion of the mission of our forces there. 
Certainly no officer of my generation who went to Vietnam can 
not be worried about starting out as advisers and then 
eventually creeping into missions much greater than originally 
anticipated.
    Our operations in the Philippines I think have four ways 
that they are limited to ensure that they meet the objectives 
we seek. The first limit is the leading role of the Armed 
Forces of the Philippines. It is absolutely clear that 
President Arroyo, her Armed Forces, and all of the Armed Forces 
of the Philippines recognize that this is their fight, their 
country, their sovereignty. They are going to be the ones who 
conduct it. They only want assistance, not replacements in this 
fight. That is factor number one.
    Factor number two, it is limited in role. We have 
instructed our troops and I have instructed my commanders that 
we will advise our Philippine counterparts. We will not be 
doing the fighting for them. So right now we have 12-person A 
teams deployed at the battalion level. A battalion is about 600 
in the Philippines these days. They are in the battalion 
headquarters. Their role, their explicit role, is to provide 
covered communications and intelligence information to their 
Philippine commanders and commanders' staffs whom they provide. 
In the battalion garrisons they provide training to those 600 
people, whether it be squad leader patrol planning, or whether 
it be lane training or marksmanship. So it is limited that way, 
in role.
    It is limited in space to the southern Philippines. It is 
limited in time. The 6 months that is specified in the Terms of 
Reference is a time limit on the initial phase of activity that 
we are involved in now. We may agree that there would be some 
particular training modules that will be separate and might 
have longer tails than that. We may agree that there would be 
some civil affairs engineering projects that might take longer 
than that. But there is a 6-month limit on the operation that 
we are now involved in.
    Finally, it is also controlled, I would say, by a very 
careful awareness on our part of the different factions who are 
involved in the southern Philippines. You mentioned the Moro 
Islamic Liberation Front (MILF). The MILF and the Moro National 
Liberation Front (MNLF) are both political entities which are 
primarily dealing with the Philippine government in a political 
way. There are some fighters at the lower level who go back and 
forth between and among these groups and we may--the Armed 
Forces of the Philippines may encounter somebody in the field 
who was an MILF fighter yesterday and now he is an Abu Sayyaf 
Group fighter.
    But the main dealings with the MILF and the MNLF are 
through the political process and we know who they are and how 
they work and we can keep it separate.
    On your question regarding the level of the training, Mr. 
Chairman, right now our teams, as I mentioned, are down to 
battalion level. It would be a separate decision to take them 
any lower than that and would depend on the recommendation of 
our commander there, whether he thought our basic tasks would 
be enhanced by moving down that one level.
    Even if they were to move down to the company level, I need 
to emphasize that they are advising the commander of a company, 
beside the company commander, who is typically an O-3, a 
captain in the Armed Forces of the Philippines. We are not 
talking about American special forces going out on point in 
patrols engaging the enemy directly.
    Chairman Levin. Thank you. Given the statements of both 
yourself and General Myers, we would assume that there would be 
notice to the committee prior to any change in that mission.
    Admiral Blair. Yes, sir, I will make sure that happens.
    Chairman Levin. Thank you.
    General Schwartz, on the Agreed Framework question with 
ourselves and North Korea. That Agreed Framework is in effect. 
Former Secretary of Defense Perry told this committee that if 
North Korea completed the other nuclear reactors that it 
previously had under construction, they could produce enough 
plutonium for tens of nuclear weapons by now and many more in 
the future.
    I have a number of questions on the Agreed Framework. 
First, do you believe that it is in our security interest that 
the Agreed Framework be maintained and be complied with by both 
sides? Has North Korea complied with the Agreed Framework up to 
this point of time?
    On the missile testing issue of North Korea, they have 
publicly committed to a missile testing moratorium as long as 
the U.S. continued the dialogue with North Korea on their 
missile and nuclear programs. Has North Korea kept their 
commitment not to test a missile?
    General Schwartz. Yes, sir, thank you very much. First of 
all, I would say this, Mr. Chairman, that the Agreed Framework 
is viable. The great work of Dr. Perry, as you said, Senator 
Warner, in your recent conversation with him, I think set the 
foundation for the future. It is the road map to the future in 
my opinion.
    As far as whether it is in the best security interest of 
the United States, and vital interest of that area, absolutely. 
It serves that purpose and is serving us well at this time.
    I would say this about it. It stopped their nuclear 
development, there is no doubt about it. We got in there, we 
looked at their two reactor facilities, we shut them down as a 
result of the Agreed Framework. It gave us a continual 
presence. The International Atomic Energy Agency (IAEA) is in 
there at those facilities continuously monitoring. So it gave 
us a monitoring capability that we want to have.
    But I also think, Mr. Chairman, that while it is not part 
of the Agreed Framework, it is a stepping stone to the flight 
missile moratorium.
    As far as the missile moratorium, we are very confident 
that they have not tested any missiles since the agreement. We 
have a tremendous capability to monitor that and they have not 
violated it. So I think the Agreed Framework has served us 
well. It is in our best interest and it is the stepping stone 
to redundant negotiations in the future.
    Chairman Levin. Thank you.
    Admiral Blair. May I add something? The Agreed Framework, 
Mr. Chairman, also poses some responsibilities on the North 
Koreans in terms of coming into full compliance before we pass 
on these reactors. We need to see North Korea pulling its part 
of the Agreed Framework as well as what we have agreed to do.
    Chairman Levin. Of course. But that compliance will be 
assured prior to those reactors being supplied, is that 
correct?
    Admiral Blair. That is the way the agreement is written.
    Chairman Levin. We are not at that point yet where we are 
ready to supply those reactors.
    Admiral Blair. Yes, sir.
    General Schwartz. Sir, the light water reactor components 
we are talking about are projected to be supplied to North 
Korea in 2003. There are a lot of people who refer to the 
crisis of 2003 and what they are talking about is the ability 
of the North Koreans to open themselves up to the inspections 
necessary before we provide those light water reactor 
components. So it is a very important time. Admiral Blair is 
absolutely correct.
    Chairman Levin. Thank you very much.
    Senator Warner.
    Senator Warner. Thank you. I think that is an important 
point, Mr. Chairman.
    What about the movements of Kim Jong Il, the leader of 
North Korea? Is he still trying to make some contacts with the 
outside world? For a while he traveled a bit, but lately I have 
not heard much about him. I think it is helpful if he engages 
other nations and perhaps those nations can in some way 
reinforce the efforts of both South Korea and the United States 
towards a reconciliation of differences.
    General Schwartz. Yes, sir. We watch their diplomatic 
contacts carefully. Over the last 18 months they have had about 
150 diplomatic initiatives. They have established relationships 
with 17 countries. So in that sense are they making an effort 
to open up or to reach out from a diplomatic perspective? At 
least more so than ever before. There is goodness in that.
    But as far as Kim Jong Il is concerned, we share your 
opinion, Senator. North Korea seems to be very quiet as of 
late, particularly as of September 11, and we are watching them 
carefully to see if they are participating in any kind of 
terrorist activities that would support terrorism around the 
world. I can report to you that we have had no indicators they 
are doing that.
    But they are still, they are quiet, and I think they are 
studying who is next, where do they stand on this list of 
terrorism, what do they need to do to get themselves off. They 
are looking at this, but they are not proclaiming to anybody 
exactly what they are doing. They are very quiet.
    Senator Warner. What about their export of weapons? They 
have been a significant exporter worldwide.
    General Schwartz. They are the number one proliferator of 
missiles and also of conventional weapons. That is where they 
get their money. That is how they have kept their economy 
alive. They are actively pursuing those interests around the 
world.
    Senator Warner. Is the intensity on the increase or has it 
leveled off?
    General Schwartz. Sir, actually just as of late, the last 
couple of months, it has increased. It died for a while, but I 
would say it is in a steady state. If they do not keep it 
going, they die on the vine.
    Senator Warner. I am glad you made reference to Secretary 
Perry. I commend you for that. I really feel very strongly on 
that issue. You and I have talked privately about the personnel 
situation over there, and I am going to try and spend some 
additional time on that. But I would hope in your 
consultations, perhaps on this visit to the Pentagon, that you 
address this with General Shinseki. I am going to bring it up 
with him when he appears before us on Thursday. In the 
Secretariat, perhaps you could talk to Under Secretary 
Brownlee, who was on this committee staff for many years and 
has the confidence of the committee.
    I would like to see the Secretary, whether it is White or 
Brownlee, and Shinseki come forward to this committee with a 
specific package of recommendations as to how to correct this 
problem, which you have made known to Congress I think in a 
very courageous and forthright manner. What is the corrective 
action? We cannot tolerate three lieutenant colonels being 
assigned to your command, respectfully saying to you that they 
are forced, together with their families, to make a choice to 
accept that command or retire from the United States Army. I 
find that unacceptable.
    General Schwartz. Yes, sir. I thank you very much, sir. I 
have spoken to those people that you mentioned. I will speak to 
them again in a follow-up as per your direction.
    Senator Warner. You have done your job. You have brought it 
to our attention.
    Admiral Blair carried a very interesting article this 
morning on the Chinese defense budget. I remember last year 
when you were here about this time they raised it a significant 
amount. This year 17 percent. What sort of a signal is that 
sending? Are those 17 percent real dollars or is the accounting 
a little fuzzy, and is it something that we should take into 
consideration as you look at your overall responsibilities in 
the region?
    Admiral Blair. Yes, sir. That is a development we need to 
look hard at. I think if you look at our interaction with China 
over the last year since I was before this committee, it really 
illustrates the full range of our interactions with that 
country. The EP-3 incident, of course, dominated the first part 
of last year. In reply to your question, following that 
incident we did have one meeting with the Chinese in which we 
stated our position that we had the right and indeed the 
obligation to fly our aircraft in international air space, as 
did other nations, and that it was the responsibility of 
countries who are sending airplanes to intercept other aircraft 
to conduct themselves in a professional manner that did not 
hazard either airplane.
    Senator Warner. But my dump-out from one source on that 
meeting was that it was somewhat perfunctory. It seems to me, 
with the United States being the superpower, and China seeking 
recognition among the councils of military professionals 
worldwide, that they would want to accept perhaps an overture 
from us to elevate these talks to a level like we had with the 
former Soviet Union and have an ``Incidents at Sea Agreement.'' 
We are putting at risk our aviators and others in that AOR and 
we don't want to see a foolish lack of professionalism, as was 
exhibited I think in the last incident, by either side. I am 
not here to point fingers.
    Admiral Blair. Oh, I am pointing fingers. It was our side.
    Senator Warner. On that incident it was, but we had a very 
tragic incident with a submarine right there off Hawaii. 
Mistakes are made. No matter what degree of professionalism, 
mistakes are made.
    I just think there is a high risk to our people, perhaps a 
risk to their people. So we ought to step up to the table and 
see if that cannot be initiated. That might be one of the 
things you can do as you conclude your distinguished watch and 
you might encourage others. I will do it back here at home, 
because I think putting our people at risk in those situations 
is not a wise thing to do.
    On the homeland defense of the United States, Mr. Chairman, 
you have heard me say that is the highest priority right now of 
our President and Congress. I know you have some concerns about 
the new CINCNORTH. Can you tell us, is that moving along to 
your satisfaction? Does there appear to be a reconciliation of 
views on that? I would hate to have another incident happen to 
the United States and we still do not have in place a command 
and control structure that could have stepped in to perhaps 
deter or certainly respond very quickly.
    Admiral Blair. Yes, sir, I have been involved in the 
Department's negotiations and examination of that issue. I am 
very much in favor of the establishment of Northern Command, a 
commander whose responsibility it is to bring together all of 
the responsibilities for both defending this country and 
supporting civil authorities if there is an incident.
    Where that command's responsibilities overlap with mine are 
in Alaska, in Hawaii, and the West Coast forces currently 
assigned to the Pacific Command. So my primary concerns relate 
to making sure that Northern Command can carry out his overall 
responsibilities, ensuring that our forces in Alaska, Hawaii, 
California, Oregon, and Washington are able to fit smoothly 
into that structure, and yet to be able to keep our focus on 
Asia and the jobs that most of our forces have, which have to 
do with deterrence of North Korea, keeping an eye on the Taiwan 
Straits, and the many other things we do.
    So we are working our way through that and I believe we are 
approaching satisfactory arrangements on that having to do with 
clarity of who does what and how quickly you can do it. I will 
tell you that after September 11 the work in Hawaii, as Senator 
Akaka knows, was done by those of us who live in Hawaii. We did 
not have a lot of contact or direction from folks back here, 
who had other things to do. I was also talking to Alaska a lot 
in order for General Schwartz up there to get our defenses in 
Alaska in shape. As I think was reported in the press, there 
was an airplane that was flying over from Asia that was showing 
the wrong signals, that we thought might be another hijacking 
situation, which was being worked very, very hard.
    Our forces of the Third Fleet in San Diego and the First 
Marine Expeditionary Force and the Third Corps in Washington 
are very much part of our plans and our theater security 
cooperation in Asia, and we need to keep that focus for them, 
keeping them assigned to Pacific Command while they support 
their homeland defense responsibilities, which will take a 
relatively small part of their forces.
    So I support Northern Command, but I believe we need to 
keep our focus on Asia while we are doing it, and I believe 
that those forces that point towards Asia should continue to be 
assigned to Asia, assigned to the Pacific Command.
    Senator Warner. Well, I think it is imperative that this 
Nation move out as quickly as possible to establish that 
command and I hope that your contribution can work towards a 
reconciliation of what differences remain.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Admiral Blair, you discussed our operations that are 
ongoing in the Philippines. One impression is that we are 
conducting generally small unit training. Could you comment on 
any intelligence operations and intelligence sharing that is 
ongoing with the forces in the southern Philippines?
    Admiral Blair. Yes, sir. We are integrating an element of 
our task force into the operations and intelligence center that 
the Southern Command has set up in the Philippines. Consistent 
with protecting sources and methods, we will provide 
intelligence from U.S. sources of all types--air-breather, 
overhead, human intelligence. In fact, one of the keys is 
merging that with the intelligence the Philippines have, which 
is by and large human intelligence. We can build an 
intelligence picture of the battlefield and then help the 
Philippines use the combination of intelligence and operations 
in order to whip the Abu Sayyaf Group (ASG). So we will be 
providing intelligence of all types consistent with protecting 
them.
    Senator Reed. Now, in response to the Chairman you 
indicated that this operation would have a limit of 6 months. 
But I assume, given the relationship we are developing with the 
Armed Forces of the Philippines, that we have to look much 
longer than that, perhaps not this specific operation, but an 
ongoing relationship with the Armed Forces of the Philippines. 
Is that longer perspective being planned for and anticipated?
    Admiral Blair. We are in consultation with the Philippines, 
working out the particular modules of training, some of which 
will undoubtedly have tails longer than 6 months: the parts of 
the civil affairs-engineering support to military operations 
and the longer-term economic development of that region, which 
will be primarily non-military but may have some military 
pieces to it, and also any sorts of follow-on sustainment 
training and advice, I would say, are modules that may be 
needed.
    So certainly this intense phase will be limited at 6 
months. The war itself will go on for a longer time than that. 
I think various forms of U.S. assistance to the Philippines in 
fighting that war will go on for months, but not really for 
years.
    Senator Reed. Thank you very much, Admiral.
    General Schwartz, one of the key dilemmas when you look 
north is to determine what the intentions are of the North 
Korean government and their Armed Forces. As you have told the 
Chairman, they are maintaining a moratorium on long-range 
missile flights. They have accepted International Atomic Energy 
inspectors. You have looked closely and found no links to 
ongoing terrorism around the world. You suggest that a lot of 
their proliferation is driven by economics, not by ideology--
they just need the money, which might suggest that there is a 
real opening for a political-diplomatic dialogue.
    Yet, we are not initiating that. We are saying we are ready 
to talk to you. But what is your view in terms of initiating a 
dialogue, taking the first step and trying to move the 
situation forward?
    General Schwartz. Sir, the President in his visit set the 
stage, in my opinion, by the talks that he gave while he was 
there to open that dialogue. He was very clear: We want a 
dialogue. He repeatedly asked North Korea to meet us in 
dialogue with no preconditions. So, from the President of the 
United States, I think it is absolutely clear.
    I think the ball is in North Korea's court. They have done 
the things you indicated and I have talked about. I think the 
conditions are right for this dialogue. Secretary Powell was 
there with the President. He repeated several times that we are 
initiating efforts to initiate that dialogue. So I do not have 
all the details of that, but I am very confident that we are 
doing everything, from my understanding at least, to get the 
dialogue open and to initiate an effort to try to bring peace 
to that peninsula.
    Senator Reed. Thank you, General Schwartz.
    General Speer, the situation in Colombia has deteriorated 
rapidly in the last few weeks. In your assessment, from a 
military standpoint, do the various insurgent groups, 
particularly the FARC, have the capability of destabilizing the 
government of Colombia in the sense that it could stop 
effectively functioning and protecting its people and open up 
Colombia to exploitation by international forces or other non-
Colombians?
    General Speer. Thank you, Senator. I would submit that the 
activities of the FARC, the ELN, and the illegal paramilitaries 
have already created an environment of seriously instability. I 
mean, the fact is that in Colombia today you often hear people 
cite statistics that the FARC controls so much of the 
countryside. Well, the real issue is that the government of 
Colombia, through its security forces, the police and the 
military, do not control portions of the country, and in the 
areas where they are not present and do not have control, there 
is a lack of a safe and secure environment, which basically 
undermines everything to do with governance in Colombia.
    Senator Reed. Also with respect to Colombia, it is a fairly 
substantial piece of territory. Does the current Colombian army 
have sufficient end strength, manpower, to effectively exert 
control over large parts of the country?
    General Speer. It is my assessment that the current force 
structure and the resources available to the Colombian military 
are inadequate to establish a safe and secure environment.
    Senator Reed. So there are things that Colombia must do and 
so then what is your recommendation with respect to the United 
States' participation?
    General Speer. Well, first of all, still in terms of the 
authorities that we have, our interaction with the Colombian 
military is still only in support of counterdrug operations. 
The administration has proposed to Congress two follow-on 
initiatives. One would be to create a second counterdrug 
brigade in pattern of the success of the first counterdrug 
brigade in the south, but it would still be counterdrug 
support.
    The second initiative is to provide training and equipping 
assistance to infrastructure security units centered around 
Aravca, which is the heart of the pipeline area. This would be 
a break and a step beyond support in a counterdrug- only 
context.
    As a minimum, the Colombian military needs additional 
resources. Whether that is provided through security 
assistance--and I would submit that if you look at the first 
counterdrug brigade, it is probably the best-trained and 
equipped brigade in the Colombian army. It is a model that can 
be applied elsewhere.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    Admiral Blair, I have sort of an unfair question for you. 
The Chairman has indicated his concern--which I think we all 
share--about our involvement in the Philippines and whether or 
not the training and the intelligence is limited to a company 
level or a platoon level or, for that matter, a squad level.
    But the American hostages that are being held in the 
Philippines are from Wichita, Kansas, and I am very concerned 
about the Burnhams and their welfare. I guess my comment would 
be that, in terms of their capture and their imprisonment and 
their treatment, it has not been very limited. As a matter of 
fact, one of the individuals that was captured along with them 
was beheaded. That is not very limited action, to say the 
least.
    Can you give me some light on the state of play of the 
Philippines, more specifically in regards to the status of Mr. 
and Mrs. Burnham? I understand they are on that island still, 
Basilan Island, where the Abu Sayyaf terrorists reside under a 
triple canopy of jungle.
    Admiral Blair. Yes, sir. We worry about the Burnhams a lot. 
All of us have read the letters and seen the videotapes, which 
rip your heart out, frankly. They are being pulled around from 
place to place. They are not being fed enough, they are subject 
to diseases, and they are in pretty rough shape according to 
our best information.
    You are right, the third American hostage who was captured 
with them was beheaded fairly early on in the event in a brutal 
way.
    From our military point of view, we think the best thing we 
can do to help the Burnhams is to keep the military pressure on 
the Abu Sayyaf Group by making the Armed Forces of the 
Philippines--and they are the ones that have the 6,000 troops 
there on this island--more effective. We think that 
everything----
    Senator Roberts. We have about 160 military personnel on 
the ground, right?
    Admiral Blair. Right.
    We think that everything we do to make them effective in 
terms of intelligence, communications support, equipment 
support and training will make them better able to rescue the 
Burnhams. We have made it clear that that is the top priority. 
We trained a light reaction company a year ago--after the first 
American hostage was taken--whose job it is to go in and rescue 
a hostage in a standoff situation, and we think that they are 
competent of doing that.
    So, Senator Roberts, we are keeping the pressure on, and I 
think this is the best chance we have of getting the Burnhams 
back safely. I think that we stand a good chance of doing that.
    Senator Roberts. I hope and pray that is the case. I would 
hope any talk of a time limit would not give any credence to 
the terrorists' belief that if they just wait this thing out we 
will just give up.
    General Speer, you responded to a very good question by my 
colleague Senator Reed regarding the proposal for the United 
States to provide military training to a brigade of Colombians 
to defend their infrastructure, such as dams and bridges and 
pipelines, and that this would be a shift from the current 
assistance program we have. What are we talking about, 
including the number of U.S. personnel you believe would be 
required to provide this kind of training? Then I think in 
connection with that, could you talk about the possibility of a 
growing terrorist threat in regards to the instability that we 
see in that country, and would that apply to the pipeline and 
obviously to the infrastructure?
    General Speer. Thank you, Senator. The current proposal is 
only for protection of that specific pipeline that centers on 
Aravca. We anticipate that the training requirements for the 
Fifth Mobile Brigade and the Eighteenth Brigade, which have 
responsibility for the pipeline--in this case it is a matter of 
enhancing the training of existing units, unlike the situation 
with the first counternarcotics brigade, which was basically 
building a unit from scratch, forming a unit and taking it 
from, if you will, basic training all the way up to an 
operational capability.
    We think that the resources required in terms of manpower 
to do those tasks would be no greater than it was in the first 
counterdrug brigade. So in other words, no significant increase 
to the footprint and we will probably stay within the mandated 
numbers, even though this is not a counterdrug mission.
    Senator Roberts. If you can in the short time we are 
allotted, could you give me just a capsule comment on Venezuela 
and Argentina? I might preface that by saying when I had the 
opportunity with Senator Akaka and Senator Baucus to meet with 
Fidel Castro in Havana, something we call Saturday Night Live 
with Fidel, it went on for 16, 18 hours, and we asked him about 
Venezuela and Mr. Chavez and asked, is he the next Castro? He 
indicated, well, if he is that would certainly be good for 
Venezuela. I do not think that is the case. I do not agree with 
that.
    But it is his oil minister that turned the spigot in 
regards to the production on OPEC that caused some of the price 
spike we went through here about 6 months ago that got 
everybody upset. Could you give me just a capsule comment on 
how you feel, where we are both with Argentina, which is going 
through some real tough economic times, and also Venezuela?
    General Speer. Senator, let me start with Argentina. You 
are well aware that they are experiencing a financial crisis. 
There will be some effects not only in Argentina, but certainly 
in Uruguay and Paraguay, because of the trade intra-region. As 
a result of the financial crisis, certainly there is an amount 
of social unrest and at least uncertainty. At this point I am 
happy to report the military certainly is staying within its 
constitutional role and I see absolutely no indication that the 
military would take any actions outside of the constitution to 
become involved in that particular crisis.
    What I think we will see is the military assume some of the 
border security mission away from the gendarmerie, to free the 
gendarmerie to again do more traditional police functions. But 
in the case of Argentina certainly the military is supporting 
the constitutional process.
    In Venezuela I guess I like to say that anybody's guess as 
to where Mr. Chavez is taking Venezuela is as good as the next. 
Certainly there is cause for concern based on the company that 
he has been keeping and the places that he has been visiting. 
What we have seen in Venezuela is that the FARC moves with ease 
across the border into Venezuela, as it does northern Ecuador 
to some extent and Panama. We have seen weapons shipments 
arriving to the FARC and the ELN that originated in Venezuela. 
We still do not have any evidence at least where we can tie in 
official government involvement in any of those weapons 
shipments or the support to the FARC, but there are certainly 
some implications that it could be there.
    Senator Roberts. My time has expired, but I am going to do 
something that most do. I have one real short question if I 
might, Mr. Chairman.
    Chairman Levin. How long is the answer? [Laughter.]
    Senator Roberts. It is going to be about 15 seconds if it 
works out.
    It is to General Schwartz. Just a few years ago, Senator 
Stevens took a CODEL to North Korea, the first delegation 
allowed in there. We got a briefing in South Korea that should 
an attack occur the missiles would be about 18 minutes or less 
away from Osan Air Force Base. In keeping with Senator Warner's 
question in regard to some real problems with battalion 
commanders signing up for duty in Korea, would it be helpful if 
we just had a 12-month tour there, similar to other combat 
zones we have had, as opposed to the 2-year tour, with families 
who are 18 minutes away? If Kim Jong Il pulls the trigger, they 
are at risk.
    I could never really figure that out when we went through 
the quality of life issues at various bases, where we were 
improving officer clubs and football teams and other things, 
why we were doing that when we were so close to possible attack 
and putting people at great risk.
    Is that a reasonable suggestion, that if you had only a 12-
month tour we might solve two problems there?
    General Schwartz. Senator, thank you very much, sir. It is 
an approach. I do not happen to agree with it because the 
thrust of what I am trying to do is going just about in the 
opposite direction. We have about 10 percent of our command 
that is eligible to be command-sponsored on the peninsula. It 
equates to about 1,900 command-sponsored families. The thing 
about it is 96 percent of all those that serve in Korea are on 
a 1-year tour. It does not provide for the continuity that a 
warfighter needs in terms of command structure, command and 
control, and the ability to orchestrate that very difficult 
fight.
    So we want to get an element of that command stabilized. 
Two years is reasonable, and if you are there 2 years we would 
like to bring the families. We have deterred war for 50 years. 
We think, as the President said, we can do it for 50 more. I 
believe, as a CINC warfighter, it is a reasonable risk to bring 
some of the families in there, provide them the quality of 
life, and allow them to be together with continuity for the 
warfighter we need to fight and win.
    So that is my perspective on it and I am actually going a 
little different direction from you, Senator.
    Senator Roberts. I appreciate that. Thank you.
    Chairman Levin. Thank you.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I join 
other members of this committee in welcoming our distinguished 
guests to this hearing this morning.
    Admiral Blair, I have enjoyed working with you and I want 
to commend you for work well done as Commander in Chief of the 
Pacific Command. On behalf of the people of Hawaii, I want to 
thank you for the security you provide, not only for Hawaii, 
but for our great country.
    General Schwartz, I want to thank you for taking the time 
to visit me and to discuss your command and some of the 
challenges that you face.
    General Speer, I am looking forward to working with you. It 
is good to hear about your command and the challenges that you 
face.
    To all of you, I want to say that I remain committed to 
working with you to ensure the readiness of our Armed Forces, 
as we all work together to defend our great Nation.
    Admiral Blair, some of the forces that would be under your 
command in the event of a contingency are currently supporting 
our efforts in Operation Enduring Freedom. What is your 
assessment of the impact of this diversion on your missions in 
the Pacific theater both in the short-term and, if this 
situation persists, for a long period of time?
    Admiral Blair. Sir, in the short-term I think it runs an 
acceptable risk. The primary way we measure it is support to 
General Schwartz. For example, when we sent the Kitty Hawk 
Battle Group to the North Arabian Sea that took away a lot of 
the early air power that would be needed in a Korean 
contingency and so we deployed a squadron of Air Force land-
based aircraft from Alaska to Korea during that period and we 
were able to mitigate the risk.
    That is doable in the short-term. Over the long-term, 
however, a sustained commitment of force in the Central Command 
region at the levels that we have held for the last 6 months 
would require that we beef up our forces in the Pacific in some 
other way. You can do that by deploying naval forces more 
quickly, with less time back in home station. You can do it by 
activating Reserves. There are a number of ways you can do it.
    But we would have to over the long-term, I think, 
compensate for a sustained presence in Central Command at the 
levels we have had.
    Senator Akaka. Admiral Blair and General Schwartz, like 
many people I am concerned that we remedy shortfalls in 
munitions and in particular precision-guided munitions. 
However, I understand that our storage facilities are already 
at near capacity. As we attempt to increase and upgrade our 
munitions stocks, do we have adequate storage to protect and 
maintain them? If not, what is being done to remedy these 
problems?
    Admiral Blair. Yes, sir. I will leave the particular Korea 
situation to General Schwartz. That is his responsibility. But 
I can tell you that elsewhere in the region it is primarily an 
Air Force and Navy problem you are talking about, and we have a 
ways to go before we would max out our storage capacity right 
now. I will get you the exact numbers, but we have places to 
put more weapons which we need to build quickly before we need 
to build more facilities. I will provide some exact numbers to 
you in a classified response.
    [The information referred to follows:]

    Admiral Blair. We have the capacity to store additional Precision 
Guided Munitions (PGMs) throughout the U.S. Pacific Command (USPACOM) 
Area of Responsibility (AOR), however, many facilities require upgrade 
to improve storage and handling efficiency. These older facilities, 
including WWII-type igloo magazines, [deleted], and require labor 
intensive work-arounds for moving assets in and out of storage 
facilities. The ordnance infrastructure has been underfunded for many 
years and subsequently storage facilities have not been upgraded for 
optimal handling efficiency. Storage site security is sound, even under 
increased Force Protection following 11 September.
    With respect to the Air Force within the USPACOM AOR, [deleted]. 
Currently PACAF has an unfunded requirement to upgrade munitions 
facilities of $105 million. There are several projects currently being 
implemented to rectify some of the shortfalls. The [deleted] project to 
replace the munitions control facility and build 30 magazines is 
underway, costing $14.5 million. [Deleted] costing $4.7 million. These 
construction projects are for reducing outside storage and for 
increasing the service life of munitions and containers in which they 
are housed. Under the Afloat Pre-Positioned Force (APF), USAF currently 
stores munitions on three Military Sealift Command (MSC) leased 
container ships; [deleted]. A fourth ship will be added in late fiscal 
year 2002 for handling new production, depot stocks and the current 
fleet. [Deleted].
    With respect to the Army within the USPACOM AOR, Army munitions on 
the [deleted]. This storage problem is compounded by a $115 million 
shortfall for the Army Ammunition Operations and Maintenance account. 
This shortfall funding has stopped the Army's effort to initiate a 
retrograde program [deleted] of unserviceable U.S. munitions back to 
the United States. Retrograde and demilitarization of these munitions 
would alleviate the storage shortfall problems that exist [deleted]. 
[Deleted].
    With respect to the Navy and Marine Corps within the USPACOM AOR, 
the Navy is currently utilizing [deleted] of their storage capacity. 
This does not include [deleted] (reduced operating status) and 
[deleted]. Modernization of the Navy's ordnance storage and handling 
facilities is not keeping pace with weapons upgrades within the fleet, 
the ordnance stockpile, or transportation technology. The Navy is using 
breakbulk for transporting ordnance vice containerized shipping. 
Commander in Chief, U.S. Pacific Fleet (CINCPACFLT) is developing an 
Ordnance Infrastructure Plan for improving its ordnance capabilities in 
both handling and storage. Their priority sites for improvements 
include [deleted] with a projected cost of $188 million.
    In conclusion, storage is not an issue. The respective Services 
within the USPACOM AOR can store additional PGMs. However, storage area 
upgrades are required to improve storage and handling efficiency. 
Additionally, older and obsolete munitions need to be funded for 
retrograde and demilitarization to free-up storage space for more 
modern and preferred munitions within the USPACOM AOR.

    Senator Akaka. Thank you.
    General Schwartz. Sir, we have adequate facilities on the 
peninsula to store the munitions we need to fight and win, no 
doubt about it. But we have a challenge and the challenge is to 
retrograde some of the outdated ammunition that currently 
exists in those facilities so we can bring new and updated 
ammunition on board.
    We have started an initiative to do that. We have full 
cooperation all the way up through the chain of command and we 
are in the process of doing that now. It will take a little 
time, but it is in progress.
    Senator Akaka. General Speer, have any of the assets that 
would normally support SOUTHCOM missions been diverted to 
participate in Operation Enduring Freedom? If so, what is your 
assessment of the impact of this on your ability to command 
current or future missions in SOUTHCOM?
    General Speer. Yes, Senator. A significant number of the 
assets that we would normally be allocated under the 
counterdrug executive order have been diverted for both 
Operation Enduring Freedom and Noble Eagle. Having said that, 
we still are able to maintain a presence in each of the 
counterdrug threat areas and we are able to maintain the 
critical ISR taskings for Colombia and the immediate area. But 
collectively it is insufficient to do the full job.
    What it has forced us to do is be smarter in using the 
assets we have. I am happy to report that as we look to the 
operations from Joint Interagency Task Force-East (JIATF-East), 
our functional counterdrug command focused on both the transit 
and the source zone. Already this year seizures are ahead of 
the pace of last year, even with the reduced assets. That is 
really as a result of better use of the intelligence available.
    Senator Akaka. General Speer, there is an interest in this. 
When will we make a decision on whether the headquarters of 
U.S. Army South (USARSO) will be relocated from Puerto Rico to 
``to be announced''?
    General Speer. Sir, regarding the components in Puerto 
Rico, I know that each of the services are going through their 
courses of action within the service as to what should be the 
appropriate follow-on location. I do not know when, in the case 
of U.S. Army South, the Army will announce a decision if it 
intends to move USARSO or not.
    From my perspective, both United States Army South and Navy 
South as component headquarters could do their job from CONUS 
as well as they can do their job from Puerto Rico, because 
fundamentally they are coordinating headquarters focused on the 
AOR and there are no real assigned troops. We have a different 
challenge with our Special Operations Command.
    Senator Akaka. Thank you very much, Mr. Chairman. My time 
has expired.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Good morning, 
gentlemen, and thank you for your service to our Nation.
    General Schwartz, this morning you aptly described North 
Korea as the number one proliferator. Indeed, there are many 
examples of North Korea providing technical assistance and 
weapons to adversaries of the United States. For example, North 
Korea has been the key source of missile-related technology 
expertise and equipment for the Iranians since the early 1990s. 
Due to this extensive equipment and technical assistance from 
North Korea, Iran can now produce Scud missiles.
    Which technologies do you suspect that North Korea is 
providing to other major adversaries and which regimes do you 
believe are actively seeking that kind of assistance from North 
Korea?
    General Schwartz. Thank you very much, Senator. They are 
active, as I testified. I have a list here I could provide to 
you later of all the countries and exactly what they have 
provided since the last several years. It is quite extensive.
    But primarily it is missile technology and missiles, it is 
artillery and tank systems, submarines. They are the number one 
producer of submarines in the world--a small country--not high 
tech submarines on any kind of equity with what we have, but 
nevertheless they have a capability there and they are 
exporting it.
    I guess the other area is ammunition. They are supplying 
numerous countries with ammunition, and I can provide the list 
of those countries and the details if you would like.
    Senator Collins. I would. I ask that you provide that for 
the record.
    [The information referred to follows:]

    [Deleted.]

    Senator Collins. An article today that appeared in the 
Korean Herald indicates that U.S. military officials are having 
increased discussions with South Korea to try to have South 
Korea take a stronger and broader role, a more active role, if 
you will, in addressing the concerns about the North's nuclear, 
chemical, and biological weapons. Could you comment on those 
discussions?
    General Schwartz. The President had extensive discussions 
on this subject with President Kim. But as a follow-up to that, 
there was an emergency meeting in South Korea about the road 
ahead. The dialogue there was what can we do together, ROK-
U.S., to address the entire challenge, not just weapons of mass 
destruction, but also the conventional issue that exists on the 
peninsula.
    So I think there was an agreement to move together on both 
issues and not then have single lanes, the U.S. leading one, 
ROK leading the other, but that we move forward together. This 
is my understanding and I think this will produce the kind of 
dialogue and progress that we need for the future. I think that 
is the center of the comment that you were talking about or at 
least read about in the paper.
    Senator Collins. Are there other actions that we should be 
taking to try to put more pressure on North Korea to stop the 
proliferation activities?
    General Schwartz. I think right now as far as I am 
concerned as a warfighter the actions we are taking, the 
initiatives the President articulated so well when he visited, 
are right on target. The initiative with the Agreed Framework, 
the follow-up in 2003 as we reach that point, and some major 
decisions we have to make, are in the right direction. The 
confidence-building measures that I talked about earlier in my 
opening statement are the right way to go. This is a good road 
map to dialogue and to peace on the peninsula.
    So I think we have the right initiatives now to move 
forward.
    Senator Collins. General Schwartz, when I visited the 
peninsula, I think it was 2 or 3 years ago, and we went to the 
DMZ, I was appalled at the conditions of the barracks that our 
young soldiers were living in. Has progress been made in that 
specific area?
    General Schwartz. Yes, there has been progress. Believe me, 
Congress has been very generous and has been attentive to our 
needs. I have tried to articulate them to the House side as 
well as the Senate. We have had many visitors like you, as well 
as literally hundreds of others, and we are making gains.
    There is a lot to do. It is part of that story of trying to 
help our young men and women from a personal perspective, but 
it is also the MILCON, the quality of life issues that are 
extremely important. 50 percent of the facilities we have on 
the Korean peninsula were built in the early fifties. They are 
almost 40 to 50 years old. They need attention, and this has 
been part of my campaign plan to improve the quality of life of 
the men and women who sacrifice so much and come to serve their 
Nation in this great alliance.
    Senator Collins. You have been a tremendous advocate in 
that regard. I recall our discussions when I was in Korea. I 
just want to pledge my continued support to improving the 
quality of life for our soldiers serving there.
    Admiral Blair, I was in Pakistan in January and met with 
President Musharraf. Our delegation talked with him about the 
rising tensions with India, which had massed its troops all 
along the common border. Could you give us your assessment of 
the state of tensions between these two nuclear powers?
    Admiral Blair. I think the state of tension remains too 
high for anybody's comfort, Senator Collins. The forces of both 
countries are highly mobilized, are forward, and it would be a 
matter of days before conflict, high level conflict could break 
out, based on the sheer military preparations made on both 
sides.
    So it really brings you back to the political negotiations. 
I think that from the Indian point of view--and I am more 
familiar with the Indian views than the Pakistani views because 
only India is in Pacific Command's AOR--they are looking at the 
indicators of infiltration across the border. They are 
certainly looking at any sorts of terrorist incidents, like the 
attack on their parliament, like the attack on their government 
buildings in Srinigar of last year, as being events which might 
trigger action by them.
    I believe that the way forward there has to be for those of 
us outside of the region to simply put pressure on both sides 
to reach the solution that they both see is in their interests. 
Then the words have to be backed up with demonstrations of 
actual achievements which the two sides can point to. They can 
then go back to where they were, because their goals as far as 
terrorism goes are similar. Their goals for Kashmir, of course, 
are completely different, but those are goals they both agree 
should be reached peacefully.
    Senator Collins. It is of great concern. I personally think 
that General Musharraf has shown great courage in cracking down 
on the Islamic extremist groups within Pakistan. But it is a 
daunting task and it still remains just a tinderbox that is of 
great concern to me.
    Admiral Blair. A tinderbox with nuclear implications.
    Senator Collins. Exactly.
    Admiral Blair. Which is even more dangerous than the three 
times they fought in the past.
    Senator Collins. You mentioned in passing last year's 
incident with the EP-3. Can you comment on recent patterns of 
activity by China with regard to operations that our aircraft 
have been conducting since that time? Is China being more 
careful as far as the aggressiveness of its pilots?
    Admiral Blair. Yes, Senator. The recent intercepts for 
identification of our military aircraft flying off the coast of 
China have been conducted at about the same rate they were 
previously, but with more professionalism. That is a military 
buzzword. They have done it safely. They are doing it safely 
now, and the pattern that we saw before the EP-3 incident of 
this flat-hatting--more military jargon--of these dangerous 
maneuvers has stopped and they are conducting their 
identification runs in a safe way.
    Senator Collins. Thank you, Admiral.
    My time has expired.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Admiral Blair, I had a very fine visit to Korea and Japan 
in January. It was a good learning experience for me. One of 
the things we discussed, and I would like your brief thoughts 
on it as ranking member of the Seapower Subcommittee, was the 
decline in our number of Navy ships. We know that the Kitty 
Hawk is due to be decommissioned at some point. It performed 
very well as a forward staging base in this move from Japan 
over to the Afghanistan area.
    What do you see with regard to that ship in particular and 
is it something we could preserve and maintain for maybe not 
every purpose other carriers can perform, but does it have a 
unique role and should we think in terms of keeping it rather 
than letting it go? When is it due to be decommissioned?
    Admiral Blair. Senator, we were glad for your visit and I 
had very good reports of it. I myself visited the Kitty Hawk 
after you were there and in the interest of full disclosure I 
must tell you that she used to be my flagship, so as far as I 
am concerned she can do everything. So you are not talking to 
an impartial witness here.
    But the combination of the crew of the Kitty Hawk and the 
superb repair facilities provided by the ship repair facility 
in Japan, which I am sure they told you about, is keeping that 
ship in good condition. A carrier is such a big box of steel 
that you can change out pieces from turbines--a turbine is a 
huge piece of gear bigger than this table, weighing several 
tons, which I saw being replaced while I was there--through the 
electronics, which can be upgraded. So she has a lot of life 
left in her.
    The official decommission date that we are projecting for 
the Kitty Hawk is in 2007 or 2008, but there is a certain 
amount of flexibility in that. I can tell you that I do not 
have an abundance of aircraft carriers in the Pacific Command 
such that I feel I have extras lying around. So I am for making 
sure that we have enough to do the job in the Pacific, 
especially as we send them, as we talked earlier, to other 
theaters where they also do good work.
    Senator Sessions. I am hoping that we can look at that 
pretty hard. I think Senator Kennedy and I will be asking some 
of those questions on the Seapower Subcommittee. We visited the 
Spruance-class O'Brien that is also due to be decommissioned. 
It performed well. We are having such a hard time building 
sufficient new ships to keep our fleet at the size we need it 
to be that perhaps one solution would be to maintain some of 
our older ones, even though they may not be quite as productive 
as the new ones.
    General Schwartz, it is good to see you. I am glad to hear 
you talk about the housing situation in Korea. I visited the 
bases there, several of them. I personally went in a number of 
the housing units at those bases, and was frankly saddened by 
them. They are just not places you would want to take your 
family. The story of one wife breaking into tears going into 
one of the housing units was poignant to me.
    I also visited some senior enlisted men's quarters that are 
50 years old. They were not built for permanent quarters. We 
have been there 50 years. We do not seem to see an ending date 
to get out.
    Tell us your plan of consolidation and improving quarters. 
Can we not do that? I believe you would have support in 
Congress to accomplish it.
    General Schwartz. Sir, I think we can. I think we have laid 
out a vision for the future. I think it is a good one. It 
centers around this thing called the Land Partnership Plan 
(LPP), the BRAC-Korea that I mentioned initially in my opening 
statement. It is a 10-year vision. It consolidates the 
footprint. It saves a lot of money. It provides for readiness. 
It increases the quality of life and enhances training.
    I think it is a good plan. We are ready to sign it on the 
15th of March. It will definitely be a monumental step forward 
in improving that. What we ask of Congress to coincide with 
that effort is to sustain the military construction. Incumbent 
upon progress will be a sustained MILCON so that we can ensure 
that the barracks as well as the housing moves along with the 
LPP plan. So we would ask Congress to sustain MILCON or 
increase it as the case may be. I think if we keep those two 
azimuths together we will realize the progress we need and we 
will do right by our men and women who serve there.
    Senator Sessions. What do you have, 30 or more base camps 
and housing areas along the DMZ?
    General Schwartz. Yes, sir. We have 41 major installations. 
We are going to consolidate to 20, creating these hubs of 
efficiency.
    Senator Sessions. We will have more security with a lesser 
number and better quality of life in a lesser number.
    General Schwartz. Senator, that is exactly right.
    Senator Sessions. It makes sense to me and I congratulate 
you for it. I want to thank you for the quality of your staff, 
General Zanin and Lance Smith and all, Colonel Sinclair and his 
wife. They were very hospitable to us as we visited there.
    With regard to Korea, I came away from my visit somewhat 
troubled and a bit concerned. We heard talks about North Korea 
moderating and opening up a bit, but when South Korea built the 
railroad that was supposed to be extended into North Korea, 
North Korea refused to complete their end of it. There were 
going to be family exchanges, but North Korea blocked that as 
well.
    The word I am hearing is that Kim Jong Il recognizes that 
his power is based on nothing more than military power and does 
not want more openness to the rest of the world because more 
people would know just how oppressive this regime is, and it is 
absolutely one of the most oppressive regimes in the world. 
People in South Korea have a huge world class economy, make 
automobiles, buildings are going up everywhere, and they are 
starving to death right across the DMZ. There is no reason for 
that to happen except his brutality, his evil regime that is 
causing people to starve to death.
    I am troubled about how to deal with him. I am not sure 
just being nice is always going to do the trick. How do you 
feel about that?
    General Schwartz. Senator, I agree with you. I think the 
world is troubled about this man. Our President was clear when 
he was there, saying that he has trouble with the man and his 
leadership. He has tremendous empathy and sympathy for the 
North Korean people. But the leadership is oppressive. It is 
doing things to people, making them suffer and starve while he 
and those that surround him personally benefits.
    We have problems with that. The South Koreans, to their 
credit, since the summit, have initiated so many things to try 
to open the dialogue and to try to open the flow of peace and 
prosperity on the whole peninsula. But the fact of the matter 
is North Korea has done nothing.
    Senator Sessions. That is what I believe is accurate and it 
is a sad thing.
    General Speer, I would say just in closing that I think we 
have to change our focus in Colombia. I have never felt that 
the focus solely on narcotics was a wise policy. I believe 
President Pastrana has now given peace every possible chance. 
He has now made a decision I think we need to support. He has 
to take back his country.
    I do not know how we can ever expect Colombia to stop the 
importation of narcotics into the United States if they do not 
control their territory. Once Colombia is reunited and is a 
healthy country, I think we can demand some things with regard 
to narcotics that we cannot do now.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    There has been a great deal of discussion about North 
Korea's missile and missile technology exports, and properly 
so. There has been an effort to try to get North Korea to stop 
exporting ballistic missiles and technology, and also to stop 
the long-range missile program. We made some progress on the 
testing, at least. I think everybody would concede that it is 
in our interest to try to get North Korea to give up their 
long-range missile program and to stop exporting missiles.
    My question relates to China, because China also, according 
to unclassified sources, supplies missile technologies to two 
of the missile proliferators that are of greatest concern to 
us. We have a great deal of concern about North Korea and Iran 
as proliferators. It is my understanding from unclassified 
sources that China supplies missiles or missile technologies or 
other WMD technologies to Iran and North Korea.
    Is that accurate, Admiral?
    Admiral Blair. Mr. Chairman, I would rather provide that in 
closed session if I could, because sometimes I do not know if I 
am looking at a top secret document or something in a 
newspaper, and I do not want to give you the wrong information. 
I can tell you, though, that I am worried about the missiles 
China builds for its own purposes, which threaten Taiwan, and I 
am concerned about the missiles North Korea builds for its own 
purposes, which threaten South Korea and Japan.
    Unfortunately, those programs continue apace and they 
threaten our allies in Japan and Korea. They threaten our 
forces in Korea, and of course they threaten Taiwan and in case 
of conflict would cause a lot of damage there.
    In that regard, the recent cancellation of the Navy Area 
Missile System built on the Aegis technology I think is a blow 
in terms of our plans to be able to deploy sea-based forces 
quickly to the vicinity of Japan, to the vicinity of Taiwan, if 
ordered, to be able to handle those missiles that threaten 
those two locations. I certainly hope we can put that program 
back together so we can provide that sort of assurance and 
actual protection to our forces and citizens of other countries 
that might be threatened in the near-term.
    Chairman Levin. According to unclassified sources, let me 
just state that China has been an exporter of missile 
technology to Iran, North Korea, and Libya, among other 
countries. We would ask you then for the record, for this open 
record, to tell us whether or not that is accurate and if so 
give us the same kind of list relative to those technologies 
that General Schwartz is providing for the record for Senator 
Collins relative to North Korea.
    Admiral Blair. Yes, sir, I will do that.
    [The information referred to follows:]

    China is now one of the leading exporters of equipment, materials, 
and technology used to develop surface-to-surface ballistic missiles. 
Beijing has made numerous nonproliferation pledges, and has sought to 
abide by a very limited interpretation of the Missile Technology 
Control Regime (MTCR). The Chinese pledged, in 1994 and 1997, not to 
export surface-to-surface missiles that violated MTCR limitations of a 
300km range and/or 500kg payload. In 2000, following U.S. sanctions 
applied because of Chinese assistance to Pakistan's ballistic missile 
program, Beijing specifically declared it would ``not help states 
develop ballistic missile programs that can be used to deliver nuclear 
weapons.''
    Despite these promises, we have detected continued Chinese exports 
of missile technology. This is directly related to Beijing's refusal to 
recognize the MTCR's key technology annex. China objects to limitations 
on its technology and product exports, arguing that there are no 
similar controls applicable to manned aircraft, which can deliver 
weapons of mass destruction over significant distances. Because of 
this, [deleted].
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Levin. General Speer, there has been some 
discussion here this morning about Colombia and I want to ask a 
couple of related questions. The Colombian government reported 
last week that the amount of coca under cultivation had been 
reduced as a result of Plan Colombia and its eradication 
campaign. But according to some media accounts, the CIA 
estimates that coca cultivation is either stable or slightly 
greater than last year.
    Can you give us your assessment of how effective Plan 
Colombia's Eradication Campaign has been over the last year?
    General Speer. Thank you, Mr. Chairman. What I am not 
really prepared to do is enter the debate as to whether the 
government of Colombia's figures, the Counternarcotics Center's 
figures, or the embassy's figures are the right figures on 
whether it is more or less than last year, because frankly, I 
just do not know.
    But what I can tell you is we have seen great progress in 
terms of DOD support to Plan Colombia. Since the time that you 
visited Colombia--I believe it was February of last year--we 
have completed the training and equipping of the entire 
Counternarcotics Brigade. At that time, two battalions had been 
trained and the third battalion completed training in May of 
last year.
    They have been operational since December of 2000. So in 
essence, in terms of operational results from Plan Colombia we 
are just into the fourteenth month of what was designed as a 6-
year plan. The Counterdrug Brigade has been very successful. 
Again, they are focused on the Putamayo and Cacaca regions of 
southern Colombia. They have destroyed in excess of 860 labs, 
most of those being base labs as opposed to HCl labs. The 
forces of the Counterdrug Brigade have provided the ground 
security, which has allowed the Department of State aerial 
eradication operations to basically cover 59,000 hectares in 
southern Colombia.
    So with that snapshot, which was the focus of phase one of 
Plan Colombia, I think we have had some successes.
    Chairman Levin. From a purely military perspective, do the 
limitations on our aid to counternarcotics activity make sense 
in a country whose government is under the kind of pressure 
that it is under from insurgencies and terrorist tactics? Or 
have you recommended that that aid be broadened? I know Senator 
Sessions and others have made reference to this, but I am not 
sure I heard a clear answer. There may have been one, but I am 
not sure I heard it.
    General Speer. Again, to review the bidding, Mr. Chairman, 
policy-wise my authorities have not changed and what I can do 
is counterdrug-related only.
    Chairman Levin. Have you recommended, though, that it be 
broadened?
    General Speer. Sir, my assessment is that the current level 
of support to the Colombian military is insufficient for the 
Colombian security forces to reestablish a safe and secure 
environment. As you pointed out, for all of Plan Colombia to 
work, all of those non-military elements--judicial reform, 
social development, alternative development, all the elements 
of governance to be re-established--up front you have got to 
have a safe and secure environment and the current level of 
support would not do that.
    Chairman Levin. Does that mean you have taken the next step 
and made a recommendation that our aid restrictions be lifted 
so that we can have a broader target for the assistance?
    General Speer. Sir, I have provided courses of action that 
would address both continued support within the current 
restrictions as well as what we could do beyond the current 
restrictions.
    Chairman Levin. Thank you.
    Senator Nelson, I am going to recognize you next if you are 
ready because you have not had a first round.
    Senator Bill Nelson. Yes, sir. I am ready, but I am 
certainly willing to defer to my great chairman and my great 
former chairman.
    Chairman Levin. We have all had a round.
    Senator Warner. Go right ahead.
    Chairman Levin. Senator Nelson.
    Senator Bill Nelson. Mr. Chairman, a few weeks ago we had 
General Peter Pace here, and before that we had the Secretary 
of Defense. I asked when we were going to get a four-star CINC 
for SOUTHCOM to replace General Pace, who came up here. He said 
it would happen momentarily. So I am just wondering; if you 
have another couple stars around, we could just go pin them on 
General Speer here?
    Do you have any idea?
    General Speer. Sir, the answer to that question is above my 
pay grade.
    Senator Bill Nelson. Yes, I understand.
    Senator Warner. That is a very good answer. [Laughter.]
    Senator Bill Nelson. Well, if I had them I would put them 
on you.
    General Speer. Thank you, sir.
    Senator Bill Nelson. But now having raised the issue, it is 
important that we have a four-star CINC there and I am going to 
start being a thorn in the side of the Defense Department until 
we do. I think I have been patient enough now. General Pace 
assured me that was the case. He was a terrific CINC, by the 
way. He was just so well accepted in the Miami community. 
Everybody just loved General Pace down there. So I want to see 
that they follow through on this.
    It is my understanding that in earlier commentary here 
there was reference made to moving the Army and the Navy 
Southern Commands out of Puerto Rico. What in your professional 
military judgment would be some of the priorities that we 
consider in the site selection if they are moved out of Puerto 
Rico?
    General Speer. Senator, from the Southern Command 
perspective I think the Army and Navy component headquarters 
can do their job within CONUS as well as they can within Puerto 
Rico. Candidly, time and distance-wise, most of their 
coordination within the area of responsibility, with the 
exception of the northern Caribbean, is done by commercial air. 
The first stop is Miami, which is 2 hours away. So access to a 
major airport hub really is all we need for those components to 
do their job.
    But I think the services have plenty of options to deal 
with, considering the service infrastructure available.
    Senator Bill Nelson. Would that be applicable to the Navy 
command as well?
    General Speer. Yes, sir, but let me make a distinction in 
terms of the environment in Puerto Rico. There are really three 
separate issues as we look at U.S. military forces in Puerto 
Rico. The first and the one that has occupied the news 
certainly in the last few years has been the question of 
training in Vieques. That is a question of Navy and Marine 
Corps training readiness and the Navy certainly has the lead in 
terms of determining the alternatives for the way ahead as it 
pertains to Vieques or post-Vieques.
    The second issue in terms of forces, the one we are 
concerned about, is the fact that we have an Army, Navy, and 
Special Operations component located in Puerto Rico that 
belongs to Southern Command. Since our Army and Navy component 
headquarters are predominantly just that, headquarters that 
coordinate activities for their service within the region, as I 
stated, their duties can be executed from CONUS as well as from 
Puerto Rico.
    In terms of our Special Operations Command, it is the only 
command that has a joint task force readily available to 
respond to a crisis throughout the region. If they are moved 
from Puerto Rico there would have to be special consideration 
to maintaining that capability.
    The third issue is the strategic value of Naval Station 
Roosevelt Roads in terms of the airfield and port. That 
platform in terms of the airfield and port are critical to the 
execution of our day to day operations in the AOR, both in 
terms of logistics or in terms of just a base for aircraft 
operations. As we look to the future and look to the realm of 
all the things that could happen, other than Guantanamo Bay, 
Naval Station Roosevelt Roads is the only other U.S. 
territoried airfield. We do have access to a C-5 capable 
airfield in Honduras, but again one that we own, Naval Station 
Roosevelt Roads is pretty significant.
    Senator Bill Nelson. I want to compliment you on the way 
that you accommodated so quickly all of those detainees coming 
into Guantanamo. All of the press attention was over whether or 
not they were being humanely treated, which of course we knew 
they were. After Jeff Sessions, Jim Inhofe, and I visited the 
base, we were able to say that to the press.
    But my concern was that we were not getting the information 
out of them quickly enough. At the time we were still taking 
them to a tent to do the--there is another word that you all 
used for ``questioning.''
    Chairman Levin. ``Interrogation''?
    Senator Bill Nelson. No, I used the word ``interrogation,'' 
but they have another. ``Screening,'' that was the word.
    There did not seem to be a lot of information forthcoming. 
But the marines were just finishing the building of those 
screening facilities. Can you give us some idea about your 
observation of the progress of the screening activity since we 
were there?
    General Speer. Senator, as I probably mentioned to you that 
day, or if I did not General Lehnert probably did, Guantanamo 
has been a work in progress in terms of that whole operation. I 
would be happy to give you a little bit more detail, but I 
would prefer we do it in a closed session if possible, sir.
    Senator Bill Nelson. OK. It also looks like you are moving 
ahead pretty well now on the building of the new facilities and 
that is certainly going to make your life a lot easier.
    General Schwartz, I was one of those Senators that have 
been to Korea and I compliment you on the kind of relationship 
that you have with the Korean government. That is a real 
success story. Admiral Blair, it was my pleasure to visit with 
you en route to Japan and Korea with Senator Shelby, and you 
certainly had your hands full out there. I thank you very much 
for your service, all three of you, to our country.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    That is a very good line of questioning you had, Senator 
Nelson. I recall your trip with Senator Sessions. It was very 
timely on behalf of the committee. I was not able to personally 
make it at that time or otherwise I would have joined you.
    General Speer, I think we always carefully cover at our 
hearings with Southern Command the subject of the Panama Canal. 
I think an update for this record would be helpful. Would you 
kindly do so?
    General Speer. Sir, I know that, in terms of the canal 
itself, there was a lot of anxiety in terms of what would 
happen post-2000.
    Senator Warner. Particularly the interest expressed by 
China, I suppose indirectly by virtue of a certain Chinese or 
affiliate company, in obtaining at both ends of the canal some 
facilities which ostensibly are for civilian commercial trade.
    General Speer. Yes, sir. First of all, or the canal itself, 
canal operations are going very well. Frankly, as long as the 
canal administration is kept separate and distinct from the 
government of Panama, I think there is every prospect that they 
will continue to operate in a manner sufficient for the 
demands.
    Senator Warner. What is the annual transit now of U.S. Navy 
vessels and then our commercial vessels?
    General Speer. Sir, I am not sure. I will have to get back 
to you on that.
    [The information referred to follows:]

    During fiscal year 2001, 75 U.S. Navy vessels and 369 U.S.-flagged 
commercial ships transited the Panama Canal.

    You expressed concern about the Hutchison Whampoa, which is 
the Chinese-owned shipping company that does run the container 
ports at each end of the canal, both on Colon and in Balboa. 
Again, there is no evidence to indicate anything other than a 
commercial venture. Obviously, just the presence of a Chinese 
company as opposed to a U.S. company causes concern. Of note, 
that same company has a similar interest in the Bahamas and has 
just bid on a similar interest in the port of Manta in Ecuador.
    Senator Warner. What about drug trafficking and the ability 
of the government to try and effectively handle that?
    General Speer. Sir, I would tell you that the security 
forces in Panama are improving. I would also tell you that they 
are not at a level where they can adequately control their 
borders, whether you are talking about the FARC operating at 
will, moving across from Colombia into the Darien province or 
any of the possibilities of transit of weapons, drugs, or any 
other contraband through Panama.
    Senator Warner. Admiral, I think you and General Schwartz 
carefully discussed here today the very necessary chopping of 
your naval assets from the AOR of Korea and the AOR of the 
Pacific to CENTCOM's AOR, where you said they performed 
brilliantly. Having visited the Nimitz with my distinguished 
chairman over Thanksgiving, we can testify to their 
professional efficiency and the really extraordinary 
performance of our naval forces deployed in that area.
    But has it in any way brought about a concern in either 
you, Admiral Blair or General Schwartz, as to the chopping of 
those forces into the Afghan AOR?
    Admiral Blair. In the short-term, Senator Warner, we have 
been able to take compensating measures which have maintained 
deterrence within adequate levels of risk. In the long-term, we 
would need to make some adjustments if we are to keep at this 
level of Navy and Marine Corps commitment to the Central 
Command region, which, as you know better than anybody, puts 
tremendous strain on the base of naval forces to maintain them 
at that distance for that period of time.
    Senator Warner. General Schwartz.
    General Schwartz. Sir, I would echo what Admiral Blair 
said. We did some exceptionally good things in terms of 
mitigation that were articulated earlier. I think that needs to 
be done because part of this whole deterrence is the message of 
resolve. When we do that, clearly we indicate a strong resolve 
on the peninsula. I think in the long-term we just need to 
watch our assets that need to come to that peninsula and if we 
have war, we must have a careful eye that we do not overextend 
ourselves, as indicated by Admiral Blair.
    Senator Warner. Admiral Blair, Indonesia is a very 
important part of your AOR. Do you have any comments on 
Indonesia's stability or instability level and our commitment 
there? We have a very small force, but I think an important 
force, still dealing with some elements of that instability, am 
I not correct?
    Admiral Blair. Yes, sir. The picture in Indonesia--and I 
have visited there during the last 6 months--continues to be 
mixed. We see elements of greater competence of the Indonesian 
Armed Forces in dealing with the insurgencies really at both 
ends of the country and the sectarian violence in the center. 
But there still are shortfalls in terms of ability to handle 
those tough tasks.
    The Indonesian Armed Forces are stretched too thin to be 
able to perform basic functions like containing piracy on their 
northern coast toward the coast of Malacca or being able to 
contain illegal migration that goes through their country down 
to Australia.
    Senator Warner. What evidence is in the open with regard to 
any connections with al Qaeda or any elements in that 
archipelago?
    Admiral Blair. The Indonesian officials themselves have 
given conflicting statements, some saying that there are al 
Qaeda elements and ties to Indonesia, some saying that there 
are not. There is certainly evidence that Indonesian groups are 
in touch with al Qaeda groups. The one example I can give you 
that has been talked about freely in the papers is an 
Indonesian citizen who went into Singapore to assist in 
plotting attacks against U.S. embassies and U.S. ships. When 
the Singaporeans made a bunch of arrests, this man, whose name 
is Fathur Rahman al-Ghozi, fled to the Philippines, where he 
was captured by the Philippine police. He is an Indonesian 
citizen.
    So there are Indonesians who are connected with this group 
that is centered in Singapore, Malaysia, and the Philippines. 
In addition, the Indonesians themselves tell me that this 
difficulty of controlling their borders as tightly as they 
would like to makes them vulnerable to those who would move 
into Indonesia in order to continue their work. So it is a 
concern and frankly Indonesia is not having the success that 
Malaysia and Singapore are having in terms of identifying, 
pursuing, and arresting terrorists.
    Senator Warner. Does Indonesia have a potential of being 
faced with the problems of having training camps established, 
perhaps not on the proportion of Afghanistan, but some lower 
level?
    Admiral Blair. 17,000 islands, a 3,000-mile breadth. There 
is certainly the potential for establishing that sort of a 
camp.
    Senator Warner. I recognize that. 17,000 islands in that 
nation's archipelago.
    Admiral Blair. Yes, sir, and plenty of opportunity for 
mischief of that type.
    Senator Warner. Mr. Chairman, with Admiral Blair's 
forthcoming departure from active duty, it is my understanding 
you are going to come to Virginia; is that correct?
    Admiral Blair. Yes, sir. As we mentioned, instead of 
working for you, you are going to be working for me. I am going 
to be a Virginia voter.
    Chairman Levin. How quickly is this going to happen? 
[Laughter.]
    Now, under a very technical interpretation of the early 
bird rule, Senator Nelson would actually be next. But I think 
he understands why I am going to use a more common sense 
approach to the early bird rule and call on Senator Sessions. 
We have checked that out and he agrees that common sense 
dictates we go to you next, Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. You are always 
fair and run a great committee hearing.
    General Speer, just to follow up a little bit on 
perspective on where we are, you are familiar with the history 
of instability and the attempts at the peace process. Even the 
radical chic Europeans have all tried to deal with the FARC and 
tried to bring them to the peace table and make progress. Are 
you aware now, considering the decision that President Pastrana 
has made to take back the territory and go to war, of any 
diplomatic or political reasons that that is a mistake? Is it 
not a good decision that he has reluctantly made?
    General Speer. Certainly, Senator, as I stated in my 
written statement, from a military perspective it was the right 
thing to do. We have seen in the open press just over the 
weekend an interview with one of the FARC commanders--I am 
sorry, I do not recall the name. In essence, it was kind of an 
admission that the FARC had used the peace process as nothing 
more than an effort to buy time to restock their forces, to 
provide for training, rest and recuperation, and basically to 
prepare to take the campaign back against the people of 
Colombia, and in essence admitted that there never were any 
real negotiations in terms of negotiating in good faith on the 
part of the FARC.
    Senator Sessions. That is what it has appeared to be. I 
appreciate that. Is it not classical military-political theory 
that under these circumstances the only real hope for a 
legitimate peace process is to get the other side on the 
defensive militarily? Generally, if you have peace 
negotiations, is that not when it occurs?
    General Speer. Yes, sir, I think that as long as the FARC 
enjoyed the protection of the Despeje, in other words the safe 
haven, an area that both the Colombian military and the 
Colombian police were denied access, the FARC had free rein. As 
long as they could string that out, they had no real reason to 
resolve it.
    What we have also seen--and this gets back to some of the 
reporting coming out on the coca cultivation, there is general 
consensus that the coca cultivation inside the safe haven 
drastically increased over the last year.
    Senator Sessions. I think that is the grim truth of it. We 
wish it were not so. We wish we could avoid taking this bitter 
pill. But the people of Colombia, 40 million people, they are a 
democracy. They have been allies of the United States. They are 
good trading partners with the United States. Would you not say 
that this situation now is at a critical stage, that President 
Pastrana and the leadership in Colombia have made a new and 
historic commitment to taking back their territory and unifying 
their country as a democracy?
    General Speer. Senator, certainly President Pastrana 
gambled his entire administration on this peace process. That 
is the campaign platform that he was elected on and everything 
that he had done up until the 20th of February had been aimed 
in that direction. But even after his eleventh hour extension 
of the Despeje on the 20th of January after the international 
community was involved in leveraging or at least brokering an 
extension in terms of an agreement, between the 30 days that 
followed and his ultimate decision to suspend the Despeje there 
were in excess of 100 terrorist acts by the FARC. So the FARC 
certainly had some very strange negotiating tactics in a peace 
process.
    The fact is the Colombian security forces, as I stated, 
both the police and the military, lack the resources today to 
reestablish a safe and secure environment. Now, those 
resources, as alluded to, to some degree that is a 
responsibility of the government of Colombia, because the other 
thing that we have not seen is increases in terms of funding 
and support from the government of Colombia's own budget to the 
Colombian military even as a result of this latest action.
    Senator Sessions. It does appear now, does it not, that the 
polls show a growing majority--what does it show for the 
support of the Colombian people for fighting the terrorists?
    General Speer. Senator, I am not aware of what the latest 
figures are, but there is an overwhelming majority, the trend 
line from January to this date, that support Pastrana's action 
to discontinue the Despeje. If you use the other measure, which 
is to take a look at the upcoming presidential election, the 
presidential candidate Arribe is the more hard-line candidate, 
in terms of the actions that he proposes to take against the 
FARC. Certainly in January his popularity pushed him to the 
lead of the campaign, and even since Pastrana's decision to 
discontinue the Despeje Arribe he has gained in popularity 
based on the polls. So this indicates that there is genuine 
public support for this action.
    Senator Sessions. I assume part of his platform is to 
expand the defense budget and strengthen the military?
    General Speer. Sir, I am not conversant on what his actual 
campaign platform is.
    Senator Sessions. I remember talking to President Pastrana 
several years ago and giving him my opinion, which I am sure he 
thought not worth much, that the peace process probably would 
not work and that ultimately he was going to have to be an 
Abraham Lincoln: He was going to have to unify his country 
through military force. Lincoln was not prepared to do it the 
first year. It took him a long time, but he succeeded.
    Should we not be helping the people of Colombia? They are a 
democracy. They have been patient. They have tried every 
possible peace process. They are good allies of ours. They are 
fighting against communists, they are fighting against 
kidnappers, terrorists, people who are drug dealers and 
furthering the drug industry that we oppose. Should we not be 
on the right side of this battle?
    General Speer. Sir, Colombia is important to the United 
States for all the reasons you just said. It is certainly the 
second oldest democracy in the hemisphere, second only to the 
United States. The criticality of Colombia is that it is the 
linchpin in the Andean Region. It is critical for the United 
States that Colombia survive as a democracy and re-establish 
its security, because without that it will only grow throughout 
the region. So Venezuela, Panama, and Ecuador are certainly at 
risk to some degree based on what happens in Colombia.
    Senator Sessions. Well said. I think that is an important 
point to make and it really troubles me and causes me some 
concern. I remember about 2 or 3 years ago we had President 
Clinton's ambassador here, Ambassador Pickering, and he stated 
flatly our only emphasis in Colombia is anti-drugs. I said, 
``Sir, are we on the side of the democratic government of 
Colombia and against the communist insurgents or not?'' He 
repeated: ``Our only mission in Colombia is counternarcotics.''
    Has anything changed?
    General Speer. I am not sure of the exact words that 
Secretary Powell used, but I was with Under Secretary Grossman 
in Colombia the first of last month in the press conference 
that he gave following our meetings with President Pastrana, 
the foreign minister, the minister of defense, and the military 
leadership. Our support to Colombia at that time--now, this was 
pre-Pastrana's decision--was characterized as still focused on 
counterdrug, but the wording was not exclusive, because of the 
proposal for the pipeline security.
    Senator Sessions. Well, I think it is time to switch. I 
think we need to support the government, help it re-establish 
its control over its territory, and then we can deal better 
with the narcotics problem under those circumstances.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Nelson.
    Senator Bill Nelson. General Speer, would you comment on 
your observations on Venezuela?
    General Speer. Unfortunately, you missed the other question 
on that topic. Let us see if I can recapture most of it. We are 
very concerned about President Chavez. Your guess as to what 
direction Chavez is taking Venezuela is as good as mine or 
anybody else's. What we do know is he is experiencing a severe 
deterioration in terms of popularity. His promises have not 
yielded deliveries.
    I mentioned that the FARC operates at will across the 
border into Venezuela. There are arms shipments originating in 
Venezuela that get to the FARC and the ELN. We have been unable 
to firmly establish a link to the Chavez government, but it 
certainly causes us suspicions.
    The company that Chavez keeps around the world, although 
under the guise of OPEC, certainly causes additional concerns 
as well.
    Senator Bill Nelson. Mr. Chairman, I do not know if it is 
symbolic or symptomatic or what-not, but clearly the interest 
of the United States was served so well when all the countries 
of Latin America basically were democracies. Now we see a 
disturbing trend in a number of those countries that are moving 
away from democracy. So at some point it might be well for some 
of us to get together with maybe the Foreign Relations 
Committee and talk about the future of Latin America, and what 
more we should be doing to aid the drug fighting down there in 
order to shore up these additional democracies.
    When you and I went to Colombia, we had a sobering sense of 
reality that if we were able to stamp out the coca growing in 
the south it could pop up right across the border in either one 
of those other countries, Ecuador or Brazil. So I would like to 
get my hands around that a little more as it involves the 
future interest of the United States.
    Here we have, right across from Colombia, a problem in 
Venezuela. So I do not know the answers, but I am sure going to 
be asking some questions.
    Chairman Levin. That is an important point, Senator Nelson, 
and I think we ought to talk to Senator Biden and see if there 
is some joint work that our committees can do. As you point 
out, the coca problem is not just because other places can grow 
it, but other places in Colombia apparently have grown it. You 
indicated the safe haven area has increased its production, 
which may have made up for the destruction in areas where we 
have sprayed. So without getting into the numbers or even 
knowing the exact numbers, I think we face that possibility, 
too, which reinforces the point about the importance of the 
government being strong enough to go after not just the 
counterinsurgencies, but also after the paramilitaries as well.
    At any rate, I do not want to interrupt you, but I agree 
with your assessment.
    Senator Bill Nelson. I appreciate it.
    Admiral Blair, if we end up going after the terrorists in 
places like Indonesia and the Philippines, how do you handle 
the command structure there, since it would not be directly in 
General Franks' area of command?
    Admiral Blair. Before I answer that, Senator, could I pile 
a little bit onto that previous discussion you had?
    Senator Bill Nelson. Please, please.
    Admiral Blair. At the working level, we find that as we 
attack these threats like terrorism and counternarcotics, which 
are threatening entire countries, and as we are building the 
ability for governments to control their borders, we trip 
across one of the traditional approaches that we have built up 
for very good and sufficient reasons in terms of our funding 
flows and how money is used. We often find as we try to put 
together a coherent program towards a country, to work with a 
country like the Philippines in my case or like Colombia in 
General Speer's case, that we have to almost deform our 
policies to get the job done that needs to be done because of 
the type of money, the source of money, and the restrictions 
that it must be spent on, often based on other countries.
    Now, you who give us the money need to know how we are 
spending it and what purpose it is for and that is absolutely 
right and proper and it keeps us very well on the right track. 
But I think we can have a richer dialogue in terms of getting 
at big problems involving all aspects of a country. Often a 
country that cannot control its terrorism cannot control its 
narcotics, cannot control the running of guns, does not control 
its financial affairs very well.
    We have a term in our AOR called a ``seam of lawlessness,'' 
which just brews up bad stuff in all sorts of ways, of which 
terrorism is the most damaging. If that discussion between the 
Armed Services Committee and the Foreign Affairs Committee 
comes up with approaches that we could make into really 
coherent, integrated approaches to assist countries to do work 
which is in our interest, and make the money available in a way 
that would match the country that we are dealing with, that 
would be a great help to us at the working end.
    As I say, I do not argue that you ought to write us a check 
and leave us alone until we fix it. I think we ought to be 
fully accountable for what we are doing. But right now we kind 
of push against some of those funding restrictions as we try to 
do what we think is what both you in Congress and our bosses in 
the Executive Branch want us to do.
    But as for the question on the command structure for the 
forces in our area of responsibility, Senator Nelson, in the 
Philippines we have established a joint task force. That is a 
very familiar form of command and control to us. The commander 
of that joint task force, General Wurster, works directly for 
me and he takes his direction from me. He coordinates with the 
ambassador as far as the country team goes. But we keep a very 
clean, two-level chain of command in that area.
    It is more complicated in countries like Malaysia, 
Singapore, and Thailand, where there is not such a direct 
military element. In that case we work very much with the 
embassies and I, in fact, send officers into the embassies who 
are called counterterrorism liaison teams. They function as 
part of the ambassador's staff, but they have direct linkages 
with my staff that works on terrorism, so you get good linkage 
up at the level where you are making your plans and you are 
carrying it out, so that what we are doing with the other parts 
of our programs in these countries is well linked in with the 
military assistance that we provide.
    So it is either the joint task force or else it is the 
counterterrorism liaison force working with the embassy. I 
think we have to invent, just as we do with the more flexible 
funding mechanisms. I think we on our side need to develop more 
integrated structures for these problems that cut across so 
many lines. Frankly, right now there is a little bit of 
coordination and mother may I and would it not be nice, rather 
than: This is the plan, here is the military piece, here is the 
diplomatic piece, here is the economic piece; go out and 
execute and make it happen.
    So we are working our way towards new forms, but we are 
using the old categories, the both the funding and authorities, 
in order to do the job right now.
    Senator Bill Nelson. If we were in a hot war in that part 
of the world, as we are now in Afghanistan, would the lines of 
authority be through the CINC of the Pacific Command?
    Admiral Blair. Yes, sir, from the Secretary of Defense to 
me. If it were a war in Korea they would go straight from the 
Secretary of Defense to General Schwartz, and I support him. It 
is pretty clean in war. But as we have found in these sorts of 
wars that we get in these days, it is really not so clean. In 
Afghanistan, for example, as General Franks I am sure can tell 
you himself, the business of coordinating with the other parts 
of government that are concerned--the Department of State, the 
intelligence agencies, the law enforcement agencies like the 
FBI, international organizations --there still is a great deal 
of coordination that has to go on in order to get the common 
job done.
    So although the military side is clean and everybody knows 
who has responsibility to shoot weapons and all, for the total 
integrated effort in a country, which involves much more than 
just military actions, we sort of invent that as we go.
    Senator Bill Nelson. Well, that is in large part why I have 
such admiration for all of you. I am the most familiar with 
Southern Command and the CINC in Southern Command has to be a 
diplomat par excellence. So you all wear many hats and you wear 
them very well.
    Thank you, Mr. Chairman.
    Chairman Levin. Senator Nelson, thank you.
    Just a couple questions, finally, from me. First, General 
Speer, the Colombian military's record with respect to human 
rights and collaboration with the paramilitary groups has been 
a major factor in Congress' attitude about assistance to the 
Colombian military. In your formal statement you said the 
following: ``We have witnessed a steady improvement in the 
professionalism and respect for human rights by the Colombian 
military, accompanied by increased effectiveness in counterdrug 
operations.''
    You also stated that: ``In a short period of time, the 
Colombian military has emerged as one of the most respected and 
trusted organizations in Colombian society. Less than 3 percent 
of complaints of human rights abuses last year were attributed 
to the Colombian security services, down from a high of 60 
percent just a few years ago. The Colombian military,'' you 
said, ``have also aggressively stepped up operations against 
the AUC,'' which are the paramilitaries. ``This progress 
reflects a strong and principled leadership and the genuine 
desire of the Colombian military to honor and promote 
democratic principles in their country.''
    Finally: ``There have been no allegations of human rights 
abuses against the Counterdrug Brigade.''
    I think if Congress is going to look at broadening the 
mandate in terms of our aid and its recipients in terms of our 
aid and purpose, it is essential that Congress, my colleagues, 
believe that testimony. So anything you can do to give examples 
to flesh out that testimony, to give support to your beliefs, I 
think will help in terms of whether or not we are going to 
continue to restrict aid just to the counterdrug effort or 
whether we are going to broaden it to try to support that 
democratic government down there, which is elected 
democratically, which has plenty of problems on its hands, 
which needs, and I believe, deserves our support.
    So they are connected, is my point here, and the linkages 
between, for instance, the Colombian military and the 
paramilitary have been very destructive in terms of confidence 
of Congress in the military down in Colombia. On our visit I 
think we saw surely an effort on the part of the leadership at 
least of the Colombian military to break those linkages which 
exist at the grassroots level.
    But at any rate, your testimony is very much on point and 
on target in that regard and it is essential again that 
Congress reach that conclusion, I think, if we are going to 
broaden the purpose of the aid.
    That is not a question. It is just a comment to you. I 
welcome any reaction if you like.
    General Speer. Sir, just to amplify, I am convinced that 
the military leadership in Colombia is firmly committed to 
setting things straight in terms of taking action on any 
reports of wrongdoing. They have suspended officers and 
noncommissioned officers for acts of wrongdoing. They certainly 
have stepped up their operations against the illegal 
paramilitaries. In fact, General Tapias has told me that he 
views the paramilitaries as the long-term threat they have to 
deal with, more so than the FARC.
    So their real challenge is that the government of Colombia 
and the Colombian military needs to tell the story about what 
they are doing and take credit for the accomplishments that 
they have attained. They have been unable to do that up to this 
point.
    Chairman Levin. Thank you.
    Finally, Admiral Blair, in your remarks in January in San 
Diego titled ``Force Transformation in the Pacific'' you said 
the following: ``Over the past year I have become even more 
convinced that our current approach to transforming our Armed 
Forces must be changed, particularly in the way we acquire 
systems. If we do not change it, it will break us. I say that 
even though we are winning wars with the current system. The 
joint task forces of the Central Command have done very well in 
Afghanistan.
    ``However,'' you said, ``we are wasting our money, missing 
opportunities, and, worst of all, not using our greatest 
resource in the job of transformation--the sailors in the fleet 
and the soldiers in the field.''
    Basically, you stated that our acquisition system is by 
service and our operations are joint. I am wondering if you 
would just tell us briefly about your views in that area, 
because we are in the middle of an effort to transform and I 
think your views are very important.
    Admiral Blair. Yes, sir. I find that when we put a joint 
task force together the tactical service units are not able to 
plug in cleanly, pass a picture of the battlefield back and 
forth across component lines up to the joint task force 
commander headquarters in order to allow the sort of 
flexibility that will bring the enormous firepower the United 
States can bring to bear in any part of the world. We 
demonstrated that in Afghanistan, along with being able to move 
our maneuver forces about such a battlefield, in the most 
effective way.
    In my experience, a large part of the reason for that is 
the Service origin of that equipment. I think the best way to 
fix it is through operations like Afghanistan, when smart 
sergeants and airmen get together and figure out how to put 
bombs on enemy forces, but also, when we do not have an 
operation going, through exercises to force actual events in 
the field to demonstrate whether we can or cannot interoperate 
in the joint task force and then to fix those problems.
    To me that is a much faster cycle that addresses real 
problems than to send written requirements back to a systems 
command, have that systems command work out a system that on 
paper and in lab testing works, and then send it forward to the 
forces in the field for them to operate with. I think that 
turning cycle for information technology systems, which is the 
key to revolution in the near-term, has to be faster based on 
field exercises as well as field operations, and has to have a 
much higher component of joint requirement to the field rather 
than Services developing their capabilities in the service 
channels and then providing them to joint forces for use.
    It does not work for tanks and planes and big pieces of 
gear that the Services have all of the expertise to develop, 
but it has to be different for the information systems on which 
joint warfighting depends. It just has to have a higher joint 
relevance and a faster speed to be effective. That is what I 
think we need to have a real revolution, Mr. Chairman.
    Chairman Levin. Thank you all again for your service. 
Thanks for your testimony.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                            THE PHILIPPINES

    1. Senator Levin. Admiral Blair, assuming the Abu Sayyaf Group is 
eliminated, and given the fact that we want to keep the Philippines 
free of terrorists, will we expand the operation to fight the other 
terrorist groups operating in the Philippines? 
    Admiral Blair. To date, the Government of the Philippines (GOP) has 
not asked the United States Government (USG) to expand our operational 
efforts against other terrorist organizations. A GOP request that the 
USG expand efforts to fight other terrorist organizations would 
necessitate a new USG policy decision. At the conclusion of current 
operations, the current USG assistance to the GOP/Armed Forces of the 
Philippines (AFP) will provide their Armed Forces with the capability 
to respond effectively to other internal threats. Moreover, the Mutual 
Defense Board planning will provide additional assistance to the AFP to 
respond to further threats over the long-term.

    2. Senator Levin. Admiral Blair, who will be authorized to issue 
commands to U.S. troops--will Philippine commanders have operational or 
tactical command over U.S. forces?
    Admiral Blair. The Terms of Reference for Republic of the 
Philippines--United States (RP-US) Exercise Balikatan 02-1, paragraph 
1, number 4, Policy Level, explicitly states: ``In no instance will 
U.S. Forces operate independently during field training exercises 
(FTX). AFP (Armed Forces of the Philippines) and U.S. Unit Commanders 
will retain command over their respective forces under the overall 
authority of the Exercise Co-Directors. RP and U.S. participants shall 
comply with operational instructions of the AFP during the FTX.''

                 COMBATING TERRORISM IN SOUTHEAST ASIA

    3. Senator Levin. Admiral Blair, in your testimony, you mentioned 
the local Southeast Asian groups that have ties to al Qaeda. Do you 
intend to conduct any new operations in the future to reduce the threat 
from these groups or to prevent terrorists from using bases in the 
area?
    Admiral Blair. I am working with other U.S. agencies and our 
friends across the region in an effort to ensure major counterterrorism 
(CT) operations are not required in our theater. I certainly do not 
anticipate any Afghanistans in the Asia-Pacific region. My theater CT 
campaign incorporates a wide range of theater security cooperation 
activities designed to help each nation in my area of responsibility 
develop the individual and collective will and skill to defeat current 
CT threats and deter future threats. These activities range from our 
current assistance program in the southern Philippines to combined 
exercises that incorporate CT themes to humanitarian assistance 
activities that dissuade the development of terrorist support bases and 
breeding grounds.
    Military operations alone will not suffice to defeat terrorism. In 
U.S. Pacific Command (USPACOM), we are working hard to make the overall 
global CT effort as effective as possible by coordinating our military 
activities with the myriad of international interagency diplomatic, 
economic and information CT initiatives. As part of my CT campaign, I 
have stood up a Joint Interagency Coordination Group for 
Counterterrorism (JIACG/CT) in my headquarters to serve as the focal 
point to integrate the wide range of intelligence, planning and 
operations into a fused, synergized regional CT campaign.
    One key function of this JIACG/CT organization is to operationalize 
incoming intelligence, working with my intelligence directorate and 
interagency intelligence elements, to ``mine nuggets'' of actionable 
intelligence from the huge volume of available information. We have 
found that non-military tools usually provide the most effective method 
to defeat or preempt the threats we have identified, and therefore it 
is critical to synchronize our efforts beyond Department of Defense 
assets. The successful disruption of planned Jemaah Islamiya attacks in 
Singapore is one recent example of highly productive international 
interagency cooperation.
    I am working to ensure such cooperation is the norm in the Asia-
Pacific region. Some countries have a way to go in developing the skill 
and/or will that I think they need to capably diminish and marginalize 
terrorism and its supporters within their borders. USPACOM is ready to 
act unilaterally, if required, to defeat any potential threat to the 
United States. My preference, however, is to help the regional nations 
to individually, cooperatively and successfully address the common 
threat.

                              NORTH KOREA 

    4. Senator Levin. General Schwartz, what is your assessment of the 
future of talks between North Korea and the U.S. and between North and 
South Korea?
    General Schwartz. I remain hopeful that North Korea will act on 
President Bush's invitation to negotiate in good faith with North Korea 
``any time any place.'' Thus far North Korea has been either unwilling 
or unable to significantly improve relations with the Republic of Korea 
(ROK) or U.S., despite numerous diplomatic, economic, and political 
overtures from the ROK government and President Kim Dae-jung and I do 
not see any indications this will change in the near-term. The North 
Korean regime has demonstrated that it is neither a reliable nor 
predictable partner. The North Korean threat to peace and stability in 
Northeast Asia will not fundamentally diminish until the North engages 
in tangible military confidence building measures that are verifiable 
and transparent. I do believe that we must follow our current policy of 
``anytime, anyplace'' and continue to advocate that the North Koreans 
meet with the ROKs. I still believe, as I stated at the hearing, that 
we are doing everything we can to get the dialogue moving.

    5. Senator Levin. General Schwartz, have you detected any change in 
military posture in North Korea since President Bush's visit? What 
conclusions do you draw from your observations?
    General Schwartz. We have detected no significant change in North 
Korea's military posture since President Bush's visit. The North Korean 
military remains a large, forward deployed force capable of inflicting 
great damage to South Korea and directly attacking Combined Forces 
Command's (CFC) United States and Republic of Korea Forces, with little 
notice.
    They still pose a dangerous threat to the stability and security on 
the Korean peninsula, the region, and increasingly, the world. They 
continue to modernize systems that can marginalize specific U.S. 
military strengths. Their Winter Training Cycle program was a little 
above average as was the output of their propaganda and rhetoric.
    I believe it is too soon following President Bush's visits to draw 
meaningful conclusions. Change in North Korea rarely happens quickly. I 
believe that we must observe North Korean actions over a long period to 
determine if any meaningful change in their military posture will 
actually occur.

    6. Senator Levin. General Schwartz, has North Korea kept its 
plutonium reprocessing program frozen, as required by the Agreed 
Framework, including the canning of spent reactor fuel that I observed 
from the Yongbyon reactor?
    General Schwartz. Although, the DPRK has, for the most part, lived 
up to the letter of the Agreed Framework and the agreement has achieved 
the near-term objective of shutting down the Yongbyon facilities, 
implementation of the Agreed Framework is progressing--although very 
slowly. To date, these graphite-moderated reactors remain frozen, and 
all known intact rods are canned, and under International Atomic Energy 
Agency (IAEA) seal.
    The history/records of the DPRK's nuclear program need to be 
inspected so the IAEA can really analyze the extent of reprocessing of 
nuclear materials. I depend on the U.S. Intelligence Agency Report and 
IAEA reports as the basis for my assessment. The theater systems under 
my control do not enable me to independently verify North Korean 
compliance with the Agreed Framework.

    7. Senator Levin. General Schwartz, in my opening comments, I asked 
whether the Framework Agreement is viable. What can we do to ensure 
that we stay on track? Do you believe North Korea will allow the 
inspections required in order for the U.S. to deliver the light water 
reactor components in 2003?
    General Schwartz. I believe the Agreed Framework is viable as long 
as the North Koreans fulfill the IAEA inspection requirements and we 
have a complete history of their nuclear program. President Bush's 
waiver vice certification this year placing North Korea on notice is 
one way to keep North Korea on track. I remain hopeful North Korea will 
allow the required IAEA inspections. While there has been some recent 
dialogue and visits with the IAEA, we have not seen any indications 
that North Korea is ready to accept the prerequisite level of 
transparency. When North Korea accepts and starts the IAEA inspection, 
it will take approximately 3 years for the inspection to be completed. 
Therefore, I would not anticipate key component delivery of the LWR 
prior to 2005. 

                 NAVY AREA DEFENSE PROGRAM CANCELLATION

    8. Senator Levin. Admiral Blair, last December the Defense 
Department canceled the Navy Area Defense Ballistic Missile Defense 
program because it had exceeded its planned costs by nearly 60 percent.
    As the regional commander with operational responsibility for a 
large portion of the world's oceans and regions where ballistic 
missiles pose an existing threat to our forces, are you concerned by 
the cancellation of the Navy Area program, and the fact that it means 
we will no longer have that theater ballistic missile defense 
capability in the next few years, as we planned?
    Admiral Blair. Yes, I am particularly concerned with the 
cancellation of the Navy Area Defense program. With the increase in 
ballistic missile defense development and proliferation of these 
technologies by potential adversaries, having a naval ballistic missile 
defense system is critical in the U.S. Pacific Command AOR. Since the 
Navy is forward stationed and can self-deploy, the sea-based missile 
defense (MD) platforms can be on station in a short amount of time. 
This allows strategic airlift assets to be utilized in other areas. The 
sea-based MD platforms can also remain in international waters, thereby 
posing fewer political ramifications than ground-based systems. The 
Navy Area Defense program was a critical program. The benefits of sea-
based defense are enormous and something we need not only in my AOR but 
also around the globe.

     NAVY THEATER WIDE DEFENSE AND UNITED STATES-JAPAN COOPERATION

    9. Senator Levin. Admiral Blair, the United States and Japan have 
been discussing cooperation on what was previously known as the Navy 
Theater Wide Missile Defense System. The newly reorganized Ballistic 
Missile Defense program changes the previous theater missile defense 
focus of the Navy Theater Wide program to a system called Sea-based 
Midcourse that is intended to be able to defend against medium-range 
theater targets and long-range targets for national missile defense. 
What impact do you think this change will have on the U.S.-Japan 
research and development program for sea-based theater missile defense?
    Admiral Blair. Navy Theater Wide (NTW) Program has always been 
designed to provide an intercept capability against medium and long-
range theater ballistic missiles. We have been working all along with 
the Japanese to cooperatively design a weapon suitable to meet these 
needs. Japan's level of financial commitment to the MD research remains 
strong. The recent successful test of the Sea-based Midcourse Defense 
Segment on 25 Jan 02 eased Japan's concerns that cooperative work is 
producing positive results. U.S.-Japan research and development for 
Sea-based MD remains a priority for Japan's security and should 
continue to receive support.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                LAND PARTNERSHIP PLAN--AIRCRAFT TRAINING

    10. Senator Akaka. General Schwartz, are you satisfied that the 
Land Partnership Plan (LPP) that the governments of the United States 
and the Republic of Korea expect to sign on March 15, 2002 will 
guarantee us the access we need to training ranges for our ground 
forces?
    General Schwartz. Yes. The LPP will provide substantial benefits 
for training over our current capabilities. The benefits of LPP are 
enormous. With the release of encroached training areas, subsequent 
consolidation of military facilities and areas on enduring land grants, 
our training base will provide quality-training support well into the 
future.
    The LPP guarantees USFK ground forces access to critical Republic 
of Korea (ROK) military training facilities that, coupled with our 
enduring facilities, gives us an overall increase in training capacity 
and resolves long standing training issues in the southern region of 
the peninsula. Additionally, with the infusion of simulator and 
simulation technologies, the cumulative effect of: LPP on training will 
be a significant and measurable increase in support for both 
operational and training missions designed to achieve increased force 
readiness and strategic combined defense objectives.

    11. Senator Akaka. General Schwartz, does this agreement provide 
similar guarantees for access to air-to-ground ranges for our tactical 
air forces? If not, what additional steps do we and the Republic of 
Korea need to take to ensure the availability of adequate training 
ranges for tactical aircraft?
    General Schwartz. The LPP did not include any of the U.S. Air Force 
air-to-air or air-to-ground training areas. We currently have adequate 
access to our ranges and will continue to work closely with the 
Republic of Korea to identify and remove encroachments that would have 
a detrimental impact on Air Force training.
    The strength of the LPP is the close coordination that evolved with 
Koreans and Americans working together to solve problems, promote 
combined efficiencies in training, and working together to maximize 
limited use ground training ranges. This methodology is a recipe for 
success and as soon as the LPP is approved, we will begin work in the 
ROK-U.S. Joint Committee (responsibility for LPP success) of applying 
that model to airspace issues and training range issues.

                    BRINGING MORE FAMILIES TO KOREA

    12. Senator Akaka. General Schwartz, your testimony states that 
your goal is to increase the number of personnel in Korea on 
accompanied tours from 10 percent today to 25 percent by 2010 and that 
this initiative will require additional resources. I understand you 
wish to further increase that to 50 percent accompanied tours by 2020. 
Has your command estimated the additional requirements this would 
create not just for family housing, but also for increased medical and 
child care facilities and services and for force protection, and what 
the additional cost of those requirements would be? When would you seek 
to start funding this plan?
    General Schwartz. When we started to look at improving the quality 
of housing in Korea and increasing the accompanied rate, we brought all 
the stakeholders together to talk about the impacts one would have on 
the other. This group included senior people from within the community, 
from the Department of Defense Dependent Schools, the Army and Air 
Exchange Service, the Defense Commissary Agency, the Medical Command 
and the base agencies responsible for family support services.
    As the CINC, I have the authority to establish command 
authorizations in Korea and I have currently established the ceiling at 
3,000. The current acceptance rate for an accompanied assignment to 
Korea is 65 percent or about the number I can really provide houses 
for. My real limitation is housing. I only have 1,979 units of 
government owned and leased housing. This is less than 10 percent of 
the married personnel as compared to more than 70 percent in Europe and 
Japan.
    As we build new housing, more service members will be allowed 
accompanied tours to Korea. We anticipate that by 2006, we will have 
housing for the 3,000 authorizations already established. During the 
initial stages of our program, my initial goal is to concentrate on 
improving existing quarters, and bring more people currently living off 
post, on post. This will dramatically improve quality of life, force 
protection, and assist the command should we have to perform a Non-
Combatant Evacuation Operation.
    Most of the new housing will be funded from the Host Nation 
Construction Program. We will use approximately $780 million Host 
Nation dollars over the next 10 years to build 1,066 units. As we move 
above the 3,000 authorizations and begin working towards our 25 percent 
goal, we have anticipated that we will need; 3 new Combined Activity 
Centers, 1 new elementary and middle school, expansion of 2 existing 
commissaries, 2 new child care centers, the expansion of 2 medical 
centers, 1 new exchange and the expansion of a second, 2 new youth 
centers and 2 new libraries. Some of these projects have been 
programmed in the current Military Construction Future Years Defense 
Plan process and others will be programmed as we move forward, but we 
will not reach the decision point to increase to the 25 percent 
accompanied rate until 2006. The estimated cost of these facilities is 
approximately $140 million.
    We plan to use existing ``build-to-lease'' authority, to leverage 
the Korean private sector and thereby obtain the remaining capital 
investment required to develop an additional 2,500 units in Korea. Our 
first effort to apply ``build-to-lease'' will be at Camp Humphreys. 
This project will accommodate 1,500 families and provide associated 
community support activities such as a Post Exchange, commissary, 
school, child development center, community activity center, gymnasium, 
and medical/dental clinic. We expect the first units to be ready in 
2005. We are currently working with the Department of the Army to get 
the initial funding, $12 million we need to get this initiative 
started.
    Increasing the accompanied rate should not increase the force 
protection costs identified in the Long Range Housing Plan. All 
physical security requirements are embedded in the construction design 
of all new facilities so these costs are already accounted for.

                    BRINGING MORE FAMILIES TO KOREA

    13. Senator Akaka. General Schwartz, has the Republic of Korea 
agreed to finance any of this increase under the LPP, or is this a 
separate United States initiative? To what extent will the cost of 
these additional facilities be funded within current levels or as part 
of the Land Partnership Plan, and to what extent will additional U.S. 
funding be required? 
    General Schwartz. The LPP and Long-Range Housing Plans are not 
directly tied to one another. None of our initiative to improve current 
housing conditions or to increase the number of is included in, nor 
funded from the Land Partnership Plan. We will; however, spend 
approximately $780 million from the Host Nation Construction Program 
over the next 10 years to construct 1,066 units. Military Construction 
(MILCON), which is already in the programming channels, will construct 
approximately 440 units valued at $220 million, and our build-to-lease 
initiative provide 2,000 units at approximately $72 million per year.

                    UNFUNDED FACILITIES MAINTENANCE

    14. Senator Akaka. Admiral Blair, your testimony states that 
``unfunded backlog projects affect OPLAN execution in Korea, Guam, and 
Wake Island.'' Would you describe, in classified form if necessary, the 
current deficiencies, their impact on the execution of your war plans, 
and the estimated costs and current schedule for repairing these 
deficiencies?
    Admiral Blair. Korea: Current Deficiencies and impact on operations 
in support of war plans: 
    [Deleted].
    [Deleted].
    It is critical for U.S. Forces Korea (USFK) to be able to rely on 
utility systems, and maintenance facilities and operational command and 
control facilities. Korea continues to be under funded by 45-50 percent 
each year and this exacerbates an already serious problem and impacts 
readiness, especially when merged with a high operating tempo and harsh 
conditions, such as they experience daily in Korea.
    Estimated costs and current schedule for repairing these 
deficiencies:
    [Deleted].
    Korea requires stable Sustainment, Restoration, and Modernization 
(SRM) funding of approximately $260 million per year to prevent further 
decline. Current SRM funding levels have allowed USFK to provide day-
to-day critical maintenance of their essential facilities, the 
Sustainment piece, but they are not able to get to the Restoration and 
Modernization piece with current funding levels. There is no easy fix 
for Korea. Under funding and the lack of Military Construction has 
taken its toll. USFK has articulated a vision in a comprehensive Fix 
Korea Business Plan, which incorporates training, infrastructure, and 
quality of life.
    Guam: Current Deficiencies and impact on operations in support of 
war plans:
    [Deleted].
    The significant infrastructure deficiencies that affect operations 
include deteriorated piers, ordnance terminals and magazines, bulk 
fueling terminals, roads, and airfields. There are also unsafe 
helicopter maintenance hangars, unreliable utilities, and delayed 
harbor dredging.
    Estimated costs and current schedule for repairing these 
deficiencies: 
    Commander Naval Forces Marianas has $75 million in SRM backlog. The 
approximate annual SRM funding is between $18-25 million. However, this 
SRM funding only sustains current requirements and does not address the 
$75 million backlog.
    Andersen Air Force Base has $49.6 million in critical and degraded 
SRM requirements, which impact the base mission. These requirements 
repair projects on the airfield, munitions storage facilities, base 
water system, etc. The approximate annual SRM funding is $6.4 million, 
which does address some of the $49.6 million backlog. However, this 
annual funding is not enough to eliminate the backlog.
    Wake Island: Current Deficiencies and impact on operations in 
support of war plans:
    [Deleted].
    Wake Island infrastructure is either in disrepair or nearing 
failure. Since 1993, neither SRM, nor Military Construction (MILCON) 
monies have been spent on Wake Island. Wake Island has deteriorated to 
the point where immediate repairs are required. The runway will be 
unusable for fighters by fiscal year 2003 and heavy lift by fiscal year 
2005. Chief of Staff of the Air Force (CSAF) directed Wake Island be 
placed in a Very Limited Operations (VLO) status starting on 1 Oct 02. 
The runway is CLOSED for day-to-day operations except--or wartime 
requirements, emergency diverts and; contractor/tenant support.
    Estimated costs and current schedule for repairing these 
deficiencies: Between fiscal years 2003-2007, operation and maintenance 
projects include facilities sustainment, environmental compliance, long 
haul communications, satellite communications, and air traffic control 
and landing systems. The funding profile is approximately $12 million 
per year. MILCON funding during fiscal years 2003-2006 is approximately 
$25 million per year for repair of sea access facilities airfield 
pavements, and island-wide infrastructure.

                           AIRCRAFT READINESS

    15. Senator Akaka. Admiral Blair, your testimony states that 
aircraft mission capable rates ``continue to be major readiness 
concerns in USPACOM'' despite increased funding for spare parts. Would 
you describe why you think problems remain despite increased funding 
levels, and the steps you believe are necessary to correct these 
problems?
    Admiral Blair. While recent programming decisions address the 
shortage of spare parts, the age of aircraft systems, along with the 
pace of operations and deployments, continue to impact readiness.
    Problems remain, despite increased funding levels, because many of 
our key aircraft systems are aging, and suffer from persistently high 
operating tempo (OPTEMPO) usage rates, often above programmed goals. 
Aging systems experience high failure rates and require more frequent 
repairs. These systems also experience incompatibility and 
interoperability problems, increased spare parts usage, time consuming 
workarounds, and require additional costs to operate.
    Exacerbating the problem is the fact that for some systems, 
manufacturers have gone out of business or ceased production of spares. 
The loss of critical parts manufacturers limits spares inventories and 
dramatically increases cannibalization rates. Cannibalization further 
reduces readiness rates.
    Merely procuring additional spare parts at the current rate will 
not solve the aging problem. Reversing this trend will take additional 
funding and a concerted recapitalization and modernization effort. 
Recapitalization and modernization of existing aircraft will reduce the 
number of legacy systems that require operational upgrades and service 
life extension program (SLEP) iterations. Further, resources must be 
provided to achieve full modernization since limited or partially 
modernized legacy systems are not compatible with modernized systems 
and require different training, material, and services.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                            THE PHILIPPINES

    16. Senator Thurmond. Admiral Blair, the United States has had a 
long and historic relationship with the Republic of the Philippines. 
For that reason, it is important that we provide the necessary 
assistance to deal with the internal insurgency groups, like the Abu 
Sayyaf Group. Why did it take this long to provide the training and 
assistance for the Republic of the Philippines?
    Admiral Blair. Not until the hostages were taken from Sipadan 
Island in 2000, did the Government of the Philippines (GOP) express any 
interest in U.S. support to address their internal security challenges. 
[Deleted] and Foreign Military Financing (FMF).
    Indeed, the United States has had a long and historic relationship 
with the Republic of the Philippines, but after the ``bases era'' and 
until the Visiting Forces Agreement (VFA) was signed in 1998, the U.S. 
Pacific  Command's (USPACOMs) security cooperation program was quite 
limited. After the signing of the VFA, we began to re-engage under the 
terms of the Mutual Defense Treaty (MDT) and developed programs 
designed primarily to assist the Philippines in strengthening their 
external defense requirements, as they interpreted the MDT. However, as 
recently as last year and perhaps as a result of their present 
situation, the GOP re-examined their position with regards to our 
military-to-military program and the emphasis on external defense. We 
are adjusting our normal bilateral program towards one that will assist 
the Armed Forces of the Philippines (AFP) in mission areas known in 
U.S. military parlance as Most Likely Operations (MLOs). Counter-
terrorism is just such an operation. With this new direction, [Deleted] 
and recommended an increased FMF package. When the Burnams' were taken 
from Dos Palmas Island in May 2001, we began using these arrangements 
to assist the AFP/GOP in dealing with internal terrorist threats. But, 
it was not until the November meeting between Presidents Arroyo and 
Bush that agreements were reached that brought us to the present 
effort.

                           ENROUTE STRUCTURE

    17. Senator Thurmond. Admiral Blair, one of the most critical 
shortfalls facing our combatant commands is in our strategic lift. At 
virtually every hearing, commanders at all levels have voiced the same 
concerns about our ability to move large numbers of troops and 
equipment over long distances. Your statement reflects similar 
concerns. Although additional lift is critical, so are the enroute 
structures of airfields and refueling points. What is your assessment 
of the enroute facilities in the Pacific region? Where would you place 
additional emphasis?
    Admiral Blair. Our enroute infrastructure is reliant upon 40-50 
year old facilities that will eventually fail or will severely limit 
our airlift throughput capability unless required improvements are 
made. Below are specific examples of U.S. Pacific Command (USPACOM) 
infrastructure requiring improvement to support our warfighting 
requirements.
    Theater Munitions Infrastructure: Commander in Chief, U.S. Pacific 
Command (USCINCPAC) requires an additional $147 million be applied to 
upgrading theater munitions infrastructure. In many instances, 
facilities are 1950's era and do not support next generation weapons 
systems nor the reception of containerized munitions.
    [Deleted]. The $9.7 million for military construction (MILCON) in 
fiscal year 2002 repairs only the wharf and seawall. It is the minimum 
essential project to bring in construction equipment and supplies for 
Phase 2 and 3 projects for the runway and taxiway repair, scheduled for 
fiscal year 2003 and fiscal year 2004. [Deleted]. The future years of 
fiscal year 2004, fiscal year 2005, and fiscal year 2006 reflect a 
current Pacific Air Forces (PACAF) funding profile of $24 million, $25 
million, and $10 million, respectively.
    USCINCPAC requires the capability to project power and provide 
warfighting support from a network of bases with first class 
facilities. This requires sufficient: resources, particularly in 
Sustainment, Restoration, and Modernization (SRM) accounts, to preserve 
capital investment of mission support facilities, as well as in-theater 
MILCON funding for new construction/replacement of old facilities and 
systems vital to the warfighting effort.
    The theater needs a Joint Mobility Center (JMC) at Hickam Air Force 
Base, HI and Elmendorf Air Force Base, AK to support rapid deployment 
of forces and material. Development of JMCs by the Air Force at these 
bases will significantly enhance rapid deployment capability of Army 
forces from Hawaii and Alaska in current and future configurations. 
Army initiatives to study the feasibility of improvement of airfields 
in Hawaii to meet future Army and Air Force joint training needs, as 
well as Army upgrades of mobility training facilities in Hawaii, will 
further enhance rapid deployment infrastructure. 

                            INTEROPERABILITY

    18. Senator Thurmond. Admiral Blair, during the committee's recent 
hearings on the future of NATO, General Ralston pointed out that one of 
his concerns was that our European allies were not keeping pace with 
the United States as for modernization of their Armed Forces. How would 
you rate the warfighting capabilities of our key allies in the Pacific 
in terms of interoperability with our forces?
    Admiral Blair. The Command, Control, Communications, and Computers 
(C\4\) interoperable warfighting capability of Pacific allies is less 
than with NATO countries. [Deleted]. Australia is generally 
interoperable by way of a small air, land, and sea capability, but they 
are in great need of modernization, including C4, airlift, air-to-air, 
and command and control. Australia is moving forward with the purchase 
of four Airborne Early Warning and Control (AEW&C) ``mini-AWACS'' 
platforms to complement command and control of combined operations. 
Australia and Japan are pursuing Link-16 for future tactical data link 
operations, as have our European allies. [Deleted].
    The political landscape and vast oceans of the Pacific magnify the 
challenges of developing multilateral ``NATO like'' alliances. The U.S. 
modernization of C\4\ capability outpaces that of any allied nation in 
the Pacific and will continue to do so for the foreseeable future.

                           MILITARY FAMILIES

    19. Senator Thurmond. General Schwartz, Seoul, which has the 
largest concentration of U.S. military and civilian personnel, is only 
located only 24 miles from North Korea, well within short range 
missiles and in some cases within long range artillery. Based on this 
threat, why do we continue to concentrate headquarters, troop 
facilities, and family housing in Seoul? 
    General Schwartz. Actually, our forces are not concentrated in 
Seoul. While we have some headquarters units in Seoul, our Air Force 
units are well south of Seoul and the main ground units are not located 
in Seoul and we have no plans to bring additional units to Seoul.
    In many ways the ``shared risk'' of our servicemen and families 
living among our South Korean hosts is a significant deterrent factor. 
This situation is similar to our families living along the inner German 
border during the Cold War. Additionally, under the LPP, we eventually 
plan to move from 85 scattered bases into 20 enduring installations. 
This will allow us to concentrate on building new family housing well 
south of Seoul thus, negating the long-range North Korean artillery 
threat.

                         LAND PARTNERSHIP PLAN

    20. Senator Thurmond. General Schwartz, one of the issues facing 
our military is the population encroachment on our facilities and 
ranges. You are working to resolve this issue in part through the Land 
Partnership Plan (LPP), which will return a significant amount of land 
to the Republic of Korea, and in return U.S. forces will get improved 
facilities and less encroachment. What guarantees do you have from the 
Republic of Korea that the encroachment issue will not resurface in 
future years as the Republic's population grows?
    General Schwartz. The Republic of Korea has whole-heartedly agreed 
to the principle of removing encroachment and has incorporated this in 
writing within the LPP. They have agreed to remove encroachment from 
all land retained under the LPP and conduct joint surveys in 
preparation for our security fencing. Security fencing, which will 
commence in January 2004, will further ensure the protection of our 
training lands from encroachment. I believe that once we have 
instituted the principles and actions of the LPP, we will no longer see 
major instances of encroachment within this theater.

                            TRAINING RANGES

    21. Senator Thurmond. General Schwartz, last year Congress provided 
authority to increase the Army's National Training Center at Fort Irwin 
to meet the training needs dictated by more sophisticated weapons 
systems. I expect that to the same degree, our forces in Korea are 
facing similar challenges. How are you addressing the training 
challenges?
    General Schwartz. You are correct in recognizing that we have 
similar training and land challenges in Korea. We are planning for 
training requirements now and in the future to include possible new 
weapons systems. To the greatest extent possible, we re leveraging 
training simulators and simulations to meet training requirements 
through expanded joint use of ROK training land. We are placing great 
emphasis in this area. Our training office is working closely with the 
Republic of Korea (ROK) military to best use training lands to meet 
current and future training requirements for both alliance members. 
Additionally, through LPP, we have gained access to superb ROK training 
areas.

                           MILITARY FAMILIES

    22. Senator Thurmond. General Schwartz, you are a strong advocate 
for improving the quality of life for our military personnel in Korea. 
Top on your list is to improve the quality of family housing and 
increase the number of families allowed to accompany service members to 
Korea. How many family members are currently living in South Korea? 
    General Schwartz. We have 13,077 total family members (5,640 
military, 6,271 Department of Defense (DOD) civilians, and 1,166 
retirees) living in Korea. This breaks down to 10,231 command sponsored 
and 2,846 non-command sponsored family members living in Korea.

    23. Senator Thurmond. General Schwartz, considering the tense 
situation in Korea, how do you justify the increase in accompanied 
tours?
    General Schwartz. As you are aware, the quality of life of the 
soldiers, airmen, sailors, and marines and their family members who 
serve in Korea is very important to me. A Korea assignment today 
involves some of the poorest living and working conditions of any 
permanent change of station assignment in the military. Substandard 
facilities, living and working conditions in Korea take their toll on 
the force as a whole. The new Seoul family housing planned is for the 
personnel already authorized accompanied tours who currently reside off 
post. We plan to increase about 90 percent of new family housing south 
of Seoul to negate the threat of North Korean long-range artillery.
    A major factor driving my request for an increase in accompanied 
tours is the effect that a nearly 95 percent annual turnover has on 
this command. In Vietnam, I experienced the debilitating effects of a 
1-year rotation policy. It is a documented fact that 1-year tours 
significantly hurt our warfighting capability, effectiveness, and 
cohesion. A 1-year tour in Korea does not allow a soldier, sailor, 
airmen, or marine to gain the necessary appreciation of the terrain, 
the doctrine, or the threat. Personnel rarely have the overlap 
necessary to ensure a seamless transition and this negatively impacts 
our warfighting capability.
    The North Korean threat is formidable and real; however, I am 
confident that we can successfully implement our Noncombatant 
Evacuation Operations (NEO) plans, which are designed to get our 
families off the Korean peninsula in the event hostilities become 
imminent. We exercise the NEO plan frequently with our colleagues from 
the American Embassy--Seoul. A full scale NEO would represent a serious 
challenge, but we would be successful in evacuating our family members 
out of Korea.

                        KOREA HAS NOT KEPT PACE

    24. Senator Thurmond. General Schwartz, the DOD benchmarks for 
acceptable living and working conditions is C-2. I understand that when 
Korea is compared to both U.S. Army Europe and U.S. Forces Japan, it is 
rated the lowest in all categories. In order to improve the quality of 
life for the men and women serving in Korea, what do you consider your 
most urgent need and why?
    General Schwartz. We have articulated our vision in a comprehensive 
Fix Korea Business Plan which incorporates training, infrastructure, 
and quality of life. The ultimate goal of our plan is to make Korea an 
assignment that service members will actively seek. Our Fix Korea 
Business Plan is the right solution for the problems we face today and 
this roadmap balances resources with requirements and provides the key 
to Balanced Readiness.
    I need stable Sustainment, Restoration, and Modernization funding 
of approximately $260 million per year. Current Sustainment, 
Restoration, and Modernization funding levels have allowed us to 
provide day-to-day critical maintenance of our facilities, the 
Sustainment, but we have not been able to get to the Restoration and 
Modernization piece.
    I also need stable Military Construction (MILCON) funding of $200-
$300 million per year. Our infrastructure, with regard to electrical 
power, water and sewer upgrades, must be fixed if we are to sustain 
readiness levels. We must have power generation systems, water 
distribution and sewage treatment plants that we can rely upon in times 
of emergency or crisis. We do not have reliable systems today. We must 
take action now to fix these enormous readiness and quality-of-life 
concerns.
    Unaccompanied Housing Improvements is also a part of this critical 
priority. Our objective is to provide enlisted service members with 
quality housing by the Department of Defense mandated date of 2008. 
Even with our great on-going renovations we will continue to face a 
shortfall in fiscal year 2003 of $44.7 million of our total 
requirement. Adequate housing for unaccompanied senior enlisted 
soldiers (E7-E9) and officers is urgently needed as well. Unlike CONUS 
Army units, all Second Infantry Division soldiers, including senior 
enlisted and officers, are required to live on post. Even with the 
Army's support to buyout ALL unaccompanied housing requirements by 
fiscal year 2008, we will still have senior enlisted and officers 
living in inadequate housing when the barracks buyout is complete. We 
urgently need congressional help to support this $81 million Military 
Construction requirement beginning in fiscal year 2003.
    To correct other quality-of-life deficiencies we need to replace or 
upgrade 52 maintenance facilities and 17 physical fitness centers 
throughout U.S. Forces Korea. For fiscal year 2003, we need your help 
with a Military Construction of $102.4 million for maintenance 
facilities and $23.0 million for physical fitness centers, $13.1 
million for a chapel and two fire stations and $32.9 million for 
mission-oriented facilities. Additional Military Construction funding 
will enable us to execute a comprehensive construction program and 
eliminate the unacceptable living and working conditions in aging 
facilities that U.S. forces in Korea face every day.

                         COLOMBIA PEACE PROCESS

    25. Senator Thurmond. General Speer, the United States has made 
Colombia its third-largest recipient of foreign aid after Israel and 
Egypt. Until now the aid, mostly for military equipment and training, 
has been channeled to the war on drugs. Now that the peace process in 
Colombia has fallen apart, will there be an effort to channel this aid 
effort toward fighting the terrorist/rebel groups?
    General Speer. Although we have seen great progress of the 
Colombian military over the last 4 years, the military still lacks the 
resources to create a safe and secure environment in Colombia. 
Fundamental security and stability are necessary for the government of 
Colombia to re-establish its ability to govern. In addition to 
combating the FARC and its current terror campaign, protecting 
infrastructure, and protecting the electoral process, the Colombian 
military must contend on a daily basis with the ELN, AUC and other drug 
trafficking organizations, further strapping their limited manpower and 
resources. As a minimum, the Colombian military needs additional 
resources whether it is through security assistance or another form of 
funding.
    All assistance that U.S. Southern Command provides to Colombia will 
continue to stay within congressionally defined boundaries and be 
consistent with existing policy. If the President or Congress change 
the policy/law to support beyond the current counterdrug focus, then we 
will adjust accordingly. Given the threat to Colombia's democracy, they 
could certainly benefit from additional support aimed at the three 
declared foreign terrorist organizations creating such turmoil in their 
country.

                       SECOND COUNTERDRUG BRIGADE

    26. Senator Thurmond. General Speer, your statement reflects the 
administrations support for training and equipping a second counterdrug 
brigade for the Colombian Army during this fiscal year. Considering the 
current crisis in Colombia, is this the most effective use of our 
resources?
    General Speer. I believe that funding a second counterdrug brigade 
is the most effective use of our resources. Fundamental security and 
stability are necessary for the government of Colombia to re-establish 
its ability to govern. The first counterdrug brigade is the best 
trained and equipped brigade in the Colombian Army. The plan to build a 
second counterdrug brigade for the Colombian Army follows the overall 
strategy outlined in the original Plan Colombia, which is to expand the 
effort against coca growing and processing into other areas of the 
country. The success of the first brigade gives us good reason to be 
optimistic about Colombian efforts to expand the war on production of 
cocaine into more of their country.
    Moreover, additional resources are needed for the Colombian 
military to create a safe and secure environment in Colombia. The 
myriad of challenges facing Colombia will benefit from all forms of 
U.S. assistance. In defining our assistance, it is important to 
recognize the inextricable link between the foreign terrorist 
organization and drug trafficking.

                    POLITICAL SITUATION IN VENEZUELA

    27. Senator Thurmond. General Speer, one of the more controversial 
leaders in South America is Venezuela's President Chavez. Based on 
press accounts, he is harboring leftist groups and sees himself as 
another Fidel Castro. Whatever his political views, what is the 
political situation in Venezuela and how does it affect the rest of the 
region? 
    General Speer. The political situation in Venezuela is tenuous. 
President Chavez was elected president as a result of the traditional 
political parties losing credibility, worsening economic conditions, 
and a general sense among the marginalized sectors of Venezuelan 
society that their quality of life could only be improved by a radical 
departure from the political status quo. Chavez' popularity has greatly 
declined, due to his failure to deliver on his campaign promises.
    His extreme political rhetoric has contributed significantly to the 
polarization of the Venezuelan political landscape. President Chavez 
has taken undemocratic steps that have solidified his power, increasing 
opposition from different segments of society including business, 
labor, media, elites, clergy, and members of the military. Although 
opposition has grown in the last several months, it lacks a single 
leader who can unite all of its elements. Consequently, the opposition 
lacks direction and cohesion.
    Likewise, Chavez' rhetoric and actions have strained Venezuela's 
relationship with Colombia, due primarily to the perception that Chavez 
and/or important members of his government maintain a relationship with 
the guerrillas. The FARC moves across the border with ease. There are 
weapon shipments to the FARC and ELN that originate in Venezuela. 
Although we do not have any evidence linking official government 
involvement to these weapons shipments, there are certainly strong  
implications that support official complicity. Moreover, Chavez' anti-
U.S. and ``Bolivarian'' rhetoric continues to irritate Venezuela's 
Latin American neighbors. He maintains strong ties with Cuba and has 
visited terrorist-supporting governments, including Iraq and Libya. 
Chavez' apparent disdain for Venezuelan democratic institutions and 
systems raises the specter of the ``strongman'' presidencies seen in 
the seventies and has the potential to undermine the democratic 
progress made in the region in the last 20 years.

                                  DMZ

    28. Senator Thurmond. General Schwartz, are there any special 
arrangements for evacuating women soldiers from the areas near the DMZ 
if the feather drops? A commander back in the 70s said it was his 
greatest concern.
    General Schwartz. We have no special arrangements or plans to 
evacuate women soldiers in Korea in case hostilities become imminent. 
Any potential evacuation would be evaluated on an individual case-by-
case basis.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith

                    CONVENTIONAL ARMAMENTS IN KOREA

    29. Senator Smith. General Schwartz, what would be the first signs 
if Pyongyang were taking National Security Advisor Condoleeza Rice's 
road map and pulling back some of their conventional armaments on the 
DMZ? What would be our minimum requirement?
    General Schwartz. Despite numerous attempts by the Republic of 
Korea government to discuss substantive military confidence building 
measures (CBMs) with North Korea, they have shunned all attempts at 
dialogue. The general principle is that North Korea needs to respond to 
tangible CBMs that are both verifiable and transparent. Any reference 
to specific minimum requirements would be speculation until North Korea 
begins to respond to CBM proposals in good faith.

            U.S./CHINA MILITARY-TO-MILITARY EXCHANGE PROGRAM

    30. Senator Smith. Admiral Blair, I am very disturbed by reports 
that the Department of Defense is considering renewing the U.S./China 
military-to-military exchange program even after the EP-3 incident and 
the illegal detention of that crew, and especially given so many-
reports that inadvertent disclosures of militarily useful information 
to the Chinese during these exchanges. For example, the Chinese learned 
bar coding after a visit to FEDEX in Memphis. I find this outrageous. 
Do you believe these exchanges are reciprocal and can you tell me what 
is the U.S. interest in having the Chinese observe the Cobra Gold 
military exercise?
    Admiral Blair. U.S./China military-to-military contacts did not 
totally cease in response to the EP-3 incident, but were substantially 
reduced to a few carefully reviewed and appropriate activities. For 
example, the U.S.-People's Republic of China (PRC) Military Maritime 
Consultative Agreement (MMCA) held a special meeting in Guam in 
September 2001 to discuss ways to avoid incidents such as the EP-3. 
This incident and subsequent MMCA meetings underscored the need for 
contacts that keep communications open between us, especially when 
misunderstandings arise. I can assure you that, since I became the 
Commander in Chief of U.S. Pacific Command in February 1999, our 
contacts have been reciprocal, with little chance of national security 
risk for either side. This year, the Chinese, along with other nations 
from the region, will observe the humanitarian assistance aspects of 
Exercise Cobra Gold. This is meant not only to encourage China to 
participate constructively in theater security cooperation efforts, but 
also to satisfy our ally, Thailand, who has raised concerns about 
conducting exercises next door to their giant neighbor. It also assures 
our other allies and friends in the region that we are not trying to 
use them in any effort directed against China.

    31. Senator Smith. Admiral Blair, have we established a strong 
counter-intelligence program to prevent inadvertent disclosures of 
information?
    Admiral Blair. The Air Force Office of Special Investigations, Army 
Military Intelligence, and the Naval Criminal Investigative Service, 
under their respective service Counter-Intelligence (CI) charters, 
provide both threat assessments and defensive briefings for official 
travelers to the People's Republic of China (PRC). [Deleted]. Defensive 
briefs provided by the Service (CI) agents in one-on-one sessions 
further enhance visitor awareness. These briefs use the information 
contained in the threat assessments, as well as database information 
that can be tailored to the specific mission of the traveler. 
[Deleted]. This activity occurs not only at the Service component 
headquarters in Hawaii, but throughout the U.S. Pacific Command 
(USPACOM) AOR at the sub-unified command and unit level.''
    [Deleted].
    In summary, awareness of the threat is key to the prevention of 
inadvertent disclosure, and I am confident that the military CI 
services in this theater are taking a proactive approach in reducing 
the vulnerability of DOD travelers to PRC intelligence collection 
activity.
    I should point out that the Chinese CI is not very effective. A 
senior Colonel defected from China last year--he has extensive contact 
with American officers and grew disenchanted with his lot in China.

    32. Senator Smith. Admiral Blair, are Chinese officers vetted by 
our Embassy for any human rights violations before being asked to visit 
the United States?
    Admiral Blair. Yes. Both the Department of Defense--which would 
typically nominate Peoples Liberation Army (PLA) officers for 
participation in U.S. Government-sponsored programs--and the Department 
of State are keenly aware of U.S. human rights laws and policies, and 
would not extend invitations to known PLA human rights violators. 
Multiple formal and informal institutional screening processes that 
precede final approval of such participation provide adequate 
assurances against the admission of such individuals to this country.

               CHINA: SOUTH CHINA SEA AND BORDER DISPUTES

    33. Senator Smith. Admiral Blair, I'm concerned that the Chinese 
are still using maps that claim the entire South China Sea as their 
territory, including parts of Russia and India. What parts of India and 
Russia are they claiming and how far do their South China Sea claims 
extend?
    Admiral Blair. There are three main areas of territorial contention 
along the disputed India-China border. The People's Republic of China 
(PRC) claims some 26,200 square nautical miles (nm) of Indian-occupied 
territory in India's Eastern state of Arunachal Pradesh, as well as 
several small areas along the India-China border west of Nepal. India 
claims China is illegally occupying about 12,520 square nm of northern 
Kashmir, including 1,514 square nm ceded to seijing by Pakistan in 
1963.
    Although Russia and China have approximately a 2,500-mile border, 
the specific disputes are confined to several islands in the Amur River 
in northeast China. As the river shifts in its channel, the location of 
the islands shifts, favoring one side or the other. At present, neither 
side has chosen to make this a major diplomatic issue.
    The PRC began publishing maps in 1993 that show an extensive South 
China Sea claim, in addition to the internationally recognized 12nm 
territorial sea limit and 200nm Economic Exclusion Zone (EEZ). The 
claim includes the Spratly Islands between Vietnam and the Philippines, 
and the natural gas fields lying within Indonesia's 200nm EEZ. The 
Chinese claim that their ``historical waters'' include the South China 
Sea and associated islands. However, it is clear their claims in the 
Spratlys are grounded in protecting and pursuing both strategic and 
economic interests in the region.

                CHINA: STABILITY IN THE SOUTH CHINA SEA

    34. Senator Smith. Admiral Blair, what does this portend for 
stability--does China still have their military presence at Mischief 
Reef, which is in the 200 mile economic zone of the Philippines?
    Admiral Blair. China has used its own maps to good advantage, 
claiming they support Beijing's claims of sovereignty over areas on the 
country's margins. In the case of the South China Sea, the so-called 
``Chinese Line'' that takes in most of that body of water has been, and 
remains, purposely ill defined. By asserting territorial rights and 
sovereignty over large expanses to which other nations also claim 
rights under international conventions, China believes it gains some 
degree of leverage in negotiations.
    China continues to maintain a military presence on Mischief Reef, 
and has upgraded its facilities there substantially since the original 
construction of the facility in 1995. As you have noted, Mischief Reef 
lies well within the Philippines, 200 nautical mile (nm) Economic 
Exclusion Zone (EEZ), 120nm west of Palawan, and is 150nm east of the 
Chinese headquarters facility on Fiery Cross Reef.
    Nevertheless, the political temperature has cooled somewhat in the 
last 2-3 years. Beijing probably believed, initially, that it could 
finesse any Philippine objections to Mischief Reef in bilateral talks. 
There are other claimants to the Spratlys (Vietnam, Malaysia, the 
Philippines, Brunei, and Taiwan), and Beijing found itself in the 
unaccustomed and uncomfortable position of having to deal with the 
entire Association of South East Asian Nations (ASEAN) grouping on this 
issue, in a multilateral forum. In addition, as China engages 
increasingly on the international stage--as with its World Trade 
Organization accession and selection as an Olympic venue Beijing is 
discovering it must continually fine-tune its international relations 
and priorities.
    In short, we can say at this point that China's interests in the 
South China Sea are attuned more to stability than conflict, and that 
instability there would impede the pursuit of more important goals. 
Last fall, ASEAN agreed to develop a free trade zone with China, for 
instance, and China and the Philippines are scheduled to begin talks 
this year on ``joint development'' of the Spratly archipelago. China 
now has considerably more interest in maintaining stability in the 
South China Sea than in asserting its sovereignty.
    It would be premature to forecast a resolution of competing South 
China Sea claims because the underlying territorial and sovereignty 
issues remain. However, it seems unlikely that the Chinese will stir up 
conflict in this area in the foreseeable future.

            U.S./CHINA MILITARY-TO-MILITARY EXCHANGE PROGRAM

    35. Senator Smith. Admiral Blair, as you are aware, the U.S./China 
military-to-military exchange program has been an ongoing concern of 
mine and several of my colleagues in recent years. In the near future, 
I anticipate a response back from Secretary Rumsfeld to a letter I co-
wrote with Senator Helms and Representative Rohrabacher, which, among 
many recommendations, expressed our belief that a program needs to be 
implemented by the Department of Defense to ensure U.S. military 
personnel do no divulge, inadvertently, militarily sensitive 
information to the Chinese People's Liberation Army during exchanges. 
From what I have read from various sources, you continue to 
enthusiastically endorse and believe that the U.S./China military-to-
military exchange program is essential to our relationship with China, 
and will some day pay dividends, despite the fact that such exchanges 
continue to favor China and continue to hemorrhage information which, 
in my view, carelessly places U.S. forces in the Pacific in jeopardy.
    I am sure you have seen the article in The New Republic dated April 
1999 regarding a U.S./China exchange. U.S. and PLA officers conclude 
the days itinerary by breaking bread at the Officer's Club and continue 
``relationship building''--one of the exchange program's goals. Many 
things were discussed, including U.S. aircraft carrier vulnerabilities. 
This was not classified information, however, it could only be pieced 
together by exhaustive research through decades of military journals. 
Instead of letting the Chinese at least have to work to piece together 
information, this Nation continues to embrace a program where the PLA 
is given direct access to our officers, who have no real program in 
place to guard against such information-gathering by the PLA.
    Do you agree this aspect of the U.S./China military-to-military 
exchange program is a problem and represents a threat which cannot be 
tolerated?
    Admiral Blair. The April 1999 article to which you refer describes 
activities said to have taken place back in 1998, before my tenure as 
Commander in Chief, U.S. Pacific Command (USPACOM), so I am not in a 
position to comment on the article's accuracy. There were very few 
contacts in USPACOM in 1999 before the accidental bombing of the 
Chinese embassy in Belgrade. I would not accept the characterization of 
these contacts as hemorrhaging information to the Chinese. Military-to-
military contacts ceased for the remainder of 1999, following the 
accidental bombing. Since 2000, all of our military-to-military 
contacts with China have been conducted in accordance with the 
provisions of Public Law 106-65 (Fiscal Year 2000 National Defense 
Authorization Act), which prohibits Chinese exposure to 12 categories 
of activities with the potential to create a national security risk. 
When visiting Hawaii in 2000, members of one Chinese delegation even 
commented on their lack of exposure to operationally oriented 
activities. Finally, I have found personally in my visits to China that 
in discussions with PLA officers I learn more classified information 
about China than the Chinese learn of classified information about the 
U.S. Armed Forces.

    36. Senator Smith. Admiral Blair, in light of examples such as the 
one I highlighted (please see information in question # 35), what have 
you done, and what are you doing presently, to counter such 
information-gathering by the PLA?
    Admiral Blair. I do strongly believe that U.S./China military-to-
military exchanges are essential to our understanding of China's 
military intentions and capabilities. Due to the closed nature of their 
society, every interaction results in our side acquiring information 
and developing an understanding that is otherwise denied. The Chinese 
participants in the interaction learn no more than what was already in 
the public domain, due to our much more open society. I can converse at 
length on military issues using information already in the public 
media, which tends to result in my Chinese counterpart revealing 
information which was previously unknown to us. Military-to-military 
exchanges have many other benefits, such as creating relationships that 
can be very useful to us in managing crises.
    Recognizing the value of military-to-military exchanges, we do not 
neglect the importance of counter-intelligence (CI) programs to protect 
classified and sensitive information. The Air Force Office of Special 
Investigations, Army Military Intelligence, and the Naval Criminal 
Investigative Service, under their respective Service CI charters, 
provide both threat assessments and defensive briefings for official 
travelers to the People's Republic of China (PRC). [Deleted]. Defensive 
briefs provided by the Service CI agents in one-on-one sessions further 
enhance visitor awareness. These briefs use the information contained 
in the threat assessments, as well as database information that can be 
tailored to the specific mission of the traveler. [Deleted]. This 
activity occurs not only at the Service component headquarters in 
Hawaii, but throughout the U.S. Pacific Command's area of 
responsibility at the subunified command and unit level.
    [Deleted].
    In summary, due to the volume of open source information that is 
already readily available to the Chinese, and because of the proactive 
approach of the military CI services in this theater to prevent 
inadvertent disclosures, I am confident that our side acquires more 
information that was previously unknown to us than the Chinese obtain 
from us via military-to-military exchange programs.

                          SHARING INTELLIGENCE

    37. Senator Smith. General Speer, I have one comment and then a 
question. General Serrano has a sterling reputation on Capitol Hill as 
former head of the Colombia Narcotics Police. He is now being 
considered for director of the U.N. Office for Drug Control and Crime 
Prevention--which would be ideal for him given his experience. The 
State Department apparently is backing a candidate from Italy with no 
counterdrug experience, despite the fact that the next person in this 
job will have a key role in creating an anti-narcotics police force in 
Afghanistan. I'd like you to do whatever you can in your capacity to 
promote General Serrano as the best candidate for this very important 
job--I think its vital to our success in Afghanistan and in the war on 
terrorism.
    Second, I am mystified as to why we're not helping the Colombian 
Armed Forces with intelligence sharing. The narco-guerrillas have been 
on a rampage, kidnapping one Senator, and murdering uncooperative 
Colombian citizens. Please explain to me what possible rationale there 
could be for not sharing intelligence on the whereabouts of these 
Revolutionary Armed Forces of Colombia (FARC) terrorists?
    General Speer. [Deleted].
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum

                  STRATEGIC AND AMPHIBIOUS LIFT ASSETS

    38. Senator Santorum. General Speer and General Schwartz, General 
Tommy Franks, USA, Commander in Chief, U.S. Central Command, recently 
indicated that improving strategic and amphibious lift is a top 
priority in his AOR. While Mobility Requirements Study 2005 (MRS-05) 
established a requirement of lifting 54.5 million-ton-miles-per day, it 
is unclear whether the military can meet this new requirement. Does the 
United States military have enough strategic and amphibious lift assets 
to meet the requirements of your particular AOR?
    General Speer. The Chairman of the Joint Chiefs of Staff recently 
identified that the ``Department of Defense has worked diligently to 
overcome shortfalls in strategic lift capabilities. . . However, we 
remain concerned about the effects of a sustained high operations tempo 
on the force, strategic lift and sustainment shortfalls, and shortages 
of ISR assets as well as the challenges associated with WMD, 
antiterrorism, and force protection. Additionally, in some locations, 
we face operational limitations that may affect mission success.''
    The United States military does not have enough strategic assets to 
meet U.S. Southern Command's (USSOUTHCOM) requirements together with 
all of the other Commands' requirements. Strategic lift satisfies the 
majority of routine support requirements for Embassy and Mission 
personnel. In some instances, operational requirements are met using 
training hours. In a typical month, USSOUTHCOM requires approximately 
eight C-141 and two C-5 strategic assets to satisfy our routine 
requirements. Theater Security Cooperation (TSC) events, however, can 
be more problematic.
    Operation Enduring Freedom (OEF) and the establishment of Joint 
Task Forces 160 and 170 in Guantanamo Bay, Cuba highlighted concerns 
over the competition for limited strategic airlift to support real 
world contingencies. On several occasions, OEF contingency missions in 
the USSOUTHCOM AOR were delayed or rescheduled regardless of their 
priority. For example, on 19 March, the aircraft scheduled to deploy a 
secure communications suite in support of JTF 160 was rescheduled for a 
higher priority mission. The secure communications suite deployed 9 
days later. Future GWOT and DOD operations, Presidential travel and 
other CINC's requirements will further limit availability of a finite 
number of strategic lift assets further complicating mission execution. 
Our ability to execute more robust contingencies in the AOR will be 
significantly impacted if other Major Regional Contingencies are 
ongoing.
    Sustaining military to military engagement and security 
cooperation, preparation for contingency operations, and our mission 
personnel are the center of our strategy to meet the national interest. 
Sustained availability of ample and properly resourced strategic lift 
is crucial in accomplishing this strategy.
    Admiral Blair. The U.S. military has sufficient strategic airlift 
and sealift to meet U.S. Pacific Command (USPACOM) wartime requirements 
when considered independently, meaning when we are not conducting a 
limited number of smaller-scale contingencies. [Deleted].
    [Deleted].
    [Deleted] we strongly support the Air Force effort to procure 180 
C-17 aircraft as well as improve the C-5 aircraft capability through 
the Reliability Enhancement and Re-engineering Program and the Avionics 
Modernization Program. [Deleted].
    General Schwartz. The United States military does not have enough 
strategic and amphibious lift assets to meet the requirements of the 
Korea AOR.
    We fully support the Joint Chief of Staff in the establishment of 
an increased airlift capability requirement. However, we are concerned 
that 54.5 million-ton-miles per day (MTM/D) does not represent a large 
enough increase. In fact, there must be an increase in strategic lift 
to ensure sufficient operational capability arrives in theater as 
quickly as possible. CFC must have more sealift and airlift to close 
forces earlier than indicated in the MRS-05 study. By expediting the 
arrival of required combat, combat support, and combat service support 
forces, we enhance our capability to attack the enemy throughout his 
depth, increase our friendly operational tempo, and decrease the risks 
to our forces.
    While acknowledging the limitations of MRS-05, we believe future 
studies should increase realism to accurately simulate the true nature 
of warfare on the Korean peninsula. Increased involvement of the 
warfighting CINC is a necessity to provide subjective response to the 
model in accordance with current and projected threat capabilities and 
OPLAN CONOPS. Additionally, to insure simulation fidelity and enhance 
validity we recommend continued investment in computer simulations used 
to conduct these types of studies. Based on our analysis, MRS-05 
findings are conservative estimates of future programmatic 
requirements. Although increased lift requirements are identified, we 
believe those requirements are understated.
    Additionally, there has been a long-standing requirement for 
amphibious lift for the assault echelon of three Marine Expeditionary 
Brigades. Having this Expeditionary maneuver capacity aids our Korea 
warfighting requirements.

                              NORTH KOREA

    39. Senator Santorum. General Schwartz, during his State of the 
Union speech this past January, President Bush called special attention 
to Iraq, Iran, and North Korea-singling them out as members of an 
``axis of evil.'' Terrorism, warned President Bush, was not the 
paramount danger facing the U.S. Equally worrisome were efforts by 
Iraq, Iran, and North Korea to develop nuclear, chemical, and 
biological weapons.
    The President's National Security Advisor, Condoleeza Rice, has 
stated that ``North Korea is now the world's number one merchant for 
ballistic missiles, open to anyone, no matter how malignant the buyer's 
intentions.'' The Bush administration notes Pyongyang remains a grave 
concern because of its direct support for terrorist organizations which 
operate in many countries to which North Korea has exported and 
continues to export missiles and technology.
    Although North Korea has suffered from economic stagnation and 
famine, do you believe that there is any reason to believe that the 
state of North Korean army or its arsenal of ballistic missiles is any 
less ready than it was 5 years ago.
    General Schwartz. No! In fact, the North Korean ballistic missile 
arsenal has improved over the past 5 years, as evidenced by the Taepo 
Dong launch in 1998, engine testing and increased production. I would 
state that North Korea has improved capabilities in the last few years. 
Their proliferation of missiles have given them regional operational 
reach and global impact.
    North Korea operates what can be described as a wartime economy, 
allocating resources to the military at the expense of the civilian 
sector. The North Korean Army actually produces hard currency that is 
used for its own sustainment as well as for use by the North Korean 
leadership. Consequently, North Korea's economic problems and famine 
(1994-1998) failed to impact the military in the same way it impacted 
the civilian sector. We expect North Koreas ``military first'' policy 
to continue as the North's leadership maintains its reliance on the 
military to sustain the security of the Kim Regime and ensure North 
Korea's regional position.
    Between the early and mid 1990s, economic distress and social 
turmoil eroded readiness and overall military capabilities of the North 
Korean military in Cold War terms, but not in 21st century threat 
terms. The North has learned by studying us and through a methodical 
readiness and force improvement program that continues today. This 
program includes measures such as increased training of key units; 
movement of large numbers of artillery assets forward; expansion and 
upgrading of its ballistic missile inventory; creation of new units in 
the forward area; command and control enhancements; acquisition and 
production of limited quantities of new weapons systems; and equipment 
such as submarines, tanks and artillery.

    40. Senator Santorum. General Schwartz, do you have any reason to 
believe the current regime in North Korea has severed links to 
terrorist organizations?
    General Schwartz. We have detected no North Korean direct links 
with active terrorist groups. However, it continues to provide 
sanctuary to terrorists of the Japanese Red Army (JRA). These 
terrorists had hijacked a plane to North Korea over two decades ago. 
While the JRA itself is no longer an active terrorist group of concern 
to the U.S., these terrorists and North Korea's assistance in allowing 
them to elude justice remain a lasting concern. We consider that the 
expulsion of these terroists would constitute a credible action by 
North Korea that it no longer supports terrorism. However, we do have 
credible information that North Korea continues to sell missiles and 
other weapons to countries in the Middle East and Africa that do 
directly support terrorism.

    [Whereupon, at 12:17 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                        THURSDAY, MARCH 7, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                             SERVICE CHIEFS

    The committee met, pursuant to notice, at 9:38 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Cleland, 
Landrieu, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, 
Carnahan, Warner, McCain, Inhofe, Roberts, Allard, Hutchinson, 
Sessions, and Collins.
    Committee staff members present: David S. Lyles, staff 
director; and Christine E. Cowart, chief clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Madelyn R. Creedon, counsel; 
Creighton Greene, professional staff member; Jeremy L. Hekhuis, 
professional staff member; Maren Leed, professional staff 
member; Gerald J. Leeling, counsel; Peter K. Levine, general 
counsel; and Michael McCord, professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Edward H. Edens IV, professional 
staff member; Gary M. Hall, professional staff member; Carolyn 
M. Hanna, professional staff member; Mary Alice A. Hayward, 
professional staff member; Ambrose R. Hock, professional staff 
member; George W. Lauffer, professional staff member; Thomas L. 
MacKenzie, professional staff member; Joseph T. Sixeas, 
professional staff member; Scott W. Stucky, minority counsel; 
and Richard F. Walsh, minority counsel.
    Staff assistants present: Leah C. Brewer, Daniel K. 
Goldsmith, Andrew Kent, and Nicholas W. West.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Andrew Vanlandingham, assistant 
to Senator Cleland; Marshall A. Hevron and Jeffrey S. Wiener, 
assistants to Senator Landrieu; Elizabeth King, assistant to 
Senator Reed; Davelyn Noelani Kalipi and Richard Kessler, 
assistants to Senator Akaka; William K. Sutey, assistant to 
Senator Bill Nelson; Neal Orringer, assistant to Senator 
Carnahan; Brady King, assistant to Senator Dayton; Benjamin L. 
Cassidy, assistant to Senator Warner; Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; George M. Bernier III, assistant to Senator 
Santorum; Robert Alan McCurry, assistant to Senator Roberts; 
Douglas Flanders, assistant to Senator Allard; James P. 
Dohoney, Jr., assistant to Senator Hutchinson; Arch Galloway 
II, assistant to Senator Sessions; Kristine Fauser, assistant 
to Senator Collins; and Derek Maurer, assistant to Senator 
Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets to receive testimony from the chiefs of the military 
services on the fiscal year 2003 budget request. General 
Shinseki, Admiral Clark, General Jones, and General Jumper, we 
welcome you back to this committee. We have had a long 
tradition of receiving frank and candid advice from our senior 
military leaders on national security issues, and we look 
forward to your testimony this morning.
    As we meet today, U.S. Armed Forces are deployed around the 
globe meeting new commitments in Afghanistan, the Philippines, 
and other places, and fulfilling longstanding commitments in 
Korea and Germany. The loss of life in Afghanistan this week is 
a vivid reminder of the risks that our men and women in uniform 
take when we send them in harm's way. Their courage is 
inspiring, their commitment to their mission is total, and our 
debt to them is immense. Their performance is also a tribute to 
the entire leadership of the Department of Defense, including 
our witnesses today, because that performance depends on the 
training and equipment that the services are responsible for 
providing.
    Some of the systems that are essential to today's forces 
are recent acquisitions, such as the unmanned aerial vehicles 
which have been in use only a few years. Many have been in our 
inventories for decades. The investments that we make today in 
this budget are needed to ensure that our military is as 
prepared for future wars as it has proven to be for Operation 
Enduring Freedom. For this reason, we will be particularly 
interested in the trade-offs that this budget makes between 
investments in our legacy forces and investments in military 
transformation and the basis on which the services are 
recommending these trade-offs.
    The administration's budget request for fiscal year 2003 
includes the largest proposed increase in military spending in 
two decades, $48 billion more than the amounts provided for 
during the current fiscal year. I remain concerned that this 
increase comes without a comprehensive strategy or a detailed 
plan to guide that spending. The administration has not yet 
submitted its national security strategy, which is required to 
be submitted annually with the budget by section 603 of the 
Goldwater-Nichols Act. That was a provision which Senator 
Warner authored and which this committee has strongly 
supported.
    The Department has not issued any military strategy to the 
best of my knowledge, nor has the Secretary of Defense 
submitted his annual report to the President and Congress, 
which is required by section 113 of Title 10 to be submitted 
annually with the budget, and the Department has not yet 
submitted a Future Years Defense Program (FYDP), which is also 
required to be submitted annually with the budget by section 
221 of Title 10.
    I am sure that our witnesses today recognize the difficulty 
that this committee faces in assessing whether we are funding 
the right programs and are setting the right priorities in the 
absence of that strategy or detailed plans for the size, 
structure, or shape of our military. Our hearings so far this 
year have revealed that despite the $48 billion increase 
proposed in the 2003 budget, that there are important areas 
where this budget does not meet the future needs of our 
military services.
    For instance, even as the Navy's budget is going up 
substantially, the number of ships in the budget is going down. 
This budget would build 17 ships over the next 3 years, 
compared to the 23 ships in the shipbuilding plan of the last 
administration for the same period.
    The military construction budget request is 25 percent 
below last year's level. This amount is sufficient to 
recapitalize our facilities every 120 years, almost double the 
Department's goal of a 67-year replacement cycle, and our 
witnesses today have indicated that they have other unfunded 
priorities such as force protection, antiterrorism, and even 
personnel strength. So with this large increase in defense 
spending this still brings us back to the question of 
priorities.
    America's Armed Forces are performing superbly in their 
fight against terrorism. The creativity and ingenuity we have 
seen in the campaign against al Qaeda in Afghanistan shows that 
our military leadership resisted the temptation to fight the 
last war. They are fighting today's war, and now we in Congress 
must resist the temptation to fund the last war. That is, to 
add money to this budget for programs that are a holdover from 
the Cold War and do not help build the kind of military that we 
need to meet the threats of the 21st century. We will continue 
to do, as a committee, all in our power to ensure that our 
Armed Forces have the right resources, tools, and technologies 
to meet those threats.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you. Mr. Chairman, so that we can 
move ahead, I am going to ask to include my statement in the 
record and I will just make a few observations.
    First, I certainly join you in expressing my sympathy and 
gratitude to those families who are grieving today for the loss 
of their loved ones and for those injured. I am going to 
comment at the end of my remarks about a period in history 57 
years ago, to give some perspective to the contributions that 
have been made through half-a-century by the men and women of 
the Armed Forces to maintain the freedom of this country.
    Each year, our committee looks forward to this important 
hearing, and with no disrespect to the concept of civilian 
management of the Department of Defense, there has to be in any 
system checks and balances, and traditionally the chiefs have 
come before Congress and given that perspective. I join my 
chairman in asking each of you today to give us not only your 
professional views, but also your personal views, which each of 
you agreed to do at the time of your confirmation. In that way, 
we can get at times a different perspective from that presented 
by the civilian control of the Department of Defense. That 
civilian control, of course, is key. It goes back to the very 
beginning of our history, and yesterday Secretary Rumsfeld came 
to the Senate and met privately with, I believe, 70 Senators. 
He spent an hour-and-a-half and responded to each and every 
question asked by those present.
    I stayed from the beginning until the very end. It was a 
full coverage of all aspects of the operation now in the Afghan 
area of responsibility (AOR) and in other parts of the world. 
He clearly enunciated the goals of President Bush, a very 
courageous President.
    At this critical time in our history I think he is 
surprising the world with the brilliance of his leadership and 
the strong conviction he has about the need to rid the world of 
terrorism. Your men and women of the Armed Forces are right 
there in the front lines, and also a number of other nations 
are very much involved in this operation. For various reasons, 
we cannot give all the details on it, but the American public, 
and especially the Muslim world, should understand this is not 
the U.S. versus the Muslim world, this is the free world versus 
small, unrepresentative elements of the Muslim world, and we 
are joined by an extraordinary coalition of forces in this 
engagement.
    Our committee has a very heavy responsibility this year. We 
face the largest increase percentagewise in defense spending 
since Ronald Reagan was President and we are going to go about 
that in a very careful and methodical way. First, we will start 
with the oversight, and then with other means to hopefully 
convince all members of the Senate that this budget submitted 
by this courageous President is the one that we need at this 
time, not only for the projection of our forces abroad to deter 
attack, but for our homeland defense, the President's highest 
priority, this Senator's highest priority, and each of you in 
various ways are participating in that.
    In my judgment, not since World War II has this Nation been 
so unified behind its President, the men and women in uniform, 
and the vast array of civilians who work directly to support 
the men and women in uniform in your respective departments. We 
are exceedingly grateful to all.
    Further, this war has truly been a joint operation. That 
has been a goal we have been trying to achieve for many years. 
I think at long last we go onto the battlefields, onto the 
ships, and into the air in every respect proud of the various 
units and respective services, but fully accepting joint 
responsibility to prosecute this very difficult war.
    Lastly, these past 2 weeks, as I visited with families and 
others that have been hit by these casualty situations, and as 
I traveled through my state talking to my constituents about 
this conflict, I remind them of our history, of what has gone 
before us. Every casualty, one single individual, is a 
frightful loss to our Nation, to their families, and to their 
services. I remember so well 57 years ago in that period in 
history when two great battles raged between the United States 
and our adversaries in Europe and in the Pacific.
    Take the Battle of Iwo Jima: in 30 days from February 19, 
1945, until March 26, 1945, the total American casualties were 
25,851, with 6,800 dead and 19,000 wounded. That was in the 
Pacific. In Europe, during the Battle of the Bulge, from 
December 16, 1944 to January 19, 1945, approximately 83,000 of 
the Eighth Corps were attacked by 30 German Divisions. Of the 
83,000, there were 41,000 casualties, with 4,000 killed in 
action, 20,000 wounded, and some 17,000 missing. That is the 
price that our Nation has paid, working with our allies, to 
protect freedom. I hope all Americans will reflect on the proud 
history of those who preceded you, wearing the uniforms of your 
respective services, and what they, their families, and this 
Nation have done in our world leadership role to protect 
freedom.
    At this point, I would like to submit my opening statement 
and the statements of Senators Thurmond and Allard.
    [The prepared statements of Senators Warner, Thurmond, and 
Allard follow:]

               Prepared Statement by Senator John Warner

    Thank you, Mr. Chairman. I join you in welcoming our service chiefs 
this morning.
    I want to express my sincere appreciation to each of you for your 
service to our country. This committee holds many hearings each year, 
but none more important than this one. We look to you for the 
professional military judgments that are so critical to our annual 
budget deliberations. Time and time again, you and your predecessors 
have summoned the courage to point out growing shortfalls and 
challenges to current and future readiness. Balancing the many needs 
and competing priorities of your respective services, and making the 
tough recommendations, is a difficult, but critical task.
    I want to begin by expressing my sympathies, condolences, and 
gratitude to the families, units, and friends of our service men and 
women who have lost their lives in this important global war against 
terrorism. Their loss, defending America and freedom, reminds us of the 
dangers our men and women in uniform face every day, as they defend our 
freedom around the world. We were encouraged by our early success in 
the war, but these tragic losses serve to remind us that this war on 
terrorism is just beginning. It is a struggle that will take us to the 
far corners of the world and the price will be high, but as President 
Bush recently reminded us: ``While the price of freedom and security is 
high, it is never too high.''
    The President's budget request for fiscal year 2003 represents the 
largest increase--$48 billion over the fiscal year 2002 appropriated 
level--for the Department of Defense in two decades. All of you have 
long advocated significant increases in defense spending to reverse 
years of overuse and underfunding of our military forces. Now, 
following the most devastating attack on our homeland in history, with 
our Nation at war, it is essential that Congress stand together with 
our President and our men and women in uniform by providing the 
resources you will need to fight this war and prepare for the many 
challenges ahead.
    The President has rallied the Nation, and, indeed the world, to 
fight this global war against terrorists and those who harbor them. It 
is a war unlike any we have ever fought before. It is a credit to each 
of you gentlemen that when the Nation called, each of your services was 
ready. Over the past few weeks, we have heard from our regional 
commanders in chief and from Secretary Rumsfeld about just how well our 
service men and women have performed. Clearly, it has been with 
distinction. The Nation is thankful to you, gentlemen, for the trained 
and ready forces that continue to make our Nation proud--well done.
    The events of the past week have been a stark reminder that this 
war is far from over. Our forces have performed magnificently so far, 
but many challenges lie ahead. We will continue to depend on you, 
gentlemen, to answer the difficult questions about the long term impact 
of the current high operational tempo; to tell us what has worked well; 
and, to tell us what needs to change.
    This war has truly been a joint operation--all services operating 
together as one and many coalition nations operating with U.S. forces. 
When the full story is told, people will marvel at the new roles played 
by our special operations forces, our maritime forces, our unmanned 
vehicles, and other high tech weaponry and techniques. During my 
travels to the region and in my on-going conversations with troops and 
commanders, I am constantly reminded that we are fighting a new kind of 
war and writing a new chapter in military history. Each of you has 
championed evolutionary and revolutionary changes within your 
respective services that will enable this new chapter to have a 
positive ending. Now, we must ensure that we adequately fund the 
capabilities and concepts that have served us so well, and carefully 
study the lessons learned to determine what more is required to 
transform our forces to meet the new and unexpected threats ahead.
    I am supportive of this budget request and its priorities of 
winning the war against terrorism, defending our homeland, improving 
quality of life for our service personnel, and transforming our forces. 
But, I do have some concerns that I hope each of you will address. 
Despite a $48 billion increase, it is clear that this budget request 
does not fully address the needs of our Armed Forces, as evidenced by 
unfunded requirements for the services which are in excess of $23 
billion. Significant shortfalls in the shipbuilding account and unmet 
needs for additional end strength are high on my list of concerns.
    As we discuss and debate this budget request in the days and weeks 
ahead, as is the duty of this committee and Congress, on one thing we 
can all agree: the commitment, dedication, and performance of the 
soldiers, sailors, airmen, and marines in service to their Nation has 
been remarkable. We are ever mindful of the dangers they confront every 
day and are forever grateful for their willingness and readiness to 
serve.
    The Nation is united in purpose and determination as seldom before 
in our history--united behind our President and our Armed Forces. We, 
in Congress, will do everything we can to provide the resources and 
capabilities you need to train, man and equip your services to carry on 
their proud traditions of service to country.
                                 ______
                                 
              Prepared Statement by Senator Strom Thurmond

    Thank you, Mr. Chairman.
    Mr. Chairman, this morning we meet to receive testimony from our 
senior military leaders regarding the adequacy of the President's 
budget request for the Department of Defense. Before recognizing our 
distinguished panel, I want to express my condolences to the families 
and friends of the soldiers, sailors, airmen, and marines who were 
killed in Afghanistan during the most recent battle against terrorist 
forces. These heroic deaths are vivid reminders of the sacrifices our 
military personnel make daily, whether it is in Afghanistan, Bosnia, 
Korea, or here at home. I want them all to know how proud I am of every 
one of them.
    Today's hearing will provide the committee the opportunity to hear 
directly from the senior leaders we hold responsible for the readiness 
of our military services. General Shinseki, Admiral Clark, General 
Jumper, and General Jones have already had a major impact on improving 
the current readiness of their services. More important, they have 
provided the vision on how to transform their services to meet the 
challenges of the new century. I doubt that any of them envisioned the 
tragedy of September 11 and the war against terrorism, yet each of 
their services responded magnificently both in fighting the terrorist 
on their turf and in providing the visible security at our airports, in 
the sky, and here on Capitol Hill.
    Despite the need to transform each service, we cannot forget the 
basic needs of the men and women in uniform. In prior hearings, both 
General Ralston and General Schwartz went into great detail describing 
the dismal conditions of the facilities in their commands. Many of my 
colleagues have personally seen these facilities and have also 
described them during various hearings. Mr. Chairman, I hope that the 
committee, working with our service chiefs, will dedicate additional 
resources to make headway in upgrading these facilities to the 
standards we owe our soldiers, sailors, airmen, and marines.
    Finally, Mr. Chairman, we must also take actions to ease the 
economic impact the Reserve call up has had on the lives of the 
individuals and their families. Many Reservists, whether from the 
National Guard or Reserves, suffer financially because of their service 
to the Nation during this time of crisis. Since we will be relying on 
our citizen soldiers to a greater extent than ever before, we have to 
ensure that their service does not result in an economic hardship on 
them, their families, or business. I hope we can work together to 
provide a solution to this persistent problem.
    Thank you, Mr. Chairman.
                                 ______
                                 
               Prepared Statement by Senator Wayne Allard

    Thank you Mr. Chairman.
    First and foremost, I want to express my most sincere appreciation 
to each of you for your leadership and dedication. Today our Nation is 
demanding much of our military to fight a global war on terrorism. Our 
forces are fighting in Afghanistan, protecting our security at home, 
and assisting forces in the Philippines, Yemen, and even Georgia. This 
is in addition to Operations Northern Watch and Southern Watch, and 
other on-going commitments around the world. Despite the strain of 
these demands, the men and women of our Armed Forces have met the 
challenge and demonstrated their great skill, courage, and dedication. 
This success was no accident. Troops take time to develop their 
expertise. Weapon systems such as Global Hawk take time to design, 
build, and test. The leadership must have the vision to coalesce these 
forces so they are ready when ever and where ever their country calls 
on them. You've demonstrated such vision and we are deeply indebted.
    As we fight this war today, we must continue to look to the future 
and build a fighting force ready to defeat the threats of the future. I 
believe the transformation you're undergoing is important and necessary 
to our national security. Although the Taliban may no longer rule in 
Kandahar, and although al Qaeda may no longer train terrorists in 
Afghan camps, many threats to our national security remain. As 
President Bush has clearly stated, regimes exist which wish to do us 
harm. We must remain strong and capable to respond to these threats.

    Chairman Levin. Thank you very much, Senator Warner. I 
think, given the large number of Senators and witnesses we 
have, that we will move directly to our witnesses' statements.
    General Shinseki.

STATEMENT OF GEN. ERIC K. SHINSEKI, USA, CHIEF OF STAFF, UNITED 
                          STATES ARMY

    General Shinseki. Thank you very much, Mr. Chairman. 
Senator Warner, distinguished members of this committee, it is 
an honor once again to appear here before this committee with 
the service chiefs to update you on the posture of the Army and 
its state of readiness.
    First, let me on behalf of the Army, much as Senator Warner 
and the chairman have done, express our deepest condolences to 
the families from all of our services who have suffered injury 
and loss in this war on terrorism. We have the greatest 
fighting forces and the best leaders in the world from all of 
our services.
    Willingly and without hesitation, they continue to 
demonstrate their profound and abiding devotion to this Nation 
and on our behalf they take risks, go into harm's way, shed 
blood, and prepare to give lives as necessary, as some have 
here in the recent fighting. They do so to defend peace and 
freedom and our way of life. They will see this through to its 
decisive outcome, and we could not be prouder of all of them.
    Senator Warner's remarks remind me that perhaps for the 
first time since World War II we have American young men and 
women fighting directly on behalf of the American people, as a 
result of what happened on September 11.
    Let me further report, Mr. Chairman, that our soldiers and 
our civilians in the Army appreciate much more than I can put 
into words what you have accomplished on their behalf this past 
year, enhancements in pay, health care, housing, and retirement 
benefits. They continue to make incredible contributions and 
even more incredible sacrifices, but they look to us to 
demonstrate both the Nation's appreciation and its commitment 
to them and their families. It is a commitment that you have 
honored well, and they are grateful.
    Nearly 3 years ago, the Army took a hard and discriminating 
look at itself. After examining our capabilities against the 
emerging strategic environment as we saw it then, we decided to 
take some risks. We committed ourselves to transforming the way 
we will fight and win the new wars of the new century. This 
committee elected to underwrite Army transformation when the 
very term was unfamiliar and a bit uncommon.
    Today, when one considers the magnitude of what we have 
accomplished with your support, it is staggering. With this 
submission, the Army buys its last heavy tank, confirmation of 
our sustainable momentum and our move towards the 
irreversibility we seek to achieve through transformation.
    Your investments are paying dividends. The selective 
recapitalization and modernization of our legacy systems 
maintains the acceptable readiness to fight and win today 
through this decade and beyond, as we transform today's 
capabilities into Objective Force overmatch. This August, our 
first Interim Brigade Combat Team (IBCT) at Fort Lewis will 
achieve its initial warfighting capability. By December we 
intend to operationally test two of its battalions, and by next 
spring we will evaluate the entire interim brigade. This 
interim capability will safeguard us through the remainder of 
this decade.
    Finally, the Defense Advanced Research Projects Agency 
(DARPA) and the Army will shortly announce the lead systems 
integrator for our Future Combat Systems of the Objective 
Force, the future force that we are trying to bring on by the 
end of this decade. It will be a new solicitation and 
acquisition strategy that will accelerate transformation to 
that Objective Force by the year 2010. Through this 
transformation strategy, selectively recapitalizing the legacy 
force, modest investments in an interim capability, and then 
transforming into future Objective Force capabilities, we 
remain prepared to fight these near-term conflicts against 
terrorism, or any of a host of other dangers, even as we set 
about changing ourselves to fight the wars of the 21st century.
    The Army has done a lot to help itself. We have made our 
own tough decisions to the critical fund transformation 
requirements for the Interim and Objective Force between fiscal 
years 2003 and 2007. We have restructured or eliminated 18 
Legacy Force modernization systems. We have reduced heavy 
maneuver and artillery battalions by 25 percent. We have cut 
aviation structure by 21 percent. We have manned our 10 Active 
component divisions and two active cavalry regiments to 101 
percent, moving our personnel resources within our structure.
    Since October 2000, the strength of other early-deploying 
units has grown from 92 percent to 99 percent, and we project 
reaching 100 percent by the end of this fiscal year. The ``Army 
of One'' advertising campaign has been a resounding success. In 
2001, we achieved our recruiting targets for the second year in 
a row, and we have exceeded our retention goals as well. This 
year, for the third year in a row, we will induct roughly 
180,000 Americans into the force.
    We have been changing our stance as an Army, and the 
President's budget builds on the momentum we have attained over 
the last 2\1/2\ years. But we do need to do more, and we do 
intend to move faster. The attacks of September 11 validated 
our vision, and the ensuing war against terrorism has 
underscored the need to accelerate.
    All of our troops from all of our services are performing 
superbly, Active, Guard, and Reserve. In Afghanistan, Army 
special operatives enable the anti-Taliban forces to compel the 
enemy to mass so that the significant capabilities of our air-
delivered munitions could be brought to bear.
    These successes are not accidental, and they are never 
easily won. Victories in battles like Mazar-e-Sharif, Herat, 
Konduz, Bagram, and now in the Shahi Khot region, as well as 
successful operations on objectives Rhino and Gecko and in the 
region of Tora Bora, represent years of difficult work, 
superior training, and real-world experiences in places like 
Bosnia, Kosovo, Nigeria, Colombia, the Philippines, Pakistan, 
and Uzbekistan, to name a few.
    Mr. Chairman, our investments have borne fruit in a 
conflict that was difficult to predict 6 months ago. Our new 
century is marked by uncertainty. Recognizing and preparing for 
that uncertainty is what the Army vision is all about. In this 
new century, strategic success demands strategic 
responsiveness, seeing the world with an unblinking eye, having 
agile, versatile, lethal, survivable, and sustainable 
capabilities, and then maintaining the infrastructure and lift 
to be able to deliver that force anywhere in the world quickly 
to win decisively.
    That force for the Army is the future Objective Force, and 
with your continued strong support and the support of the 
administration you will see that force fielded by the end of 
this decade.
    Mr. Chairman, thank you. I look forward to your questions.
    [The prepared statement of General Shinseki follows:]

            Prepared Statement by Gen. Eric K. Shinseki, USA

    Mr. Chairman and distinguished members of the committee, thank you 
for this opportunity to report to you on the United States Army's 
readiness to provide for our Nation's security today and in the future. 
Throughout our Nation's history, the Army has demonstrated that it is 
America's decisive ground combat force with capabilities sufficiently 
diverse to cover the full spectrum of operations demanded by the 
Nation--anytime, anywhere. The essence of the Army remains unchanged--
an ethos of service to the Nation, the readiness to fight and win wars 
decisively, and a willingness to accomplish any mission the American 
people ask of us.
    Today, we are engaged in a global war on terrorism and defense of 
our homeland. Soldiers, on point for the Nation, are protecting and 
promoting American interests around the globe. They are accomplishing 
these vital missions much as we have for over 226 years with little 
fanfare or attention. The Army is able to accomplish what is asked by 
relying on the strength of its soldiers--Active, National Guard, Army 
Reserve--and civilians who honorably and proudly answer the calls to 
duty.
    The Army has no illusions about the challenges it faces. It must 
help win the global war on terrorism and prepare for future wars and 
conflicts by effectively using the resources you provide us to 
transform. With the continued support of Congress and the 
administration, our soldiers will continue to do their part to 
decisively win the global war on terrorism, rapidly transform 
themselves to fight and win new and different kinds of conflicts, meet 
our obligations to allies and friends, and maintain our readiness for 
the unexpected and unpredictable challenges that may arise.

                       THE STRATEGIC ENVIRONMENT

    The attacks of 11 September provide compelling evidence that the 
strategic environment remains dangerous and unpredictable. Although we 
may sense dangerous trends and potential threats, there is little 
certainty about how these threats may be postured against America or 
her interests. Uncertainty marks the global war on terrorism, and our 
soldiers continue to be involved in smaller-scale contingencies and 
conflicts. Yet, the potential for large-scale conventional combat 
operations will continue to lurk just beneath the surface. Victory in 
battle will require versatile combat formations and agile soldiers, who 
can deploy rapidly, undertake a multiplicity of missions, operate 
continuously over extended distances without large logistics bases, and 
maneuver with speed and precision to gain positional advantage. Our 
soldiers must be capable of prosecuting prompt and sustained land 
operations across a spectrum of conflict resulting in decisive victory.

                        THE STRATEGIC FRAMEWORK

    The 2001 Quadrennial Defense Review (QDR) established a new 
strategic framework for the defense of the Nation that struck a balance 
between near-term readiness and our ability to transform ourselves in 
order to meet current and future conflicts. The report outlined a new 
operational concept that gives continued priority to homeland defense, 
promotes deterrence through forward presence, and asks that we have the 
ability to conduct both smaller-scale contingencies and large scale, 
high-intensity combat operations simultaneously.
    Our soldiers can defeat enemy armies, seize and control terrain, 
and control populations and resources with minimal collateral 
casualties and damage. They can operate across the spectrum of military 
operations, from full-scale conventional conflict to fighting 
terrorists, to setting the conditions for humanitarian assistance. This 
multifaceted ground capability enables us to assure our allies and 
friends, dissuade future military competition, deter threats and 
coercion, and, when necessary, decisively defeat any adversary.
    As the Army continues to work with other departments, agencies, and 
organizations, emerging requirements that are not fully defined in the 
2001 QDR may require additional resourcing, whether technological, 
logistical, or force structure. Despite 10 years of downsizing, the 
Army has accomplished all assigned missions to a high standard. In 
short, we are doing more with less, and the strain on the force is 
real. Our soldiers continue to give us more in operational readiness 
than we have resourced.
    While we fight and win the global war on terrorism, the Army must 
prepare itself to handle demanding missions in the future strategic 
environment. Over 2 years ago, the Army undertook transforming itself 
into a force that is more strategically responsive and dominant at 
every point on the spectrum of military operations. We have gained 
insight from previous deployments, operations, and exercises, along 
with leading-edge work in Army Battle Labs, joint and Army warfighting 
experiments, and wargames. With this insight, the Army embarked on 
initiatives to assure its dominance in a new contemporary operational 
environment by deterring and defeating adversaries who rely on 
surprise, deception, and asymmetric warfare to achieve their objectives 
against conventional forces. The attacks of 11 September 2001 and our 
subsequent operations overseas validated the Army's transformation. If 
anything, 11 September provided new urgency to our efforts. Thus, we 
are accelerating transformation to give our commanders the most 
advanced capabilities they need to ensure that we have the best led, 
best equipped, and best trained soldiers for the emerging global 
environment. To mitigate risk as we transform to meet future 
requirements, we will prioritize among the imperatives of meeting 
existing threats, safeguarding our homeland, and winning the war 
against terrorism.

                   SOLDIERS--ON POINT FOR THE NATION

    Globally, soldiers offer tangible reassurance to our allies, build 
trust and confidence, promote regional stability, encourage democratic 
institutions, and deter conflict. Nothing speaks to the values of 
America more than soldiers on the ground providing comfort, aid, and 
stability at home and abroad. The Army, as part of a joint military 
team, provides a wide range of options to our leaders and commanders. 
As we have seen, in today's world we cannot win without the human 
dimension on the battleground. Whether it be gathering intelligence, 
challenging an adversary's ability to conceal and seek cover, or 
protecting innocent civilians, the American soldier remains the 
ultimate precision weapon during combat operations, particularly when 
legitimate targets are interspersed among non-combatants. In the final 
analysis, it is the soldier on the ground who demonstrates the 
resilience of American commitment and provides the needed flexibility 
to decisively defeat our adversaries.
    Since October 2001, Army conventional and special operations 
forces, as part of the joint force, have participated in Operation 
Enduring Freedom in the Afghanistan theater of operations. The range of 
their capabilities has been extensive. These highly trained soldiers 
have worked with local forces to forge a powerful alliance. They have 
designated targets for air strikes, secured airfields, and performed 
reconnaissance and security missions that facilitated the safe 
introduction of follow-on forces. Supporting the war effort, they have 
provided security to joint forces, critical facilities, and supply 
lines, and they have received and prepared both combat and humanitarian 
supplies for air delivery to Afghanistan. Currently, more than 12,000 
soldiers are deployed--from Egypt to Pakistan, from Kenya to 
Kazakhstan. Although hostilities in Afghanistan are shifting focus, 
requirements for ground forces are growing--they are assuring regional 
stability in Afghanistan, directing humanitarian assistance and relief 
operations, securing detainees at Guantanamo Bay, Cuba, and deploying 
to the Philippines.
    At home, the Army continues its long tradition of support to 
homeland security. Even before 11 September 2001, the Army had 10 
trained and certified Weapons of Mass Destruction Civil Support Teams 
ready to assist civil authorities and had trained 28,000 civilian first 
responders in 105 cities. Since the attacks, we have mobilized over 
25,000 Army National Guard (ARNG) and United States Army Reserve (USAR) 
soldiers for federal service here and overseas. Nearly 11,000 soldiers 
are on state-controlled duty securing airports, seaports, reservoirs, 
power plants, the Nation's capital region, and serving at ``ground 
zero'' in New York City alongside the U.S. Army Corps of Engineers. To 
increase protection for our citizens and reduce vulnerability, we 
accelerated the safe destruction of the U.S. stockpile of lethal 
chemical agent and munitions while combating the proliferation of 
chemical weapons. Continuing a commitment to civil authorities, nearly 
500 soldiers worked Super Bowl XXXVI, and over 5,000 soldiers are 
helping ensure the security of the 2002 Winter Olympics in Salt Lake 
City, Utah.
    But, fighting the global war on terrorism in no way diminishes the 
requirements placed on the Army for support to missions and operations 
around the world--indeed, it expands it. While the Army remains engaged 
at home, it is prudently taking action for follow-on operations around 
the world, to include mobilizing some 2,000 ARNG soldiers to augment 
our missions in the European theater. In fact, the Army--Active, ARNG, 
and USAR--has over 124,000 soldiers and 38,000 civilians stationed in 
110 countries. Additionally, on any given day last year some 27,000 
soldiers were deployed to 60 countries for operations and training 
missions. It is easy to forget that our soldiers have been on the 
ground conducting peacekeeping missions in the Balkans for 6 years, in 
Saudi Arabia and Kuwait for 11 years, and in the Sinai for 19 years. 
Our soldiers have been in Korea and Europe for over 50 years, assuring 
their peace and stability while, at the same time, providing the Nation 
with a rapid deployment capability to areas near those theaters of 
operations, as needed. Depending on the next move in the war on 
terrorism, additional manning requirements will be placed on the Army 
that will inevitably create more stress on our current end strength.

         THE ARMY VISION: PEOPLE, READINESS, AND TRANSFORMATION

    On 12 October 1999, the Army articulated its vision that defined 
how the Army would meet the Nation's requirements now and into the 21st 
century. The vision is comprised of three interdependent components--
people, readiness, and transformation. It provides direction and 
structure for prioritizing resources to ensure the Army remains the 
most dominant and intimidating ground force in the world to deter those 
who would contemplate threatening the interests of America. Ultimately, 
it is about risk management, striking a balance between readiness today 
and preparedness for tomorrow. It is about having overmatching 
capabilities while simultaneously reducing our vulnerabilities in order 
to dominate those who would threaten our interests--now and in the 
future. It is about examining where we are now and where we need to be, 
and it is about achieving decisive victory--anywhere, anytime, against 
any opposition. The Army's budget request for fiscal year 2003 supports 
the Army vision and the strategic guidance to transform to a full 
spectrum force while ensuring warfighting readiness. It reflects a 
balanced base program that will allow the Army to remain trained and 
ready throughout fiscal year 2003, while ensuring our force is 
protected as we fulfill our critical role in the global war on 
terrorism. It mans the force--end strength of 480,000 Active component, 
350,000 Army National Guard, and 205,000 Army Reserve soldiers--and 
provides our soldiers with better pay and incentives.
People
    People--soldiers, civilians, retirees, veterans, and their 
families--are the Army. People are central to everything we do in the 
Army. Institutions do not transform; people do. Platforms and 
organizations do not defend our Nation; people do. Units do not train, 
they do not stay ready, they do not grow and develop leadership, they 
do not sacrifice, and they do not take risks on behalf of the Nation; 
people do. We must adequately man our force, provide for the well-being 
of our soldiers and their families, and develop leaders for the future 
so that the Army continues to be a professionally and personally 
rewarding experience. Soldiers will always be the centerpiece of our 
formations. They are our sons and daughters. We are committed to 
recruiting and retaining the best people and giving them the finest 
tools to do their job so that they remain the world's best army.
Manning the Force
    Current and future military operations depend on an Army with the 
flexibility to respond quickly in order to rapidly meet changing 
operational requirements. The Army has approached its manpower 
challenge in a variety of ways. In fiscal year 2000, we implemented a 
personnel strategy to man units at 100 percent. Starting with 
divisional combat units, the program expanded in fiscal year 2001 and 
fiscal year 2002 to include early deploying units. Funding in the 
fiscal year 2003 budget for change-of-station moves improves our 
ability to man units at desired grade and skill levels by placing 
soldiers where they are needed. The Army is currently assessing its 
ability to fill remaining units by the end of fiscal year 2004.
    The ARNG and USAR now make up more than 50 percent of the Army's 
force structure. Ongoing and expanded reserve integration initiatives--
to include full time support--have increased Reserve readiness and 
increased their ability to rapidly transition from a peacetime to a 
wartime posture.
    A new advertising campaign in 2001--``An Army of One''--raised the 
awareness and interest levels of potential soldiers. The Army achieved 
100 percent of its goal for all components in recruiting and retention 
for the second year in a row. To ensure that we recruit and retain 
sufficient quality personnel, we continue to examine innovative 
recruiting and retention programs. The increases for enlistment and 
retention bonuses will enable the Army to sustain these recruiting and 
retention successes, although some shortfalls remain.
    Well-Being
    Our soldiers appreciate, more than you realize, your support this 
past year for pay increases of at least 5 percent and the 3.6 percent 
for the civilians who support them. Targeted pay increases for highly 
skilled enlisted soldiers and mid-grade officers, the online electronic 
Army University education program, and upgraded single-soldier barracks 
and residential communities further support and aid in maintaining the 
well-being of soldiers willing to put their lives at risk for our 
national interests. In turn, the attention to a soldier's well-being 
helps the Army recruit and retain the best people. Our soldiers ask 
little in return, but they judge their Nation's commitment to them by 
how well it takes care of them and their families. It is a commitment 
we must honor.
    Army readiness is inextricably linked to the well-being of our 
people. Our success depends on the whole team--soldiers, civilians, 
retirees, and their families--all of whom serve the Nation. The term 
Well-Being is not a synonym with ``quality of life,'' but rather an 
expansion of the concept that integrates and incorporates existing 
quality of life initiatives and programs. Well-Being takes a 
multifaceted approach. We are working with the Office of the Secretary 
of Defense to improve TRICARE in order to provide better medical care 
for soldiers, families, and retirees and to continue to close the 
compensation gap between soldiers and the civilian sector, and the 
budget's increases housing allowances reduces out-of-pocket expenses 
for military personnel from 11.3 percent in fiscal year 2002 to 7.5 
percent in fiscal year 2003 and puts the Army on track for eliminating 
average out-of-pocket costs entirely by fiscal year 2005 for those 
soldiers and families living on the economy.
    Leader Development
    Civilian and military leaders are the linchpin of transformation. 
The leaders and soldiers who will implement the new warfighting 
doctrine must be adaptive and self-aware, capable of independent 
operations separated from friendly elements for days at a time, 
exercising initiative within their commander's intent to rapidly 
exploit opportunities as they present themselves on the battlefield. 
Leaders must be intuitive and capable of rapid tactical decisionmaking, 
and all soldiers must master the information and weapons systems 
technologies in order to leverage their full potential. But new 
technologies and new kinds of warfare will demand a new kind of leader. 
As part of our transformation process, the Army is taking a 
comprehensive look at the way we develop officers, warrant officers and 
non-commissioned officers through the Army Training and Leader 
Development Panels to review and assess issues and provide 
recommendations on how to produce the Army's future leaders. We have 
expanded these reviews to include Army civilians in anticipation of the 
need to replace the increasing number who will become retirement 
eligible after fiscal year 2003. The Army must have top-notch military 
and civilian people at all levels in order to meet the global, 
economic, and technological challenges of the future.
    In June 2001, the Army published the most significant reshaping of 
Army warfighting doctrine since 1982. Field Manual 3-0, Operations, 
emphasizes the Army's ability to apply decisive force through network-
centric capabilities and shows just how dramatically the Army must 
transform itself to fight both differently and more effectively. This 
doctrine will assist in the development of a new force--the Objective 
Force--that maximizes the technological advantages of equipment, leader 
development, and evolutionary warfighting concepts. The Objective Force 
will demand a generation of leaders who know how to think, not what to 
think.
Readiness
    At its most fundamental level, war is a brutal contest of wills. 
Winning decisively means dominating the enemy. To be dominant, we must 
be not only organized, manned, and equipped, but also fully trained. 
Today, the Army is ready for its assigned missions, but sustained 
support from the Nation, Congress, and the administration is required 
to ensure that we maintain our readiness. To do so requires that we pay 
attention to training, installations, force protection and readiness 
reporting. The fiscal year 2003 budget request supports readiness and 
provides funding to maintain our current facilities at an acceptable 
level. Fiscal year 2003 funding improves on fiscal year 2002 levels in 
terms of maintaining a stable training base to develop quality leaders 
and soldiers. Resources have been aligned to ensure our forces are 
trained, equipped and ready to fight. In addition, funding is provided 
to enhance unit training and deployability--a positive impact on 
overall readiness.
    Unit Training
    Tough, demanding training which is supported by an infrastructure 
that allows us to train, sustain, and deploy is essential to readiness. 
History has taught us and we have learned that, in the end, armies 
fight the way they train. The Army is committed to fully executing our 
training strategy--the higher the quality of training, the better the 
leaders and warfighters we produce. The result is an increased state of 
readiness to serve our Nation. To this end, we must fully modernize 
training ranges, combat training centers, and training aids, devices, 
simulators, and simulations to provide adequate and challenging 
training. The Army has funded the integration of virtual and 
constructive training capabilities to achieve realism and cost 
effectiveness.
    As we move to greater network--centric warfare capability, our 
forces will operate with even greater dispersion, and maintaining 
sufficient maneuver areas for training these extended formations will 
become even more critical. Combat is a complex mixture of people, 
equipment, and the training that fuses them together. Live training 
requires adequate land, sea, air and spectrum to even begin to 
realistically recreate combat--like conditions. That space is 
increasingly being encroached upon, intensifying environmental 
constraints and operational restrictions that will result in 
unanticipated and unwarranted limitations on needed test and training 
activities. Thus, the Army is implementing a sustainable program to 
manage the lifecycle of training and testing ranges by integrating 
operational needs, land management, explosives safety, and 
environmental stewardship. This program will ensure the continuing 
viability of training ranges by addressing the multiple aspects of 
encroachment: endangered species and critical habitats, unexploded 
ordnance and munitions, spectrum encroachment, airspace restrictions, 
air quality, noise, and urban growth. As we transform to a future force 
with new systems, organizational structures, and new doctrine to 
achieve full spectrum operational capability, our training enablers and 
infrastructure, along with realistic and relevant training venues, must 
be funded to match the timelines we have established to field a highly 
trained soldier--one whose unit is poised to fight new and different 
kinds of conflicts while maintaining traditional warfighting skills.
    The Army OPTEMPO budget is a top priority, and the Army is 
committed to improving its training and unit readiness. The budget 
supports a ground OPTEMPO program of 800 M1 Abrams Tank miles at home 
station. The Flying Hour Program is funded for an average of 14.5 
required live flying hours per aircrew per month for the Active 
component, and nine live aircrew flying hours for Reserve components. 
We have scheduled 10 brigade rotations (9 Active component and 1 Army 
National Guard) through the National Training Center, 10 brigade 
rotations (9 Active component and 1 Army National Guard) through the 
Joint Readiness Training Center. The Battle Command Training Program 
will conduct two corps Warfighter exercises and train six division 
command and staff groups, an increase of one divisional staff training 
exercise in fiscal year 2003. Additionally, funding for training 
enabler support has been increased 20 percent from fiscal year 2002 
levels.
    Installations
    Installations provide homes, family and training support, and power 
projection platforms for the Army. They are the bases where soldiers 
live, train, and from which they launch on their missions. Worldwide, 
we have physical plants worth over $220 billion. For too many years, 
the Army has under funded long-term facilities maintenance in order to 
fully fund combat readiness and contingency operations; thus, we now 
have first-class soldiers living and working in third-class facilities. 
Commanders currently rate two-thirds of their infrastructure condition 
so poor that it significantly impacts mission accomplishment and 
morale. The fiscal year 2003 budget funds over 90 percent of 
sustainment, restoration, and modernization (SRM) requirements and 
builds on the fiscal year 2002 funded levels, slowing the deterioration 
of our aging infrastructure. But, the major investment in SRM in fiscal 
year 2002 is helping to improve only the most critical conditions in 
our crumbling infrastructure. Over the next 5 years, SRM shortfalls 
will continue to approximate $3 billion annually as a result of our 
aging facilities. Exacerbating this situation is the fact that the Army 
has more facility infrastructure than we need. The cost of operating 
and sustaining these facilities directly competes with funding our 
warfighting capability. The realignment or closure of excess facilities 
will free funds for installations and bring the recapitilization rate 
closer to the Department of Defense's goal of 67 years by 2010. The 
Army is divesting itself of mothballed facilities and examining 
privatization alternatives. For example, we are capitalizing on the 
success of the Residential Communities Initiatives by expanding the 
program to 24 projects to more efficiently and effectively manage 
installations. Encompassing over 63,000 family housing units, the 
program allows the private sector to remodel, build, and manage housing 
on Army bases in order to provide the quality housing our soldiers and 
their families deserve. The fiscal year 2003 budget provides the 
military facilities and soldier housing needed to improve Army 
readiness, quality of life, and efficiency. In fiscal year 2003, we 
will institute a centralized installation management organization that 
will improve our facilities and infrastructure through consistent 
funding and standards that promote the equitable delivery of base 
operation services and achieve efficiencies through corporate practices 
and regionalization.
    Force Protection
    The missions and training we assign soldiers are not without risks, 
and soldiers must be able to live, train, and work in safe, secure 
environments. We minimize risks by proactively protecting our force. 
For example, we reevaluated force protection security programs and 
adjusted over $800 million in fiscal year 2003 to further support 
controlled access to installations, in-transit security, counter-
terrorism training improvements, information assurance, situational 
awareness, crisis response, and force protection command and control. 
An additional $1.8 billion is required for further force protection and 
security program requirements generated in the wake of the attacks on 
America.
    Readiness Reporting
    Measuring readiness requires accuracy, objectivity, and uniformity. 
The Army is transforming its current readiness reporting system to 
achieve greater responsiveness and clarity on unit and installation 
status. The Strategic Readiness System (SRS) will provide senior 
leaders with an accurate and complete near real time picture 
representative of the entire Army (operating forces, institutional 
forces, and infrastructure). The SRS will be a predictive management 
tool capable of linking costs to readiness so resources can be 
effectively applied to near- and far-term requirements. A prototype SRS 
is being evaluated at selected installations, and its development will 
continue to ensure compliance with congressionally-directed readiness 
reporting.
Transformation
    Transformation is first and foremost about changing the way we 
fight in order to win our Nation's wars--decisively. The 21st century 
strategic environment and the implications of emerging technologies 
necessitate Army transformation. The global war on terrorism reinforces 
the need for a transformed Army that is more strategically responsive, 
deployable, lethal, agile, versatile, survivable, and sustainable than 
current forces.
    Technology will enable our soldiers to see the battlefield in ways 
not possible before. See first enables leaders and soldiers to gain a 
greater situational awareness of themselves, their opponents, and the 
battle space on which they move and fight. Superior awareness enables 
us to understand first, to assess and decide on solutions to the 
tactical and operational problems at hand faster than our opponents--to 
gain decision superiority over our opponents. Networked units are able 
to act first, to seize and retain the initiative, moving out of contact 
with the enemy to attack his sources of strength or key vulnerabilities 
at a time and place of our choosing. The Army uses precision fires--
whether delivered by joint platforms or soldiers firing direct fire 
weapons--to defeat the enemy as rapidly and decisively as possible. 
Army units will be capable of transitioning seamlessly from stability 
operations to combat operations and back again, given the requirements 
of the contingency. When we attack, we destroy the enemy and finish 
decisively.
    The Army is taking a holistic approach to transformation, 
implementing change across its doctrine, training, leader development, 
organization, materiel, and soldier systems, as well as across all of 
its components. Transformation will result in a different Army, not 
just a modernized version of the current Army. Combining the best 
characteristics of our current forces, the Army will possess the 
lethality and speed of the heavy force, the rapid deployment mentality 
and toughness of our light forces, and the unmatched precision and 
close combat capabilities of our special operations forces--adopting a 
common warrior culture across the entire force. Transformation will 
field the best-trained, most combat effective, most lethal soldier in 
the world.
    True transformation takes advantage of new approaches to 
operational concepts and capabilities and blends old and new 
technologies and innovative organizations that efficiently anticipate 
new or emerging opportunities. Transformation will provide versatile 
forces that have a decisive margin of advantage over potential 
adversaries and fulfill the Nation's full spectrum requirements. 
Transformed ground forces will dominate maneuver on the battlefield to 
gain positional advantage over the enemy with overwhelming speed, while 
enhancing the capabilities of the joint force. This approach will 
contribute to the early termination of the conflict on terms favorable 
to the United States and its allies. Transformation will exploit 
network-centric capabilities to enable rapidly deployable and 
sustainable Army forces to quickly and precisely strike fixed and 
mobile targets throughout the depth and breadth of the battlefield.
    Transformation consists of three interrelated elements--the 
Objective Force, the Interim Force, and the Legacy Force. We will 
develop concepts and technologies for the Objective Force while 
fielding an Interim Force to meet the near-term requirement to bridge 
the operational gap between our heavy and light forces. The third 
element of transformation is the modernization and recapitalization of 
existing platforms within our current force--the Legacy Force--to 
provide these platforms with the enhanced capabilities available 
through the application of information technologies. Several important 
initiatives that should produce even greater advances in 2002 are the 
production, testing, and delivery of the Interim Force vehicle early 
this year, and the development of mature technologies to achieve 
Objective Force capabilities.
    Digitization concepts tested and proved with the Legacy Force are 
being refined in the Interim Force and will be applied to the Objective 
Force. These efforts, along with planned training and testing and joint 
exercises--such as the U.S. Joint Forces Command's ``Millennium 
Challenge 2002''--will enable the Army to stay ahead of current and 
future adversaries by providing the Nation and its soldiers with 
unmatched advanced capabilities. To achieve additional momentum, we 
will carefully concentrate research and development and acquisition 
funding on our most critical systems and programs.
    The Objective Force
    The end result of transformation is a new, more effective, and more 
efficient Army with a new fighting structure--the Objective Force. It 
will provide our Nation with an increased range of options for crisis 
response, engagement, or sustained land force operations. Instead of 
the linear sequential operations of the past, the Objective Force will 
fight in a distributed and non-contiguous manner. Objective Force units 
will be highly responsive, deploy rapidly because of reduced platform 
weight and smaller logistical footprints, and arrive early to a crisis 
to dissuade or deter conflict. These forces will be capable of vertical 
maneuver and defeating enemy anti-access strategies by descending upon 
multiple points of entry. With superior situational awareness, 
Objective Force soldiers will identify and attack critical enemy 
capabilities and key vulnerabilities throughout the depth of the battle 
space. For optimum success, we will harmonize our transformation 
efforts with similar efforts by other services, business and industry, 
and our science and technology partners.
    By focusing much of its spending in science and technology, the 
Army will create a new family of ground systems called the Future 
Combat Systems (FCS). This networked system-of-systems--a key to 
fielding the Objective Force--will allow leaders and soldiers to 
harness the power of digitized information systems. The FCS will allow 
commanders to bring a substantial, perhaps even exponential, increase 
in combat capabilities to the joint force without a large logistics 
footprint. Newer technologies will be inserted into the FCS as they 
become ready. In November 2001, the solicitation for the FCS Lead 
Systems Integrator (LSI) was released to industry. In coordination with 
the Army and DARPA, the LSI will select the ``best of breed'' 
technologies, components, and sub-components through maximum 
competition among the sub-contractors. The Lead System Integrator is a 
new solicitation and acquisition strategy that will accelerate the 
Army's transformation and see the FCS first unit equipped and 
operational by 2010. We anticipate selection of the Lead System 
Integrator in March 2002. In the fiscal year 2003 budget, we invested 
97 percent of our science and technology resources toward the design 
and development of the Objective Force and enabling technologies. With 
this funding level, the Army will begin fielding an Objective Force--
this decade.
    We owe our soldiers the best tools and equipment so they are not 
put at risk by obsolete or aging combat support systems. The Comanche 
helicopter, the Objective Force Warrior system, and command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR) initiatives are integral components of the 
network-centric operations of the Objective Force. They are the 
infrastructure that allows soldiers to do what they do best--fight and 
win our Nation's wars. Comanche will provide an armed aerial 
reconnaissance capability critical for gathering intelligence for 
coordinated attacks against targets of opportunity, and the fiscal year 
2003 budget supports continued System Development and Demonstration and 
Mission Equipment Package Development, component development testing, 
and flight-testing. The Objective Force Warrior system will provide 
quantum improvements over our current soldier systems in weight, 
signature, information exchange capabilities, ballistics tolerance, and 
chemical, biological, and environmental protection for our individual 
soldiers on the battlefield.
    Terrestrial systems alone will not enable full spectrum dominance. 
Space is a vertical extension of the battlefield and a key enabler and 
force multiplier for land force operations. Objective Force commanders 
will access and integrate the full spectrum of C\4\ISR and Information 
Operations capabilities, to include national agencies, strategic and 
operational units, tactical organizations, and joint or multinational 
forces. In short, commanders will draw upon a wide array of 
capabilities that enable not just overwhelming force projection, but 
the ability to out-think our adversaries.
    Transporting and sustaining the Objective Force will require 
capabilities that are cost effective, that adhere to rapid deployment 
timelines, and that have a smaller logistical footprint over longer 
distances without jeopardizing readiness. Materiel readiness will be 
maintained at reduced costs by increasing inventory visibility, 
eliminating artificial ownership barriers, and integrating automated 
systems.
    The Interim Force
    The Interim Force is a transition force that bridges the near-term 
capability gap between our heavy and light forces. It will combine the 
best characteristics of the current Army forces--heavy, light, and 
Special Operations Forces. Organized into Interim Brigade Combat Teams 
(IBCTs), it will leverage today's technology with selected capabilities 
of the Legacy Force to serve as a link to the Objective Force. Most 
importantly, the Interim Force--a combat ready force--will allow 
exploration of new operational concepts relevant to the Objective 
Force. The Army will field at least six of these new, more responsive 
brigade combat teams. These units comprise an Interim Force that will 
strengthen deterrence and expand options for the field commanders. Over 
the past 2 years, we have organized two brigades at Fort Lewis, 
Washington, and additional IBCTs are programmed for Alaska, Louisiana, 
Hawaii, and Pennsylvania. Leaders and soldiers of the IBCTs at Fort 
Lewis, along with an Army coordination cell, have been working closely 
with all supporting agencies to develop wide-ranging iterative 
solutions to doctrine, training, logistics, organizations, material, 
and soldier systems required to field the Interim Force. The first IBCT 
has completed brigade and battalion level headquarters training with 
the Army's Battle Command Training Program and company level maneuver 
live-fire training across the spectrum of conflict. The IBCT is 
training extensively for restrictive and urban terrain, and the force 
has used special operations training techniques and procedures for the 
development of night and urban fighting techniques. This brigade will 
attain its first incremental warfighting capability--and infantry 
company--in August of this year, and its full initial operational 
capability in May 2003.
    Training of the Interim Force is proving that the practice of 
combining heavy, light, and special operations cultures results in a 
more adaptable and capable leader or soldier. The Army has learned from 
experimentation that technology such as digitization allows the 
integration of intelligence data with tactical and operational 
information and gives our leaders and soldiers the ability to seize and 
retain the initiative, build momentum quickly, and win decisively. The 
Army is accelerating the development and fielding of the Interim Force 
and studying the viability of fielding an additional interim capability 
in the European area. The fiscal year 2003 budget continues funding of 
303 Interim Armored Vehicles (IAV) in fiscal year 2002 and 332 in 
fiscal year 2003 for the third IBCT.
    Legacy Force--Revitalizing The Army
    Transformation applies to what we do, as well as how we do it. We 
are working with the business community to accelerate change across the 
entire Army, promote cooperation, share information, gain greater 
control over resource management, and adopt better business practices 
by eliminating functions or activities that no longer provide value. 
This initiative seeks to focus constrained resources on achieving 
excellence in areas that contribute directly to warfighting. 
Transformation of our business practices cannot wait, and we have 
started at the highest levels.
    The Army is restructuring the Army Secretariat and Army Staff to 
create a more unified headquarters for the conduct of enhanced policy, 
planning, and resource management activities. The goal is to transform 
the headquarters into a streamlined, integrated staff more responsive 
to rapidly changing operational and institutional missions and to push 
more resources out to the field units. This will streamline the flow of 
information and speed decisionmaking. The unified headquarters will 
seek greater integration of the Reserve components into key staff 
positions to better accommodate issues and concerns. To minimize 
turbulence in the workforce, we will reinvest manpower savings in other 
Army priorities. Realignment initiatives already underway will help us 
meet the congressionally-mandated 15 percent reduction in headquarters 
staffs. With congressional support, the Army will apply these 
methodologies to the entire force.
    As the Army transforms, the Legacy Force--our current force--will 
remain ready to provide the Nation with the warfighting capability 
needed to keep America strong and free. Through selective modernization 
and recapitalization, the Legacy Force allows the Army to meet today's 
challenges and provides the time and flexibility to get Transformation 
right. Effectively managing risk without sacrificing readiness, the 
Army is focusing resources on systems and units that are essential to 
both sustaining near-term readiness and fielding the Objective Force 
while taking prudent risk with the remainder of the force. 
Recapitalization rebuilds or selectively upgrades existing weapons 
systems and tactical vehicles, while modernization develops and 
procures new systems with improved warfighting capabilities. The Army 
has identified 17 systems--its Prioritized Recapitalization Program--
and fully funded them in selected units. Among these systems are the 
AH-64 Apache, UH-60 Black Hawk, and CH-47 Chinook helicopters; the M1 
Abrams tank; the M2 Bradley fighting vehicle; and the Patriot Advanced 
Capability-3 missile defense upgrade. Modernization provides the 
linkage to facilitate the fielding of the Interim and Objective Forces. 
The Crusader self-propelled howitzer will provide combat overmatch to 
our commanders until at least 2032 and serve as a technology carrier to 
the Objective Force. Recent restructuring initiatives have reduced 
Crusader's strategic lift requirements by 50 percent. Technology 
improvements have increased its range by 33 percent, increased the 
sustained rate of fire by a factor of 10, and utilizing robotics, 
reduced crew requirements by 33 percent. The fiscal year 2003 budget 
supports completion of the detailed design effort, completion of 
critical technologies integration and risk reduction efforts, 
powerpack/drive train integration of the chassis, and initiation of 
manufacturing of System Development and Demonstration prototypes. 
Modernized M1A2SEP tanks and M2A3 Bradley fighting vehicles are capable 
of the same situational awareness as the Interim Force, thus enabling 
soldiers and leaders to learn network-centric warfare on existing 
chassis. The advantage these information technologies provide our 
current force further enhance its warfighting capability. Army Aviation 
modernization efforts will reduce our helicopter inventory by 25 
percent and retain only three types of helicopters in service, and the 
savings in training and logistics will be used to support the 
recapitalization of our remaining fleet. As part of its Legacy Force 
strategy, the Army terminated an additional 18 systems and restructured 
12 in this budget cycle.
                       a commitment to the future
    The Army, like the American people, remains committed to preserving 
freedom. As we have for over 226 years, we will continue to win our 
Nation's wars. Contrary to some expectations, the post-Cold War period 
has not seen a reduction in the demands placed on soldiers on the 
ground. In fact, since the fall of the Soviet Union, the international 
security environment has underscored the importance of ongoing 
commitments and highlighted new requirements for the Army. These 
increased demands have intensified competition for resources and 
reduced needed investments in people, systems, platforms, and research 
and development. Unless redressed, risks incurred from this resources 
shortfall could undermine the Army's ability to satisfy national 
security requirements. At the same time, the war on terrorism, the 
requirement to secure the homeland, and the need to maintain readiness 
for possible near-term contingencies have validated the need for a new 
kind of Army--a capabilities-based ground force that can fight and win 
battles across the full spectrum of military operations. We are 
accelerating Army Transformation to achieve these capabilities. The 
Army cannot predict what changes the future will bring, but what will 
not change is the need for our Nation to have the best trained, best 
led, and best equipped soldiers on the ground, deployed rapidly at 
precisely the right time, the right place, and with the right support 
structure as part of a joint military team.
    Mr. Chairman and distinguished members of the committee, 2\1/2\ 
years ago, the Army committed to transforming the way we will fight and 
win the new wars of a new century, and this committee elected to 
underwrite Army transformation. Today, the magnitude of what we have 
accomplished is staggering. With this submission, the Army buys its 
last heavy tank--confirmation of our sustainable momentum, and our move 
towards the irreversibility we seek to achieve in transformation. Thank 
you once again for this opportunity to report to you today on the state 
of your Army. We look forward to discussing these issues with you.

    Chairman Levin. Thank you very much, General.
    Admiral Clark.

    STATEMENT OF ADM. VERNON E. CLARK, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Clark. Thank you. Mr. Chairman, Senator Warner, and 
members of the committee, good morning. I appreciate the chance 
to be with you today. Mr. Chairman, I have a written statement 
I would like to submit for the record. I will not go over that 
14-page document, but will offer a few brief words, if that is 
all right.
    Chairman Levin. All of the statements will be made a part 
of the record in their entirety. Thank you.
    Admiral Clark. This is an important day for our Navy 
because I get to come before this committee and talk about our 
Navy. That is why I appreciate the chance to do so, because it 
is about our Navy's men and women, and I want to thank each of 
you for your support, which has allowed us to keep our great 
Navy sharp, at the ready, and on the point today.
    Sometimes these thank-yous are broad and generic, and I 
would like to sharpen them down to two points. I want to thank 
you specifically for the funds that you have provided for 
readiness, which have allowed us to turn around the decline we 
were experiencing. Second, I want to thank you for the numerous 
actions that this committee has taken and spearheaded to make 
our people ready. From compensation, to all aspects of quality 
of service, your actions have greatly strengthened our Navy, 
and I greatly appreciate it. It truly has made a difference.
    Regarding Operation Enduring Freedom, we are realizing 
success in the global war on terrorism, and I believe that is 
due first of all to the dedication of our sailors, and second, 
to the manpower and current readiness investments supported by 
Congress. I also believe that Operation Enduring Freedom has 
proven once again why we have a Navy and the value of 
sovereignty. Via freedom of the seas, we are able to operate 
naval platforms in the far reaches of this world, take the 
fight to a distant enemy, influence events, and carry out 
American foreign policy.
    Naval forces are flexible. Anytime and anywhere is not just 
a bumper sticker, and the thing I like best about our forces is 
that we do not need a permission slip from a foreign government 
to conduct operations around the world. Our forces are about 
precise combat operations every day, and our forces are about 
persistent combat power. When we show up, we are ready to go to 
work for the long haul, and this unique combination of 
independence, mobility, precision, and persistence, is, I 
believe, important to our 21st century military.
    Finally, regarding Operation Enduring Freedom, I am 
gratified by the unprecedented levels of jointness being 
demonstrated every day in these operations. None of us can do 
this by ourselves. The four of us sitting at this table are a 
team that has been called by my commanders in the field ``the 
best ever that they have experienced in their careers.'' I 
believe this is a real tribute to the Army, Air Force, Marine 
Corps, and Navy.
    I want to say that the budget submission that went forward 
from my office to the Secretary of the Navy represents my 
recommendations and includes some real tough choices. It 
prioritizes current readiness and manpower over future 
procurement and infrastructure. The reason is that I believe 
that it is my task to ensure that today's Navy is ready to win. 
Today's Navy is ready to go to sea, fight, and win, and I 
believe that our Nation's security relies upon that.
    Having said that, every one of us that are involved in this 
know that we must keep an eye on the future, and that means 
buying sufficient numbers of ships and airplanes to meet future 
threats. This is the biggest challenge that my Navy faces 
today. It is not just numbers. In addition to buying enough 
ships and aircraft, we must buy the correct ships and aircraft 
for our future fleet.
    Transformation is probably an overused word today, but it 
is a very important word, and we are involved in transforming 
our Navy to the 21st century to meet the challenges of the 21st 
century. At the heart of that is the research and development 
that is involved in the DD(X) program. I believe this is our 
research and development future, and most importantly this 
family of ships is going to define the United States Navy for 
the next four decades.
    But it is about more than just ships and aircraft, it is 
about organizational agility because lots of realignment is 
going on in our Navy; it is about better business practices; 
and it is about buying the right products. Toward that end, we 
have terminated seven programs in this submission and 
restructured 12 others over previous years to capture 
efficiencies and better focus the resources that we have. We 
are not done, for there is more yet to do.
    In summary, Mr. Chairman, I believe America's Navy is 
performing superbly in this war that we are engaged in, and we 
are today concluding, in the year that just passed, a record-
setting year in retention, the best I have ever experienced in 
my military career. We are winning the battle for people. 
Current readiness is vastly improved, and we are postured to 
capitalize on opportunities for the future.
    So again, I thank this committee for your steadfast support 
for your United States Navy, and for your superb support to our 
sailors and their families. They are committed, and they are 
inspired by the knowledge that our Nation is unified behind 
their cause in the fight for freedom. These young men and women 
are serving with pride and dedication, and some, as you have 
mentioned, Senator Warner and General Shinseki, even to the 
last full measure of devotion, as most recently shown by our 
own Navy Petty Officer First Class Roberts, who was killed in 
action on Monday in Afghanistan. But we are winning this war.
    Sir, I look forward to answering your questions.
    [The prepared statement of Admiral Clark follows:]

            Prepared Statement by Adm. Vernon E. Clark, USN

    Mr. Chairman and members of the committee, I appreciate this 
opportunity to appear before you. Your support of America's Navy has 
been vital to accomplishing our missions around the world--including 
swift and effective response to the attacks of 11 September 2001. I 
speak for the entire fleet in thanking you.

    I: THE UNITED STATES NAVY--PRESENCE . . . POWER . . . PRECISION

    On 11 September 2001, U.S.S. Enterprise was returning from 
deployment when satellite television provided tragic images of deadly 
attacks at home half a world away.
    Within moments, the ``Big E's'' rudder swept over and, using the 
forward presence and mobility unique to naval forces, headed for the 
Arabian Sea. By the next morning, Enterprise was within reach of 
Afghanistan, ready to launch and sustain precision strikes against 
dispersed enemies hundreds of miles from the sea.
    Enterprise was not alone in taking prompt action. U.S.S. Carl 
Vinson steamed at high speed to join her on station while surface 
combatants and submarines prepared Tomahawk missiles for long-range 
strikes. U.S.S. Peleliu's Amphibious Ready Group cut short a port visit 
to Australia and sailed toward the Arabian Sea. U.S.S. Kitty Hawk 
prepared to leave its homeport in Japan to serve as an innovative 
Special Operations support platform.
    At home, shipmates saved shipmates in the Pentagon and swiftly 
reestablished command and control. U.S.S. George Washington and U.S.S. 
John C. Stennis took station off the east and west coasts of the United 
States along with more than a dozen cruisers and destroyers, guarding 
the air and sea approaches to our shores. Shortly thereafter, the 
hospital ship U.S.N.S. Comfort arrived in New York City, joining the 
Military Sealift Command Ship U.S.N.S. Denebola in providing food, 
berthing, and medical support to firefighters and recovery workers 
toiling in the ruins of the World Trade Center.
    In the weeks following 11 September, naval forces led the way. 
Tomahawk shooters suppressed enemy air defenses while carrier strike 
packages flew hundreds of miles beyond the sea, destroying the enemy's 
ability to fight. Nearly 60 U.S. Navy ships have participated in 
Operation Enduring Freedom thus far, and over 9,000 sorties have been 
flown over Afghanistan, many in conjunction with U.S Air Force assets. 
Sustained from the sea, U.S. Marines, Navy SEALS, Seabees, and Joint 
Special Operations Forces worked with local allies to free Afghanistan 
from the Taliban regime and al Qaeda terrorist network.
    Presence . . . Power . . . Precision. Our Navy's response to the 
events of 11 September is testimony to the dedicated service of our 
Active and Reserve sailors, and our Marine and civilian shipmates in 
the Department of the Navy. It underlines the mobility, lethality, and 
reach of naval forces. Most importantly, it shows our dedication to 
mission accomplishment. We stand ready to fight and win!

              II. VIOLENT HORIZONS AND NAVY TRANSFORMATION

    The global war on terrorism is but the first war of the 21st 
century. Violent horizons lie before us, harboring profound challenges 
including the threat of cyberwar, weapons of mass destruction (WMD), 
continued international terrorism, and the havoc accompanying failed 
states. Importantly, such threats do not replace the specter of state-
on-state conflict. They add to the danger and uncertainty, providing 
new sparks to already combustible situations.
    Today's world is more dangerous in many ways than that which 
existed when we faced the global strike and sea denial capabilities of 
the Soviet Union. To ensure future warfighting effectiveness in this 
uncertain strategic environment, sovereign naval forces are being 
transformed to better prevent crises and--should deterrence fail--
project offensive and defensive power ashore to defeat all adversaries. 
To accomplish these missions, we are striving to realize major 
increases in operational mobility, lethality, speed, stealth, 
precision, and firepower.
    We are transforming to become a 21st century Navy of awesome 
capabilities: strategically and operationally agile; technologically 
and organizationally innovative; networked at every level; highly 
joint; and effectively integrated with allies. Enhanced naval 
capabilities will include deterrence options spanning the full range of 
threats facing our Nation. The ability of on-scene naval forces to 
shape events and control crises by both kinetic and non-kinetic means 
will be of increasing importance as WMDs proliferate in the future.
    Dispersed and independent naval forces will provide the Nation with 
global precision and persistent strike capabilities, poised to seize 
the initiative, drive operational timelines, and foreclose enemy 
options. Sea-basing of joint assets will be fundamental to this 
mission, providing sanctuary for friendly forces at sea, away from 
vulnerable cities and troop concentrations ashore.
    Naval forces will provide maritime strategic defense--assuring 
access to troops and cargo, projecting air defenses overland in support 
of joint forces and allies, and serving as a critical part of homeland 
defense by operating alongside numerous agencies, especially the United 
States Coast Guard.
    Our Navy is also dedicated to developing maritime-based information 
operations. Greater naval emphasis on information operations reinforces 
the larger transformation the U.S. military is undergoing in moving 
from the industrial age to the information age. Highly integrated, 
survivable, and redundant information systems are America's asymmetric 
advantage, and naval forces provide critical nodes in our global 
information grid.
    This family of shaping, offensive, and defensive missions will be 
enabled by network-centric warfare--the integration of sensors, 
information systems, platforms, and weapons to achieve major increases 
in warfighting effectiveness. Networks have been a Navy strength for 
decades and we are continuing to invest in this critical area.
    Regarding platforms, 60 percent of the ships in the Navy today will 
be in the fleet in 2020. Thus, a significant portion of Navy's 
transformation will occur within existing hulls, placing an emphasis on 
new systems and capabilities that can be inserted through 
modernization. These upgraded platforms will complement new ships and 
aircraft joining our fleet.
    Examples of exciting new technologies that will accelerate our 
transformation toward a fully networked Navy include the DD(X) 
destroyer, SSGN strike submarine, Joint Strike Fighter, Unmanned Aerial 
Vehicles, Unmanned Underwater Vehicles, Tactical Tomahawk, Advanced Gun 
System, Theater Ballistic Missile system, Cooperative Engagement 
Capability, and Navy-Marine Corps Intranet, among others. These 
systems, in turn, will be employed in innovative ways via concepts 
validated in the Fleet Battle Experiment series coordinated by the Navy 
Warfare Development Command in Newport, Rhode Island.
    Successful transformation will yield a dispersed and networked 
fleet that enhances deterrence, assures access, conducts precision 
strikes, gathers real-time intelligence, exercises joint command and 
control, and leverages the priceless advantage of sea control. In 
short, it will be a fleet that serves as the leading edge of America's 
defense--around the world, around the clock. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
          III. NAVAL FORCES--LEADING EDGE OF AMERICA'S DEFENSE

    The shaping, offensive, and defensive missions described in section 
II determine our Navy's posture, programs, and character. Expeditionary 
naval forces are central to the National Military Strategy and regional 
Commander in Chief (CINC) plans for combat operations. While some ships 
and squadrons are homeported overseas, most deploy rotationally for 
periods of 6 months in an 18-24 month cycle. This construct drives the 
Navy's force structure.
    Forward-deployed naval forces--immediately employable, 
operationally agile, and capable of sustained combat operations against 
any adversary--are a critical part of America's defense. This has been 
especially true since the end of the Cold War, as the U.S. military has 
become a largely homeland-based force.
    The United States withdrew two-thirds of permanently stationed 
military forces from Europe following the collapse of the Soviet Union. 
In the Middle East, all services fulfill presence requirements with 
rotational units. With the exception of Korea and Japan, Asian 
commitments are covered by naval forces or fly-away units from the 
United States. This draw-down of permanently stationed overseas forces 
amplifies the importance of the expeditionary Navy-Marine Corps team.
    Accomplishing our missions has become steadily more challenging as 
the Navy's force structure declined 41 percent since 1991, from 538 to 
318 ships. Yet the global war on terrorism has increased the call for 
forward-deployed naval forces. To support the war, we routinely have 85 
ships deployed around the world.
    In view of this larger requirement, we are investigating innovative 
methods of increasing the presence and striking power of naval forces. 
One construct is to complement Amphibious Ready Groups with surface 
combatants and submarines, producing Expeditionary Strike Forces 
equipped to destroy terrorist elements wherever they may be found.
    We are also going to experiment with flexible manning techniques 
that may produce greater efficiencies in conducting prolonged on-
station missions, such as guarding international straits or other 
locations of exceptional strategic value.
    The Navy's contribution to the global war on terrorism is a vital 
component of our national effort to secure a safer world. It is 
stressing our force considerably, however. There is little elasticity 
in our force structure to allow for growth in the homeland defense, 
overseas defense, and offensive missions associated with the on-going 
campaign.

           IV. MANPOWER AND CURRENT READINESS: SOLID PROGRESS

    Thanks to superb leadership in the fleet--and the full support of 
the American people and Congress--our Navy is making solid progress in 
addressing long-standing issues, particularly concerning manpower and 
current readiness. These are the areas most vital to ensuring we have 
what it takes to win today.
    Navy men and women are our most valuable resource and we must 
provide them with the tools and leadership to succeed. Improvements in 
compensation that Congress supported--bonuses, pay table adjustments, 
retirement reforms, and better medical benefits--are having the desired 
impact. The targeted pay raise and other initiatives in the fiscal year 
2003 budget will reinforce these positive trends.
    We are particularly grateful for congressional support of the 
Career Sea Pay program. Until fiscal year 2002, Career Sea Pay had not 
been increased since 1986, greatly eroding its value. Thanks to new 
authority granted by Congress, Career Sea Pay is now received by all 
sailors from the moment they report for sea duty, bolstering our 
retention efforts. An additional 25,000 sailors now receive Career Sea 
Pay.
    These initiatives are paying off. Navy met its overall recruiting 
goals in fiscal years 1999, 2000, and 2001 and significantly improved 
reenlistment rates. This year, we are well ahead of the record-setting 
pace set in fiscal year 2001. Thanks to these successes, battle groups 
are deploying better manned than ever before. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    We are winning the battle for people, but important challenges 
remain. Officer retention in most line communities is below required 
levels, and recruiting shortfalls exist in officer specialty areas and 
critical enlisted ratings.
    We are also dedicated to continuing the fight against attrition. 
The annual attrition rate for first-term sailors has been reduced from 
over 14 percent to 10 percent since 1998, retaining thousands of young 
men and women for service. We can do better, however. Concerned, 
involved leadership is central to minimizing attrition without 
compromising standards. To make this happen, I have directed Navy 
leaders to take every measure to ensure their people succeed and 
prosper.
    Key to achieving that goal is cultivating a command climate 
throughout the Navy that offers plentiful opportunities, encourages 
participation, and is conducive to personal and professional growth. We 
are also striving to minimize the increased wartime operational tempo 
of the fleet via careful planning and innovative training. This is the 
first time in history that the services have faced a prolonged conflict 
with an all-volunteer force, and we must protect the integrity of our 
fleet.
    A major initiative aimed at strengthening the professional 
development of sailors is Task Force EXCEL (Excellence through our 
Commitment to Education and Learning), which is leading a revolution in 
Navy training. This effort will leverage new delivery mechanisms 
including distance learning technologies and an enhanced Navy 
information exchange network to provide a career-long training 
continuum for our sailors.
    Additional specifics regarding progress being made in manpower and 
current readiness follow:

        <bullet> Sailors are staying in the Navy and more are being 
        advanced. The year 2001 was a record year for retention. We 
        retained 57 percent of all eligible sailors at the end of their 
        first enlistment, 68 percent of sailors with 6-10 years of 
        service, and 84 percent of sailors with 10-14 years of service. 
        More than 1,512 sailors were advanced in 2001 than the year 
        before. 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
      
        <bullet> Pay is improving. In 2001, Congress provided the 
        biggest base pay raise since 1981 and started reducing out-of-
        pocket expenses for housing. Our people are also being 
        compensated for their valuable experience and skills via 
        special and incentive pays, and retention bonuses.
        <bullet> Sailors can invest in their own future. The new Thrift 
        Savings Plan (TSP) provides a tax-deferred wealth-building 
        vehicle to help military personnel achieve financial security. 
        Navy leads all services in TSP enrollment.
        <bullet> More readiness money is flowing to the fleet. Our 
        priority is to take care of the Navy our Nation's taxpayers 
        have already purchased. Fiscal year 2002's budget adds over $5 
        billion to Navy readiness accounts over fiscal year 2001 
        levels.
        <bullet> Combat readiness is improving. Fifty percent of 
        additional funding the Department of the Navy received in 
        fiscal year 2002 was devoted to enhancing current readiness, 
        while 25 percent was directed toward Research and Development. 
        Average readiness scores for our airwings improved by 8.2 
        percent from fiscal year 2000 to 2001.
        <bullet> Ships and aircraft joining the fleet are the best in 
        the world. In 2001, U.S.S. Ronald Reagan was christened and 
        U.S.S. Iwo Jima was commissioned. Production is gearing up on 
        more Arleigh Burke class destroyers, Virginia-class submarines, 
        F/A-18 E/F strike fighters, MH-60S helicopters, and other 
        outstanding programs.
        <bullet> Innovation is central to our Navy. The new surface 
        warfare family of ships will provide firepower across the full 
        spectrum of 21st century operations. Our Navy also remains 
        committed to Ballistic Missile Defense, working together with 
        the new Missile Defense Agency to accomplish this vital 
        mission.
        <bullet> Transformational capabilities are being realized, 
        including Cooperative Engagement Capability (CEC), the E-2 
        Radar Modernization Program, Tactical Tomahawk, Active 
        Electronically Scanned Array (AESA), Advanced Targeting 
        Forward-Looking Infrared (ATFLIR), Advanced Rapid Commercial 
        Off the Shelf Insertion (ARCI), and the Enhanced Range Guided 
        Munition, to name just a few.
        <bullet> Experimentation has shifted to the waterfront. The 
        Navy Warfare Development Command in Newport has been placed 
        under Commander, Fleet Forces Command to strengthen the fleet's 
        impact on innovation and experimentation.

                       V. THE POWER OF ALIGNMENT

    Proper alignment is critical to ensuring our organization, systems, 
and processes deliver a combat-capable Navy that remains ready to sail 
in harm's way. Toward that end, we reorganized the Navy Staff so that a 
Deputy CNO is focused exclusively on Fleet Readiness and Logistics, 
while another Deputy CNO is dedicated to Warfare Requirements and 
Programs.
    On the waterfront, we strengthened coordination between the 
Atlantic and Pacific Fleets by creating Commander, Fleet Forces 
Command. We also streamlined leadership of naval aviation, surface, and 
subsurface forces by establishing Fleet Type Commanders to lead each of 
those communities. These initiatives will improve operational 
performance by allowing us to more accurately determine requirements, 
enhance readiness, and maximize investment effectiveness.
    We must, at every level, ensure our Navy is functioning as 
effectively and efficiently as possible. The Secretary of the Navy has 
made the incorporation of better business practices a major tenet of 
his plan of action. I share his dedication to this cause. Programs such 
as the Enterprise Resource Planning Group and Business Initiatives 
Council are central to this mission. These efforts are aimed at 
obtaining more accurate requirements forecasting, enhanced stability in 
program execution, greater efficiency in system design and production, 
and improved expenditure discipline in infrastructure maintenance and 
renewal.
    Achieving these goals will provide the taxpayer with a fuller 
return on the investment dollars they entrust to our Navy for their 
defense.

          VI. CHALLENGES: FUTURE READINESS AND INFRASTRUCTURE

    These successes in manpower and current readiness mark important 
progress in strengthening our Nation's defense. Yet challenges remain, 
particularly in the areas of future readiness and infrastructure. 
Current aircraft and ship procurement rates will, if continued, result 
in a Navy numerically smaller than today's, and significantly smaller 
than that needed to sustain the war. Such a fleet would be an 
invitation to greater operational risk and international instability.
    The global war on terrorism has levied new demands on our Navy, 
emphasizing the need for fleet units to confidently meet the challenges 
of an uncertain world on short notice. We must be able to conduct 
combat operations anytime, anywhere with maximum effectiveness and 
minimum risk, including in the homeland defense role.
    Key to achieving this goal is minimizing the loss of readiness that 
occurs between deployments. For too long, the readiness of deployed 
forces has been achieved at the expense of the non-deployed segment of 
our force structure. Although we have made progress in correcting 
shortfalls, many non-deployed units are still operating below 
satisfactory readiness levels, making it difficult to meet operational 
standards, fulfill homeland defense missions, and complete 
predeployment requirements.
    The age of our equipment is a major part of this problem. Many 
amphibious ships and our fleet command ships are reaching the end of 
their service lives. Such units often require unscheduled maintenance, 
diverting funds obligated elsewhere. These actions, in turn, produce 
maintenance backlogs that we cannot afford operationally or 
financially.
    Additionally, ships reaching service mid-life, like some of our 
AEGIS cruisers, require modernization to be operationally viable in the 
future. Funds to complete this type of modernization have not 
historically competed successfully against other recapitalization 
requirements. We must change this mindset.
    Naval aviation, in particular, faces profound challenges. Our 
aviation force now contains the oldest mix of type/model/series 
aircraft in naval history. To provide context, naval aircraft are on 
average 2 years older than our ships. Yet these aircraft are being 
tasked to unprecedented levels in the global war on terrorism.
    Naval aviation was under stress even before the current conflict. 
As a result, the F/A-18 force has been flown well in excess of planned 
utilization rates. More than 300 F/A-18 aircraft will require service 
life extensions earlier than planned. Similar situations apply to F-
14s, EA-6Bs, P-3Cs, SH-60s, and virtually every other aircraft in the 
fleet.
    One way to address the problems facing naval aviation is to 
introduce new aircraft into the fleet as soon as possible. Toward that 
end, the fiscal year 2003 budget provides some relief, although the 83 
aircraft being requested do not come close to the level required to 
sustain today's fleet at its present level.
    While our combatant fleet is, on average, fairly young, the rate of 
ship recapitalization bears watching. The following chart illustrates 
the dramatic decline in authorized ships since 1980. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    We must buy an average of 180-210 aircraft and 9 ships a year 
starting in the later years of the FYDP to sustain today's fleet. As 
noted, we are procuring significantly less than that. We will procure 
just 5 ships and 83 naval aircraft in fiscal year 2003.
    The impact of the current procurement rate goes beyond force 
levels. It adversely affects the stability of our defense industrial 
base, and we are paying a premium in program cost due to the small 
number of units being built.
    Still, we are investing in impressive programs that will comprise 
the core capability of our force in the coming decades. DD(X), CVN(X), 
JSF, FA-18 E/F, LPD-17 and the Virginia-class SSN present impressive 
technological leaps in warfighting capability, innovation, and 
reliability. Program specifics include:
    DD(X)/CG(X)/LCS. Maritime dominance in the 21st century requires a 
naval force capable of projecting power and defeating anti-access 
threats. To accomplish these missions, the future surface naval 
combatant force will consist of four elements: DD(X) advanced multi-
mission destroyers that provide precision strike and volume fires; 
CG(X) advanced cruisers to achieve sustained air superiority against 
airborne threats and ballistic missiles; agile Littoral Combat Ships 
(LCS) to defeat enemy defenses such as mines, small boats, and 
submarines; and today's AEGIS fleet kept current through the insertion 
of developing technologies. Cutting-edge systems integral to this 
family of ships include the Advanced Gun System, Multi-Function Radar/
Volume Search Radar, Integrated Power System electric drive, and 
revolutionary hull forms.
    CVN(X). The fiscal year 2003 budget provides RDT&E and advance 
procurement for the first CVN(X). CVN(X) will replace U.S.S. Enterprise 
in fiscal year 2013, when that ship is in her 52nd year of commissioned 
service. Design objectives for the CVN(X) class include a significant 
reduction of total ownership costs during the carrier's 50-year 
expected service life, reduced manning, and incorporation of a flexible 
infrastructure that will allow the insertion of new capabilities as 
they evolve.
    JSF. The Joint Strike Fighter contract was signed in 2001. It will 
provide an aircraft with unprecedented stealth and range to the fleet 
as part of a family of tri-service, next-generation strike aircraft 
with an emphasis on commonality and technological superiority at an 
affordable price. The fiscal year 2003 budget supports procurement of 
the initial variant in fiscal year 2006.
    F/A-18 E/F. The F/A-18 E/F will replace older F/A-18s and all F-
14s. There is extensive commonality of weapons systems, avionics, and 
software between F/A-18 variants, and the infrastructure supporting the 
Super Hornet builds upon existing organizations.
    LPD-17. We are not requesting additional LPD-17-class ships in the 
fiscal year 2003 budget due to design and production challenges with 
the lead ship. We remain fully committed to the program, however, as it 
supports vital littoral warfighting requirements and promises relief 
from the escalating costs of our aging amphibious ships. The twelve 
projected LPD-17s will replace four older classes of ships and serve as 
central elements of future Amphibious Ready Groups. We need to 
accelerate development as rapidly as design and production facilities 
will allow.
    Virginia-class submarine (SSN-774). This class will replace Los 
Angeles-class (SSN-688) attack submarines as they leave the fleet. SSN-
774s are designed for multi-mission littoral operations, as well as 
traditional open-ocean anti-submarine and anti-surface missions. They 
will also incorporate new technologies as they become available, 
ensuring future effectiveness. The fiscal year 2003 budget procures one 
submarine per year and continues RDT&E. This pace of procurement will 
have to be increased beyond the current FYDP to maintain the required 
attack submarine force level over the long term.
    Infrastructure. Sustaining quality infrastructure is an important 
part of ensuring future readiness. Unfortunately, Navy's shore 
infrastructure condition is unacceptable. We face an annual facility 
sustainment cost of $1.3 billion to keep our infrastructure from 
deteriorating, which we are not meeting. It will cost an additional 
$1.7 billion annually to correct C-3 and C-4 deficiencies and 
recapitalize our infrastructure at the DOD-mandated 67-year rate. Still 
more funding will be required to move sailors ashore who currently live 
onboard ships.
    Meeting these challenges requires consistent total facility life 
cycle investments and finding innovative ways to reduce our facility 
footprint. While the fiscal year 2003 budget makes modest increases in 
sustainment, restoration, and modernization (SRM) and military 
construction accounts, there is much left to be done. We are studying 
this problem and are working on a plan to provide out-year funding to 
help mitigate these significant challenges.

                            VII. CONCLUSION

    Our national leaders have repeatedly told the American people that 
the war against terrorism will be neither easy nor short. In addition 
to targeting international terrorist networks, the President singled 
out states sponsoring terrorism for military action should they 
threaten international peace.
    This struggle promises to be global in scope and simultaneous in 
execution. It will require the full might of America's Armed Forces. In 
pursuing victory, the United States Navy--forward deployed, highly 
capable, and poised for action--will play a leading role.
    I thank the committee for your continued strong support of our Navy 
and our sailors. Working together, I am confident that we will win the 
global war on terrorism, leading to a more stable and peaceful world.

    Chairman Levin. Admiral, thank you very much.
    General Jones.

   STATEMENT OF GEN. JAMES L. JONES, USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Jones. Thank you, Mr. Chairman and members of the 
committee. I am very honored to be here today to present our 
budget request for fiscal year 2003. Before I do that, I would 
like to just say a few words about where your Marine Corps is 
today. Thank you very much for your focused application of 
resources that has enabled us to achieve the highest state of 
readiness across the service by any measurable index in the 
last 10 or 12 years.
    As a result of this application, we are very secure in who 
we are and what we do. We are an expeditionary force of 
combined arms that is rotational in nature and draws on our 
partnership with the United States Navy. Our naval heritage is 
very important to us. We come from the sea, and I believe that 
sea-basing issues will be the subject of great discussion 
starting from this hearing on. We are a stable culture as a 
result of your wise investment. We have a recruiting success 
that goes back 6\1/2\ years. We have a retention statistic that 
I think is admirable, if not astounding. Our young people are, 
in fact, not only joining us, but staying in at record numbers, 
and we are very pleased with the stability of our culture.
    This happy state of affairs shows in our mission execution 
profile. Our rotational base is stable. People are not leaving 
as a result of being overworked or overstressed, although they 
are working very hard. We have been able to make some 
significant and impressive modernization steps for the first 
time in a number of years, and every now and then you get 
tested and asked to see if you can perform. We were tested 
following September 11 in the North Arabian Sea, when the 
Commander in Chief, Central Command asked the First Marine 
Expeditionary Brigade, composed of two Marine Expeditionary 
Units, to proceed to Camp Rhino in Kandahar. We did this at 
distances that were very challenging to us, but for which we 
have prepared for for many years.
    That mission was successfully executed. We displaced two 
Marine Expeditionary Units in a landlocked country at distances 
ranging up to 400 miles and beyond. I would like to pause for a 
moment and introduce to you Brig. Gen. Jim Mattis, who was the 
commanding general of that brigade. Many of us saw him daily on 
CNN. Jim, would you please stand?
    Chairman Levin. Welcome, General.
    General Jones. He just returned home a couple of days ago. 
[Applause.]
    Senator Warner drew some very evocative historical 
analogies, but I would give you one to show you the possibility 
of transformation. Jim Mattis led a Marine Expeditionary 
Brigade headquarters, which was composed of 56 people. Ten 
years ago that would have been 356. Twenty years ago it may 
have been 600. He had 56 people to lead a force of 4,400 
marines from the sea, inland. He had to establish not a 
beachhead, but a position inland that was supportable, 
sustainable, and very precise in the application of power.
    An interesting conclusion of this experience for me, and a 
very satisfying one, is that not only are the four of us at 
this table professional colleagues, we are also all good 
friends. We are almost on a first-name basis. [Laughter.]
    What was really interesting to me in Operation Enduring 
Freedom was the synergy between the forces; the wonderful 
Special Forces who went in first; the marines who came in right 
on their heels and operated seamlessly, almost effortlessly, 
and without any difficulty; the ability to deliver precise fire 
power from the air; the ability to reinforce, to conduct massed 
casualty evacuations when necessary; the ability to recover 
downed aircraft in partnership with Special Forces and with the 
United States Navy, who were supporting us from the sea; and 
the transition to the arrival of the Army forces, the 
conventional forces again. These seamless transitions show that 
those who would suggest that the joint force of today are not 
organized, trained, and equipped to fight are really not doing 
their homework, because we are, and we celebrate that every 
single day.
    The Joint Chiefs of Staff spends a lot of time talking 
about how we can make the mission work for the Nation. That is 
the first order of business, not service priorities, and I am 
very proud to be part of a team that does that.
    So we get our forces to the joint line of departure. They 
are trained, ready to perform, and ready to move on to other 
missions, and I suggest in the global war on terrorism we will 
need more of that in the future. I pledge to you we will 
continue to be full partners in making this a reality.
    The issues of sovereignty are going to confront our forces 
in the global war on terrorism, and in fact are going to be 
ever-present in the 21st century. Sea-basing, as the CNO 
alleged, offers a way to take our Nation's sovereignty to those 
areas of the world that we are concerned about, and to be able 
to react in a capable and quick way to do those things that the 
Nation wants us to do.
    Sea-basing will be an important aspect in our future 
discussions, and I am excited by some of the programs that the 
Navy is pioneering and the Marine Corps are helping with. One 
is the high-speed surface vehicle that we are currently testing 
off of Okinawa, which is a commercial vehicle today, but leased 
to us for experimentation.
    For example, I can transport a full battalion of marines 
and all of their equipment from Okinawa to Guam in less than 2 
days, at a fraction of the cost that we have had to expend 
regularly for strategic airlift. Those aspects of sea-basing 
and innovative ideas for the future will be transformational in 
terms of how we use and deploy our forces in the future.
    The 2003 budget does some great things for your Marine 
Corps. In addition to increasing operations and maintenance, 
manpower accounts, and research and development, we have been 
able to achieve a 20-percent increase in our family housing 
spending. We have some exciting public-private ventures that 
are going to result for the first time in the ability to 
modernize our housing at Quantico, which we are very excited 
about. Starting in 2003, it is conceivable that, with your 
support, we will be able to rebuild every single house at 
Quantico, and that is something that has needed to be done for 
a long time.
    We have had real program growth in the operating forces in 
our bases and stations that this project will provide, and the 
budget for the Marine Corps is a transformational gateway. For 
me, transformation has several components. It certainly has a 
leap in technology component, such as the tilt-rotor 
technologies, the Advanced Amphibious Assault Vehicle (AAAV), 
and the Joint Strike Fighter.
    There is institutional transformation that we are, in fact, 
implementing right now, such as the way we manage the all-
volunteer force. There is also operational transformation, 
which I just described to you, giving the example of a command 
element manned by only 56 people. These are tremendous 
transformation and logistics concepts, which will preclude us 
from having to stockpile our supplies on the field of battle 
and provide reach-back capability for fire power and delivery 
that significantly reduces the size of the headquarters that we 
need on the ground. Finally, I would suggest that base business 
and acquisition reform is absolutely essential to 
transformation, because if we cannot use our resources more 
efficiently, judiciously, and make quicker acquisitional 
decisions, then we are not going to be making the best use of 
the taxpayer's money.
    We acknowledge a shortfall in the ability to turn around 
our ship constructions. I remain concerned that amphibious lift 
is still not as robustly enhanced as we would like it. The goal 
is 3.0 Marine Expeditionary Brigades assault echelon 
equivalence. We will need to recapitalize our maritime 
preposition forces towards the end of the decade. We have a 
paucity of fire support both from the sea and on land. We have 
plans underway to correct those shortfalls.
    I would close by just asking for your continued support in 
a level sustainment of resources. The thing that makes life 
extremely difficult is the peaks and valleys. I testified 2 
years ago that I thought a sustained investment of between 3\1/
2\ and 4 percent of the GDP for a global power of this economic 
might is a reasonable goal to shoot for. I am gratified to see 
that the budgets are moving in that direction. I think the key 
for the future is to keep it at that level. I thank you, Mr. 
Chairman. It is a great pleasure to be here.
    [The prepared statement of General Jones follows:]

            Prepared Statement by Gen. James L. Jones, USMC

    Chairman Levin, Senator Warner, and distinguished members of the 
committee; it is my pleasure to report to you on the state of your 
Marine Corps. On behalf of all marines and their families, I want to 
thank the committee for your continued support. Your commitment to 
increasing the warfighting and crisis response capabilities of our 
Nation's Armed Forces and to improving the quality of life of our men 
and women in uniform is central to the strength of your Marine Corps. 
As a result, your Corps was ready when called upon on September 11, 
2001. We thank you for your effort in ensuring that marines and their 
families were poised to respond to the Nation's call in the manner 
Americans expect of their Corps.
    The direction of the Corps is confident, clear, and unambiguous. 
The Corps understands its role as a force in readiness, but also 
realizes that the world is changing. For 226 years, marines have always 
been innovators in order to be ready for the next war. To assure 
success, we continually strive to be capable of rapidly adapting to new 
circumstances inasmuch as we recognize that the future is 
unpredictable.
    The President's fiscal year 2003 budget enables the Navy-Marine 
Corps team to fight today's war on terrorism and transform itself to be 
ready for future challenges. This budget funds our 4th Marine 
Expeditionary Brigade anti-terrorism efforts, includes pay raises and 
new combat uniforms for our marines, and provides increased health care 
for our retirees. It also allows us to harness the new capabilities 
found in tilt-rotor technology and short take-off and vertical landing 
aircraft. We have increased funding for our operating forces in day-to-
day operations, training, equipment maintenance, and force protection. 
Additionally, our bases and stations are sustained by the President's 
budget, which improves such critical areas as family housing and 
bachelor quarters. Furthermore, this budget's investments in ground 
equipment, ammunition, and research and development will help us 
recover from prior year shortfalls.
    Marines have a vision for the future, and we are moving forward 
with the modernization and transformational efforts needed to make this 
vision a reality. We fully understand that our vision cannot be 
achieved independently of our sister services. Each of us has our own 
critical role to play in providing for our collective security. It is 
important that each of our contributions be, simultaneously, both 
unique and complementary. In particular, the Corps stresses the 
importance of our key partnership with the Navy. The Navy-Marine Corps 
team has never been stronger, nor more necessary for our country. In 
fact, the essence of our combined power is our teamwork.
    Americans have relied upon the Navy and Marine Corps team to 
protect and promote the interests of the Nation since our creation by 
the Continental Congress in 1775. After helping to win American 
independence, naval services acted time and again to ensure our freedom 
and set in motion the ascendancy of our Nation as a global power under 
the banner of democracy and its potential. During the darkest hours of 
our history, the Navy and Marine Corps team has remained the most 
useful and most frequently used expression of our Nation's interests in 
forward presence and crisis response. Those of us who are privileged to 
serve in the naval services today have inherited a legacy that we are 
dedicated to preserving. Together we will continue to flourish, due to 
steadfast appreciation of our heritage and a commitment to a tradition 
of continuous innovation and change.
    Teamwork is the bond that forever joins our services and is the key 
to our enduring success. We have progressed from wooden ships of sail, 
with embarked marines, to modern networked Naval expeditionary strike 
forces that are forward deployed and full spectrum capable. We are a 
combined-arms force capable of ensuring America's access, including 
sustainable forcible entry operations to distant inland areas and 
austere locations. Always moving forward, we are incorporating advanced 
technologies to increase our capabilities to include exploiting the 
tremendous potential of sea control and power projection. Our 
innovation is not limited to equipment and weapons systems, but is also 
reflected in the development of new operational concepts and 
organizational evolution. When crises emerge, the Nation can depend on 
the Navy and Marine Corps Team.
    Today, I will describe the Marine Corps' relevance to the current 
security environment as well as our future role as America's sea-based, 
expeditionary, combined-arms force. I will also address the Marine 
Corps' role as the Nation's medium-weight expeditionary force, bridging 
the gap between America's Special Operations Forces and the Army's 
critical land war-winning capability. The preponderance of this 
statement will focus on the Marine Corps' transformation plans and our 
vision for the 21st century.

   I. THE MARINE CORPS' RELEVANCE: POWER PROJECTION FROM THE SEA-BASE

    For the United States to provide its citizens with security and 
prosperity at home and abroad it must continue to lead the effort in 
maintaining international stability. One only need consider the events 
of September 11, and the fact that 30 percent of the United States 
Gross Domestic Product is directly related to global trade, to realize 
that America's well-being is inextricably linked to the international 
order. America must continue to establish and lead efforts to maintain 
stability around the world. This challenge requires the integrated 
application of all elements of national power: economic, political, 
diplomatic, cultural, intellectual, technological, and military. 
Working in concert with the other components of national power, our 
Armed Forces perform a vital role in establishing and maintaining 
conditions that directly affect global stability and America's security 
and prosperity. History shows that our men and women in uniform play a 
pivotal role in our Nation's international credibility. It is not an 
exaggeration to claim that our Nation's most important gift to world 
order is found in the service of our young men and women in uniform. 
Before anything good happens in the world, they are there establishing 
the framework for peace and stability.
    Inasmuch as global stability is intrinsically tied to America's 
relationship with other nations in the world community, the United 
States benefits significantly from military to military relationships 
around the globe. However, as nations continue to raise issues of 
sovereignty, especially during a crisis, we must find new ways to 
conduct our Nation's necessary engagements and have the means to 
respond to crisis without being excessively restricted by geo-political 
issues. In the 21st century, we are likely to see a change in the 
number and type of large, quasi-permanent American bases around the 
world as defined by the post-Cold War era. We must begin to develop 
alternatives to ensure that we are able to maintain our peacetime 
presence and our crisis response capabilities. Twenty first century 
basing initiatives are issues that will have to be addressed in the 
near future.
    We cannot deter aggression, nor defeat future adversaries, solely 
with military capabilities based at home. Regional engagement requires 
presence, and there is no such thing as truly effective ``virtual 
presence.'' The inherent mobility and flexibility of Naval forces in 
providing off-shore basing options is an effective counter to 
increasing limitations to access and basing rights. America's 
stabilizing influence overseas is contingent upon our ability to 
deploy, employ, and sustain persistent military forces from the sea. 
Indeed, the Navy-Marine Corps team's sea-based power projection 
capabilities are a cornerstone of our military's contribution to our 
enduring security and that of our allies.
    Sea-based capabilities provided by the Navy-Marine Corps team are 
an important means for America to cultivate its relationship with the 
world, providing the advantage, both in peacetime and in crisis 
response operations, of being able to control the size of our 
``footprint'' ashore. Sea-basing also provides the operational 
advantages of force protection, operational maneuver space, and the 
sanctity of sovereign platforms from which we can engage adversaries.
    The Navy-Marine Corps team's sea-based capabilities have been re-
validated over the past several months. In Afghanistan, sea-based Naval 
forces provided a significant portion of tactical air sorties and the 
initial deployment of major, sustained ground force presence, reaching 
over 600 miles inland. [See Figure 1]
    Operation Enduring Freedom has also proven the value of the Navy-
Marine Corps Team as an important element of a joint force. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Important contributions were made through Marine integration with 
Special Operations Forces, the Army, and the Air Force in the areas of 
intelligence, surveillance, and reconnaissance capabilities to long-
range strike and close air support capabilities. The Marine Corps has 
demonstrated that the Marine brigade a flexible, medium-weight, 
combined arms, expeditionary force is not only responsive, but also a 
full and effective partner in joint and coalition operations.

  II. THE MARINE CORPS' ROLE: A SCALABLE, SUSTAINABLE, FORCIBLE ENTRY 
                                 FORCE

    The Marine Corps provides our Nation and its Joint Force Commanders 
the full scope of military capabilities required to respond to the 
broad spectrum of threats and potential missions that confront 
America's Armed Forces today and in the future. For 6 percent of the 
Department of Defense's budget, the Marine Corps provides 20 percent of 
our Nation's ground combat maneuver battalions, tactical fixed-wing 
aircraft squadrons, and attack helicopter squadrons, as well as one-
third of its Active Duty combat service support.
    If there is a lesson to be learned from ongoing operations in 
Afghanistan, it is that there is tremendous power and capability in the 
diversity of our Armed Forces today. Joint Force Commanders must have 
the fullest possible range of options and capabilities available in 
order to apply the desired effects, both lethal and non-lethal, in any 
given scenario. Indeed, the flexibility and robustness of America's 
Armed Forces is a product of the varied and unique capabilities each 
service contributes to our Nation. Accordingly, our capabilities need 
to be complementary, not duplicative, if we are to provide the diverse 
and versatile capabilities needed to confront the uncertain threats of 
the future. Together, our joint force forms a mosaic of integrated 
capabilities to defeat the myriad threats and challenges we may face 
today and tomorrow. Enhancing these capabilities across the force is in 
the national interest.
    Marine Air-Ground Task Forces have proven their utility in meeting 
challenges and exploiting opportunities. The versatility of the Marine 
Expeditionary Brigade is emblematic of the scalability of our Marine 
Air-Ground Task Forces. In size and capability, these brigades are 
midway between our ``light'' Marine Expeditionary Units and our 
``heavy'' Marine Expeditionary Forces. Furthermore, our Marine 
Expeditionary Brigades can either deploy on amphibious shipping or be 
airlifted into a theater of operations to link up with equipment and 
supplies aboard Maritime Prepositioning Ships.
    While the global war on terrorism has demonstrated the current 
capabilities of the Navy-Marine Corps Team, our continuous 
transformation and modernization promise even greater future 
capabilities for the Marine Corps. Transformation is an ongoing 
process, however, not an end-state. It spans decades of innovation and 
experimentation. It is also not limited to technology, but includes 
change in our organizational structure, operational concepts, and 
business practices.
    The Marine Corps has always been at the forefront of transformation 
and innovation. Throughout our history, the Marine Corps has changed 
and evolved from ship security, to naval constabulary, to light 
infantry, to an amphibious assault force, to an air-ground 
expeditionary team. In the past, our development of close air support, 
amphibious warfare, vertical envelopment, short take-off and vertical 
landing technology, and maritime prepositioning have benefited our 
joint warfighting capability. Today, the Marine Corps remains true to 
its warrior culture and continues in a tradition of change. Drawing on 
our history of transformation, the Marine Corps is moving forward with 
new concepts, innovation, and exciting experimentation. Our focus is on 
the creation of new capabilities, which will yield the operational 
advantages we seek to have in dealing with future conflicts.

  III. THE MARINE CORPS' TRANSFORMATION: CONCEPTS, TECHNOLOGIES, AND 
                             ORGANIZATIONS

    Although many think of transformation primarily in terms of weapons 
systems, true transformation results from a synthesis of new 
technologies with strategic vision, revolutionary operational concepts, 
and agile, adaptive organizations. Clearly, we must harness the 
potential military benefits of rapid advances in technology. The V-22 
Osprey is but one example of the potential of proven transformational 
technology. The path to transformation involves a robust program of 
experimentation with new concepts, capabilities, and operational 
prototypes while actively pursuing forward-looking science and 
technology efforts. As we experiment and introduce new capabilities, we 
will rapidly mainstream the changes into our ready forces. [See Figure 
2] 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
a. transformation of operational concepts and better business practices
    Technological innovation plays a paradoxical role in military 
transformation. With each problem it solves, technological innovation 
tends to introduce new challenges and opportunities. Operational 
concepts can offset these tensions by finding the means to capitalize 
on technological strengths and also guard against creating new 
weaknesses. In light of heightened fiscal awareness and the need to be 
effective with our resources, we must reform our business practices to 
maximize available resources and develop more expedient means of 
fielding programs and equipment. With this in mind, the Marine Corps is 
committed to transforming its operational concepts and business 
practices.
    The ongoing process of conceptual change is embodied in the recent 
publication of our overarching concept, Expeditionary Maneuver Warfare. 
It is the foundation for the way the Marine Corps will conduct 
operations in the 21st century. Expeditionary Maneuver Warfare is the 
union of our core competencies, maneuver warfare philosophy, 
expeditionary heritage, and the concepts by which we organize, deploy, 
and employ forces. It emphasizes the unique and proven capabilities the 
Marine Corps provides Joint Force Commanders and the synergy created 
when leveraged with the complementary capabilities of other services 
and agencies. These capabilities translate into power projection 
designed to promote global security and reassure our allies and 
friends, while deterring and defeating adversaries and potential foes.
    Central to our conceptual transformation is the potential power 
represented in a future integrated sea-base. At-sea arrival and 
assembly, selective off-load, and at-sea reconstitution capabilities 
stand to revolutionize the way Naval forces project power and influence 
around the globe. Our evolving logistics concepts promise indefinite 
sustainment of Marine forces, both afloat and ashore. As well, Marine 
forces afloat typically rely upon the command, control, communications, 
and computer (C\4\) capabilities aboard amphibious shipping to provide 
critical reach-back connectivity to deployed elements of the Marine 
Air-Ground Task Force, and communications with joint and multinational 
forces. These afloat C\4\ capabilities are crucial to the success of 
sea-basing and to achieving the full potential of Naval power 
projection.
    The Marine Corps' sea-basing strategy is yet another illustration 
of continued transformation in operational concepts. Recognizing the 
increasing limitations on future basing potential of American forces 
overseas and the simultaneous need for the United States to maintain a 
forward presence, the Navy and the Marine Corps are developing a 
forward presence strategy as an extension and augmentation of our 
concept of sea-basing. Sea-basing is the formation of joint assets at 
sea to project and sustain combat power ashore, while reducing or 
eliminating our landward logistics footprint during combat operations. 
The sea-based presence strategy boosts forward engagement during 
peacetime by increasing the number of countries that we may visit 
without being permanently stationed at large fixed-bases in host 
nations. Marines can deploy from country to country and advance 
diplomatic and informational efforts through military-to-military 
relations, small unit training, liaison exchanges, and exercises. III 
Marine Expeditionary Force's annual Cooperation Afloat Readiness and 
Training in the Asia-Pacific region is an illustration of this concept.
    In addition to codifying overarching conceptual innovations, the 
Marine Corps is adjusting its tactics, techniques, and procedures to 
better support conceptual change. Marine Aviation Weapons and Tactics 
Squadron 1 is adapting tactics, techniques, and procedures for the 
employment of aviation operations in urban terrain a vital, yet 
challenging environment today and in the future. Advancements have been 
made in target selection and tracking, weapon selection and employment, 
friendly unit position identification, command and control, and staff 
planning. Likewise, the Marine Corps is actively engaged in the 
development of the underlying concepts of Network Centric Warfare for 
Naval expeditionary forces. We are exploiting state-of-the-art 
information and networking technology to improve situational awareness 
and to integrate widely dispersed sensors, forces, and weapons. Network 
Centric Warfare will allow commanders to achieve mission objectives 
rapidly and decisively by concentrating the combined fire and maneuver 
of Naval forces afloat and ashore at decisive locations and times. 
Similarly, the Marine Corps led Joint Non-Lethal Weapons Directorate is 
forging the way for the development of non-lethal technologies, as well 
as the tactics, techniques, and procedures for effectively employing 
their effects. Congressional funding of the Non-Lethal Technology 
Innovation Center at the University of New Hampshire will continue to 
provide further stimulus for the experimentation and formulation of 
doctrine that guides the tactical use of these new weapons.
    Just as it is transforming its doctrine, the Marine Corps is also 
transforming its business practices. Our readiness is a reflection of 
balancing the demands of current requirements around the globe with the 
imperative to invest and be prepared for the future. This balance can 
over the long haul be achieved only if resources are reallocated from 
overhead and support activities to our fighting forces. To accomplish 
this reallocation of resources, we are adopting better business 
practices to achieve greater cost-effectiveness. There are several 
different avenues that the Marine Corps is taking to make this happen. 
We are streamlining organizations to eliminate redundancy and maximize 
integration. We are also reducing excess support structures to free 
resources and focus on core competencies.
    To transform our business practices, the Marine Corps must 
increasingly rely on business intelligence and associated technologies 
promoting access to information. We consider information to be a 
strategic asset, and by assuring access to information, we will improve 
the operational agility of the Marine Corps. Our efforts to promote 
enterprise management of information technology confirm our need for a 
common infrastructure that includes a shared data environment, 
realignment and consolidation of many of our information systems, and 
the search for cost-effective strategies.
    Commercialization, privatization, and out-sourcing are among the 
methods the Marine Corps has used to reduce costs, but ultimately it is 
competition between public and private sources that has led to 
increased savings. The Marine Corps has initiated competition between 
government sources and private sector commercial sources for a broad 
number of activities, best seen in the Marine Corps' application of 
such competition vis-a-vis its bases and stations. To operate our 15 
major installations essentially providing the range of support services 
typical of a municipality a labor force of approximately 20,000 marines 
and 14,000 civilians are employed. One of the processes we have used in 
these competitions to save money is Activity-Based Costing and 
Management. This process provided our installation commanders 
information that enabled them to save over $30 million last year by 
analytically measuring the costs of particular work and evaluating the 
performance of that work.
    Another example of turning to the private sector and using 
competition to bring down costs is the success of our new camouflage 
utility uniform. The uniform was created, tested, produced, and fielded 
by the Marine Corps with the use of a new digital camouflage design 
technique through a single source vendor, yielding a product that is 
superior in quality, comfort, and cost to that in existence today. We 
are extremely pleased with this innovative uniform that not only costs 
less in the long run, but is a product improvement benefiting our 
marines. All of this was achieved within a 1-year period.
    Just as the Marine Corps' new utility uniform is an example of both 
tactical and business innovation, so too are the transformation of 
operational concepts and business practices seen together in our 
Integrated Logistics Capability. The Integrated Logistics Capability is 
redefining and realigning our supply and maintenance process by 
providing our logisticians with greater awareness of equipment status, 
increasing their capacity to more rapidly and effectively respond to 
logistical requirements on the battlefield. The simple objective of our 
Integrated Logistics Capability is to avoid weighing down the 
warfighters with the requirement to haul, protect, and administer 
massive amounts of supply material. The foundation of this concept and 
business practice is a revolutionary change in military methodology: 
shifting from massive inventories to small inventories. With the use of 
new technologies and practices proven in the private sector, the Corps 
will, in essence, create a ``new order'' for its logistics enterprise 
and undertake the revolutionary changes necessary to ensure that it 
continues to be the premier fighting force in the world. Second Force 
Service Support Group at Camp Lejeune, North Carolina, is currently 
testing many of these new processes in a year long ``proof of concept'' 
to validate the direction in which we are heading. These efforts will 
allow Marine logisticians to support the battlefield of the 21st 
century with a smaller logistical footprint in a more cost-effective 
manner.
  b. transformation and modernization through harnessing technologies
    With the foundation of requirements drawn from its new concepts, 
the Marine Corps is transforming its weapons systems and assets 
throughout the five elements of our Marine Air-Ground Task Forces our 
ground, aviation, logistics, and command elements, as well as our 
supporting establishment. The following examples are but a few of our 
transformational and modernization efforts. Many of our investments 
involve modernization of existing capabilities vital to effectively and 
efficiently fulfill our core competencies. A more comprehensive 
description of the Marine Corps' entire acquisition program can be 
found in the Marine Corps' Concepts & Issues: Forging the Future Marine 
Corps.
Amphibious Shipping for Sea-basing
    We are a maritime nation and we must capitalize on this part of our 
national character to ensure that we are ready for the challenges that 
are over the horizon. The requirement for our amphibious shipping 
remains the linchpin of the Corps' ability to influence the 
international security landscape, project power, and protect the 
Nation's interests during peacetime and crises. While it has long been 
recognized that we require an amphibious ship force structure capable 
of simultaneously lifting the assault echelons of three Marine 
Expeditionary Brigades, today's amphibious lift can support only two-
thirds of this requirement in certain aspects of the lift footprint. I 
strongly recommend that we commit to redress this shortfall as a matter 
of urgent priority.
    We are grateful for your support in replacing four classes of older 
ships with the new LPD-17 San Antonio amphibious ship class. Delivery 
of these 12 ships to the fleet is currently planned to be complete in 
2015. However, we remain concerned about further schedule slippage in 
the LPD-17 program. Such delays compromise our ability to fulfill our 
global forward presence responsibilities and must be avoided. 
Similarly, we are concerned with replacing the LHA-1 Tarawa class 
ships. Considering the extended time-frame for ship design, 
construction, and delivery, we need to ensure now that we are ready to 
replace the Tarawa class when they reach the end of their 35-year 
service life starting in 2011. [See Figure 3] 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    The leases of our current fleet of Maritime Prepositioning Ships 
(MPS) will expire in fiscal years 2009, 2010, and 2011. The development 
of advanced Maritime Prepositioning capabilities, High Speed Vessel 
platforms, and new lighterage vessels will significantly increase the 
strength and flexibility of our sea-based expeditionary operations. The 
marriage of a modern amphibious fleet with modern Maritime 
Prepositioning Shipping capable of hosting at-sea arrival and assembly 
of forces will minimize the requirement for access to secure ports and 
airfields, and give our Nation an unmatched asymmetrical advantage in 
projecting power.
Tilt-Rotor Aircraft
    The V-22 Osprey remains the Corps' number one aviation acquisition 
priority. Recent actions in Central Asia have only reinforced the 
immediate need for this truly transformational capability. [See Figure 
4] 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Tilt-rotor technology holds the promise to revolutionize aviation 
we should not be afraid to embrace this promise. Both the Department of 
Defense's Panel to Review the V-22 Program and the National Aeronautics 
and Space Administration's Tiltrotor Aeromechanics Phenomena Assessment 
Panel concluded that tilt-rotor technology is sound and that mishaps 
have been the result of engineering deficiencies that can be solved. 
The V-22 will radically increase the Marine Corps and Special 
Operations Command's operational reach and tactical flexibility. The 
Osprey's superior range, speed, and payload will give Marines and 
Special Operations Forces the ability to accomplish combat missions and 
other operations from distances previously unattainable, with response 
times far faster than possible with other airframes. The battlespace of 
the future will demand capabilities that provide rapid and effective 
maneuver. Through the use of the V-22's increased speed and range, we 
not only improve our ability to influence the tempo of operations, but 
we provide our forces with greater survivability. These capabilities 
are the foundation for how we have planned to transform our operational 
concepts and intend to reorganize our force structure.
    We are aware of the challenges associated with the Osprey but are 
pleased that the Under Secretary of Defense for Acquisition, 
Technology, and Logistics has announced that a new comprehensive flight 
test program for the V-22 will start this spring. This flight test 
effort will be ``event-driven,'' as opposed to being ``time-driven.'' 
Both the Secretary of the Navy and the Under Secretary of Defense for 
Acquisition, Technology, and Logistics will periodically review flight 
test results to assess progress.
Short Take-Off and Vertical Landing Aircraft
    In late October 2001, the contract was awarded for the Joint Strike 
Fighter, signaling a new era in naval aviation. The advantages of a 
stealthy strike fighter capable of taking off from an expeditionary 
base on land or at sea, fly in supersonic cruise, accomplish its 
mission with advanced sensors and weapons, then return to its 
expeditionary site are dramatic. This aircraft will transform the very 
foundations of tactical air power. It will provide the reliability, 
survivability, and lethality that our forces will need in the years 
ahead. Moreover, the Short Take-Off and Vertical Landing Joint Strike 
Fighter variant provides operational access to more than three to five 
times the number of airfields available around the world that are 
currently capable of supporting our so-called ``legacy'' aircraft. The 
Short Take-Off and Vertical Landing Joint Strike Fighter can also 
operate from both conventional carriers and amphibious assault ship 
decks, effectively doubling the number of shipborne platforms available 
for operations. As these highly capable aircraft move from sea-based 
platforms to expeditionary airfields, they can effectively decrease 
response time for missions by 75 percent and increase time-on-station 
by 50 percent. These capabilities represent a significant increase in 
strategic agility, operational reach, and tactical flexibility over 
conventional aircraft.
Fire Support Systems
    Of critical interest to our Marine Air-Ground Task Forces is the 
status of our fire support systems on land, at sea, and in the air. We 
currently have an acute shortage of fire support. It is vital for us to 
move ahead with existing programs to provide our marines with this 
important warfighting enhancement. Indeed, the funding, testing, and 
development of our systems are vital. The Lightweight 155 Howitzer is 
needed to replace our aging ``legacy'' field artillery weapons. The 
High Mobility Artillery Rocket System, moreover, promises to be rapidly 
deployable and will be a key part of our expeditionary operations, 
firing both precision and area munitions under all weather conditions, 
as well as extending our ground-based fire support umbrella to 60 
kilometers. In addition to these fire support systems, we need the 
Ground Weapon Locating Radar to protect our forces against our 
adversaries' counter-battery fires. We should also continue to invest 
in Naval Surface Fire Support. Remedying the fire support shortfall we 
have lived with for much of the last two decades is crucial.
Advanced Amphibious Assault Vehicles
    The Advanced Amphibious Assault Vehicle program remains the Corps' 
highest ground acquisition priority and promises to allow high-speed 
surface maneuver from ship-to-shore as well as on land. This vehicle 
will be able to deploy to objectives from over the visual horizon, 25 
miles and beyond, and will allow our ships to remain beyond the range 
of many threat weapons and surveillance systems. It will help off-set 
an enemy's anti-access strategies and bolster expeditionary operations 
from the sea. Furthermore, the Bushmaster II 30mm cannon will give the 
vehicle a lethal direct fire capability. The Advanced Amphibious 
Assault Vehicle will be a decisive expeditionary warfare tool for 
operations in littoral areas worldwide.
High Speed Vessel
    High-speed, intra-theater sealift, catamaran vessels provide 
phenomenal increases in speed and tactical flexibility for our Navy-
Marine Corps Team. Building on operational use of the Royal Australian 
Navy's HMS Jervis Bay, our Joint Venture High Speed Vessel promises to 
reap new developments that will lead to new capabilities. Additionally, 
leasing the 331-foot commercial catamaran Austal West Pac Express, III 
Marine Expeditionary Force has demonstrated the viability of such 
vessels, using it to transport marines and their equipment to training 
exercises through out Asia and lifting 950 marines and 550 tons of 
materiel per trip, the equivalent of 14 to 17 military cargo aircraft. 
The Navy-Marine Corps Team's current requirement is for a craft that 
can transport 400 tons of cargo, travel 1,200 miles without refueling, 
and achieve a speed greater than 40 knots. We are confident in the High 
Speed Vessels capacity to deliver these capabilities and transform our 
intra-theater mobility.
Tactical Unmanned Aerial Vehicles
    Unmanned Aerial Vehicles have already seen extensive action in the 
war against terrorism and their use is expanding. This technology's 
potential, combined with its ability to conduct dangerous missions 
without the risk of personnel casualties, make this a truly 
transformational asset. The Navy and Marine Corps' Vertical Take-Off 
and Landing Unmanned Aerial Vehicle Engineering Development Model 
program is designed to test and evaluate various sensor packages and 
the Tactical Control System architecture for use in future Tactical 
Unmanned Aerial Vehicles. In the interim, Marine Corps Pioneer systems 
will be upgraded to perform Unmanned Aerial Vehicle functions 
(Reconnaissance, Surveillance, and Target Acquisition). Presently, 
Marine Corps Unmanned Aerial Vehicles are preparing to deploy to 
Central Command's area of responsibility.
Aerial Refueling
    Replacement of our aging KC-130 Hercules fleet with KC-130J 
aircraft is necessary to ensure the viability and deployability of 
Marine Corps Tactical Aircraft Refueling and Assault Support well into 
the 21st century. The KC-130J's performance features include increased 
cruising airspeed, night vision compatible interior and exterior 
lighting, enhanced rapid ground refueling capability, digital avionics, 
and powerful propulsion systems. These strengths promise lower life 
cycle expenses and eliminate the need for costly KC-130F/R Service Life 
Extension Programs. In sum, the KC-130J gives us the aerial refueling 
capability required to meet our current and future tactical aerial 
refueling demands.
Maritime Prepositioning Shipping Support Facility
    Supporting the Marine Corps' Maritime Prepositioning Shipping, the 
Blount Island facility in Jacksonville, Florida, is truly a national 
asset that must be secured for long-term use. Its peacetime mission to 
support the Maritime Prepositioning Force has been of exceptional value 
to the Corps, but its wartime capability of supporting massive 
logistics sustainment from the Continental United States gives it 
strategic significance. The purchase of Blount Island is planned for 
fiscal year 2004, when our current lease of the facility will expire.
Command and Control
    Command and Control technologies being introduced into Marine 
operating Forces are key to making Expeditionary Maneuver Warfare a 
reality. Marine forces once ashore will utilize the Lightweight Multi-
band Satellite Terminal, Tactical Data Network, and High Frequency 
Automatic Link Establishment Radios to link widely dispersed forces 
into the Network Centric environment. These technologies will result in 
capabilities that will greatly increase the operational agility of your 
Marine Corps.
             c. transformation of organizational structure
    The transformation of our weapons systems and equipment, as well as 
our operational concepts and business practices, is a difficult task. 
Transforming how we organize ourselves is even more difficult. 
Nonetheless, building on its institutional legacy of adapting to match 
the threats and missions of a given time, the Marine Corps is 
reorganizing its structure. Furthermore, at the core of transforming 
our organization, is the optimizing of our greatest asset, our marines.
    One of our leading examples of transformational reorganization is 
the 4th Marine Expeditionary Brigade (Anti-Terrorism). The 4th MEB (AT) 
combined our Marine Security Guards stationed at America's embassies 
around the world, Fleet Anti-Terrorist Security Teams, and Chemical 
Biological Incident Response Force with an organic aviation component, 
combat service support element, and specialized anti-terrorism infantry 
battalion, as well as a command element with dedicated planners, 
coordinators, and liaison officers for anti-terrorism operations. The 
4th MEB (AT) has had an immediate impact, deploying to our re-opened 
embassy in Kabul, as well as supporting anthrax decontamination at the 
Capitol and security at the Olympics and the State-of-the-Union 
address. In the near future, all deployable units will deploy with an 
anti-terrorism capability.
    In addition to standing up the 4th MEB (AT), we are looking at 
other organizational transformation initiatives. We are looking at 
additional ways to optimize our forces by realigning outdated 
structures to reflect new realities. Now is the time to consider how to 
best organize our forces to meet the needs of this transformational 
era.
    Similar self-examination has led to successful change in our 
supporting establishment. Three illustrations of this are Marine Corps 
Combat Development Command, the Marine Corps Intelligence Activity in 
Quantico, Virginia, and Materiel Command in Albany, Georgia. By 
reorganizing the Marine Corps Combat Development Command we have 
redefined its role in supporting Marine Operating Forces and the 
Service Headquarters. It has emerged as the Corps' home for long-range 
thinking and has taken on the role of coordinating requirements with 
the Navy as well as facilitating the Marine Corps' relationship with 
Joint Forces Command. The Marine Corps Intelligence Activity, likewise, 
has been highly successful in validating our intelligence reach-back 
concept. Exploiting both new command relationships and connectivity, 
the Marine Corps Intelligence Activity is providing timely, accurate 
intelligence to our globally deployed tactical forces. Similarly, by 
establishing Materiel Command we have created a unity of effort and 
streamlined processes for the Marine Corps' acquisition and logistics 
support functions and ground weapons/equipment life cycle management 
processes. Material Command transformation initiatives for materiel 
readiness improvements and increased visibility of total ownership 
costs will achieve significant future cost avoidance and savings. This 
allows the Installations and Logistics Department at Headquarters 
Marine Corps to more effectively concentrate on policy decisions and 
support to the operating forces and the regional combatant commanders. 
In each of these reorganizations, optimizing efforts of the men and 
women who serve our Corps has been our primary intent.
Our People
    Our highest priority remains unchanged: marines, their families, 
and our civilian workforce. The most advanced aircraft, ship, or 
weapons system is of no value without highly motivated and well-trained 
people. People and leadership remain the real foundations of the Corps' 
capabilities.
    It is important to note that the Marine Corps operates as a Total 
Force, including elements of both Active and Reserve components. We 
continue to strengthen the exceptional bonds within our Total Force by 
further integrating the Marine Corps Reserve into ongoing operations 
and training. Both Marine Expeditionary Force Augmentation Command 
Elements, two infantry battalions, two heavy helicopter squadrons, two 
aerial refueler transport detachments, as well as other units have been 
mobilized to support Operation Enduring Freedom. Called to duty, over 
3,000 Marine reservists are providing seamless support from operational 
tempo relief at Guantanamo Bay to augmentation at Camp Pendleton and 
Camp Lejeune.
    Because our people are our number one priority, safety in the 
Marine Corps is a critical concern. While it is essential to 
maintaining our readiness, it is also a vital element of the quality of 
life that we provide our marines and their families. I am pleased to 
report that 2001 was a banner year for safety in the Marine Corps. The 
Aviation community set a record, posting the lowest Class A mishap rate 
in the Corps' history. Through education, vigilance, and command 
involvement we reduced privately owned vehicle fatalities 39 percent 
last year. Overall, we had our second lowest mishap fatality rate in 14 
years. These are all very positive signs in our quest to safeguard our 
most precious assets, our marines.
    One factor contributing to our safety challenge is that we are a 
young force. The average age of our marines is 24, roughly 6 to 8 years 
younger than the average age of the members of the other services. This 
is part of the culture of the Corps, as our unique force structure 
shows 68 percent of our marines being on their first enlistment at any 
one time. The nature of our force structure requires us to annually 
recruit 41,000 men and women into our enlisted ranks. To fill this 
tremendous demand, our recruiters work tirelessly and have consistently 
met our accession goals in quality and quantity for over 6\1/2\ years. 
The performance of our recruiters has been superb.
    Retention is just as important as recruiting. We are proud that we 
are meeting our retention goals across nearly all military occupational 
specialties. Intangibles such as the desire to serve the Nation, belong 
to a cohesive organization, and experience leadership responsibilities 
through service in the Corps are a large part of the reason we can 
retain the remarkable men and women who choose to stay on Active Duty. 
Concrete evidence of this phenomenon is seen in our deployed units, 
which continually record the highest reenlistment rates in the Corps. 
The Selective Reenlistment Bonus Program has been an additional, 
powerful tool to meet our retention goals. Increases for the Selective 
Reenlistment Bonus Program, as well as the targeted pay raise 
initiative, will go a long way toward meeting our retention goals and 
helping take care of our marines and their families.
    While we recruit marines, generally, we retain families. The 
effectiveness of our marines is dependent, in large measure, on the 
support they receive from their loved ones. Our families are therefore 
vital to our readiness. Increased pay, as well as improved housing and 
health care, directly influence our families' quality of life and, in 
turn, enhances the readiness of our units. Your support of our 
families' quality of life has greatly contributed to our retention 
success. We are extremely thankful for the enactment of much-needed 
improvements to the TRICARE system for our Active Duty personnel and 
for our retired veterans. Thank you, as well, for continuing to support 
increases in the Basic Allowance for Housing that help our marines meet 
the rising costs of rent and utilities within the limits of their 
housing allowances.
    This committee has provided considerable support to our marines and 
their families and the Marine Corps has also improved services to our 
families in hopes of further enhancing their quality of life. We have 
established Marine Corps Community Services aboard our installations to 
better provide for both our Marine families as well as our single 
marines, who constitute nearly 60 percent of our total Active Force. We 
have also sought to recognize and support our marines and families with 
special needs and I am proud to say that both the Marine Corps' 
Exceptional Family Member Program and the Military Committee for 
Persons with Disabilities were the recipients of the 2001 S. Robert 
Cohen Annual Achievement Award for their commitment to facilitating and 
coordinating support and services to families with special needs.
    Similarly, seeking to be more responsive to our marines and to 
enhance their career opportunities, we have undertaken a number of 
manpower reforms to better manage the force. Through the personal 
involvement of commanders, career planners, and leaders throughout the 
chain of command, we have been able to meet our retention goals, 
stabilize our force, and reduce the burden on our recruiters. We are 
investing considerable resources to successfully recruit, develop, and 
retain the civilians who work alongside our marines. Our strategic plan 
in this regard is to develop civilian career programs that integrate 
and advance technical and leadership competencies.
    We are also investing in our marines by improving how we train and 
educate them. We believe the old adage, ``you fight the way you 
train.'' Because of this, our training exercises are becoming 
increasingly joint and combined to provide our marines with the 
experience that they will need when they are called upon to respond to 
crises that require them to work alongside our sister services and 
partners from other nations. Our ability to effectively operate in both 
joint and coalition environments was clearly evident in the experiences 
of the marines of Task Force 58 in Afghanistan. However, we are 
increasingly finding that the training and mission effectiveness of our 
marines is degraded by the many forms of encroachment on our bases and 
stations. We need your continued support to ensure that the growing 
complexity and expense of encroachment issues do not curtail our 
efforts to conduct meaningful training. Encroachment issues will 
continue to be a 21st century problem.
    Experience, in tandem with education, is the best foundation for 
dealing with both difficulty and fortuity. Accordingly, we are not 
solely focused on training our marines, but on educating them as well. 
We have expanded our non-resident education programs to ensure that 
greater numbers of marines have the opportunity to better themselves. 
We are also adjusting our policies to better accommodate family 
realities such as spouses with careers or children with exceptional 
needs when selecting officers to attend various schools that require a 
change in duty station. We have instituted a ``National Fellows 
program'' for competitively selected junior officers and staff non-
commissioned officers to experience the corporate world, think tanks, 
non-governmental organizations, and the workings of Congress. The 
experiences they receive will broaden perspectives and provide valuable 
insights that will strengthen our capacity to innovate and adapt in the 
years to come.
    The Marine Corps' commitment to training and education, as well as 
our commitment to our ``warrior culture,'' is reinforced in our 
recently instituted martial arts program. We have developed a 
discipline unique to the Corps, and we are in the process of training 
every marine in its martial skills. This program promotes both physical 
prowess and mental discipline. Successive levels of achievement are 
rewarded with different colored belts reflecting a combination of 
demonstrated character, judgment, and physical skill. This training 
will benefit marines in the complex missions we face; especially in 
peacekeeping and peacemaking operations where physical stamina and 
mental discipline are vital to success. At its heart, our martial arts 
training is fundamentally focused on mentoring our young men and women 
and helping them to understand that the keys to mission accomplishment 
are often a matter of combining intelligence, strength, and self-
control to influence circumstances, rather than simply resorting to the 
application of deadly force. The warrior ethos we instill in our 
marines transforms them into intelligent and disciplined warriors, and 
mirrors the Marine Corps' own transformation in equipment, doctrine, 
and structure.

                             IV. CONCLUSION

    In summary, the Marine Corps' transformation is a synthesis of new 
operational concepts and better business practices, leap-ahead 
technologies, and realigned organizations. This transformation promises 
to exponentially increase the Corps' sea-based capabilities as 
America's medium-weight expeditionary force in the years ahead. Our 
capabilities, combined with those of our sister services, form an 
integrated array that provides America with the diversity and 
versatility she needs to confront different threats and environments 
and accomplish disparate missions. In close partnership with the Navy, 
we are proud of what our Corps contributes as America's forward 
engagement and expeditionary combined-arms force. We are grateful to 
you for your leadership and for the unwavering support you provide to 
your Corps of Marines.

    Chairman Levin. Thank you, General.
    General Jumper.

STATEMENT OF GEN. JOHN P. JUMPER, USAF, CHIEF OF STAFF, UNITED 
                        STATES AIR FORCE

    General Jumper. Mr. Chairman, Senator Warner, and 
distinguished members of the committee: I am proud to join my 
colleagues up here today and represent your Nation's Air Force 
and airmen. Today, more than 30,000 of our Nation's airmen are 
engaged in operations in Afghanistan, Northern Iraq, Southern 
Iraq, and the Balkans.
    In addition to that, as you all know, we have approximately 
11,000 airmen engaged in daily Combat Air Patrols (CAPs), 
joined by our NATO allies, patrolling the skies over America. 
Eighty percent of this is done by the Guard and Reserve, and 
they are doing a magnificent job for this Nation.
    Sir, we could not be more proud of the fact that, of all 
our technology and weapons systems, we think that the greatest 
weapons system we have in our United States Air Force is our 
people. I carry a simple message today from them as they, for 
the first time in this budget, see the opportunity to reverse 
the trends in readiness, and I echo the sentiments of my 
colleagues. I had one master sergeant on the flight line at 
Langley Air Force Base tell me, ``sir, I would have given up my 
pay raise to get the parts to fix my airplanes.'' For the first 
time in a long time we see the ability to get those parts to 
fix those airplanes.
    It does not happen instantly, as you all know. It takes a 
couple of years to manufacture some of these long lead parts, 
but the indications are all there, and we are giving the people 
the resources that they need to do their job. That is all they 
ask of us, the leadership of the United States military.
    Sir, in this budget you will see a great deal that goes 
into transformation in the form of stealth, standoff precision, 
space, and information. We have seen a lot in Afghanistan. We 
have seen transformation even from the most recent battle in 
Kosovo. We have seen things done in Afghanistan that we could 
not even do then.
    We have all read the stories in the newspaper of the 
Special Forces troop on the ground or a horse with the laptop 
sitting on the saddle horn and a satellite giving him his exact 
position. Bouncing around on the back of the saddle is a tripod 
that holds laser goggles that he stops and sets up.
    One such person was 24-year-old Air Force Combat Controller 
Staff Sergeant Linehart. I recently had him in to brief all of 
the four-stars in the Air Force on a particular mission that 
was referred to earlier. He is a young man, totally unassuming, 
just doing his job, absolutely astounded that a bunch of four-
star generals would be interested in what he is doing. But here 
you have this perfect marriage of the military art of the last 
century and the century before that, with the military art of 
this century. I studied General Shinseki's budget request very 
carefully. I did not see any cavalry in there, but I am sure 
that it will be back in vogue before long.
    Senator Roberts. We do have a cavalry unit at Fort Riley. 
[Laughter.]
    General Jumper. Forgive me, sir.
    Chairman Levin. Which is now going to be plussed-up 
significantly. [Laughter.]
    General Jumper. This young man sat on a hilltop and called 
in B-52 strikes, and the B-52 from 7 miles in the sky put in 
GPS-guided munitions to within 800 meters of Sergeant 
Linehart's position. This is one snapshot of the vision of 
transformation in today's military; we had a bomber that was 
built 40 years ago putting in a precision strike within 800 
meters of someone's position who just gotten off a horse and 
used a pair of laser goggles to get a very precise set of 
coordinates to data-burst up to that bomber.
    In other situations we have read about, we have seen how 
the Predator unmanned air vehicle (UAV) has taken its streaming 
video and put it into the cockpit of our AC-130 gunships and 
performed essentially scout duties, so when the AC-130 gunships 
arrived on station it could begin engaging targets immediately. 
This has not been just for the Air Force. Sergeant Linehart was 
not just talking about B-52s, he was talking to F-14s, F-18s, 
and AC-130s from all the services who make this technology work 
in a way that saves lives on the ground and engages the enemy 
in more lethal ways.
    Mr. Chairman, we will pursue integration of manned and 
unmanned space and information technologies to close the seams 
that have existed, as we have been closing them for the last 10 
years among our services. My component commander, Admiral Vern 
Clark, said that he has never seen it better. We have come a 
long way from the days of Operation Desert Storm when, as you 
may recall, we had to take an aircraft from the aircraft 
carrier every day and fly the air tasking order out to the 
aircraft carrier in order to coordinate our activities. Sir, 
those days are gone, and I am proud to sit up here with my 
colleagues and to be able to report that to you today, and we 
are going to make it even better.
    Mr. Chairman, let me sum up by saying thank you to this 
committee for giving our people the resources they need to do 
their job. Thank you for our pay raise that shows them that we 
do appreciate their service. In the 35 years I have been 
wearing this uniform, it never ceases to amaze me. Every time 
we have a conflict and I walk among the soldiers, sailors, 
airmen, and marines that are engaged in the conflicts of this 
Nation, I realize they continue to rise to greater heights of 
accomplishments and pride.
    Thank you very much, Mr. Chairman, for the opportunity to 
be here today. I look forward to your questions.
    [The prepared statement of General Jumper follows:]

            Prepared Statement by Gen. John P. Jumper, USAF

    Mr. Chairman and members of the committee, the Air Force remains 
focused on transformation. It is a continuous journey, and fundamental 
to succeeding in the joint services' task to provide for this Nation's 
security. This fiscal year 2003 budget takes significant strides along 
this path, and will enable us to remain the world's most capable air 
and space force.
    During the past year, the Air Force has had numerous opportunities 
to implement and validate significant changes in the conduct and 
strategies of war, exploit the rapid advancement of innovative 
technologies, and deliver global reconnaissance and strike for 
America's national security. Our successes are America's successes; 
they are the direct result of the tireless and unconditional service by 
men and women of the total Air Force and their families.
    We recognize much work and many opportunities to improve await us. 
Despite our unassailable dedication to a demanding operational pace at 
home and abroad--including Northern Watch, Southern Watch, Noble Eagle, 
and Enduring Freedom--we have not faltered in our steps to continue the 
tasks of our unprecedented transformation. We are pressing forward to 
develop and refine our operational and organizational processes and 
strategies to address the changing national security and economic 
environments. We are focusing on the horizontal integration of our 
manned, unmanned, and space assets in order to provide real-time 
actionable, exploitable intelligence to commanders. We are committed to 
leveraging technology to combine our air and space capabilities in 
order to increase asymmetric advantages for our Nation. As our 
transformation continues, we will support our people, revitalize the 
military industrial base, and seek efficiency at every turn. We are the 
world's preeminent Air and Space Force, remaining true to our vision by 
providing global vigilance, reach, and power across the spectrum of 
military and humanitarian operations for America and our allies.
    We are able to perform the extraordinary feats asked of our Air 
Force because we are blessed with full endorsement from the American 
people, Congress, and the President of the United States--all of whom 
provide unwavering support to our efforts and missions. We sincerely 
appreciate this confidence in our commitment and our capabilities to 
provide our great Nation with superiority in air and space throughout 
this century.

                                PREFACE

    If Americans had not fully understood the idea of ``asymmetry'' 
before September 11, they received a horrific education on that day. In 
a lesson reminiscent of one 60 years earlier, air assets were employed 
in a malicious fashion on an unsuspecting people. This time, however, 
the attacks resonated a particular evil, for civil airlines were used 
to wreak destruction and death upon civilians.
    The World Trade Center, the Pentagon, and a field in Pennsylvania 
were the battlefields of asymmetric warfare. A terrorist group 
exploited the United States' asymmetrical vulnerabilities, far in 
excess of their relative size and the physical results of the attacks. 
Within minutes of these attacks, the United States, through Operations 
Noble Eagle and Enduring Freedom, was providing education on an 
asymmetry of its own making--the object lesson of joint and combined 
warfare visited on the perpetrators of the September 11 strikes. The 
Air Force is fully prepared to execute the missions required--with our 
air, space, and special forces assets--to carry this global war on 
terrorism to its conclusion, ending as President Bush declared, ``at a 
time and place of our choosing.''
Operation Noble Eagle (One)
    Operation Noble Eagle unofficially began 3 minutes after North 
American Aerospace Defense Command (NORAD) received word from the 
Federal Aviation Administration of two hijackings. F-15 Air Defense 
fighters from Otis Air National Guard base in Massachusetts raced 
toward the skies over New York. Thirty minutes later, a similar attack 
unfolded in DC. Within minutes, Guard F-16s from Langley Air Force Base 
(AFB) were on an intercept track while other Guard F-16s headed to the 
skies over the Capital. Though notified too late to thwart the attacks, 
the jets were in place to stop any further strikes, including the 
aircraft that crashed in Pennsylvania.
    Within hours of these attacks, the Air Force had established combat 
air patrols across America with air refueling support to keep them 
aloft, and command and control assets to direct them. By December, 
these sorties exceeded 8,000. Meanwhile, as the Air Force air defenses 
secured the skies, numerous other combat support enablers--strategic 
and tactical lift, civil engineers, medical teams, combat 
communications, command centers, chaplains, and security forces--rolled 
into action. The Air National Guard generated over 100 C-130s to 
support the movement of FEMA, FBI, human organs and blood, Combat 
Support Teams (CSTs), medical equipment, and combat communications. In 
addition, over 70 personnel arrived from Andrews AFB to help coordinate 
emergency medicine at the Pentagon alongside the Surgeon General of the 
Air Force.
    Within 24 hours, the Air Force swiftly deployed 500 medics to 
McGuire AFB, to respond to any Federal Emergency Management Agency 
(FEMA) tasking for equipment and/or personnel needed at the World Trade 
Center. State-of-the-art medical emergency facilities were assembled, 
which included four Expeditionary Medical Support packages (EMEDS) 
(lightweight modular systems). Critical Care Air Transportable Teams 
(CCATT), which provide emergency medical attention while in-flight, 
were quickly established at both the Pentagon and McGuire AFB. The port 
mortuary also was activated, with over 600 Air Force Active Duty, 
Guard, and Reserve personnel deploying to Dover AFB. They assisted in 
the identification and preparation of the remains of the Pentagon 
attack victims, working alongside the Armed Forces Medical Examiner, 
FBI, Army, and Navy personnel. Critical Stress Management Teams 
conducted counseling to personnel assigned to recovery efforts at both 
locations. Finally, since the National Disaster Medical System was 
activated, the Air Force Medical Service (AFMS) also set up its 
aeromedical evacuation assets at both McGuire AFB and Andrews AFB.
    Meanwhile, demonstrating their invaluable integration in the total 
force, Air Force Reserve and Air National Guard airlift crews were 
among the first to bring in critical supplies, equipment, and 
personnel, including emergency response teams from FEMA, fire trucks, 
search dogs, and earth moving equipment. At the time of this writing, 
more than 10,000 Air Force reservists and over 20,000 Air National 
Guard members have been mobilized, and many more continue to provide 
daily support as volunteers. Thousands of Air National Guardsmen, 
Reservists, civilians, contractors, and Active Duty members are 
ensuring air and space security over America.
Operation Enduring Freedom (OEF)
    When the President decided on the appropriate course of action, air 
and space forces were called into action. At the outset, Air Force 
bombers proved instrumental to putting weapons on targets in 
Afghanistan. The vast mobility capabilities of the Air Force quickly 
moved assets into the theater, while simultaneously making possible 
Navy and Air Force fighter attacks.
    Enduring Freedom also revealed an improvement from even the most 
recent operations. Air and space precision assets paired with multi-
service special forces on the ground proved an effective, efficient, 
and devastating mix of capabilities. Additionally, we have pushed 
developing technologies forward and have found operational successes in 
advanced employment of Unmanned Aerial Vehicles (UAVs).
    This operation is about creating effects--deterrence and defeat of 
terrorism--so it is more than simply munitions-on-targets. The Air 
Force is at the forefront of psychological campaigns, applying robust 
information warfare campaigns while also leading the humanitarian 
relief mission--essential to any long-term stability in the region. 
Airdropping millions of rations to a starving people, Air Force 
mobility forces directly affected the future of the new Afghan 
Government.
    ``Let's Roll!''
    As it has throughout its history, America will champion the cause 
of freedom and defeat those who would attempt to deny us this most 
basic tenet. Guaranteeing our success is ``. . . the strength of our 
country--the skill of our people and the superiority of our 
technology.''

                              INTRODUCTION

    The world's premier Air Force begins 2002 under new leadership. The 
Secretary and Chief of Staff bring unique and complementary experiences 
to bear upon the dynamic promise of American air and space power in the 
21st century. The Air Force is in the business of global reconnaissance 
and strike, including the full application of unparalleled mobility 
forces. Our efforts are fuelled by a vision of global vigilance, reach, 
and power to help the Nation assure our allies and friends, while 
dissuading, deterring, or decisively defeating any adversary. The 
specific concept of ``core competencies'' \1\ well known among 
successful organizations has been adapted by Air Force leaders to 
characterize the capabilities that are central to our mission: air and 
space superiority, information superiority, global attack, precision 
engagement, rapid global mobility, and agile combat support.
---------------------------------------------------------------------------
    \1\ According to two leading scholars, successful enterprises 
``consolidate corporate-wide technologies and production skills into 
competencies that empower individual organizations to adapt quickly to 
changing opportunities.'' The three identifying characteristics of core 
competencies are: (1) They transcend a single product or service and 
provide potential access to a wide variety of markets; (2) they are 
perceived by customers to deliver significant benefit; and (3) they 
should be hard to imitate. See C.K. Prahalad and Gary Hamel, ``The Core 
Competence of the Corporation,'' Harvard Business Review, May-June 
1990.
---------------------------------------------------------------------------
    The Air Force and the Nation entered 2001 aware of the challenges 
and opportunities of a new administration. The Department of Defense 
was to undergo significant evaluation, with the expectation of dramatic 
changes to follow. President Bush brought an eminently qualified team 
to defense and national security, and the Air Force welcomed the 
injection of energy and attention the Nation's defense was to receive. 
Long a force for innovation, airmen continued their leadership 
throughout the months of military reinvention. Capabilities-based 
planning was emerging as the Quadrennial Defense Review (QDR) focal 
point, and the Air Force strove to maximize the assessment of new 
technologies, revolutionary concepts of operation, and visionary 
organizational changes. However, amidst this important task, terror 
struck the United States. The Air Force, and the Nation, exited 2001 at 
war.
    This new adversary, and those of the future, will pose a formidable 
challenge to American interests at home and abroad. They will attempt 
to intimidate, deter, or defeat our Nation through a variety of means, 
to exploit our asymmetrical vulnerabilities and avoid confronting U.S. 
military power directly. These strategies will include the use or 
threatened use of weapons of mass destruction, and the use of terrorism 
on U.S. soil. They will also attempt to counter the tremendous 
asymmetric advantages of U.S. air and space power.
    To meet these challenges, Air Force strategy calls for a 
capabilities-based approach to defense planning. This enables the 
service to answer a broad range of challenges posed by potential 
adversaries, while also developing the capabilities it needs for the 
future. This capabilities-based planning must remain tied to ongoing 
Air Force transformation that continues to develop new technologies, 
concepts of employment, and organizational adaptations.
The Road Ahead
    The transformation of the military now runs parallel to the 
transformation of our Nation. Just as the military is exploring new 
capabilities and concepts of operation (CONOPs) to engage threats, 
America as a whole is experiencing new appreciation for the cost of 
freedom. The Air Force, the Department of Defense, and the American 
people are up to the challenge.
    Though a shock, the events of September 11 did not fundamentally 
alter the course for a transformed military; rather, they served as an 
affirmation of our current direction. Turning away from decades of 
restrictive force-to-threat planning, the Air Force along with the 
Defense Department is on course to define desired effects, and then 
secure capabilities which allow us to reach that end. Additionally, the 
QDR and the Defense Planning Guidance (DPG) address organizational 
changes, which add to the effectiveness of new military methods.
    This describes the heart of Air Force transformation. Assessing 
existing and potential adversaries' capabilities against our own, we 
are developing task forces for a variety of mission requirements, from 
strategic response to homeland security. For example, Global Strike 
Task Force, which describes how we will operate in an anti-access 
scenario, is the next step in our journey to fully achieve our mission 
while also opening doors to adaptive and innovative operational plans, 
and relevant organizational structure.
    In order to draw the greatest effectiveness from these 
capabilities, the Air Force will exploit America's technical dominance 
to elevate our asymmetric advantage over any adversary. This involves 
harnessing the attributes of stealth, precision, standoff, space, and 
information technology. The success of our capabilities-based CONOPS 
depends upon reducing the find, fix, track, target, engage, and assess 
(F\2\T\2\EA) cycle and achieving persistent intelligence, surveillance, 
and research (ISR) capabilities. Key to this is the horizontal 
integration of manned, unmanned, and space assets. By facilitating 
digital conversations at the machine-level we will provide the Joint 
Force Commander with the decision-quality information required to 
ensure success--the ``sum of the wisdom'' resulting in a cursor over 
the target. With determined exploration and exploitation of space 
capabilities--culture, principles, personnel, and assets--we will widen 
our asymmetric advantages and set the bar beyond reach of any 
adversary. Such transformation will guarantee America's global 
vigilance, reach, and power--establishing powerful national mechanisms 
to assure, dissuade, defeat, or deter.
    These are the building blocks to true transformation--
technologically elevated capabilities, focused CONOPs, and embedded 
structural changes. The Air Force remains at the forefront of each of 
these transformational elements. We ensure the freedom to operate 
around the globe and in the sky and space above, under any 
circumstances, and for whatever mission the Nation requires. This is 
asymmetry--exploitation of capabilities no other force in the world 
possesses--and it is fundamental to redefining jointly fought warfare 
on America's terms. Maintaining this advantage is critical, and a 
constant challenge. In the year ahead, we will meet this test by 
solidifying the roots of our success: readiness, transformation, and 
the resource that makes these possible--our people.

                           THE YEAR IN REVIEW

    In 2001, the Air Force had an enormous impact on the peacekeeping 
and combat missions around the world. From the Korean Peninsula to 
Kabul, across every continent and over all bodies of water, Air Force 
civilian, Active, Guard, and Reserve Forces were executing global 
reconnaissance and strike missions. Through combined exercises, 
humanitarian interaction around the globe, and decisive combat action, 
we assured our friends and dissuaded, deterred, or defeated our 
adversaries.
    In the Balkans, contributions to the region included fighter, 
tanker, command and control, ISR, and airlift aircraft. Combat search 
and rescue (CSAR) forces, special operations units, and unmanned aerial 
vehicles (UAVs) also flew in support of the operation. In 2001, the Air 
Force flew approximately 1,000 sorties, enforcing no-fly-zones over the 
former Yugoslavia.
    In Southwest Asia (SWA), the Air Force maintained a continuous, 
steady-force presence of more than 8,000 airmen in support of Operation 
Northern Watch (ONW) and Operation Southern Watch (OSW). Air Force ISR 
assets provided crucial intelligence and situational awareness, 
particularly in the form of indications, warning, and intelligence. We 
were the vital element in monitoring Iraq's compliance with United 
Nations' directives. Coalition forces flew over 22,000 combat sorties 
in SWA during 2001, 70 percent of which were flown by the Air Force.
    In response to the terrorist activity of September 11, we began 
providing support to homeland defense via Operation Noble Eagle and 
support to the war against terrorism via Operation Enduring Freedom. By 
the end of 2001, we had flown 11,000 combat air patrol, surveillance, 
and refueling sorties protecting U.S. cities and other high-value 
assets. We also maintained an alert readiness status on the ground in 
order to scramble and intercept threat aircraft. Nearly 14,000 airmen 
have deployed to Southwest Asia in support of Operation Enduring 
Freedom. This number represents nearly every specialty in the Air 
Force, from engineers to explosive ordnance disposal, pilots to special 
operators. Of the over 18,500 total coalition sorties flown, almost 46 
percent have been flown by the Air Force. These sorties included 
fighter, tanker, command and control, special operations, UAV, ISR, and 
airlift aircraft. Initially, the Air Force was the sole provider of 
airlift for humanitarian relief to the people of Afghanistan. By the 
end of December, Air Force mobility teams had delivered over 2.4 
million humanitarian daily rations and over 4,300 tons of wheat, rice, 
and cold weather gear. Ultimately, in the land locked country of 
Afghanistan, everything brought in to build up and sustain our forces 
was brought in by air.
    The Caribbean and South America continued to be the focus of the 
ongoing war on drugs. Counter-narcotic missions were flown around the 
clock by all interagency organizations. The Air Force contributed 
aircraft and crews flying missions as fighter-interceptors, airlift, 
ISR, and CSAR. Of the almost 3,000 sorties flown, the Air Force flew 
approximately 25 percent. These efforts directly contributed to 
seizures that totaled over 75,000 kilos of narcotics.
    Establishing operational imperatives for 2001 and beyond, the 
Secretary of Defense named the Air Force as executive agent for 
national security space. We now shoulder the responsibility for 
planning and programming of space systems for the Department. The 
Secretary and Undersecretary of the Air Force will direct efforts to 
nurture a space culture and ensure that the advancement of space 
capabilities receives focused and heightened emphasis. Throughout the 
year, we also maintained approximately 100 satellites in earth orbits 
that directly supported, and continue to support, not only the Air 
Force, but also the other services and the civilian population. Global 
positioning satellites assisted travelers worldwide. Data provided by 
Air Force weather satellites and communications and missile launch-
detection satellites was used by all services. In order to maintain 
this robust capability, we launched, deployed, and initialized 
operations of eight additional assets in 2001.
    The Air Force provided an American presence in regions of the world 
where the U.S. is working to build goodwill and improve relations. It 
also enabled quick humanitarian relief during natural and man-made 
disasters. During the month of January, following a devastating 
earthquake in India measuring 7.7 on the Richter Scale, two C-5s and 
four C-17s transported 115 short tons of humanitarian cargo to 
Ahmedabad, India. In April, a C-17 airlifted 10 cheetahs from Africa to 
America as part of a gift to the United States from the people of 
Namibia. Additionally, Air Force engineers from Active and Air Reserve 
Component Red Horse units accomplished several school construction and 
water well drilling humanitarian projects throughout Central and South 
America.
    When the floodwaters rose in Houston in June, a C-17 transported 
Federal relief workers and 30,000 pounds of relief supplies to Texas. 
Additionally, the Air Force deployed a 92-person Expeditionary Medical 
Support System (EMEDS) to the area to relieve local hospital emergency 
rooms workload. The EMEDS cared for over 1,000 patients from this 
disaster, and the AMS envisions placing EMEDS throughout the country to 
offer added future regional quick-response capabilities. Later, in 
August and September, Air National Guard and Air Force Reserve C-130 
aircraft equipped with modular airborne fire-fighting systems flew 185 
missions and dropped over 800,000 gallons of fire suppressant on 
wildfires in Idaho and California. Additionally, they flew 45 support 
sorties lifting 414 firefighters and over 300,000 tons of cargo into 
the area.
    Whether at home or abroad, in combat, humanitarian operations, or 
training, we strive to accomplish the mission effectively, efficiently, 
and safely. Effective risk management directly contributes to readiness 
and warfighting capability. In 2001, a combination of targeted mishap 
prevention efforts and chain-of-command commitment resulted in 
sustained low mishap rates in all major areas. On the ground, a record 
low was achieved for off-duty sports and recreation fatalities with 
four total. In the on-duty ground fatality category, the Air Force tied 
the fiscal year 1998 all time record low of three. In the air, Class A 
Flight Mishap performance yielded the third lowest mishap rate in USAF 
history.
    The Air Force-wide fielding of safety tools and metrics such as the 
web-based Safety Automation System continues to improve operational and 
acquisition risk management decision-making. These efforts, coupled 
with aggressive seasonal safety campaigns, enable leaders at all levels 
to take proactive action aimed at specific trend areas. The Air Force's 
commitment to safety as a combat multiplier continues to enhance force 
preparedness and mission accomplishment.
``The Expeditionary Air and Space Force (EAF) After 2 Years''
    Our considerable mission accomplishments in 2001 have in large 
measure been made possible by the continued maturation of the EAF. 
Throughout the year, we called upon all facets of our Air Force--
Active, Guard, Reserve, civilian, and contractors--to meet the demands 
of the war on terrorism and our steady-state commitments. In addition 
to the rotational deployments in support of OSW, ONW, Icelandic 
Operations, and counter-drug operations, we were called upon to support 
wartime efforts at home with ONE, and overseas with OEF. The large 
demand on the Air Force increased the OPTEMPO drastically and placed a 
sizeable stress on our most valuable asset, our people. The Air Force 
is stretched thin, standing up several expeditionary bases overseas 
while at the same time defending the skies over the U.S. with numerous 
aircraft on ground and airborne alert. Our people have risen to the 
occasion in winning this war. We will maintain the Air and Space 
Expeditionary Force (AEF) structure throughout this effort to the 
maximum extent possible. However, everyone in the Air Force realizes 
the mission has changed and the requirement to deploy for longer 
periods of time may increase.
The Expeditionary Air and Space Force--Sum of the Parts
    Often misunderstood is the difference between the elements that 
collectively define the Expeditionary Air and Space Force. Whereas the 
EAF is a construct and is the Total Air Force, the AEFs are a subset 
and represent the core of our deployable combat power and forward 
presence capability. The EAF also enables the Air National Guard and 
the Air Force Reserve to participate more heavily in Air Force 
expeditionary operations. The increased predictability of the AEF 
rotation cycle allows us to schedule voluntary participation well in 
advance. This voluntary participation currently provides about 25 
percent of the aviation package and 10 percent of the Expeditionary 
Combat Support. This support brings both OPTEMPO relief as well as 
highly trained and skilled talent to the operations. This interaction 
lays the basis for the development of our transformational initiative, 
Future Total Force (FTF) (explored later).
    AEF Prime consists of operational capabilities neither organically 
assigned to AEFs, nor incorporated in the rotational cycles. This 
includes regional command and control, intelligence, space, special 
operations, and the umbrella of deterrence provided by our nuclear 
forces. AEF Prime enables much of the global reachback we rely on for 
logistics and analysis.
    AEFs are not individual organizations, autonomous fighting forces, 
or units. Instead, our 10 AEFs represent buckets of capabilities the 
Air Force can draw upon to satisfy the requirements of theater 
commanders--flexible, responsive, adaptable. A nominal AEF has about 
12,600 people supporting 90 multi-role combat aircraft, 31 intra-
theater airlift and air-refueling aircraft, and 13 critical enablers. 
The enablers provide command, control, communications, intelligence, 
surveillance, and reconnaissance, as well as combat search and rescue. 
AEFs are composed of squadron and sub-squadron elements, which are on-
call for a period of 3 months in a 15-month cycle. If deployed, forces 
from AEFs make up Air and Space Expeditionary Task Forces (AETF). 
Finally, we have two Air and Space Expeditionary Wings (AEWs) that 
provide crisis response capability beyond what the two in-cycle AEFs 
can cover. They also contain unique capabilities, such as stealth 
aircraft, that are not distributed across the ten AEFs.
    Air Force Reserve Command made major AEF contributions in 2001 
having met virtually 100 percent of both aviation and combat support 
commitments, while also deploying 14,000 plus personnel in volunteer 
status in the current 15-month AEF cycle (December 1, 2000-February 28, 
2002). The challenge for 2002 will be to meet ongoing AEF commitments 
with volunteers from a Reserve Force which has had a large portion of 
its operations and combat support mobilized for homeland defense and 
the war on terrorism.
    The Air National Guard alone contributes nearly 25,000 men and 
women every 15 months to the AEF rotations. During AEF cycles one and 
two thus far, Guard units provided over 20 percent of the total force 
aviation packages and nearly 10 percent of all expeditionary combat 
support requirements.
    EAF Mobility provides the ability to deploy and sustain 
expeditionary forces. It includes airlift and air-refueling 
capabilities--the linchpin of power projection. Many mobility units 
accomplish the AEF role when specifically assigned to an AEF 
eligibility period and the EAF Mobility role all other times.
    EAF Foundation consists of support capabilities not organically 
assigned to AEFs. This includes acquisition, logistics, health care, 
education, and training. Due to the expeditionary nature of the Air 
Force, individuals normally assigned to an EAF Foundation organization 
can still be assigned to an AEF and deploy to contingency operations 
during their 3-month eligibility period.
    The EAF is a force structuring mechanism because it frames Air 
Force modernization, recapitalization, and transformation efforts. The 
AEFs and EAF Mobility provide the rotational basis for steady state 
expeditionary operations. Therefore, current and future programs must 
ensure adequate capability in the EAF to respond to global 
contingencies while providing predictability and stability for our 
people.
EAF Today
    Our current level of commitment exceeds the capability we have 
available in our two on-call AEFs and one on-call AEW. In career fields 
such as security forces, engineers, communications, and information, 
and medical, we have reached into future AEFs to source enough people 
to meet the current requirement. Low Density/High Demand (LD/HD) assets 
such as Airborne Warning and Control System aircraft (AWACS) and 
special operations aircraft have deployed almost their entire inventory 
to meet the war effort. We have been aided greatly in this LD/HD 
challenge with the deployment of NATO AWACS that have deployed to the 
U.S. in support of ONE. For the first time ever, the on-call AEW and 
portions of the remaining AEW were employed. Additionally, a large 
portion of the total tanker force deployed to support Air Force and 
Navy strikes, while our mobility forces rapidly moved thousands of 
airmen and support equipment overseas allowing us to quickly engage the 
enemy on our terms, not theirs.
Fully Capable AEFs
    Providing the flexibility needed for full spectrum operations 
requires continued efforts to round out capabilities of our AEFs to 
make them inter-changeable. Currently, our 10 AEFs are not all the 
same. For example, only three of the AEFs have precision, standoff 
strike capability, and only nine have an F-16CJ squadron for 
suppression of enemy air defenses. Until the disparity is rectified, 
the EAF construct will have limits--many LD/HD and stealth systems 
remaining tasked at maximum levels.
    As the EAF continues to mature and technologies advance, we will 
expand the capabilities each AEF can provide. With enhanced 
intelligence, surveillance, and reconnaissance (ISR) we will enlarge 
the battlespace an AEF can control; improve our ability to do real-time 
targeting; and dramatically increase the number of targets an AEF can 
engage. Finally, we will continue to improve our expeditionary combat 
support capabilities--effective, responsive logistics are the key to 
sustaining expeditionary forces and operating from austere locations.
Reflection and Resolution
    After a morning of terror on September 11, there was reassurance. 
Aircraft over American cities lent calm rather than fear, for they were 
the Active, Guard, and Reserve Air Force keeping watch. We reacted 
within minutes of the attacks to establish a defensive posture and to 
prepare our offensive forces, just as we spent 2001 reacting 
successfully to humanitarian and combat operations around the globe. 
While meeting the requirements of the new war on terrorism, we will 
continue our transformation journey. The capability to deliver massed, 
discriminate, and precise effects anywhere in the world within minutes, 
and the persistent ISR to evaluate actions are within reach for 
America's air and space forces. This is the contribution of the Air 
Force to the Nation--asymmetric capabilities that assure, dissuade, 
deter, or decisively defeat.

                               READINESS

    Though no organization in America was ready for the attacks of 
September 11th, none was more ready for the immediate aftermath than 
the Total Air Force team. From humanitarian to combat operations, the 
operational demands before the attacks were tremendous. Though 
significant milestones were reached in terms of reducing the effects of 
high tempo operations, the advent of war placed many of those gains on 
hold. The war on terrorism has disrupted the AEF schedules, which will 
create training, organization, and resource impacts in the near future. 
Unaffected though, is our objective of 10 fully capable AEFs--each a 
flexible, identical cross-section of capabilities for the Joint Force 
Commander to employ. America's competitive edge is due in large part to 
its emphasis on realistic, comprehensive training, and we must continue 
to ensure our forces get that training. Equally important is ensuring 
our personnel have the resources needed to accomplish their jobs.
Recapitalization
    Our fielded forces have aged to the point that they will not be 
able to compete with emerging and future threats. In order to deal with 
the global security environment, the Air Force must rebuild its aging 
infrastructure and modernize its outdated weapon systems. Higher 
priorities, however, require that we pursue a structured 
recapitalization process that will ensure tomorrow's warfighters have 
the advanced tools, technology, and equipment needed to preserve 
America's air and space dominance.
    The budgetary constraints and spending reductions mandated in the 
1990s caused the Air Force to seriously underfund modernization and 
infrastructure improvements. For example, in 1990 the Air Force 
purchased 257 aircraft; by 1996, that number had fallen to 30. This 
dramatic cutback in hardware acquisitions signaled an unavoidable shift 
in USAF priorities. Modernization stalled in order to maintain core 
operational capabilities and keep the fleet of older aircraft flying. 
Unfortunately, this financially driven reprioritization placed the 
Nation's mid- and long-term air power readiness at significant risk.
    We now face a dangerous situation. Our aircraft fleet is getting 
older, less capable, and more expensive to maintain--all at the same 
time. Reversing this negative trend requires the Air Force to structure 
its recapitalization plans to avoid large-scale procurement spikes and 
critical modernization gaps.
    The recapitalization of our airframes and weapons systems is only a 
partial solution. The Air Force needs to upgrade its infrastructure and 
physical plant, which include sustainment, restoration, modernization, 
transportation, support equipment, and communications systems. At the 
same time, the Air Force must be prepared to conduct real-world 
operations on a global scale. While recapitalization is important, we 
can never forget investing in our people. The Air Force needs to take 
particular care in preserving this resource and expanding its 
capabilities. With the help of Congress, we have made considerable 
progress in addressing pay, benefits, and quality of life issues, but 
more remains to be done.
    Understanding the range and nature of Air Force capabilities is a 
prerequisite to comprehending the readiness and transformational 
requirements. Securing our task forces' potential capabilities demands 
insightful and bold initiatives. How comprehensively we elevate the 
systems, processes, and people will determine how effectively America 
will be able to operate on the global stage in the decades ahead.
Core Competencies--Air and Space Superiority
    Air and space superiority is the ability to control the entire 
vertical dimension, from the surface of the earth to the highest 
orbiting satellite, so the joint force has freedom from attack and 
freedom to attack. This is the essential first step in achieving 
battlespace dominance. As was true with operations in the 20th century, 
dominance of the vertical dimension will remain the most critical 
capability for 21st century Joint Force.
    Air Superiority
    The Air Force is investing in a range of systems encompassed in the 
entire F\2\T\2\EA kill chain. Among the air superiority assets that 
contribute to this targeting and attack process are the legacy air-to-
air platforms. While we await the fielding of new systems, we strive to 
maintain the viability of our current assets. The F-15 and F-16 
programs continue to pursue modernization of radars, engines, and 
enhanced combat capability to ensure near-term fleet maintenance and 
air superiority in air-to-air combat environment. Finally, key weapon 
advances rest with continued development and production of the Joint 
Helmet Mounted Sight as well as the AIM-9X and AIM-120 next-generation 
air-to-air missiles. While modernization of current systems is required 
to make them as capable as they can be, our greatest advantage with 
current systems is our robust training and the availability of ranges 
to conduct that training.
    Self-defense against enemy air defense systems is a key element to 
ensure air superiority. Several electronic warfare programs support 
this important capability. The Joint Services Electronic Combat Systems 
Tester meets our operational requirement for a mobile verification 
system to confirm installed electronic countermeasures systems on F-15, 
F-16, and A-10 are operable. It tests end-to-end electronic combat 
capabilities, identifies system problems before takeoff, and provides 
the highest level of confidence to the warfighter that the EW suite is 
operational.
    Comet Pod is a new infrared (IR) countermeasures system designed to 
provide covert, preemptive protection for the A-10 against IR surface-
to-air missiles (SAMs). Fielding this system will greatly enhance 
survivability of the A-10 in its low-altitude close air support role. 
Additionally, the Advanced Strategic and Tactical Expendable program 
addresses multiple Combat Mission Needs Statements and provides 
accelerated ramp-up for production of the MJU-46 covert IR flare. This 
operational requirement acceleration responds to today's air war threat 
in Afghanistan and currently provides protection to special operations 
aircraft in the combat zone.
    The AF leads the way in Radio Frequency (RF) Towed Decoys on 
fighter and bomber platforms. These countermeasures provide protection 
against advanced SAM threats and increase the viability and lethality 
of current platforms to conduct operations in the modern RF threat 
arena. These defensive systems have proven invaluable in combat over 
the last decade, and will continue to add to our legacy force 
capabilities.
    Combat Search and Rescue (CSAR)
    The CSAR mission provides friendly forces protection and assurance 
by recovering downed aircrew members or other persons in isolated 
locales and returning them to friendly control. Primarily charged with 
supporting combat personnel, CSAR continues to play an important role 
in civil search and rescue activities. The aging nature of the CSAR 
fleet, however, increasingly jeopardizes the Air Force's ability to 
accomplish the CSAR mission. Moreover, CSAR assets lack appropriate 
compatibility with our advances in strike, command and control, 
intelligence, surveillance, and reconnaissance systems, though some 
advances in information fusion have been completed.
    Other improvements are forthcoming. Air Force Reserve Command 
(AFRC) will modify nine HC-130s with the APN-241 ground map radar, 
which enhances position awareness and increases system reliability. 
Additionally, AFRC is beginning the upgrade of the forward-looking 
infrared for the HH-60G helicopter fleet.
    Space Superiority
    Space superiority ranks with air superiority as a top priority. The 
ability to exploit and assure U.S. access to space assets while denying 
the same to our adversaries is of great importance, and as the ultimate 
high ground, space provides America with military advantages that 
cannot be duplicated.
    Space Commission
    In 2001, the Secretary of Defense named the Air Force as Executive 
Agent for Space in his implementation of Space Commission 
recommendations. This made the Air Force responsible for department-
wide planning, programming, and acquisition of space systems. 
Consistent with the National Reconnaissance Office's (NRO) long 
standing approach, the Air Force will manage space systems with a 
``cradle to grave'' philosophy, integrating systems acquisition with 
operations. To accomplish this, the Space and Missile Systems Center 
has been transferred from Air Force Material Command to Air Force Space 
Command. The Under Secretary of the Air Force is now dual hatted as the 
Director of the NRO, and will have acquisition authority for all Air 
Force and NRO space systems, as well as Milestone Decision Authority 
for all DOD space programs. This will allow a comprehensive review of 
all space systems, to determine the optimal method of satisfying 
national/military requirements. The first National Security Space 
Program Assessment was accomplished this year, comparing DOD and NRO 
program budgets against existing plans. This assessment will be used in 
drafting the first National Security Space Plan, due in mid-calendar 
year 2002.
    Spacelift Range System (SLRS)
    Achieving and maintaining space and information superiority 
requires an operational space launch capability that can deploy 
satellites to orbit with speed and flexibility--the high ground of 
military operations. The Spacelift Range System modernization program 
is replacing aging and non-supportable equipment to improve reliability 
and efficiency; reducing the cost of operations and standardize 
equipment on the eastern and western launch ranges.
    SLRS modernization follows a phased approach. To date, the 
completion of new downrange satellite communications links, a new fiber 
optic network, and new range scheduling systems are providing 
government and commercial users more flexibility at the spacelift 
ranges. In 2001, these improvements enabled the rapid launch of three 
systems in just 4 days using Cape Canaveral AFS equipment--an 
unprecedented feat for America's spacelift ranges. The next phase 
replaces old, base-unique systems with modern, standardized range 
safety, flight operations and analysis, communications, tracking, 
telemetry, planning and scheduling, and meteorological systems. Once 
completed, the SLRS modernization program, coupled with the Evolved 
Expendable Launch Vehicle (EELV) program, will meet the future launch 
demands of national security, civil, and commercial payloads.
    In addition, Air Force spacelift ranges are central to supporting 
the Department of Defense's cooperation with the National Aeronautics 
and Space Administration (NASA) in the development of technology, 
operational concepts, and flight demonstration for the next generation 
of reusable launch vehicles. This cooperation also offers the basis for 
the evolution and future development of reliable, rapid, and assured 
access to space for air and space vehicles.
Information Superiority
    Information systems are integral to every mission of the Air Force. 
Success in achieving superiority in this domain requires an effects-
based approach, superior battlespace awareness, well integrated 
planning and execution, and properly trained and equipped information 
operations (IO) organizations. Information superiority means that our 
information systems are free from attack while we have freedom to 
attack an adversary's systems.
    Information is both a critical capability and vulnerability across 
the range of military operations from peace to war. In coordination 
with Joint Forces, the Air Force engages daily in conducting IO 
functions across this spectrum of military operations. We provide 
information superiority to our Air Force commanders and Joint Forces 
CINCs, as well as to friendly multinational forces by conducting 
information operations in the air, space, and information domains.
    Command and Control, Intelligence, Surveillance, and Reconnaissance 
        (C\2\ISR)
    Currently, many military operations are limited in the area of 
C\2\ISR capabilities, which increases the amount of time it takes to 
locate and destroy many targets. While we are aggressively pursuing and 
fielding solutions to streamline this process, some of our current 
C\2\ISR systems, which our forces rely on, are vulnerable to adversary 
manipulation. The challenge still exists to improve our own ability to 
disrupt the C\2\ISR systems of our adversaries. Of further concern to 
our C\2\ISR capabilities is limited radio frequency spectrum 
availability. Spectrum is the medium that supports the mobility, 
dispersion, and high tempo of operations. To meet this critical need 
for spectrum we must develop a strategy aimed at sustaining expanding 
spectrum access as we face evolving national security responsibilities.
    Our operational and tactical command and control airborne platforms 
and ground systems organize and direct efforts to create desired 
effects, whatever their form. Our C\2\ assets include the air and space 
operations center (AOC) with its decentralized component control 
reporting centers (CRC) and Theater Battle Management Core Systems 
(TBMCS); the AWACS; the Joint Surveillance Target Attack Radar System 
(JSTARS); and the Multi-Platform Radar Technology Insertion Program 
(MP-RTIP).
    The other half of C\2\ISR is central to achieving battlespace 
superiority--knowledge. ISR assets gather and processes the data into 
decision-quality information. Currently, our limited numbers of 
airborne ISR systems are in extremely high demand. The RC-135 Rivet 
Joint, U-2, Distributed Common Ground System (DCGS), Predator, and 
Global Hawk UAVs have proven indispensable during OEF and the expanding 
war on terrorism by providing real-time target data, threat warning, 
and battle damage assessment.
    The CRC is the JFACC's ground tactical execution node for C\2\ and 
battle management. It provides wide-area surveillance, theater air 
defense, identification, data link management, and air battle 
execution. The current system was developed in the 1970s and must be 
replaced. The CRC replacement, the Battle Control System, will exceed 
year 2010 requirements for time-critical targeting, open system 
architecture, small deployment footprint, remote operations, multi-
sensor fusion, and AEF responsiveness.
    Air and Space Operations Center (AOC)--The Falconer
    As the primary element of the Theater Air Control System, the AOC 
is responsible for planning, executing, and assessing the full range of 
air and space operations. It is the premier operational system at the 
disposal of the Joint Forces Air Component Commander (JFACC). By fusing 
the data from a vast array of C\2\ and sensor systems, the AOC creates 
a comprehensive awareness of the battlespace so the JFACC can task and 
execute the most complex air and space operations across the entire 
spectrum of conflict.
    Especially significant among these operations is time-critical 
targeting. This is the development of swift reaction to the threat 
within theater battle management. Accomplishing this requires combining 
C\2\, rapid intelligence collection, analysis, and dissemination with 
positive control of airspace and the tasking of combat forces to 
coordinate the entire air battle with joint and coalition partners and 
component commanders. It is the ultimate goal of the targeting 
process--to reduce the F\2\T\2\EA cycle from hours to minutes.
    The Air Force has long understood the need to address 
standardization of command and control of air and space forces. The 
last decade witnessed the AOC as equivalent to a ``pick up game,'' 
requiring on-the-job training and hundreds of individuals working long 
hours to produce an air tasking order. Throughout 2001, we aggressively 
addressed this problem and the Falconer AOC is now on path to becoming 
an efficient weapon system. Our focus will be refining the AOC into a 
standardized weapon system run by operators formally trained in C\2\ 
operations. We must also improve the weapon system's modularity, 
scalability, and interoperability to meet requirements ranging from 
Major Theater War (MTW) to a Humanitarian Relief Operation (HUMRO) or 
Non-combatant Evacuation Operation (NEO).
    If there are adequate resources to develop Advanced Technology AOC, 
we will ``right-size'' the AOC to meet each mission's requirement. The 
system will be interoperable with internal and external U.S. National, 
Allied, Coalition, and Joint Nodes. Utilizing emerging technologies to 
maximize reachback, we will dramatically reduce the footprint of the 
AOC while enhancing JFACC decision processes and timelines, and reduce 
costs. Supporting combat operations during Operations Noble Eagle and 
Enduring Freedom validated our strategic vision for C\2\ systems. We 
will continue to develop the AOC, which sets the standard for new Air 
Force capabilities-programming efforts, and keep it on course to 
revolutionizing the operational level of warfare.
    The ``engine'' of the AOC is the TBMCS. It is an integrated, 
automated C\2\ and decision support tool that offers the senior air and 
space commander and subordinate staffs a single point of access to 
real- or near-real-time information necessary for the execution of 
higher headquarters taskings. TBMCS supports a full range of functions 
including threat assessment, target selection, mission execution, 
battle damage assessment, resource management, time-critical target 
identification and prosecution, and defensive planning. During ONE and 
OEF, TBMCS was rapidly deployed supporting both CENTCOM and NORAD 
operation centers. TBMCS will evolve into an open-ended architecture 
capable of interface with a variety of joint and coalition data buses, 
displays, and links.
    The AWACS remains the premier air battle management and wide-area 
surveillance platform in the world. Still, aging aircraft issues, 
obsolete technologies, and the proliferation of advanced adversary 
systems necessitate several upgrade programs. This year, one third of 
the AWACS fleet completed an improved radar system upgrade, which will 
reach full operational capability in fiscal year 2005. The next 
computer and display upgrade will replace the 1970 vintage processors 
with an open architecture system. Finally, a satellite communications 
access program will provide improved connectivity with regional and 
national C\2\ centers.
    JSTARS provides battle management, C\2\, and ground moving-target 
detection. We will replace the on-board computers with commercial off-
the-shelf equipment by 2005 under the JSTARS Computer Replacement 
Program (CRP). The CRP is the foundation of all JSTARS communications 
and sensor upgrades, and should reduce life cycle costs and minimize 
the number of obsolete parts.
    Another 707-airframe C\2\ISR asset is the RC-135 Rivet Joint--the 
premier aircraft in its class. We continue to modernize the Rivet 
Joint's sensors using an evolutionary, spiral development program. 
Recapitalization and modernization efforts promise to keep the RC-135 
and U-2 viable well into the 21st century. As we look to the future, we 
are examining the growth of the Rivet Joint as part of the Multi-sensor 
Command and Control Constellation. Although the U-2 is not currently in 
production, we continue to modernize the aircraft with updated sensors 
and aircraft modifications to support our ongoing mission needs. 
Advanced imagery sensors will allow the U-2 to collect top-notch data 
for the battlefield commander. Aircraft modifications, such as cockpit, 
defensive, and power system upgrades will ensure U-2 survivability and 
viability. Air Force DCGS continues to provide robust processing and 
reporting of the U-2, Global Hawk, and Predator collected data. System 
modifications/upgrades and increase in capacity will ensure continued 
delivery of timely intelligence to enable time critical target 
prosecution.
    Unmanned Aerial Vehicles (UAVs) provide unmatched access for 
information, surveillance, and reconnaissance missions. Their 
capabilities expand ISR collection coverage while reducing the need to 
place our people in harm's way. We are committed to the production and 
fielding of Global Hawk as the next generation of high altitude 
airborne ISR platform. We have transitioned Global Hawk from an 
Advanced Concept Technology Demonstration (ACTD) program to a formal 
acquisition program. In the spring of 2001, Global Hawk successfully 
completed a deployment to Australia, where it supported maritime 
reconnaissance and achieved a number of UAV aerial firsts, including 
the first trans-Pacific crossing.
    Due to this success, and a high level of confidence in the 
platform, Global Hawk was deployed in support of OEF. The development 
of advanced sensors will enable Global Hawk to support the time 
critical targeting mission more completely. Finally, demand for the 
older Predator UAV remains high. The successful weaponization of 
Predator holds the promise of significantly shortening the time 
critical targeting timeline. Based on the tremendous successes of 
Predator A, testing is underway on an improved version, the larger 
Predator B.
    Air Force weather satellites enable information superiority every 
day during joint operations around the globe. The Defense 
Meteorological Satellite Program (DMSP) constellation provides global 
weather imagery and other environmental data to support mission 
planning. Augmented with civil satellites, joint forces are provided 
timely, accurate pictures of the weather affecting operations. The Air 
Force is modernizing environmental data collection with the new 
National Polar-orbital Operational Environmental Satellite System 
(NPOESS). In conjunction with the Department of Commerce, development 
of the NPOESS will provide the Nation a consolidated system for all 
national weather monitoring needs. NPOESS will cost the DOD 
significantly less than building and fielding a DOD-unique follow-on 
system and will provide enhanced environmental monitoring capability to 
support emerging weapons systems and concepts of operations.
    The Multi-Platform Radar Technology Insertion Program (MP-RTIP) is 
developing a scalable X-band electronically-scanned array (ESA) for use 
on a variety of platforms for air-ground surveillance, including a 
future 767 manned, wide-area surveillance platform, the Global Hawk, 
and potentially a NATO manned platform variant. On the 767 platform 
this array would provide 5 to 10 times the air to ground surveillance 
capability of current JSTARS, reduce target revisit times, improve 
moving-target track capability, and enhance radar resolution. 
Furthermore, MP-RTIP on a 767 is envisaged as the first development 
spiral toward achieving a Multi-sensor Command and Control Aircraft 
(MC\2\A) capability as part of an over-arching and transformational 
Multi-sensor Command and Control Constellation (MC\2\C) to support 
future employment of the task forces addressed later in the text.
    Communication
    Achieving information superiority depends considerably on the 
availability of a robust, worldwide communications capability. 
Communications are critical to the joint fighting forces deployed 
worldwide. We are modernizing Military Satellite Communications 
(MILSATCOM) systems to keep pace with this demand. Inseparable from 
such modernization is Tasking Processing Exploitation and Dissemination 
(TPED). TPED describes how information is transferred among our 
numerous systems and highlights bandwidth as a serious topic. Bandwidth 
is a critical parameter--more is better--defining how much and what 
kind of information we can disseminate. Over the next 10 years, our 
need for reliable, redundant, and secure communications is expected to 
increase 15 to 20 times beyond the current capacity. The MILSATCOM 
systems in use today simply cannot meet that demand and supply CINCs 
with sufficient protected coverage to adequately support the 
warfighter. Further, in an environment of extremely high worldwide 
demand and competition, commercial providers cannot be leveraged for 
they lack the protected bandwidth, security, and coverage necessary to 
fully support military operations.
    Despite shortcomings, the MILSATCOM system is making significant 
contributions to current, daily operations. The scope and speed of 
joint operations, including OEF, simply would not be possible without 
MILSATCOM systems, notably the Defense Satellite Communications System 
(DSCS) and the Military Strategic and Tactical Relay System (Milstar). 
In fiscal year 2001, we successfully launched one DSCS and one Milstar 
satellite. Additionally, a complete modernization of satellite 
communications is underway. Wideband Gapfiller Satellites (WGS) are 
low-cost, high bandwidth communications satellites intended to greatly 
increase the on-orbit bandwidth available to the warfighter. WGS 
satellites will help bridge the requirements gap until the Advanced 
Wideband System (AWS) is brought on-line. Similarly, the Milstar 
constellation is planned for replacement beginning in 2006 by the new 
Advanced Extremely High Frequency (AEHF) satellites. The Air Force 
awarded a System Development and Demonstration contract in November 
2001 to design the AEHF satellite system.
    To leverage the full capability of our new technologies, we are 
combining our efforts with the other services to form the joint Global 
Information Grid (GIG)--a globally interconnected, end-to-end set of 
information capabilities and associated processes that allow 
warfighters, policymakers, and support personnel to access information 
on demand. Currently as the AEF deploys to support combat operations, 
it connects to the global information grid via the Theater Deployable 
Communications (TDC) package. This package is replacing legacy 
deployable AF communications equipment with scalable, lightweight, and 
reliable transmission, networking, and network management equipment. 
TDC allows timely reachback to the U.S. for intelligence, logistics, 
and people support that otherwise would have to deploy forward. During 
OEF operations, we successfully deployed TDC to support combat 
operations, demonstrating that TDC is the capability needed to support 
AEF communication requirements.
    Contributing to the GIG, the AF is building an enterprise 
architecture ensuring our diverse projects and initiatives are closely 
integrated to deliver maximum capability to the warfighter. In support 
of the enterprise architecture, the AF ``infostructure'' architecture 
facilitates system integration by providing timely and cost effective 
communications and information technology capabilities. The AF 
infostructure leverages commercial and government developed 
technologies and ensures these technologies are controlled and 
integrated.
    To provide our people better access to information and applications 
needed for their specific missions, we have fielded additional 
capabilities through the Air Force Portal. The Air Force Portal is 
envisioned as the single access point for practically all our 
information needs. Leveraging commercial successes in web-enabled 
information technology and communications, our members now have access 
to the Air Force Portal almost anywhere in the world.
    Information Warfare (IW)
    Multi-faceted information warfare planning and execution is another 
challenge of information superiority. In the effort to create specific 
effects to accomplish campaign objectives, the Air Force closely 
coordinates IO plans between and among supported and supporting 
commands to prevent redundancy, mission degradation, or fratricide. The 
numerous organizations participating in these coordination efforts 
include representatives from the COMAFFOR for Computer Network 
Operations and the Air Intelligence Agency, to IO squadrons and IW 
flights. To enhance the effectiveness of these organizations, we 
specifically designed tools for the IW planning and testing efforts. In 
an effort to normalize IO as a warfighting asset, we integrated AIA 
into the Air Combat Command, the IW lead for the Combat Air Forces. 
They directly support the Joint Force Commander through the JFACC/
COMAFFOR.
    We continue to make every effort to define requirements and layout 
a viable long-term strategy/roadmap to provide IW capability to the 
warfighter. The IW MAP has become a leading edge planning tool for the 
Air Force in this arena. Its expressed purpose is to: (1) define, 
document, and advocate Air Force IW requirements; (2) integrate those 
requirements into the Air Force Capabilities Investment Strategy; (3) 
identify solutions meeting validated IW needs; and (4) provide IW 
Mission Area expertise to the warfighter and to the Air Force corporate 
process. Subsequently, the MAP helps to focus disjointed efforts, 
reduces duplication, promotes integration among architectures, and 
enhances operations.
    Information Assurance (IA)
    The Air Force maintained a robust IA capability through a ``Defense 
in Depth'' strategy that integrated people, operations, and technology 
for multi-layered, multi-dimensional protection. People were trained to 
do the IA mission and protect the network. We changed policies and 
procedures to ensure IA operations are effective and efficient. We also 
implemented Finally, technological advances to provide physical 
protection to our information weapon system. Consequently our IA 
posture has never been better.
    Training initiatives included a year long IA Campaign that focused 
our attention on such corporate issues as IA roles and 
responsibilities, network threats and countermeasures, computer network 
defense, and EAF web security which significantly improved our 
collective IA knowledge and capability. We also continued our emphasis 
on individual certification for network operators and maintainers 
through the development of a Job Qualification Standard toward mission-
ready, deployable people.
    Addressing procedures, we implemented a Time Compliance Network 
Order (TCNO) process. TCNO allows senior leadership to track and ensure 
completion of critically important computer security configuration 
changes. This resulted in a ten-fold reduction of network infections 
attributed to malicious code attacks from 2000 to 2001. Another 
important operational initiative is the deployment of Scope Network 
teams to our installations to fine-tune base-level networks. Scope 
Network's mission is to optimize and tune networks and firewalls and 
ensure their proper configuration. They deploy throughout the year to 
measure, analyze, train, and mentor at the base level.
    Finally, our primary IA technology initiative is a layered 
equipment suite to discourage hackers and filter viruses as well as 
provide tools to identify vulnerabilities like the Combat Information 
Transport System (CITS), and the Network Management System/Base 
Information Protection (NMS/BIP). These systems provide a standard tool 
suite to each Air Force installation.
    The requirements for global-level detection and early warning of 
natural disasters, conventional military or chemical, biological, 
radiological, nuclear and high-yield explosive (CBRNE) aggression 
remain as critical as ever. At the same time, September 11 introduced a 
new category of threat that will challenge the ability of America's 
C\4\ISR networks to cope with strategic-level surprise, fait accompli 
or limited objectives strategies, among others. Information 
superiority, the mastery of prediction, assessment and employment of 
data, is arguably our Nation's most pressing challenge.
Global Attack
    Global Attack is the ability to create desired effects within hours 
of tasking, anywhere on the globe, including locations deep within an 
adversary's territory. It also includes the ability to retarget quickly 
against objectives anywhere, anytime, for as long as required.
    Among Air Force programs supporting these capabilities is our 
bomber fleet. Our B-1, B-2, and B-52 bombers provide a global rapid 
response, precision and standoff strike capability, 24/7 battlespace 
persistence, and a level of time-critical targeting (TCT) capability. 
The new transformation era reinforces and re-emphasizes our ongoing 
basic bomber modernization plan--increase lethality, survivability, 
flexibility, supportability, and responsiveness.
    All three platforms now carry the highly accurate 2000-pound Joint 
Direct Attack Munition (JDAM), and are all being fitted to carry new 
standoff precision guided weapons. In addition, future integration 
programs will see the inclusion of smaller precision weapons. To 
improve their survivability, bombers are receiving a range of upgrades 
to include defensive system, situational awareness and electronic 
countermeasure upgrades. To enable attack of time-critical targets, the 
Air Force is upgrading bomber avionics and communication systems and 
linking them directly with remote sensor and targeting systems.
    To enhance our ability to kick down the door in remote theaters and 
clear the way for follow-on forces, the Air Force is planning for a mix 
of new generation manned and unmanned, air superiority and ground 
attack aircraft. However, until the F-22, Joint Strike Fighter (JSF), 
and Unmanned Combat Aerial Vehicle (UCAV) become an operational part of 
our inventory, we will continue to rely heavily on our legacy 
fighters--the F-15, F-16, F-117, and A-10--to provide a potent mix of 
air-to-air and air-to-surface capability. These platforms are all 
programmed to receive upgraded voice and data communication systems 
linking them to a joint command and control net. Programmed 
improvements to avionics and situational awareness systems will allow 
for better all-weather/night operations, combat identification and 
response to time-critical and moving targets.
    F-15E modernization incorporates robust data-link capability and 
integration of smart weapons to ensure all-weather, deep strike 
lethality. The recent addition of Global Positioning System (GPS)-
guided, precision guided munitions (PGMs) on the F-117 give it an 
adverse-weather capability. However, these aging platforms are growing 
more expensive to maintain and operate, and their combat effectiveness 
is expected to eventually decline as projected surface-to-air and air-
to-air threats with greater capabilities emerge. The introduction of 
the stealthy F-22 and JSF will maintain America's technological 
advantage and ensure our ability to defeat next-generation threats 
while replacing our aging force structure with leap-ahead capabilities.
    One of our Guard and Reserve's top modernization priorities is 
incorporating precision targeting pods into their F-16 aircraft. From 
1998 through 2000, we outfitted all our Reserve units and selected 
Guard units with LITENING II pods. This acquisition gave Guard and 
Reserve F-16s a critical precision strike capability while configuring 
these units with the system capabilities of the active F-16 force. 
Additionally, the Guard will join the Active Force in procuring 
Advanced Targeting Pod (ATP) for an initial operating capability in 
2003.
    Two critical F-16 programs, the Combat Upgrade Integration Details 
(CUPID) and the Common Configuration Implementation Program (CCIP), 
will bring decisive combat capability (night vision, helmet-mounted 
cueing, and data links) to our F-16 fleet. Additionally, the Falcon 
Structural Augmentation Roadmap (STAR) will ensure the F-16 fleet is 
structurally sound to perform its mission through its designed service 
life. Collaborative programs between our Active and Reserve components 
increase our overall procurement flexibility and close the gap in 
combat capability.
    Intercontinental Ballistic Missiles (ICBM)
    The recent DOD Nuclear Posture Review (NPR) announced a transition 
from the Cold War nuclear triad to a new capabilities-based triad in 
response to the more complex, evolving security environment. Consistent 
with NPR direction, the Air Force is providing for long-term 
sustainment of ICBM capabilities. Minuteman III (MMIII) ICBMs will be 
deployed through 2020 and supported by on-going life extension 
programs. We will begin to look at alternatives for a follow-on ICBM to 
be fielded as MMIII reaches the end of its service life. Peacekeeper 
(PK) ICBMs will be retired beginning in calendar year 2002. As the PK 
system is deactivated the Air Force intends to transfer some warheads 
currently on PK to the MMIII, thereby avoiding a costly life extension 
program on certain MMIII warheads. This replacement effort will ensure 
that the newest warhead with all modern safety features remains a part 
of the ICBM force, an essential nuclear strike element in the Nation's 
capabilities-based triad.
Precision Engagement
    Our current operations emphasize the powerful advantage of being 
able to create precise effects rapidly. The Air Force offers tremendous 
capabilities to meet this national requirement from pinpoint 
humanitarian responses to precise weaponry. Precision is fundamental to 
all of our operations and, in particular, to transformational combat 
operating concepts. Along with information superiority and stealth, 
precision engagement enables our forces to identify an adversary's key 
centers of gravity and relay that information to strike assets, thus 
reducing risks by avoiding unnecessary engagements (a concept generally 
referred to as ``parallel warfare''). Enhancing precision engagement 
will allow us to accomplish this cycle in near real-time. This would 
allow us to maximize the leverage gained from the fluid interaction of 
joint forces in more effective prosecution of operations
    We have made significant progress in our efforts to develop and 
field a new generation of weapons that can attack and destroy pin-
point, hardened, and relocatable targets at night and in most weather 
conditions while greatly reducing the risk. By rapidly adapting new 
technology employed under actual combat conditions in Operations Allied 
Force and Enduring Freedom, we now have an array of precision weapons 
that can be employed from nearly all of our combat aircraft. Our high 
priority precision engagement programs now include the Joint Air-to-
Surface Standoff Missile (JASSM), Joint Standoff Weapon (JSOW), JDAM, 
Wind Corrected Munitions Dispenser (WCMD), and eventually the Small 
Diameter Bomb (SDB).
    JASSM is a precise, stealthy, cruise missile that will enable us to 
destroy heavily defended, hardened, fixed, and relocatable targets from 
outside of area defenses. JASSM program recently entered low rate 
initial production and will be delivered to the field in 2003.
    JSOW is an accurate, adverse-weather, unpowered, glide munition. We 
are currently procuring two variants, the AGM-154A and AGM-154B, which 
are capable of destroying soft and armored targets at ranges exceeding 
40 nautical miles.
    JDAM employs GPS-aided guidance, incorporated in a tail kit, to 
deliver general-purpose bombs or penetration warheads with near-
precision accuracy. We will use JDAM in all weather conditions from 
multiple platforms to destroy high-priority, fixed, and relocatable 
targets. The first operational use of a 2,000-pound JDAM was from a B-2 
during Operation Allied Force, and JDAM has been used extensively 
during OEF. The F-22 will employ the 1,000-pound JDAM against anti-
access and air defense systems. Using the 500-pound JDAM currently in 
development, the B-2 that carries up to 16 2,000-pound JDAMs in OAF, 
would be able to carry up to 80 500-pound JDAMs in future conflicts. 
This will provide the first step in the Air Force's transition to 
miniature munitions. Succeeding steps include the Small Diameter 
Munition (SDM). SDM, under development for the F-22, will offer 
standoff capabilities against the most difficult surface-to-air 
threats. The F-22 will carry up to eight SDMs internally.
    WCMD has an inertial-guided tail kit that enables us to accurately 
deliver the Combined Effects Munition, Sensor Fuzed Weapon, and the 
Gator Mine Dispenser from medium to high altitude in adverse weather. 
WCMD became operational in late 2000 and has been successfully employed 
in OEF from the B-52.
    Key to precision engagement is the GPS navigation signal used by 
sensors and shooters to assist in targeting the enemy with pinpoint 
accuracy. Successful joint operations rely on the GPS signal: search 
and rescue, rendezvous, and mapping are only a few examples. Rigorous 
upgrades to both satellites and warfighter equipment are currently in 
work to protect the ability of American and allied forces to employ the 
GPS signal on the battlefield and deny it to our adversaries while 
preserving civil use.
    Precision capabilities allow the United States to engage in 
operations with dramatically reduced risk to friendly forces, 
significantly less costs in men and materiel, and with greater 
likelihood of success. The strike side of precision engagement enables 
us to employ one weapon per target to destroy it with minimal 
collateral damage and greatly increase the number of targets that can 
be struck per sortie.
    The benefits are exponential. By minimizing the number of sorties 
required to strike a target, we shrink the forward footprint necessary 
and minimize the number of airmen, soldiers, and sailors in harm's way. 
Indeed over the last decade, the Nation has faced numerous engagements 
wherein precision has proven the method for success. From the Balkans 
to Kabul, combatant commanders have required precision capability, not 
large-scale conventional operations. However, this demand has 
dramatically reduced our large Cold War reserve munitions stockpiles. 
As current operations continue to tax existing PGM inventories, the Air 
Force is working to expand the capacity of our industrial base to fill 
preferred munitions requirements. This strategic effort, along with our 
continued acquisition of JDAM, JASSM, JSOW, and WCMD, will increase PGM 
capabilities over the next several years. The changing nature of 
warfare with its emphasis on precision engagement, necessitates that 
munitions recapitalization and development of transformational small 
weapons will remain among our top priorities.
    Precision strike, however, is more than simply very accurate 
munitions. It is also the ability to generate precise effects other 
than destruction. For that reason we also invest in various non-lethal 
weapons, offensive information warfare capabilities, and directed 
energy weapons that enable the U.S. military to affect targets without 
having to destroy them. This enables effects-based operations that 
match precise capabilities to desired effects--the ultimate in 
deterrence.
Rapid Global Mobility
    Rapid global mobility ensures the Nation has the global reach to 
respond quickly and decisively anywhere in the world. As the number of 
forces stationed outside the United States has declined, the need for 
an immediate response to overseas events has risen. Given that access 
to forward bases will remain critical and become increasingly risky, 
the rapid deployment and agile sustainment of expeditionary air and 
space forces will be key to our ability to operate across the spectrum 
of conflict.
    Airlift and tanker aircraft give the United States the ability to 
swiftly reach out and influence events around the world. OEF and ONE 
have, again, shown the utility of rapid global mobility. We have also 
witnessed the potential need to provide critical tactical lift 
capability for immediate response at home. However, even with the 
success of these ongoing operations, the Air Force desperately needs to 
continue airlift and tanker modernization efforts to ensure the U.S. 
maintains its ability to operate globally. As part of our on-going 
effort to assess our airlift requirements in light of current and 
anticipated needs, Air Mobility Command is undergoing a comprehensive 
review of our air mobility force structure.
    Global Air Traffic Management (GATM)
    In addition to aging aircraft problems, the Air Force mobility 
fleet must also respond to the added requirements of a new air traffic 
architecture. GATM focuses on increasing system capacity and flight 
efficiency, while continuing to meet flight safety standards. The most 
critical technology elements are satellite-based navigation, increased 
use of data links rather than voice for pilot/controller communication, 
and improved surveillance that will enhance both ground and cockpit 
situational awareness. Incorporation of these technologies will ensure 
our mobility fleet maintains unrestricted access to global airspace.
    An essential means to ensure the AF's ability to support its 54.5 
million-ton miles per day airlift requirement is through the 
procurement of additional C-17s. The AF has identified a need for at 
least 180 C-17s, and will award a follow-on multiyear procurement 
contract to reach that number. A mobility tiger team with Active, 
Reserve, and Guard representation will continue to study beddown plans 
for these additional aircraft.
    The average age of our KC-135 tankers is now over 41 years, and 
operations and support costs are escalating as structural fatigue, 
corrosion, systems supportability, and technical obsolescence continue 
to take their toll. To keep these aging aircraft operational, we are 
modernizing the avionics and navigation systems on all Active, Guard, 
and Reserve KC-135s. Called Pacer CRAG (compass, radar, and global 
positioning system), the project provides for a major overhaul of the 
cockpit to improve the reliability and maintainability of the 
aircraft's compass and radar systems. The project also meets the 
congressionally-mandated requirement to install the global positioning 
system in all Defense Department aircraft. As an added safety measure 
for formation flying, a traffic collision avoidance system (TCAS) will 
be installed. TCAS gives pilots the ability to actively monitor other 
aircraft and provides advance warning of potential mid-air collisions.
    The ongoing war on terrorism is further stretching the tanker 
fleet, motivating the Air Force to consider accelerating replacement 
options. The Boeing 767 Global Tanker Transport Aircraft (GTTA) is a 
promising alternative to quickly replace the KC-135E, our least capable 
and most costly to maintain tanker aircraft. While considering this and 
other lease options, the Air Force is focused on acquiring the world's 
newest and most capable tanker; increasing fuel offload, increasing 
availability, and increasing reliability--all with far lower support 
cost
    The Air Force is pursuing a two-phased modernization plan for the 
C-5 fleet. Phase I is the Avionics Modernization Program (AMP) and 
Phase II is the Reliability Enhancement and Re-engining Program (RERP). 
C-5 AMP replaces unreliable/unsupportable engine/flight instruments and 
flight system components, installing GATM equipment to assure complete 
access to global airspace and installing navigation/safety equipment to 
reduce risk of mid-air and ground collisions (i.e. TCAS). C-5 RERP 
improves aircraft reliability, maintainability, and availability by 
replacing the power plant and other unreliable systems. Several C-5 
aircraft will undergo multiyear testing to evaluate the potential for 
modernizing this aging, but important mobility asset. The results of 
that evaluation will determine the need for additional C-17 
acquisitions or other alternative.
    Modernization of the C-130 fleet is proceeding with a two-pronged 
approach to maintain an intra-theater airlift capability well into the 
21st century. Procuring 168 new C-130Js to replace our oldest C-130s 
and modifying the remaining fleet will reduce total ownership costs and 
simplify maintenance, training, and operational employment. New C-130Js 
will replace 8 EC-130Es and 150 of our most worn-out C-130E combat 
delivery aircraft. In addition, 10 C-130Js will replace the Reserve's 
10 WC-130H aircraft at Keesler Air Force Base, MS. These aircraft and 
crews are specially trained and equipped to penetrate severe storms 
while collecting and transmitting extensive meteorological data 
necessary to track and forecast the movement of these severe storms to 
a special ground station. C-130Js will also replace the Air National 
Guard's aging Commando Solo platform, as well as complete other Guard 
units. The remainder of the AF's C/AC/EC/HC/LC/MC-130 fleet will 
undergo an Avionics Modernization Program (C-130 AMP). This will 
include state-of-the-art avionics and a new ``glass'' cockpit that will 
eliminate the need for a navigator in the combat delivery aircraft. 
Along with increased reliability, this modernization will make the 
fleet compliant with the GATM and the DOD's navigational safety 
requirements.
    Rapid global mobility is also dependent upon expeditious airfield 
support. Moving aircraft tails in-and-out of a field quickly can 
determine success or failure of an operation. The Air Force is 
procuring the Tunner (60K) and Halvorsen (formerly next generation 
small loader or NGSL) loaders to replace older equipment, providing a 
new capability to interface directly with all military and commercial 
cargo aircraft. The Tunner is optimized for high volume to support 
operations at major aerial ports while the Halvorsen is C-130 
deployable to support mobility operations at forward, austere bases.
    Large Aircraft Infrared Countermeasures (LAIRCM)
    The Air Force has begun a new self-protection initiative to counter 
man-portable air defense systems (MANPADS). LAIRCM will use state-of-
the-art technology to provide an active IR defense for the AF's airlift 
and tanker aircraft. LAIRCM builds on existing systems designed to 
defend helicopters and small, fixed-wing aircraft. It will add a laser, 
which provides the increased power needed to protect aircraft with 
large IR signatures like the C-17 and the KC-135. Operational 
capability is expected on the first C-17s in late fiscal year 2004. 
Additional airlift and tanker aircraft will be LAIRCM-modified in the 
future.
    CV-22
    The CV-22 is the Air Force designation for the special operations 
variant of the V-22 Osprey--a vertical takeoff and landing airplane 
designed for long range, rapid, clandestine penetration of denied areas 
in low visibility, adverse weather, and/or at night. With twice the 
range and speed of a conventional helicopter and state-of-the-art 
avionics system, the CV-22 will be able to complete most of its 
missions under the cover of darkness without being detected. We will 
use the CV-22 to infiltrate, exfiltrate, and resupply Special 
Operations Forces (SOF) and to augment personnel recovery forces when 
needed. Currently, the entire V-22 program is undergoing a major 
restructuring that will address technical and safety concerns. Flight 
tests of the two CV-22 test vehicles, suspended through 2001, will 
resume in 2002 and continue through 2005.
    VIP Special Air Mission/Operational Support Airlift (VIPSAM/OSA)
    The Air Force continues to modernize the VIPSAM/OSA fleets to 
provide senior leaders with improved capabilities to respond to 
national crises. Aging CINC support aircraft are being replaced with 
modern commercial aircraft with intercontinental range and robust 
communications (leased Gulfstream Vs, designated the C-37, and Boeing 
737-700 designated the C-40B). This innovative strategy to leverage the 
commercial aircraft industry should be completed by fall 2002. The 
President's VC-25s will receive major upgrades to the passenger cabin 
infrastructure. Additionally, major upgrades to the communications 
suite will provide airborne capabilities comparable to that of his 
White House office. The four C-32s (Boeing 757s) will also receive 
advanced ``office-in-the-sky'' upgrades to include broadband data and 
direct broadcast service. As funds become available, remaining VIPSAM 
aircraft will be evaluated for similar upgrades.
Agile Combat Support (ACS)
    Responsiveness, deployability, and sustainability--the cornerstones 
of American expeditionary operations--are the mandate of agile combat 
support. The basic objectives established set to achieve these goals 
remain intact. The Air Force established set objectives to elevate the 
capabilities of the ACS elements by developing lighter, leaner, and 
more rapidly deployable forces; creating more responsive planning and 
execution capability; executing improved agile combat support command 
and control; and assuring an agile, responsive, and survivable 
sustainment capability.
    While progress has been made toward achieving these objectives, 
much of the deployment strain in support of OEF has fallen on our 
expeditionary combat support forces. Some high-demand support areas 
have exceeded their on-call capabilities in current AEF rotation 
cycles, as a result of our surge mode activities, which are likely to 
continue for some time. Consequently, we are continuing to make gains 
in right-sizing deployment teams so they are postured efficiently and 
effectively for expeditionary needs. We are placing high emphasis on 
the development of expeditionary site planning tools that provide the 
means to tailor our deployment capability based on assets pre-
positioned in the theater.
    Reconstituting our current bare base systems and wartime stocks, as 
well as developing and acquiring bare base assets and other types of 
support equipment that are ``lighter and leaner'' and more rapidly 
deployable are also integral to achieve force responsiveness. Essential 
investments in infrastructure and pre-positioning are mandatory 
ingredients of improved reception and beddown capabilities at our 
fighter and bomber forward operating locations (FOLs).
    The fielding of the Integrated Deployment System at all of our AF 
Wings has improved the responsiveness of our Wing deployment process. 
Our information technologies must continue to mature with expansion of 
such capabilities as the virtual logistics suite hosted on the Air 
Force Portal. These essential components provide real-time situational 
awareness for ACS command and control that leverages logistics and 
combat support across simultaneous operations in multiple theaters that 
now include the CONUS. The CSAF's Logistics Review (CLR) and ongoing 
logistics transformation are reengineering our logistics processes to 
achieve an agile, effective, well integrated logistics chain that is 
responsive to AEF requirements.
    Whether forward deployed in AEF operations or completing homeland 
security missions, we must be prepared to operate under any conditions. 
Protecting critical bases of operations and defeating CBRNE weapons and 
their means of delivery is one of the most complex challenges facing 
the DOD. Our balanced response to the proliferation of these weapons, 
integrates the four pillars of counterproliferation--proliferation 
prevention, counterforce capabilities, and active and passive defense 
measures.
    Our counter-NBC operational readiness initiative sets Air Force-
wide standards for readiness, identifies shortfalls, and develops 
capabilities to effectively cope with CBRNE attacks. This initiative 
includes a counter-NBC roadmap and an enhanced counter-chemical warfare 
CONOPS. The roadmap is an innovative investment strategy that cuts 
across Air Force plans and programs to increase counter-NBC visibility, 
while offering enhancements for effective air and space operations in 
NBC environments.
    Regardless of contamination, combat, or humanitarian settings, the 
medical service plays an important role in agile combat support. 
Through training initiatives and innovation in field systems this year, 
AFMS has raised the bar on its capabilities. The results of these 
efforts are the addition of state-of-the-art equipment and training 
facilities which guarantee AFMS' ability to respond effectively when 
the Nation calls.
    One example is EMEDS, which is a lightweight modular medical system 
that allows the AFMS to tailor its response to each situation. Another 
revolutionary disaster response system is the Lightweight 
Epidemiological Advanced Detection and Emergency Response System 
(LEADERS), designed to enhance the current medical surveillance process 
and provide the earliest possible detection of covert biological 
warfare incidents or significant outbreaks of disease. The Air Force 
will continue to work with its civilian counterparts to develop and 
fine-tune this technology over the coming year.
    Along with developing relevant facilities and equipment, the AFMS 
is expanding its training capabilities through the development of the 
Coalition Sustainment of Trauma and Readiness Skills (CSTARS) program. 
CSTARS creates learning opportunities in which civilian academic 
centers serve as training platforms to provide clinical experience to 
help sustain necessary readiness skills for AFMS providers. The CSTARS 
arrangement allows for synergistic relationships between academic 
medical centers and military medical assets, while simultaneously 
improving wartime readiness and homeland security capability. Finally, 
AFMS training also extends to allied and friendly nations. The 
Institute of Global Health (IGH), located at Brooks AFB, Texas, is a 
worldwide educational program for medical providers to develop and 
improve their medical response skills. Programs are tailored to the 
host nation's infrastructure and resources and are taught on-site.
    This cross-section of examples of initiatives that will help 
achieve the four ACS objectives are producing meaningful results. There 
is, however, more to be done to better prepare our ACS capability for 
supporting the EAF vision. For example, we need to fill readiness 
shortfalls in key logistics resources strained by expanded operations 
including people, skills, spares, munitions, bare base assets, 
vehicles, etc. We need to improve our capability to rapidly develop 
deployment and sustainment plans for fast-breaking contingencies. 
Enhancements need to be made to our ACS command and control capability 
to make it more responsive, better integrated, and sufficiently robust 
to support AEF needs worldwide. Finally, modernization of equipment and 
the tools essential to complement skilled personnel require investments 
in R&D in science and technology initiatives that will help reduce our 
``footprint'' while improving our ACS capability.
Additional Readiness Concerns
    Facilities and Infrastructure
    Air Force installations and facilities that are available when and 
where needed, and with the right capabilities, form the foundation 
supporting current and future operational requirements and readiness. 
Our installations and facilities are the platforms from which we launch 
and recover Air Force and joint weapon systems while simultaneously 
providing work and living environments for personnel and their 
families. For example, bases like Whiteman AFB, Missouri and Ramstein 
AB, Germany, are important nodes in the global network that sustains 
OEF operations while also sustaining thousands of airmen, dependents, 
and their communities.
    Regular and planned upgrades are an essential part of keeping a 
healthy infrastructure upon which to build and sustain air and space 
capabilities. In fiscal year 2002, operations and maintenance (O&M) 
sustainment funding precluded fully maintaining Air Force facilities 
and infrastructure and will increase the backlog of necessary repairs. 
In the near term, the Air Force facilities recapitalization rate falls 
short of DOD's 67-year facilities recapitalization goal. In fiscal year 
2002, our military construction (MILCON) and O&M restoration and 
modernization accounts allowed us to achieve a recapitalization rate of 
163 years. With congressional assistance, we were able to reduce our 
fiscal year 2002 rate to 118 years.
    In the fiscal year 2003-2007 Adjusted Program Objective Memorandum 
we were able to fully fund O&M sustainment across the FYDP and achieve 
a restoration and modernization recapitalization rate trajectory that 
will meet the OSD's 67-year goal by 2010. This track must be 
maintained. Sustaining and modernizing our facilities and 
infrastructure will ensure we have the right facilities at the right 
time and place to support military readiness.
    Vehicle Replacement Program
    The Air Force vehicle fleet is in serious need of recapitalization. 
Underfunding of the program during the past decade has created a 
backlog of more than 41,000 general and special purpose vehicles that 
have exceeded their life expectancy. This backlog represents half of 
the entire Active, Guard, and Reserve vehicle fleets. The backlog 
continues to grow each year, despite efforts to lease vehicles and 
extend vehicle life expectancies through enhanced technology. Current 
funding is below the annual requirement. On-going operations have 
created a need for 879 additional leased and procured vehicles valued 
at $42.4 million to support the mission. Failure to replace aging 
vehicles has a direct impact on of readiness and ultimately our combat 
capability.
    Realignments and Closures
    Reductions in Air Force manpower and force structure continue to 
outpace those in infrastructure. As a result, the Air Force continues 
to fund unneeded facilities while struggling to maintain its vital 
operational readiness. Our physical plant today is too costly, and we 
have too much of it. Excess infrastructure continues to waste precious 
dollars that could be better used for force modernization and quality 
of life. The Air Force needs to close unneeded installations and direct 
the savings into readiness areas: base operating support, real-property 
maintenance, family housing, and military construction at crucial 
operational bases. The Air Force will comply with the Secretary of 
Defense's guidance for conducting the Base Realignment and Closure 
(BRAC) process in 2005, as authorized in the 2002 National Defense 
Authorization Act.
    Environmental Leadership
    The Air Force continues to be a leader in the stewardship of our 
environment through compliance, pollution prevention, resource 
conservation, and environmental restoration. We have achieved the 
Defense Planning Guidance goal for 2002 for the environmental 
restoration program, to have cleanup remedies in place for 50 percent 
of our active installations high-risk sites. The next goal is to have 
remedies in place for 100 percent of the high-risk sites by the end of 
2007. We are on track to achieve that goal, as well as having remedies 
in place for all medium risk sites by the end of 2011 and all low-risk 
sites by the end of 2014.
    The Air Force has a tremendous range of flexible, rapidly 
responsive capabilities--the skill sets that allow us to meet any 
mission requirement. Constant improvement will require innovation, 
creativity, and re-assessment, but also the funding support to 
recapitalize critical components.
Towards Developing Systems
    Experimentation and Wargames
    We conduct experiments and wargames to evaluate near- and far-term 
air and space capabilities and operational concepts. Joint 
Expeditionary Forces Experiment (JEFX) is the Air Force's large-scale 
experiment, which is fully integrated with Joint Forces Command's 
Millennium Challenge series of experiments. It is a live and 
constructive event focused on improving time critical targeting; 
command and control of intelligence, surveillance, and reconnaissance; 
and alliance participation in an open-floor Combined Air and Space 
Operations Center. The Global Engagement (GE) wargame is held every 
other year to explore the potential capabilities of joint air and space 
power and future concepts 10 to 15 years into the future. GE-V 
demonstrated air and space power's unique capability to ensure access 
to operational areas where the enemy employs robust anti-access 
strategies. In August 2001, we completed a year of post-game analysis 
from GE-V. This analysis showed the Air Force is on the right vector 
toward the future in the area of force capabilities and is making great 
strides in addressing time critical targeting requirements. GE-V also 
provided substantive recommendations for improvements in space control, 
information operations, and forward logistic support.
    Planning is underway for the next Global Engagement (GE-VI), 
scheduled for November 2002. This game will explore mid-term joint/
combined operational concepts, such as rapidly dominating the 
battlespace and setting conditions for transitioning to sustained joint 
operations.
    During odd-numbered years, we conduct the Air Force Future 
Capabilities wargame that takes a longer view, striving to shape our 
strategic vision by testing alternative concepts, systems, and force 
structures that may appear 20 to 25 years into the future. These 
wargames have produced new air and space concepts, such as long-range 
standoff warfare, reach-forward C\2\ capability, space force 
application, and the link between C\2\, ISR, and target engagement, 
which continue to mature through follow-up analysis and subsequent 
wargames. We have just concluded the 2001 Futures Game that focused on 
defining C\2\ and ISR for the 2020 air and space campaign; overcoming 
anti-access strategies; survivability of space capabilities; future 
transformational capabilities; computer network operations; and 
conducting future joint/coalition operations. Insights from this game 
will be developed, analyzed and investigated further throughout 2002.
    Advanced Concept Technology Demonstrations (ACTDs)
    ACTDs marry new operational concepts with mature technologies 
meeting warfighter needs in 2 to 4 years at a reduced cost. The Air 
Force currently has 21 ongoing ACTDs. An example is the Hyperspectral 
Collection and Analysis System ACTD that will demonstrate various 
hyperspectral sensors on operational platforms and integrate them into 
the existing tasking, processing, exploitation, and dissemination 
architecture. Another example is the Thermobaric Weapon ACTD, which 
provides an energetic thermobaric penetrator payload to defeat enemy 
tunnel facilities and weapons with two to three times the lethality of 
conventional high explosive payloads.
    Battlelabs
    Since their inception in 1997, Air Force battlelabs have developed 
over 120 initiatives, including the application of commercial 
scheduling software for the Air Force Satellite Control Network, 
telecommunications firewalls for base phone systems, and the use of 
speech recognition to reduce mission planning time. The recently 
commissioned Air Mobility Battlelab, with a charter to rapidly identify 
and assess innovative operational and logistics concepts, joined the 
ranks of the Air and Space Expeditionary Force, Command and Control, 
Force Protection, Information Warfare, Space, and Unmanned Aerial 
Vehicle Battlelabs.
Enhancing Fundamental Practices
    Agile Acquisition
    The Air Force launched agile acquisition to streamline and 
synchronize the business of defining, funding, developing, acquiring, 
testing, and sustaining the weapon systems our Air Force uses to defend 
America's freedom. The goal is simple: Field today's technology today. 
While we've had many individual successes in the past, individual 
successes do not translate into fundamental reform. We must get to the 
point where doing things smartly is not news. Agile acquisition is the 
strategy to achieve systemic improvement.
    As a strategy, agile acquisition has three major thrusts: First, we 
will relentlessly attack our own processes and get rid of those steps 
that are not value added. Second, we are going to free our leaders to 
lead and demand that they take the initiative. We are going to train 
them to be innovative and think creatively, provide periodic refresher 
training, and then hold them accountable for being agents of change. 
Finally, we're going to offer a lot of help through our new Acquisition 
Center of Excellence, which opened for business on December 2001.
    The acquisition reform of Lightning Bolts 2002 gives us the tools 
to make those changes. They will focus our acquisition efforts and, at 
the same time, reinforce our other initiatives to transform and improve 
the services and products we provide. The Lightning Bolts will also 
reinforce and complement the headquarters reorganization announced in 
December 2001 by the Secretary and Chief of Staff. In addition, the AF 
is an active member of DOD's Rapid Improvement Team, chartered to 
streamline the Information Technology system acquisition process to 
less than 18 months. Towards that end, we are leading prototype 
programs aimed at eliminating serial and redundant oversight processes, 
expanding participation by interested parties, and sharing 
accountability from program inception. Achieving agile acquisition is 
not a luxury; it is a requisite for success. We must provide absolutely 
the best and newest capabilities to our fighters in the shortest time 
possible. Our acquisition processes, too often seen as a roadblock to 
real progress, must become as agile as our warfighters.
    Another key aspect of acquisition reform involves bringing the 
warfighter into the process early on. This is an essential element of 
our capabilities-based concept of operations which is discussed in a 
later section.
    Long Term Depot Maintenance Plan
    Depot maintenance is another critical element of our overall 
warfighting capability. The current depot posture has been influenced 
by the downsizing of our operational force; the reduction of our 
organic infrastructure; the introduction of new technologies; and 
recent depot legislative changes. In order to maintain a ready and 
controlled source of depot maintenance, the Air Force has prepared a 
Long Term Depot Maintenance Plan for submission to OSD and Congress by 
the summer recess of Congress.
    The overarching objective of this plan is to ensure that Air Force 
equipment is safe and ready to operate across the whole range of 
contingencies, from training to supporting major theater wars. 
Partnering with private industry is a key element of our plan and 
provides the best value approach for maintaining our depots. 
Benchmarking our depots is essential for us to understand where best to 
invest. Leveraging the best of public and private capabilities ensures 
the Air Force will take advantage of what each does best. Partnering is 
also the method by which we will be able to most efficiently utilize 
our current facilities as well as bring in technologies to support core 
capability requirements in the future. However, taxing programs to fund 
capital improvements is a contentious process. We continue to explore 
the concept of depot capital appropriations to smooth out the 
investment streams.
    The Air Force Long Term Depot Maintenance Plan will provide 
military strength by ensuring we possess an organic ``core'' capability 
sized to support all potential military operations. It will be a living 
document and postures our three organic depots to continue to support 
the warfighter.
Organizational Experimentation--Future Total Force
    In the 21st century, the U.S. Air Force anticipates deriving its 
strength from the flexibility and the diversity of its integrated 
Active Duty, Air National Guard, Air Force Reserve, and civilians more 
than ever before. Optimum use of Air Force component resources is 
critical in providing the complete potential of American air and space 
power. Future Total Force (FTF) efforts will include new ways to 
optimize the components to make the best use of our resources and 
people and to build on a foundation of high standards and strong 
cooperation among the components.
    In the 1990s, the restructuring of the Air Force placed a greater 
emphasis on the force structure in the Air Reserve component. Today, 
the Guard and Reserve account for over 65 percent of the tactical 
airlift, 35 percent of the strategic airlift capability, 60 percent of 
air refueling, 38 percent of fighters, and significant contributions to 
rescue, bomber, and combat support missions. Additionally, the Guard 
and Reserve have an increasing presence in space, intelligence, and 
information systems. Guard and Reserve units also provide support in 
pilot training; radar and regional control centers manning at the 
Edward's Test Center, California; Test and Evaluation missions in 
Arizona; instructing in weapon system school houses; conducting flight 
check functions at Air Force depots; and helping to develop the 
Homeland Defense mission. Today, the Guard and Reserve components are 
providing day-to-day mission support. They are no longer simply a 
``reserve'' force--their collective capabilities make operating as an 
expeditionary Air Force possible.
    Future success will depend upon our ability to develop an even 
closer partnership between the components and a ``seamless'' 
integration of all assets. FTF will explore expanding the integration 
of our people and systems, seeking efficiencies and leveraging their 
individual strengths by combining operations into new organizational 
structures--blended units. Together, Active, civilian, Guard, and 
Reserve form a more capable, more efficient and more effective 
organization than any could provide individually.
    Blended units will integrate Active, civilian, Guard, and Reserve 
capabilities in creative new ways, that may appear as radical 
departures from the past, but which have already been part of the Air 
Force business practice for years. Flying and support functions, for 
example, will be so integrated with component personnel as to be 
invisible to outside observers. This will focus attention on conserving 
valuable manpower, resources, and skills while reducing overall costs. 
Finally, blended units will maintain the ability to deploy rapidly and 
will explore new avenues toward an overall goal of providing a ``best 
mix'' of personnel for the assigned mission.
    Developing blended units will not be without challenge. Out-dated 
laws and policies would have to change to reflect requirements in 
command and control, fiscal and personnel issues. Demands for more 
efficient use of resources (personnel and aircraft), greater 
flexibility and integration of personnel and administrative systems, 
higher reliance on the commercial marketplace skills of individuals, 
and rapid adjustment to changing cultural, social, and economic 
influences on the Air Force institution will serve to further promote 
blended organizations.
    The Guard and the Reserve are more than just our partners in 
providing air and space power, they are an integral part of today's Air 
Force and form a special link between the Active-Duty Air Force and 
America's citizens. To a great extent, they are citizens first. Blended 
units would take advantage of that connection to the citizenry and 
their broad base of knowledge and experience, in both civilian and 
military matters. The Air Force goal is to create a truly ``seamless'' 
force of airmen--one organization of airmen who are interchangeable but 
who also operate in a different status at particular periods in their 
air and space careers. The Air Force is committed to evolving its FTF 
to meet the highly complex security demands in its future.
Enhanced Homeland Security Missions
    As operators of two legs of the nuclear triad, the Air Force 
remains at the heart of homeland security. Since its establishment in 
1947, the Air Force has been actively and successfully deterring 
aggressors, intercepting intruders, and providing ballistic missile 
warning. The September 11 attacks brought homeland security to the 
forefront with the publication of Executive Order 13228, establishing 
the office of Homeland Security. The Air Force is being called upon to 
counter a new class of foreign and domestic terrorist threats through 
both defensive and offensive actions. Air defense capabilities remain 
on high alert to intercede and prevent further misuse of our Nation's 
civil aviation assets. Expeditionary capabilities have been called upon 
to help destroy terrorist operatives where they live. In all actions, 
the air and space expeditionary force construct provides the 
flexibility to place forces where and when we need them.
    Ground-Based Midcourse Defense (formerly: National Missile Defense)
    The Rocket Systems Launch Program provided targets and interceptor 
vehicles for two National Missile Defense tests in 2001. Using 
decommissioned Minuteman IIs, simulated incoming missiles were launched 
from Vandenberg AFB while a Minuteman II stage two and three 
combination, with test interceptor on board, was launched from 
Kwajelein Island. In the two tests supported this year, both 
successfully intercepted the target vehicle, meeting a huge technical 
milestone in the quest for homeland missile defense.
Conclusion
    Air Force capabilities provide America with a unique set of 
strengths--asymmetric advantages. However, today's technological 
advantage is no guarantee of future success. Maintaining our current 
leadership position requires addressing our aging infrastructure, 
modernizing outdated weapon systems, and harnessing technology to 
achieve our vision. To be sure, this requires funding, but a 
significant part of the improvements rests with ingenuity. In fact, how 
we maximize the collective potential of our Active, Guard, Reserve, and 
civilian resources will affect our ability to exploit the advantages 
our core competencies create. Realizing this potential through better 
business practices, more sophisticated training methods, acquired 
technologies, and other innovative means will be even more challenging 
given our ongoing efforts in the war on terrorism. Yet the risks of 
failing to meet the requirements for readiness are unacceptable. 
Readiness is one prerequisite for American military success. Another is 
transformation.

                             TRANSFORMATION

New Impetus to Transform--The evolving geopolitical context
    The terrorist attacks of September 11 have forever changed the 
world we live in. Now, more than ever, our military must transform to 
preserve the asymmetric advantages it currently enjoys--specifically, 
its air and space capabilities. These advantages are in danger of 
eroding in the face of emerging security threats, including the 
diminishing protection of geographic distance; the proliferation of 
weapons of mass destruction; rapidly advancing technologies (such as 
sensors, information processing, and precision guidance) available to 
adversaries; escalating competitions in space and information 
operations; greatly reduced access to forward bases; the prospect of 
operations in urban areas; and finally, the prominent threat of global 
terrorism, especially within our open borders. The demonstrated 
superiority of our air and space forces over Afghanistan, and the 
asymmetric advantage they continue to provide the Nation must not be 
taken for granted. Success is not a birthright, we must continue to 
transform to stay ahead of our adversaries.
    America's future success requires us to fully exploit our current 
technological dominance to seek asymmetric advantage over our 
adversaries. Such transformation will encompass the horizontal 
integration of manned, unmanned, and space assets and require us to 
successfully address emerging and time-critical targets. It will 
require digital communications at the machine level, which result in 
providing Joint Force Commanders with decision-quality information. The 
sum of this wisdom is a cursor over the target.
    Transformation can include multiple technologies that enable new 
missions, significantly improved old systems and processes, or using 
existing capabilities or organizations in new ways. Ultimately, 
transformation will drive how the military is organized, trained, and 
equipped. Transformation can also involve changes in military doctrine 
or tactics, techniques, and procedures that determine force deployment, 
employment, or the way forces are led or interact with each other to 
produce effects. It is also important to remember that transformation 
extends into every aspect of the Air Force--be it warfighting or 
support capabilities. For example, transformation of our business 
systems is currently being embraced to take advantage of new 
technologies and processes already proven in commercial industry. These 
ideas and products will enhance our efficiency and increase the 
crossflow of information across Air Force communities.
    A recapitalized force is fundamental to the realization of 
transformational forces. Though we are shortening acquisition cycles, 
new systems still take years to reach the field. Therefore 
transformation in the immediate future must begin by using legacy 
systems in new ways. We will continue to adapt and innovate in order to 
push the envelope of our capabilities.
Transformation--Realizing Potential Capabilities
    In the 2001 QDR, the Secretary of Defense provided specific 
direction for military transformation. Future defense planning will 
shift from the previously ``threat-based'' approach to a 
``capabilities-based approach,'' focusing on ``how an adversary might 
fight, rather than specifically on whom the adversary might be or where 
a war might occur.'' To support the SECDEF's goals, the Air Force 
remains in a continued state of evolution and transformation, 
aggressively pursuing advanced technologies, innovative methods of 
employment, and bold organizational changes. Transformation is nothing 
new to the Air Force. It has been an innate characteristic of airmen 
from the Wright Brothers to airmen operating in the 21st century.
    Continued AF transformation will enable the United States to defeat 
an adversary by giving the Joint Forces Commander the exact warfighting 
effects he needs, at the right place, and at the right time. AF 
transformations will help DOD achieve its ``operational goals;'' give 
the United States more operational flexibility and capability to 
address the future security environment; defeat adversaries' asymmetric 
strategies; reduce friendly casualties and collateral damage; and 
sustain America's current asymmetric advantages into the future.
    Capabilities-Based Concepts of Operations (CONOPs)
    AF warfighters are working hard to lay the foundation for the next 
step in our transformation to a capabilities-focused Expeditionary Air 
and Space Force. Our goal is to make warfighting effects, and the 
capabilities we need to achieve them, the drivers for everything we do. 
The centerpiece of this effort is the development of new Task Force 
Concepts of Operations (CONOPS) that will guide our planning and 
programming, requirements reform, and acquisition. We have identified 
several Task Force CONOPS that we are fleshing out--Global Strike Task 
Force (GSTF) is a prominent example and is the farthest along in 
development.
    GSTF defines how the AF plans to operate when faced with an anti-
access scenario. It will meet the immediate needs of our regional CINCs 
by leveraging our current and near-term capabilities to overcome anti-
access threats like the next generation surface-to-air missiles and 
other defensive networks. By incorporating the stealth and supercruise 
capabilities of the F-22 with advanced munitions like SDB we will 
enable our stealth assets like the B-2s and F-117 to take apart the 
enemy defenses. This capability guarantees that follow-on air, space, 
land, and sea forces will enjoy freedom from attack and freedom to 
attack. Key to the success of the entire family of Air Force Task 
Forces will be the horizontal integration of manned, unmanned, and 
space ISR assets. A key component of horizontal integration is the 
Multi-sensor Command and Control network that will help provide the 
actionable, exploitable intelligence the JFC needs to make effective 
decisions
    What warfighting effects will the AF provide? What capabilities do 
we need to deliver these effects? Our family of Task Force CONOPs will 
provide the answers to these questions. With this focus, we then 
understand what key requirements are needed to support these CONOPs.
Advanced Capabilities
    Manned Assets
    Stealth provides the ability to fly largely undetected in hostile 
airspace and penetrate air defense systems. Stealth will be absolutely 
essential to establish air superiority in the decades ahead against 
rapidly improving air defense systems and fighters. The F-22, JSF, 
UCAVs, improved B-2 bombers, and highly stealthy standoff weapons 
comprise the critical stealth capabilities under development now and 
into the future.
    The F-22, with its revolutionary combination of stealth, 
supercruise (i.e. supersonic-cruise without afterburner), 
maneuverability, and integrated avionics, will dominate the skies. The 
F-22 is clearly needed to counter the rapid deployment of third 
generation fighters to potential U.S. adversaries. In addition, when 
outfitted with the SDB, the F-22's ability to penetrate an adversary's 
anti-access airspace and destroy his most critical air defense 
capabilities, will enable 24 hours stealth operations and freedom of 
movement for all follow-on forces--fully leveraging our Nation's 
asymmetric technological advantages.
    In 2001, flight-testing continued to demonstrate the revolutionary 
capabilities. Specifically, the F-22 successfully completed an AIM-120 
guided missile launch, and initial radar detection range measurements 
(met specification requirements the first time out--an unprecedented 
accomplishment).
    On August 14, the Defense Acquisition Board approved the F-22's 
entry into low-rate initial production (LRIP). Entering operational 
service in 2005, this transformational leap in technology is the 
linchpin to preserving the Nation's most important military advantage 
for the warfighter: the capability to rapidly obtain and maintain air 
and space dominance.
    Acting in concert with the F-22 will be the JSF. The JSF program 
will develop and field an affordable, lethal, survivable, next-
generation, multi-role, strike fighter aircraft for the Air Force, 
Navy, Marine Corps, and our allies. With its combination of stealth, 
large internal payloads, and multi-spectral avionics, the JSF will 
provide persistent battlefield stealth to attack mobile and heavily 
defended targets. Furthermore, JSF planned reliability and 
maintainability will enable an increase in sortie generation rate and 
mission reliability, and will reduce the logistics footprint as 
compared to legacy aircraft.
    On October 25, 2001, the Secretary of Defense certified to Congress 
that all JSF Concept Demonstration Phase (CDP) exit criteria had been 
accomplished; the technological maturity of key technologies was 
sufficient to warrant entry into the System Development and 
Demonstration (SDD) phase; and both CDP contractors achieved greater 
than 20 hours of short take-off, vertical landing (STOVL) aircraft 
operations. On October 26, 2001, the JSF program officially entered the 
SDD phase with the award of contracts to Lockheed Martin for the 
airframe and Pratt & Whitney Military Engines for the propulsion 
system. During the SDD phase, the program will focus on developing a 
family of strike aircraft that significantly reduces life cycle cost, 
while meeting the services' operational requirements. The program will 
use a block upgrade approach, based upon an open system architecture, 
which addresses aircraft and weapons integration and supports the 
services' Initial Operational Capability (IOC) requirements in the 
2010-2012 timeframe.
    International partners will share the cost of JSF development. The 
United Kingdom signed an agreement in January 2001 to contribute $2 
billion to the SDD program, and negotiations are underway with other 
potential international partners. International participation in JSF 
will result in substantial benefits to the United States in such areas 
as future coalition operations and interoperability; financial savings; 
appropriate U.S.-foreign industry technology sharing; and strengthening 
political-military ties with our allies.
    For ballistic missile defense, one of the most important manned 
assets is the Airborne Laser (ABL). ABL is a transformational boost-
phase intercept weapon system that will contribute significantly to our 
multi-layered missile defense architecture. Structural modification of 
a 747 aircraft, the first of two ABL prototypes, was completed in 
calendar year 2001. In calendar year 2002, ABL will begin an intensive 
period of subsystem integration and flight testing, progressing toward 
a lethal demonstration against a ballistic missile. The ABL program was 
transferred to the Missile Defense Agency in October 2001 and will 
return to the Air Force for production and deployment. The ABL will 
also provide critical data for the development of a Space Based Laser 
(SBL).
    Unmanned Assets
    Unmanned Combat Aerial Vehicles have the potential to provide 
revolutionary suppression of enemy air defenses (SEAD) and strike 
capabilities to future joint force commanders. Our UCAV X-45 system 
demonstration program with DARPA will demonstrate the feasibility of 
UCAVs to affordably and effectively accomplish these missions in the 
high threat environments of the 21st century. The first demonstration 
aircraft test flights will begin in 2002. UCAVs will eliminate the 
operator from harm's way for high-risk missions and, in conjunction 
with manned platforms, be a crucial enabler for GSTF and other Air 
Force Task Forces.
    Space Based Assets
    Maintaining and developing space superiority is critical to the 
transformation of the U.S. military to meet the challenges ahead. At 
the forefront of this development is leveraging the resident expertise 
of our space warriors, and integrating their cultural strength and 
wisdom with air forces in order to achieve maximum operational effects. 
The ability to exploit and deny access to space is of great importance 
in this new era where dominance in information systems may determine 
battlefield success or failure. The Air Force is investigating or 
pursuing revolutionary new capabilities to ensure adequate space 
situational awareness (in addition to traditional space surveillance) 
as well as defensive and offensive counterspace capabilities.
    We are transforming our space situational awareness with a much 
needed improvement to the Nation's missile detection and warning 
capability. The highly accurate Defense Support Program (DSP) satellite 
system on orbit today was developed over 30 years ago to provide 
strategic missile warning. Modernization to meet 21st century 
warfighter needs is critical. The new Space Based Infrared system 
(SBIRS) provides a single architecture for the Nation's infrared 
detection needs--a ``system of systems''--meeting our security 
requirements for 24/7 strategic and tactical missile warning, missile 
defense, technical intelligence, and battlespace characterization. This 
transformational space system consists of two primary components: 
SBIRS-High and SBIRS-Low. SBIRS-High includes four satellites in 
Geosynchronous Orbit (GEO) and two in a Highly Elliptical Orbit (HEO) 
that will work hand-in-hand with the 20-30 Low Earth Orbit (LEO) 
satellites being developed through the Ballistic Missile Defense 
Organization's (BMDO) (since renamed the Missile Defense Agency (MDA)) 
SBIRS-Low program. Both programs currently are under review. SBIRS-High 
has experienced unacceptable cost growth and is being considered for 
restructuring. SBIRS-Low may be delayed as the state of the program's 
maturity is being evaluated.
    Air Force Satellite Control Network (AFSCN)
    AFSCN is a global system of control centers, remote tracking 
stations, and communications links used to establish initial contact 
with all deploying military satellites, and to control early checkout 
operations. In addition, the AFSCN enables common satellite operations 
such as telemetry, tracking and commanding, mission data receipt and 
relay, and emergency satellite recovery. We also use the AFSCN to 
update the navigational database of GPS satellites, which ensures 
effective support to the warfighters. In fiscal year 2002, we initiated 
an AFSCN modernization program using commercial off-the-shelf 
equipment. It is critical that we continue this effort since much of 
our current infrastructure is so old that spare parts no longer exist. 
Moreover, since nearly 50 percent of the total AFSCN workload supports 
National requirements, the system's viability is essential. 
Preservation of both the AFSCN infrastructure and the frequency 
spectrum it uses for military satellite operations is vital to 
successful national security space operations.
    Launch Systems
    Our heritage launch systems continue with a 100 percent success 
rate this year. The Evolved Expendable Launch Vehicle (EELV) will build 
on past successes while transforming today's fleet of Delta, Atlas, and 
Titan space launch vehicles into low-cost, efficient space 
transportation systems. The EELV will deliver navigation, weather, 
communications, intelligence, early warning, and experimental 
satellites to orbit on time and on budget to meet warfighter needs. 
Boeing Delta IV and Lockheed Martin Atlas V rocket families are 
currently in Engineering Manufacturing and Development to provide 
launch services beginning next year through the year 2020 and beyond. 
Our partnership with industry will meet military, government, and 
commercial spacelift requirements at 25 percent to 50 percent lower 
costs than current systems.
    Space-Based Radar (SBR)
    From the ultimate high ground, space-based ISR will provide near 
continuous overflight of enemy targets to complement airborne and 
ground-based sensor platforms. SBR will revolutionize battlespace 
awareness by providing deep-look, wide area surveillance of areas in a 
manner unaffected by political sensitivities and most denial efforts--
absolute leap-ahead technology. Persistent ISR will be achieved with 
day/night, all weather detection and tracking of moving and fixed 
targets; improved mapping, charting, and geodesy; and responsive 
targeting data from sensors to shooters. Due to its basing mode, SBR 
can provide the Nation a non-provocative, long-range capability to 
enable early situational awareness in advance of hostilities and 
throughout the spectrum of conflict. This will allow us to tighten the 
timelines for prompt attack of both anti-access systems and enemy 
centers of gravity. SBR is being designed to fit into the portfolio of 
other ISR assets.
    Information Warfare (IW) and Information Assurance (IA)
    Of primary importance to IW operations is the horizontal 
integration of manned, unmanned, and space systems to achieve the 
machine-to-machine interface of command and control, communications, 
computers, intelligence, surveillance, and reconnaissance (C\4\ISR) 
systems. This integration provides executable decision-quality 
information to the commander in near-real-time. Second is our ability 
to protect these systems from adversary manipulation through defensive 
information warfare. Third, is the ability to deny adversaries these 
same capabilities through offensive information warfare.
    Information superiority enables our military to achieve ``decision 
cycle dominance'' and allow us to act and react much more rapidly and 
effectively than our adversary--creating transformational military 
advantages. While technology will never completely overcome 
Clausewitz's ``fog of war,'' achieving information superiority as 
described here could certainly minimize it for us and maximize it for 
our adversary.
    Information superiority also yields additional benefits. First, a 
reduced forward deployment requirement expedites the time to begin 
effects-based operations and reduces the number of personnel and 
equipment exposed to threats. Second, by avoiding massive attrition 
tactics, it would result in far fewer casualties and collateral damage. 
Third, under the right circumstances, effective offensive information 
warfare capabilities, which include computer network attack, military 
deception, public affairs, electronic warfare, and psychological 
operations (PSYOP), could prevent the need for destruction by 
influencing our adversaries to capitulate before hostilities begin. 
This latter possibility will be crucial in many of the environments the 
military will have to operate in the future, such as urban areas and 
various military operations other than war, in which employing highly 
destructive kinetic weapons would not be desirable.
    In the future, the Air Force will field C\4\ISR capabilities that 
enable dynamic assessment, planning, and the rapid execution of global 
missions. The system will be tailorable across the spectrum of 
operations and be horizontally and vertically integrated across 
components, functions, and levels of command. Joint Force Commanders 
will be able to exploit knowledge and awareness to use the right tools 
at the right time in the right way--and do it all faster and with 
higher fidelity than the adversary.
    Predictive Battlespace Awareness (PBA)
    PBA involves those actions required to understand our adversaries 
to the extent of being able to accurately anticipate his actions before 
they make them. This includes understanding how our adversaries 
organize and employ their forces. It means knowing their centers of 
gravity, capabilities, and weaknesses. PBA is an on-going intelligence 
effort which begins long before forces are deployed. Ultimately, PBA 
allows finite ISR assets to be focused on confirmation of anticipated 
actions instead of the more time-consuming discovery.
    Communication Enhancement
    We are now transforming the way information technology is used in 
the Air Force as we implement the One Air Force . . . One Network 
initiative. This enterprise-wide approach to IT will allow more 
responsive and more robust service to the whole Air Force. In addition, 
Global Combat Support System-Air Force (GCSS-AF) will integrate combat 
support information systems, thus removing the business inefficiencies 
resulting from numerous, independent stand-alone systems. With GCSS-AF, 
the Air Force will finally have the means to provide an enterprise view 
of combat support information. GCSS-AF, through the Air Force Portal, 
will provide the warfighter, supporting elements, and other Air Force 
members the means to seamlessly integrate agile combat support 
information necessary to efficiently field and sustain our Air and 
Space Expeditionary Forces.
    Another piece of integration is the Joint Tactical Radio System 
(JTRS). We aggressively accelerated development of this enabler of 
machine-level, digital conversations between our C\2\ISR and strike 
platforms so that the ``sum of our wisdom'' results in a cursor over 
the target. JTRS will also provide a flexible and adaptable information 
exchange infrastructure, which moves the joint force forward in getting 
operators and commanders the timely decision-quality information needed 
in today's warfighting environment.
    Precision Engagement
    The small diameter bomb, the first ``miniature'' munition in 
development, will provide an evolutionary capability in kills per 
sortie. The SDB weapon will use a common carriage system for fighters 
and most bombers, to carry at least four and potentially up to 12 SDB 
weapons per 1,760 data bus aircraft station. This will allow a fighter-
size platform to carry 16 or more SDBs and a bomber to carry up to 288. 
We will employ the SDB from low-to-high altitude, from standoff or 
direct attack ranges, and in adverse weather conditions. Each SDB 
weapon will employ GPS-aided guidance and be independently targeted. 
The Phase I SDB will have a capability against fixed or stationary 
targets, while the Phase II SDB will add a seeker with Automatic Target 
Recognition to provide a capability against mobile and relocatable 
targets.
    To increase our capability against time-critical and moving 
targets, we are experimenting with existing and miniaturized versions 
of precision weapons on UAVs. The range and loiter time of the 
``hunter-killer UAV'' coupled with the direct feed of real-time 
targeting data, will increase our opportunities against moving 
targets--tightening our decision cycle and maximizing our warfighting 
effects. What these systems and our other advancing capabilities 
indicate is that we are within range of our goals of persistent ISR, 
the finding to targeting to assessing within minutes cycle, and 
fidelity in the integration of our systems. We seek near instantaneous 
attack capabilities once a target is approved for attack.
Innovation and Adaptation
    All of the new systems and technologies in the world cannot 
supplant ingenuity. Whether modifying current systems, developing 
streamlined efficiencies in organizations, or simply thinking 
creatively, innovation and adaptation are at the heart of any 
transformation, and embedded in Air Force heritage. The same visionary 
essence behind the flight at Kitty Hawk works today to link emerging 
technologies with dynamic future concepts of operation. The driving 
spirit of innovation in past times of war exists today in the impetus 
to evolve our air and space capabilities and elevate the security of 
the Nation. Innovation and adaptation will be tremendously important 
again in fiscal year 2003, and they will resonate in all the systems we 
develop, in our fundamental practices, how we organize and even in our 
evolving roles and missions in homeland security.
    The prerequisite to achieving the transformation force outlined in 
the QDR is our commitment to a strong science and technology (S&T) 
program. S&T is the critical link between vision and operational 
capabilities. We continue to invest in a broad and balanced set of 
technologies derived from basic and applied research, and advanced 
technology development on a continuum of maturity levels from short- to 
long-term. This time-scaled approach keeps emerging capabilities in the 
pipeline and fosters revolutionary developments.
    The Air Force S&T community is working closely with operators and 
strategic planners to explicitly link research activities with our core 
competencies, critical future capabilities, and future concepts of 
operation. This effort has produced eight short-term goals and six 
long-term challenges to focus our S&T investment. The short-term S&T 
objectives are focused on warfighter priorities in the following areas: 
Target Location, Identification, and Tracking; Command, Control, 
Communications, Computers, and Intelligence; Precision Attack; Space 
Control; Access to Space; Aircraft Survivability and Countermeasures; 
Sustaining Aging Aircraft; and Air and Space Expeditionary Force 
Support. Long-term S&T challenges also involve revolutionary 
capabilities in Finding and Tracking; Controlled Effects; Sanctuary; 
Rapid Air and Space Response; and Effective Air and Space Persistence. 
Successful pursuit of these challenges and objectives will meet the 
transformation goals of the Air Force and maintain our air and space 
dominance today and well into the 21st century.
    Our new homeland security environment will necessitate both 
traditional and non-traditional responses, with significant coalition, 
joint, and interagency involvement. Whatever the threat, the AOC 
provides the critically important real-time predictive battlespace 
awareness for decision-makers. The Air Force will work closely with the 
other agencies to form a tightly knit web of resources that will be 
readily available to answer the call. In this way, Homeland Security 
efforts will be interwoven and fundamentally aligned with the Air 
Force's top priorities.
    Additionally, Air Force counterair and ISR capabilities are 
significant contributors to the multi-layered missile defense system, 
incorporating air and space-based elements that provide effective, 
affordable, global protection against a wide range of threats. Future 
space capabilities such as the SBIRS will greatly enhance our ability 
to track and engage ballistic missiles while space-based radar 
technologies will identify and track fixed and mobile ballistic missile 
launchers. Finally, the ABL will engage ballistic missiles in their 
boost phase, while the F-22, working with advanced ISR systems, will 
defend against cruise missiles.
    Consequence Management
    The Air Force has played an important role in consequence 
management. We have provided critical resources such as airlift, 
command and control, and disaster preparedness response forces to other 
lead agencies and the Joint Forces Civil Support Teams. The AFMS is 
acquiring a variety of modular packages that can be used to support 
civilian authorities requesting our assistance at home or abroad. 
Within 2 hours of notification, the Small Portable Expeditionary 
Aeromedical Rapid Response (SPEARR) teams deploy ten specialists with 
the capability to provide a broad scope of care, including initial 
disaster medical assessment, emergency surgery, critical care, and 
patient transport preparation. This will increase the state medical 
response capability for homeland security. Additionally, Air National 
Guard men and women both command and contribute to the Nation's current 
Civil Support Teams-including critical mobility requirements that 
support the air transportation of these teams to sites of potential 
CBRNE or WMD attacks.
    In the QDR, the Secretary of Defense identified Homeland Security 
as a top priority for the Department of Defense. The Air Force has a 
role in each aspect of preventing, protecting from, and responding to 
attacks against our homeland. The Air Force has a robust array homeland 
defense capabilities today and will improve and transform as necessary 
for the future. As in the past, we stand ready today to contribute 
these unique capabilities and develop new technologies to aid our 
national command authorities in combating threats or attacks to our 
homeland.
Conclusion
    The same relative advantages of speed, flexibility, range, 
lethality and the like that have defined air power since its inception 
also define the collective talents of airmen--military and civilian 
alike. The partnership among all of the components of the Air Force is 
elevating the Nation's air and space capabilities to even greater 
heights than ever conceived. Yet we are not satisfied. We will continue 
to aggressively pursue our critical future capabilities through every 
avenue, drawing on all of our resources, and finding no satisfaction in 
compromise. While funding is critical to securing new and revitalized 
systems, the Air Force is focused on the source of the most 
exponentially beneficial results--our innate skill at integration, 
innovation, and visionary implementation of ideas and processes. 
Ultimately, it is from our airmen, our most essential resource of 
people that transformation will accelerate, accelerate and continue.

                                 PEOPLE

    ``People are a priority'' is not just a slogan in the Air Force, it 
is an imperative. Historically, the Air Force has been a retention-
based force and continues to be so today. We rely on recruiting and 
training technically and mechanically gifted individuals to develop and 
operate our advanced air and space systems. Though we exceeded our 
fiscal year 2001 recruiting and accession goals, there are some 
critical skills in need of special attention--scientists and engineers 
in particular. We must take action now to address these and other 
developing personnel gaps in the uniformed and civilian Air Force 
alike.
    Before September 11, we were deploying our people at a rate three 
times higher than we were a decade earlier. Though we were narrowing 
the gap between force structure drawdowns and increased commitments, 
the marker has been shifted significantly and we anticipate a growth in 
requirements. The addition of Operations Noble Eagle and Enduring 
Freedom and the creation of new homeland security requirements to an 
already strained personnel tempo (PERSTEMPO) warranted an assessment of 
our total manpower requirements. We are working with our sister 
services and OSD on this issue.
    Recent events have accentuated the contributions our Total Force--
Active Duty, Air National Guard, Air Force Reserve, and civilians--
brings to our National Defense team. We must now size this force 
appropriately to meet new demands by capitalizing on positive 
recruiting results, honing retention programs, and examining closely 
tasks that might better be performed by civilians, of members of the 
Guard or Reserve. To attract and retain the best people in a high-
technology world, we will accelerate our efforts to develop, educate, 
train, and compensate our people to continue to lead the world as a 
technologically superior military force.
    Retention is more than a quality of life issue. It involves letting 
our people know that what they are doing matters. It is about 
instilling our Airmen with pride in a mission well done. At the end of 
their careers they will remember being part of a team that made a 
difference. To this end, we have initiated a major ``re-recruiting'' 
program.
Recruiting
    The Air Force exceeded fiscal year 2001 enlisted recruiting goal of 
34,600 by almost 800. We still require 99 percent of our recruits to 
have high school diplomas and nearly 75 percent to score in the top 
half of test scores on the Armed Forces Qualification Test. In 
addition, we brought 1,155 prior-service members back on Active Duty, 
nearly double the number from fiscal year 1999.
    We must enlist airmen whose aptitudes match the technical 
requirements we need. In fiscal year 2001 we implemented targeted 
recruiting programs for mechanically skilled recruits. These efforts 
paid off, allowing us to exceed our recruiting goal for these skills by 
763. We did, however, fall short of our recruiting goal by 203 in the 
general skill area. This includes the security forces career fields, 
which have become vital in light of current operations.
    The Air Force is postured well to increase recruiting goals to meet 
new requirements. Previously approved increases in advertising, a more 
robust recruiting force with broader access to secondary school 
students, and competitive compensation prepares the Air Force to meet 
future recruiting challenges. We budgeted $77 million for recruiting 
advertising in fiscal year 2002, which is nearly five times the amount 
from fiscal year 1998. For fiscal year 2002, we programmed an 
additional $9 million for the enhanced initial enlistment bonus 
program, and the prior service reenlistment program, up from $123.8 
million in fiscal year 2001. These bonus programs help to recruit hard-
to-fill critical skills and to encourage recruiting during historically 
difficult recruiting months.
    Officer recruiting faces many of the same challenges as enlisted 
recruiting. However, we continue to draw America's best and brightest, 
even given the lure of a competitive job market. In the ROTC program, 
we implemented several initiatives to attract more candidates, offering 
contracts to freshmen cadets rather than waiting until their sophomore 
year, and a 1-year commissioning program to attract both undergraduate 
and graduate students. Overall in fiscal year 2001, we achieved 105 
percent of our line officer accession target, up from 97 percent in 
fiscal year 2000. Recent legislation, which increased the maximum age 
for appointments as cadets into Senior ROTC scholarship programs, 
further increases our recruiting opportunities. We are also examining 
changes to the program to reduce attrition during the ROTC cadet years.
    Of particular concern, however, is the area of military and 
civilian scientists and engineers. We fell short of our accession goal 
for these groups by nearly 250, and have begun an all-out effort to 
plus up recruitment and target retention of these critical specialties. 
For example, in fiscal year 2003 we begin a college sponsorship program 
to attract scientists and engineers from universities where there is no 
ROTC program. Thanks to prompt congressional action, we have the 
authority to implement bonuses, adjust funding to create retention 
allowances, and work toward implementing special salary rates for the 
most difficult to retain fields. At the December 2001 Scientist and 
Engineer Summit, the Secretary and the Chief of Staff embraced these 
and other initiatives to remedy the accession challenge. The Air Force 
recognizes the great need for these bonuses and has programmed funds 
accordingly. However, funding levels were cut during the appropriations 
process.
    We have also found recruiting health care professionals especially 
difficult. Many medical, dental, nurse, and biomedical specialties are 
experiences critical shortages. For example, only 80 percent of our 
clinical pharmacy positions are currently filled. We are now reviewing 
accession initiatives for pharmacists.
    In fiscal year 2001, the Air Force Reserve exceeded its recruiting 
goal for the first time in 5 years--accessing 105 percent of their 
target. However, there are significant challenges ahead in recruiting 
citizen-airmen. Historically, 30 percent of Reserve accessions come 
from eligible members (i.e. no break in service) separating from Active 
Duty. In fiscal year 2002, recruiting will have to make up that part of 
the goal, more than 3,000 people, from other applicant sources until 
stop loss is lifted. Once lifted, we expect there will be challenges in 
filling many vacated positions. One of the biggest challenges for 
Reserve recruiters this year is Basic Military Training (BMT) quotas. 
While recruiting services increased emphasis on enlisting non-prior 
service applicants, BMT allocations have not kept pace. This problem is 
forecasted to worsen this year as a result of stop loss. Reservists are 
working diligently to increase BMT allocations and explore solutions to 
address BMT shortfalls.
    The Air National Guard has placed recruiting and retention emphasis 
on Air Force Specialties where shortages exist by offering enlistment 
and reenlistment bonuses, Student Loan Repayment Program, and the 
Montgomery GI Bill Kicker Program. As a result, many of the Air 
National Guard critical maintenance AFSCs have seen real strength 
growth from 2 to 6 percent over the last 2 fiscal years. These 
incentives have contributed greatly toward enticing and retaining the 
right talent for the right job. Though recruiting and retention rates 
have increased, the Air National Guard realizes that potential problems 
exist that may affect future sustained capability.
Retention
    Over 128,000 Active Duty airmen, 46 percent of the enlisted force, 
are eligible for reenlistment in fiscal years 2002/2003. Although 
positive about a career in the Air Force, our people are being lured 
away by the availability of higher-paying civilian jobs. To sustain our 
readiness posture for rapid deployment, we must retain our highly 
trained, experienced, and skilled people. By keeping our experience, we 
reduce recruiting and training requirements and continue to build and 
maintain our technical expertise.
    Retention will continue to be a priority and a challenge in the 
future. We are aware stop loss and the increased tempo of ONE and OEF 
may have a negative affect on retention and we are planning for offsets 
already. We must provide a robust compensation package that rewards 
service, provides for a suitable standard of living, ensures a high 
quality of life, and retains our high caliber professionals. We must 
continue to reduce out-of-pocket expenses incurred through frequent 
moves, deployments, and other temporary duty. Our airmen must view a 
military career as a viable and competitive option if we are to 
maintain an all-volunteer force. To that end, we have initiated an 
aggressive campaign to ``re-recruit'' our force, through individualized 
mentoring and career counseling. This effort began with scientists and 
engineers, as well as battle managers, and will include other critical 
skills in the coming months. Pilots were to be the initial focus, but 
the demands of ONE and OEF required that we delay the re-recruiting of 
this group. Congress has rallied to the Air Force's needs in all of 
these, and we will rely on continued help, particularly in the year 
ahead.
    Officer retention trends continue to raise concerns. We monitor 
these trends through the officer cumulative continuation rate (CCR), or 
the percentage of officers entering their 4th year of service (6 years 
for pilots and navigators) who will complete their 11th year of 
service, given existing retention patterns. Although the fiscal year 
2001 CCR for pilots increased from 45 percent in fiscal year 2000 to 49 
percent, it's significantly lower than the high of 87 percent in fiscal 
year 1995. We have fully manned our cockpits, but our rated pilot staff 
manning has fallen to 51 percent. Airline hires in fiscal year 2002 
will be down from over 3,000 last year to approximately 1,500 this 
year; however, we anticipate the hiring will surge again shortly 
thereafter. Therefore, we can expect the USAF pilot shortage to 
continue for at least the next 8 years until we fully realize the 
effects of the 10-year Active Duty service commitment for undergraduate 
flying training. We are optimistic that our ``re-recruiting'' effort 
will further enhance pilot retention and help alleviate the shortage 
sooner.
    The mission support officer fiscal year 2001 CCR has held steady at 
44 percent. However, retention rates for several high-tech specialties 
have decreased--scientists (36 percent), developmental engineers (42 
percent), acquisition managers (40 percent), and air battle managers 
(47 percent). Conversely, navigator rates improved in fiscal year 2001, 
rising three percentage points to 72 percent. Navigators are a critical 
rated resource being used to fill many pilot vacancies at headquarters 
level. In the next few years, we expect a rapid decline in this large 
retirement-eligible population. We also need to retain every 
experienced air battle manager (ABM) we can to preserve our warfighting 
capability. This high-demand, low-density career field retention is 
negatively impacted by increased operations tempo.
    The Air Force Reserve exceeded command retention goals for their 
enlisted airmen during fiscal year 2001. Again, it was the team effort 
of the members, first sergeants, supervisors, and commanders that led 
the Reserve to this exceptional achievement. Bonuses also continue to 
be an effective tool in retaining our members. The flexible Aviation 
Continuation Pay (ACP) program is an important part of our multi-
faceted plan to retain pilots. In fiscal year 2001 we offered ACP 
payments through 25 years of aviation service, resulting in a 
substantial increase in committed personnel. Because of this success, 
we plan a similar design for the fiscal year 2002 ACP program, and 
extension of this program to navigators and ABMs.
    Seventy-eight percent of our enlisted skills are now receiving re-
enlistment bonuses, up two percentage points from fiscal year 2000. The 
authorization to pay officer and enlisted critical skills retention 
bonuses should help retain individuals in high demand by the civilian 
sector. We are initially targeting this new authority to science, 
engineering, and communications and information. Also, the authority to 
increase special duty assignment pay provides the flexibility to target 
our most pressing enlisted skills. The fiscal year 2002 National 
Defense Authorization Act (NDAA) authorizes installment payment 
authority for the 15-year career status bonus, and an educational 
savings plan to encourage re-enlistment in critical specialties. 
Additionally, the Air Force Reserve is studying special duty pay 
initiatives for senior enlisted positions, such as command chief master 
sergeants and unit first sergeants for future implementation.
    The Air National Guard's number one priority is to increase their 
traditional pilot force, which has maintained a steady state of 90 
percent. During the past year, the Guard continued to see an increase 
in ACP take rates to 93 percent. ACP has accomplished its goal by 
retaining qualified full-time instructor pilots to train and sustain 
our combat force. The Guard and Reserve continue to pursue substantial 
enhancements to the Aviation Career Incentive Pay (ACIP) and Career 
Enlisted Flyer Incentive Pay (CEFIP) to increase retention in the 
aviation community, as well as attract/retain individuals to aviation. 
These initiatives, which affect over 13,343 officers and enlisted crew 
members in the Guard and Reserve, are aimed at those traditional 
aviators who do not qualify for the ACP for AGRs and the Special Salary 
Rate for Technicians.
Training
    Training the world's best Air Force is challenging in today's 
rigorous, expeditionary environment. Increased accessions stress our 
training facilities and personnel. During surge periods, we operate at 
maximum capacity by triple-bunking students in two-person dorm rooms. 
We are currently seeking funds to improve the training infrastructure.
    Lower than required enlisted retention rates are increasing our 
training burden. Also, fewer experienced trainers are available to 
train 3-level personnel. Despite these challenges, our technical 
training schools have been able to meet their mission. We increased our 
use of technology and streamlined the training processes to produce 
fully qualified apprentices ready to support the warfighter.
    Even with the EAF, our tempo can make educational pursuits 
difficult. Our learning resource centers and Advanced Distributed 
Learning initiatives address this situation by offering deployed 
personnel education and testing opportunities through CD-ROM and 
interactive television. Additionally, we have joined with the other 
services, the Department of Labor, and civilian licensing and 
certification agencies to promote the recognition of military training 
as creditable toward civilian licensing requirements.
    Defining the Air Force's institutional training and educational 
requirements for leadership development allows the services to weigh 
resource decisions better and to emphasize to our people the 
institution's investment in their careers. The Air Force is pursuing 
leadership development and career mentoring strategies, to prepare the 
Total Force for the 21st century. These competency-based strategies are 
focused on understanding the leadership needs of our transforming force 
and creating a development process that will better prepare airmen to 
serve and lead. The Air Force is examining more deliberate career 
broadening, emphasizing two categories of competencies--occupational 
(what we do) and universal (who we are). We are also examining 
potential changes to the professional growth of officers including the 
rationalization of advanced degrees and professional military 
education. Force readiness, sustainability, and mission performance all 
depend on selecting, training, and retaining the best individuals with 
the necessary skills, as well as motivating every member of the service 
and taking care of Air Force families.
Civilian Workforce Shaping
    Today, less than 10 percent of our civilians are in their first 5 
years of service. In the next 5 years, more than 40 percent will be 
eligible for optional or early retirement. Historical trends indicate 
that approximately 33 percent of white-collar employees and 40 percent 
of blue-collar employees will retire the year they become eligible. In 
addition, downsizing over the past decade skewed the mix of civilian 
workforce skills, compounding the loss of corporate memory and lack of 
breadth and depth of experience.
    While we are meeting mission needs today, without the proper 
civilian force shaping tools, we risk not being ready to meet 
tomorrow's challenges. To help shape the civilian workforce, it is 
imperative that we fund civilian force development initiatives to 
include skill proficiency and leadership training, and tuition 
assistance programs. The fiscal year 2002 NDAA did authorize the 
payment of expenses to obtain professional credentials.
    In addition, management tools are essential in shaping the force by 
opening the door to new talent so we can gather the right skill mix. 
These initiatives include pay comparability and compensation, a 
streamlined and flexible hiring process, recruiting incentives for 
technical skills and student employment programs. Also, the fiscal year 
2002 NDAA provided the authority for a pilot program allowing for 
payment of retraining expenses and extended the use of Voluntary 
Separation Incentive Pay (VSIP) and Voluntary Early Retirement 
Authority (VERA) for workforce restructuring. To incentivize key senior 
personnel to accept critical positions, we continue to support 
implementation of a last move home benefit.
Quality of Life
    Quality of life ranks as one of the Air Force's top priorities, so 
our quality of life initiatives attempt to balance the intense demands 
we place on our mission-focused Total Force. With continued 
congressional support, the Air Force will pursue adequate manpower; 
improved workplace environments; fair and competitive compensation and 
benefits; balanced deployments and exercise schedules; safe, 
affordable, and adequate housing; enhanced community and family 
programs; improved educational opportunities; and quality health care, 
as these have a direct impact on our ability to recruit and retain our 
people and sustain a ready force.
    The fiscal year 2002 NDAA provided for the largest raises for mid-
level and Senior NCOs (7 percent-10 percent) to improve pay based on 
their education and experience levels. Junior enlisted members received 
a 6 percent-6.7 percent pay raise and captains and majors received a 6 
percent-6.5 percent raise while all other personnel received a 5 
percent raise. Basic Allowance for Housing rates effective January 1, 
2002 will be based on 11.3 percent out-of-pocket for the National 
Median Housing Cost for each grade and dependency status. Additionally, 
the fiscal year 2002 NDAA authorizes several additional travel and 
transportation allowances that will reduce out-of-pocket expenses for 
our military personnel.
    Higher priorities have led to a deferral of much-needed 
infrastructure sustainment, restoration, and modernization of the 
workplace. Together with spare parts and equipment shortfalls, budget 
limitations impede successful execution of mission requirements, cause 
lost productivity, and negatively impact quality of life. It will take 
increased funding levels focused on infrastructure restoration and 
modernization to allow us to optimize the condition of the workplace 
environment and, furthermore, help eliminate the risk to our near- and 
long-term readiness.
    Providing safe and adequate housing enhances readiness and 
retention. The Air Force Dormitory Master Plan and Family Housing 
Master Plan identify and prioritize our requirements, while DOD is 
championing the reduction of out-of-pocket housing expenses by fiscal 
year 2005. We project significant improvements in our military family 
housing by reducing our inadequate units from 59,000 at the beginning 
of fiscal year 2002 to 46,000 at the beginning of fiscal year 2003, and 
with the help of privatization efforts underway, eliminating inadequate 
units by 2010. During fiscal years 2001-2004 we plan to privatize over 
21,000 housing units at 26 installations. Similar improvements are 
being made in our unaccompanied housing, where more than 1,600 
dormitory rooms will be constructed as a result of the 2002 program.
    The Air Force continued to set the standard in providing quality 
childcare and youth programs. In addition to 100 percent accreditation 
of Air Force child care centers, the Air Force achieved 100 percent 
accreditation of all of its before- and after-school programs for youth 
6-12. In fiscal year 2001, the Air Force expanded the extended duty 
childcare program for members required to work extended duty hours and 
in fiscal year 2002 will test using this program for members working at 
missile sites and those who need care for their mildly ill children. 
Many youth initiatives implemented in fiscal year 2001 are part of the 
affiliation of the Air Force's youth program with the Boys and Girls 
Clubs of America.
    The Air National Guard also identifies childcare as a readiness 
issue. With increasing demands from commanders and family members, the 
ANG formed a Childcare Integrated Process Team (IPT) to study 
innovative childcare options. The IPT yielded a website developed for 
internal use by ANG field units to pursue childcare alternatives in 
relationship to the unit's location, demographics, and legal issues. 
Additionally, the Guard has proposed a cost-sharing pilot program based 
on the Air Force childcare cost model.
    Tremendously important to child and family quality of life are the 
commissaries and exchanges. The Air Force continues to support these 
benefits as vital non-pay compensation upon which Active Duty, 
retirees, and Reserve component personnel depend. Commissaries and 
exchanges provide significant savings on high quality goods and 
services, and a sense of community for airmen and their families 
wherever they serve. As a result, commissaries and exchanges are cited 
as a strong influence on retention and a highly valued component of 
quality of life.
    Additionally, lodging facility improvements and temporary lodging 
facilities have become a higher quality of life priority. Constructing 
facilities in sufficient quantity and maintaining existing facilities 
not only supports our members and families in TDY and permanent change 
of station status, but also yields significant savings in travel costs 
and ensures force protection. All new construction and renovations meet 
the recently adopted VQ standard--``one size fits all ranks''--
mirroring the industry standard of 280 square feet per room with 
private baths for all grades.
    Physical fitness is unquestionably a force multiplier, and 
investment in fitness facilities, equipment, and programs directly 
impacts readiness. An independent assessment of our fitness centers 
documented a requirement of $645 million for construction and 
renovation at Active Duty and Reserve bases. The Air Force committed 
$183 million in fiscal years 2000-2005 quality of life funding and has 
steadily increased annual MILCON funding, including $52 million this 
year.
    Meanwhile, today's Air National Guard member families are in 
immediate need of dedicated full time family readiness and support 
services--specifically information referral support and improved 
communications and education capabilities. The Air National Guard has 
developed a program solution in fiscal year 2001 to fund a full-time 
contracted family readiness program at each Wing and Combat Readiness 
Training Center. While funding for fiscal year 2002 has been added in 
the fiscal year 2002 Supplemental Appropriations, there is no sustained 
funding in the FYDP. Properly funded and resourced, the ANG family 
readiness program will significantly enhance mission capabilities by 
reducing pressures on personnel and their families and improving their 
quality of life.
Healthcare
    The recent implementation of DOD health care initiatives, such as 
TRICARE for Life, provided the missing link to the Air Force Medical 
Service's population-based health care strategy. Now, the AFMS has the 
foundation to provide whole care to its beneficiaries. The TRICARE 
Senior Pharmacy Benefit, started April 1, 2001, brought an expanded 
benefit to the Air Force's retired population. TRICARE for Life, the 
program that makes TRICARE second payer to Medicare, and TRICARE Plus, 
the program that allows seniors to enroll in a primary care program at 
selected MTFs, both began concurrently on October 1, 2001. These new 
programs will undoubtedly enhance the quality of life for the Air 
Force's older retiree population. TRICARE Plus will also strengthen the 
AFMS's medical readiness posture by expanding the patient case mix for 
our providers.
    The AFMS continues to make great strides in its population health 
initiatives and customer satisfaction. Central to the AFMS's population 
health plan is its Primary Care Optimization program, which improves 
clinical business processes through maximizing medical support staff 
skills and duties and through robust information management that 
supports effective decision-making. The Primary Care Manager by Name 
program provides much-needed continuity of care and, ultimately, better 
patient management by providers. Other population health initiatives 
include the Air Force Suicide Prevention program, which has served as a 
model for DOD and the Nation in their efforts to address this 
significant public health issue. As a result of AFMS' initiatives, 
health care customer satisfaction continues to rise in the Air Force. 
According to the latest Customer Satisfaction Survey Results, 90 
percent of the Air Force's enrolled beneficiaries indicate they would 
enroll or re-enroll in TRICARE Prime if given the option. The overall 
satisfaction with clinics and medical care exceeds national civilian 
HMO averages.
Conclusion
    The Air Force implemented structural and cultural changes via EAF 
concept to enhance responsive force packaging, as well as to provide 
more stability/predictability in deployment and home station 
scheduling. We must continue to address force-wide balanced tempo 
issues with manning, infrastructure and equipment, training, recruiting 
and retention, and mission requirement assessments. High OPSTEMPO has 
taken its toll: our people are still deployed three times more often 
than prior to Desert Storm-based on a force 60 percent its former size. 
Air National Guard and Air Force Reserve participation has steadily 
increased since Operation Desert Storm, which has created unique 
challenges for Guardsmen and Reservists balancing civilian careers with 
increased military requirements. Trends show demand for air power will 
only increase; EAF holds promise by giving airmen predictability and 
stability. We must also take care of our families with adequate housing 
programs, medical facilities, and base support services. Our efforts 
continue to pay off, yet they must be actively renewed and 
revitalized--flexible enough to adapt to new circumstances and demands 
in a changing world.

                            CLOSING THOUGHTS

    The events of September 11 reaffirmed the importance of the Air 
Force's current focus on people, readiness, and transformation. Our 
future success hinges on our ability to recruit and retain highly 
qualified airmen, to provide these dedicated warriors with the 
resources required to accomplish their mission, and to continue to 
explore new and innovative approaches to the art of warfare.
    While the world's security environment changed dramatically, one 
thing that remains constant is America's need for global vigilance, 
reach, and power. That is your Air Force Vision, and what we strive to 
deliver every day. Fully exploiting our advantages in air and space 
capabilities is not an option--the risk of failing to do so is too 
great. We must remain the dominant air force in the business of global 
reconnaissance and strike (attack and mobility).
    Through recapitalization efforts, we hope to maintain the 
fundamental basis from which to perpetuate our transformation journey. 
This is a daunting task, and it cannot be achieved without substantial 
costs. Integration of systems, mastering real-time targeting, and the 
exploitation of new CONOPs, are more than mere objectives, they 
determine our ability to project power in tomorrow's battlespace.
    With America's continued support, the United States Air Force is 
poised for unprecedented success. The future holds sober challenges for 
America's military forces. Some may find easy remedy, while others will 
require tremendous sacrifice. In whatever scenarios lie ahead, the 
United States will be able to look to the Air Force for asymmetric 
capabilities that ensure our dominance of air and space. These 
capabilities, when employed in joint warfighting operations, will prove 
to be the resident military strengths that will enable America to 
assure, dissuade, deter, or decisively defeat the adversaries of 
freedom.

    Chairman Levin. General Jumper, thank you. Thank each of 
you for your very helpful testimony and for your leadership. We 
will have 6 minutes for our first round of questions.
    First, I would like to ask each of you about the 
Quadrennial Defense Review of last year, which moved us away 
from the requirement to be able to conduct two nearly 
simultaneous major theater wars. It is not apparent to me, at 
least yet, what changes in requirements or in priorities among 
requirements have resulted from that change. Can each of you 
briefly tell me what changes in priorities your services have 
as a result of the new guidance?
    General Shinseki.
    General Shinseki. Mr. Chairman, I would offer that much of 
the Army's move toward the QDR's new approach to strategy we 
took on about 2\1/2\ years ago. We looked at our ability to 
deliver our capabilities rapidly to a variety of places we were 
asked to go in the 1990s, and frankly, we had a tough time 
getting there. Once we got there it was tough to sustain that 
over a period of time, and the places we looked at were the 
places we were asked to pay attention to, such as the Koreas, 
China-Taiwan, India, Pakistan, Iran, Iraq, and the Balkans. We 
are still engaged 6 years after going into Bosnia, and then 
even looking across places like Chechnya, where a pretty good-
sized army was having a tough go.
    When we put those locations on the globe, it describes a 
large area around which we had very little capability. It is 
the area that is circumscribed by those conflicts, the Caspian 
Basin, and when we put our finger in the middle of that area 
and asked whether we could get there or not, at least in the 
Army's perspective, we could not sustain ourselves. Whether we 
would go or not, or we wanted to go or not, when we asked 
ourselves 2\1/2\ years ago whether we could go or not, the 
answer was no.
    Then it led to other questions about what capabilities 
would be needed to get there, and if you developed those 
capabilities, then you could get just about any place else. 
That is what led us 2\1/2\ years ago to begin our own efforts 
to transform.
    Chairman Levin. Thank you.
    Admiral Clark.
    Admiral Clark. The way I interpreted the guidance, instead 
of two major theater wars, it included always a very heavy 
force. It included regime change all the way to the capital. 
This is the way it has been described by Secretary of Defense, 
a 4-2-1 force: deter in four areas; quickly take on an 
adversary in two areas with minimal reinforcement; and do one 
major war that talks about going all the way to the capital.
    The way I interpret that for our forces meant we have to be 
more forward and have a more dispersed force. It means a total 
and complete examination in my ISR assets, and we are 
conducting that.
    I talked to John Jumper about how we are going to team in 
the future, with Jim Jones about how we are going to shape our 
force, because our Air Force is combined. We need long-dwell 
systems to make the future work. Instead of just building a 
force that is netted from the ground up, from the seabed to 
space, we need a more distributed force, as well as manned and 
unmanned vehicles.
    General Jones and I are going to fundamentally restructure 
the amphibious readiness group to an expeditionary strike force 
that will have more striking capability. I will move more 
striking power on the naval side of that. We need an amphibious 
plan that then supports this in the future. That is the LHA(R), 
which we are building the analysis of alternatives to do that 
right now, and is due out this year.
    Finally, I would say that in order to deter in four places, 
the Navy-Marine Corps team must integrate so that we are as 
effective as possible. General Jones and I are working 
proposals, and in fact have made proposals forward, and those 
are the major areas of the QDR that are affecting me.
    Chairman Levin. Thank you, Admiral.
    General Jones.
    General Jones. Sir, very briefly, in addition to what the 
CNO pointed out in the Marine Corps, the biggest change has 
been the reemergence of the Marine Expeditionary Brigade as a 
central war-fighting piece, middle way, if you will, between 
the Marine Expeditionary Units and the Marine Expeditionary 
Force.
    As an adjunct to that, we stood up the Marine Expeditionary 
Brigade, Antiterrorism Capable (AT), by combining four units 
that were disparate units essentially having the same 
commonality of mission, so much more focused application on the 
antiterrorism mission and investments in those accounts. It is 
my goal that every Marine Corps unit that deploys will have an 
antiterrorism capability to be of use to the joint warfighters.
    Integrated logistics concepts is a revolutionary 
transformational way to deal with battlefield logistics. I 
would like to reaffirm the close partnerships with the United 
States Navy, and in the months ahead I predict I will be coming 
to members of your committee and your staff with some 
transformational plans that will be truly out on guard in 
anything the military is doing in the world. I will move to 
bring the Marine Corps a little bit closer to build bridges 
between the Special Operations Command. You know the history of 
Special Operations Command better than I do, and you know how 
the Marine Corps did or did not participate.
    Originally, we signed a memorandum of agreement with the 
Commander in Chief, and we are building bridges to make sure 
that the Nation has the full realm of capabilities needed, sea-
based and land-based, in the field of Special Operations. Those 
are just a few of the things.
    Chairman Levin. Thank you. General.
    General Jumper. Mr. Chairman, we are transitioning the Air 
Force into a rotational-based force, or expeditionary Air 
Force, so that we can control the OPTEMPO of our people as they 
are called out on these contingency operations.
    Within the expeditionary force structure, we are also 
creating task forces that specialize in some of the most 
difficult things we anticipate in this capabilities-based way 
of looking at things, scenarios like anti-access, rapid 
reaction to terrorists, humanitarian relief, global mobility 
missions, as well as space and command and control, 
intelligence, surveillance, and reconnaissance (C\2\ISR). These 
are task forces that will be organized and integrated with the 
other services to do the specific missions that we think are 
going to be called for.
    As part of those, we have done several things for the F-22. 
We have put more emphasis on its air-to-ground capability, 
because the F-22, by nature of its ability to go mach 1.7 
without using afterburner, can penetrate quickly and deeply to 
help out forces, our own friendly forces in the rear, or to 
take out those most difficult surface-to-air missiles and other 
threats that other systems would have difficulty doing. This is 
a small-diameter bomb that will go on the F-22.
    We have been able to upgrade our priority on unmanned air 
vehicles as we go from the A-model Predator to the ability to 
shoot Hellfire missiles off of the Predator UAV. Even since 
Kosovo we have added the capability to laser designate not only 
for Air Force airplanes, as I mentioned, but for any airplane 
with a laser weapon. We are going to request a step up into the 
B-model Predator, which would add more weapons stations, and it 
will specialize as a hunter-killer aircraft for specialized 
types of missions that we might do with Special Operations or 
other agencies.
    Another example, Mr. Chairman, is the addition of the 
concept of the smart tanker. It occurred to me suddenly one day 
that the thing that is always there in a battle is the tanker 
force. They are there to help the Navy and refuel our airplanes 
and other countries' as well. By adding equipment on, we can 
make it an IP address in the sky and network those tankers. 
Anyone inside of a tanker on land, sea, or in the air can get a 
comprehensive picture of what the AWACS, Rivet Joint, and our 
other high tech sensors are seeing in a comprehensive way.
    Those are a few of the examples, Mr. Chairman, of what we 
have done as a result of this guidance.
    Chairman Levin. Thank you very much.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Gentlemen, your 
presentations were extraordinary. These are extraordinary 
moments in American history, and each of you have lived up to 
them by your presentations today. I think your respective 
troops can take great pride in your leadership.
    I want to pick up with General Jumper's comment a moment 
ago about what is going on with the tankers. One of the reasons 
I mentioned the statistics of the casualties from World War II 
as compared to our losses today for whom we grieve deeply is 
the advancement of high technology. That has made the 
difference. You point out the trooper who rode up on the horse 
with the high tech equipment that enabled him to bring in a 
series of weapons systems from the B-52 to the AC-130 to the 
naval and Marine Corps aircraft coming in. This goes back to 
what our committee has been working on for several years, way 
prior to September 11.
    Therefore, I am going to ask, based on your current budget 
submissions and your funding plan, do you believe the 
Department of Defense will reach the goal established by this 
committee in the National Defense Authorization Act for Fiscal 
Year 2001 that by 2010 one third of the U.S. military 
operational deep strike aircraft will be unmanned, and by 2015 
one third of all U.S. military ground combat vehicles will be 
unmanned? Perhaps I would add not only meet, but exceed, given 
the lessons that we have learned from this historic conflict, a 
conflict which brings to mind when other members of this 
committee and myself have been in the Afghan region. We all 
come away impressed with those special operations teams of 15 
individuals who go in with 1 officer and 14 sergeants.
    With all deference to the Brigadier this morning, I think 
this may be known as a sergeant's war, so I will start with you 
on the subject of the unmanned vehicles in the Army.
    General Shinseki. Senator, I would just embellish a little 
bit on General Jumper's story. What he failed to tell you is 
that to get to that hilltop where that crew was calling in 
fire, they spent 14 hours on horseback uphill, and for anyone 
who has spent a little bit of time on a horse, that is quite an 
accomplishment. It was also 14 hours back, and then another 
move to another position. So these are not just creative and 
good warfighters, but they are also pretty tough.
    To your question, I think as you look at what the Army has 
put into its program both for the interim and future Objective 
Force unmanned vehicles, robotics are very much a part of what 
we are after. To your specific question whether we have met the 
guidance and the investments, I would like to provide you a 
more specific answer for the record. I would tell you that the 
spirit of language is very much captured in the Army's research 
and science and technology for that future Objective Force to 
achieve unmanned aerial platforms as well as ground vehicles.
    Part of this is in our efforts to field Crusader, an 
artillery weapons system that gets a lot of discussion. There 
is a 3-foot separation between the three-man crew and the 
mechanism that fires that weapons system. But in this small gap 
is the connection between that crew and the ability to fight 
that system totally through the mechanics and controls.
    Senator Warner. On that system, I think you should reserve 
responses for Senator Inhofe. No one has fought harder for that 
system, and I accompanied him out to Oklahoma, where I saw a 
first-hand performance.
    General Shinseki. I will be happy to get back to you with 
an answer on the robotics piece you asked about.
    [The information referred to follows:]

                       Unmanned Vehicles/Robotics

    The Army is making great progress to achieve congressional goals 
for unmanned ground combat vehicles. The Army and the Defense Advanced 
Research Projects Agency (DARPA) are pursuing enabling technologies for 
both unmanned ground vehicles (UGVs) and unmanned air vehicles (UAVs). 
We are especially interested in opportunities to incorporate unmanned 
systems and capabilities in the Future Combat Systems (FCS) 
Transformation initiative. Our commitment to advance unmanned 
capabilities is apparent in the FCS Lead Systems Integrator concept 
that invites industry proposals for several UGVs, an armed 
reconnaissance vehicle, a man portable soldier UGV to extend the 
perception of the dismounted soldier, and a soldier ``mule'' UGV to 
transport materials and supplies. The FCS concept also has three 
classes of UAVs, including a man portable UAV. It is envisioned that 
these UAVs will perform some missions currently accomplished by manned 
systems.

    Admiral Clark. Senator, I understand the guidance to be 
one-third deep by 2010, and one-half by 2015.
    The ground does not affect me, but the deep piece of this 
does. I think we are reaching for unmanned vehicles at speed. 
In this budget we reached out and added two Global Hawks. I 
envision moving to unmanned vehicles, and our vision is to get 
the ISR piece of this headed in that direction as quickly as 
possible.
    The definition of deep could then be interpreted to be deep 
strike, and I will tell you that I do not envision that we will 
be able to meet that time line for that. For us, it is not just 
this piece of unmanned vehicles. We are also pursuing 
underwater unmanned vehicles, but I would like to provide a 
detailed answer to you also for the record.
    [The information referred to follows:]

    The Navy plans to pursue the Navy Unmanned Combat Air Vehicle 
(UCAV-N) program at best possible speed. The technical challenges of 
developing a carrier based, survivable Unmanned Combat Air Vehicle 
(UCAV) make 2015 a realistic IOC estimate. This IOC date depends upon 
an aggressive acquisition approach for the system, but also retains 
enhancing measures such as a robust requirements, definition process, 
and the maintenance of competition in the program. The Navy approach 
will reduce the total cost of the program and ensure the best possible 
UCAV-N reaches the fleet.

    Senator Warner. General Jones.
    General Jones. Sir, I think we are moving quite 
aggressively in the aviation programs. I would have to do some 
research on the ground programs to see if we are apace, but my 
sense is that we are doing better in the air than on the land.
    Senator Warner. General Jumper.
    General Jumper. Senator, we plussed-up considerably the 
budget for the UCAV, which will be a jet-powered vehicle. We 
have your guidance, sir, and we are pressing on as quickly as 
we can to assure that we comply with that guidance.
    Senator Warner. Thank you. Now, Admiral Clark, let's go to 
shipbuilding. You are reputed to have said you envision the 
Navy will need 375 ships in the immediate future years, but 
according to our calculations, at the current budget, we may 
fall below the 300 figure before we start going back up again, 
particularly with aircraft carriers.
    I am proud that they are built in my State, but the parts 
come from the other 49 States. The point is that the ship 
established itself. As you said, it did not require any 
permission slip to stand off-shore in international waters, and 
it provides the platforms for General Shinseki's and General 
Jones' helicopters. It proved its worth and continues to prove 
it every day in this situation.
    With specific reference to the one carrier that was 
slipped, I calculate by almost 2 years in your budget, I will 
do my very best to convince this committee that we should 
restore the necessary funds to put that carrier back on 
schedule. Could you give us an overall view as to the number of 
ships? With regard to this one carrier that was slipped, could 
you speak on the desirability of restoring the budget dollars 
necessary to put it back on schedule?
    Admiral Clark. Let me first respond to the issue of the 
viability and the requirement for carriers. Every so often it 
is required to address the question, is this still an asset we 
need? One of the things we have learned about warfare, and 
which we relearn every time we get into any kind of action, is 
that air space dominance is required.
    I am very pleased with the way we have teamed with the Air 
Force and the Marine Corps in Operation Enduring Freedom. Let 
me just say, so everybody knows, that the United States Marine 
Corps has been flying attack aircraft off of our carriers 
during this mission on a regular basis. Their squadrons are 
integrated into our force.
    Secretary Rumsfeld said we were going to challenge all of 
our assumptions when he came into office. I said that when I 
got this job 19 months ago, so I had to applaud what he was 
saying. I believe that we have proven once again the 
requirement for aircraft carriers, and that roles change over 
time. For example, we never thought about an aircraft carrier 
routinely conducting operations 800 to 1,000 miles inland the 
way we are doing in this operation. This shows us how we need 
to continue to reach out for the technology that is available, 
and future aircraft operating off those decks will give us even 
more reach. First, we have to have that carrier. Second, in 
regards to the 375 number, you can't do ``4-2-1'' with a 
mythical presence. You do that with real combat capability. It 
is my belief that when you analyze the way we will need to do 
this in the future, it has to do with the mix of ships. It is 
not just numbers, Senator, as I said in my opening statement. 
It is about the right kinds of ships.
    The family of ships that I believe are going to spin out of 
the DD(X) program will include some large ships and some 
smaller ships. Those smaller ships are going to be required to 
be greater in number, because of their innate capability and 
the requirement for them to be viewed like an aircraft squadron 
instead of a unit of one when they move into an area. The 
littoral combatant ship is going to deal specifically with 
threats of the future in the near land areas, and we need that 
ship as fast as we can get it.
    We really ought to talk about the specifics of the threat 
in a closed session. I would be happy to do that, or provide 
information for the record if you would like us to do that.
    Regarding my third point, there were two issues with the 
slipping of the carrier. There is no question about it: the 
first reason was affordability. My responsibility is to 
recommend a budget that has the best balancing capability that 
I believe our total Navy needs. We did not have the resources 
to do that without taking the action that we did. We split-
funded it through 2 years, and it slipped a year.
    So first, it is an affordability issue. Second, there is a 
lot of new technology in that platform. New technology involves 
risk, and so I do not want to say that we did it just for the 
technology. I believe that the risk will be mitigated with the 
program that we have, but I also believe it is a balance of all 
of the issues that we are competing in the 2006 to 2008 time 
frame. That is the reason I made the recommendations we did.
    Senator Warner. Thank you.
    Chairman Levin. Thank you very much.
    Senator Cleland.
    Senator Cleland. Thank you, one and all, for your service 
to our country. I think this has been a fascinating hearing so 
far. It certainly has been for me, maybe even a historic 
hearing in trying to connect the dots.
    First of all, I am saddened by the fact that we have had 
loss of life. My State has 13 military bases, so this country 
cannot go to war without my State going to war. Of the eight 
service men and women killed in the last 72 hours, five were 
based in Georgia: four Army Rangers from the 75th Ranger 
Battalion flying out of Hunter Army Airfield in Savannah and 
one airman out of Moody Air Force Base in Valdosta.
    In terms of the combat that these young men and women were 
under, I just would like to submit for the record a marvelous 
piece by Newhouse News Service, ``Wounded GI's Recount 18-Hour 
Ordeal Under al Qaida Mortar Barrage.'' It is an incredible 
description of what that combat is all about. If there is no 
objection, Mr. Chairman, I would like to have that entered into 
the record.
    Chairman Levin. It will be made a part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Cleland. Additionally, in my own experience, having 
served with the First Air Cavalry Division in 1967 and 1968 in 
an operation where General Jumper was flying aircraft into Khe 
Sanh dodging mortars and General Jones was a young officer 
trying to get to Khe Sanh like we were, one of the things that 
has brought all that back is the marvelous movie, ``We Were 
Soldiers.'' Anybody who wants to get a feel for what these 
young servicemen are going through in the mountains of 
Afghanistan ought to see that movie.
    The point is, in this high tech world where we go to fight 
wars with high technology, ultimately we have to put people in 
there, and ultimately people are our greatest resources. 
General Jumper, thank you very much for coming to Georgia this 
week and speaking to our troops at Warner Robins Air Force 
Base. Your words were powerful and very reassuring to all of 
us.
    I will say that it does seem to me, after the work that 
Senator Pat Roberts and I did a couple of years ago about the 
global reach of the United States being 129 countries, the 
combination of downsizing of the American military over the 
last 10 years by some 40 percent and the increased commitments 
of our forces by some 300 percent around the world, as General 
Shinseki has pointed out in other testimony, means we are 
stretched to the limit. We really do not have enough people to 
do all of what we are required to do.
    Recent press reports indicate that instead of the budget we 
are talking about, the Army actually asked for 40,000 
additional troops, the Air Force asked for 8,000 additional 
airmen, and the Navy and Marine Corps asked for 3,000 more 
each. Apparently, this budget only provides for an increase of 
approximately 2,300 to the Marine Corps only.
    I would like to start off with General Shinseki. General, 
if you do not get the 40,000 extra troops, what will it do to 
your ability to meet the commitments not only to service men 
and women under fire, where we are putting more service members 
as we speak in that mountain area, but to your commitments 
around the world?
    General Shinseki. Senator, thanks. Let me go back and 
recount 2\1/2\ years worth of work in this area. Two and a half 
years ago we could not recruit, and so in the last 2 years we 
have fixed our recruiting challenges. You cannot talk about an 
end strength until you get your recruiting programs straight, 
and we have done that.
    I think the 40,000 number crept up in previous testimony 
when we were talking about a two major theater war plus lots of 
peacetime requirements. As the chairman has offered with the 
QDR and the new strategy that has been visited, there are 
details now that we have to go back through and run the 
numbers. There is a big number out there.
    I do not know that the same number of 40,000 that was 
offered a year or so ago is still accurate, but what is clear, 
as I have said and the Secretary has said in previous 
testimony, is that we have an Army too small for the mission 
profile that we are performing. This was even before 11 
September. Since that time, 13,000 soldiers have deployed to 
the Central Command (CENTCOM) area of responsibility (AOR), 
24,000 Reserve component soldiers have been mobilized, and 
soldiers have deployed to the Philippines. The strain continues 
to be imposed on our people.
    Whatever that big number ends up being when our analysis is 
done, I can tell you that there is a requirement for additional 
end strength. I have offered to the Office of the Secretary of 
Defense at least a discussion of growing our end strength above 
the 480,000 authorization this year by something on the order 
of 4,000 or 5,000, which is what we can recruit this year. That 
falls within the congressional guidance of a 2-percent 
accession to the 480,000. I think that is a relevant starting 
point to a discussion that may end up in a much larger number. 
But for right now, we can achieve the increase of about 5,000 
soldiers and it would relieve a good bit of the pressure that 
both Active and Reserve component soldiers are feeling right 
now.
    Senator Cleland. Admiral Clark, is the Navy too small for 
its mission?
    Admiral Clark. Senator, it is good to be with you and see 
you today. If you look at our track history over the last 2 
years, you will see that I have been growing my Navy. I am 
looking at my number here, and 2 years ago it was projected at 
368,600. I am right at 376,000 this year. I put 4,000 in last 
year. I needed it, because we had too many gaps at sea. Last 
year, we had deployed our carrier battle groups and amphibious 
ready groups at a higher readiness state in a manpower way than 
we have at any time in the last decade. Now, after September 
11, the issue for me is how to deal with the security issues 
and anti-terrorism force protection (ATFP).
    I can make it with the end strength that I have. With the 
allocation or the permission that was given by Congress, I can 
now exceed the end strength by 2 percent, instead of the 
previous ceiling that was at 1 percent. At the present time, I 
believe that I will be able to do this until we figure out 
exactly what the new force protection baseline is going to be. 
Within the 2 percent line is 7,400 people.
    Here is the issue, though. That is an authority, but I do 
not have the resources to do that. I have to pay for it, and 
this gets into the second issue I want to address. I have 
capability within the Reserve structure, and I have a little 
over 10,000 people called up. These are people I need for force 
protection. That only exists in the Reserve structure, and in 
the new world that we are living in, we are analyzing if we are 
going to have to put in the Active Force. It is clear that we 
cannot support it long term in the Reserve structure.
    Senator Cleland. General Jones.
    General Jones. Sir, in the 1997 QDR the Marine Corps took a 
cut of about 3,000 marines, and that cut was entirely in the 
muscle. We stood down some combat units and we significantly 
atrophied our reconnaissance capabilities, and since I have 
been in office it has been my goal to try to figure out a way 
to restore that capability. We have done a lot of that in 
internal reforms, and in the last 3 years we will have returned 
4,500 marines to the operating forces by doing away with the 
some of the jobs, civilianizing if we need to keep them.
    We have had some good internal success, and as you 
mentioned, we have requested 2,400 marines, which is in the 
budget. If that is authorized, we will significantly remedy 
that shortfall that I spoke of that occurred in 1997.
    Senator Cleland. General Jumper.
    General Jumper. Sir, thank you for inviting me on the trip 
to Georgia the other day. That was a very pleasant trip.
    During the 1990s, we came down 40 percent in the strength 
of our Air Force. As part of the 2003 budget, we originally 
asked for an increase of 7,000. This is mainly due to the fact 
that we are not able to meet our commitments with our security 
forces. When you declare an elevated threat condition overseas, 
our habit was to take our rotational forces and go fill that 
need. We never anticipated the need to do it overseas and in 
the United States at the same time.
    The Secretary of Defense has rightly asked us to go back 
and look at efficiencies we might be able to find within our 
own force structure, moving missions to the Guard, Reserve, or 
to civilianize certain aspects of it. We are in the process of 
doing that, but we will not be able to continue to do our job 
with the numbers we have now, sir.
    Senator Cleland. Thank you all very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cleland.
    Senator McCain.
    Senator McCain. I would like to follow up on the comments 
that were just made by the witnesses, and also add a comment 
that they are aware of better than I am. The Guard and Reserves 
cannot remain on Active Duty for unlimited periods of time, 
otherwise we would not be able to recruit people to serve in 
either of the Guard or the Reserve. I think that is an obvious 
point that needs to be made here.
    Senator Bayh and I have introduced legislation concerning 
national service. I am very pleased that the President is 
making a big issue of the opportunity to serve ones country, 
community, and Nation.
    In our legislation, Senator Bayh and I propose service for 
men and women in the military on a short-term basis in both the 
Active Duty and Reserve status in return for some compensation. 
It seems to me that with all the homeland security requirements 
that are now being borne for the military, there is not a 
requirement for some of the training that is necessary in other 
functions and missions of the military.
    Without getting into specifics, I would be very interested 
in your views about the concept of citizen soldiers being able 
to serve in both Active Duty and Guard for limited periods of 
time, and take up some of the responsibilities that clearly 
will be with us for a long period of time. We will begin with 
you, General.
    General Shinseki. Senator, we have a fairly active program 
now, where we take soldiers out of the Active component, and as 
they complete their active service, roll them into Reserve 
component units.
    It is good for those individuals. Many of our States offer 
college tuition as an incentive to join the National Guard, and 
it is also good for the Reserve component, because they get 
good experience out of 3 or 4 years of active time embedded 
into their formations, very quickly raising the skills and 
operational experience. I think there is tremendous good in 
having the youngsters from all of our formations being able to 
serve in a variety of other roles.
    I think we send back to this country great leaders, 
whatever the rank and age, because of the way they are used 
operationally and the values that they acquire while they are 
with us. They are a tremendous resource to be used in other 
roles, whether it is for homeland security or other kinds of 
responsibilities.
    I would like to still see a good many of them go into our 
Reserve component formations, because of the tremendous 
capabilities we have gotten out of that.
    Senator McCain. Well, I am sorry you could not answer my 
question.
    Admiral Clark.
    Admiral Clark. Senator, I have this little rule that I 
apply to my life. I never, ever talk to a group without talking 
about service, and so I think the concept of national service 
is fantastic. I applaud your initiative. I do not know exactly 
the way we would apply it if it comes about, but I know we are 
finding that our people sign on to the whole concept of 
serving. That is something that we give our lives to that is 
bigger than ourselves, and that is what it is all about.
    Senator McCain. Thank you, Admiral.
    General Jones.
    General Jones. Senator, I am an active believer in service 
to the Nation. I think it can take all types of service, that I 
think our young people should be provided with encouragement to 
serve the Nation in any capacity they can, military being one 
of them. I am a supporter of national service.
    Senator McCain. General Jumper.
    General Jumper. Senator, I think it is an unprecedented 
time in history to be able to capitalize on the spirit that we 
have in this Nation that we have not seen since World War II. 
The notion of national service is a way to capitalize on it, 
and I fully support it.
    Senator McCain. Thank you. The administration is going to 
be coming over with a proposal. The President has made this, I 
think very appropriately, a high priority, and we look forward 
to working with him. I hope you will be thinking about how we 
can best implement a military component.
    I think it will be difficult. I think we have this problem 
of two classes of the military. We have all kinds of issues 
that need to be addressed, but I think the realities are that 
it is going to be very difficult to increase your end strength 
because of the cost involved. We have so many security 
functions now, just in regard to homeland security, that I 
think we should actively pursue a way to handle those 
responsibilities. But most importantly, we should give young 
Americans a chance to serve, whether it be in the Peace Corps, 
Americorps, which has been an astonishing success, or help out 
with our national security needs. I think as you three have 
mentioned there is no better time in American history to pursue 
this. I thank the witnesses.
    Finally, Admiral Clark, I am disappointed that we seem to 
have a $48 billion increase in defense spending, and yet only 
three additional ships budgeted, less new ships than was 
envisioned before we had this spending increase. I do not quite 
understand that. That is very difficult for me to understand, 
particularly since we have found that the Navy played a vital 
role, as did the Marine Corps, Air Force, and the Army. You 
have young men and women on the U.S.S. Theodore Roosevelt 
proudly breaking the record for the longest period of time at 
sea by an aircraft carrier since World War II, is that correct?
    Admiral Clark. That is correct.
    Senator McCain. Then we had better look carefully at our 
match-up between assets and requirements. I think it is great 
to break the record once. I am not sure how many of them are 
eager to break it on subsequent occasions. If you believe that 
this conflict is going to be extended in nature, I am very 
worried about the strain on materiel, but mostly on the men and 
women in the Navy. I have never been more proud of them, but it 
is a terrific strain on them, and I am not sure we have the 
match-up right now. I really do not understand a decrease in 
ships, with a $48-billion increase in spending.
    I thank the chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and I 
thank the witnesses for their testimony. Let me associate 
myself with the remarks of the chairman and the ranking member 
in saluting the services and the sacrifice of all of our men 
and women, particularly those in Afghanistan. I had the 
privilege of knowing General Hagenbeck for 30 years, who is 
commanding Operation Anaconda, and I know our forces are being 
well-led.
    General Shinseki, I would note that the Army proposed to 
spend less in 2003 on research, development, test, and 
evaluation (RDT&E) than it did in 2002, $6.9 billion versus 
$7.1 billion. Yet, we all recognize the need to innovate, in 
fact, to pull forward some concepts and ideas that are 
scheduled far out in the future and move them forward. Can you 
comment upon this RDT&E funding situation?
    General Shinseki. Senator, we have put as much into our 
RDT&E as we had flexibility to do. Ninety percent of that goes 
to our future science and technology investments for our 
Objective Force. In balance with all the other things, we are 
trying to ensure we have an appropriate priority for the $10 
billion increase that the Army experienced. About $3.3 billion 
of that went directly in our defense health programs, much-
needed adjustments over previous budgets.
    About $2 billion, $1.9 billion to be more specific, went 
into compensation. These improvements in pay and allowances, 
which our people tell us was important, are very well spent.
    About $1 billion of that $10 billion goes into pricing, 
fact-of-life adjustments, and costs that have to be addressed.
    About $3 billion of the $10 billion went into programs, 
finding a balance between recapitalizing those legacy systems I 
talked about and making investments in trucks that the Army had 
a longstanding requirement to do.
    About $500 million went into chemical demilitarization, a 
requirement that we have for the Department of Defense. 
Approximately $900 million went into programs, and we have put 
as much energy into research and development as we could, which 
covers about 90 percent of our future combat systems 
requirements.
    Senator Reed. Thank you, General Shinseki.
    Admiral Clark, can you also comment on your RDT&E 
situation? But first, let me associate myself with Senator 
McCain's and the chairman's comments about the shortfall in 
shipbuilding. It is somewhat perplexing to us, and I want to go 
on the record with that point. I also want to commend you for 
your emphasis on underwater unmanned vehicles (UUV), which is 
another aspect of modernization and using RDT&E. I notice that 
you have accelerated a multimission reconfigured UUV and 
upgraded some other systems which are important. Why don't you 
comment on RDT&E generally, and anything else in specifics?
    Admiral Clark. Thank you, Senator, and for your comments on 
UUVs. I believe that UUV and UAV development is going to 
transform our Navy in ways that many of us can only barely 
envision today. They are very important for our future. I do 
not have the exact numbers here on the R&D accounts, but let me 
speak to the issue of shipbuilding.
    I hope I made it clear in my opening comment that I would 
like to have more shipbuilding. I have testified before this 
committee on two occasions about my belief in the requirement 
for us to develop the discipline to create systems where we can 
better partner with industry and level-fund these accounts. I 
believe we are buying all of the ships and airplanes that we 
are involved in at the wrong end of the economic order quantity 
chain. It applies to aircraft as well as to ships.
    We do have the modernization of the two Trident submarines 
that we are paying for in this year, which fundamentally would 
not have been in the total ship number. I believe we need to 
recognize that as part of the Navy's commitment to taking care 
of what the taxpayer has already bought. This budget reaches 
out and rescores SSNs that were going to be lost to the Navy.
    Having said all of that, there is no question about the 
fact that we need to be able to move toward a higher investment 
stream into the shipbuilding business and, of course, these R&D 
lines feed those accounts.
    When we talk about where all the money went, General Jones 
and I received a $9-billion increase. We buy much of our 
hardware out of the same accounts. One of the things I want to 
focus on, which I did not mention it in my opening statement, 
is that almost $1 billion is for munitions. This is an 
investment that we had to make to ensure that we are going to 
be ready to take on future threats.
    Senator Reed. Thank you very much, Admiral Clark.
    General Jones, in a similar vein of RDT&E, could you just 
bring us up to date on the status of the two principal 
developing platforms, the Osprey and the AAAV?
    General Jones. Yes, sir. The AAAV has been found to be a 
mature technology by two major independent review panels. The 
problems associated with the Osprey mostly had to do with 
engineering fixes. We have spent the major part of this year 
addressing those issues with industry, and we have been pleased 
to be able to announce that we will return to a flight-testing 
program in April of this year. We hope that that will prove to 
be successful.
    With regard to the AAAV program, we voluntarily slipped it 
1 year in order to take care of some design problems, mostly 
hydraulic types of issues. But the AAAV program is an award-
winning program, and clearly one of the most important 
transformational programs we have going. So, we are optimistic 
on both of those.
    Senator Reed. Thank you. General Jumper, my time has 
expired. Let me simply express my great respect and 
appreciation for your pilots and your people on the ground. 
They have done a great job. They flew us around into Bagram. 
Their ingenuity and their skill was very impressive, so please 
relay those comments.
    General Jumper. Thank you, Senator.
    Admiral Clark. Senator, may I add something?
    Chairman Levin. Please.
    Admiral Clark. Senator, our 2002 R&D number was $10.5 
billion, and our 2003 number is $12.5 billion.
    Chairman Levin. Thank you, Admiral.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. Let me echo what 
Senator Warner said in his extraordinary opening statement and 
the extraordinary statements made by all. I feel compelled 
right now to single out Admiral Clark and tell him that in 
addition to the opening statement he made today, he made a 
great statement to the entire world at the National Prayer 
Breakfast, when he left no doubt as to who is in charge in 
America. I personally appreciate it very much.
    Knowing the high OPTEMPO and the problems that are out 
there, I have had occasion to spend some time recently in to 
Ramstein, Aviano, Vicenza, Bosnia, and Derby. I also spent some 
time at the hospital in Landstuhl where there are people from 
all services. I have to say this just so it gets on the record: 
I talked to the young troops who were injured and to a last one 
they said they wanted to get back to their unit and they wanted 
to make a career out of the military.
    This is a change. This did not happen prior to September 
11. Admiral Clark, I remember one young lady's name, because 
she had the same name as the ship she was on. It was a young 
lady named Stennis. She was on the U.S.S. Stennis, and during a 
refueling operation she got her leg caught and a cable pulled 
her overboard.
    You look over the side of one of those carriers, which we 
have all done, and it is 77 feet down there. She fell down into 
the churning water, and it crushed both of her lungs. She was 
gasping, and between breaths she said she wanted to return to 
her unit, and wanted to make a career out of the United States 
Navy.
    All four of you have done such a great job of instilling 
that sense of patriotism that, as someone else said, has not 
been present since World War II.
    I was going to spend some time on this whole force 
structure issue, but it has been covered pretty well. I would 
only say that I think there are two deficiencies in the budget 
that came from the administration: force structure and military 
construction. Yet, I do not say that critically because we had 
so many needs, primarily modernization. I know you are living 
with the hand that was dealt you, but we are going to try to 
deal you a better hand from this point on.
    As far as the discussion on service is concerned, I happen 
to have been a product of the draft. I may be the only member 
of the Senate Armed Services Committee that openly advocates 
returning to compulsory military service.
    Let me get into a couple of other things, though. General 
Shinseki, you made several comments about the Crusader and I 
want to give you a chance to expand on them. General Jumper, 
you were very courageous 5 years ago when you admitted we were 
not giving our troops the very best of everything on the field. 
There are some strike vehicles that the Russians are making now 
that in some respects are better than our F-15 and our F-16.
    Historically, we have always had the best. That is not true 
any more, and General Shinseki, I have spent sometime over 
looking at the various options on our artillery pieces. The 
German PZH 2000 is a better system than our Paladin now, but 
not as good as our Crusader will be when we get it in the 
field. I would like you to make any comments you want to make 
about the Crusader. I consider it to be the crown jewel of what 
we are going to have. Do you have any comments to make about 
that?
    General Shinseki. Thank you, Senator. Discussions about the 
Crusader have gone on for the last couple of years, and I would 
tell you that in all the time of my service, one of the things 
we lived with throughout the Cold War was a lack of adequate 
artillery. We were both outgunned and outranged by the other 
side, unable to put precision fires where we needed them, and 
without the kind of rate of fires that would give us an edge.
    When you are living in a Cold War environment, where the 
other guy is moving offensively to your formations, you get a 
little return for having lots of less adequate artillery, but 
able to provide, because he is moving into fires, adequate 
concentration.
    Senator Inhofe. I appreciate that, and it is fully funded 
now.
    Let me get to my last question on the U.S.S. Wasp before I 
run out of time. I spent some time with Admiral Dawson and 
Admiral Natter, the Commander of the marine expeditionary unit 
and the Commander of the U.S.S. Wasp respectively, and we 
talked about live-fire training on Vieques. All of them said 
they would like to have had that. They did have inert training 
at the beginning, but they did not have the final unified 
training that they all said that they would like to have had.
    When asked, ``If live-fire is a 10, what is your level of 
training?'' They all said 5. I think that is very significant, 
because the President in his State of the Union speech talked 
about having the very best training. We are not giving them the 
best training, because there is a void there. They told me that 
they thought there was a presidential directive forbidding 
live-fire training, so we looked up that directive. It was 
dated January 31, 2000, when President Clinton said that we are 
going to hold off until a referendum.
    I have had some legal interpretations that say that is no 
longer an active directive. It is gone. It is gone because 
there is no longer a referendum, and that is how we worded it 
in the National Defense Authorization Act for Fiscal Year 2002. 
I would like to get your comments.
    Do you still stand by the letter that you sent out saying 
that you respectfully request support of a wartime modification 
of the current practice to sanction the use of live ordnance 
during combined armed training exercise prior to the 
deployment, signed by Admiral Clark and General Jones?
    Admiral Clark. Yes, sir, I do.
    General Jones. I do as well, sir.
    Senator Inhofe. It has been very confusing to all of us on 
this panel, because we get kind of passed back and forth. Here 
I was talking to those individuals who were responsible for 
training in the field. They all said they really needed to have 
it. There is no place else they can get the unified training. 
As far as your opinions are concerned, would you make Vieques 
available for live-fire training by making that option clear to 
the commanders within the Navy and your Marine counterparts at 
future deployments, if it is up to you?
    Admiral Clark. If I had the option of making it a live-fire 
exercise, then I would have to deal with all the other issues I 
have to deal with around this case, so let me just say it in a 
simple way. If it was a perfect world, and live-fire was 
available to me, we certainly would be exercising that.
    Senator Inhofe. We are going to be striving for a more 
perfect world now that we are at war, so I think that might 
happen. General Jones.
    General Jones. Yes, sir, I agree with the CNO.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. General Shinseki, would you expand for the 
record your answer relative to Crusader? I was not sure that 
you had finished it. Please provide it for the record, because 
I do not want to take any more time.
    Senator Inhofe. Mr. Chairman, I appreciate that. I did cut 
him short because I was afraid I would run out of time on my 
last question.
    General Shinseki. The bottom line is, we need it.
    Chairman Levin. That may be the bottom line, but if I got 
your tone correctly you were going to expand on what you were 
saying. I think it is important, because it is an issue which 
has been raised in a significant way in a number of places. I 
think it is important that we have your complete answer, and I 
know Senator Inhofe had to stop because of our 6-minute rule. 
It would be helpful if you provide an answer for the record.
    [The information referred to follows:]

                                Crusader

    General Shinseki. We recently designated the Crusader as a ``Legacy 
to Objective'' system that will be present throughout transformation. 
Crusader will significantly improve the capability of the counterattack 
corps with close supporting precision fires, state-of-the-art 
connectivity, autonomy, and improved deployability characteristics. 
These characteristics make Crusader a critical fire support 
augmentation option for the interim and light forces. In the future, 
Future Combat Systems (FCS) based units will have their own organic 
close support capability. But we will still need to rely on Crusader in 
an external support or reinforcing capacity, where it provides risk 
mitigation until we can achieve close support capability with an FCS-
based platform. The bottom line is that for the next 30 years, Crusader 
will provide close support and external complementary fires to the 
entire force as it transforms.

    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. I would like 
to thank our witnesses for being here with us today. We are in 
the 157th day of Operation Enduring Freedom, saddened by the 
loss of life and the expectation that more service members will 
be placed in harm's way.
    As a point of personal privilege, I would like to comment 
that Sergeant Philip J. Svitak, who was in the Second Battalion 
160th Special Operations Aviation Regiment, was a native 
Nebraskan, born in Lincoln and raised in Fremont. Our personal 
condolences go to his family, friends, and comrades in arms. I 
say that having just returned from a visit to Afghanistan, 
Pakistan, and Uzbekistan, spending some time at K2, as well as 
Bagram and Kabul. I visited with the men and women in the 
military in those locations and the morale was high.
    There was also strong concern about rotation. It is my 
understanding that the rotation for U.S. Central Command 
(CENTCOM) is 179 days. That is the marker for rotation at the 
present time. Does that coincide with your estimate, because 
there is a concern when you are on 12-7 and off 12-7 but have 
no place to go, that it is a very difficult assignment. They 
are not complaining about it, but there was the question raised 
about rotation.
    Maybe the chiefs can comment in connection with rotation. 
We have heard about shortages of personnel, and there is no 
question it is a major challenge. If we wear thin and wear down 
there is a concern about the ability to continue to maintain 
the high quality of our men and women.
    General Shinseki.
    General Shinseki. Senator, I would say that we are not 
hearing the complaints at this point, but we do know that the 
mobilization numbers had to go to our Reserve component 
formations suggest that there is not enough capability in our 
Active component structure to handle all of the requirements.
    An interesting thing happens when you deploy youngsters 
operationally. If they have a very clearly defined mission and 
a purpose, they can handle what they are being asked to do. It 
has a great return and satisfaction for what they are trained 
to do and what they are then doing in the field.
    If it were less operational, I think we would be hearing at 
least questions about what is this mission about. We are not 
getting that from the places we have Active and Reserve 
component soldiers deployed today. I do not get that inquiry. I 
do not get it in Bosnia. We do not get it in Kosovo, the Sinai, 
Southwest Asia, or Afghanistan, and that mission I do think we 
need to pay attention to this, especially where it affects the 
Reserve components, because you can rotate them on an operation 
one time, and then it is a long time before you can go back to 
the same Reserve component soldier.
    Senator Ben Nelson. I would not say that they were in the 
nature of complaints, but it was a matter of concern. Of 
course, concerns untended very often become complaints, or get 
worse than that as time goes by.
    General Shinseki. We watch this closely.
    Admiral Clark. This is an issue on the Active side and the 
Reserve side for me. We are a rotational force, and we 
routinely plan for 6-month deployments. We have had a lot of 
history to analyze, and when the deployments get longer than 
this it creates an extra hardship for our people.
    My responsibility is to try to figure out how to meet the 
taskings that we have been given. My policy, which I inherited 
this from my predecessor and he from his, was that we go to the 
Active side stay at 6-month deployments, and I have said that 
we will do that if we possibly can. But, if winning this war 
means I have to extend somebody I will not blink twice. We are 
going to do that.
    Along with my other commanders, I have to keep this balance 
piece. We have to understand the dynamics of it, because my 
forces are going to deploy, come home, go in a shipyard, train 
up, and deploy again. It is an issue for us and we have to 
watch it very carefully. So far, only a couple of the units we 
have had to do that with.
    On the Reserve side, here is what I am getting in the 
field. I was in the Indian Ocean a few weeks ago, and they just 
want to know what the plan is.
    Senator Ben Nelson. Mostly that is what I found out too, 
what the service members wanted to know was the plan.
    Admiral Clark. Yes, they say ``how long am I going to be 
here? Let me know.'' We are being as honest with them as we 
know how to be, and telling them we are doing a zero-based 
review. Right now we are going through a zero-based review of 
every individual that has been called up and will communicate 
with them where we stand.
    My particular challenge is the segment of the Reserve 
structure that I do not have in the Active Force, and so I have 
to manage it carefully.
    Senator Ben Nelson. Thank you. General.
    General Jones. Sir, my comments are very much like Admiral 
Clark's. We are a rotational force. We are also a young force. 
The average age of a United States marine is around 24 years 
old. They join the Marine Corps to do the kinds of things that 
we are providing for them at present. Our highest reenlistment 
rates are in our deployed units. We are keyed, though, to the 
6-month deployment. We will make exceptions to that as needed 
in order to help prosecute the war and the campaign, and 
everybody understands that. But 6 months is culturally very 
acceptable to the recruiting and retention goals that we set 
for ourselves.
    Senator Ben Nelson. General Jumper.
    General Jumper. Sir, in the Air Force we have a bit 
different problem. When our units return, especially the 
aviation units we have deployed, they are still on tap for a 
72-hour response for the major war plans we have to respond to, 
so we cannot let their skills, the overall spectrum of their 
skills, deteriorate. We try to rotate our aviation units out on 
a 90-day period. This is something we have worked with CENTCOM. 
We are not able to do that for all of our systems, and there 
will be some of the systems we have to keep over there for 180 
days, because of the demands on those assets.
    In addition, we have to pay close attention to our Guard 
and Reserves. They cannot go over for 180 days at a time. We 
are usually rotating them out in cycles, sometimes as often as 
2-week cycles as they come in and out to be able to return to 
their jobs. We have to respect the employers that give these 
people up, and not take for granted the service that our Guard 
and Reserve provides us. Those are the complicators, but we 
work these out with CENTCOM, and it is well-understood.
    Senator Ben Nelson. I appreciate your responses. It is 
obvious that communication is the most important part of 
dealing with that concern. I commend you for your efforts and 
suggest that we all continue to communicate as closely as 
possible, particularly those that have any questions about it 
at all. I thank you very much for what you are doing.
    Chairman Levin. Thank you, Senator Ben Nelson.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. Our military has 
on occasion been accused of being hidebound and conservative 
and slow to change. I think that has been the history of our 
militaries around the world. We tend to stick with what has 
done well before, but I have to say that I do not believe 
history will record any military that has transformed itself 
better in the last 20 years than ours. You have made tremendous 
progress, and some of the things you have described in your 
opening statements represent tactics hardly even dreamed of 25 
years ago. I believe you are continuing to move in that 
direction. We would like to see it accelerated and be able to 
help you create even a greater lead than we have today.
    All of you talked about the morale of the soldiers and 
retention. It looks good. As the ranking member on the 
Subcommittee on Seapower, I visited the Fifth Fleet in the 
Gulf, and the Seventh Fleet in Japan. I was just recently in 
the Mediterranean. I agree that morale is very good and 
retention is up. Would you tell me how good retention helps 
you, what benefits that gives to any service, particularly the 
Navy, and can it save us some money that we could use for other 
things, like ships?
    Admiral Clark. It absolutely will save us money, and here 
is how good it is. I just approved a reduction in this year's 
recruiting goal by 4,000. I am not sure I am finished. The 
reason is, my stretch goal for this year is to retain 57 
percent of those first-term sailors that are eligible for 
reenlistment. That is my goal. I am at 64.8 as we speak, and 
the month of January there were 70 percent of them reenlisting.
    I must tell you, Senator, I have been doing this since 
1968, and going to the Indian Ocean to see 20,000 sailors in 3 
days. I have never, ever been prouder to be in the Navy.
    How does it save us money? Every one of those recruits 
costs me $10,000 to $15,000. The Navy is becoming more high 
tech, and that means we need to keep the people we have trained 
and their skills. I believe we are going to have to do some 
more innovation and figure out how to incentivize the process 
to pay for the skills that come to us that are required for us 
to maintain this more sophisticated, driven-by-technology kind 
of military that we want. Of course, we do not want a fair 
fight. We want to out-gun everybody and out-tech everybody.
    Senator Sessions. Thank you. I assume that is a similar 
story with all of you; good retention and savings in a lot of 
different ways. You have more people on the job and not in the 
process of being trained, too, and that strengthens your 
capabilities, does it not?
    Admiral Clark. That is true, which goes back to my response 
to an earlier question regarding end strength. I remember being 
before Congress and talking about this issue and somebody 
saying to me, ``Admiral, you could not get them in the Navy 
anyway if we gave you more.'' That is not the challenge I have. 
Without the 2 percent flexibility given us I would have had to 
close the doors completely last year. In July, I had to lock 
the door on Navy veterans who wanted to come back in.
    So it saves us money and gives us a skill-based force that 
is able to handle the technology of today and of the future.
    Senator Sessions. That is good news indeed. One of the 
things I know you have been dealing with, Admiral Clark, is 
some unfunded requirements of previous years. You are trying to 
work those off, as I understand the numbers. Correct me if I am 
wrong, but I believe you had $600 million for the 2002 budget, 
$500 million for the 2003 budget, and you are setting aside 
some additional money for 2003 so that you will not have that 
kind of unfunded requirement that carry over and diminishes the 
next year's budget. That is effectively what has happened. 
Things did not get fully paid for in 1 year, so now you are 
having to take money out of this year's budget to pay back old 
debts.
    Admiral Clark. I presume we are talking about readiness 
requirements, maintenance, parts, and so forth, is that 
correct?
    Senator Sessions. That is what I understand. You had 
mentioned earlier that there were carryover requirements that 
are eating into your funds, and the numbers I had seen were 
about $1\1/2\ billion.
    Admiral Clark. There are several carryovers. We could be 
talking about prior years shipbuilding bills, or we could be 
talking about the approach to readiness in the past. When I 
first appeared before you I talked about a $600 million 
shortfall in the flying hour account. I want to be on record 
that the 2002 budget was the best readiness budget I had seen 
in at least a decade, and I just stopped counting there, 
Senator. It would go back aways.
    The 2003 budget builds on that. We have this year fully 
funded 100 percent of the aviation flying hour account, and 
2002 was the first time we had ever done that since I have been 
in the Navy.
    Senator Sessions. So a pilot has to have so many hours in 
flight, and if he does not get it in this fiscal year you have 
to give him extra hours the next year to get him caught up?
    Admiral Clark. It is a complex matrix, but if you fall 
behind then it actually costs you more money to catch up.
    Senator Sessions. Hopefully we will get that worked off, 
and that could free up substantial money. If you could stay 
current, then we will not have that burden, and hopefully that 
can be used for ships, too. I wish we could talk more about 
ships, but my time is up, Mr. Chairman.
    Senator Warner. Mr. Chairman, could I ask a prerogative of 
the ranking member and to take a minute of my time now?
    Chairman Levin. It depends upon the other members here.
    Senator Warner. You are eating up my time here. [Laughter.]
    The statistics are the best news I have heard in a long 
time. I think your colleagues should be given the opportunity 
right now in the record to say what your goal for retention was 
for the Army, Marine Corps, and Air Force.
    Senator Roberts. I have that for the Marine Corps, John if 
you would let me say it.
    Senator Warner. Well, Commandant, you have been preempted. 
Could the Chief of Staff of the Army give the goal in 
retention?
    General Shinseki. Absolutely. Two and a half years ago, 
Senator, when I appeared here, we were struggling with 
recruiting. While recruiting was tough, retention was not a 
problem for the Army. We are retaining at 109 percent of our 
goal. We have been anywhere between 104 and 107 percent every 
year since. Now we have fixed the recruiting challenge, and we 
continue to retain at very high rates.
    Senator Warner. The Department of the Air Force.
    General Jumper. Sir, we are at 107 percent of our 
recruiting goals so far this year. We met our goal easily last 
year. On the retention side, for our first term enlistments we 
are meeting our goals, and we have seen 1,100 prior service 
people come back into the service this year, so the news is 
good all the way around.
    Senator Warner. Senator Roberts, you go ahead on the Marine 
Corps.
    Chairman Levin. You want to step out there, Senator 
Roberts? [Laughter.]
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Gentlemen, 
welcome, and thank you for your great service to our country. I 
particularly want to express my admiration for the young men 
and women in uniform who you all represent. Like many of my 
colleagues, I have had the opportunity to visit our troops in 
Afghanistan and throughout Central Asia. Their morale was 
extraordinarily high. I believe that to be the case because 
they know that America is completely united behind them, and I 
think that makes all the difference.
    Admiral Clark, you will probably not be surprised to learn 
I am going to use my time to talk to you about shipbuilding. We 
have a $48 billion increase in the defense budget this year, 
yet the budget provides for the procurement of fewer ships than 
last year. I am very disappointed in that. The numbers tell the 
story. For fiscal year 2001, $11.9 billion was allocated for 
shipbuilding; for fiscal year 2002 it was $9.5 billion; and for 
fiscal year 2003 we are looking at only $8.2 billion.
    Your written statement very candidly describes the problem. 
You said, ``Current aircraft and ship procurement rates will, 
if continued, result in a Navy numerically smaller than 
today's, and I think this is the important part, significantly 
smaller than would be needed to sustain the war. Such a fleet 
would be an invitation to greater operational risk and 
international instability.''
    The Congressional Research Service warns us that if we 
continue down this path we will have a deficit of 47 ships. We 
are well below what the levels are called for in the QDR. We 
know that we need an average of 8.9 new Navy ships per year in 
order to maintain a 310-ship fleet. If we are not reversing the 
decline in shipbuilding in a year when we are having a $48 
billion increase in defense spending, then when are we going to 
do it?
    I am just very concerned that we have uneconomic 
procurement rates that are increasing the cost per ship to the 
Navy and are jeopardizing our shipbuilding industrial base. In 
my judgment, we cannot continue to defer investment year after 
year, so I want to help you solve this problem. I want to ask 
you some questions on how we can start remedying the situation 
now, because we are just getting deeper and deeper in the hole.
    Let us start with your priorities for this fiscal year. 
There is some money in the budget, $74 million, for an 
additional down payment on a third DDG for fiscal year 2003, 
and last year we provided an advance procurement of $125 
million for a third DDG. How high is having a third DDG-51 on 
your priority list?
    Admiral Clark. Senator, I cannot tell you how important it 
is to me and how important it is to increase not only the 
numbers but the investment stream. I talked earlier about my 
requirement to put forward a balanced recommendation to build 
the Navy, and you know how I stacked my priorities.
    From the time I came up here for my confirmation hearing, I 
told you my first priority was going to be the battle for 
people; my second was going to be current readiness; and my 
third priority was going to be the future. We are doing 
splendidly in numbers 1 and 2. There is no question we have to 
do better in number 3, future readiness. In my opening 
statement I tried to emphasize that.
    I also testified here a year ago that I needed to have an 
investment stream, and my total acquisition investment needs to 
be--the CBO first put this number out--somewhere around $33 to 
$34 billion. For the last dozen years it has been about $23 
billion, and so I would like to represent myself on this 
because I am doing what I said I was going to do.
    I do not like the way it has turned out in the shipbuilding 
line, but I have paid the bills to make sure that we have 
people to man the Navy and that the current Navy will be ready. 
I have to figure out how to create internal savings and 
efficiencies in the Navy so that I can do something about the 
$10 billion shortfall.
    I cannot testify where the $48 billion went. I can only 
tell you where the $9 billion went that came to the Navy. Seven 
and a half billion dollars went to current readiness, including 
personnel. I do not think it is fair for me to sit here with my 
hand out begging for more money without doing what I can do 
inside the institution to make it more productive and more 
efficient. But where I am this year, I was unable to find the 
resources to add to the shipbuilding account.
    Now, if I had another $1, where would we put the first one? 
The first one would be in the DDG line. The second one would be 
for LPD and so forth. We need to understand, and I need to go 
on record, about the fact that we need $12 billion of new 
construction funds committed to the SCN line every year. We are 
trying to partner with industry. We have done war games with 
industry to figure out how to get at the right end of the 
economic order quantity line, and that is the way to do it.
    Senator Collins. Mr. Chairman, I think that the committee 
will need to address this problem. This is a serious shortfall 
in shipbuilding. If we do not start addressing it in a year 
when we have a $48 billion increase in defense spending, I do 
not know when we are going to address it. I think one of the 
recommendations that I would make to the chairman and ranking 
member is that perhaps we should take a look at the $10 billion 
reserve fund. Perhaps some of that needs to be rededicated to 
make up for this egregious and continuing shortfall in 
shipbuilding.
    Thank you.
    Senator Warner. Mr. Chairman, I wish to commend our 
colleague for her comments. You have been a steadfast supporter 
of this for all the years you have served on this committee. I 
think the $10 billion is a focal point. Remember, the President 
proposes, Congress disposes, and we have solid testimony here, 
in this hearing and in other hearings, to support augmentation 
of the shipbuilding part of the President's budget. I thank the 
Senator.
    Chairman Levin. Thank you.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. This has been a 
rather remarkable morning of testimony, an unbelievable change 
from about 4 or 5 years ago. As I recall, your predecessors 
appeared before us at about the same time of the year and said 
basically, ``steady as she goes with the defense budget.'' They 
said ``we can do this,'' and then in the fall we had an 
emergency meeting, and they indicated that they could not do 
this.
    I would remind everybody that at that particular time, with 
the exception of one service, we were having real problems with 
recruiting and retention, PERSTEMPO, OPTEMPO, mission quality, 
quality of life, distrust between our service members and 
command, and according to several studies, a disconnect between 
the civilian population and the military.
    My, how times have changed, certainly very positively in 
that regard. I want to credit you and our men and women in 
uniform for the much more positive attitude that we have. I 
think we are a much more united country and much more aware of 
the sacrifice that all of you are making.
    According to my distinguished ranking member, I am supposed 
to give some testimony on behalf of the Marine Corps. General 
Jones has indicated that the Marine Corps is a young force. The 
average age of our marines is 24, roughly 6 to 8 years younger 
than the average age of the members of the other services. This 
is due in part to the culture of Marine Corps, unique with 68 
percent of our marines being on their first enlistment at any 
one time.
    The nature of the marine force structure requires us to 
annually recruit 41,000 men and women into our enlisted ranks. 
To fill this tremendous demand, our recruiters work tirelessly 
and have consistently met our goals in quality and quantity for 
over 6\1/2\ years. The performance of our recruiters has been 
superb.
    This, Mr. Chairman, with the same damn ad on television for 
the last 10 years. [Laughter.]
    Senator Warner. It is working.
    Senator Roberts. Right along there with ``Gunsmoke,'' it 
keeps rerunning. Now we have a little bit of a new one, but it 
is the same thing, the marine takes his marine sword out and 
slays the dragon. The reason I want to bring that up is I 
remember the battle with the appropriators, where every other 
service had an increase in their recruiting and the marines had 
a flat line or a decline.
    All of you gave very glowing reports on retention and 
recruiting. Are you indicating that your retention budgets are 
about right? Do you need more or less?
    General Shinseki.
    General Shinseki. Senator, we are about right, but I will 
tell you that we also look very hard, when we are making 
numbers, at how we can get some efficiency back. As you well 
know, the workforce in our recruiting effort are soldiers out 
of the line, and part of our end strength balance is affected 
by getting them back. So we are looking at it.
    Our number is 180,000. We will do that this year for the 
third year in a row. That is a big number, but we have 
recruiting about right. We have gone to school on the Marine 
Corps, picked up some pointers from them, and we are very proud 
of our recruiting program. But 180,000 is a full year's worth 
of recruiting for us.
    Senator Roberts. Admiral Clark.
    Admiral Clark. As I said a few minutes ago, Senator, I just 
recently reduced my number to 50,000 for this year.
    Senator Roberts. I was a little stunned by that. That is 
amazing.
    Admiral Clark. Our target has been in the neighborhood of 
56,000 to 58,000 in recent years. We increased our recruiter 
force 2\1/2\ to 3 years ago to 5,000. There are things that we 
could do to make them more effective and to give them better 
tools, and we are looking at that now. Nobody has talked about 
it yet, but General Jones and I put together a joint 
advertising campaign, I believe for the first time in our 
history, and it played for the first time 3 weeks ago. When he 
said earlier in the hearing that this is a real team, he is 
correct, and this is the power of teamwork.
    Senator Roberts. General Jones.
    General Jones. Sir, if I could add to your compelling 
testimony---- [Laughter.]
    One point I would make about recruiting is that it is not 
just the numbers, but the incredibly high quality of recruit 
that we are able to attract, virtually all high school 
graduates, and very bright. We are seeing the level of 
education in our services rise. I do not want to speak for all 
of my colleagues, but I think I am probably correct in saying 
that the most consistent demand that we hear from the ranks is, 
``okay, I am here now, how am I going to continue my 
education.''
    So they come to us highly educated, and they leave even 
better-educated. We celebrate this, because we believe that we 
are providing to our society at the end of an enlistment, for 
those who do not stay with us, an incredible citizen for the 
future. It is someone who appreciates the quality of their 
service and who knows their service has been appreciated by a 
grateful Nation. All of the things you have done in this 
committee to support that has been dramatically effective 
within the ranks.
    A second point I would make is that you can recruit just 
about anyone if you are a good salesman, but the strength of 
your culture is determined by your retention statistics. In 
almost 3 years in office, I found that we had been leaning too 
much on the recruiting banner, and we had not really paid 
enough attention to reenlistment, career planning, and what to 
do once we have people in the service.
    A couple of years ago we frankly had a problem with first-
term attrition and so we focused on that. We found that we were 
not working hard enough to keep the marines that would have 
wanted to stay with us if we had just worked a little bit 
harder and listened a little bit better. We fixed that in an 
amazingly short period of time.
    We then found that the second-term attrition numbers were 
not really as good as we thought they should have been, because 
institutionally we had a sense that, ``well, we have you now, 
and you are in for 20 years.'' That is not necessarily so, and 
so we fixed that simultaneously. That has allowed us to do what 
Vern Clark said, and now we have a tremendous program for our 
career force and are doing well. But again, it is a complex and 
sophisticated program, and it is not just about numbers.
    Thank you, sir.
    Senator Roberts. General Jumper.
    General Jumper. Senator, we recruit the fewest number of 
all the other services, at about 35,000 a year. Because of the 
technical skills required, such as those Vernon Clark talked 
about, we rely on our retention statistics. We have to work 
that hard, but we are well ahead this year at 107 percent. Up 
until about 3 years ago, the Air Force was never much in the 
recruiting business. We had to learn it from scratch. We never 
had a problem making recruiting, but the robust economy and the 
airline hirings had put us in the recruiting business. We are 
up on the step now. We are making our goals, and we are proud 
of these airmen who are coming in and doing the Nation's 
business.
    Senator Roberts. I read a recent article which suggested 
that the science and technology funding goal is hindered by 
service resistance. There also was an order from the Department 
of Defense for you all to reach the 3-percent goal of total 
defense budget. Senator Reed went into that to some degree. You 
answered the question, and the reason I am bringing that up is 
that Senator Levin and Senator Warner will instruct Senator 
Landrieu and myself on the Subcommittee on Emerging Threats and 
Capabilities to say, ``don't forget the seed corn in regard to 
technology.''
    What will it take for the services to commit to and 
adequately fund the science and technology program? You have 
pretty much answered that, but I wanted to second what Senator 
Reed indicated. If we are going to maintain our lead in terms 
of technology, I think that is essential.
    The last thing that I would like to say is on behalf of 
Senator Collins. I serve on the Intelligence Committee, and the 
``silent service'' plays an important part in regard to 
intelligence-gathering. They are a very proud service without 
any question, and the silent service is usually silent. Admiral 
Kunetzny was not so silent, and made some good points to 
prevent these ``oh-my-God'' hearings in the Intelligence 
Committee once something happens that turns into a real 
tragedy. It seems to me that we must have adequate 
intelligence-gathering, and our ``submarine service'' is quite 
unique in that regard. Could you address that on top of Senator 
Collins' remarks, because I am very worried about that. I think 
we have huge gaps in our intelligence-gathering capability 
because we do not have the submarines.
    Admiral Clark. We currently are right at the target line 
for the number of submarines we ought to have in our Navy, and 
that is 55 SSNs and the Trident force. It is the ``silent 
service,'' and we do not broadcast where they are out and about 
and what they are doing, but they are an extraordinarily 
valuable asset. This budget has one new Virginia-class in each 
year. What it has added is the advance procurement, so that we 
can get to two, and we must do so. We cannot sustain the force 
at one a year. It is not possible, so the advance procurement 
has to lead the commitment to the end year for the acquiring of 
and contracting of these submarines. That is toward the end of 
the FYDP, sir.
    Senator Roberts. You will be happy to notice you can have 
lunch. My time has expired.
    Chairman Levin. Senator Carnahan.
    Senator Carnahan. Thank you, Mr. Chairman. I want to offer 
my condolences to the families and the loved ones of those who 
were lost in combat this week. Among those we mourn is Sergeant 
Philip Svitak from Missouri, and our prayers certainly go out 
to his wife, children, parents, and family. Sergeant Svitak, 
along with his comrades, died in service to their country, 
defending us from future terrorist attacks. A grateful Nation 
honors their service and their sacrifice.
    General Jumper, your written testimony referred to the Air 
Force's innovative new medical concept, the expeditionary 
medical system (EMEDS). It rushes medics to where they are 
needed rapidly. It can care for patients affected by chemical, 
biological, and radiological weapons. Those capabilities might 
be very useful in responding to terrorist attacks and natural 
disasters within the United States. What benefits might the 
EMEDS program bring to our domestic first responders in case of 
future attacks?
    General Jumper. Senator, the EMEDS is a 20-bed portable 
hospital. We have several of them deployed around the world 
right now, and they do magnificent work with a complete 
surgical suite and the ability to care for a variety of combat 
and noncombat-related trauma. It has served us very well.
    With regard to how this might serve us at home, I think the 
potential is certainly there. In consultation with the Homeland 
Defense Organization, Governor Ridge, and the lash-ups between 
the Homeland Defense Agency and the military organizations, 
this will be something that I think we should explore. I know 
the capability of those systems, and I know that they have been 
very beneficial and productive for all of us in uniform.
    Senator Carnahan. Thank you.
    Admiral Clark, the F/A-18 has proven invaluable in our 
current war on terrorism in Afghanistan. The 2003 budget cuts 
the number of F/A-18s to be delivered next year. We need more, 
but we are getting less. The Navy's unfunded requirements list 
puts 10 more F/A-18, E/Fs, as its third priority. Why is this 
such a high priority for the Navy?
    Admiral Clark. Thank you, Senator, for asking this 
question. We have talked a lot about shipbuilding here this 
morning, and my opening testimony was about shipbuilding and 
aircraft.
    My air force today, which is also General Jones' air force 
because they are flying F/A-18s with us over there, is older 
than it has ever been in our history. The cost of operating 
these old airplanes is high, and we have data generated this 
year that shows the demand on spare parts is climbing at 9 
percent a year.
    We do not have a model that we are sure can accurately 
produce the right numbers, because we have never been here in 
our history. The F-14 is my second highest airplane in terms of 
cost per hour of operation. The F/A-18 E/F will replace that 
and reduce the cost of operation by at least 50 percent. It 
will bring great capability to our air force, which we need. 
Since the average age of our aircraft is 18 years, the only way 
to get better is to buy new ones.
    The program that we have sent forward seeks to accelerate 
the retirement of the F-14 and the S-3, and the desire is to 
bring the F/A-18 E/F online as soon as possible. We clearly 
need to be buying at as high as we can in the multiyear 
contract. That was all that we had the resources for, Senator.
    Senator Carnahan. What are you doing to minimize the risk 
of flying the older aircraft?
    Admiral Clark. We are spending more money on readiness, and 
so when I came and said, ``my priority is to keep the Navy that 
I have today to make sure that it is ready,'' that is the 
tasking I have been given from our Commander in Chief. All of 
us sat across the front when the President spoke to the Nation 
and Congress on September 20, and he looked down at us and made 
clear what our task was: be ready. The way we are being ready 
is that we are having to spend the readiness resources to keep 
it that way.
    Senator Carnahan. Thank you.
    General Shinseki, I understand that it often takes years 
before the most advanced technology gets from research and 
development laboratories to the users at places like Fort 
Leonard Wood, for instance. I am concerned that in the area of 
chemical and biological defense we cannot afford to wait that 
long. The threat of such attacks has never been more real. 
Would you describe how the Army will ensure that our soldiers 
have the most advanced technology to protect them against 
chemical and biological attacks?
    General Shinseki. Thank you, Senator. This is one of the 
areas in which we have expended a good bit of effort, and not 
only in terms of defense for individual soldiers. Investments 
have also gone into detection capabilities, both in operational 
combat theaters and in the homeland, where the ability to 
detect those dangers are often subtle and the risks expose 
large populations.
    We have invested considerable effort in regards to both our 
offensive and defensive capabilities in this arena to better 
equip our soldiers who deploy and increase our ability to 
protect our populations here at home. In fact, we have a good 
bit of sensing capability in operation around this town at this 
moment as a result of September 11.
    We continue to put tremendous effort here, but there is 
more to be done.
    Senator Carnahan. Thank you. I would like to insert the 
balance of my remarks in the record. My time has expired, Mr. 
Chairman.
    [The prepared statement of Senator Carnahan follows:]
              Prepared Statement by Senator Jean Carnahan
    Thank you Mr. Chairman.
    I want to express my condolences to all the men and women in our 
Armed Forces for the loss of their colleagues.
    I want to offer my condolences to the families and loved ones of 
those who were lost in combat this week.
    The Nation mourns with you.
    The death of these soldiers during combat this week is a sober 
reminder to all Americans that we are at war, and that war is a deadly 
and serious business.
    Among those we mourn is Sergeant Philip James Svitak from Neosho, 
Missouri.
    Our prayers go out to his wife, children, parents, and family.
    Sergeant Svitak and his comrades died in service to their country 
defending us from future attacks of terrorism.
    A grateful Nation honors their service and their sacrifice.
    We are here to discuss defense authorization requests for the 
coming fiscal year.
    We will also examine the budget's ability to fulfill our future 
needs.
    Our military was already in a state of rapid change prior to 
September 11.
    Events of that day, and our current war against terrorism, only 
added greater urgency to the need for military transformation.
    Transformation means shifting to a lighter, leaner, and more lethal 
military. In other words, a military with a smaller footprint but 
bigger capability.
    This committee will work closely with the leaders of our Armed 
Forces to fulfill transformation's intent.
    I am particularly interested in five ongoing initiatives:
    1. Expanding the capabilities of our strategic airlift so we can 
place weapons, equipment, and our forces on the ground anywhere at 
anytime;
    2. Continuing to foster Unmanned Combat Aerial Vehicle (UCAVs) 
technologies. UCAVs bring overwhelming lethality to the enemy while 
removing our pilots from risk;
    3. Investing in technologies that detect and deter the use of 
weapons of mass destruction against our fielded troops and our citizens 
at home;
    4. Creating robust homeland defense programs, which prevent attacks 
upon our soil, and which provide lightening-speed medical response to 
attacks on our Nation; and
    5. Ensuring we have the aircraft needed to perform short- and long-
range bombing missions. Such missions have proven extremely valuable 
during the war on terrorism.
    A casual observer of these proceedings might think this is about 
spending money on ``things''--tanks, bombs, aircraft, and ships. But I 
read your written testimony and I know you think otherwise. You think--
and you are right--this hearing is about people.
    This hearing is about that 19-year-old soldier who is thousands of 
miles away from his family and is--as we speak--engaged in combat in 
the mountains of Afghanistan.
    He does not want to be there, but he believes in his country.
    He will do anything we ask of him to defend it.
    We are telling him to fight.
    We may be asking him to die.
    We must make sure everything we provide him works to ensure he 
complete his mission, quickly, effectively, and God willing, safely.

    Chairman Levin. Thank you, Senator Carnahan.
    I would like to ask each of you about your unfunded 
priority lists. Did any of you receive any instructions, 
guidance, or any limitations placed on the content of your list 
by civilian officials in the Department of Defense?
    General Shinseki. No, sir, I did not.
    Admiral Clark. No, I did not.
    General Jones. I did not, sir.
    General Jumper. I did not, sir.
    Chairman Levin. General Jumper, Air Force witnesses have 
previously testified the F-22 program is going to be event-
driven rather than calendar-driven. In other words, the F-22 
would have to meet certain criteria and pass certain tests and 
gates before the next step would be taken in the process.
    Can you give us assurances that the Air Force is not going 
to cut corners in the development or the operational testing 
stages, and that the F-22 will start operational testing only 
when there is high confidence that the F-22 will be able to 
successfully complete operational testing?
    General Jumper. Senator, I give you my personal assurances 
and hold myself personally responsible as the action officer on 
that very issue. I am reviewing this twice a week, including 
the burn-down rate on the tests, and I can tell you we will not 
put an airplane in the air that is not safe and ready.
    Chairman Levin. I am going to ask each of you a question on 
funding for missile defense programs. Were you asked to express 
your views on the funding for missile defense programs relative 
to other priorities in the defense budget for 2003? General 
Shinseki.
    General Shinseki. Mr. Chairman, I am not aware that I 
provided that kind of input, but there are pieces of missile 
programs such as PAC-3 that we participate in because it has 
primary interest to the ground force. As to an overall program, 
I do not believe I provided that kind of input.
    Chairman Levin. Admiral Clark.
    Admiral Clark. I do not recall a discussion that I have 
been involved in where we sat down and discussed missile 
defense trade-offs.
    Chairman Levin. General Jones.
    General Jones. I am not on the budget lines. No, sir.
    Chairman Levin. General Jumper.
    General Jumper. No, sir.
    Chairman Levin. General Shinseki, relative to the Crusader 
artillery system, please give us the detail for the record that 
you were beginning earlier. In general, could you very quickly 
give us an idea how this system fits in with your plans for a 
more mobile, lighter, and lethal Army? That question is being 
raised, it seems to me, by a significant number of people, so 
try to encapsulate that issue for us.
    General Shinseki. I will, Senator. I think those that 
question the Crusader's utility tied to it sort of a Cold War 
construct, and primarily focus on its weight. I would offer 
that its weight is problematic for me as well, since I have 
spent the last 2\1/2\ years trying to get away from that Cold 
War weight that we carried into this century as an Army.
    But here is what is not Cold War about the Crusader. 
Throughout the Cold War and for most of my professional career, 
as I started to say earlier, we have been outgunned by all of 
our adversaries in terms of range, the ability to put precision 
fire on target, and the ability to move those artillery systems 
so they were not subject and vulnerable to counterfire, which 
is very much a part of what ground artillery combat is all 
about.
    In Desert Storm, we also found out the artillery pieces we 
had could not keep up with our tanks and our Bradleys, so the 
pace at which we attacked often slowed to allow the artillery 
to catch up. We needed to fix that.
    Following Desert Storm, we took 25 percent of our artillery 
pieces and retired them. They did not serve our purposes, and 
that was the amount of risk we could afford to take. Twenty 
five percent of our inadequate artillery we took out of the 
force 5 to 7 years ago, and then put those savings towards 
future capabilities that Crusader now offers: the ability to 
out-range our adversary; the ability to have precision fires on 
which we can fire at more times the rate of fire of our 
opponents, with greater precision; and the ability to once 
firing, move out from the return fires and keep up with our 
tanks.
    We have also taken 25 percent of our tanks out of our 
formations, betting on the outcome that improved artillery will 
shore up this risk. We accept it. We retired 25 percent of our 
infantry-carrying vehicles for the same reason, so there is a 
certain amount of risk we have already invested into our 
formations that we expect Crusader will provide us the return 
on.
    Of the Cold War descriptions, perhaps weight is the one 
thing people focus on, but the Crusader is intended to go into 
combat with our counterattack corps, which comes by surface 
anyway, and that is how they would arrive in-theater.
    When I became Service Chief of the Army, the Crusader was 
rated at something like 55 or 60 tons. We put it on a slim-fast 
diet. It is now coming in at about 40 tons. We hope to get it 
even below that. It will still float into operation with a 
counterattack corps that comes by sea, but at this weight it 
can fly in C-5s and C-17s. Four of them would have covered 
every inch of Kosovo. A firing platoon will outfire one of 
today's batteries, so in terms of savings it will provide us 
greater capabilities at reduced cost.
    Chairman Levin. Thank you.
    Senator Warner.
    Senator Warner. I think that is a very important response 
to an issue that is before this committee, and that testimony 
is helpful.
    I can remember my father in World War I talking about the 
French 75s, and how it outgunned what we had. The Germans had a 
wonderful weapon that they used and kept in service for a long 
time.
    I commend you for trying to tackle this tough issue and 
bring it into the confines of a rapidly-moving, transformed 
Army. It is not easy, General, but I think it is essential that 
this future Army have an artillery element, because it has 
always been there, and it always will be needed. We do not know 
today what faces us in the future.
    Earlier, Senator McCain asked a very important question 
about national service on a broad range of issues, and I 
quickly looked over some memoranda I had here on the subject. I 
have to do a lot of study myself on this issue before I am 
prepared to make decisions. Having had an opportunity to hear 
your other three colleagues, do you wish to augment your answer 
a little bit?
    General Shinseki. I may not have put as fine a point on 
Senator McCain's question. I applaud the effort to offer 
American youth national service.
    I am also challenged with recruiting for the Army, and that 
is a responsibility I have that seems to be going well right 
now. But I think this is a very special time in our history, 
and the response of American youth has been unbelievably 
superb, given this Chief's ability in the month of January to 
assure the force that we will make our recruiting numbers of 
180,000 in September of this year. Normally, we recruit up till 
August and September, and it is the last weeks before we know 
for sure. We have already met that recruiting target, and we 
can declare recruiting a success this year.
    Senator Warner. While I have you, General, earlier this 
week we received the testimony of General Schwartz, our CINC in 
the Korean area of responsibility (AOR). I talked to him 
extensively privately, and then again in open session. We 
basically had the same discussion, in private and in open 
testimony, that there is a problem with regard to either the 
perception or the reality about Army personnel being assigned 
to that AOR. There are astonishing numbers of individuals who 
are faced with the decision, a family decision, between their 
career in the Army and a tour there. They have to forfeit their 
Army career and go to the civilian life versus taking a career 
there. You are familiar with that.
    General Shinseki. I am.
    Senator Warner. I asked General Schwartz if he would 
prepare for me, which of course I will share with the 
committee, a proposal to remedy this, and to do it in 
consultation with you. It would be my hope and my expectation 
that the two of you would have a joint approach to that 
solution, because that problem has to be solved.
    The Korean peninsula is an area where we have the largest 
number of American troops in place overseas where we frankly 
have less direct or indirect support from allies, as opposed to 
the brilliant operations now going on in Afghanistan, where we 
have a number of allies involved. In the Korean AOR, it is 
pretty much the South Koreans and ourselves there. I would like 
to have those recommendations addressed by this committee in 
this authorization cycle to see whether or not we can step up 
and help you with a solution.
    General Shinseki. Thank you, Senator.
    Senator Warner. We need not expand on it now, but I would 
hope that you and General Schwartz could work on that together.
    General Jones, I was struck by your comment on education. I 
have said so many times I would not be here had it not been for 
the GI bill. The continued education opportunities in the 
services are just remarkable. As a matter of fact, last night I 
happened to be seated next to General Kernan, the Commander in 
Chief, Joint Forces Command, and he explained to me that his 
education was basically that he came in through the enlisted 
program and got his commission without any college education. 
He quickly studied nights and weekends to get his college 
degree while on Active Duty.
    Our colleague from Georgia spearheaded, and I think 
everybody on the committee joined him, a remarkable enhancement 
of the GI bill in our last authorization bill. It is a 
transferability provision to family members if the service 
person is not able to utilize their benefits.
    Anything further in the GI bill this year that would help 
you? Obviously, your recruiting is going very well, and that 
was one of the inducements, but any changes that any of you 
feel is necessary?
    General Shinseki. I am not aware of any, and I agree with 
Senator Cleland and respect his interest in the 
transferability. We have had discussions on that.
    Senator Warner. Any of the other Chiefs?
    Admiral Clark. I am a great believer that in order to 
sustain our victories in the battle for people we have to have 
a set of incentives, and I believe transferability is one such 
incentive that can be of great value to us. I do believe it 
needs to be structured in a way that helps us with our career 
force, as opposed to a broad application.
    In other words, I need all the tools I can get to fill all 
of the hard jobs that I have, and anything that can be done to 
make that a reality will be a plus as we shape our force for 
the future.
    Senator Warner. Mr. Chairman, I see my time is up. I have 
two other questions, but I will await my next turn. I want to 
talk about medical care for our active and retired individuals.
    Chairman Levin. Given your recruitment success, why is 
advertising at great expense necessary these days, on the TV 
particularly? General Shinseki.
    General Shinseki. We need it to go to the television 
advertising that we currently have, and really that ad is about 
one-third on television, Senator. It ends with a logo that 
appears and a stamp that says ``goarmy.com,'' and it really 
encourages our youngsters to get on the Internet.
    Chairman Levin. In general, though, why do we have to have 
an advertising budget of the size we have now if our 
recruitment is ahead of our goals?
    General Shinseki. As I said, we constantly review how much 
we spend in this arena, and it is cause and effect. We purchase 
these advertisements some time ago. They are beginning to show, 
and we are getting the response. We will go back and take a 
look.
    Chairman Levin. Would you do that? Admiral Clark.
    Admiral Clark. I don't know exactly what my number is. I 
believe is $76 million, but I do not have it with me to verify. 
Of the thousands of line items, I do not have it right here. I 
will get it for you. We are advertising less on television. Our 
strategy has been to push this, and we are using very short 
spots. It is all appealing to the issue of lifestyle of 
service, and then we are taking them to the web.
    The web this year has enjoyed under this new approach over 
120 percent increase, but again I will get that number for you.
    Chairman Levin. If you could take a look at you advertising 
budget as well, and tell us whether or not you think it is 
still justified, given the recruitment successes, I would 
appreciate it.
    [The information referred to follows:]

    Admiral Clark. As we enter May 2002, Navy recruiting is 
experiencing a level of mission accomplishment not seen since the early 
1990s, with 9 consecutive months of achieving both the monthly 
accession goal and the Delayed Entry Program goal. While the efforts of 
our recruiters in the field cannot be overstated, our advertising 
strategy is key to this success. We are extremely pleased with the 
performance of our advertising agency, Campbell-Ewald, based in 
Detroit, Michigan.
    Campbell-Ewald has been under contract with the Navy since 
September 2000. Their innovative approach and commitment to the Navy's 
core values and service have led to a tremendous partnership that 
continues to grow. As you may know, Campbell-Ewald rolled out the 
``Navy Accelerate Your Life'' advertising campaign in March 2001, 
designed to attract young men and women of all races and across the 
spectrum of diversity. Results have been exceptional.
    In its partnership with Campbell-Ewald, Navy has prioritized its 
advertising effort in the Internet and radio markets because these are 
key media avenues for reaching our target audience. Television 
advertising is viewed as a support medium. In fact, you may not see 
many Navy commercials on television because of this targeted approach 
(unless you are a frequent viewer of MTV). The common theme in our 
advertising is a call to action, intended to pique young people's 
interest and guide them to Navy recruiting's web site, www.navy.com. 
This has proven to be a highly successful strategy, as evidenced by the 
level of activity we are seeing on navy.com (a 159 percent increase in 
the number of unique visitors per day, over the previous site).
    I know that one of your interest areas is why we need to retain the 
size of our advertising budget when we are meeting our recruiting and 
retention goals. While we talk about having an all-volunteer force, we 
still must ``recruit'' a large majority of the people we access. Our 
research shows that young men and women are less likely to consider 
military service if they have not had the exposure that comes from 
advertising. The advertising investment we make ensures continued 
exposure to the Navy ``brand'' and pays off in recruit quality (high 
school graduates and the number of prospective recruits who score in 
the upper half of the Armed Forces Qualification Test) at a time when 
the youth propensity to enlist in the armed services remains below 20 
percent.
    While we are committed to maintaining an advertising budget that 
grows with the national media inflation rates, this year we have 
leveraged our advertising effectiveness and reduced our recruiting 
force by 10 percent--500 recruiters. In effect, we are balancing our 
commitment to growth in advertising with a reduction in recruiting 
force. Harvesting this benefit we have sent those recruiters back to 
sea to other high priority jobs. As we proved so far this year, being 
able to achieve goal for 9 consecutive months, with a reduced 
recruiting force, reaffirms that advertising is a key to maintaining 
the awareness of target groups and to be able to recruit the highest 
quality sailors.

    General Jones.
    General Jones. Sir, we are also doing less on television. 
We passed up the Superbowl, for example, which is not something 
we usually do, but we have taken our funds and allocated them 
in different ways to take advantage of the means of 
communication that are available that were not there 5 or 6 
years ago.
    We find, for example, that the Marine Corps presence at 
NASCAR events is extraordinarily fruitful in terms of interest 
of people who come by our booths. I do not think our budget is 
growing, but I also think that we have spent a lot of time 
building in our culture a recognition that the recruiting is a 
valuable asset. In other words, the skill set is recognized and 
is conducive for promotion and recognition.
    I think that our recruiters are first and foremost 
wonderful role models for our young people, and fundamentally 
what we want them to experience when they talk to a recruiter 
is a sense of admiration and a sense of an identity that at 
some point they would like to be like those marines. In the 
case of the Marine Corps, in order to provide an incentive to 
the top quality of our force to do that, you have to build a 
culture within the Marine Corps that says recruiting is 
important, and if you succeed in recruiting, your career will 
be enhanced, and we have done that.
    This is certainly a bow wave we are riding right now, but 
at the back of every wave there is always that trough, and we 
just want to be ready when the trough comes.
    General Jumper. Mr. Chairman, again, we are pretty new in 
this business, but we found great success in a series of very 
short, hard-hitting spots. The same TV generation gets 
attracted by that, but as General Jones says, the real proof is 
when they come in and go face-to-face with a recruiter. That is 
what we are really trying to get them to do, so we will, 
believe me, look at this TV budget. I agree with you, the 
prices are high on this, and we will adjust accordingly to our 
success.
    Admiral Clark. Sir, may I follow up? We have received 
unprecedented free advertising this year.
    Chairman Levin. That is not the part I am referring to. 
[Laughter.]
    We are grateful to whoever provided that, but there is also 
a real cost here. I would like all of you to take a look at 
your budget requests, given your recruitment successes and your 
unfunded priority lists. The Army has as large an unfunded 
priority this year as last year. The Marine Corps is higher. 
The other two services are lower, but in light of the unfunded 
priorities, a number of which have been mentioned here this 
morning, take a look at those budgets.
    General Jumper, let me ask you about Operation Noble Eagle. 
The budget request, $1.2 billion to continue combat air patrols 
(CAPs) over the United States into 2003. Can you tell us 
whether or not, in your judgment, the current threat warrants 
maintaining these combat air patrols at the current level, and 
also, are there other ways that we can protect against the 
threat that had such a devastating effect on September 11? 
Finally, as part of the same subject, what impact is 
maintaining these air patrols having on your ability to train 
and deploy your tactical air forces for other missions?
    General Jumper. Thank you, Mr. Chairman.
    Senator Warner. Mr. Chairman, could they also be allowed to 
respond to that question in classified form? I think there are 
two parts to that very important question.
    [The information referred to follows:]

    [Deleted.]

    General Jumper. Mr. Chairman, thank you for that question. 
We estimate right now we are spending about $50 million a week 
in the total effort. This is just within the Air Force. This 
does not include significant ground forces that are at work as 
well to fly the CAPs over the United States, including 5,000 
tanker sorties; our air surveillance aircraft; the people that 
are on alert backing them up; and all the effort that goes into 
that. It is about 11,000 people and 250 airplanes tied up each 
and every day in this effort.
    The Secretary of Defense has asked us to take a look at how 
we might fulfill this with a combination of alert aircraft, and 
that is under study right now. General Eberhardt, the Commander 
at NORAD, has brought forth a proposal that is currently being 
studied at OSD. To directly answer your question, yes, I think 
there is a way we can do this job more safely.
    I think this whole problem is better addressed at the other 
end of the problem, the actions we have taken in the airports 
to ensure security on the airplanes. We want to take care of 
this problem long before you would have to deal with it in the 
air by assuring that terrorists cannot get access to the 
cockpits and the marshalls that are on the airplanes. I think 
on the first two questions we can do something that is more 
efficient.
    On the impact on our rotational forces, it is significant. 
The people that are up there flying these CAPs today are the 
ones we are supposed to be training and getting up to take the 
next rotation, so it does have an impact. It creates a training 
void that we have to scramble to make up within our rotational 
force, and this change in venue will help correct that.
    Chairman Levin. Thank you. Keep us informed and as you do 
that study include us in that effort because we obviously want 
that safety. Again, we want safety and protection against that 
threat, but there are ways of doing it at a lower cost and with 
less impact on our other commitments. We surely want to be able 
to consider that as well.
    General Jumper. Yes, Mr. Chairman.
    Chairman Levin. Senator Warner.
    Senator Warner. Mr. Chairman, I thank you for asking that 
important question, which is asked of all of us as we travel in 
our respective States. But, of course, our primary reason is to 
protect Americans in every way against the unknown and 
uncertain terrorist threats which are manifold.
    I think our President, his Cabinet, and others have been 
very careful in warning us against threats from time to time, 
but never in our history have we ever experienced this type of 
threat to the American public here at home. Therefore, I 
realize it is costly, and it has made for a stressful situation 
on your rotation base, but I think it has been vital in helping 
restore public confidence in civil aviation. Civil aviation is 
in many respects the spoke around which our economy revolves, 
and we have to help it.
    General Jumper. If I might comment, Senator, every day we 
intercept the odd Piper Cub or twin-engine airplane that strays 
off-course and set them right again. I agree with you, sir.
    Senator Warner. In my State, National Airport has suffered 
probably more than any other airport in the Nation. I think the 
administration has done its very best to bring the level of 
flights back up. We are back to over half of what we were 
before September 11, but the repercussions on the economy have 
been devastating in our State.
    But even with the reinstitution of the flights, they are 
not as filled as they once were, because a number of Americans 
for personal considerations are saying, ``well, it is not that 
far to drive our car, so let us just take the car, rather than 
the air transport,'' and that exacerbates the overcrowding we 
have on our highways today. Therefore, I am glad that the 
administration is looking at it, and I commend you and the 
other military people who participated in this very important 
homeland defense initiative.
    Chairman Levin. Just on that subject, before you leave it, 
I think you mentioned, General, that there may be an 
alternative, which may give us some real protection but without 
some of the costs and impacts. One possibility you mentioned 
was having a more alert status. Could you expand on that 
possibility, which would give us the protection we need?
    General Jumper. The details of the proposal, as I said, Mr. 
Chairman, are under study, but essentially it puts us on an 
alert posture in about 20 locations around the United States. 
It enables us to respond within certain timed criteria to any 
event that we would be cued to by the FAA.
    It also includes, and we have already done this, by the 
way, netting the radars of the FAA so that the North American 
Air Defense Command, General Eberhardt, and his command can see 
the internal pieces of the air space in the United States that 
before September 11 we were not looking at. We were looking 
outward, in a long tradition of strategic air defense. That 
part has already been done, and will continue to be improved so 
that we can respond more quickly to these unknown events when 
cued by the FAA.
    The third part, Mr. Chairman, is the part that we will 
continue to have trouble with: the small, light aircraft flying 
at low altitude below the FAA radars and not squawking with the 
Identification Friend or Foe (IFF) system. That will continue 
to be one we will have to worry about.
    Senator Warner. I am always concerned about the medical 
field. My father was a doctor. As a matter of fact, General 
Shinseki, he served in World War I in the trenches as a young 
doctor. The medical treatment we offer our active and retired 
military personnel is of great importance. Could each of you 
give your own professional and personal views as to where we 
are? Hopefully, we are steadily improving.
    The TRICARE for Life program has been an enormous benefit. 
The mechanics and the gears of the program are not meshing 
completely as they should, but it will take time to work out 
some of that down to the level where care is delivered. But I 
think it is a step forward. This committee, working with the 
House Armed Services Committee, spearheaded the effort to 
provide TRICARE for Life.
    It was not the Department of Defense, I have to say, it was 
the committees of Congress. We keep a watchful eye on it. If 
you would, please give us a short summary of where you see that 
important service to both active and retired today. Are there 
any shortfalls we should take into consideration?
    General Shinseki. Thank you, Senator. Compared to where we 
were 2 years ago, when we first met to discuss health care, I 
do not hear the same complaints. I think our people understand 
we have made a major step forward here in providing for their 
health care both while they serve, and even more importantly, 
after they have retired.
    A lot of the mechanics need to be worked out, and we 
continue to work that. From time to time we hear suggestions as 
to how to make that better, and we act on that, but I do not 
get the concerns expressed as I go around that we were getting 
even a year ago.
    Admiral Clark. Just a few weeks ago, there was a large 
TRICARE convention sponsored by OSD, and I was given the 
opportunity to speak. In preparation, I went to the Master 
Chief Petty Officer of the Navy and said, ``give me an update 
of what are you hearing in the field.'' He said that the 
problems have largely disappeared off the scope, and great 
progress has been made.
    Out of the $9 billion commitment to medical care we 
received this year, $2.8 billion was in this category, so there 
is a significant commitment of funding to this area and the 
results are visible.
    General Jones. Sir, I agree with the CNO. The Navy doctors 
and corpsmen are all on Admiral Clark's side of the house, but 
we are the beneficiaries of that. I concur we have seen a 
dramatic turn around, not only for the care of our marines, but 
for their families and our retirees as well, and we thank you.
    General Jumper. Mr. Chairman, I think that the number of 
complaints we hear has certainly gone down. I continue to worry 
that $2.8 billion has to be put into a program that was that 
far out of its budget. I watch large amounts of money being 
dedicated to TRICARE, and we pay a lot of attention getting our 
commanders involved in making sure that these gears mesh 
together properly down at the local level, and that the 
specific kinds of specialists at some of our remote bases, 
especially our northern tier bases, are made available.
    These are minor problems as far as the whole program, but 
they have a profound impact on the attitude of our people when 
we cannot provide the services that the system promises. We 
continue to work this problem down at the commander level, and 
continue to make improvements, but I agree with my colleagues 
that the system is improving. It is getting better, but it 
still remains an item of very serious concern to me.
    Senator Warner. Another personnel issue which has been 
longstanding, like TRICARE for Life, is the issue of concurrent 
receipt. In the final moments of Senate floor debate on the 
conference report, Chairman Levin and I, together with Senator 
Reed and Senator Hutchinson, spoke of that issue. We are now 
beginning to look at it again and see what we can do. We may 
not be able to do it all at once, but we have to determine what 
we can do on that issue now and in the foreseeable future to 
resolve it.
    I will not call for comments now, but I invite you to put 
anything in the record that you feel is pertinent to this 
issue.
    [The information referred to follows:]

    General Jumper. The Air Force supports the Department's position.

    Senator Warner. I want those who are following this hearing 
and who are interested in that subject to know that we feel it 
is an inequity that has to be addressed. The dollars involved 
are very significant, and we are not going to give up. I just 
mentioned the four, but there are others on the committee 
working this issue.
    I have one last question, and then I will defer to our 
chairman. My last question concerns the old adage that the 
military is always preparing to fight the last war. Well, 
transformation has changed that. I think it would be 
interesting if each of you gave two examples of what your 
departments have learned from the current operation, which I 
think is going very well. We have achieved a very large measure 
of success in the Afghan AOR.
    We have not apprehended bin Laden, but we will get him. We 
have not captured Omar, but we will get him. In the meantime, 
we are fighting, dying, and bleeding, but we are carrying out 
the orders of the Commander in Chief.
    What have we learned from this conflict that you have 
immediately incorporated into your current doctrine in your 
respective departments?
    General Shinseki. Sir, I think much of it has already been 
discussed, and that is the capabilities resident in all four 
services here that come together quite well when you have 
great, creative, and tough people on the ground with a sense of 
innovation who can ride in on horseback and direct the fires of 
a B-2.
    The other piece is a reinforcement of the fact that, as 
good as our technology is, we ultimately have to deal with the 
ground environment where you force the other guy to mass. Then 
all the great technology we have invested in is brought to 
bear, but it is a complement of all our capabilities that must 
work together. As Jim Jones and I agreed 2\1/2\ years ago, none 
of us have ever been in an overly crowded battlefield.
    General Clark. It is really hard to just do two, but I 
talked earlier, as did General Jumper, about the incredible 
coordination and integration with the Air Force and the air 
commander and how that is working. Let me blow right by that 
and mention jointness. I was running short of a particular type 
of munition. I picked up the phone and called John and said, 
``John, I need help.'' He said, ``how many do you need?'' I 
told him, and he told me I would have them in the morning. 
That's how well the joint machine is working.
    But the most important lesson is that many times we use 
measures of effectiveness that I think miss the mark. This 
operation really drove the point home to me. My new favorite 
word is persistence. It appeared a couple of times in my 
opening statement. If we just talk about how many bombs we 
dropped, we miss the point. The level of activity for pilots 
operating off of our carriers today is close to what it was 
when we started the offensive operation, and the reason for 
that does not have anything to do with how many bombs we are 
dropping. It has to do with persistent combat power being 
available, and when you have 4,000 or 5,000 Americans on the 
ground, that is the order of the day.
    What we have found, working hand-in-hand with the Marine 
Corps and the strike fighters in the Air Force, is that we have 
been working and coordinating our resources to make sure we 
have somebody on the scene. One of those young folks on the 
ground can say, ``I need help right away.'' It is about 
persistence, and it has been going on at ranges that we never 
thought possible before. This whole conflict was about target 
opportunity and time-critical targeting, as opposed to a big, 
long, strategic target list that you planned out for months in 
advance. The ability of our people to execute a mission like 
that has been the biggest learning experience for me.
    General Jones. It is difficult to count just two, but I 
would say the first is a relearned experience, and that is the 
value of the men on the ground. You contrast the air campaign 
in Kosovo against the air campaign in Afghanistan, and the 
force multiplier certainly included the technology. But the 
real force multiplier was the soldier, sailor, airman, and 
marine on the ground. That is the harness. That is the 
multiplier that says we can, in a much shorter period of time, 
take all of this technology and apply it with great precision 
and bring about the end results that the Nation wants 
effectively and safely.
    We should be careful in the future, because we should never 
get to the point where Americans in uniform on the ground are 
going to be a disposable asset that will not be needed in the 
future war fight. I do not believe that.
    We can celebrate that we do not see the horrific casualties 
that Senator Warner mentioned in World War II. In the 20th 
century, the coin of the realm was that God was on the side of 
the big battalions. If you came to the fight with more people, 
technology, fire-power, boats, and ships and had competent 
leaders and brave soldiers, sailors, airmen, and marines, you 
could win the fight.
    We are still going to need that in the 21st century, but 
the good news is that because of our incredible asymmetric 
advantage, which we should keep as a Nation against any future 
adversary, we will be able to do things with much smaller 
units. The battalions of the 21st century will do things that 
the regiments of the 20th century did, and we are seeing that 
in Afghanistan.
    The other point I would make is that the four of us 
represent an incredible range of assets resident within our 
services. This Nation has global responsibilities. It is 
responsible for leadership and for celebrating the inexorable 
rise toward true freedom for all people. At various points in 
our use of the military we are going to call on different 
assets. There will be times when sea bases will be prime and 
land bases will not. We have to be very careful as we go along 
in how we invest to make sure that our interests are well-
understood, and that we understand the power that all of these 
capabilities together bring.
    This is not to say that the Army, Navy, Air Force, or 
Marine Corps should ever be as one. The cultural diversity that 
we bring to the battlefield is in itself a force multiplier. In 
a sense, we have many things that we are doing now that we are 
just slack-jawed over: the distances, ranges, precision, 
responses, and lethality. But the real good news is that we 
have young Americans motivated in the 21st century to do things 
for the same reasons, Senator, that your father, you, and 
others like you did in the 20th century. That is incredibly 
good news for the country.
    Thank you.
    General Jumper. Sir, my number one lesson is that we were 
wrong about this generation of Americans, who we have been 
taught are not as respectful, committed, loyal, or dedicated as 
previous generations. I was down at Lackland Air Force Base for 
graduation ceremonies the week before last. These kids come out 
of the field, having spent many days learning the rigors of 
living in tent cities as a lot of us do, and for the first 
time, as they graduate, they are called airmen instead of 
trainee by their training instructor. For many of them it is 
the first time they have really had a chance to achieve.
    You go around and shake their hands and ask them if they 
are proud of themselves. Five or six said, ``not only am I 
proud, sir, but this saved my life. I have been given the 
opportunity to achieve something I would not have had before.'' 
I am proud of the opportunity to take a generation of 
youngsters who have not had the opportunity to be proud of 
themselves and give them that chance.
    On the technical side, we could go on forever. One point I 
would like to expand on made by Vernon Clark is that we learn 
something out of every war. My word of the week is ``balance.'' 
You see nothing in the paper over arguments between the Air 
Force and the Navy about who flew the most sorties or dropped 
the most bombs. In fact, if you go over there you find that 
some of the forward air controllers are flying Predators and 
remotely controlling close air support. It is seamless. You do 
not know where it is coming from, and we have learned to do it 
all the same.
    I will tell you, we have learned a lot of this on the fly, 
since this operation began. If I could speak for Vernon Clark, 
the Navy is not used to taking off and flying 8 or 9 hour 
sorties with multiple air refueling. It is not the way they 
train, and it is different. It is different for us, too, 
because the first sorties out of Whiteman Air Force Base were 
44 hours long. We have a cadre of people that know how to do 
that now. That is different.
    Where this will be going in the future, and what we will be 
coming to this committee and asking for help on, is figuring 
out how you fly these complex scenarios where you are putting 
all of the services together. It is going to have to be 
something we do sometimes in the synthetic world, where you are 
using the satellites in space and the manned and the unmanned 
aircraft with precision munitions to get the seams closed and 
weapons on the target. That team includes General Shinseki's 
special operators on the ground, as well as the marines. So you 
have seen this coming together, and it is exemplified better in 
this war than we have in the rest of the decade.
    We all have our part to play. We all bring something to the 
fight, and there is plenty of war for everybody.
    Senator Warner. Those are very responsive answers. I think 
it is one of the best hearings you and I have had, and you and 
I have been here a long time. We do not mention how long we 
have been here.
    Chairman Levin. If you will not, I will not. [Laughter.]
    Senator Warner. I want to pick up on something General 
Jones said. He drew a very interesting comparison to Kosovo. I 
remember so well the last 2 or 3 days of that conflict. Just by 
coincidence, I was on one of my visits, and I was with General 
Clark. He was our NATO Commander and the Commander in Chief, 
European Command at the time. We were in a helicopter, and we 
were going along the border of Kosovo looking at avenues of 
approaches to get ground troops in. He had been operating under 
constraints, some political, some diplomatic, and he was 
prepared to take on that issue publicly, but he wanted to make 
sure that there were avenues of approaches to get the forces in 
and the requisite heavy equipment that must accompany the 
ground forces.
    I remember so well, we looked at bridges, which were 100 
years old, to determine whether or not the engineers could come 
in and in a very short period of time and strengthen those 
bridges. We were looking at the means by which to disembark sea 
forces from ships onto land using barges to take them in. This 
commander was determined that he had to confront this issue and 
take that on.
    Fortunately, that war ended. I remember so well receiving 
the message that hostilities were going to cease. I think your 
peer groups in years prior have recognized that the ground 
element is something that just cannot be discounted in this 
type of operation, and to his credit he was beginning to 
realize that and to take it on.
    Chairman Levin. I have just one last request. General 
Shinseki, you have requested that the Joint Staff conduct a 
study of the implications of the proposed changes to the 
unified command plan, particularly in relation to the creation 
of a new CINC for homeland defense, including the implications 
of that proposed change on your responsibility to train and 
equip our forces. Please let us know for the record the status 
of that study, and please describe some of the concerns you 
might have and when you expect that that study to be completed. 
It is late now, so I will not ask you to comment on that at 
this time.
    [The information referred to follows:]

                               CINC North

    General Shinseki. Although Army has not commissioned a formal study 
on the formulation of a new commander in chief (CINC), we have 
participated in a series of discussions along with the other services 
and the Joint Staff about the topic. We generally agree on the need for 
this new headquarters. In establishing the new command, it is important 
to get the incoming commander's perspective on the mission and 
organization of the command. We want to ensure the CINC has the 
opportunity to conduct his analysis and then organize the command based 
on his mission analysis.
    We think the CINC's analysis is critical for the successful 
execution of this most important military mission. Preliminarily Army 
analysis indicates this CINC will have very few forces assigned to the 
theater, but would instead receive Army forces through the force 
provision process from Joint Forces Command. The CINC should have 
forces apportioned for deliberate planning however. We anticipate the 
majority of these forces multi-apportioned to other theaters as well.
    We do not anticipate our requirement to train and equip our forces 
to change significantly based on the new CINC. The Army mission is to 
fight and win the Nation's wars. From that warfighting ethos, comes our 
ability to support another lead Federal agency in the homeland. At this 
point, we intend on maintaining the Army's warfighting, expeditionary 
focus, even for forces that might be apportioned or assigned to 
CINCNORTH. That will ensure the Army's ability to meet its non-
negotiable contract with America to fight and win our Nation's wars.

    Senator Warner. Could I just say, it is so important that 
you bring that up. I have said repeatedly, and I think you have 
joined me in saying, that we have to move swiftly on 
establishing the CINCNORTH, the homeland defense CINC. Let us 
hope and pray we never have another strike against this 
country, but if that were to happen, I think the American 
public would ask what have we done in the interim. That is a 
plan that I hope is going to be put in place as quickly as 
possible, and to reconcile some legitimate differences between 
several CINCs as to how to do it.
    Recently, I have talked with several of them on this 
subject, as you have. Let us get moving on this. I am confident 
that Congress will back you and the Secretary of Defense in his 
decision.
    Chairman Levin. Senator Warner made reference to the issue 
of concurrent receipt, which we tried to address last year 
without success. We did act in the Senate, but we were unable 
to get it through conference. To confirm what Senator Warner 
has said, in a letter to the Budget Committee I asked that they 
address this issue in the budget, and that they find a way, if 
possible, to do it this year.
    There is a big expense to it, but there is also a big 
equity issue here as well. I know that Senator Warner has 
joined in that, and Senator Reid has been carrying the brunt of 
the leadership on this

issue. It is just something that I wanted to make clear for the 
record, that the letter to the Budget Committee also makes 
reference to that issue.
    Senator Warner. Could I mention, in my letter to the Budget 
Committee, Senator Hutchinson also takes that issue on. As I 
said, it has to be a top priority, because I am concerned about 
your program elements, due to the enormity of these sums.
    Chairman Levin. Senator Warner and I were with our troops 
over Thanksgiving in Uzbekistan, Pakistan, and a number of 
other places, and I can tell you how proud we were to serve 
them dinner. We are all proud of you, and your leadership is a 
big part of our success. We thank you individually and 
collectively for that. It has been a tremendous force for 
strength and cohesion that you have all mentioned, which is 
really striking. We heard many examples of the way the forces 
are now working together, and it was so different many years 
ago when I first got here. Goldwater-Nichols was a big 
contributor to that effort, but you gentlemen have been 
committed to that, and it has made a real difference. We heard 
directly from the troops during Thanksgiving the various 
examples of how they work together as a team.
    We are grateful to you for your testimony today. It has 
been an excellent hearing. We will stand adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Max Cleland

                             WARNER ROBINS

    1. Senator Cleland. General Jumper, could you outline some of the 
good things that you saw at Warner Robins on Monday, March 4, 2002? I 
would also hope that you could outline steps which Warner Robins, along 
with all of our Airlift Control Centers, could and should undertake to 
become more efficient and effective; it is my hope that the Senate 
Armed Services Committee can assist you by using this information to 
strengthen the Airlift Control Centers' mission.
    General Jumper. Senator Cleland, the Air Force is working to create 
``world class'' maintenance and repair operations at the depots. 
Getting aircraft, engines, and parts repaired and returned to our 
operational units faster would be a big help in improving the readiness 
of our forces. It would provide the airlift system more available 
airlift assets to better manage the critical flow of airlift cargo 
moving around the world in support of contingency operations. It was 
very encouraging to see the spirit of innovation and the progress being 
made by the depot team at Warner Robins as they re-engineer and 
transform their shop floor practices. The improvements they are making 
are significant in terms of improving output and reducing cost. The 
most impressive thing is the spirit of the people on the floor 
contributing to these improvements. Also impressive were the signs of 
the emerging partnerships that Warner Robins is forming with its 
commercial partners. In the long run these partnerships will pay big 
dividends in helping us to ensure the viability of the depots. All of 
these efforts are part of a much bigger transformation effort that we 
have underway at our depots. These transformation efforts coupled with 
the renewed commitment we are making to increase investment in our 
depots through our emerging depot strategy will truly make our depots 
world class maintenance, repair, and overhaul facilities. We appreciate 
your strong support in helping us to improve our depots so that they in 
turn can improve their support to our operational forces.

                                GI BILL

    2. Senator Cleland. General Shinseki, Admiral Clark, General Jones, 
and General Jumper, last year we succeeded in enacting a provision that 
authorizes service secretaries to permit service members with critical 
skills to transfer up to half of their benefit to family members in 
return for a service commitment. This proposal gives the DOD and the 
services significant flexibility in how it is implemented. Would you 
outline what plans you have for using this new retention tool?
    General Shinseki. We are exploring several options regarding 
transferring Montgomery GI Bill benefits to family members as a 
retention incentive for certain critical specialties. The first 
priority for the use of these educational benefits will always be for 
the soldier. The soldier earns these benefits for his or her uniformed 
service to the United States. However, the Army will work to find an 
acceptable solution to the transferability of GI Bill benefits to 
family members as a retention incentive for certain critical 
specialties.
    Admiral Clark. Many Navy men and women are concerned about their 
ability to pay for their children's college education, while at the 
same time, they may never have opportunity to use their own Montgomery 
GI Bill (MGIB) benefits. Congressional leadership in this area has 
allowed us to look at new ways of providing career incentives in a 
force where over 60 percent of our people have dependents.
    Navy is embarking on a small-scale program that will measure the 
retention impact of allowing certain members to transfer MGIB. We have 
selected an initial population (in the range of approximately 700-1,000 
sailors that will continue to be refined) that meets the following 
criteria:

        <bullet> Rating/skill is either critical or undermanned;
        <bullet> Length of Service is 10-14 years (Zone C);
        <bullet> End of Obligated Service is between June 1, 2002 and 
        December 31, 2002;
        <bullet> Is currently enrolled in MGIB program; and
        <bullet> Is a member with qualifying dependents.

    We have constrained the initial population group due to founding 
considerations and to ensure that we can make a meaningful input to the 
report due to Congress in January 2003. A control group will be 
established comprised of sailors who meet the same criteria as the 
initial population, with the exception that they would not be currently 
enrolled in MGIB.
    Once the Department of Veterans Affairs is ready to begin program 
implementation, personnel in the initial population group will be 
individually notified that they have been selected for participation. 
They will be given the option to elect MGIB transferability in exchange 
for an agreement to remain on Active Duty for 4 more years. This 
initial small-scale roll-out of the program will run from June to 
December 2002.
    General Jones. The Marine Corps appreciates the efforts of Congress 
to provide the services with additional tools that may assist them in 
retaining the best and brightest enlisted personnel to meet the career 
level skill demands to sustain the services. Unfortunately, due to the 
war on terrorism, the Marine Corps does not currently have the funding 
available to offer this benefit to our servicemembers with critical 
skills. However, I have directed the Deputy Commandant for Manpower and 
Reserve Affairs to conduct a survey to determine the potential effect 
of Montgomery GI Bill transferability on recruiting and retention 
within the Marine Corps. I would like to reinforce the testimony of 
both the Sergeant Major of the Marine Corps and Deputy Commandant of 
the Marine Corps for Manpower and Reserve Affairs, that this benefit 
should be available to all marines who choose to remain in our corps.
    General Jumper. We have developed an implementation plan to test 
this new retention incentive. The test program will be conducted from 
October 1, 2002 through September 30, 2002, and will focus on critical 
enlisted and officer Air Force Specialty Codes (AFSCs). On the enlisted 
side, these will include our young men and women who are linguists, 
fire fighters, and computer system programs. For the officers, we will 
focus on our engineering and science critical skills and will include 
those in the scientist and developmental and civil engineering 
communities. Since transferability is an unfunded mandate that must be 
borne by the services, implementation is contingent upon adequate 
funding in fiscal year 2003.

                             TRANSFORMATION

    3. Senator Cleland. General Shinseki, Admiral Clark, General Jones, 
and General Jumper, how have your transformation plans been affected by 
what we have learned and continue to learn about the war on terror? Are 
those realities adequately addressed in the fiscal year 2003 defense 
budget?
    General Shinseki. The attacks of September 11 were more than just 
the first salvo in a new war; they validated the direction of our 
vision and the need to accelerate Army transformation. We have funded 
the Army's top priorities, but have taken some risk in certain areas to 
create a balanced program. The Army is in a continuous process of 
learning and assessing from our experiences with the global war on 
terrorism and is eager to work with Congress to align the fiscal year 
2003 budget with new realities as they emerge. Likewise, we appreciate 
added funding for those areas where we did take risk. Overall, we 
believe our efforts to accelerate transformation are on track with the 
emerging strategic environment.
    Admiral Clark. The global war on terrorism is but the first war of 
the 21st century. Violent horizons lie before us, harboring profound 
challenges including the threat of cyberwar, weapons of mass 
destruction (WMD), continued international terrorism, and the havoc 
accompanying failed states. Importantly, such threats do not replace 
the specter of state-on-state conflict. They add to the danger and 
uncertainty, providing new sparks to already combustible situations.
    To ensure future warfighting effectiveness in this uncertain 
strategic environment, sovereign naval forces are being transformed to 
better prevent crises and--should deterrence fail--project offensive 
and defensive power ashore to defeat all adversaries. We are 
transforming to become a 21st century Navy of awesome capabilities: 
strategically and operationally agile; technologically and 
organizationally innovative; networked at every level; highly joint; 
and effectively integrated with allies. The lessons we are learning 
from the war on terror have reaffirmed the importance of this 
transformation.
    The President's budget adequately addresses transformation. Some 
examples of exciting new technologies funded in the President's budget 
that will accelerate our transformation toward a fully networked Navy 
include the DD(X) destroyer, SSGN submarine, Joint Strike Fighter, 
Unmanned Aerial and Underwater Vehicles, Tactical Tomahawk Theater 
Ballistic Missile system, Cooperative Engagement Capability, and Navy-
Marine Corps Intranet, among others.
    General Jones. Marine participation in Operation Enduring Freedom 
confirmed our vision of likely future contingencies and strengthened 
our resolve to transform our warfighting capabilities as quickly as 
possible. The Marine Corps' capstone concept of Expeditionary Maneuver 
Warfare (EMW) envisioned from its inception an asymmetric battlefield 
on which the enemy would attempt to counter our technological advantage 
with unconventional weapons, decentralized operations, and anti-access 
strategies. EMW addresses the chaos and ambiguity of the environment 
encountered during Operation Enduring Freedom, the rise of non-state 
actors, and the potential for weapons of mass destruction. Our 
transformation strategy remains intended to exercise our current 
capabilities in new and innovative ways while we develop new 
warfighting capabilities to meet exactly these requirements.
    Expeditionary Warfare Capability: Operation Enduring Freedom has 
again demonstrated the need for joint forces to project power far from 
our shores, deep inland, and with minimal dependence on landbases. In 
Afghanistan, Marine forces confirmed their ability to immediately meet 
the enemy, operate from his terrain, and defeat him while relying on 
our expeditionary ethos, maneuver warfare philosophy, and naval 
heritage. Our transformation process will only enhance the ability of 
the Marine Corps to get to the point of conflict with the right mix of 
personnel and equipment to accomplish the mission. Development and 
fielding of the MV-22, the Advanced Amphibious Assault Vehicle, and 
Maritime Prepositioning Force (Future) [MPF(F)] shipping will increase 
our ability to project power from the sovereign seas further ashore and 
more rapidly than we demonstrated during OEF.
    Capabilities for Joint Force Commanders: The global war on 
terrorism has clearly shown the synergy possible when Joint Force 
Commanders have a full toolbox of service-unique capabilities to employ 
and combine for the task at hand. Our forward-deployed Navy/Marine 
Corps team is designed for immediate employment by joint commanders, 
supporting other elements of the joint force and enabling follow-on 
forces. Transformation will add to the capabilities provided by our 
Amphibious Ready Groups (ARGs) and embarked Marine Expeditionary Units 
(MEUs) by strengthening our ability to provide warfighting Commanders 
in Chief (CINCs) with rapidly deployed Marine Expeditionary Brigades 
(MEBs). Additionally, the war on terror has identified the need for 
rapidly deployable and dedicated anti-terrorism forces. Our 
organizational agility, essential to transformation, has responded with 
the establishment of the Fourth Marine Expeditionary Brigade (Anti-
Terrorism) [4th MEB (AT)], a powerful combined-arms team prepared for 
worldwide anti-terrorism operations. Our Nation's experience in the war 
on terror to date indicates to us that our transformational strategy, 
guided by EMW, is appropriately focused and well targeted to meet the 
needs of tomorrow.
    Seabasing: The war on terror continues to demonstrate the need for 
U.S. forces to be capable of defeating anti-access strategies. We must 
be capable of projecting power despite political constraints or long-
range weapons and with minimal dependence on fixed and vulnerable 
landbases. In Afghanistan, the Navy/Marine Corps team was able to 
insert and sustain a capable force into theater from the sea, supported 
by, and in turn supporting, other elements of the joint force. As we 
move forward with delivery of the LPD-17-class amphibious ships, plans 
for a replacement to the current LHA fleet, and development of our 
Marine Prepositioning Force (Future), our transformation will 
capitalize on these capabilities. Seabasing will provide the Navy/
Marine Corps team with greater strategic agility, operational reach, 
and tactical flexibility than we are capable of today, enabling power 
projection independent of host nation support against objectives across 
the breadth and depth of a theater. This enhanced capability will allow 
joint force commanders to introduce marine units deep into a 
challenging environment, sustain those forces indefinitely, and then 
rapidly reconstitute the force for future operations from platforms 
with inherent seabased force protection. The ability to initiate and 
sustain operations without the requirement for port facilities and 
airfields, historical planning inhibitors, will greatly expand the 
operational and tactical reach of the commander, increase tempo, and 
enhance the overall flexibility of the entire joint force.
    General Jumper. Our war on terror is allowing us to witness the 
potential of transformation, a mindset that creates asymmetric military 
advantage by leveraging advanced technologies, focusing on 
capabilities-based concepts of operation, and harnessing innovative 
organizational changes.
    Transformation expands the way we, as airmen, think. It transcends 
just designing new systems. We are witnessing transformation when we 
see our troops riding horseback with a GPS and laser range finder as 
the tools of the trade on the saddle horn. Combine this with a secure 
satellite and radio links, and we are passing target coordinates to a 
B-52, and precisely placing a JDAM in the midst of enemy forces within 
600-800 meters of friendly positions, with complete confidence. No 
single piece of this equation is transformational; rather, it is the 
integration of all our capabilities--both old and new--that elevates 
our operational effectiveness to new heights. This vividly displays in 
living color how real transformation gets down to the operator, and 
that's the focus of our transformation plans. Our 2003 defense budget 
makes important steps in sustaining that momentum.
    Another critical transformation issue is organizational change. The 
transformation of Headquarters Air Force is underway. Recently, we 
directed the stand-up of a new organization, AF/XI. AF/XI's mission 
will be to orchestrate the integration of our warfighting systems--they 
will ensure we capitalize on the changes needed to achieve true 
integration. Their charter will be to focus on new cutting edge ideas, 
thus avoiding the constraints of old think. It's this type of new 
thinking that has positioned us to use 21st century technology to win 
the 21st century wars.

                         UNFUNDED REQUIREMENTS

    4. Senator Cleland. General Shinseki, you testified last week 
before the House Armed Services Committee that the Army's unfunded 
requirements totaled around $9.5 billion. Which, if any, of those 
programs not adequately addressed in the budget request are tied to 
your transformation efforts?
    General Shinseki. Approximately $4.4 billion of the Army's fiscal 
year 2003 critical shortfalls are tied to our transformation efforts, 
including over $2 billion for modernization of the Legacy Forces.

                           HOMELAND SECURITY

    5. Senator Cleland. General Shinseki, on Tuesday, Admiral Blair, 
General Schwartz, and Major General Speer testified before this 
committee and each commented on the additional requirements the war on 
terrorism and Operation Enduring Freedom have placed on their commands. 
Given the lengthy deployment that the war on terrorism is going to 
require, I remain concerned about over-tasking units. To my knowledge, 
only the Marine Corps officially requested an increase in end-strength 
in the fiscal year 2003 budget to meet increased needs. We have fought 
hard for retention and recruitment to ease the overburdening of the 
current force structure. What we fail to do regarding end strength will 
negatively impact retention and recruitment if we don't indicate the 
reality that more is needed. We are at war and must realize the human 
consequences that result from our policy deliberations. Service men and 
women will risk more than their reputations in carrying out the 
policies we approve. What role is the Reserve component going to play 
regarding homeland security and how will that affect their ability to 
support and reinforce active duty units and requirements?
    General Shinseki. The Reserve components are part of the Army's 
overall coordinated homeland security capability--either in a homeland 
defense role or in support to local, state, and federal authorities. 
The Reserve components will continue to play a critical role in 
supporting and reinforcing Active-Duty Forces as the Army meets its 
strategic requirements.
    The Army's non-negotiable contract with the American people is to 
fight and win our Nation's wars. The Army prepares for these 
warfighting missions by maintaining a combat focus with trained and 
ready units. Maintaining a warfighting focus gives the Army the 
capability to support civil authorities in a wide range of domestic 
contingencies and the Guard and Reserve are no exceptions.
    In addition to warfighting, one of the Army's core competencies is 
supporting civil authorities. Most of what the Army has done in 
securing the homeland over the past 6 months has involved supporting 
civil authorities whose own capabilities have been exhausted or 
overwhelmed. The bulk of homeland security responsibilities reside with 
various civil authorities--local, state, and Federal. Because of its 
wide range of capabilities and geographic dispersion across the 
country, the Army is uniquely capable of supporting civil authorities 
across a spectrum of domestic contingencies. The Army's Active and 
Reserve components execute these missions throughout any given year in 
responding to hurricanes, forest fires, and other crises.
    When directed, the Army uses the best available capability, whether 
it is Active Army, Army Reserve, or Army National Guard, to meet 
mission requirements. In responding to the mission, we take into 
account several considerations such as geographic location of the 
capability relative to the mission, accessibility to Reserve component 
units, capability of the unit, availability of the unit, and impact on 
other Army missions.
    National Guard units play a prominent role in homeland security 
because of their ability to be employed in a Federal or a non-Federal 
status and they are often employed under state control to meet the 
needs of local and state authorities. In this capacity, the National 
Guard can support homeland security requirements prior to a Federal 
response being requested or approved.

    6. Senator Cleland. General Shinseki, in their role involving 
homeland security, will any of our Armed Forces' proposed roles be 
limited by the Posse Comitatus Act?
    General Shinseki. The answer would depend upon the status of the 
military personnel when performing a mission related to homeland 
security. The Posse Comitatus Act (PCA) applies to soldiers in a Title 
10 status and, therefore, imposes limits on the participation by the 
military in civilian law enforcement activities. The PCA does not apply 
to National Guard soldiers in a Title 32 or state Active Duty status. 
If soldiers perform homeland security missions that amount to direct 
military involvement with civilian law enforcement activities, while in 
a Title 10 status, then the PCA could limit these soldiers' role.
    The Federal courts have enunciated three tests to determine whether 
the use of military personnel violates the PCA. If any one of these 
three tests is met, the assistance may be considered a violation of the 
PCA. The first test is whether the actions of military personnel were 
``active'' or ``passive.'' Only the direct, active use of military 
personnel to enforce the laws is a violation of the PCA. The second 
test is whether the use of military personnel pervaded the activities 
of civilian law enforcement officials. To be a violation of the PCA 
under this test, military personnel must fully subsume the role of 
civilian law enforcement officials. The third test is whether the 
military personnel subjected citizens to the exercise of military power 
that was regulatory, proscriptive, or compulsory in nature. A power 
``regulatory in nature'' is one that controls or directs. A power 
``proscriptive in nature'' is one that prohibits or condemns. A power 
``compulsory in nature'' is one that exerts some coercive force. 
Anytime servicemembers are used to stop, search, and potentially 
apprehend citizens during a homeland defense mission, the PCA could be 
implicated.
    There are several general and specific statutory exceptions to the 
PCA. The ``Military Purpose Doctrine'' permits direct assistance if the 
primary purpose furthers a military or foreign affairs function of the 
United States. In certain emergency or civil disturbance situations, 
the President may also approve of direct military assistance to 
civilian law enforcement. Some of the specific exceptions include the 
protection of national parks, crimes against foreign officials, members 
of Congress, or the President, Vice President, and other designated 
dignitaries, and crimes involving nuclear materials.

    7. Senator Cleland. General Shinseki, does the Posse Comitatus Act 
need to be reviewed to ensure we don't limit what benefits the military 
can provide to homeland security? If so, how?
    General Shinseki. No. I believe that the balance created over the 
last century and a quarter is about right and strongly suggest that a 
wholesale revision of the PCA is not necessary. Because members of the 
Armed Forces are not trained to undertake civilian police work, the 
Department does not want to become engaged in law enforcement missions 
except under the most exigent of circumstances. The President has 
adequate authority under the Constitution and existing statute, to 
employ the Armed Forces domestically to deal with terrorist threats 
associated with the September 11 attacks, if he chooses to do so.

                           OPERATION ANACONDA

    8. Senator Cleland. General Shinseki, the actions this past week in 
Operation Anaconda have reinforced how brutal and difficult ground 
combat is and the value we place on leaving no servicemember behind. I 
would like to hear your thoughts on the ground campaign and the 
performance of our soldiers in theater.
    General Shinseki. I am pleased with the results of the current 
operations in Afghanistan. All reports from commanders in the field 
indicate that, despite operating in high altitude and harsh weather 
conditions, our soldiers are doing the job that we have equipped and 
trained them to do. They are demonstrating their profound and abiding 
devotion to this Nation, willingly and without hesitation. They go into 
harm's way on our behalf and are prepared to give their lives to 
preserve freedom and our way of life. We have lost eight American 
servicemembers in this current operation thus far, and many hundreds at 
this moment are putting their lives at risk to deal with this brutal 
and determined adversary. The days ahead will continue to be dangerous 
days for our forces, but the alternative to taking such risk is not 
acceptable. We must defend against terrorists by going after them. It 
is also important to remember that as our soldiers continue to make 
incredible contributions and even more incredible sacrifices, they look 
to us to demonstrate both the Nation's appreciation and its commitment 
to them and their families. It is a commitment that you have honored 
well, and for that, we are all very grateful.

                              HEALTH CARE

    9. Senator Cleland. General Shinseki, in your prepared statement 
you state that you are working with the office of the Secretary of 
Defense to improve TRICARE in order to provide better medical care for 
soldiers, families, and retirees. We are fully committed to making 
TRICARE the very best health care available, so I am extremely 
interested in what you have in mind. What kinds of changes are you 
proposing?
    General Shinseki. With the wonderful enhancements to the health 
care benefit that Congress has recently provided, our focus is on 
improving the delivery of health care to all of our beneficiaries. 
There are several components to this effort.
    First, we must recapitalize our military treatment facilities (MTF) 
and invest in the Direct Care System. For years, we have under-funded 
the real property maintenance and military construction replacement of 
these facilities. We need to fully fund the maintenance account to keep 
our assets in prime condition and replace those facilities that no 
longer meet the mission of modern healthcare or research. The vast 
majority of our Active Duty population and their families, and many 
retirees, obtain health care from the Direct Care System, and they 
should receive care in facilities that are equal to the newer civilian 
offices and hospitals. Furthermore, we must continue to provide 
investment venture capital funding for improvements in the business 
process of our MTFs so that we optimize the performance of our system. 
The Army Medical Department has developed a rigorous business case 
analysis process to validate targeted improvements in parts of the 
system that will not only improve the delivery of health care, but will 
provide a positive return on investment over a period of years. But 
until recently, we have not had a mechanism to make the kind of upfront 
investment in our system which is common in the private sector because 
we have locked ourselves to single year budgeting. Last year, Congress 
allocated $30 million in multiyear funds that are being invested in 
improvements that will optimize the system. This year we are targeting 
ways to improve women's health services in our MTFs and will focus on 
optimizing and improving that aspect of health care delivery.
    Second, we must reduce ``the hassle factor'' when beneficiaries 
access care in the private sector. We must insure that the barriers to 
care are reduced or eliminated. For instance, many private sector 
physicians are refusing to accept new TRICARE patients because of low 
reimbursement rates. We are asking the TRICARE Management Activity 
(TMA) to fully implement the authority given by Congress in the 
National Defense Authorization Act for Fiscal Year 2000 and the 
National Defense Authorization Act for Fiscal Year 2001 for locality-
based reimbursement, especially in areas which are chronically short of 
providers. We are working with TMA to develop the next generation of 
TRICARE managed care support contracts so we eliminate the problems 
that beneficiaries have when trying to access care or purchase 
pharmaceuticals when they are outside of the TRICARE region they were 
enrolled in. We want these new contracts to do a better job of tracking 
referrals when patients are sent from MTFs to civilian providers and 
providing consults back to the military primary care managers.
    Finally, we see significant opportunity to better synchronize our 
efforts with the Veteran's Administration (VA) and the Medicare system. 
The VA and DOD both operate robust health delivery systems and their 
beneficiary populations are overlapping. There are economies of scale 
and partnering opportunities that we can utilize to both provide a more 
convenient or responsive system for the patient, and save the Federal 
government money at the same time. With respect to Medicare, we have 
1.5 million dual-eligible retirees who now have a TRICARE for Life 
benefit that combines with Medicare Part B to pay virtually all of 
their health care costs. We have a financial incentive to find the most 
cost effective way to manage their care. We still believe that a direct 
discounted payment from Medicare to DOD represents a powerful way to 
leverage the strengths of the DOD Direct Care System to reduce total 
Medicare outlays.

                         ARMY UNIVERSITY ONLINE

    10. Senator Cleland. General Shinseki, I maintain that the services 
can become America's greatest university. The Army has an innovative 
online education program that, by all reports, is a great reenlistment 
incentive. Is this the online electronic Army University program that 
you mention in your prepared statement? Would you describe this program 
for us?
    General Shinseki. On July 10, 2000, the Army announced a major new 
educational initiative, Army University Access Online, now known as 
eArmyU. On December 14, 2000, the Army awarded a 5-year, performance-
based contract to PricewaterhouseCoopers to serve as the prime 
contractor and education management system integrator responsible for 
eArmyU. PricewaterhouseCoopers leveraged an unprecedented partnership 
of ``best of breed'' providers to harness industry-leading technology 
and to create the eArmyU virtual university.
    eArmyU offers soldiers access to a wide variety of online post-
secondary programs and related educational services via a comprehensive 
portal. Complementing the existing educational programs and services 
available to soldiers, eArmyU helps to ensure that all enlisted 
soldiers have the opportunity to fulfill their professional and 
personal educational goals while simultaneously building the 
technology, critical thinking, and decision-making skills required to 
fully transform the Army and succeed on the digitized battlefield.
    eArmyU continues the Army's commitment to invest in its people by 
providing soldiers 100 percent tuition funding for anytime, anyplace 
distance learning opportunities. Using a technology package (laptop 
computer, printer, and Internet service provider account) provided by 
eArmyU, soldiers access a university system that provides virtual 
classrooms, materials, discussion groups, virtual libraries, 
encyclopedias, assessment tools, tutoring, academic advisement, and 
administrative and technical support. Soldiers are required to have 3 
years retainability within the Army and must successfully complete 12 
semester hours in the first 2 years of enrollment. With eArmyU, 
soldiers no longer have to choose between their career and their 
personal development.
    To maximize program success, the contract integrator is required to 
bring together and manage a consortium of colleges and universities. 
Participating institutions must agree to provide maximum credit for 
military experience, training, and standardized tests using the 
American Council on Education recommendations; degree plans that 
outline degree requirements and illustrate ways soldiers can meet each 
requirement; and student support services (e.g., basic computer skills 
training, online tutoring and mentoring, and access to electronic 
library resources). Furthermore, eArmyU institutions are accredited by 
agencies recognized by the U.S. Department of Education. All eArmyU 
institutions who provide undergraduate credit-bearing programs are 
members of the Servicemembers Opportunity College Army Degree System. 
Graduate and non-credit programs within eArmyU comply with 
Servicemembers Opportunity College institutional principles and 
criteria.
    While much of a soldier's interaction is virtual through the web 
portal, students also have ample opportunities for face-to-face and 
telephone interactions with academic advisors and course mentors. This 
full range of program services is provided free to soldiers.
    eArmyU is currently offered to enlisted soldiers at Fort Benning, 
Georgia; Fort Campbell, Kentucky; Fort Hood, Texas; Fort Lewis, 
Washington; and Fort Carson, Colorado. Based on available funding, over 
12,000 soldiers were allowed to enroll during the first contract year. 
Participation requests continue to far exceed available funding. More 
than 32,000 soldiers at these installations have expressed interest in 
the program.
    The program has met with overwhelming success. Soldiers view eArmyU 
as a clear demonstration of the Army's investment in them, 
significantly increasing morale. The program has made education viable 
for soldiers; 50 percent of participants have never enrolled in post 
secondary education. As of March 1, 2002, nearly 16 percent of those 
soldiers who signed participation agreements reenlisted or extended to 
take advantage of eArmyU. There is considerable potential for return on 
investment.
    More than a web site, the eArmyU portal (www.eArmyU.com) is the 
gateway to a totally integrated education management system offering a 
full slate of diverse courses and student services. After the first 
year, over 1,400 courses in 90 programs are available through 23 
accredited colleges and universities.
    The Army is expanding program participation to three more 
installations in May 2002: Fort Wainwright, Alaska; Schofield Barracks, 
Hawaii; and Heidelberg Military Community, Germany. The final three 
sites scheduled for fielding in fiscal year 2002 are Fort Drum, New 
York; Fort Bragg, North Carolina; and Camp Casey, Korea. Based on 
availability of funding, the Army is using a phased, incremental 
approach for Army-wide implementation estimated at 80,000 students by 
fiscal year 2007.

    11. Senator Cleland. General Shinseki, is the Army funding the 
continued planned expansion of this program?
    General Shinseki. Funding the continued planned expansion of Army 
University Access Online to Active component enlisted soldiers Army-
wide presents significant challenges. There are currently unfinanced 
requirements associated with the planned expansion. The Army is working 
to address those challenges.

              MANNED MULTI-MISSION, MULTI-SENSOR AIRCRAFT

    12. Senator Cleland. General Jumper, in the fiscal year 2003 budget 
the Department of the Air Force has requested research and development 
and procurement funding for both multi-mission command and control 
constellation and multi-mission command and control aircraft (MC\2\A). 
I understand that the funds for MC\2\A include the purchase of a 767 
multi-mission, multi-sensor test bed. Recent articles indicate that the 
Air Force's single solution for a manned multi-mission, multi-sensor 
aircraft is the 767. On the other hand, other multi-mission, multi-
sensor programs such as the Army's aerial common sensor program, the 
Navy's multi-mission maritime aircraft program, Israel's SEMA program, 
and the Japanese Coast Guard's program are moving toward smaller, less 
costly aircraft to procure and operate. It appears that with the high 
demand/low density problem; potential quality of life issues; the 
advancement of reachback that can minimize the footprint forward; 
potential crew manning and training issues; and potential non-wartime 
missions--not to mention affordability--that these all argue for a mix 
of manned multi-mission, multi-sensor aircraft vice a single point 767 
solution. What in your CONOPS-based acquisition process drives you to 
the 767 as the sole solution of a manned multi-mission, multi-sensor 
platform? Please provide the cost and operational flexibility tradeoffs 
studies that have lead to that conclusion by May 1, 2002.
    General Jumper. The Air Force vision is that these 767-400 aircraft 
with MP-RTIP (Multi-Platform Radar Technology Insertion Program) radar 
would be the forerunners of a larger fleet of multi-sensor/mission 
aircraft. These aircraft, to be seen in future budget submissions, will 
be known as MC\2\A and would serve as hubs for a family of networked 
ISR and strike systems known as a Multi-sensor Command and Control 
Constellation (MC\2\C).
    The 767-400 was selected by the MP-RTIP Analysis of Alternatives 
(AOA) as the best-manned platform to carry a large variant of the MP-
RTIP sensor--an active, electronically scanned array radar. The MP-RTIP 
sensor satisfies a validated requirement for a Ground Moving Target 
Indicator (GMTI) capability, as well as a focused Air Moving Target 
Indicator (AMTI) capability for Cruise Missile Defense. This selection 
also supports the Concept of Operations conducting multiple missions 
with multiple sensors in support of ISR collection and battle 
management, including an Air Operations Center (AOC) execution cell.
    The MP-RTIP AOA examined many alternatives including 707s and 767s 
as well as larger and smaller aircraft. In this AOA, the 707 was the 
least expensive aircraft to meet single mission requirements similar to 
the current E-8 JSTARS whereas the 767-400 was the least expensive 
alternative for meeting multi-mission requirements. The 767-400 
aircraft with the MP-RTIP sensor will comprise Spiral One of the 
MC\2\A. No other spirals are currently funded. Subsequent spirals will 
be refined and funded, pending completion of appropriate analyses and 
reviews. The four operational 767-400s with MP-RTIP will provide very 
critical capabilities for the Air Force and DOD. The one 767-400 RDT&E 
aircraft being procured in fiscal year 2003 will be a critical hardware 
testbed both for MP-RTIP and the MC\2\A concept.
    The 767 has been selected as the current Air Force solution for a 
manned multi-mission, multi-sensor platform within the Air Force vision 
of a MC\2\C. The MC\2\C will be a horizontally integrated architecture 
of C\2\ISR capabilities in the air, in space, and on the ground. This 
future constellation will include MC\2\A aircraft as well as E-8 JST 
ARS, E-3 AWACS, Global Hawk UAVs, and other manned and unmanned 
aircraft as well as space and ground sensors, including systems 
operated by other services and agencies. The objective composition of 
the MC\2\C consisting of a combination of sensors and platforms will be 
determined after operational and technical systems architectures have 
been completed.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                           UNFUNDED AIRFRAMES

    13. Senator Akaka. General Jumper, the Air Force's unfunded 
priority list includes $163 million for maintenance for three different 
airframes. Apparently, if these funds are not provided, numerous 
aircraft may be grounded. As the Chairman of the Readiness and 
Management Support Subcommittee, I am obviously quite concerned about 
this issue. Can you explain why the Air Force did not include funds for 
these critical repairs in its budget request?
    General Jumper. The depot maintenance environment is dynamic, and 
these additional requirements surfaced after the fiscal year 2003 
President's budget was submitted. The crash damage aircraft and 
increased engine maintenance are driven by Operation Noble Eagle and 
Operation Enduring Freedom. The requirements to repair the B-1B wing 
pivot shear repair, B-2 hot trailing edge repair, and F-15 horizontal 
stabilizer upgrades were revealed after the budget was submitted. 
Additionally, these requirements are either safety of flight issues or 
are critical repairs that may be necessary in the future ground 
aircraft. The B-1B fleet reductions and the increased direct material 
requirements were not known until after the fiscal year 2003 
President's budget was submitted.

    14. Senator Akaka. General Jumper, if Congress is unable to provide 
additional funding for this maintenance, what is the Air Force's plan 
to ensure that we are not forced to ground bomber and fighter aircraft?
    General Jumper. If the required maintenance is not funded we will 
be forced to resort to extraordinary measures to be borne by the 
maintainers in order to keep the system in operation. Cannibalization 
rates will increase. Delayed entrance into Program Depot Maintenance 
(PDM) has the added negative effect of driving significant inspections 
and maintenance in the field. The special inspections designed to keep 
aircraft airworthy beyond their scheduled PDM input dates, serve only 
to provide temporary relief from a grounding condition. These 
inspections increase in complexity and become significantly more labor-
intensive, ultimately resulting in the weapon system being grounded. 
When the aircraft do come into PDM the cost will higher and the flow 
time longer. Operating systems beyond their planned service interval 
has the added risk and potential to increase the failure rates which 
may result in Emergency Action Time Compliance Technical Order 
Inspections/repairs. Ultimately, we will keep the equipment operating 
but it will come at the expense of the men and women who must 
accomplish this additional work with fewer resources. This, in turn, 
will also have a negative impact on our ability to retain skilled 
technicians. The right answer must be to fund the needed maintenance.

                       INTERIM BRIGADES OVERSEAS

    15. Senator Akaka. General Shinseki, I understand that, based upon 
the recommendations of the Quadrennial Defense Review, the Army is 
considering stationing an Interim Brigade Combat Team (IBCT) in Europe. 
In testimony before this committee earlier this week, General Schwartz 
stated that a key element of modernization on the Korean peninsula 
would be to replace one existing brigade with an IBCT. What is the 
Army's position on the need for additional IBCTs beyond the six 
currently planned to be based in the United States?
    General Shinseki. In the process of studying and planning the 
stationing of an IBCT in Europe, the Army has validated a requirement 
for six IBCTs. While a case can be made for an additional seventh IBCT 
that is additive to the force structure, it was determined in 
consultation with the Office of the Secretary of Defense, that it was 
not an affordable option at this time. The Army's assessment is that 
operational risk can be mitigated by the on-time arrival of the Army 
Objective Force, and the funding of the critical components of the Army 
recapitalization and modernization plan.

    16. Senator Akaka. General Shinseki, will one of the existing six 
be reallocated to Europe or to Korea, or is the Army pursuing 
additional brigades?
    General Shinseki. In July 2001, the Army announced the location of 
the six IBCTs. This was based upon operational and strategic 
considerations. DOD tasked the Army to study a plan to station an IBCT 
in Europe by the end of 2007. The Army briefed the Deputy Secretary of 
Defense on February 20, 2002, on the findings of that analysis. The 
Army prefers to maintain the status quo until the arrival of the first 
Objective Force units in 2010, but is prepared to rotate an IBCT to 
Germany and return of a mechanized brigade to the continental United 
States in 2007.

    17. Senator Akaka. General Shinseki, if more interim brigades are 
needed, how will they be funded?
    General Shinseki. At this time, the Army does not have plans for 
additional interim brigades. If at a future date, more brigades are 
necessary, the Army will attempt to make more difficult decisions to 
reallocate funding internally, and possibly seek additional funding if 
necessary.

                                VIEQUES

    18. Senator Akaka. Admiral Clark, Secretary England plans to find a 
replacement for Vieques by May 2003, a little over a year from now. Any 
funds needed to prepare an alternative location by that date would have 
to be expended in fiscal years 2002 and 2003. It is my understanding 
that no funds are included in the fiscal year 2003 budget to set up an 
alternative site or sites for east coast training, but that the Navy 
has since prepared a cost estimate at the direction of the Office of 
the Secretary of Defense. Can you provide the committee with this 
estimate, along with possible sources of these funds, if they are 
required?
    Admiral Clark. The DOD fiscal year 2002 Supplemental Request 
includes $16 million to support initial environmental documentation and 
infrastructure improvements for several of our east and gulf coast 
training range/OPAREA complexes. These improvements are needed and 
valuable regardless of any decision regarding our training at Vieques. 
Requirements beyond fiscal year 2002 have not been finalized. After the 
Center for Naval Analyses' study on future training alternatives is 
received and evaluated, these requirements will be reviewed in the 
fiscal year 2003 Apportionment Review, and funding decisions made in 
light of competing priorities and available resources.

    19. Senator Akaka. Admiral Clark, what is your plan for creating a 
replacement site or sites by 2003?
    Admiral Clark. We expect the Center for Naval Analyses' study on 
the future of Navy training to provide insight into the best 
alternatives for quality Navy training as a whole. After we have an 
opportunity to receive and evaluate the study, we will be shaping the 
way ahead for the 21st century. In the interim, we are addressing the 
shortfall in training capability, capacity, and flexibility within the 
Atlantic Fleet area by improving our training infrastructure at 
multiple sites.

    20. Senator Akaka. Admiral Clark, the Navy and the Clinton 
administration made an agreement with the government of Puerto Rico 
regarding Vieques. Part of that agreement was to provide $40 million in 
economic assistance upfront, regardless of the ultimate outcome on 
continued training on Vieques. Congress provided those funds in July 
2000. To date, only $12.8 million of those funds have actually been 
used. It is my understanding that funds have not been provided for one 
of the major economic development projects that both the Clinton 
administration and the Bush administration told Congress they support 
the construction of a ferry terminal. Does the Navy intend to provide 
the full $40 million in economic assistance that was agreed to?
    Admiral Clark. The Navy carefully considers each proposed economic 
assistance project to ensure it is executable, and that it positively 
and directly provides lasting impacts to the Vieques inhabitants. We 
will continue to be good stewards of the taxpayers' dollars.

    21. Senator Akaka. Admiral Clark and General Jones, when Secretary 
England testified before this committee a few weeks ago, he did not 
clearly state whether he will make the decision to allow live-fire 
training to resume on Vieques, whether the decision is above his pay 
grade, or whether he had delegated that decision to you or other 
military leaders in the Department of the Navy. Do you have a request 
pending to resume live-fire training on Vieques, and if so, who will 
make the decision?
    Admiral Clark. There is no pending request to use explosive 
ordnance on the Vieques training range.
    General Jones. The October 31, 2001, letter from myself and Admiral 
Clark to the Secretary of the Navy requesting use of live ordnance 
during combined arms training on Vieques was written in order to 
receive a wartime modification of the current restrictions on live-fire 
training. This request was for limited scope, graduate level training 
to finalize coordination procedures and certify end-to-end handling and 
delivery of live munitions. The realism afforded by live-fire training 
is essential preparation for success on the battlefield and due to the 
ongoing requirements of the global war on terrorism, necessitate this 
shift to wartime operations. The request indicated that both the JFK 
Battle Group and WASP Amphibious Ready Group were next to deploy to the 
Central Command Area of Responsibility in support of Operation Enduring 
Freedom, but it was not intended to apply solely to those units and 
their assigned sailors and marines. The October 31, 2001, request for 
live-fire training on Vieques remains in effect.

          USE OF NATIONAL GUARD FOR AIRPORT AND BORDER PATROL

    22. Senator Akaka. General Shinseki, given the high operating tempo 
of our forces today and the demand for the Guard to support military 
missions, do you feel the Guard should be used to provide security at 
airports or on the border on a long-term basis, or should the Guard 
concentrate on fulfilling missions where their unique military training 
is required?
    General Shinseki. The National Guard plays an important role in 
homeland security. It also plays a critical role in supporting the full 
range of strategic requirements. The National Guard can be employed 
under different authorities to best meet requirements. Soldiers from 
the National Guard are supporting the airport security mission under 
Title 32 authority--state control with Federal money. The border 
security mission is being performed under Title 10 authority--on a 
straight Federal basis.
    The Army's non-negotiable contract with the American people is to 
fight and win our Nation's wars. The Army prepares for this mission by 
maintaining a combat focus with trained and ready units. Maintaining a 
warfighting focus also gives the Army the capability to support civil 
authorities in a wide range of domestic contingencies. The bulk of 
homeland security responsibilities reside with various civil 
authorities--local, State, and Federal. When Active Army, Army Reserve, 
or Army National Guard forces are used to support domestic civil 
authorities, our contributions should be temporary. The Army is 
typically tasked to support civil authorities whose own capabilities 
have been exhausted or overwhelmed. Support is normally for a 
specified, relatively short duration to allow those responsible to 
reach self sufficiency.

                        HIGH DEMAND/LOW DENSITY

    23. Senator Akaka. General Shinseki, Admiral Clark, General Jones, 
and General Jumper, Secretary Rumsfeld was quoted recently as saying 
that we made the mistake of not buying enough of certain high demand/
low density forces in the past and that the administration would not be 
making the same mistake in the future. General Jumper, your prepared 
statement notes that we have deployed almost our entire inventory of 
Airborne Warning and Control Systems and Special Operations aircraft to 
support the war on terrorism. Could each of you highlight what steps 
your budget request takes to address shortfalls of high demand/low 
density forces?
    General Shinseki. We have incorporated our Total Army Analysis 
results, where we invested Active component spaces in high demand/low 
density units and in units needed for the war on terrorism. We are 
building four multi-component Biological Integrated Detection System 
companies, which is a 200 percent increase over the current two 
companies in the force. In addition, we increased the manning levels of 
all Active Component Patriot battalions to 100 percent and restructured 
the Army's Technical Escort Unit, almost doubling its size and 
capabilities.
    With respect to the global war on terrorism, we invested 986 spaces 
in Amy Special Forces capabilities to include buying two additional 
psychological operations companies and two additional civil affairs 
units in the Active component. We are also pursuing resourcing an 
additional MH-47 battalion in the 160th Special Operation Aviation 
Regiment. However, the $100 million plus cost per airframe is proving 
beyond the Army's capabilities of resourcing. We also invested almost 
500 spaces into resourcing the CINCs theater level military 
intelligence brigades and groups that dramatically increase the day-to-
day capabilities. Finally, we increased the manpower in Third U.S. Army 
by 157 spaces, significantly improving the resourcing of Central 
Command's Army Service Component Command. In addition, the President's 
budget provides the Army with targeted recruiting and retention 
incentives through several programs to retain shortage specialties.
    Admiral Clark. The Navy fiscal year 2003 budget request contains 
RDT&E funds to commence System Development and Demonstration for a 
replacement to the EA-6B as well as funds for the sustainability of the 
EA-6B, until the replacement aircraft Initial Operational Capability 
(IOC) in fiscal year 2009.
    Two additional Patrol Squadron Special Projects (VPU) aircraft are 
being procured with fiscal year 1999 and fiscal year 2000 funds. The 
aircraft will be produced by modifying P-3C airframes that were in 
desert storage to the VPU configuration. These modifications are in 
progress and deliveries of the aircraft are scheduled for the second 
and third quarters of fiscal year 2003, respectively. These two 
additional aircraft will ensure the ability of force providers to 
provide the required four VPU aircraft to warfighting commanders.
    In a separate program, the mission systems of two existing VPU 
aircraft are being transferred to two more modern and sustainable 
airframes. These conversions will be completed in the first and third 
quarters of fiscal year 2003, respectively.
    General Jones. The Marine Corps' only high demand/low density asset 
is the EA-6B Prowler aircraft. The DON has completed the 
congressionally-funded ($10 million of $16 million study) Airborne 
Electronic Attack Analysis of Alternatives (AEA AOA) and intends to 
fund the RDT&E efforts in the POM 2004 FYDP for a follow-on platform to 
replace the EA-6B. The services are currently analyzing the numerous 
platforms presented by the AOA and will make a decision by June 2. The 
DON recognizes an increase in inventory from 122 to 184 EA-6Bs is 
required to remove the EA-6B from high demand/low density status.
    General Jumper. The Air Force has requested almost $1 billion in 
the fiscal year 2003 President's budget for investment funding in 
support of high demand/low density assets (HD/LD). The fiscal year 2003 
President's budget provides funding to support research, development, 
test, and evaluation, aircraft modifications and other procurement 
initiatives in support of HD/LD assets. Current Air Force HD/LD assets 
include funding for combat search and rescue (HC-130 and HH-60), 
special operations (AFSOC C-130), and intelligence, surveillance, and 
reconnaissance (E-3/AWACS, E-8/JSTARS, U-2, RC-135/Rivet Joint, and 
Modular Control System) platforms.

    24. Senator Akaka. General Shinseki, Admiral Clark, General Jones, 
and General Jumper, does your budget support upgrades of those current 
high demand low density forces that have been having problems, such as 
the EA-6B?
    General Shinseki. Unlike our request for fiscal year 2002, the 
Army's fiscal year 2003 budget requests the fill authorization of 
480,000 manyears. In addition, we have requested enabling incentives to 
recruit and retain specialty skills found in the high demand/low 
density units.
    Admiral Clark. Yes. The Navy fiscal year 2003 budget procures EA-6B 
ICAP III systems that will reach IOC in fiscal year 2005. Although 
there may be some configuration differences, ICAP III forms the 
capability baseline for the EA-6B follow-on platform. To ensure a 
smooth, rapid, successful transition to the EA-6B follow-on aircraft, 
we must procure a limited number of EA-6B ICAP III systems to allow 
fleet introduction and tactics development while the follow-on platform 
is in development.
    In recognition of the fact that VPU aircraft are operated at a high 
rate of fatigue life accumulation, a program of Special Structural 
Inspections (SSIs) is funded in the fiscal year 2003 President's 
budget. This program will fund inspections of key areas of aircraft 
structure and will also provide needed repairs to allow the aircraft to 
operate for up to 5 years (or 600 flight hours) beyond the point at 
which they reach 100 percent fatigue life expended. This combination of 
four newer airframes in the VPU force along with the program of SSIs 
will provide the bridge in capabilities needed until the P-3 aircraft 
replacement, the Multi-mission Maritime Aircraft (MMA), reaches full 
operational capability.
    General Jones. The current budget presented to Congress fully funds 
122 EA-6B ICAP-III upgrades. ICAP-III is the baseline warfighting 
capability upgrade that will be used in the AEA AOA and is required to 
effectively counter the most recently fielded Surface to Air Missile 
threats. The Marine Corps fully supports the DOD requirement to upgrade 
the entire EA-6B fleet to ICAP-III. The CMC and CNO have included three 
additional jammer upgrade and service life extension items not 
contained in the fiscal year 2003 President's budget on their unfunded 
program lists. These items were not included in the fiscal year 2003 
President's budget due to competing priorities and limited resources:

        <bullet> EA-6B Wing Center Sections (8), $40 million;
        <bullet> EA-6B Band 9/10 buyout, $37 million; and
        <bullet> EA-6B USQ-113 Communications Jammer, additional 57 
        units, $35 million.
    General Jumper. The Air Force has requested $975 million in the 
fiscal year 2003 President's budget to develop, procure, and install 
upgrades on Air Force HD/LD platforms. Current Air Force HD/LD assets 
include funding for combat search and rescue (HC-130 and HH-60 
modifications), special operations (AFSOC C-130 development and 
modifications), and intelligence, surveillance, and reconnaissance (E-
3/AWACS, E-8/JSTARS, U-2, RC-135/Rivet Joint, and Modular Control 
System development and modification initiatives) platforms.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                              SHIPBUILDING

    25. Senator Landrieu. Admiral Clark, one of your predecessors 
stated in testimony before this committee that ``while numbers matter, 
the number is less important than the capability inherent in those 
numbers.'' Obviously, this is a source of much debate. While I agree 
with the long-standing American tradition of quality over quantity, it 
is true only to a point. Having dropped $6 billion in shipbuilding from 
fiscal year 2001 to fiscal year 2003, we simply will not be able to 
meet all peacetime presence commitments. Further, I have emphasized 
again and again that current shipbuilding plans in the FYDP are putting 
our Navy into an ever-tightening death spiral which will ultimately 
stabilize at a Navy which is completely incapable of meeting peace or 
wartime requirements. I'm a very outspoken supporter of our 
shipbuilding programs and believe we need to be buying more than what 
the FYDP calls for, not less as we have done in the recent past. Do you 
agree that current shipbuilding levels will take us into the 
dangerously mediocre arena of a 300-ship Navy? Applying that standard 
today, could we sustain our current operations?
    Admiral Clark. The 2001 Quadrennial Defense Review (QDR) provides 
the baseline for Navy's force structure requirements. Current 
shipbuilding levels will permit us to sustain that QDR battle force of 
310 ships over the short term, but not for the long term. Capabilities 
of this size force are judged to provide a moderate operational risk 
for several combinations of scenarios. Our experience of the last 10 
years has demonstrated that such a force is severely stressed, placing 
an undue burden upon our sailors and marines. In consonance with the 
new defense strategy, the 2001 QDR calls for a new force-sizing 
construct. Although we have not determined the exact number of ships 
required, this transformed force will be sized and outfitted to meet 
warfighting missions, homeland defense, and smaller-scale 
contingencies. Today's manpower and current readiness requirements have 
prevented the Navy from fully investing in future procurement accounts, 
including shipbuilding. The Navy will require an additional $10 billion 
annually to build for the future and recapitalize the entire fleet--
ships, aircraft, and submarines, at a rate that will maintain the Navy 
that the Nation needs.

                                 LPD-17

    26. Senator Landrieu. Admiral Clark, I was happy to see in your 
statement you referenced the LPD-17 with regards to ``investing in 
impressive programs that will comprise the core capability of our force 
in the coming decades.'' You also wrote that ``we need to accelerate 
development as rapidly as design and production facilities will 
allow.'' It is my understanding that in order to provide flexible 
response and assured access, our plans require the capability to 
rapidly deploy the equivalent of three Marine Expeditionary Brigades. 
It is also my understanding that we are currently well below this 
requirement, and yet the LPD-17 was not given additional funding. What 
is the current lift capability and what are the implications of this 
shortfall?
    Admiral Clark. Current inventory of 38 Active and 1 Naval Reserve 
Force amphibious ships (5 LHAs, 7 LHDs, 11 LPD-4s, 8 LSD-41s, 4 LSD-
49s, and 3 LSD-36s) provides 2.1 Marine Expeditionary Brigade-Assault 
Echelon (MEB AE) equivalent, as limited by vehicle lift. The current 
inventory meets the other four fingerprints of the fiscally constrained 
(2.5 MEB AE) amphibious lift goal, specifically cargo cube, troop 
berthing, rotary wing spots and landing craft spots.)
    To counter this lift shortfall, the Navy established the Amphibious 
Lift Enhancement Program (ALEP), which has five LKAs and four LSTs in a 
deep reduced operating status. These ships would take a minimum of 6 
months to reactivate, but would allow Navy to meet the 2.5 MEB AE 
fiscally constrained goal. As the Senator notes, the Marine Corps 
requirement calls for 3.0 MEB AE amphibious lift to fight a Major 
Theatre War.

    27. Senator Landrieu. Admiral Clark, to what extent does the 
procurement of 12 LPD-17-class of ships address this shortfall?
    Admiral Clark. Once the final LPD-17 is delivered, around 2014/
2015, amphibious lift capacity will meet the fiscally constrained 2.5 
MEB AE goal achieving 83 percent of the lift required for one Major 
Theater War.

    28. Senator Landrieu. Admiral Clark, what are the implications of 
delaying acquisition of the LPD-17-class of ships?
    Admiral Clark. The Navy will not reach the fiscally constrained 
goal of 2.5 MEB AE lift within the Active fleet until 2015. The last 
LPD-17-class ship was originally planned to deliver in 2009. By 2006, 
all LPD-4-class ships will have reached or exceeded their 35-year 
expected service lives. As a result of the delays to the LPD-17 program 
the Navy has coordinated adjustments as needed to the decommissioning 
schedule to maintain lift capability and the operating tempo for ships 
in commission. Six LPD-4-class ships are now scheduled to receive 
extended sustainment maintenance ($70 million per ship) to adequately 
account for the unexpected extension of service life. Due to delays in 
the LPD-17 program, the LPD-4 ships will retire with an average age 
exceeding 41 years. Additionally, the fleet commanders are delayed in 
receiving the manpower reductions, survivability improvements, and 
warfighting capability increases associated with the LPD-17-class 
ships.

                             MC\2\A FUNDING

    29. Senator Landrieu. General Jumper, since the Gulf War we have 
seen a technological revolution in Air Force intelligence, 
surveillance, and reconnaissance. From airborne warning and control 
systems, to unmanned aerial vehicles, to JSTARS, the United States Air 
Force's intelligence, surveillance, and reconnaissance (ISR) 
capabilities are a true benefit for our warfighting efforts. Please 
know I share your commitment to expanding this ISR dominance. 
Accordingly, I am pleased by the fiscal year 2003 budget commitment to 
the procurement and long-lead funding of JSTARS 17 and 18. 
Additionally, the development of the Multi-Platform Radar Technology 
Insertion Program (RTIP) is integral to expanding the Air Force's ISR 
dominance. Nevertheless, I have concerns that the Air Force has not 
made a budgetary commitment for the Multi-Sensor Command and Control 
Aircraft (MC\2\A) in the fiscal year 2003 budget. Nor do I see this 
program listed in the Air Force's unfunded requirement list. You and I 
discussed this matter thoroughly last year, and it was my impression 
that the Air Force's commitment to the MC\2\A was a long-term 
commitment that would be part of the fiscal year 2003 request and the 
FYDP. Could you comment on why the MC\2\A cannot be found in the fiscal 
year 2003 budget, or in the Air Force's unfunded requirements list?
    General Jumper. First, to clarify a point made earlier, the Air 
Force has provided for long lead and procurement funding for JSTARS P-
17 in its fiscal year 2003 budget request. There is not funding 
identified for a P-18 in the request, although the Air Force has not 
reached a final decision on when the JSTARS production should end as we 
transition to the MC\2\A.
    In fiscal year 2003, the Air Force has requested $679 million 
toward the Multi-Sensor Command and Control Aircraft effort. One 
hundred ninety one million dollars of these funds are in the fiscal 
year 2003 budget request (RDT&E Line 148, PE 0207449F, and Multi-sensor 
Command and Control Constellation). This $191 million includes $149 
million for continued design and development of the MP-RTIP sensor and 
$42 million for beginning development of the 767 RDT&E test bed 
aircraft. The additional $488 million is requested in the fiscal year 
2003 President's Budget Defense Emergency Response Fund. These funds 
will procure the 767 testbed; plan the spiral implementation of the 
MC\2\A sensor capabilities on that platform; design and develop common 
modifications for other 767-based aircraft (e.g. tanker and Rivet 
Joint) and the command and control networking architectures essential 
for realizing a horizontally integrated network of manned and unmanned 
air, space, and ground systems.

    30. Senator Landrieu. General Jumper, why have none of the 767s 
leased for modernization of the tanker fleet been allocated for MC\2\A 
use?
    General Jumper. See answer to question 29.

    31. Senator Landrieu. General Jumper, what affects will the change 
of thinking on MC\2\A have on the future of JSTARS procurement and RTIP 
development?
    General Jumper. The Air Force hasn't changed its mind on the Multi-
Sensor Command and Control Aircraft (MC\2\A). The Air Force is fully 
committed to achieving MC\2\A Spiral 1 Ground Moving Target Indicator 
(GMTI) and Cruise Missile Defense (CMD) capability by the 2012 date 
required by OSD. The fiscal year 2003 President's budget requested a 
$2.1 billion increase over the fiscal year 2002 President's budget 
(including the $488 million in fiscal year 2003 DERF). Between the 
fiscal year 2002 President's budget and the fiscal year 2003 
President's budget we've established a new program element that holds 
funding for both the Multi-Platform Radar Technology Insertion Program 
(MP-RTIP) and the MC\2\A. That new program element is PE 0207449F, 
Multi-Sensor Command and Control Constellation (MC\2\C) and is found at 
line R-148 in the fiscal year 2003 President's budget documentation.

                        ARMORED SECURITY VEHICLE

    32. Senator Landrieu. General Shinseki, the Army's fiscal year 2004 
budget plans call for the termination the Armored Security Vehicle 
(ASV). Frankly, I am troubled by that decision, which is not consistent 
with my recollection of representations made to me last year about 
continuing the program. First, there is nothing wrong with the vehicle, 
and it meets its mission very well. Its need has only increased after 
September 11. It is strongly supported by the military police (MP) in 
Bosnia and Kosovo. I am confident it will perform well if sent to 
Afghanistan.
    Second, we hear a great deal about the Army's investments to 
achieve strategic mobility. MPs are critical to strategic mobility. 
There is no other armored, wheeled vehicle that has the same mobility 
as the combat force. Add-on armor to other wheeled vehicles reduces 
mobility for HMMWVs, and add-on armor does not provide the safety to 
the men and women in the vehicle like that of the ASV.
    Third, the Army cites cost as a prohibition for the ASV in fiscal 
year 2004. Yet, very attractive industry proposals have been given to 
the Army to continue production in fiscal year 2004 and beyond at or 
near the current prices. The Army knows these proposals are very 
attractive, if not below cost.
    Fourth, roughly 500 more ASVs need to be purchased to meet the 
recently revised acquisition objective. These vehicles are needed to 
equip the counter attack corps and other essential units necessary to 
the Army's transformation.
    As Chairman of the Emerging Threats and Capabilities Subcommittee, 
I see this vehicle as absolutely necessary and of no less priority than 
other vehicles you are purchasing and propose to purchase. Is it the 
Army's intention to fully obligate the extra $3.5 million provided last 
year for additional ASVs?
    General Shinseki. The Army will fully obligate the additional $3.5 
million in April 2002 for ASVs.

    33. Senator Landrieu. General Shinseki, will you fully obligate the 
fiscal year 2003 funds for vehicles as requested in the budget?
    General Shinseki. At this time, the Army plans to fully obligate 
the fiscal year 2003 ASV funds.

                        ARMORED SECURITY VEHICLE

    34. Senator Landrieu. General Shinseki, are we putting lives at 
risk in up-armored HMMWVs to save money?
    General Shinseki. No, the Army is not putting soldiers' lives at 
risk in up-armored HMMWVs to save money. The very nature of soldiers' 
missions puts their lives at risk; however, we do everything possible 
to operationally mitigate those risks. Soldier protection is a top 
priority, and we strive to provide soldiers with the protection needed 
to accomplish their missions.
                                 ______
                                 
              Questions Submitted by Senator Jean Carnahan

                      EXPEDITIONARY MEDICAL SYSTEM

    35. Senator Carnahan. General Jumper, your written testimony 
referred to the Air Force's innovative new medical concept, the 
Expeditionary Medical Systems (EMEDS). It rushes medics to where they 
are needed, rapidly. It can care for patients affected by chemical, 
biological, and radiological weapons. These capabilities might be very 
useful in responding to terrorist attacks and natural disasters within 
the United States. What benefits might this EMEDS program bring to our 
domestic first responders in the case of future attacks?
    General Jumper. The EMEDS concept provides a highly mobile, 
flexible medical response that can be tailored to any situation. The 
greatest benefit of EMEDS is that it allows for rapid response--the 
quick mobility of medical assets to a disaster site. This rapid 
response is defined in terms of hours, not days, which will make the 
difference in saving lives. EMEDS is also very flexible in that it 
allows tailoring the response to the particular threat and situation at 
hand. Not every situation will require a full 25-bed hospital 
capability. In addition, various specific response packages may be 
added, such as preventive medicine, pharmaceutical, agent detection, 
patient decontamination, and others, as required. Tailoring the 
response to the threat is an efficient use of resources while meeting 
the requirement. In addition to being highly mobile and flexible, EMEDS 
can be collectively protected against biological/chemical 
contamination, thus providing a safe medical environment. The concept 
of an EMEDS-like capability can be adapted by any state/agency/
organization to operationalize their disaster response plans.

                     UNMANNED COMBAT AERIAL VEHICLE

    36. Senator Carnahan. General Jumper, the Unmanned Combat Aerial 
Vehicle (UCAV) is fascinating technology and will play a variety of 
combat roles. In Afghanistan, UCAVs have already demonstrated their 
value in reconnaissance and are beginning to excel as weapons 
platforms. Can you describe the contribution the UCAV will provide to 
other missions such as destroying enemy air defenses?
    General Jumper. UCAVs will provide a tremendous contribution to 
SEAD/Strike in the early stages of a high threat conflict. Early 
warfighter emphasis remains on addressing the 2010-plus anti-access 
problems in the high-risk ``double-digit'' SAM environment, using 
UCAV's precision and increased stealth to target advanced SAMs, and 
paving the way for our legacy platforms. In addition, the Air Force is 
exploring the potential for limited near-term electronic attack and 
tactical reconnaissance role and studying the long-term potential for 
directed energy and precision all weather attack capability.

                           STRATEGIC AIRLIFT

    37. Senator Carnahan. General Jumper, our war on terrorism has 
caused an important shift in our strategic outlook. We have moved from 
a doctrine of containment, to the concept of preemption: attacking, or 
helping to attack, potential enemies before they strike us. What new 
demands will this place on the Air Force's strategic airlift?
    General Jumper. The Air Force is still assessing potential changes 
in airlift requirements resulting from the ongoing war on terrorism. 
However, Mobility Requirements Study fiscal year 2005 (MRS-05) 
identified a requirement of 54.5 million ton miles per day--to execute 
a two near simultaneous war scenario. Currently, we are experiencing a 
shortfall in meeting that requirement. The proposed follow-on C-17 
multiyear procurement will bring the fleet total to 180 aircraft. This 
continued C-17 procurement combined with C-5 modernization will allow 
the Air Force to meet MRS-05 airlift requirements and provide options 
to continue growth if additional demands are identified as a result of 
the global war on terrorism.

    38. Senator Carnahan. General Jumper, does the fiscal year 2003 
budget begin to address these new issues?
    General Jumper. This budget underpins our vision of providing the 
Nation a total air and space force with global reconnaissance and 
strike, including supporting troops and deploying them, across the full 
spectrum of operations. Our investments in a wide variety of strike 
systems (both new or improved), sensors, and communication links bring 
us closer to our vision of having an all weather, 24 hour a day, 7 days 
a week ability to provide near instantaneous ground attack from the air 
with a wide variety of platforms.

                          C-17 STRATEGIC ROLES

    39. Senator Carnahan. General Jumper, what roles will the C-17 play 
in this new strategic framework?
    General Jumper. The C-17, along with the C-5, will play a 
significant role in our strategic airlift force's ability to react to 
the rapidly changing international security environment. The C-17s 
capability to operate from short, semi-prepared airfields, and airdrop, 
make it uniquely capable of operations into austere locations as 
illustrated during the current campaign in Afghanistan. With its high 
mission capable rates and unmatched flexibility, the C-17 will remain 
the backbone of our strategic airlift forces for the foreseeable 
future.

                                 F/A-18

    40. Senator Carnahan. Admiral Clark, the F/A-18 has proven 
invaluable in our current war on terrorism in Afghanistan. The fiscal 
year 2003 budget cuts the number of F/A-18s to be delivered next year. 
We need more. We are getting less. The Navy's unfunded requirements 
list puts 10 more F/A-18 E/Fs as its third priority. Why is this a high 
priority for the Navy?
    Admiral Clark. The unfunded requirement for 10 additional F/A-18 E/
Fs is a high priority because it allows the Navy to replace an aging 
inventory of F-14s more rapidly and increases the combat capability of 
our air wings. While the F-14 has served the Navy well, it costs twice 
as much as the F/A-18 E/F to operate, and imposes a high workload on 
our sailors to maintain the aircraft.

    41. Senator Carnahan. Admiral Clark, your written testimony says 
our current F/A-18 forces have ``flown well in excess of planned 
utilization dates.'' You said, ``more than 300 F/A-18s will require 
service life extensions earlier than planned.'' We are flying these and 
other aircraft beyond their expected life span and beyond their 
programmed limits. Can you comment on this situation and your describe 
your efforts to minimize the risks of flying aging aircraft?
    Admiral Clark. The Navy's estimate of service life extension 
requirements for the F/A-18 (over 300 aircraft) is based on the 
procurement plan of replacement platforms (F/A-18 E/F and Joint Strike 
Fighter) and the structural limits of the aircraft. F/A-18 structural 
limits are based primarily on the number of carrier catapults and 
arrested landings (2000) and wing root fatigue life expended on each 
aircraft. The Navy closely monitors aircraft service life remaining 
through the Structural Appraisal of Fatigue Effects (SAFE) program, and 
conducts rigorous inspections to track the structural integrity of each 
aircraft. The SAFE program provides monthly tracking of each aircraft's 
service life remaining and allows the Navy to accurately project 
service life extension requirements. In addition, an Operational Safety 
Improvement Program (OSIP 11-84) has been established to correct 
airframe structural deficiencies when they are discovered during the 
inspection process.
    As aircraft utilization rates increase, catapult and arrested 
landings and wing root fatigue increase, thereby decreasing the service 
life remaining on the aircraft. These factors collectively accelerate 
the requirement to conduct service life extensions on the aircraft.

                         SCIENCE AND TECHNOLOGY

    42. Senator Carnahan. General Shinseki, I understand that it often 
takes years before the most advanced technology gets from the research 
and development laboratories to the users at places like Fort Leonard 
Wood. I am concerned that in the area of chemical and biological 
defense we cannot afford to wait that long. The threat of such attacks 
has never been more real. How will the Army ensure our soldiers have 
the most advanced technologies to protect them against chemical and 
biological attacks?
    General Shinseki. Protection against chemical and biological attack 
is critical for all of our warfighters. By law, chemical and biological 
defense is consolidated under Office of the Secretary of Defense 
management, specifically the Assistant to the Secretary of Defense for 
Nuclear, Chemical, and Biological Defense. The executive agent for the 
Chemical and Biological Defense Program is the Army.
    The Chemical and Biological Defense Program has implemented a 
technology maturity metric (technology readiness levels (TRLs)) and 
assessment process to ensure technologies are not transitioned 
prematurely into systems development and demonstration (SDD). In that 
regard, we believe the key to speeding products to the warfighter is in 
the science and technology (S&T) community maturing their emerging 
technologies sufficiently prior to transition so any potential cost and 
schedule growths are minimized during SDD. Past program experience has 
shown that it is less expensive to fix technical problems in S&T than 
it is in SDD.
                                 ______
                                 
               Questions Submitted by Senator John Warner

                     ARMY COUNTERMINE CAPABILITIES

    43. Senator Warner. General Shinseki, the January 21, 2002, edition 
of Inside the Army quoted an internal Army review that stated ``the 
service faces countermine capability `shortfalls' in four key areas: 
see and detect from standoff ranges; mine neutralization; force 
protection; and demining and clearing.'' What capabilities do our 
soldiers have currently for standoff mine detection from a vehicle or 
aircraft?
    General Shinseki. U.S. soldiers do not presently have a standoff 
detection capability from a vehicle or aircraft. The Army is assessing 
a standoff detection technology from a rotary wing UAV known as a 
Camcopter. This is expected to be a limited capability for detection of 
changes in routes that would indicate the presence of mining activity. 
Development of a minefield stand off detection capability from a UAV is 
slated to be initiated in fiscal year 2003. Standoff detection from a 
vehicle in a pure sense is not achievable today. What is planned in the 
near term is the use of an unmanned ground search platform to remove 
the soldier from the vehicle during search operations. This is the 
Ground Standoff Mine Detection System program under development today.

    44. Senator Warner. What is the fielding status of the Army's 
current next-generation mine detection systems, the Ground Standoff 
Mine Detection System (GSTAMIDS) and the Handheld Standoff Mine 
Detection System (HSTAMIDS)?
    General Shinseki. The GSTAMIDS is currently in development with a 
planned transition to production for the Block 0 version to occur in 
February 2003. The HSTAMIDS is currently in development with a planned 
transition to production at the end of fiscal year 2003. As a result of 
Operation Enduring Freedom, the Army initiated an acceleration of the 
program to provide 200 production units of an interim variant to be 
delivered by the end of calendar year 2002.

    45. Senator Warner. General Shinseki, what measures has the Army 
taken to mitigate risk until these systems are fielded?
    General Shinseki. The Army has committed $29 million for urgent 
operational requirements in support of Operation Enduring Freedom to 
mitigate risk until these systems are fielded. The forces have deployed 
mine sniffing dog teams on the ground in Afghanistan. D7 bulldozers 
have been equipped with armor protection for use in clearance of some 
areas with mines. Tele-operated mini-flails have been deployed to clear 
areas of antipersonnel mines. We have procured state-of-the-art metal 
detectors from Australia that are more effective in highly mineralized 
soil conditions found in some parts of Afghanistan. This is an interim 
measure until the Handheld Standoff Mine Detection System mine 
detectors are available.

    46. Senator Warner. General Shinseki, what are the countermine 
capabilities for the Interim Brigade Combat Team?
    General Shinseki. In addition to the HSTAMIDS and GSTAMIDS systems, 
countermine capabilities for the Interim Brigade Combat Team consist of 
a suite of equipment to be deployed with the Engineer Squad Vehicle 
Variant of the Interim Armored Vehicle. Each vehicle will be equipped 
with light weight rollers or light weight full-width blades. As part of 
the ensemble, each vehicle will also be equipped with a magnetic 
signature duplicator to deal with magnetic influence fuzed mines. Six 
of the vehicles in the nine vehicle engineer company will also tow a 
Mine Clearing Line Charge (MICLIC). The MICLICs will be replaced 
starting in the fiscal year 2005 time frame with the Explosive Standoff 
Mine Clearance system, also known as Mongoose. Mongoose will provide a 
more robust capability across the full spectrum of the threat.
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond

                              END STRENGTH

    47. Senator Thurmond. General Shinseki, Admiral, Clark, and General 
Jumper, in previous testimony before the committee, we were told that 
more than 60,000 National Guard and Reserve personnel have been called 
to active duty. Although a large number of these personnel are on duty 
to provide airport security, the majority supports the war against 
terrorism. In fact, it is acknowledged that the Active-Duty Forces 
could not prosecute the war without the support of the Reserve 
components. Since the Reserve components cannot be kept on active duty 
indefinitely, what will be the impact on the operation if the Reserve 
call-up is terminated?
    General Shinseki. Active component forces are so fully integrated 
with the Reserve components that we cannot conduct sustained operations 
without direct inclusion of the Reserve components. The impact of 
termination of the Reserve call-up would be severe and would 
dramatically affect our ability to sustain our current operations. Were 
the Reserve call-up terminated, we would be hard pressed to support the 
warfighting commanders in chief and have difficulty meeting homeland 
security needs and maintaining readiness of our Active component 
forces. The Army has called on nearly 28,000 Army National Guard, Army 
Reserve, Individual Mobilization Augmentee, and Individual Ready 
Reserve soldiers in support of Operations Noble Eagle and Enduring 
Freedom. Approximately 57 percent are supporting homeland defense 
efforts, while 43 percent are engaged in the war on terrorism.
    Admiral Clark. The termination of the Reserve Mobilization will 
most significantly impact our ability to sustain force protection, plan 
and implement the war on global terrorism, conduct harbor defense, and 
affect the quality and quantity of information gathered and analyzed by 
our intelligence components. To date, the top four mission areas 
supported by Navy mobilized Reservists are:
                                                                 Percent
Force Protection                                                      54
Unified Command/Service Staffs                                        12
Intelligence                                                          10
Harbor Defense                                                         7

    Without augmentation by the Reserve component, either Active Duty 
PERSTEMPO will increase or responsiveness to current and anticipated 
tasking will be protracted. 
    General Jumper. The Active-Duty Forces cannot prosecute this war in 
its entirety without the support of the Reserve components (RC). This 
is especially true due to the complexity and robust response of the 
United States to the war on terror. In fact, the level of RC support, 
the combination of mobilized and volunteer forces, has remained 
relatively constant for some time. The Air Force policy from the 
inception of hostilities has been that our gaining commands must 
certify that requirements cannot reasonably be sourced from the Active 
Duty or Reserve component volunteer forces. We therefore have been 
prudent from the start with our use of mobilized RC forces and will 
continue to be. We have also worked closely with the theater commanders 
and instituted a policy that, as much as possible, we will rotate our 
outside CONUS-deployed forces on our 90-day AEF construct. 
Unfortunately, not all of out career fields have the depth of personnel 
to do this, but the majority will be able to comply. The effect of this 
policy is that we can reduce the duration of support from the RC forces 
alleviating the impact on the individuals and their civilian employers.

    48. Senator Thurmond. General Shinseki, Admiral Clark, and General 
Jumper, if you were to increase the end strength (E/S) of your service, 
what would be the optimum increase?
    General Shinseki. The current operational environment places 
additional demands on the Army that were previously unrealized. Post-
September 11 events have only increased demands placed on the force, 
and the Army will likely require an end strength increase to fully meet 
these demands.
    The Total Army Analysis (TAA) process will determine the size and 
composition of the Army within a constrained budget. The current 
effort, TAA 09, is not complete but will account for the additional 
emerging requirements in the area of homeland security and the global 
war on terrorism.
    To address the immediate need, the Fiscal Year 2002 Defense 
Authorization Act permits the Department of Defense to allow the 
services to exceed their end strength by 2 percent in any fiscal year 
in which there is a war or national emergency. Taking full allowance of 
this provision would allow the Army to increase its Active component 
end strength to 489,600.
    The Army can realistically increase recruiting by an additional 
4,000 soldiers per year in fiscal year 2003 and 2004 to address the 
most immediate needs of the war on terrorism and homeland security, 
provide relief for Reserve component soldiers, and allow more time to 
analyze enduring requirements.
    Admiral Clark. Based on current force structure and mission 
requirements, the Navy needs to be at 376,000 plus 4,383 additional end 
strength needed to support increased anti-terrorism force protection in 
fiscal year 2003. The increased security end strength will permit the 
fleet's to meet force protection conditions necessary for a long-term 
security posture. Total Navy end strength requirements are 380,383.
    General Jumper. Initial projections show a 30,000 increase in total 
military (Active/Guard/Reserve) end strength requirement, but our 
production base could only execute 7,000 in fiscal year 2003. SECDEF 
challenged us to pursue more innovative solutions to offset the need 
for additional E/S. We are currently meeting E/S requirements through 
partial mobilization of the ARC and stop loss actions, but we can't use 
these tools indefinitely. In anticipation of demobilization and an end 
to stop loss, we are starting the lengthy process of determining the 
best and most efficient way to meet our increased requirements.

                             TRANSFORMATION

    49. Senator Warner. General Shinseki, based on the experience of 
the current operations in the Balkans and Afghanistan and the prospect 
that future conflicts will be unlike those we fought in the past, have 
you considered advancing the schedule for the Army's Transformation?
    General Shinseki. Yes, from our current operations in the Balkans 
and the global war on terrorism, the Army is in a continuous process of 
learning from and assessing these experiences. The attacks of September 
11 were more than just the first salvo in a new war; they validated the 
direction of our vision and the need to accelerate transformation. We 
believe our efforts to accelerate transformation are on track with the 
emerging strategic environment.

    50. Senator Warner. General Shinseki, what is the pacing issue in 
the Army's Transformation?
    General Shinseki. The Objective Force is the pacing issue of the 
Army's transformation. The Objective Force is the integration of 
people, systems, and emerging technologies. The success of Army 
transformation and the realization of the Objective Force will 
ultimately depend on our people. Soldiers remain the centerpiece of our 
formations, and it will take trained, educated, disciplined, tough, and 
dedicated soldiers at every level to implement this change. The 
Objective Force soldier must be multi-faceted, adaptive, self aware, 
innovative, creative, and a risk-taker. The only way to ensure this is 
through realistic training at home station, emergency deployment 
readiness exercises, and the combat training centers allowing soldiers 
to train as we want them to fight.
    When we equip these soldiers with systems like the Future Combat 
Systems, Warfighter Information Network-Tactical, Comanche, Objective 
Force Warrior, and other emerging technologies, they will be the most 
skilled, knowledge-based force in the world. We will continue to 
exploit the revolutionary potential of information superiority and 
networked sensors, shooters, supporters, and decision-makers, to allow 
the force to see first, understand first, act first, and finish 
decisively in full spectrum military operations. It will change the way 
we deploy, fight, sustain, and use information.

                          CONDITIONS IN KOREA

    51. Senator Thurmond. General Schwartz has made a strong case for 
improving the quality of life for our military personnel assigned to 
Korea. Since the Army has the largest contingent of forces in Korea, 
what is the Army doing to improve the quality-of-life for the soldiers 
assigned to Korea?
    General Shinseki. General Schwartz has indeed made a compelling 
case to improve the well-being for all military personnel serving in 
Korea and their family members. His goal to make Korea an assignment of 
choice is a worthy endeavor that I fully support. The generous 
financial assistance that Congress has provided Korea in the last few 
years is gratifying, and the result is that significant inroads have 
been made into many of the most pressing near-term quality of life 
challenges. Still, more needs to be done to fix the long-term problems.

    52. Senator Thurmond. General Shinseki, in your judgment, why are 
Army officers turning down command in Korea?
    General Shinseki. We reviewed the reasons several officers gave in 
fiscal year 2002 for declining command in Korea, but found no single 
quantifiable reason. The majority cited general ``family reasons.'' 
Overall command declination rates have remained relatively stable. As 
we look at command declinations Army-wide, we find no trend why 
officers decline command, nor can we find a pattern indicating officers 
are more likely to decline command of one type of unit over another.
    Many officers who decline command in Korea and elsewhere have 
served our Nation proudly for 18 to 22 years. Some have deployed to 
Panama, Southwest Asia, the Balkans, and other remote locations leaving 
behind their families for extended periods. This takes an undeniable 
toll on family relationships, and many choose family stability over 
command.
    Several changes beginning in fiscal year 2003 should help alleviate 
the number of declinations. Officers may now decline command as soon as 
they are notified of their board selection while maintaining their 
eligibility for command in future years. This allows officers to 
reconsider their selection should their circumstances change. 
Additionally, officers who are contacted for activation for command may 
state their non-availability for command at that time due to personal 
or professional reasons. This ensures they will not be forced into 
accepting or declining command for the wrong reason while they maintain 
their alternate status for future commands during that fiscal year.

    53. Senator Thurmond. General Shinseki, if given the authority what 
immediate changes would you make to enhance the assignment to Korea?
    General Shinseki. The well-being of our soldiers, civilians, and 
their families stationed overseas continues to be a priority. There are 
several initiatives that are contributing to the improvement of the 
well-being for Army personnel in Korea, such as new barracks and family 
housing construction and renovation. This will allow more service 
members to serve tours in Korea with their families. There are two 
major programs that are part of our Army facility strategy: one-plus-
one barracks standard by 2009 and improvements in family housing 
through renovation and construction by 2007. This is a long-term goal, 
but we continue to improve existing housing through a phased renovation 
and conversion of family housing units. Our Korea housing and barracks 
plan will move us closer to our objective of providing a standard of 
housing commensurate with our civilian counterparts.
    The Army is also addressing the concerns of a force that is more 
computer and Internet savvy by working to improve the connectivity of 
Internet portals for better e-mail communication. With increased 
emphasis on technology and communications, Eighth Army morale, welfare, 
and recreation (MWR) has stepped up to provide low-cost Internet access 
to our customers. Whether it's surfing the Internet or writing to loved 
ones back home, our community activity centers provide cyber cafes with 
DSL connections. Additionally, all MWR libraries are equipped with 
Internet-accessible computers.
    Eighth Army MWR has offered cable television to members of the 
military community living in on-post quarters for over 5 years. Every 
barracks room and private living quarters receive free basic cable, 
which includes Armed Forces Network channels, local Korean channels, 
and free radio. Customers may also subscribe to the cable premium 
package, which offers additional programming, including CNN 
International, Discovery Channel, and many others. Costs for the 
premium package cover only the cost of channel licensing fees.
    If given the authority to make immediate changes for improvement in 
the overall well-being of personnel in Korea, I would speed-up the 
timeline on the issues mentioned above. The single greatest effort 
would be in increasing barracks, family housing, workplace environment, 
and other facilities renovations and construction.

                          CIVIL AFFAIRS UNITS

    54. Senator Thurmond. General Shinseki, the current operations have 
demonstrated the need for increased unconventional operating forces 
including the need for civil affairs units. I understand that the Army 
relies almost exclusively on the Army Reserve to support the civil 
affairs function and that these assets arc being stretched to the 
breaking point. What, if any, are your plans to address the operations 
tempo of the Reserve civil affairs units?
    General Shinseki. You are correct that civil affairs is primarily a 
U.S. Army Reserve (USAR) mission. Ninety-seven percent of Army civil 
affairs forces are in the USAR, because only in the USAR can we 
maintain the unique skill sets that civil affairs specialties require. 
USAR civil affairs soldiers bring special skills and experience from 
their civilian jobs that we cannot maintain in the active Army. For 
example, there is no Army specialty that duplicates the knowledge and 
skills needed to assist in reestablishing the economic and banking 
systems in a post-conflict environment. Reserve component civil affairs 
units have that capability, because they can recruit soldiers whose 
daily job is running a large bank, or a similar important position in 
the U.S. economic sector.
    USAR civil affairs units have been involved in every operation and 
contingency for the last 20 years, from Grenada through the Gulf War 
and the Balkans, to the current operations against terrorism. 
Consequently, many Reserve civil affairs units have been deployed 
frequently and repeatedly, but the force is not yet at the breaking 
point. Currently, only 1 percent of the civil affairs force is 
mobilized supporting Operations Joint Guard and Joint Forge, and 5 
percent of the civil affairs force is mobilized supporting Operations 
Noble Eagle and Enduring Freedom. On average during the past 5 years, 
only 12 percent of the force has been mobilized at any one time. That 
said, the civil affairs force does have some challenges. Due to the 
high operations tempo over the last several years, we have a challenge 
in the retention of qualified civil affairs soldiers. Also, 45 percent 
of the Reserve component civil affairs force has already been mobilized 
and performed duty in the Balkans. Current DOD policy only allows for 
one rotation per mobilization, which raises concerns about the ability 
of the civil affairs force to sustain both the Balkans mission and the 
global war on terrorism.
    More than 2 years ago we initiated a force structure increase for 
both Active and Reserve component civil affairs to better support the 
regional combatant commanders. This force structure increase will also 
serve to partially alleviate the increasing operations tempo. Between 
now and fiscal year 2005, the Army will create four new Reserve 
component civil affairs battalions, totaling over 1,100 spaces. In 
fiscal years 2004 and 2005, the Active component civil affairs 
battalion will add one new company per year, for a total of 118 spaces. 
Additionally, this year the U.S. Army John F. Kennedy Special Warfare 
Center and School has doubled the number of officer and enlisted civil 
affairs courses to increase the available pool of qualified civil 
affairs soldiers.
    These force structure changes will not happen overnight. 
Recruiting, training, and retaining for the new units will be a 
challenge. It will take approximately 2 years for each new Reserve 
component civil affairs unit to be fully trained and validated to 
deploy to execute missions. In the meantime, we are looking at other 
means to effectively manage the operations tempo for our Reserve units. 
These include potentially increasing the length of operational 
deployments, which will, over time, reduce the number of units and 
personnel mobilized, and closely evaluating and prioritizing other 
commitments for our Reserve civil affairs, such as exercise 
participation, to ensure that the essential requirements of the 
regional combatant commanders are being met while not overtaxing our 
Reserve Forces during the war against terrorism.

                         U.S.S. JOHN F. KENNEDY

    55. Senator Thurmond. Admiral Clark, during the past several 
months, the materiel readiness of the U.S.S. John F. Kennedy has 
received a great deal of media coverage. According to several of the 
U.S.S. John F. Kennedy's chiefs interviewed by The Navy Times, the 
problems with the ship stem from the high OPTEMPO during 2001 and the 
lack of money for repairs. Do you agree with the chiefs' assessments 
that the high OPTEMPO and lack of funds were the cause of the U.S.S. 
John F. Kennedy's problems?
    Admiral Clark. U.S.S. John F. Kennedy's recent materiel readiness 
problem had a number of causes. Of particular note was the conversion 
of the fiscal year 1993 Service Life Extension Program (SLEP) 
availability to a Complex Overhaul, reducing the planned $650 million 
work package to $331 million. Cancellation of distributive system work 
from the SLEP program has caused systemic problems in steam, fuel oil, 
containment holding and transfer, and other piping systems. Other 
contributing factors include a 5-year period of time in the Reserve 
fleet with lower levels of maintenance funding as well as near-term 
poor oversight and enforcement of standards by shipboard leadership. 
More readiness money is flowing to the Fleet. The fiscal year 2002 
budget has increased funding for Navy readiness accounts over fiscal 
year 2001 levels. Our priority is to take care of the Navy our Nation's 
taxpayers have already purchased.

    56. Senator Thurmond. Admiral Clark, what assurance do you have 
that there are no other ``U.S.S. John F. Kennedys'' out in the fleet?
    Admiral Clark. The Navy has an active inspection program that 
periodically inspects each ship's operational readiness and material 
condition. The Navy's Board of Inspection and Survey discovered the 
U.S.S. John F. Kennedy's recent material readiness problems during a 
routine inspection.
    Fleet readiness is a top Navy priority. The fiscal year 2002 budget 
has increased funding for Navy readiness accounts over fiscal year 2001 
levels. This has significantly reduced the level of deferred fiscal 
year 2002 ship maintenance from the levels of previous fiscal years.

                     FORWARD DEPLOYED STAGING BASE

    57. Senator Thurmond. Admiral Clark, I understand that based on the 
successful deployment of special forces from the U.S.S. Kitty Hawk 
during the operation in Afghanistan, the Navy is looking at the notion 
of an afloat forward staging base designed to meet the special forces 
requirement without straining the carrier fleet. What can you tell us 
about this concept?
    Admiral Clark. I have directed a study on the feasibility of 
acquiring a platform that will provide, among other things, an 
operational capability similar to that seen in U.S.S. Kitty Hawk (CV 
63) last year. Teams from Naval Sea Systems Command (NAVSEA) and 
Military Sealift Command (MSC) have explored more than 40 sea-borne 
platforms to assess their ability to meet this requirement. NAVSEA's 
and MSC's combined analysis and their recommendations will provide a 
basis for future decisions on afloat forward staging bases.

                            SUBMARINE FLEET

    58. Senator Thurmond. Admiral Clark, in testimony before this 
committee during deliberation on the fiscal year 2001 budget, your 
predecessor, Admiral Johnson, stated: ``The submarine force is no 
longer able to meet all the regional CINC's requirements due to the 
draw-down in force level.'' What is your assessment of the size of the 
submarine fleet compared to the real world operational requirements?
    Admiral Clark. Our 54 attack submarines (SSNs) in the inventory are 
insufficient to meet the theater demand today. Following September 11, 
combined requirements from the Combatant Commanders for SSNs available 
in theater surged to 12.9. Our 54 SSNs are only able to provide a 
theater presence of 10 to 10.5. To compensate for this shortfall, we 
are stretching the budget and innovating where possible. Three specific 
items in the fiscal year 2003 budget address this shortfall.
    First, the fiscal year 2003 budget includes advance procurement to 
get to a three per year build rate for Virginia class SSN starting in 
fiscal year 2008. A build rate of at least two Virginia's per year is 
needed as soon as possible in order to maintain long-term attack 
submarine force structure above 55.
    Second, the fiscal year 2003 budget includes refueling 8 of 10 
available Los Angeles class SSNs throughout the FYDP to make more SSNs 
available before they reach their end of life around 2016.
    Lastly, commencing late in fiscal year 2002, and complete by 2003, 
three refueled SSNs will be forward-based in Guam. Since these SSNs are 
closer to their theater of operation, they will spend the bulk of their 
time in theater and will be able to provide more operational days at-
sea as compared to CONUS-based SSNs. This opportunity was enabled by a 
new operating cycle concept and by leveraging off existing Guam 
infrastructure that only required modest upgrades for the three SSNs.

    59. Senator Thurmond. General Jumper, although the Air Force 
exceeded its retention for first term enlistments, it fell short of the 
goals for second term reenlistments, and career reenlistments. In your 
judgment, what is the greatest hindrance to achieving the reenlistment 
goals for the career force?
    General Jumper. In our most recent exit survey, second term and 
career airmen ranked ``availability of civilian jobs'' and ``pay and 
allowances'' as their number 1 and 2 reason for leaving the Air Force. 
The perception among those leaving was jobs were plentiful. In fact, 
about two-thirds of those leaving already had a job lined up. Since we 
can't change the economy, our efforts are focused on improving ``pay 
and allowances''--to ensure our competitiveness in the marketplace. 
Compensation is an issue that continues to be of significant importance 
to military members and was cited by over half the enlisted members as 
a ``strong'' or ``very strong'' influence to leave. Despite the 
targeted pay raises, only 40 percent of separating members said their 
military income covered their basic expenses with money left over.
    With your help, we are working hard to address these concerns. The 
improvements in basic pay, and other quality of life programs that 
Congress provided in the recent NDAA were a boost to our airmen and 
should go a long way in helping retain our career enlisted force. We 
will, however, continue to closely monitor reenlistments to ensure we 
retain our most valuable assets--our trained and experienced airmen.

                         MISSION CAPABLE RATES

    60. Senator Thurmond. General Jumper, in reviewing the briefing 
information on the Air Force budget, I noted that the Air Force 
projected an aircraft mission capable rate projection for fiscal year 
2003 of 78 percent. This represents an increase of 5 percent over 
fiscal year 2000, but is still short of the rates in the early 1990s. 
How will the operations in Afghanistan impact your mission capable 
rates?
    General Jumper. There were three effects from Operation Enduring 
Freedom (OEF) on Air Force mission capable rates:

        <bullet> An initial effect accelerated an existing 15-month 
        improvement in MC rates as the AF mobilized to a warfooting 
        (depots surging, deployed aircraft receiving high-priority 
        supply codes, and Reserve Forces activations) resulting in the 
        aggregate MC rate spiking to 77.1 percent in December.
        <bullet> Since September Air Force Reserve and Air National 
        Guard rates increased dramatically in fiscal year 2002 
        following troop activations; this positively influenced overall 
        AF aggregate rates with the Reserve components MC jumping from 
        67.9 percent in fiscal year 2001 to 75.8 percent in fiscal year 
        2002 (as of March 1, 2002)--a 7.9 percent improvement in 6 
        months.
        <bullet> Following 6 months of increased operations and high 
        aircraft utilization rates for certain high demand assets (not 
        overall aggregate AF rates) there has been a slowdown in the 
        improving trends. For example, the KC-10, E-3, and C-17 
        decreased slightly as a result of extremely high utilization 
        rates after September 11. AF fiscal year 2002 aggregate rates 
        are still improving over an already improved fiscal year 2001 
        trend, but not as much as surge in October-December timeframe.

                        EN ROUTE INFRASTRUCTURE

    61. Senator Thurmond. General Jumper, one of the most critical 
shortfalls facing our combatant commands is strategic lift. At 
virtually every hearing, commanders at all levels have voiced the same 
concerns about our ability to move large numbers of troops and 
equipment over long distances. Although additional lift is critical, so 
is the en route structure of airfields and refueling points. What is 
your assessment of the en route facilities throughout the globe and 
where would you place additional emphasis?
    General Jumper. In general, we are pleased with the condition of 
our en route infrastructure. However, there are certain locations where 
we still need to invest.
    Over the last decade, our overseas basing structure was in a state 
of flux. During this time, we intentionally minimized overseas 
infrastructure investment. As a result, our overseas installations 
suffered. In the latter half of the 1990s, we were able to target 
funding at our en route infrastructure through the Mobility Enhancement 
Fund (MEF) and the Defense Logistics Agency's (DLA) military 
construction programs (in conjunction with companion Air Force military 
construction projects). This targeted investment helped us offset some 
of that minimized investment previously mentioned.
    We base our en route infrastructure investment priority on mission 
need, as advocated by the theater CINCs. In our fiscal year 2003 budget 
request, we have included strategic airlift (en route) infrastructure 
projects at Naval Station Rota, Spain, and at Wake Island. DLA has also 
included in their fiscal year 2003 program a number of fuels 
infrastructure projects (including Rota) that support strategic 
airlift. Unfortunately, we have not seen any MEF funding in the last 2 
years.
    Our investment strategy has targeted completion of aircraft parking 
ramps, hydrant refueling systems, and key support facilities to meet 
the strategic airlift throughput objectives defined during Mobility 
Requirements Study-2005 (MRS-05). These projects are well supported in 
the current AF and DLA fiscal year military construction programs 
through fiscal year 2005, with the projects coming to fruition into 
fiscal year 2006. Based on evolving guidance in the National Military 
Strategy and defense plans, our theater CINCs may define additional 
strategic lift requirements to support their future areas of concern. 
If and when those additional airlift requirements are defined, they 
will no doubt drive some additional infrastructure challenges.

                        RECONSTITUTION OF FORCE

    62. Senator Thurmond. General Jones, our marines who made the first 
assaults into Afghanistan fulfilled their assignment in the great 
tradition of the Marine Corps. We all saw the harsh conditions that 
both the marines and their equipment had to endure throughout their 
deployment, but we have not had any reports on what impact the 
operations had on your aging equipment. As you are reconstituting the 
force, what problems are surfacing with the equipment and are you 
sufficiently funded to repair fully or replace the equipment?
    General Jones. The foremost problem impacting Marine Corps aging 
ground equipment in theater has been the harsh environment. Sand, dust, 
and wind along with the cold weather conditions has caused scheduled 
preventive maintenance to be expedited. Rolling stock, such as the 
HMMWVs, appears to have suffered more mechanical failures than 
expected. Fuel system problems have also been experienced. However, due 
to experience and interoperability, Marine Corps maintenance personnel 
at FOB Rhino, were able to overcome equipment failures and even 
assisted the Navy with their mechanical problems. Survivability of 
equipment in harsh environments continues to be a major area of concern 
when conducting operations. Additional analysis is required on 
equipment as it returns, since operations are ongoing. Additional 
funding may be required, and if needed will be identified via our 
resource requirement processes, to ensure maintainability of older 
equipment until new replacements are on line and fully integrated into 
the supply pipeline.

                         COUNTER-TERRORISM UNIT

    63. Senator Thurmond. General Jones, the Marine Corps is requesting 
an increase of 2,400 marines to field the 4th Marine Expeditionary 
Brigade. I understand that this unit's principal role will be counter-
terrorism. How will the organization of this unit differ from the other 
Marine units?
    General Jones. The mission of the 4th Marine Expeditionary Brigade 
(Anti-Terrorism) is not ``counter-terrorism,'' but rather anti-
terrorism. Anti-Terrorism (defensive component) and Counter-Terrorism 
(offensive component) are combined together in Combating Terrorism.
    This organization of the 4th MEB (AT) is different from other 
Marine units as reflected in its mission statement: To provide Unified 
Combatant Commanders with a rapidly deployable and sustainable 
specialized Anti-Terrorism Force to deter, detect, defend, and conduct 
initial incident response to combat the threat of worldwide terrorism.
    Fourth MEB (AT) is an organization composed of existing USMC 
capabilities augmented by a newly created and permanently assigned 
Anti-Terrorism battalion that is undergoing specialized training 
consistent with its dedicated mission of Anti-Terrorism.
    The 4th MEB (AT), like all Marine Air-Ground Task Forces (MAGTFs), 
can task organize their organic units and various other ground, air, 
and support elements, into a single force specifically focused on anti-
terrorism operations. Leveraging capabilities already available within 
the Marine Corps, three commands with specific anti-terrorism/force 
protection missions were assigned to the 4th MEB (AT): the Marine 
Security Guard (MSG) Battalion, the Marine Corps Security Force (MCSF) 
Battalion, and the Chemical/Biological Incident Response Force (CBIRF). 
4th MEB (AT) combines into a single command, under a common commander 
and supporting staff, the ability to perform all the elements of anti-
terrorism operations and leverages current and emerging technologies to 
achieve economy of force. The Brigade possesses the combination of 
personnel, equipment, training, and tactics that exceed the 
capabilities of regular Marine Corps units to conduct anti-terrorism 
operations.
    Fourth MEB's Anti-Terrorism (AT) Battalion was created from an 
infantry battalion. Its capabilities are built on the core Marine 
infantry battalion skills combined with the key element of a trained AT 
mindset. This mindset consists of the ability of an individual marine 
to recognize key indicators prior to a terrorist attack and take the 
appropriate action without hesitation. Key training includes 
understanding terrorist tactics and operations, reconnaissance/
surveillance, surveillance detection and counter-surveillance skills. 
In addition, marines also receive enhanced NBC, marksmanship, and urban 
skill training. As a result, the marines of the AT Battalion are able 
to effectively operate in an urban environment with the skills 
necessary to engage terrorists while minimizing civilian casualties.
    In summary, the 4th MEB (AT) is a unit whose mission is to conduct 
anti-terrorism operations. It has the capability to provide highly 
capable, scalable, and rapidly deployable anti-terrorist units from 
platoon to brigade size. Each unit, regardless of size, will be 
specifically trained in anti-terrorism operations and have the 
integrated intelligence and communications assets that will enable it 
to effectively detect, deter, and defend against terrorism threats 
worldwide.

                           HIGH SPEED VESSEL

    64. Senator Thurmond. General Jones, the Marine Corps recently 
signed a lease with an Australian company for a high speed vessel to 
ferry marines from Okinawa to training sites on Japan and other 
training areas in the Far East. Considering the cost of the lease, what 
tactical capability does this vessel add to the Marine Corps?
    General Jones. The High Speed Vessel (HSV) is not considered a 
tactical asset. It is viewed as an innovative means to increase unit 
readiness and reduce the burden of strategic lift required by MARFORPAC 
forces to meet their off-island training requirements. The lease and 
the utilization of this vessel enables Marine Corps units to move a 
battalion of marines (970) and 350 short tons of unit cargo in one lift 
at a rate of speed of 37-42 knots. This one-way lift is normally 
completed within a 30-36 hour period depending on distance to the 
training or exercise area. Utilization of the HSV replaces 17 
individual one-way C-17 sorties. These C-17 sorties are normally 
accomplished over a 17-day period moving 100 marines or 45 short tons 
of cargo at a time. The estimated cost of moving a battalion of marines 
and 350 short tons of cargo via the HSV is $104,000. Likewise; the 
estimated cost of moving the same marines and cargo via strategic air 
is estimated at $500,000.
    The WESTPAC EXPRESS is considered a ``transformational'' intra-
theater administrative (non-tactical) lift asset, which is service-
unique, and theater assigned specifically to ease the transportation 
shortfalls in support of Marine Corps units in the Western Pacific. It 
is transformational in that we have re-engineered the OCONUS 
transportation equation by introducing a new commercial ``off the 
shelf'' technology platform which has regional capabilities, 
supplanting the much more expensive use of U.S. military strategic 
transportation platforms, thereby reducing costs while simultaneously 
increasing operational tactical training and strategic engagement 
opportunities. Its acquisition was also transformational in that it was 
acquired under a 36-month lease rather than a purchase arrangement. 
This technology is turning over with the same rapidity that the 
automated data processing industry experienced in the 1990s. The Marine 
Corps can upgrade to a more capable model in 36 months as opposed to 
being restricted by the traditional acquisition process, which would 
normally lock us into a 96-month or longer time frame. It is 
undoubtedly the transformational acquisition success story of 2001.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                              SHIPBUILDING

    65. Senator McCain. Admiral Clark, a January 28, 2002 article 
titled, ``Responding to Lott, DOD Starts Funding LHD-9 And One More 
DDG-51'' by Chris Castelli in Inside the Navy states: ``At the urging 
of Senate Minority Leader Trent Lott (Republican--Mississippi), the 
Pentagon has made last minute adjustments to the Navy's shipbuilding 
plan in the Bush administration's fiscal year 2003 budget. The Pentagon 
put $74 million more toward a third DDG-51 destroyer and allocated $10 
million in advance procurement for a ninth amphibious ship, LHD-9, that 
was not previously in the Navy's budget.'' Is this true?
    Admiral Clark. The OSD Comptroller made two late changes to the 
Navy's fiscal year 2003 shipbuilding budget request by adding $74 
million in advance procurement funding for a third DDG 51 destroyer in 
fiscal year 2004, and shifting $10 million for advance procurement 
funding for a fiscal year 2008 LHD-9. Any specific questions on the 
factors that precipitated the decision for these shifts should be 
referred to the OSD Comptroller.

    66. Senator McCain. Admiral Clark, are you aware of an effort going 
on by the Department of the Navy to look at an AOA to replace the 
current LHA with an LHA(R)? Are you aware that the Comptroller's Office 
of the Secretary of Defense deleted the funding for the study on the 
AOA-cutting $16 million from the research, development, testing, and 
evaluation effort for the LHA replacement?
    Admiral Clark. The Department is aware of this situation. During 
the November 2001 review of the Navy's Fiscal Year 2003 Budget request, 
the OSD Comptroller's Office deleted fiscal year 2003 and 2004 RDT&E 
funding for the LHA(R) program.
    LHA(R) R&D funding throughout the FYDP was briefed to and approved 
by OSD (including the OSD Comptroller) at Milestone A as the minimum 
RDT&E funding necessary to support the least expensive LHA(R) AOA 
alternative--a repeat LHD-8. Since the AOA completes in fiscal year 
2002, this fiscal years 2003-2004 RDT&E deletion does not directly 
impact the AOA study, the AOA final report, or the Navy's ability to 
decide which LHA(R) alternative to pursue. However, the Department of 
the Navy will select a preferred alternative based on the results of 
the AOA and adjust RDT&E and SCN profIles as required to move forward.

    67. Senator McCain. Admiral Clark, does the $10 million in advance 
procurement for LHA-9 that was added by the Office of the Secretary of 
Defense Comptroller, according to the Castelli article, predetermine 
the results of the AOA?
    Admiral Clark. No. The results of the LHA(R) AOA are not 
predetermined. The LHA Replacement Analysis of Alternatives is ongoing 
and will report out in summer 2002. Alternatives being considered 
include: Repeat LHD-8 with evolutionary modifications, Modified LHD-8 
upgraded to enhance the ability to operate the larger and/or heavier 
new generation amphibious systems, and New Ship Designs spanning a wide 
range in size and capability. Based on the analysis presented in the 
AOA, the Navy will determine the optimal alternative for the LHA 
replacement as part of the LHA(R) program. The preferred alternative 
mayor may not be based on the LHD-8. The $10 million in the fiscal year 
2003 budget request allows the Navy to begin refining the AOA selected 
alternative's detailed capabilities/characteristics and other 
developmental work.

                  PLANNED FUTURE AIRCRAFT AND VEHICLES

    68. Senator McCain. Admiral Clark, I recently traveled to 
Afghanistan with other members of this committee. While there, I heard 
from several Navy and Marine Corps officers that the number one concern 
for replacing the LHA is safety because of a stability problem, 
especially with deployed aircraft. Their concern was that even with 
some minor fixes with fuel compensation systems, the problem will be 
exacerbated when the service deploys larger aircraft, such as the 
Osprey (MV-22) and the Joint Strike Fighter (JSF) which are 
replacements for the CH-46 and AV-8B respectively. I am told that the 
MV-22 is twice the weight of the CH-46 and that the JSF is believed to 
be about twice the weight of the AV-8B. Does the LHD class have similar 
stability problems as the LHA class, and would you agree that the 
problem could be exacerbated with the planned future aircraft and 
vehicles envisioned for the Marine Corps?
    Admiral Clark. The seven ships of the LHD class have improved 
stability characteristics over the LHA class and therefore do not 
experience weight and center of gravity issues to the same extent as 
the LHA. For example, LHD-7, commissioned in 2001, has greater than the 
required 1,000 long tons of service life weight growth allowance.
    LHDs have the growth allowance to accommodate MV-22 and JSF with 
aggressive weight control measures and the fuel oil compensation ship 
alteration although LHDs have less vehicle storage space (square 
footage) than LHAs.
    The Navy's five LHAs need to be replaced as soon as possible, as 
they are rapidly reaching the end of an already extended service life. 
The LHA(R) AOA was initiated to ensure that both Marine Corps and Navy 
21st century requirements are addressed, including the issues the 
Senator raises regarding the impact of heavier and larger aircraft/
vehicles and overall amphibious force vehicle storage area. An LHD 
repeat is just one of several alternatives being considered in the 
LHA(R) AOA to meet requirements.

    69. Senator McCain. Admiral Clark, what growth percentages are 
currently planned for the LHD class of ships?
    Admiral Clark. The CNO-specified minimum Service Life Allowance for 
the LHD class at delivery from the shipyard is 1/2 foot for vertical 
center of gravity reserve and 1,000 long tons (about 2.5 percent) of 
displacement service life reserve. The requirement is documented in the 
LHD Class Top Level Requirements document.

    70. Senator McCain. Admiral Clark, is the LHD a good replacement 
for the LHA class of ships, considering that the ship does not meet the 
requirement in planned future vehicles and aircraft for the Marine 
Corps or our special operations community and considering the 
amphibious lift requirement of 2.5/3.0 Marine Expeditionary Brigade?
    Admiral Clark. The ongoing LHA(R) AOA is addressing whether the LHD 
is a good replacement for the LHA class. Continuing to build LHDs, as 
well as ship design modifications to enhance the capability to operate 
the larger and heavier new generation amphibious systems are currently 
being examined as options. The AOA is also investigating the optimum 
way to reach the fiscally constrained amphibious lift requirement of 
2.5 Marine Expeditionary Brigades. The AOA is expected to report out 
later this year and will present its conclusions at that time.

    71. Senator McCain. Admiral Clark, because of the well deck inside 
the LHD, isn't the LHD available square footage less than the LHA?
    Admiral Clark. See answer to question 70.

    72. Senator McCain. Admiral Clark, it seems to me that the LHD is 
not a very transformational program especially considering that it is 
the exact same hull of the current LHA class that is based on a 1950s 
design. It seems to me that if the LHA (R) class ship is built to have 
a lifespan of 50 years with no further research and development (R&D) 
funding, then the LHD-9 will be a 100-year-old design when it is 
decommissioned in the 2050 timeframe. Would the Navy develop an 
aircraft carrier, destroyer, or submarine without a robust R&D effort?
    Admiral Clark. The Navy is currently conducting an AOA for LHA(R). 
Numerous alternatives are under consideration, including a LHD-8 repeat 
design. If the results of the AOA support a repeat LHD or new ship 
design, additional RDT&E funds will be required. At that time, it may 
be necessary to revisit the current plan to use the $10 million in 
fiscal year 2003 SCN AP for a LHD-9.
    While the LHA(R) hull shape may be close to the original, its 
combat systems suite, communications gear, and information technology 
set up will be state-of-the-art.

    73. Senator McCain. Admiral Clark, where is the R&D funding for a 
major amphibious ship like the LHA (R)?
    Admiral Clark. See answer to question 72.

    74. Senator McCain. Admiral Clark, are you relegating the 
amphibious Navy to non-transformational status?
    Admiral Clark. See answer to question 72.

                          CRUISE SHIP PURCHASE

    75. Senator McCain. Admiral Clark, there are reports that the Navy 
is being approached to purchase a pair of unfinished cruise ships at 
the Northrup Grumman Shipyard in Pascagoula, MS that were left behind 
when American Classic Voyagers went bankrupt for use as mobile housing 
or hospital ships. Is the Navy in any way interested in purchasing such 
ships? Is there a need for such ships?
    Admiral Clark. The Navy has declined the offer to acquire or use 
the cruise ships under construction. A team of Navy engineers recently 
visited the partially completed passenger ships in Pascagoula, 
Mississippi, and concluded that the ships are not suitable for use as 
command and control ships due to their structural design and lack of 
military survivability features. We also looked at the ships' utility 
for other non-combat ship missions. While the ships are viable with 
modifications for use as hospital, recreational, or berthing vessels, 
the Navy does not have a requirement or need for any more of these ship 
types today.

                           T-5 TANKER BUYOUT

    76. Senator McCain. Admiral Clark, on February 8, 2002 Rear Admiral 
Church delivered to Congress the Department of the Navy's ``Fiscal Year 
2003 Budget Overview.'' On page 18 of the Navy's budget brief is a 
slide called ``Promote Better Business Practices, Managing the 
Department in a Business-like Manner.'' I noticed a bullet that states 
``T-5 Tanker Buyout.'' Will you please tell the me why the Navy has 
decided in its fiscal year 2003 budget to buy the T-5 tankers rather 
than continue leasing them as was the plan several years ago?
    Admiral Clark. The T-5 Tankers were leased in the early 1980s 
rather than purchased because of the budgetary circumstances that 
existed at the time. When the ships were leased, the Navy negotiated 
for favorable purchase options that, conditions permitting, could be 
exercised at the appropriate time. Those conditions exist and that time 
is now. We have a continuing need for these vessels beyond their lease 
terms, which end in 2005 and 2006. If we let our options expire, we 
will end up chartering (leasing) higher cost replacement tankers.

                              767 TANKERS

    77. Senator McCain. General Jumper, are you beginning to negotiate 
the lease of the 100 767 tankers, as well as the 4 737 VIP aircraft 
that were added by the Senate Appropriations Committee and enacted in 
the Fiscal Year 2002 Department of Defense Appropriations Act last 
December?
    General Jumper. The Air Force has begun separate negotiations with 
Boeing on the air refueling tanker and the 737 aircraft. Prior to 
entering into any contract, we will provide reports to the four defense 
committees as required by the fiscal year 2002 DOD Appropriations Act.

    78. Senator McCain. General Jumper, do you believe in competition? 
If you believe in competition, then why did the terms of the proposed 
lease arrangement exclude potential competitors/lessees?
    General Jumper. Yes, the Air Force believes in competition. Well 
before Congress provided us with an opportunity to attempt to negotiate 
a lease for new air refueling aircraft, we had engaged in extensive 
discussions with the major aerospace companies regarding future air 
refueling aircraft. After the Appropriations Statute was signed, 
Secretary Roche spoke with M. Phillipe Camus, Co-CEO of Airbus, and 
noted that the AF was interested in hearing from them. In February, the 
Air Force issued a non-binding Request for Information to both Boeing 
and to Airbus/EADS in order to conduct market research and to gauge 
available technology and business cases. The responses to this request 
for information clearly demonstrated that only the Boeing Company could 
currently meet the requirements of Section 8159 of the Fiscal Year 2002 
Appropriations Act. The other offering presented a higher risk 
technical approach and a less preferred financial arrangement. The USAF 
encourages aerospace companies to continue their air refueling boom and 
other tanker developmental efforts to ensure a vibrant and fully 
competitive global defense industrial base well into the future.

    79. Senator McCain. General Jumper, I read in the Air Force Times 
article of January 21, 2002 that you said Plan A is to buy the Boeing 
767 tankers and Plan B is to lease the tankers. If that is correct, why 
have you not included a single tanker in the fiscal year 2003 Air Force 
budget request recently submitted to Congress?
    General Jumper. The fiscal year 2003 Air Force budget includes seed 
money, with the intent of acquiring new air refueling tankers in the 
outyears.

                          TANKER ACQUISITIONS

    80. Senator McCain. General Jumper, in a letter dated December 7, 
2001, to Senator Patty Murray, Secretary Roche wrote, ``The most 
important and critical factor is that this replacement program starts 
as soon as possible. To this end we will work with the Assistant 
Secretary of Defense (Acquisition, Technology, and Logistics) and the 
Office of the Secretary of Defense Comptroller to amend the fiscal year 
2003 budget currently being vetted through the Department.'' Again let 
me pose the same question: if Plan A is to buy the Boeing 767 tankers, 
then why haven't you included a single tanker in the fiscal year 2003 
Air Force budget request recently submitted to Congress?
    General Jumper. Our Tanker ``Plan A'' is to begin acquiring new air 
refueling tankers in the out years of the FYDP. The fiscal year 2003 
Air Force budget includes seed money to begin this effort.

    81. Senator McCain. General Jumper, what events caused the Air 
Force to circumvent the normal disciplines of the budget process--not 
ventilating a tanker modernization plan in the Office of the Secretary 
of Defense, Office of Management and Budget, or through the authorizing 
committees and appropriations committees about leasing Boeing 767 
tankers?
    General Jumper. The USAF budget had funds in fiscal year 2002 to 
begin the process that would start replacing KC-135s with a follow-on 
tanker we call KC-X. We are pursuing this plan because the tanker age 
and corrosion situation has become increasingly worrisome to the USAF. 
The KC-135 tankers are 40-year-old-plus aircraft that are wearing out. 
The KC-135E models, our oldest and least capable, are spending over 400 
days in depot being rebuilt every 5 years, and they require significant 
communications upgrades to allow them access to airspace worldwide. The 
remaining 545 KC-135 aircraft were purchased between 1957 and 1965. 
They will all age out at approximately the same time. It has become 
increasingly expensive for the Air Force to operate and maintain these 
aircraft. In May 2001, we sent letters to the chairmen and ranking 
members of all the defense committees requesting approval for 
accelerating our effort.
    This fall, while we were well into the process of submitting the 
President's budget, we had a significant series of three events occur 
that focused USAF attention on reevaluating our tanker 
recapitalization, and thus potentially avoid having to replace the 
entire 545 aircraft fleet simultaneously. The first event came after 
the attacks on September 11; we started to fly our tanker aircraft at 
approximately twice their annual rate to support Operations Noble Eagle 
and Enduring Freedom. Simultaneously, the second event occurred, and 
that was the softening of the commercial aircraft market, and 
announcements from the US aviation industry that they were starting to 
shut production lines, and lay off U.S. aviation workers. Lastly, the 
Boeing Company had expended their own capital and research and 
development to commercially offer Air Refueling Tankers, for delivery 
in 2005, based on their 767-200ER platform. The Japanese and Italian 
Governments have both selected this aircraft as their new air refueling 
tanker. The combination of these three events made us closely examine 
the possibility of jumpstarting the replacement of the oldest tankers 
in our fleet.
    Given the apparently weak market demand for wide-body aircraft, we 
thought there existed a chance for a smart business opportunity to 
replace the KC-135Es with the commercially developed 767 tanker 
aircraft while maintaining a strong bargaining position for the USAF. 
Boeing provided the Air Force a briefing proposing a lease of 100 
aircraft for 10 years with the option to buy at the end of the lease 
for the final payment. Leasing appeared to be a viable option since the 
aircraft were: (1) commercially derived, (2) commercially developed, 
and (3) quickly available in larger numbers through a lease to augment 
the aging fleet of tankers. In addition, the Air Force expects savings 
to result from operating and maintaining modern commercial aircraft 
rather than 40-year-old-plus KC-136 aircraft.
    The USAF was then asked by members of the House and Senate to 
provide informational briefings on this proposal. The briefing was 
provided to members of Congress, including members of the SAC, SASC, 
HAC, and HASC, who requested it from the AF. It was also provided to 
members of the OSD staff, CBO, and OMB. CBO and OMB had concerns with 
scoring Boeing's lease proposal. They recommended an ``operating 
lease'' compliant with the existing provisions of OMB Circular A-11. 
CBO's and OMB's recommendations are reflected in section 8159 which 
permits the USAF to attempt to negotiate a lease arrangement, for up to 
100 aircraft, for up to 10 years, for not more than 90 percent present 
value of the fair market value of the aircraft. The lease type 
specified' ultimately returns the aircraft to the private sector.
    The AF cannot enter into any lease deal without the permission of 
the four defense committees, and no funds can be expended. This, sir, 
is the genesis of this lease possibility. It was generated out of our 
perceived need to accelerate existing replacement plans and to assure 
that we can meet our mission in the future.

    82. Senator McCain. General Jumper, we all know that leasing Boeing 
767 tankers was not in the fiscal year 2002 Air Force budget or the Air 
Force long-range 6-year procurement plan. The Air Force's unfunded 
priority list did not have tanker replacement listed until March 1, 
2002. I have examined your previous unfunded priority list, totaling 60 
programs at a total cost of nearly $10 billion, which was prepared by 
you 6 weeks after September 11 and 3 weeks after the air war started, 
and tanker replacement is not listed. What would account for this?
    General Jumper. On October 22, 2001, the Air Force provided a copy 
of its July 2002 Unfunded Priorities List, with highlighted 
requirements that could boost the defense sector. Following that, on 
November 26, 2002, the July list was provided in its entirety with a 
note in the transmittal memorandum indicating that a tanker lease could 
help accelerate the replacement of our most aging KC-135E tankers.

    83. Senator McCain. General Jumper, the Operation Enduring Freedom 
chronology briefed by Secretary of Defense Rumsfeld and Joint Chiefs of 
Staff Chairman General Myers, and Commander in Chief of U.S. Central 
Command General Franks states that the air war did not start until 
October 7, 2002. Can you explain to me why Major General Paul W. 
``Bill'' Essex, Assistant Secretary of the Air Force for Acquisition, 
briefed Senator Murray's staff on October 3, 2001, 4 days before the 
air war started, on the need to replace the KC-135 tanker fleet with 
Boeing 767 tankers?
    General Jumper. By October 1, 2001, the USAF had already flown a 
significant number of missions in support of Operation Noble Eagle and 
in preparation for Operation Enduring Freedom. Starting on September 
11, the Combat Air Patrols provided over the USA's major cities by 
Operation Noble Eagle were made possible by the KC-135 air refuelers 
that kept the fighters in the air doing their job protecting us. The 
missions supporting Operation Enduring Freedom required the AF to 
establish extensive Air-Bridges composed of pre-positioned KC-135s and 
KC-10s. Without the Air-Bridges, our strike aircraft could not have 
accomplished the missions CENTCOM had in store for them. All of these 
actions were occurring well before the first strikes were made in 
Afghanistan. All of these actions were beginning to stress our oldest 
and least capable tankers.

                         PERSONNEL REQUIREMENTS

    84. Senator McCain. General Jumper, in the current issue of the Air 
Force Times a senior Air Force official is quoted as saying the Air 
Force will need upwards of 30,000 additional people in the coming years 
when reservists supporting Operation Enduring Freedom and homeland 
defense are demobilized and ``stop-loss'' ends. What are your 
requirements for additional personnel in the coming years?
    General Jumper. Initial projections show a 30,000 increase in total 
military (Active/Guard/Reserve) end strength requirement, but our 
production base could only execute 7,000 in fiscal year 2003. SECDEF 
challenged us to pursue more innovative solutions to offset the need 
for additional E/S. We are currently meeting E/S requirements through 
partial mobilization of the ARC and stop loss actions, but we can't use 
these tools indefinitely. In anticipation of demobilization and an end 
to stop loss, we are starting the lengthy process of determining the 
best and most efficient way to meet our increased requirements.

                              END STRENGTH

    85. Senator McCain. General Shinseki, Admiral Clark, General Jones, 
and General Jumper, more than a year ago, service men and women were 
promised that the frequent number of deployments that they became all 
too familiar with during the Clinton administration would ease and the 
number of worldwide commitments would be reduced. I am told that most 
of the Services feel that has not happened to the extent promised and 
may have even worsened because of ongoing war operations. While all 
support the budget recently submitted, privately all the Services admit 
they need additional end strength to get the job done. In fact, one 
service has told me that they may need as many as an additional 42,000 
service members. Do you have any comment on the need for additional 
service men and women?
    General Shinseki. The current operational environment places 
additional demands on the Army that were previously unrealized. Post 
September 11 events have increased demands placed on the force, and the 
Army will likely require an end strength increase to fully meet these 
demands.
    The Total Army Analysis (TAA) process will determine the size and 
composition of the Army within a constrained budget. The current 
effort, TAA 09, is not complete, but will account for the additional 
emerging requirements in the area of homeland security and the global 
war on terrorism.
    The immediate solution for the war on terrorism was the 
mobilization of our National Guard and Reserve soldiers and the 
implementation of ``stop loss'' for selected skill sets. The 
performance of these soldiers has been exemplary, but these are 
temporary measures, not a long-term solution.
    The Army may seek to take advantage of the Fiscal Year 2002 Defense 
Authorization Act that permits the Department of Defense to allow the 
services to exceed their end strength by 2 percent in any fiscal year 
in which there is a war or national emergency. Taking full allowance of 
this provision would allow the Army to increase its Active component 
end strength to 489,600.
    As the Army increases end strength, we must ensure the recruiting 
increase is achievable, the training base can meet additional 
requirements, and high standards and quality of life are maintained.
    Admiral Clark. Most of the Navy's current personnel needs are 
directly attributed to the increased requirement for anti-terrorism/
force protection. The Navy has conducted a comprehensive study that 
identified requirements for additional personnel at entry control 
points, pier-side, and on the flight line. The total estimated 
personnel need is 4,383. The Navy is working to determine the proper 
mix of military, civilian, and contractors based on military 
essentiality and legal constraints placed on the use of contractors at 
Stateside installations. The Navy is working to determine the proper 
way to transition from Reserve mobilization to the right levels of 
Active and Reserve forces. The Navy is also exploring opportunities to 
exploit the use of technology to reduce manpower requirements.
    General Jones. The Marine Corps fiscal year 2003 President's budget 
submission supports the Marine Corps growing to 175,000 Active Duty end 
strength. This growth of 2,400 marines was decided only after looking 
internally at how we could create efficiencies within our own 
organization. Over the last 2 years, the Marine Corps has been able to 
transfer many jobs and responsibilities over to the civilian sector 
which has promoted efficiency and allowed the Marine Corps to reassign 
our Active Duty marines to meet readiness concerns in the operating 
forces. The 2,400 increase in Active Duty end strength for fiscal year 
2003 would provide the additional end strength needed to ensure our 
Nation gains a robust Anti-Terrorism force without degrading personnel 
readiness that currently exists in our current Marine Corps units.
    General Jumper. See answer to question 84.

                          RESERVE DEPLOYMENTS

    86. Senator McCain. General Shinseki, Admiral Clark, General Jones, 
and General Jumper, I understand that there are over 85,000 National 
Guard and Reserve men and women supporting Operations Noble Eagle and 
Operation Enduring Freedom, citizen soldiers who juggle two careers: 
civilian and military. Also included in the category of ``twice the 
citizen'' are the employers who, for no incentive that I know of, hire 
Reservists and National Guardsmen and put up with monthly weekend 
drills, 2-week annual training periods, and recalls to active duty with 
little information on how long they will be away from their jobs. 
Today, every single one of the recalled 85,000 Reservists are told that 
they are on 1-year orders and may be continued for 2 years or more. 
What is the plan to bring the Reservists back home and back to their 
civilian jobs that they left, and who will replace them if we have a 
force structure, that according to the Services, is already stretched 
thin?
    General Shinseki. Today's Active Forces are so thoroughly 
integrated with the Reserve components, that we are always mindful of 
the sacrifices of the Reservist or Guardsman, as well as the employers 
who support the citizen soldier. To help manage the burden on 
Reservists and deployed soldiers, the Secretary of Defense has limited 
all orders to 12 months, even though partial mobilization authority 
traditionally permits a period of up to 2 years. Currently, orders may 
only be extended over 12 months by specific approval authority. While 
manpower needs of our commanders in chief and services, and the actual 
deployment length of mobilized forces must be based on the evolving 
realities of current operations, we are taking several actions to help 
return Reservists and all soldiers home as quickly as possible. First, 
we are implementing a plan to readjust the distribution of soldiers 
being used in homeland defense force protection and installation 
security roles.
    We are beginning to leverage the use of security technology to help 
reduce the number of security force soldiers required, as well as 
increasing the number of civilian guards at our installations. These 
actions will help keep our Active Forces performing their primary role 
of maintaining and sustaining combat readiness and will enable us to 
begin to systematically demobilize Reserve component soldiers providing 
force protection augmentation. To help better manage our total force, 
we have put into place a force rotation policy to provide our leaders 
and soldiers with more deployment predictability and stability for 
units and individuals. We are also currently analyzing our Active 
roster to determine if soldiers can be freed up from nonessential jobs, 
and continue to re-look our ongoing operations to identify where we can 
reduce or readjust our commitments. We have recently moved to reduce 
the size of our peacekeeping force in Bosnia and are examining the 
possibility of reducing or eliminating our peacekeeping deployment in 
the Sinai. Through better management of our planned deployments, 
redistribution of soldiers from nonessential jobs, re-engineering force 
protection needs, and reducing force commitments, we can return our 
citizen-soldiers home as quickly as possible, while also providing for 
our future force needs.
    Admiral Clark. The Navy has mobilized approximately 10,000 
Reservists. Over 50 percent of those Reservists are meeting anti-
terrorist/force protection requirements. The Navy has determined that 
the overall mobilization can be reduced by 25 percent. Over the next 
few months we will return approximately 3,500 Reservists to their homes 
and families. As the Navy increases the Active Duty security force by 
4,383 in fiscal year 2003, the Reserve requirement will be further 
reduced allowing additional Reservists to be demobilized. The Naval 
Reserve has sufficient inventory to relieve all of the Reservists 
remaining after 1 year with the exception of those in the Master-at-
Arms rating. Navy expects to retain these Reservists on Active Duty for 
up to 2 years to meet anti-terrorism/force protection requirements. As 
additional Active Duty Master-at-Arms are recruited and converted from 
other ratings, the Reserve Master-at-Arms will be relieved at or before 
the end of their second year mobilized. As mobilization requirements 
are reduced, Navy is contacting every reservist to identify those who 
are volunteers to be demobilized and those who would prefer to remain 
mobilized. Billet swaps are being arranged where possible to 
accommodate their preferences. Reservists for whom demobilization would 
cause hardship are being identified and every effort is made to find a 
swap, to mitigate or eliminate the hardship, or to delay the 
individual's demobilization until the hardship is eased. In short, Navy 
is going to great lengths to keep faith with our Naval reservists who 
have sacrificed to serve their country and to return them to their 
patriotic employers as soon as the war effort permits.
    General Jones. The Marine Corps was authorized by the Secretary of 
Defense to mobilize up to 7,500 Reservists to support Operations Noble 
Eagle and Enduring Freedom. The Marine Corps has been very judicious in 
using its mobilization authority. As of March 27, 2002, the Marine 
Corps had a total of 4,455 Marine reservists on active duty. 
Additionally, we have demobilized 66 reservists who are no longer 
needed on active duty. The Marine Corps is currently participating in a 
DOD sponsored mid-year review of USMC Component Activations to 
determine whether or not further reductions can be made. If we need to 
continue to fill these billets, we will either have to find another 
``volunteer,'' involuntarily extend the current individual, or find an 
active duty marine to fill the billet.
    General Jumper. The need to call up our Reserve component (RC) 
forces is driven by requirements to support our Combatant Commanders, 
as well as requirements driven by increased operations at our stateside 
bases (especially force protection). We do not take this responsibility 
lightly, and have worked diligently to ensure that we call up only what 
is absolutely required. In the early stages of the war on terror, we 
did indeed approve all mobilization authorizations for a 1-year 
duration with the opportunity to extend to the full 2 years allowed by 
Title 10. Subsequently, we have begun to limit the duration of the 
mobilization authorizations in those cases where we can forecast a 
limited need (90-day rotation is one example). This is giving the 
individuals and their employers a clearer idea of what our forecasts 
were showing. Due to the rapidly changing dynamics of the war on 
terror, we may eventually be in the position of having to once again 
request assistance from these forces in the future.

    87. Senator McCain. General Shinseki, Admiral Clark, General Jones, 
and General Jumper, is it possible that you may need to increase end 
strength at some point to replace the National Guard and Reserve 
service members who eventually will have to come home? If so, what 
options would you consider to increase our end strength?
    General Shinseki. Yes, post September 11 events have increased 
demands on the force, and the Army will likely require an end strength 
increase to fully meet these demands.
    In 1999, the Army started using the Reserve components in the 
rotational mix in Bosnia and the Sinai to reduce Active component 
operational tempo. These soldiers have performed magnificently in these 
enduring missions. Additionally, Reserve component soldiers are 
supporting emerging, immediate missions--both for the global war on 
terrorism and for homeland security. These missions, such as airport 
security, will eventually be turned over to civilian authorities. 
Mobilizing Reserve component soldiers to meet these immediate 
requirements is not a long-term solution.
    To address the immediate need, the Fiscal Year 2002 Defense 
Authorization Act permits the Department of Defense to allow the 
services to exceed their end strength by 2 percent in any fiscal year 
in which there is a war or national emergency. Taking full allowance of 
this provision would allow the Army to increase its Active component 
end strength to 489,600.
    The Army can realistically increase recruiting by an additional 
4,000 soldiers per year in fiscal year 2003 and fiscal year 2004 to 
address the most immediate needs of the war on terrorism and homeland 
security, provide relief for Reserve component soldiers, and allow more 
time to analyze enduring requirements.
    Admiral Clark. The Navy identified a long-term requirement of 4,383 
for anti-terrorism/force protection. These requirements are being 
filled with Reservists mobilized immediately after September 11. The 
Navy goal is to replace the Reserve personnel with Active Duty, 
civilian, and contract personnel. Other Reservists were mobilized to 
support operational requirements at forward locations or State-side 
units. These short-term requirements are more suited to be filled from 
the Reserve Forces. The non-ATFP Reservists will either be demobilized 
when the requirement for their service subsides, as is already 
happening for some Reservists, or they will be replaced with more 
Reservists.
    General Jones. The fiscal year 2003 President's budget submission 
supports an Active Duty end strength of 175,000 and is fully funded. 
This is an increase of 2,400 over our fiscal year 2002 end strength. 
The additional 2,400 is the additional force structure required to 
activate the 4th MEB (AT). The 4th MEB (AT) provides designated 
supported commanders with rapidly deployable, specially trained, and 
sustainable forces that are capable of detecting, deterring, and 
defending designated facilities against terrorism, and conducting 
initial incident response in the event of chemical, biological, 
radiological, nuclear, or high yield explosive (CBRNE) terrorist 
attacks worldwide. This contingency response force gives our Nation a 
dedicated anti-terrorism force without degrading personnel readiness in 
our existing Marine Corps units.
    General Jumper. See answer to question 84.

                 HOMELAND DEFENSE AND FORCE PROTECTION

    88. Senator McCain. General Shinseki, Admiral Clark, General Jones, 
and General Jumper, would you support a less expensive personnel 
program that would provide a cadre of people who could do many of the 
homeland defense and force protection duties that National Guardsmen 
and Reserve service members are performing at home in the United States 
and would ease both the active duty and Reserve open-ended commitments 
that the Department of Defense has put in place following September 11?
    General Shinseki. While the Army is concerned about personnel tempo 
and the strains that heightened security requirements place on the 
force, it is important that any potential policy involving homeland 
defense and force protection get a thorough inter-agency review. This 
is especially germane in light of the recently established Homeland 
Security Office, the decision to stand up Northern Command, and the 
very high priority the President and Secretary of Defense have placed 
on defending the homeland.
    Admiral Clark. Approximately 50 percent of Navy's mobilized 
reserves are serving in Force Protection duties. Navy is working to 
determine the proper way to transition from Reserve mobilization to the 
right levels of active and Reserve Forces, while evaluating the 
appropriate mix of military, civilian, and contractors to provide force 
protection. The use of less expensive personnel may have a place in an 
optimized force mix, but could result in greater recruiting, training 
and permanent change of station expenses. This approach would have to 
be weighed against meeting the force protection requirements with 
career force military or civilian personnel.
    General Jones. The Marine Corps would support such a program 
provided the program did not impact on the recruiting, training, and/or 
readiness of either our regular or Reserve components. In addition, the 
personnel involved in this program should not count against Active and 
Reserve component end strength and should not compete with Active and 
Reserve components for current MPMC/RPMC funding.
    General Jumper. We are always interested in the most effective ways 
to access quality young men and women into the Air Force. However, 
reducing expenses does not always translate into producing individuals 
who meet enlistment standards (education, test scores, physical, moral, 
etc.) and can complete the required training for the specialty in which 
they are needed. A cadre of people, if not properly trained and 
qualified, provides little benefit--regardless of the cost.

                            NATIONAL SERVICE

    89. Senator McCain. General Shinseki, Admiral Clark, General Jones, 
and General Jumper, if this less expensive personnel program would also 
offer the added benefit of allowing young men and women to fulfill 
their ideal of national service, would that be something that you would 
support?
    General Shinseki. Yes, a less expensive personnel program that 
offers the added benefit of allowing young men and women to fulfill 
their ideal of national service would be something that we would 
support.
    Admiral Clark. Navy fully supports a military component to National 
Service. There is considerable merit in tapping into the enthusiasm and 
patriotism of youth who do not have the propensity to join the military 
for longer commitments. While Navy has successfully met its recruiting 
goals with an all-volunteer force for the last three years, a change to 
the dynamics of the recruiting marketplace could adversely impact 
Navy's ability to meet recruiting goals in a cost effective manner. 
This is of particular concern if benefits under a National Service 
Program for the less expensive, short-term personnel, are perceived in 
the recruiting market as better than those offered to long-term 
enlistees. Integrating a cadre of less expensive sailors for short 
enlistment periods presents challenges in execution, but Navy is 
prepared to work with Congress to support the President's call for 
service.
    General Jones. See answer to question 88.
    General Jumper. We fully support national service and believe that 
voluntary military service is an outstanding means for young men and 
women to serve their country. This fiscal year alone, the Air Force 
will enlist nearly 38,000 young people to serve in over 130 
specialties. Their 4- to 6-year enlistment allows them to garner state-
of-the-art training and experience while allowing the Air Force to 
recoup its training investment and remain mission ready. Many who do 
not choose to make the military a career go on to serve in the Air 
National Guard and Air Force Reserve because they have had the training 
and experience on Active Duty to make them productive in a Reserve 
capacity.

    90. Senator McCain. General Shinseki, Admiral Clark, General Jones, 
and General Jumper, Senator Bayh and I have submitted a ``Call to 
Service Act of 2001'' to the Senate. We envision this program not as an 
exact replica of existing, effective career military service programs, 
but as a complementary, vocational program to match Americans' 
propensity to serve their country with national community service 
opportunities, including military service opportunities, that are 
generally non-career-related and of short duration. The incentives 
proposed for such service cannot be compared on an apples-to-apples 
basis with those developed to attract and retain career military 
service men and women. To attract top-notch national service plan 
candidates to address immediate, short-term military service needs, our 
plan would not offer an incentive of TRICARE for Life and the full 
complement of Montgomery GI Bill benefits. Instead of accruing this 
tremendous long-term cost, we would propose offering a much more modest 
severance pay that would permit the National service plan participant 
to use that money for educational goals or other similar efforts 
immediately after concluding his or her service. Is this an effort that 
you and your staff would commit to working on with Senator Bayh and me 
this year? Please comment on your views regarding national service and 
more importantly the utility of a military component to national 
service.
    General Shinseki. Yes, the Army fully supports national service of 
any kind and feels your proposal warrants further study. The Army also 
believes that serving in the military is the purest form of national 
service, so any national service plan must have a military component. 
The Army would commit to working with you and Senator Bayh to further 
study your proposal for possible impacts on recruiting, retention, and 
attrition and on any bills that may emerge from your proposal.
    Admiral Clark. Navy fully supports a military component to National 
Service but has some concern over elements of the initiative. In 
particular, short enlistments with near term benefits that equal or 
exceed those for long-term enlistments may negatively impact our 
ability to recruit career oriented sailors in a cost-effective manner. 
Navy has been working with the Under Secretary of Defense for Personnel 
and Readiness to develop a program that can meet the needs of the Navy, 
while also providing an opportunity for short-term enlistments for 
national service. The Navy is committed to working with the Congress to 
meet the President's call for service.
    General Jones. The Marine Corps stands ready to assist DOD in 
evaluating the impacts of the ``Call to Service Act of 2001.'' I 
believe that national service is an important part of our National 
culture and, each year, the Marine Corps gives approximately 39,000 of 
America's finest young men and women the opportunity for national 
service as marines. I share your concern for the need for providing 
forces for homeland security, yet remain cautious that we not create a 
program that will impact our ability to recruit, train, and maintain a 
high state of readiness in both our Active and Reserve components.
    General Jumper. The Air Force fully supports National Service for 
today's youth and supports in principle Senators McCain and Bayh and 
your efforts to expand opportunities to serve our country. However, it 
is our position that the best way to serve in the military is with a 
minimum 4-year enlistment. Shorter service obligations are not cost 
effective from a training and operational standpoint and could 
adversely affect our ability to attract individuals to our high tech 
needs that have longer training requirements. To ensure future 
readiness, the Air Force must secure and retain the technically 
qualified applicants required to maintain our force. The Air Force has 
very limited ``low-tech'' opportunities, with most such jobs having 
been outsourced through privatization. We are able to attract the 
required number of applicants for our lowest skilled jobs (those that 
might be appropriate for short-term enlistments) without paying 
bonuses.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith

                           COBRA HELICOPTERS

    91. Senator Smith. General Jones, it is understood that the AH-1W 
to the AH-1Z conversion program is one of Marine aviation's highest 
priorities. The AH-1Z is not due to be introduced into the fleet until 
around 2008, and much later for the Marine Reserve Cobra units. In 
order to maintain a high level of combat capability in the Reserve 
Cobras, the issue of upgrading the ``first generation'' forward-looking 
infrared radar (FLIR) in these Reserve helicopters needs to be 
addressed. As a means of increasing combat effectiveness and the 
usefulness of these Reserve Force helicopters in the counter terrorism 
and force protection roles, would the Marine Corps favorably support 
additional authorization and funding to upgrade the Night Targeting 
System FLIRs used in the Marine Reserve AH-1W Cobra helicopters with 
third generation FLIR systems pending the arrival of the AH-1Z model to 
the Reserve Force, and would this have economic cost savings benefits?
    General Jones. Yes, the Marine Corps would support the upgrade of 
the Night Targeting System. The upgrade from a ``first generation'' 
configuration to a ``third generation'' FLIR for the Night Targeting 
System would enhance the operational capabilities of the USMC Reserves 
and ensure their warfighting relevance through the year 2015 when they 
will begin receiving the AH-1Z. The primary benefits with the system 
upgrade would be in the increased operational capabilities the Night 
Targeting System provides the Marine Air-Ground Task Force.

                          INDIVIDUAL EQUIPMENT

    92. Senator Smith. General Jones, one issue I do have a concern 
with is the Marine Corps' continued ability to locate. designate, and 
hand off targets for attack aircraft and the growing importance of 
active night vision devices and laser pointers for the individual 
``trigger pullers'' who are on the line each and every day. I also 
understand you are actively working to better improve your ties with, 
and coordination with, Special Operations Forces. Can you please 
explain the Corps' plans to improve their ability to locate, designate, 
and hand off targets for attack aircraft?
    General Jones. The war against terrorism highlighted the 
complementary capabilities of crisis response forces, the Marine Corps, 
and forces assigned to the United States Special Operations Command 
(SOF). Restraints imposed by today's environment magnify their 
contribution because they are unencumbered by the requirements for 
extensive regional infrastructure. Moreover, as demonstrated during the 
recent campaign, the surgical precision of SOF coupled with the 
combined arms punch of forward deployed amphibious-based Marine Air-
Ground Task Forces prove not only their individual utility, but 
illustrate the synergy in overcoming specific challenges such as:

        <bullet> the remote and austere nature of the battlefields 
        where forces prosecute our Nation's campaign against terrorism;
        <bullet> host nation concerns regarding the presence of 
        American forces within their borders; and
        <bullet> the need to conduct strike operations while 
        maintaining increased operational security.

    The recent events highlighted the need to establish service-level 
links between SOCOM directorates and their counterparts within the 
Marine Corps to develop detailed areas of mutual interest spanning the 
entire continuum of service level concerns. We believe this will 
enhance the mutual support our two organizations can provide one 
another. Through a recently signed Memorandum of Understanding (MOU) 
between the USMC and SOCOM, the focus of effort will be to:

        <bullet> examine current capabilities and missions in order to 
        leverage the unique capabilities of each organization, thus 
        enhancing interoperability;
        <bullet> establish and continue the interface between CONUS-
        based and theater-based SOF and deploying Marine Air-Ground 
        Task Forces; and
        <bullet> synchronize USSOCOM and USMC warfighting developments, 
        as well as material research and procurement initiatives.

    We believe the USSOCOM-USMC Board is a forum for Special Operations 
Forces (SOF) and the Marine Corps to interface and coordinate with 
regard to common mission areas and similar procurement initiatives.
    How will we continue to improve target identification and 
designation using night vision devices and laser target designators? 
There is one program of record: Target Location, Designation, and Hand-
off System (TLDHS). TLDHS is a Modular Universal Laser Equipment (MULE) 
replacement with an IOC of 4th quarter, fiscal year 2004. TLDHS can 
both target locate and designate and has night thermal capability. The 
Marie Corps Systems Command (MCSC) is looking at an interim Laser 
target location fix through a commercial off-the-shelf (COTS) solution 
that could make a binocular type device available this summer. An 
interim designator COTS solution would take 11 months manufacturers 
lead time to produce.
    As a result of 15th MEU Aviation Command Element (ACE) Operation 
Enduring Freedom lessons learned and back briefs from the Marine Corps 
Combat Action Team, the Commanding General, Marine Corps Combat 
Development Command, signed a Statement of Need (SON) for the immediate 
procurement of 180 precision targeting systems. Presently, the Marine 
Corps employs the AN/GVS-5 Laser Observation Set to assist fire support 
observers in determining distance to a target. The AN/GVS-5 does not 
determine azimuth or inclination, which are critical in determining an 
accurate target location (target grid coordinate generation). It does 
not possess a data interface capability. Operating Force feedback and 
experimentation have identified the deficiencies of this legacy system. 
MCSC has a funded program called the Advanced Eye-Safe Laser 
Rangefinder (AEROS), which addresses the same requirement; however, 
programmatics dictate a system will not be fielded until fiscal year 
2005. Through market research, MCSC has identified a commercial off-
the-shelf (COTS) solution (Leica Vector/Viper II) to meet the SON (also 
being used presently by SOCOM in response to their Combat Mission Needs 
Statement). While this solution does not completely meet the 
requirements spelled out for AEROS, it is immediately available in mass 
quantities a does meet the requirements of the SON. MCSC evaluated this 
system the week of March 25, 2002. If funding could be identified and a 
production decision reached, the Leica Vector could be available to the 
operating forces as early as June 2002. The PTS-180 program will also 
serve as a test bed for the AEROS program, providing feedback on 
current capabilities and impacting future operational requirements. 
AEROS is not a redundant program to TLDHS. EROS is a separate program 
meant to compliment TLDHS' capabilities.

    93. Senator Smith. General Jones, can you provide an explanation on 
the Marine Corps' operational plans for utilizing night vision devises, 
both passive and active systems, to improve their ability to ``own the 
night?''
    General Jones. The Night Enhancements Capabilities for the Marine 
Air-Ground Task Force (MAGTF) (1995-2004) study conducted in 1993 
provided the basis for subsequent night vision requirements definition 
and acquisition strategy. Drawing from the results of the study, the 
Marine Corps Combat Development Command (MCCDC) developed the Aided 
Battlefield Vision Implementation Plan (ABVIP) which provides direction 
for the experimentation, requirements determination, materiel 
development, and fielding of equipment designed to enhance the 
warfighter's battlefield vision. Following the publication of the 
ABVIP, MCCDC reviewed the Marine Corps' night vision requirements and 
determined that there were sufficient night vision devices in the 
inventory, however, they were not in all cases distributed correctly. 
Subsequently, the Commanding General, MCCDC, in the Night Vision 
Equipment Redistribution Plan of August 25, 1997, directed the 
redistribution of night vision devices throughout the Marine Corps. In 
order to update the results of the 1993 study and to account for 
technological changes, emerging threats, and tactical requirements 
associated with Expeditionary Maneuver Warfare, MCCDC will conduct a 
MAGTF Optical Capabilities Study which is scheduled to begin third 
quarter, fiscal year 2002. This study will assist us in determining our 
overall non-aviation and non-vehicular optical requirements by 
providing an operational requirements analysis and a cost benefit 
comparison of various materiel alternatives. The analysis will include 
impact assessments related to life cycle costs, training requirements, 
and operational readiness. The results of the study will provide the 
foundation for future night vision equipment acquisition initiatives.

                     PERSONNEL--QUALIFIED LINGUISTS

    94. Senator Smith. General Jones, I have seen several press 
accounts indicating that we may not have had sufficient numbers of 
linguists trained in the languages spoken in Afghanistan, such as Dahri 
and Pashto, to communicate with the locals as quickly as we would have 
liked. As a force provider who works for and with the regional 
commanders in chief, and in preparing expeditionary units ready to 
respond around the world, do you have enough foreign language speakers 
in the appropriate language skills to provide the essential link 
between your forces and the native populations? Would you have like to 
have more, and do we need more language training programs? Last year we 
succeeded in enacting a provision that authorizes service secretaries 
to permit service members with critical skills to transfer up to half 
of their benefit to family members in return for a service commitment. 
This proposal gives the DOD and the services significant flexibility in 
how it is implemented. Would you outline what plans you have for using 
this new retention tool?
    General Jones. In 1996, Headquarters Marine Corps established the 
8611 Additional Military Occupational Specialty (AMOS) to identify 
marines with critical heritage foreign language skills to serve as 
interpreter/translators. In 1999, Headquarters Marine Corps initiated 
an aggressive effort to more accurately screen and identify all 
heritage foreign language speakers as they entered our ranks. The early 
identification of heritage speakers in ``less-commonly-taught'' 
languages such as Dari, Urdu, and Pashto and the assignment of these 
heritage language speakers as translators were essential in allowing 
the Marine Corps to meet emerging contingency foreign language 
requirements.
    Under the Marine Corps' Language Identification Program (LIP), 
marines are screened during the recruiting process. Those determined to 
have heritage foreign language skills then have their language 
proficiency validated for potential future assignment. The success of 
this effort over the last 2 years has been demonstrated by the 
identification of thousands of native speakers who can be temporarily 
assigned additional duty as translators/interpreters, thereby ensuring 
that foreign language skilled marines in intelligence billets can 
remain focused on their assigned primary mission.
    During 1998, in an effort to stabilize manning of the Intelligence 
Occupational Field, Headquarters Marine Corps temporarily doubled the 
number of basic language seats at the Defense Language Institute (DLI). 
As a result, the Marine Corps currently has approximately 320 Modern 
Standard Arabic (MSA) speakers in the Active Force. MSA is a common 
language linking the myriad extremist groups targeted in support of 
Operation Enduring Freedom (OEF). This robust inventory of Marine MSA 
speakers is a considerable asset that can be leveraged in response to 
emerging OEF foreign language requirements.
    The Marine Corps continues to search for more efficient ways to 
identify, screen, and train marines with foreign language skills to 
support operational and intelligence requirements. The Marine Corps' 
foreign language requirements are identified by the Marine Operating 
Forces in response to planning guidance via the assignment of 
appropriate Military Occupational Specialty (MOS) billets on unit 
Tables of Organization (T/O). Given the constraints of authorized 
Marine Corps end strength and the large set of languages required to 
meet projected military missions, the Marine Corps has traditionally 
focused its foreign language training program on those core languages 
spoken in areas where large-scale military action is either planned or 
anticipated. The small population of marines with heritage foreign 
language skills in the ``less-commonly-taught'' languages such as Dari, 
Urdu, and Pashto has been augmented through the Headquarters Marine 
Corps directed action of selectively cross-training existing linguists 
at the DLI, and through the conduct of un-programmed contract language 
courses in a subsequent language. Additionally, as requirements are 
validated, marines are selectively recruited and cross-trained in these 
``less-commonly-taught'' languages during lateral moves into a new MOS 
or during reenlistments.
    During 1999, Headquarters Marine Corps initiated a comprehensive 
review of the Marine Corps' foreign language requirements. As a result 
of this review, the Marine Operating Forces were directed to determine 
their existing and anticipated foreign language requirements in an 
effort to better identify and project both the number of speakers and 
the variety of languages they require. In March 2001, the Director of 
Intelligence (DIRINT) approved a plan to restructure the intelligence 
occupational field to meet the increase in requirements for speakers in 
``less-commonly-taught'' languages. Implementation of the plan in 
February 2002 resulted in the Headquarters Marine Corps directed 
modification of unit T/Os, leading to the addition of 122 intelligence 
linguist billets in a variety of ``less-commonly-taught'' languages. 
The Marine Corps is now executing a 5-year plan to recruit and train a 
sufficient number of marines to fill these newly identified billets.
    Following the September 11 terrorist attacks on the United States, 
the Secretary of Defense tasked the services to identify emerging 
language training requirements to support the OEF campaign. 
Headquarters Marine Corps compiled a list of projected language 
requirements and, in cooperation with the DLI, implemented a training 
plan in December 2001 to satisfy the identified training shortfalls. 
The aggressive assignment of heritage language speakers as translators, 
combined with the quick response of DLI in setting up language training 
courses to meet the Marine Corps' contingency training requirements, 
has allowed the Marine Corps to successfully meet its current 
operational language requirements.

           HANDHELD STANDOFF MINE DETECTION SYSTEM (HSTAMIDS)

    95. Senator Smith. General Shinseki, I understand that the Army, in 
response to critical needs in Afghanistan, will speed up the production 
of the new HSTAMIDS in order to field approximately 200 of these 
devices within the next 12 months. I applaud the service for its 
decision. Landmines present a serious threat to U.S. personnel and 
their allies. to say nothing of the civilian population. Equally clear, 
the low metallic content of most of today's landmines just screams for 
the deployment of this new mine detector, which is the best we have in 
picking up such mines. What concerns me is the overall production 
schedule of the HSTAMIDS. I note that after this emergency, there is no 
money for production in the fiscal year 2003 budget, and that 
everything seems to revert back to the pre-September 11 production 
schedule, calling for production to begin in fiscal year 2004 and of 
only a nominal quantity of less than 90. To abruptly stop the 
production is a significant cost to both the Army, with respect to unit 
costs, and to the manufacturer. Given the need and the economics of 
production, I would urge the Army to seriously examine speeding up the 
production schedule. The recent ``emergency buy'' clearly demonstrates 
there is a requirement for the new mine detector. I would like to know 
what plans the Army has for accelerating the production of the 
HSTAMIDS. I understand the recent buy is a one-time deal, and after 
that production reverts to the original slow-crawl schedule of less 
than 90 devices in fiscal year 2004. If that is so, it seems to me 
we're placing an unnecessary tax on the Army and the American people by 
this uneven production schedule. Can you tell me whether the Army plans 
to accelerate its production in fiscal year 2003 and beyond?
    General Shinseki. As you have indicated, the Army has aggressively 
accelerated fielding of the HSTAMIDS system to support our troops 
participating in Operation Enduring Freedom. This acceleration will 
result in the emergency release of approximately 200 systems over the 
next 12 months. These systems will be tested prior to use by our troops 
under the specific conditions expected in Afghanistan. Production of 
this limited quantity of systems does not qualify it for full-rate 
production and use under all possible operating conditions.
    Additional development is required to complete the remaining 
testing and pre-production engineering. This development will result in 
a superior detector for use by soldiers in the long term. Continued 
low-rate production for operational contingencies has not been ruled 
out at this time.

                       ENVIRONMENTAL ENCROACHMENT

    96. Senator Smith. General Shinseki, Fort Lewis, the home of the 
1st Special Forces Group, has had 72 percent of its ranges designated 
for critical habitat, severely limiting training. Fort Lewis also sits 
above an EPA-designated sole source aquifer. Regulatory restrictions 
have the potential to curtail training even more. How will you work 
within the Army and with other departments to make sure that the 
training of Special Operations Forces are not degraded from the loss of 
these ranges?
    General Shinseki. Special Forces training is comprised primarily of 
small arms weapons fire and dismounted maneuver. The 1st Special Forces 
Group has conducted this type of training in a manner that either 
avoids critical habitat or works within established restrictions. To 
date, they have been able to minimize the impact that endangered 
species restrictions have on their operations on Fort Lewis without 
unacceptably diminishing training effectiveness.
    The Army is currently monitoring groundwater and surface runoff at 
Fort Lewis to ensure that explosive constituents do not negatively 
impact the surrounding communities. Fort Lewis is working with the 
State of Washington, the Environmental Protection Agency, and the 
Nisqually tribe as they plan and analyze results of this monitoring 
effort.
    Fort Lewis recently held an installation sustainability conference 
with the local community and regulators to discuss a wide variety of 
training and environmental issues, including the effects of endangered 
species on military training. Outreach and partnership with the local 
community is critical to ensure continued community support for our 
major installations.
    The Army as a whole is working internally and with other agencies 
with environmental regulatory responsibilities to mitigate the effects 
and potential effects that encroachment has on our training and 
readiness. Our principal internal effort is the Sustainable Range 
Program (SRP). The objective of SRP is to maximize the capability, 
availability, and accessibility of ranges and training land to support 
training and testing requirements. SRP is based on three tenets: (1) 
Scientifically Defensible Information. Develop and maintain complete 
data on all aspects of ranges--operational characteristics of training 
facilities, physical characteristics of real property, and data on the 
range as part of the natural and cultural environment; (2) Integrated 
Management. Integrate across the four disciplines that directly affect 
ranges: range operations and modernization; facilities and installation 
management; explosives safety; and environmental management; and (3) 
Outreach. Inform political leadership, regulators, and communities and 
improve understanding of the Army's need for training and resting and 
the Army's more sophisticated range management approach.
    Although we believe our efforts will minimize the impacts of 
encroachment on our ranges and training lands, we also recognize the 
need to clarify the application of several environmental laws to 
military testing and training. The Army has been working with our 
sister services and the Office of the Secretary of Defense to develop 
initiatives that clarify our responsibilities under variety of 
environmental statutes. These initiatives focus on supporting our 
training activities and allow flexibility to consider impacts to 
military readiness in the implementation of environmental statutes.

    97. Senator Smith. General Jumper, the Air Force Special Operations 
Command (AFSOC) at Hurlbert Field faces challenges of an expanded 
mission while suffering from shrinking airspace due to proposed 
commercial air routes, noise restrictions, and over scheduling. What 
will you do to see that the only AFSOC range on the Atlantic Coast is 
protected from these urban encroachments?
    General Jumper. This is an important issue for the Air Force as 
well as for Americans across the country. Air Force requirements need 
to be met while addressing public, State, and Federal concerns. We 
require adequate airspace and land space to train our forces and test 
our weapon systems under realistic combat conditions. We are actively 
working with the Federal Aviation Agency (FAA) in their national 
airspace redesign effort to ensure we maintain our needed airspace both 
now and in the future. Noise issues are generally local and we strive 
to work with the local governments to encourage compatible development 
with our military mission. Therefore, the key solution to the Air 
Forces' encroachment issues is outreach, which includes building 
partnerships and coalitions with our local communities around our 
installations and ranges. Florida, specifically has initiated state 
level activities that are supported by military representatives. 
Finally, this issue is not limited to the Air Force, and proactive 
efforts alongside the other services and agencies will help fully meet 
this challenge.

    98. Senator Smith. Admiral Clark, the Navy SEALS have lost 
considerable live-fire and demolition training at Coronado and San 
Clemente Island in California due to critical habitat designations. 
What will you do to see that your SEALS do not lose any more valuable 
training?
    Admiral Clark. The OSD Readiness and Range Preservation Initiative 
coming forward to the Congress will aid in addressing these concerns 
while still meeting our environmental responsibilities. Also, the Navy 
is currently evaluating a sustainable range program in the fiscal year 
2004 budget process to improve our management of range resources.

                       AERIAL REFUELING SHORTAGE

    99. Senator Smith. General Jumper, the special operations community 
has made a heroic account of themselves in the war in Afghanistan. The 
innovation, daring, and bravery of these troops played a major role in 
our successes in the conflict. We must give these people on the tip of 
the spear our utmost support. Lt. Gen. Paul Hester, Commander of Air 
Force Special Operations Command, recently said that there has been an 
acute shortage of tanking capability for our Special Operation Forces. 
He said last week that only about 36 percent of tanking requests are 
being met. Since then, we have suffered the loss of one of our MC-130 
tankers. What is being done in the fiscal year 2003 budget to correct 
this deficiency and what are the long range plans to ensure our special 
operators have the tools they need to carry out their missions?
    General Jumper. SOF-unique requirements are funded by USSOCOM using 
MFP-11 dollars. The tanking requests referenced in this statement are 
for refueling both USA and USAF SOF helicopters. The shortage 
referenced is calculated using Active-Duty Forces only. When USMC and 
Reserve forces are used for augmentation, support increases to 67 
percent. In the USSOCOM fiscal year 2003 APOM, an AFSOC initiative to 
outfit 24 MC-130H Talon II aircraft as tankers was funded through MFP-
11. This initiative will increase AFSOC's special operations C-130 
refueling capable fleet from 37 aircraft to 61. The recent loss of one 
MC-130P during the war on terrorism in Afghanistan is factored in this 
total.

                           C-17 SAFETY ISSUES

    100. Senator Smith. General Jumper, it is my understanding that the 
Air Force is experiencing operational limitation issues with the C-17 
attributable to the existing On-Board Inert Gas Generation (OBIGGS) 
fuel tank inerting system. What failure rate per flight hour are you 
currently experiencing with the existing C-17 OBIGGS when it is used?
    General Jumper. For the last 12 months, the C-17 OBIGGS has had a 
Mean Time Between Failure (MTBF) rate of 185.3 flight hours.

    101. Senator Smith. General Jumper, can you please describe your 
plans for developing a new OBIGGS for the C-17 to replace the existing 
system?
    General Jumper. The AF has been developing a more robust, simpler 
in design, less costly, and more reliable On Board Inert Gas Generating 
System (OBIGGS II). The 2-year development program is a fiscal year 
2003 new start.

    102. Senator Smith. General Jumper, where is the development of a 
new OBIGGS or its replacement in your priority list?
    General Jumper. Air Mobility Command and Boeing have a planned 
replacement for the current OBIGGS system for the C-17. Replacement of 
the current C-17 OBIGGS is not tracked on an Air Force-Level priority 
list.

                       GLOBAL POSITIONING SYSTEMS

    103. Senator Smith. General Jumper, with the increasing reliance on 
Global 7 Positioning Systems (GPS), both in terms of our military and 
in the civil sector, it seems we should be very clear in our minds 
where we are headed with GPS issues such as frequency protection, 
military versus civilian control, signals, power, accuracy, and 
international involvement. I have not seen a clear plan for the future 
of GPS and how it will continue to support national security objectives 
while the commercial use of the system expands. Are we working on one? 
Are we making sure we focus on all elements of the system, both long 
and short term?
    General Jumper. GPS Modernization is based on numerous studies, 
Presidential Directive, and statute, which all recommend enhancements. 
A modernization plan was briefed to Congress in 2000 to initiate the 
upgrade of GPS in response to the jamming threat as well as the 
national policy to encourage civil use of the system without degrading 
military utility. Short term efforts are focused on modifications to 
Block IIR and Block I satellites as well as associated user equipment 
upgrades (to include antijam antennae). Longer term efforts are derived 
through GPS III, which provides maximum antijam benefits that are 
practical from space along with new user equipment to take advantage of 
the modernized signals and upgraded digital antenna electronics.
    Prudent constellation management provided the opportunity to 
modernize satellites currently in storage. The current plan is to 
modify 10 IIR satellites (referred to as IIR-M) by adding a second 
civil signal and new military signal (first launch in fiscal year 
2003). The IIF satellites will incorporate a third civil signal, L5 
(first launch in October 2005). GPS III will include higher power 
military signals (first launch in fiscal year 2009).
    GPS User Equipment consists of standardized receivers, antennae, 
and antennae electronics grouped together in sets to derive navigation 
and time information transmitted from GPS satellites. Due to the 
increasing military dependence and emerging Electronic Warfare (EW) 
threat, the Navigation Warfare (Navwar) program was established to 
address EW solutions for GPS. Key elements of Navwar include protecting 
U.S. military and allies' use of GPS, preventing hostile exploitation 
of GPS, and preserving civil use of GPS outside the area of operations 
(AOO).

                       PORTSMOUTH NAVAL SHIPYARD

    104. Senator Smith. Admiral Clark, I would like to first thank you 
and Secretary England for your attentiveness to my concerns for the 
engineered refueling overhaul of the U.S.S. Albuquerque last year. 
Representatives from the Navy have informed me that the U.S.S. 
Albuquerque will be completed under schedule and within cost. Even 
though we encountered a bump in the road concerning the reprogramming 
of funds for the U.S.S. Albuquerque, I believe the fact that the U.S.S. 
Albuquerque work will be completed at a fixed price, under schedule, 
and within cost speaks volumes for Portsmouth Naval Shipyard's 
capabilities and its worth to the Navy. I do have another concern 
regarding Portsmouth Naval Shipyard (PNSY). The U.S.S. Annapolis, which 
was scheduled for a Depot Maintenance Period (DMP) in fiscal year 2003, 
is now unfunded for fiscal year 2003 and is being scheduled for a DMP 
in fiscal year 2004. As I understand it, this will create a workload 
gap, losing 40,000 man-days at PNSY. I am concerned about the gap in 
workload at PNSY due to the slippage of overhaul work on the U.S.S. 
Annapolis. According to the Navy, this was done to assist the Navy in 
meeting ``wartime requirements,'' and it is desirable to fund the 
U.S.S. Annapolis in fiscal year 2003. However, the fiscal year 2003 
budget was submitted without U.S.S. Annapolis at PNSY in fiscal year 
2003 workload. When will the work be done on the U.S.S. Annapolis?
    Admiral Clark. The fiscal year 2003 workload phasing challenge at 
PNSY is primarily driven by the difficult decision to delay the U.S.S. 
Annapolis Depot Modernization Period (DMP). Delaying this DMP was 
considered the best option to fund Navy priorities within our financial 
resources.
    The Navy is continuously evaluating the scheduling of ship 
availabilities to achieve the highest state of readiness balanced 
against shipyard workload and efficiency considerations. In formulating 
the fiscal year 2003 budget, the Navy carefully considered workload at 
PNSY. The budgeted workload is consistent with fiscal year 2002 
budgeted levels.
    The Navy considers several factors when assigning submarine 
availabilities. They include:
    (a) Assignment of effort to an industrial facility near the ship's 
homeport;
    (b) Maintaining reactor servicing skill levels; and
    (c) Avoiding, to the extent practical, major shifts in workload 
levels across all the shipyards.
    The Navy is in the process of evaluating availability assignments 
through the FYDP. All four of the naval shipyard commanders are part of 
the planning process. Their inputs are extremely valuable as the Navy 
goes through the difficult effort of achieving the optimum balance 
between fleet readiness, fiscal realities, and shipyard workloading.

    105. Senator Smith. Admiral Clark, what are the plans to ensure the 
people at PNSY are not laid off or to ensure the workload is equally 
distributed due to the gap in coverage?
    Admiral Clark. We recognize that the expected phasing of the 
planned work at PNSY over the course of fiscal year 2003 is not 
optimum. There is value in level loading the workload, and we are 
reviewing options to achieve this at PNSY. I understand your concerns 
and assure you that we are actively working to provide an appropriate 
workload for PNSY within our budgetary constraints. There are no plans 
for layoffs at PNSY; we are committed to ensuring the continued 
efficiency and contribution to the Navy of the PNSY workforce.

    106. Senator Smith. Admiral Clark, additionally, I would like your 
insight into why the required funds to support the war were not paid 
for using the money specifically allocated for the war effort?
    Admiral Clark. All ship maintenance costs associated with the war 
on terrorism have either been accommodated with Defense Emergency 
Response Funds or are included in the supplemental request currently 
before Congress.
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum

                          ARMY TRANSFORMATION

    107. Senator Santorum. General Shinseki, the Army has terminated 18 
programs and/or systems as part of the fiscal year 2003 request. There 
have been 29 cancellations and 12 restructures since the unveiling of 
the ``transformation'' initiative. Among the terminations for fiscal 
year 2003 are TOW Fire-and-Forget, M113 recapitalization, Armored 
Combat Earthmover, Wolverine, Hydra Rocket, Improved Recovery Vehicle, 
and Bradley Fire Support Team. Is the Army or the Office of the 
Secretary of Defense (OSD) expecting Congress to ``buy back'' these 
terminations? Put another way, should Congress expect to see these 
programs/ systems on the Army's unfunded requirements list? While 18 
programs/systems have been terminated, have the requirements that 
supported these programs gone away?
    General Shinseki. To achieve the goals of Army Vision, we will 
transition to a force that is strategically responsive and dominant 
across the full spectrum of operations. To achieve this vision, the 
Army has planned to transform across three axes: the Objective Force, 
the Legacy Force, and the Interim Force. This is critical to force 
shaping and maintaining our current capabilities to fight and win 
today's wars while preparing for the battles of the future.
    To ensure that we maintain a capability that guarantees warfighting 
readiness that supports the National Military Strategy, we have had to 
make hard choices regarding the modernization of the Legacy Force. 
During the last year, the Army terminated 18 programs that are not 
planned for the Objective Force. Eleven of those programs will be 
terminated in fiscal year 2003, while the remaining seven will be 
terminated between fiscal year 2004 and fiscal year 2007. The funding 
associated with these 18 systems has been reprogrammed to support 
higher priorities. We will not buy back any of the terminated systems 
through the unfunded requirements process. Rather, we will fund 
research, development, and acquisition for next generation solutions 
for the requirements to support the Objective Force.

                        INTERIM ARMORED VEHICLE

    108. Senator Santorum. General Shinseki, press reports note the 
majority of the Army's new Interim Armored Vehicles (IAV) are too heavy 
to fly in C-130 transport aircraft, a key requirement of the new 
Interim Force. Army documentation notes that ``8 of the 10 IAV variants 
exceed the load limits for the C-130; much of the support equipment is 
overweight/oversize as well.'' The non-compliant IAVs are the fire 
support and medical evacuation vehicles. The Army's Interim Brigade 
Combat Team (IBCT) program office has confirmed that some of the 
vehicles currently exceed the 38,000-pound weight limit to fly on a C-
130, with the mobile gun system (MGS) exceeding the maximum by 3,000 
pounds. The MGS had weighed as much as 45,000 pounds until an 
``aggressive'' weight reduction program. The four requirements for the 
IAV are: C-130 transportability; carry a nine-man infantry or engineer 
squad and a crew of two; communications interoperability among the 10 
vehicles; and 105mm cannon be able to destroy bunkers. In order to be 
C-130 transportable, the weight of the IAV cannot exceed 38,000 pounds. 
The Army plans to field the first IBCT by May 2003. The first IBCT will 
contain three surrogate vehicles, MGS, fire support, and nuclear, 
biological, and chemical reconnaissance vehicle, because not all 
variants will be available by May 2003. Can you execute this program 
within the time limits you have set and the total cost estimate given 
by the Army?
    General Shinseki. Yes. The IAV program is executable within the 
established schedule and funding. We are confident that the Stryker 
will be able to meet the weight requirements. Vehicle weight is only 
one transportability consideration. Operational mission, range and 
payload, axle loading, and exterior dimensions also bear on vehicle 
design. Weather, altitude, and airfield surface conditions may also 
impact operations. The allowable weight to fly 1,000 miles under normal 
operating conditions is 38,000 pounds. All Stryker configurations are 
C-130 deployable today, though several require cross loading of some 
equipment. By prioritizing load lists for the eight production 
configurations and closely managing weight on the two developmental 
configurations, we will meet our C-130 transportability goal of 1,000 
nautical miles, ready for immediate combat operations.

                              F-22 RAPTOR

    109. Senator Santorum. General Jumper, on the basis of concern 
expressed by this and other congressional committees, Congress imposed 
a cost cap on both the developmental and production costs associated 
with the F-22 Raptor in the National Defense Authorization Act for 
Fiscal Year 1998. As part of its work on the National Defense 
Authorization Act for Fiscal Year 2001, this committee provided 1.5 
percent relief from the development cost cap for the F-22. Last year, 
this committee led the way to repeal the F-22's development cost cap 
during deliberations on the Fiscal Year 2002 National Defense 
Authorization Act. Congress has not adjusted the production cost cap. 
The current Air Force procurement goal is 339 F-22s, well short of the 
initial 750 F-22s the service intended to purchase. Estimates are that 
the Air Force will need to procure 381 F-22 Raptors to fill out 10 
squadrons for its aerospace expeditionary forces. Currently, the Air 
Force estimates that the F-22 program is $2 billion above the 
congressional cost cap for production, while the Office of the 
Secretary of Defense's Cost Analysis Improvement Group (CAIG) estimates 
the program to be $9 billion over the production cost cap. Congress has 
since learned of additional developmental test problems and a unit 
production cost increase. Reports are that the Air Force has begun 
lobbying members of Congress to either lift or modify the F-22 
production cost cap. Can you address whether or not the Air Force 
supports efforts to lift or modify the F-22 production cost cap? Have 
you had any discussions with members of this committee about lifting 
the production cost cap?
    General Jumper. OSD requested, ``Congress remove the current 
production cost cap for the F-22 program'' in a September 13, 2001, 
letter to the Defense Committees. OSD will be submitting a separate 
legislative initiative on this subject.
    The F-22's combination of stealth, supercruise, maneuverability, 
and integrated avionics coupled with improved supportability, 
represents an exponential leap in warfighting capabilities and allows 
for the full realization of operational concepts that are vital to the 
21st century Air Force. Using GPS guided bombs, the F-22's all-aspect 
stealth offers the capability to penetrate deep into enemy territory 
and destroy our greatest future threat--the next two generations of 
double-digit Surface to Air Missile (SAM) systems. Avionics 
improvements in the F-22 fire control system will enable it to engage 
mobile ground targets in any weather, 24-hours a day, deep within enemy 
territory. The future incorporation of the Small Diameter Bomb will 
double its precision capacity and result in a two-fold increase in 
effectiveness. With its internal weapons storage, the F-22's increased 
range and maneuverability will allow it to defend itself and protect 
the F-117 and the B-2, facilitating stealth operations to counter enemy 
attempts to deny access. The F-22 will enhance the joint fight by 
gaining and maintaining air superiority, thus providing ground, naval, 
and special operations forces with unimpeded access to their targets. 
Finally, the F-22 cannot be matched by any known or projected adversary 
aircraft. This transformational combat system will allow the Air Force 
to replace more than 700 air-to-air F-15Cs and air-to-ground F-15Es 
with F-22s. The Air Force will work within the production cap 
identified as part of the Defense Acquisition Board's Low Rate of 
Initial Production of between 303 and 339 aircraft. The F-22 will 
enable the world's premier air and space force to deliver air dominance 
in any threat environment for decades.

                          PRECISION MUNITIONS

    110. Senator Santorum. General Jumper, the success of U.S. military 
operations in Kosovo and Afghanistan is due in large part to our 
inventory of precision munitions, both Joint Direct Attack Munitions 
and Laser-Guided Bombs. Like many members of this committee, I support 
the competitive procurement of weapons systems and munitions. I want to 
commend Admiral Clark and members of the Navy's acquisition corps who 
have been strong advocates for the competitive procurement of Laser-
Guided Bombs. Do you, on behalf of the Air Force, support the 
competitive procurement of Laser-Guided Bombs?
    General Jumper. The Air Force absolutely supports the competitive 
procurement of Laser-Guided Bombs (LGBs) in fiscal year 2003 and 
beyond, contingent upon a second source becoming qualified and provided 
the operational requirement allows time for a competition. Even for 
those requirements that are urgent, the Air Force will employ a 
strategy that includes all qualified sources. In order to foster 
competition, the Air Force is in the process of qualifying Lockheed 
Martin as a second source for Paveway II LGBs.

    111. Senator Santorum. General Jones, it appears that the Marine 
Corps has a shortfall in fire support. The DD-21, which was slated to 
provide offshore fire support, was restructured last year. The Land-
attack Standard Missile, fitted with advanced navigation system and 
guided by GPS to provide the required range and accuracy needed to 
support Marine Corps power projection from the shore, has been canceled 
with this budget. The Lightweight 155 field artillery system has 
slipped, impacting modernization of the on-shore field artillery. How 
do you plan to address this apparent shortfall in Marine Corps fire 
support requirements?
    General Jones. The Marine Corps' ground fires programs are 
addressing the need to field fire support systems to support 
Expeditionary Maneuver Warfare. The Lightweight 155 program is still on 
track for a production decision early in fiscal year 2003, and although 
the projected IOC has slipped 6 months, it is still on schedule to meet 
our IOC objective in fiscal year 2005. Fiscal year 2005 we will also 
introduce an interim High-Mobility Artillery Rocket System (HIMARS) 
capability with the fielding of one functional battery, with IOC to 
follow in fiscal year 2007, and the fielding of two HIMARS battalions. 
We are also pursuing an Expeditionary Fire Support System (EFSS) 
solution in POM04 that will provide an enhanced fire support capability 
to vertically-lifted maneuver forces. Planned IOC for EFSS fiscal year 
2006-2007.
    A credible Naval Surface Fire Support (NSFS) program is a critical 
component of forcible entry from the sea, especially during the 
critical time before the landing force's organic fire support systems 
can be established ashore. Three specific programs will significantly 
enhance NSFS capabilities through the mid-term (to fiscal year 2009); 
the 5 inch/62 caliber naval gun, the Extended Range Guided Munition 
(ERGM), and Supporting Arms Coordination Center (SACC) Automation. 
Although these systems will provide an enhanced NSFS capability, all of 
our NSFS requirements will not be met until DD(X) joins the fleet in 
strength. In the interim, we will continue to rely heavily on carrier 
and amphibious-based rotary and fixed wing close air support. Tactical 
attack aircraft, however, do not provide an all-weather, 24-hour, 
immediately responsive fire support capability that ground and naval 
surface fire support systems provide.
    DD(X) is a vital component of expeditionary fire support and is 
essential if we are to realize the full potential of Expeditionary 
Maneuver Warfare in the far-term. The systems envisioned for DD(X), 
which include the 155mm Advanced Gun System and the Advanced Land 
Attack Missile, are essential elements of an expeditionary fire support 
system that will provide responsive, all-weather fire support ``from 
the sea'' in support of forces operating throughout the depth of the 
littoral battlespace.
    I am concerned, however, that DD(X) will be fielded with less 
warfighting capability and in fewer numbers than previously planned for 
DD-21. The magazine capacity of DD(X) must be sufficient to provide 
sustained fire in support of Marine, joint, or coalition forces ashore, 
and there must be a sufficient number of ships available to sustain 
these fires for extended periods of time. Additionally, there must be 
enough Vertical Launch System (VLS)/Advanced Vertical Launch System 
(AVLS) cells dedicated to the Advanced Land Attack Missile (ALAM), 
which will provide the Landing Force Commander with responsive, medium-
range interdiction and battlespace shaping fires throughout the 
duration of operations.

                       AMMUNITION INDUSTRIAL BASE

    112. Senator Santorum. General Shinseki, Admiral Clark, General 
Jones, and General Jumper, according to recent testimony, the Air Force 
has a $2 billion shortfall in its munitions accounts. For reference, 
the Department of Defense spent about $6 billion on munitions in fiscal 
year 2001, compared to $16 billion in fiscal year 1991. Recently, 
Colonel James Naughton, Deputy Chief of Staff for Ammunition, Army 
Materiel Command, said that there is not enough money to remanufacture 
obsolete ammunition stockpiles. While the budget increases funding for 
the procurement of ``smart munitions,'' the portion of the industrial 
base that manufactures bullets, projectiles, propellants, fuses and 
pyrotechnics is not thriving. In addition, many of the subcomponents in 
the ammunition sector are military-unique items, with limited or no 
commercial market. An industry association, the Munitions Industrial 
Base Task Force, believes that our munitions accounts are underfunded 
by $400 million. What actions can be done to shore up the entire 
ammunition industrial base, not just the precision or preferred 
munitions base?
    General Shinseki. The best way to support the munitions industrial 
base is to buy ammunition. The end of the Cold War gave us a surplus of 
ammunition, but now that stockpile is either depleted or aged. 
Currently, the Army has a $544.4 million unfunded requirement for 
ammunition, which includes stockpile management. Much of this 
ammunition UFR is for common use ammunition items such as small arms, 
pyrotechnics, artillery, mortars, and grenades. Funding procurement of 
these items would go a long way towards shoring up many of these 
critical, niche producers.
    Admiral Clark. The Department of the Navy (DON) supports the 
strategies developed by the United States Army, which acts as the 
Single Manager for Conventional Ammunition (SMCA). The Secretary of the 
Army was designated the single manager because the Army controls the 
majority of the industrial base. One of the more important functions of 
the SMCA is management of the Defense ammunition industrial base. To 
that end, Assistant Secretary of the Navy for Research, Development, 
and Acquisition has recently coordinated a memorandum that reminds and 
emphasizes the intent and importance of Section 806 of the National 
Defense Authorization Act for Fiscal Year 1999. The Act tasks the SMCA 
to examine the industrial base and make procurement decisions, which 
help to underpin the vitality of the ammunition industrial base. The 
DON is encouraged by the SMCA's implementation of multiyear 
procurements and long-term requirements contracts.
    The DON will continue to investigate management architectures and 
SYSCOM relationships that satisfy warfighter needs, stabilize 
requirements and inventories, and yet still allow the industrial base 
flexibility enough to respond to inevitable wartime surge demands. The 
Navy has also commissioned studies by Department of Commerce to examine 
the health of those portions of the industrial base where there is 
concern about the strength of the enterprise (e.g., high performance 
explosives).
    The ammunition industrial base has suffered in the past, and the 
DON is working closely with our partners on the Munitions Industrial 
Base Task Force to help ensure that this important element of our 
industrial capacity is preserved. 
    General Jones. The majority of the responsibility for maintaining 
the munitions industrial base rests with the U.S. Army. The Secretary 
of the Army was designated the Single Manager for Conventional 
Ammunition (SMCA) as the Army controls the majority of munitions 
procurements which drives the industrial base. The United States Marine 
Corps supports the strategies developed by the U.S. Army in their role 
as the SMCA. The Marine Corps shares the concern over the stability of 
the industrial base and feels one of the most important roles the SMCA 
has is the management of the munitions industrial base. The Marine 
Corps understands the importance of Section 806 of the National Defense 
Authorization Act for Fiscal Year 1999 and to the extent possible 
``buys American.'' The act tasks the SMCA to examine the industrial 
base and make procurement decisions, which help to underpin the 
vitality of the ammunition industrial base. The Marine Corps continues 
to be supportive of the SMCA's implementation of multiyear procurements 
and long-term requirements contracts as tools to encourage stability in 
the industrial base.
    The Marine Corps is working closely with the Munitions Industrial 
Based Task Force and the Army to develop a sound munitions industrial 
base that meets the needs of the services both in times of peace and 
war.
    General Jumper. The Air Force shares your concern about the health 
of the ammunition industrial base. Since the end of the Cold War, the 
Air Force has shifted its emphasis more towards precision-guided 
munitions, reducing the need for non-precision munitions. However, 
there are niches in the ammunition industrial base that warrant 
continual attention. In addition to funds already provided for the 
munitions and ammunition industrial base since September 11, a number 
of acquisition excellence strategies, such as multiyear procurement, 
contractor incentives, and lean enterprise practices, could be 
incorporated to support and strengthen the entire ammunition industrial 
base.
    Successful application of these strategies could enhance corporate 
financial health and stockholder value by increasing a contractor's 
ability to capture corporate profits and realize sufficient returns on 
investment. This, in turn, could lead to expanded growth for both 
contractors and their supply chain plus a greater potential for 
attracting investors, recruiting fresh talent, and retaining valuable 
expertise. In addition, the Government could realize improved schedule 
performance, reduced cycle times, and reduced acquisition costs 
throughout the industrial enterprise as a result of these strategies.
    Since the Army is the Department of Defense's Single Manager for 
Ammunition, responsible for consolidating Army, Navy, and Air Force 
ammunition procurements, we believe they would be in the best position 
to implement these strategies. Similar strategies were successfully 
incorporated in the Air Force's recent procurement of precision-guided 
munitions (e.g., Joint Direct Attack Munitions), and the Air Force 
would support the Army's efforts to implement these strategies.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

                        SPACE-BASED CAPABILITIES

    113. Senator Allard. General Shinseki, Admiral Clark, General 
Jones, and General Jumper, each of your services have described space-
based capabilities as an enabler for transformation. Can each of you 
expand on what you see as the role of space assets in you respective 
Services' transformation? Can you also discuss your view of the role of 
commercial space-based assets, such as commercial space-based imagery, 
in transformation?
    General Shinseki. Army transformational air and space requirements 
are articulated in the operational concept for the Objective Force, 
which General John Abrams and his staff at the Army Training and 
Doctrine Command (TRADOC) are defining. The Objective Force will 
conduct operations to, from, in, and through the space medium in 
support of national interests both on Earth and in space. Not only will 
commanders of Objective Force units be able to better maneuver in the 
vertical dimension, but they will also leverage other combat 
capabilities based hundreds of miles above the Earth.
    In an environment where space-based and aerial assets enhance the 
mobility, communications, intelligence products, and lethality of 
ground forces, the Objective Force must strive to create a seamless, 
vertical continuum through which the commander can exploit space-based 
and aerial assets to see first, understand first, act first, and 
achieve decisive overmatch. Space operations and systems provide the 
essential underpinnings for robust and effective command, control, 
computer, communications, intelligence, surveillance, and 
reconnaissance (C\4\ISR). Consequently, the Objective Force will be 
equipped and trained to exploit space-based capabilities. A responsive, 
integrated, and interoperable C\4\ISR system that collects, processes, 
and disseminates information in a timely manner is critical to the 
development of situational awareness on the future battlefield. The 
Army is following a strategy that supports digitization by implementing 
a sound, integrated, information technology architecture, and 
horizontal technology integration that incorporates a ``space to mud'' 
C\4\ISR approach.
    While the Objective Force will be postured to exploit space-based 
capabilities, it will also be developing and executing protective 
measures for space systems as well as avoiding absolute dependency on 
them. U.S. dominance in space is not guaranteed. Adversaries may probe 
our space systems and segments for vulnerabilities, or they might alter 
the space environment to disrupt or deny our space operations. Space 
control, a mission shared by all the services, ensures freedom of 
action for Objective Force units and, when directed, denies an 
adversary freedom of action in using space-based systems and products.
    Commercial space resources are an important augmentation of 
Department of Defense-owned systems, providing efficiencies in meeting 
information requirements. The Army position on commercial space 
resources is that they augment, but do not replace, Department of 
Defense-owned systems. With commercial systems, the Department of 
Defense has no real control over the resources. It is the Army's 
position that it be the owner, operator, and decision-maker for 
mission-critical applications.
    Admiral Clark. The transformation of our Naval Forces focuses on 
achieving the capabilities which are necessary for a networked, sea-
based power projection force. Space will provide the connectivity to, 
and thus the early in-theater backbone for, a powerful grid of 
national, joint, and sea-based sensors. These space-based intelligence/
surveillance/reconnaissance sensors, navigation, and meteorology/
oceanography capabilities will only increase in importance. The 
immediately employable naval elements of the joint force are able to 
strike with ever increasing speed and precision using both networking 
to increase speed of decisions, and high-speed weapons to increase 
speed of attack. Navy takes advantage of cost effective commercial 
satellite communications today with programs like our Challenge Athena 
Commercial Satellite Communications effort, and will continue-in the 
future to seek out and use the best available commercial space-based 
assets.
    DOD relies heavily on imagery from space for a variety of missions. 
Several missions, such as precision targeting, still can only be 
satisfied by sophisticated U.S. reconnaissance assets. Other missions 
which have historically been supported primarily by U.S. national 
imagery could be assisted by commercial imagery in certain scenarios, 
assuming military issues such as tasking, image quality and speed of 
delivery could be guaranteed and established.
    General Jones. Space-based systems provide the ultimate ``high-
ground'' that can support the demanding requirements of Expeditionary 
Maneuver Warfare (EMW). The capabilities we acquire from space systems 
will play a significant role in future Marine Corps operations as we 
expand operational maneuver from the sea (OMFTS) to over-the-horizon 
(OTH) amphibious assault and power projection deep into the littoral 
area. The intelligence, surveillance, and reconnaissance (ISR) efforts 
in these denied areas prior to and during the execution of a military 
operation are significantly dependent on space-based assets, including 
those commercial assets that can be effectively and efficiently 
leveraged in support of military operations. The scope of this 
requirement will only increase in the future.
    This is particularly true in the case of the Marine Corps, where 
forward deployed units are routinely the first called upon to react to 
crises. Rapid and on-call expeditionary operations are unique among 
military operations in that significant challenges are posed by a lack 
of timely terrestrial ISR asset access in the operation area from the 
planning phase through the transition to shore. This challenge is 
enhanced by the requirement to provide predictive analysis to 
compensate for relatively longer periods of uncertainty and, in many 
cases, total chaos. The initial stages of over-the-horizon amphibious 
operations will always rely heavily on space-based collection assets. 
This reliance is endemic in all aspects of amphibious force 
intelligence operations that are conducted across the strategic, 
operational, and tactical spectrum.
    The space segment of any communications network is a major piece to 
the overall communications capability desired. Often times, space-based 
communications provide the best means to support the Marine Corps' 
communications requirements because it is more suited for units on the 
move and widely dispersed.
    Commercial satellite communications (SATCOM) can certainly be used 
to augment our capabilities, and the fielding of the Lightweight 
Multiband Satellite Terminal (LMST) gives our operating forces the 
ability to take advantage of commercially available bandwidth.
    The Global Positioning System (GPS) continues to be an enabler for 
almost every type of operation we conduct and with its integration into 
more weapons systems, our ability to conduct precision strike missions 
is being enhanced. GPS also plays a significant role in being able to 
conduct Blue Force Tracking (BFT) in beyond line-of-sight situations. 
This nascent capability contributes to a more comprehensive Common 
Operational Picture (COP), reduces the risk of fratricide, and has the 
potential to significantly enhance the commander's conduct of 
operations.
    General Jumper. The Quadrennial Defense Review (QDR) operational 
goal number 5 is the foundation of our space transformation efforts: 
``Enhance the capability and survivability of space systems and 
supporting infrastructure.'' To meet this goal, the Air Force is 
pursuing next generation satellite and launch systems to provide the 
warfighter with the tools they need to effectively execute joint 
operations. Early warning will be transformed as the old Defense 
Support Program (DSP) is replaced by the new Space Based Infrared Radar 
System, High Component (SBIRS-High) Legacy launch vehicles, based on 
1950s-era ICBMs, will be replaced with the new, efficient, and cost-
effective Evolved Expendable Launch Vehicle (EELV). Persistent 
intelligence, surveillance, and reconnaissance (ISR) will be enhanced 
with the new Space Based Radar system, providing denied area access to 
joint warfighters. A study on satellite communications is underway, 
with an expected July 2002 completion, to transform MILSATCOM 
warfighter capabilities.
    As you are aware, the new Under Secretary of the Air Force, Mr. 
Peter Teets, has been assigned milestone decision authority for all 
major DOD space acquisition programs. Army, Navy, and Marine Corps 
space transformation efforts are of significant interest to the AF in 
being good stewards for space. I will defer to my associates on the 
specifics of how space will enable their transformations. However, let 
me say that the Air Force, as the primary provider of the space 
capabilities, recognizes the inherently joint nature of space and the 
importance it will play in enabling robust communications on the move; 
real-time tracking, targeting, and sensor to shooter capabilities; and 
protected precision navigation capabilities. The Air Force will work 
hard with the National Reconnaissance Office (NRO) to transform air and 
space ISR capabilities into persistent, global, on-demand joint assets 
for tomorrow. Seamless integration of space with joint land and air 
forces is imperative.
    Finally, the role of commercial space-based assets is significant, 
providing key support to the warfighter in the areas of communication 
and imagery.

    114. Senator Santorum. General Jumper, Mr. Aldridge recently signed 
a directive delegating milestone decision authority for all military 
space systems to the Air Force. The Air Force is now charged with being 
a steward for all the services' space program needs. This is a 
significant new responsibility for the Air Force. During Secretary 
Roche's testimony to this committee last month, Secretary Roche 
indicated that some of the problems encountered with the Space-Based 
Infrared Radar System, High Component (SBIRS-High) acquisition program 
was ``in the fundamentals.'' What specific steps are you taking to 
ensure the ``fundamental'' problems encountered with SBIRS-High will 
not be repeated by other satellite systems that the Air Force is 
acquiring?
    General Jumper. I would agree that the acquisition issues I have 
been made aware of concerning SBIRS-High would fall into the category 
of ``acquisition fundamentals.'' The task for helping us solve our 
National Security Space system acquisition problems has been given to 
the new Under Secretary of the Air Force and Director of the National 
Reconnaissance Office, Mr. Peter B. Teets. Given Mr. Teets' space 
industry experience, I can think of no one better prepared to help us 
get our major National Security Space programs back on track. Mr. Teets 
has already begun this effort by making it a priority to reestablish 
program stability and management discipline within the Air Force space 
programs. In the past, increased management discipline was accomplished 
through the addition of oversight layers within the Air Force and OSD. 
Unfortunately, it appears the current levels and/or types of oversight 
were not enough to prevent the current SBIRS-High problems. Instead of 
adding additional oversight layers, Mr. Teets is taking a different 
approach by developing a space-focused process that will reduce the 
number of oversight staff layers while increasing the senior level 
space system decision maker insight. The resulting streamlined process 
will decrease the opportunity for unintentionally causing program 
instability, facilitate timely senior level decisions, and provide 
space-oriented expertise and direction when needed.

    115. Senator Allard. General Jumper, the National Security Space 
Commission last year reported on the vulnerability of our space-based 
systems, including their associated ground systems, to enemy attack. As 
the role of space expands in the military, it became increasingly 
important that we ensure the protection of these systems. What steps is 
the Air Force taking to protect our space-based assets?
    General Jumper. Protection of our space systems is a critical 
priority for us. Our adversaries could attack our systems by various 
means, to include physical attacks against our ground control nodes, 
interference with the space-to-ground communication links, and in the 
future, kinetic, or directed energy attacks against our satellites from 
either terrestrial or space platforms. No single approach will ensure 
protection against all potential threats. We'll need to ensure that 
protection requirements are enforced and that appropriate protection 
capabilities are included as our space systems go through their 
acquisition milestones.
    As prerequisites to our implementation of protection measures, 
we'll need to know where we might have vulnerabilities, and be able to 
detect and characterize attacks against any element of our space 
systems. Toward this end, the Air Force will use the 527 Space 
Aggressor Squadron in joint and service exercises to help identify 
potential vulnerabilities and guide protection investments and non-
materiel countermeasures. We're also developing the Rapid Attack 
Identification and Reporting System (RAIDRS) to detect, characterize, 
and report attacks on our space systems.

                    COMMERCIAL ASSETS VULNERABILITY

    116. Senator Allard. General Jumper, are you working with industry 
to also assess the vulnerability of commercial assets used by the 
military, such as satellite communication systems?
    General Jumper. Last summer, the Air Force Scientific Board 
completed a study to assess availability and survivability issues 
associated with military use of commercial satellite communications. 
This study concluded that the use of commercial space assets was 
fundamentally a risk management problem. There are no ``silver bullet'' 
solutions to the problem but there are strategies and investments that 
will reduce risk associated with using commercial assets. The study 
made five recommendations: (1) create a dependable surge capacity; (2) 
focus investment on mission robustness and flexibility rather than 
defense of specific systems; (3) develop an operational discipline that 
includes commercial space; (4) focus investment on cost effective 
technologies that improve availability and survivability of space 
systems; and (5) establish an architectural approach to space 
communications. To the extent these recommendations can be implemented, 
they will go a long way to reducing risks associated with the use of 
commercial systems and lead to a strong long-term relationship with 
commercial system owners/operators.

    117. Senator Allard. General Jumper, looking out into the future, 
could you please discuss your vision for accomplishing space control?
    General Jumper. To ensure that our national security space systems 
continue to provide the strategic advantage, we'll pursue a range of 
improvements to our space control capabilities. Key focus areas 
include:
    (1) Space situational awareness: We must improve our capabilities 
to track and characterize objects in space, to understand which objects 
are threats and what they are doing, to detect and characterize 
terrestrial threats to our systems, and to differentiate attacks from 
natural effects of the space environment. Space situational awareness 
is the critical enabler for timely defensive and offensive responses 
against space threats.
    To transform our space situational awareness capabilities, we'll 
pursue a spiral development program for Space-Based Space Surveillance 
(SBSS), while we sustain and upgrade key ground-based sensors. Evolving 
the existing ground-based network into space will enable much more 
timely access to objects of interest. Our transformation initiatives 
will also emphasize development of a space ``common operating picture'' 
which integrates traditional space surveillance with additional ISR 
sources through enhanced command and control.
    (2) Defensive counterspace: Our counterspace strategy first 
emphasizes defense of vital U.S. space capabilities. We'll ensure that 
protection requirements are enforced and that appropriate protection 
capabilities are included as our space systems go through their 
acquisition milestones. We'll continue to support and equip the 527th 
Space Aggressor Squadron, which provides a credible ``red force'' space 
control threat to help our forces identify potential vulnerabilities to 
hostile actions and to develop effective protection and 
countermeasures. We're developing the Rapid Attack Identification and 
Reporting System (RAIDRS) to detect, characterize, and report attacks 
on our space systems.
    (3) Offensive counterspace: We also need to be able to deny 
adversaries their use of space systems and services for purposes 
hostile to U.S. national security interests. We're developing mobile/
transportable capabilities to deny space-based communications and 
surveillance/reconnaissance information.
    (4) Space control infrastructure: We'll develop a space range to 
provide the opportunity to test, train, and exercise for space control 
in an operationally realistic environment.

    118. Senator Allard. General Jumper, the Air Force's fiscal year 
2003 budget includes a significant funding increase for R&D programs. 
What are your priorities for space-related R&D programs?
    General Jumper. My top priority is ensuring warfighters have the 
space-borne capabilities necessary to fight and win our wars. We need 
an upgraded missile surveillance and warning capability to replace our 
aging Defense Support Program constellation. If the SBIRS-High program 
cannot meet those requirements, we will deliver a system that can.
    The warfighter needs more MILSATCOM capability, too. Although we've 
made great strides in the last 10 years, we aren't finished. Right now, 
we're looking at cutting-edge areas such as laser communications, 
optical links, and the development of a network-centric architecture to 
deliver what the warfighter needs.
    Access to space and space control are critical to warfighting. We 
are delivering new launch capability in the Evolved Expendable Launch 
Vehicle and turning our attention to systems, tactics, and policies 
that can guarantee the security and performance of our space based 
assets.
    Space-based radar will be added to the multi-theater targeting and 
tracking architecture to provide world-wide, near continuous 
situational awareness of moving surface targets. It will add needed 
depth and persistence to the current airborne system and provide a 
unique capability to observe areas currently denied due to surface 
threats and terrain masking. SBR will be critical to decreasing the 
find fix target track cycle time.
    Finally, we're modernizing GPS with a more robust signal providing 
the warfighter with more accurate location and targeting information. 
These new systems will also give theater commanders more options to 
protect the signal from disruption by hostile forces, enabling our 
units to successfully continue the fight even when faced with a jamming 
threat.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

       COST TO OPERATE OLDER SHIPS VERSUS CONSTRUCTING NEW SHIPS

    119. Senator Sessions. Admiral Clark, Spruance-class destroyers 
that are now 25 years old have performed strike missions and maritime 
interception operations superbly during Operations Desert Shield, 
Desert Storm, Desert Fox, Allied Force, and Enduring Freedom. Yet the 
Navy is decommissioning them prior to their 35-year service life is 
completed. I visited the U.S.S. O'Brien in Japan in January 2002 
shortly after she returned from combat operations in Operation Enduring 
Freedom. I also received briefings on the role U.S.S. Kitty Hawk played 
in the war. The Navy plans on decommissioning U.S.S. Kitty Hawk in 
2007. The retirement of the Spruance-class will generate requirements 
for additional new ships and brings the Navy below the Quadrennial 
Defense Review (QDR)-directed number of surface combatants. On Tuesday, 
Admiral Blair said that if the pace of operations and the requirement 
to maintain two carrier battle groups and two amphibious readiness 
groups in the Central Command's area of responsibility continues that 
his theater may not have the forces necessary to deter conflict on the 
Korean peninsula or other flashpoints. In fact, the U.S.S. Kitty Hawk 
battle group is scheduled to deploy again in support of Operation 
Enduring Freedom later this spring with her full air wing. How much 
would it take to keep these ships in service to keep the Navy at the 
QDR levels and maintain sufficient forces to meet presence requirements 
of the warfighting Commanders in Chief? I ask this question because it 
seems to me that the remaining ships and crews will have to make up for 
the missing surface combatants because the presence requirements for 
ships has not decreased.
    Admiral Clark. The Spruance decommissioning decision is driven by 
affordability (manpower and maintenance costs) and capability (older 
technology) concerns. This decision results in a force level that 
temporarily drops below the QDR level of 116 surface combatants until 
newer, more capable DDG's are commissioned.
    The cost to crew, maintain, and operate a Spruance buyback plan 
that maintains a surface combatant force level of 116 is about $1.2 
billion as articulated in the table.

----------------------------------------------------------------------------------------------------------------
                                                                            Fiscal Year
                       Total Savings                       ---------------------------------------------  Total
                                                              2003     2004     2005     2006     2007
----------------------------------------------------------------------------------------------------------------
Ship Operations...........................................     14.9     48.3     74.8     68.4     46.5    252.9
Maintenance...............................................     23.9     41.0     87.1     81.3     67.0    300.3
Manpower..................................................     13.6    117.8    192.5    201.2    134.6    659.7
                                                           -----------------------------------------------------
  Total...................................................     52.4    207.1    354.4    350.9    248.1  1,212.9
----------------------------------------------------------------------------------------------------------------


    120. Senator Sessions. Admiral Clark, it would be useful to hear 
your comments on lessons learned as we assess the future utility of 
some of the aging ships in the Navy. I would like to point out that 
this is an issue that Senator Kennedy and I are focusing on and we sent 
a letter to the Secretary of the Navy and you last week asking you to 
look into four focus areas for getting the most out of the ships we do 
have.
    Admiral Clark. The primary lesson learned is that significant 
investment in modernization is required to keep ships serviceable and 
retain them to the end of their full service life. In a fiscally 
constrained environment, Navy must balance between transforming and 
building the future Navy to meet emergent warfighting requirements, and 
operating the current force to meet existing missions, while remaining 
within the President's budget.
    Force Structure: New ship procurement decisions dominate force 
structure recapitalization, yet the retention or decommissioning of 
ships has the greatest near-term impact on force structure size and 
composition. The key element in decisions to extend or contract the 
service life of a ship class is affordability versus capability.
    Service Life Considerations: The service life of our warships has a 
significant impact on force structure. Extending service life by 
delaying decommissionings can maintain or increase force structure and, 
correspondingly, accelerating decommissioning can reduce force 
structure. The decision to extend or accelerate decommissioning of a 
ship class is based on a cost/benefit analysis focusing on the 
affordability of the platform and what warfighting capabilities it 
brings to the joint commander's tool box. In some cases, such as 
Ticonderoga (CG 47)-class cruisers and Perry (FFG 7)-class frigates, it 
is considered prudent to invest in conversion and modernization of 
ships to extend their service life. In other cases, such as Spruance 
(DD 963)-class destroyers, it is more economical to decommission the 
ships.
    Historical Service Life vs. Estimated Service Life: Sophisticated 
combat systems must keep pace with advancing threat technology. As the 
combat systems and the hull, mechanical, and electrical (HM&E) systems 
of a platform age both must be maintained and upgraded, but the combat 
systems upgrades tend to be more extensive and expensive. Additionally, 
as ships age, the cost of operating and maintaining the ships may 
increase as a function of the overall material condition of the vessel. 
For example, if a ship has deferred a number of maintenance actions 
over the course of its operating life, and has had a high operational 
tempo, the cumulative effects on the ship can lead to higher operating 
and maintenance costs. This must be considered in investment decisions. 
In making service life decisions, warfighting capability gained from an 
upgrade is balanced against the cost of the upgrade and the operations 
and maintenance cost of the ship. Unless modernized, a surface 
combatant's Historical Service Life (HSL) is shorter than the Estimated 
Service Life (ESL) established via current Navy policy and design 
specification requirements provided to shipbuilders. For destroyers, 
HSL is 20 years compared to an ESL of 35 years. In the case of 
frigates, HSL is 20-22 years compared to an ESL of 30 years.
    Cruiser Conversion: The Navy has made the commitment to extend the 
service of our primary air defense platforms through the conversion 
program for CG 47-class cruisers. The program will upgrade the Aegis 
combat systems and install warfighting improvements including Area Air-
Defense Commander (AADC) capability, upgrades to the Aegis Baseline to 
accept Sea-Based Ballistic Missile Defense capability (pending Missile 
Defense Agency (MDA) approval and funding of development), land attack, 
and force protection. Additionally, service life extension features 
include Smart Ship upgrades, the all electric alteration, weight and 
moment adjustments, and other distributive systems improvements. 
Modernizing these ships will make them more capable to project theater-
wide offense and defense while providing up to an additional 20 years 
of service life beyond the HSL of 17 years.
    Frigate HM&E and Self Defense Upgrades: In the fiscal year 2003 
budget submission, FFG 7 Class frigates will receive HM&E upgrades to 
reduce their operating costs and extend their service life. 
Additionally, the combat systems will be upgraded with selected ship 
self defense technology. These ships with their relatively small crew 
size and low operating costs provide affordable warfighting capability 
for the investment required.
    Amphibious Assault Ship Sustainment: The requirement for amphibious 
ships is driven by two factors, the Amphibious Ready Group (ARG) 
deployment cycle and Marine Corps lift requirements. Today's 12 ARGs 
are the minimum required to meet presence requirements and each ARG 
consists of an LHA/LHD, LPD, and LSD. Overall lift is currently below 
the 2.5 Marine Expeditionary Brigade (MEB) lift programmatic goal and 
the full requirement of 3.0 MEB lift. Austin (LPD-4) Class ships will 
be required to serve an average of 41.5 years, well beyond their 
original ESL of 30 years, in order to meet amphibious requirements 
until the LPD-17-class ships are delivered to the fleet. We are funding 
the LPD-4 Class Extended Sustainment program, which is designed to 
improve the dependability of HM&E systems and living conditions for the 
sailors and embarked marines. Additionally, it is expected that LHAs 
with their mid-life upgrade will be required to serve a median 42 
years, significantly beyond their ESL of 35 years, before being 
replaced by the LHA(R) ships currently being studied.
    Destroyer Decommissionings: DD 963 Class destroyers are expensive 
to maintain because of their large crew size and age while providing 
only limited warfighting capability. These ships received an earlier 
modernization with the introduction of the Vertical Launch System 
(VLS), which extended the combat system relevant life beyond the 
historical 20 years. However, while the ships still provide some 
warfighting capability with two 5 inch 54 cal. guns and an Anti-
Submarine Warfare (ASW) suite, the higher manning requirements and 
operational costs do not justify additional funds for further 
modification or extended service life. New Burke (DDG 51) Class 
destroyers being introduced to the fleet provide substantially more 
combat capability and an ample number of VLS tubes to support current 
Tomahawk inventory. It is not cost effective to keep the DD 963 Class 
in the inventory. The currently structured decommissioning schedule 
will save the Navy about $1.25 billion over the FYDP that can be 
applied to transformational efforts such as electric drive, advanced 
networks and stealth technology bringing new warfighting capabilities 
to the fleet.

        USING AVERAGE AGE OF SHIPS TO MAKE INVESTMENT DECISIONS

    121. Senator Sessions. Admiral Clark, the Secretary of the Navy 
stated before this committee that because Navy ships have an average 
age of 16 years, they are not as high on the priority list for funding 
as other systems. If the Navy uses average age as criteria for 
investment decisions, doesn't that hide problem areas? For instance, in 
this budget request you have one less submarine than required by the 
2001 Quadrennial Defense Review, yet your unfunded requirements list 
does not include funds to correct this. You also propose 
decommissioning ships prior to the end of their planned service life. 
Would you explain your priorities for shipbuilding and why you are not 
asking to build more ships that have insufficient force levels?
    Admiral Clark. Procurement of new ships to maintain force structure 
is one of the Navy's top priorities. However, the fiscal year 2003 
budget preparation proved to be an exceptionally challenging process to 
balance the funding requirements of the war on terrorism, training of 
our sailors and marines and readiness of their equipment, with the need 
to re-capitalize our aging ship and aviation assets. We believe that 
the fiscal year 2003 budget request represents the best balance of 
available resources to meet the continued needs of our great Navy.
    Additionally, the Navy agrees that we must and can do more in 
future budgets to increase the shipbuilding procurement rate to support 
force structure requirements. To this end, the fiscal year 2003 budget 
has built a strong foundation to posture the Navy's shipbuilding 
programs for the future. For example, starting this year, we have 
properly funded shipbuilding programs to realistic, independent cost 
estimates, greatly reducing the likelihood that future budgets must 
fund prior year completion costs: The fiscal year 2003 budget request 
has stabilized surface combatant production across the Future Years 
Defense Program, providing for an improved transition to DD(X). The 
budget continues to support the development and construction of LPD-17, 
which has stabilized and remains on track.
    Finally, the Navy continues to work with our industry partners to 
make best use of shipyard resources to build the most affordable, and 
strongest Navy that our Nation's security demands.

                      ADEQUACY OF FORCE STRUCTURE

    122. Senator Sessions. General Shinseki, Admiral Clark, General 
Jones, and General Jumper, the Quadrennial Defense Review (QDR) 
described the force structure required to carry out the defense policy 
goals of: (1) assuring allies and friends; (2) dissuading future 
military competition; (3) deterring threats and coercion against U.S. 
interests; and (4) if deterrence fails, decisively defeating any 
adversary. The QDR further stated that as the ``transformation effort 
matures, Department of Defense will explore additional opportunities to 
restructure and reorganize the Armed Forces.'' Does your service's 
budget request support the QDR force structure? If not, what 
transformation efforts will enable you to go below the QDR force 
levels?
    General Shinseki. Yes. The QDR directed force structure did not 
change the current Army end strength of 1,035,000 with 480,000 in the 
Active component (417,000 Force Structure Allowance (FSA), 63,000 
transients, trainees, holdees, and students (TTHS)); 350,000 in the 
Army National Guard (385,000 FSA); and 205,000 in the Army Reserve 
(225,500 FSA). The FSA provides for 18 combat divisions in the Army 
today--10 Active and 8 National Guard. Our budget submission provides 
for this force and fully supports the levels outlined in the QDR 
report.
    The fiscal year 2003 budget adequately funds all of the Army's 
known Interim and Objective Force transformation requirements. First, 
the budget, and its associated FYDP, funds the procurement of six 
Interim Brigade Combat Teams and its associated equipment. Next, the 
Army is funding over $8 billion in the FYDP for science and technology, 
95 percent of which is oriented on the Objective Force. In order to 
fund these requirements, the Army has accepted risk by underfunding the 
modernization requirements of the current Legacy Force. Over the past 3 
years, we have terminated 29 programs to garner over $8.2 billion in 
savings. As the Army moves forward with transformation, we will have to 
make more tough funding decisions, and where possible, seek additional 
funding from the Office of the Secretary of Defense and Congress.
    Admiral Clark. The Quadrennial Defense Review Report listed the 
current force structure of the Navy and Marine Corps as a baseline from 
which the Department will develop a transformed force. The fiscal year 
2003 budget request supports maintaining this force structure with the 
following exceptions:
    Active Surface Combatants fall below the baseline level of 108 
across the FYDP:

------------------------------------------------------------------------
                                                Fiscal Year
                                 ---------------------------------------
                                   2003    2004    2005    2006    2007
------------------------------------------------------------------------
Active Surface Combatants.......     101      99      96      99     103
------------------------------------------------------------------------

    Attack submarines fall below the baseline level of 55 from fiscal 
year 2003 to fiscal year 2006:

------------------------------------------------------------------------
                                                Fiscal Year
                                 ---------------------------------------
                                   2003    2004    2005    2006    2007
------------------------------------------------------------------------
Attack Submarines...............      54      54      54      54      55
------------------------------------------------------------------------

    Navy's fiscal year 2003 budget request focuses on funding 
requirements in personnel and operational accounts to support our 
current readiness to conduct a full spectrum of joint military 
activities. Top priority on funding current readiness was a matter of 
choice justified by the ongoing war effort. Even so, high on the list 
of unaffordable requirements is an attack submarine refueling overhaul 
that would increase the inventory to 55 from fiscal year 2004 out, and 
additional DDG-51 procurement that would bolster the surface combatant 
force structure.
    We have also decided to divest ourselves of older, less capable 
ships by retiring them in order to free resources that can be used to 
fund transformational capabilities on the remaining ships and 
submarines of the fleet. The impact on force structure requirements of 
the improved capabilities brought by, for example, programs funded in 
the fiscal year 2003 President's budget such as Cooperative Engagement 
Capability (CEC) and Trident SSGN conversion is still being studied. 
CEC provides a revolutionary new capability, allowing surface and air 
platforms to share and fuse sensor information. This will allow Aegis 
ships to engage contacts beyond the sight of onboard sensors resulting 
in a dramatic enhancement in the total force capability to track in a 
jamming environment. The Trident SSGN program converts four Ohio class 
SSBNs to SSGNs. Available for operational use starting in 2007, these 
SSGNs provide unique Special Forces capabilities, including hosting the 
Advanced SEAL Delivery System (ASDS), and large-scale strike 
capabilities in one clandestine, survivable platform. SSGNs will also 
serve as a transformation ``bridge'' for submarine encapsulation of 
joint payloads and will provide the volume for experimentation and 
development of offboard sensors and vehicles.
    General Jones. Yes. Our fiscal year 2003 President's budget 
submission supports an Active Duty end strength of 175,000 and is fully 
funded. This is an increase of 2,400 over our fiscal year 2002 end 
strength. The additional 2,400 is the additional force structure 
required to activate the 4th Marine Expeditionary Brigade Anti-
Terrorism (4th MEB (AT)). The 4th MEB (AT) provides designated 
supported commanders with rapidly deployable, specially trained, and 
sustainable forces that are capable of detecting, deterring, and 
defending designated facilities against terrorism, and conducting 
initial incident response in the event of chemical, biological, 
radiological, nuclear, or high yield explosive (CBRNE) terrorist 
attacks worldwide. This contingency response force gives our Nation a 
dedicated anti-terrorism force without degrading personnel readiness in 
our existing Marine Corps units.
    General Jumper. In the last decade, the Department of Defense has 
undergone three major QDR reviews beginning with the Bottom-Up Review. 
Since 1991, the Air Force reduced its force structure so that today it 
is little more than half of what it was in aircraft, people, and units. 
During this same period, the Nation's leaders have asked the Air Force 
to do more. Our estimates indicate the Air Force has been asked to do 
nearly four times what we were asked to do when these reviews assessed 
our requirements. Our budget supports the QDR force structure. It does 
not include adequate funding to sustain today's very high operations 
tempo associated with our global war on terror.
    In response to these demands, the Air Force formed the 
Expeditionary Aerospace Force (EAF) concept in 1999 to make itself more 
flexible and stable in order to stem the recruiting and retention 
downturn. Last summer, the Department asked the services to create and 
implement a capabilities-based recapitalization plan consistent with 
DOD and service goals for transformation. It is extremely important to 
adopt this capability-based approach when we make decisions about 
organization, concepts, and system procurement. Cost per unit is often 
used today as a measure of merit in making such decisions, but a more 
accurate measure of merit that captures the real value or capability of 
a particular system is cost per target engaged or, better yet, cost per 
effect desired. The Air Force is in the midst of building this 
recapitalization plan. The plan will result in a balanced sustainable 
portfolio of systems. It will incorporate the transformational 
character of air and space power to redefine our Nation's strategic and 
operational alternatives for military success around the world. 
Recognizing the necessity of change, the Air Force is continuing to 
transform itself to best serve the Nation's interests and demands.

                    OVERDUE ATTACK SUBMARINE REPORTS

    123. Senator Sessions. Admiral Clark, sections 123 and 124 of the 
Fiscal Year 2001 Authorization Act require the Secretary of Defense to 
submit two reports on attack submarines. The first report is a plan to 
maintain at least 55 attack submarines and the second is on production 
rates for Virginia-class submarines. Both reports are overdue by more 
than one year and are key for our deliberations regarding the Navy's 
new construction request. Has the Navy completed their portion of these 
reports and do you know when they will be submitted to the 
congressional defense committees?
    Admiral Clark. The Secretary of the Navy is continuing to work with 
the Office of the Secretary of Defense (OSD) to complete these reports 
for submission in support of the congressional review of the 
President's budget 2003 budget. The reports were initially drafted by 
the Navy during Congress' President's budget 2002 deliberations and the 
Department of Defenses' preparation of the President's budget 2003 
budget. The reports were revised to accurately reflect President's 
budget 2003 decisions. The reports are currently being reviewed by the 
Department of the Navy and will be forwarded to OSD for final approval 
and submittal to the congressional defense committees.

                  DEPLOYABLE JOINT COMMAND AND CONTROL

    124. Senator Sessions. Admiral Clark, the QDR stated the pressing 
need for a Deployable Joint Command and Control Center. The Secretary 
of Defense's testimony before this committee last week indicated that 
this budget request included $40 million for ``a program for new land- 
and sea-based joint command and control centers.'' What is the Navy's 
share of that $40 million fund and what is your vision on the future of 
Navy command and control ships?
    Admiral Clark. The $40 million in question (actually $39.8 million 
as submitted in the President's budget) represents RDT&E funding 
specifically added to the Navy's TOA to initiate the effort known as 
the Deployable Joint Command and Control (DJC2) system. DJC2 will be a 
joint program with the Department of the Navy as the Executive Agent, 
and is presently in the definition stage. The Joint Requirements 
Oversight Council approved the DJC2 Mission Needs Statement in February 
2002. DJC2 is envisioned to provide Joint Force Commanders with a 
deployable joint Command and Control (C2) system to fully command, 
control, and direct CINC and Joint Task Force (JTF) operations. DJC2 
will provide this capability for the envisioned Standing JTF 
headquarters staffs (about 250 personnel) in a set of collapsible 
shelters or transportable vans. The communications infrastructure, 
capability, and support functions are to be provided separately by the 
respective service component(s). DJC2 is envisioned to provide the 
land- and sea-based joint C2 functionality that can be easily relocated 
as tactical situations require, and provide this functionality when 
component commanders transition ashore from afloat. DJC2 functionality 
is intended to be present in the Joint Command and Control [JCC(X)] 
Mission System core.
    Navy command ships currently provide worldwide, forward deployed, 
and robust joint C\4\I capability without the limitations inherent with 
fixed shore sites. This capability is consistent with the QDR and its 
emphasis on forward deployed, robust command and control. The Navy's 
new JCC(X) program will provide up to four ships to replace today's 
command ship capability, which will reach their ship service life by 
the end of the decade. The JCC(X) ship with its integrated Mission 
System, provides the C\4\I, collaborative workspaces, Information 
Infrastructure, communications capability, as well as habitability 
spaces to support the Joint Forces Commander, complementary Component 
Commanders, coalition as well as providing for the Numbered Fleet 
Commander and staffs. The Navy leadership is currently assessing 
alternative platform approaches to meet the JCC(X) Mission Need 
Statement.
    The JCC(X) and DJC2 programs are separate, yet complementary 
efforts. While they both must be interoperable and support the CJTF HQ 
function, the JCC(X) Mission System also supports the operational and 
tactical functions associated with naval forces afloat and the Numbered 
Fleet Commander and staff. DJC2 plans to have its first variant 
available to support PACOM operations by 2005, while JCC(X) initial 
ship delivery will not be until 2011. JCC(X) will leverage on the DJC2 
development and support its functionality within the JCC(X) Mission 
System to provide the very necessary capability for the CJTF and the 
Component Commands and Staffs around the world, regardless of on land, 
at sea, or in the air.

                    ARMY AVIATION FLIGHT SIMULATORS

    125. Senator Sessions. General Shinseki, in your opening statement 
you said that the Army must ``fully modernize training ranges, combat 
training centers, and training aids, devices, simulators, and 
simulations to provide adequate and challenging training.'' This quote 
was repeated verbatim from Secretary White's testimony before this 
committee 1 month ago. I have been thoroughly impressed with the 
performance of Army aviation during Operation Enduring Freedom and can 
offer well-deserved praise to the professionals at the home of Army 
Aviation in Fort Rucker, Alabama. One item I observed during a recent 
visit to Fort Rucker was an urgent requirement for advanced simulators 
and simulator technology, specifically for Flight School 21 (XXI). Do 
you feel that the requirement for more advanced simulators is 
adequately addressed in this budget or should we be looking at an 
aviation cultural change that considers privately financed initiatives 
resulting in shared savings for simulators? If you agree that similar 
Army initiatives at Fort Carson, Colorado are applicable, then would 
you support a legislative change changing the contract length from 8 
years to 20 years to create the efficiencies you seek?
    General Shinseki. No, the requirement for advanced simulators and 
supporting technology is not adequately addressed in this budget. 
United States Army Aviation Center is pursuing several options to 
acquire advanced technology and simulators to meet its training 
requirement. One of those options includes using a service contract to 
satisfy this urgent training requirement.
    The cultural changes proposed closely resemble initiatives at Fort 
Carson, Colorado, U.S. Air Force Distributed Mission Training, and 
Wright-Patterson Air Force Base where corporate investment funds build, 
own, maintain the devices, and perform services in accordance with 
contractually established standards. This allows industry to make 
significant upfront investments that are recovered incrementally over 
the duration of the contract.
    A long-term contract under existing legal authority can 
significantly reduce the annual cost, allow amortization over a longer 
period, and realize efficiencies and savings to the government.
    Fort Rucker supports a long-term contract for Flight School XXI.

                     SPACE LAUNCH PRODUCTION POLICY

    126. Senator Sessions. General Jumper, the Air Force was designated 
by the Secretary of Defense as the Executive Agent for Space in 2001. 
In your opening statement, you said that this means that the Air Force 
is responsible for DOD-wide ``planning, programming, and acquisition of 
space systems.'' One of the fundamental goals of the National Space 
Policy is assuring reliable and affordable access to space through U.S. 
space transportation capabilities. The policy directs that U.S. 
government payloads be launched on space launch vehicles manufactured 
in the United States unless exempted by the President or his designated 
representative. One of the programs you identified in your opening 
statement that is designed to meet the future launch demands of 
national security, civil, and commercial payloads is the Evolved 
Expendable Launch Vehicle (EELV). The Atlas V program that is being 
proposed for the EELV utilizes a Russian-designed and Russian-built RD-
180 engine for propulsion. It is my understanding that the EELV 
engineering and manufacturing contract was awarded in October 1998 and 
that the DOD agreed to allow a Russian engine to be used in the 
development only if a U.S. manufacturing capability was developed 
within 4 years of the contract being awarded. Those 4 years are up in 
October of this year. Can you tell me what progress has been made with 
developing a U.S. production capability?
    General Jumper. The license agreement necessary to begin the 
transfer of the manufacturing data from the Russian company (NPO 
Energomash) to the U.S. company (United Technologies, Pratt & Whitney) 
took 18 months to get through the U.S. Government approval cycle. The 
license agreement is currently awaiting approval by the Government of 
Russia. We anticipate approval in late spring, after which the data 
will begin to flow. The revised U.S. co-production schedule will 
provide the capability to produce U.S. built engines by 2008. We are 
managing the risk of relying on Russian built engines by stockpiling 
enough engines to launch all US Government Atlas V missions on 
contract.

    127. Senator Sessions. General Jumper, I understand that the first 
Atlas V launch is scheduled for fiscal year 2004 with a classified 
payload. Is it still U.S. policy to assure our access to space through 
space launch vehicles manufactured in the United States?
    General Jumper. The first Atlas V will fly this summer with a 
commercial payload. The first U.S. Government payload on an Atlas V, 
Wideband Gapfiller Satellite #2, will fly in November 2004 (fiscal year 
2005). A May 1995 DOD policy directive requires national security 
payloads to be launched on space launch vehicles manufactured in the 
United States. The same policy allows the use of engines manufactured 
in nations of the Former Soviet Union if we have sufficient quality and 
quantity of stocks to preclude a launch stand-down during transition to 
U.S. sources. The Atlas V RD-180 main engine is built in Khimky, 
Russia. Therefore, the Air Force requires Lockheed Martin to stockpile 
engines as an interim risk mitigation measure during the conversion to 
U.S. production.

                       PRECISION GUIDED MUNITIONS

    128. Senator Sessions. General Shinseki, Admiral Clark, General 
Jones, and General Jumper, members of this committee have received 
testimony from the regional and functional commanders in chief (CINCs) 
over the past month and many of us have held individual meetings with 
the CINCs to receive their views on the challenges facing their areas 
of operations. One of the consistent themes I have heard during these 
hearings and briefings has been the higher than expected expenditure 
rates for precision guided munitions during the war in Afghanistan and 
the increasing reliance our forces are having on these weapons. There 
have also been public comments by military leaders, including Admiral 
Natter, about the fact that we nearly ran out of precision weapons, 
particularly the Joint Direct Attack Munitions, during Operation 
Enduring Freedom. General Jones, I just asked you a question on Tuesday 
during our Subcommittee on Seapower hearing about Marine Corps 
requirements for Hellfire missiles. We spend a lot of money on 
expensive platforms and the training for their operators. I am 
concerned that we may not have enough munitions to equip these 
platforms. I am concerned that if we are faced with a substantial 
increase in demand for precision weapons that might accompany a major 
regional contingency, your Services may not have the stocks of weapons 
necessary to fight the battle the way they have become accustomed to. 
Do you feel that the fiscal year 2003 budget submission and the 
supplementals that have been granted since September 11 adequately fund 
the replenishment of our stocks of precision weapons?
    General Shinseki. The Army's fiscal year 2003 budget submission 
includes funding for 1,797 Longbow Hellfire missiles. The Army has also 
forwarded a fiscal year 2003 unfunded requirement list to Congress to 
procure an additional 1,000 K-Model Laser Hellfire missiles to replace 
missiles anticipated to be used in the global war on terrorism and 
those that will soon exceed shelf-life that must be used and replaced. 
The Army requested but did not receive any funding in the fiscal year 
2002 Anti-Terrorism/Force Protection Supplemental to conduct rocket 
motor retrofits on the Longbow and Laser Hellfire missiles to ensure 
that catastrophic damage does not occur to aircraft during missile 
launch. The Army will be able to begin replenishment of Hellfire 
missiles in accordance with the capabilities based requirements process 
if Congress grants the funding requested in the fiscal year 2003 
unfunded requirement list for Hellfire missiles.
    Admiral Clark. Yes, the replenishment of precision weapons stocks 
(Laser Guided Bomb Kits and Joint Directed Attack Munition Kits) is 
currently funded to appropriate levels. The fiscal year 2003 budget 
submission and supplemental funding provided by the DERF, PDM-2, and 
PBD-736 enable procurement of over 45,000 Laser Guided Bomb kits and 
58,000 JDAM kits across the FYDP.
    However, additional procurement of ancillary components (bomb 
bodies and fuzes) is required to prosecute the target sets for both 
guided and unguided weapons.  
    General Jones. The fiscal year 2003 budget submission and 
supplementals granted since September 11, do not adequately fund the 
replenishment of our stocks of precision weapons. The fiscal year 2003 
budget focused on the shortfall in LGBs and JDAMs, highlighted by the 
expenditures in Operation Enduring Freedom, and did not adequately 
address the replenishment of Hellfire missiles. The fiscal year 2002 
supplemental funding helped the naval service increase precision 
weapons inventories for both JDAM and LGBs to address the global war on 
terrorism. Our efforts to secure additional funding for the Hellfire 
missile were not successful in the fiscal year 2002 Defense Emergency 
Relief Funding. This weapon is critical to our attack helicopter force 
and saw recent service with 15th MEU (SOC) augmentation of the U.S. 
Army during Operation Anaconda. The Hellfire inventory continues to age 
and will reach critical shelf life age in fiscal year 2008 (the weapons 
have been extended to 200 percent of design life to reach fiscal year 
2008). Additional funding for this weapon would assist us in fielding 
increased numbers of the new Blast Fragmentation Warhead variant 
(AGM0114M) of this weapon. Additionally, the Marine Corps is working 
with the Defense Threat Reduction Agency to evaluate a thermobaric 
warhead for this weapon to increase operational flexibility and address 
a more diverse target set. Any additional funding for Hellfire would be 
used to procure both blast fragmentation and thermobaric variants to 
support forward deployed forces.
    General Jumper. Yes. The Air Force Fiscal Year 2003 Budget 
Submission and supplementals adequately fund precision munitions. The 
Air Force has taken steps to assure that the 2003 budget submission and 
supplementals will replenish our expenditures of preferred munitions 
used in Operation Enduring Freedom. The Air Force took action to 
respond to immediate concerns with preferred munitions and also 
increased our investment in munitions across the FYDP by over $2 
billion. With respect to the JDAM, the Air Force invested in 
facilitization of the plants that produce this weapon. The contractor 
already significantly increased tailkit production, and is funded to 
continue to increase their monthly production of tailkits. The JDAM 
funds included in the fiscal year 2002 supplemental request will allow 
us to achieve near maximum production at a faster rate. In addition to 
these actions, the Air Force is currently assessing the impact of the 
latest wartime planning scenarios on munitions requirements. The 
results of this analysis will be used to determine future procurement 
needs.

          AIRCRAFT MAINTENANCE ON UNFUNDED REQUIREMENTS LISTS

    129. Senator Sessions. Admiral Clark, one of the items you have 
listed on your unfunded requirements list is a request for funds to 
correct, ``emerging deficiencies impacting aircraft mission capable 
rates.'' The description for this line item says, ``funding is required 
to preclude grounding three critical weapons systems as a result of 
unforeseen maintenance requirements.'' You list problems with the B-1B, 
B-2, and F-15 fleets. In fact, you say that the B-2 hot trailing edge 
damage has already degraded six aircraft and that these aircraft are 
``en route to becoming non-flyable.'' Six B-2s represent almost one 
third of the total B-2 fleet. Your unfunded requirements list requests 
funding for eight center wing sections for EA-6B aircraft to restore 
these aircraft to full capability. Your line item description says, 
``51 EA-6Bs are currently limited to 3 Gs.'' Secretary England has 
testified that your number one priority for funding is aircraft 
recapitalization. These problems sound pretty serious to me. Why are 
they on your unfunded list instead of a supplemental cost of war 
request?
    Admiral Clark. EA-6B Wing Center Sections (WCS) are included in the 
fiscal year 2002 Defense Emergency Response Fund Spring Supplemental 
Request and the fiscal year 2003 unfunded requirements list. This takes 
advantage of maximizing the WCS procurements in both fiscal years. 
Based on the amounts appropriated, we will optimize WCS production, 
thereby reducing the number of g-restricted aircraft in the fleet 
inventory. 

    130. Senator Sessions. Admiral Clark and General Jumper, there have 
been many reports that we are flying our aircraft at a much higher 
operational tempo than planned. Can your services afford to wait to 
fund these aircraft fixes?
    Admiral Clark. The Navy EA-6Bs are currently flying 50 percent 
higher operational tempo than normal. We have requested additional 
funding to ensure the continued viability of the EA-6B, and we will 
process further requests should the need arise.
    General Jumper. The AF was aware of problems with the B-1, B-2, and 
F-15 but they were not severe enough to ground the aircraft until 
recently. Therefore, these problems did not make it into the fiscal 
year 2002 President's budget. The purpose of the $163.3 million in the 
UPL is to fund additional maintenance requirements that were not 
serious problems during the fiscal year 2003 President's budget 
development. Over the last 3 to 5 months, the B-1, B-2, and F-15 issues 
have risen to a level which cannot wait for correction within normal 
programmed maintenance schedules.
    The B-1 wing pivot shear bearing is an item that was designed to 
last for the life of the airframe. The B-1 System Program Office 
discovered unanticipated wear and has determined that some aircraft 
cannot wait until normal depot maintenance prior to repair. There is a 
potential of 2-3 B-1s being grounded by the end of fiscal year 2002.
    The B-2 hot trailing edge is a problem discovered last fall and is 
being investigated by structural engineers to determine the best course 
of action. The trailing edge will have a significant impact on B-2 
operations if not corrected immediately.
    F-15 horizontal stabilizer delamination issues have now exceeded 
normal Air Force organic maintenance capabilities. Air Combat Command 
believes these maintenance problems cannot wait until the fiscal year 
2004 President's budget. This problem will exceed depot level capacity 
in fiscal year 2003 if actions are not taken immediately.
    Since these problems have become serious operational issues, the AF 
recently added them to the top 5 of the fiscal year 2003 unfunded 
priority list.

           LITENING PODS FOR UNITED STATES AIR FORCE AIRCRAFT

    131. Senator Sessions. General Jumper, it is my understanding that 
many of the Marine Corps and Air National Guard aircraft flying in 
Afghanistan are equipped with Northrop Grumman Litening targeting pods 
which provide the pilots with greater operational capability for 
precision strike and nighttime navigation than those of some Air Force 
planes. Is the Air Force looking at this system to help our pilots and 
troops in the current conflict, and if so what is the status of Air 
Force plans to acquire Litening in the near future?
    General Jumper. The Litening Pod has a laser spot tracker. This 
feature enables the aircraft to identify targets that are laser-
designated by special forces personnel in the current conflict. The 
current USAF targeting pod (LANTIRN) doesn't possess this attribute. 
The USAF's newly funded advanced targeting pod will possess this 
feature and many other critical capabilities (CID, J-series weapons 
coordinate generation, more powerful laser for standoff). Deliveries of 
this pod begin this fall. However, in support of the immediate need for 
more laser spot trackers, a Combat Mission Need Statement was approved 
in December 2001. Currently, the Air Force is requesting to reprogram 
money for an additional 24 Litening II pods as part of the Fiscal Year 
2002 Omnibus Reprogramming package.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                          SHIPBUILDING--DD(X)

    132. Senator Collins. Admiral Clark, as you stated, the DD(X) 
represents the future for the Navy and is expected to make a 
significant contribution in the Navy's ability to achieve affordability 
breakthroughs with dramatic reductions in fleet operations and support 
including personnel costs. DD(X) should allow the Navy to field a fleet 
of highly capable and affordable warships. Would you discuss the value 
that you believe DD(X) and its family of ships will provide the Navy 
team, and further would you provide details on the $961 million 
investment proposed in the fiscal year 2003 budget for this family-of-
ships?
    Admiral Clark. Maritime Dominance in the 21st century requires a 
naval force capable of projecting power and defeating anti-access 
threats. U.S. naval forces will be required to project power forward, 
provide assured access in the littoral environment, and support a wide 
variety of joint and combined operations. Defeating and deterring 
future national threats will require a wide range of capabilities 
provided from a family of ships. These ships will be required to 
provide:

        <bullet> Precision Strike and Volume Fires;
        <bullet> Anti Access Littoral Missions; and
        <bullet> Missile Defense.

    In order to accomplish these complex and challenging missions, the 
future surface naval force will consist of four elements:

        <bullet> Advanced, multi-mission destroyers, DD(X), capable of 
        providing precision strike and volume fires;
        <bullet> Advanced cruiser, CG(X), providing sustained air 
        superiority against air-breathing and ballistic threats;
        <bullet> Agile Littoral Combat Ships (LCS) capable of defeating 
        enemy littoral defenses including mines, small boats, and 
        diesel submarines; and
        <bullet> In-service Aegis equipped fleet.

    Transformation of the future naval force starts with the DD(X) 
technology development effort. Many of the cutting edge and future 
technologies that will assure maritime dominance are being developed 
under the DD(X) program for the future family of ships.
    The fiscal year 2003 budget request for DD(X) will provide funding 
for development of transformational systems. The DD(X) design agent 
will focus on the development of Engineering Development Models (EDMs) 
during fiscal year 2003 including:

        <bullet> Advanced Gun System and Magazine;
        <bullet> Integrated Power Systems;
        <bullet> Radar Suite (Multi-Function Radar/Volume Search 
        Radar);
        <bullet> Total Ship Computing Environment;
        <bullet> Advanced Vertical Launch System;
        <bullet> Integrated Deckhouse and Apertures;
        <bullet> Autonomic Fire Suppression System;
        <bullet> Infrared Mock-ups;
        <bullet> Hull Form Scale Model; and
        <bullet> Integrated Undersea Warfare System.

    In fiscal year 2003, the design agent will also perform design 
studies to support the spiral design review/requirements revalidation 
and the integration/evolution of the overall DD(X) ship design in 
fiscal year 2005. Full funding is critical to achieve the innovation 
and transformational technologies that DD(X) will bring to the fleet. 

    133. Senator Collins. General Jones, Admiral Clark stated the DD(X) 
represents the future for the Navy and is expected to make a 
significant contribution in the Navy's ability to achieve affordability 
breakthroughs with dramatic reductions in fleet operations and support 
including personnel costs. DD(X) should allow the Navy to field a fleet 
of highly capable and affordable warships. Do you have any comments to 
add since this family of ships will also fulfill requirements, 
specifically fire support, for the Marine Corps?
    General Jones. A credible Naval Surface Fire Support program is a 
critical component of forcible entry from the sea, and DD(X) is a vital 
component of that capability, essential to realizing the full potential 
of Expeditionary Maneuver Warfare. The systems envisioned for DD(X), 
which include the 155mm Advanced Gun System and the Advanced Land 
Attack Missile (ALAM), are essential elements of an expeditionary fire 
support system that will provide responsive, all-weather fire support 
``from the sea'' in support of forces operating throughout the depth of 
the littoral battlespace.
    I am concerned, however, that DD(X) will be fielded with less 
warfighting capability and in fewer numbers than previously planned for 
DD21. The magazine capacity of DD(X) must be sufficient to provide 
sustained fires in support of Marine, joint, or coalition forces 
ashore, and there must be a sufficient number of ships available to 
sustain fires for extended periods of time. Additionally, there must be 
enough Vertical Launch System (VLS)/Advanced Vertical Launch System 
(AVLS) cells dedicated to the ALAM, which will provide the Landing 
Force Commander (LFC) with responsive, medium-range interdiction, and 
battlespace shaping fires throughout the duration of operations.
    In order to provide sustained fire support, DD(X) must be capable 
of rapid underway replenishment within the theater of operations. 
Sustainment is a key element in providing sustained fire support, and 
there must be sufficient numbers of ALAM and 155mm Long-Range Land 
Attack projectiles available to replenish the magazines and VLS/AVLS 
cells of DD(X).

                       AMPHIBIOUS LIFT CAPABILITY

    134. Senator Collins. Admiral Clark and General Jones, the fiscal 
year 2003 proposed budget would reduce our force structure by two 
amphibious warfare ships, one combat logistics ship, one mine warfare 
ship, and 42 active aircraft. What short- and long-term impacts do you 
anticipate this force structure reduction will have on the OPTEMPO and 
the PERSTEMPO of our fleet?
    Admiral Clark. The proposed fiscal year 2003 budget will reduce the 
force structure by 2 amphibious warfare ships, 1 combat logistics ship, 
1 mine warfare ship, and 42 active aircraft. This reduction in the 
number of ships and aircraft will have minor impact on personnel tempo 
(PERSTEMPO) and operations tempo (OPSTEMPO) for the remaining force. 
Planned and on-going operations are the primary drivers for PERSTEMPO 
and OPSTEMPO changes. The global war on terrorism is currently the 
primary worldwide operation causing increases in the PERSTEMPO and 
OPSTEMPO of naval forces.
    The current active amphibious fleet exceeds the 2.5 MEB AE lift 
threshold in all areas except that of vehicle square--currently at 2.07 
MEB AE. Vehicle square will be reduced to 2.01 MEB AE with the planned 
reductions in force structure.
    General Jones. These reductions should have little impact on the 
OPTEMPO and PERSTEMPO of marines. However, while it has long been 
recognized that we require an amphibious ship force structure capable 
of simultaneously lifting the assault echelons of three Marine 
Expeditionary Brigades, today's amphibious lift can only support two-
thirds of this requirement in certain aspects of the lift footprint. We 
need to commit to redress this shortfall as a matter of urgent 
priority.
    We remain concerned that further schedule slippages in the LPD-17 
programs will directly impact our ability to maintain forward deployed 
naval capabilities sufficient to meet the challenges of both peace and 
war. In addition to LPD-17 development, it is critical to replace the 
aging LHA-1 Tarawa-class ships. Congressional support for amphibious 
shipping is vital to our continued success.
    Decommissioning one LSD 36 class ship and the remaining LST in 
fiscal year 2003 will result in the following amphibious ship lift 
reductions:

        <bullet> Troops: 649;
        <bullet> Vehicle (square feet): 27,500;
        <bullet> Cargo (cubic feet): 4,800; and
        <bullet> LCAC Spots: 2.

    The Marine Corps amphibious ship lift requirement is 3.0 MEB AE in 
order to support our warfighting and forward presence requirements. The 
current Navy amphibious shipbuilding plan results in an active 
amphibious force capable of lifting a fiscally constrained 2.5 MEB 
equivalents, which is not achieved until 2015 upon delivery of the 
twelfth and final LPD-17-class ship. Today, amphibious lift force 
structure can support only two-thirds of the 3.0 MEB AE requirement in 
certain aspects of the lift footprint. This reduced force structure, 
coupled with the decommissioning of active amphibious ships, adversely 
impacts Marine Corps warfighting and crisis response capabilities, 
thereby increasing operational risk.

                          WORKLOAD IMBALANCES

    135. Senator Collins. Admiral Clark, you testify that your fiscal 
year 2003 proposed priorities invest in current readiness for our naval 
forces. However, I am aware that there have been some deferred depot 
maintenance periods due to current operations (i.e., combating 
terrorism) on the Los Angeles-class submarines in fiscal year 2002, 
which will impact fiscal year 2003 and out-year workload schedules, 
placing the fleet ready submarines at risk to meet future missions as 
required by the Commanders in Chief. These delays not only adversely 
affect fleet readiness; they can also cause dramatic workload 
imbalances at our shipyards. I am concerned that continued shifts in 
the workload to future years will place undue stress on the fleet and 
the yards. I would like your commitment that your workload plans will 
be adjusted to maintain a stable workload and workforce at the 
shipyards.
    Admiral Clark. Ship depot maintenance plans are continuously 
updated to incorporate actual execution, operational impacts, and 
financial resources. Availabilities are deferred only after the risk to 
fleet readiness associated with deferring the work is determined and 
deemed acceptable.
    The Navy actively works to refine and schedule ship depot 
availabilities for effective shipyard execution. Keeping the shipyard 
workload level is essential to efficient operation and is a key' 
consideration in scheduling availabilities.
    A skilled and motivated shipyard workforce is essential to maintain 
the Navy's high state of material readiness. Recognizing that many in 
the public shipyard workforce are rapidly approaching retirement 
eligibility, a primary focus of the Navy's depot maintenance program is 
maintaining a stable workforce with the skills we need. We appreciate 
the support Congress has give the naval shipyard apprentice programs.

                    AVIONICS AND NAVIGATION SYSTEMS

    136. Senator Collins. Admiral Clark, the Multi-Mission Aircraft is 
scheduled to replace the aging P-3 platform in 2010 to 2012. Currently, 
the high OPTEMPO of the platform is rapidly diminishing its service 
life significantly. The P-3 platform, while it has been upgraded 
incrementally, has an average age of 25.5 years. Are there plans in 
this budget to continue upgrading the existing platforms' avionics and 
navigation systems to keep the P-3s viable, in order to bridge the 
procurement to its replacement in future years?
    Admiral Clark. Yes. The fiscal year 2003 President's budget (PB-03) 
contains funding for three P-3C modernization programs. Four P-3C Anti-
surface warfare Improvement Program (AIP) kits and installations are 
funded in fiscal years 2003 and 2004 ($96.6 million). The AIP provides 
upgrades to sensor; command, control, communications, and intelligence 
(C\3\I); weapons; and survivability systems. A comprehensive 
Communications, Navigation, and Surveillance/Air Traffic Management 
(CNS/ATM) program is also funded across the fiscal year 2003 FYDP ($58 
million). This program will develop an open cockpit architecture that 
will support present and future CNS/ATM requirements and will begin to 
procure and install equipment needed to support CNS/ATM requirements. 
Finally, a Communications Improvement Program (CIP) is funded across 
the PB-03 FYDP ($31.8 million). The CIP provides a common configuration 
of VHF and UHF communications radios, a satellite communications system 
that is compliant with current bandwidth and transmission protocol 
requirements, and an Advanced Narrowband Digital Voice Terminal 
encryption device.
    These programs will combine to keep the P-3 a valuable warfighting 
tool and will allow it to be the bridge needed until its replacement, 
the Multi-mission Maritime Aircraft (MMA) reaches full operational 
capability.

                        DEFENSIVE WEAPON SYSTEM

    137. Senator Collins. General Jones, I have been told that a 
Defensive Weapon System (DWS) for the V-22 is required. I understand 
that the competition for that system has been completed for almost 2 
years, however the Corps has not executed the contract for this DWS. In 
reference to this program, could you tell me when the Corps plans to 
initiate that DWS program?
    General Jones. The General Dynamics, GAU-19 (.50 cal multi-barrel 
gatling) was announced as the winner of our gun competition in August 
2000. The events of the past 2 years forces us to prioritize the 
funding and engineering efforts for the V-22. We must ensure the V-22 
is a safe, flyable aircraft that is operationally capable, before we 
commit to acquiring the Defensive Weapon System. Our primary focus of 
effort, near term, is to return the aircraft to flying in the test 
mode. The V-22 program is following an ``event driven'' philosophy with 
regard to major program changes and decisions. Integrating the 
Defensive Weapons System at this early stage would cause additional 
delays and potential program event risks.

    138. Senator Collins. General Jones, even if production began 
immediately, will there still be 90 aircraft built before the weapon 
system is available?
    General Jones. No. If the Defensive Weapon System integration and 
production began today, we would be putting the gun system on the Lot 
11 aircraft first. This means there would be 107 aircraft built before 
this weapon system is available. However, we are anticipating that we 
would only retrofit approximately 70 of the 107 aircraft. The 37 
aircraft not requiring the Defensive Weapon System include projected 
attrition, basic training aircraft at the Fleet Replacement Squadron, 
and the Continued Development aircraft used by the test community.

    139. Senator Collins. General Jones, aren't the retrofit costs for 
the DWS continuing to grow with these delays?
    General Jones. Yes. The cost to outfit a V-22 with the Defensive 
Weapon System on a retrofit basis is approximately $900,000 more than a 
forward fit. The longer we delay the start of this Defensive Weapon 
System integration development effort, the more aircraft we will have 
to retrofit.

                         C-17 STRATEGIC AIRLIFT

    140. Senator Collins. General Jumper, I believe Congress authorized 
another multiyear procurement of 60 aircraft for the C-17 strategic 
airlifter. I think most people thought that would be 15 aircraft per 
year for 4 years, starting in fiscal year 2003. Why are there only 12 
C-17s in the fiscal year 2003 budget?
    General Jumper. Due to Air Force funding constraints, the Air Force 
requested and received congressional approval for a 6-year multiyear. 
The Air Force notified Congress during this request of the intent to 
buy 12 aircraft in fiscal year 2003. Since this contract is a multiyear 
procurement, Boeing will be able to maintain the optimum production 
rate of 15 aircraft per year. This funding approach will execute the 60 
aircraft follow-on multiyear within the Air Force Total Obligation 
Authority.

    [Whereupon, at 12:52 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                        THURSDAY, MARCH 14, 2002

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

      ATOMIC ENERGY DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY

    The committee met, pursuant to notice, at 9:37 a.m., in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Bill 
Nelson, E. Benjamin Nelson, Dayton, Warner, Inhofe, Allard, 
Collins, and Bunning.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; L. David Cherington, minority 
counsel; Mary Alice A. Hayward, professional staff member; 
George W. Lauffer, professional staff member; Patricia L. 
Lewis, professional staff member; and Scott W. Stucky, minority 
counsel.
    Staff assistants present: Daniel K. Goldsmith, Andrew Kent, 
and Thomas C. Moore.
    Committee members' assistants present: Elizabeth King, 
assistant to Senator Reed; Richard Kessler, assistant to 
Senator Akaka; Peter A. Contostavlos, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; Margaret 
Hemenway, assistant to Senator Smith; Robert Alan McCurry, 
assistant to Senator Roberts; Douglas Flanders, assistant to 
Senator Allard; Kristine Fauser, assistant to Senator Collins; 
and Derek Maurer, assistant to Senator Bunning.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to receive testimony from Secretary of 
Energy Spencer Abraham on the budget request for the Department 
of Energy's (DOE) national security activities, which account 
for approximately two-thirds of the entire Department of Energy 
budget.
    We welcome a friend back to what was, for a time at least, 
his home away from home. We all know Spence well. We are 
delighted that he is the Secretary of Energy and that he is 
with us this morning.
    We have a number of important issues to discuss with 
Secretary Abraham, including the adequacy of the Department of 
Energy's environmental management (EM) budget; the progress of 
its programs to combat the proliferation of weapons of mass 
destruction; and DOE's plans, if any, for modifying existing 
nuclear weapons or developing new ones.
    Today, the United States is confronted by a wide range of 
threats to our security from a wide range of potential 
adversaries. In the past, our Nation has led efforts to reduce 
these threats to the United States and to our allies through 
diplomacy and, when necessary, through military action.
    The United States led by example in 1959 when we initiated 
the Antarctic Treaty to internationalize and demilitarize the 
Antarctic continent. We led by example when we signed the 
Nuclear Non-Proliferation Treaty (NPT) on the first day it was 
open for signature in 1968. We led by example in our efforts to 
reach an Intermediate Range Nuclear Forces (INF) Treaty and the 
Strategic Arms Reduction Treaties (START).
    We led by example, when we took our long-range bombers off 
nuclear alert status, when we unilaterally eliminated tactical 
nuclear weapons from the Army and the Marine Corps, and removed 
them from Navy surface ships and submarines.
    We have also led the way to increase the safety and 
security of nuclear weapons and materials. Through the 
Cooperative Threat Reduction (CTR) program in the Defense 
Department and the non-proliferation programs of the Department 
of Energy, the United States has secured tons of nuclear 
materials in the countries of the former Soviet Union.
    We have helped deactivate, dismantle, or destroy thousands 
of Russian nuclear weapons and delivery systems that once 
threatened our security. We have helped provide employment for 
hundreds of Russian scientists and engineers with expertise in 
building nuclear, chemical, or biological weapons and who 
otherwise might be tempted to sell that expertise to unfriendly 
nations, or even terrorist organizations. All of these efforts 
to reduce the dangers from nuclear, chemical, and biological 
weapons have directly contributed to our own national security.
    Today the United States has an opportunity to lead again by 
carrying out real reductions in the number of nuclear weapons 
in our arsenal and by reducing the incentives for other 
countries to build or keep nuclear weapons.
    In May 2000, President Bush recognized this opportunity for 
leadership when he said, ``America should rethink the 
requirements for nuclear deterrence. The premise of Cold War 
targeting should no longer dictate the size of our arsenal.''
    The United States has the opportunity to lead a safer 
world. The United States should be prepared to lead by example, 
because it is in our best interests and the best interests of 
the world.
    This would be an act of principled leadership, seizing the 
moment and beginning a new era of security, a new era of 
cooperation on proliferation and nuclear security.
    But I have to wonder if we are really providing the 
leadership needed to combat the proliferation of weapons of 
mass destruction and the means to deliver them. Are we setting 
an example for the rest of the world to reduce the threat of 
nuclear weapons or are we setting the opposite example?
    What kind of an example do we set for other nations when we 
say we are reducing our strategic nuclear stockpile to 1,700 or 
2,200 nuclear warheads, when what we really are doing is moving 
nuclear warheads from missiles and bombers to warehouses, where 
they could be quickly and easily brought back to service?
    What kind of an example are we setting when we say that we 
are studying ways to modify existing nuclear weapons, or even 
develop new nuclear weapons to give us new capabilities and 
options to use them, possibly in a preemptive manner in 
specific scenarios or against specific targets? Does that not 
signal to the world that there is a new and broader range of 
contingencies in which the United States would consider using 
nuclear weapons and, most significantly, that we are 
considering increasing rather than reducing our reliance on 
nuclear weapons?
    If we are unwilling to reduce our own nuclear weapons 
stockpile in a more meaningful way, and if we are looking at 
ways to make nuclear weapons more usable in future conflicts, 
does that not reduce our standing to persuade other countries 
to reduce their nuclear arsenals, or to forego the development 
of a nuclear capability, or to refrain from transferring 
nuclear weapons technology? ``Do as I say, not as I do'' has 
never been a very effective way to influence the behavior of 
other countries. It is not leadership by example. In my view, 
it is certainly not an approach that will make our Nation more 
secure when it comes to reducing the threat of nuclear weapons 
and the proliferation of weapons of mass destruction.
    I know, Secretary Abraham, that some of those issues are 
outside of your jurisdiction, but we will be glad to have your 
comments relative to any of them. I know there will be a number 
of questions relative to those issues since they are very 
prominent at this time.
    Senator Allard. Mr. Chairman?
    Chairman Levin. Senator Allard.
    Senator Allard. Mr. Chairman, I just visited with Senator 
Warner and he is going to be here momentarily. He had 
originally asked me to make his opening comments; now he has 
decided he is going to be here, so he'll make those opening 
comments.
    I have a few comments I would like to make as the ranking 
member of the Strategic Subcommittee.
    Chairman Levin. Sure.
    Senator Allard. I do not know exactly what your format is 
going to be this morning.
    Chairman Levin. We would be happy to either have those 
comments now or you can make them at your turn.
    Senator Allard. I will proceed now, if I may, Mr. Chairman.
    Chairman Levin. There are going to be a few of us, so I am 
going to call on each of us for an opening comment then.
    Senator Allard. That is fine, Mr. Chairman.
    Chairman Levin. Will that be all right with everybody?
    Secretary Abraham, please proceed.

    STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY OF ENERGY; 
 ACCOMPANIED BY DR. EVERETT BECKNER, DEPUTY ADMINISTRATOR FOR 
DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION; AND 
 AMBASSADOR LINTON F. BROOKS, DEPUTY ADMINISTRATOR FOR DEFENSE 
     NUCLEAR NON-PROLIFERATION, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Secretary Abraham. Mr. Chairman, thank you. First, let me 
thank you and the members of the committee for having me here 
today. I last testified before the committee at the time--
actually after my confirmation, but in what, I guess, we termed 
a confirmation-related hearing and I have appreciated, and I 
know our staff has and our team at DOE, working with your 
staffs as well as the members of the committee over the last 
year.
    Today I would like to just report a little bit on our 2003 
budget and would be glad to submit for the record my full 
testimony and make some comments here that might highlight a 
few of the important points of that.
    Chairman Levin. We appreciate that, and, of course, the 
full statement will be made part of the record.
    Secretary Abraham. Thank you. Before I begin I would just 
like to take a moment to express--although he is not here 
today, my appreciation and thanks to Gen. John A. Gordon, who 
heads up our National Nuclear Security Administration (NNSA).
    Upon my arrival at the secretary's post, General Gordon, of 
course, had already assumed his position as the administrator 
of NNSA. He has become a trusted friend and colleague during a 
very challenging time and I wanted the committee to know that I 
certainly appreciate him and I think we all at DOE appreciate 
the enormous contribution which he and his team are making to 
our national security.
    Two of those team members are here--with me today and--who 
have now been officially confirmed in their positions as deputy 
administrators at NNSA: Ambassador Linton F. Brooks, and Dr. 
Everett Beckner, who are respectively our deputy administrators 
for non-proliferation programs and defense programs. They are 
also very welcome and important additions to a very strong team 
that we have at the Department.
    This has been an eventful year for most every agency of the 
Federal Government, certainly for ours. A severe energy supply 
shortage confronted us our first day in office, as you all 
know, and heating oil, natural gas, and gasoline price spikes 
took place. Significant events have happened in the energy 
markets and, of course, the terrorist attacks of September 11 
all combined to make this an extremely challenging year for the 
men and women at the Department of Energy.
    I just want to comment here that certainly a lot of us in 
elected office, and I would join that group or be included in 
it, have from time to time raised concerns about the 
effectiveness of various government agencies. I was one who, as 
this committee noted when I appeared last year, had been 
critical of the actions at times of the Department of Energy. I 
am sure not every action that the Department takes will be 
viewed universally as ideal.
    But I would just like to pay special tribute to the folks 
at the Department. I have gotten to know a lot of them, career 
people who worked very hard for this country and who rose to a 
tremendous challenge this last year, both at our sites around 
the country in meeting some severe challenges, particularly 
after September 11, and the people at our headquarters. They 
really do a very good job, Mr. Chairman.
    Last October, I spoke to the Department's managers to 
address an issue that I think had been an overriding concern to 
some, which was whether or not this Department had a core 
mission and declarative mission. I spoke to them to emphasize 
that we do, and that that mission really is still very much 
wrapped around the topic of national security.
    Our national security mission has obviously appeared in the 
Department's national nuclear security activities, but it 
shapes our other programs as well.
    Our energy programs advance energy security, which is a 
critical part of national security. Our science programs 
contribute directly both to the technology base critical to 
today's military and to energy security as it looks over the 
horizon to sources that can increase our energy independence.
    Even our environmental management program, in my judgment--
by cleaning up the legacy of the Cold War and protecting 
communities and restoring the environment, plays an important 
role in furthering the broader objectives of the Department's 
security mission.
    To ensure that everything we do at the Department is 
consistent with our mission in national energy security, we 
have initiated no-holds-barred reviews of most of our key 
programs. Those reviews have and will continue to help guide us 
as we change and improve the way the Department of Energy does 
business.
    As a result, in no small measure of reviews already 
completed, we have this year's budget submission. So let me 
talk about that briefly.
    Mr. Chairman, you and the members of this committee have 
oversight of, as you indicated, two-thirds of the DOE budget. 
Our budget for 2003, our submission request totals $21.9 
billion, which is an increase from last year of $580 million, 
and that is the largest amount ever requested for this 
Department. Not counting the fiscal year 2002 supplemental, in 
fact, our increase is nearly a billion, and covers critical 
needs related to national security, energy, and the 
environment.
    Mr. Chairman and members of the committee, our Department 
has enormous responsibilities for safety here at home and for 
our national defense. Under DOE's defense programs, we maintain 
our nuclear deterrent through our Stockpile Stewardship Program 
(SSP).
    We also play a critical role in non-proliferation, counter-
terrorism, and homeland security, and we provide, of course, 
the power plants for our fleet of nuclear-powered submarines 
and aircraft carriers.
    Each of these areas sees budget increases in our 2003 
request. Overall, we are requesting just over $8 billion for 
NNSA, a $433 million increase over the 2002 level, signaling a 
major boost in support for security programs and a broader role 
for the agency in support of the administration's defense 
requirements.
    It also reflects a broadening scope of responsibilities for 
homeland security in the aftermath of September 11. For weapons 
activities, a subset of those programs, we are requesting $5.9 
billion, an increase of over $300 million from last year's 
level.
    Our budget supports a healthy Stockpile Stewardship 
Program, a comprehensive weapons certification program, and a 
robust infrastructure for nuclear weapons production.
    The highest priority of our stewardship program is ensuring 
the readiness of nuclear weapons through maintenance, design, 
life extension and manufacturing, and funding for the Directed 
Stockpile program will increase by 18 percent.
    We have also begun a concerted and, believe me, a much 
needed effort to address a serious maintenance and 
modernization backlog at our various facilities. After years of 
neglect, our scientists and engineers are forced to work in 
buildings where literally ceilings can fall in on them. This is 
a disgrace.
    Consequently, we are requesting a 23 percent increase over 
last year's appropriated level, a boost of about $46 million, 
which will provide $243 million for infrastructure 
modernization as part of a longer-term plan to get the 
facilities into appropriate condition.
    For non-proliferation-related activities, we are requesting 
over $1.1 billion, the highest amount at which these programs 
have ever been funded. When we came into office, we began 
working closely with the White House to review these non-
proliferation programs with an eye toward a new comprehensive 
non-proliferation objective and program.
    Presidents Bush and Putin further shaped that agenda when 
they met and agreed to share information and expertise to 
counter bio-terrorism, improve protection and accounting of 
nuclear materials, and prevent illicit nuclear trafficking.
    Shortly after the Bush-Putin agreement, I met with my 
Russian counterpart, Minister of Atomic Energy Alexander 
Rumyanstev, to discuss how we could accelerate, perfect, and 
expand cooperative measures on material security and 
accountability. I believe our meeting was a major success. We 
agreed on the need for greater cooperation, improved steps for 
protection of dangerous materials, enhanced safeguards of 
fissile materials, and ways to boost safety and security in the 
peaceful use of nuclear energy. This administration is fully 
committed to the success of this deepening cooperation in this 
area.
    We are asking for $800 million to support our non-
proliferation programs with Russia, an increase of $115 
million, 17 percent above the 2002 appropriated level.
    The Department is also on the cutting edge of homeland 
security and energy assurance. To that end, we have requested 
$283 million for non-proliferation research and development, 
and $27 million for an expanded energy security and assurance 
effort.
    Additionally, our outstanding naval reactors program, which 
supports the submarines and carriers now on station around the 
world, remains a critical part of our security mission. We are 
requesting over $700 million for this program, an increase of 
about $19 million.
    Finally, I know there have been concerns expressed about 
security for our facilities. Our 2003 request attempts to 
address this. For all safety and security programs, the request 
totals in excess of $1 billion.
    Let me also say a word about our EM programs. Mr. Chairman, 
EM is one of the Department's most important tasks. When I came 
into office last year, I was presented with the old plan for 
cleaning up our weapons sites, which called for a timetable of 
about 70 years to complete at a cost of up to $300 billion.
    I think this committee would agree with me that the 
citizens in the communities where these sites are located and 
the taxpayers deserve a better plan than that. At the time, the 
question seemed quite simple: Do we follow that course, or seek 
something better?
    Immediately upon their confirmations, I have asked our 
under secretary and our assistant secretary for environmental 
management to conduct a top-to-bottom review of our 
environmental management programs, with the goal of expediting 
cleanup in these various sites to try to reduce that time 
dramatically, from 70 years to something which would give the 
citizens in these communities a chance to see, in their own 
lifetimes, the completion of these programs.
    That report review is now complete. We propose in this 
budget a request of $6.7 billion for this program at this time 
in fiscal year 2003. That budget has two categories; one for 
basic funding at every site; and then an $800 million expedited 
cleanup account, out of which those sites who agree and come to 
an agreement with the Department to participate in a new 
approach would receive additional funds to begin to speed up 
the cleanup.
    This additional $800 million--this initial $800 million 
expedited cleanup account represents our current estimate of 
the number of agreements for accelerated cleanup that can be 
established with state and Federal regulators this year. 
However, we are ready to expand this account with more money in 
the fiscal year 2003 budget as we indicated in our budget 
document, should sufficient sites agree to move to expedited 
schedules to justify it.
    Mr. Chairman, the Department is strong and, I think, 
getting stronger. We have an extraordinarily talented and 
dedicated workforce, as I said, that has been ahead of the 
curve during a difficult and challenging year.
    As a department, I think we are poised to increase the 
contribution we make to the war on terrorism, to enhancing 
America's deterrents, to fulfill our environmental 
responsibilities, and to try to build a stronger foundation for 
energy security in the 21st century.
    Mr. Chairman, thank you very much. I appreciate the chance 
to be here.
    [The prepared statement of Secretary Abraham follows:]

               Prepared Statement by Hon. Spencer Abraham

    Mr. Chairman and members of the committee, it is a pleasure to 
appear before you today to discuss the Department's fiscal year 2003 
budget request for defense related programs.
    On September 11, our Nation changed as did our national security 
challenges. The Department of Energy's $21.9 billion budget responds to 
that change--in our focus as an agency and in the way we do business. 
This budget meets these challenges through investment in our national 
defense and in an important component of that, our Nation's energy 
security addresses the new security challenges we face as a Nation 
after the events of September 11, as well as increased concern 
regarding our dependence on foreign oil and the security and 
reliability of our critical energy infrastructure. This budget request 
also reflects the results and recommendations of several government-
wide and DOE internal policy reviews recently completed. The 
incorporation of these broad strategic and policy reviews into the 
fiscal year 2003 budget reflects our intention for serious reform in 
some important program areas and continue us on a course toward a 
comprehensive change in the way we do business.
  principles guiding the fiscal year 2003 department of energy budget
    Of the total fiscal year 2003 budget request of $21.9 billion for 
the Department, approximately 70 percent, or $15.4 billion, is for 
programs within the jurisdiction of this committee.
    In October 2001, I laid out for the Department's managers and 
employees a strong statement of mission and purpose and a series of 
principles to guide the Department's programs and operations. With an 
emphasis on measurable performance objectives and accountability, I am 
holding Department of Energy (DOE) managers responsible for ensuring 
the safety of our employees and the communities surrounding our 
facilities, respecting and observing the highest standards of security, 
and building a culture where merit determines promotion and diversity 
is viewed as key to recruiting and retaining the best people. My vision 
for excellence requires that we set priorities, discipline our focus, 
and measure everything we do by reference to our missions and 
priorities.
    To achieve this vision, the key is understanding our overarching 
mission. That mission, put simply, is national security. Our national 
security mission is readily apparent in the Department's National 
Nuclear Security Administration, but it is also inherent in our Energy 
and Science programs that advance the Nation's energy security, and in 
our Environmental Management programs that clean up our sites to ensure 
that legacies of the Cold War are resolved and meet our future 
responsibilities in a manner that protects the security and safety of 
the individual American taxpayer, our environment, and our future. An 
effort is underway to review DOE activities, including those at the 
national laboratories, to ensure they adhere to the Department's core 
mission and objectives.
    The Department is also addressing long-standing criticisms of DOE 
management and moving toward the administration's model as set forth in 
the President's Management Agenda. With an emphasis on measurable 
performance objectives and accountability, we are holding DOE managers 
responsible for making these changes. We have set priorities, 
disciplined our focus and will measure everything we do by reference to 
our missions and priorities.
    Last year's budget maintained the administration's flexibility to 
respond to government-wide policy reviews then underway, including the 
Department of Defense Nuclear Posture Review, the National Security 
Council reviews of U.S. deterrence requirements and nonproliferation 
programs, as well as an internal review of the Office of Environmental 
Management. These reviews are now complete, and the results and 
recommendations are reflected in the fiscal year 2003 budget request. 
We stand ready to work with you to address the recommendations from 
these reviews.
    In addition, we are implementing the President's Management Agenda. 
The President has called for an active but limited government, one that 
empowers States, cities, and citizens, ensures results through 
accountability, and promotes innovation through competition. The 
administration has targeted areas for improvement throughout the 
Federal Government. Our work to fully implement these initiatives will 
continue through fiscal year 2004 and beyond, but we have a path 
forward and are making changes now.
Human Capital
    In order to eliminate unnecessary layers of management, direct 
personnel to high-priority missions, address skill imbalances, and 
achieve a 5-10 percent savings in management expenses through 
comprehensive, creative management reform, DOE will accelerate 
workforce planning and work with the Office of Personnel Management to 
conduct complex-wide organizational surveys to analyze and evaluate DOE 
field and headquarters redundancies, fragmentation and duplication of 
effort.
Competitive Sourcing
    We are initiating formal competitive sourcing reviews under the 
provisions of Office of Management and Budget Circular A-76 on 
approximately 1,000 positions. In addition, line managers are planning 
other reviews that may lead to formal studies. The longer-term goal is 
to conduct reviews on 50 percent of the Department's inventory of 
Federal positions that are not inherently governmental.
Improved Financial Management
    We will continue to build on the Department's unqualified audit 
opinion on the consolidated financial statements and work to integrate 
better financial, budget, and program information in order to provide 
costs information related to performance. Key to the success of this 
initiative is the completion of the Financial Management module of the 
Department's Corporate Management Information System (CMIP).
E-Government
    To make better use of computer information systems to improve 
management, promote efficient use of resources, and make our systems 
provide more people friendly information, the Department will 
strengthen its Information Technology investment portfolio by linking 
investment control processes, using enterprise architecture, and 
improving security policies and capital planning.
Budget and Performance Integration
    We have strengthened the Department's ability to measure 
performance by establishing the Program Analysis and Evaluation Office 
and developing a 5-year planning, programming, budgeting and evaluation 
process for the entire Department. Building on the integration of 
performance metrics into our fiscal year 2003 budget submission, we are 
improving the performance measures contained in our fiscal year 2003 
budget request and will continue to improve performance measures and 
their integration into the fiscal year 2004 budget. These improvements 
will provide clear, quantifiable outcomes to support budget requests.
    Now I will turn to the details of the Department's fiscal year 2003 
budget submission for defense related programs.

                NATIONAL NUCLEAR SECURITY ADMINISTRATION

    The National Nuclear Security Administration (NNSA) is in its third 
year of implementation. Created by Congress to respond to the changing 
and complex set of challenges in the national security environment, 
this year the NNSA takes on a national security role in a way Congress 
could not have envisioned. The fiscal year 2003 budget request for 
programs within the NNSA totals $8.0 billion, a $433 million increase 
over the fiscal year 2002 appropriation, and includes:

        <bullet> Weapons Activities ($5.9 billion)
        <bullet> Defense Nuclear Nonproliferation ($1.1 billion)
        <bullet> Naval Reactors ($708 million)
        <bullet> Office of the NNSA Administrator ($348 million)

    The administration's national security strategy is transforming to 
meet the threats of the 21st century. The NNSA is intimately involved 
in the formulation of the administration's strategy through 
participation in the Strategic Review, Nuclear Posture Review and the 
review of nonproliferation programs. We have accelerated research and 
development into technologies to detect and deter weapons of mass 
destruction. We responded swiftly and comprehensively to the terrorist 
events of September 11, protecting our valuable national security 
assets and employees, and offering our unique capabilities to the 
national response. We have contributed directly to the homeland 
security needs of Governor Ridge with our technology and scientific 
staff. Work such as this will extend into fiscal year 2003 and beyond.
    While policies and priorities established by the administration and 
Congress will determine the scope of our work over the years to come, 
nuclear deterrence remains the cornerstone of our national defense 
strategy for the foreseeable future. The NNSA will also be deeply 
involved in arms reduction and nonproliferation activities, and will 
make significant contributions to the administration's new 
capabilities-based national security strategy that requires us to 
maintain our military advantages in key areas while developing new 
capabilities. The NNSA will continue to be involved in the Nation's 
homeland security efforts. The Naval Reactors program will continue to 
be responsible for all naval nuclear propulsion work.
    The NNSA faces major challenges during the next 5-year period in 
responding to evolving customer requirements while maintaining and 
improving the health of the Nation's national security enterprise. The 
expanded focus on international terrorism following the September 11 
attacks underscores the importance of maintaining a strong capability 
in the science and technology of national security.
    NNSA's ability to perform its national security functions depends 
upon renewing our internal capabilities. As we conduct our daily 
technical work of maintaining the reliability, safety, and security of 
the Nation's nuclear weapons and developing the scientific tools 
necessary to perform our work, we need to ensure that our national 
security enterprise remains capable. Both the physical and intellectual 
infrastructure of the national security enterprise were built during 
the era of underground nuclear testing, and have eroded to the point 
that we are no longer able to perform some essential tasks. It is 
imperative that we address these issues during the upcoming 5-year 
period. NNSA's program and budget planning emphasizes maintaining an 
adequate workforce of scientific, technical and business skills, and 
building a diverse, multi-talented leadership. We must be able to 
recruit, train, and develop quality employees throughout our 
organizations in a highly competitive employment environment. We must 
implement our plans to renew the physical infrastructure to ensure 
adequate capability and capacity as well as compliance with 
environment, safety, health and security standards.
    Another key element to NNSA's ability to perform its national 
security functions is an organizational plan to achieve greater 
effectiveness and efficiency. Last month, Under Secretary John Gordon 
submitted NNSA's ``Report to Congress on the Organization and 
Operations of the NNSA'' describing our accomplishments to date and our 
strategy for operating an integrated national security enterprise.

                           WEAPONS ACTIVITIES

    In spite of the many challenges we are facing, the NNSA has 
continued to meet the core Stockpile Stewardship mission--that is to 
maintain the safety, reliability, and performance of the nuclear 
stockpile to meet national security requirements.
    As stated earlier, the NNSA actively participated in the strategic 
reviews of national-security related activities conducted by the 
administration. Participation by NNSA ensured that the choices, plans, 
and requirements being developed were within the realm of the technical 
and production capabilities of the NNSA. It also increased the 
awareness of our issues and technical capabilities by the 
administration's national security senior management team.
    While there are many important points and conclusions in the 
Nuclear Posture Review (NPR) including the goals to reduce 
operationally deployed nuclear weapons to between 1,700 and 2,200 by 
calendar year 2012 and the maintenance of a ``responsive force'' for 
use as a hedge against unforeseen problems, several points are of 
particular relevance to the NNSA:

        <bullet> First, nuclear weapons, for the foreseeable future, 
        remain a key element of U.S. national security strategy. The 
        NPR reaffirms that NNSA's science-based Stockpile Stewardship 
        Program is necessary to assure the safety and reliability of 
        the nuclear stockpile in the absence of nuclear testing. This 
        includes basic surveillance of our aging weapons, systems 
        refurbishment, chemistry and metallurgy of materials aging, 
        detailed understanding of weapons physics, reestablishment of 
        warhead advanced concepts teams, and development of additional 
        diagnostic and predictive tools for long-term stewardship. The 
        NPR revalidated the stockpile refurbishment plan previously 
        developed and approved by the NNSA and the Department of 
        Defense.
          The fiscal year 2003 budget request for Directed Stockpile 
        Work is $1.2 billion, an increase of $190 million, or about 18 
        percent over last year. Principally, this increase allows us to 
        support life extension activities for the W80, W76, and B61 
        warheads, including supporting research and development and 
        additional hydrodynamic testing for assessment and 
        certification. Also, $2.1 billion is requested for the 17 
        scientific and engineering campaigns that provide the 
        knowledge, technologies and capabilities to address current and 
        future stockpile issues.
        <bullet> Second, more than any previous review, the NPR's 
        concept of a new triad emphasizes the importance of a robust, 
        responsive research and development and industrial base. This 
        calls for a modernized nuclear weapons complex, including 
        contingency planning for a Modern Pit Facility, which will 
        provide the Nation with the means to respond to new, 
        unexpected, or emerging threats in a timely manner. The fiscal 
        year 2003 budget request supports our industrial base in two 
        key ways: a request of $1.7 billion for Readiness in Technical 
        Base and Facilities, a 10 percent increase supporting the 
        operations of weapons complex facilities; and, a $243 million 
        request for the Facilities and Infrastructure Recapitalization 
        program to continue this important multi-year initiative into 
        its third year.
        <bullet> Third, a study examining the aspects of reducing test 
        readiness lead time below the 24 to 36 month requirement for a 
        fully diagnosed test--the NPR states that the lead time needs 
        to be shortened out of prudence, not because there is a current 
        need to test. In fiscal year 2002, the NNSA and the DOD will 
        study the optimum test readiness time that best supports the 
        new triad as directed by the NPR. Pending the outcome of the 
        study, the fiscal year 2003 request includes $15 million for 
        Enhanced Test Readiness activities at the Nevada Test Site.
        <bullet> Finally, the NPR calls for a stable, adequately funded 
        Future Years Nuclear Security Program (FYNSP). The NNSA's costs 
        will not be reduced in the immediate future as a result of NPR. 
        Near-term costs are driven by restoring production capabilities 
        and revitalizing the infrastructure, not by the number of 
        warheads in the stockpile or even the number to be refurbished. 
        In fact, we expect that cost savings from refurbishment of a 
        smaller number of weapons will not be realized until about 
        fiscal year 2010. The NNSA enterprise's capacity will be 
        stretched, approaching maximum capacity while our systems are 
        on the process line for refurbishment, thereby limiting our 
        ability to dismantle significant numbers of weapons over the 
        next 10 years. The FYNSP document is in final preparation and 
        is expected to be provided shortly.

    Another result of the conduct of the NPR has been improved 
cooperation and coordination between the NNSA and DOD. The Nuclear 
Weapons Council is working, policy levels between the agencies are 
effective, and the DOD has offered strong support for needed programs 
in NNSA.
    In addition to the activities discussed above, the fiscal year 2003 
budget request for the Stockpile Stewardship Program will support:

        <bullet> Assessment of manufacturing concepts for a Modern Pit 
        Facility.
        <bullet> Production of tritium in Tennessee Valley Authority 
        reactors beginning in fiscal year 2003.
        <bullet> Manufacture of a certifiable pit, and the capability 
        to certify a pit by 2009 with the goal of achieving an earlier 
        date of 2007.
        <bullet> Maintenance of ability to conduct underground testing.
        <bullet> Complete National Ignition Facility internal 
        infrastructure required for ``first light'', eight beam, 
        stockpile stewardship experiments in fiscal year 2004.

                      NONPROLIFERATION ACTIVITIES

    At $1.114 billion, the fiscal year 2003 budget request for 
nonproliferation related activities is the highest at which these 
programs have ever been funded.
    When I came into office I began working closely with the White 
House to review our cooperative assistance programs with Russia. It was 
important that nonproliferation programs were responsive to the new 
strategic environment being shaped by Presidents Bush and Putin. At the 
Crawford summit, the two Presidents called for improved cooperation 
with respect to the protection and accounting of nuclear materials, and 
the prevention of illicit nuclear trafficking.
    Shortly after the Bush/Putin summit, I met with Russian Minister of 
Atomic Energy Rumyanstev to accelerate and expand cooperative measures 
on materials security and accountability. This meeting with the Russian 
minister was a major success. Agreement was reached on the need for 
greater cooperation, improved steps for protection of dangerous 
materials, enhanced safeguards of fissile materials, and ways to boost 
safety and security in the peaceful use of atomic energy. The 
administration is fully committed to the success of this deepening 
cooperation.
    This commitment is reflected in the diversity of our programs to 
address non-proliferation concerns in Russia and indeed, throughout the 
world. NNSA uniquely integrates technical and policy expertise to guide 
and implement the full range of U.S. nonproliferation priorities and 
initiatives. Whether ensuring that former Russian weapons experts are 
able to put their skills to use on peaceful and commercial initiatives, 
reducing the footprint of Russia's ``closed'' nuclear cities, or 
leading on-the-ground programs to secure at-risk nuclear materials in 
Russia, North Korea, or elsewhere, NNSA is at the forefront of U.S. 
efforts to halt the proliferation of weapons of mass destruction and 
advance U.S. nuclear security interests. As a scientific organization 
and working closely with our national laboratories, NNSA brings to the 
table unique assets that have allowed us unprecedented access to 
foreign scientific communities. In Russia and other former Soviet 
states, for example, the great strides that have been made to secure 
nuclear materials and WMD expertise or improve reactor safety are made 
possible by the access NNSA has to its counterpart organizations in 
these countries.
    The administration's strategic review of NNSA's nonproliferation 
programs with Russia confirmed the importance of these programs and 
resulted in a significant policy change reflected in the fiscal year 
2003 budget request. In January 2002, the administration announced 
plans to proceed with a workable, technologically possible, and 
affordable approach to disposal of surplus U.S. plutonium. The United 
States plans to dispose of 34 metric tons of surplus weapons grade 
plutonium by turning the material into mixed oxide fuel (MOX) for use 
in commercial nuclear reactors. This decision follows a review by the 
administration of alternative technologies to dispose of surplus 
plutonium to meet the nonproliferation goals agreed to by the U.S. and 
Russia while making the program less costly and more effective.
    In September 2000, the U.S. and Russia signed the Plutonium 
Management and Disposition Agreement committing each country to dispose 
of 34 metric tons of surplus weapons-grade plutonium each, in rough 
parallel. With the U.S. decision, we will be able to move forward on 
meeting our obligations under this agreement.
    Previously the U.S. government endorsed a dual-track approach to 
dispose of the plutonium by turning some of the material into MOX 
reactor fuel and immobilizing the remaining plutonium for long-term 
storage. Eliminating immobilization from the disposition pathway saves 
nearly $2 billion in life cycle funding, decreases plutonium storage 
costs, and facilitates closure of the former nuclear weapons complex 
sites. Importantly, the MOX fuel technology is proven, having been used 
by European countries in their reactors for more than 20 years.
    The MOX conversion process is expected to cost $3.8 billion over 20 
years, including the construction of new disassembly and fuel 
fabrication facilities at the Savannah River Site in South Carolina. 
Construction of the facilities is set to begin in fiscal year 2004. The 
Department of State and the NNSA will work with their counterparts in 
Russia to achieve the disposition of Russian surplus weapons-grade 
plutonium through the MOX process. Bilateral cooperation and 
inspections will assure progress and compliance with the agreement. The 
fiscal year 2003 budget request for the Fissile Materials Disposition 
program, including both Operating and Maintenance and Construction 
funding, is $384 million.

                    SECURITY AND COMBATING TERRORISM

    The NNSA employees and assets responded aggressively and 
immediately in the aftermath of the terrorist attacks on September 11, 
2001. Specifically, the NNSA:

        <bullet> Strengthened physical security at our sites to assure 
        the safety and security of nuclear weapons, the weapons complex 
        and its employees, special nuclear material and other high 
        value assets in custody of NNSA.
        <bullet> Provided technical assets and staff to aid in the 
        recovery efforts in New York City and at the Pentagon.
        <bullet> Worked closely with intelligence and law enforcement 
        by providing NNSA experts in their facilities, on the working 
        groups, on the White House Counter Terrorism Task Force, and in 
        the Office of Homeland Security.
        <bullet> Began studies to analyze the potential of high-energy, 
        high-velocity attacks at key nuclear material and nuclear 
        material storage locations.
        <bullet> Established NNSA's Combating Terrorism Task Force to 
        coordinate a systematic review of twelve key areas of NNSA 
        security and operational responsibilities to recommend 
        immediate improvements.
        <bullet> Established a working group, drawing from all the work 
        at NNSA facilities, to define what capabilities we can bring to 
        bear on the problems at hand, and not just in the nuclear 
        arena. NNSA has capabilities in many technical areas ranging 
        from chemical/biological weapons to sensors, to aircraft and 
        airport security. In the area of sensors, we have the best 
        capability in the world and are working to promote greater 
        integration across our research and development programs.
        <bullet> Responded to the changed threat by joining with the 
        DOD in an immediate review of the ``design basis threat.''
        <bullet> The NNSA laboratories are being used to improve 
        homeland security in ways that are not perhaps fully recognized 
        by the public. The laboratories develop advanced technologies 
        that detect chemical, biological and nuclear agents. These 
        technologies help protect us today. Chemical and biological 
        technologies and agents developed by the NNSA laboratories were 
        used to help clean up the congressional office buildings of 
        anthrax.

    In the aftermath of the September 11 attack, the NNSA efforts 
required substantial additional funding in order to achieve a safer 
security posture. This needs to be considered when making comparisons 
between the fiscal year 2003 request and the total fiscal year 2002 
available funds. The fiscal year 2002 emergency supplemental 
appropriation for terrorism related activities provided $357 million to 
the NNSA. Weapons Activities Safeguards and Security program received 
$106 million to hire and train additional protective force personnel, 
initiate physical security upgrades, and to address cyber-security 
infrastructure upgrades. The Secure Transportation Asset program 
received supplemental funding of $25 million to enhance security 
against the emerging threat.
    The Defense Nuclear Proliferation program account received $226 
million in supplemental funding to accelerate priority efforts in 
Nonproliferation Research and Development, International Nuclear 
Materials Protection and Cooperation, International Nuclear Safety and 
Cooperation, and additional Federal staffing.
    The fiscal year 2003 budget request continues to emphasize NNSA's 
security and nonproliferation programs. The Weapons Activities 
Safeguards and Security program request is $510 million. This allows 
for continued enhancements to protective forces and security systems. 
The National Center for Combating Terrorism at the Nevada Test Site is 
separately requested in fiscal year 2003 at $10 million.

             FACILITIES AND INFRASTRUCTURE RECAPITALIZATION

    Improving the condition of the nuclear weapons complex facilities 
and infrastructure remains a priority effort. Your support for these 
efforts is both necessary and timely. The restoration, revitalization, 
and rebuilding of the physical infrastructure is key to the maintenance 
of mission-capable facilities which contribute to credible nuclear 
deterrence. Recently, the NPR validated the findings of the NNSA 
regarding the condition of the complex and our path forward.
    Currently, Defense Programs acts in a landlord capacity and manages 
the complex day-to-day through its Readiness in the Technical Base and 
Facilities activities. From internal studies, we have determined that 
the complex deteriorates by about $200 million annually. To arrest this 
deterioration and eventually begin to improve the condition of the 
weapons complex, the NNSA established the Facility and Infrastructure 
Recapitalization Program. The fiscal year 2003 budget request places a 
high priority on this activity, with a request of $243 million--a 23 
percent increase over the fiscal year 2002 level.
    The budget also includes a corporate facilities management program 
that complements the infrastructure spending and addresses a major 
concern regarding responsible fiscal accountability. We have instituted 
Ten-Year Comprehensive Site Planning, established industry standard 
performance measures, and accurate reporting measures that now provide 
for measuring progress.
    The recapitalization program will focus on working off maintenance 
backlogs, prioritized to reduce or eliminate the risk of unplanned 
operational downtime due to equipment failure, extend the expected 
effective life span of equipment, optimize facility efficiencies, and 
repair, renew and refurbish existing structures. Also, the program 
supports dismantlement and removal of deactivated facilities and 
infrastructure that are excess to current and future mission 
requirements, and infrastructure planning activities to prepare and 
develop necessary plans for the execution of outyear Facilities and 
Infrastructure Recapitalization Program projects.
    The condition of the nuclear weapons complex is poised for 
improvement across its eight sites. The response has been substantial. 
The NNSA will continue this initiative until the complex has restored 
lost capabilities, modernized other capabilities, and is sound, safe, 
and secure.

                             NAVAL REACTORS

    The Naval Reactors program, which supports the nuclear powered 
submarines and carriers now on station around the world, remains a 
critical part of the national security mission. This program is 
requesting the smallest increase in the NNSA's fiscal year 2003 budget. 
We are requesting $707 million, an increase of about 3 percent. The 
increase will help to maintain the constant progress and consistent 
contribution to the Nation's nuclear deterrent force that we have come 
to rely upon from the Naval Reactors program. The small increase above 
inflation is primarily for work to bring the dry spent fuel storage 
facility in Idaho online while continuing Naval Reactors activities to 
ensure the safety and reliability of the 102 Naval reactor plants, 
upgrade and improve existing reactor plants, and develop new reactor 
plants.

                      OFFICE OF THE ADMINISTRATOR

    The budget request for the Office of the Administrator is 6 percent 
higher than the fiscal year 2002 appropriation--a $21.2 million 
increase. This account provides corporate direction and oversight of 
NNSA operations consistent with the principles of protecting the 
environment and safeguarding the safety and health of the public and 
the workforce of the NNSA. The fiscal year 2002 Energy and Water 
Development Appropriations Act consolidated the program direction funds 
from weapons activities and defense nuclear nonproliferation within the 
Office of the Administrator appropriation. The Naval Reactors program 
direction and the Secure Transportation Asset program direction retain 
separately funded program direction accounts. The increase in the 
Program Direction budget supports annual cost-of-living increases in 
salaries and benefits while support services and other related expenses 
remain at their fiscal year 2002 program levels.

                       NNSA ORGANIZATION STANDUP

    At the beginning of this testimony, I noted that management reforms 
are underway and they include the NNSA organization. Under Secretary 
Gordon approached an NNSA organization standup by implementing a two-
phase plan. The first phase, essentially complete, focused on creating 
an integrated Headquarters organization, and defining the structural 
relationship between the Federal elements at Headquarters and the field 
locations. The second phase focuses on realigning our field structure 
and improving efficiencies through eliminating overlaps in 
responsibilities within the Federal structure and reducing unnecessary 
administrative burdens placed on those performing the mission.
    Last month, the Department submitted a ``Report to Congress on the 
Organization and Operations of the NNSA'' describing accomplishments to 
date, a plan for assigning roles and responsibilities to and between 
Headquarters and field organizational units, and the strategy for 
operating an integrated national security enterprise.
    The recently released report summarizes the first-ever NNSA 
Strategic Plan, provides a detailed plan for assigning roles and 
responsibilities between Headquarters and field elements, and discusses 
our objectives in fiscal year 2002 and beyond. We plan to eliminate a 
layer of management and oversight over the nuclear weapons complex by 
removing the Operations Offices from the NNSA chain of command and 
converting these offices to service centers providing support services 
such as procurement and human resources. Each of the eight NNSA 
contractors will report to eight site offices which will in turn report 
to the Administrator. This locates NNSA support, decision making and 
oversight close to the contractor, consolidates service functions, and 
allows staff reductions downstream.
    Contract and project management will rest with each NNSA site 
office. Integration of weapons production activities will be performed 
in Albuquerque, New Mexico. Headquarters staff will continue to be 
responsible for program planning, budgeting, policy development, and 
management of weapons research and development and nonproliferation 
activities.
    NNSA will launch a systematic re-engineering campaign to reduce the 
number of separate offices and layers of Federal management, reduce the 
overall number of Federal employees, and correct skills mismatches. 
Federal staff not performing core functions will be redeployed and 
retrained as necessary. We intend to use incentives to encourage 
higher-than-average attrition, career development, and retention of 
highly skilled employees to right-size and reinvigorate our staff.
    We will need your support in funding the Office of the 
Administrator Program Direction request of $348 million to implement 
the re-engineering campaign. Successful re-engineering cannot be 
accomplished without adequate resources to retain highly skilled 
employees, retrain employees with skills mismatches, recruit the right 
technical skills, and to cover the significant costs associated with 
separation incentives.
    NNSA has instituted an Administrative Workload Reduction Initiative 
using comprehensive input from the laboratories and plants, with task 
forces identifying specific improvement and reducing administrative 
burdens. As a result, NNSA contractors will be given clearer and more 
consistent expectations. They will also continue to comply with all 
environment, safety and health and security policies.
    When these changes are fully implemented, we will realize the goals 
set by Congress in establishing the NNSA. By clearly defining roles and 
responsibilities, we will increase accountability and reduce 
duplication. By reducing administrative burdens on the NNSA 
contractors, we will operate more efficiently and hold the contractors 
accountable for delivering on our expectations.

                        OTHER DEFENSE ACTIVITIES

    The fiscal year 2003 request for Other Defense Activities is $472 
million which is allocated as follows:

        <bullet> Energy Security and Assurance ($27.7 million)
        <bullet> Office of Security ($187.2 million)
        <bullet> Intelligence ($41.6 million)
        <bullet> Counterintelligence ($46.1 million)
        <bullet> Independent Oversight and Performance Assurance ($22.6 
        million)
        <bullet> Defense Environment, Safety and Health ($99.9 million)
        <bullet> Worker and Community Transition ($25.8 million)
        <bullet> National Security Programs Administrative Support 
        ($25.6 million)
        <bullet> Office of Hearings and Appeals ($3.1 million)

    Of prime importance is $27.7 million requested for Energy Security 
and Assurance, an essential, expanded national security program to help 
reduce America's energy supply vulnerability from severe disruptions 
due to natural or malevolent causes. An additional $2 million is 
requested in the Departmental Administration account for Energy 
Assurance policy analysis in the Office of Policy and International 
Affairs. The program will work in close cooperation with the private 
energy sector by providing technical expertise to correct or mitigate 
disruption vulnerabilities, plan for response to and recovery from 
disruptions, and provide technical response support during energy 
emergencies. The tragic events of September 11 justify the need for 
this program aimed to protect our Nation's critical energy 
infrastructure.

                    SAFEGUARDS AND SECURITY CROSSCUT

    The Department's request for Safeguards and Security is $1.01 
billion. Excluding fiscal year 2002 supplemental appropriations that 
provided one-time funding of $108.5 million to bolster security in the 
aftermath of the September 11 attacks, the fiscal year 2003 request is 
7.0 percent higher than the fiscal year 2002 enacted level. The fiscal 
year 2003 request reflects both increased and decreased safeguards and 
security needs. In particular, increased requirements in the NNSA are 
reflected in a $61.1 million increase over fiscal year 2002 funding 
level, excluding supplemental appropriations, or a 13.6 percent 
increase. Reduced safeguards and security requirements in Environmental 
Management Defense Facilities Closure Projects are reflected in a 31.2 
percent decrease commensurate with the planned removal of special 
nuclear materials from the Fernald and Rocky Flats sites, and 
completion of security upgrades in Miamisburg this year.

                    DEFENSE ENVIRONMENTAL MANAGEMENT

    The budget request for Defense Environmental Management activities 
totals $6.7 billion, including privatization, essentially the same as 
the comparable fiscal year 2002 appropriation. The budget request is 
composed of two parts: a base budget request and a new Environmental 
Management Cleanup Reform appropriation request of $800 million. Should 
this new program be successful, the administration is prepared to 
request additional funds for it in fiscal year 2003. The request 
consists of:

        <bullet> Defense Environmental Restoration and Waste Management 
        ($4.6 billion)
        <bullet> Defense Facilities Closure Projects ($1.1 billion)
        <bullet> Defense Environmental Management Privatization ($158 
        million)
        <bullet> Environmental Management Cleanup Reform ($800 million)

    The Environmental Management (EM) program was created in 1989 to 
safely manage the cleanup of the environmental legacy from 50 years of 
nuclear weapons production and nuclear energy research at 114 sites 
around the country. The program manages the remediation of sites 
contaminated by defense and civilian activities, and receives 
appropriations in separate defense and non-defense accounts. The 
current cleanup program is projected to cost in the area of $220 
billion and take 70 years to complete. Costs have continued to increase 
annually while schedules slip. Consequently, EM completed a top-to-
bottom review of the program to find ways to achieve greater risk 
reduction and cleanup more efficiently and cost effectively.
    The review indicates that the EM program has failed to 
significantly reduce the risk presented to the public and the 
environment by the Cold War's nuclear legacy. If the program continues 
along the present path, DOE will not accomplish the very goal EM was 
originally established to achieve, the cleanup of the former weapons 
complex and closure of sites with no continuing mission. The report 
describes the program's weaknesses and provides specific proposals for 
improving EM's performance. The goal is to quickly and markedly improve 
the program's performance in achieving cleanup and closure, and ensure 
that the Department is reducing risk to its workers, the public, and 
the environment. Over the next 18 months, the Department will pursue 
implementing proposals, many of which will require reaching new 
understandings with State and Federal regulators, as well as 
fundamental changes in how DOE conducts its business.
    Therefore, the EM fiscal year 2003 budget request has been 
structured to begin this process. But it is only a beginning and must 
be viewed as the first step in the transition between the program left 
by previous administrations and where the Department will head in 
fiscal year 2004 and beyond when the recommendations of the top-to-
bottom review are implemented. An integral part of the reform is EM's 
commitment to the President's emphasis on performance-based budgeting.
    The budget request will allow the program to continue to protect 
worker and public health and safety and the environment; continue 
surveillance, maintenance, and support activities needed to maintain 
waste, materials, facilities, and sites in a safe and stable condition; 
fully protect nuclear materials from terrorist threats; support 
accelerated cleanup and closure of the Rocky Flats Environmental 
Technology Site in Colorado, Fernald Environmental Management Project 
in Ohio, and the Mound Site in Ohio; achieve the increased numbers of 
shipments to WIPP, critical to meeting cleanup and closure goals; and 
continue to make progress in completing cleanup projects in accordance 
with existing approaches and under existing agreements.
    A major new aspect of this budget request that will begin the 
immediate implementation of the recommendations of the top-to-bottom 
review, is the new Environmental Management Cleanup Reform 
appropriation. The new account is designed to enable the Department, 
the states, and the American taxpayer to begin realizing the benefits 
of alternative cleanup by making funds available to those sites that 
both demonstrate their ability to realign to a more risk-based approach 
and that provide to DOE specific proposals that achieve greater risk 
reduction, faster. This account will provide the stimulus necessary to 
encourage DOE sites and headquarters, contractors, and state and 
Federal regulators to quickly forge agreements to enable more effective 
cleanup approaches. Once agreement is reached, funds will be made 
available from the Cleanup Reform Appropriation to fund these new 
approaches or supplement existing funding from the base budget.
    Consistent with the recommendations from the review, the EM budget 
also reflects a refocusing of the Science and Technology program to 
address specific, short-term applied technology needs for cleanup and 
closure. Longer-term and more basic research and technology activities 
will be transferred to the Office of Science. In addition, the Savannah 
River Ecology Laboratory will also be transferred to the Office of 
Science. The fiscal year 2003 request also includes the transfer of 
safeguards and security responsibility for Argonne National Laboratory-
West from the Office of Science to EM.

                     DEFENSE NUCLEAR WASTE DISPOSAL

    The Office of Civilian Radioactive Waste Management fiscal year 
2003 budget request is $527 million, an increase of $150 million above 
the comparable fiscal year 2002 appropriation. Within this total is 
$315 million requested for Defense related Nuclear Waste Disposal 
activities. The request supports my recommendation to President Bush 
that the Yucca Mountain site is scientifically sound and technically 
suitable for development as the Nation's long-term geological 
repository for nuclear waste. On February 15, 2002, after receiving my 
recommendation, President George W. Bush considered the Yucca Mountain 
site qualified for an application for the authorization of construction 
of a repository, and recommended the Yucca Mountain site to the U.S. 
Congress for this purpose. A repository at Yucca Mountain would help 
ensure America's energy and national security, homeland security, 
nuclear nonproliferation policy, secure disposal of nuclear waste, and 
ongoing efforts to clean up the environment at former nuclear weapons 
production sites.

                               CONCLUSION

    Mr. Chairman and members of the committee, this concludes my 
prepared statement. I will be glad to answer any questions you may have 
at this time.

    Chairman Levin. Well, thank you very much, Secretary 
Abraham.
    That last subject that you discussed, the environmental 
cleanup money, I would like to pursue it with you for a bit. 
The cleanup account, the $800 million, which you indicated you 
believe would represent all of the expedited agreements that 
could be reached during the upcoming fiscal year, you also 
indicated that you are ready to expand that next year for any 
additional expedited agreements that can be reached for 
cleanup.
    This is an important new initiative, if it is funded.
    Secretary Abraham. Right.
    Chairman Levin. What commitments do you have from the 
Office of Management and Budget (OMB) that they will, in fact, 
pursue that course? Because unless there is a commitment to do 
that, it seems to me we are right back in the same boat, where 
we are holding out promises to people who have been waiting a 
long time for cleanup but not following through with the funds. 
What is the OMB commitment to you, if any?
    Secretary Abraham. First of all, let me just clarify. The 
$800 million account for fiscal year 2003 submission could be 
expanded in this year and we are prepared to amend that request 
to expand it if more sites reach agreements with us than we had 
estimated.
    Chairman Levin. Expanded through a supplemental 
appropriation?
    Secretary Abraham. I think it could be that approach. It 
could possibly be that during the course before the final 
appropriations for this account are completed for 2003 we would 
reach more agreements and then acquiesce to a higher amount 
than we requested. I think that is open in terms of how we 
might proceed.
    Chairman Levin. But specifically and briefly, since we are 
going to be on a 6-minute round here, what is the OMB 
commitment to this program?
    Secretary Abraham. In future years, and I think that is 
really what you are asking, the administration is prepared to 
support funding for states who reach agreements consistent with 
the performance schedules contained in those agreements in 
future years. That gives predictability to these various 
communities that they will know not only what their 2003 number 
will be, but what we are going to request in subsequent years, 
because this road map will be quite clear.
    Chairman Levin. When you say the administration, you are 
specifically referring to the OMB?
    Secretary Abraham. I am.
    Chairman Levin. Thank you. On the issue of new nuclear 
weapons or modifications to existing nuclear warheads, has the 
Department of Energy been told by the Defense Department to 
work on the development of any new nuclear weapons?
    Secretary Abraham. What we have done, Mr. Chairman, is the 
following. I think that in the context of the Nuclear Posture 
Review and the other reviews that have been conducted by the 
Department of Defense, the identification of a particular 
challenge has taken place. That is the challenge of these hard 
deeply buried underground types of facilities.
    It is my understanding that a number of agencies within our 
Department, as well as at the Department of Defense, have been 
asked to examine a full spectrum of options available to defeat 
hardened and deeply buried targets. This spectrum includes all 
options ranging from conventional munitions to modified nuclear 
warheads.
    We have been asked to study what the potential is for the 
modification of weapons in our system to try to accomplish that 
objective. The DOE is not developing a new warhead. There is 
currently no military requirement for one. Any requirement for 
such a new warhead would, of course, have to be established by 
DOD and approved by Congress.
    At this point, we are studying the issue. Others who have 
different tools available to them are studying it in the 
conventional weapons context. My understanding is, at the end 
of that process all the different options will be studied 
before any decision would be made as to which approach to 
pursue in the future.
    Chairman Levin. When you say there is no requirement for 
the development of a new nuclear weapon, would you include in 
that that there is no requirement to modify or develop a 
modified existing nuclear weapon?
    Secretary Abraham. No. At this point we are studying this 
challenge, and----
    Chairman Levin. Both? Both a modification and new one?
    Secretary Abraham. Right. Right.
    Chairman Levin. But beyond the study, there is no 
developmental work going on?
    Secretary Abraham. Not at this point. As I said, and we are 
not the only folks studying how to deal with this challenge. 
Others in other areas of our defense programs, not in our 
Department but in others, are doing the same. I think that at 
some point all the options will be considered and some 
decisions as to which to move to additional stages will occur.
    Chairman Levin. Will that be which if any?
    Secretary Abraham. I am sorry, which?
    Chairman Levin. You noted that the stages will be moved 
too.
    Secretary Abraham. If any, yes. Currently, I mean we are 
assisting in two engineering, research and development 
assessments basically to examine--that are broad--to examine 
the full range of options for destroying hardened and deeply 
buried targets.
    Chairman Levin. Is there any specific money in the fiscal 
year 2003 budget request that was submitted by your Department 
relative to that study and examination?
    Secretary Abraham. I believe so. Let me just consult, if I 
could quickly here, with Dr. Beckner. [Pause.]
    Over $10 million.
    Chairman Levin. That is a specified account for that 
examination? There is a provision in law that says you may not 
conduct or provide for the conduct of research and development 
which could lead to production by the United States of a low-
yield nuclear weapon. That was a 1993 law, I believe. Are you 
complying with that law?
    Secretary Abraham. I believe we are, sir.
    Chairman Levin. You have a fiscal year 2003 plan for a 
robust nuclear earth penetrator. Would that require a nuclear 
test if it is going to be included in the stockpile?
    Secretary Abraham. At this time, no, not at all. I say 
again this is, I think, basically the same type of the study is 
the stage we are at. If at some stage that study were to be 
decided to be followed further, there would be a lot of 
additional steps involved.
    But as to whether--but we have not examined, nor is it even 
in the current discussion stages as to the issue of any kind of 
need for testing.
    Chairman Levin. Thank you. Before I call on Senator Inhofe, 
without objection, I have Senator Thurmond's statement to be 
inserted into the record at this time.
    [The prepared statement of Senator Thurmond follows:]

              Prepared Statement by Senator Strom Thurmond

    Mr. Chairman, I am truly pleased to welcome our former colleague 
Secretary of Energy Spencer Abraham to the Senate Armed Services 
Committee to testify on the posture of the Department of Energy and the 
adequacy of the fiscal year 2003 budget request. Mr. Secretary, by all 
accounts you have had an outstanding year.
    Mr. Secretary, last year when you appeared before this committee, 
the Plutonium Disposition program was undergoing a National Security 
Council review that called into question the future of the entire 
effort. At your direction the Environmental Management program was 
undergoing a ``top to bottom'' review. Additionally, the Panel to 
Assess the Reliability, Safety, and Security of the United States 
Nuclear Stockpile detailed worrisome signs regarding our nuclear 
arsenal. Finally, the Nation, especially California, faced the most 
significant energy crunch since the 1970s. What a difference a year 
makes.
    This year, as a direct result of your efforts, the Plutonium 
Disposition program is on solid ground. In fact, the fiscal year 2003 
budget request fully funds the revised program, which calls for burning 
34 metric tons of surplus weapons-grade plutonium here in the United 
States and in Russia as mixed oxide fuel. Not only does the program 
eliminate the possibility that these nuclear materials can ever be used 
in weapons but it ensures that Russia will eliminate enough plutonium 
to make more than 4,200 nuclear weapons. Moreover, you will save the 
American taxpayers $2 billion over the life of the Plutonium 
Disposition program, reduce peak-year funding, accelerate the 
completion of the program by 3 years, and reduce technical risks.
    Since your last appearance before the committee your ``top to 
bottom'' review of the EM program has been completed. The outcome of 
the review, better known as the Accelerated Cleanup Initiative, is the 
most significant breakthrough in the history of the EM program. You 
stated over a year ago that the program had taken too long and cost too 
much. In fact, the baseline estimates for the EM program suggested that 
it would ultimately cost more than $200 billion and take more than 70 
years to complete cleanup throughout the DOE complex. You projected 
that they could cut costs and they could accomplish the job of cleaning 
up these legacy materials more quickly.
    Again your vision has become reality. Just this past week, you 
announced the first accelerated cleanup agreement. Officials from 
Washington State and the Department of Energy agreed to a new schedule 
that will accomplish the cleanup of the Hanford Site 35 to 45 years 
sooner and billions of dollars cheaper than previously planned. In my 
home state, I have been advised that the Department of Energy will soon 
sign a similar agreement that will eliminate threats to the environment 
and ultimately save the American taxpayer billions for the cleanup of 
the Savannah River Site. I look forward to joining you in the 
announcement of this agreement. Moreover, I am aware that officials 
from your Department are reaching out at DOE sites across the Nation to 
accomplish this same accelerated cleanup. I look forward to hearing 
your comments on the progress of this truly worthy initiative.
    At this time last year, the Nuclear Posture Review was still a work 
in progress. In the meantime, the Strategic Subcommittee of this 
committee held a second hearing with the Foster Panel and the 
conclusions were startling. Now that the Nuclear Posture Review is 
complete and has reaffirmed that nuclear weapons remain a vital element 
of the U.S. National Security Strategy, I am pleased that you are 
working to guarantee the safety and reliability of the U.S. nuclear 
stockpile. Moreover, I am especially heartened to know that you are 
pressing ahead to reverse the deterioration of the nuclear weapons 
infrastructure and restore lost production capabilities. I believe this 
is the right course, however, I remain concerned with the pace of 
progress, especially with regard to a Modern Pit Facility. I hope you 
will address your decision to defer progress on this crucial facility 
for fiscal year 2003.
    Finally, 1 year ago energy prices were soaring, and concerns were 
mounting that a new energy crisis was upon us. While the energy crunch 
has passed, you are continuing to work toward the development of a 
comprehensive national energy strategy. Although not directly within 
the jurisdiction of this committee, clearly energy is a national 
security issue.
    I am especially interested in the success of your Nuclear Power 
2010 initiative. When you announced this initiative, you identified the 
Department of Energy's Idaho National Engineering and Environmental 
Laboratory in Idaho, the Savannah River Site in my hometown of Aiken, 
South Carolina, and the Portsmith site in Ohio, in addition to a number 
of private sites, as locations that would be considered for co-location 
of an advanced technology nuclear power plant.
    I firmly believe that utilizing Department of Energy facilities 
would mitigate any number of problems associated with building new 
nuclear plants. To begin with, there is no need to secure new land. In 
addition to the fact that this is already Federal property, in general, 
DOE facilities are large isolated areas that are highly secure. Also, 
individuals living near these locations are usually supportive of 
nuclear initiatives. They know that having a nuclear facility nearby is 
not a safety issue. As such, we avoid the ``not in my backyard'' 
syndrome. Finally, building new nuclear reactors on existing DOE 
facilities reduces the requirement for new infrastructure since 
companies would be ``leveraging'' against what already exists at these 
locations. This initiative is good government and I support it.
    Again, Mr. Secretary, welcome and congratulations on a truly 
remarkable year as Secretary of Energy. I look forward to your 
testimony.
    Thank you, Mr. Chairman.

    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your opening statement, 
because we went through quite an uncomfortable time with the 
Department of Energy in the previous administration. At that 
time, we had the opportunity to talk to a lot of people within 
the Department of Energy, and I share the statements that you 
made this morning about them.
    You have some really good people that are in there. I think 
some unfortunate things happened prior to Bill Richardson being 
Secretary of Energy that worsened those problems. So do you 
feel confident now that you can take full responsibility for 
what is happening at DOE and that there is a chain of command 
that is going to be more reliable than those in the past?
    Secretary Abraham. Well, from day one when I was in charge, 
we obviously are working very hard to try to do a couple of 
things to address this.
    We have begun to implement a number of management changes 
on a complex-wide basis. But also, because of the decision to 
create a semi-independent agency within the Department, the 
National Nuclear Security Administration, where General Gordon 
and I basically are working together to try to streamline the 
program systems that are operated as Congress, I think, 
intended so that we can bring up-to-date the effectiveness of 
the weapons development programs, and the various projects that 
are included under our non-proliferation agenda. I think we are 
making good progress on improving that by eliminating levels of 
management so that we really put program directors into an 
accountable position to produce their----
    Senator Inhofe. I know that is not the purpose of this 
hearing today, but I think it is important that we get that on 
the record, because I believe that is true, too. I appreciate 
it.
    In July 2001, we had Admiral Richard Mies, the Commander in 
Chief of the United States Strategic Command, testify. At that 
time, he talked about the difficulty in certifying the nuclear 
warheads with reasonable certainty--the words he used--by 2008, 
and in the years beyond that.
    He said that the answer depends on the success of the 
science-based Stockpile Stewardship Program. He also stated 
that the Department of Energy is required to certify, you are 
required to certify, the reliability and safety of the Nation's 
nuclear stockpile.
    Now, are you in a position to say that DOE has more 
confidence in our ability to certify warheads by the year 2008 
and beyond than Admiral Mies said you were at that time?
    Secretary Abraham. Well, much of the budget we have 
submitted is designed to support the science-based Stockpile 
Stewardship Program. One of its principal responsibilities, 
obviously, is to give us the capacity, for me to, along with 
the Secretary of Defense, to certify the reliability of the 
stockpile.
    That is, up to this point, the Secretaries of Energy and 
Defense have been able to do this annual certification. We have 
not quite finished the process for this year, but it is near 
completion. At this time, we have that capability, and I think 
we are confident that the investments we have been making give 
us the expertise for the foreseeable future to do that. Every 
year we make this assessment and, obviously, I do not think I 
have any more important responsibility in the job than to make 
sure that certification is accurate.
    Obviously, if we ever reached the point when we felt we 
could not certify the reliability of the stockpile, that would 
be a very serious situation for us.
    Senator Inhofe. I characterize this as a self-imposed 
moratorium on underground testing, and I would think at some 
point you are going to have to review that. I mean, out in the 
future, there has to be some date in the future where you lose 
confidence in the stockpile if no testing has taken place at 
all.
    Secretary Abraham. Well, if I could just sort of explain, 
the certification process is essentially an annual decision as 
to whether or not we have the ability to certify the 
reliability of the stockpile versus using tests as a way of 
doing that.
    It is very important obviously that we do that annually. So 
this is not a case where we will wait until 2008 and then make 
a decision as to whether we need to engage in testing. We do 
that every year and we are making, I think, progress in terms 
of the development of the science that allows us to continue 
for the foreseeable future.
    But, obviously, the stockpile will age and issues will come 
up. Every year through the program of surveillance we engage 
in, we do our best obviously to assess our ability to make that 
certification.
    Senator Inhofe. Yes, and I know that very likely something 
could happen in the future where it would become necessary 
again, but this is something that has been a little 
distressing.
    When we talk about the NPR, the Nuclear Posture Review, and 
the fact that we are going to be cutting our weapons down to 
about 2,000 from their current level and making changes inasfar 
as the Peacekeeper missile is concerned, and our commitment is 
related to the withdrawal from the ABM Treaty, which some of us 
on this panel think is long overdue, but nonetheless, it is 
going to happen on June 13. Since we currently have no defense 
capability against ballistic missiles, our primary defense 
against a nuclear attack would continue to be a nuclear 
deterrent, between now and the time that we do have something 
and that would be sometime in the future, certainly a few years 
from now.
    In the near term, is there a need to go beyond the modern 
facility that you have described to provide the Nation with the 
means to respond to new or unexpected threats in a timely 
manner?
    Can you explain why it is acceptable that we do not have a 
nuclear weapons manufacturing capability and the Russians do? I 
recognize this is a policy that was in place before you got 
there. They have that capability, and we do not. Do you have 
any thoughts about that?
    Secretary Abraham. Well, obviously, one of the programs in 
our stockpile system is designed to address exactly the issue 
of our capabilities at some future point to be able to 
manufacture certifiable plutonium pits.
    We will, I think, in this budget invest somewhere in the 
vicinity of $195 million in that program, which we right now 
are conducting at Los Alamos. The hope is to have a potentially 
certifiable pit in 2003 that will actually certify a pit for a 
particular weapon system by 2007.
    The need for a facility for production based on the current 
age and condition of the stockpile is a little further into the 
distance. But certainly we are in the planning stages of 
looking at what those needs would be, and obviously, because we 
do not have that production capability right now, it does have, 
I think, and I am sure, bearing on the decisions that are made 
with respect to the size of the stockpile some of these issues 
as to what happens when we take weapons out of the 
operationally deployable system.
    Senator Inhofe. Very good.
    Thank you very much.
    Chairman Levin. Thank you very much, Senator Inhofe.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, first of all, I want to compliment you on 
the attention that the Department of Energy is giving to this 
very serious problem of nuclear proliferation, and that is a 
compliment that comes after having had the Baker-Cutler report 
presented to the Foreign Relations Committee. Both of those 
distinguished gentlemen came and said that there is simply 
nothing more important than doing this. You seem to be 
implementing it.
    The Baker-Cutler report was critical of the management of 
the Nuclear Cities Initiative (NCI). I noticed that you have 
combined that with the Initiatives for Proliferation Prevention 
(IPP). That is in a budgetary item that has a 31 percent 
reduction this year compared to last year. Do you want to 
comment on that?
    Secretary Abraham. Well, first of all, it is correct that 
the the programs are being merged. There is a fair amount of 
similarity in the way the programs were administered, and it 
was our conclusion that at the end of doing a fairly extensive 
interagency evaluation of non-proliferation programs, which the 
National Security Council conducted last year, that these 
programs would be more effectively managed if they were 
together.
    What we then have done is to try to identify what is an 
appropriate budget level for this cycle. Now, the reduction you 
referred to, I think, is largely a function of the fact that we 
received a fairly significant, approximately $15 million, boost 
for these programs in the supplemental.
    It actually allowed us to conduct some work that would 
probably have been included, at least in terms of the 
feasibility of including it in the 2003 budget, which we are 
going to be able to conduct during the remainder of the 2002 
budget year. So because of that, if you take the enacted level 
prior to the supplemental and what we are requesting, they are 
fairly similar numbers, I think, a couple million dollars 
difference.
    But what it reflects is, I think, the program's estimate of 
what can be done in the 2003 period, given the issues that 
relate to access and relate to effective use of the money.
    Senator Bill Nelson. How do you plan to increase its 
effectiveness and the effectiveness of its management?
    Secretary Abraham. Well, first of all, we do have now 
sitting actually behind me, over my right shoulder, Ambassador 
Linton Brooks, who is the head of our non-proliferation 
programs. He has, I think, brought with his arrival a kind of 
leadership to the program and I do not know if you would like 
to comment at all on----
    Senator Bill Nelson. Yes, I would like a comment, please.
    Secretary Abraham. Maybe he would like to just say some of 
the managerial changes that he is going to make.
    Senator Bill Nelson. I would like to know, how do you plan 
to improve the management and the effectiveness of this 
program?
    Ambassador Brooks. Senator, we first have focused on 
eliminating duplication by common procedures, common 
administrative support, and a common superior.
    Second, we have focused the Nuclear Cities Initiative more 
narrowly, concentrating on the City of Sarov, and concentrating 
on our core mission of taking technologists and putting them to 
work in technology. So we have dropped some of the work we did 
that was community development in the past.
    Third, thanks to the Secretary's leadership, we have 
reached an agreement with the Russian Federation on access to 
the closed cities. The first test of that was this week, and it 
passed with a group going in for this kidney dialysis effort.
    Finally, we are attempting to--we have had great success in 
the Initiatives for Proliferation Prevention with the United 
States' industry coalition, and we are bringing them more into 
the business of looking at the Nuclear Cities Initiative, since 
the whole idea of this program is not for the government to 
spend money for a long time, but for the government to provide 
seed money for genuinely commercial efforts.
    Secretary Abraham. If I could just add, I think we have 
also tried to do a couple--by bringing the programs together, 
obviously there is a certain amount of management overhead, 
because we have put a common manager in charge of both 
programs.
    We have also--we very honestly are trying to do what I 
think Congress has asked us to do, and that is to maximize the 
fraction of the money we spend in Russia versus programs here 
in our laboratories.
    That is one of the other changes where we are trying to get 
more of the resources to where I think Congress intends them to 
be spent, rather than here in the United States on studying and 
programs in our own facilities.
    Senator Bill Nelson. Well, bottom line, is it working?
    Secretary Abraham. Well, we are literally in the first year 
of implementation. I feel at this point comfortable with this 
approach, and I think we are already seeing some success. Some 
of the issues that Linton mentioned have already taken, I 
think, a very positive turn.
    Senator Bill Nelson. Not in the first year of us trying to 
stop proliferation in Russia, nor all of the activities of 
trying to keep the scientists from being spirited away to other 
activities outside of Russia. I mean, bottom line, what is your 
impression of the overall effort at trying to contain nuclear 
proliferation over there?
    Secretary Abraham. Well, in a broad sense, I would have to 
answer it this way: We had in November, and I alluded to it in 
my testimony, very successful meetings as a follow-on to 
Presidents Bush and Putin's meetings here.
    Our counterparts at the Russian Ministry of Atomic Energy, 
and mine in particular, have, as a consequence of that, begun 
working very closely together with us. We have eliminated a 
number of access problems, which had made some of the 
accountability on programs more difficult as well as impeded 
our ability to secure facilities.
    On that front, I think we are able literally at this point 
to project the completion of a number of the security and 
safeguard efforts at both Naval, as well as other facilities, 
completion dates 2 years or more earlier than had originally 
been planned as a result of the progress we are making, and, of 
course, as a consequence of more funding available for it.
    We have, I think, the potential to even expand further. One 
of the interesting things that grew out of our meetings in 
November was a joint agreement between my counterpart and me to 
become personally engaged in clearing up issues that might slow 
down the process.
    I think sometimes, I mean, we have bureaucracies working 
with bureaucracies and if there is an impasse, it sometimes 
takes a long time to resolve. We did not think this set of 
programs could afford to wait a long time to resolve. We made 
it very clear to our teams that if there were problems, we 
wanted them brought to our attention immediately, so we could 
solve those on a ministerial level, if necessary.
    Interestingly enough, since we sent that signal, on each we 
have had enormous success in resolving impasses at the line 
level, and I think our willingness to become engaged is moving 
these programs ahead very vigorously.
    We will be meeting again, it looks like in early May, and 
on this occasion it will be in the United States. I am 
optimistic that we may be able to further expand cooperative 
efforts across the board in these programs. But it is, as the 
budget request suggests, as high a priority right now I have at 
least in terms of the focus I have on these programs.
    Senator Bill Nelson. Thank you, Mr. Chairman. You have been 
generous with your time. The thrust of my questions is, 
obviously, concern about a terrorist exploding a dirty bomb. 
Where do they get that material from? We will find out if this 
program is working or not on the basis of what we see.
    Thank you.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Warner.
    Senator Warner. Mr. Chairman, I will take my question 
period following my colleagues. I apologize, Mr. Secretary, I 
had to attend a meeting this morning on cyber-security, which 
is a matter of great importance to me.
    I thank Senator Allard for giving our opening comments, so 
I shall wait. Thank you.
    Chairman Levin. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Welcome, Secretary Abraham. It is always a pleasure to have 
you before the committee.
    You testified that you inherited an EM program that would 
take 70 years to complete. I want to commend you for 
recognizing that communities across this Nation should not have 
to wait 70 years for completion of this program and for your 
commitments to expedite it, both in terms of the agreements you 
have reached and also additional funding.
    Could you further comment on the likelihood that the 
program could be restructured in such a way as to substantially 
reduce the 70 years needed to complete the cleanup?
    Secretary Abraham. I would be glad to, and I appreciate 
having the chance to. We, as I said, encountered a plan that, 
to me, seemed unrealistic, because we all know how government 
budgeting processes work, at least at the Federal level. The 
idea of a 70-year-long program to us seemed not only unfair to 
the communities, but also unrealistic. So what we have done is 
conduct a top-to-bottom management review of every site to 
determine how we can significantly shorten the timeframe for 
dealing with ameliorating the most serious public health and 
safety risks.
    What we are doing, now that we have completed that, is to 
sit down side-by-side with local community government 
officials, regulators, and so on, to propose our expedited 
cleanup plan, and we are listening to them now, in part as we 
did this study, we listened to them, as well, but to now try to 
come to an agreement on what ought to be the new set of 
priorities.
    We have already had success in the State of Washington 
where a letter of intent between the Department and the 
Washington State regulators related to the Hanford site, 
probably the largest challenge we have in the complex right 
now, was just reached. The agreement there involves a variety 
of changes to the plan that had been in place before. Just to 
put it in a numerical sense, it means moving far more resources 
into Hanford in the immediate year and in the immediate period 
of years to begin quickly cleaning this up.
    In the long-term sense, it means we now believe that we can 
finish the work at hand not in 2070 as had been planned, but 
somewhere in the timeframe of 2025 to 2035, or a 35- to 45-year 
shortening of the time frame. We believe that, percentage-wise, 
that kind of expedited cleanup can happen at virtually all of 
our sites.
    What it means, though, is two things. We have to take more 
responsibility, and I have issued clear direction to our 
managers that we have a lot of responsibility to make this 
happen. It also means there will be more resources in the short 
run so that we can more quickly clean up the problems, because 
a lot of these long-term costs were just maintenance and 
security at the site, because it was going to take so long.
    But, third, we also expect the sites to recognize that when 
the cleanup is done, they cannot expect as much budget as the 
previous year, because the work is completed. That is going to 
require some changing and thinking as well.
    When people look at our budget in the future, they are 
probably going to see, in the first few years, increases in 
environmental management costs. But then they are going to, and 
need to expect to, see these numbers come down. We cannot at 
the site level over here in Congress say, well, why are you not 
spending as much as last year? Well, the definition of what we 
are doing is to clean up a problem and end it, rather than to 
keep it going.
    Senator Collins. Thank you. Switching to another issue, all 
of us are aware, as a result of the events of September 11 and 
the security lapses that our national security labs have had, 
of terrorists possibly having access to either nuclear 
technology or knowledge from our national laboratories.
    Could you update us on the security improvements that have 
been made at our national labs since you took over the 
Department?
    Secretary Abraham. Well, one of our top priorities and in 
fairness, I think this was brought to light here in Congress 
before I got to the job, but it was immediately a top priority, 
was to try to increase our commitment, our investment in 
security. That is happening, as I mentioned.
    We are making requests for total security throughout the 
complex of over $1 billion in this budget. That, added to money 
we have gotten through the supplemental, will bring the amount 
we spend from this point forward through the end of the 2003 
fiscal year to a number that will exceed--almost be $1.3 
billion.
    Much of it is focused on cyber-security, a significant 
ramping up of expenditures there, because we see that as one of 
the challenges. We also are engaged in a very aggressive 
ongoing effort to continuously review the threats throughout 
our complex.
    While I will not get into, at least in an open session, all 
of the kinds of things we test on and that we try to prepare 
for in terms of those threats, the one thing that I have 
insisted happen is that we not simply make one evaluation, one 
budget request, and leave it there but, rather than that, we 
have an ongoing and frequent review of an analysis of needs, 
because we recognize since September 11 that perhaps some of 
the challenges and threats people were prepared to deal with in 
the past were not properly defined.
    That will change. It will change on an ongoing basis, so 
the request we are making is based on, at the time of the 
request, what we viewed as being the needs of the security 
efforts and it is entirely possible that I will update those as 
we move ahead here and continually reevaluate.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Mr. Secretary, I want to begin by thanking you for your 
helpfulness to me and the people in northeastern Minnesota, 
which has been devastated by economic setbacks. Of all the 
high-level officials in the administration I have worked with 
in the last 15 months, you have been by far the most responsive 
and helpful, and I thank you very much for that. On behalf of 
my State, I thank you as well, sir.
    Regarding Yucca Mountain, which is a decision that all of 
us are going to face, I have read views from different people 
and even from the experts in this field, and some say that 
given the status of our technology relating to cask storage and 
to the need to cool these materials, the transportation 
concerns, that we ought to wait a couple of decades before we 
proceed on that measure.
    What would be the consequence of that delay in your nuclear 
cleanup efforts?
    Secretary Abraham. Well, it has a profound impact on about 
four fronts. One of the fronts is what you just mentioned. Part 
of what we will be ameliorating as we clean up sites relates to 
the availability of a permanent repository for that cleanup. So 
it will have an impact for us on our environmental cleanup.
    It also has an impact on our national security programs, 
because, in fact, our Naval reactors programs produce the waste 
that has to be stored. Right now, we have a temporary storage 
arrangement with the State of Idaho, but it is temporary, and 
while I am sure we could compel a State to continue to accept 
this waste, that is not an ideal way for us to proceed.
    There is, in addition, for our Department, at least as we 
look at it, an energy security issue, because the failure to 
reach a decision with regard to waste disposal puts in jeopardy 
facilities, I think, including perhaps one in your state, that 
right now are major suppliers of energy that literally have no 
capacity at a certain point, probably in a few years, to store 
anymore waste. If there is no alternative for them, then they 
will have to cease operations.
    It has a variety of implications, not just on our cleanup 
programs, but on national security and energy security, as 
well.
    Senator Dayton. Thank you. If Congress does approve the 
Yucca Mountain site, what in your estimation would be the 
timetable for when that site would be able to begin to receive 
shipments?
    Secretary Abraham. Well, one of the things that I think is 
perhaps not noted enough is exactly what the process would be 
after this year, assuming that Congress were to support the 
decision to move forward.
    That decision only moves us to a license seeking procedure 
before the Nuclear Regulatory Commission (NRC), which means 
that another team of independent experts will objectively 
decide whether or not what we believe can be done, which is to 
safely store the waste at the site that it, in fact, does meet 
the highly stringent standards.
    That process will take about 3 years to complete, if it 
does, and only then would we begin the construction of the 
facility, which would take about 3 years.
    So those who add these numbers up realize that we are 
talking about 2010 probably before the construction would be 
completed and it would be possible for us to actually begin the 
process of storage.
    Senator Dayton. What is your Department's plan for that 
interim period with regard to the nuclear waste that you have 
responsibility for?
    Secretary Abraham. Well, much of that has to weigh--I mean, 
we do not have an alternative. I mean, it has to be stored, and 
in many cases already is stored in temporary facilities. That 
is where it has to remain.
    But it is actually the problem we have across the country, 
which is that nuclear waste is being and obviously highly 
different site to site, but we have temporary storage 
facilities being used, in some cases, above ground, most cases, 
above ground; most cases--in some cases, not even in closed 
situations. That remains the only alternative at this point to 
the repository.
    For us, as well as for the nuclear reactor sites around the 
country, it is a temporary situation and in some of these 
situations, not necessarily in our complex, but over time, the 
effectiveness of that storage will deteriorate as the 
facilities, these temporary facilities age.
    Senator Dayton. You mentioned in your testimony that you 
had instructed the EM program to do a top-to-bottom review, and 
I commend you for initiating that. Can we receive a copy of 
that review, please?
    Secretary Abraham. Yes. We would be happy to and Assistant 
Secretary Roberson who headed that up, along with our Under 
Secretary Bob Card, are available to brief members, because it 
is, I think, very--I think the course we are on, is a far more 
appropriate one for the communities involved, and we would love 
to provide you that information.
    Senator Dayton. Oh, please send me one.
    Secretary Abraham. Yes, sir.
    Senator Dayton. Do not put it in the mail. I am still 
getting Christmas cards in the mail. I got a thank you note 
from our governor that was dated December 21. I received it on 
Wednesday, yesterday. [Laughter.]
    Shifting gears here, I want to follow up a bit on what 
Senator Nelson was going into with your counterpart, the 
Russian Minister of Atomic Energy, and again, I commend you for 
that initiative and I hope that you can make great strides 
ahead on both sides, because it seems to me that on the one 
hand we are justifiably concerned about these materials falling 
into the hands of other nations or terrorist organizations, and 
yet, it seems that you have inherited this, your 
administration.
    We have not made as much progress as some believe we could 
have and should have, given either the priority or the 
financial resources necessary just to seize this opportunity to 
clear this nuclear flotsam off of our planet before it falls 
into somebody else's hands. So both in terms of the scientific 
expertise, but also the materials themselves, I just hope you 
can accelerate those efforts.
    Secretary Abraham. But, we have three different programs 
that are--well, actually more than that, but three large areas 
of work.
    One is in the area of enriched uranium, where through the 
agreement with Russia, we are purchasing a substantial quantity 
of highly enriched uranium each year to be used in American 
nuclear reactors. That is taking dangerous material out of 
Russia and bringing it here for the purpose of fuel.
    Our Plutonium Disposition program, we have worked very hard 
on trying to move that program ahead, and I believe we now have 
a workable solution on our side and we are working with Russia, 
obviously, to make sure that it is possible to basically 
dispose of 34 metric tons of weapons grade plutonium on their 
side, as well as on our side.
    Then there are the security programs I have mentioned, 
which we think we will be able to substantially reduce the 
timeframe to complete those material protection programs so we 
can secure sites at least 2 years quicker than we had 
anticipated.
    Perhaps, as we have further meetings, we can even move 
ahead more quickly. We are clearly working on those which we 
believe to be our greatest problems first, and so there is a 
priority to how we do it.
    Senator Dayton. Well, by accelerating the time table, you 
are doing a great service to all of us. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Dayton, very much.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you. I want to thank 
both you and Senator Warner for moving ahead on what I view as 
a very important hearing on our nuclear security programs. It 
is always good to see the Secretary of Energy here, my good 
friend, Spencer Abraham.
    Senator Warner. Senator, that was a request that you put to 
both Senator Levin and me to have this hearing.
    Senator Allard. Yes. I appreciate it.
    Senator Warner. We have had it for many years. I do not 
think there was any question it eventually would happen, but I 
appreciate your efforts.
    Senator Allard. Thank you. I would just state that through 
the Strategic Subcommittee on which I am the ranking 
Republican, which I view that as a privilege, I have an 
opportunity to work with the Chairman there, my good friend 
Jack Reed, and this is important to the committee and I think 
it is important to the country.
    About two-thirds of the funding for the Department of 
Energy comes through this subcommittee and our committee as a 
whole.
    One of the programs I am greatly interested in is EM. I 
appreciate the comments that my colleague from Maine made about 
that. I agree with her and I am glad to see that you are moving 
ahead to try and improve its programs so that we actually do 
reach goals and it is certainly, I think, important to the 
country that we do that.
    We have 50 years worth of cleanup, and I think the new 
budget will begin to address some of the concerns that we have.
    I think it is lucky for you and the Nation that we have 
good and dedicated people in these EM programs, particularly. 
But I think you are doing a good job in the Department of 
Energy. Certainly I do not have any criticism because of your 
effort to move forward in trying to improve what is happening 
in the Department.
    I think the scientists at our national labs are the best in 
the world, all the engineers and the craftsmen, and our cleanup 
at Naval reactor sites, and they all continue to meet the ever-
increasing demands we place on them.
    Speaking of dedicated, I would like to take a moment to 
recognize Barbara Mazurowski at the Rocky Flats cleanup site 
that we have in Colorado.
    Rocky Flats, as of today, is still under budget and ahead 
of schedule. I think this is a tremendous accomplishment. I 
just wanted to publicly acknowledge them for all that they have 
accomplished in the last year or so.
    However, while Rocky Flats may be in my State, I think it 
is important to note how connected all these sites are within 
the DOE complex. Any major problem or hiccup at one site can 
send reverberations through the entire complex. No site is an 
island, and that is why it is so important for all States to 
work together with DOE, whether they are an ongoing mission or 
slated for closure. We must keep national objectives and needs 
at the forefront.
    We all care deeply about our individual sites and 
situations, but we must work together to make the DOE complex 
work for all of us.
    I just wanted to make a few brief comments from my opening 
statement. I would like to have the full statement be made a 
part of the record. Without any objection, I will assume it 
will become part of the record.
    Chairman Levin. You have that out of the corner. 
[Laughter.]
    Senator Allard. Thank you, Mr. Chairman.
    There are a couple of questions that I do want to ask. One 
of them has to do with the cost of some of the issues that may 
be facing us.
    From your perspective, do you believe that DOE is on track 
for a 2006 closure date at Rocky Flats? In relation to that, do 
you also have sufficient transportation resources to meet the 
critical path milestones leading to the 2006 closure date?
    Secretary Abraham. Yes, the answer to both questions is 
yes. I would just echo your point about the national 
significance of these programs. There is an interrelationship 
both between the sites, as you well know, but also a clear 
connection to national security objectives, which we have. I 
think you put it well in your comments.
    We are committed to finishing the job at Rocky Flats, and 
the budget request is consistent with the 2006 closure target.
    One point that you mentioned briefly but I just would 
briefly expand on is that when we began the expedited effort 
toward addressing Rocky Flats, which is what we are trying to 
do, as I have indicated today, in the rest of the complex, the 
plan for Rocky Flats was a 70-year plan, and the cost 
projection was $37 billion.
    It will be finished basically in about 10 years, not 70, 
and it will be completed in a timeframe--or at a cost of 
somewhere in the vicinity of $7 billion from the point that we 
moved to the faster schedule.
    It is a reflection of the commitment really of the people 
in the community, the leadership we had there, some of whom I 
have brought to Washington to help us make this work for the 
rest of the complex, but also the community's willingness to 
realize that the goal is cleaning things up and getting it 
done, and it has been the people in that broadly defined 
community there have been a key part of the asset base.
    Senator Allard. I appreciate your comments, Mr. Secretary.
    Now, last year, DOE undertook a review of the Plutonium 
Disposition program, and since then DOE has established a new 
program baseline. However, I understand that there are a few 
details to work out.
    I support you and the State of South Carolina in trying to 
come up with a workable agreement and want to offer my 
assistance in any way that I can to move forward with that 
agreement.
    I have a couple of questions in that regard. What is the 
status of your ongoing negotiation with the governor of South 
Carolina, and how long do you anticipate it might take to 
complete these negotiations?
    Secretary Abraham. I think just to back up one step and 
give a sense of perspective to this, I mean, we obviously view 
the Plutonium Disposition program as one of the most essential 
ingredients to our non-proliferation objectives that we have, 
because if we are not moving forward with our program, I think 
it undermines our ability to move the Russian program forward 
to reduce 34 metric tons of plutonium there.
    So it is a national priority, and it is a matter of 
national security that this work. To that end, as a result, we 
are doing our best to come up with a program that is workable, 
and I think we have one.
    At the same time, we appreciate South Carolina's concerns 
and I have expressed that to the governor on numerous 
occasions, which is how we have moved from a state of some 
impasse at one point to a very active, ongoing negotiations 
that I think is close to completion.
    We are doing our best within the limits that we have in 
terms of the kinds of agreements and support we can provide 
South Carolina to address their concerns. We have done a lot. 
We have done a lot more than they had prior to this.
    We have made it very clear what our budget projections will 
be. We have OMB concurrence with meeting those objectives, so 
that they know that the disposition of the plutonium, the 
construction of the facilities is going to be funded.
    The point is we have made a lot of progress, and I expect 
that the effort will be completed very soon and we are, in 
fact, engaged in discussions even today.
    Senator Allard. I appreciate your commitment to the whole 
complex and to the country in getting Environmental Management 
to work.
    Mr. Chairman, thank you.
    Chairman Levin. Senator Allard, your statement will be made 
part of the record.
    Senator Allard. Thank you.
    [The prepared statement of Senator Allard follows:]

               Prepared Statement by Senator Wayne Allard

    Mr. Chairman and Senator Warner, thank you very much for holding 
this very important hearing on the Department of Energy's national 
security programs. As always, it is good to see Secretary Abraham.
    The Strategic Subcommittee, on which I have the privilege to be the 
ranking member and that my good friend Senator Reed chairs, is 
responsible for authorizing over two-thirds of the Department of 
Energy's budget. A large share of the programs we oversee are in the 
National Nuclear Security Administration (NNSA). These programs are 
vital to the our Nation and our allies.
    These important missions include ensuring that the nuclear 
stockpile is safe and reliable in the absence of underground testing; 
ensuring that Navy warships have safe and militarily effective nuclear 
propulsion plants to meet today's and tomorrow's ever increasing 
deployment demands; and ensuring that the surplus fissile materials do 
not fall into the wrong hands.
    A matter of tremendous importance and a priority for me and others 
with defense nuclear sites is our EM program. We all realize that it 
took us more than 50 years to create the environmental problems of the 
Department of Energy, and these problems will take a coherent policy of 
innovation, integration, and funding to overcome. I believe the new 
budget plan for accelerated cleanup is a great first step in ensuring 
that the facilities slated for cleanup and/or closure actually occur.
    Luckily for you and the Nation, there are good and dedicated people 
in these programs. The scientists at our national labs are the best in 
the world and the engineers and craftsmen at our cleanup and Naval 
Reactors sites continue to meet the ever-increasing demands we place on 
them.
    Speaking of a dedicated workforce, I would also like to take a 
moment to point out the tremendous job that Ms. Barbara Mazurowski, her 
DOE team, the contractor, and all the hard working and dedicated 
workers have done at the Rocky Flats site. Rocky Flats, as of today, is 
still under budget and ahead of schedule. This is a tremendous 
accomplishment and I just wanted to publicly acknowledge all that they 
have accomplished.
    However, while Rocky Flats might be in my state, it is important to 
note just how connected every site within the DOE complex is. Any major 
problem or ``hiccup'' at one site can send reverberations throughout 
the entire complex. No site is an island. That is why is it so 
important for all states with DOE sites, whether they have an on-going 
mission or are slated for closure, to keep the national objectives and 
needs at the forefront. We all care deeply about our individual sites 
and situations but we must work together to make the DOE complex work 
for all of us.
    Again, thank you for holding this hearing and I look forward to 
hearing Secretary Abraham's statement.

    Chairman Levin. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. As Senator Allard indicated, we 
serve together on the Strategic Subcommittee with 
responsibilities for oversight over the Department of Energy, 
and it is a very productive and cordial relationship, and we 
look forward to further hearings about the Department.
    Mr. Secretary, the National Nuclear Security Administration 
organizing legislation directed the Department to submit to 
Congress a detailed 5-year budget plan similar to that provided 
by the Department of Defense. This plan was to be submitted 
with the annual budget request.
    The DOE failed to submit a plan with the fiscal year 2002 
budget request, and there was no plan with the fiscal year 2003 
budget request. Could you give us an indication of where these 
plans are and when we might expect to get them?
    Secretary Abraham. Sure. Well, we are committed to 
fulfilling the request. We have been working with the Office of 
Management and Budget to finalize that effort. It is my 
understanding that the 5-year plan, as we call it, is at OMB 
now for final concurrence. Once it is finished, it would be 
made available obviously, as you have requested.
    Senator Reed. I think, again, Mr. Secretary, the direction 
in the legislation was that you would be looking ahead for 5 
years, as DOD does, and you would be doing it, not simply in 
sort of a cookie cutter fashion, but that you would be making 
real programmatic projections. So I would hope when the plan 
comes to us it is not simply this year's budget times one and a 
half and the inflation rate.
    Secretary Abraham. Let me say that I am well aware of what 
the committee and other members of Congress intended and that 
is why we are working with OMB to get their concurrence, so 
that we can provide the document as requested.
    Senator Reed. Thank you, Mr. Secretary.
    Mr. Secretary, the DOE is also required by statute to 
submit an annual Stockpile Stewardship Program that has been 
known as the Green Book. The Department failed to submit this 
plan in 2001. When can we expect a 2001 plan, and when can we 
expect a 2002 plan?
    Secretary Abraham. I am not sure, the term Green Book is 
not one that I am immediately familiar with, so let me consult 
with my experts here and see if we have a timeframe for you. 
[Pause.]
    Senator Warner. I have never heard of it either. Maybe take 
an extra minute to explain what it is.
    Senator Reed. I think I will, okay.
    Senator Warner. The Green Book is a social register in 
Washington. [Laughter.]
    Senator Reed. Yes. I am not referring to that. [Laughter.]
    Chairman Levin. I have never heard of that, Senator. You 
have more experience in that regard than I do, I think. 
[Laughter.]
    I am not going there either, I will tell you that. 
[Laughter.]
    Senator Warner. In the Army, there is a green book. But all 
I know about is the social register. [Laughter.]
    Secretary Abraham. My understanding, Senator, is that it is 
in the final stages and will be available to you soon.
    Senator Warner. What is it? I mean, take an extra minute to 
explain.
    Secretary Abraham. Why don't we let the Deputy 
Administrator.
    Dr. Beckner. Certainly. Yes, it is a planning document. It 
was originated well over 5 years ago. As you recall, it was one 
of the early documents developed to describe the Stockpile 
Stewardship Program, and it was specifically intended to show 
Congress the full range of work that was underway and planned 
and that is what you will get again this year.
    Senator Reed. Thank you very much. We will not get the 
social register. [Laughter.]
    We are sending the social register to Senator Warner. It 
looks like he might want to see that. [Laughter.]
    Mr. Secretary, we have talked about the reliability of the 
stockpile and we know how important that is, because if there 
are questions about that, then it raises to the forefront the 
issue of testing, which is a major issue.
    The National Ignition Facility, the NIF, is currently being 
built at Lawrence Livermore National Laboratory. This is a very 
sophisticated laser facility, it will be the most powerful 
laser in the world when it is completed. It is an essential 
element of the Stockpile Stewardship Program. It is the only 
facility that will be able to fully address the issue of the 
secondary part of a nuclear weapon system.
    Several years ago, the NIF was rightly criticized for 
technical and schedule delays, and now they are on schedule, 
moving forward. It is planned to begin operation in 2004 and 
become fully operational by 2008.
    I would note that the Department's fiscal year 2003 budget 
request reduces the funding that had been planned for the NIF 
research program. These reductions have the potential to 
prevent the NIF from being fully operational for as many as 3 
years. This delay would also increase the overall cost of the 
NIF.
    Why are we reducing these funds now when we are all 
beginning to recognize, one, the challenge of stockpile 
certification and, two, the alternatives to an effectively 
certified stockpile?
    Secretary Abraham. My understanding is that the budget 
request for NIF, which I think, for construction purposes, is 
about $214 million, will keep it on track for completion at the 
targeted dates.
    We have had it on our watch list. It one of the five 
programs that have been monitored more closely than any others 
in terms of timetables and cost overruns. It is my 
understanding that the earlier problems which had placed it in 
that condition are now being ameliorated and that we will meet 
our completion deadline, and that the $214.7 million or so that 
we have included in the budget is consistent with completion on 
the timetable that had been identified.
    Senator Reed. Again, it might be as much symbolic as 
substantive, but to the extent that we are not aggressively 
funding NIF, I would hate to see a situation develop in a few 
years where, because we do not have the NIF or we do not have 
the kind of associated research from it, we are in a whole 
series of decisions we do not want to be in.
    Secretary Abraham. Right. That is not our intention. I 
assure you, I mean, we are putting a huge investment into this 
program, and we intend to meet the timetable as we have 
established.
    Senator Reed. Thank you, Mr. Secretary. Mr. Secretary, the 
Department of Defense has transferred to DOE responsibility for 
eliminating the last three Russian plutonium production 
reactors; does DOE have a commitment from OMB to fund this 
program in the out-years?
    I am concerned that this expensive project will be funded 
out of current DOE non-proliferation programs. Essentially, do 
you have an additional responsibility without the funding?
    Secretary Abraham. Right.
    Senator Reed. The question is: Do you have the additional 
resources, not just this year, but going forward?
    Secretary Abraham. At least in terms of the role that we 
have assumed here, just as a starting point, the shifting of 
this program, I think was done in no small measure because of 
the belief that we have greater expertise to conduct this 
program, not to move it off somebody's budget.
    It will certainly be a funding priority for us. Our goal is 
not to hurt other programs, but this is a pretty key program. I 
mean whether it is in our Department or any others, it is going 
to be a funding priority that I would fight for, because we 
believe this is one of the two or three most, along with the 
Plutonium Disposition program on the Russian side, two or three 
most important priorities for funding.
    We have a number of issues that we are looking at or ways 
to seek additional assistance to be able to conduct the entire 
transition there from the plutonium reactors to alternative 
energy supply sources. We will keep the committee informed of 
progress on those fronts.
    Senator Reed. Thank you, Mr. Secretary.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator Bunning.
    Senator Bunning. Yes, Mr. Chairman. I have an opening 
statement I would like to ask permission to be included in the 
record.
    Chairman Levin. It will be made part of the record.
    Senator Bunning. Thank you.
    [The prepared statement of Senator Bunning follows:]

               Prepared Statement by Senator Jim Bunning

    Mr. Secretary, I would like to join my colleagues in expressing my 
personal appreciation for your hard work and the hard work of the 
Department of Energy. I believe your vision of excellence for DOE is 
consistent with the need to transform and to bring into greater focus 
many of our Government agencies since the attacks of September 11.
    I agree with your statement that key to achieving excellence is to 
understand our overarching mission, which is the national security of 
this great country. Let me just add that the greatest means of 
accomplishing this vision is not simply a larger budget and a good plan 
but the hard work and dedication of those individuals who will execute 
the plan and the budget. The people of this Nation are our most 
treasured resource.

    Senator Bunning. Hi, Spence. Good to see you, Mr. 
Secretary. I am going to get at some nasty things, but they are 
there, and I have to do it.
    Congress passed Public Law 105-204 in 1998. The intent of 
the bill was to ensure that the construction of DUF6 conversion 
facilities would be built at two sites, one at Paducah, 
Kentucky, and the other at Portsmouth, Ohio, by 2004 to clean 
up DOE's depleted uranium hexoflouride.
    The DOE has now decided not to select a contractor for this 
project and to delay the selection until October 2003 to study 
whether the two facilities are necessary. I know that OMB has 
refused to provide funding for this project.
    I believe that the two facilities are necessary to 
eliminate the hazardous waste at the site. If you have been to 
Paducah, you have seen 45,000 canisters sitting out in the 
weather, in fact, just sitting there rusting.
    The DOE's new tactic with the contractor selection process 
appears to make it impossible to finish construction of any 
kind on the DUF6 facility by 2004. Will the intent of Public 
Law 105-204 be followed by constructing two DUF6 facilities, or 
do you think construction of the DUF6 facilities will ever 
begin, and when do you think that might commence?
    Secretary Abraham. I will thank you for that question. I am 
happy to try to respond. You and I have talked about this.
    Senator Bunning. Yes, we have.
    Secretary Abraham. I think our general counsel has assessed 
that the language you refer to, which was report language, 
requires us only to prepare a plan for two facilities. That is 
the interpretation that we have made.
    But let us talk about what we want to get done here. First 
of all, we obviously are committed to and will deal with the 
waste, both at the facility in Paducah as well as the facility 
in Ohio.
    I have talked with virtually every member of the Kentucky 
delegation and every member of the Ohio delegation who has any 
connection to these communities, and the governors as well. 
Here is the message I have been given.
    Senator Bunning. OK.
    Secretary Abraham. We have two communities that believe 
they contributed mightily to this country's security with the 
work that was done when we engaged in gaseous diffusion uranium 
enrichment. Both communities want to have ongoing activities, 
even as the scaling back of and the ability for the technology 
of gaseous diffusion to be competitive has declined.
    The people who operated those facilities have been closing 
down most of that activity. Both communities want to have 
ongoing operations, not simply worker training programs and 
then be left without a future, and we want the same.
    The issue that has been raised, both by Kentucky's 
delegation and Ohio's, is can we not, in addition to cleaning 
up the problems, also have a new competitive technology-based 
uranium enrichment capacity in this country? Could it not be in 
our community, just as both communities would like to have a 
DUF6, as its called, facility?
    We decided that we would like to--that we share that view 
as well. The administration believes that having a competitive, 
from a technological point of view, domestic enrichment 
capability is important, and our view is that if that happens, 
that it should happen, and it should happen in one or the other 
of the communities that previously had enrichment, where there 
is a workforce that needs these opportunities.
    What we decided to do was to determine through the 
additional request for submission of plans here what the cost 
and implications would be, as opposed to having two DUF6 
facilities, of having one larger DUF6 facility and both sites 
considering that as one possibility, where we and the other 
site have an enrichment facility.
    We want to explore to determine what the costs are of going 
that route as opposed to simply building two of these cleanup 
facilities and never going forward with as--with an enrichment 
facility.
    Senator Bunning. Mr. Secretary, we have been studying this 
thing from time immemorial.
    Secretary Abraham. Right. Well----
    Senator Bunning. That is how we have built up the canisters 
for the last 45 years. So what you are telling me I have heard 
from the prior administration, and I thought we would hear a 
little more positive response from this administration.
    So I am dissatisfied that your attorneys do not feel that 
we have a commitment. If it is necessary, I am sure that we can 
write it into statutory language and make sure that DOE is 
bound to do it.
    Secretary Abraham. It is possible.
    Senator Bunning. Yes. I would go back and check your voting 
record on this bill.
    Secretary Abraham. I am sure you will.
    Senator Bunning. I marveled at the response you gave to 
Senator Collins, and to Senator Nelson, on the President's 
fiscal year 2003 budget in speeding up the cleanup at certain 
facilities.
    In so doing, you have slowed down the cleanup in other 
facilities by taking money away from Paducah, at least in the 
budget's $20 million, and adding it to somewhere else to speed 
up cleanup. You have slowed ours down now 15 to 20 years. Is 
Paducah less important in the scheme of things?
    Secretary Abraham. No, not at all. As a matter of fact, 
every facility in the complex has received a baseline 
commitment for environmental cleanup that is lower than the 
amount they had last year. In every single facility in the 
complex, including Paducah, we are in the process of attempting 
to get a joint agreement for expediting cleanup.
    If that joint agreement occurs, and my understanding is 
discussions are going on right now, then Paducah will, in fact, 
have a significant increase in the amount of money for 
environmental cleanup than it had in the 2002 budget.
    Senator Bunning. Well, members of the Senate are capable of 
helping themselves to increased funding, even though the 
administration might not be as willing to agree to that number. 
We have done this for the last 4 years, kept the funding level 
at a certain figure and with the full knowledge that maybe in 
10 to 15 years, we can actually get Paducah cleaned up.
    Secretary Abraham. Well, I would just ask the Senator to 
work with us as we try to expedite the cleanup in Paducah.
    Senator Bunning. I am trying.
    Secretary Abraham. Work with us to get an agreement with 
the community to do it faster with more money in a shorter 
period of time, which is what we want to accomplish as well.
    Now, what we decided to do with this budget was to make it 
very clear that if communities agree to a faster cleanup, that 
we are prepared to support that cleanup with even more money 
than I suspect the Senator would get through the normal 
appropriation process.
    Senator Bunning. Pardon me, Mr. Chairman. I just want to 
follow up on one question. Ben, would you give me some time?
    Senator Ben Nelson. Sure, absolutely.
    Senator Bunning. If that is the case, and we are going to 
clean it up, how can you move back the hexaflouride cleanup 
that is sitting there contaminating the site or do something 
with that, because that is part of the overall cleanup?
    Secretary Abraham. Right. Our concern, as I have expressed 
to you, both personally and here, is whether or not it is in 
the interests of the way we would approach that to create two 
separate facilities to perform that function, or if we can do 
it more effectively with one, at the same time building a 
uranium enrichment facility so that both communities have both 
cleanup as well as the potential to be part of an enrichment.
    Senator Bunning. You are not going to be able to move that 
stuff unless you take it to a storage facility. I mean, there 
is nothing you can do with it except to deal with it at 
Paducah, or move it to Portsmouth and deal with it.
    Secretary Abraham. Right.
    Senator Bunning. Or to store it somewhere else? It is a 
phenomenal problem along with the normal cleanup of the 
facility.
    Secretary Abraham. Right. I realize that, and if we ended 
up with one DUF6 facility, a larger facility doing all of the 
cleanup, we are capable, I believe, of dealing with the 
transportation issue. The Department has been moving materials 
for 30 years successfully without any harmful effects in that 
period.
    We will work with you, obviously, to keep you apprised of 
this effort. I mean, our goal is what I said, and I know we 
will be talking more about it.
    Senator Bunning. OK. I am going to save my other questions 
for our second round.
    Chairman Levin. Thank you.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    It is good to observe that my colleague from the other side 
has not lost any ability to throw a hard ball.
    Senator Bunning. Thank you. But it is a lot slower. 
[Laughter.]
    Senator Ben Nelson. Mr. Secretary, I appreciate very much 
your being here today and want to thank you for your appearance 
and your support last Friday of the renewable fuel standard 
effort as part of the energy bill, and to thank you for being 
here to talk about the committee's jurisdiction and a lot of 
the issues that are raised.
    Sometimes, the Department's role in our national defense is 
overlooked. But I can tell you that I know Admiral Ellis at 
Strategic Command does not overlook it and appreciates very 
much the cooperation and the good working relationship that he 
enjoys with you.
    Also, I want to thank you on a personal note. Many in this 
room really owe a great deal to your agency for the support in 
cleaning up the Hart Building, having been out of it for 90-
some days.
    My question goes in a little different direction, and 
perhaps you can answer this or maybe it needs to be in 
classified form. But the national laboratories have developed 
significant technologies that detect chemical, biological, and 
nuclear agents.
    Is there a system in place right now that can be deployed 
to major parts of the United States to assist in homeland 
security, where they might be able to detect WMDs at an early 
time? Because, clearly, that would be extremely beneficial to 
homeland defense.
    Secretary Abraham. One of the--probably the second action 
we took at the Department, I think in response on September 11, 
after immediately moving to a security condition throughout the 
complex to address any threats we might face at our various 
facilities, was to launch really a two-pronged initiative 
within the laboratories.
    General Gordon and I asked the various labs to, both one, 
make available to us anything they thought was existing 
technology that could be applied to any of the issues we 
faced--that was one of the reasons that we were able to help 
with the Hart Building--and second, to give us a menu of 
potential research that might be conducted to assist in light 
of the new threats that were identified.
    By that, what I tried to convey was that undoubtedly over 
the period of many years a lot of great ideas had been hatched 
in our laboratories for different kinds of equipment, different 
kinds of detection gear, et cetera, some of which we probably 
did not proceed with, just because they may not have at the 
time appeared to be as relevant or needed as they might now. In 
response to that, we are considering and, in fact, enlarging 
some of our efforts.
    We also have made Director Ridge, from literally his first 
week in office, aware of the tools that he has at his disposal 
in our laboratories. I would be happy, of course, in a private 
briefing to give you a more specific rundown of that 
capability.
    He visited, in fact, the Department not too long ago, and 
we brought a number of these different types of equipment in 
for him to be able to personally observe, and ranging from the 
kinds of things you are referencing to a computer program we 
had developed prior to September 11 that allows us to monitor 
and be able to estimate what, if any, impact on our 
infrastructure in the country, what its resulting impacts would 
be on other infrastructure, so that we know what priorities to 
have and things of this sort. We are making that available to 
homeland security, and we will be glad to keep you apprised.
    Senator Ben Nelson. I think I will follow up with you on 
that suggestion.
    Secretary Abraham. That would be great.
    Senator Ben Nelson. In that regard, is there adequate 
funding in this budget to help pursue that kind of research 
and/or development of systems?
    Secretary Abraham. Right. Well, we believe there is. There 
is $283 million, I think, in non-proliferation research and 
development (R&D) here, most of it focused on proliferation 
detection work and on other chemical, biological, and other 
categories of this. It is, I think, a very reasonable request.
    As I said, we are sort of in a sense, challenging our 
facilities to identify new priorities that we might consider, 
if not in this budget, then in the future.
    Senator Ben Nelson. It might be classified, but with all 
the discussion about regime change in Iraq, where Saddam 
Hussein has already gassed his people, would we have the 
capacity or could we work with the military to be certain that 
any of our military forces who would enter that country might 
be able to have similar kinds of systems in place to have early 
detection if they are going to be placed in that kind of harm's 
way?
    Secretary Abraham. Without going into the areas----
    Senator Ben Nelson. Without going into detail.
    Secretary Abraham. --that I would be discomforted to 
discuss in a non-classified setting, I would just say that, 
obviously, we have a lot of tools available, which we work with 
the Department of Defense both to develop and to have in an 
operational state of readiness, and many of them are already 
finished and some are in the process of being planned for the 
future.
    Senator Ben Nelson. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Secretary, excellent hearing, and we thank you for this 
presentation.
    I will ask that my statement be incorporated in the record, 
Mr. Chairman.
    Chairman Levin. It will, of course, be incorporated.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    Thank you, Mr. Chairman. I, too, want to offer my welcome to our 
distinguished witness today.
    This is a very important annual hearing for our committee. Fully 
two-thirds of the Department of Energy's budget is related to defense 
or former defense missions and is, accordingly, within the jurisdiction 
of this committee. Maintaining a safe, secure, and reliable nuclear 
stockpile is of the utmost importance to the national security of our 
Nation, and, in my view, is DOE's top priority. Additionally, this 
committee has important oversight responsibilities for DOE's 
Environmental Management program which is responsible for cleaning up 
our former defense nuclear facilities.
    I want to begin my comments this morning by discussing the recent 
press stories on the Nuclear Posture Review (NPR), which was completed 
and delivered to Congress in January. In my view, the NPR represents a 
breakthrough in how we think about strategic forces and how we respond 
to strategic challenges. The new integrated triad--consisting of 
nuclear and precision conventional offensive forces, passive and active 
defenses, and a robust infrastructure--provides the flexibility needed 
to support President Bush's initiative to move to lower levels in our 
deployed nuclear weapons.
    The NPR is ``forward looking'' in its approach to a world no longer 
dominated by the mutual hostility of two Cold War superpowers. The NPR 
examines a world in which a number of nations are developing, or 
seeking to develop, weapons of mass destruction, and discusses a range 
of options for how the United States should respond to the growing 
threats we face. But one thing is clear--the NPR is not a targeting 
document, as was inferred in recent press coverage. The previous 
hearing this committee conducted on the NPR clearly supports this 
interpretation of the NPR.
    The NPR actually seeks to reduce our reliance on nuclear weapons by 
reducing the numbers of ``operationally deployed strategic nuclear 
warheads'' and increasing our conventional strike and missile defense 
capabilities. Those who seek to threaten the United States must receive 
the message loud and clear that we would use every weapon at our 
disposal to protect the American people.
    I would now like to move on to the fiscal year 2003 budget request 
for the Department of Energy atomic energy programs. The fiscal year 
2003 budget request provides $15.4 billion for defense programs within 
the Department of Energy--a $653 million or 4 percent increase over the 
amount appropriated in fiscal year 2002.
    Let me turn first to the nuclear weapons programs. I am encouraged 
by the new facilities and infrastructure recapitalization program, 
which is designed to address some of the major maintenance and repair 
backlogs at DOE nuclear weapon plants and laboratories. But General 
John Gordon has an enormous task ahead, as do you Mr. Secretary, to 
maintain our nuclear weapons stockpile in a safe, secure, and reliable 
manner and to reinvigorate the nuclear weapons program.
    I know we have made enormous strides in our efforts to ensure that 
our nuclear weapons are safe, secure, and reliable. However, I am 
concerned that we will not be able to provide these assurances to the 
American people indefinitely in the absence of underground nuclear 
testing. The Foster Panel report (February 1, 2001) pointed our that it 
would take 2 to 3 years--from the time the President makes the decision 
to resume nuclear testing--for DOE to be ready to conduct such a test. 
I repeat, 2 to 3 years. Is this simply too long a time to wait if we 
discover a problem that calls into question the safety and reliability 
of our nuclear stockpile?
    Our Nation continues to place heavy reliance on the development of 
a science-based stockpile stewardship program. The completion date 
remains indefinite. Whether this program alone can provide the 
necessary tools to certify our aging nuclear stockpile into the future 
remains to be proven. General John Gordon recently told this committee 
that we could achieve a successful stockpile stewardship program but 
still need to consider conducting an underground nuclear test. In fact, 
it may be throught our science-based programs that we discover a defect 
or design flaw that will lead to a requirement to resume testing.
    We should continue to invest in the science-based program, but we 
should not neglect the rest of the nuclear weapons program. Our test 
readiness should remain in as near to standby readiness as reasonably 
possible. Our ability to manufacture certified ``pits,'' including the 
preliminary design efforts on a modern pit facility, should be a 
priority. General John Gordon recently testified that ``we need to 
begin thinking seriously about a modern pit facility.'' We should make 
sure our nuclear weapon designers and technicians continue to be the 
best and the brightest.
    Another Department of Energy program which requires and deserves 
our attention is the EM program, which is responsible for the 
decommissioning and cleanup of the former defense nuclear facilities. 
The fiscal year 2003 budget request includes a new initiative designed 
to continue an aggressive schedule at the closure sites and accelerate 
cleanup across the complex including the four remaining major EM sites.
    I am encouraged by the bold initiative the DOE EM program is 
proposing and look forward to working with you and my colleagues to 
make sure this program to accelerate cleanup and reduce costs is 
successful.
    We have a lot of issues to cover today. I look forward to hearing 
Secretary Abraham's testimony.
    Thank you, Mr. Chairman.

    Senator Warner. The Chairman and I, we have been sitting 
here many years together, and every now and then we both flinch 
at the same moment. I think we had a little bit of a flinch 
when you said that you could force a State to take nuclear 
waste.
    Could you ask your lawyers to give us a little 
Constitutional brief on that?
    Secretary Abraham. Well, the point I was alluding to was 
that we have a responsibility for the disposition of certain 
weapons grade materials that we must dispose of, and we will be 
happy to provide you what I think is the authority that would 
ultimately allow that to be disposed of somewhere.
    Senator Warner. I think we would be interested in that, 
because if that were the case, you could force Yucca Mountain, 
and that would resolve many issues.
    Secretary Abraham. Well, that is covered by a separate act 
of Congress obviously.
    Senator Warner. I would just be interested in the reasoning 
on that.
    I want to go back to the question of our testing the safety 
and the effectiveness of the stockpile. That is a subject that 
has been of enormous interest to me.
    Now, to put it in context, the facts are: we have this very 
significant inventory of weapons; we had to have them go 
through the Cold War. It was as simple as that.
    Now, we have a worldwide situation where weapons of mass 
destruction of different types pose threats, not perhaps as 
great, but certainly in many ways comparable to those of the 
Cold War.
    Now, every time I have had a hearing on this and been 
present, I have always reminded the American public that, yes, 
we have a dislike for the concept of nuclear response, but it 
is a fact that it is a threat, that nations other than ours are 
struggling to obtain the science, the people to manufacture 
their own nuclear weapons, and that is a fact in this very 
troubled world we have today.
    Now, the inventory of our weaponry is distributed in 
various places across the United States. We ask the military 
and civilians to be in close proximity to these weapons. So 
equally important to maintaining a credible military 
effectiveness, if we ever had to use them, is the safety of 
these weapons and the communities which surround the military 
installations or bases where they are. So there is a broad 
range of people that justifiably should be very concerned about 
the safety of this stockpile.
    Now, go back in history, because there may be some people 
following this proceeding or reading this record that might not 
have the background that those of us who have been here these 
years have. President George H.W. Bush, as we refer to him now, 
affectionately, 41, made the decision to discontinue testing. I 
am not disputing it as a policy.
    President Clinton then decided in 1993 that he would 
continue the Bush policy. That is what we are operating under 
now, an executive order, not a law, but an executive order.
    In that period of time, we decided to go onto this science-
based Stockpile Stewardship Program.
    As I just learned from our very able counsel here, Madelyn 
Creedon, the Green Book was first issued, was it 1990? When was 
it that the first one come out?
    Ms. Creedon. 1995.
    Senator Warner. 1995. It was wrapped in a green wrapper.
    Secretary Abraham. I see, of course.
    Senator Warner. Therefore internally, it was referred to as 
the Green Book.
    But in other words, we are at that fork in the road now. A 
year or two ago, when I was privileged to be Chairman of the 
committee, we had a very serious question confronting this 
Senate of the Comprehensive Test Ban Treaty. It was the lab 
directors, in my opinion, who gave that evidence that 
contributed to the Senate, I think quite properly, rejecting 
that treaty.
    Now, we have before us a budget request of $2.1 billion for 
the continuation of this program that was initiated in 
approximately 1993. It was envisioned at that time, well 
intentioned--I am not in any way being critical--that perhaps 
in a decade we would be at that point where we could make a 
finding that this program will, in fact, substitute for the 
actual testing; and therefore meet our requirements, military, 
first, that we have a credible weapons system, if necessary, 
and two, that the people handling it in the communities can 
rest and sleep safely.
    Well, we are now in 2002, and I would like to know where 
you believe we are in this program that was to have finished in 
a decade and reached that point at which the lab directors 
could certify this program as substitute for testing.
    I might add, we learned this morning, from Senator Reed and 
others, that the report referred to now as the Green Book, is a 
year late, yet you are asking Congress to authorize $2.1 
billion.
    What is the documentation that you predicate that request 
on, given that the Green Book, which states where we are in the 
program, is not available?
    Secretary Abraham. Well, first, as I said--or, I guess, 
actually as Dr. Beckner said, our intention is to have the 
Green Book available very soon.
    Second, obviously the programs we are seeking support for 
are ones which we can provide information to the committee on 
as to their status individually, program by program. They are, 
by and large, a continuation of various projects that are part 
of that effort, including the one which Senator Reed referred 
to, the NIF program and others.
    As to the timeframe in which--I do not think really there 
has been any change in status as to the projections. I think 
that the lab directors, as I recall their testimony, had 
indicated that they could not guarantee to us at that point 
that the program, once completed, that there would be a 
timeframe for its being able to predict with certainty the 
capabilities and reliability of the stockpile. That is why we 
are obviously trying to complete the work.
    Senator Warner. Well, let us be careful with that. It seems 
to me there are two phases, at least. One, the development of 
the program, so that someone can click a switch and it is now 
working to perform its mission.
    Secretary Abraham. Right.
    Senator Warner. Then once it begins to perform its mission, 
then we ascertain from whatever comes out the other end, that 
it is or is not a substitute, to some measure, for testing.
    Now, my first question was: How soon do you flip the switch 
so that this massive system, many billions of dollars, is now 
beginning to crank out some information that helps our Nation 
determine the credibility and safety of the stockpile?
    Secretary Abraham. At the risk of giving an imprecise 
answer?
    Senator Warner. If you want to, call on your associates.
    Secretary Abraham. Let me ask Dr. Beckner, here, to join 
me.
    Senator Warner. Sure, because I can understand how this is 
very complicated.
    Secretary Abraham. Because there are different programs 
that are in different timeframes.
    Dr. Beckner. I think the way to view this is that this 
really is a continuation of activities which you should view as 
being on the table for support as long as we have a nuclear 
weapons stockpile, and as long as we choose not to return to 
testing.
    It is not something that is just going to be in place one 
day and we can say, well, we now have a new process that 
clearly in any simple way gives us a substitute for testing. It 
is a combination of things. It is NIF. It is the hydro-dynamics 
facilities. It is the computing capability that we purchase 
with--in the ASCI program, and it is the people.
    Senator Warner. I recognize that. But at what point does 
the confluence of all these bits and pieces begin to provide 
data?
    Dr. Beckner. It is there now.
    Senator Warner. It is there now?
    Dr. Beckner. It is there now. Otherwise, you would not be 
getting this certification of the stockpile.
    Senator Warner. All right, I accept that. My time is 
running out.
    Dr. Beckner. It will be better next year, and it will be 
better the year after that. But it is what you are getting, it 
is what you are using today.
    Senator Warner. My recollection is that when the lab 
directors testified in connection with the Comprehensive Test 
Ban Treaty, it was not there then. Are you suggesting that what 
they said was not present 2 years ago is now in place?
    Dr. Beckner. No. I think what we are seeing is a continual 
improvement of our ability to deal with this problem. In 
particular, we do not have NIF operational. In particular, we 
do not have the computing facilities that we wish to have in a 
few more years and continue to acquire. It is just something 
that we are going to have to continue to develop as time goes 
on.
    Senator Warner. I am not questioning that we are going to 
continue. I do not doubt that Congress is going to go ahead and 
authorize this. But I am just wondering: What are the facts 
before us that lead Congress to believe that, at some point in 
time, these various components will be in place and will 
indicate, hopefully, that it is a credible substitute for 
actual testing?
    Dr. Beckner. Your best measure of that is the ability to 
continue to state that the stockpile remains certified as safe 
and reliable. You are getting that on an annual basis.
    Senator Warner. My time is up. I will have to return to 
this when I get another round.
    Chairman Levin. Well, as someone who supported the 
ratification of the Comprehensive Test Ban Treaty, first of 
all, I do agree with Senator Warner that the lab directors' 
testimony was partly responsible for the loss of that vote.
    I did not think that their testimony was particularly 
comprehensive. I did not think it took into consideration one 
critical fact, which is that there is a supreme national 
interest clause in the Comprehensive Test Ban Treaty, which 
allows for withdrawal at any time we needed to return to 
testing.
    Now what we are being told is we have certification under 
the Stockpile Stewardship Program that we can rely on, 
apparently even without a report. I am glad to hear it. I 
believe it. There is no reason to doubt it, in my judgment.
    But it just reinforces my belief that we really lost an 
opportunity there to lead the world towards lesser reliance on 
nuclear weapons. We lost some credibility to make the argument 
to other countries that they should not rely on nuclear weapons 
when we defeated a treaty that had a provision in it that would 
have allowed us to test, should the national interest require 
it. That is what we are being told now.
    The Stockpile Stewardship Program is working, or so we are 
told. I believe it. We are spending a lot of money on that 
program. If at any time that program does not lead to a 
certification as to the safety and reliability of our nuclear 
weapons, we can return to testing. It is exactly what we could 
have done had we ratified the Comprehensive Test Ban Treaty. 
But because of that testimony from the lab directors, it was 
used to defeat a treaty which had a withdrawal clause in it.
    So we are, effectively, in exactly the same place where we 
would have been had we ratified the treaty. The only difference 
is we took a step backward in terms of reducing the reliance on 
nuclear weapons in this world, and our credibility to argue to 
other countries that they should rely less on nuclear weapons.
    India and Pakistan test, and we just say, that is a 
terrible thing. Then we, ourselves, fail to ratify a treaty 
which would have given us some standing to make that argument.
    Let me change the subject to the Price-Anderson Act. Mr. 
Secretary, the Price-Anderson provisions of the Atomic Energy 
Act provide indemnity and insurance coverage for contractor 
operators of the DOE facilities as well as the Nuclear 
Regulatory Commission licensees. It does some other things as 
well.
    But the Department of Energy's authority to extend Price-
Anderson coverage to DOE contractors expires in August. Without 
Price-Anderson authority, will the Department of Energy be able 
to sign any new site operating agreements, including 
environmental cleanup agreements?
    Secretary Abraham. I would have to take that question for 
the record for our legal counsel.
    Chairman Levin. Thank you.
    Secretary Abraham. But obviously it is one of the reasons 
why the administration and we have supported the extension of 
Price-Anderson and the energy legislation on the floor at this 
time.
    Chairman Levin. Right. There is an additional question 
relative to Price-Anderson, which I wish you would answer for 
the record as well. That is, is the Department trying to 
renegotiate some of the existing operating contracts at 
environmental sites sooner than normal. As a matter of fact, I 
think that is part of your program to speed up the cleanup at a 
number of sites. You need to renegotiate contracts.
    Without Price-Anderson authority, the DOE is, from what I 
can understand, not going to be able to pursue the very 
strategy which you have outlined here today. Is that correct, 
do you know, or would you rather answer that for the record?
    Secretary Abraham. Well, again, I do not want to prejudice 
our legal position by speculating on it. I would rather have 
legal counsel approve an answer for the record.
    Chairman Levin. That would be fine. That is an additional 
question then for the record, if you would answer that as well.
    Secretary Abraham. Glad to do it.
    [The information referred to follows:]

    Probably not, because of a lack of a contracting partner. In the 
absence of Price-Anderson indemnity authority it is unlikely that any 
non-governmental entity (i.e., a contractor) would sign any new site 
operating contract under which the contractor would have responsibility 
for handling of nuclear materials.
    If the Department's Price-Anderson authority is not renewed or 
extended before August 2002, the Department may have to re-evaluate 
some of its planned procurement actions and strategies. Termination of 
existing contracts in favor of a renegotiated or competed contract may 
have to be postponed pending renewal or extension of the Department's 
Price-Anderson indemnification authority.

    Chairman Levin. Can you give us some idea as to how many 
Russian nuclear scientists and former weapons scientists and 
engineers have been provided employment by your programs? Are 
you able to give us any kind of estimate?
    Secretary Abraham. I think we can. I am not sure if I can 
directly here. Perhaps I think we would have to provide that 
for the record.
    Chairman Levin. That would be fine.
    [The information referred to follows:]

    The Russia Transition Initiatives, which includes the Initiative 
for Proliferation Prevention and Nuclear Cities Initiative programs, 
have engaged over 11,000 former Soviet weapons scientists and engineers 
in commercially-focused projects. These weapons experts have been 
employed in applied research and development projects, as well as 
infrastructure development projects in the closed nuclear cities. In 
addition, the lab-to-lab cooperation under the Warhead Safety and 
Security Exchange Agreement has engaged a number of Russian scientists 
to complete technical projects in the areas of warhead safety and 
security, transparency, and counter-terrorism.

    Chairman Levin. I want to go back to a question which I had 
asked you before, relative to the law that prohibits the 
Secretary of Energy from conducting or providing for the 
conduct of research and development which could lead to the 
production of a low-yield nuclear weapon. That was a 1994 
provision in law.
    My question is this: How is the fiscal year 2003 budget 
request for a robust nuclear earth penetrator (RNEP) in 
compliance with that law, which you have indicated it is, since 
that law prohibits the Secretary of Energy from conducting the 
research that could lead to the production of a low-yield 
nuclear weapon?
    Secretary Abraham. Well, let me defer here, if I could, to 
Dr. Beckner, because we have talked about this, but he----
    Dr. Beckner. Yes. The present intent is to look at two 
existing weapons, the B61 and the B83 to be precise, as the 
device that would be incorporated into the RNEP, the so-called 
robust nuclear earth penetrator. Those are the only two that 
are presently going to be studied in conjunction with the Air 
Force, as directed by the Nuclear Weapons Council, and both of 
those weapons have yields substantially higher than 5 kilotons.
    Chairman Levin. But neither one of those are low-yield 
nuclear weapons?
    Dr. Beckner. They are not.
    Chairman Levin. Thank you.
    Senator Bunning.
    Senator Bunning. Thank you.
    I stayed because there are some things that I know that DOE 
is working on an agreement with U.S. Enrichment Corporation 
(USEC) to ensure the future production of domestic uranium. 
This agreement was supposed to coincide with the Russian 
uranium agreement that USEC struck with Tenex. Now that the 
USEC and Tenex deal has been signed, do you expect to come to 
an agreement with USEC any time soon?
    Secretary Abraham. We are, and have been, in fairly active 
negotiations for the last several months with USEC on 
discussions regarding their responsibilities or their 
continuing role, if one, as our executive agent.
    We have made progress, but despite the progress, there 
remains some significant issues that have not yet been 
resolved, and perhaps as you may have read, there have been 
some allegations made very recently that place in question 
USEC's activities as the agent in recent years.
    Senator Bunning. Not by you, but by others?
    Secretary Abraham. Correct.
    Senator Bunning. Right.
    Secretary Abraham. Obviously our negotiations are 
continuing. I think before they are completed, we will seek to 
resolve any issues that are raised by these allegations as 
well. Since they are a new set of matters, we intend to pursue 
those as part of this discussion.
    What I would note, though, also is that under the executive 
agency agreement that has existed and any that we would have, 
whether it was with USEC or anyone else, there remains, and we 
reserved to the government of the United States, the power to 
change the executive agent at any time.
    Senator Bunning. Let me ask you some defense-related 
things. Do we know what the operational life of a plutonium pit 
is?
    Secretary Abraham. Well, we do have, obviously, that 
ability, but I mean within ranges. I am not sure I would want 
to have that discussion in an open hearing.
    Senator Bunning. Not in an open hearing? You would answer 
anything about the plutonium and plutonium pits in a closed 
hearing?
    Secretary Abraham. Well, not anything. But I am not sure I 
would want to discuss capabilities of weapons and their design.
    Senator Bunning. Is it safe to assume that we will 
eventually need to replace the pits in our aging nuclear 
arsenal?
    Secretary Abraham. We are in the process of working on, in 
fact, exactly that type of program with respect to a particular 
weapon type at Los Alamos. Our hope is within the next year to 
have development of a pit for that particular weapon that is 
certifiable and to certify a pit by 2007.
    We obviously have, in our long-term plans, design work that 
we have already begun with respect to the need for a new pit 
production facility, but that----
    Senator Bunning. That was my next question.
    Secretary Abraham. But the need for that is not as 
immediate, but it is certainly part of our long-term planning 
to be----
    Senator Bunning. There is a plan?
    Secretary Abraham. Yes.
    Senator Bunning. For a modernized pit?
    Secretary Abraham. A modernized pit facility, yes. Well, we 
are in the process of putting that plan in----
    Senator Bunning. You are telling me it is about 2007, or 
is----
    Secretary Abraham. No. What I am telling you is that the 
project, which is already being undertaken----
    Senator Bunning. Underway.
    Secretary Abraham.--for one particular pit development 
program----
    Senator Bunning. OK.
    Secretary Abraham. --is aimed at being able to certify that 
pit in the year 2007.
    Senator Bunning. I did get the information you sought. You 
did not object to a unanimous consent----
    Secretary Abraham. I knew you would have it before----
    Senator Bunning.--on that public law that is now a problem.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Bunning.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Secretary, given the time, I am going to ask that some 
of my questions be included for response in the record. I am 
going to continue to press on on this issue of the stockpile, 
but I want to go over another subject, and that is as our 
Nation is gearing up under the leadership of our President for 
homeland defense, and a part of that is our ability to counter 
a dirty bomb.
    As you and I know, it is a hybrid of the technology that 
produced nuclear weapons years ago. Now, my understanding is 
that, quite properly, you together with your laboratory 
structure are examining and evaluating the threat to the United 
States of that--I will not call it a system--but that option if 
terrorists seized upon it.
    What can you tell us here about what is being done, and 
explain your views, if you can, of the degree of risk that is 
faced not only by our Nation, but others? First, you might just 
explain how you describe what a dirty bomb is.
    Secretary Abraham. Well, I think the most typical 
definition that is--at least the public definition has been--
the idea of mixing radioactive materials in some fashion with 
explosives and in some way spreading----
    Senator Warner. Spreading it?
    Secretary Abraham. Yes, and while some would argue that it 
does not have the capacity to have the impact of a weapon, a 
properly defined weapon of mass destruction, obviously its 
impact in terms of terror, in terms of what it might do in 
terms of people----
    Senator Warner. Well, it is serious radiation, correct?
    Secretary Abraham. Right. I would just say in terms of our 
efforts to counter that, that first of all, our homeland 
security office really has the lead in terms of the development 
of those strategies, and it really is not in my jurisdiction. 
We provide the resources to support that effort.
    I personally have refrained from discussing some of the 
tactics we use or any of the tactics really that we use in 
terms of that support, in terms of public discussion for 
reasons that go to the heart of trying to maintain the ability 
to be successful in that, but I would be happy in a private 
setting to----
    Senator Warner. In other words, in a classified session. I 
think that is appropriate.
    Secretary Abraham. Right. Also to be joined by the homeland 
security----
    Senator Warner. I wanted to give the American public the 
reassurance that our government is doing everything it can to 
interdict that so it does not come to fruition. It seems to me 
it should be a worldwide problem. Would you share that view?
    Secretary Abraham. Well, it is. I think one of the reasons 
that not, not only are we pushing forward to expand and 
accelerate our non-proliferation programs with Russia, but also 
with other countries.
    We recently entered into a new agreement with Kyrgyzstan to 
help them. We have just this week signed a new agreement with 
Uzbekistan at the State Department, this week, to assist them 
in returning certain materials to Russia that were still there 
and to assist them in reducing the fuel used in their reactor 
from highly-enriched uranium (HEU) to low-enriched uranium 
(LEU).
    The challenge of this is one we are trying to deal with on 
a variety of fronts, and frankly, we are quite receptive to 
expanding the work that we do in this area. We have worked 
with--in fact, interestly on the very Monday following 
September 11, I traveled to Geneva to address the International 
Atomic Energy Agency's meeting and to try to raise the issue of 
nuclear terrorism and to put it more prominently on the agenda 
of that organization.
    I was back there again in November to meet with their 
executive committee to try to expand and perhaps more robustly 
address these issues. It is one of the issues that my Russian 
Atomic Energy Industry-Ministry counterpart and I have agreed 
to work on together on a broader international front.
    Senator Warner. Thank you, Mr. Secretary.
    At the moment, Congress has passed laws which prohibit the 
construction of a new nuclear weapon. We may have to revisit 
that at some point in time.
    But what can we do within the framework of existing law by 
way of putting in place an infrastructure that this President 
or a future president could utilize should a decision be made 
that we have to reenter production of a new design?
    Should we have people coming in that are skilled? How do we 
utilize their time now within the framework of that law such 
that, if that decision is made, we reduce the startup time 
required to proceed to do the research, the development, and 
testing as necessary?
    Secretary Abraham. Well, all right. Let me begin by 
reiterating what I said earlier. We are not in the stage, nor 
do we have any plans to move ahead with designing any new 
weapons.
    Senator Warner. That is clear. That should be in the 
record.
    Secretary Abraham. The issue that I think you are raising 
is whether we have, if that ever were something we were called 
on to do, do we have--would we over time lose the capabilities, 
because of adequacy of skills or facilities?
    We are trying to address the facilities issue obviously in 
this budget. It is one that I think every member of this 
committee has a lot of familiarity with, which is the 
deterioration of the actual physical plants across the complex 
where, while we have reduced the number of weapons 
manufacturing facilities, we have not done anything to make 
sure the ones that remain even are functional.
    As I mentioned, as I have said in speeches, people are 
literally at risk of having the plaster fall on them. So this 
budget, in a very substantial $243 million commitment, begins 
that infrastructure improvement.
    On the skills issue, there are a lot of challenges. I think 
the retention and recruitment of people with skills in this 
area remains and will, I think you know, always be something 
that the agency has to address.
    I do think, and I hate to act as though anything positive 
was wrought by the events of September 11, but I do think that 
the mission, the sense of mission in our Department now and the 
morale, the national security commitment has been, because of 
those events, as it has for Americans who are not even in 
government service, heightened tremendously. I think that will 
help us in terms of keeping talented people and recruiting 
them.
    We do think that some of the work that they are doing today 
on sub-critical experiments, on designing and working on 
replacement components, things of that sort, the disassembling 
and evaluating the components of warheads as part of the 
Stockpile Stewardship Program allows skills to be honed. We try 
to monitor that and obviously look to the lab directors and 
their programs to make sure that we are not losing the talent 
base that is needed. But it is something that is an ongoing 
challenge for the NNSA.
    Senator Warner. I thank you, Mr. Secretary. Part of that, 
of course, would be the Foster report. You are familiar with 
that, and what it says about the testing time frame. In other 
words, in your view, is the 2- to 3-year period the NNSA would 
need to prepare and conduct an underground nuclear test 
acceptable? Do you believe that we should follow the Foster 
Panel's recommendation to reduce the time to conduct a test to 
less than a year?
    Secretary Abraham. Well, I do not--we have not pinpointed 
an appropriate time frame. In fact, I have kind of resisted 
making--trying to be focused on time as much as on enhancing 
test readiness. That is the skill sets that are needed.
    Obviously, I think that--and again, let me just reiterate, 
there is no intention either in our Department or in any other 
to resume testing or any plan to do so.
    The question is, what would happen if we could not certify? 
I mean, obviously, the immediate issue is that we would then 
presumably need to make a decision on testing. But remember 
also that in the absence of the capability to certify, at least 
there also is brought into play the question of the 
effectiveness of our deterrent capabilities and the issue of 
duration between should we ever have such a point and the time 
duration between the recognition that we could not certify and 
the ability to test, is quite pivotal in my judgment to the 
question of whether or not there is credibility to our 
deterrent capabilities.
    I think we have tried to focus on the sorts of things that 
could enhance test readiness, not necessarily only in terms of 
time sort of focus but in terms of a skills focus.
    This is one area where we do have, I think, when we talk 
about the personnel side of the equation, where we have to make 
sure that people who are in the program--it has obviously been 
a fairly long period of time since any testing was conducted. 
We need to make sure the people, as they leave the program that 
we bring new people in. But are they properly capable and 
trained to conduct a test if that ever were called upon?
    That is one of the things--which I think that component of 
the Foster Panel's focus is one that we are trying to address, 
and what is addressed in our budget as well.
    Senator Warner. I will ask another question, Mr. Chairman, 
while you are waiting. I am going to go back and perhaps your 
associate would wish to deal with this.
    Some believe the science-based Stockpile Stewardship 
Program is an alternative to testing. In many ways, it has been 
portrayed that way before Congress. Is it simply a tool to 
assist the certification of the safety, security, and 
reliability of our nuclear stockpile? In fact, the program may 
provide information which would lead to testing. Do you agree 
with that?
    Dr. Beckner. Well, let us see.
    Senator Warner. Will that lead to a conclusion, I should 
say, that we need to resume testing?
    Dr. Beckner. That certainly could be the case. We use the 
program to evaluate all aspects of our understanding of nuclear 
weapons.
    In some cases, it leads you towards a resolution of 
problems. In some cases, it leads you to new problems. I think, 
as we stand here today, it is impossible to know at any time 
which way these things will go.
    What we are trying to do is to have a set of tools and a 
set of skilled people and a program structure which allows us 
to fully evaluate the situation at all times, so that we can 
assure the safety and reliability of the stockpile.
    It could lead us to testing. In fact, I would say you would 
not return to testing without a lot of evidence.
    Senator Warner. Yes, I think you want to say can lead us to 
the resumption of live testing. Is that not what you meant?
    Dr. Beckner. Yes, it is.
    Senator Warner. Because when you say continued testing, we 
are testing in a whole lot of ways, but this is not a popular 
subject. It is not easy to pose the questions nor to answer 
them, but the fact of the matter is the world looks to this 
Nation to be a leader in this area. We cannot ever allow the 
misconception that we no longer put full faith and credit in 
first, the deterrent capability of our stockpile of weapons, 
and then second, if ever a President had to make the decision 
to use it, that it would be effective.
    Dr. Beckner. Certainly.
    Secretary Abraham. Certainly.
    Senator Warner. I will put further questions into the 
record, Mr. Chairman. We have had a good hearing.
    Chairman Levin. I was just interested in your finishing 
that thought about how you would not recommend or be at a point 
where we would have to consider resumption of testing without 
evidence.
    Dr. Beckner. Let us see. We are responsible for making 
recommendations to the President, and to make such a 
recommendation, I would say we would require a very large 
amount of evidence. The details as to how you would arrive at 
that conclusion right now, I cannot walk those steps.
    Chairman Levin. Thank you.
    Dr. Beckner. But I do know that it would be a very grave 
and serious matter, and certainly not one we presently are 
contemplating. We just have to have that as one of the 
contingencies against which we plan.
    Chairman Levin. All set?
    Senator Warner. Yes. I think we have had a very good 
hearing, Mr. Chairman.
    Chairman Levin. Yes. Secretary Abraham, it is always good 
to see you.
    Secretary Abraham. Thank you.
    Chairman Levin. Thank you for very good, helpful testimony.
    We stand in recess.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                             PRICE-ANDERSON

    1. Senator Levin. Secretary Abraham, without Price-Anderson 
authority will DOE be able to sign any new site operating contracts?
    Secretary Abraham. Probably not, because of a lack of a contracting 
partner. In the absence of Price-Anderson indemnity authority, it is 
unlikely that any non-governmental entity (i.e., a contractor) would 
sign any new site operating contracts under which the contractor would 
have responsibility for the handling of nuclear materials.

    2. Senator Levin. Secretary Abraham, while existing contractors do 
not lose their Price-Anderson coverage when the authority expires, do 
these prime contractors lose the ability to provide Price-Anderson 
coverage to new subcontractors?
    Secretary Abraham. The Department's Price-Anderson authorization 
and implementing contract clause \1\ contains no restrictions on the 
ability of a prime contractor to flow down indemnification to its 
subcontractors. Under the definitions provided at 42 U.S.C. Sec. 2014,
---------------------------------------------------------------------------
    \1\See 48 C.F.R. (DEAR) 952.250-1.

        ``The term `person indemnified' means . . . the person with 
        whom an indemnity agreement is executed or who is required to 
        maintain financial protection, and any other person who may be 
        liable for public liability, or . . . any other person who may 
        be liable for public liability by reason of his activities 
        under any contract with the Secretary of Energy or any project 
        to which indemnification under the provisions of section 170 
        d., has been extended or under any subcontract, purchase order, 
        or other agreement, of any tier, under any such contract or 
---------------------------------------------------------------------------
        project.''

    A subcontractor has Price-Anderson indemnification if its 
subcontract is ``under'' a contract or project to which Price-Anderson 
indemnification has been extended. Once the prime contractor's contract 
and, consequently, indemnification expire, the subcontractor's 
indemnification also expires, even if its contract continues with a 
follow-on contractor. Alternatively, as long as the prime contractor 
has Price-Anderson indemnification, even after expiration of the 
statutory authority, new subcontractors under that indemnified contract 
would, in our view, also be indemnified until that contract ended.

    3. Senator Levin. Secretary Abraham, what will the Department do if 
Price-Anderson authorities expire? Many contractors believe that the 
limited authority the DOE has under statutory authorities other than 
Price-Anderson does not provide adequate coverage. Will the Department 
be able to assure contractors bidding on new contracts that they will 
have Price-Anderson coverage?
    Secretary Abraham. The Department has used its authority under 
Public Law 85-804 to indemnify its contractors for claims arising from 
unusually hazardous or nuclear risks related to national defense 
activities in limited situations where Price-Anderson Act 
indemnification is unavailable or inapplicable.\2\ If the Department's 
Price-Anderson authority were to expire without renewal or extension, 
the Department likely would use its more limited Public Law 85-804 
authority where possible. That authority would not be adequate to cover 
all contractors and all circumstances covered by Price-Anderson, and it 
would not contain the assurances of prompt public protection that 
Price-Anderson affords. The Department could not assure bidders on new 
contracts that they would receive Price-Anderson coverage if Congress 
had not acted to extend the act at the time of the contract 
solicitation.
---------------------------------------------------------------------------
    \2\ National Defense Contracts Act, Public Law 85-804, 50 U.S.C. 
Sec. Sec. 1431-1435, implemented by Executive Order 10789, 3 C.F.R. 
Sec. 426 (1954-1958), and Federal Acquisition Regulation (FAR), 48 
C.F.R. Part 50 and Sec. 52.250-1.

    4. Senator Levin. Secretary Abraham, it appears that DOE is 
starting an effort to renegotiate or compete some of its existing 
operating contracts at environmental sites sooner than normal, and in 
some situations years before the contracts would otherwise expire. 
Without Price-Anderson authority will DOE be able to continue with this 
strategy?
    Secretary Abraham. If the Department's Price-Anderson authority is 
not renewed or extended before August 2002, the Department may have to 
re-evaluate some of its planned procurement actions and strategies. 
Termination of existing contracts in favor of a renegotiated or 
competed contract may have to be postponed pending renewal or extension 
of the Department's Price-Anderson indemnification authority.

    5. Senator Levin. Secretary Abraham, if the DOE enters into new 
contracts before the old contracts expire, and, thus, has to terminate 
existing contracts early, will the cost of termination exceed or equal 
any costs savings achieved in the new contracts?
    Secretary Abraham. The Department plans to use contracts that will 
afford powerful incentives for both cost savings and early completion 
of closure activities. Under the terms of the Federal Acquisition 
Regulation termination clause, \3\ the Government will incur the normal 
costs associated with termination for convenience.
---------------------------------------------------------------------------
    \3\ See 40 C.F.R. (FAR) 52.249-6, Termination (Cost Reimbursement).

    6. Senator Levin. Secretary Abraham, will there be any increased 
costs without Price-Anderson authorities if contracts are terminated 
early?
    Secretary Abraham. It is unlikely that such costs would exceed the 
normal costs of performing the contract or otherwise affect the 
effectiveness or efficiency of the follow-on contracts. In the event 
the Price-Anderson indemnification authorization has not yet been 
renewed or extended, and alternative indemnification under Public Law 
85-804 is not available or acceptable, it may be necessary for the 
Department to reconsider its approach to restructuring certain existing 
contracts.


        PROHIBITION ON DEVELOPMENT OF LOW YIELD NUCLEAR WEAPONS

    7. Senator Levin. Secretary Abraham, is the DOE complying with 
section 3136 of the National Defense Authorization Act for Fiscal Year 
1994 that prohibits the Secretary of Energy from conducting or 
providing ``for the conduct of, research and development which could 
lead to the production by the United States of a low yield nuclear 
weapon which, as of the date of enactment of this act, (October 1993) 
has not entered production?'' (Low yield nuclear weapons are defined as 
having a yield of less than 5 kilotons.)
    Secretary Abraham. The Department is in full compliance with 
section 3136 of the Fiscal Year 1994 National Defense Authorization 
Act. The Robust Nuclear Earth Penetrator feasibility study that the 
NNSA plans to undertake involves the potential modification of either 
the B61 or B83, both of which are existing warheads.
    The Nuclear Weapons Council voted in November 2001 to authorize the 
Air Force to lead a Phase 6.2/6.2A feasibility study, DOE participation 
was requested in January 2002.

                          ANNUAL CERTIFICATION

    8. Senator Levin. Secretary Abraham, there is an annual process to 
certify that the nuclear weapons stockpile is safe and reliable. This 
process involves the Secretaries of Defense and Energy, the three DOE 
weapons laboratory directors, and the Commander in Chief of the 
Strategic Command. The 2001 annual certification is late. When will the 
certification be made?
    Secretary Abraham. The certification of the safety, security, and 
reliability of the nuclear weapons stockpile is my greatest 
responsibility. Prior to my signature on the memo to the President, I 
reviewed the state of the stockpile in detail with the NNSA 
Administrator and his staff as well as the three laboratory directors. 
I signed the memo to the President on March 20, 2002. The materials are 
now at the Department of Defense for the Secretary of Defense to sign 
and transmit the package to the President.

    9. Senator Levin. Secretary Abraham, does the fact that the 
certification is late signify any problem with the stockpile?
    Secretary Abraham. No, the report being late is not indicative of 
any issues with the stockpile. Last year's report was not delivered to 
Congress until May 23, 2001.

                                SECURITY

    10. Senator Levin. Secretary Abraham, are all the additional 
security costs identified following September 11 fully funded in the 
fiscal year 2003 budget request?
    Secretary Abraham. Since September 11, the Department has received 
$122 million in emergency response funding to meet heightened security 
requirements, including $117 million this fiscal year. Also, the 
administration has requested an additional $26.4 million in fiscal year 
2002 supplemental funding for Nuclear Weapons Incident Response and 
Energy Security and Assurance, and I fully support this level as 
adequate. Like other agencies, such as the Corps of Engineers, the 
Environmental Protection Agency, and the Department of the Interior, 
the DOE is assessing the long-term vulnerability of important public 
facilities. As completed, these assessments will be reviewed in the 
context of the Nation's overall vulnerabilities and appropriate 
resources will be requested at the appropriate time.
                                 ______
                                 
               Questions Submitted by Senator John Warner

                  SCIENCE-BASED STOCKPILE STEWARDSHIP

    11. Senator Warner. Secretary Abraham, are we adequately funding 
the key weapons programs activities, namely the directed stockpile work 
and the science-based campaigns?
    Secretary Abraham. The President's fiscal year 2003 budget reflects 
a careful balance between our directed stockpile work and the science 
campaigns. The fiscal year 2003 request in directed stockpile work will 
allow the NNSA to maintain and refurbish the W80, W76, W87, and B61 
weapon systems that will compose a significant portion of the enduring 
nuclear deterrent of the United States. The President's fiscal year 
2003 budget request for our science campaigns will ensure that we have 
the necessary science and engineering tools needed to support the 
nuclear deterrent now and into the future without underground nuclear 
testing.

    12. Senator Warner. Secretary Abraham, has the Department of Energy 
properly allocated the funds to these programs, considering that the 
DOE spends almost twice as much on the science-based research as 
compared to the directed stockpile work?
    Secretary Abraham. The President's fiscal year 2003 budget reflects 
a careful balance between our directed stockpile work and the science 
campaigns. The President's budget for fiscal year 2003 requests an 18 
percent increase for directed stockpile work. This increase in funding 
will allow the NNSA to proceed with the stockpile life extension work 
on the W80, W76, W87, and B61 as approved by the Nuclear Weapons 
Council and validated by the Nuclear Posture Review.
    Campaigns support the development of the advanced experimental and 
computational tools needed to support the long term certification and 
life extension of the stockpile. The fiscal year 2003 budget requests 
for the science campaigns and the high energy density physics campaign 
are respectively 11.4 and 10.6 percent lower than their fiscal year 
2002 appropriated levels. These reductions reflect reduced funding 
required for the construction of the National Ignition Facility and 
priority shifts we have made to ensure the appropriate level of support 
for the directed stockpile work.
    Requests for the engineering and the readiness campaigns are 
increased by 7.9 and 13.8 percent respectively from their fiscal year 
2002 appropriated levels. The increase in the readiness campaigns 
directly contribute to the directed stockpile work by providing all the 
up-to-date processing, machining, and inspection equipment needed at Y-
12 for the stockpile life extension work. Some of the technologies 
developed as part of the engineering campaign will support neutron 
generator qualification and the W76 life extension program work.
                                 ______
                                 
             Questions submitted by Senator Strom Thurmond

          INFRASTRUCTURE PLAN FOR THE NUCLEAR WEAPONS COMPLEX

    13. Senator Thurmond. Secretary Abraham, Section 3008 of the 
National Defense Authorization Act for Fiscal Year 2002 requires the 
Secretary of Energy to prepare an infrastructure plan for the Nation's 
nuclear weapons complex. Although the report is not due for some time, 
what is your current assessment of the adequacy of the complex to 
support the current and future nuclear stockpile requirements?
    Secretary Abraham. Our nuclear weapons complex is very old, and in 
most cases, far below industry standards in areas of environment, 
safety, and health. The complex must be upgraded to ensure that the 
stockpile can be maintained in the outyears. Congress has provided $200 
million in fiscal year 2002 to start a multiyear, multi-billion dollar 
effort to begin a facilities and infrastructure recapitalization 
program. I believe with continued congressional support for this 
program and the other investments we have in the tools and facilities 
necessary for our Stockpile Stewardship Program, we should be able to 
recruit and retain the next generation of scientists and engineers who 
will be responsible for ensuring the safety, security, and reliability 
of our nuclear weapons without the need to return to underground 
nuclear testing.

                     INSTALLATION MEASUREMENT TOOLS

    14. Senator Thurmond. Secretary Abraham, the Department of Defense 
uses the Installation Status Report to identify the condition of its 
facilities. What are the Department of Energy's installation 
measurement tools?
    Secretary Abraham. In 1998, DOE adopted the Facility Condition 
Index (FCI) as its tool for measuring the condition of its facilities. 
The FCI was first articulated in the 1991 publication ``Managing the 
Facilities Portfolio--A Practical Approach to Institutional Facility 
Renewal and Deferred Maintenance,'' by the National Association of 
College and University Business Officers, and was developed by Coopers 
& Lybrand and Applied Management Engineering. It was considered in 
1998, and still is considered by DOE Federal Maintenance Managers, to 
provide the best and most reliably applied metric for assessing 
facility condition.
    The FCI is the ratio of the cost of deficiencies of a single 
facility or group of facilities to the facility's replacement plant 
value. The cost of deficiencies is the total dollar amount of existing 
maintenance and repair deficiencies obtained from a condition 
assessment inspection.
    Additionally, the Department of Energy collects annual required, 
actual, and deferred maintenance costs on a facility-by-facility basis 
in its corporate database, the Facilities Information Management 
System. The annual required maintenance cost identifies maintenance 
needs based on engineering/maintenance analysis independent of budget 
considerations. The annual actual maintenance cost captures all 
maintenance activities occurring during the current fiscal year. 
Deferred maintenance data is required for all Federal agencies by the 
Statement of Federal Financial Accounting Standard No. 6, and is 
reported in DOE's Annual Financial Statement. All the data referenced 
above is readily available to managers and can be used to track and 
trend maintenance activities and drive maintenance/facilities budgets 
and priorities.

                            SERVICE CENTERS

    15. Senator Thurmond. Secretary Abraham, the Department of Energy 
plans to eliminate a layer of management and oversight by establishing 
eight site offices collocated with the eight NNSA contractors. How will 
these eight offices differ from the field offices that the Department 
previously used to manage operations?
    Secretary Abraham. Each NNSA site office will have primary 
responsibility for day-to-day program and contract administration for 
its assigned facility. These duties include agreeing to the overall 
safety and security parameters within which the contractor is 
authorized to operate.
    Site office managers for their respective laboratories, production 
plants, and test site will have the additional responsibility of 
integrating NNSA activities at these sites with customers from other 
elements of the Department of Energy such as the environmental 
management and science programs, from other Federal agencies such as 
DOD, and from the private sector.
    The primary difference between the new NNSA site offices and the 
previous Federal offices located at these facilities is that the 
Federal manager in the new office will have full contracting authority 
for these facilities and will be expected to expeditiously resolve 
issues raised by the facilities manager or NNSA program officials. He 
or she will not be required to obtain concurrence from an intermediate 
``headquarters'' organization such as an operations office.

                   RECRUITING AND RETAINING EMPLOYEES

    16. Senator Thurmond. Secretary Abraham, you testified that the 
Department of Energy is aggressively implementing a program to retain 
highly-skilled employees, retain employees with skills mismatches, and 
recruit those with the right technical skills. What programs does the 
Department have to recruit graduate students who will be the seed corn 
for developing and maintaining the U.S. nuclear weapons technology?
    Secretary Abraham. All of the National Nuclear Security 
Administration weapons program contractors have programs to recruit 
critical skilled employees from undergraduate and graduate-level 
student populations at our major colleges and universities and regional 
schools. Several have developed strategic relationships with selected 
universities, and they sponsor student programs aimed at building 
critical skills to match their needs as defined though their workforce 
planning. Our three weapons laboratories employ large numbers of 
postdoctoral research appointees who support on going research and 
become excellent candidates for future employment.

    17. Senator Thurmond. Secretary Abraham, in its recruiting efforts 
does the Department of Energy face the same anti-military sentiments on 
some university campuses as the Department of Defense?
    Secretary Abraham. Our contractors report that, with some limited 
exceptions, they have not been confronted with any expressed anti-
military sentiments on any of the university campuses. Individual 
candidates have expressed negative views of the weapons program, or a 
preference for doing non-weapons work at a laboratory. One contractor 
reported that since the September 11, 2001, terrorist attacks, their 
recruiters have experienced an increased sense of patriotism and a 
desire by candidates to work on national security issues.

                          MODERN PIT FACILITY

    18. Senator Thurmond. Secretary Abraham, last year this committee 
expressed great concern about the lack of progress being made with 
regard to a Modern Pit Facility (MPF). The Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile, the Foster Panel, provided striking evidence that we must 
take aggressive action in this regard. In fact, in both the 1999 and 
2000 reports of the Foster Panel, the most significant recommendation 
was that the United States must ``immediately begin conceptual design 
of an adequate pit production facility.'' In response to this 
compelling evidence, the committee included in the report accompanying 
the Fiscal Year 2002 National Defense Authorization Act the following 
guidance:
    ``The committee notes the panel's estimate that it will take 10 or 
more years to build an adequate pit production facility.'' Furthermore, 
the committee recommended ``an additional $10 million be available to 
select an architect-engineering organization to begin the conceptual 
design and report process, in order to keep the new pit production 
facility on schedule.'' Unfortunately, your fiscal year 2003 budget 
calls for the design of this facility to be ``deferred until fiscal 
year 2004 with the fiscal year 2003 funding used to continue 
manufacturing concepts.'' Do you disagree with the findings of the 
Foster Panel with regard to a MPF?
    Secretary Abraham. We believe the approach being taken on the MPF 
is a prudent one. The NNSA approach also has the endorsement of the 
Nuclear Weapons Council.
    NNSA is currently taking steps to proceed with an MPF including 
formal approval of mission need, Critical Decision-0 (CD-0), which is 
required to start conceptual design of an MPF. Following CD-0 approval 
by the Department in the spring of 2002, the NNSA will initiate a 
National Environmental Policy Act (NEPA) process to obtain a formal 
Record of Decision that is required to both select a site for an MPF 
and to proceed with a detailed facility design after completing 
conceptual design. The NNSA will expedite the NEPA process while 
simultaneously developing technology required to evaluate alternative 
conceptual designs for an MPF.

    19. Senator Thurmond. Secretary Abraham, 2 years ago, the Senate 
Armed Services Committee included $11 million for the conceptual design 
of the Modern Pit Facility. The DOE responded by including $4 million 
for ``pre-conceptual'' design work. The committee obviously felt that 
this was insufficient and included the additional language mentioned 
previously, as well as $10 million to select an architect-engineering 
organization to begin conceptual design and the report process for an 
MPF. This year DOE has ``deferred'' the design of the MPF. Do you 
believe the Senate Armed Services Committee is misguided in funding the 
immediate conceptual design of an MPF?
    Secretary Abraham. Although the Senate Armed Services Committee 
recommended an additional $10 million in fiscal year 2002 for the MPF, 
only $4 million was provided through appropriations. Based on this $4 
million funding level and consistent with direction provided by the 
Senate Armed Services Committee, the NNSA has completed pre-conceptual 
planning activities and is prepared to start conceptual design of an 
MPF following approval (spring 2002) of Critical Decision-0 mission 
need.

    20. Senator Thurmond. Secretary Abraham, last year, Mr. Stephen 
Guidice, of the Panel to Assess the Reliability, Safety, and Security 
of the United States Nuclear Stockpile, testified before the Strategic 
Subcommittee of the Senate Armed Services Committee on March 19, 2001. 
In that testimony, Dr. Guidice stated that:
    ``It will take 10 to 15 years to build a Modern Pit Facility to do 
this on whatever scale you choose. So our feeling was you need to get 
on with the conceptual design of what this plant is going to look like, 
and a lot of good work could be done at fairly low expense prior to 
final design of that plant before you get to high recourse levels of 
investment.''
    Do you disagree with this statement?
    Secretary Abraham. Pre-conceptual planning for a MPF was started in 
fiscal year 2001, consistent with the statement by Mr. Guidice. NNSA is 
currently taking steps to proceed with MPF conceptual design after 
formal approval of mission need, CD-0 in the spring of 2002. Following 
CD-0, the NNSA will initiate a NEPA process required to obtain a formal 
record of decision to both select a site for an MPF and proceed with 
more detailed facility design. To accelerate design, the NNSA will 
expedite the NEPA process while simultaneously developing technology to 
assure the robustness of a future facility designs and evaluating 
conceptual design alternatives for the facility.

    21. Senator Thurmond. Secretary Abraham, General Gordon highlighted 
the concerns of the committee with regard to an MPF in his recent 
testimony before the committee, stating:
    ``The Los Alamos production capacity will be insufficient to meet 
future requirements for pits. As a result of the NPR, we seek to 
accelerate planning and initial design work to establish an MPF. 
Relevant activities about to begin include the preliminary MPF design, 
associated technology development, and the initiation of the National 
Environmental Policy Act process.''
    How do you propose to accelerate the design of the MPF when the DOE 
has again deferred the conceptual design?
    Secretary Abraham. NNSA is currently taking steps to complete 
formal approval of mission need, CD-0, which is required to start 
conceptual design. Following CD-0 approval in the spring of 2002, the 
NNSA will initiate a NEPA process required to obtain a formal Record of 
Decision to both select a site for a Modern Pit Facility and to proceed 
with a detailed facility design. To accelerate design, the NNSA will 
expedite the NEPA process while simultaneously developing technology to 
evaluate conceptual design alternatives for the facility.

    22. Senator Thurmond. Secretary Abraham, in 1996 the DOE called for 
developing a contingency plan to establish a large scale pit 
manufacturing facility within 5 years. Does your research on the 
deterioration of nuclear components support your decision to delay the 
1996 plan?
    Secretary Abraham. Research to date on plutonium aging and pit 
lifetimes do not show significant deterioration that raises concern 
about the safety, security and reliability of the Nation's nuclear 
deterrent. The weapons laboratories are continuing to conduct 
experiments at the laboratories and the Nevada Test Site to further 
improve our understanding of the lifetime of nuclear components such as 
pits. At the same time the NNSA is proceeding, on a prudent pace, 
supported by the Nuclear Weapons Council, with plans to develop a MPF 
that will meet the needs of the nuclear weapons stockpile.

                    WEAPONS COMPONENT DETERIORATION

    23. Senator Thurmond. Secretary Abraham, do you have new evidence 
contradicting the concerns of the Foster Panel with regard to the 
``worrisome signs of deterioration in some nuclear components?''
    Secretary Abraham. NNSA is aggressively monitoring the aging 
phenomenon through the core surveillance program and enhanced 
surveillance campaign. Plans are in place to closely monitor component 
performance and to increase the use of new diagnostic tools to aid in 
the understanding of the aging phenomenon. Under the core surveillance 
program, multiple weapons each year are disassembled, inspected, and 
subjected to multiple-test activities, including both laboratory and 
flight testing in order to verify safety and reliability. Component 
Evaluation Program Plan Committees have been formed for some of the 
critical components to optimize the surveillance testing of these 
components. The Enhanced Surveillance Program performs lifetime 
assessments on the components and develops diagnostic tools for better 
detection of degradation due to aging.
    A refurbishment program to replace some of the components of the 
weapons systems that have higher risk to safety or reliability has been 
instituted. These life extension programs (LEPs) have extremely high 
priority and management attention at NNSA, the design laboratories, and 
the production plants. As a direct result of input from the 
Surveillance Program and the Enhanced Surveillance Campaign, the 
strategy and tactics for the LEP implementation have been focused to 
address the concerns of an aging stockpile.

                 MIXED-OXIDE FUEL FABRICATION FACILITY

    24. Senator Thurmond. Secretary Abraham, last year you assured me 
that the Mixed-Oxide (MOX) plant was your top nonproliferation 
priority. Thank you for all you have with regard to moving this program 
forward. However, there are still a few matters that need to be 
resolved in order to guarantee the success of the program. 
Specifically, I have been informed that you are currently negotiating 
with the Governor of South Carolina to achieve a mutually satisfactory 
agreement for the DOE and South Carolina. While a number of my 
colleagues addressed this matter at today's hearing, it is my 
understanding that this agreement may require legislation. Would you 
please provide suggested legislative language, and could you 
accommodate this request immediately?
    Secretary Abraham. I believe the legislation you have introduced is 
more than adequate to address all of the concerns the State of South 
Carolina has raised regarding the Plutonium Disposition program and is 
acceptable to the administration. We hope that the Governor would join 
his own delegation in Congress and work to pass this legislation and 
withdraw his unnecessary lawsuit.

    NUCLEAR REGULATORY COMMISSION APPROVAL OF THE LEAD TEST ASSEMBLY

    25. Senator Thurmond. Secretary Abraham, you are no doubt aware 
that a MOX lead test assembly (LTA) program is needed before the NRC 
will approve the use of significant quantities of MOX fuel. The initial 
plan for the fabrication of these units--fabrication at LANL--was 
terminated by the DOE in May 2000, reportedly due to cost and schedule 
concerns. I have been informed that there is a possibility that there 
may be a lag between the MOX fabrication facility startup and large 
scale use of MOX. The potential startup delays would mean that large 
scale use of MOX fuel would not begin until 2012, 2013, or later. 
Consequently, the lag between MOX Fuel Fabrication Facility and full 
production requires maintaining the facility with no production for a 
number of years, a cost impact to the taxpayer of potentially $200 
million. Can you detail the current plan as well as the schedule of 
that plan?
    Secretary Abraham. The options for fabrication of MOX lead 
assemblies are still under consideration. One option the Department is 
currently examining is the early fabrication of MOX lead assemblies in 
Europe. The Department is meeting with European government officials to 
determine the necessary measures to pursue this option. Detailed plans 
will be developed if an agreement can be reached by all parties.
    If successful, lead assemblies will be fabricated and irradiated 
before the completion of the MOX Fuel Fabrication Facility, and the 
Department's contractor, DCS, should be able to obtain Nuclear 
Regulatory Commission approval for large-scale use of MOX fuel in the 
Duke energy reactors on the desired schedule.

    26. Senator Thurmond. Secretary Abraham, can you assure me that 
there will be no delay due to LTA approval delays?
    Secretary Abraham. I am optimistic that there will be no 
significant delays in Nuclear Regulatory Commission approval of the 
lead assemblies. However, it is simply not possible to guarantee that 
there will be no delays as the Nuclear Regulatory Commission exercises 
its statutory responsibilities to confirm the safety of the use of lead 
assemblies in licensed reactors.

                      DOE MANAGER FOR MOX FUEL LTA

    27. Senator Thurmond. Secretary Abraham, I believe it would be 
helpful and assuring to have a DOE manager to take charge of the MOX 
fuel LTA project on a full time basis to perform DOE activities, 
coordinate interagency activities, such as Department of State, 
Department of Defense, etc., as well as oversee contractor activities. 
I also believe a full-time manager could open and maintain dialog 
between the United States, France, and Belgium, initiate National 
Environmental Policy Act activities, and prepare an export license 
application to the Nuclear Regulatory Commission. Do you believe these 
activities could be better managed by a full time manager, and would 
you support creating such a position?
    Secretary Abraham. The Department has assigned a full-time 
engineering manager at headquarters with the primary responsibility for 
lead assembly activities. One of the priorities for this position 
involves coordinating lead assembly activities and maintaining 
communication between the various agencies and contractors involved in 
this effort.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

       SHIPPING OF PLUTONIUM AND OTHER SPECIAL NUCLEAR MATERIALS

    28. Senator Allard. Secretary Abraham, the National Nuclear 
Security Administration has responsibility for shipping many of the 
Environmental Management (EM) waste types including surplus plutonium. 
With the closure of sites like Rocky Flats and the proposed 
acceleration of cleanup at the four major EM sites, it is very 
important that the shipping of these wastes occurs on schedule. Delays 
in shipments may delay the closure of some of the EM sites creating 
increased costs and possible fines to the DOE for missing milestones. 
On the other hand, we don't want to delay shipments within the weapons 
program either, especially as the stockpile life extension program gets 
into full swing over the next several years. Can we be assured that the 
NNSA will keep the shipping of plutonium and other special nuclear 
materials from EM sites on schedule?
    Secretary Abraham. The NNSA and the Department's Office of 
Environmental Management are working together to develop shipping 
schedules that meet the requirements of both organizations. NNSA stands 
ready to support removal of materials from EM sites when the sites are 
prepared to ship and the receiver sites are available to accept the 
materials. The NNSA is conducting an in-depth review of the forecast 
and potential future requirements of the Secure Transportation Asset, 
developing strategies, and identifying resources required to meet both 
the short- and long-term mission requirements.

    29. Senator Allard. Secretary Abraham, has the NNSA prepared a 
realistic plan to keep up with the anticipated schedule of shipments 
within both Defense Programs and Environmental Management during the 
next several years?
    Secretary Abraham. The NNSA is updating it's shipping requirements 
and capacity model for the Secure Transportation Asset with the latest 
planned and potential requirements through fiscal year 2008. The NNSA 
is utilizing this model as the basis for developing strategies and 
resource requirements to make the necessary adjustments to meet all 
mission requirements.

       NEED FOR SIGNIFICANT FINDING INVESTIGATION TRACKING SYSTEM

    30. Senator Allard. Secretary Abraham, in a December 2001 report, 
the DOE Inspector General expresses his concern that the DOE has 
frequently failed to meet their internally established time frame for 
initiating and conducting investigations of nuclear weapon defects and 
malfunctions. One problem explained by the Inspector General was that 
there was no central manager or tracking system of the investigative 
process. If a notification of a weapon defect or malfunction was sent 
(often by e-mail), there was no disciplined plan for how the message 
recipient should respond or what happens to the request if it is 
forwarded on to others. At any point in the investigation, there is no 
central person who knows where or by whom in the process the defect or 
malfunction is being examined. This lack of discipline leads to lack of 
accountability and delays. In response to concerns raised by the 
Inspector General about the delays in the Significant Finding 
Investigation process, should the NNSA incorporate a central tracking 
system to make sure a weapon defect or malfunction is forwarded with 
adequate notification and, if necessary, conduct an investigation of 
the weapons surveillance program?
    Secretary Abraham. In line with the Inspector General 
recommendations, NNSA has directed the Sandia National Laboratories 
(SNL) to modify the Significant Finding Investigation (SFI) database to 
include: defect and malfunction discovery date, Significant Finding 
Notification (SFN) and SFI determination dates, expected closure date 
(when known), report date, expected impact, and any other information 
deemed necessary to manage the process. Also, direction has been given 
to all testing agencies to provide all pertinent SFN information to SNL 
for inclusion in the database. NNSA has directed SNL to be the agent 
for NNSA for SFI data. These modifications will allow NNSA to better 
track SFIs.
    In addition, all SFIs are reported on a monthly basis via the 
monthly SFI report. Again, in line with the Inspector General 
recommendations, we are actively reformatting the monthly report to 
include ``stoplight'' tables, 6-month action plans, explanations of 
unexpected delays, steps planned to resolve those delays, and expected 
closure dates, when known, for all SFIs over 1 year old. Implementation 
of these changes is expected in the July 2002 monthly report.

    [Whereupon, at 11:45 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
